<html>
<title> - NOMINATIONS OF THE 112TH CONGRESS—SECOND SESSION</title>
<body><pre>[Senate Hearing 112-735]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-735

 
           NOMINATIONS OF THE 112TH CONGRESS--SECOND SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS



                             SECOND SESSION



                               ----------                              

                  FEBRUARY 7 THROUGH NOVEMBER 28, 2012

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                                        S. Hrg. 112-735


           NOMINATIONS OF THE 112TH CONGRESS--SECOND SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS



                             SECOND SESSION



                               __________

                  FEBRUARY 7 THROUGH NOVEMBER 28, 2012

                               __________



       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
79-797                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS          
                112th CONGRESS--SECOND SESSION          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
             William C. Danvers, Staff Director            
        Kenneth A. Myers, Jr., Republican Staff Director        

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              
                                                                   Page

Tuesday, February 7, 2012 (a.m.).................................     1

Hon. Larry L. Palmer, of Georgia, to be Ambassador to Barbados, 
  St. Kitts and Nevis, St. Lucia, Antigua and Barbuda, the 
  Commonwealth of Dominica, Grenada, and St. Vincent and the 
  Grenadines.....................................................     6
Hon. Phyllis M. Powers, of Virginia, to be Ambassador to the 
  Republic of Nicaragua..........................................     9
Jonathan D. Farrar, of California, to be Ambassador to the 
  Republic of Panama.............................................    11
Julissa Reynoso, of New York, to be Ambassador to the Oriental 
  Republic of Uruguay............................................    14
                                 ------                                
Tuesday, February 7, 2012 (p.m.).................................    35

Hon. Nancy J. Powell, of Iowa, to be Ambassador to India.........    40
                                 ------                                
Tuesday, March 13, 2012..........................................    65

Hon. Frederick D. Barton, of Maine, to be an Assistant Secretary 
  of State (Conflict and Stabilization Operations) and to be 
  Coordinator for Reconstruction and Stabilization...............    67
Hon. William E. Todd, of Virginia, to be Ambassador to the 
  Kingdom of Cambodia............................................    69
Sara Margalit Aviel, of California, to be United States Alternate 
  Executive Director of the International Bank for Reconstruction 
  and Development................................................    72
                                 ------                                
Wednesday, March 14, 2012........................................   113

Hon. Pamela A. White, of Maine, to be Ambassador to the Republic 
  of Haiti.......................................................   121
Hon. Linda Thomas-Greenfield, of Louisiana, to be Director 
  General of the Foreign Service.................................   125
Gina K. Abercrombie-Winstanley, of Ohio, to be Ambassador to the 
  Republic of Malta..............................................   128
                                 ------                                
Tuesday, March 20, 2012..........................................   147

Jacob Walles, of Delaware, to be Ambassador to the Tunisian 
  Republic.......................................................   152
John Christopher Stevens, of California, to be Ambassador to 
  Libya..........................................................   155
Hon. Carlos Pascual, of the District of Columbia, to be an 
  Assistant Secretary of State (Energy Resources)................   157
                                 ------                                
Wednesday, March 21, 2012........................................   185

Hon. Tracey Ann Jacobson, of the District of Columbia, to be 
  Ambassador to the Republic of Kosovo...........................   187
Hon. Richard B. Norland, of Iowa, to be Ambassador to Georgia....   191
Hon. Kenneth Merten, of Virginia, to be Ambassador to the 
  Republic of Croatia............................................   193
Mark A. Pekala, of Maryland, to be Ambassador to the Republic of 
  Latvia.........................................................   196
Jeffrey D. Levine, of California, to be Ambassador to the 
  Republic of Estonia............................................   199
                                 ------                                
Thursday, March 22, 2012.........................................   221

Hon. Scott DeLisi, of Minnesota, to be Ambassador to the Republic 
  of Uganda......................................................   225
Makila James, of the District of Columbia, to be Ambassador to 
  the Kingdom of Swaziland.......................................   227
Michael Raynor, of Maryland, to be Ambassador to the Republic of 
  Benin..........................................................   231
                                 ------                                
Wednesday, May 16, 2012..........................................   253

Piper Anne Wind Campbell, of the District of Columbia, to be 
  Ambassador to Mongolia.........................................   257
Hon. Peter William Bodde, of Maryland, to be Ambassador to the 
  Federal Democratic Republic of Nepal...........................   261
Dorothea-Maria Rosen, of California, to be Ambassador to the 
  Federated States of Micronesia.................................   265
                                 ------                                
Thursday, May 17, 2012...........................................   277

David J. Lane, of Florida, to serve as U.S. Representative to the 
  United Nations Agencies for Food and Agriculture, with the rank 
  of Ambassador..................................................   281
Edward M. Alford, of Virginia, to be Ambassador to the Republic 
  of The Gambia..................................................   285
Mark L. Asquino, of the District of Columbia, to be Ambassador to 
  the Republic of Equatorial Guinea..............................   287
Douglas M. Griffiths, of Texas, to be Ambassador to the Republic 
  of Mozambique..................................................   290
                                 ------                                
Wednesday, June 6, 2012..........................................   309

Hon. Michele Jeanne Sison, of Maryland, to be Ambassador to the 
  Democratic Socialist Republic of Sri Lanka and to serve 
  concurrently as Ambassador to the Republic of Maldives.........   313
Brett H. McGurk, of Connecticut, to be Ambassador to the Republic 
  of Iraq........................................................   315
Susan Marsh Elliott, of Florida, to be Ambassador to the Republic 
  of Tajikistan..................................................   324
                                 ------                                
Wednesday, June 13, 2012.........................................   365

Hon. Richard L. Morningstar, of Massachusetts, to be Ambassador 
  to the Republic of Azerbaijan..................................   370
Jay Nicholas Anania, of Maryland, to be Ambassador to the 
  Republic of Suriname...........................................   373
Timothy M. Broas, of Maryland, to be Ambassador to the Kingdom of 
  the Netherlands................................................   376
                                 ------                                
Wednesday, June 27, 2012.........................................   405

Hon. Derek J. Mitchell, of Connecticut, to be Ambassador to the 
  Union of Burma.................................................   410
                                 ------                                
Thursday, July 12, 2012..........................................   437

Hon. Gene Allan Cretz, of New York, to be Ambassador to the 
  Republic of Ghana..............................................   440
Deborah Ruth Malac, of Virginia, to be Ambassador to the Republic 
  of Liberia.....................................................   443
David Bruce Wharton, of Virginia, to be Ambassador to the 
  Republic of Zimbabwe...........................................   446
Alexander Mark Laskaris, of Maryland, to be Ambassador to the 
  Republic of Guinea.............................................   449
                                 ------                                
Wednesday, July 18, 2012.........................................   461

Greta Christine Holtz, of Maryland, to be Ambassador to the 
  Sultanate of Oman..............................................   464
Thomas Hart Armbruster, of New York, to be Ambassador to the 
  Republic of the Marshall Islands...............................   467
Hon. Michael David Kirby, of Virginia, to be Ambassador to the 
  Republic of Serbia.............................................   470
John M. Koenig, of Washington, to be Ambassador to the Republic 
  of Cyprus......................................................   473
Hon. Marcie B. Ries, of the District of Columbia, to be 
  Ambassador to the Republic of Bulgaria.........................   476
                                 ------                                
Tuesday, July 31, 2012...........................................   497

Hon. James B. Cunningham, of New York, to be Ambassador to the 
  Islamic Republic of Afghanistan................................   501
Hon. Richard G. Olson, of New Mexico, to be Ambassador to the 
  Islamic Republic of Pakistan...................................   507
                                 ------                                
Wednesday, September 12, 2012....................................   549

Joseph E. Macmanus, of New York, to be Representative of the 
  United States of America to the Vienna Office of the United 
  Nations and to be Representative of the United States of 
  America to the International Atomic Energy, with the rank of 
  Ambassador.....................................................   552
Sharon English Woods Villarosa, of Texas, to be Ambassador to the 
  Republic of Mauritius and the Republic of Seychelles...........   557
Walter North, of Washington, to be Ambassador to Papua New 
  Guinea, the Solomon Islands, and the Republic of Vanuatu.......   559
                                 ------                                
Thursday, September 13, 2012.....................................   583

Hon. Stephen D. Mull, of Virginia, to be Ambassador to the 
  Republic of Poland.............................................   586
Dawn M. Liberi, of Florida, to be Ambassador to the Republic of 
  Burundi........................................................   588
                                 ------                                
Wednesday, September 19, 2012....................................   603

Hon. Robert Stephen Beecroft, of California, to be Ambassador to 
  the Republic of Iraq...........................................   607
                                 ------                                
Wednesday, November 28, 2012.....................................   635

Hon. Robert F. Godec, of Virginia, to be Ambassador to the 
  Republic of Kenya..............................................   638
Deborah Ann McCarthy, of Florida, to be Ambassador to the 
  Republic of Lithuania..........................................   641


   NOMINATIONS OF LARRY PALMER, PHYLLIS POWERS, JONATHAN FARRAR, AND 
                            JULISSA REYNOSO

                              ----------                              


                    TUESDAY, FEBRUARY 7, 2012 (a.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Larry L. Palmer, of Georgia, to be Ambassador to Barbados, 
        St. Kitts and Nevis, St. Lucia, Antigua and Barbuda, 
        the Commonwealth of Dominica, Grenada, and Saint 
        Vincent and the Grenadines
Hon. Phyllis M. Powers, of Virginia, to be Ambassador to the 
        Republic of Nicaragua
Jonathan D. Farrar, of California, to be Ambassador to the 
        Republic of Panama
Julissa Reynoso, of New York, to be Ambassador to the Oriental 
        Republic of Uruguay
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Lugar, and Rubio.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing will come to 
order.
    Today the Senate Foreign Relations Committee will consider 
four nominations: Ambassador Larry Palmer to be the Ambassador 
to Barbados, St. Kitts and Nevis, St. Lucia, Antigua, and 
Barbuda, and the Commonwealth of Dominica, Grenada, St. 
Vincent, and the Grenadines. That's a lot of territory to 
handle. [Laughter.]
    Ambassador Phyllis Powers to be the Ambassador to 
Nicaragua; Mr. Jonathan Farrar to be the Ambassador to Panama; 
and Deputy Assistant Secretary for Central America and the 
Caribbean; and Julissa Reynoso, to be the Ambassador to 
Uruguay.
    Let me welcome you on behalf of the committee, and your 
families and friends. I'll make a statement, and then I'll turn 
to Senator Rubio.
    I want to congratulate you all on your nominations. If 
confirmed, you'll serve the U.S. Government as its highest 
representative to the countries to which you have been 
nominated, and you'll be called upon to implement the policies 
of our government and to protect and advance the interests of 
the American people.
    I know many of you have already had this opportunity in 
different places, though such an honor is bestowed upon 
relatively few in our country.
    I would encourage you to respond expeditiously to any 
questions that may be submitted subsequently for the record so 
the committee can act on your nominations as soon as possible. 
The deadline of submissions for the record for members will be 
the close of business on Friday.
    All of today's nominees are being considered for 
ambassadorial positions to the Western Hemisphere. The four 
embassies you are being called upon to lead are spread 
throughout the hemisphere, from the Caribbean to Central 
America to the southern cone of Latin America. The wide range 
of bilateral issues that confronts these embassies is as broad 
and complex as America's multifaceted relationship with the 
region itself.
    In light of our geographic proximity, our shared history, 
our economic and cultural ties, and the ability to instantly 
share information through the Internet, the Western 
Hemisphere's 840 million people are inextricably linked like 
never before.
    America's relationship with our neighbors in the region can 
best be described as a partnership. When one looks at the 
incredible amount of goods and services flowing across the 
borders, the migration of our peoples, the art and music that 
we share, it's clear the United States and its neighbors have 
forged an incredibly strong and interminable relationship, and 
the bond that cements this partnership is called democracy.
    Over the last few decades, we have seen some incredible 
democratic progress in the Western Hemisphere, with most 
countries possessing a representative democracy and with more 
and more people enjoying the same rights and privileges that we 
have in the United States.
    There are, of course, notable exceptions, among them Cuba, 
Venezuela, and, in my view since last November, Nicaragua. When 
I think about the hemisphere, I think at a different time it 
would have been unimaginable for Ahmadinejad to have been 
welcomed anywhere within the Western Hemisphere. Is it a 
coincidence that one of the world's pariah leaders, Mahmoud 
Ahmadinejad, recently visited all three of these countries on 
his recent tour of tyrants, as my House colleague, Ileana Ros-
Lehtinen, has so eloquently stated?
    What does it say about the leaders of these three countries 
when they invite to their capitals a repressive leader of Iran 
who, in June 2009, was reelected through massive fraud, 
disputed ballots, and a biased electoral board? A leader who, 
when the people of his country rallied in the streets to 
protest, unleashed his security forces to crush the protesters?
    On November 6, Daniel Ortega used the Ahmadinejad election 
playbook to stay in power, and then had the gall to invite his 
mentor to his coronation in January. Where was the 
international outrage when Ortega altered the constitution, 
allowing him to run for a third straight term? Where was the 
Organization of American States, who concluded that despite 
irregularities, that Ortega had actually won the election?
    Now, right in front of our eyes, we're watching the same 
movie in Venezuela, the harassment of the opposition, the 
closing of independent media outlets, and restrictions on 
nongovernmental organizations that echo events ongoing now in 
Egypt. It's all happening again, and I don't see anyone 
speaking out except for some very brave human rights 
organizations and individuals on the ground. I will be pretty 
outraged if we have to chair another hearing in November to 
examine how Chavez stole the election in Venezuela.
    Repression is as wrong in the Western Hemisphere as it is 
in the Middle East. As Dr. King said, ``Injustice anywhere 
threatens justice everywhere.'' There is no better time for the 
leaders of our hemisphere to reinforce the democratic gains of 
the last two decades than at the Summit of the Americas in 
Cartagena this April, not just through talk but by action. The 
Organization of American States, for example, must be more 
effective and given all the necessary resources it needs to 
defend and promote human rights and democracy throughout the 
Americas, including by strengthening the Inter-American 
Commission on Human Rights.
    This is not the time for the OAS to back down or retreat 
from its mission or be bullied by Chavez. This is the time to 
double-down and reclaim its hemispheric leadership.
    I'm extremely supportive of Secretary Clinton's efforts to 
bolster the Inter-American Commission on Human Rights, and I 
hope the State Department will continue to put more emphasis on 
the region.
    Just as the United States addresses the fires in other 
parts of the world, so too must we address the issues 
smoldering in our own hemisphere. Antidemocratic forces are 
gathering strength in too many nations. In some countries like 
Nicaragua, these forces are explicit and visible at the ballot 
box, and in others it is more hidden in the repression of media 
and civil society, and the weakening of society fostered by 
drug cartels that feed on desperation and poverty and 
corruption. These forces are harder to find and more opaque, 
but they are equally corrosive and self-serving.
    It's time to wake up and start dedicating the resources and 
our attention in a hemisphere which is incredibly important to 
the national interests and security of the United States, just 
as we do in other parts of the world. I look forward to these 
nominees being part of that effort. I hope that the President's 
budget, which will be released next Monday, will reflect this 
hemisphere as a policy priority.
    With that, I'm pleased to recognize the ranking Republican 
on the committee, my friend and colleague, Senator Rubio.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. It's an honor to 
have with us today as well the ranking Republican on the 
Foreign Relations Committee, Senator Lugar, who is a legend in 
the foreign relations world. So it's great to have you here. 
Thank you for being a part of it.
    Thank you all for your service to our country and for your 
willingness to serve in these new posts.
    The Western Hemisphere actually is, I hope, will become of 
increasing attention and importance. I think it's been 
neglected. There are major issues going on elsewhere in the 
world that have distracted us over the last few years, but I 
think what's going on in the Western Hemisphere very much is at 
the core of what American foreign policy should be about.
    The expansion of democracies around the world have led to 
free markets, and free markets have led to prosperity, freedom, 
and security, and nowhere is that more apparent than in the 
Western Hemisphere, where all but one nation has embraced 
democracy and elections. Unfortunately, one of the trends that 
we're starting to see in this hemisphere is a little 
backsliding from that. We're certainly seeing that in 
Nicaragua. We're certainly seeing that in Venezuela and some of 
the countries allied with them, and then obviously in Cuba, 
where for over 50 years now has been a totalitarian government.
    And so at a time when there is this ongoing debate in the 
world about who is going to win, is it going to be the liberal 
democracies like the United States and some of these emerging 
ones in the Western Hemisphere, or is it going to be 
totalitarian governments like Iran and China, Russia, two of 
those three countries which are trying to increase their 
footprint in the Western Hemisphere?
    So your appointments come at a critical time when, more 
than ever before, the United States needs to be a clear and 
bold voice on behalf of liberal democracy, on behalf of self-
determination, on behalf of people having their basic human 
rights respected.
    Now, your assignments are all different, but they're more 
challenging ones in some places than in others. In Nicaragua, 
as this chairman just announced, I think we saw an absolute 
outrage last year and a fraudulent election that no 
international organization would certify, that the very 
candidacy of the man who won violated the very constitution of 
its own country.
    Later this year we'll see elections in Venezuela, in Mexico 
and the Dominican Republic. And so I think it's important for 
all of you, as you go to your new posts, that you be firm 
advocates on behalf of democracy, on behalf of freedom, on 
behalf of the right of the people of these countries to self-
determination. The challenges are different in different 
places, but if there's a growing tendency in the region in some 
places, it's a desire to undermine all of these institutions, 
whether it's the press, the courts, or the elections 
themselves, and it's important that the United States clearly 
know where we stand.
    I once had a visitor--I think he was from Nicaragua; in 
fact, he was--say to me that sometimes the United States is 
more interested in stability than it is in democracy; that, in 
essence, too often in the past in our foreign policy, 
particularly in Latin America and in the Western Hemisphere, we 
have looked the other way because we would rather that country 
be stable and not have a migration problem or some other issue 
than actually speak up on behalf of democracy.
    But that can't be the case, because democracy functions 
from time to time. They may elect people that don't agree with 
us on everything. They may say some things that we don't like. 
But in the big picture, in the global picture, in the long 
term, it's better for our country, for our region, and for the 
world for people to have a voice in selecting their own 
leaders. History has proven that time and again. And as 
representatives of the single greatest republic in all of human 
history, you're going to be uniquely positioned to be a strong 
voice on behalf of these principles that have not just made our 
Nation great but have made the world safer and more prosperous.
    So I welcome your willingness to serve in these new posts. 
I look forward to hearing your testimony today, and in 
particular your ideas about how, in your specific assignments, 
you intend to be a voice on behalf of freedom and democracy and 
self-determination. Thank you.
    Senator Menendez. Thank you, Senator.
    Senator Lugar, do you have opening comments?
    We thank you for being here with us today.
    With that, let me introduce the panel. So let me start off 
taking a few moments to speak about each of you and your 
history, and then we'll ask you to make a statement of about 5 
minutes. Your full statements will be included in the record, 
and certainly introduce your family or friends, since we 
understand that family is a critical part of your mission in 
terms of support and help, and we understand it is, in essence, 
an extended service of themselves as well, and we appreciate 
that.
    But, Ms. Reynoso, you have to limit how many people you can 
introduce. [Laughter.]
    Because as I was entering, I met several of your 
supporters, so it might take most of the hearing time. 
[Laughter.]
    So with that, Larry Palmer is the nominee to be the 
Ambassador to Barbados, St. Kitts and Nevis, St. Lucia, 
Antigua, and Barbuda, the Commonwealth of Dominica, Grenada, 
St. Vincent and the Grenadines. He has recently served as the 
Ambassador to Honduras from 2002-2005. Prior to being 
Ambassador to Honduras, Mr. Palmer served as the deputy chief 
of mission and Charge d'Affaires in Quito, Ecuador, and 
counselor for Administration in the Dominican Republic.
    Phyllis Powers was sworn in as Ambassador of the United 
States to the Republic of Panama on September 10, 2010. She 
previously served as the Director of the Office of Provincial 
Affairs at the U.S. Embassy in Baghdad, the deputy chief of 
mission of the U.S. Embassy in Lima, Peru, and Director of the 
Narcotics Affairs Section responsible for Plan Colombia.
    Jonathan Farrar was the chief of mission of the U.S. 
Interests Section in Havana, Cuba. He has served as the 
Principal Deputy Assistant Secretary of the State Department's 
Bureau of Democracy, Human Rights and Labor, and was DRL's 
Acting Assistant Secretary. Mr. Farrar also served as Deputy 
Assistant Secretary in the State Department's International 
Narcotics and Law Enforcement Bureau, with responsibility for 
INL's programs in the Western Hemisphere, Africa, Asia, and 
Europe.
    Julissa Reynoso is currently the Deputy Assistant Secretary 
for Central America and the Caribbean in the Bureau of Western 
Hemisphere Affairs. Prior to joining the Foreign Service, Ms. 
Reynoso practiced international arbitration and antitrust law 
at Simpson Thatcher and Bartlett in New York, clerked for 
Federal Judge Laura Taylor Swain of the U.S. District Court for 
the Southern District of New York.
    So welcome to all of you again. And with that, I know one 
of my colleagues wants to add some words of introduction, and 
hopefully by that time we will have that opportunity.
    So we'll start with you, Ambassador Palmer. Welcome back to 
the committee, and we look forward to your testimony.

       STATEMENT OF HON. LARRY L. PALMER, OF GEORGIA, TO
        BE AMBASSADOR TO BARBADOS, ST. KITTS AND NEVIS,
 ST. LUCIA, ANTIGUA AND BARBUDA, THE COMMONWEALTH OF DOMINICA, 
          GRENADA, AND ST. VINCENT AND THE GRENADINES

    Ambassador Palmer. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the committee, thank you for 
the honor and privilege of appearing before you as a nominee 
for the United States Ambassador to the Caribbean nations of 
Antigua and Barbuda, Barbados, Dominica, Grenada, St. Kitts and 
Nevis, St. Lucia, and St. Vincent and the Grenadines. I am 
grateful to President Obama and Secretary Clinton for their 
confidence and trust in nominating me for this position.
    My wife, Lucille, of 39 years, who has accompanied me to 
every other Senate appearance, could not be here today. She 
chose to be with my newly born grandson in Tennessee.
    Mr. Chairman, if confirmed by the Senate, I look forward to 
representing our country and working with you to advance the 
interests of the United States in the Caribbean. Barbados and 
the Eastern Caribbean nations represent nearly half of all 
countries in the Caribbean, an important region on the United 
States southern border. Traditional allies and friends, with 
shared culture and dedication to democracy and the rule of law, 
these nations play an important role both bilaterally and in 
multilateral organizations like the Organization of American 
States and the United Nations. I am honored to have been 
nominated to represent the United States in this important 
region.
    If confirmed, I will make the continuing safety of American 
residents and visitors in the Caribbean my top priority. The 
continuing success of the Caribbean Basin Security Initiative 
is vitally important to providing for the safety and security 
of the United States by ensuring that Barbados and the Eastern 
Caribbean can combat transnational organized crime and avoid 
the violence and instability seen elsewhere in the hemisphere.
    As a result of ongoing CBSI programming and engagement, the 
United States and countries of the Caribbean are working more 
closely than ever before on security and justice system-related 
projects. The inclusion of anticrime and antigang youth 
development and empowerment programs is an important component 
of CBSI and reflects the role the youth plays in these 
societies and in the development of their nations.
    We are also working closely with Barbados and the Eastern 
Caribbean to combat trafficking in persons.
    The global economic downturn has hit the region 
particularly hard, exacerbating already significant economic 
hardship. Some Eastern Caribbean countries are struggling with 
very high debt levels, and a number have undertaken 
International Monetary Fund standby programs and are reaching 
out to the Paris Club for debt restructuring. This difficult 
economic situation has prevented the Eastern Caribbean nations 
from reaching their full development potential. And if 
confirmed, I will build on prior work and lead American efforts 
to promote economic prosperity, trade, and entrepreneurship in 
the region.
    As 2011 marked the 50th anniversary of the Peace Corps, I 
would like to note our longstanding Peace Corps presence in the 
Eastern Caribbean which plays a major role in providing U.S. 
assistance to the region. St. Lucia was among the first 
countries
to receive volunteers in 1961, and currently 115 volunteers 
work 
the region in four main areas: youth development, institutional 

and NGO development, small business development, and special 
education.
    Thank you again for giving me the honor of appearing before 
you today, and I would be happy to answer any questions that 
you may have.
    [The prepared statement of Ambassador Palmer follows:]

               Prepared Statement of Hon. Larry L. Palmer

    Mr. Chairman and members of the committee, thank you for the honor 
and privilege of appearing before you as nominee for the United States 
Ambassador to the Caribbean nations of Antigua and Barbuda, Barbados, 
Dominica, Grenada, St. Kitts and Nevis, St. Lucia and St. Vincent and 
the Grenadines. I am grateful to President Obama and Secretary Clinton 
for their confidence and trust in nominating me for this position. If 
confirmed by the Senate, I look forward to representing our country and 
working with you to advance the interests of the United States in the 
Caribbean.
    Barbados and the Eastern Caribbean nations represent nearly half of 
all countries in the Caribbean, an important region on the United 
States southern border. Traditional allies and friends, with shared 
culture and dedication to democracy and rule of law, these nations play 
an important role both bilaterally and in multilateral organizations 
like the Organization of American States and the United Nations. I am 
honored to have been nominated to represent the United States in this 
important region.
    Mr. Chairman, if confirmed, I will make the continuing safety of 
American residents and visitors in the Caribbean my top priority. The 
continuing success of the Caribbean Basin Security Initiative (CBSI) is 
vitally important to providing for the safety and security of the 
United States by ensuring that Barbados and the Eastern Caribbean can 
combat transnational organized crime and avoid the violence and 
instability seen elsewhere in the hemisphere. As a result of ongoing 
CBSI programming and engagement, the United States and the countries of 
the Caribbean are working more closely than ever on security and 
justice system-related projects. The inclusion of anticrime and 
antigang youth development and empowerment programs is an important 
component of CBSI and reflects the role youth play in these societies 
and in their development as nations. We are also working closely with 
Barbados and the Eastern Caribbean nations to combat trafficking in 
persons.
    The global economic downturn has hit the region particularly hard, 
exacerbating already significant economic hardship. Some Eastern 
Caribbean countries are struggling with very high debt levels and a 
number have undertaken International Monetary Fund (IMF) standby 
programs and are reaching out to the Paris Club for debt restructuring. 
This difficult economic situation has prevented the Eastern Caribbean 
nations from reaching their full development potential. If confirmed, I 
will build on prior work and lead American efforts to promote economic 
prosperity, trade, and entrepreneurship in the region.
    The high cost of energy in the region also affects Caribbean 
economies. The United States seeks to promote alternative energy in 
Barbados and the Eastern Caribbean. Our goal under the President's 
Energy and Climate Partnership of the Americas (ECPA) is to assist 
countries to diversify energy supplies with more renewable energy, and 
to increase engagement on climate change adaptation. Under an ECPA 
grant, six Eastern Caribbean country proposals were selected by the OAS 
to receive clean energy technical assistance. These projects range from 
solar energy pilot projects in national parks to the development of 
geothermal resources. Secretary Clinton in June announced an ECPA 
climate change adaptation initiative focused on Caribbean-specific 
climate modeling and adaptation planning in partnership with the 
University of the West Indies and one or more universities in the 
United States. If confirmed, I will work to further these projects and 
continue to promote cheaper and more sustainable energy throughout the 
region.
    Another critical challenge in the region is HIV/AIDS. HIV/AIDS 
infection rates in Barbados and the Eastern Caribbean, while lower than 
those in some neighboring countries, are nevertheless high in 
vulnerable populations, especially among youth and women. HIV/AIDS-
related illnesses are a major cause of death for persons between the 
ages of 15 and 44. If confirmed, I will strongly support U.S. programs 
of prevention and services in the region through the President's 
Emergency Action Fund for AIDS Relief (PEPFAR) which is integral to 
these efforts.
    While women in Barbados and the Eastern Caribbean have made some 
gains since the United Nations Fourth World Conference on Women in 
1995, significant barriers to full and equal citizenship still remain. 
Women in these countries play a strong role in politics, education, and 
social issues. Access to education is high and the majority of 
university students are women. However, after their education is 
complete, many women are either unable to find jobs or only find work 
in lower status and lower paying positions. While women are represented 
among government ministers, they constitute only a tenth of 
parliamentarians in Barbados and most of the Eastern Caribbean. 
Domestic violence and violence against women remain grave concerns in 
the region. Despite these obstacles, women leaders in Barbados and the 
Eastern Caribbean are extraordinary, and are diligently working to 
overcome the challenges they face. If confirmed, I will work to 
increase awareness and action to improve the opportunities available to 
women and girls. Along with this, the integration of women's issues 
throughout our policies and programs is absolutely necessary, 
particularly in such programs as CBSI, ECPA, and economic participation 
and entrepreneurship support.
    As 2011 marked the 50th anniversary of the Peace Corps, I would 
also like to note our longstanding Peace Corps presence in the Eastern 
Caribbean which plays a major role in providing U.S. assistance to the 
region. St. Lucia was among the first countries to receive volunteers 
in 1961. Currently 115 volunteers work in the region in four main 
areas: Youth Development, Institutional/NGO Development, Small Business 
Development, and Special Education.
    Thank you again for giving me the honor of appearing before you 
today. I would be happy to answer any questions you may have.

    Senator Menendez. Ambassador, you even had extra time. So 
you're on your way to confirmation, I can see that. [Laughter.]
    Before we turn to Ms. Powers, I see our colleague, Senator 
Gillibrand, is here and I know she wants to add words of 
introduction and welcome.
    So, Senator Gillibrand.

             STATEMENT OF HON. KIRSTEN GILLIBRAND,
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman. I am very 
honored to have the distinct pleasure of introducing Julissa 
Reynoso, an extraordinary Latina from my home State of New 
York, to the Senate Foreign Relations Committee as my 
colleagues consider her nomination by President Obama to serve 
as Ambassador to the Oriental Republic of Uruguay.
    Ms. Reynoso has the qualities and experience to be an 
outstanding ambassador. She served as the Deputy Assistant 
Secretary for Central America and the Caribbean in the Bureau 
of Western Hemisphere Affairs at the Department of State since 
November 16, 2009. Ms. Reynoso is an attorney by trade, and 
prior to joining the State Department she practiced 
international law, focusing on international arbitration, 
antitrust, and also served as the deputy director of the Office 
of Accountability to the New York City Department of Education.
    Her education is stellar, as she holds a B.A. in Government 
from Harvard, a Master's in Philosophy from Cambridge in the 
U.K., and a J.D. from Columbia; and her desire to make a life 
of public service was evident right after law school when she 
clerked for the Honorable Federal Judge Laura Taylor Swain.
    Ms. Reynoso has also been a prolific writer, with her work 
published widely in both Spanish and English on a range of 
issues including regulatory reform, community organizing, 
housing reform, immigration policy, and Latin American politics 
for both popular press and academic journals.
    As the first Dominican ever nominated and one of the 
youngest people to be nominated, Julissa Reynoso is poised to 
become a trailblazer for many, many more young women to follow. 
In an era where women serve in the highest levels of government 
as Secretary of State, Supreme Court Justices, and many other 
offices of great distinction, we have yet another opportunity 
to show young women and girls across our country and beyond 
that anything is possible if you put your mind to it.
    I urge my colleagues to send her nomination to the full 
Senate for consideration. I'm confident that if confirmed, her 
intellect and drive, she will represent our country with great 
honor and distinction.
    Thank you, Chairman. Thank you.
    Senator Menendez. Thank you, Senator Gillibrand, very much.
    Ambassador Powers.

    STATEMENT OF HON. PHYLLIS M. POWERS, OF VIRGINIA, TO BE 
            AMBASSADOR TO THE REPUBLIC OF NICARAGUA

    Ambassador Powers. Thank you, Senator. Mr. Chairman and 
distinguished members of the committee, it is an honor to 
appear before you today as the President's nominee to serve as 
the U.S. Ambassador to Nicaragua. I am grateful for the trust 
and confidence the President and Secretary Clinton have shown 
in sending my name to the Senate for your consideration.
    I would like to recognize my family, including my sister 
and brother-in-law, Pam and Don Curley, who are here today, 
friends and colleagues who have supported me throughout my 
career.
    The skills and experience acquired in my career in the 
Foreign Service have prepared me to serve in this distinguished 
position. If confirmed, I will embark on my sixth tour in the 
region. The 7 years I spent in the U.S. Embassy in Colombia, as 
well as my time as the deputy chief of mission in Lima, Peru, 
and as the Director of the Office of Provincial Affairs in 
Iraq, taught me the importance of developing a partnership with 
host governments and civil society to achieve our goals.
    I feel strongly that a culture of lawfulness is key to any 
strong democratic society. As the current U.S. Ambassador to 
Panama, I have seen firsthand that building and sustaining 
democratic institutions is the responsibility of all citizens. 
Our most successful programs have clearly been those with 
community involvement, such as our programs in the area of 
prevention with youth at risk to ensure the future leaders of 
Panama have the opportunities they deserve.
    The active participation of parents, community leaders, 
private sector, and law enforcement provides Panama's young 
people with viable alternatives to gang membership and 
encouraging their progress as productive members of the 
community. I am proud of the role our programs have played in 
this effort.
    While we're on the subject of community involvement and 
civil society, the State Department has been clear in stating 
its concerns that the recent Nicaraguan elections were not 
transparent and were marred by significant irregularities. 
There is a serious concern about the erosion of democracy in 
Nicaragua. From the marshes of the Euphrates in Iraq to the 
interior jungles of Peru and Colombia, I have witnessed that 
citizens want to participate in the electoral process and, when 
given the chance, will exercise their right. If confirmed, I 
will speak clearly and with conviction about the importance of 
protecting fundamental freedoms and democratic institutions, 
and stress the importance of an empowered civil society, 
independent media, informed citizenry, and effective local 
government and political party participation.
    Our relationship with Nicaragua is broad and complex. 
Bilateral trade between the United States and Nicaragua has 
grown by two-thirds in the 5 years since the Central America-
Dominican Republic Free Trade Agreement went into effect; and, 
in fact, more than 125 U.S. companies are currently doing 
business in Nicaragua. If confirmed, I will be a staunch 
advocate for U.S. businesses in Nicaragua. I was pleased to 
note that a small U.S. company with operations in Nicaragua, 
Sahlman Seafoods, Inc., recently won the Secretary of State's 
Award for Corporate Excellence for global corporate social 
responsibility. We should promote and encourage cooperation 
between the people of the United States and Nicaragua in 
support of both our mutual interests.
    Protecting U.S. citizens is the first responsibility of any 
ambassador and, if confirmed, I will ensure that the U.S. 
Embassy in Managua continues to provide a high level of service 
and attention to our citizens. More than 14,000 American 
citizens live and work in Nicaragua. Our diplomatic 
representation includes representatives from eight U.S. 
agencies, including a Peace Corps contingent of approximately 
220 Volunteers.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to appear before this committee today. If 
confirmed by the Senate, I look forward to working with you and 
your colleagues to advance our Nation's interests in Nicaragua. 
I would be happy to answer any questions you may have. Thank 
you.
    [The prepared statement of Ambassador Powers follows:]

              Prepared Statement of Hon. Phyllis M. Powers

    Mr. Chairman and distinguished members of the committee, it is an 
honor to appear before you today as the President's nominee to serve as 
the U.S. Ambassador to Nicaragua. I am grateful for the trust and 
confidence the President and Secretary Clinton have shown in nominating 
me for this critical post.
    I would like to recognize my family, friends, and colleagues who 
have supported me throughout my career. I firmly believe that no one 
gets here alone and am confident I would not be here if they were not 
beside me.
    The skills and experience acquired in my career in the Foreign 
Service have prepared me to serve in this distinguished position. If 
confirmed, I will embark on my sixth tour in the region. The 7 years I 
spent in the U.S. Embassy in Colombia, as well as my time as the deputy 
chief of mission in Lima, Peru, and as the Director of the Office of 
Provincial Affairs in Iraq taught me the importance of developing a 
partnership with host governments and civil society to achieve our 
goals.
    I feel strongly that a culture of lawfulness is key to any strong 
democratic society. As the current U.S. Ambassador to Panama, I have 
seen firsthand that building and sustaining democratic institutions is 
the responsibility of all citizens. Our most successful programs have 
clearly been those with community involvement such as our programs in 
the area of prevention with youth at risk to ensure the future leaders 
of Panama have the opportunities they deserve. Our programs in 
Chorrillo, a neighborhood in Panama City with many social and economic 
needs are an example of what can be accomplished through partnerships 
with the community. The active participation of parents, community 
leaders, private sector, and law enforcement provides Panama's young 
people with viable alternatives to gang membership and encouraging 
their progress as productive members of the community. I am proud of 
the role our programs have played in this effort.
    While we're on the subject of community involvement and civil 
society, the State Department has been clear in stating its concerns 
that the recent Nicaraguan elections were not transparent and were 
marred by significant irregularities. There is a serious concern about 
the erosion of democracy in Nicaragua. From the marshes of the 
Euphrates in Iraq to the interior jungles of Peru and Colombia I have 
witnessed that citizens want to participate in the electoral process 
and when given the chance, will exercise that right. If confirmed, I 
will speak clearly and with conviction about the importance of 
protecting fundamental freedoms and democratic institutions, and stress 
the importance of an empowered civil society, independent media, 
informed citizenry, and effective local government and political party 
participation.
    Our relationship with Nicaragua is broad and complex. Bilateral 
trade between the United States and Nicaragua has grown by two-thirds 
in the 5 years since the Central America-Dominican Republic Free Trade 
Agreement went into effect and in fact more than 125 U.S. businesses 
are currently doing business in Nicaragua. If confirmed, I will be a 
staunch advocate for U.S. businesses in Nicaragua. I was pleased to 
note that a small U.S. company with operations in Nicaragua, Sahlman 
Seafoods, Incorporated, recently won the Secretary of State's Award for 
Corporate Excellence for global corporate social responsibility for its 
dedication to community development and environmental sustainability. 
We should promote and encourage cooperation between the people of the 
United States and Nicaragua in support of both our mutual interests.
    Protecting U.S. citizens is the first responsibility of any 
ambassador, and, if confirmed, I will ensure the U.S. Embassy in 
Managua continues to provide a high level of service and attention to 
our citizens. More than 14,000 American citizens live and work in 
Nicaragua. Our diplomatic representation in Nicaragua includes 
representatives from eight U.S. agencies, including a Peace Corps 
contingent of approximately 220 Volunteers who work at sites throughout 
the country.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to appear before this committee today. If confirmed by the 
Senate, I look forward to working with you and your colleagues to 
advance our Nation's interests in Nicaragua. I would be happy to answer 
any questions you may have.

    Senator Menendez. Thank you, Ambassador. We have a trend 
going. You had extra time as well. Not that I want to put 
pressure on the rest of the nominees.
    Mr. Farrar.

     STATEMENT OF JONATHAN D. FARRAR, OF CALIFORNIA, TO BE 
              AMBASSADOR TO THE REPUBLIC OF PANAMA

    Mr. Farrar. Thank you, Mr. Chairman. Distinguished members 
of the Senate Foreign Relations Committee, it's an honor to 
appear today before you as the President's nominee as 
Ambassador to Panama. I am deeply grateful to the President and 
to the Secretary of State for their continued trust and 
confidence.
    I'd like to introduce the members of my family who are here 
today. First of all, my wife, Terry, who has been with me 
throughout our 31 years in the Foreign Service and has worked 
tirelessly overseas to help those in need in the countries in 
which we have served.
    Also with us today is our daughter, Melissa, and our 
youngest son, Nathaniel. Our oldest son, Jonathan, and our 
daughter-in-law, Leigh, are not with us today as last month 
they welcomed their first child and our first grandchild.
    The Foreign Service has taken our family throughout the 
Western Hemisphere, to North, South, and Central America, and 
to the Caribbean. I've had the good fortune during the past 
three decades to work on the full panoply of challenges in the 
hemisphere, including democracy, human rights, law enforcement, 
trade investment, and protection of the environment.
    All of these issues are relevant to our relationship with 
Panama. Panama's location and role in global trade makes its 
success vital to our prosperity and national security. While 
Panama's economic growth rate is the highest in the hemisphere, 
Panama continues to face the challenge of making this growth 
more inclusive so that all of its citizens can enjoy the 
opportunity to build a better life for themselves and their 
families.
    The recently approved Trade Promotion Agreement holds the 
promise to greatly expand our economic partnership, to the 
mutual benefit of both our peoples. U.S. exports to Panama have 
grown rapidly, and the United States is by far the leading 
exporter of goods to Panama. Yet, we are facing increasing 
competition for market share.
    If confirmed, I would take what I have learned from three 
assignments as an economic and commercial officer overseas and 
harness the resources of our entire Embassy to promote U.S. 
exports and create American jobs.
    Panama is making major investments in the Canal and other 
infrastructure amid annual economic growth averaging 8 percent 
since 2006. A key element of my mission, if confirmed, would be 
to work with American businesses to ensure they are able to 
compete and win on a level playing field. Our implementation of 
the Trade Promotion Agreement and our bilateral Tax Information 
Exchange Agreement afford new opportunities to increase the 
transparency of operations of governmental and financial 
entities, and thus strengthen democratic institutions in 
Panama.
    The ties between the United States and Panama are strong. 
Nowhere is this more evident than in our cooperation to combat 
illegal drug trafficking and other criminal activity. In 2011 
alone, Panama seized more than 30 tons of cocaine, much of 
which otherwise would have made its way to our shores. The 
government and the people of Panama rightfully are concerned 
about the security threat posed by drug trafficking 
organizations and criminal gangs.
    If confirmed, I will bring my experience with 
counternarcotics and law enforcement programs across Latin 
America to direct a missionwide effort to deepen our bilateral 
security cooperation and ensure that it remains closely 
integrated into our overall efforts in the region.
    Above all, if confirmed, my highest priority as ambassador 
would be the protection of the nearly 45,000 Americans who 
reside in or visit Panama at any given time, and the more than 
100 American companies that do business there. My commitment to 
helping our fellow Americans abroad began 31 years ago in the 
consular section in Mexico City and continues today.
    Mr. Chairman, thank you again for the honor of appearing 
before the committee today. If confirmed, I pledge to work with 
you and your colleagues to advance the vital interests of the 
United States in Panama, and I'd be pleased to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Farrar follows:]

                Prepared Statement of Jonathan D. Farrar

    Mister Chairman, distinguished members of the Senate Foreign 
Relations Committee, it is an honor to appear today before you as the 
President's nominee to be Ambassador to Panama. I am deeply grateful to 
the President and to the Secretary of State for their continued trust 
and confidence.
    I would like to introduce the members of my family who are here 
today. First of all, my wife Terry, who has been with me throughout our 
31 years in the Foreign Service and who has worked tirelessly to help 
those in need in the countries in which we have served. Also with us 
today is our youngest son, Nathaniel.
    The Foreign Service has taken our family throughout the Western 
Hemisphere to North, South, and Central America, and the Caribbean. I 
have had the good fortune during the past three decades to work on the 
full panoply of challenges in the hemisphere, including democracy, 
human rights, law enforcement, trade, investment, and protection of the 
environment.
    All of these issues are relevant to our relationship with Panama. 
Panama's location and role in global trade make its success vital to 
our prosperity and national security. While Panama's economic growth 
rate is the highest in the hemisphere, Panama continues to face the 
challenge of making this growth more inclusive, so that all of its 
citizens can enjoy the opportunity to build a better life for 
themselves and their families.
    The recently approved bilateral Trade Promotion Agreement holds the 
promise to greatly expand our economic partnership to the mutual 
benefit of both our peoples. United States exports to Panama have grown 
rapidly and the United States is by far the leading exporter of goods 
to Panama, yet we are facing increasing competition for Panama's import 
market share. If confirmed, I would take what I have learned from three 
assignments as an economic and commercial officer overseas and harness 
the resources of our entire Embassy to promote U.S. exports and create 
American jobs. Panama is making major investments in the Canal and 
other infrastructure amid annual economic growth averaging 8 percent 
since 2006. A key element of my mission, if confirmed, would be to work 
with American businesses to ensure they are able to compete and win on 
a level playing field. Our implementation of the Trade Promotion 
Agreement and our bilateral Tax Information Exchange Agreement afford 
new opportunities to increase the transparency of operations of 
governmental and financial entities and thus strengthen democratic 
institutions in Panama.
    The ties between the United States and Panama are strong. Nowhere 
is this more evident than in our cooperation to combat illegal drug 
trafficking and other criminal activity. In 2011 alone Panamanian 
authorities seized more than 30 tons of cocaine, much of which 
otherwise would have made its way to our shores. The Government and 
people of Panama rightfully are concerned about the security threat 
posed by criminal gangs and drug trafficking organizations. If 
confirmed, I would bring my experience with counternarcotics and law 
enforcement programs across Latin America to direct a missionwide 
effort to deepen our bilateral security cooperation and ensure it 
remains closely integrated into our overall efforts in the region.
    Above all, if confirmed my highest priority as Ambassador would be 
the protection of the nearly 45,000 Americans who reside in or are 
visiting Panama at any given time, and of the more than 100 American 
companies that do business there. My commitment to helping our fellow 
Americans abroad began 31 years ago in the consular section in Mexico 
City, and continues today.
    Mr. Chairman, thank you again for the honor of appearing before the 
committee today. If confirmed, I pledge to work with you and your 
colleagues to advance the vital interests of the United States in 
Panama.
    I would be pleased to answer any questions you may have.

    Senator Menendez. Thank you.
    Ms. Reynoso.

STATEMENT OF JULISSA REYNOSO, OF NEW YORK, TO BE AMBASSADOR TO 
                THE ORIENTAL REPUBLIC OF URUGUAY

    Ms. Reynoso. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, I appreciate very much the 
opportunity to appear before this committee today as President 
Obama's nominee to be U.S. Ambassador to Uruguay. I am very 
grateful and humbled by the confidence that President Obama and 
Secretary Clinton have shown in me by this nomination. This 
nomination is a great honor for me and I look forward to 
another opportunity to serve my country, if confirmed.
    With the chairman's permission, I wish to recognize the 
many family and friends I have here today, and mentors and 
colleagues. I'm not going to name all of them, but they're all 
here, pretty much on my right-hand side, that have supported me 
over the years, many of them here today, my mother in 
particular, and many of them came from New York City, my home. 
It is only with their steady support that I am here seeking the 
U.S. Senate's confirmation, and I wish to sincerely thank them 
for their guidance and support throughout the years.
    The relationship between the United States and Uruguay is 
extremely strong. We share important values, including a 
commitment to democracy, rule of law, sound economic policies, 
strong labor rights, environmental protection, investment in 
people, the desire to see the peaceful resolution of disputes 
between nations, and a commitment to the multilateral system. 
If confirmed, I look forward to continuing the productive 
dialogue between our two countries and will work diligently to 
advance these goals.
    Uruguay is a constructive partner which plays an important 
role in promoting regional stability and democracy. The country 
is also a partner in conflict resolution, contributing to 
peacekeeping missions throughout the globe. Uruguay remains one 
of the top troop and police contributors per capita to United 
Nations peacekeeping overall. We welcome their contributions to 
improving security in Haiti, as well as in other difficult 
locations throughout the world.
    If confirmed, I look forward to working with President 
Mujica, Foreign Minister Almagro, the Uruguayan Government, 
civil society and the private sector as we advance bilateral 
relations and strengthen the political, commercial, and 
cultural ties between our two countries. If confirmed, I would 
give the highest priority to ensuring the well-being and safety 
of U.S. citizens who live and travel in Uruguay.
    I would seek opportunities for enhanced trade between the 
United States and Uruguay and promote United States exports to 
Uruguay. I would advocate for further cooperation under our 
Science and Technology Agreement, as well as our Trade and 
Investment Framework Agreement.
    United States exports to Uruguay have steadily increased 
over the last years to $973 million in 2010, up 30 percent from 
2009, and we enjoyed a $738 million goods trade surplus with 
Uruguay. There are approximately 100 U.S. companies currently 
operating in Uruguay at this time. If confirmed, I will work 
vigorously to promote U.S. businesses and believe we can 
continue to find new opportunities for increased trade between 
the two countries, and I would encourage programs that improve 
inclusive economic growth as well as promote public-private 
partnerships.
    To build greater understanding and mutual understanding 
through direct contact between Uruguayans and Americans, I will 
work to establish more partnerships between colleges and 
universities in Uruguay and the United States.
    Members of the committee, my work in the Department of 
State has offered me significant insights into the vital 
partnerships that exist between the branches of government and, 
if confirmed, I will work diligently to further develop these 
partnerships.
    If I am confirmed as Ambassador, I look forward to working 
with you, each of you, your distinguished colleagues and your 
staff to advance our priorities with the Oriental Republic of 
Uruguay.
    Thank you again for the great opportunity to appear before 
you today, and I welcome any questions you may have. Thank you.
    [The prepared statement of Ms. Reynoso follows:]

                 Prepared Statement of Julissa Reynoso

    Mr. Chairman and members of the committee, I appreciate very much 
the opportunity to appear before this committee today as President 
Obama's nominee to be U.S. Ambassador to Uruguay. I am very grateful 
and humbled by the confidence that President Obama and Secretary 
Clinton have shown in me by this nomination. This nomination is a great 
honor for me and I look forward to another opportunity to serve my 
country, if confirmed.
    With the chairman's permission, I wish to recognize my family, 
friends, mentors and colleagues that have supported me over the years--
many of them are here today, many from New York City. It is only with 
their steady support that I am here, seeking the U.S. Senate's 
confirmation and I wish to sincerely thank them for their generous 
guidance and support.
    The relationship between the United States and Uruguay is strong. 
We share important values, including a commitment to democracy, rule of 
law, sound economic policies, strong labor rights, environmental 
protection, investment in people, the desire to see the peaceful 
resolution of disputes between nations, and a commitment to the 
multilateral system. If confirmed, I look forward to continuing the 
productive dialogue between our two countries and will work diligently 
to advance these goals.
    Uruguay is a constructive partner which plays an important role in 
promoting regional stability and democracy. The country is also a 
partner in conflict resolution, contributing to peacekeeping missions 
worldwide. Uruguay remains one of the top troop and police contributors 
per capita to U.N. peacekeeping overall. We welcome their contributions 
to improving security in Haiti as well as in other difficult locations 
throughout the world.
    If confirmed, I look forward to working with President Mujica, 
Foreign Minister Almagro, the Uruguayan Government, civil society, and 
the private sector as we advance bilateral relations and strengthen the 
political, commercial, and cultural ties between our two countries.
    If confirmed, I would give the highest priority to ensuring the 
well-being and safety of U.S. citizens who live and travel in Uruguay. 
I would seek opportunities for enhanced trade between the United States 
and Uruguay, and promote U.S. exports to Uruguay. I would advocate for 
further cooperation under our Science and Technology Agreement as well 
as our Trade and Investment Framework Agreement. U.S. exports to 
Uruguay have steadily increased over the years to $973 million in 2010, 
up 30 percent from 2009, and we enjoyed a $738 million goods trade 
surplus with Uruguay. There are approximately 100 U.S. companies 
operating in Uruguay at this time. If confirmed, I will work vigorously 
to promote U.S. businesses and believe we can continue to find new 
opportunities for increased trade between the two countries and I will 
encourage programs that improve inclusive economic growth as well as 
promote public-private partnerships.
    To build greater mutual understanding through direct contact 
between Uruguayans and Americans, I will work to establish more 
partnerships between colleges and universities in Uruguay and the 
United States.
    My work in the Department of State has offered me significant 
insights into the vital partnerships that exist between the branches of 
government and, if confirmed, I will work diligently to further develop 
these partnerships. If I am confirmed as Ambassador, I look forward to 
working with you, your distinguished colleagues, and your staff to 
advance our priorities with the Oriental Republic of Uruguay.
    Thank you again for the opportunity to appear today. I welcome any 
questions you may have.

    Senator Menendez. Thank you very much.
    This is a record. All of you had extra time.
    My congratulations and those of the committee to Ambassador 
Palmer and Mr. Farrar on being granddads, either again or for 
the first time.
    We'll do 7-minute rounds. I have a lot of questions here, 
so we'll see how far we can get.
    Let me start with Ambassador Powers. I'd like to know what 
you make of the fiasco of election day in Nicaragua. The Carter 
Center had to send a study mission to watch the elections 
because the Nicaraguan Government's regulations didn't adhere 
to the Declaration of Principles for the International 
Observation of Elections. The EU and OAS observers were not 
permitted to enter into some polling places until after the 
voting had started, and so could not observe the ballot boxes 
that were brought in. Domestic experience observer groups were 
denied credentials to enter polling places even though they had 
followed all of the regulations.
    I appreciate Secretary Clinton's statement in January 
noting that the elections were not conducted in a transparent 
and impartial manner and that the entire electoral process was 
marred by significant irregularities. I have two of the 
examples of actual certified results in a couple of districts 
in Nicaragua, and it's pretty amazing. The fraud is so 
transparent.
    On these official ``actua scrutinia,'' which is basically 
the election result sheet certified by the election members, it 
says the total number of ballots received, 400. That's the 
maximum number of votes that could be cast there. And yet when 
you look at the certification of results, in one of these 
election districts the total number of votes was in excess of 
900 when there were only 400 ballots.
    In another one, there is a certification of three election 
districts in which again the total number of ballots received 
by the election board was 400. And yet when you add up the 
number of votes received by individual parties, they add up to 
2,000, when 400 were the number of ballots received.
    So it's pretty obvious that the type of fraud that has been 
alleged is pretty clear when you take the election results and 
you see that 400 ballots were given, and yet there is in one 
district 900 ballots, 900 votes cast when there are only 400 
ballots, and 2,000 votes cast when there are only 400 ballots. 
Something is fundamentally wrong.
    So the question, Ambassador, is now what? What do we do 
now? And as the nominee to go to Nicaragua, how will you work 
with a government that obviously did not win through a 
transparent and open process?
    Ambassador Powers. Thank you, Senator, for that question. 
Now what? Now we utilize the report that the OAS just completed 
and published at the end of January and the recommendations 
they made to work with our partners in the Americas and 
elsewhere to assess fully any initiative and all initiatives 
that we can utilize to help reinforce democratic institutions 
and ensure that recommendations made by the OAS are enacted by 
the Nicaraguan Government to ensure that future elections do 
not suffer from similar irregularities and a lack of 
transparency so that the Nicaraguan people can have their 
rights restored to vote in a free and transparent process and 
have leaders that they have selected that will be accountable 
to them.
    How do we work with the government? We work with the 
government at all levels, but we also work with civil society 
and the Nicaraguan people to ensure that they understand that 
the United States stands with them as they seek to move forward 
to rebuild democratic institutions and to protect their rights 
as citizens of Nicaragua. This will mean being out there, doing 
outreach, making sure that they understand and have someone out 
there, me if I'm confirmed, and the mission, to ensure that 
they understand that they've got people supporting them and 
will be working with them to ensure democracy and human rights 
are protected.
    Senator Menendez. Well, I appreciate that. I know you 
started off by using the OAS report. I have a problem with the 
OAS report. First of all, the OAS Secretary General called 
Ortega to congratulate him on the successful peaceful elections 
on the evening of 
November 6, which is pretty amazing to me. Then the very 
essence of the legality of the election, Ortega running for a 
third term, is not even spoken about. And I don't get the sense 
that the OAS report even considers whether the election itself 
was valid.
    So I worry about that, and I look at the German 
Government's announcement that it was cutting aid to Nicaragua 
due to the EU's concerns about irregularities in that 
Presidential election. Is the United States reevaluating the 
aid it provides to Nicaragua in light of a sham election that 
took place? Should it?
    Ambassador Powers. Thank you, Senator. Yes. The United 
States is in a very vigorous process of reviewing financial 
assistance to Nicaragua, most of which goes to nongovernmental 
organizations, not to the government. We are also aggressively 
scrutinizing all loan projects with the international financial 
institutions to make sure that any loans that are being 
considered meet the highest standards of the institutions, and 
that they will have a direct impact on development for the 
people of Nicaragua.
    Senator Menendez. I appreciate you mentioning the 
international institutions because I want to direct your 
attention to the IDB, the Inter-American Development Bank, 
lending to the Nicaraguan Government, much of it in the form of 
what we call quick disbursing loans.
    For example, on October the 28, less than 2 weeks before 
the election, the IDB granted Ortega a $45 million quick 
disbursing loan, ``to improve social protection and health 
spending management.'' Two weeks before the election, $45 
million. I cannot believe that the United States, sitting on 
the IDB board, permitted such a loan to occur 2 weeks before 
the election, that we would provide an enormous infusion of 
money to the entity running in an undemocratic election and 
fuel the possibility to help them out 2 weeks before the 
election. It's amazing to me.
    So given the fact that we just plussed up the IDB's capital 
account and are looking to do the same again this year, I hope 
that part of your charge, should you be confirmed, would be to 
provide input to the State Department about flows of money 
coming from, in large part, U.S. taxpayers to an entity that 
certainly many of us on this committee believe is undemocratic.
    Senator Rubio.
    Senator Rubio. I would defer to Senator Lugar if he has any 
questions first.
    Senator Menendez. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ms. Reynoso, the trade that we have enjoyed with Uruguay, 
as you pointed out, has been very substantial. Long ago I 
suggested, along with many others, a free trade agreement 
between the United States and Uruguay. This administration has 
not shown interest in negotiating a free trade agreement. With 
that in mind, perhaps implementing a limited trade preference 
arrangement as a standby mechanism is in order until interest 
magnifies.
    Given that you have analyzed this in your various roles, 
could you tell us why we have not pursued a free trade 
agreement to begin with, and if there is any value in having a 
preference agreement? What suggestions do you have as to how we 
are going to accelerate trade with Uruguay? While you have 
already pointed out that such trade is substantial, in my 
opinion it could be significantly increased given the nature of 
Uruguay's economy and the instincts of the people there.
    Ms. Reynoso. Thank you, Senator, for the question. As you 
noted, our trade with Uruguay is substantial. It's complex. 
It's elaborate. It ranges from agriculture to energy to 
infrastructure. We do have a Trade Investment Framework 
Agreement in place with Uruguay that we use in a very robust 
and, I believe, an effective way. We meet regularly with our 
Uruguayan counterparts, and we have many matters in terms of 
commercial interests on the table to pursue to allow for even 
greater opportunity to come from that agreement.
    As you also noted, there was talk in the past of a free 
trade agreement with Uruguay. My understanding is that that is 
no longer on the table, and I think both parties chose not to 
pursue it for domestic reasons.
    Should I be confirmed, Senator, I do look forward to 
working within the context and the framework of the current 
TIFA, of the current Trade and Investment Framework Agreement, 
to expand its impact in terms of the opportunities for U.S. 
businesses and U.S. trade, but also consult at the highest 
level within the Uruguayan Government, and obviously consult 
with the highest levels in this government, to assess whether 
there is any interest in pursuing, in a firm and serious way, a 
trade agreement with Uruguay.
    Senator Lugar. Are there protectionist sentiments in 
Uruguay? You mentioned that the free trade agreement has not 
progressed because of reticence on both sides. Sometimes that's 
occurred on our side. But is that the case in Uruguay?
    Ms. Reynoso. Well, Senator, my understanding is that there 
were reservations in Uruguay. I can't tell you the particulars 
of who, how, but I do understand that there were some domestic 
concerns as to why a trade agreement, at the time that it was 
being considered, was not opportune.
    Senator Lugar. I appreciate your mention in your testimony 
of the potential for more college student exchanges between the 
countries. How many Uruguayan students come to the United 
States now? Do you have any idea?
    Ms. Reynoso. I would imagine, and I can get back to you 
with real numbers, Senator, but I would imagine in the 
thousands, tens of thousands, I would imagine.
    [The requested information follows:]

    Approximately 18,000 Uruguayans were approved for travel to the 
United States last year. Tens of thousands more already possess visas. 
Of those travelers, approximately 400 Uruguayan students and scholars 
pursued academic endeavors in the United States last year. The 
Department of State is committed to promoting education, professional, 
and cultural exchange. Embassy Montevideo expects student numbers to 
increase in coming years. As I mentioned in my testimony, if confirmed, 
I look forward to working to expand these numbers, and to be supportive 
of President Obama's 100,000 Strong initiative.

    Senator Lugar. I see. So already there is quite a bit of--
--
    Ms. Reynoso. There is quite a bit of back and forth in 
terms of exchange. Yes, Senator.
    Senator Lugar. Mr. Farrar, recently an article was written 
by Andres Oppenheimer in the Miami Herald, January 18, and I 
cite his name because he suggested, in fact, that Panama has 
been a Latin American star, with a 6.8-percent economic growth 
rate and the other statistics that you mentioned. However, at 
the same time, he states that the education system of Panama, 
which might support this competitive aspect, is very deficient, 
and there appears to be very little movement on the part of the 
government to improve that.
    Likewise, he notes that Panamanian growth is largely 
fostered by the Canal and projects and enterprises that are 
associated with that. Economic growth there may not be as 
strong as it could be given, perhaps, the lack of education or 
preparation.
    What is your judgment about that situation, and in what 
ways could the United States be helpful during your 
ambassadorship there?
    Mr. Farrar. Thank you very much, Senator, for the question. 
The Panamanian economy, as you mentioned, has shown incredible 
growth over the past 5 or 6 years. Much of it has been fueled 
by investment not only in the Canal but in other major 
infrastructure projects.
    Panama is seeking to create what it calls a ``City of 
Knowledge'' in Panama City to attract educational institutions 
to try and improve the educational system. They recognize some 
of the deficiencies there, and their deficiencies have been 
noted not only by Mr. Oppenheimer but also by the World 
Economic Forum and others as truly holding back even further 
economic progress.
    If confirmed, Senator, I would love to explore the 
opportunities for more engagement in the educational exchange 
between the United States and Panama. I would note that the 
Smithsonian Tropical Research Institute has been in Panama for 
more than 60 years and it's a leading institution for 
scientific investigation in the world. And I had the 
opportunity to visit the institution here in Washington last 
week and heard some amazing things regarding their operations 
there and their plans moving forward.
    Thank you.
    Senator Lugar. Well, I thank you for that testimony. 
Obviously, the rate of growth is astounding and important. The 
need for our country to work with the Panamanians to sustain 
this and improve it is obviously of value. But I thank you for 
your testimony.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    Senator Rubio.
    Senator Rubio. Thank you very much. First, let me just 
begin with Ms. Reynoso. I think this applies to all the folks 
here, but 
just reviewing your resume, it's pretty impressive. What are 
you 
doing in government is my biggest question. Congratulations to 
you. I know your family is here, and they should be very proud 
of your accomplishments, and I look forward to supporting your 
nomination.
    I do have a question about organized crime in Uruguay. I'm 
reading an article here from the Christian Science Monitor 
dated the 26th of January, and it talks about how traditionally 
Uruguay has been one of the safest countries in Latin America, 
but there's this increasing battle going on between different 
drug trafficking organizations, and the fear that some of this 
violence is spreading in that country.
    What are your thoughts about it in the short term? What can 
we be doing? What kind of assistance can we be providing? 
What's the general mindset in regards to how serious a problem 
it is and what we can be doing to head it off before it rises 
to the level of some of the other countries in the region?
    Ms. Reynoso. Thank you, Senator. As you noted, there is a 
sense of that there is an increase in insecurity in Uruguay. 
The population itself has taken notice, and the Government of 
Uruguay has also taken notice. We have a very robust and 
productive working relationship with the Uruguayan Government 
with respect to security. Our law enforcement agencies are very 
much working closely with them, and obviously at this point 
we're looking at possibilities of working even more closely 
because, as you noted, the risk and the insecurity, and we 
understand that there is an increase in certain types of 
organized crime.
    Our Office of International Narcotics and Law Enforcement 
under Ambassador Brownfield has been working with counterparts 
in Uruguay to provide support in terms of assessing risks, 
especially around issues of illicit trafficking and organized 
crime. So there is already a dialogue with the Uruguayans in 
this regard. We have very good cooperation with them in terms 
of law enforcement.
    But I think, as an initial matter, we're trying to assess, 
working with them, what the problem is, so we can get a better 
idea of how we can work with them to tackle it.
    Thank you.
    Senator Rubio. Thank you. And as we move forward in your 
assignment there, my opinion is it ought to be one of our 
priorities, because one of the things that could really slow up 
the miracle that's happening there and that kind of economic 
growth is if they have to divert resources to fighting off--
we've seen the horrible impact that that's had on these other 
countries.
    Ambassador Palmer, welcome. Thank you again for your 
service to our country. First of all, I'm very pleased that you 
mentioned PEPFAR, which is a phenomenal program that our 
country pursues around the world, and certainly in the 
Caribbean as well. I'm pleased to see as well that you 
mentioned in your opening statement the challenges that women 
face, particularly when it comes to domestic violence and the 
lack of opportunities, and I'm glad that that's something 
you'll focus on.
    The one thing I didn't hear you mention and I am concerned 
about is some of these nations' association with a Bolivarian 
Alliance for the Peoples of Our America, or what's known as 
ALBA, which quite frankly is, in my opinion an anti-American 
platform. More importantly, this is an alliance to which, 
according to a recent press report ``Dominica, St. Vincent, the 
Grenadines, Antigua and Barbuda are members, and St. Lucia has 
applied for formal inclusion.'' These are some of the things 
the group said when they met this past weekend.
    No. 1, they came out in support of the Syrian Government in 
the midst of a bloodbath that government is carrying out in 
that country. No. 2, they blasted England's so-called 
imperialist intentions against Argentina over the Falkland 
Islands.
    Given our Nation's close relations with these countries, 
what the United States means for them, what our relationship 
with them means, why are these countries participating in this 
anti-American bloc? Why are they involved in this, and isn't 
there some point where we take a stand and say, you know, 
you've got to make choices about who you want to be aligned 
with and who you want to be associated with? Why would any 
nations want to be associated with such ridiculous things as 
statements of support for the Syrian Government, which just 
happened this weekend, on the 5th of February, in the midst of 
what we're watching happening over there, which is a bloodbath?
    Ambassador Palmer. Thank you very much, Mr. Senator. As you 
mentioned, of the countries in the region, Barbados plus six, 
three of them, Antigua and Barbuda, Dominica and St. Vincent 
and the Grenadines are members of ALBA. There's much 
speculation as to why, but many of those countries are 
signatories to the Petro Caribe agreement in which they receive 
oil and produce at reduced rates and with long-term periods to 
repay it at reduced interest.
    However, upon close examination, all of those countries are 
stable democracies. They share our values of free markets. They 
believe in free press. They believe in free speech. They have 
respect for human rights and respect for the rule of law. They 
stand by us in votes with our multilateral organizations, and 
we engage very, very comprehensively in those countries.
    For example, in the region, we have the Caribbean Basin 
Security Initiative in which we help them fight illegal drug 
trafficking and promote social justice. We engage with their 
police. We help them fight corruption. We help them protect 
their borders and their maritime waters.
    I think all of this engagement by far out-shines any other 
type of influence that they may get from ALBA governments and 
ALBA philosophy.
    Senator Rubio. So, without putting words in your mouth, 
basically in exchange for cheap oil, they're willing to stand 
by and support things like the Syrian Government's shelling and 
killing of civilians, as it occurred last weekend and normal 
countries around the world said it is an outrage. But in 
exchange for cheap oil, these countries are willing to sit 
around and listen to people like Hugo Chavez and Daniel Ortega 
say some of the most ridiculous things that one could imagine.
    I think it's concerning, obviously, but I think you've 
outlined some of the other realities. But it was important to 
get to that because I still don't understand why they would 
want to be a part of a block of nations like this, but I think 
you shed some light on it.
    Ambassador Palmer. I think that brings up the importance of 
our people-to-people programs, because we do have people-to-
people programs that work with the NGOs, who proliferate our 
philosophies in terms of basic freedoms and democracy. And if 
confirmed, I will work diligently to support these programs and 
advance their causes.
    Senator Menendez. We thank you.
    I have some more questions, so we'll see if there are other 
members as well.
    Let me go back to you, Ambassador Powers. One final 
question, but I think it's an important one. In July of this 
year, under section 527 of the Foreign Relations Authorization 
Act, Secretary Clinton will have to decide whether to grant 
Nicaragua a waiver for failure to compensate U.S. citizens for 
properties that were confiscated by the Sandinistas during the 
1980s. And while there has been some progress made, there are 
many cases where this compensation has not been granted.
    If the Secretary fails to grant the waiver, is it your 
understanding that the United States would be obliged to vote 
against the loans and grants to Nicaragua at the IDB World Bank 
and IMF?
    Ambassador Powers. Senator, yes. It's my understanding that 
there are consequences if the waiver is not granted based on 
the Article 527 resolution. I can tell you that we are working 
very hard on these property rights issues. There's a full-time 
team at the Embassy, and if confirmed, it will be one of my 
priorities under my responsibility to protect U.S. citizens and 
their rights to ensure that all tools are used to move this 
forward, resolve these cases in accordance with the statute, 
just as I have worked to help resolve issues revolving around 
land investment in Panama.
    Senator Menendez. I appreciate that. Assuming your 
confirmation takes place speedily and you get to Nicaragua, can 
I ask you to commit to the committee that this will be one of 
the first things that you'll look at, since a July decision 
will be pending and I'd like to have a sense of how much 
progress has been made and whether the Secretary should, in 
fact, not grant the waiver?
    Ambassador Powers. Clearly, Senator, yes. Given that these 
are rights for U.S. citizens, it will be one of the first 
things on my list to address at the highest levels of the 
Nicaraguan Government to ensure we can get some progress on 
this issue.
    Senator Menendez. Thank you very much.
    Ambassador Powers. If confirmed.
    Senator Menendez. I have a sense it's going to happen, so 
that's why I'm working prospectively.
    Mr. Farrar, do you share the concerns of some civil society 
groups that judicial independence in Panama has deteriorated 
under the Martinelli government? In particular, President 
Martinelli has introduced a bill in the Congress that would 
create a fifth court. If approved, the new court would have 
three new justices, all appointed by him, and would deal with 
constitutional issues, one of them being the constitutionality 
of presidential term limits.
    What's your view of that?
    Mr. Farrar. Thank you very much, Senator. First of all, let 
me just say that the United States strongly supports the 
principles of judicial independence and separation of powers, 
and those principles are enshrined in article 3 of the Inter-
American Democratic Charter.
    Our human rights report on Panama also points up to this 
issue of judicial independence in Panama. And as you mentioned, 
it's an item under vigorous public debate in Panama right now.
    Part of this debate includes a package of recommendations 
for constitutional reforms, some of which may, depending upon 
how the debate goes, result in strengthening judicial 
independence. I think looking forward, this is something that 
the Embassy has been following very closely. It's of critical 
importance to us. If confirmed, I would certainly continue to 
follow that and would be prepared to speak out as needed to 
defend the principles that I mentioned at the beginning of my 
response.
    Thank you.
    Senator Menendez. Thank you.
    Ms. Reynoso, President Mujica is a little over a year-and-
a-half into his term. How well do you think his administration 
has worked with the United States compared to his predecessor, 
President Vasquez?
    Ms. Reynoso. Thank you, Senator. We have a very good 
working relationship with the Uruguayan Government. We had a 
very good relationship with President Vasquez. President Mujica 
shares a similar vision of Uruguay and a similar vision of our 
relationship with Uruguay. The principles of democracy, of 
conflict resolution, of economic stability and social inclusion 
continue under this administration, as they did under President 
Vasquez.
    So I believe, if confirmed, the engagement with the 
Uruguayan authorities and President Mujica himself will be as 
productive and as effective as we had under President Vasquez.
    Senator Menendez. And finally, Ambassador Palmer, part of 
our subcommittee's jurisdiction in the Western Hemisphere is 
also global narcotics, and we have seen the use of the 
Caribbean as a transshipment point for illegal drugs from Latin 
America to the United States. And while it has diminished over 
the past decade as we've seen that route go to Mexico and 
Central America, we have seen a resurgence of trafficking 
through the Caribbean region.
    How will you deal and engage with the countries that you're 
going to be our Ambassador to on this issue?
    Ambassador Palmer. Thank you very much, Mr. Chairman. As 
you mentioned, there has been an apparent resurgence in that, 
and to combat this, the Department has established a 
partnership with the countries in the Eastern Caribbean called 
the Caribbean Basin Security Initiative. It is an initiative 
that grew out of the 2009 Summit of the Americas.
    As a part of this initiative, we work with each--it's a 
regional plan, and we have individual plans with all of these 
countries. For example--and, of course, the goal is to stem 
illegal trafficking, promote social justice, and to increase 
citizens' safety. As a part of this, for example, this year six 
countries in the Eastern Caribbean will receive interdiction 
boats to protect their maritime borders. In addition to that, 
we work with their police. We train their police. We equip the 
police with the things that they need to make arrests. We also 
work with the judges and the prosecutors. We work with 
financial intelligence units so not only can the police arrest 
them, but they can be prosecuted, to look not only at drugs but 
also money laundering.
    But as part of this, we want to invest in the future. And 
so we take a look at the youth, and as a part of the Caribbean 
Basin Security Initiative we have set up youth rehabilitation 
academies. We just had 216 Caribbean youth graduate from the 
first part of these.
    We engage the resources of our Department of Health, DHS. 
They come in and they expand their activities in their ports, 
the airports. We have set up a net, a security net in which 
each country shares intelligence about drug trafficking with 
and between. And as well, we work with the regional security 
section that sets up an air wing that does aerial surveillance. 
All of these things relieve some of the burden on our own 
assets, for the Coast Guard, for example, in the region, and 
we've seen progress toward reducing some of this drug traffic.
    Senator Menendez. Thank you very much.
    Let me take the prerogative of the Chair for a moment just 
to recognize that our distinguished colleague from the House, 
Congressman Serrano, has come to be supportive of Ms. Reynoso. 
We appreciate his presence. We appreciate his support, for the 
record, of Ms. Reynoso to be the Ambassador to Uruguay, and we 
thank you for joining us.
    Do any of my other colleagues have any further questions?
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    I would like to raise a broader question about which any of 
you might have a comment. About 30 years ago, a little bit less 
than that, this committee was seized with the excitement of 
events taking place in countries located mostly in Central 
America. El Salvador, Guatemala, Nicaragua, and Honduras were 
all nations that some of us went to in order to serve as 
election observers or help set up ballot paper and all the 
rudiments for elections. It was an exciting period in which our 
government obviously was heavily involved, deeply interested in 
the evolution of democracy in the Caribbean and then in South 
America, and often it was pointed out during this period of 
time that every country in our hemisphere became a democracy 
with the exception of Cuba.
    But that was then. The excitement has subsided. We've been 
involved, unfortunately, in military action in the Middle East, 
and deeply involved with the states of the former Soviet Union.
    I'm just wondering, as each one of you is deeply involved 
in the developments in the region, has there been a feeling of 
being let down among those countries with which we previously 
had this intense interest? In a related matter, how should we 
enhance our own communication with the people of the region? 
Should it be through our broadcasting or social media programs? 
Is tourism stronger in the midst of all of this, quite apart 
from political developments or things we discuss in this 
committee?
    Ms. Powers, do you have a thought about any of this?
    Ambassador Powers. Thank you, Senator. Yes, I do. Speaking 
about what I've learned about Nicaragua, Nicaraguan people have 
a very positive view of the United States, much because of the 
types of assistance that we have provided over the years under 
three pillars: one, fighting malnutrition and poverty; two, 
working to increase and improve good governance in the country; 
and three, working with the Nicaraguan Government on security 
and counternarcotics issues. Recent polls have shown that the 
Nicaraguan people are very pleased and have a very positive 
view of the United States in spite of a difficult bilateral 
relationship.
    In my experience in other countries, what the United States 
puts forward in assistance and support resonates well with the 
people, even if it doesn't always resonate well with the 
governments.
    Thank you.
    Senator Lugar. Ambassador Palmer, do you have a reflection?
    Ambassador Palmer. Thank you, Mr. Senator. I agree with 
Ambassador Powers very much. It is our actions with the people 
that have been very, very effective.
    Senator Rubio, you mentioned my comments in terms of 
PEPFAR. For example, HIV/AIDS in the Eastern Caribbean, the 
prevalence is very high, second only to sub-Saharan Africa. But 
we have six of our agencies engaging in the PEPFAR program 
there, USAID, DOD, CDC, our Peace Corps. We are engaging in 
that. Peace Corps, for example, with 115 Volunteers, are 
involved in youth education and programs to prepare youth, to 
provide opportunities for jobs. We help them, as I mentioned 
before, with citizen safety.
    All of these programs ring very well with the citizens, and 
as a result the citizens of the Eastern Caribbean have a very 
positive view of the United States.
    In addition, we engage the diaspora. We have a number of 
citizens here in the United States, and they all help to push 
these things forward.
    So as Ambassador Powers mentioned, our programs ring well 
with the people and with most governments.
    Senator Lugar. Mr. Farrar, do you have a thought?
    Mr. Farrar. Yes. Thank you, Senator. I would say that 
there's an excitement in United States-Panama relations today. 
The excitement you mentioned 30 years ago continues. There's 
excitement over implementing the trade promotion agreement, to 
bring free trade between our two countries. There's an 
excitement over the expansion of the Panama Canal, an expansion 
which is also sparking investment in the United States, in U.S. 
ports that are getting ready to handle the ships that will 
transit the Canal beginning in late 2014.
    I read a recent poll which showed that there is tremendous 
good will in Panama toward the United States. There's 
tremendous interest in Panama toward greater cooperation with 
the United States in the area of counternarcotics and security 
cooperation; and interestingly, a lack of knowledge about what 
we're doing already. So I think we can do more to get the word 
out. But there is a tremendous excitement still.
    Thank you.
    Senator Lugar. Ms. Reynoso.
    Ms. Reynoso. Thank you, Senator. Uruguay is a model of 
democracy in the region. It did, as did many other countries in 
South America, undergo a transformation in the 1980s.
    With respect to Central America in particular, I can say 
that democracy is a work in progress. We have seen some 
victories. We have seen some things go well. We have also seen 
some things 
that have not gone well at all, as we stated with the 
Nicaraguan elections.
    The good news is that I have seen, based on my experience 
over the last 2 years, that the Nicaraguan people and the 
Central American people generally understand the basic 
principles of democracy and want it, and are looking for ways 
to make it part of their daily routine, and are angered. They 
have voiced anger to us. They voice their anger through their 
votes. They voice their anger through civic engagement.
    We have to create and help them create methods of 
accountability that allow their institutions to surpass any 
type of dramatic institutional deterioration, as has happened 
in Nicaragua. That is hopefully something that the United 
States and our partners in the region, a country like Uruguay, 
can help the Central Americans and the countries in the 
Caribbean and other countries that require support to be able 
to move forward in that direction.
    Senator Lugar. I thank each one of you for your comments. 
Thank you for your previous service. I look forward to 
supporting each of your nominations and wish you every success.
    Senator Menendez. Thank you, Senator Lugar.
    Senator Rubio.
    Senator Rubio. Thank you, and I'll be brief. Thank you all 
again for being here today.
    Just two quick observations I wanted to make for the record 
on both Nicaragua and Panama. My sense of talking to people 
both in Nicaragua that have visited us and people living here 
in the United States of Nicaraguan descent is that while 
generally the population is grateful for some of the money that 
Venezuela has poured into that country, they're concerned about 
it too. Obviously, there's real concern that it's not 
sustainable, and rightfully so. And the second is some of the 
price they've had to pay in exchange for this support. 
Obviously, we've seen how the elections have been undermined 
and all the institutions that are critical to a democracy have 
come under attack.
    But then there's some of the associations that Mr. Ortega 
has made around the world. Just as he took the oath of office a 
few weeks ago, he was flanked on stage by both Mr. Chavez and 
Ahmadinejad, and he pilloried the U.S. occupation, as he termed 
it, of Iraq and Afghanistan. He lamented the death of former 
Libyan leader Moammar Qadhafi, and he paid respects to former 
Iraqi leader Saddam Hussein.
    This is embarrassing to the Nicaraguan people, who are 
rightfully concerned, but they're also embarrassed by the image 
of their country. By the way, I saw polling that President 
Obama is more popular than Mr. Ortega is in Nicaragua. So I 
think that goes to some of the comments that were made earlier 
about the views of the United States.
    But Iran is more than just an irritant, and this 
relationship with Iran is more than just an irritant. This is a 
country that uses asymmetrical attacks, things like terrorism, 
as a foreign policy tool. We saw that very recently with the 
allegations, the uncovering of a plot to assassinate the Saudi 
Ambassador to the United States.
    I just hope that the administration, and it would be 
through you, is going to make it very clear to Mr. Ortega that 
if he wants to say these sorts of things that embarrass him 
with his own people, that's one thing, but there are some 
bright redlines that he should not be crossing, or that any 
nation in the Western Hemisphere should not be crossing, when 
it comes to the relationship with Iran. There are things that, 
for the security of this Nation, we will not tolerate in terms 
of an Iranian presence in this hemisphere, and I think it's 
important that that message be made very clear. I hope in your 
role that you'll encourage the State Department and the 
administration to move in that direction.
    As far as Panama is concerned, Mr. Farrar, as you know in 
your previous nomination, I've had some disagreements about the 
approach that you took in your previous role in the Interests 
Section in Cuba. That being said, you're now going to Panama, a 
country that for most of us is seen as a place with a stable 
democracy and real economic promise. But there are some 
troubling signs emerging from Panama.
    As was outlined earlier by Senator Lugar, in a recent 
article by Mr. Oppenheimer, who is a well-informed observer of 
the Western Hemisphere, he talked about a growing concern over 
Mr. Martinelli's strong-arm ruling style. Mr. Oppenheimer says 
that President Martinelly already controls the National 
Assembly and the Supreme Court. His critics say that he could 
move to control the electoral tribunal, the independent agency 
that oversees the Panama Canal, and he may even seek to reelect 
himself despite a constitutional ban on reelection.
    It's hard for people to give up power. Sometimes when these 
guys or gals get there, they don't want to let go of it. I 
think we take that for granted in this country. Sometimes after 
8 years, our Presidents aren't ready to leave, but they have 
to. In some of these countries, they figure out a way to get 
around it. I hope that in your new role, if, in fact, he takes 
this country in that direction--and we hope they don't--you 
will be a strong voice on the side of democratic and 
independent institutions. I don't care how good the economy is; 
I don't care how great our relationships are on other issues. 
We cannot stand by and watch one more nation join the ranks of 
countries where their leadership are deliberately undermining 
the institutions of democracy and while we do nothing about it.
    So I hope in this role, when you get there, that you will 
pledge to be a strong voice to condemn any move in this 
direction.
    Thank you.
    Senator Menendez. Thank you, Senator.
    I think you all have a sense of where we're at on these 
issues. I appreciate your testimony and answers here today. I 
look forward to supporting all four of you in your nomination 
when it comes before the full committee.
    I will rectify a previous statement I made. Instead of 
keeping the record open until Friday, we will keep the record 
open for QFRs for 24 hours. This will give us the best chance 
of having all of your nominations before the next business 
meeting, which will take place on, of all days, Valentine's 
Day. [Laughter.]
    So with that, and with no other business to come before the 
committee, this hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Julissa Reynoso to Questions Submitted by 
                        Senator Richard G. Lugar

    Question #1. Please explain what relevant experience you have had 
to prepare you to represent the United States of America as Ambassador 
to Uruguay. What interaction have you had with Uruguay in an official 
U.S. Government capacity?

    Answer. Both my professional career and my education have prepared 
me to represent the United States as Ambassador. As the Deputy 
Assistant Secretary of State for Central America and the Caribbean in 
the Bureau of Western Hemisphere Affairs since November 2009, I have 
worked diligently to advance U.S. priorities within the region and, if 
confirmed, I welcome the opportunity to utilize this experience as 
Ambassador to Uruguay.
    Additionally, my education, which includes a substantial 
international component, has also prepared me for this opportunity. I 
have a B.A. in Government from Harvard University, a Masters in 
Philosophy from the University of Cambridge in the United Kingdom, and 
a J.D. from Columbia University School of Law. Prior to working at the 
State Department, I practiced law at the international law firm of 
Simpson Thacher & Bartlett LLP in New York, focusing on international 
arbitration and antitrust law and was a fellow at New York University 
School of Law and Columbia Law School.
    In my official capacity as Deputy Assistant Secretary, I have 
worked with the Government of Uruguay on vital issues in the context of 
the Haiti Group of Friends, as Uruguay is currently the Chair, as well 
as with MINUSTAH. Uruguay is a leading partner in U.N. peacekeeping 
and, if confirmed, I look forward to continuing the important dialogue 
and cooperation with the Government of Uruguay.

    Question #2. Despite Uruguay's small size and geographic location, 
U.S. initiatives to expand diplomatic and commercial ties with Uruguay, 
could afford an opportunity for the United States to constructively and 
strategically, extend its influence in the Southern Cone, a subregion 
historically given less attention by U.S. foreign policymakers compared 
to other areas of Latin America. Please explain your views regarding 
the importance of countries of the Southern Cone for United States 
foreign policy objectives in South America. Please explain Uruguay's 
importance for United States foreign policy objectives in the Southern 
Cone.

    Answer. The countries of the Southern Cone are critically important 
for U.S. foreign policy objectives in the hemisphere precisely because 
these countries include some of Latin America's oldest, strongest, and 
most successful democracies. The United States principal strategic 
goals in the region are supporting citizen security, strong 
institutions, and democratic governance. Healthy and successful 
Southern Cone democracies that respect rights, enforce rule of law, and 
sustain growing economies that welcome foreign investment serve as an 
important example for the entire region. Uruguay, in particular, is a 
model, high-functioning democracy in the Southern Cone, and, as such, 
is an important partner in advancing shared policy objectives. I am 
committed to continuing, and expanding, as appropriate, the range of 
programs whereby the United States supports citizen security, strong 
institutions, and democratic governance in Uruguay.

    Question #3. The Vazquez administration sought to reduce its 
reliance on Argentina and Brazil by strengthening ties with the United 
States. Since taking office, the Mujica administration has shifted the 
emphasis of Uruguay's foreign policy, prioritizing improved relations 
with Uruguay's neighbors and further diversification of global trade. 
Please explain how you would encourage President Mujica to redirect 
Uruguay's foreign policy back to making the strengthening of ties with 
the United States a priority. If confirmed, what specific proposals 
(commercial and political) would you offer to persuade President Mujica 
that closer ties with the United States are in Uruguay's national 
interest?

    Answer. While it is true that President Mujica has placed more 
emphasis than his predecessor on what he has called Uruguay's 
``integration in its region,'' it is also worth noting that President 
Mujica's efforts to diversify Uruguay's trade relations are opening new 
avenues for commercial and investment ties to the United States. Among 
my top priorities as Ambassador, if confirmed, will be reviewing 
outstanding issues in agricultural trade between the United States and 
Uruguay with a view to enabling freer--and more mutually advantageous--
trade between our two countries. Again if confirmed, it is my intention 
to personally engage with and support U.S. firms interested in doing 
business in Uruguay. In addition, President Mujica's focus on education 
reform in Uruguay and his expressed desire for more scientific and 
technical exchange with the United States will be an ever more 
important source of ties between Uruguayan and American institutions 
and individuals, as we strive to achieve President Obama's 100,000 
Strong in the Americas goal. Our cooperation programs with Uruguay's 
Armed Forces--building their multilateral peacekeeping, emergency 
response and border patrol capabilities--will also build closer ties 
with the United States, and can advance shared objectives.

    Question #4. Uruguayan Government officials concede that Uruguay 
has a problematic historical, and most recently, commercial 
relationship with Argentina, particularly in the wake of disagreements 
such as the dispute over the construction in Uruguay of a cellulose 
pulp mill near the Uruguayan border with Argentina. Have Uruguay's 
problems with Argentina weakened Uruguay's relations with MERCOSUR? If 
confirmed, please explain how you will work with U.S investors to 
develop lucrative commercial initiatives that could also help make up 
for Uruguay's commercial losses as a result of its difficulties with 
Argentina?

    Answer. In spite of numerous commercial and bilateral challenges in 
the Uruguay-Argentina relationship, the Government of Uruguay remains 
solidly committed to MERCOSUR. It appears that the Uruguayan Government 
has determined to seek to resolve commercial differences by appealing 
to MERCOSUR solidarity, and by taking advantage of the strong 
relationship between President Mujica and his fellow MERCOSUR 
Presidents.
    Our Embassy in Montevideo is working closely with the U.S. business 
community to advocate for greater opportunities in the logistics, 
information technology, agriculture, energy, security, and 
infrastructure/construction sectors, among others. We have seen 
enthusiastic responses to our commercial initiatives, and we are 
confident that U.S. investment and exports will continue to increase in 
Uruguay as the local economy expands. The Embassy is also pursuing 
opportunities for U.S. firms through innovative public-private 
partnerships in Uruguay, a new mechanism that has opened public works 
and infrastructure projects to private sector participation.

    Question #5. Would you characterize Uruguay's political 
relationship with Brazil as closer than Uruguay's relationship with the 
United States? Would you characterize Uruguay's commercial relationship 
with Brazil as being closer than Uruguay's commercial relationship with 
the United States?

    Answer. Uruguay's foreign policy and political relations with 
Brazil are strong. President Mujica personally invests time and effort 
in his relationship with President Rousseff, and he also maintains a 
productive and close friendship with former President Lula. Geography, 
joint membership in MERCOSUR and UNASUR, and economic relations in the 
context of the dynamic success of the Brazilian economy, are all 
important factors in the strong relationship between Uruguay and 
Brazil.
    Brazil is Uruguay's largest export market (approximately $1.6 
billion in 2011), and Brazilian exports account for the largest share 
of total imports from any country (just over $1.9 billion). The United 
States was Uruguay's fourth-largest supplier of goods in 2011, with 
$734 million, while Uruguay exported roughly $245 million to the United 
States last year. United States-Uruguayan economic ties remain robust, 
and if confirmed, I will work diligently with American companies to 
find expanded markets for American products and services.

    Question #6. Would you characterize Uruguay's commercial 
relationship with China as being closer than Uruguay's commercial 
relationship with the United States?

    Answer. China has become an increasingly important trading and 
investment partner for Uruguay, as it has for many countries in the 
Americas, including the United States. Chinese foreign direct 
investment in Uruguay is centered on auto manufacturing and port 
development, while Chinese exports are found across a range of sectors 
in Uruguay. China is an important purchaser of Uruguayan soy and beef, 
as well as other commodities that transit through free trade zones.
    In 2011, China was the third-largest exporter to Uruguay (roughly 
$1.4 billion), while Uruguayan exporters supplied $664 million in goods 
to China--the second-largest export destination after Brazil. The 
United States stood as the fourth-largest exporter to Uruguay in 2011 
with $734 million, compared with $245 million in Uruguayan goods 
exported to the United States. United States-Uruguayan economic ties 
remain strong, and if confirmed, I will work with American companies to 
find expanded opportunities for enhanced trade and commerce.

    Question #7. Trade ties between the United States and Uruguay have 
grown since 2002, when the countries created a Joint Commission on 
Trade and Investment. The joint commission has provided the means for 
ongoing United States-Uruguay trade discussions, which led to the 
signing of a bilateral investment treaty in October 2004 and a Trade 
and Investment Framework Agreement (TIFA) in January 2007. The TIFA is 
a formal commitment to pursue closer trade and economic ties. Although 
then-President Bush and Vazquez initially sought to negotiate a free 
trade agreement with Uruguay, in your confirmation hearing on February 
7, 2012, before the Senate Foreign Relations Committee, you mentioned 
that both the United States Government and the Government of Uruguay 
chose not to pursue a free trade agreement due to ``reticence'' from 
both sides in the fall of 2009.
    Please provide a detailed explanation regarding why the United 
States Government (USG) chose not to pursue a Free Trade Agreement 
(FTA) agreement with Uruguay in 2009. What is the likelihood of 
beginning talks regarding negotiating an FTA with Uruguay during the 
Obama administration? Is it a priority of the Obama administration to 
pursue an FTA with Uruguay?

    Answer. The United States and Uruguay have utilized the TIFA as the 
principal mechanism to advance bilateral commercial and investment 
issues. This agreement, which includes advanced supplementary protocols 
on trade and the environment as well as trade facilitation, provides 
for yearly meetings of a bilateral trade and investment council. If 
confirmed, I look forward to working within the framework of the TIFA 
to facilitate expanded commercial opportunities and advance trade 
between the two countries.
    The MERCOSUR charter does not permit MERCOSUR members, which 
includes Uruguay, to negotiate individually an FTA with another 
country. We have no indication that MERCOSUR, as a bloc, is prepared at 
this time to take on the commitments that would be required to enter 
into an FTA with the United States.

    Question #8. Uruguay is now losing markets and jobs to countries 
that have free trade agreements with the United States. In Uruguay 
there is particularly concern about the situation of the Uruguayan 
textiles and apparel industry, which has shrunk over the last decade, 
with a slight recovery since 2003. Heavily based on wool production, 
this sector employs about 21,000 workers, though its unemployment rate 
remains high. Uruguayan textile and apparel producers face high tariffs 
in the U.S. market (17.5 percent for wool-based apparel and 25 percent 
for wool fabrics), as well as strong competition from FTA signatories 
with the United States (mainly Chile, Mexico, and Peru). Uruguay also 
faces difficulties in exporting fabric to these countries since the 
FTAs require that apparel be produced with U.S.-sourced or local 
fabrics. The combination of MERCOSUR restrictions, high entry tariffs, 
and rules of origin specifications has caused Uruguay to lose its 
market share in the United States. U.S. trade preferences for textiles 
and apparel would help Uruguayan exporters regain market access in the 
United States and have a dramatic positive economic impact on Uruguay. 
These industries are key sources of employment in Uruguay that have 
been hurt by both U.S. tariffs and the economic downturn.
    By granting Uruguayan goods expanded access to the U.S. market, the 
USG would solidify its image as a reliable and strategically important 
partner, thereby strengthening the bilateral relationship with Uruguay. 
U.S. trade preferences would be viewed as a vote of support for the 
Government of Uruguay (GOU). The Obama administration seems 
disinterested in the negotiation of an FTA with Uruguay, but unilateral 
tariff preferences might be an appropriate intermediate step toward 
deepening our relations with Uruguay--unilateral trade preferences can 
lead to the negotiation of a reciprocal FTA.

  <bullet> Please explain your views regarding granting unilateral 
        tariff preferences for Uruguayan textiles and apparel, to 
        expand commercial ties between the United States and Uruguay, 
        as an intermediate step toward an FTA.

    Answer. The U.S. Government remains committed to deepening 
commercial ties between the United States and Uruguay. As Ambassador, 
one of my top priorities will be the health and strength of the 
bilateral relationship, and the promotion of U.S. interests in Uruguay. 
The granting of trade preferences to any nation, either unilaterally or 
through a Free Trade Agreement (FTA), is a matter for the President and 
the Congress to decide and, if confirmed, I would work to advance our 
foreign policy initiatives.
    We currently have a Trade and Investment Framework Agreement (TIFA) 
with Uruguay, which is typically a precursor to an FTA. However, the 
MERCOSUR charter does not permit MERCOSUR members, which includes 
Uruguay, to negotiate individually an FTA with another country. We have 
no indication that MERCOSUR, as a bloc, is prepared at this time to 
take on the commitments that would be required to enter into an FTA 
with the United States.
                                 ______
                                 

      Responses of Julissa Reynoso to Followup Questions Submitted
                      by Senator Richard G. Lugar

    Question. Please provide a detailed explanation regarding why the 
United States Government (USG) chose not to pursue a Free Trade 
Agreement (FTA) agreement with Uruguay in 2009.

    Answer. It is my understanding that former President Bush discussed 
the idea of negotiating an FTA with Uruguay's President Vazquez in the 
spring of 2006. Later in September 2006, the Uruguayan Government 
expressed interest in negotiating an FTA under Trade Promotion 
Authority (TPA). However, with the expiration of TPA on June 30, 2007, 
and MERCOSUR's limitations, the two governments did not move forward 
with negotiations. The nature of the MERCOSUR charter presented 
complications for Uruguay to pursue an FTA with the United States, 
because the charter does not permit MERCOSUR members, which includes 
Uruguay, to negotiate individually an FTA with another country.
    Instead, the two sides worked very hard to negotiate a rigorous 
Trade and Investment Framework Agreement (TIFA), which was signed on 
January 25, 2007, and reaffirms the commitment of our two governments 
to expand trade and economic opportunities between both countries. I 
understand that the Government of Uruguay has not expressed interest in 
pursuing an FTA. I do believe, however, that there are opportunities to 
expand on current agreements and partnerships to enhance both our 
political and economic relationship with Uruguay, and if confirmed, I 
will look to actively utilize these existing agreements and instruments 
to further advance commerce and trade between our two countries. 
Additionally, if confirmed, I will work closely with you, your staff, 
and the Foreign Relations Committee, to advance trade and economic ties 
between the United States and Uruguay.

    Question. Please explain with specifics, how if confirmed, you will 
work through the framework of the TIFA to further expand commercial 
opportunities and advance trade between our two countries. What sectors 
will be your priority to facilitate expanded commercial opportunities 
and trade between our two countries? Are textiles and apparel areas 
where commercial opportunities can be expanded under TIFA?

    Answer. The TIFA has two main protocol agreements, one focusing on 
overall trade facilitation and the second on the environment. We 
utilize the TIFA as an umbrella agreement in which we can facilitate 
the active dialogue between our countries and aggressively consider 
new, expanded avenues for trade. Indeed, in the context of TIFA 
discussions, we incorporate many aspects of our commercial, trade, and 
economic agenda including the Energy Climate Partnership of the 
Americas (ECPA), the USDA's Foreign Agricultural Service (FAS) program 
and related instruments. If confirmed, I look to broaden and deepen our 
bilateral relations and will evaluate the possibility for textiles and 
apparel opportunities. Another area I look forward to expanding, if 
confirmed, is Uruguay's participation within ECPA. Uruguay is a partner 
country in an ongoing FAS-led program to promote agricultural 
production and use of renewable biomass for energy, an ECPA initiative. 
This ongoing 2-year FAS program promoted agricultural production and 
use of renewable biomass for energy, and included an initial planning 
workshop and subsequent scientific exchange of fellows, a study tour, 
and in-country demonstration projects.
    Another opportunity is through our existing partnership within the 
energy industry and our MOU on Alternative Energy and Energy Efficiency 
which was signed in September 2008. Through the MOU, our Embassy in 
Montevideo has pursued a series of biofuels and alternative energy-
related initiatives with the Government of Uruguay. For example, 
visiting experts have given seminars on topics such as cellulosic 
biofuels, the EPA's Methane to Markets program, land use management, 
the use of carbon credits to fund biofuels projects, and biofuels' 
compatibility with current engine design. Our Embassy also provides 
technical assistance to identify equipment suppliers as well as 
information on standards for ethanol.
    I believe there are opportunities to expand on these agreements and 
partnerships to enhance both our political and economic relationship, 
and if confirmed, I will look to actively utilize these existing 
networks and instruments to further advance commerce and trade between 
our two countries.

    Question. In answering question #3 of the first round of questions 
you stated, ``Among my top priorities as Ambassador, if confirmed, will 
be reviewing outstanding issues in agricultural trade between the 
United States and Uruguay with a view to enabling freer--and more 
mutually advantageous--trade between our two countries.'' What 
outstanding issues in agricultural trade are you referring to? Through 
what mechanism will you be ``enabling freer--and more mutually 
advantageous--trade between our two countries'' in the area of 
agricultural trade?

    Answer. Uruguay and the United States continue to look for 
opportunities to expand our trade in agricultural products as both 
countries have significant and mature domestic industries with a wide 
range of exportable products and services. Agricultural machinery and 
fertilizers are key U.S. exports to Uruguay currently and, if 
confirmed, I will work with American companies operating in Uruguay to 
seek new markets to expand trade and create opportunities for these 
American products. I also would look for opportunities for American 
companies not already operating in Uruguay to enter the Uruguayan 
market and utilize Uruguay's position within Mercosur as an additional 
avenue to gain market access to Mercosur countries.
    Examples of expanding agricultural trade and the removal of trade 
impediments between our countries include the pending market access for 
Uruguayan ovine meat and citrus fruit to the United States and American 
beef in Uruguay. The process of gaining market access, while detailed 
and possibly lengthy, offers avenues for additional and complementary 
markets for American products and services. If confirmed, I will 
aggressively seek these opportunities.

    Question. In answering question #3 of the first round of questions 
you stated, ``In addition, President Mujica's focus on education reform 
in Uruguay and his expressed desire for more scientific and technical 
exchange with the United States will be an ever more important source 
of ties between Uruguayan and American institutions and individuals, as 
we strive to achieve President Obama's 100,000 Strong in the Americas 
goal.''
    If confirmed, how do you intend to do this in concrete terms? Would 
you consider encouraging and assisting Uruguay to pursue a strategic 
bilateral agreement with a specific U.S. state, such as the Chilean 
Government's strategic bilateral agreement with the state of 
Massachusetts (which focusses on collaborative research in the areas of 
education and biotechnology)? Please provide your views on pursuing 
strategic bilateral agreements. If you approve of this approach, please 
provide your specific ideas, if confirmed, for developing strategic 
bilateral agreements with Uruguay.

    Answer. The United States and Uruguay have a long history of 
collaborating on science and technology-related projects. On April 29, 
2008, the United States and Uruguay signed a bilateral Science 
&Technology agreement that provides a framework to advance science and 
technology cooperation. Priority areas include health and medical 
research, alternative energies, and Antarctic research. Other areas of 
cooperation include agriculture; meteorology; hydrology; fisheries; 
atmospheric sciences; disaster response and management; science policy 
networking; capacity-building and research and professional exchanges; 
and fostering innovation through public-private partnerships. This 
foundation of collaborative research represents a wealth of 
opportunities for expanded cooperation between scientific institutions 
in Uruguay and the United States.
    If confirmed, I will work to create new linkages between American 
and Uruguayan universities and research centers in the key fields of 
science, technology, engineering, and mathematics--the so-called STEM 
fields--as well as in other academic disciplines. These linkages would 
facilitate expanded educational exchanges. Beyond these linkages 
between institutions, I also would encourage the development of 
strategic bilateral agreements between our two countries at either the 
state or local levels and would work to facilitate these avenues of 
cooperation. If confirmed, I will encourage all sections of our Embassy 
to develop close relationships with key academic institutions in 
Uruguay with whom visiting U.S. delegations can engage to build 
productive partnerships. I am a firm believer in educational exchanges 
and would dedicate time and energy to furthering these opportunities.
    I wish to highlight that I would look first to the State of 
Minnesota as a possible partner for Uruguayan institutions, given the 
existing connections with numerous academic and research institutions 
and the high interest in sustainable urban development in Minneapolis. 
Additionally, the University of Minnesota with its strong agricultural 
base would be a natural fit for cooperation with Uruguay's leading 
universities. The State of Connecticut might be another possibility as 
it has an existing and active U.S. Department of Defense State 
Partnership Program that, if confirmed, I would look to leverage for 
expanded opportunities.

    Question. In answering question #8 of the first round of questions 
you stated ``The MERCOSUR charter does not permit MERCOSUR members, 
which includes Uruguay, to negotiate individually an FTA with another 
country. We have no indication that MERCOSUR, as a bloc, is prepared at 
this time to take on the commitments that would be required to enter 
into an FTA with the United States.''
    On July 15, 2005, the new FTA between Mexico and Uruguay entered 
into force, as the result of an intense process of negotiations boosted 
by the Presidents of both nations with the aim to reinforce the 54 
Complementary Economic Agreement signed by MERCOSUR and Mexico.
    Since Uruguay is a member country of the Common Southern Market, it 
operates as a gateway for Mexico to enter into the MERCOSUR. Mexico 
aims to participate in the block as an associated country in the free-
trade area. The prospect of a similar kind of agreement for the United 
States is very attractive not only because of the advantages of a trade 
agreement with Uruguay, but also because it would operate as a gateway 
for the United States to enter into the MERCOSUR and trade with Brazil, 
Argentina and Paraguay, as well.
    Please explain your views regarding the process that took Uruguay 
and Mexico to sign an FTA, normally outlawed by MERCOSUR. Please 
explain why the United States can, or cannot pursue a similar process.

    Answer. Interlocutors inform us that the trade agreement, which is 
an Economic Complementation Agreement signed by Mexico and Uruguay in 
November 2003, is an exception to Mercosur's prohibition on bilateral 
agreements between a member and a third party. It is built on an 
existing 1999 economic agreement between Mexico and Uruguay, as well as 
the 2002 Mexico-Mercosur complementary economic agreement. The 2002 
agreement endorsed the idea of pursuing closer trade with Mexico and 
helped to justify the exception afforded to Uruguay and was 
``grandfathered'' into the agreement.
    At this time, we have no indication that MERCOSUR, as a bloc, is 
prepared to take on the commitments that would be required to enter 
into an FTA with the United States. That said, if confirmed, I will 
look to utilize all existing agreements, like the TIFA and all other 
related instruments, to expand trade and commercial opportunities for 
American products and services.

    Question. Please provide specific information regarding your role 
as U.S Deputy Assistant Secretary of State for Western Hemisphere 
Affairs for Central America, Caribbean, and Cuba, in efforts to gain 
the humanitarian release of Alan Gross from Cuba. Alan Gross has been 
held since his arrest in December 2009, accused of bringing satellite 
and other communication equipment into the country illegally. He has 
acknowledged he was working on a USAID-funded democracy program, but 
says he meant no harm to the government and was only trying to help the 
island's small Jewish community.

    Answer. Alan Gross has been unjustly imprisoned for more than 2 
years. He is a dedicated international development worker who has 
devoted his life to helping people in more than 50 countries and he was 
in Cuba to help the Cuban people connect with the rest of the world. We 
deplore the fact that the Cuban Government specifically excluded Mr. 
Gross from the 2,900 prisoners it decided to release at the end of 
December.
    For more than 2 years, in close coordination with Mr. Gross's 
family and lawyer, we have used, and will continue to use, every 
opportunity to seek his release from this unjust imprisonment. We have 
also used every channel to press the Cuban Government for Mr. Gross's 
immediate release so he can return to his family, where he belongs. The 
Department has urged more than 40 countries around the world to press 
the Cuban Government on this issue. At the United Nations, we have 
raised Mr. Gross's case to the General Assembly. We have met prominent 
figures traveling to Cuba and encouraged them to advocate for Mr. 
Gross's release, which they have done. And, we have done the same with 
religious leaders from many different faiths. Additionally, we have 
also made numerous public statements pressing for Mr. Gross's release.
    As Deputy Assistant Secretary of State, I have worked especially 
closely with Mr. Gross's family and lawyer, and have been involved in 
all of the efforts mentioned above. In addition, I have also directly 
pressed for Mr. Gross's release in meetings with Cuban Government 
officials, including raising Alan Gross countless times with the Chief 
of the Cuban Interests Section in Washington. In these meetings, I have 
made clear that the Cuban Government should immediately release Mr. 
Gross.


                     NOMINATION OF NANCY J. POWELL

                              ----------                              


                    TUESDAY, FEBRUARY 7, 2012 (p.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Nancy J. Powell, of Iowa, to be Ambassador to India
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Webb, Udall, and Lugar.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    It is my great, great pleasure, together with Senator 
Lugar, to welcome Nancy J. Powell, who has been nominated to be 
Ambassador to India.
    And before we start talking about India, I want to say a 
few words, if I can, at the top of this hearing about Egypt. 
Egypt is much on the minds of all of my colleagues right now, 
and the recent events in Egypt are particularly alarming.
    The attacks against civil society in Egypt, including 
American organizations like NDI, IRI, the International Center 
for Journalists, and Freedom House, are particularly 
disturbing. Yesterday's prosecutions are, frankly, a slap in 
the face to Americans who have supported Egypt for decades and 
to Egyptian individuals and NGOs who have put their futures on 
the line for a more democratic Egypt.
    Right now, it appears some people are engaging in a very 
dangerous game that risks damaging both Egypt's democratic 
prospects and the United States-Egyptian bilateral 
relationship. I have traveled to Egypt three times now since 
the events of last year--the revolution. And it is of 
particular concern to see things moving in this direction.
    The challenge in front of Egypt is predominantly an 
economic challenge. Egypt has burned through much of its 
reserves--Treasury reserves. From some $40 billion, $42 
billion, they have gone down to less than $20 billion, burning 
perhaps $1 billion to $1.5 billion a month.
    In order for Egypt to make it, to provide for its citizens, 
Egypt is going to have to turn its economy around. And to turn 
its economy around, it is going to have to reattract the 
investors, the businesspeople who helped to create an economy 
that was growing at 7 percent a year before the events of 
Tahrir Square.
    Now that economy is moribund. A tourist trade which equaled 
about 8 percent or more of the gross domestic product is at a 
standstill. When I was in Egypt, the hotel occupancies were at 
about 3 percent, 5 percent, maybe 11 percent on one of the 
trips.
    Clearly, without the ability to revitalize tourism, it is 
going to be difficult to revitalize the economy. And without a 
revitalized economy, it is going to be difficult to sustain any 
kind of political leadership.
    And unless people get a message of stability and a message 
that is warm and welcoming to business and to capital, it is 
going to be very hard to turn that economy around and provide 
the stability necessary. This is a revolving circle, and it 
needs to be a virtuous circle.
    Egypt faces an array of critical challenges: a pending 
fiscal crisis, a worsening security environment, a difficult 
political transition. So I believe it is important that the 
Egyptian Government recognize that it just can't continue to 
undermine civil society and persecute the very talent that is 
seeking to bring Egypt security and prosperity.
    America stands as a ready and willing partner to support 
Egypt's democratic transition and economic stabilization, but 
it requires an atmosphere in which Egypt's civil society and 
its American friends are protected. So I hope that this current 
crisis or challenge, standoff, what everyone wants to term it, 
can be resolved in a thoughtful and intelligent way, or it may 
become very difficult to be able to do the kinds of things 
necessary.
    And Egypt, obviously, is important. It is a quarter of the 
Arab world. It is important to the stability of the region, and 
it is important to a peace process ultimately with respect to 
Israel and the Palestinians.
    And with all the other turmoil in Syria and other parts of 
the world, the challenge of Iran, the last thing one needs is 
an Egypt that isn't moving strongly and directly and 
forthrightly on the path to democratic transition and to a 
strengthening of its economy.
    Now turning to India, we are really pleased to have this 
opportunity to discuss what is, without doubt, one of the most 
significant partnerships in U.S. foreign policy. There are few 
relationships that will be as vital in the 21st century as our 
growing ties with India and its people.
    On all of the most critical global challenges that we face, 
India really has a central role to play, and that means that 
Washington is going to be looking to New Delhi not only for 
cooperation, but increasingly for innovation, for regional 
leadership.
    India's growing significance has been clear to many of us 
for some time now. In the 1990s, I traveled to India, took one 
of the first business trade missions right after the economic 
reforms were first put in place, and I have been there many 
times since.
    And President Obama, immediately upon entering office, 
invited Prime Minister Singh to be his guest at the very first 
state dinner. Secretary Clinton has visited India twice. And 
both countries inaugurated the U.S.-India Strategic Dialogue 2 
years ago.
    Republicans and Democrats alike understand the need to 
capitalize on the democratic values and strategic interests 
that our two countries share. And that is why it is important 
that we work together every day, as I believe we are right now, 
to further cultivate the relationship.
    Given the significance of that relationship, we are 
particularly pleased that President Obama has nominated Nancy 
Powell to represent us in New Delhi. Nancy is a former 
Ambassador to both Nepal and Pakistan, and she has served tours 
of duty in both India and Bangladesh, making her one of the 
foremost South Asia experts in the Foreign Service. She is one 
of our best, and it is only appropriate that she be tasked with 
one of the State Department's most important postings.
    I think Ambassador Powell would agree with me that United 
States and India interests and values are converging today, as 
perhaps never before. And consequently, America is an 
interested stakeholder in India's increasing ascent to greater 
economic and greater global power and participation.
    India's economy is projected to be the world's third-
largest in the near future, and total trade between our 
countries reached $73 billion in 2010 and could exceed $100 
billion this year.
    On defense, our security cooperation has grown so 
dramatically that India now conducts more military exercises 
with the United States than any other country.
    Education is fast becoming one of the strongest links 
between our nations, and I look forward to building on the 
progress that we made at the higher education summit last fall. 
Whether it is helping India to build a network of community 
colleges that could revolutionize access to education or 
whether it is creating educational opportunities via the 
Internet, we can give millions of people a greater set of 
choices and opportunities for the future.
    As our economies and education systems grow more 
intertwined--and I am convinced they will--our peoples will 
have greater opportunity to work together on technological 
breakthroughs. Already, India is playing a leading role in 
clean energy innovation. A report released last week found that 
India saw a 52-percent growth in clean energy investment in 
2011, a rate higher than any other significant global economy.
    With leadership from companies like Suzlon and Reliance 
Solar, India has the world's fourth-largest installed wind 
capacity and incredible solar energy potential. That is why I 
strongly support the 2009 U.S.-India Memorandum of 
Understanding on Energy and Climate Change signed by President 
Obama and Prime Minister Singh, which is being implemented 
through initiatives like the Partnership to Advance Clean 
Energy.
    It is clear that India's strategic role is also growing. We 
all agree that the dynamism of the Asia-Pacific region requires 
India's sustained presence and engagement, whether to combat 
nuclear proliferation, to promote economic stability in 
Afghanistan, or to encourage human rights in Burma and Sri 
Lanka.
    India enjoys strong cultural, historical, people-to-people, 
and economic links to East Asia, and I frequently hear that its 
eastward neighbors see real merit in India's contributions to 
regional peace and prosperity. In the coming years, I hope our 
two countries can deepen our cooperation throughout Asia not 
based on any common threats, but on the bedrock of shared 
interests and values.
    One area that is showing signs of promise, especially on 
economic cooperation, is the India-Pakistan relationship. I am 
encouraged that Pakistan granted India most-favored-nation 
status and that the two nations are continuing their dialogue 
on a host of issues. And I hope both countries can seize this 
moment to break with the perilous and somewhat stereotyped 
politics of the past.
    There is no doubt that even as India moves forward and even 
as we celebrate the pluses that I just enumerated, it is clear 
that India will also have to continue addressing its own 
complex domestic challenges, including the challenge of 
building its own infrastructure, of dealing with booming energy 
demand, of dealing with some restrictive trade and investment 
practices, and also the problem, which is not just India's, but 
a global problem of human trafficking.
    Moreover, there are some 500 to 600 million people living 
in poverty. But clearly, India is moving rapidly, through its 
own economic development, to address that, and I am confident 
that that will continue to change.
    So we can be real partners in this effort, and we can do so 
in ways that empower all classes of Indian society. And 
Indians, I hope, will feel that a partnership with the United 
States delivers real, tangible benefits to their everyday 
lives.
    So, Ambassador Powell, we thank you and your family for 
your service, and we look forward to the Senate moving your 
confirmation as quickly as possible.
    Senator Lugar.
    May I just say that we have a Finance Committee markup this 
afternoon on the transportation bill. So I am going to have to 
turn the gavel over to Senator Udall shortly in order to be at 
that, and I appreciate Ambassador Powell's understanding of 
that.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Let me just take the liberty of joining you in the concern 
you expressed about events in Egypt. I was startled, I should 
say shocked, by the arrest and detainment of those Americans 
involved in attempting to work with citizens of Egypt to 
promote democracy.
    I think each one of us over the years who have been 
involved in delegations going to other countries to monitor 
elections or to assist citizens with the National Democratic 
Institute, the International Republican Institute, and various 
other groups, know how much we cared about those countries and 
the follow-through that we have exemplified.
    It is especially important, as the chairman has pointed 
out, that given the status of the Egyptian economy and those in 
the countryside, far away from Tahrir Square, who lack adequate 
food supplies, that the United States is generous and eager to 
be helpful. But we are facing certainly comments from our 
colleagues who are wondering how we can consider providing $1.5 
billion in assistance to Egypt given both this new development 
and, more broadly, the deficit situation we have in our own 
country. I am hopeful that the Egyptians will reconsider their 
position and that this matter will be resolved promptly.
    In any event, I join the chairman in welcoming Ambassador 
Powell back to the Foreign Relations Committee. This hearing 
presents us with an opportunity not only to evaluate the 
distinguished nominee, but also to examine the current state of 
our evolving ties with India.
    I start from the premise that enhancing our relationship 
with India is a strategic and economic imperative. India is 
poised to be an anchor of stability in Asia and a center of 
economic growth far into the future.
    It has a well-educated middle class larger than the size of 
the entire U.S. population. It is already the world's second-
fastest-growing major economy, and bilateral trade with the 
United States has more than tripled during the past 10 years.
    The United States and India are working to build a 
strategic partnership that will benefit both sides, and we have 
ongoing cooperation with India on many fronts. This includes 
efforts to ensure security in South Asia. India and the United 
States have strong incentives to cooperate on counterterrorism 
in the region and beyond. We also share concerns about the 
stability of Afghanistan and Pakistan and the growing military 
capabilities of China.
    Energy cooperation between the United States and India also 
should be at the top of our bilateral agenda. India's energy 
needs are expected to double by 2025. The United States has an 
interest in expanding energy cooperation with India to develop 
new technologies, cushion supply disruptions, address 
environmental problems, and diversify global energy supplies.
    The United States own energy problems will be exacerbated 
if we do not forge energy partnerships with India and other 
nations experiencing rapid economic growth. In 2008 the United 
States concluded the civil nuclear cooperation agreement with 
India. The legislation lifted a three-decade American 
moratorium on nuclear trade with India and opened the door for 
trade in a wide range of other high-technology items, such as 
supercomputers and fiber optics.
    This agreement remains important to the broad strategic 
advancement of the United States-Indian relationship. But in 
the narrower context of nuclear trade with India, it has yet to 
bear significant fruit. In large measure, this stems from the 
Indian Parliament's adoption of the Civil Liability for Nuclear 
Damage bill. This legislation effectively rules out Indian 
accession to the Convention on Supplementary Compensation for 
Nuclear Damage, the CSC, and could frustrate the United States 
nuclear industry's efforts to play a role in India's expanding 
nuclear power sector.
    The bill's plain terms are fundamentally inconsistent with 
the liability regime that the international community is 
seeking to achieve in the CSC. To date, this administration has 
made very little progress on the CSC with India, and I am 
hopeful that you will address the Obama administration's 
strategy for advancing United States-Indian nuclear 
cooperation.
    What high-level exchanges have occurred between our 
governments regarding the status of liability protections for 
United States nuclear exporters to India? More broadly, what is 
the current state of our energy dialogue with New Delhi?
    I would also appreciate the Ambassador's views on ongoing 
security cooperation efforts in South Asia. In light of the 
Obama administration's intent to reduce U.S. forces in 
Afghanistan and our complex relationship with Pakistan, what 
opportunities exist for United States-Indian initiatives 
designed to combat terrorism?
    I look forward to hearing Ambassador Powell's thoughts 
about how to address these and other important issues in the 
United States-India relationship. I thank the chair.
    The Chairman. Thanks very much, Senator Lugar. Appreciate 
it.
    Ambassador Powell, we welcome your testimony. And I don't 
know if you want to introduce any family members or anybody who 
may be here with you, but we welcome that also.

          STATEMENT OF HON. NANCY J. POWELL, OF IOWA,
                   TO BE AMBASSADOR TO INDIA

    Ambassador Powell. Mr. Chairman, Senator Lugar, I am 
honored to appear today as President Obama's nominee to be the 
Ambassador of the United States to the Republic of India, and I 
am grateful for the President and Secretary Clinton's trust and 
confidence.
    I would like to thank the committee for giving me the 
opportunity to appear again before you. If confirmed, I look 
forward to working closely with you to advance our strategic 
partnership with India.
    I would like to say a special thank you to my State 
Department family members who are here today with me and for 
their support and advice during my preparations for the 
hearing.
    I have had the pleasure of serving in India previously from 
1992 through 1995 as the Consul General in Kolkata and Minister 
Counselor for Political Affairs in New Delhi. I thoroughly 
enjoyed my time in India, where I had the opportunity to 
observe the beginnings of India's dramatic economic 
transformation and to participate in the early efforts to 
expand our bilateral relations.
    Today, I see an India that has catapulted itself onto the 
global stage. India is becoming an economic powerhouse, having 
averaged 7 percent annual economic growth over the last decade, 
lifting tens of millions of its citizens out of poverty.
    India will also be a leading security partner of the United 
States in the 21st century. The number and kinds of 
interactions between our two countries at all levels is 
staggering in its breadth and depth. At its heart are the 
people-to-people links--students, businesses, and tourists, 
along with the 3-million-strong Indian-American community.
    At the government-to-government level, our relations are 
firmly grounded in a set of shared democratic values and an 
increasingly shared strategic vision of both the opportunities 
that can promote those values, as well as the threats that can 
undermine them.
    If confirmed, I will be working with an interagency team at 
the Embassy in New Delhi and our four consulates to advance a 
growing agenda that includes issues that are most vital to our 
national security and prosperity. Among our top priorities will 
be the following.
    Bolstering trade and investment. We have made unprecedented 
progress in expanding our economic relations with India. Our 
bilateral goods and services trade will top over $100 billion 
in 2012. This represents an astounding quadrupling of trade 
since 2000, moving India up from our 25th-largest trading 
partner to our 12th.
    I look forward to working with the interagency team and 
with our Indian counterparts to reduce barriers, including 
through the negotiation of a bilateral investment treaty, and 
to expand the areas where we do business. I am eager to support 
efforts to ensure full implementation of the civil nuclear 
cooperation agreement, including ensuring a level playing field 
for American companies in the commercial applications of 
nuclear energy.
    The U.S. mission in India actively seeks opportunities to 
keep and create jobs in America. In response to the President's 
National Export Initiative, the U.S. mission promotes the 
export of U.S. products, services, and technologies supporting 
tens of thousands of jobs in the United States. India, with its 
population of 1.2 billion and its large consumer economy, 
represents a huge fast-growing market for U.S. manufactured 
goods.
    Our exports are growing at nearly 17 percent a year. At 
this rate, exports from the United States to India are expected 
to nearly double in 5 years.
    Another priority is our defense cooperation, which 
currently is at an all-time high. U.S. defense sales to India 
reached nearly $8 billion last year, and India holds more 
military exercises with the United States than with any other 
country.
    As stated in the National Security Strategy, we see India 
as a net security provider in the Indo-Pacific region. As India 
continues to modernize its armed forces, there are additional 
opportunities for us to expand our cooperation across all the 
services and at all levels. I appreciate the Congress' support 
for expanding defense ties and note the report delivered to 
Congress in November on potential defense cooperation with 
India.
    We will also work to enhance our cooperation in 
international and multilateral fora. Reflecting its growing 
importance, India is an increasingly active member of key 
international bodies, including its current tenure on the 
United Nations Security Council, its inclusion in the G20, the 
East Asia summit, the South Asian Association for Regional 
Cooperation, and the World Trade Organization.
    In December, we held the first-ever trilateral 
consultations with Japan, India, and the United States. 
Encouraging India's leadership in cooperation across the Asia-
Pacific will be a top priority.
    If confirmed, I look forward to expanding our consultations 
and collaboration, narrowing our differences on key 
multilateral issues, and working with the Government of India 
to advance international peace and security through common 
understandings and approaches to strengthening these bodies and 
the international community's ability to address the threats 
that face our world.
    Another priority will be encouraging India's role in 
supporting peace and stability in the Indian Ocean region. 
India and the United States share a common interest in 
supporting continued efforts to establish a peaceful, 
prosperous, and democratic Indian Ocean region.
    Taking a cue from history, the new silk road vision 
foresees a network of economic, transit, trade, and people-to-
people connections across South and Central Asia. India 
supports this vision and is a significant donor in Afghanistan 
and has taken steps to facilitate better trade with Pakistan.
    I look forward to increasing cooperation on 
counterterrorism and global threats. Terrorist groups like 
Lashkar-e-Taiba pose a critical threat not only to our partners 
like India, but also to United States strategic objectives in 
the region.
    If confirmed, I will work to expand the current level of 
consultation and coordination on key counterterrorism 
exchanges, as well as to advance our efforts to expand 
cooperation in the areas of nonproliferation and nuclear 
security. As national intelligence officer for South Asia, 
these were issues that I dealt with firsthand.
    If confirmed, I will also continue United States engagement 
with Indians to advance human rights and freedoms that are 
constitutionally protected in both our countries and to work to 
encourage democratic institutions in countries like 
Afghanistan.
    If confirmed, I look forward to participating in and 
advancing the U.S.-India Strategic Dialogue, as well as the 
substantive exchanges on more than 20 distinct policy areas, 
including education, agriculture, energy, and development. I 
hope we can use this framework to address issues of mutual 
concern and to enhance collaboration to achieve concrete 
results that create additional opportunities for our two 
peoples and that eliminate threats to our two democracies.
    I take seriously my role as chief of mission in the 
management of our Government resources--the people, 
infrastructure, and programs that are committed to this 
relationship--and will work to ensure that they are protected 
and used creatively to enhance U.S. interests.
    If confirmed, I will devote my energies and experience to 
enlarging and expanding our relations with India. I believe we 
can continue to convert our vision for a future of peace and 
prosperity based on our mutual democratic values into a reality 
through expanded exchange, dialogue, and engagement at all 
levels of society and government.
    Thank you very much.
    [The prepared statement of Ambassador Powell follows:]

               Prepared Statement of Hon. Nancy J. Powell

    Mr. Chairman, members of the committee, I am honored to appear 
today as President Obama's nominee to be the Ambassador of the United 
States to the Republic of India and am grateful for the President's and 
Secretary Clinton's trust and confidence in me. I would like to thank 
the committee for giving me the opportunity to appear before this 
esteemed body today. If confirmed, I look forward to working closely 
with you to advance our strategic partnership with India.
    I have had the pleasure of serving in India previously from 1992 
through 1995 as Consul General in Kolkata and Minister-Counselor for 
Political Affairs in New Delhi. I thoroughly enjoyed my tour in India 
where I had the opportunity to observe the beginnings of India's 
dramatic economic transformation and to participate in the early 
efforts to expand our bilateral relations. Today I see an India that 
has revolutionized itself onto the global stage. India is becoming an 
economic powerhouse, having averaged 7 percent annual economic growth 
over the last decade, lifting tens of millions of its citizens out of 
poverty. India will also be a leading security partner of the United 
States in the 21st century. The number and kinds of interactions 
between our two countries at all levels is staggering in its breadth 
and depth. At its heart are the people-to-people links--students, 
businesses, and tourists along with the 3 million strong Indian-
American community. At the government-to-government level, our 
relations are firmly grounded in a set of shared democratic values and 
an increasingly shared strategic vision of both the opportunities that 
can promote them as well as the threats that can undermine them.
    If confirmed, I will be working with an interagency team at our 
Embassy in New Delhi and the four consulates to advance a growing 
agenda that includes issues that that are most vital to our national 
security and prosperity. Among our top priorities will be the 
following:

  <bullet> Bolstering trade and investment: We have made unprecedented 
        progress in expanding our economic relations with India. Our 
        bilateral goods and services trade will top $100 billion in 
        2012. This represents an astounding quadrupling of trade since 
        2000, moving India up from our 25th largest trading partner to 
        our 12th. I look forward to working with a wide interagency 
        team and with our Indian counterparts to reduce barriers, 
        including through negotiation of a Bilateral Investment Treaty, 
        and to expand the areas where we do business. I am eager to 
        support the efforts to ensure full implementation of the Civil 
        Nuclear Cooperation Agreement, including ensuring a level 
        playing field for American companies in the commercial 
        applications of nuclear energy.
  <bullet> The U.S. mission in India actively seeks opportunities to 
        keep and create jobs in America. In response to the President's 
        National Export Initiative, the U.S. mission promotes the 
        export of U.S. products, services, and technologies, supporting 
        tens of thousands of jobs in the United States. India, with its 
        population of 1.2 billion people and large and balanced 
        consumer economy, represents a huge, fast-growing market for 
        U.S. manufactured goods, and our exports are growing at nearly 
        over 17 percent a year. At this rate, exports from the United 
        States to India are expected to nearly double in the 5 years 
        from 2009 to 2014.
  <bullet> Expanding our defense cooperation, which currently is at a 
        cumulative all-time high: U.S. defense sales to India reached 
        nearly $8 billion last year and India holds more military 
        exercises with the United States than any other country. As 
        stated in the National Security Strategy, we see India as a net 
        security provider in the Indo-Pacific region. As India 
        continues to modernize its armed forces, there are additional 
        opportunities for us to expand our cooperation across all the 
        services and at all levels. I appreciate the Congress' support 
        for expanding defense ties, and note the report delivered to 
        Congress in November on potential future defense cooperation 
        with India.
  <bullet> Enhancing our cooperation in international and multilateral 
        fora: Reflecting its growing importance, India is an 
        increasingly active member of key international bodies, 
        including its current tenure on the United Nations Security 
        Council, its inclusion in the G20, the East Asia summit, the 
        South Asian Association for Regional Cooperation, and the World 
        Trade Organization. In December, we held the first ever 
        trilateral consultations with Japan, India, and the United 
        States. Encouraging India's leadership and cooperation across 
        the Asia Pacific will be a top priority. If confirmed, I look 
        forward to expanding our consultations and collaboration, 
        narrowing our differences on key multilateral issues, and 
        working with the Government of India to advance international 
        peace and security through common understandings and approaches 
        to strengthening these bodies and the international community's 
        ability to address the threats that face our world.
  <bullet> Encouraging India's role in supporting peace and stability 
        in the Indian Ocean region: India and the United States share a 
        common interest in supporting continued efforts to establish a 
        peaceful, prosperous, and democratic Indian Ocean region. 
        Taking its cue from history, the New Silk Road vision foresees 
        a network of economic, transit, trade, and people-to-people 
        connections across South and Central Asia that will embed 
        Afghanistan more firmly into its neighborhood. India supports 
        this vision and is a significant donor in Afghanistan and has 
        taken steps to facilitate trade with Pakistan.
  <bullet> Increasing cooperation on counterterrorism and global 
        threats: Terrorist groups like Lashkar-e-Taiba pose a critical 
        threat not only to our partners like India, but to U.S. 
        strategic objectives in the region. If confirmed, I will work 
        to expand the current level of consultation and coordination on 
        key counterterrorism exchanges, as well as advance our efforts 
        to expand cooperation in the areas of nonproliferation and 
        nuclear security. As National Intelligence Officer for South 
        Asia, these were issues I dealt with firsthand.
  <bullet> If confirmed, I will continue U.S. engagement with all 
        Indians to advance human rights and freedoms that are 
        constitutionally protected in both of our countries, and work 
        with India to encourage democratic institutions in countries 
        like Afghanistan.

    If confirmed, I look forward to participating in and advancing the 
U.S.-India Strategic Dialogue, as well as the substantive exchanges on 
more than 20 distinct policy areas, including education, energy, 
agriculture, and development. I hope we can use this framework to 
address issues of mutual concern and enhance collaboration to achieve 
concrete results that create additional opportunities for our two 
peoples and that eliminate threats to our two democracies.
    I take seriously my role as chief of mission in the management of 
our government resources--the people, infrastructure, and programs that 
are committed to this relationship--and will work to ensure that they 
are protected and used creatively to enhance U.S. interests.
    If confirmed, I will devote my energies and experience to enlarging 
and expanding our relations with India. I believe we can continue to 
convert our vision for a future of peace and prosperity based on our 
mutual democratic values into reality through expanded exchange, 
dialogue, and engagement at all levels of society and government. Thank 
you.

    Senator Udall [presiding]. Thank you, Ambassador Powell.
    We really appreciate your testimony. And I came in a little 
bit late, and I think, as Chairman Kerry said, I am supposed to 
take over for him.
    Let me just say initially that in looking at your resume 
and seeing your long history of service to the State Department 
that we really appreciate that public service. I mean, some of 
the areas you have served in are very difficult areas in the 
world, and I am sure you have done it with enthusiasm and a 
great spirit of public service. So thank you for doing that.
    I just returned, Ambassador Powell, from recently visiting 
India for the first time. I was lucky to go with a group, a 
CODEL headed by Senator Warner, and we had both of the cochairs 
of the India Caucus. Senator Warner is the cochair in the 
Senate, and Joe Crowley, the Congressman from New York, is the 
cochair in the House. And they had been there a number of 
times. I think Representative Crowley had been there eight 
times.
    And so, I learned a lot from that discussion. And one of 
the things I did was meet with the Nobel Laureate, Dr. Rajendra 
Pachauri. Dr. Pachauri and I had a long discussion about 
India's energy needs and energy demands and the need to address 
climate change.
    He expressed his disappointment with the outcome in Durban, 
South Africa, and his belief that a multilateral solution is 
needed to really make progress on this issue. With regards to 
the scientific issues, he stated he believes that the findings 
on the committee that he cochairs are stronger and that heat 
waves and other abnormal climatic events are increasing in 
frequency and intensity.
    And while meeting with him and other business leaders, I 
stressed not only the need to invest in renewable energy, but 
also the opportunities presented by increased investment and 
partnership between the United States and India. With India in 
need of increased sources of energy to maintain its economic 
growth, how do you think the United States should work to 
facilitate partnerships between the United States and India to 
promote renewable energy?
    Ambassador Powell. Senator, I am pleased that you had the 
opportunity to visit India and look forward, if confirmed, to 
welcoming you back often.
    Senator Udall. Thank you.
    Ambassador Powell. On the energy side, I think those who 
look at India's progress and its potential almost universally 
will point to energy as one of the key determinants in how 
India addresses its growing energy needs not only for its 
economic development, but also for advancing the needs of its 
people for electricity and other sources of energy.
    I think we are poised to be very, very good partners on 
this. We have an energy dialogue as part of the 20 that I 
mentioned in my testimony. It is done at the highest levels and 
involves a look at traditional sources of energy, as well as 
new technologies.
    We also have a partnership that Senator Lugar mentioned in 
his testimony that is looking particularly at innovations in 
energy. I think, given the very strong scientific communities, 
the very strong entrepreneurial communities in both of our 
countries, that this is an extraordinarily important complement 
to the government efforts.
    There will certainly have to be support for some of these 
technologies, support for the research regulatory framework 
that allows them to be used. But the ingenuity and 
entrepreneurial spirit of our two countries I think provide us 
with opportunities to look at these new sources.
    The partnership provides funding. AID is also working with 
what they consider to be an innovation incubator approach to 
development in India that will allow for programs to be--
experiments and others to be looked at for plus-up by the 
private sector in India for use in other parts of the 
developing world.
    I think all of these are very important. Obviously, the 
civil nuclear energy piece is another important part of the 
dialogue of trying to make sure that as India turns to nuclear 
energy to provide some of its energy resources that it can 
benefit from the extraordinary technology that United States 
companies bring to nuclear energy, to the safety and security 
standards, and to working with those companies with the 
Government of India to find a way for us to have a level 
playing field for that endeavor.
    Senator Udall. Ambassador, thank you very much for that
 answer.
    And I think one of the areas--and thank you for your 
willingness to work on the renewable energy issues--I think one 
of the areas that could be a welcome development would be with 
the villages in India. As you know, I mean, you have served 
over there. We have double than the people who live in the 
United States, 700 million people that live in villages, many 
times without adequate drinking water, clean drinking water, no 
electricity.
    And those kinds of conditions are really ripe for deploying 
solar panels or wind or something out in those villages. Dr. 
Pachauri, by the way, has an NGO where he has started an 
entrepreneurial model. He puts a solar panel in a village, has 
one of the women who really organizes the village take charge 
of it. She then leases out the solar panel to charge solar 
lanterns, and this replaces the kerosene lanterns, which are 
very dangerous and can't be used under mosquito nets and things 
like that.
    And it seems to me that this whole area is one that there 
is a huge potential, if we work with them, if we partner with 
them, to help them get electricity into the villages without 
moving all of the village people into the cities, which I think 
could end up causing serious problems.
    And with that, I am not really asking a question there, but 
it is an honor to be here with Senator Lugar and to be up here 
chairing this. And I look forward to his questions and any 
others as we move along.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Let me just raise a different subject for the moment 
because at least today's press reports indicate that India's 
Oil and Natural Gas Corporation, the ONGC, has come under 
pressure to finalize a service contract for natural gas 
production with Iran. Now could you please give us your 
thoughts on an Indian company's involvement in Iran's energy 
sector, particularly something of this significance?
    Ambassador Powell. So, Iran and India have a long tradition 
of trade across energy and other fields. It is one that is 
clearly a part of our sanctions regime that we are hoping to 
see it significantly reduced.
    I noted in Foreign Secretary Mathai's speech yesterday, he 
indicated that the current efforts to diversify India's sources 
of oil and petroleum and a reduction in their use of Iranian 
oil to 10 percent or less, and I think these are positive 
developments. I think our own efforts to support India in 
looking at other sources of energy will be a contributor to 
this, and we will certainly, if confirmed, I know that this is 
going to be one of the issues that I will be spending a great 
deal of time on and working with the Iranian sanctions 
legislation with our own policies and with the Indians to work 
with them.
    Senator Lugar. Well, speaking of our assistance in this 
respect, as you pointed out earlier, large numbers of Indians 
lack access to electricity, and energy poverty limits their 
economic advancement options. The scale of this challenge, 
however, demands transformational technologies, such as Senator 
Udall was pointing out, and this leads to my question.
    Could you please describe the efforts, as you see them, 
which are being made by Indian entrepreneurs to tackle energy 
poverty? Furthermore, what barriers stand in the way for 
American entrepreneurs to enter the Indian market for the so-
called transformational strategies that are going to be able to 
meet the doubling of demand?
    Ambassador Powell. The two official government-to-
government dialogues are on energy policy specifically and then 
on trade, which includes a variety of looking at various ways 
to encourage trade, to determine how barriers can be reduced, 
and to look at ways to make it possible for American companies 
to participate. We have some very good success stories.
    I was looking at the results of an Arizona company that has 
been quite successful on solar energy and to find, using our 
resources at the Embassy, our commercial services, our 
discussions with the private sector through the India Business 
Council, U.S.-India Business Council, the American Chamber of 
Commerce, and others, to find those links where we can put 
American companies in touch with opportunities for them to 
provide their expertise.
    I would also point to what USAID is doing. Although the 
amounts of money are relatively small, I think the payback 
potential is very, very high if we can encourage innovation. We 
are partnering with Indian private sector on this. We are also 
providing a mechanism for funding, called the Clean Energy 
Finance Center, that will develop opportunities to think 
creatively about how to finance new and somewhat risky 
adventures sometimes. But to make it possible for the private 
sector to participate in this, not to depend strictly on 
government funding.
    I think although our projects are relatively small in their 
scope, the Indians have a very good network of working with the 
many, many villagers and trying to work on this. So if I could 
just piggyback on Senator Udall's comments? My experience in 
Nepal with the lanterns was a fantastic one. It made an 
enormous amount of difference in the ability of children to do 
their homework, to stay in school, and to have an opportunity 
to encourage literacy.
    It also, in a similar way, empowered women and provided a 
source of income for them through the sales of these very 
small-scale entrepreneurships with the lamps. And I think it is 
a very, very good program. It has been used in other countries 
as well.
    Senator Lugar. Well, we are counting on you to reduce the 
barriers to American entrepreneurs working with Indian 
entrepreneurs to the benefit of the people.
    Ambassador Powell. Thank you.
    Senator Lugar. You mentioned earlier the dialogue between 
the United States and India on 20 different areas. Last year, 
Secretary Clinton visited India and engaged in the U.S.-India 
Strategic Dialogue which, as you pointed out, includes 
security, regional cooperation, partnership, and technology.
    Can you highlight for us the most effective parts of the 
dialogue and the ones on which you believe the administration 
hopes to make the most progress in the coming year?
    Ambassador Powell. I think my timing is quite good. Foreign 
Secretary Mathai is in the United States right now. And 
although I am not in a position to meet with him, my colleagues 
at the State Department are. And he had, I believe, extensive 
meetings this morning, setting up the agenda for the June or 
July meeting, the next meeting here in Washington of the 
strategic dialogue.
    He also spoke yesterday, and I believe I could certainly 
endorse the agenda that he put forward, of the things that are 
very, very important. Certainly, the energy dialogue is one of 
those, the trade dialogue, our cooperation in looking at our 
defense partnership, our look at making sure that we are 
looking at what we would call our homeland security dialogue. 
Our counterterrorism dialogue is a new and, I think, a very 
dynamic part of the dialogue that will continue to be a 
priority for both countries.
    Maritime security I feel certain will be part of the 
dialogue as well this summer. And as a former high school 
teacher, I would like to see the education dialogue raised to 
the Cabinet-level strategic dialogue as well.
    Senator Lugar. And presumably intelligence-sharing will be 
a part of that?
    Ambassador Powell. Absolutely, as part of the homeland 
security and counterterrorism.
    Senator Lugar. Thank you very much.
    Senator Udall. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ms. Powell, congratulations on your nomination.
    Ambassador Powell. Thank you.
    Senator Menendez. I have a concern. I am a strong believer 
that the relationship between the United States and India is a 
critical one, but, as I am sure you are aware, in December, I, 
along with other colleagues, sponsored legislation in the 
Congress by amendment that the Senate passed unanimously and 
the President signed into law with reference to comprehensive 
sanctions on the financial institutions of the Central Bank of 
Iran.
    And I have been encouraged by the efforts of Japan, South 
Korea, and others to look for ways to come into compliance with 
the law. They have come to it even as they face challenges, 
with the attitude of how do I meet the spirit of these 
sanctions and try to ensure that we are not subject to any 
sanctions and that we are working not only with the United 
States, but the international community to ensure that Iran 
does not achieve nuclear power.
    However, the Indian Government, which is one of Iran's 
largest crude customers, seems to be rebuking the sanctions and 
looking for workarounds, including considering payments in gold 
and transactions that detour around the Central Bank of Iran, 
which at the end of the day still is helping the Iranian 
Government have the resources to fuel its nuclear ambitions.
    For our sanctions to be effective, it is really crucial 
that all nations, particularly democratic nations like India, 
work together to confront Iran and insist that it terminate its 
efforts to achieve nuclear weapons capability.
    What is your view of the Indian Government's rationale 
behind supporting the Iranians in this regard? And if you are 
confirmed as our Ambassador, will you carry the message to New 
Delhi that this is a policy priority for the United States and 
that we will not hesitate, as appropriate, to pursue the law as 
it exists?
    Ambassador Powell. Senator, certainly, if confirmed, I 
understand and appreciate that this is going to be a very 
important topic and one of those that I will be dealing with 
very seriously and very early in my tenure.
    I think approaching it perhaps a little bit differently 
than you did, but to recognize that India shares with us a 
desire to see a nonnuclear state in Iran. They have supported 
us in the IAEA four times. We continue to have a very important 
dialogue at the most senior levels of the U.S. Government, and 
I fully intend to be a part of that dialogue.
    I believe that making sure that there is clarity on what 
the legislation and the U.S. sanctions mean, what their 
implications are for India is one step. Also looking to make 
sure that we understand what actions India is taking. Foreign 
Secretary Mathai yesterday in his republic remarks commented 
that there already appears to be a reduction in the amount of 
oil, the percentage of oil that India receives from Iran out of 
its total imports. That would be a very good sign.
    But I will certainly commit to working very hard on this 
issue.
    Senator Menendez. Well, I appreciate that. This is 
incredibly important to us. If countries like India are going 
to pay in gold or find other ways to circumvent the sanctions, 
then while I appreciate what you said about India sharing our 
goals, it could ultimately continue to facilitate the resources 
that are necessary for Iran to achieve its nuclear power.
    And so, we need more than their goodwill of sharing our 
goals. We need their actions to join us and the rest of the 
international community in that regard. And I hope that, if 
confirmed and in short order will hopefully be in India, that 
this will be one of your top priorities.
    Would you tell the committee, that this will be one of your 
top priorities when you get there?
    Ambassador Powell. It most certainly--it will be one of the 
top priorities.
    Senator Menendez. Now, last, and I won't take all of the 
time that I have left, but I do want to ask a question that I 
would like you to answer for the record. And it has to do with 
the work that has to be done for our overall recruitment. I am 
seriously concerned that despite years that I have been raising 
this, including with your advent to this office, that the issue 
of Hispanic recruitment at the State Department remains 
pathetic.
    The 2010 Census has indicated that there are over 50 
million Hispanics in the United States, 16 percent of the 
population. Yet, however, Hispanics make up only 5 percent of 
the State Department's employees, 3.9 percent of the Foreign 
Service officers, and about 6 percent of Foreign Service 
specialists.
    So, I would like two things for the record. One, can your 
office share the most recent statistics with the committee as 
well as what barriers you have encountered in any effort to 
improve your outreach, recruitment, and retention of qualified 
Hispanics?
    In all of my work in this regard, this is really one of the 
worst departments of the Federal Government as it relates to 
Hispanic participation. I appreciate what has been said about 
the State Department reflecting the look of America but when 
Hispanics make up 16 percent of the population and their rate 
of growth is not reflected at the State Department, that 
doesn't include a full look of America.
    So, as you move on to your next assignment, I would like to 
get the benefit of whatever challenges there were so that we 
can look at your successor in this role and have a strategic 
plan as to how we turn those numbers around.
    [The requested information follows:]

    The Department of State is committed to a workforce that reflects 
the diversity of America (racial/ethnic/national-origin, gender, 
geographic, educational, and occupational) with the skills, innovation, 
and commitment to advance our national interests in the 21st century.
    Hispanics make up 4.7 percent of State Department Civil Service 
employees, 3.9 percent of Foreign Service officers, and 6.6 percent of 
Foreign Service Specialists. The number of self-identified Hispanics 
who took the Foreign Service officer test during 2011 was 2,030 or 10 
percent of the total. In FY 2011, the Department hired 49 Hispanics 
into the Foreign Service, or 4 percent of all new Foreign Service 
hires, and 27 into the Civil Service, or 2 percent of all Civil Service 
hires. Our statistics are based on individuals who self-identify, and 
do not take into account individuals who are multiracial.

         DEPARTMENT OF STATE'S LARGE-SCALE RECRUITMENT EFFORTS

    Targeted outreach is the cornerstone of the Department's 
recruitment strategy. Specific recruitment portfolios include African-
Americans, Hispanics, Asian-Americans, American Indians and Alaskan 
Natives, Native Hawaiians/Pacific Islanders, women, military veterans, 
and those with disabilities. In FY 2011 our Diplomats in Residence and 
Washington-based recruiters personally engaged an estimated 50,000 
potential candidates at events across the country, supported by an 
events management system which markets our public events across our 
social recruitment networks. The system also facilitates ongoing 
engagement and communication between the Department and prospects/
candidates.
    The Department's careers Web site (www.careers.state.gov) is the 
hub for all online recruitment engagement and receives an average of 
60,000 visitors a week. Public forums that provide quick and open 
responses to questions regarding Department career opportunities have 
proven extremely successful, continuously receiving more than 20 
million views since their inception in 2010.
    Marketing studies demonstrate that minority professionals use 
social media at higher rates than nonminority professionals. Our public 
outreach is integrated with a comprehensive marketing and recruiting 
program that includes leveraging new media and networking technologies 
(Facebook, Linked-In, Twitter, YouTube), direct sourcing, e-mail 
marketing, and online and limited print advertising with career and 
niche-specific sites and publications (Hispanic Business, NSHMBA, 
LatPro, Saludos, LATINAStyle).
    In FY 2011, the Department spent $42,350 on advertising in Hispanic 
print and electronic media. In addition, 39.5 percent of the total we 
spent on print and electronic media included general diversity-specific 
sites which incorporated Hispanics. In FY 2012, we are allocating 
$95,789 to Hispanic-focused, career-specific media which is 21 percent 
of our total spending on advertising in print and electronic media. An 
additional 20 percent of the total media buy will include diversity-
specific sites which incorporate Hispanics.
    The Department's Recruitment Outreach Office developed and hosted 
Diversity Career Networking Events as a tool to target diverse 
professionals for Department of State careers, specifically 
highlighting deficit Foreign Service career tracks. In FY 2011, events 
were hosted in Los Angeles; Denver; Santa Fe, Albuquerque, and Las 
Cruces, NM; Miami; Cincinnati (to attract attendees at the National 
League of United Latin American Citizens conference), Houston, Dallas, 
New York, and Washington, DC, reaching over 1,000 candidates including 
African Americans, Asian Americans, Hispanics, Native Americans, women, 
and critical language speakers. In addition, over 900 Department 
employees have volunteered to support our strategic outreach, 
highlighting the diversity of our existing workforce and leveraging 
existing networks of internal affinity groups like the Hispanic 
Employment Council in Foreign Affairs Agencies (HECFAA).

                     COOPERATIVE EDUCATION PROGRAMS

    The Department strives to achieve diversity throughout its 
workforce through various career-entry programs, including the 
Presidential Management Fellowship. All qualified applicants referred 
to the Department by the Office of Personnel Management are given full 
consideration. The Office of Recruitment conducts regular outreach to 
institutions that serve Hispanics in order to increase the pool of 
applicants from the Hispanic community and promote awareness of entry-
level employment opportunities.
    Our outreach to college students plants the seeds of interest in 
global public service and promotes a long-term interest in our 
internships, fellowships, and careers. In FY 2009, Congress funded 
additional paid internships for recruitment purposes. In 2009, 2010, 
and 2011, our Diplomats in Residence identified outstanding, diverse 
candidates for those internships, providing them the chance to 
experience work in Washington, DC, and embassies and consulates around 
the world. In 2011, 20 percent of these 80 paid interns were Hispanic.
    Two particularly successful student programs are the Thomas R. 
Pickering Foreign Affairs Undergraduate and Graduate Fellowships and 
the Charles B. Rangel International Affairs Fellowship. These ROTC-like 
programs provide financing for graduate school and paid professional 
experience in Washington and at our embassies to highly qualified and 
mostly minority students, in exchange for their commitment to the 
Foreign Service. Diplomats in Residence help recruit candidates for 
these fellowships, which have been essential to increasing the presence 
of underrepresented groups in the Foreign Service. In FY 2011, 10 out 
of 40 (25 percent) Pickering Fellows and 4 out of 20 (20 percent) 
Rangel Fellows were Hispanic.

    Ambassador Powell. Senator, may I respond just briefly?
    Senator Menendez. Absolutely, sure.
    Ambassador Powell. We clearly will give you more details in 
the taken question, but I took very seriously your charge to me 
when I accepted the Director General position, was confirmed by 
the committee, to try to improve the outreach to the Hispanic 
and other minority communities, to make sure that they 
understood what opportunities were available to them at the 
State Department, whether it was the Foreign Service or the 
civil service and to expand the information that they had, 
their ability to ask questions, to be informed, and to 
participate with us.
    I share with you a desire to see a better than 5-percent 
ratio for the Hispanics in the Foreign Service and a 4.9 for 
the civil service. But I do have some encouraging statistics 
about the efforts of a very, very vigorous and targeted 
recruitment effort that we have undertaken over the last 2 to 3 
years.
    In the past year, we have among the people who have taken 
the Foreign Service test, we had an increase of 82 percent 
among the Hispanics. From those who passed the test, having 
taken it, 172-percent increase by Hispanics, and for the 
hiring, a 43-percent increase. Those statistics, if we can 
maintain them--and I certainly think that my successor will be 
committed to the effort that we started--represent an 
opportunity to improve on our total percentage of Hispanics.
    I would also like to share one other statistic with the 
committee because the other part of our outreach, in addition 
to our minority populations, was to our disabled veterans. And 
we have been able in the Foreign Service generalists to 
increase by 350 percent the hiring of disabled veterans. And 
among our specialists, a whopping 4,700-percent increase.
    So I would also like to comment that the number of 
minorities, including Hispanics, that are part of our Pickering 
and Rangel Fellowship Programs, and these are opportunities 
that provide graduate education opportunities as well as 
internships and other experience in the department, has 
increased dramatically.
    And I personally served as the mentor for our Hispanic 
affinity group, which has been reenergized under the leadership 
of its new president, and I took great pride in working with 
them.
    Senator Menendez. Well, I appreciate that. I look forward 
to seeing the employment figures which you gave, which sound 
promising, what sections across the spectrum they are.
    But thank you very much.
    Senator Udall. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And Ambassador--congratulations. I wish you well in the new 
assignment, for which I know you are going to be confirmed. You 
have got a terrific wealth of experience in this region. I 
think you are going to be very valuable to our country when you 
go there.
    India is a long way from Iowa. I went to high school in 
Nebraska. I can remember one cold winter morning working in a 
grocery store, I was reading ``Hawaii'' by James Michener and 
becoming fascinated with the stories of Asia, and he talked 
about mangoes. I looked over on a shelf in this grocery store I 
was working in--and there was a mango. I had never seen one 
before and I bought it with all my tip money. I brought it home 
that night, and I could not figure out how to peel it.
    But I said someday I am going to go where they grow these 
mangoes, and of course, a couple of years later, Uncle Sam 
helped me out and sent me to Vietnam. But I know what it is 
like to really become so intensely interested in an area, and 
you certainly have the background when it comes to South Asia 
and India.
    That leads me to a question. Just something that I have 
been wondering for some time, and I think from your background, 
maybe you can help me understand it--help us understand it.
    We consistently speak about India as a democracy, and in 
political terms, one would think that is true. It certainly 
seems demonstrably true. We talk consistently about the 
entrepreneurship that comes out of India. Some of the most 
wealthy entrepreneurs in the world are in India. Those who have 
come to this country from India do extremely well.
    And yet, if you look at ``The World Factbook,'' the per 
capita income in India is about $800--at least the one that I 
just looked at, ``The Economist World Factbook''--which is less 
than $3 a day. What would be your observations about the nature 
of this democracy in terms of the obvious, glaring inequality 
from top to bottom in its society?
    Ambassador Powell. Senator, I think India's democracy is a 
thriving one with right now they are engaged in five states 
voting, with over 200 million residents in one of those states. 
So that part of the democracy, in terms of its forms and its 
norms, is well established.
    They are voting after a very vigorous debate over policies 
and, particularly in these five states, are looking at the 
economic reforms, whether they have answered the question that 
we would ask here in the United States. Are you better off than 
you were at the last election?
    They are very, very vigorous in that debate. They are 
looking at it very seriously.
    I take a lesson from my time as a teacher of American 
Government and American history of reminding myself that our 
Constitution starts with the words about ``forming a more 
perfect union.'' I think that India is in the process of doing 
that as well.
    It has enormous societal inequalities based on historic 
caste systems of economic differences. But surely, one of the 
engines that moves a society is the commitment to democracy, a 
ballot box that allows people to vote for their leaders and to 
vote for change, but also a rising economy.
    I contrast my earlier time in India, where they were just 
emerging from a very, very closed economic system, one which 
required enormous amounts of work to start a business or to 
close one, for that matter, with the current system. It is not 
perfect yet. It still takes a long time in India. It is still 
not a redtape free society. But all of those things are freeing 
up India.
    I think we have seen over the 20 years of economic reforms 
a tremendous number of people who have been removed from 
absolute poverty. They are into the Indian middle class now. 
They are able to afford education for their children. They are 
dedicated to that as one of the first things that they use 
their disposable income for, but also a rising consumer 
network, better housing.
    Senator Webb. So you would say--and I have got one other 
question I want to ask you, You are optimistic about the 
potential for broader sharing of the wealth in that society?
    Ambassador Powell. I am. I am very optimistic about India.
    Senator Webb. I wanted also to get your comment on the 
obvious and growing interrelationship among the United States, 
ASEAN, and India in terms of naval activities, but also 
security activities not only in the Indian Ocean and around 
into what we call the Western Pacific or the South China Sea.
    We have seen cooperative naval maneuvers between India and 
Vietnam, for instance. At the same time, we have seen over the 
past couple of years on many different levels increased Chinese 
naval activity into the Indian Ocean. What are your thoughts 
about this new mix?
    Ambassador Powell. I think India is certainly one of those 
countries that is a rising power in this part of the world. It 
has interests that match ours in many ways, particularly as we 
have looked at our defense dialogue of looking at maritime 
security, of looking at the potential for cooperation and 
humanitarian relief and disaster assistance. And also in 
looking at piracy, particularly off the coast of Somalia, of 
cooperating with the international effort there.
    The dialogue that we have through the Defense Policy Group, 
through ASEAN, through the Indian Ocean rim conferences, with 
India playing a growing role in that, I think will assist us in 
aligning a policy that works internationally to make sure that 
we can protect those sea-lanes, that we will have a peaceful 
area there.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Udall. Ambassador, the ongoing friction between 
India and Pakistan is a strategic concern for the United States 
and for the region. Do you believe that there may be a more 
proactive role for the United States to play, which could help 
ease tensions between the countries?
    For instance, Sandia National Laboratories Cooperative 
Monitoring Center--Sandia is located in Albuquerque, NM--has 
programs to help create trust between countries, such as border 
monitoring. As part of its mission, Sandia's Cooperative 
Monitoring Center assists political and technical experts from 
around the world to acquire the technology-based tools they 
need to implement nonproliferation, arms control, and other 
cooperative security measures.
    It is a soft power tool that I believe could be utilized in 
such hot spots. I would note that this is not a new proposal, 
that a paper released by the Cooperative Monitoring Center in 
2001, which was written by retired Pakistani Major General 
Mahmud Ali Durrani, called for a ``cooperative border 
monitoring experiment.''
    What are your thoughts on these and other proposals to 
relieve security tensions in the region?
    Ambassador Powell. Senator, I firmly believe in encouraging 
a dialogue and the resolution of problems between India and 
Pakistan. I believe that ideas that are supported by both 
countries, if General Durrani's ideas were to be endorsed 
through the Track II or Track I negotiations that are very 
active on both levels, that there would be a role for the 
United States to play.
    I have had the opportunity to meet many of the people that 
are engaged in these dialogues and certainly think that the 
United States plays a role in encouraging ideas and looking for 
additional creative solutions, but that the primary 
responsibility rests with the two countries. Having worked with 
so many of their leaders and their diplomats, I am very 
confident that they have the ability to do that, but certainly 
don't rule out our ability to assist.
    Senator Udall. Thank you.
    During our visit to India, we visited a USAID site in 
Jaipur. This site truly highlighted the needs of rural and 
impoverished Indians. Work being done by USAID included aiding 
women with prenatal care, vaccinations and other child 
services, and training for women to help them interact with 
other groups to help discuss community needs and solutions.
    Madam Ambassador, what are your thoughts on such programs, 
and how do you think our relations would be impacted if there 
are substantial cuts to such USAID programs?
    Ambassador Powell. I am very, very supportive of these 
efforts. I think particularly supporting women's health has a 
major impact on the health of their children. I have a 
particular interest in looking at women's education 
opportunities. Particularly in rural India, as in many parts of 
the developing world, women have not had equal opportunity and 
access to education. This is an area that as India needs to 
expand its economy is one that I think is very important.
    The AID programs that are being conducted in India are ones 
that I look forward to visiting and to having a better 
understanding of. But I think particularly the one you visited 
is one that would warm my heart. I would like to have the 
opportunity to do that, if confirmed, but also to look at the 
opportunities to do things like the new stoves that are both 
ecologically and in terms of health a much improved facility. 
This is something that Secretary Clinton has taken a great deal 
of interest in.
    In terms of the impact of our aid program, our numbers and 
the amount of assistance to India has been reduced 
substantially from what I remember. But I think it is a quality 
program, and I would like to see it continued so that it can be 
this incubator for innovation and development technology and 
development programming, that we can identify things that work 
in this environment and see how they can be plussed up by the 
private sector, by the government of India, but also exported 
to other developing countries that may have similar problems.
    Senator Udall. Ambassador, we went into a village and saw--
you mentioned the cookstoves and Secretary Clinton's 
initiative. We went in and saw in a village locals cooking on 
traditional stoves. It was fueled, I think, by dung. It was 
very dirty. The smoke was all over the house. I mean, it was a 
pretty dreadful situation.
    Could you tell us a little bit more about the initiative 
Secretary Clinton has on the stoves and how that has 
progressed?
    Ambassador Powell. I am going to have to take the question 
to get you the details on it, but I know that it is one she is 
committed to. And I have had the similar experience that you 
had. Not only do you deprive the fields from the benefits of 
having the fertilizer, but you also spread enormous amounts of 
smoke that, particularly for the lungs and health of children 
and the women who are doing the cooking, is quite dramatic.
    And the new smokeless stoves both cut down on the amount of 
energy that is required, but also contribute far, far less to 
pollutants that damage their health.
    Senator Udall. Thank you.
    And if you would supplement the record a little more on 
that, I think that would be great.
    Ambassador Powell. I will be glad to do so.
    [The requested information follows:]

    Secretary Clinton announced the Global Alliance for Clean 
Cookstoves in September 2010 as an innovative public-private 
partnership led by the United Nations Foundation to save lives, improve 
livelihoods, empower women, and combat climate change by creating a 
thriving global market for clean and efficient household cooking 
solutions. Today, the Alliance comprises of over 250 partners, 
including 27 countries. In November 2011, the Alliance published a 
roadmap to achieve universal adoption of clean cookstoves and fuels. 
Under this strategy, the Alliance will work with its public and private 
partners to focus on three core thematic activities: enhancing demand 
for clean cookstoves and fuels; strengthening supply of clean 
cookstoves and fuels; and fostering an enabling environment for a 
thriving market for clean cookstoves and fuels. The U.S. Government's 
commitment to the Alliance includes diplomatic support and an 
investment of up to $105 million across 10 Federal agencies over the 
first 5 years of the Alliance, with a focus on financing, applied 
research, capacity-building, stove testing, field implementation, and 
evaluation. The Secretary held a public event in Chennai, during her 
July 2011 visit to India, to announce new Indian private sector 
partners and raise international awareness and engagement on these 
issues. Special Representative for Global Partnerships, Kris 
Balderston, would be happy to provide you a detailed briefing on the 
activities of the Global Alliance for Clean Cookstoves.

    Senator Udall. Senator Lugar.
    Senator Lugar. I have no further questions. I simply wish 
the very best to the Ambassador.
    Ambassador Powell. Thank you.
    Senator Lugar. I look forward to strongly supporting your 
nomination.
    Ambassador Powell. Thank you very much.
    Senator Udall. Ambassador, let me, on behalf of the 
committee, just thank you very much for your testimony today.
    We are going to keep the record open for questions for the 
record for 24 hours. We would ask that all members please 
submit any questions before tomorrow afternoon.
    Senator Udall. Also, I have been informed by Chairman Kerry 
that the committee is working to get Ambassador Powell's 
nomination on the agenda for the business meeting to take place 
on February 14, and I believe, Senator Lugar, the ranking 
member, is also aware of that? Yes.
    Ambassador Powell. Thank you very much.
    Senator Udall. So, thank you.
    And being no further questions and no further business, the 
hearing is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


      Responses of Hon. Nancy J. Powell to Questions Submitted by
                         Senator John F. Kerry

    Question. How can the United States best support India and Pakistan 
in their talks and efforts to resolve regional tensions? If confirmed, 
what types of steps will you take to facilitate improved relations 
between India and Pakistan?

    Answer. The United States has always welcomed dialogue and better 
relations between India and Pakistan. The pace, scope, and character of 
the dialogue are for Indian and Pakistani leaders to decide. If 
confirmed, I will encourage all dialogue between India and Pakistan, 
particularly including the expansion of trade and strengthening of 
people-to-people linkages between the countries. The United States 
should continue to encourage both Track I and Track II efforts to 
improve relations. We particularly welcome the upcoming meeting of 
trade ministries and the planned visit to Pakistan of a large 
commercial delegation. Normalizing trade relations will bring benefits 
to both countries.
    We applaud the dialogue between India and Pakistan on bilateral 
issues, including on expanding economic contacts. The latest rounds of 
dialogue have produced concrete steps to improve relations in ways that 
will directly benefit the Indian and Pakistani people, particularly on 
easing barriers to trade and commerce. It is our hope that this process 
of normalization in both directions, including the eventual extension 
of most-favored-nation status by Pakistan and the reduction of 
nontariff barriers by India, will lead to expanded economic opportunity 
and stability for both countries that also could serve as a much-needed 
catalyst for regional integration.

    Question. What steps can the Indians realistically take this year 
to liberalize their economy, particularly to encourage more foreign 
investment?

    Answer. In November 2011, India's Cabinet voted to allow 51 percent 
FDI in the multibrand retail sector and 100 percent investment in the 
single brand retail sector. Multibrand retail implementation has been 
postponed, but we remain hopeful it will be implemented. The FDI 
increase in single-brand retail has moved forward, though with local 
procurement and small business provisions that foreign companies will 
need to work through before they can enter the Indian market in a 
significant way. We have also continued to encourage liberalization in 
the aviation, pensions, and insurance sectors, as well as in defense-
offsets. The release of India's FY 2013 budget and 12th Five-Year Plan 
in March may provide some additional clarity into the government's 
plans for its economic reform agenda.

    Question. How can the United States work with India to encourage 
further political and economic reforms in Burma?

    Answer. India serves as a model for the values we hope will become 
universal across East Asia and is in a strong position to encourage 
Burma to deepen its democratic reform efforts. Although India and the 
United States have historically approached Burma differently, both 
countries have welcomed the significant Burmese reforms, share a strong 
desire to see these reforms continue, and support Burma's reintegration 
into the region. In support of this goal, the Indian Government hosted 
a Burmese parliamentary delegation in December 2011 to study India's 
democracy ahead of Burmese by-elections this spring. India's continued 
outreach, both to the Burmese Government, as well as to opposition 
leaders, such as Aung San Suu Kyi, reinforces this message. In fall 
2011, India offered Burma a $500 million line of credit to support 
development of transport and energy infrastructure and is exploring the 
development of new transport corridors through Burma that would link 
India with markets in Southeast Asia. We continue to urge the Indian 
Government to use its deep historical friendship and cultural ties with 
Burma to engage its civil society and encourage concrete action on 
political and economic reform and national reconciliation. In addition, 
Special Representative and Policy Coordinator for Burma, Derek 
Mitchell, has proposed to visit India in the coming months to explore 
ways to deepen our bilateral cooperation.

    Question. How can the United States work with India to encourage 
further political and economic reforms in Sri Lanka?

    Answer. The Department of State believes the Government of Sri 
Lanka needs to take concrete actions to promote national 
reconciliation, strengthen democratic institutions, and credibly 
investigate violations of international humanitarian law and 
international human rights law alleged to have occurred during Sri 
Lanka's 26-year separatist conflict. We continue to engage closely with 
India on encouraging Sri Lanka to implement a comprehensive national 
reconciliation process that includes holding those credibly alleged to 
have violated international humanitarian law and international human 
rights law accountable for their actions. Both the United States and 
India have also emphasized the need to implement the recommendations of 
Sri Lanka's own Lessons Learnt and Reconciliation Commission in a 
timely manner.

    Question. Last week Bloomberg New Energy Finance released a new 
report showing that India led in the growth of renewable energy 
investments in 2011, with a 52-percent jump to over $10 billion. This 
jump in investments was helped by India's growing wind and solar 
sectors. If confirmed, please describe what you plan to do to connect 
this growing market demand with the technologies and private sector 
investment based in the United States, where we are a leading innovator 
and developer for many of these clean energy technologies. What would 
you do to help implement the Partnership to Advance Clean Energy, one 
of our largest bilateral relationships in this area?

    Answer. In 2009 Prime Minister Singh and President Obama agreed to 
strengthen United States-India cooperation on energy and climate change 
through a number of bilateral and multilateral initiatives. One of 
these initiatives is the U.S.-India Partnership to Advance Clean Energy 
(PACE), which seeks to improve energy access and promote low-carbon 
growth through the research and deployment of clean energy 
technologies. PACE includes bilateral public-private projects that have 
advanced the goals under the CEO Forum.
    If confirmed, I would continue to promote and encourage the sale of 
U.S. technology to India to meet India's ambitious targets for the 
deployment of renewable energy, energy efficiency, and other clean 
energy solutions in support of the National Export Initiative. Over the 
next 10 years, India is expected to be one of the largest sources of 
new solar capacity and other clean energy solutions. India will look to 
the United States to supply the most advanced solar technology in the 
world.
    If confirmed, I would continue the Embassy's strong support of the 
Energy Cooperation Program, a public private partnership in PACE that 
leverages the U.S. private sector to promote commercially viable 
project development and deployment in clean energy and energy 
efficiency.
    The United States also has the opportunity to shape India's clean 
energy market through financing and investment. If confirmed, I would 
fully support the efforts of the Overseas Private Investment 
Corporation, Export-Import Bank, and U.S. Trade and Development Agency 
to promote U.S. clean energy exports and ensure U.S. companies can play 
a significant role in developing India's clean energy market.
    Largely due to clean energy contracts, India has become the largest 
loan portfolio for the Overseas Private Investment Corporation and will 
soon constitute the largest portfolio for the Export-Import Bank. If 
confirmed, I would continue to advocate for the sale of U.S. technology 
in clean and renewable energy and energy efficiency to keep India as 
the top destination for U.S. Government-supported sales. Finally, if 
confirmed, I would help bring to fruition the Joint Clean Energy 
Research and Development Center that will bring together industry and 
academic experts in the United States and India to mobilize $100 
million in funding for clean energy research to benefit both countries.

    Question. What is the status of the TAPI pipeline, particularly 
with respect to securing Western multinational involvement in pipeline 
operation and the associated gas field development in Turkmenistan? 
What is the status of plans between Pakistan and India to jointly 
develop the Daulatabad gas field in Turkmenistan? What is the 
administration's position on these plans? Pakistan has reportedly 
proposed a uniform transit fee for the import of gas under the TAPI 
pipeline project, which it would receive from India and pay to 
Afghanistan. What is the administration's position on the pipeline 
transit fee? What are its economic implications?

    Answer. Since the TAPI Intergovernmental Agreement was signed by 
the Presidents of Turkmenistan, Pakistan, and Afghanistan and the 
Minister of Petroleum and Natural Gas of India in December 2010, the 
parties have been negotiating gas sales and purchase agreements. We 
believe these agreements may be finalized in the next few months. All 
four TAPI parties welcome the participation of international oil 
companies (IOCs) in the project, although there are differing views on 
exactly what the role of the IOCs would be. There has been some 
erroneous reporting on development of the gas field that will feed 
TAPI. Although the Daulatabad field had initially been selected, the 
current plan is for the gas to come from the South Yolotan/Galkynysh 
gas field. Although we understand that both Pakistan and India would 
like to participate in development of the gas field feeding TAPI, we 
are not aware that any agreements have been reached. We believe the 
prospects for the TAPI project would be enhanced if an IOC, perhaps 
working together with Pakistani and Indian companies, were involved 
along with Turkmengaz, the Turkmen Government gas company, in 
developing the gas field that would feed the TAPI pipeline. We have 
advocated for American companies to play this role. The transit fee and 
other commercial issues are a matter for negotiation among the TAPI 
parties and the companies that ultimately compose the consortium that 
will build and operate the pipeline, so it would be premature for us to 
comment on the transit fee. If realized, the TAPI pipeline could help 
meet India's fast growing need for natural gas and also foster regional 
economic development.

    Question. What steps is the administration taking to implement the 
New Silk Road initiative, consistent with the recommendations put forth 
by the Senate Foreign Relations Committee December 2011 report on 
``Central Asia and the Transition in Afghanistan''?

    Answer. The report on ``Central Asia and the Transition in 
Afghanistan'' put forth by the Senate Foreign Relations Committee in 
December 2011 recommended that U.S. policy should ``translate the New 
Silk Road (NSR) vision into a working strategy for the broader region 
beyond Afghanistan.''
    In 2011, high-level engagement on the New Silk Road (NSR) vision 
supported this recommendation by achieving broad international 
consensus on the need to promote greater economic integration 
throughout Afghanistan, Central Asia, and South Asia. India has been 
particularly vocal in endorsing publicly this New Silk Road vision. In 
2012, we plan to take additional concrete steps to operationalize the 
NSR concept, focusing on the expansion of energy, trade, and transit 
between South and Central Asia, with Afghanistan at its heart. We will 
also capitalize on people-to-people linkages that support the NSR 
vision, such as follow-on activities related to the 2011 Women's 
Economic Symposium in Bishkek, promotion of regional commerce 
associations, and enhanced cooperation with multilateral organizations 
active in the region such as the Organization for Security and 
Cooperation in Europe and OECD.
                                 ______
                                 

      Responses of Hon. Nancy J. Powell to Questions Submitted by
                        Senator Richard G. Lugar

    Question. As a growing oil consumer, India plays an increasingly 
important role in global oil markets. However, since India is not in 
the OECD, they also are not formally party to oil crisis response 
mechanisms. In your view, should the United States advocate for full 
Indian membership in the International Energy Agency?

    Answer. Noting India's growing weight as a major energy consumer 
(No. 2 in the non-OECD world) and as part of a broader USG effort to 
integrate India into institutions of global governance and multilateral 
cooperation, we continue to encourage India's growing cooperation with 
the International Energy Agency (IEA). At present, there are several 
prerequisites for IEA membership, such as OECD membership, adherence to 
shared IEA principles and a requirement of 90 days of strategic 
petroleum stocks (for emergency response). We have been working with 
India on energy security through the U.S.-India Energy Dialogue and 
other bilateral mechanisms and support India's Enhanced Engagement 
program with the OECD, with a view toward eventual IEA membership for 
India. India should have a seat at the table with the world's major 
consumers to coordinate on a possible collective response in the event 
of a major oil supply disruption, exchange views on key energy 
dynamics, and discuss energy security issues.

    Question. The Indian economy offers tremendous opportunities for 
U.S. trade and investment in both conventional energy and clean energy 
technologies. Yet, numerous obstacles exist from pricing controls to 
local content requirements. Is the administration playing a role in 
spurring pricing reform in the oil and gas sector, which allow 
investors are reasonable return on investment? What is the 
administration doing to encourage the liberalization of the Indian 
power markets? Please describe local content requirements in renewable 
energy, and the administration's position on those rules.

    Answer. Energy and climate change cooperation is a strategic pillar 
under the U.S.-India Strategic Dialogue, and the Energy Dialogue is the 
main bilateral platform to advance our efforts to improve energy 
access, infrastructure development, regulatory frameworks, and energy 
security. During Prime Minister Singh's November 2009 visit to 
Washington, he and President Obama announced a Memorandum of 
Understanding on clean energy, now known as the U.S.-India Partnership 
to Advance Clean Energy (PACE). PACE incorporates an ambitious energy 
agenda, focused on bilateral cooperation on energy security, climate 
change, clean energy research, shale gas, and private sector 
participation in India's energy sector.
    Department of Energy Deputy Secretary Poneman traveled to India in 
July 2011 for the most recent meeting of the Energy Dialogue, which 
included senior-level representatives from Indian Government ministries 
in the energy sector, including petroleum and natural gas, and new and 
renewable energy. Both sides noted the importance of appropriate policy 
and regulatory frameworks in improving energy policies and energy 
access. We have engaged with numerous Indian Government ministries, 
including the Ministry of Commerce and Industry and the Ministry of 
Renewable Energy on local content requirements both during policy 
development and during policy implementation. U.S. companies, such as 
Azure Power Ltd. and First Solar, are active players in India's solar 
market. India has become the largest loan portfolio for the Overseas 
Private Investment Corporation and will soon become the largest 
portfolio for the Export-Import Bank, largely due to clean energy 
development financing. The Export-Import Bank has financed 75 million 
dollars' worth of solar power generating projects in India and is 
considering loans worth an additional $500 million to support India's 
growing solar infrastructure. The U.S. Department of Commerce 
facilitated expanded trade and commercial partnerships in clean 
technology products through a November 2011 trade mission.
    As India's solar industry matures, Indian regulators are revising 
their regulations for the industry. If confirmed, I would work with the 
Indian Government to ensure that India's regulations continue to allow 
access to products manufactured by U.S. companies so that India can 
enjoy the best technologies at the lowest prices.

    Question. India has the sought the support of the U.S Government in 
securing a permanent seat on the United Nations Security Council. Can 
you give us an update on efforts between the U.S. and Indian 
Governments to promote greater cooperation on U.N. and multilateral 
measures generally?

    Answer. India has partnered with the United States at the U.N. and 
other multilateral fora on several key issues, including its support in 
February 2012 for a (ultimately unsuccessful) Security Council 
resolution calling for an end to the current violence in Syria. 
Moreover, India has joined the United States four times in support of 
International Atomic Energy Agency Board of Governors votes on Iran's 
nuclear program and has been a strong proponent of a Fissile Material 
Cut-Off Treaty at the Conference for Disarmament. Given India's status 
as a current member of the U.N. Security Council, and its historic role 
as one of the leading providers of U.N. peacekeeping troops, we have 
welcomed the opportunity to increase our bilateral exchanges on these 
issues, including the Government of India's decision last March to 
resume the bilateral U.S.-India Peacekeeping Joint Working Group. India 
also participates with the United States in a wide range of East Asian 
multilateral forums, including the ASEAN Regional Forum and the East 
Asia summit, where Indian Prime Minister Singh met with President Obama 
last fall. Consistent with the administration's foreign policy 
``pivot'' to Asia, we look forward to continuing to consult with India 
closely on issues affecting the Asia-Pacific region and the globe.

    Question. The United States and India have pledged to work together 
to share knowledge and technology as part of an ``Evergreen 
Revolution'' to extend food security in India as well as to countries 
in Africa. This partnership includes plans to increase agricultural 
productivity, reduce trade barriers, and develop long-term sustainable 
economic development. Can you give us an update on these efforts and 
describe what further steps can be taken to achieve food security for 
the greatest number of people?

    Answer. As one of our strategic partnership countries, India is 
actively engaged in our food security efforts, and is itself a driver 
of global solutions in food security. Through the Partnership for an 
Evergreen Revolution, the United States and India are working together 
to leverage expertise to enhance weather and climate forecasting for 
agriculture, improve food processing and farm-to-market links, and 
partner for global food security in Africa.
    As a key regional player, India is an active partner in our efforts 
to make sustained and accountable commitments to fight against global 
hunger, address the longer term challenges of global food security, and 
build future markets. USAID is currently transforming its relationship 
in India to highlight Indian innovations which may have global 
applications. On his recent trip, USAID Administrator Raj Shah launched 
the Confederation of Indian Industries (CII)-Food and Agriculture 
Center of Excellence (FACE) event which aims to develop a partnership 
strategy for expanding rural business hubs to eastern India, and then 
to Africa. Developing the 30 hubs in eastern India and promoting the 
adoption of agrobusiness hubs for agriculture growth globally, 
including in Africa, will expand innovations in post-harvest 
technologies and establish greater food safety/security standards. If 
confirmed, I will support private sector partnerships such as the CII-
FACE initiative, which will play a catalytic role in transferring 
innovations to improve food security in India and Africa. The U.S. 
Government and the Government of India are currently exploring 
opportunities to train African participants from Kenya, Liberia, and 
Malawi at Indian universities and research and technical institutes in 
mutually agreed capacity building programs. I believe Indian private 
sector and civil society hold great promise in advancing innovations 
and leveraging resources which can improve development outcomes.

    Question. How can the United States play a constructive role in the 
India Pakistan dialogue? As Ambassador, what could you do to increase 
cooperation in the areas of security and intelligence sharing between 
the United States and India?

    Answer. The United States has always welcomed dialogue and better 
relations between India and Pakistan. The pace, scope, and character of 
the dialogue are for Indian and Pakistani leaders to decide.
    We applaud the dialogue between India and Pakistan on bilateral 
issues, including on expanding economic contacts. The latest rounds of 
dialogue have produced concrete steps to improve relations in ways that 
will directly benefit the Indian and Pakistani people, particularly on 
easing barriers to trade and commerce. It is our hope that this process 
of normalization in both directions, including the eventual extension 
of most-favored-nation status by Pakistan and the reduction of 
nontariff barriers by India, will lead to expanded economic opportunity 
and stability for both countries that also could serve as a much-needed 
catalyst for regional integration.
    With respect to security cooperation with India, homeland security 
and counterterrorism cooperation are areas where our partnership with 
India now operates at unprecedented levels. If confirmed, I will 
continue to encourage a close, productive, and cooperative relationship 
with India in these areas that includes regular and frequent exchanges 
of information. We are committed to providing India full support in 
ongoing counterterrorism investigations, through continued exchanges 
between designated agencies and by bringing the perpetrators of the 
2008 Mumbai terrorism attack to justice, which killed Americans along 
with citizens of many other countries. We remain deeply concerned about 
the potential of another terrorist attack--in India, the United States, 
and elsewhere in the world--and are working very closely with our 
Indian and Pakistani colleagues to prevent such an incident.

    Question. What steps is the administration taking to pressure the 
Pakistan Government to bring those responsible for the November 2008 
Mumbai terrorist attacks to justice? What further steps would you 
suggest be taken?

    Answer. We continue to press Pakistan to bring those responsible 
for the 2008 Mumbai attacks--which claimed the lives of six Americans 
among the scores of innocent victims--to justice. Moreover, we have 
stressed to Pakistani authorities the dangers of Lashkar-e-Taiba (LeT) 
and the importance of efforts to disrupt the group's activities. We 
also remain concerned about the potential of another terrorist attack--
in India, the United States, or elsewhere in the world--and are working 
closely with our Indian and Pakistani colleagues to prevent such an 
incident. We have a close, productive, and cooperative relationship 
with India on counterterrorism that includes regular and frequent 
exchanges of information. We are committed to providing full 
cooperation and support in ongoing counterterrorism investigations, 
through continued exchanges of information between designated agencies 
and by bringing the perpetrators of the 2008 Mumbai terror attack to 
justice. Homeland security and counterterrorism cooperation are areas 
where our partnership with India operates at unprecedented levels.

    Question. The Indian Government has traditionally been slow to open 
its doors to foreign investment. How can we advance the ability of U.S. 
companies to invest in India? There are regulations now permitting 
foreign single brand retailers to operate in India. How can we further 
discussions with India to allow a broader range of retail industries to 
fully operate in India?

    Answer. We encourage India to have an open and welcoming 
environment to foreign investment including investment from the United 
States. We are always looking for new ways to support U.S. businesses 
overseas and facilitate opportunities for investment that India needs 
to support its development goals, particularly in infrastructure. 
Though businesses interested in investing in India do face some 
challenges, we are encouraged by the Indian Government's intention to 
liberalize investment into some sectors, including retail. One 
mechanism we have to directly advance the ability for U.S. companies to 
do business or have a level playing field when they invest in India is 
continued negotiations on and completion of a bilateral investment 
treaty (BIT). A BIT would deepen our economic relationship with India 
and provide important protections to investors of each country. If 
confirmed, I will encourage India to continue making progress on 
economic liberalization, which supports jobs and growth in both our 
countries.

    Question. We have had on-and-off negotiations with India on a 
bilateral investment treaty. How would completion of such a treaty 
advance the ability of U.S. companies and enterprises to invest in 
India?

    Answer. We had very positive Bilateral Investment Treaty (BIT) 
technical discussions with our Ministry of Finance and Ministry of 
Commerce counterparts last October, and are looking forward to the next 
round of discussions being scheduled for this spring. High-standard 
BITs like that which we hope to conclude with India can encourage 
investment by improving investment climates, promoting economic 
reforms, and strengthening the rule of law. Completion of the BIT could 
provide investors in India and the United States increased market 
access; protections that guard against discriminatory, arbitrary, or 
otherwise harmful treatment of investments; and legal remedies for 
breaches of the treaty. If confirmed, I will encourage continued, 
robust engagement to work together to conclude a BIT that will support 
our efforts to promote economic growth and job creation, and to advance 
our strategic engagement with India.

    Question. In India there is a large community of exiled Tibetans, 
led by the Dalai Lama and the new democratically elected Kalon Tripa 
(whom the Tibetans refer to as their Prime Minister), which has been 
hosted by the Indian Government for many years and which receives some 
funding from the United States. Will you include this programmatic 
assistance in your oversight of U.S. programs in India, and will you 
meet with His Holiness Dalai Lama and the Kalon Tripa to discuss issues 
of mutual concern?

    Answer. We appreciate the fact that India for many years has 
provided a welcome reception for refugees from Tibet. The State 
Department, through the Bureau of Population, Refugees, and Migration 
(PRM), oversees U.S. assistance to the Tibetan refugee population in 
India and Nepal. In India, support has centered around humanitarian 
assistance for Tibetan refugees in the area of new refugee arrivals, 
health, and education. PRM also funds two Tibetan Refugee Reception 
Centers in New Delhi, and Dharamsala, as well as a transit center in 
Kathmandu, through regular contributions to the Tibet Fund ($2.3 
million in FY11). The USG is in the process of increasing support for 
Tibetan settlements in India and Nepal through a USAID-funded grant to 
support organic agriculture and livelihood development. The U.S. 
mission to India supports the Tibetan Scholarship Program through a 
congressionally mandated grant to the Tibet Fund. Mission India has 
been and will remain involved in supporting this assistance.
    Like previous Ambassadors to India, if confirmed, I plan to 
continue the tradition of engagement on Tibetan refugee issues, 
including meeting with His Holiness, the Dalai Lama, as an 
internationally recognized religious leader and Nobel Laureate, and 
recipient of the Congressional Gold Medal.

    Question. What high-level exchanges have occurred between our 
governments regarding the status of liability protections for U.S. 
nuclear exporters to India? What further steps would you suggest to 
encourage greater cooperation on this issue? And more broadly, what is 
current state of our energy dialogue with New Delhi?

    Answer. Completing our civil nuclear cooperation partnership is 
central to both our nations' long-term prosperity and India's future 
energy security. Senior executive branch officials from State, Energy, 
Commerce, and the White House have raised our concerns with their 
counterparts in the Indian Government over the past year. Prime 
Minister Singh agreed last November to host a delegation of U.S. 
officials and private companies to discuss our concerns and to find a 
way ahead ``within the four corners'' of Indian law. We heard clearly 
in this first meeting India's commitment to ensuring a level playing 
field for U.S. companies, which was reiterated during Foreign Secretary 
Mathai's early-February visit to Washington. Our companies are 
interested in continuing our discussions on liability as well as in 
making tangible progress on commercial arrangements this year. If 
confirmed, I will continue our engagement at all levels on this 
matter--political, legal, and commercial--and believe we will make 
measurable progress this year.
                                 ______
                                 

      Responses of Hon. Nancy J. Powell to Questions Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Although international conventions place liability for 
nuclear accidents solely with the operators of nuclear reactors, 
current Indian law would also make suppliers potentially liable. 
American companies like Westinghouse that wish to provide peaceful 
nuclear technology to India could be held at unreasonable liability 
levels, and maintain that they can not bid on Indian nuclear contracts 
until the liability law is changed. Meanwhile, French and Russian 
companies, which might not have the same reservations with respect to 
the liability law, are aggressively pursuing this market.

  <bullet> Based on the United States assessment of the Indian 
        political situation, how possible is a change in Indian 
        liability law?
  <bullet> As Ambassador, what specific steps will you take to ensure 
        that U.S. companies are able to compete for this critical 
        market?

    Answer. Completing our civil nuclear cooperation partnership is 
central to both our nations' long-term prosperity and India's future 
energy security. Senior executive branch officials from State, Energy, 
Commerce, and the White House have raised our concerns with their 
counterparts in the Indian Government over the past year. Prime 
Minister Singh agreed last November to host a delegation of U.S. 
officials and private companies to discuss our civil nuclear 
cooperation and to find a way ahead ``within the four corners'' of 
Indian law. We heard clearly in the first meeting of this group India's 
commitment to ensuring a level playing field for U.S. companies. Indian 
Foreign Secretary Mathai reiterated this during his early-February 
visit to Washington, declaring at Center for Strategic and 
International Studies, that American firms will be provided a level 
playing field, and the Indian Government is prepared to address 
specific concerns within the framework of the law. We have remained 
engaged and must now take practical steps to advance our cooperation 
with Foreign Secretary Mathai. Our companies are interested in 
continuing our discussions on liability as well as in making tangible 
progress on commercial arrangements this year. If confirmed, I will 
continue our engagement at all levels on this matter--political, legal, 
and commercial.

    Question. Despite mounting international support for isolating the 
Iranian regime, India continues to not cooperate fully in sanctioning 
Iran. While it has taken steps to diminish its financial and energy 
ties with Iran, it continues to do a limited amount of business with 
the country.

  <bullet> What is the United States doing to translate India's stated 
        opposition to a nuclear-armed Iran into concrete action aimed 
        at preventing the regime's acquisition of a nuclear weapon?
  <bullet> As Ambassador, how will you work to increase India's 
        commitment to isolating the Iranian regime? What specific steps 
        will you encourage India to undertake in the near term to 
        demonstrate this commitment?

    Answer. India is very cognizant of the significant regional 
implications that would result from Iran acquiring a nuclear weapon, 
and Prime Minister Singh has stated on multiple occasions that an 
Iranian nuclear weapons program would be unacceptable to India. 
Moreover, India has voted four times with the United States in the 
International Atomic Energy Agency (IAEA) Board of Governors on Iran's 
nuclear program and consistently has called on Iran to fulfill its 
international obligations as a nonnuclear weapon state under the 
Nuclear Non-Proliferation Treaty and comply with EU and UNSC 
resolutions. If confirmed, I will work closely with my counterparts in 
India to ensure that our governments continue to send a strong message 
to Iran that its behavior is unacceptable and carries serious 
consequences. Already, Indian companies have, to the best of our 
knowledge, ceased activities such as selling refined petroleum products 
to Iran. However, Iranian oil continues to represent a significant--
though steadily declining--share of Indian oil imports. If confirmed, I 
want to work closely with Indian officials to identify and encourage 
alternative sources of imported oil that also will help to ensure 
India's energy security for the future.

    Question. Despite the high demand for physicians in many areas of 
the United States, Indian physicians have encountered difficulty in 
obtaining their J-1 visas to enter the United States. Hospitals in 
underserved areas of Pennsylvania have benefited greatly from their 
experience with visiting Indian physicians, but undue delays in issuing 
visas have prevented some physicians from entering the country.

  <bullet> What steps is the United States taking to improve the 
        efficiency of the J-1 visa process for foreign physicians, 
        particularly those with agreements to work in Medically 
        Underserved Areas?
  <bullet> As Ambassador, how will you work to ensure that Indian 
        physicians with the required licenses and certificates are able 
        to obtain visas and enter the United States in a timely manner?

    Answer. Upon completion of a J-1 medical residency program 
sponsored by Educational Commission for Foreign Medical Graduates, many 
physician applicants who wish to adjust to an H-1B status in order to 
work in a U.S. hospital must obtain a waiver of the 2-year residency 
requirement required by INA 212(e). Once an applicant completes the J-1 
waiver application adjudication process with the Waiver Review 
Division, it forwards any favorable recommendations to U.S. Citizenship 
and Immigration Services (USCIS), which has the authority to grant 
waivers. The Department is committed to completing these decisions 
within 4 to 6 weeks, so that applicants can receive a timely decision 
from USCIS.
    Currently, Consular Team India works diligently to facilitate all 
legitimate travel to the United States. We have not experienced any 
significant delays in issuing 
J-1 visas to Indian physicians with the appropriate licenses, 
certificates, and documents. We anticipate strong future growth in visa 
demand in India and will continue to focus on leveraging our resources 
and expertise to maintain our short appointment wait times, currently 
less than 10 days across the country, and efficient handling, with 97 
percent of cases processed by the next business day. Although we 
recommend that everyone apply early, any visa applicant who urgently 
needs to travel can request an expedited visa appointment.


 NOMINATIONS OF FREDERICK D. BARTON, WILLIAM E. TODD, AND SARA MARGLIT 
                                 AVIEL

                              ----------                              


                        TUESDAY, MARCH 13, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Frederick D. Barton, of Maine, to be an Assistant 
        Secretary of State (Conflict and Stabilization 
        Operations) and to be Coordinator for Reconstruction 
        and Stabilization
Hon. William E. Todd, of Virginia, to be Ambassador to the 
        Kingdom of Cambodia
Sara Margalit Aviel, of California, to be United States 
        Alternate Executive Director of the International Bank 
        for Reconstruction and Development
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tom Udall 
presiding.
    Present: Senators Udall and Corker.

              OPENING STATEMENT OF HON. TOM UDALL,
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. The Senate Foreign Relations Committee will 
now come to order.
    Let me welcome our nominees who are here this morning: the 
Honorable Frederick D. Barton, of Maine, to be Assistant 
Secretary of State for Conflict and Stabilization Operations 
and also the Coordinator for Reconstruction and Stabilization; 
the Honorable William E. Todd, of Virginia, to be Ambassador to 
the Kingdom of Cambodia; and Ms. Sara Aviel, of California, to 
be the United States Alternate Executive Director of the 
International Bank for Reconstruction and Development.
    We meet this morning to consider these three nominations, 
which are important to achieving the smart power goals of the 
United States--Ambassador Frederick Barton to be Assistant 
Secretary of Conflict and Stabilization, as I have said, and 
the Honorable William Todd and Mrs. Sara Aviel. All of these 
nominees play a crucial role in promoting the smart power of 
the United States.
    In 2009, Joseph S. Nye Jr., a Harvard professor, former 
Assistant Secretary of Defense for International Security and a 
former chair of the National Intelligence Council, wrote a 
piece in Foreign Affairs titled, ``Get Smart: Combining Hard 
and Soft Power.'' In this piece, he began with a statement by 
Secretary of State Hillary Clinton, who, at her confirmation 
hearing, stated: ``America cannot solve the most pressing 
problems on our own, and the world cannot solve them without 
America. We must use what has been called smart power, the full 
range of tools at our disposal.''
    Joseph Nye Jr. would conclude in his piece that, ``The 
United States can become a smart power by once again investing 
in global public goods, providing things that people and 
governments in all quarters of the world want but cannot attain 
on their own. Achieving economic development, securing public 
health, coping with climate change, and maintaining an open, 
stable international economic system all require leadership 
from the United States.
    ``By complementing its military and economic might with 
greater investments in its soft power, the United States can 
rebuild the framework it needs to tackle tough global 
challenges. That would be true smart power.'' And he ended 
there.
    The three nominees we are considering today will all serve, 
if confirmed, at the front lines of smart power for the United 
States. Since the earliest days of our republic, our 
Ambassadors have served at the tip of the spear of our 
diplomatic mission, using smart power when it was simply known 
as diplomacy.
    Our Ambassador to Cambodia will continue the long legacy of 
past Ambassadors to the region. The formation of the 
International Bank for Reconstruction and Development was one 
of the early tools the United States employed immediately after 
World War II to help promote stability and development across 
the globe.
    The International Bank for Reconstruction and Development 
has been responsible for fostering economic development and 
stability in developing countries, improving lives, and working 
to prevent conflict through economic development before it 
occurs. The Alternate Executive Director of the International 
Bank for Reconstruction and Development plays a key role in 
tackling the World Bank's development goals.
    And today, we will also consider the nominee to fill a new 
position, the Assistant Secretary of State for Conflict 
Stabilization Operations and Coordinator for Reconstruction and 
Stabilization. These new positions present many opportunities 
to improve coordination between agencies from within the State 
Department to respond to conflicts and prevent them from 
occurring.
    So we welcome our nominees today, and as I am going to--if 
Senator Corker wants to make any opening, or we can go directly 
to your statements. Feel free to introduce family members that 
are here and any description you have of them. I know some of 
you have some family members that have some history either with 
the Department or service overseas. And we very much appreciate 
the sacrifice we know that the entire family makes in these 
kinds of positions.
    And with that, Senator Corker, if you want to say a few 
words, welcoming, and then we will proceed to the witnesses.

                 STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    The chairman knows I don't make a lot of opening 
statements. But we welcome each of you and certainly your 
families. Sometimes the families can have greater impact than 
the nominees. But we thank you all.
    I know that Ms. Aviel has been in our office several times 
since last fall. I may not stay for a lot of questioning after 
your original testimony, but we will follow up with other 
questions.
    But we thank all of you for your willingness to serve in 
this way and coming before us today, and I look forward to your 
statements.
    Senator Udall. Thank you.
    And please, your full statement will be in the record. So 
we're asking you to just address the committee for 5 minutes at 
this point. And why don't we start with Mr. Barton?

   STATEMENT OF HON. FREDERICK D. BARTON, OF MAINE, TO BE AN 
   ASSISTANT SECRETARY OF STATE, CONFLICT AND STABILIZATION 
   OPERATIONS, AND TO BE COORDINATOR FOR RECONSTRUCTION AND 
                         STABILIZATION

    Ambassador Barton. Great. Thank you very much, Senator 
Udall. Thank you, Senator Corker. It is great to be here today.
    I would also like to give a special thanks to your 
colleagues, Senator Kerry and Senator Lugar, for their path-
breaking work in this conflict and crisis space. They have been 
pushing for us to do what we are trying to do right now for a 
number of years, and happy to have this opportunity, if 
confirmed.
    I would also like to thank the SFRC staff. They have been 
working this issue for as long as I have been around, and would 
to say that since my father was on this staff many, many years 
ago, it is great to be back in this place. I think he might be 
making it here, but he is 91, and sometimes he will move at his 
own pace, I find. But he is an old friend of Bertie's and 
others. And so, it really does feel good to be back here.
    My deepest thanks to President Obama and Secretary Clinton 
for giving me this opportunity and, obviously, to Ambassador 
Rice for having called upon me to serve in New York.
    Mine is a lifelong commitment to public service, and the 
advancement of peaceful democratic change is what I have been 
trying to do for the last 18 years. Obviously, much of that 
foundation is built on the service of my parents, and it has 
been reinforced by my wife, Kit Lunney, who is here, and our 
daughter, Kacy, who is serving the public in her own way as 
well.
    So it is great to have everybody here today. I have heard 
``break a leg'' more often in the last 24 hours than I have 
probably in the rest of my life, so.
    Senators, you have my written testimony. So what I would 
like to do is just bring together three of the elements of the 
testimony.
    First, today's conflicts and crises present fresh 
challenges. Whether it is popular revolts, economic collapses, 
threats without borders, or hyperemergencies where a 
combination of factors come together, we are being challenged 
in a very different way. The United States will continue to 
play a pivotal, if not a dominant role, and we must be more 
ready.
    To be more effective, we have to especially expand in the 
area of local ownership. And CSO can help by making sure that 
the U.S. Government model is built off of an analysis that is 
driven by local voices. Second, that has to lead into an 
integrated strategy with really clear priorities, two or three 
priorities. And then the resources that the U.S. Government has 
have to be driven at those particular elements.
    We can't be all over the place. We have to answer the 
question ``What is most needed?'' rather than ``What can the 
United States do?''
    And third, I believe that CSO's success in the coming year 
is going to be determined by two key elements. Whether we will 
have a real impact in two to three places of significance to 
the United States, and will we be able to build a trusted and 
respected team?
    If confirmed, that will be my intent, and I will make sure 
that our relationship with the Congress is open and responsive 
in every way.
    Thank you again for this honor.
    [The prepared statement of Ambassador Barton follows:]

               Prepared Statement of Frederick D. Barton

    Chairman Udall, Senator Corker, and members of the committee, it is 
an honor to appear before you today. Thank you for your support in 
creating the Bureau of Conflict and Stabilization Operations (CSO), and 
to President Obama and Secretary of State Clinton for giving me this 
opportunity. Public service is a family commitment, and I am grateful 
to my wife, Kit Lunney; our daughter, Kacy; my late mother, Nancy; and 
my father, Bob, who served this committee at the end of his career, for 
their encouragement.
    The State Department's Quadrennial Diplomacy and Development Review 
(QDDR) concluded that ``we must be faster, more innovative, and more 
effective than [the] forces of instability and we must be flexible 
enough to adapt to rapid changes that occur in conflict.'' To 
strengthen our coherence and cohesion in preventing and responding to 
conflict and crisis, Secretary Clinton established CSO.
    Its mission is to prevent countries' descent into crisis and speed 
their emergence from conflict, thereby contributing to a more peaceful, 
just world. If we succeed, our investments will save the lives of both 
local civilians and Americans. Our work will also save money by 
avoiding expensive military interventions, and help produce resilient 
societies that contribute to the global economy.
    CSO will build on the valuable conflict-related work of its 
predecessor, the Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS), and other parts of the U.S. Government. This 
work has ranged from helping to facilitate South Sudan's referendum on 
independence to supporting efforts to stamp out the Lord's Resistance 
Army, from working to allay ethnic violence in the Kyrgyz Republic to 
helping the Transitional National Council take charge in Libya. CSO is 
now looking at engagements on Kenya, Burma, Syria, and northern Central 
America.
    In its engagements, the Bureau first asks: ``What is most needed?'' 
And then: ``What can the U.S. do?'' Too often in conflict we begin by 
deploying costly tools regardless of whether they are right for the 
situation. Critically, solutions must be driven by local dynamics and 
actors. As Secretary Clinton has said, our job is to ``work to make 
sure a government's first obligation is to its own people.''
    CSO will improve our effectiveness by driving a rigorous four-step 
engagement process. We must start with an inclusive, joint, independent 
analysis, driven by local voices and avoiding predetermined answers. 
Second, that analysis should lead to a strategy that identifies a few 
main priorities. Third, resources--funding and personnel--should be 
directed to address these priorities, consistent with U.S. interests 
and capacity. And finally, the process must include ongoing, 
transparent measurement, evaluation, and adaptation. That includes 
applying lessons that we have learned in places like Afghanistan and 
Iraq.
    We must partner with those who will make us most effective, 
building inclusive teams from the start, making timely decisions, and 
ensuring we are all moving in the same direction. CSO works with its 
sister bureaus in the Undersecretariat for Civilian Security, 
Democracy, and Human Rights, and depends on close partnerships with 
USAID, the Department of Defense, and others. It goes without saying 
that CSO must act as an accessible and responsive partner with 
Congress.
    As I met with more than 200 stakeholders in the Department, on the 
Hill, and elsewhere, I learned that CSO faces real pressure to prove 
itself. If confirmed, I will focus on three goals for the next year: 
Bring high-impact engagements to a few strategic places where targeted 
prevention and response can be most effective; add innovation and 
agility to the approaches we use; and build a respected team and 
trusted partnerships.
    CSO is already expanding its ability to deploy while shrinking its 
overhead, simplifying its structure, consolidating offices, targeting 
efforts on key countries, and building a stronger leadership cadre in 
the Civilian Response Corps. The Corps is becoming more flexible and 
conflict-focused.
    In the last 10 years, we have learned the hard lesson that conflict 
in even the most remote state can have a serious impact on our national 
security. In over 17 years of work in more than 30 of the world's most 
unstable places, I have seen that nothing is more wasteful to human 
potential than violent conflict. If confirmed, I will bring to the job 
my personal dedication to help the United States expand the course of 
peaceful, democratic progress for people around the world and ensure 
our security here at home. Many lives--within and beyond our borders--
depend on a more timely, efficient, and organized response.
    Thank you and I look forward to your questions.

    Senator Udall. Mr. Todd, please proceed.

     STATEMENT OF HON. WILLIAM E. TODD, OF VIRGINIA, TO BE 
             AMBASSADOR TO THE KINGDOM OF CAMBODIA

    Ambassador Todd. Thank you, Mr. Chairman. Thank you, 
Senator Corker.
    Before I get started, I would like to introduce my wife, 
Ann. She has been the inspiration throughout this entire 
process. She is probably happier about this day than I am, 
getting it over.
    I would also like to introduce the heroes in my life, my 
parents, Jack and Marie Todd. My dad was a combat helicopter 
pilot. He served two tours in Vietnam, won the Silver Star. And 
my mother was a career Federal employee. And they basically 
gave me the commitment to Federal service. So, thank you.
    Senator Udall. Great to have you here.
    Ambassador Todd. I will also try to be brief, but it will 
be a little longer than my colleague.
    Mr. Chairman and members of the committee, I am deeply 
honored to come before you today as President Obama's nominee 
to be the next American Ambassador to the Kingdom of Cambodia. 
I want to thank President Obama and Secretary Clinton for their 
confidence in nominating me for this position.
    Mr. Chairman, thank you for the kind words on my 
background. For the sake of time, I will just highlight my last 
two assignments.
    As you mentioned, in 2008, I was confirmed as U.S. 
Ambassador to Brunei, where I proudly promoted democracy, human 
rights, and religious freedom and worked with Brunei to become 
a more active player in APEC, ASEAN, and as a contributor to 
regional security. I am excited by the opportunity to give back 
to the region, if confirmed.
    In 2011, I finished a 1-year tour in Afghanistan as 
Coordinator of Development and Economic Affairs. In that 
capacity, I was responsible for overseeing a $4 billion 
development program, managing over 600 Americans, and running 
the mission's regional and provincial civilian operations. It 
was the most challenging, but rewarding job I have had in my 
career, and I would happily do it again if asked.
    Mr. Chairman, I believe these past assignments, as well as 
the variety of other positions I have held in the Federal 
Government over the past 25 years, provide me with the skill 
set that will effectively advance our interests in Cambodia.
    Cambodia's modern history is one marked by tragedy, 
conflict, and survival. Today, however, we see a Cambodia that 
is refusing to let its past dictate its future and is looking 
to that future with a new sense of confidence and optimism.
    Cambodia's economy is one of the fastest-growing economies 
in Asia. That growth has created thousands of new jobs. The 
Khmer Rouge tribunal secured its first conviction in 2010, and 
the trial of case No. 2 is underway, bringing to justice the 
people who caused so much pain and suffering.
    The HIV infection rate has been reduced by two-thirds.
    Death and injuries caused by unexploded ordnances have been 
reduced by almost 75 percent, and roads that were once 
impassable have been demined and rebuilt. And Cambodia has been 
a model partner in our efforts to achieve the fullest possible 
accounting of American servicemen missing from the Indochina 
war.
    These successes have been transformative, but much work 
remains, particularly in the areas of rule of law, democratic 
institutions, human rights, combating human trafficking, and 
corruption. Mr. Chairman, if confirmed, I assure you that I 
will continue to take each of these issues head on and will 
take the lead in advancing the causes of freedom, democracy, 
rule of law, and respect for human dignity.
    Mr. Chairman, I would also like to highlight two additional 
issues that I will focus my efforts on, if confirmed. First, as 
you know, Cambodia is the ASEAN chair this year. As the United 
States pivots toward the Asia-Pacific and deepens its 
engagement, we will look to ASEAN to play a crucial role in 
maintaining and promoting regional peace and security, 
coordinating humanitarian assistance and disaster relief, and 
fulfilling the region's promise for democracy, respect for 
human rights. I see the chairmanship as an opportunity for the 
United States to partner with Cambodia, helping where we can 
and addressing together challenges when they arise.
    Second is the Lower Mekong Initiative, which is designed to 
increase cooperation within the subregion for those who live, 
work, rely on the Mekong. I believe that as ASEAN chair, 
Cambodia can help push this initiative forward by promoting 
cooperation on the environment, education, health, and 
infrastructure in order to make the region more peaceful, 
prosperous, and secure.
    In closing, Mr. Chairman and members of the committee, if 
confirmed, I will dedicate all of my energy and experience to 
advance United States foreign policy objectives in Cambodia and 
to strengthen the relationship between our two great countries. 
I look forward to working with you, this committee, and any 
interested Members of Congress to advance our shared interests 
in Cambodia.
    I would be happy to answer any of your questions. Thank 
you.
    [The prepared statement of Ambassador Todd follows:]

                 Prepared Statement of William E. Todd

    Mr. Chairman, members of the subcommittee, I am deeply honored to 
appear before you today as President Obama's nominee to be the 
Ambassador of the United States to the Kingdom of Cambodia. I want to 
thank President Obama and Secretary Clinton for the confidence they 
have shown in me by nominating me for this position. If confirmed, I 
will work closely with this committee and other interested Members of 
Congress to advance U.S. interests in Cambodia.
    Cambodia's history is marked by tragedy, conflict, and survival. 
Today, however, we see a modern Cambodia that refuses to let its past 
dictate its future. Although Cambodia is still recovering from three 
decades of strife and war, including the atrocities of the Khmer Rouge 
era, there are a number of good reasons that Cambodia is imbued with a 
new sense of confidence and optimism. Cambodia boasts one of the 
fastest growing economies in Asia over the past decade, and it is 
reforming and attempting to improve its business and foreign investment 
climate. The Khmer Rouge Tribunal, which the United States has 
supported since its inception in 2006, secured its first conviction in 
2010 and the trial of the surviving leaders of the Khmer Rouge is 
underway. These trials are important for accountability and national 
healing. Cambodia has also started to combat human trafficking, and its 
cooperation with the international community to combat terrorism is to 
be commended. Local and national elections in 2012 and 2013, 
respectively, offer an opportunity for Cambodia to renew its commitment 
to multiparty democracy. In these ways, the Cambodian people are 
seeking justice to close the darkest chapter of their recent history 
and build a new era of greater prosperity and more capable government 
and democratic institutions--and for that I believe they deserve our 
support.
    Nevertheless, despite the many significant accomplishments of the 
past 20 years, Cambodia's development remains a work in progress. 
Notwithstanding its strong record of economic growth, Cambodia is among 
the poorest countries in the world. Weak rule of law inhibits progress 
and threatens the promise of inclusive development. In addition, every 
year, hundreds of men, women, and children are killed or maimed by 
unexploded ordnance left behind as remnants of war. Food security and 
adapting to global climate change represent emerging challenges for the 
country. Most significantly, Cambodia's democratic transition is still 
unfolding. Although civil society and public media have made important 
gains in achieving political space and greater freedoms, much work 
still needs to be done to strengthen Cambodia's rule of law, democratic 
institutions, and respect for human rights.
    U.S. engagement in Cambodia has made--and can continue to make--a 
real and lasting difference. Since the United States reestablished 
relations with Cambodia in 1993, we have served as a buttress of 
support for democratic development and the protection of human rights. 
Cambodia's civil society now flourishes due to the strength and 
dedication of Cambodians willing to take action to accomplish 
extraordinary things. The United States is proud to stand by them and 
provide our support. If confirmed, I will ensure that we continue to 
take the lead in advancing the causes of freedom, democratic 
governance, the rule of law, and respect for human dignity.
    In addition to encouraging a more democratic Cambodia, our 
bilateral engagement is fostering change in other ways as well. Our 
military-to-military ties assist the Cambodian Armed Forces in their 
own efforts to professionalize, adhere to international human rights 
norms, and contribute to regional and global peace and stability. U.S. 
economic engagement helps open doors to increased U.S. investment and 
trade--something I believe will be a positive driver of change and 
development in Cambodia. Finally, the United States has been intimately 
involved in improving the health and livelihoods of Cambodians. If 
confirmed, I will work tirelessly to deepen our relationship with 
Cambodia in order to achieve greater progress on these and many other 
bilateral objectives.
    U.S. engagement with Cambodia is increasingly focused on regional 
objectives. Like the rest of Asia, Cambodia has welcomed an increased 
U.S. commitment to the region and seeks to strengthen its ties to the 
United States in order to secure its own future. Over the course of 
this year, Cambodia is serving as Chair of the Association of Southeast 
Asian Nations (ASEAN), an important collective that has a population of 
half a billion people and is already the United States fourth-largest 
trading partner. The United States has made clear that as we deepen our 
engagement with the Asia-Pacific region, we will look to ASEAN as a 
valued partner in maintaining and promoting regional peace and 
security, committing to intraregional coordination on disasters and 
humanitarian crises, fulfilling the region's promise for democracy and 
respect for human rights, and creating economic opportunities for U.S. 
business in order to increase exports and create jobs here in the 
United States. As ASEAN Chair, Cambodia can demonstrate regional 
leadership on these and other critical issues in the ASEAN Regional 
Forum and East Asia summit. In addition, the Secretary of State's Lower 
Mekong Initiative is fostering cooperation and building capacity on the 
``connective tissue'' of the subregion--especially education, public 
health, and the environment. We welcome Cambodia's partnership in this 
multicountry initiative and its efforts to make the region more 
prosperous, secure, and peaceful.
    Mr. Chairman, I believe the broad range of experience I have gained 
during my 28-year career in public service will assist me in further 
advancing our goals with the Kingdom of Cambodia. I have been in the 
Senior Executive Service for over 14 years and have had the privilege 
of managing a number of the Department's most important and complex 
programs. Recently, I finished a 1-year assignment in Afghanistan, 
where I was Coordinator of Development and Economic Affairs. I was 
responsible for overseeing a $4 billion development program, managing 
600 Americans, and running the mission's regional and provincial 
civilian operations. It was the most challenging and rewarding job I 
have had in my career and I would happily do it again if asked.
    From 2008 to 2010, I served as the U.S. Ambassador to Brunei, where 
I proudly promoted democracy, human rights, and religious freedom 
initiatives. As Ambassador, I worked closely with Brunei to help it 
play a more active role in the Asia-Pacific Economic Cooperation forum, 
in ASEAN, and as a contributor to regional security.
    Prior to serving in Brunei, I held several senior positions in the 
State Department, including Acting Inspector General. In the Bureau of 
International Narcotics and Law Enforcement, I directed global 
operations and spearheaded anticrime, counternarcotics, and 
antiterrorism programs, as well as initiatives to strengthen rule-of-
law capabilities and institutions all over the world, including 
Southeast Asia. During the mid-1990s, I helped develop and implement 
the Big and Emerging Market Strategy for the U.S. and Foreign 
Commercial Service, which expanded U.S. exports to countries like 
China, and opened U.S. Commercial Centers overseas, including three in 
Asia.
    Mr. Chairman, if confirmed, I will dedicate all of my energy and 
experience to advance U.S. foreign policy objectives in Cambodia and 
strengthen the relationship between our two countries.
    Thank you for giving me this opportunity to appear before you. I 
would be happy to answer any questions you may have.

    Senator Udall. Thank you.
    And Ms. Aviel, please.

 STATEMENT OF SARA MARGALIT AVIEL, OF CALIFORNIA, TO BE UNITED 
 STATES ALTERNATE EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK 
               FOR RECONSTRUCTION AND DEVELOPMENT

    Ms. Aviel. Chairman Udall, Ranking Member Corker, thank you 
for the opportunity to appear before you today.
    It is an honor to have been nominated by the President to 
serve as the Alternate Executive Director at the World Bank. I 
am extremely grateful to Secretary Geithner, Under Secretary 
Brainard, and U.S. Executive Director Ian Solomon for their 
support.
    I also want to thank you and your staffs for taking the 
time to meet with me. If confirmed, I look forward to advancing 
our shared commitment of making the World Bank a more effective 
and accountable organization.
    I was blessed to grow up with parents who ingrained in me a 
deep respect for other cultures and traditions. For my mother, 
who is here with me today, as a professor of international 
relations, this was her life's work. And for me, that meant 
trips that often included meetings with government and civil 
society officials and lessons about local history and politics.
    At the same time, my parents instilled in me a deep 
appreciation for my country and the tremendous opportunities, 
privileges, and responsibilities that come with being an 
American.
    For my father, it was particularly personal. As a Holocaust 
survivor, his childhood was one of horrific deprivation and 
suffering that is hard for me to even imagine. So when he told 
me that just by being born in this country was like winning the 
lottery, I believed him.
    So to now come before you with the opportunity to represent 
this great country at the World Bank, an institution formed in 
the wake of that dreadful war, is a particular honor for me.
    American leaders helped create the World Bank in the 
recognition that a multilateral institution would advance our 
smart power. In a time of high unemployment and tight fiscal 
constraints at home, the importance of the World Bank may not 
always be readily apparent.
    Yet my experience in the administration, both in my current 
role as Director of International Economic Affairs at the 
National Security Council and National Economic Council and 
previously as a senior adviser to Secretary Geithner, has 
reaffirmed the belief that support of the World Bank is a 
moral, strategic, and economic imperative for our country and 
that U.S. leadership at the institution is essential.
    The World Bank has played a central role in promoting open 
economies that become growing export markets for American 
companies. During the global financial crisis, the World Bank 
acted quickly, dramatically increasing lending to help protect 
the poorest from the worst impacts of the crisis and to restore 
liquidity for world trade flows.
    As we grapple with how best to support transitions in 
places where we have important interests at stake, like 
Afghanistan and the Middle East, we find ourselves turning 
again and again to institutions like the World Bank. Strong 
American leadership is essential. I have seen firsthand how 
often we are the driving force for action.
    Before joining the administration, my career was focused on 
international development. From war widows in Afghanistan to 
AIDS orphans in Zambia, I have worked with the world's most 
vulnerable people and experienced the successes and challenges 
of development firsthand.
    As President Obama has said, broad-based economic growth is 
the most powerful force the world has ever known for 
eradicating poverty and creating opportunity. That 
understanding led me to make leveraging the private sector a 
focus of my work. Prior to joining the Treasury Department, I 
served on the leadership team of a social investment fund that 
provided financing to small and medium enterprises in 
developing countries.
    Another theme that cuts across much of my experience is the 
need to demonstrate impact and improve effectiveness through 
rigorous evaluations of projects and sharing of best practices. 
As a lecturer at Yale University, I brought these experiences 
into the classroom as I taught my students to look beyond the 
latest development trends to the enormous complexity of 
implementation in challenging environments.
    If confirmed, I will work diligently to advance U.S. 
objectives at the World Bank by serving as a careful steward of 
U.S. taxpayer resources and promoting greater accountability, 
transparency, and effectiveness.
    I have learned invaluable lessons from being a part of 
international diplomacy and policy at the highest levels of the 
U.S. Government. And those lessons, combined with the hard-
earned experiences of working in some of the most complex 
settings, will make me an effective representative and advocate 
for U.S. interests at the World Bank.
    If confirmed, I look forward to working closely with the 
members of this committee and your staff. I have seen firsthand 
how congressional involvement can provide leverage to U.S. 
negotiators, and I will seek ways to partner together on behalf 
of the American people.
    Thank you for your consideration, and I look forward to any 
questions you might have.
    [The prepared statement of Ms. Aviel follows:]

               Prepared Statement of Sara Margalit Aviel

    Chairman Udall, Ranking Member Corker, members of the committee, 
thank you for the opportunity to appear before you today.
    It is an honor to have been nominated by the President to serve as 
the Alternate Executive Director at the World Bank. I am extremely 
grateful to Secretary Geithner, Under Secretary Brainard, and the U.S. 
Executive Director, Ian Solomon, for their support.
    I also want to thank you and your staffs for taking the time to 
meet with me. If confirmed, I look forward to advancing our shared 
commitment of making the World Bank a more effective and accountable 
organization.
    I was blessed to grow up with parents who ingrained in me a deep 
respect for other cultures and traditions. For my mother, as a 
professor of international relations, this was her life's work. And for 
me, that meant trips that often included meetings with government and 
civil societyofficials and lessons about local history and politics.
    At the same time, my parents instilled in me a deep appreciation 
for my country and the tremendous privileges, opportunities, and 
responsibilities that come with being an American. For my father it was 
particularly personal. As a Holocaust survivor, his childhood was one 
of horrific deprivation and suffering that is hard for me to even 
imagine. So when he told me that just by being born in this country was 
like winning the lottery, I believed him.
    So, to now come before you with the opportunity to represent this 
great country at the World Bank--an institution formed in the wake of 
that dreadful war--is a particular honor for me.
    American leaders helped create the World Bank in the recognition 
that a multilateral institution focused on reconstruction and 
development would advance our strategic and economic interests and 
moral values. In a time of high unemployment and tight fiscal 
constraints at home, the importance of the World Bank may not always be 
readily apparent.
    Yet my experience in the administration--both in my current role as 
a Director of International Economic Affairs at the National Security 
Council and the National Economic Council, and previously as a Senior 
Advisor to Secretary Geithner--has reaffirmed the belief that support 
of the World Bank is a moral, strategic, and economic imperative for 
our country and that U.S. leadership at the institution is essential.
    The World Bank has played a central role in promoting open 
economies that become growing export markets for American companies. 
During the global financial crisis, the World Bank acted quickly, 
dramatically increasing lending to help protect the poorest from the 
worst impacts of the crisis and to restore liquidity for world trade 
flows.
    As we grapple with how best to support transitions in places where 
we have important interests at stake like Afghanistan and the Middle 
East and North Africa, we find ourselves turning again and again to 
institutions like the World Bank.
    Strong American leadership is essential. I have seen firsthand how 
often we are the driving force for action, forging consensus in the 
midst of seemingly intractable international disputes.
    Before joining the administration, my career was focused on 
international development. From war widows in Afghanistan to AIDS 
orphans in Zambia, I have worked with the world's most vulnerable 
people and experienced the successes and challenges of development 
firsthand.
    As President Obama has said, broad-based economic growth is the 
most powerful force the world has ever known for eradicating poverty 
and creating opportunity. That understanding led me to make leveraging 
the private sector a focus of my work. Prior to working at the Treasury 
Department, I served on the leadership team of a social investment fund 
that provided financing to small and medium enterprises in developing 
countries.
    One theme that cuts across much of my experience is the need to 
demonstrate impact and improve effectiveness through rigorous 
evaluations of projects and sharing of best practices. As a lecturer at 
Yale University, I brought these experiences into the classroom as I 
taught my students to look beyond the latest development trends to the 
enormous complexity of implementation in challenging environments.
    If confirmed, I will work diligently to advance U.S. objectives at 
the World Bank by serving as a careful steward of U.S. taxpayer 
resources and promoting greater accountability, transparency, and 
effectiveness.
    I have learned invaluable lessons from being a part of 
international diplomacy and policy at the highest levels of the U.S. 
Government. Those lessons, combined with the hard-earned experiences 
working in some of the most complex settings, will make me an effective 
representative and advocate for U.S. interests at the World Bank.
    If confirmed, I look forward to working closely with the members of 
this committee and your staff. I have seen firsthand how congressional 
involvement can provide leverage to U.S. negotiators and I will seek 
ways to partner together to advance our shared goals on behalf of the 
American people.

    Senator Udall. Thank you for your testimony, all of you.
    And Ambassador Barton, as--oh, OK. Here, Ambassador Barton, 
is this your father who has just arrived here? Please, OK.
    Yes, I believe Ambassador Barton's father used to work for 
the committee and knows the gentleman here that helps us every 
day keep the committee rolling along.
    Thank you. Great to have you here today. Great to have you 
here.
    I am just about ready to start firing a question at your 
son. So you arrived right in time. [Laughter.]
    Senator Udall. Arrived right in time.
    Ambassador Barton, what role, if any, do you foresee for 
the CSO Bureau in complementing the work of the recently 
created Office of the Special Coordinator for Middle East 
Transitions, and how can USAID workers effectively assist 
countries in transition, given the enormous political, 
economic, and security challenges Arab States are currently 
facing?
    In what fields could the U.S. Conflict and Stabilization 
Operations make the most difference, and would Arab States even 
accept this kind of aid?
    Please.
    Ambassador Barton. Well, first off, in my various meetings 
that I have been going around and having, Bill Taylor was one 
of the first people that I met with. And he is one of those 
people that I feel if we can't work with him, we have no future 
in the State Department. He is just a first-rate public 
servant, and he is focused mostly on North Africa right now, 
and we are definitely working with him on--the CSO Bureau has 
already started to work with him on Libya in particular of the 
countries that he is working in.
    All of these places are so tough and so complicated that 
anybody who doesn't look for friends and partners within the 
U.S. Government is making a very big mistake. And so, I would 
hope that our Bureau, and if confirmed, under my leadership 
would fashion a pretty high degree of modesty in terms of both 
the challenges of these places and recognizing that we have to 
work closely with others.
    So we have already had extensive meetings with AID. As you 
know, I worked there. I helped to start the Office of 
Transition Initiatives, which is, I think, thought of as one of 
the really agile parts of the U.S. Government in these places.
    We need more assets and resources that are directed the way 
that OTI does it. So they are going to be a key partner as 
well.
    So then, in terms of the welcome, CSO is looking at three 
particular country cases right now in the Arab Spring world. We 
are trying to work in Libya. We are hoping CSO also has people 
working on Syria and on Yemen. And each one of those cases is 
so dramatically different.
    In Syria, we really cannot--CSO cannot work inside of the 
country. So it is all about how do you help to grow the 
opposition from within? And I know that a couple of CSO people 
have already--
last week were meeting with about 25 representatives of local 
governing councils inside of Syria, trying to figure out ways 
to strengthen that relationship. And I think that is the way to 
move in that space.
    Libya is a very different challenge because the U.S. 
Government is there. We have an Embassy. We have a mission. The 
CSO is already backing up the existing post operation there.
    But we are also being asked, CSO is also being asked to 
really address the border security issues and the militia 
issues, and those are the kinds of strategic concerns that I 
hope that the CSO will continue to be focused on.
    Yemen, again, is a very different case--much, much more 
fragile. Much, much more in transition with its new government. 
And in that case, CSO has been asked by the national security 
staff to work on the strategic planning process, which is 
really underway right now.
    So that gives you an idea of sort of the way we would go. I 
think we will--the United States help is welcome in most of 
these places, as long as it is not too heavy a hand and we 
don't take over. And there is no reason to take over because we 
don't have that ambition, and we won't be effective if we do.
    Senator Udall. Thank you.
    Ambassador Todd, there are increasing concerns that 
Cambodia's ruling party has become more authoritarian and that 
human rights and corruption issues have not been adequately 
addressed. Human Rights Watch has concluded that, and I quote 
from one of their reports, ``The government of the ruling 
Cambodian People's Party, the CPP, continues to use the 
judiciary, the penal code, and threats of arrest or legal 
action to restrict free speech, jail government critics, 
disperse peaceful protests by workers and farmers, and silence 
opposition party members.''
    What will you do to address these human rights concerns, 
and what are the best ways for the United States to work with 
the Cambodian Government to improve Cambodia's human rights 
record?
    Ambassador Todd. Thank you, Chairman.
    The overall human rights situation in Cambodia is not good. 
There are many, many, many challenges. We consider each one of 
those challenges to be a work in progress.
    As you mentioned, freedom of speech, freedom of expression 
is a problem. There are several others. We have land seizures. 
We have titling problems, where today you own something, 
tomorrow you don't. And it is subject to political whim.
    We have corruption. Transparency International ranked 
Cambodia as one of the most corrupt countries in the world.
    And then, last, we have a weak and vulnerable judiciary 
where the elite believe that they are immune from the law.
    I think the ``get well, stay well'' plan is to stay the 
course with civil society. It is to promote the political 
freedoms that has made America great. It is doing what we do 
best in human rights. It is doing what we do best by doing 
Leahy vetting.
    We also, I think, have a great opportunity with the youth 
of Cambodia. Seventy percent of Cambodia is 30 or younger, and 
believe it or not, the young--now that I am 50, 30 is young--
they love America. They think that we are the greatest thing 
since sliced bread.
    And so, if confirmed, what I would like to do is to deliver 
the hard messages to the leadership on these human rights 
issues and also promote the political freedoms that we hold 
near and dear as Americans to all of society, but particularly 
the youth.
    Thank you.
    Senator Udall. Thank you, Ambassador Todd.
    Ms. Aviel, in your previous position, you have worked hard 
on finding a path forward out of the ongoing financial crisis. 
How do you think the World Bank has responded to the financial 
crisis, and what do you think the World Bank could have done to 
improve its effectiveness?
    Ms. Aviel. The World Bank played a very important role in 
helping us respond to the financial crisis. By tripling lending 
dramatically, it was able to prevent and mitigate the impacts 
of the crisis on the poorest. It was able to restore liquidity 
for global trade flows.
    Financial flows dropped dramatically, and the World Bank 
was able to make up some of that difference, which was very 
important.
    Senator Udall. Thank you.
    Senator Corker, if you would like to proceed with 
questioning?
    Senator Corker. Thank you, Mr. Chairman.
    And thank you again, all of you, for being here and with 
your families. And Mr. Barton is used to Senate time, and so he 
came here when we would normally start. But you got us going in 
good shape, and we are glad all of you are here.
    I am going to focus my questions with Ms. Aviel and really 
on the World Bank. Mr. Todd, I know we spent some time in 
Afghanistan while you were there, and Mr. Barton, certainly I 
have known of your past. And Ms. Aviel, you come with very high 
recommendations, I might add, and I thank you for being here.
    One of the things I guess people might focus on a little 
bit is just age and experience. It is a pretty big--I know on 
the other hand, you have 32 years a professor of international 
studies. And so, probably way beyond both the chairman and mine 
as far as experiences.
    But your role as the alternate, can you describe what those 
responsibilities are to everyone here?
    Ms. Aviel. Certainly. The Alternate Executive Director 
serves as the deputy to Ian Solomon. The World Bank has an in-
house board of directors, which is sort of an unusual 
arrangement, and they meet twice a week at least, and there are 
numerous committees.
    And so, to have a second person to be able to represent the 
United States will enable us to expand the influence of U.S. 
leadership at the institution, especially since one of the most 
important ways that you can make a difference in these roles is 
not actually waiting until things come to the board, but 
helping to work through issues beforehand. And so, having two 
people appointed by the President, confirmed by the Senate, 
enables the Executive Director's office to expand its reach.
    I believe that I have had significant experience, that the 
credibility that I have had from working in development 
settings around the world will enable me to speak with 
credibility about development issues on the ground. And I have 
also been a part of policy and diplomacy within the Government 
at the highest levels, and I have seen very effective U.S. 
leadership and----
    Senator Corker. And very ineffective U.S. leadership?
    Ms. Aviel. And I believe I will take the lessons from those 
experiences and be able to represent the United States well.
    Senator Corker. Yes. Thank you.
    How would you--and I know Mr. Solomon has been there, I 
guess, for almost 2 years now. And I don't know what the normal 
length of time is for someone to serve in this role. But do you 
see a period of time where, in essence, it is almost a 
mentoring role, or you will be working closely with him? How 
will that relationship be?
    Ms. Aviel. Well, I certainly would work hand-in-hand with 
Ian Solomon and believe that we both have different expertise 
that we will bring to the table. So certainly I would work 
closely with Ian Solomon.
    Senator Corker. Some of the developing countries really 
would like a very different role or a different type of 
presidential leadership at the World Bank, and some of them are 
saying that we really ought to--because of what the World Bank 
does, we should have a group of non-American countries deciding 
who the next leader of the World Bank should be. I am just 
wondering what your views might be on that?
    Ms. Aviel. Senator, I think American leadership has served 
the institution well. I think President Zoellick has done a 
tremendous job. Secretary Geithner issued a statement a few 
weeks ago that the President will be putting a candidate 
forward to lead the World Bank soon, and I look forward to 
supporting that candidate.
    Senator Corker. OK. Did you say the President is getting 
ready to nominate somebody in the next few weeks?
    Ms. Aviel. That is correct.
    Senator Corker. Yes. Very good. Do you know who that is?
    Ms. Aviel. I don't. [Laughter.]
    Senator Corker. Are you on the short list? [Laughter.]
    Ms. Aviel. I promise you, I am not.
    Senator Corker. The World Bank provides a lot of financial 
assistance to middle-income countries that really could access 
financial assistance from other places. There has been some 
commentary about that. I am just wondering what your views 
might be on the World Bank making loans available to countries 
that might seek financing from China or other places just as 
easily?
    Ms. Aviel. Senator, that is a very important issue. I 
certainly would like the World Bank to focus on the poorest. 
But two-thirds of the poorest do live in middle-income 
countries, and the World Bank has tremendous expertise in 
helping to target and encourage broad-based economic growth 
that is very relevant for those countries.
    The World Bank brings with it important safeguards and 
procurement standards that serve as an important model for 
those countries in terms of the projects they do across the 
board. And so, countries that could access financing from the 
capital markets find it an advantage to come to the World Bank 
because of the technical expertise and the safeguards that it 
provides.
    And it is very important that the World Bank serves as this 
model of how to finance projects. You have said, as you 
mentioned, countries can get financing from China and others, 
and it is important that the World Bank serve as an alternative 
to China financing because it brings with it much higher 
standards. It enables American companies to compete for 
procurement contracts. It brings with it environmental and 
social safeguards.
    So we greatly value the role that the World Bank plays in 
ensuring those high standards across the board.
    Senator Corker. And then, just my last question, the World 
Bank--I know you answered a question from the chairman 
regarding how it has handled the financial crisis.
    But generally speaking, where would you rank the World Bank 
today as it relates to its effectiveness and leadership and 
ability overall to address the issues that it is chartered to 
address?
    Ms. Aviel. Senator, I think the World Bank has proven 
itself as a very effective organization. It is one of the 
premier development institutions, and you can see that when 
international leaders are looking to deal with pressing issues, 
such as food security, for example, they look to the World Bank 
to lead those efforts because it has such a strong track record 
of effectiveness.
    That being said, there is always room for improvement. I 
think U.S. leadership has played a very important role in 
making the World Bank a more accountable and effective 
organization, and I would look to continue those efforts.
    Senator Corker. Well, to all three of you, thank you very 
much for coming today. Thank you for bringing family members 
with you, and thank you for being willing to serve in these 
positions.
    And all are very important. I think in particular the World 
Bank is a place, an institution that can certainly play a very 
vital role, and I thank you so much for your answers and look 
forward to seeing all of you again very soon.
    Thank you very much, Mr. Chairman.
    Senator Udall. Thank you, Senator Corker. We really 
appreciate you being here today and your insightful questioning 
always. Appreciate it.
    Senator Corker. Thank you.
    Senator Udall. Thank you.
    Ambassador Barton, as the United States and its allies 
continues to transition to an Afghan-led mission, the role of 
the State Department and USAID will increase dramatically. What 
do you think needs to be done today to create a smooth and 
effective transition in light of the many problems still facing 
Afghanistan, including corruption, which I think is still among 
the worst in the world? And what is the role envisioned for the 
conflict, the CSO operations in Afghanistan in the future?
    Ambassador Barton. Thank you, Senator.
    CSO is currently focused on trying to help the Embassy, the 
military, the U.S. military, and a range of Afghan ministries 
to advance their transition planning. That is really--that is 
what the Ambassador has asked us to focus on, and that is where 
we are concentrating our effort.
    We are on a little bit of a glide path ourselves in terms 
of leaving Afghanistan. But this particular task seems to be 
one that our people are really well suited for. And since we 
have been involved with quite a lot of the planning processes 
in the last couple years, focusing on this transition planning 
is exactly what we need to do.
    The toughest part here is obviously to make sure that the 
Afghans are in as capable a position as possible as soon as 
possible. And that is really what I think we can be helpful 
with, and that is where we are going to stay focused.
    Senator Udall. Thank you.
    Ambassador Todd, while the United States is one of the 
largest donors of foreign aid to Cambodia, I understand that 
the United States is far behind in foreign direct investment 
compared to China. By some measures, China is contributing 
foreign direct investment at a rate 10 times of the United 
States.
    How does this shortfall impact our ability to influence and 
conduct diplomacy with Cambodia, and what should the United 
States Government do to make up for this shortfall?
    Ambassador Todd. Thank you, Mr. Chairman.
    There is no denying that China is making a full-court press 
in Cambodia and throughout Asia. President Obama said recently, 
talking about China in the region, that we shouldn't look at 
this in terms of a zero-sum game. He said we have strong 
bilateral relationships. He said we are a Pacific power.
    Last year, Secretary Clinton also announced that this would 
be the century for the Asia-Pacific, and we would be pivoting 
our resources, both financial resources and human resources, 
from Iraq and Afghanistan toward Asia because it is that 
important and because they know that this full-court press is 
going on.
    And so, if I am confirmed, my goal is to obviously 
implement the pivot, if you will, of those resources. And I 
plan to do it, again, by promoting the political freedoms that 
we as Americans hold near and dear, as well as continuing the 
great programs that we have in Embassy Phnom Penh.
    Thank you.
    Senator Udall. Thank you.
    The high amount of Chinese foreign direct investment is 
changing Cambodia and the region in many different ways. One of 
the ways is an increase in environmental degradation. I was 
concerned to read a report that the Botum Sakor National Park, 
a home to tigers, elephants, and many other species, is being 
slowly sold to Chinese investors, including a Chinese real 
estate company, which is working to turn 130 square miles of 
these forests into a gambling resort.
    Is there a way for the United States to work with Cambodia 
to prevent or mitigate against such environmental destruction, 
and what will be the long-term impacts of losing critical 
pristine forest land to the developers?
    Ambassador Todd. That is an excellent question, Mr. 
Chairman.
    Cambodia is one of the poorest countries in the world. 
There is a tradeoff between protecting the environment and 
promoting economic development. At the mission in Embassy Phnom 
Penh, we have many programs that promote the environment.
    We have the Lower Mekong Initiative that has an overarching 
goal of basically promoting the environment not only within 
Cambodia, but through the four other countries. We have a 
number of programs that focus on forestry management, watershed 
management. We have the President's initiative on global 
climate change.
    We have a number of programs that address these issues and 
try to build capacity with the Cambodians. We also have a 
number of programs like Forecast Mekong, which is a climate 
change type program that basically takes the data that is 
gathered in Cambodia and compares it to other main watersheds 
around the world, particularly the Mississippi River.
    And if you have 10 minutes, if you Google it, Forecast 
Mekong, you have a wonderful video about the effects of global 
climate change on the Mekong River basin. One of the things 
that it talks about, aside from deforestation and other things, 
are the dams that are being created on the Mekong.
    And for me as a neophyte in terms of hydraulics on a river, 
one of the things that I learned is that the silt and sediment 
that comes from the north part of the river basically supports 
the southern part of the river. And what it does is it feeds 
the fish. It also replenishes the land, if you will, where the 
Mekong enters the ocean.
    And that is very important because as global climate change 
occurs, the predictions are that sea levels are going to rise. 
And studies that the Cambodians have had done and the 
internationals have done have shown that if the sea level rises 
3 feet, the country will be in very, very difficult straits.
    The rice crop will be significantly reduced. The population 
will have to move. And so, Cambodia is taking this very 
seriously, and thus, the U.S. Embassy is taking it seriously.
    So, for me, if I am confirmed, there is no more important 
thing to do than this because time is of the essence.
    Thank you.
    Senator Udall. Thank you very much.
    Ms. Aviel, the World Bank supports a wide range of projects 
around the world, and they often have an environmental 
component. Many projects fall within the theme of environment 
and natural resources management. These projects fall under the 
following categories--biodiversity, climate change, 
environmental policies and institutions, land administration 
and management, other environmental and natural resources 
management, pollution management, environmental health, water 
resource management.
    How should natural resource conservation factor into the 
planning for World Bank projects?
    Ms. Aviel. Senator, thank you for that question. It is a 
very important issue.
    The world's poorest often depend on natural resources the 
most for their livelihoods, and they are often the most 
vulnerable to environmental degradation and the impacts of 
environmental destruction. So it is very critical that the 
World Bank factor in environmental considerations and issues 
regarding sustainable management of natural resources across 
the work that it does.
    And so, it does so in two different ways. One is sort of a 
defensive approach, making sure that in any project that it 
does there is a strong environmental impact assessment that 
occurs and that there are strong environmental safeguards to 
make sure that any damage the project might do is mitigated.
    And then it also does so by having an affirmative 
environmental agenda, by working in all of the areas you 
mentioned--biodiversity. The World Bank has helped to support 
the largest tropical conservation region in the world in 
Brazil. It works to help promote sustainable management of 
fisheries.
    So it works in a variety of different ways to make sure 
that the environment and development can go hand in hand, and 
it plays a very important role in doing so.
    Senator Udall. Thank you for that answer.
    One of the keys, it seems to me, is--and it falls in the 
area of what we call ``sustainability.'' And I think all of you 
realize this, that when we do our development and we work with 
other countries that we hope that the projects over the long 
term are sustainable. And my next question to you has to do 
with the standards and how we reach for that goal of 
sustainable development.
    What standards does the World Bank have in place to ensure 
that projects funded by the World Bank do not facilitate 
logging and other resource development that is in conflict with 
international agreements and standards? And if confirmed, will 
you work to ensure the World Bank does not foster unsustainable 
natural resource development practices?
    Ms. Aviel. Senator, thank you for that question.
    If confirmed, I absolutely commit that I will be an active 
advocate for sustainability across the board. The World Bank 
has very careful policies in place. It has a forestry policy. 
It has safeguards in place to make sure that it does not 
contribute to degradation of those resources.
    And I would work very hard to make sure that those 
standards are upheld and strengthened, if needed.
    Senator Udall. Thank you.
    Thank you. I guess we don't have any other Senators 
attending today and going to ask questions. So you are spared 
some additional questions here.
    We very much appreciate your testimony, your commitment to 
service, and we really look forward to seeing you serve in 
these positions and continuing to visit with us on the 
committee and with Members of Congress.
    So, with that, we are going to keep the record open for 48 
hours so that any additional questions can be submitted to you, 
and we hope you will get back with us promptly on that.
    Senator Udall. And we would hope that the committee will 
move expeditiously on these nominees.
    And having no further questions, the committee is 
adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Frederick D. Barton to Questions Submitted
                        by Senator John F. Kerry

    Question. In your testimony, you stated that CSO must partner with 
those who will make us most effective. However, there have been some 
concerns that agencies such as the Department of Agriculture and the 
Department of Justice will play much smaller roles in the new Civilian 
Response Corps. What role do you envision for other agencies and what 
steps will you take to ensure that a whole of government approach 
continues to be a key element of the program?

    Answer. The Quadrennial Diplomacy and Development Review (QDDR) 
calls on the Bureau of Conflict and Stabilization Operations (CSO) to 
improve U.S. Government effectiveness in conflict areas. To be more 
innovative and agile, CSO is developing a new model for the Civilian 
Response Corps (CRC) that will focus its work on conflict-related 
issues and expand its access to interagency skills.
    Rather than support a larger standing group that can address the 
panoply of issues facing a country (a just-in-case model), the Corps 
will focus on deploying targeted experts quickly to address priority 
issues in conflict (a just-in-time model). This reduction in the size 
of the CRC-Active component will help address the need to move 
resources toward field operations in a restrictive budget environment.
    If I am confirmed, we will seek to build the CRC-Active component 
on a leadership cadre made up of those with proven effectiveness in the 
field and conflict-focused skills, such as conflict analysis, 
prevention tools, contingency planning, and expeditionary operations. 
In CSO engagements, the ability to understand conflict dynamics and 
U.S. Government responses has proven more important than 
reconstruction-related technical expertise.
    To tap more specific areas of expertise such as rule of law or food 
security, CSO plans to rely more upon its CRC-Standby capacity. The 
model will allow CSO to reach more broadly across the Federal 
Government to find the right people at the right time.
    In addition, CSO will seek to include the widest possible range of 
partners, including the interagency, from the beginning of its 
engagements. The result should be a single expeditionary team made up 
of leaders and experts, rather than the inefficient parallel structures 
that previously existed.
    This model is the product of extensive analysis and deliberation, 
including examination of:

  <bullet> Use of CRC and related personnel from 2005-11, and our 
        evolving relationship with posts and bureaus seeking our 
        support;
  <bullet> The QDDR;
  <bullet> A Multi-Criteria Decision Analysis Force Review of the Corps 
        conducted in 2010;
  <bullet> Observation of peer organizations' interagency relations; 
        and
  <bullet> The work of the transition team designing CSO in summer 
        2011.

    In sum, CSO will maintain a whole-of-government approach, albeit in 
a more targeted manner.

    Question. As you also noted in your testimony, CSO was established 
in order to strengthen our coherence and cohesion in prevention and 
responding to conflict and crisis. Please expand on the role you 
envision for CSO in conflict prevention, if confirmed. As part of this 
discussion, please comment on what role CSO could play in training 
other Foreign Service officers in conflict prevention through the 
Foreign Service Institute?

    Answer. CSO advances conflict prevention through policy, strategy, 
and practical applications in conflict/preconflict areas around the 
world.
    In the policy realm, CSO works with the State Department, National 
Security Staff, and other departments and agencies to ensure that the 
U.S. Government can identify where creative approaches can head off 
violence and channel conflicts toward peaceful solutions. CSO is 
already supporting policy initiatives such as Presidential Study 
Directive 10 on prevention of genocide and mass atrocities, including 
creation of an Atrocities Prevention Board. CSO is also supporting 
efforts to make the National Action Plan for Women, Peace and Security 
vital and productive. These cross-cutting efforts offer practical ways 
to influence how U.S. agencies work to prevent conflict.
    In CSO's engagements, the critical first step is analysis. CSO uses 
a systematic, participatory approach to capturing local voices and 
understanding the deep causes of conflict and community strength. 
Through analytical tools, such as the Interagency Conflict Assessment 
Framework (ICAF) and Conflict Prevention Matrix, CSO can identify and 
build on indigenous resilience so that U.S. policies and programs can 
focus on the root causes of the conflicts, and be sustained by our 
partner nations.
    CSO is exploring innovative ways to help U.S. embassies or host-
nation partners respond to conflicts. Its staff members have a wide 
range of skills and experiences from both the government and private 
sector. CSO can provide technical advice, research capacity, mediation 
and negotiation support, lessons from past experience, and other 
assistance. For example, CSO is currently working with an embassy and 
host country to design and implement community-based mediation, focused 
on gangs. Providing mediation training to local communities, including 
gang members, ensures the sustainability of the endeavors.
    Since its creation in 2004, the Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS) and now CSO has played a 
leading role in providing conflict prevention training to Department of 
State personnel. We have worked closely with our partners at the 
Foreign Service Institute (FSI) to determine the best means--whether 
through social media, classroom instruction, or blended learning--of 
training Foreign Service Officers (FSO) and other U.S. Government 
personnel on mainstreaming civilian security and preventing conflict.
    CSO's new Office of Learning and Training (OLT) will continue 
working closely with FSI to add further innovation to the approaches we 
use when preparing FSOs for response activities across the globe. If 
confirmed, one of my priorities will be to expand and institutionalize 
conflict prevention and response learning opportunities throughout the 
Department.
                                 ______
                                 

          Responses of William E. Todd to Questions Submitted
                        by Senator John F. Kerry

    Question. Cambodia will chair the Association of Southeast Asian 
Nations (ASEAN) this year. In what ways will you seek to promote common 
interests and values in venues such as the U.S.-ASEAN Leaders Meeting, 
the ASEAN Regional Forum, and the East Asia summit in 2012?

    Answer. As Chair for ASEAN and its associated multilateral bodies 
such as the East Asia summit, the ASEAN Regional Forum, and the ASEAN 
Defense Ministers Meeting Plus, Cambodia plays a critical role in 
setting the tone and agenda of these bodies over the course of the 
year. The United States supports Cambodia's chairmanship and will urge 
Cambodia to view 2012 as an opportunity to demonstrate to the world 
that it is a responsible leader at home and in the region.
    The United States is looking to ASEAN to play a key role in 
maintaining and promoting regional peace and security. I see Cambodia's 
chairmanship as an opportunity for the United States to partner with 
Cambodia, helping where we can, and addressing together regional 
challenges within the ASEAN framework. Specifically, if confirmed, I 
will work closely with the Cambodian Government to use its ASEAN year 
to secure progress on U.S. objectives, such as regional and maritime 
security, nonproliferation, humanitarian assistance and disaster 
relief, fulfilling the region's promise for democracy and respect for 
human rights, and deepening our trade with Southeast Asia to increase 
U.S. exports to the region and create jobs in the United States.

    Question. A number of well-informed observers contend that a draft 
law on associations and NGOs in Cambodia could seriously constrain 
their ability to operate. What role does civil society play in 
Cambodia, how does the United States support their role, and how would 
you encourage the Cambodian Government to protect this important 
political space?

    Answer. The United States firmly believes that a healthy, 
independent civil society is absolutely vital for the advancement of 
democracy and prosperity around the world. Civil society organizations 
play a key role in promoting respect for human rights, defending human 
dignity, and advancing human progress. Cambodia is no exception. 
Cambodian civil society organizations contribute to growing grassroots 
activism. International NGOs are also invaluable to monitoring 
developments in Cambodian society, advancing key protections, and 
providing assistance programs. The United States has worked to nurture 
these developments.
    In December 2011, following a year of intense scrutiny and pressure 
by national and international NGOs, as well as public and private 
engagement by the United States, Prime Minister Hun Sen announced that 
his government would continue consultations with civil society on the 
draft law until 2014 if necessary to achieve government-civil society 
consensus.
    The United States has strongly and consistently expressed in 
private and public venues our deep concern for the status of civil 
society in Cambodia, and we remain absolutely dedicated to advancing 
and protecting civil society and its role in Cambodia's development. 
The United States has encouraged the Cambodian Government to consult 
with civil society groups on the substance of any future draft law and 
has publicly called on the Cambodian Government to reconsider pursuing 
any legislation that would hinder the development and important work of 
civil society organizations.
    The United States is a strong supporter of civil society 
organizations in Cambodia, and engages with them in a number of ways. 
For example, USAID funding builds political party and civil society 
capabilities to improve greater transparency and engagement of citizens 
in public policy and political processes. The State Department and 
USAID partner with civil society to monitor and report human rights 
violations, protect human rights defenders, and increase the capacity 
of government institutions and the judiciary. The United States also 
works closely with NGOs who are engaged in efforts to improve the 
health, safety, and economic well-being of the Cambodian people.
    I view our civil society friends as vital partners and, if 
confirmed, will work closely with them. I will do everything I can to 
protect and support Cambodia's flourishing civil society. If confirmed, 
I will make U.S. support for civil society a pillar in every U.S. 
foreign policy objective I pursue in Cambodia, including humanitarian 
and foreign assistance, political and economic diplomatic engagement, 
and security and law enforcement cooperation.

    Question. The Lower Mekong Initiative (LMI) is a multinational 
effort spearheaded by Secretary of State Hillary Clinton to promote 
cooperation and capacity-building among the United States and Lower 
Mekong Delta countries (e.g., Cambodia, Laos, Thailand, and Vietnam) in 
the areas of education, health, environment, and infrastructure. If 
confirmed, how would you further the aims of the LMI program? From your 
perspective, is the program adequately resourced to meet its 
objectives?

    Answer. Since Secretary Clinton launched the LMI in July 2009, the 
United States has worked in cooperation with Cambodia, Laos, Thailand, 
and Vietnam to launch and expand a number of projects designed to 
address the pressing transnational environmental and developmental 
challenges affecting the communities in the lower Mekong basin. The 
United States welcomes Cambodia's partnership in this multicountry 
initiative and its efforts to make the region more prosperous, secure, 
and peaceful. If confirmed, I will strongly support and advance the 
LMI's efforts to nurture and build the ``connective tissue'' of the 
subregion by emphasizing the strength of the U.S. commitment to, and 
the importance of, the LMI in my discussions with Cambodian officials 
as well as by raising specific issues relative to the LMI as they 
develop. As likely host of the next LMI Ministerial and Friends of 
Lower Mekong donor coordination ministerial meeting, if confirmed, I 
will work closely with the Cambodian Government to ensure these 
meetings advance the Secretary's vision by identifying tangible areas 
to build the capacity of the region and combine our efforts with other 
partners.
    Overall fiscal constraints in the foreign affairs budget have 
placed limits on our ability to increase direct resources for EAP 
regional programs, including LMI. However, we are working in close 
coordination with a wide spectrum of interagency partners to leverage 
and expand existing programs to support our key objectives for this 
important initiative. If confirmed as Ambassador, it will be my job to 
effectively and efficiently implement the LMI budget in Cambodia.

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.

  <bullet> If confirmed, what steps will you take to ensure that the 
        Embassy effectively implements section 620M?
  <bullet> In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?
  <bullet> What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?

    Answer. Under standard State Department vetting procedures, every 
individual and unit proposed for State-funded security assistance or 
Defense Department training is vetted, both in Phnom Penh and 
Washington, DC, for credible information of involvement in gross 
violations of human rights and in strict accordance with U.S. law and 
State Department policy. ``Leahy vetting'' is conducted under the 
International Vetting and Security Tracking (INVEST) system, the 
Department's uniform system for vetting worldwide since January 2011. 
In addition to the various internal background checks conducted at the 
U.S. Embassy, which uses information the Embassy has amassed from 
contacts and open sources, Embassy personnel also check names against a 
database maintained by a prominent human rights NGO. This database 
tracks human rights violations throughout the country and includes 
cases submitted by NGO monitors and contacts in the provinces. In 
Washington, the Department of State's Bureaus of Democracy, Human 
Rights and Labor and East Asian and Pacific Affairs vet Cambodian 
candidates by reviewing information from multiple sources to ensure 
that U.S. funding is not used to train individuals or units if there is 
credible information implicating them in gross human rights violations.
    Senior Department of Defense visitors to Cambodia discuss human 
rights issues in their meetings with senior officials of the Royal 
Cambodian Armed Forces (RCAF) and Ministry of National Defense (MoND). 
The RCAF and MoND are fully aware of our position on gross human rights 
violations as it pertains to security training, and all units and 
individuals receiving training are required to receive human rights 
awareness training prior to the start of any U.S.-funded program.
    If confirmed, I pledge to continue strict adherence to U.S. law and 
State Department procedures. Where credible information exists of gross 
human rights violations, candidates implicated in the violations will 
not receive any assistance per the law. I will ensure that adequate 
human resources are devoted to properly carrying out local vetting at 
the Embassy, and that all Embassy personnel clearly understand the law 
and procedures, and that they seek guidance from me and Washington, DC, 
if they are unclear about a unit or individual's background or unsure 
how to proceed. In keeping with Department practice, I will ensure that 
any review takes into account not only the results from the Embassy's 
internal background checks, but also credible information gathered from 
open sources and by civil society. Finally, if confirmed, I will 
regularly and proactively engage the MoND and RCAF to ensure that they 
are aware of the law's requirements and implications.

    Question. The first trial of the Extraordinary Chamber in the 
Courts of Cambodia, an international tribunal set up by the United 
Nations and the Cambodian Government to try former Khmer Rouge leaders 
of crimes against humanity and war crimes, secured its first conviction 
in 2010. A trial of three new defendants began in November 2011. Human 
rights groups have pushed for expanding the scope of prosecutions to 
include more cases, while Prime Minister Hun Sen has opposed the idea, 
arguing that bringing more persons to trial would undermine ``national 
reconciliation.'' What are your views on this subject?

    Answer. The United States has long supported bringing to justice 
senior leaders and those most responsible for the atrocities 
perpetrated under the Khmer Rouge regime. The Extraordinary Chambers in 
the Courts of Cambodia (``ECCC'' or ``Khmer Rouge Tribunal'') needs to 
fulfill its judicial mandate, not only to fulfill its promise to find 
justice for the victims, but just as importantly, as a vehicle for 
national reconciliation and a mechanism to strengthen the rule of law 
in Cambodia.
    The RGC and U.N. established the ECCC in 2006, as a national court 
with U.N. assistance in order to bring to justice ``senior leaders and 
those most responsible'' for atrocities committed under the Khmer Rouge 
regime. To date, the ECCC has completed the legal process on one case, 
Case 001, and is undergoing deliberations on a second case, Case 002. 
Two additional cases (Cases 003 and 004) are currently in the 
investigative phase.
    In Case 001, the ECCC found Kaing Guek Eav (aka Duch, commandant of 
the Tuol Sleng prison, who sent at least 14,000 people to their deaths) 
guilty in July 2010 of crimes against humanity and grave breaches of 
the Geneva Convention, and sentenced him to 35 years imprisonment. On 
February 3, 2012, the Supreme Chambers extended his sentence to life in 
prison. The United States welcomed the final outcome as a landmark 
moment in Cambodia's efforts to find justice for the atrocities of the 
Khmer Rouge era, and for Cambodian national reconciliation.
    Case 002, the trial against three surviving members of the Khmer 
Rouge's senior leadership, began in November 2011. A fourth defendant 
was found mentally incompetent to stand trial, but the ECCC has not yet 
released her from custody. Stephen Rapp, U.S. Ambassador at Large for 
Global Criminal Justice, calls Case 002 ``. . . the most important 
trial in the world,'' given the gravity of the alleged crimes and the 
level of the defendants in the Khmer Rouge regime.
    In Cases 003 and 004, where investigations are still ongoing by the 
Office of the Co-Investigating Judges (OCIJ) of five suspects, the 
United States has consistently called on the U.N., the RGC, and all 
interested stakeholders to protect the ECCC's judicial independence 
from political interference of any kind. I believe the question of 
whether a suspect falls within the jurisdiction of the ECCC is a 
judicial one, and should be made free from outside interference or 
pressure. Therefore, the OCIJ must be allowed to investigate Cases 003 
and 004 according to the facts and the law. The United States has 
called on the U.N. and the RGC to follow through on their commitments 
under the agreement that established the ECCC. If confirmed, I will 
clearly advance this message to the government and people of Cambodia, 
and will support the United Nations and the ECCC as they attempt to 
ensure that nothing is cut short, and that the ECCC's implementing 
statute is fully respected.

    Question. Following last year's national elections in Thailand, 
relations between Cambodia and Thailand appear to be on a more even 
footing, including in particular, over the disputed border region that 
houses the Preah Vihear Temple. Please provide an update on this 
situation and the current status of Cambodia-Thai relations.

    Answer. Cambodia's bilateral relationship with Thailand was 
complicated in recent years due to unresolved and longstanding border 
disputes--including over territory surrounding the Preah Vihear 
Temple--that flared up in the first half of 2011. Relations have warmed 
significantly since a Puea Thai Party coalition came to power in 
Thailand in August 2011, led by former Prime Minister Thaksin 
Shinawatra's youngest sister and current Prime Minister, Yingluck 
Shinawatra.
    The United States does not take a position on the legitimacy of 
either side's territorial claims. Since the 2011 border clashes, the 
United States has consistently called on both sides to exercise maximum 
restraint and take every necessary step to reduce tensions and return 
to peaceful negotiations. In this regard, the United States has 
supported the efforts of Indonesia as ASEAN Chair in 2011to facilitate 
a resolution to the conflict.
    While tensions have lessened, the underlying territorial dispute 
around Preah Vihear remains unresolved. There is a 1962 judgment by the 
International Court of Justice (ICJ) relevant to the dispute; in 2011, 
Cambodia asked the Court to interpret that earlier judgment, and asked 
for temporary ``provisional'' measures. In July 2011 the ICJ issued a 
provisional decision that created a demilitarized zone around Preah 
Vihear and ordered implementation of Indonesia's offer to deploy border 
observers. Both sides have pledged to implement the ICJ's decision and 
are working with Indonesia to develop terms of reference. The ICJ has 
authorized both sides to submit further filings as it considers a final 
decision on Cambodia's submission, which Cambodia did this month; 
Thailand's filings are not due until June 2012. In addition to action 
at the ICJ, the two sides are also using existing bilateral dialogue 
mechanisms, such as the Joint Boundary Commission and the General 
Border Committee to discuss outstanding boundary disputes.
    The United States strongly supports Cambodia and Thailand's efforts 
to improve their bilateral relationship in all ways.
                                 ______
                                 

        Responses of Sara Margalit Aviel to Questions Submitted
                        by Senator John F. Kerry

    Question. The World Bank Board recently approved the ``Program for 
Results'' (P4R) in an effort to streamline its development operations 
while improving the accountability of borrowers to produce concrete 
results.

  <bullet> Please discuss how you believe the Bank should ensure 
        community engagement, transparency, and accountability for 
        specific investments within a P4R program.

    Answer. I believe that community engagement, transparency, and 
accountability are critical elements to the success of P4R, and all the 
work the World Bank is engaged in. If confirmed, I will work with the 
Bank to provide affected communities, the private sector, and other 
stakeholders with the ability to review and provide input on the 
individual program risk assessments, proposed capacity-building 
measures, and proposed activities. Upon the project's completion, these 
stakeholders should also be informed of the results at the activity 
level.
    Under a P4R program, the borrower government will make information 
available to the public at both the program and project/subproject 
level through methods that are appropriate to the scope and nature of 
the program.
    As part of any P4R program, the World Bank will conduct an 
assessment of the borrower country's environmental and social systems, 
including the arrangements by which program activities that affect 
local communities will be disclosed, consulted upon, and subject to a 
grievance redress process. Key considerations during the review will be 
whether stakeholders' views and concerns are solicited in an open and 
effective manner, and whether these views and concerns are considered 
in program design and implementation. If relevant, the World Bank will 
identify measures to improve effectiveness.
    Relevant stakeholders, including local communities, will be 
consulted regarding the findings of these environmental and social 
assessments, and the Bank will make both the draft and final 
assessments available to the public. In addition, a summary of the 
assessments will be disclosedin the Program Appraisal Document (PAD). 
Furthermore, Implementation Status and Results Reports (ISRs), which 
are available to the public, will provide an overview of progress in 
the implementation of the operation, including agreed actions to 
improve environmental and social systems performance.
    If confirmed, I will engage closely with the Bank to verify that 
all P4R programs which are brought to the Board for review have 
followed the above guidelines in conducting environmental and social 
assessments, in consulting all relevant stakeholders and in providing 
adequate disclosure of the assessments and transparency into the P4R 
program.

  <bullet> How should the Bank ensure that information reaches the most 
        affected communities regardless of income or language?

    Answer. If confirmed, I will work with the World Bank to undertake 
considerable efforts to provide information to affected communities, 
regardless of income or language. World Bank information (documents, 
data, materials, projects, or research) is available online as well as 
in person at more than 200 locations around the world. In partnership 
with universities and other local organizations, the Bank established 
these Public Information Services so that local citizens can access 
information at the country level. If confirmed, I would encourage the 
World Bank to work with local civil society organizations to take 
advantage of this information and share it with the communities where 
they work.
    The World Bank also has a set of guidelines for translation of 
documents, publications, and Web content, which call for the 
translation of ``country- and project-specific information into the 
national language of a country, local languages within a country and/or 
language(s) understood by people affected by, or likely to be affected 
by, a project.'' I support these guidelines, and if confirmed, I would 
work to make sure they are implemented effectively.

  <bullet> In a time when an increasing number of people across the 
        globe are learning to use new communication technologies to 
        share information and viewpoints, what can the Bank do to 
        promote greater community involvement in projects at all 
        stages--planning, monitoring implementation, and evaluation?

    Answer. As was made vivid in the Arab Spring, new communication 
technologies are connecting and mobilizing people across the globe. If 
confirmed, I would support the World Bank taking advantage of these 
tools to promote greater community involvement in its work. The World 
Bank is already making impressive strides in this area. President 
Zoellick launched the Open Data Initiative, enabling individuals around 
the world to access all of the World Bank's rich data. Similarly, 
``Apps for Development'' is encouraging innovators around the world to 
design new tools for development. There have also been efforts to pilot 
the use of SMS technology and social network tools for greater 
community and beneficiary feedback and to improve accountability. 
Across the board, civil society organizations play an important 
intermediary role and if confirmed, I would work to encourage the World 
Bank to continue strengthening the role of civil society in its work.

    Question. As the Bank has extensively documented, climate change 
threatens us all, but it will impact low-income countries and 
vulnerable populations the hardest. In addition to doing their part to 
reduce greenhouse gases, countries that are the largest contributors to 
climate change need to improve the integration of efforts to adapt and 
respond to the impacts of climate change.

  <bullet> How will you improve the World Bank's role in integrating 
        climate change in their development assistance?

    Answer. The poor are most likely to depend on natural resources for 
their livelihoods and thus suffer the most from environmental 
degradation and weather related disasters. Accordingly, it is 
appropriate that the World Bank focus on sustainable development 
assistance, including helping affected communities respond and adapt to 
the impact of climate change. The World Bank already does considerable 
groundbreaking research on the climate change-development nexus as 
evidenced by its flagship publication, the World Development Report, 
which focused on this issue in 2010.
    If confirmed, I will urge the World Bank to continue to serve as a 
convener and leader on sustainable development. I will encourage the 
Bank to continue to support innovative new approaches and products to 
address this global issue. Finally, the World Bank should take into 
account climate vulnerability and risk management in its country 
programs in key sectors including: health, water supply and sanitation, 
energy, transport, industry, mining, construction, trade, tourism, 
agriculture, forestry, fisheries, environmental protection, and 
disaster management.

  <bullet> What measures will you advance at the Bank to support 
        increasing resilience to the impacts of climate change in 
        vulnerable countries and within vulnerable populations?

    Answer. Adaptation is a critical issue for all countries but 
particularly the poorest. Building climate resilience into development 
plans, projects, and programs is good practice. If confirmed, I will 
encourage the World Bank to continue to build climate change adaptation 
considerations into Country Assistance Strategies and apply its 
adaptation screening tool to projects and programs to assess and 
address potential sensitivities to climate. I will urge the Bank to 
conduct further work on sector-specific tools and guidance to address 
adaptation in its work.

    Question. In a series of papers, the International Energy Agency 
has demonstrated that delivering universal energy access for the poor 
would require dramatically scaling up off-grid clean energy 
investments. Currently, the World Bank Group (including the 
International Finance Corporation) is underinvesting in this sector.

  <bullet> Will you push for the Bank to adopt clear metrics to measure 
        energy access for both grid-tied and off-grid populations, and 
        for such metrics to be essential components in project 
        selection?

    Answer. A lack of access to energy is a significant constraint to 
economic growth and poverty reduction--the two key pillars of the World 
Bank's work. The Bank has worked on this issue for a number of years 
and, I understand, is committed to improving energy access in its 
partner countries. It currently measures and reports on a number of 
statistics related to energy (including energy access) in its data 
products such as the World Development Indicators. The Bank also 
strongly supports the development of a set of sustainable development 
goals by 2030 to complement the MDGs for energy, sanitation, water, 
oceans, biodiversity, and land. These are sound measures and if 
confirmed, I would support continued work on them.

  <bullet> The upcoming Rio+20 Conference provides a platform for the 
        World Bank Group to make a commitment to delivering on energy 
        access and increasing off-grid clean energy investments. What 
        commitments would you push the Bank to make at Rio+20?

    Answer. While it is hard to say what the outcome of Rio+20 will be 
at this point, the World Bank is actively working for a positive 
outcome for the summit. The Bank is participating in the U.N. High 
Level Group on ``Sustainable Energy for All'' which is feeding into the 
Rio+20 process. In this context the Bank has expressed its support for 
the three global energy goals outlined in this U.N. action agenda:
          (1) Universal access to modern energy services;
          (2) Doubling the rate of improvement in energy efficiency; 
        and
          (3) Doubling the share of renewable energy--all by 2030.

    Answer. I understand that the Bank also supports efforts to develop 
more sustainable development goals. If confirmed, I would support these 
commitments and work with the Bank to follow through on these issues 
through its programs, projects, and research.

  <bullet> Recognizing the need to balance the importance of increasing 
        energy access with access to clean and renewable resources, how 
        would you move forward an energy strategy at the institution 
        that would phase out fossil fuel financing while scaling up 
        investments in clean energy?

    Answer. Access to energy and increasing renewable energy and energy 
efficiency are all priorities for the United States and the World Bank. 
I would expect that any energy strategy at the World Bank would need to 
have a strong focus on these priority areas if it were to move forward 
with support from the executive board of the Bank. The Bank has already 
scaled up investments in clean energy and efficiency significantly. The 
World Bank Group has invested $17 billion in low carbon investments 
since 2003, of which $14.2 billion were in renewable energy and energy 
efficiency.

    Question. The administration has made the expansion of U.S. exports 
a priority in its economic strategy. Procurement opportunities overseas 
in Bank projects could potentially provide billions in revenues for 
U.S. firms.

  <bullet> Please describe how you will work with the Commerce 
        Department to help U.S. firms take advantage of MDB procurement 
        opportunities and to promote improvements, if necessary, in the 
        Bank's data management systems to be able to monitor 
        procurement trends.

    Answer. If confirmed, I would make it a priority to conduct 
outreach to the private sector to highlight the various ways that 
American companies can benefit from the work of the World Bank. While 
perhaps the biggest impact comes from the work the World Bank engages 
in around the world to create open markets and sound investment 
climates, there are also a number of specific opportunities including:

  --Debt and equity financing from the International Finance 
        Corporation (IFC) to support private overseas projects, 
        including public private partnerships with a development 
        impact.
  --Procurement opportunities both to support the Bank's own needs and 
        for contracts that flow from sovereign lending or credits under 
        the Bank's oversight.
  --Guarantees for international trade transactions under the Global 
        Trade Finance Program.
  --Political risk insurance provided through the Bank's Multilateral 
        Investment Guarantee Agency (MIGA).
  --Dispute resolution mechanism for issues between American companies 
        and foreign governments through the Bank's International Center 
        for Settlement of Investment Disputes (ICSID).

    Over the last decade, American companies have received over 2,500 
contracts for projects supported by World Bank lending around the 
world, totaling more than $1.6 billion. In addition, U.S. firms win an 
additional $390 million a year on average in direct contracts with the 
World Bank. If confirmed, I would seek to continue and grow this strong 
record.
    The Departments of Commerce and Treasury have already taken steps 
to help U.S. firms pursue MDB-funded procurement opportunities and to 
increase the transparency of MDB procurement data and if confirmed, I 
will work with both agencies to continue this progress.
    Outreach to the U.S. private sector is a key part of this effort to 
engage more U.S. firms in MDB activities. For example, the U.S. 
Executive Director for the World Bank has traveled around the country 
to discuss World Bank procurement opportunities with business and trade 
organizations, including a trip earlier this month to Boston where he 
met with the New England Council and the Massachusetts Office of 
International Trade and Investment.
    In response to the Departments of Treasury and Commerce, the World 
Bank has increased its own outreach to the U.S. private sector this 
year by adding seven more business organizations to its Private Sector 
Liaison Officer (PSLO) network. These PSLOs provide local-based 
guidance and engagement for U.S. firms seeking World Bank and other MDB 
opportunities. This brings the total of PSLOs in the U.S. to 10, more 
than tripling the number since the beginning of 2011.
    U.S. Executive Director Solomon has been actively engaging with 
these PSLOs, and has already visited the new PSLOs in Alabama, Chicago, 
New York, and Utah. As one example of the fruits of this effort, the 
officer based in Chicago contributed to an 83 percent increase in World 
Bank contracts won by Midwest firms. If confirmed, I will work to 
assist in this outreach effort with the Commerce Department by taking 
advantage of both the PSLO network and the Commerce Department's 
network of Export Assistance Centers around the country.
    The Departments of Treasury and Commerce have already made progress 
to improve transparency of the World Bank's procurement information. At 
the Departments' request, the World Bank began to publish procurement 
notices for free on its own Web site, www.worldbank.org, at the 
beginning of 2011. This important step allows small and medium 
enterprises to access these contract opportunities without having to 
subscribe to a database service. In addition, if confirmed, I would 
work with the Departments of Treasury and Commerce to continue pressing 
the World Bank to improve its data on contract awards under World Bank-
financed projects, so that we can better track the benefits accruing to 
U.S. firms.
    I understand the World Bank will soon be launching a review of its 
procurement policy. If confirmed, I will consult closely with relevant 
stakeholders including Congress and organizations representing the 
private sector to identify potential areas of improvement. I will work 
closely with the U.S. Executive Director, other Executive Directors, 
the Treasury Department, and World Bank management to incorporate these 
suggestions and further strengthen the World Bank's already strong 
procurement policies.
                                 ______
                                 

        Responses of Frederick D. Barton to Questions Submitted
                      by Senator Richard G. Lugar

    Question. The CSO Bureau was established as an outcome of the QDDR 
and in response to continued requirement for a fundamentally organized 
civilian capacity in our lead foreign policy institution to respond to 
incipient conflict, conflict and post-conflict situations.

    Answer. The Bureau of Conflict and Stabilization Operations (CSO) 
was established to address the need for greater cohesion and coherence 
to conflict prevention and conflict response.

  <bullet> What role is foreseen for the State Department Bureau of 
        Stabilization Operations relative to the parallel and redundant 
        efforts at USAID and DOD?

    Answer. The space in which CSO operates is not overcrowded in light 
of the dynamic challenges the United States faces in providing conflict 
prevention and conflict response in some of the toughest places of the 
world. CSO will be at the center of complex conflict-related 
situations, whether through integrated strategies, joint analysis, or 
suggesting direction of foreign assistance to priority needs. In doing 
so CSO will ensure USAID and DOD are brought into the discussions in 
the earliest stages.

  <bullet> Where do those two agencies fit into the new construct at 
        State and how will they interact?

    Answer. The partnership that CSO is building with USAID and DOD is 
focused on collaboration. An example of this collaboration is 
demonstrated through the current review of the 1207 (Conflict 
Prevention) program which CSO, F, DOD, and USAID manage. We have agreed 
that the funds must be used with more of a strategic focus, moved 
faster, and evaluated in-country. We are now moving forward with these 
critical partners to capture unobligated 1207 funds to ensure these 
shared principles.

  <bullet> What resources will be drawn and what additional resources 
        and authorities can be drawn upon for the purposes of 
        responding to CSO requirements?

    Answer. CSO expects to influence the focused use of several funds 
to address early onset crisis, including Complex Crisis Fund (CCF), 
Global Security Contingency Fund (GSCF), Transition Initiative (TI) and 
1207 along with other resources. In addition we are in the process of 
increasing the percentage of CSO's budget dedicated to deployment.

  <bullet> What additional responsibilities will CSO have should the 
        President or Secretary deem necessary?

    Answer. As CSO proves itself through impact driven-responses we 
envision being called upon more frequently by the President, National 
Security Staff, and the Secretary of State to drive conflict 
prevention, crisis response and stabilization in priority states.

  <bullet> Why does a broader interagency cooperative effort appear to 
        have been abandoned or scaled back from former recommended 
        levels as originally intended in the Office of the Coordinator 
        for Reconstruction and Stabilization?

    Answer. To be more innovative and agile, CSO is developing a new 
model for the Civilian Response Corps (CRC) that will seek to include 
the widest possible range of partners, including the interagency, from 
the beginning of its engagements. The result should be an expeditionary 
team made up of leaders and experts from all parts of the United 
States, interagency, state and local governments, and other sources of 
talent.
    We believe that this will be more effective and responsive to the 
needs of each case and more economical than the current model.

  <bullet> Where and how will a lessons-learned and planning capacity 
        be incorporated?

    Answer. The Office of Learning and Training will serve as CSO's 
center of excellence in an organization that is dedicated to constant 
learning. The Bureau will also continue to develop new tools and 
approaches. Planning, as with conflict prevention, will be integrated 
throughout the organization where, in S/CRS, these were separate 
offices.

    Question. The transition of the United States mission in Iraq and 
Afghanistan from a military heavy civil-military operation is complete 
in the former and just beginning in the latter. This winding down has 
long been perceived as requiring a considerable civilian follow-on 
component, which while evidently less robust than originally expected, 
is still advisable.

  <bullet> Why would the CSO Bureau reduce the size of the Conflict 
        Response Corps precisely when the necessity of complex skills 
        in the civilian sector is so important to sustaining gains made 
        in both these countries given the drawdown of DOD resources and 
        personnel that had primary responsibility for programs to be 
        maintained by the mission?

    Answer. The nature of places where CSO is operating is changing. 
Rather than the heavy footprint of Afghanistan and Iraq, we see a range 
of cases where the United States role is pivotal but not dominant. In 
turn, we are focusing on a smaller CRC-Active component which 
emphasizes leaders, and a broader approach which expands potential 
partners and has a ``pay as we use'' business model like the CRC-
Standby. This will allow us to use our funds more responsibly and 
respond with someone who can work independently, such as supporting a 
Presidential inquiry in Liberia, or who can lead a small team that 
draws on both USG and local resources. To succeed, country cases must 
accelerate local ownership and that too will be at the heart of CSO's 
emphasis.

  <bullet> What if any skill sets are being reduced or eliminated?

    Answer. Over the past few years, the Interagency CRC-Active 
component was deployed 39 percent of their time for conflict prevention 
work, with the remainder of their time focusing on work not directed by 
CSO. CSO is dedicated to building a CRC-Active component based on a 
leadership cadre made up of those with proven effectiveness in the 
field and conflict-focused skills, such as conflict analysis, 
prevention tools, contingency planning, and expeditionary operations. 
We will continue to call upon subject matter experts who can help to 
bring tangible progress to the early days (0-12 months) of a crisis.

  <bullet> Will the CRC and the Standby be reformulated at lower levels 
        or is this a short-term retrenchment given the growing pains of 
        the recent past?

    Answer. To tap more specific areas of expertise such as rule of law 
or food security, CSO plans to rely more upon its CRC-Standby capacity 
and other talent in the United States. The model will allow CSO to 
reach more broadly across our country to find the right people at the 
right time.

  <bullet> What tools have been sustained from the S/CRS office and 
        which have been discarded?

    Answer. CSO is aggressively working to improve upon what we do 
best. We have retained the conflict-related response tools (i.e., 
analysis and integrated strategies to focus resources and programming) 
developed by S/CRS and its interagency partners, and continue to build 
on that body of knowledge through regular interaction with 
international partners, NGOs, academic institutions, etc. One of the 
signature analysis pieces, the Interagency Conflict Assessment 
Framework (ICAF), is now being rethought and redesigned--and that is 
illustrative of the approach we will take.

    Question. Administration and Department cooperation has proven 
essential to productive efforts in stabilization and reconstruction.

  <bullet> Is the Obama administration fully supportive of the CSO 
        mission and mandate and how have they demonstrated such support 
        at the NSC level or in any government agencies?

    Answer. The administration, National Security Staff, and Secretary 
of State have all signaled the highest levels of support for CSO. In a 
``townhall'' speech Secretary Clinton held 2 weeks ago at the 
Department, she highlighted CSO's creation and its work as one of the 
most important QDDR elements. Secretary Clinton and Under Secretary 
Otero have encouraged geographic and functional bureaus to partner with 
us to address conflict situations in every part of the world. The NSS 
has included CSO in a wide variety of conflict-related policy and 
country-specific working groups, ranging from Presidential Study 
Directive-10 on prevention of Mass Atrocities to Syria, Libya and other 
priority countries.
    The newly arrived CSO leadership is building strong relationships 
among senior directors at the National Security Staff, USAID, DOD, 
along with numerous Assistant Secretaries at the Department of State.

  <bullet> What practical resistance remains to the concept of a bureau 
        that is a priority but requires the acquiescence and 
        participation of other bureaus and agencies?

    Answer. As CSO begins to prove itself with its impact driven 
actions we envision the Bureau will be called upon more frequently to 
drive conflict prevention and response efforts around the globe. While 
some senior leaders have taken a wait-and-see approach, in general the 
response has been welcoming.
    In each use, CSO seeks a clear understanding of who is leading the 
U.S. effort as conflicts emerge. This initial clarity provides us all 
with a center of gravity: someone with cross-cutting authority for the 
sprawling network of offices and people involved, who welcomes help and 
encourages innovation. With this understanding, CSO then develops a 
strategy and drives urgent and practical actions.

  <bullet> What role would you foresee/will CSO have in the case of 
        another Haiti earthquake that devastates a country of interest 
        to the United States?

    Answer. As a Department of State entity, our focus will be on 
political or other ``human'' conflicts. CSO defers to how the Secretary 
of State frames a crisis as either humanitarian or political in nature. 
It is entirely conceivable that a natural disaster could be the 
catalyst for a human/political conflict or a ``hyper complex 
emergency'' in which case we would partner closely with USAID, DOD, and 
others in developing a coordinated response that addresses both the 
humanitarian and conflict dimensions of the situation.

  <bullet> What role, would you envision, will CSO have in the case of 
        a new political freedom movement in Algeria or Sudan or Cuba?

    Answer. CSO would likely play a significant role in the first 12 
months. CSO has provided analytical, contingency planning, and project 
development support to several geographic bureaus, embassies, or 
special envoys in this area. It is imperative to understand the 
underlying sources of conflict in a complex crisis--and to plan 
systematically for likely scenarios. For example, S/CRS--and currently 
CSO--has been a strong supporter of the smooth transition of South 
Sudan into an independent country. Our staff has covered literally 
every corner of the country beginning before the referendum through 
independence. Our Stabilization Teams deployed to extend the diplomatic 
reach of the USG at the state and county levels, engaging in 
``operational diplomacy,'' to include conflict assessment and 
reporting, facilitation of peacebuilding initiatives and engagements 
with key local actors to advance conflict mitigation and stabilization 
objectives. A key function was to provide early warning of growing 
conflict trends at the local, tribal, or provincial level, permitting 
the USG and the Government of South Sudan to respond before the 
outbreak of violence. As another example, we are currently providing 
support to the Bureau for Near Eastern Affairs on expanding the 
abilities of the Syrian opposition.

  <bullet> What role, would you foresee, will CSO play in Afghanistan 
        now and post-2014?

    Answer. CSO is focused on transition planning with the host 
government, within the Embassy, and with the military command.

  <bullet> What role, would you foresee, will CSO play in an emergent 
        mass atrocity in Sudan?

    Answer. CSO plays an active role in the interagency work on mass 
atrocity and genocide prevention, including direct support to the 
Office of the Under Secretary for Civilian Security, Democracy, and 
Human Rights (J) and the broader J family, CSO's greatest value is 
likeliest to be at the earliest possible stage--in anticipating 
possible threats or atrocities and helping to provide the tools and 
training to better address them.
    The presence of CSO Stabilization Teams in the most conflict-prone 
areas of South Sudan continues to serve as an important tripwire in 
providing early warning on emerging violence and, potentially, mass 
atrocities. Beyond simply raising the profile of subnational political 
and security threats, CSO staff in the field engage with state and 
county officials, tribal leaders, youth, UNMISS and other stakeholders 
and have used these relationships to influence behavior, including 
dampening tensions, encouraging reconciliation and helping to set 
conditions that could prevent violence.
                                 ______
                                 

          Responses of William E. Todd to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Given the widespread concerns about official corruption 
in Cambodia, I and many others believe it is imperative that Cambodia 
join the Extractive Industries Transparency Initiative before oil 
revenues begin to flow from its offshore fields, which may be as soon 
as next year. Does the State Department share this view, and if so, 
what is the U.S. Government doing to encourage Cambodia's participation 
in EITI? Is the U.S. providing any other assistance to help Cambodia 
productively manage its future oil revenues?

    Answer. The U.S. Government continues to encourage Cambodia and 
others to join the Extractive Industries Transparency Initiative 
(EITI). Although Cambodia has yet to join, it has participated in 
regional EITI workshops and taken steps to make public disclosures of 
its oil revenue. In 2010, the Cambodian Government announced it had 
received a total of $26 million in signature bonuses and social funds 
from PetroVietnam and Total associated with contracts for offshore oil 
exploration. Most significantly, Cambodia has established an 
interministerial working group that will publish extractive industry 
taxes and revenue, according to the local NGO ``Cambodians for Resource 
Revenue Transparency'' (CRRT).
    EITI is emerging as a global standard for revenue transparency, an 
important component of good governance in the extractives sector. The 
United States demonstrated its commitment to this principle in 
September 2011, when President Obama announced that the United States 
would join EITI. Leading by example strengthens the U.S. position as we 
continue to encourage Cambodia and others to join the initiative. 
Industry, government, and civil society must work together to promote 
greater transparency and fight corruption.
    Through our civil society partners, the United States has supported 
workshops to assist Cambodian Government officials to better understand 
the oil and gas industry. Additionally, we have promoted international 
best practices for resource management in our interactions with 
relevant government officials.
    The United States provides technical assistance to the Cambodian 
Government, in the form of financial advisory services from the U.S. 
Department of the Treasury, to develop sound financial management 
practices. Related to the extractives sector, the team has assisted in 
the development and implementation of laws and regulations related to 
taxation of the oil and gas and mining industries. Additionally, a 
full-time U.S. advisor works with the Ministry of Economy and Finance 
to support overall budget reform and increase financial accountability 
in Cambodia.

    Question. American democracy advocate Ron Abney passed away on 
December 31, 2011, without seeing justice for the grenade attack in 
Cambodia on March 30, 1997, in which 16 Cambodians were killed, and 
scores injured--including Abney himself. Elements of the ruling 
Cambodian People's Party (CPP) were reportedly suspected of complicity 
in the attack, particularly Prime Minister Hun Sen's bodyguard unit 
Brigade 70. What actions will you take to secure justice for the 
victims of the 1997 grenade attack, and what impact does impunity for 
such crimes have on Cambodia's democratic and legal development?

    Answer. The lack of accountability for past crimes, and a culture 
of impunity among many of Cambodia's elite, is an ongoing concern for 
the United States, and one which, if confirmed, would be a top priority 
for me during my tenure as Ambassador. These actions erode confidence 
in the legal and political systems. Cambodia's democratic and legal 
development is retarded when there is no accountability for past 
crimes. If confirmed, I will make the issue of equality before the law, 
judicial independence, and accountability for past crimes a major theme 
of my engagement with the Royal Government of Cambodia, and I will do 
everything I can to assist the victims of the 1997 grenade attack find 
justice.

    Question. Please describe the process by which U.S. foreign 
assistance to Cambodia is evaluated in terms of effectiveness. Identify 
every program and project funded in Cambodia for the last 5 years by 
the U.S. Government. For each program and project funded by the U.S. 
Government during that time period, please state the type of 
evaluation(s) which occurred on an annual basis and the findings of 
each evaluation.

    Answer. U.S. foreign assistance to Cambodia is evaluated in 
accordance with performance management best practices, including where 
feasible and useful, program evaluation, to achieve the most effective 
U.S. foreign policy outcomes and greatest accountability to our primary 
stakeholders, the American people. The U.S. Department of State has 
recently launched an Evaluation Policy that requires that all large 
programs, projects, and activities be evaluated at least once in their 
lifetime or every 5 years, whichever is less. Each Bureau in the State 
Department identifies the programs, projects, or activities to 
evaluate, and is required to evaluate two to four projects/programs/
activities over a 24-month period beginning with FY 2012, depending on 
the size, scope, and complexity of the programs/projects being 
evaluated. USAID has implemented a similar policy.
    The attached annexes represent the past 5 years of summaries of 
USAID, CDC, security assistance, and weapons removal and abatement 
projects funded by the United States in Cambodia. The State Department 
would be pleased to provide a briefing for you or your staff on these 
programs and the evaluation mechanisms, if you would like further 
information.

[Editor's note.--The annexes mentioned above (Annex 1: 
``Evaluation Findings, USAID/Cambodia''; Annex 2: ``Security 
Assistance, Evaluation of Effectiveness''; Annex 3: ``Weapons 
Removal and Abatement Summary'') were too voluminous to include 
in the printed hearing. They will be retained in the permanent 
record of the committee.]

    Question. Will you meet with opposition leader Sam Rainsy, whether 
that be in Cambodia, if he returns or elsewhere?

    Answer. If confirmed, I would welcome any opportunity to meet both 
ruling party and opposition party figures in Cambodia, including Mr. 
Sam Rainsy, regardless of venue.

    Question. Former Thai Prime Minister Thaksin Shinawatra serves as a 
key advisor to Cambodia Prime Minister Hun Sen on an intermittent 
basis. How does this relationship effect bilateral relations between 
Thailand and Cambodia?

    Answer. Former Thai Prime Minister Thaksin Shinawatra served as an 
economic advisor to Cambodian Prime Minister Hun Sen from 2009 to 2010, 
and the two figures are widely believed to remain in close contact. 
Relations between Cambodia and Thailand have warmed significantly since 
a Puea Thai party coalition came to power in Thailand 2011, led by 
Thaksin's youngest sister, Prime Minister Yingluck Shinawatra.
    The United States strongly encourages Cambodia and Thailand to 
continue to improve their bilateral relationship, which would also help 
bolster regional stability.

    Question. Please quantify the success of the U.S. Government or 
U.S. funded-projects and programs in Cambodia attempting to address 
human trafficking.

    Answer. Cambodia, once a Tier 3 country, was classified as a Tier 2 
country in the State Department's June 2011 report.
    The United States has implemented an array of programs to address 
human trafficking through USAID, the Department of State's Bureau of 
Population, Refugees, and Migration, and the Department's Office to 
Monitor and Combat Trafficking in Persons.
    USAID/Cambodia programs to counter trafficking in persons (TIP) 
have reached over 7,600 Cambodians in key priority provinces through 
information campaigns and training events on safe migration and TIP-
related issues. Participants included local officials, community 
change-makers (such as Village Development Committee members), and 
students.
    In the interest of TIP prevention, USAID assistance has 
strengthened employment options and reduced vulnerability to 
trafficking of over 920 youth through support for educational 
scholarships and vocational training. USAID assistance has also reduced 
the vulnerability of nearly 300 families by mitigating pressures for 
family members to fall into situations involving unsafe migration, 
trafficking, or exploitation.
    The program has provided training to 776 government officials and 
social workers on victim protection. USAID programs have also supported 
over 1,800 trafficking victims through short- and long-term services 
provided by shelters, including residential care, educational support, 
livelihoods skills training, psychosocial support, and reintegration 
assistance.
    In the interest of prosecution, USAID supported training for over 
500 police officers on TIP, criminal investigation, evidence collection 
techniques for trafficking cases and institutionalized trainings within 
the Cambodian National Police. We have also trained over 180 judicial 
officials on the TIP law and regional and international legal 
frameworks to address TIP.
    In FY 2011, the Department of State's Bureau of Population, 
Refugees, and Migration programmed $300,000 in INCLE funds for 
antitrafficking activities in Cambodia, Laos, and Malaysia under its 
Southeast Asia regional migration program, implemented by the 
International Organization for Migration (IOM). Activities focused on 
improving the quality of assistance provided in shelters for 
trafficking victims in Malaysia and building the capacity of the Lao 
and Cambodian Governments to provide reintegration assistance to 
returning trafficking victims. In FY11 in Cambodia, IOM trained 20 
central-level Ministry of Women's Affairs (MoWA) officials, 40 
provincial-level MoWA officials, and 154 key local leaders, including 
village and commune chiefs, on methods to conduct awareness-raising 
activities on the risks of irregular migration and the rights and 
responsibilities of migrants in Thailand, a major destination for 
Cambodian labor migrants. The project also supported two awareness-
raising campaigns in Cambodia's Prey Veng and Kampong Cham provinces 
that reached a total of 1,674 people.
    The Department of State Office to Monitor and Combat Trafficking in 
Persons (J/TIP) has supported both the U.N. and nongovernmental 
organizations to address trafficking in Cambodia.
    The United Nations Inter-Agency Project on Human Trafficking 
(UNIAP) is partnering with local NGOs to provide psychosocial support 
and other services to address trauma and other mental health needs of 
victims of sex and labor trafficking. The project is also providing 
economic support through training and job placement for victims, as 
well as training for staff and raising awareness of the issue. In the 
area of prevention, UNIAP successfully integrated an antitrafficking 
message into a publication on financial literacy produced by a 
microfinance institution. Over 50,000 copies of this publication were 
distributed through the microfinance institution's branch offices. In 
the area of protection, UNIAP has provided medical services to 20 
trafficking victims, legal assistance and advice to 105 victims, 
counseling services to 75, and vocational training to more than 20 
others. Of particular note is the repatriation assistance to Cambodia 
of 65 male Cambodian labor trafficking victims from Indonesia, 18 
victims from Malaysia, and 21 victims from Thailand. In terms of 
prosecution, UNIAP has assisted with the investigation of 20 TIP cases, 
the arrest of eight perpetrators, six of whom have been criminally 
charged, and two of whom have been convicted. The traffickers were each 
sentenced 8 years in prison and ordered to pay compensation to their 
victims.
    World Hope International (WHI) provides comprehensive services for 
girl survivors of trafficking and rape through an aftercare center in 
Siem Reap modeled after a successful aftercare program in Phnom Penh. 
Services include short-term shelter, medical and mental health 
assessments, art therapy, and assistance with preparing for court 
proceedings, with the goal of recovery and reintegration. WHI has 
partnered with Cambodia's Ministry of Social Affairs, Veterans, and 
Youth Rehabilitation (MoSAVY) to assist approximately 60 girls through 
the center, and conducts periodic followup visits to ensure successful 
reintegration into their communities.
    Additionally, the J/TIP office recently funded Agir por les Femmes 
en Situation Precaire (AFESIP) to develop three service centers in 
Cambodia. These centers provide trafficking survivors with residential 
living space that meets their immediate needs, including medical 
evaluations and treatment; psychological counseling to establish and 
restore self-confidence and self-esteem; support to family members; and 
childcare and parenting skills to residents in order to allow them to 
focus on their own rehabilitation. Nearly 550 women and girls received 
care across AFESIP's three residential shelters throughout the project 
period.

    Question. What is the status of relations between the U.S. 
Department of Defense and the Royal Cambodian Armed Forces? How is the 
human rights record of the Royal Cambodian Armed Forces factored into 
decisions by the United States to engage with the Cambodian military?

    Answer. U.S. security engagement is a positive driver in deepening 
United States-Cambodia relations, and reinforces our efforts to promote 
a democratic Cambodia respectful of human rights, dedicated to the rule 
of law and transparent governance, at peace with its neighbors, and a 
contributor to regional stability.
    The United States assists and engages with the Royal Cambodian 
Armed Forces (RCAF) in an effort to develop a modern, transparent, 
accountable, and professional Cambodian partner that supports U.S. 
efforts to maintain regional and global stability, adheres to 
international human rights norms, and is integrated into the 
international community.
    The military-to-military relationship focuses on building capacity 
in peacekeeping (with recent deployments to Sudan and Lebanon as 
examples), counterterrorism, civil-military operations (including 
military medicine and engineering), humanitarian assistance and 
disaster relief response, and maritime security. The United States will 
also continue to enhance the RCAF's capabilities to meet reform, force 
restructuring, and professionalization objectives.
    Every individual and unit that participates in U.S.-funded training 
is thoroughly vetted, both in Phnom Penh and Washington, in strict 
accordance with U.S. law and State Department regulations. For example, 
in addition to the various internal background checks conducted at the 
U.S. Embassy, using information the Embassy has amassed from contacts 
and open sources, Embassy personnel also check names against a database 
maintained by a prominent human rights NGO. This database tracks human 
rights violations throughout the country and includes cases submitted 
by NGO monitors and contacts in the provinces. In Washington, the 
Department of State's Bureau of Democracy, Human Rights and Labor 
implements the Leahy amendment by reviewing information from multiple 
resources to ensure that U.S. funding is not used to training 
individuals or units implicated in human rights abuses.
    Senior Department of Defense visitors to Cambodia discuss human 
rights issues in their meetings with senior RCAF and Ministry of 
National Defense (MoND) officials. The RCAF and MoND are fully aware of 
our position on gross human rights violations as it pertains to 
security training, and all units and individuals receiving training are 
required to receive human rights awareness training prior to the start 
of the program.

    Question. Please cite specific examples during the past 3 years 
when the United States protested the illegal eviction and ``land 
grabbing'' of private citizens, which has occurred at the direction of 
Cambodian officials and in violation of Cambodian law.

    Answer. The United States has consistently expressed its concerns 
about the increasing number of land disputes in Cambodia and the 
potential they have to escalate into violent confrontations. These 
disputes underscore the importance of clearly delineated property 
rights and the need for a dispute resolution system that is independent 
and treats all Cambodians equally and according to the law.
    The United States has previously joined others in the international 
community to urge the Royal Government of Cambodia (RGC) to ensure that 
property rights are respected. For example, in 2009, the United States 
coordinated and publicized a joint statement that urged the RGC to end 
its development of Boeung Kak Lake until and unless Cambodian 
authorities and the affected citizens reached a lawful resolution. In 
2011, the World Bank suspended new lending to Cambodia until and unless 
the RGC satisfactorily resolved the Boeung Kak Lake situation. The 
United States, as a shareholder, strongly supported the World Bank's 
decision.
    In 2012, the United States publicly raised our concerns regarding 
land disputes during the eviction of land claimants from the Borei 
Keila settlement and continues to call on protestors to refrain from 
violence and for security forces to exercise maximum restraint.
    The United States, through our USAID mission in Phnom Penh, 
provides funding and training to civil society groups that work in the 
areas of land and livelihood rights, judicial reform, and legal 
awareness.

    Question. How do you recommend approaching the plethora of rule of 
law challenges and issues within Cambodia? Please assess the success or 
failure of the United States on this front in recent years in Cambodia. 
What other countries are actively concerned about the rule of law 
challenges in Cambodia?

    Answer. The United States is concerned about Cambodia's weak and 
vulnerable judiciary. Weak rule of law hinders political reform, 
encourages an environment of impunity, hinders economic and social 
development, and cripples the public's confidence in the political 
process. Land rights issues are a tangible example of a larger need for 
rule of law for many Cambodians.
    Though recent arrests may indicate greater political will in 
Cambodia to tackle corruption, the United States continues to encourage 
Cambodia to comprehensively enforce its Anti-Corruption Law. We also 
encourage Cambodia to write effective, applicable laws and have offered 
technical assistance and critical feedback to support those efforts.
    If confirmed, I will not only recognize and praise positive 
developments, but also make clear our strong position on issues related 
to the rule of law and corruption. I will persistently engage with 
Cambodian officials and political leaders to stress the vital 
importance of the rule of law and the need to create the political will 
to build and protect it. At the same time, I believe the United States 
needs to continue its robust support for civil society organizations 
that actively monitor and promote the rule of law in Cambodia.
    Various USAID programs support justice sector reform, including a 
project with the Ministry of Justice to improve collection and use of 
justice-system data. USAID supports legal education, which is critical 
for building the next generation of legal professionals who can promote 
rule of law, a key element in democratic transformation. Through a 
robust subgrant program, USAID supports civil-society organizations 
that engage in human rights advocacy and provide legal aid to indigent 
persons.
    The United States $11.8 million contribution to the Khmer Rouge 
Tribunal (pledged and delivered contributions since 2008) is assisting 
the Cambodian people in achieving a measure of justice and 
accountability for the atrocities of the Khmer Rouge era. If confirmed, 
I will continue to call on the Cambodian Government to respect and 
protect the Tribunal's independence with regards to all cases before 
the Court.
    The U.S. Government is also engaging with Cambodia's military and 
law enforcement forces to develop their professionalization and 
accountability, thus advancing their respect for the rule of law. 
Professional and competent security forces will not only be better 
equipped to address transnational threats and domestic criminal 
activities, but also be better prepared to support and sustain 
democratic institutions.
    The United States coordinates closely with other donors supporting 
rule-of-law programs and assesses that many of Cambodia's international 
partners are concerned about rule of law, given its impact on a broad 
spectrum of issues, from the inviolability of contracts for foreign 
investors to human rights for Cambodians and myriad other issues. Many 
countries are actively concerned about the rule of law in Cambodia, 
including Australia, members of the European Union, Japan, Canada, and 
South Korea.

    Question. In what ways does the United States consult and 
coordinate with other major international donors of assistance to 
Cambodia?

    Answer. The United States consults and coordinates with other major 
international donors on a regular basis, through formal and informal 
means, and through the strategy, design, implementation, monitoring, 
and evaluation cycle of assistance programs. Mechanisms include a 
monthly meeting in Phnom Penh attended by heads of development partner 
agencies, consultations at the program design and implementation level, 
consultative workshops with other development partners, and even the 
contributions of resources from other donors to USAID programs.
    Formal coordination between development partners and the Cambodian 
Government occurs at three levels. First, a consortium of 19 technical 
working groups addresses a range of development issues at the working 
level. Second, the ``Government Donor Coordination Council'' serves as 
a higher level forum for coordination and dialogue between the 
Cambodian Government and development partners, with the most recent 
such meeting occurring in April 2011. Third, the Country Development 
Cooperation Forum (CDCF) is the highest level forum for policy dialogue 
among the development partners and the Cambodian Government, is 
typically chaired by the Prime Minister, and includes the participation 
of Ambassadors and heads of development agencies. The most recent CDCF 
was held in June 2010.

    Question. Please identify U.S. ``partners'' in Cambodia, receiving 
U.S. funds, whom have direct or indirect relations with one or more key 
Cambodian official or their family.

    Answer. CDC: The implementing partners for the U.S. Centers for 
Disease Control's (CDC) Global AIDS Program and Influenza Program 
include the Ministry of Health; the National Center for HIV, AIDS, 
Dermatology and Sexually Transmitted Infections; the National 
Tuberculosis Control Program; the National Institute of Public Health; 
the Communicable Disease Control Division; and the World Health 
Organization (WHO). Each of these partners is led by a key Cambodian 
official (for the Cambodian Government agencies) or has direct 
professional ties to such officials (WHO).
    USAID/Cambodia: The Cambodia mission of the U.S. Agency for 
International Development (USAID/Cambodia) works with local and 
international NGO partners to implement programs in democracy, human 
rights, elections and political processes, health, education, 
agriculture, food security and environment. These partners necessarily 
have direct professional relationships with key Cambodian Government 
officials.
    USAID/Cambodia is aware of only one direct partner receiving U.S. 
funds that has a family relationship with a key Cambodian official. The 
Chief of Party of the Sustainable Action Against HIV/AIDS in 
Communities project, implemented by the Khmer HIV/AIDS NGO Alliance, is 
the spouse of an Under Secretary of State with the Ministry of 
Commerce.
    Ambassador's Fund for Cultural Preservation (AFCP): The United 
States is providing AFCP funds to two nongovernmental organization 
(NGO) implementing partners that have direct professional relationships 
with key Cambodian officials at the Ministry of Culture and/or the 
APSARA Authority. The NGOs are the World Monuments Fund (conservation 
work at Phnom Bakheng Temple) and Cambodian Living Arts (documentation 
of three Khmer music traditions). These grants were awarded through a 
standard competitive process that complied with all relevant U.S. laws 
and regulations.
    English Access Microscholarship Program (Access): The following NGO 
implementing partners, which receive Access funding to conduct English-
language education for disadvantaged students, are led by a key 
Cambodian official. Grants to these organizations were awarded through 
a standard competitive process that complied with all relevant U.S. 
laws and regulations.

  <bullet> Cambodian Islamic Youth Association--The director is an 
        Under Secretary of State with the Ministry of Social Affairs, 
        Veterans and Youth Rehabilitation, and the deputy is an Under 
        Secretary of State with the Ministry of Rural Development.
  <bullet> Islamic Local Development Organization--The founder, who is 
        still a member of the group's Board of Directors, is a 
        Secretary of State with the Ministry of Social Affairs, 
        Veterans and Youth Rehabilitation.
  <bullet> Cambodian Islamic Women Development Association--The project 
        director is an Under Secretary of State with the Ministry of 
        Women's Affairs.
  <bullet> Cambodian Muslim Development Foundation--The project 
        director is an Under Secretary of State with the Ministry of 
        Education, Youth, and Sports.

    Other Public Diplomacy Programs: The United States funds American 
Corners at Panasasstra University of Cambodia (PUC) in Phnom Penh and 
the University of Management and Economics in Kampong Cham and 
Battambang, all of which have professional relationships with key 
Cambodian officials, mainly with the Ministry of Education, Youth and 
Sports. Additionally, the President of PUC is a former Minister of 
Education and continues to serve as an advisor to the Cambodian 
Government. The United States also provides support for the annual 
CamTESOL conference, organized by the private company, IDP, which works 
closely with the Ministry of Education on the event.
    NADR: Though Nonproliferation, Antiterrorism, Demining, and Related 
Programs (NADR) funding, the United States provides grants to 
humanitarian demining organizations in Cambodia to remove mines and 
other explosive remnants of war (EWR). In addition to mine and EWR 
clearance activities, U.S. assistance supports technical training and 
public education programs. Implementing partners for these programs 
include DynCorp International, the Mines Advisory Group (MAG), the HALO 
Trust, and Golden West Humanitarian Foundation. These organizations 
necessarily have direct professional relationships with key Cambodian 
officials.
    IMET/FMF: International Military Education and Training (IMET) and 
Foreign Military Financing (FMF) funds are not provided directly to any 
Cambodian partner, but government elements led by key Cambodian 
officials, including the Royal Cambodian Armed Forces and the Ministry 
of National Defense, do benefit from IMET/FMF-funded programs and 
projects. All programs and activities are contracted and disbursed in 
strict accordance with applicable U.S. laws on competitive bidding.

    Question. What are ``best prospects'' for U.S. companies exporting 
to Cambodia in the next 3 to 5 years?

    Answer. While Cambodia has enjoyed considerable economic growth 
over the past decade, it is still among the poorest countries in the 
world. Most Cambodian consumers are extremely price sensitive. While 
products from China, Vietnam, or Thailand tend to dominate the market 
because of their relatively cheaper prices, there are some key areas in 
which American products and services are positioned to increase their 
market share. If confirmed, I will do everything I can to increase U.S. 
exports to Cambodia, including working with the Cambodian Government to 
improve the business and investment climate in Cambodia.

  <bullet> Agribusiness and Food Processing: Roughly 80 percent of 
        Cambodia's population is engaged in the agriculture sector. As 
        a matter of policy, the Cambodian Government encourages 
        investment in agriculture, diversification of agricultural 
        products, and investment in improved irrigation and water 
        control. The agriculture sector currently relies on outdated 
        methods of farming and opportunities exist for American 
        companies to promote higher quality seeds, fertilizers, and 
        other agricultural inputs in Cambodia. Agricultural equipment, 
        irrigation systems, and food processing equipment are other 
        areas with potential for increased U.S. exports.
  <bullet> Construction Equipment and Engineering Services: Cambodia is 
        rehabilitating its hard infrastructure, including its road 
        network, and has experienced a boom in residential and 
        commercial construction over the last few years. Construction 
        equipment and engineering services will be in great demand for 
        the foreseeable future. Public works and transportation are a 
        high priority for the Cambodian Government, which receives 
        support from international donors.
  <bullet> Tourism Infrastructure and Resorts: Political and economic 
        stability has enabled Cambodia's tourist sector to mature 
        steadily over the past few years. Nearly 3 million foreign 
        tourists visited Cambodia in 2011. Main attractions include the 
        historical Angkor Wat temple complex in Siem Reap and the 
        relatively undeveloped beaches along Cambodia's southern coast. 
        Estimated annual earnings from the sector are more than $1.5 
        billion, or about 10 percent of total GDP. Collectively, these 
        conditions present good market opportunities for American 
        companies to develop hotels and resorts and to supply other 
        hospitality-related products or infrastructure.
  <bullet> Education: Demand for private or supplementary education 
        services is high. The majority of Cambodia's population is 
        school age, and the overall quality of public education is very 
        poor. Many Cambodians, particularly in the growing middle class 
        but even for those without much disposable income, are willing 
        to spend money on education for their children to secure better 
        opportunities in life. Commercial opportunities exist for 
        American firms in vocational, specialized, preschool, 
        elementary, secondary, and post-secondary education resources. 
        English-language training is also an increasingly attractive 
        prospect.
  <bullet> Used Cars and Automotive Parts: Cambodia has no public 
        transportation network, and the majority of people travel by 
        motorbike or car. Automobile ownership is rapidly increasing, 
        and the vast majority of cars are imported second-hand 
        vehicles. The United States is currently the largest supplier 
        of used vehicles in Cambodia, with the most popular models 
        being four-wheel drive vehicles and mid-sized Japanese-brand 
        sedans. Additional export opportunities exist in car 
        accessories and spare parts.

    Question. What level of U.S. funding has been dedicated to 
electoral reform in Cambodia over the last 10 years? Do you view this 
priority as being a success or failure on the part of the U.S. given 
concerns about 2013 elections being ``free and fair''?

    Answer. The total value of U.S. Government assistance supporting 
civil society and political parties in elections over the past 10 years 
is $37,589,997. This assistance has promoted programs critical to 
supporting free and fair elections in Cambodia, including political 
party training/development, voter education, youth political 
empowerment, polling, women's caucuses, candidate debates, and civil 
society observation of elections. For over 10 years, the United States 
has not provided assistance to electoral management bodies that 
administer elections or legal/policy reform issues.
    I believe that Cambodia's transition and democratic reform remains 
a work in progress and considerable challenges remain. Most observers 
assessed that Cambodia's 2008 elections took place in an overall 
peaceful atmosphere with an improved process over past elections. 
However, observers noted the elections did not fully meet international 
standards. Restrictions on the transparency of the electoral 
environment include harassment of opposition political parties and 
limited space for political debate. The United States believes that 
Cambodia's commune elections in 2012 and national elections in 2013 
provide opportunities for the Royal Government of Cambodia to 
demonstrate to its people and the world that it is dedicated to 
multiparty democracy and that it can be a durable and healthy 
democracy.
    Looking to the 2012 and 2013 elections, if confirmed, I will 
continue support for the role of civil society and political parties in 
elections. I will also deploy Embassy personnel as election observers 
throughout the country and coordinate our efforts with others in 
Cambodia and with the international community.
                                 ______
                                 

        Responses of Sara Margalit Aviel to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Your biography indicates that you have never worked in 
the World Bank system. How do you think this will impact your ability 
to function as a part of the U.S. leadership? What will your priorities 
be at the World Bank? What new initiatives would you propose to promote 
U.S. priorities at the Bank?

    Answer. My experiences at the Treasury Department, National 
Security Council, National Economic Council, and in private 
international development organizations provide me with a unique 
perspective on policymaking at the highest levels of the U.S. 
Government and on development issues in the poorest communities in the 
world.
    To give just a few examples of my experience:

  <bullet> I have been a part of the important community development 
        projects the World Bank supported in Afghanistan, where CARE 
        served as an implementing partner for the World Bank's landmark 
        National Solidarity Program.
  <bullet> As a Senior Advisor to Secretary Geithner, I participated in 
        and helped manage Secretary Geithner's engagements in six World 
        Bank spring and fall annual meetings.
  <bullet> As a Director of International Economic Affairs at the 
        National Security Council and National Economic Council, I have 
        coordinated with World Bank officials on a range of issues, 
        from cosponsorship of the South Sudan International Engagement 
        Conference to projections of Afghanistan's fiscal gap.

    These experiences have made me well-versed in the range of 
development and policy issues facing the World Bank. If confirmed, I 
will arrive at the Bank as a newcomer to the World Bank system like 
most of my predecessors. However, I can assure you that I will bring 
the relevant experience to the position, as well as the ability to 
approach the institution with a fresh perspective and a critical eye 
rather than being encumbered by the status quo.
    If confirmed, my priority, first and foremost, would be to serve as 
a strong fiduciary steward of American taxpayer resources. The United 
States is the largest shareholder of the institution, and if confirmed, 
it would be my primary responsibility to provide effective oversight.
    Second, my focus would be on execution. The World Bank has already 
agreed to a number of significant reforms as part of the recent capital 
increases and I would work to make sure that these reforms are 
implemented quickly and effectively. These include efforts to:

  <bullet> Strengthen financial discipline;
  <bullet> Improve governance and accountability, including promoting 
        transparency and anticorruption efforts;
  <bullet> Enhance development impact and effectiveness.

    Beyond focusing on a comprehensive and careful implementation of 
these critical reforms, I would work with the Executive Director to 
promote U.S. priorities at the World Bank by:

  <bullet> Encouraging a culture of innovation and learning so that 
        effective approaches can be brought to scale for greater 
        impact;
  <bullet> Conducting outreach to the private sector to highlight 
        procurement and financing opportunities for American companies;
  <bullet> Engaging civil society organizations and other stakeholders 
        to solicit different perspectives on the impact of the World 
        Bank and potential areas for improvement.

    Question. Your testimony at the hearing overall highlighted and 
discussed the stated mission of the World Bank and cast the institution 
in a positive light. Your testimony did not address the issue of much-
needed reform in the Bank system. I have been conducting investigations 
and holding hearings for 10 years now on serious corruption and lack of 
transparency at the Bank. After onsite visits by my staff, I put 
forward a report detailing findings and suggesting corrective measures 
going forward. Have you reviewed this report and evaluated the 
suggested reforms? What measures, in addition to those I suggest, would 
you propose to promote transparency and anticorruption? What can the 
Treasury Department do to focus more on reform?

    Answer. I have carefully reviewed your report and support its 
approach. Indeed, I believe my testimony was very much aligned with the 
general conclusions in the report--namely that ``the IFIs still serve 
U.S. policy interests and leverage American taxpayer dollars'' but that 
we must work to improve their accountability, transparency, and 
effectiveness.
    After reading the report, I actively consulted with colleagues at 
the Treasury Department and in the office of the U.S. Executive 
Director about its contents and recommendations. I was pleased to hear 
that the report significantly helped guide their negotiations regarding 
the general capital increases, replenishments, and the corresponding 
reforms. For instance, the International Bank for Reconstruction and 
Development (IBRD) and the International Finance Corporation (IFC) have 
both agreed to increased transfers of their net income to the 
International Development Association (IDA) during the IDA-16 
replenishment period--a key recommendation in your report. Furthermore, 
in the context of the IBRD's general capital increase, shareholders 
agreed to greater formalization of these transfers going forward. The 
United States also successfully pushed to increase IFC's lending in IDA 
countries, as you had recommended.
    Also consistent with the recommendation of your report, the United 
States, other key shareholders, and the management of the MDBs have all 
placed a special emphasis on harmonizing results in recent years. Much 
of the agenda has been centered on results measurement systems, such as 
that of the International Development Association (IDA). For example, 
in the latest replenishment round for IDA completed in May, 2010 
(IDA16), reforms to results monitoring and measurement at the country, 
program and project levels have helped set a model for other 
development partners. I understand that in each of the recent 
concessional window replenishments (IDA, the Asian Development Fund, 
and the African Development Fund), the United States has pressed for 
greater efforts toward harmonization of results frameworks across the 
institutions and that the MDBs are responding favorably and actively 
engaging with each other on this important objective. If confirmed, I 
look forward to engaging with World Bank management on this agenda as I 
believe it is central to promoting greater accountability.
    Your report also appropriately emphasizes the anticorruption and 
transparency agenda. The World Bank has some notable recent successes 
to point to, such as the landmark Cross Debarment Agreement that 
brought the World Bank and regional development banks together in 
linking their actions in response to incidences of corruption in 
procurement. Another notable success is the Bank's new access to 
information policy, which sets an appropriate new norm of transparency, 
with a presumption that all documents are released and a very narrow 
exception for sensitive materials.
    However, given the amount of money disbursed from the Bank, and the 
often challenging environments in which the Bank operates, guarding 
against corruption requires constant vigilance. Therefore, if 
confirmed, I look forward to working closely with the Treasury 
Department and this committee in advancing a robust agenda on 
transparency and anticorruption at the World Bank. This includes 
supporting a strong Integrity Vice-Presidency with sufficient resources 
to carry out its investigations, pressing for better data collection 
and reporting on procurement awards under Bank-financed projects, and 
greater use of independent, third-party organizations to verify the 
results of Bank projects, where appropriate (such as in the Bank's new 
Program-for-Results instrument). The World Bank and the Treasury 
Department should also continue using their leverage to promote greater 
transparency and anticorruption policies across borrowing country 
governments by working with them to strengthen their public financial 
management systems, publish their budgets, investigate and prosecute 
wrongdoing, and where applicable, incorporate the principles of the 
Extractive Industries Transparency Initiative.

    Question. One of the goals of the World Bank system should be to 
``put itself out of business.'' There should be more focus on enabling 
governments to generate their own revenue and access to capital 
markets. What sorts of guidelines would you propose for moving 
countries from being borrowers to becoming donors, particularly the 
middle-income countries?

    Answer. I agree that the World Bank Group should aim to reduce the 
need for its involvement by supporting poverty reduction around the 
world including by working with governments to generate their own 
revenue for this purpose. The World Bank system has succeeded in 
meeting this goal in many countries throughout its history. Since the 
founding of the World Bank in 1944, thirty-three countries have 
graduated from IBRD borrowing. The list of IBRD graduates highlights 
the success of the World Bank in supporting the postwar reconstruction 
of Europe (e.g., France, which graduated in 1947); fostering the rapid 
post-war development of East Asia (e.g., Japan, 1967; Taiwan 1971; 
Singapore, 1975; and South Korea, 1995); and facilitating Eastern 
Europe's transition to capitalism (e.g., Czech Republic, 2005 and 
Hungary, 2007). Since its founding in 1960, IDA has seen 35 countries 
graduate from its assistance including: Botswana, China, Costa Rica, 
Jordan, and Turkey.
    While graduation rates are roughly the same from IDA and IBRD, it 
is also the case that the guidelines for graduation from IDA--per 
capita income above an established threshold ($1,175 in FY 2012) and/or 
creditworthiness to borrow on market terms--are clearer and more 
binding. On balance, I understand the IDA graduation model works 
reasonably well. As to IBRD, I believe there are advantages to defining 
a clearer graduation policy and principles for Bank engagement in 
middle-income countries.
    While I do think it is important to encourage graduation, the 
United States does have an interest in continued IBRD engagement in 
many middle-income countries. Middle-income countries, such as Brazil 
and China, have made tremendous strides in development in recent 
decades. However, they still account for just under half of the world's 
population and are home to two-thirds of people across the globe living 
on less than $2 per day. So the World Bank still plays a valuable role 
in supporting these countries' efforts to eradicate poverty. World Bank 
lending also advances other U.S. policy interests in these countries 
including environmental sustainability, sound fiscal management, and 
orienting their economies toward greater domestic consumption, which 
generates export markets for our firms and contributes to larger global 
rebalancing efforts. The high standards for environmental and social 
safeguards and procurement policies that the World Bank requires serves 
as a model that we would like to see adopted more broadly in these 
countries. Moreover, although middle-income countries can often borrow 
on international capital markets at favorable rates, they value the 
World Bank's unique expertise in long-term development interventions.
    Further, even as many of these countries make considerable economic 
strides globally, they often remain vulnerable to economic shocks, 
which can force them to turn to the World Bank to cushion the blow on 
their most vulnerable citizens. For example, South Korea, a country 
that had formally graduated from IBRD assistance nearly 20 years ago, 
and by virtually any measure, is a success story today, nonetheless was 
forced to return to the Bank for assistance during the Asian Financial 
Crisis in the late 1990s.
    The World Bank and the United States have been successful in 
encouraging greater participation of emerging market donors, and if 
confirmed, I would continue to press this case. In the last 
replenishment of IDA, for example, several middle-income countries such 
as China, Brazil, Russia, and Mexico made pledges. To date, traditional 
donor contributions from these countries have been very modest. At the 
same time, through the IBRD and IFC net-income transfers, as well as 
measures such as ``prepayment'' of outstanding IDA loans by countries 
like China, middle-income countries played a strong, if indirect, role 
in driving the overall increase in the IDA 16 replenishment.
    That said, I think these countries should do more in exchange for 
the benefits they receive from World Bank assistance. The United States 
has long been at odds with many of the middle-income countries on the 
issue of loan pricing. If confirmed, I will continue to press for loan 
pricing that meets the broader needs of the Bank, both in terms of 
protecting the Bank's capital base but also in making important goals 
like IDA transfers possible. I also think it is worth exploring the 
recommendation in your report to consider charging for advisory 
services.
    If confirmed, I would consult actively with Congress and other 
stakeholders about the appropriate role for the World Bank in middle-
income countries.

    Question. The global financial crisis has impacted the world's 
poorest regions most severely. The response of the Bank was to seek 
greater resources from donor countries, which have also been affected 
drastically by the crisis. Could the international financial 
institutions have done anything to mitigate the effects of the crisis? 
What sorts of studies or reviews would you conduct to make sure that 
lessons learned from the crisis of the last few years are used to 
better prepare the institutions for any such future occurrences?

    Answer. The global economic crisis that began in 2008 threatened to 
erase years of progress in developing countries. In response to the 
crisis and calls from the G20, the World Bank Group (World Bank, 
International Finance Corporation, Multilateral Investment Guarantee 
Agency) increased lending to unprecedented levels. Since 2008, the 
World Bank Group has committed $196.3 billion to developing countries, 
including record commitments in education, health, nutrition, 
population, and infrastructure, providing much-needed investments in 
crisis-hit economies. These investments also helped restore liquidity 
to trade flows, which helped cushion the blow for American exporters as 
well.
    I strongly support the Bank's robust response to the crisis and I 
believe the Bank delivered consistent with its resource constraints--
both in terms of timeliness of its response and the quality of its 
interventions. I continue to believe the Bank played a critical role in 
mitigating the extent of the crisis, and that the impact would have 
been far worse in many countries without the Bank's interventions.
    That said, the Bank should and is taking a hard look at its crisis 
response efforts to determine where new approaches or instruments might 
make sense. In this context, the Bank's Independent Evaluation Group 
(IEG) recently completed an extensive review of the Bank's response to 
the crisis. The review found that the Bank's lending provided an 
important source of stimulus in many countries at a time when many 
feared the onset of a global depression. However, the review also found 
that the Bank's lending was not always adequately targeted or quickly 
disbursing, reducing its overall effectiveness. The GAO also recently 
completed its own review of the Bank (and other international financial 
institutions) lending during the crisis that drew similar conclusions.
    Recognizing the challenges to intervening effectively during a 
crisis and as an IDA 16 outcome, the Bank established an IDA crisis 
response window (CRW), which should enable IDA to respond more quickly 
to economic shocks and natural disasters. If confirmed, I would be 
eager to assess the experience with the CRW to determine if it is a 
model worth committing to on a permanent basis.

    Question. The U.S Government just approved the general capital 
increase for the banks. The GCI was conditioned upon certain reforms. 
How will you ensure that substantial efforts are devoted to achieving 
these reforms? Specifically, how can the Bank better implement 
guidelines to maximize international competitive bidding in accordance 
sound procurement practices? How can the Bank better ensure protection 
for whistleblowers? Will you press the Bank to make available internal 
and external performance and financial audits?

    Answer. Implementation of the reforms specified in the World Bank 
general capital increase legislation is a high priority for the 
administration, the Department of the Treasury, and for me personally. 
If confirmed, I will work closely with the U.S. Executive Director, 
other World Bank Executive Directors, and with Bank management to 
achieve these reforms. I will work to make sure that progress is 
carefully monitored and tracked under the operating framework that 
Treasury lays out in its reporting. If progress falls short, I will 
work diligently to press our case with the World Bank and elevate our 
concerns within the administration as necessary.
    Creating a level playing field, promulgating sound procurement 
practices, and maximizing competition is an important part of the World 
Bank's approach both for its own sake and because it helps model the 
kind of practices countries need to adopt in order to create sound 
investment climates and open, growing economies. The World Bank's 
Procurement Guidelines and standard documents have been recognized as 
international best practice by organizations representing the private 
sector. The World Bank's Procurement Guidelines support transparency, 
competition, and cost-effective results by requiring measures such as:

  <bullet> Strong international advertising requirements;
  <bullet> Open competition in the contracting process;
  <bullet> Publicly available standard bidding documents for 
        international competitive bidding.

    In January 2011, the World Bank Board approved modifications to its 
guidelines designed to further enhance the transparency and efficiency 
of the procurement process under World Bank-financed investment 
projects. This included, for example, requirements for strengthened 
advertising of project bid opportunities and for posting of project 
procurement plans. I understand the World Bank will soon be launching a 
review of its procurement policy. If confirmed, I will consult closely 
with relevant stakeholders including Congress and organizations 
representing the private sector to identify potential areas of 
improvement. I will work closely with the U.S. Executive Director, 
other Executive Directors, the Treasury Department, and World Bank 
management to incorporate these suggestions and further strengthen the 
World Bank's already strong procurement policies.
    With respect to whistleblowers, I believe that a strong 
whistleblower protection policy is essential so that employees feel 
safe reporting any waste, fraud, or corruption they encounter. In 
partnership with Congress, the United States has been a consistent 
advocate of strong whistleblower protections at the Bank. As a result, 
the World Bank has made substantial progress in adopting and 
implementing policies in the area of a whistleblower protection that 
substantially embody the best practices applicable to international 
organizations including:

  <bullet> Requirements to report suspected misconduct;
  <bullet> Protections against retaliation including provisions for 
        discipline of any employee who engages in retaliation;
  <bullet> Legal burdens of proof on management, so that if an employee 
        can show that he or she was subject to adverse action after 
        reporting wrongdoing at a Bank, management must show by clear 
        and convincing evidence that it would have taken the same 
        action absent the reporting of wrongdoing;
  <bullet> Access to independent Administrative Tribunals;
  <bullet> A presumption of reinstatement for dismissed employees;
  <bullet> Provisions for remedies, such as compensatory damages, for 
        financial losses linked to retaliatory action, legal costs, and 
        interim relief for whistleblowers in the midst of a review or 
        investigation.

    If confirmed, I would be committed to maintaining these strong 
whistleblower protection policies and strengthening them if needed. I 
understand the Treasury Department is currently working with the Bank 
to see if it can provide relevant data to show how its policy is being 
implemented. If confirmed, I would use this information, along with 
information gleaned from consultations with employees, Congress, and 
other stakeholders, to determine if additional measures are necessary.
    Finally, the World Bank now makes available its internal and 
external performance and financial audits. In 2009, the Bank revised 
and improved its Access to Information Policy, which governs issues 
related to the availability of external and internal performance 
audits. Previously the Bank had only released certain documents, but 
the new policy makes transparency the norm. Documents are presumed to 
be released other than in exceptional circumstances, and there is a 
new, formal, independent appeals process where members of the public 
can seek disclosure if they believe it was wrongfully denied. The World 
Bank now makes publicly available a wide range of critical documents 
including:

  <bullet> The annual assessment of the Results and Performance of the 
        World Bank Group;
  <bullet> A yearly update of the Status of Projects in Execution, 
        which assesses each project's progress;
  <bullet> All internal and external performance and financial audits.

    In addition, under the new disclosure policy, borrowers are 
required to disclose the audited annual financial statements of 
projects as a precondition for doing business with the Bank. The World 
Bank discloses the statements upon receiving them.
    Strong standards for transparency, protection of whistleblowers, 
and procurement processes are all an essential part of making the World 
Bank a more accountable organization. If confirmed, I will work to 
protect these strong standards and look for additional ways to make the 
World Bank more accountable.

    Question. The Board of Directors recently approved the ``Program 
for Results'' or P4R. This program has met with mixed reviews from 
civil society. How will you ensure that this program is implemented 
effectively and transparently? How will you monitor for the inclusion 
of programs with adverse environmental impacts or adverse impacts on 
indigenous people? Will P4R work in conjunction with a country's own 
system of transparency? Are there any downsides to this? How can the 
Bank make the principles of Integrity Vice Presidency an integral part 
of all operations in all units of the Bank?

    Answer. The concept of P4R--formally linking World Bank 
disbursements to the achievement of development results that are 
tangible, transparent, and verifiable--has merits, but I also 
understand and share some of the concerns raised by civil society. 
Therefore, I strongly support World Bank management's decision to roll 
out P4R slowly and with the incorporation of appropriate limits, 
evaluations, and oversight.
    Specifically, I support the limit of commitments under P4R in the 
first 2 years of the program. The limit of 5 percent of annual IDA/IBRD 
commitments--which still equates to approximately $2 billion annually--
is sufficient to allow the World Bank and its shareholders to test the 
implementation of the instrument and identify and correct any problems 
that arise. Any expansion of the program would have to be brought 
before the Board.
    Countries that participate in the P4R program must first meet 
certain social and environmental standards. Civil society groups are 
understandably concerned these standards will not be as strong as the 
World Bank's environmental and social safeguards--safeguards they have 
worked hard to advance at the World Bank and that, if confirmed, I will 
work to uphold and strengthen. However, the P4R program has the 
potential to provide an incentive for countries to lift their standards 
across their entire government as opposed to just projects where the 
World Bank is involved, and this could have a significant impact on 
advancing environmental and social issues.
    I also agree that the exclusion of Category A activities--those 
deemed likely to have a significant environmental impact--from P4R 
financing is appropriate and welcome the World Bank's unequivocal, 
public statements in this regard. The significant risks that such 
activities present are best handled through Investment Lending 
operations and under the World Bank's well-established social and 
environmental safeguard policies.
    If confirmed, I look forward to engaging closely with the World 
Bank as the initial P4R operations are brought to the Board. 
Specifically, I will work with the U.S. Executive Director and World 
Bank management to be particularly attentive to the potential for any 
adverse impacts of P4R activities on the environment, Indigenous 
Peoples and other vulnerable groups. In these circumstances, I would 
seek to make sure the World Bank mitigates potential risks adequately 
or determines not to move forward with the P4R investment.
    I believe that transparency and accountability are key to the 
success of P4R, and all the work the World Bank is engaged in. If 
confirmed, I will work with the Bank to provide affected communities, 
the private sector, and other stakeholders the ability to review and 
provide input on the individual program risk assessments, proposed 
capacity-building measures, and proposed activities. Upon the project's 
completion, these stakeholders should also be informed of the results 
at the activity level.
    The World Bank's Integrity Vice Presidency's (INT) mandate covers 
the entire World Bank Group and is an essential accountability 
mechanism of the World Bank. I strongly support the work of the INT and 
welcome its continued oversight of World Bank lending under P4R. I also 
strongly support the efforts of the United States to incorporate 
language into P4R's operational policy stating that INT would have the 
right to investigate allegations of fraud and corruption in the program 
supported by P4R, including projects financed under the program, not 
only those allegations related to Bank financing (i.e., the use of 
government funds would be included as well). If confirmed, I will work 
in coordination with the Treasury Department to see that this policy is 
carefully followed.

    Question. In these tough economic times, governments and 
institutions generally must be able to accomplish more with the same 
resources. What sort of efficiency or cost saving measures would you 
recommend to the Bank? What specifically would you suggest for 
effective budget discipline in order to ensure that the largest 
percentages possible of the Bank's resources are actually going to 
fight poverty?

    Answer. Budget discipline and efficiency at the World Bank are high 
priorities for the U.S. Government and if confirmed, they would be high 
priorities for me as well. The United States has supported a flat real 
budget for the past 7 years. I believe the Bank should pursue cost 
saving wherever possible. I understand that the United States has 
consistently pressed for more restraint on issues of compensation, 
travel budgets, and general overhead at Bank Headquarters, and if 
confirmed, I fully intend to carry forward these positions.
    In addition to pushing for specific cost measures, I am very 
supportive of the recent structural changes that will enable greater 
efficiencies in the future. In 2010, the World Bank adopted a new 
financial framework that strengthens budget discipline. Specifically, 
for the first time in 2011, the World Bank made major financial 
decisions on budget, pricing, and net income transfers at one time 
(i.e., in June, which is the end of the Bank's fiscal year), compelling 
management and shareholders to consider important budgetary tradeoffs. 
For example, if middle-income countries have an interest in an expanded 
Bank budget for their country, they should be prepared to make that 
case in the context of a discussion that also addresses the role loan 
pricing plays in supporting the budget. This is a significant 
improvement over previous practice, which was to consider these matters 
separately. In addition, the World Bank did, in fact, increase rates on 
loans with longer term maturities. As a result, loan prices now cover a 
larger share of the World Bank's administrative budget, a practice that 
will strengthen the Bank's accountability.
    In 2010, World Bank shareholders also agreed to a rules-based 
approach to net-income transfers from the hard-loan window (the 
International Bank for Reconstruction and Development, or IBRD), to the 
concessional window (the International Development Association, or 
IDA), a measure that will help make support to IDA more predictable and 
sustainable while maintaining prudent reserve levels. IFC's financial 
framework also includes a new rules-based approach to help guide the 
determination of the size of IFC's pledge to the IDA replenishment in a 
manner consistent with IFC's needs and donors' prioritization of IDA 
transfers. These agreements further strengthen IDA's financial model 
and reduce its dependence on donor contributions.
    Although not seemingly directly related to budget discipline, I 
believe the concerted focus on results will yield significant 
efficiencies over time. If confirmed, I would push to include a cost-
benefit analysis in project evaluations so that we can focus resources 
where we get the biggest social return on our investment and eliminate 
approaches that do not work. As you rightly state in your report, 
funding project evaluations is much more cost effective than continuing 
to fund ineffective projects.
    If confirmed, I expect I will find additional cost-savings measures 
once I am working within the institution. I take my responsibility to 
serve as a careful steward of taxpayer resources very seriously and 
will work hard to enforce budget discipline at the World Bank.

    Question. U.S. leadership at the Bank is required to some degree to 
share its positions and voting with the U.S. Congress. Will you commit 
to transparency with Congress in the votes taken at the international 
financial institutions? What will be your manner and timeframe for 
consulting with the U.S. Congress? Will you commit to providing the 
Senate Foreign Relations Committee with outdated legislative mandates?

    Answer. I know that the Treasury Department is committed to 
transparency with Congress and the public, and specifically posts the 
votes taken at international financial institutions on its Web site. I 
also personally commit to transparency with regards to votes, 
legislative mandates, and any other issues of concern to Congress.
    If confirmed, I look forward to working closely with Congress. I 
believe congressional oversight is critical, and as I said in my 
testimony, I have seen firsthand how congressional involvement can 
provide leverage to U.S. negotiators. I will work with the Treasury 
Department to proactively consult with Congress in a timely manner on 
significant issues facing the World Bank and I will seek ways we can 
partner together to advance our shared goals at the institutions. In 
addition, I will of course be responsive to congressional requests for 
my input.
    I take legislative mandates very seriously and if confirmed commit 
to applying them fully and faithfully. I also commit to providing input 
to the Senate Foreign Relations Committee with regards to the impact of 
the legislative mandates on U.S. leadership at the World Bank.

    Question. Debt relief is provided to countries that claim they 
cannot afford to pay back the borrowed sums without extreme hardship. 
It should not be taken advantage of by corrupt governments attempting 
to escape repayment of sums due. How will you ensure that the debt 
relief procedure is not abused? What frameworks currently exist within 
the Bank to prevent this?

    Answer. The international community came together to support debt 
relief as a way of freeing up resources to enable poor and heavily 
indebted countries to focus on poverty reduction. In order to make sure 
that it is not taken advantage of by corrupt governments trying to 
escape their obligations, the World Bank and IMF have established a 
robust process with critical safeguards under what is called the 
Heavily Indebted Poor Countries Initiative (HIPC).
    Specifically, in order for a country to receive full and 
irrevocable reduction in debt from the World Bank, a country must:
          1. Establish a track record of good performance under 
        programs supported by loans from the IMF and the World Bank;
          2. Implement satisfactorily key economic and social reforms, 
        and
          3. Adopt and implement a poverty reduction strategy paper.
    The Board provides key oversight at every stage in this process. 
Before a country receives any debt relief, the Board must agree that 
the country has established a solid track record of performance on IMF 
and World Bank programs, committed to key economic and social reforms, 
and put in place a poverty reduction strategy. Before full and 
irrevocable debt relief is provided, the Board must agree that the 
country remains on track with IMF and World Bank programs and that the 
country implemented the agreed economic and social reforms aimed at 
poverty reduction.
    If confirmed, I would work closely with the U.S. Executive 
Director, the other Executive Directors, and the World Bank management 
to provide careful oversight of this process and encourage putting in 
place a strong set of reforms for countries to meet. For example, I 
understand that the principles of the Extractive Industries 
Transparency Initiative are sometimes incorporated as part of these 
reforms and I would strongly advocate this continue for resource rich 
countries undergoing this process.
    These rigorous measures advance sound public financial management 
and the use of proceeds of debt relief for poverty reduction purposes. 
Before the HIPC Initiative, eligible countries were, on average, 
spending slightly more on debt service than on health and education 
combined. Now, they have increased markedly their expenditures on 
health, education, and other social services. On average, such spending 
is about five times the amount of debt-service payments.

    Question. Some of the inefficiencies in the international financial 
institutions could be solved if the various institutions worked more 
effectively with each other. How would you encourage the banks to 
collaborate and cross-utilize resources with each other and with the 
IMF?

    Answer. I strongly agree that better coordination between 
international financial institutions would strengthen their 
effectiveness, save costs, and lead to better outcomes for their client 
countries.
    There is already coordination on some issues--for instance, the 
World Bank has a policy that requires coordination with the IMF prior 
to the provision of budget support loans and the Bank and Fund work 
closely on public financial management reform.
    IDA 16's Crisis Response Window is a good example of an opportunity 
that Treasury used to strengthen coordination between the World Bank 
and IMF. As a result of leadership from the United States, the Bank 
agreed to clear standards for cooperation with the Fund in any use of 
the crisis window. If confirmed, I will look to uses of the CRW for 
signs of positive cooperation or evidence of problems that need to be 
addressed.
    Nonetheless, coordination could be strengthened in a number of 
ways. First, if confirmed, I would work with Treasury and the Executive 
Director to press the Bank to strengthen its coordination with other 
IFIs--and other development partners--at the country level. The Bank 
strongly endorses the principles of aid effectiveness and has worked in 
recent years to improve its dialogue with other donors. However, there 
is room for improvement, particularly in fragile and conflict-affected 
states that have little or no institutional capacity to work with 
donors to harmonize their assistance. In these cases, the Bank needs to 
be particularly careful to stick to its areas of comparative advantage, 
undertake joint diagnostic and analytical work, and seek to minimize 
administrative burdens on fragile states by pooling funding with other 
donors.
    The United States has successfully encouraged closer collaboration 
between IFIs in Arab Spring countries including Tunisia, Egypt, and 
Libya. This coordination has been useful for strengthening programs, 
including governance reform efforts across the IMF, World Bank Group, 
and African Development Bank. If confirmed, I would press for this 
coordination to continue over the long term as supporting successful 
transitions require sustained efforts.
    If confirmed, I would also work to enhance cooperation between the 
IFIs at the corporate level. Again, there has been progress in recent 
years--strong coordination between the IFC and the private sector 
lending arms of the other MDBs on trade finance facilities during the 
height of the global financial crisis--but also room for further 
improvement. For example, if confirmed, I would urge the Bank to assist 
other MDBs in fully and quickly operationalizing the April 2010 cross-
debarment agreement, which would bar firms and individuals found guilty 
of wrongdoing at one institution from working with any of the 
institutions. The cross-debarment agreement itself was a powerful 
example of the IFIs sending a unified message that there is zero 
tolerance for corruption and fraud. If confirmed, I would encourage the 
World Bank to build on this agreement and work with the other IFIs to 
further advance a common anticorruption and accountability agenda.
    As mentioned in your report, the World Bank is often expected to 
set the standard of practice across the MDBs. If confirmed, I would 
encourage the Bank to consult closely with the other MDBs during its 
upcoming reviews of procurement policy and environmental and social 
safeguards, so that the MDBs feel invested in the World Bank process 
and can incorporate the lessons from those reviews in their own review 
processes.
    If confirmed, I would continue to look for other ways to encourage 
coordination and collaboration across all of the international 
financial institutions.

    Question. It is inevitable that the Bank will have projects in 
conflict zones. For some countries, the World Bank has set forth 
various conflict guidelines. Would you advise the Bank to 
institutionalize such conflict guidelines and if so, how should they be 
categorized? What about Iraq and Afghanistan specifically?

    Answer. I agree that the Bank needs to have a strong and coherent 
strategy with regard to fragile and conflict-affected states. There are 
risks to the Bank working in these countries, but the potential reward 
of helping these countries stabilize and move away from conflict and 
violence is significant.
    Therefore, I am pleased that the Bank's engagement with fragile and 
conflicted-affected states (FCS) is a priority for the institution. The 
selection of FCS as a special theme for the IDA-16 replenishment, the 
Bank's World Development Report 2011 on Conflict, Security and 
Development, and the Bank's recent establishment of a Global Center on 
Conflict, Justice and Development in Nairobi all underscore the Bank's 
commitment in this area.
    As part of operationalizing the lessons from the WDR 2011, the Bank 
will adopt a different approach to the development of Country 
Assistance Strategies (CAS) in FCS. Consistent with the lessons that 
the Bank has learned in conflicted-affected states across the world, 
like the use of its conflict filter in Sri Lanka, CASs for these 
countries will identify the stresses that lead to conflict and 
violence, assess deficits in key national institutions, and identify 
key transitional opportunities that have the potential for breaking 
cycles of violence. This is an important way of systematically 
factoring the role of conflict into the World Bank's programming, as 
was recommended in your report. Afghanistan and Iraq are both 
appropriately included in the Bank's list of fragile countries and thus 
would be subject to this approach. Given the multifaceted nature of the 
conflicts in both countries, I would expect the analysis to be 
particularly robust.
    Having worked in a number of fragile and conflict-affected states, 
including Afghanistan, Iraq, Kosovo, and Uganda, I know how critical 
this is. Simple misunderstandings can escalate quickly, but small 
positive gestures can also start to rebuild trust. Institutionalizing 
conflict guidelines will help guide the Bank in everything from project 
design to staffing and will help the Bank become a more effective actor 
in some of the world's most difficult countries.

    Question. Some country governments are required to seek 
parliamentary approval of Bank loans and grants. There have been 
indications that this may aid in the fight against corruption and 
promote transparency. Do you think that parliamentary approval is a 
policy that the United States should promote?

    Answer. I certainly believe that the World Bank should take an 
expansive view of its stakeholders when it comes to consultation and 
engagement in its countries of operation. As a matter of 
accountability, the Bank should be engaged with parliaments, as well as 
members of civil society and the private sector in these countries. 
This is why I believe mechanisms like the inspection panel play such a 
critical role in promoting accountability, separate from the 
accountability the Bank requires from its direct counterparties, 
typically in the finance ministry.
    As you suggest, in some cases, a country's laws and practices 
define a formal role for parliament in the approval of Bank loans and 
projects. In these cases, the Bank has a strong interest in supporting 
this process by being responsive to parliamentary inquiries and 
generally helping to facilitate parliament's consideration of projects. 
If confirmed, where I see signs that Bank management is not playing a 
constructive role in these situations, I will be aggressive in holding 
them to account.
    At the same time, my understanding is that the Bank is limited in 
its ability to define the role that parliament should play. The Bank's 
Articles of Agreement require a neutral stance on issues related to the 
political systems of its countries of operation. My understanding is 
that it would be a direct challenge to this requirement for Bank 
management, or the United States as a shareholder, to take an active 
stance on a separation of powers issued within a country. As a result, 
I think the more promising route is to continue to press Bank 
management to broadly define informal engagement so that all interested 
and affected parties in a country are engaged in the Bank's important 
work. If confirmed, I am certainly committed to holding the Bank to 
account on this issue.

    Question. Do you think there is sufficient coordination between the 
banks and U.S. Government development agencies such as AID and MCC? As 
a part of the U.S. leadership team for the Bank, how would you engage 
to promote better coordination?

    Answer. I believe that coordination between the banks and U.S. 
Government development agencies is critical for a variety of reasons 
including preventing duplication of efforts, sharing lessons learned 
and best practices, and maximizing the effectiveness of donor 
resources. Coordination is important both in Washington, DC, and in 
each of the countries where these institutions work. There is a 
significant amount of coordination between the banks and U.S. 
Government development agencies on an ongoing basis, including:

  <bullet> A multilateral interagency working group that meets 
        regularly to review issues of concern at the development banks;
  <bullet> Country-level donor coordination mechanisms;
  <bullet> A variety of working groups and meetings that are organized 
        around specific topics, such as food security and the Arab 
        Spring.

    A more specific example of how the MDBs work closely to support our 
U.S. development agencies is the U.S. Partnership for Growth (PfG) 
program. Under the PfG program, the Obama administration pledged to 
elevate its relationship with four developing economies that were 
exceptionally well posed to do their part to grow their economies, 
including El Salvador, Ghana, the Philippines, and Tanzania. In a new 
approach to U.S. engagement with these countries, bilateral agencies 
worked closely with the MDBs to identify the most important constraints 
to growth, and to develop coordinated strategies for tackling these 
constraints.
    The World Bank also works closely with U.S. bilateral aid agencies 
in many countries. Often the World Bank develops the overall project 
design and coordinates with other donors who invest in subcomponents of 
the master plan. Specific examples include:

  <bullet> The proposed $354.8 million Millennium Challenge 
        Corporation's (MCC) compact for Zambia, which will be 
        considered by the MCC Board on March 22, 2012. The project will 
        help develop water supply, sanitation, and drainage systems in 
        Zambia. The MCC worked closely with the World Bank, which 
        helped the Zambian Government develop the sector policy and 
        institutional reform groundwork. Each component of the MCC 
        project was developed according to a comprehensive investment 
        master plan developed with the assistance of the World Bank.
  <bullet> The MCC $434 million compact for the Philippines approved in 
        August 2010. A key component of the compact was rural community 
        development, including provision of infrastructure and 
        services, such as rural roads, schools, and water and 
        sanitation. The MCC project builds upon the participatory 
        planning, implementation, and evaluation methodology developed 
        by the World Bank and the Philippine Government.

    A good example of cooperation between the Bank and USAID is evident 
in their joint work in support of food security and agricultural 
development in sub-Saharan Africa. Over the last 3 years, USAID and the 
Bank have collaborated to support a number of African countries in 
implementing food security strategies under the Comprehensive African 
Agricultural Development Program (CAADP). Specific examples of 
collaboration between USAID and the Bank include complementary support 
for agriculture development and social safety nets programs in 
Ethiopia, agricultural infrastructure in Ghana, and agricultural 
productivity programs in Rwanda.
    In addition to these specific examples, the USED's office, in and 
of itself, serves as a coordination hub, helping to connect not only 
employees from across the U.S. Government, but also representatives 
from the private sector and civil society with World Bank officials. In 
support of this effort, the U.S. Executive Director has built a strong 
interagency team that includes representatives from the State 
Department, Commerce Department, USAID, and Treasury Department.
    Even though there is a significant amount of coordination, I would 
expect that there is always room for improvement. I believe the strong 
relationships I have throughout the interagency will enable me, if 
confirmed, to meaningfully engage to promote better coordination. 
Additionally, if confirmed, I will actively support coordination 
efforts through formal mechanisms, as well as by regularly sharing 
information, seeking input, and continuing to build strong 
relationships with interagency colleagues.

    Question. As current President Robert Zoellick indicated he is 
stepping down, debate has yet again arisen as to whether non-Americans 
should be considered for the presidency. What is your opinion on this? 
If there were a non-American in the presidency, what issues does this 
raise for the U.S.?

    Answer. I believe that the World Bank has benefited tremendously 
from American leadership over the past several decades. President 
Zoellick has been a very impactful leader of the World Bank, helping to 
advance critical reforms to make the institution more accountable, 
transparent, and effective. The administration has stated that for all 
of the international financial institutions it supports an open and 
transparent and merit-based process. The United States will put forward 
a candidate to lead the World Bank, and I look forward to supporting 
that individual's candidacy.

    Question. Currently, there is great focus on the size and scope of 
the Bank projects in countries deemed significant and far less 
evaluation focused on results. Leadership approval is given at the 
design stage, but final conclusive results are not presented similarly. 
How can we shift greater emphasis to results and therefore greater 
accountability?

    Answer. It is critical to have a concerted emphasis on impact and 
results in order to counteract the natural tendency of organizations to 
focus on dollars spent as a measure of success. In my professional 
life, I have succeeded in bringing a greater focus on development 
results through rigorous monitoring and evaluation of projects around 
the world. I look forward, if confirmed, to leveraging my experience 
and passion to advance this issue at the World Bank.
    A greater focus on results composed a major part of the reforms 
that Treasury negotiated as part of the replenishment of IDA. 
Accordingly, the World Bank has made a commitment to include results 
frameworks with measurable indicators in all projects, all country 
assistance strategies, and all new sector strategies. Moreover, the 
World Bank committed to report on development results across the 
institution using indicators that aggregate standardized data from 
projects supported by IDA in seven sectors--education, health, roads, 
water supply, micro and small and medium enterprise, urban development, 
and information and communication technology. These indicators will be 
featured in the IDA Annual Report, as well as reported more regularly 
through the Corporate Scorecard.
    If confirmed, I will work to further advance this results agenda 
wherever possible. I understand that some evaluations are presented to 
the Board and I would encourage this practice more regularly. The 
design stage of a project is not only the point at which members of the 
Board may have the greatest leverage, but it is also where the focus on 
results needs to begin. When reviewing projects, if confirmed, I would 
seek to ensure that results frameworks and monitoring and evaluation 
mechanisms are incorporated into the design of a project. I understand 
that the World Bank will soon be undertaking a process to reform its 
human resource policies. Part of this will include strengthening 
performance evaluation processes and aligning pay with performance. As 
was recommended in your report, if confirmed, I would work to advance 
reforms that would reward employees for the results they achieve not 
the amounts of money they disburse or oversee. Moreover, reforms should 
incentivize the achievement of results in challenging environments such 
as fragile and conflict-affected countries even if the scale of the 
results achieved may be less than what is possible in a large, stable 
middle-income country.
    I have a deep commitment to promoting greater accountability and, 
if confirmed, I would work to find additional opportunities to advance 
a results-driven approach at the Bank.


 NOMINATIONS OF PAMELA A. WHITE, LINDA THOMAS-GREENFIELD, AND GINA K. 
                         ABERCROMBIE-WINSTANLEY

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Pamela A. White, of Maine, to be Ambassador to the 
        Republic of Haiti
Hon. Linda Thomas-Greenfield, of Louisiana, to be Director 
        General of the Foreign Service
Gina K. Abercrombie-Winstanley, of Ohio, to be Ambassador to 
        the Republic of Malta
                              ----------                              

    The committee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Durbin, Rubio, and Risch.

          OPENING STATEMENT OF HON. RICHARD J. DURBIN,
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin [presiding]. Good afternoon. This hearing of 
the Senate Foreign Relations Committee will come to order.
    Today the committee will consider three nominations: the 
Honorable Pamela White to be Ambassador to the Republic of 
Haiti; the Honorable Linda Thomas-Greenfield to be Director 
General of the Foreign Service; and Ms. Gina Abercrombie-
Winstanley to be Ambassador to the Republic of Malta.
    Welcome to the nominees, their friends, and family.
    I am pleased to stand in for Senator Menendez, my 
colleague, for a moment. He will be joining us very shortly. I 
will be brief with my introductory remarks, then turn to my 
friend and colleague, Senator Rubio, before we give each of you 
an opportunity for a brief opening statement. Please feel free 
at that time to introduce any family members or others that are 
with you today.
    I want to congratulate each of you for your nominations. I 
am pleased the President has nominated three individuals with 
many years of experience who, if confirmed, will serve as the 
United States representatives and will be called upon to 
implement the policies of our Government, protect and advance 
our interests, and help guide our Nation through the challenges 
we face around the world.
    Before we take your testimony, I would like to start with 
the introductions of each of our nominees.
    Senator Sherrod Brown of Ohio was planning on being here 
this afternoon to introduce Ms. Abercrombie-Winstanley but was 
not able to attend because of another committee assignment. I 
would ask unanimous consent that his very strong statement in 
support of her nomination be included in the record today.
    [The prepared statement of Senator Brown follows:]

 Prepared Statement of Hon. Sherrod Brown, U.S. Senator From Ohio, in 
 Support of the Nomination of Hon. Gina Abercrombie-Winstanley of Ohio 
      to be the United States Ambassador to the Republic of Malta

    Mr. Chairman, thank you for the opportunity to speak in support of 
the nomination of the Honorable Gina Abercrombie-Winstanley, of the 
great State of Ohio, to be the next United States Ambassador to the 
Republic of Malta.
    Located in the Mediterranean Sea, the Republic of Malta has been a 
gateway between Europe and North Africa. And it has long been a partner 
to the United States in promoting and preserving peace and security 
around the world.
    The relationship between our nations spans from the days of World 
War II, when President Franklin D. Roosevelt called Malta, the ``only 
tiny bright flame in the darkness--a beacon of hope for clearer days 
which have come.''
    Today, our relationship has developed as the challenges and 
opportunities within the international community have evolved. We share 
interests in maritime law enforcement, search and rescue operations, 
combating pollution at sea, and enhancing air-space management. And 
with turmoil in the Middle East and challenges arising from the Arab 
Spring, Malta will once again be a critical partner in preserving 
global peace and security.
    There are few Americans who are more qualified than the Honorable 
Gina Abercrombie-Winstanley, of Ohio, to represent the United States in 
this critical country at this critical time.
    Born in Cleveland, she attended Cleveland Heights High School, 
where she studied Hebrew, an education reinforced by the culture of 
Orthodox Judaism that shaped the neighborhood of Cleveland Heights 
where she was raised. During high school, she first traveled to the 
Middle East on a student exchange trip from 1978-79, coinciding with 
Egyptian President Anwar Sadat's historic visit to Jerusalem. After 
graduating, she earned a B.A. from George Washington University. She 
then became a Peace Corps volunteer in Oman and continued her public 
service as a Presidential Management Fellow at the United States 
Information Agency. After earning her M.A. in International Relations 
at the School of Advanced International Studies at Johns Hopkins in 
1985, Abercrombie-Winstanley joined the U.S. Foreign Service.
    Her Foreign Service career has taken her from Baghdad during the 
Iran-Iraq war, to Indonesia to Cairo, Tunisia to Tel Aviv. In 2002, 
during her service in Saudi Arabia, she was the first female Consul 
General and during the December 6, 2004, deadly al-Qaeda terrorist 
attack on the consulate, she was cited for acts of courage.
    Her service abroad representing our country has been exceptional, 
as has her service here at home. She has served many vital posts across 
our national security apparatus--from the National Security Council to 
the United Nations to the State Department, working on challenging 
portfolios that include Egypt, Lebanon, Syria, and Jordan. From 1991-
1993 she served as Special Assistant for Middle Eastern and African 
Affairs to Deputy and then later, Secretary of State Lawrence 
Eagleberger. And from 2008 to 2011 she served as Deputy Coordinator for 
Programs and Policy in the Secretary of State's Office of the 
Coordinator for Counterterrorism.
    Any career as a senior Foreign Service officer is difficult and 
demanding, and at the center of the challenging business of diplomacy. 
The Honorable Gina Abercrombie-Winstanley, of Ohio, has had a 
distinguished and decorated career mastering the delicate craft of that 
business. Her extensive knowledge and experience--from her high school 
days in Cleveland Heights to a diplomatic career in Washington and 
around the world--makes her uniquely qualified to be next United States 
Ambassador to the Republic Malta.

    Senator Durbin. And I understand that Senator Bill Nelson 
of Florida, our colleague, may wish to introduce Ambassador 
White. Senator Nelson, please proceed. Welcome to your lovely 
wife.

                 STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, thank you, Mr. Chairman, and to my 
colleague from Florida, Senator Rubio, not only I wanted to be 
here, but my better half, Grace Nelson, who is seated right 
here in the front row, wanted to be here to say a word about 
Pam White and also Linda Thomas-Greenfield, two real 
professionals.
    We have known Pam longer because we first got to know her 
when she headed up USAID in Tanzania and then went to head up 
USAID in Liberia where Linda was the Ambassador. And Linda has 
just returned to the States for this new appointment just a 
couple weeks ago. Pam in the meantime--very unusual that a 
USAID top official then goes on and becomes Ambassador. And Pam 
has been the Ambassador to The Gambia for the last couple of 
years.
    Now, why we wanted to be here is that in the good fortune 
that we have had--Grace and I--to travel over a good part of 
the world, especially the third-world countries. We have seen 
extraordinary public service particularly in third-world 
countries where a heart for service is so important. And 
indeed, that is what we first noticed in Pam. And we saw that 
and it was obviously recognized, and then she was sent to 
Liberia as the head of USAID and had stellar results in both of 
those countries that we had seen her work product. And for that 
to be recognized by the State Department and then for her to 
ascend to the position of ambassador in another third-world 
nation and now for her to be nominated to come to the Western 
Hemisphere in the poorest country in the Western Hemisphere, 
Haiti, of which Senator Rubio and I particularly have 
considerable interest because of such a connection between 
Haitian Americans, of which we have a substantial community in 
Florida, and the people of Haiti.
    Haiti continues to need a lot of help. They are still 
coming through the ravages of the earthquake, and Haiti still 
needs a lot of help as they try to modernize into a functioning 
government. And I think that this present President Martelly is 
really trying. We have got to have a strong presence there 
representing the United States as he continues to try to reform 
that country. And so I could not give you a higher 
recommendation for someone to be one of our ambassadors, 
particularly to a country that is so important to the United 
States as Haiti is in the Western Hemisphere.
    I would just say, in passing, about Ambassador Thomas-
Greenfield that her record is stellar. The fact that she has 
been there in Liberia, this little struggling country headed by 
a woman, Mrs. Sirleaf, Helen Johnson Sirleaf, and how she has 
tried to take that country that was so, so accustomed to 
corruption and start turning it and how she has been successful 
and even so in the point of just being reelected.
    So I come here as your colleague to share with you my 
personal comments, and I thank you for the opportunity, Mr. 
Chairman.
    Senator Durbin. Thank you very much, Senator Nelson. You 
are obviously invited to stay as long as you can, but I know 
your schedule may call you off to another place. But we thank 
you for your introductions and testimony today.
    I am going to say a few words about each nominee, then give 
my colleague, Senator Rubio, a chance, then turn this gavel 
over to Senator Menendez. Statements will be made, questions 
asked, and we will proceed with the hearing.
    I visited Haiti earlier this year. It was not my first 
visit. It is sadly the poorest nation in our hemisphere. The 
international community showed an amazing outpouring of 
generosity after the terrible earthquake, but there is a lot of 
work that remains to be done.
    I saw a sprawling displaced persons camp in Port-au-Prince, 
and I saw what just a small amount of money well spent might 
do. An organization, an NGO, known as GHESKIO, invited us to 
come over for a tour. We met Dr. Marie Deschamps, and as she 
walked me through, she showed me a well that had been drilled 
right on her property 600 feet down and was now providing clean 
drinking water, which they treated with chemicals to make sure 
it was even safer, clean drinking water for 120,000 people. And 
she said thank you because America built that well. And I said, 
where did it come from? And she explained and I finally 
realized it was a program that I had created in the name of 
Paul Simon, my predecessor, who wrote a book over 25 years ago 
about the shortage of water in the world. And we created the 
Paul Simon Water for the Poor Act. We funded it with an amount 
which by Federal standards is small change, about $25 million 
or $30 million. And I asked her how much did it cost to build 
your well, and she said about $28,000 to supply clean drinking 
water for 120,000 people in a country that is plagued with 
cholera. It is an indication where money well spent can make a 
difference, but it is an indication of the dramatic need in a 
poor country like Haiti.
    Amid these challenges, I have no doubt Ambassador White 
will display the commitment and versatility necessary to help 
move Haiti forward. She follows a great individual who 
represented the United States several times as Ambassador, Ken 
Merton. He is really one of the extraordinary public servants I 
have met, a hard act to follow, but I know you will do well.
    Let me say a final word about your service in Gambia. I 
have been trying for years--literally for years--to secure the 
release of a Gambian journalist, Ebrima Manneh, who was taken 
into custody in 2006 by Gambian security personnel. Shamefully 
he was held incommunicado and has not been heard of since. I 
fear he may have died in custody.
    His disappearance was symbolic of the troubling record of 
press freedom in Gambia, and despite request of human rights 
organizations and several Senators, the Gambian Government 
refused to account for him.
    And then early last year, there as a breakthrough when 
Gambian President Jammeh formally requested a U.N. 
investigation into his disappearance and death. Ambassador 
White has been a tireless partner in this effort, and I thank 
you so much for standing up for American values in this 
request.
    Linda Thomas-Greenfield served as U.S. Ambassador to 
Liberia, as has been mentioned, since 2008; before that, worked 
at the Department of State and the Secretary for the Bureau of 
African Affairs, Refugee Counselor. She holds a B.A. from 
Louisiana State University and an M.A. from the University of 
Wisconsin.
    If confirmed Director General of the Foreign Service, 
Ambassador Thomas-Greenfield will be responsible for 
recruitment, assignment, evaluation, promotion, discipline, 
career development, and retirement policies for the State 
Department's Foreign Service and Civil Service employees. It is 
a big responsibility. Foreign Service officers constantly 
embrace new challenges and hardships, including family 
separation, and it is important that the Director General is 
able to address those needs from personal experience.
    Gina Abercrombie-Winstanley has served as Deputy 
Coordinator Counterterrorism at the Department of State since 
2008. Prior to that, she served as the Director of the Office 
of Egypt, Syria, Lebanon, and Jordan at the State Department. 
She has also served as Policy Advisor at the Department of 
Defense and Director at the National Security Council. Ms. 
Abercrombie-Winstanley attained her B.A. from George Washington 
University and M.A. from Johns Hopkins.
    A seasoned diplomat, her nomination to serve as Ambassador 
to Malta is a fitting followup to her work on counterterrorism 
efforts and leadership in the Middle East. Malta's role and 
counsel during the courageous uprising in Libya was 
representative of this tiny nation's large impact on the world. 
If confirmed, Ms. Abercrombie-Winstanley will be vital in 
reaffirming the strong friendship and partnership between Malta 
and the United States.
    And before inviting your opening statements, I will turn to 
my colleague, Senator Rubio.

                 STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Senator Durbin. I appreciate the 
opportunity to be here as well on three important nominations.
    The first, of course, is to Haiti which I visited for the 
first time in January of this year. I am impressed by the 
resilience of a people that have faced extraordinary struggles 
even before an earthquake, but yet have optimism about the 
promise of the future and the opportunity we have working 
together with the people of Haiti to help them build that 
future for themselves.
    There are tremendous opportunities there for the hemisphere 
if, in fact, Haiti can turn the corner and build for themselves 
a more prosperous society and a more functional government. And 
the United States can provide invaluable assistance in that 
regard. I think Senator Durbin outlined just one program that 
we would like to be involved in, and there are others that are 
out there that we are already involved in that have proven to 
be a great success. We look forward to hearing from you about 
some of your ideas in that regard.
    Ambassador Thomas-Greenfield comes very highly recommended, 
and from everything I have read in her record, you have a lot 
of people speaking very highly of you. And you have a very 
important job. In the next few months, you will have the 
responsibility of recruiting and assigning, evaluating, 
promoting, disciplining, being involved in the career 
development and retirement policies. It sounds like a lot of 
work. So we look forward to hearing about your plans as well.
    And last, but not least, Gina Abercrombie-Winstanley of 
Ohio. I have a letter here if I could have unanimous consent to 
submit on behalf of Senator Lugar in support of your 
nomination.
    Senator Menendez [presiding]. Without objection.
    Senator Rubio. Thank you, Mr. Chairman.
    I had the opportunity to visit Malta I think in September 
of last year. We had gone to Libya. They did not want us to 
stay overnight in Tripoli, so we stayed overnight in Malta, got 
to meet the leaders there and got to spend some time in the 
nation, and grew to really understand its strategic importance 
in the region as a gateway between North Africa and the Middle 
East and Europe, but also an important ally. Though they are 
not a member of NATO, they have been such an important partner 
in so many of the operations that NATO has undertaken and I 
think will play a critical role in the months to come as the 
Libyan people struggle to reach, for example, their own 
democratic aspirations. So it is an important relationship. It 
is not often talked about.
    And by the way, I was also very impressed with their 
economic development and their economic prosperity which I 
think serves as an example to the region as well.
    So, again, it is not a station that people talk about. It 
does not wind up in the newspapers a lot. That does not mean it 
is not of value and strategic importance to the United States 
and to our allies in Europe and in North Africa and in the 
region. And so we look forward to hearing your testimony as 
well about your plans in regard to that assignment.
    So thank you very much, all three of you, for your service 
to our country and for being here today.
    [The letter to Senator Lugar from retired U.S. Ambassador 
Douglas W. Kmiec in support of Gina Abercrombie-Winstanley 
follows:]

                             Pepperdine University,
                                             School of Law,
                                        Malibu, CA, March 14, 2012.
Hon. Richard Lugar,
Ranking Minority Member,
Senate Foreign Relations Committee,
Washington, DC.
    Dear Senator: I understand that the Senate Foreign Relations 
Committee will today take up the nomination of Gina Abercrombie-
Winstanley, as my successor for the post of U.S. Ambassador to the 
Republic of Malta.
    I wish to formally encourage the committee to act favorably on Ms. 
Abercrombie-Winstanley's nomination.
    While the nominee's schedule in preparation did not allow her to 
accept my offer of assistance or briefing, and thus, I cannot say that 
I know Ms. Abercrombie-Winstanley personally, she is well thought of by 
my former DCM, Richard Mills, who is an excellent judge of diplomatic 
talent, and it is patent that she has strong credentials as a career 
Foreign Service officer.
    Of course, I stand ready to be of assistance to the Ambassador-
designate or the Department of State at any time. With the nature of 
the entire region being in political transition, it is important for 
our new Embassy compound there to be alert and fully functioning.
    Senator, I would take it as a kindness if you would submit this 
letter of positive endorsement for the record. It is a matter of 
completeness and fairness since the committee should draw no adverse 
inferences with respect to this dedicated public servant by virtue of 
the unfortunate White House silence that both your inquiry, and my own, 
received inquiring as to why efforts devoted to interfaith diplomacy 
were allowed to be mischaracterized as ``outside the scope of U.S. 
interests.'' As you remember, having thoughtfully attended my swearing 
in, the President's director of the Office of Faith-based Initiatives 
highlighted the significance of interfaith efforts in this pivotal part 
of the world as part of the ``special Presidential logic'' behind my 
appointment. Given the interest expressed by the ``Arab Spring 
nations'' in fashioning new governmental structures of a nature that 
will honor democracy and religious freedom, the need for sensitive, 
interfaith efforts to promote understanding and respect across the 
Abrahamic traditions is greater today than it was 2 or so years ago at 
the beginning of my service.
    Parenthetically, I am pleased to report that in discussions even 
today my dedication to meeting this need did not end with the 
conclusion of my own service. While announcement would be premature, 
agreement will likely soon be reached establishing a joint program 
between several fine U.S. universities (including my home institution 
of Pepperdine University which for the 8th consecutive year was ranked 
as the number 1 dispute resolution program in the country by U.S. News 
and World Report) and the University of Malta. This joint venture will 
be devoted to Graduate study in an understanding of Hebraic, Christian 
and Islamic traditions as well as dispute resolution methodologies that 
can be employed both by State Department personnel and NGOs.
    At this positive moment of transition, it is also appropriate for 
me to bring to the committee's attention the fine work of the American 
and locally engaged staff in the Embassy over the last several years. 
As the IG found in the overall high evaluation given Embassy-Valletta, 
there were, as I recall, fewer areas needing improvement than there 
were inspectors. While it is invidious to single people out by name, 
some service was of such impressive dimension, I ask that special note 
be made of the work of Lenese Walls, my office administrator, DCMs Rick 
Mills, Jason Davis, and Arnie Campbell; our effective and highly 
respected Defense Attache (Commander Jane Moraski; Lt. Commanders J. 
Phillip Webb, Sean Schenk, and Greg Tozzi); NCIS detailee, Matt 
Cummings, and Consular officer Tracy Brown. The work of the Bert 
Hernandez and his staff on matters of regional security is most 
noteworthy as well and in an appropriate forum deserves commendation.
    All of these personnel assisted in maintaining our maritime safety 
and security center, and associated search and rescue training, 
undertaken in partnership with the Armed Forces of the Republic of 
Malta. These preparations, ever observant of the value deeply held by 
Malta of constitutional neutrality, became invaluable when it was 
necessary to act with dispatch to rescue American personnel from 
Embassy-Tripoli along with several hundred citizens of other nations in 
the face of the violence that erupted there in February 2011. The 
rescue which depended in part upon the diplomatic negotiation of the 
use of a private catamaran, was a success noted by Secretary Clinton 
personally when she visited Malta this past October. Our rescue 
capability was unquestionably enhanced by the generous humanitarian 
assistance supplied by Malta to all concerned, and in particular to 
those few evacuees who suffered injury in the face of the gale-force-5 
storm experienced en route away from the unpredictable shooting 
environment on shore.
    Finally, I wish to give recognition to the Embassy staff before 
your committee for the following matters of some importance as a result 
of U.S. initiative between 2009 and 2011:

  <bullet> Completion of a $125.5 million new Embassy compound.
  <bullet> Signing of an enhanced security agreement, training and 
        equipment with the Malta International Airport.
  <bullet> Signing of enhanced security agreement with Malta Customs, 
        as well as accompanying training and equipment.
  <bullet> Ratification of the Avoidance of Double Taxation Treaty.
  <bullet> Organized fundraisers for the needs of refugees who landed 
        in Malta because of the violence in North Africa, including one 
        memorable event with Actor Martin Sheen who premiered the 
        movie, ``The Way'' for the humanitarian effort.
  <bullet> Hosted the U.S. Secretary of the Navy and Leadership of the 
        Sixth Fleet.
  <bullet> Conference on Protection of Intellectual Property.
  <bullet> Drafting of the first strategic plan for north-south 
        engagement in the Mediterranean.
  <bullet> Planning and instruction associated with U.S.-EU-
        Mediterranean Maritime Training Conference.
  <bullet> Support for the resettlement of several hundred migrant 
        families.
  <bullet> Multiple efforts to advance a fuller understanding of the 
        usefulness and advantages of SOFA.
  <bullet> Day-to-day meetings and cables with diplomatic counterparts 
        and the Foreign Minister, as needed.
  <bullet> Welcomed congressional delegation as well as numerous 
        foreign visitors, including His Holiness Benedict XVI.
  <bullet> Renewal of the visa waiver program.
  <bullet> Secured funding for alternative energy photo voltaic project 
        at NEC.
  <bullet> Helped institute skills training and English language 
        courses for the migrant populations, especially those preparing 
        for U.S. resettlement.
  <bullet> Arranged for White House Chief of Staff Sununu (on site) and 
        Secretary of State James Baker (via video) participation in the 
        Mediterranean school of diplomacy conference marking the 20th 
        anniversary of the end of the cold war and the Bush-Gorbachev 
        meetings related thereto in 1989.
  <bullet> Made efforts to promote interfaith dialogue and diplomacy 
        surveys and conference planning.
  <bullet> Promoted with conference presentation and public diplomacy: 
        gender opportunity and equality.
  <bullet> Successfully arranged with the Prime Minister for a high-
        level task force to address human trafficking; negotiated a new 
        arrest protocol, with the expert assistance of Thomas Yeager, 
        the Embassy political, economic, and cultural officer, focusing 
        on identifying the slave trader, rather than prosecution of 
        coerced victims; Mr. Yeager, by the way, came to the Department 
        of State after 30 years of service in the U.S. Navy and his 
        energy, preparation, and judgment reflected both his patriotic 
        spirit and thorough nature.
  <bullet> Arranged for U.S. educational/public diplomacy visits of 
        members of the Maltese judiciary as well as leaders of the 
        major political parties in Malta.
  <bullet> Continued the full utilization of Fulbright scholars in the 
        life of the Embassy and public diplomacy.

    Senator, it was an honor to serve our Nation in the Republic of 
Malta. I count many Maltese citizens today as life-long friends, from 
President George Abela to 
the many who worshipped with me in morning Mass as I sought to visit 
the 365 Catholic churches on the main island as well as Gozo. I am 
pleased to report that relations between our two nations remain 
especially strong. Friendship and cooperation in virtually all matters, 
including the serious application of trade sanctions as needed to 
address the unfortunate actions in Iran, has been readily offered and 
accepted.
    I wish Ambassador-designate Abercrombie-Winstanley complete 
success, and I know the people of Malta will welcome her, as they did 
me, with ``uncommon kindness.''
            Respectfully submitted,
                                   Douglas W. Kmiec,
                                           U.S. Ambassador (ret.),
                                           Caruso Family Chair in 
                                               Constitutional Law & 
                                               Human Rights, Pepperdine 
                                               University.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Senator Rubio.
    Let me start off by thanking Senator Durbin for filling in 
for me. I regret that I could not be here at the very start of 
the hearing but I had two nominees of President Obama to be 
judges for the Federal District Court to present before the 
Judiciary Committee.
    And I will truncate my opening statement. I appreciate that 
he has already introduced the nominees.
    I remain concerned about the slow progress in Haiti. I am 
concerned about the lack of job opportunities for Hispanics and 
other minorities in the State Department and about Malta's 
facilitation by the use of its flag and its ports of Iran's 
cargo shipping line, IRISL.
    You have all been nominated to positions that will allow 
you to influence these matters. So I look forward to hearing 
your assessments, goals, and objectives and to enter into a 
dialogue with you. We have your testimony.
    I would ask each of you to summarize your statement in 
about 5 minutes or so. Your full statements will be included in 
the record.
    And with that, Ambassador White, we can start with you and 
then move down the line.

 STATEMENT OF HON. PAMELA A. WHITE, OF MAINE, TO BE AMBASSADOR 
                    TO THE REPUBLIC OF HAITI

    Ambassador White. Thank you very much. It is a great 
pleasure to be here today. Thank you, Mr. Chairman. I am 
honored to appear before you today as President Obama's nominee 
to serve as the next U.S. Ambassador to the Republic of Haiti. 
I am grateful for the trust and the confidence President Obama 
and Secretary Clinton have placed in me by nominating me to 
this crucial post. If confirmed, I look forward to working with 
you on Haiti, a country with which the United States shares 
broad and deep and longstanding ties and one that many 
Americans, including me, care deeply about.
    Mr. Chairman, with your permission, I would like to submit 
my written testimony for the record and make a few remarks.
    I first want to thank Senator Bill Nelson for the honor of 
introducing me to the committee. I am grateful for his support. 
Senator Nelson has been to Haiti and he knows its issues well. 
That he supports my nomination as Ambassador to that country is 
a vote of confidence that I deeply appreciate. Thank you so 
much, Senator and Grace.
    I understand that some here were at Congressman Donald 
Payne's funeral today, and I just want to add he was a hero of 
mine and I will miss him and I grieve for him.
    I would like to thank my friends and family for attending 
this hearing. Some have my front, meaning that they are 
watching me this way from afar in Senegal and my parents in 
Maine and friends there, and some have my back. That is to say, 
they are in this room. My son Patrick, USAID, State friends, 
Director Williams of the Peace Corps, and the Spences from 
Chicago. And thank you.
    Mr. Chairman, for 35 years, maybe even a tiny bit more, it 
has been my privilege and my pride to serve the United States. 
I began in a tiny village in Cameroon as a Peace Corps 
Volunteer. As an officer at USAID, I have served in numerous 
countries in Africa. As Mission Director for USAID in Mali, in 
Tanzania, and in Liberia, and as Ambassador to The Gambia, I 
have worked hard to ensure that diplomacy and development take 
their rightful place alongside defense as the core instruments 
for promoting United States interests.
    And my USAID service took me to Haiti from 1985 to 1990. It 
was a troubled period with lots of coups and lots of violence. 
But my posting there left me with a deep and abiding admiration 
for the people of Haiti. I have seen how courageous they are. I 
have seen how hard they work. I have seen the fortitude they 
have displayed in bouncing back from political or natural 
disasters one after another. The resilience and the dynamism of 
its people are among the most valuable resources that Haiti 
possesses.
    Secretary Clinton has called Haiti ``a test of resolve and 
commitment,'' and that challenge extends to the country's 
leaders, to its people, to its donors, including the United 
States of America. We must never lose sight of the fact that 
the success of that country is ultimately in the hands of 
Haitians themselves. We must recognize there are no quick fixes 
in building capacity in Haiti. It is going to take time.
    It is of critical importance that we help strengthen, 
expand, and diversify Haiti's private sector. Without a healthy 
economy, Haiti will remain poor. It will remain dependent. And 
this truth has to drive our collaboration with the private 
sector, and our investment in initiatives that are truly 
sustainable. It is Haiti's leaders who must foster an 
environment conducive to economic development and prosperity 
because without responsive, accountable, and transparent 
governance, without the rule of law, without the proper laws to 
attract investment, without a fully functioning government, 
sustained development will not be possible.
    If confirmed, I will press Haiti's leaders and its people 
on these key matters.
    In our efforts to help Haitians build a better future, 
attention and support from Congress has been invaluable, and I 
thank you for that. If confirmed Ambassador to Haiti, I will 
look forward to working with you in addressing the country's 
crucial issues.
    Haiti is often described as the poorest nation in the 
Western Hemisphere, and perhaps in terms of money, it is. But 
it is among the richest countries in terms of culture and 
history and courage. The great pride the Haitians feel for 
their remarkable country makes success not only achievable but 
believable. If confirmed, I will work hard with Haitians to 
make sure their endless sacrifices and the bravery of the 
people who suffered through that horrific earthquake are 
rewarded with a better quality of life and with renewed spirit.
    I thank you.
    [The prepared statement of Ambassador White follows:]

            Prepared Statement of Ambassador Pamela A. White

    Thank you, Mr. Chairman. I am honored to appear before you today as 
President Obama's nominee to serve as U.S. Ambassador to the Republic 
of Haiti. I am grateful for the trust and confidence President Obama 
and Secretary Clinton have placed in me by nominating me to this 
crucial post. If confirmed, I look forward to working with you on 
Haiti, a country with which the United States shares broad, deep, and 
longstanding ties, and one that, as we have seen in the past few years 
in particular, many Americans care about very deeply.
    Mr. Chairman, for 35 years it has been my privilege and my pride to 
serve the United States. I began my government service in a tiny 
village in Cameroon as a Peace Corps Volunteer. As an officer for the 
U.S. Agency for International Development, I have worked and raised a 
family in numerous countries, including Ivory Coast, Niger, Burkina 
Faso, Senegal and South Africa. As Mission Director for USAID in Mali, 
in Tanzania and in Liberia, and as Ambassador to The Gambia, I have 
worked hard to ensure that diplomacy and development take their 
rightful place alongside defense as the core instruments for promoting 
United States interests abroad.
    My USAID service also took me to Haiti, where I lived and worked 
from 1985 to 1990. It was a troubled period, with coups and violence, 
and a legacy of misrule the effects of which are felt to this day. But 
my posting also left me with a deep and abiding admiration for the 
people of Haiti. I have seen how courageous they are. I have seen how 
hard they work. I have seen the fortitude they have displayed in 
bouncing back again and again from political or natural disasters. The 
resilience and dynamism of its people are among the most valuable 
resources that Haiti possesses, and are key factors in United States 
involvement with that country.
    Those strengths have repeatedly been put to the test in Haiti's 
often turbulent history, and seldom more severely than in the 2-plus 
years since the devastating earthquake of January 12, 2010. Even before 
that catastrophe, in February 2009, Secretary Clinton identified Haiti 
as a foreign policy priority and initiated a comprehensive, whole of 
government review of the U.S. Government's engagement with that 
country. The earthquake, with its staggering human and material losses, 
gave added urgency to our efforts.
    Secretary Clinton has called Haiti ``a test of resolve and 
commitment,'' and that challenge extends to the country's leaders, to 
its people, and to donors, including the United States. We must never 
lose sight of the overriding fact that, as committed as we are to 
Haiti, the success of that country is ultimately in the hands of the 
Haitians themselves. We can help plan, encourage, and support, but 
goals must reflect the priorities that the government and people of 
Haiti have identified, and on which they are leading the way.
    In order for Haiti to be able to take the lead, the United States 
and other donors must equip key Haitian ministerial and government 
institutions with the capacity they need to manage funds, people, 
projects, and procurement. If the Haitian Government cannot deliver 
basic services to its people, there will continue to be the 
inefficiencies and crisis of confidence that have hampered development 
for decades. We must recognize that there are no quick fixes or 
shortcuts in building capacity in Haiti's governmental and 
nongovernmental sectors; the process requires a long-term commitment on 
our part.
    We must also recognize the risk of spreading our engagement too 
thin to have lasting impact. The United States has focused additional 
attention on specific sectors and areas, with other donor partners 
concentrating on other areas in which they are more specialized. Today, 
we are supporting Haiti as partners in four sectors and working in 
three defined geographic regions. Together with Haitian and 
international partners, we seek to diminish and remove the most 
significant impediments that have limited Haiti's economic growth and 
development.
    Some ask what the United States assistance has achieved, especially 
since the earthquake. While progress has been slower than we or the 
Haitian people would like, there have been tangible accomplishments. 
First, we helped saved lives and ameliorated the worst effects of the 
earthquake and the cholera epidemic. As of March 1, the U.S. Government 
had built 28,653 transitional shelters in Haiti, repaired 6,002 damaged 
houses to shelter 8,102 households, provided hosting support to 26,523 
households, and provided rental vouchers to roughly 1,200 households, 
thereby housing over 322,000 individuals. These efforts, along with 
support from the international community, have reduced the number of 
internally displaced people living in camps from roughly 1.5 million to 
490,545 since the summer of 2010. In addition, our efforts have removed 
2.31 million cubic meters of rubble--almost half of all the rubble that 
has been removed.
    With Haiti's most pressing humanitarian needs being addressed, the 
United States has increasingly shifted its assistance toward the 
country's longer term development. Gaps and shortfalls must be filled 
in order to foster stability and economic growth in Haiti. The country 
requires critical infrastructure, an efficient and reliable energy 
sector, a modernized agricultural sector capable of serving both 
domestic and export markets, internationally competitive ports, an 
accessible system of health care and facilities that goes beyond 
meeting emergency needs, and a policing and justice system that serves 
the needs of its people. We are working with Haitian and international 
partners in a Haitian-designed and -led process to meet those needs.
    The United States is responding to Haiti's desire for regional 
investments that support the development of economic corridors outside 
of Port-au-Prince. In particular, we have targeted some of our most 
significant investments in one of Haiti's poorest regions in the North. 
Working with partners from the private sector, bilateral and 
multilateral stakeholders, nongovernmental organizations, and Haiti's 
national government and local governments, we have broken ground on 
what will be one of the largest industrial parks in the Caribbean, at 
Caracol on the country's north coast. The initiative will transform one 
of Haiti's poorest regions, creating 15,000 new jobs that should grow 
to 20,000 jobs by 2016. The project also includes new housing 
settlements for 25,000 people complete with electricity, water, social 
services, and job opportunities nearby. The plans also encompass a 
state-of-the-art container port, an upgraded energy system to provide 
reliable electricity for 100,000 people and businesses; and 
rehabilitated health clinics and reference hospitals in the region. At 
the same time as we seek to create opportunities in industry, we are 
also working to support the agricultural sector, from which more than 
60 percent of Haitians derive income, by increasing farmers' access to 
credit and linking smallholder farmers to viable markets and improving 
farm incomes and productivity. Our work in the agricultural sector will 
also serve to address some Haiti's environmental problems and induce 
farmers to remain in rural areas, instead of flocking to Port-au-
Prince.
    The examples I have just cited reflect the critical importance the 
United States attaches to helping Haiti strengthen, expand, and 
diversify its economy. It is indisputable that no long-term development 
goals in Haiti can be sustainable without the growth of the private 
sector. The people of Haiti need that if they are to see improvement in 
their quality of life; the Government of Haiti needs that if it is to 
develop a tax base that will allow Haiti and not donors to fund 
essential social services. Regardless of our efforts in other areas, 
without a healthy economy Haiti will remain poor and dependent, and 
this truth has to drive our collaboration with the private sector and 
our investment in initiatives that are truly sustainable.
    The United States is addressing assistance obstacles from our end, 
such as bringing our staffing up to needed levels and providing 
additional procurement resources. Our pace of programming is 
accelerating. We are working to ensure that requirements such as 
environmental assessments and seismic data are met in order to carry 
out our projects successfully. We are taking steps to increase local 
contracting as more of our reconstruction programs are designed and 
awarded, and are making headway in putting solicitations out for 
competitive bidding as quickly as possible.
    This brings us back to the indispensible ingredient of Haitian 
ownership of its recovery. It is Haiti's leaders who must foster a 
political, societal, and economic environment conducive to economic 
development and prosperity, because regardless of how much stakeholders 
invest in Haiti, without responsive, accountable, and transparent 
governance; without just application of the rule of law; without new 
laws and changes in existing ones to attract investment; and without a 
fully staffed and functioning government in every branch, sustained 
development will not be possible.
    High expectations lifted President Michel Martelly into office. It 
will now take hard work and dedicated people on all sides to translate 
those hopes into results and help Haiti fulfill its ambitions. The 
Parliament's recommendation and President Martelly's recent appointment 
of justices to Haiti's Supreme Court provide meaningful leadership to 
the judiciary and are cause for hope. We are also encouraged by the 
Martelly administration's steps to tackle corruption in the crucial 
energy sector. The respected U.S. Government-financed turnaround 
management team that his administration appointed to the serve at the 
state-owned electric company has already identified $1.6 million a 
month in savings by rooting out waste, fraud, and corruption. Last week 
the Government of Haiti signed a far-reaching agreement with the 
management team to achieve ambitious targets in improving the utility's 
financial viability and expand the number of customers served.
    The resignation of Prime Minister Garry Conille on February 24 
comes as a setback to development, as Haiti once again risks being left 
without a fully functioning government able to tackle the many 
development challenges it faces. Haiti needs a government fully engaged 
in development decisions with the will to make choices and speed up the 
formal approval process. Haiti also needs a government that can 
reassure donors that it is on the path to strengthening the rule of 
law, ending a culture of impunity, showing no tolerance for corruption, 
and reaffirming its commitment to democracy by ending the inexcusable 
delays in holding elections. This is the moment that requires making 
tough choices and putting policy before politics. If confirmed, I will 
press Haiti's leaders and its people to show through actions their 
commitment to democratic values and a genuine openness to business.
    In our efforts to help Haitians build a better future, the 
sustained attention and concrete support we have received from Congress 
have been invaluable, and I thank you for them. There is widespread 
understanding on Capitol Hill of why Haiti is important to the United 
States: its proximity to our country, the extensive personal and 
historical ties between the two nations, the value of a more stable and 
prosperous partner in the Caribbean, the risks posed by potential 
trafficking or refugee flows. If confirmed as Ambassador to Haiti, I 
look forward to working with you in addressing these crucial issues.
    It would be a mistake to understate the scale of the challenges 
facing Haiti, or the need for a long-term commitment in order to 
achieve lasting progress. But the news from Haiti is by no means all 
negative. According to a recent Gallup poll, Haitians rate their lives 
better now than they did before the earthquake. Haitians' optimism is 
evident in a number of other areas as well, including the highest 
confidence in government institutions on record.
    Haiti is often described as the poorest nation in the Western 
Hemisphere. But it is not when it comes to the resilience and 
creativity of its people and its natural economic potential. It is 
among the richest in terms of history and culture and courage. The 
great pride the Haitians feel for their remarkable country makes 
success achievable and believable. If confirmed by the Senate, I will 
do my utmost to give Haitians and Americans both further cause for hope 
and optimism about Haiti.

    Senator Menendez. Thank you, Ambassador.
    Ambassador Thomas-Greenfield.

       STATEMENT OF HON. LINDA THOMAS-GREENFIELD, OF LOU-
     ISIANA, TO BE DIRECTOR GENERAL OF THE FOREIGN SERVICE

    Ambassador Thomas-Greenfield. Thank you, Mr. Chairman. Mr. 
Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee 
to be the next Director General of the Foreign Service and 
Director of Human Resources at the Department of State.
    If confirmed as Director General, I would be responsible 
for managing the recruitment, assignment, welfare, professional 
development, promotion, and retirement of the Department's 
Civil Service, Foreign Service, locally employed staff, and 
others who work at the State Department.
    Since my return from Liberia as chief of mission just 2 
weeks ago and reengagement within the Department, I have been 
reminded of the huge breadth of the Bureau's activities. I am 
excited by the opportunity to strengthen the security and 
prosperity of our Nation by leading and building an effective 
civilian workforce.
    For 30 years, I have had the pleasure and the honor of 
working alongside talented State Department employees serving 
at our overseas missions and in the Department here in 
Washington and around the United States. I am proud to count 
many of them as my friends and all of them as my colleagues. 
They, like me, are pleased that the Department of State in 2011 
once again ranked in the top 10 among large Federal agencies in 
the Best Places to Work in the Federal Government. It really is 
a great place to work.
    Mr. Chairman, I would like to take the opportunity to 
introduce my family: my husband, Lafayette Greenfield, a 
retired Foreign Service specialist; our daughter, Lindsay, who 
recently joined the 123d Foreign Service Specialist class; and 
our son, Deuce, who also grew up in the Foreign Service and now 
is in law school. And we are very much a Foreign Service 
family.
    Of course, the nature of the service has changed 
dramatically since I joined 30 years ago, with those changes 
accelerated by the events of 9/11. Sixty-five percent of all 
State overseas positions are now at hardship posts, and two-
thirds of our diplomats abroad are serving in those difficult 
posts. They willingly face hardship and risk for the honor of 
serving their country and the opportunity to make a difference.
    Like the Secretary, I believe these men and women are some 
of the most courageous, hard-working, and capable people I have 
ever met. They and their families deserve our support and, if 
confirmed, I will work hard to ensure that they have what they 
need to do their jobs well.
    One of the Secretary's highest priorities is increasing the 
size of the State Department's staffing by 25 percent. This is 
a hiring initiative known as Diplomacy 3.0, for Diplomacy, 
Development, and Defense, representing the three pillars of our 
foreign policy.
    With 3.0, the Department has been able to fill some of its 
vacant positions as well as to fund new positions in support of 
our highest foreign policy priorities. It has also enabled us 
to double the size of our training complement. In 2011, we were 
able to increase the number of positions filled by language-
qualified employees from 62 percent to 70 percent.
    Recruiting a talented workforce that is truly reflective of 
the diversity of America is also critical to our staffing and I 
know important to you, Mr. Chairman. I am eager and I am 
energized to lead this effort, and if confirmed, ensure that we 
have the skills, the innovation, and diversity necessary to 
advance our Nation's interests.
    The Department has made a great deal of progress, but more 
needs to be done to ensure that the Foreign Service reflects 
the face of America. We must continue to work wholeheartedly 
toward this goal.
    We must also focus on assigning our men and women to posts 
and positions where they can best achieve our highest foreign 
policy goals. I would note this year that the Department is on 
track to fill over 800 positions in Afghanistan, Iraq, and 
Pakistan. I have no doubt that Foreign Service employees will 
continue to step forward and volunteer for these tough 
assignments as they have done in the past. If confirmed, I will 
work with others in the Department to help these dedicated 
public servants and their families manage these high-stress 
assignments.
    Over 10,000 Civil Service colleagues provide the critical 
Washington base of support, along with 56,000 locally employed 
staff worldwide, to keep our embassies and consulates 
functioning effectively. If confirmed, I will continue to 
develop and manage programs to fully utilize all of our staff, 
and I will also work to ensure that they are compensated fairly 
for their contributions to our mission.
    Foreign Service overseas comparability pay remains a 
management priority. This is a basic fairness issue. Foreign 
Service employees' base pay should not be reduced when they 
serve overseas.
    In closing, Mr. Chairman, I am pleased to have the 
opportunity to address you and members of the committee, and if 
confirmed, I ask for help in ensuring that we are able to 
strengthen American diplomacy through our greatest resource, 
its people.
    I will provide a more detailed written statement for the 
record.
    Thank you very much.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

        Prepared Statement of Ambassador Linda Thomas-Greenfield

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next Director General of the Foreign Service and Director of Human 
Resources at the Department of State. I am gratified and humbled that 
President Obama and Secretary Clinton have chosen me for this key 
position.
    If confirmed, I look forward to rejoining the HR Bureau where I 
once served as Staff Assistant 20 years ago. As Director General, I 
would be responsible for managing the recruitment, assignment, welfare, 
professional development, promotion, and retirement of the Department's 
Civil Service, Foreign Service, Locally Employed staff, and others who 
work at the State Department. Since my return from Liberia as chief of 
mission just 10 days ago and reengagement within the Department, I have 
been reminded of the huge breadth of the Bureau's activities. I am 
excited by the opportunity to strengthen the security and prosperity of 
our Nation by leading and building an effective civilian workforce.
    For 30 years, I have had the pleasure and the honor of working 
alongside talented, dedicated Foreign Service and Civil Service 
employees, Locally Employed staff, Family Members, and contractors 
serving at our overseas missions and in the Department here in 
Washington and around the United States. I am proud to count many of 
them as my friends--and all of them as my colleagues. They, like me, 
are pleased that the State Department in 2011 once again ranked in the 
top 10 among large Federal agencies in the ``Best Places to Work in the 
Federal Government'' ranking. It is a great place to work.
    Mr. Chairman, I would like to take the opportunity to introduce my 
husband, Lafayette Greenfield, a retired Foreign Service Specialist; 
our daughter, Lindsay Greenfield, who recently joined the 123rd Foreign 
Service Specialist class; and our son, Deuce Greenfield, who also grew 
up in the Foreign Service and is now in law school. I guess you could 
say that the Foreign Service is in our blood.
    Of course, the nature of the Service has changed dramatically since 
I joined 30 years ago, with those changes accelerated by the events of 
9/11. For instance, the number of positions deemed too dangerous for 
family members to accompany has grown from approximately 200 in 2001 to 
over 1,300 today. In addition, 65 percent of all State overseas 
positions are now at hardship posts, facing crime, pollution, and other 
challenging living conditions. Two-thirds of our diplomats abroad are 
serving in those difficult posts. They willingly face hardship and risk 
for the honor of serving their country and the opportunity to make a 
difference. This puts a tremendous burden on our families.
    Like the Secretary, I believe these men and women are some of the 
most courageous, hard-working, and capable people I have ever met. They 
and their families deserve our support and, if confirmed, I will work 
hard to ensure they have what they need to do their jobs well.
    One of the Secretary's highest priorities is increasing the size of 
State's diplomatic staffing by 25 percent. This is the hiring 
initiative known as ``Diplomacy 3.0'' (D 3.0)--for Diplomacy, 
Development, and Defense--representing the three ``pillars'' of our 
foreign policy strategy.
    With D 3.0 hiring, the Department has been able to fill some of its 
vacant positions as well as to fund new positions in support of our 
highest foreign priority goals. It has also enabled us to double the 
size of our training complement, which enabled more overseas positions 
to remain filled while replacements received required language and 
functional training. Because of this much needed influx in resources 
that allows us to train, in 2011 we were able to increase the number of 
positions filled by language-qualified employees from 62 percent to 
over 70 percent.
    Recruiting a talented workforce that truly reflects the diversity 
of America is critical to our staffing efforts. I am eager and 
energized to lead this effort, if confirmed, and ensure that we have 
the skills, innovation, and diversity necessary to advance our Nation's 
interests.
    Aggressive recruitment outreach including through social media, has 
contributed to diversity recruitment gains. For instance, from 2005 to 
present African-American takers of the Foreign Service Officer Test 
increased 61 percent, Hispanics 82 percent; and women 131 percent. Pass 
rates for these groups increased 112 percent, 172 percent, and 131 
percent respectively. And, hiring of African-Americans increased 36 
percent and hiring of Hispanics increased 43 percent. The Department 
has made a great deal of progress, but we must continue to work 
wholeheartedly toward this goal.
    We must also focus on assigning our men and women to posts and 
positions where they can best achieve our highest foreign policy goals. 
This year, the Department is on track to fill over 800 positions in 
Afghanistan, Iraq, and Pakistan.
    I have no doubt that dedicated Foreign Service employees will 
continue to step forward and volunteer for these tough assignments, as 
they have done in the past. If confirmed, I will work with others in 
the Department to help these dedicated public servants and their 
families manage these high-stress assignments.
    Over 10,000 Civil Service colleagues provide the critical 
Washington base without which our embassies and consulates could not 
function effectively. Many of them volunteer to go overseas to 
difficult posts. They contribute to almost every aspect of the 
Department's operations from human rights to narcotics control to trade 
to environmental issues. They are also the domestic counterparts to 
consular officers abroad, issuing passports and assisting U.S. citizens 
in trouble overseas. To maximize our effectiveness, we must increase 
our flexibility to deploy employees where most needed. Therefore, we 
are creating more opportunities for Civil Service employees to work 
overseas.
    Of the approximately 56,000 Locally Employed (LE) staff employed 
worldwide by all U.S. agencies overseas under chief of mission 
authority, nearly 45,000 work for the Department of State. These loyal 
colleagues are a key component of our mission. They have been at our 
embassies the longest, and they perform dozens of essential functions 
that keep our missions open even under the most difficult 
circumstances. If confirmed, I will ensure that we continue to develop 
and manage programs to fully utilize our local staff. I will also work 
to ensure they are compensated fairly for their contributions to our 
mission.
    Foreign Service Overseas Comparability Pay (OCP) remains a 
management priority. This is a basic fairness issue; Foreign Service 
employees' base pay should not be reduced when they serve overseas. If 
OCP is taken away in the future, we know it will not only impact our 
employees' morale and salaries, but also their retirement. I look 
forward to working with you, Mr. Chairman, and other members of the 
committee to ensure that does not happen.
    I am pleased that the Department of State ranks high as an ideal 
employer. If confirmed, I will do all that I can to make it an even 
better, more ``family friendly'' employer, and more representative of 
the face of America.
    In closing, Mr. Chairman, I am pleased to have the opportunity to 
address you and the members of the committee. If confirmed, I ask for 
your help in ensuring that we are able to strengthen American Diplomacy 
through our greatest resource--our people. I look forward to helping 
the Secretary ensure that the Department and its people are ready to 
meet our foreign policy challenges and objectives.

    Senator Menendez. Thank you, Ambassador.
    Ms. Winstanley.

  STATEMENT OF GINA K. ABERCROMBIE-WINSTANLEY, OF OHIO, TO BE 
              AMBASSADOR TO THE REPUBLIC OF MALTA

    Ms. Abercrombie-Winstanley. Mr. Chairman and members of the 
committee, it is a privilege to appear before you today as 
President Obama's nominee to serve as the United States 
Ambassador to the Republic of Malta. I am honored by the 
confidence placed in me by President Obama and Secretary 
Clinton.
    I would also like to thank Senator Brown for his 
introductory statement.
    If confirmed, I look forward to working with this committee 
and the Congress in advancing U.S. interests in Malta.
    I am delighted and proud to be accompanied today by members 
of my family: my husband, Gerard, and my daughter, Kara. I am 
also joined by my brother, John; my sister, Navy captain 
retired, Lynne Hicks; and my brother-in-law, colonel retired, 
Larry Hicks. I am also supported today by many friends and 
loved ones.
    My family has personal connections to Malta. My father-in-
law made many stops there as a naval officer during World War 
II and my niece studied nursing in Malta at St. Luke's Hospital 
for Nursing.
    After 27 years in the Foreign Service, I believe my 
experience developing and implementing policy on 
counterterrorism issues with European, African, and Middle 
Eastern partners, as well as advancing U.S. interests on a 
bilateral basis in the Middle East, will enhance my 
effectiveness as chief of mission, should you decide to confirm 
me.
    Malta is a valued European partner, often serving as a 
bridge between the West and the Middle East. I have a unique 
background to strengthen the relationship between the United 
States and Malta. This includes my service in the Middle East 
as Consul General in Jeddah, Saudi Arabia and tours in Iraq, 
Israel, and Egypt, as well as my tenure as Director of Near 
East, South Asian Affairs at the National Security Council at 
the White House, and as a professional staff member, a proud 
one, working for this committee under then Ranking Member 
Biden.
    Over 50 years ago, Malta's courageous resistance during 
World War II prompted Franklin Delano Roosevelt to refer to 
Malta as a nation that stood alone but unafraid in the center 
of the sea, one tiny bright flame in the darkness. Malta is 
small in size but has never backed away from occupying a large 
role when history has called upon it. We have seen this 
recently in its commendable actions in support of the 
aspirations of the people of Libya.
    As we recently witnessed, Malta's strategic location in the 
Mediterranean Sea is important to both global security and 
international commerce. Last February when U.S. citizens and 
others were evacuated from Libya to Malta, the Maltese 
Government assisted 20,000 evacuees from 90 countries, 
including more than 200 American citizens. Maltese officials 
and the U.S. Embassy in Valletta worked side by side to arrange 
emergency and humanitarian services to meet evacuees as they 
arrived in Malta and assist in their onward travel.
    Though not a member of NATO, Malta provided emergency 
landing services for NATO planes and cooperated closely with 
NATO on its maritime embargo. Malta authorized thousands of 
overflight requests in support of Operation Unified Protector, 
free of charge and at a substantial cost to its ability to 
route lucrative commercial traffic.
    Malta has offered to be a hub for all humanitarian 
assistance to Libya.
    On the trade and investment front, the recently ratified 
double taxation agreement bolsters the already strong economic 
relationship between the United States and Malta by fostering 
greater investment in trade. The United States is Malta's 
second-largest trading partner outside of the EU. American 
firms directly employ over 2,000 people in Malta, not counting 
the several thousands who work for U.S. franchises. In the 
small nation, that means 1 out of every 50 Maltese workers is 
employed by an American company.
    Malta shines as a beacon of peace and economic success in 
the southern Mediterranean and is ready to provide essential 
assistance and know-how to its transitioning North African 
neighbors.
    As a career Foreign Service officer, my life's work has 
been to strengthen our great country's political and economic 
ties with other nations and to achieve results through mutual 
understanding, communication, and cooperation. If confirmed, I 
pledge to do everything I can to lead an Embassy that 
represents the finest values of the United States and to 
advance American interests by strengthening the bonds between 
the United States and Malta.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to appear before you, and I would be pleased 
to answer any questions you have.
    [The prepared statement of Ms. Abercrombie-Winstanley 
follows:]

          Prepared Statement of Gina K. Abercrombie-Winstanley

    Mr. Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to serve as the 
United States Ambassador to the Republic of Malta. I am honored by the 
confidence placed in me by President Obama and Secretary Clinton. If 
confirmed, I look forward to working with this committee and the 
Congress in advancing U.S. interests in Malta.
    I am delighted and proud to be accompanied today by my family: my 
husband, Gerard, my son, Adam, and my daughter, Kara. I am also joined 
by my brother, John, my sister, Lynne Hicks, a retired Navy Captain, 
and my brother-in-law, Larry Hicks, a retired Colonel. I am also 
supported today by many friends and loved ones. My family has personal 
connections to Malta: my father-in-law made many stops in Malta as a 
naval officer during World War II, and my niece studied nursing in 
Malta at St. Luke's School of Nursing.
    After 27 years in the Foreign Service, I believe my previous 
experience developing and implementing policy on counterterrorism 
issues with European, African, and the Middle Eastern partners, as well 
as advancing U.S. interests on a bilateral basis in the Middle East, 
will enhance my effectiveness as chief of mission, should you decide to 
confirm me. Malta is a valued European partner, often serving as a 
bridge between the West and the Middle East. I have a unique background 
to strengthen the relationship between the United States and Malta. 
This includes my service in the Middle East as Consul General in 
Jeddah, Saudi Arabia, and tours in Iraq, Israel, and Egypt, as well as 
my tenure as Director for Near East South Asian Affairs at the National 
Security Council of the White House, and as a professional staff member 
working for this committee under then-Ranking Member Biden.
    Over 50 years ago, Malta's courageous resistance during World War 
II prompted Franklin Delano Roosevelt to refer to Malta as the nation 
that ``stood alone but unafraid in the center of the sea; one tiny 
bright flame in the darkness.'' Malta is small in size but has never 
backed away from occupying a large role when history has called upon 
it. We have certainly seen this most recently in its commendable 
actions in support of the aspirations of the people of Libya.
    As we recently witnessed, Malta's strategic location in the 
Mediterranean Sea is important to both global security and 
international commerce. Last February, when U.S. citizens and others 
were evacuated from Libya to Malta, the Maltese Government assisted 
20,000 evacuees from 90 countries, including more than 200 U.S. 
citizens. Maltese officials and U.S. Embassy Valletta worked side by 
side to arrange emergency and humanitarian services to meet evacuees as 
they arrived in Malta and assisted in their onward travel. In addition, 
Maltese authorities waived passport and other entry requirements, 
easing the evacuees' burdens.
    Though not a member of NATO, Malta provided emergency landing 
services for NATO planes and cooperated closely with NATO on its 
maritime embargo by providing manifests for Maltese-flagged ships. 
Malta authorized thousands of over flight requests in support of 
Operation Unified Protector free of charge, and at a substantial cost 
to its ability to route lucrative commercial traffic. Malta has offered 
to be a hub for all humanitarian assistance to Libya, and as such, the 
World Health Organization has asked it to serve as a base for its 
shipments.
    On the trade and investment front, the recently ratified Double 
Taxation Agreement (DTA) bolsters the already strong economic 
relationship between the United States and Malta by fostering greater 
investment and trade. The United States is Malta's second-largest 
trading partner outside of the EU, accounting for approximately 5 
percent of total trade, and American buyers account for approximately 9 
percent of Malta's total exports. American firms directly employ over 
2,000 people in Malta, not counting the several thousands who work for 
U.S. franchises. In this small nation, that means one out of every 50 
Maltese workers is employed by an American company. These American 
businesses continue to grow stronger. For example, in the wake of the 
worldwide financial crisis, as a stimulus measure, Malta provided 
targeted government assistance of 0.7 percent of GDP to manufacturing 
firms in 2009. One of the companies which received assistance, U.S. 
parts manufacturer Methode Electronics, not only retained its American 
workforce in 2009, but increased employment in its Maltese subsidiary 
as well. American investment overseas is vital, and Malta works to the 
benefit of both countries.
    Malta shines as a beacon of peace and economic success in the 
southern Mediterranean, and is ready to provide essential assistance 
and know-how to its transitioning North African neighbors. As a career 
Foreign Service officer, my life's work has been to strengthen our 
great country's political and economic ties with other nations, and to 
achieve results through mutual understanding, communication, and 
cooperation. If confirmed, I pledge to do everything I can to lead an 
Embassy that represents the finest values of the United States, and to 
advance American interests by strengthening the bonds between the 
United States and Malta.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. I would be pleased to answer any 
questions that you may have.

    Senator Menendez. Well, thank you all very much.
    Let us also welcome your family and friends because 
service, of course, is a demand upon families, and we 
appreciate them being here supporting you.
    I will start off the questioning.
    Ambassador White, let me ask you. There are many of us who 
are frustrated with the progress of reconstruction and of 
assistance to the Haitian people despite both our commitment as 
a country and the world's commitment. And so as you approach 
this assignment, could you share with the committee what you 
think are the key obstacles to a more rapid reconstruction and 
development in Haiti?
    And as part of that, could you talk about political 
instability as part of the equation, if you believe that is 
part of the equation? I happen to believe it, but I would like 
to hear your views on it.
    And last, I am just going to lump this all together, but 
will repeat it if necessary.
    Some of the latest reports about the government 
appropriating land seemed to reveal it doing so at the expense 
of the most vulnerable populations, and that is upsetting. If 
there is going to be land reconfiguration, you would hope that 
vulnerable populations would be the beneficiaries.
    So could you speak with us a bit about reconstruction and 
how we can do this more successfully, what are the obstacles, 
how we address them, and go from there?
    Ambassador White. Everyone, I do believe, is a bit 
frustrated with the slowness of the reconstruction.
    But could I just for one second say that Ambassador Merton 
and the accomplishments of his team has done in Haiti after 
living through that horrific earthquake. When they woke up one 
morning, 250,000 bodies were in the street and 10 million cubic 
feet of rubble was everywhere in Haiti, and they put on their 
boots and they put on their gloves and their staffs did and 
many volunteers, many people went down there to help and they 
made a difference. I mean, they got 1.2 million people in 
temporary shelters. So they got them in shelters. They fed 
them. They took care of them.
    To this day, they removed half the rubble. And you know, 
half of 10 million cubic feet is something to talk about--10 
million cubic feet. You can have dump trucks back to back from 
Key West to Bangor, ME. That is how many dump trucks that would 
take. And that they have taken almost half of that out with the 
USG efforts, another million cubic meters were taken out with 
wheelbarrows and who knows what by private citizens.
    The 1.5 million people were homeless, and today it is 
490,000. So well over a million people have been moved from the 
tents into something at least better than tents, different 
things, but better than tents. And like I said, half the rubble 
is gone.
    So accomplishments in an incredibly difficult country even 
in the best of times, good for them and good for the U.S. 
Congress for giving them the money to move forward.
    Now, one of the problems, of course, with Haiti is it lacks 
capacity. They have not had a functioning government. It took a 
long time for Preval to go and for Martelly to get in and then 
name a Prime Minister who unfortunately did not last very long. 
They are now looking for a new one. So there has been--the key 
pieces of government that are needed--the Haitian Government 
that are needed--to get this recovery moving quicker have not 
been in place very long. And we have got to have that going or 
we are going to have trouble making reconstruction and recovery 
any faster.
    I also think that the humanitarian response drained every 
ounce of people's strength for about a year, and then they 
started looking toward sort of a longer term recovery. To get 
those pieces in motion, especially to get the pieces in motion 
if you are going to use Haitian NGOs and Haitian diaspora and 
Haitian qualities, that just takes time. There is nothing you 
can do about it.
    And Ambassador Thomas-Greenfield and I served in Liberia 
together and we kind of picked Liberia up from this post-war 
disaster, and what do you do and how you do it? And I must say 
I think we did a really great thing.
    Senator Menendez. So are you telling the committee that 
things are going as they should?
    Ambassador White. I think that we have got the pieces in 
place if we can get the government to work, and that is a big 
``if.'' I hope that we can make them do that. I think we can 
put some pressure on them to make them do that. I think they 
want to make that happen. They want Haiti to succeed. But, yes.
    Just in the last month, I keep getting updates on some of 
the activities that USAID is doing in Haiti, and I see that 
they are awarding contracts, bigger contracts, reconstruction 
contracts. A new factory is going to be built in the north. It 
is going to come up with 22,000 jobs. There is nothing like 
giving people a job that is going to allow them to move the 
country forward, but we need the government to move too.
    Senator Menendez. So as I listened to your answer, the 
government is the biggest obstacle toward the type of further 
progress we would like.
    Ambassador White. I actually do believe that is true; yes.
    Senator Menendez. Ambassador Greenfield, you and I had a 
good conversation yesterday, and as I said to you then, Pastor 
Suarez called me again and said be nice. And what ensues is not 
about you but about the Department. And so I want to visit that 
with you on the record.
    I believe the State Department has the worst record of the 
hiring of minorities, particularly of Hispanics. This is 
something that I have been pursuing since my days in the House 
on the International Relations Committee. This is something I 
have pursued on this committee, and I do not seem to get 
anybody's attention.
    Now, sometimes for a Senator the only way to get somebody's 
attention is to hold up a nominee, and it is not my desire to 
do that here.
    But it also cannot continue this way. Your predecessor came 
before the committee not too long ago and answered a series of 
questions. It sounded really great until we went from 
percentage terms to actual numbers. And as I shared with you, 
in the State Department's Civil Service over the last 3\1/2\ 
years, we increased the number of Hispanics by four. In 2009 
versus today on female Hispanics, we increased the number by 
20, but of course, what we started from is incredibly low. 
Among the Foreign Service employees, we have similar numbers. 
So I will not gauge in percentages anymore because the 
percentages always paint a different picture.
    And when I listened to those who are in the Foreign Service 
from the Hispanic community, I often hear about the challenges 
those individuals face not only getting through the test, which 
is one thing, but then the subjective element of not being able 
to orally communicate effectively, which is incredibly 
subjective. Now, with all due respect, if that is the standard 
of all ability, then I believe there are many people from our 
community who can meet that standard.
    So I am trying to get a sense of how you, in this position, 
are going to change the course of events because the current 
way of doing things is not acceptable. The last census makes 
that pretty clear. And so if you could share with me and the 
members of the committee how you will go about changing the 
course of events in a way that will give me some hope so that 
we can vote your nomination out of this committee and on the 
floor with the expectation that things will change.
    Ambassador Thomas-Greenfield. Thank you, Senator. We did 
have a good conversation yesterday, and I can tell you that you 
did get my attention such that I was afraid to even give you 
those statistics that were in my official testimony, and I 
decided I would not give them.
    Senator Menendez. I accepted that as what the Department 
told you to say.
    Ambassador Thomas-Greenfield. Yes.
    Senator Menendez. So I get it.
    Ambassador Thomas-Greenfield. But you did get my attention.
    I had the opportunity to look at these charts on the board, 
and unfortunately those numbers in those charts reflect the 
reality. And what they reflect is the reality of the challenge 
that is going to be before me if I am confirmed by the Senate. 
And if I am confirmed as the next Director General, I can 
assure you that this will be one of my top priorities as 
Director General. And I said to you yesterday I am sure that 
all the other Director Generals have said the same thing.
    Senator Menendez. They have.
    Ambassador Thomas-Greenfield. And you said that to me 
yesterday as well. But I am also going to say to you that I do 
take this personally. I take it as a personal commitment that I 
am making to this committee that I will work diligently to 
improve those numbers, and I will not sleep unless those 
numbers are improved. I will personally put my own hand on all 
of the recruitment policies. I will review those policies to 
ensure that if there is anything in the implementation of our 
policies that is blocking increasing those numbers, that we 
will work to remove those.
    I am concerned that these numbers are so low. I am equally 
concerned that the African American numbers have gone down 
since I joined the Foreign Service 30 years ago.
    So we have a lot of work to do, and I will be working with 
the staff in the Director General's office, if I am confirmed, 
to ensure that when I come before you the next time--in fact, 
you will not have to call me. I will be directly in touch with 
you to let you know what progress we are making on getting this 
done. And I will look forward to working with you and your 
staff to get your ideas on how we might move forward to improve 
these numbers not just for Hispanics but for all groups.
    The Foreign Service is not successful if it does not 
represent the face of America. I have had the experience of 
being in the Foreign Service for 30 years, and I have seen this 
for 30 years. I am in the position now to make a difference, 
and I do intend to use my position to make a difference.
    Senator Menendez. Well, I appreciate your answer, and there 
are one or two things I want to follow up with you, but in 
deference to my colleagues, I am going to have them go and we 
will come back. But I do appreciate your answer.
    Senator Rubio.
    Senator Rubio. Thank you.
    Ambassador White, when I was in Haiti earlier this year, 
one of the major obstacles--and I think I mentioned that to you 
when we talked earlier today--one of the major obstacles that I 
found to private investment in the country is the absence of a 
credible land registry. And there are numerous competing claims 
for a plot of land, for example. And so investors, particularly 
in Florida, people that are interested in going to Haiti and 
doing some sort of investment and business venture, are worried 
that there is nowhere to register their property claims. And I 
think that is something that the Haitian Government shared with 
us as well during our visit.
    What ideas do we have? What could the U.S.'s role be in 
terms of creating capacity in that regard, both from your 
experience in serving there before and your experience around 
the world. Have you encountered that? And what is it that we 
can do from a capacity-building standpoint? What programs do we 
have in place or should we think about putting in place to help 
in that regard?
    Ambassador White. It is a huge problem. It is a problem in 
every country I have ever served in. It was a problem in 
Liberia, God knows. It is always a problem because there has 
not been any formal system of getting deeds. It has been a 
worse system, worse in Haiti, because the little registry that 
there was before the earthquake was destroyed during the 
earthquakes, and now we are starting not only from zero but 
minus-zero.
    There has been a small start when they are trying to set up 
these communities of just kind of discussion with people in the 
communities and deciding, yes, we will on the basis of who 
lived there for what amount of time so we can just kind of get 
it rolling. But there are several stakeholders, including the 
U.S. Government, that are working with the Ministry of Justice, 
that are working with the Bureau of Lands that are trying to 
map out where these plots are and who owns them and what kind 
of paperwork is needed. And this is going to take a while.
    But I do think that it is not only the United States of 
America like I said, but it is other donors as well. There has 
been progress. There will be more progress. There is an 
enormous amount of attention from both the Haitian Government 
and donors on this issue, and I do see that we are moving 
forward. And you are right. It has got to be done.
    Senator Rubio. Thank you.
    I guess a question for Ambassador Greenfield. I have been 
on the committee now for a year, so some of this is new to me.
    What are the challenges to recruiting people to be 
interested in the Foreign Service in the modern era? I mean, is 
it a challenge, when we go on college campuses or across the 
country? I read somewhere--maybe it was in your testimony--
about the use of social media and other platforms to get people 
excited about it. We have a lot of talented young people around 
the world. I think this young generation of Americans are the 
greatest connectors and collaborators in world history in terms 
of working with other people on things through the use of 
social media. What are some of the challenges we face in 
getting people interested in Foreign Service other than the 
pay?
    Ambassador Thomas-Greenfield. I was going to start with 
pay.
    Thank you for that question. That is an excellent question.
    I think some of the challenges are life in the Foreign 
Service. It is not just the job of the individual who is being 
hired. The whole family becomes part of this, and it is very 
hard sometimes for people to make the decision or for families 
to make the decision to sacrifice their own lives for a Foreign 
Service career of another family member. So I think that is one 
of the big challenges.
    The other, I think, is the fear of living overseas and 
leaving everything behind to go and live in a foreign country 
and try to learn the culture and the life of living in a 
foreign country.
    I think we can address those concerns of people, and we are 
attempting to address those concerns because once they come in 
the Foreign Service, they see that it is easy. But I think we 
have to look in a more strategic way at those life changes that 
people are required to make if they go into the Foreign 
Service.
    Senator Rubio. Thank you.
    And, Ms. Winstanley, I have a question actually directly 
related to Malta. It is an issue we also encountered when we 
were over there. It has to do with the issue of human 
trafficking. And I have read some reports where there has been 
some--let me begin by saying that I think our relationship with 
the Government of Malta is excellent. We are very grateful for 
that partnership. We are very grateful for that alliance that 
we have and for all the cooperation they have given. By no 
means is this a criticism of the government or that alliance, 
but a recognition of a problem that by our own trafficking in 
persons report we know exists today.
    Malta received a tier 2. They are on the watch list status 
for a second year in a row. They are both a source and a 
destination country for European women that are being subjected 
to sex trafficking.
    Surprisingly enough--there are multiple sources that say 
this--in 2010 the Government of Malta did not even identify a 
single victim of trafficking despite very many credible reports 
in that regard.
    What ideas--and I think from your service elsewhere as 
well, but what ideas do we have about helping to address that 
issue? Obviously, it is a complicated one. It is a global one. 
But given its strategic location as a gateway between the 
Middle East and North Africa and the rest of the West, I do not 
think that problem is going to get any better unless it is 
addressed honestly. So what can we do from the position you are 
going to occupy to be of assistance in that regard?
    Ms. Abercrombie-Winstanley. Thank you, Senator. A wonderful 
question and certainly this would be, if confirmed, one of my 
priorities when I arrive in Malta.
    The Maltese have had trouble with identifying victims and 
we have been working with them to help them do so, as well as 
ensuring that they do not hold victims responsible or charge 
them for crimes that are directly related to them having been 
trafficked. We worked with them for a workshop this past July 
to help them identify victims to address that specifically. In 
the last couple of months, they also have had a case that they 
brought to successful prosecution giving someone a 10-year 
sentence for trafficking in persons. This is the first 
successful prosecution and shows that they are moving in the 
right direction. They have got a chairman of the board to 
counter trafficking in persons, and as I said, it will be my 
priority when I get there.
    Senator Rubio. Thank you.
    Senator Menendez. Well, thank you very much.
    Senator Durbin.
    Senator Durbin. Thanks to all three of you.
    Ambassador White, I was recently in Port-au-Prince, as I 
mentioned, and I stayed at a nice place and there was a heavy 
rainstorm. And the woman who kind of the manager of the 
property--we were looking out the window at the rain, and she 
said tomorrow morning in Port-au-Prince they will report how 
many people died. I said, died? She said, from the rain. I 
said, it is a heavy rainstorm but why would people die? She 
said, there will be drownings in Port-au-Prince as a result of 
rainfall.
    The story behind that has a lot to do with the fact that 
this country has very little, if any, infrastructure to move 
water or sewage for that matter. It is just open. It runs 
through the streets and overwhelms residences and drowns 
children, that sort of thing.
    But there is a second part to the story, and that is what 
has happened to Haiti as a country. Lift this up and show it. 
It is not difficult to see the border between Haiti and the 
Dominican Republic----
    Ambassador White. It surely is not.
    Senator Durbin [continuing]. Because to the right on this 
island of Hispaniola is the Dominican Republic which has had a 
serious effort to plant trees. To the left is Haiti where the 
trees have just been removed. So when the rain falls, it comes 
rolling down these hills and mountains into these cities, 
drowning the poor people who live there.
    I have tried to put some money in, as I mentioned earlier, 
for various projects, and one of them is reforestation in 
Haiti. They cannot reclaim this land for agricultural purposes 
or any purpose until they deal with that issue. And it is hard 
because people chop down every tree they happen to grow because 
they need wood for heat when it gets chilly by their standards.
    When I brought this up with the previous President, he kind 
of laughed at me and said it will never work. I think it has to 
work. And when President Martelly weighs this as one of his 
concerns, I hope that you will make it one of yours when you 
are Ambassador, that we can join in this effort toward 
reforestation.
    I would like to have your comment.
    Ambassador White. Yes. I could not agree with you more. It 
will be something that I will look at.
    Unfortunately, during the 5 years that I was in Haiti, I 
literally saw that happen right before my eyes. It kept coming 
lower and lower and lower. They kept chopping more and more 
trees. And back in those days, AID tried desperately to stop 
it, too, by planting trees, planting trees. They would chop 
them down. We would plant. They would chop them down. We would 
plant. It was just an endless cycle of wasted money to tell you 
the honest-to-God truth.
    And so what we have decided to do now are kind of two 
things. Well, actually three things.
    One, we are going to tie planting of trees to fruit trees 
and trees that can actually give a profit, and they sell the 
mango or they sell the cocoa or they sell the coffee, whatever. 
So there will be less incentive to cut down a tree. That is one 
thing.
    The second thing is we are going to do some plantings high 
up and try to protect them so that they will take root. It 
takes maybe 6 months to a year to get the root in there. We are 
going to have to use some protection of some fir trees, et 
cetera, to keep on the higher levels. The fruit trees will not 
grow up there.
    But I think the key that we did not use 25 years ago was 
that we have got to give a decent substitute for charcoal or 
they are just going to keep cutting down the trees because they 
need something to cook their food with. I mean, people have got 
to eat. So we have got to decide what is that alternate fuel 
and how can we use it, how can we introduce it. And we are 
starting some pilot programs and using gas, using some 
briquettes that are made out of things that are not wood, et 
cetera. So I think that is going to have to be the key, that we 
are going to find a substitute for the wood so the wood can do 
what it needs to do and save the banks from falling into the 
ocean and killing people.
    Senator Durbin. The other thing that was very obvious--and 
you can see it when you catch a plane to go to Port-au-Prince--
is how many Americans and others are literally volunteering 
their lives to help these people. It is a noble thing and a 
heartwarming thing. But it is frustrating too. There are so 
many NGOs stumbling over one another doing this and that thing. 
You often wonder if there is any coordination even among 
American NGOs about what they are trying to achieve.
    There is a second aspect of this. One NGO, in particular, 
was close to Senator Mike DeWine of Ohio, and Senator DeWine 
made more than 20 trips to Haiti. That NGO was called Hands 
Together. It was run by a Catholic priest. They have schools 
and orphanages and feeding places and the like. And I visited 
them again when I was just recently there. Father Tom does a 
great job. He has given his life to this. And he has so many 
volunteers and helpers. They do wonderful work with a limited 
amount of money.
    He sent me an e-mail 2 weeks ago, and his chief of staff 
was gunned down right out in front of his school. And he was 
heartbroken and ready to give up because security is just 
absent from many, many places, Cite Soleil in Port-au-Prince, 
for example.
    And now we hear from President Martelly, whom I admire and 
think has the potential of really adding something very 
positive to Haiti, that he wants to create an army. It would 
seem that a police force may be more important at this moment 
in terms of establishing at least basic law and order in this 
island.
    What are your thoughts about this notion of a Haitian army?
    Ambassador White. Yes; that is an excellent question. Thank 
you, Senator.
    We struggled with this also in Liberia. Ambassador Thomas-
Greenfield and I, believe me, had many, many meetings with 
President Sirleaf on standing up an army, standing up a 
functional police force.
    I believe that we came to the conclusion then, and I have 
certainly come to the conclusion and the administration has 
come to the conclusion, that what we need in Haiti and what we 
are going to put our resources against is a strong police 
force. We need to stabilize the country. We have got to stop 
these killings. We have got to stop the rapes of the women. We 
have got to stop abuse. And that is not an army's job. That is 
a strong police force job. So I feel very strongly about that, 
to tell you truth.
    And let me just mention that the discoordination, if you 
will, of a million NGOs--they want to do the right thing and 
their heart is in the right place. Again, we found the same 
thing in Liberia. They were pouring in there, especially lots 
of Liberian Americans who had spent years and years in the 
States and wanted to go back. They started a school here and a 
clinic there, and then, oh, they did not have books. They did 
not have medicine. You know, what were they doing and who were 
they coordinating with?
    The minister--the fabulous Minister of Plan there, was my 
best friend, now the Minister of Finance, a Harvard graduate--
and I decided that we would in his ministry, in the Ministry of 
Plan, start a donor mapping using IT. So we used spatial 
technology. It was cutting-edge. We had a picture and we had a 
map and we had a little description who was it, what were they 
doing, how much were they putting, and were they having any 
real impact, success of any kind. It took us 2 years to put it 
together, but today he can bring the screen up and he knows 
where all these people are. And we are going to do that in 
Haiti too.
    Senator Durbin. Good.
    The last point I will make is that I learned while I was 
there that what was once a thriving coffee industry has all but 
disappeared in Haiti. Some 10 percent of what was their top 
production remains. I have approached a company in Chicago that 
sells coffee that they import from all around the world and 
asked them if they would make this a special project. There is 
not any reason why others could not join them. So perhaps our 
insatiable appetite for coffee will lead to some more commerce 
coming out of Haiti.
    Thank you.
    Ambassador White. Thank you. Just so you know, also--now I 
am sounding like I am 3 million years old instead of just a 
million years old. But in any case, in Tanzania we did a 
fabulous coffee project. Starbucks came over and they were 
putting coffee--that they used to pay 2 cents a kilo for and 
now it is up to like 30 cents. And it is selling like hotcakes. 
I do not know why we could not do the same thing in Haiti and 
have it that much closer to the United States of America. So I 
am with you on that one.
    Senator Durbin. Thanks.
    Senator Menendez. Thank you, Senator Durbin.
    Ambassador Greenfield, let me just go back to you for a 
moment. For my friends at the State Department, the charts that 
are displayed here show the demographics of America after the 
2010 census. And I look at the 2011 State Department figures, 
and Native Americans and Hispanic Americans are the only groups 
that are underrepresented by population as a percentage of the 
population. In the case of Hispanics, when comparing their 
representation in the State Department to the size of their 
U.S. population, the underrepresentation is pretty dramatic.
    And then I look at 2009--and this is why I am a little 
upset at the testimony that was given previously--2011 numbers 
are worse than 2009 numbers. So we are not only dramatically 
underrepresented, we are moving in the wrong direction.
    So with that again as the premise of why I have focused on 
this so much, I would like to ask, Will you commit to look at 
the recruitment efforts outside of traditional schools? I 
appreciate those schools from which we have drawn the Foreign 
Service. They are some of the greatest schools, but they are 
not where a lot of the pools of these diverse communities are 
necessarily at. And there are very good schools with very good, 
diverse pools that would be maybe helpful in the recruitment 
process. Is that something that you can tell me you will do?
    Ambassador Thomas-Greenfield. Absolutely.
    Senator Menendez. In terms of the oral exam, will you, as 
part of your overall review of this process, look at how the 
oral exam is being performed in a way that makes it somehow 
more objective and less subjective and therefore a filtering 
system by which the progress does not take place?
    Ambassador Thomas-Greenfield. I have asked that question as 
a result of our meeting yesterday to talk to the folks who 
administer the oral exam to see how it is administered and to 
look at the issues that you have raised. They have assured me 
that that is not an issue, that in fact the pass rate of the 
oral exam for Hispanics is even with other populations. It is 
the written exam that is the issue. But I do assure you that I 
will look at both, and if there is a problem, we will work to 
fix it.
    There clearly is a problem, based on the chart that you 
have given me here, with our recruitment efforts. Trying to 
figure out where that is and how we address it will be one of 
my highest priorities. And I will be relentless.
    Senator Menendez. I appreciate that answer.
    Something is wrong because your predecessor came in and 
told us how many people were recruited, took the test and 
passed the test, but then they do not get into the Foreign 
Service. So if the hardest part is getting people and then 
passing the written test and then they do not enter in the 
Foreign Service, there is disconnect there, and what that tells 
me is look at the oral exam. But I would be open to learning 
that there are other issues.
    I always believe that at an institution, it starts from the 
top and works its way through the entire process in a way that 
leads everyone to understand that there is shared 
responsibility to make progress in this effort. Is that 
something that you will seek to do within the Department?
    Ambassador Thomas-Greenfield. Yes, sir. And we are looking 
at all of leadership in the Department because the recruitment 
part of it is a big part of it, but it is not all of it. We 
also have an issue of mentoring so that we retain the people, 
the small numbers of people that we recruit, and that is the 
role of our leaders. And I will, as Director General, if I am 
confirmed, really drill that into all of our ambassadors, all 
of our senior leaders in the Department that they must take 
responsibility for mentoring staff who are coming in. One of 
the problems that I think that many Hispanics and African 
Americans and other minorities have when they come in the 
Foreign Service, there are not leaders that they have who 
mentor them, and we are going to make sure that that happens as 
well. But it is not just my problem. I will make it the entire 
Department's problem.
    Senator Menendez. Thank you.
    I know that this precedes you, but do you know if the 
Department has submitted its diversity and inclusion strategic 
plan as required by the March 1 memo from the OPM Director, 
John Barry?
    Ambassador Thomas-Greenfield. It is in final draft, and I
understand it is due on March 16 and it will be turned in by 
that date.
    Senator Menendez. I know your confirmation has to take 
place, but I hope that internally there is a way in which they 
can allow for your input so that some of the things we have 
talked about might be incorporated in that ultimate memo.
    Finally, not on a minority hiring question, but do you 
believe that, as the Director General, you are going to have 
the authority and the flexibility with respect to the type of 
personnel policy that will allow the State Department to deal 
with the diplomatic challenges of the rapidly changing world we 
find ourselves in?
    Ambassador Thomas-Greenfield. I think I will have that
authority and flexibility, but it is not only the role of the 
Director General again just with recruiting and retention. It 
is a Departmentwide responsibility and there are a number of 
entities within the State Department that have responsibility 
for some kind of hiring. I would give, for example, the new CSO 
Office. The director of that office was here for his hearing 
yesterday. They will be looking at how they can bring in people 
in a search type of way to deal with emergencies so that if we 
do not have people who are already employed, we can bring them 
in quickly so that they can address some of our emergent needs.
    Senator Menendez. Well, thank you very much for your 
answers.
    Finally, Ms. Winstanley, I do not want you to think I left 
you out of the equation, though I am sure you would be happy to 
be left out. [Laughter.]
    Senator Menendez. It is not that bad. Ambassador Greenfield 
took it all for you. She is going to be a great Director 
General.
    Let me ask you. I have heard many good things about Malta, 
but there is one that as the United States continues to pursue 
trying to deter Iran's march to nuclear weapons, is of real 
concern to us. And I want to hear that you would make it one of 
your priorities if you are confirmed. It is with reference to 
Iran's shell game with its cargo shipping line, IRISL. It is an 
entity which has been designated by the United States and the 
European Union because of its central role in evading sanctions 
designed to stop the movement of controlled weapons, missiles, 
and nuclear technology to and from Iran. Some 57 ships 
designated by OFAC, the Office of Foreign Assets Control of the 
United States, the U.N., and the EU continue to fly the Maltese 
flag despite their clear connections to IRISL. Thirty-three of 
those ships are currently in Iranian ports or have been there 
this year.
    So I would hope, if you are confirmed, that you will raise 
this at the highest levels of the Maltese Government and urge 
them to cut business ties to ensure that IRISL is not using 
them as a shell process to evade the tremendous efforts that 
the Obama administration and this Congress pursued using 
peaceful diplomacy tools, which are sanctions, to deter the 
Iranians from their nuclear weapons program. Can you make that 
commitment to the committee?
    Ms. Abercrombie-Winstanley. Senator, I absolutely can make 
the commitment that, if confirmed, this will be among my 
highest priorities.
    The Maltese have taken some steps in the recent past 
including agreeing not to reflag any additional Iranian ships. 
So they will not be reflagging new Iranian ships. They have 
also been supportive of enforcing U.N. sanctions with regard to 
Iranian cargo and they have interdicted ships and seized 
illegal cargo. So they have taken what we consider some 
important steps. They are small steps, what we consider small 
wins. We are going to be working for big wins. So this will be 
something I will take up at an early opportunity, if confirmed.
    Senator Menendez. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    Ambassador White, we talked about this earlier today as 
well when the issue of the restavek, which is a concept I was 
not familiar with until very recently. For those who are 
watching or may be in the audience and do not know what it is, 
it is an unfortunate practice of very poor families in Haiti 
over the decades to place their children with better-off 
families who provide them employment, usually domestically, in 
exchange for providing for these children and sometimes even 
educating them.
    The problem, of course, has been that over the years there 
are now people that have taken advantage of that system or have 
taken advantage of that problem and make it much, much worse, 
as you are aware. A moment ago, Senator Durbin showed us a 
picture of the Haitian-Dominican border. In addition to a 
deforestation problem on that border, there is the reality that 
on that border you can buy a child, that there are children 
that are trafficked and sold as child prostitutes both into the 
Dominican Republic and in those border towns in that region. It 
is a very tragic situation.
    As we met with folks in Haiti, one of the solutions that 
has clearly been offered is the idea of providing every child--
and it is one of the priorities of the President, President 
Martelly, is to provide children educational opportunities. One 
of the things that I was struck by during my visit was these 
very poor families but children walking to and from school in 
impeccable uniforms which is an indication of a real societal 
value for education. Families will do anything if they can get 
their kids into a school. In fact, we visited one of these 
schools. It was called the Institute for Human and Community 
Development. They specifically focused on victims of human 
trafficking, providing them an educational opportunity.
    But there are still challenges along the way. One of the 
challenges I found, unfortunately, is that there is the idea 
that this is more of a cultural problem than a human tragedy. 
And I am not saying that is widespread in the society, but 
there are some that view it that way.
    The other is as you said, that there is not the 
governmental capacity to deal with this. What I thought the 
most enlightening approach was the more children they can get 
into a school setting, which in my understanding is a very 
cost-effective measure, the likelier it will be for these 
parents not to put their kids in this environment.
    And by the way, not to put the blame completely on the 
parents. I mean, there are folks posing as NGO members who are 
going into camps and saying they have got jobs for these kids, 
and in fact, they are nothing but traffickers who are doing 
these horrible things.
    So what initiatives can we do in support of that ambition 
of providing--given our current set and as your background with 
USAID, you are probably even more insightful in this regard. 
What can we do in terms of helping the Haitian people build 
more capacity in their educational front particularly for 
children so that we are accomplishing the dual goals of, No. 1, 
creating intellectual and academic capacity, you know, 
workforce capacity, in the country, but at the same time giving 
these children an alternative and their families an alternative 
to the restavek situation? So what are our existing programs 
and platforms and what can we build on?
    Ambassador White. Thank you very much, Senator.
    Yes. In my mind over the years, we have not put enough 
emphasis not only on primary education but secondary education. 
If a young girl graduates only from primary school, she does 
not have a longer life. She does not have a higher earning 
wage. She does not have fewer children. If she spends 2 years 
in secondary school, then we are starting to make a difference. 
So we need to not only concentrate on--not we, the United 
States Government, but the donors as a whole because education 
happens not to be one of our focus areas, although we are doing 
it around some of our development corridors, but we are paying 
attention to the national level in certain areas like 
curriculum. But we have got to concentrate on education.
    We have got to make sure that the police are trained in 
recognizing child abuse, and it is different from what the 
traditional restavek was supposed to be. It was supposed to be 
that someone cared for the children from the rural areas into 
the city areas that they could not take care of them in the 
rural areas. They could not provide any services. Instead it 
has become in many instances just a domestic service and often 
abusive.
    We just signed a huge contract with several organizations--
three I believe--that are going to look into issues of youth 
employment, girl abuse, women abuse, and especially this 
restavek story that is going on down there because we all know 
that it is untenable from a human rights' point of view.
    Senator Menendez. Thank you, Senator Rubio.
    Thank you all for your testimony. I want you to know that 
you must have a lot of friends because this room is almost--not 
quite--but almost as filled as when George Clooney was here 
today. [Laughter.]
    There are not as many cameras, but there are a fair number 
of people here.
    Thank you for all of your responses to the questions.
    The record will remain open until this Friday. I would urge 
the nominees, if you receive a question from any member, that 
you answer it expeditiously. It will expedite the process of 
your nomination.
    And with the thanks of the committee to all the nominees, 
this hearing is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


      Responses of Linda Thomas-Greenfield to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Based on your most recent tour as Ambassador to Liberia, 
can you share your thoughts on how the State Department could better 
train its Foreign and civil service officers to prepare for working in 
those environments? What's missing and what do you see as some critical 
steps the Department could take to strengthen its focus on prevention 
and mitigation?

    Answer. One thing I learned is that, as the Secretary observed in 
her recent Quadrennial Diplomacy and Development Review (QDDR), it is 
vital that agencies learn to work better together in support of U.S. 
development and diplomacy goals. This is nowhere more important than in 
countries in which we are working to prevent, mitigate, or respond to 
conflict such as Liberia. In Liberia, I practiced the concept of ``one 
team, one mission'' that brought all the agencies together. With this 
objective in mind, the Foreign Service Institute (FSI) and USAID have 
created their first-ever joint courses: a distance learning course on 
Development in Diplomacy, and a new classroom course on Partnership in 
Development and Diplomacy. Both courses stress the importance of joint 
planning and execution of development and diplomacy goals across 
agencies, and offer simulated exercises to train Foreign Service and 
Civil Service employees how to do such cooperative work in the field. 
We also have Area Studies courses that prepare employees from different 
agencies for the social, political, cultural, economic, religious, and 
governmental dimensions of the countries where they will serve 
together.
    In addition, the State Department is taking steps to strengthen its 
focus on conflict prevention and mitigation. In November 2011 State 
announced the establishment of a new Bureau, the Bureau of Conflict and 
Stabilization Operations (CSO). The responsibilities of this new Bureau 
will be to anticipate major security challenges; provide timely, 
operational solutions; build integrated approaches to conflict 
prevention and stabilization; and to leverage partnerships with 
nongovernmental and international partners.

    Question. According to the 2010 Quadrennial Diplomacy and 
Development Review, more than 25 percent of State and USAID's personnel 
serve in the 30 countries classified as highest risk for conflict and 
instability. The QDDR recommended expanding training for all 
predeployment staff that are going to those countries. However, class 
schedules and deployments often do not line up and Foreign Service 
officers are unable to complete the trainings. Distance-learning 
courses could fill this gap until there are opportunities for in-depth 
and in-person study. What steps will you take to develop a more 
comprehensive course offering that includes distance-learning courses 
on crisis and conflict prevention and ensure they are offered--and 
taken by FSOs?

    Answer. FSI is working to revamp its training offerings in this 
area with the new CSO Bureau, and can explore the creation of a 
distance learning course, which would require both time and resources, 
in that context. In recognition of the unique challenges posed by the 
growing number of countries with a high risk for conflict and 
instability, FSI created a Stability Operations Training Division 
focused on predeployment training for employees assigned to 
Afghanistan, Iraq, or Pakistan and training in support of conflict 
prevention and reconstruction operations. The courses for Afghanistan, 
Iraq, and Pakistan are offered on a monthly basis throughout the 
transfer cycle to provide every opportunity for employees to attend.
    FSI and the staff of Under Secretary of State for Civilian 
Security, Democracy, and Human Rights are discussing how the Department 
might expand training to employees headed to other countries at risk 
for conflict and/or instability. One idea is to use FSI's current 
``Foundations in Conflict Prevention and Response'' course, which is 
currently directed at members of the CSO Bureau's Civilian Response 
Corps, as the basis for a course that would be targeted at any Foreign 
Service and Civil Service employees serving in posts where conflict 
and/or instability may be an issue.

    Question. Within the State Department and USAID there seems to be 
virtually no mid- and senior-level career training made available on 
crisis prevention. This deficit is problematic for future leaders of 
the Foreign Service. How do you think the absence of such courses can 
be addressed and what role do you see for yourself in helping to ensure 
such training is available?

    Answer. The Foreign Service Institute (FSI) and the Bureau of 
Conflict and Stabilization Operations (CSO) are working together to 
expand the emphasis on conflict prevention in FSI's ``Foundations in 
Conflict Prevention and Response'' course, which is directed at the 
Civilian Response Corps. FSI and CSO are discussing with the J family 
of bureaus ways to offer similar training to all officers deploying to 
pre- and post-conflict countries. FSI is also exploring how to 
integrate conflict prevention and response training into existing 
courses in our Political Tradecraft and Area Studies divisions.
    Working effectively in pre- and post-conflict countries requires 
strong leadership. As such FSI sends out trainers to conduct onsite 
Crisis Management Training at all our overseas missions, with exercises 
that include the Ambassador and other senior management. Every post 
receives this training at least every 2\1/2\ years. FSI also offers a 
classroom course on its campus on ``Leading in a High Threat Post.'' If 
confirmed as DG, I will strongly support these efforts and will ensure 
that we continue to expand training as needed.

    Question. What has been the impact of the U.S Government National 
Security Language Initiative in terms of recruitment to the Foreign 
Service? How many new FSOs received NSLI grants/training?

    Answer. The State Department's programs for high school and 
university students launched under the National Security Language 
Initiative in 2006 are having a significant impact in increasing the 
pool of Americans studying and mastering critical-needed foreign 
languages. More than 1,500 American students are participating in these 
exchange programs each year. As more of these students finish their 
education and develop in their careers, we expect a growing number will 
pursue a career in the Foreign Service. In a recent survey of the 2006-
2011 alumni of one of our programs, the Critical Language Scholarship 
Program, just over half of the respondents are still in school, while 
about a quarter are employed full-time. Of those employed full time, 
two-thirds say that their language skills have helped them obtain their 
current job. Nearly a quarter of those employed are working in 
government service (18 of them working for the State Department or 
USAID), while another half are working for nongovernmental 
organizations, international organizations, and educational 
institutions, furthering their skills and knowledge.
                                 ______
                                 

           Response of Pamela A. White to Question Submitted 
                      by Senator Richard G. Lugar

    Question. Are you supportive of the establishment of a United 
States-Haiti enterprise fund?

    Answer. The United States attaches critical importance to helping 
Haiti strengthen, expand, and diversify its economy. No long-term 
development goals in Haiti can be sustainable without the growth of the 
private sector. This is essential both to improve the quality of life 
of the people of Haiti and to develop a tax base that will allow the 
Government of Haiti and not donors to fund essential social services. 
An enterprise fund on the model of those that have succeeded in Central 
and Eastern Europe and funded with sufficient, additional resources is 
worth examining and could potentially add to our existing tools for 
promoting a healthy private sector in Haiti. These include an active 
Development Credit Authority program with local banks for small and 
medium enterprise lending; the current discussion for the provision of 
assistance to help Haitian financial institutions provide loans to 
finance the construction and repair of homes and business; a mobile 
money operation with cell phone companies and the Gates Foundation; and 
assistance for investment in micro, small, and medium enterprise in 
Haiti especially by the Haitian-American diaspora.
                                 ______
                                 

          Responses of Pamela A. White to Questions Submitted 
                       by Senator Robert Menendez

    Question. Can you explain what your role and objectives as 
Ambassador to Haiti would be, if you are confirmed?

    Answer. The United States has a solid strategy for contributing to 
the reconstruction and development of Haiti, one that reflects 
Secretary Clinton's vision of a more promising future for that country. 
If confirmed I will work with all my energy to translate the goals of a 
more prosperous and stable Haiti into reality. Because the success of 
Haiti's recovery is ultimately up to the Haitians themselves, I will, 
if confirmed, work to establish the strong working relations with 
Haiti's decisionmakers that will help us expedite that process.

    Question. As the United States Government shifts from emergency aid 
to longer term development programming, what steps will you take to 
ensure this transition is carried out in a way that will not further 
marginalize vulnerable earthquake victims? How will you ensure there 
are no gaps in the provision of basic services for Haitians who remain 
displaced?

    Answer. One of the important obligations of the Government of Haiti 
is ensuring that its plans for the country's reconstruction work 
benefit the widest possible range of citizens. Providing basic services 
to Haitians displaced by the earthquake remains a crucial task of the 
Government of Haiti. These challenges underscore the importance of 
building capacity in Haitian institutions. The United States 
coordinates closely with other donors and with Haitian authorities to 
help the Government of Haiti take the lead in the country's recovery 
and fulfill the key responsibilities of a sovereign government toward 
its citizens. USAID will continue to provide basic health services to 
over 40 percent of the population.

    Question. What progress do you see on the Martelly government's 16/
6 initiative to rehouse 6 camps into 16 neighborhoods?

    Answer. The United States fully supports the Martelly 
administration's 6/16 initiative, whereby six priority camps located in 
public spaces will be closed and their residents reintegrated into the 
16 neighborhoods from which they originate. Together with International 
Organization for Migration, USAID's Office of Transitional Initiatives 
is supporting Mayor Parent's initiative in Petionville, which has 
dismantled two camps in two public parks in the heart of the city and 
provided camp residents with options--which provided resettlement 
assistance to more than 1,300 people.
    This initiative builds on lessons learned in Haiti over the last 19 
months and works in phases: registration/census of camp residents, 
announcement of the program, options counseling with residents, 
relocation, and followup after reintegration.

    Question. As Ambassador, would you increase diplomatic efforts to 
encourage the Haitian Government to adopt comprehensive housing 
solutions and ensure the protection needs of vulnerable communities are 
integrated into the Haitian Government's 6/16 housing plan?

    Answer. The U.S. Government is working with Haitian officials, at 
both the national and local levels, and the International Organization 
for Migration, which is the lead agency in the camp management cluster, 
to find long-term, sustainable solutions for the 490,545 people still 
living in precarious situations in displaced persons camps. USAID has 
successfully piloted a program to offer choices to camp residents 
including housing repairs to structurally sound, existing homes; 
installation of temporary shelters; or 1-year rental vouchers. The 
majority of IDPs accepted rental assistance and moved out of the camps 
voluntarily.

    Question. Can you provide an assessment of the adequacy of 
information being provided publicly regarding the reconstruction 
efforts?

    Answer. One of the greatest benefits of the Interim Haiti Recovery 
Commission (IHRC) was its public releases to Haitians regarding 
reconstruction progress, and the comprehensive report at www.cirh.ht on 
the progress of each individual reconstruction project. Now, the 
Government of Haiti is working with the Inter-American Development Bank 
(IDB) and United Nations Development Program (UNDP) to improve the 
government's ability to use information technology to update these 
progress reports and to get out information to Haitian citizens about 
progress in the reconstruction.

    Question. Since the Interim Haiti Reconstruction Commission (IHRC) 
has been
 allowed to lapse, how effectively are international donors able to 
coordinate foreign aid and reconstruction activities with each other 
and with the Haitian Government?

    Answer. The October 2011 lapse of the mandate of the Interim Haiti 
Recovery Commission did present a coordination challenge. In response 
to this challenge, the resident representatives of the 12 major public 
sector donors (aka the G12), all of whom were members of the IHRC Board 
of Directors, have continued their coordination with each other on the 
ground and with the Office of the Prime Minister.

    Question. How would you suggest improving coordination among donors 
and with the Haitian Government?

    Answer. The greatest opportunity to improve donor coordination is 
through advancing the Government of Haiti's efforts to make it easier, 
more routine, and more automated to collect information from donors 
using improved information technology. Both the Inter-American 
Development Bank (IDB) and the United Nations Development Program 
(UNDP) are supporting Haitian Government efforts in this regard. I 
helped advance such initiatives and experienced their positive impact 
during my tenure in Liberia, and look forward to the success of these 
efforts in Haiti, if I am confirmed.


     NOMINATIONS OF CARLOS PASCUAL, JOHN STEVENS, AND JACOB WALLES

                              ----------                              


                        TUESDAY, MARCH 20, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Carlos Pascual, of the District of Columbia, to be an 
        Assistant Secretary of State (Energy Resources)
John Christopher Stevens, of California, to be Ambassador to 
        Libya
Jacob Walles, of Delaware, to be Ambassador to the Tunisian 
        Republic
                              ----------                              

    The committee met, pursuant to notice, at 2:50 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer, Menendez, Coons, Udall, Lugar, and 
Risch.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon, everybody.
    Today, the full Senate Foreign Relations Committee meets to 
consider three nominees for important posts at the State 
Department: Carlos Pascual to be Assistant Secretary of State 
for Energy Resources; John Christopher Stevens to be Ambassador 
to Libya; and Jacob Walles to be Ambassador to the Republic of 
Tunisia.
    I am so pleased also to welcome Senator Christopher Coons. 
Where is he? Is he here? I will be so pleased--oh, there you 
are. [Laughter.]
    I am so pleased to see you here. I doubt you are going to 
speak from there, Senator. Going to say a few words about Mr. 
Walles in short order.
    Thank you so much, Senator.
    The first nominee we will consider is Ambassador Pascual, 
who currently serves as a special envoy and Coordinator for 
International Energy Affairs at the Department of State.
    Prior to this position, he served as the United States 
Ambassador to Mexico and as the Coordinator for Reconstruction 
and Stabilization at the State Department. Ambassador Pascual 
also served as the vice president and director of the Foreign 
Policy Studies Program at the Brookings Institution from 2006 
to 2009.
    Ambassador Pascual, you have been nominated to lead the 
newly established Bureau of Energy Resources at the Department 
of State.
    And when Hillary Clinton, our Secretary of State, announced 
the new Bureau, she aptly stated, ``You can't talk about our 
economy or foreign policy without talking about energy. With a 
growing global population and a finite supply of fossil fuels, 
the need to diversify our supply is urgent.''
    And I couldn't agree with her more. So if you are 
confirmed, you will be responsible for heightening attention to 
urgent global energy needs and helping to formulate effective 
U.S. international policy in such fields as biofuels, natural 
gas, and renewable energy.
    And then our second nominee, John Christopher Stevens, 
recently served in Benghazi, Libya, as the special envoy to the 
Libyan Transitional National Council, or TNC. Prior to this 
post, Mr. Stevens served as the Director of the Office of 
Multilateral Nuclear and Security Affairs at Department of 
State.
    Mr. Stevens is a career member of the Foreign Service.
    He joined the State Department in 1991. And I am very proud 
to say he is a Californian.
    Mr. Stevens, you have been nominated to be the U.S. 
Ambassador to Libya. And like so many, I watched in awe as the 
Libyan people fought with tremendous courage to bring an end to 
the brutal regime of Col. Muammar Gaddafi.
    But now the Libyan people are facing another extraordinary 
challenge, building a functioning government, civil society 
from the ground up. If confirmed, we hope you will be able to 
help convince the Libyan people to lay down their arms, to put 
aside their differences, continue the hard work of building a 
new and better future for Libyan men, women, and children.
    And our final nominee is Jacob Walles, who currently serves 
as Deputy Assistant Secretary of State for Near Eastern 
Affairs. Mr. Walles is also a career member of the Foreign 
Service, having joined the Department of State in 1981.
    Prior to this post, he was a senior fellow at the Council 
on Foreign Relations, and he also served at the U.S. consul 
general--as the U.S. consul general and chief of mission in 
Jerusalem.
    Mr. Walles has been nominated to be the U.S. Ambassador to 
Tunisia. And as we all know, the Tunisian people recently 
elected the al-Nahda Party into power, which describes itself 
as a moderate Islamist party. While many al-Nahda leaders have 
made encouraging statements about their commitment to democracy 
and a separation of religion and state, we have seen troubling 
proposals from some government officials that could push the 
country in the opposite direction.
    If confirmed, we hope you will work to encourage the 
Tunisian Government to continue to build a strong 
representative and democratic government that respects the 
rights of all Tunisian people, in particular maintains the 
extraordinary rights that Tunisia has long offered to women.
    So that completes my opening remarks, and I would turn to 
Senator Lugar. And when he is completed, we will turn to 
Senator Coons.

           OPENING STATEMENT OF HON RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Madam Chairman.
    I join you in welcoming our distinguished panel. I would 
like to extend a personal welcome to Chris Stevens, who spent a 
year on the committee staff in the 2005-2006 timeframe.
    He then went to Tripoli as deputy chief of mission during 
reopening of diplomatic relations with Libya after 27 years. 
For much of that tour, Chris was the charge d'affaires and lead 
interlocutor with the Gaddafi government. Chris was assigned 
again to Libya exactly a year ago, but this time his post was 
to be in Benghazi as the special envoy from our Government to 
the Transitional National Council.
    Chris has served his country for 22 years on issues related 
to North Africa and the Middle East. He served as a Peace Corps 
Volunteer in Morocco, and as a Foreign Service officer, he 
served tours in Saudi Arabia, Egypt, Syria, Jerusalem, and 
Libya.
    I understand his family is here from Oakland, CA, as the 
chairman has pointed out. I hope he will introduce them to the 
committee.
    Madam Chairman, I valued Chris's knowledge and insight 
while he was on my staff, and also have appreciated his 
willingness to offer counsel on the situation in Libya over the 
past year. I am very pleased the President has nominated a man 
whose substantive knowledge, experience, and respected 
leadership are so well suited to this posting.
    It is also a pleasure to welcome Ambassador Carlos Pascual, 
whose distinguished record is well known to the committee. In 
particular, I appreciate his efforts to promote the Nunn-Lugar 
Cooperative Threat Reduction Program as Ambassador to Ukraine, 
and I had the privilege of visiting with him in the Embassy 
during that tenure. Through the Nunn-Lugar partnership, Ukraine 
is nuclear weapons free.
    Carlos also served as the first Coordinator for 
Reconstruction and Stabilization, a position I had long 
believed was needed to make our policies in post-conflict 
situations more effective. Currently, Ambassador Pascual serves 
as International Energy Coordinator, a position I prescribed 
and was signed into law by President Bush in 2007 with the 
primary mission of putting energy at the top of our diplomatic 
agenda and better leveraging relevant activities and expertise 
across our Government.
    America's dependence on foreign oil imports from volatile 
and unreliable regimes is one of our foremost national security 
vulnerabilities. Iran's threat to shatter global economic 
recovery and splinter allied opposition to their nuclear 
weapons program by using their oil exports as leverage is just 
the most visible example today.
    The hundreds of billions of dollars we use to buy oil from 
autocratic regimes complicate our own national security 
policies by entrenching corruption, financing regional 
repression and war, and inflating Defense Department costs. 
Given the multiple crises in the Middle East, and the certainty 
that threats to oil supplies are not limited to the current 
Iran situation, President Obama did not act in our national 
interest, in my judgment, when he rejected approval of the 
Keystone XL pipeline. Even his own Energy Department says that 
Keystone would help lower gasoline prices.
    Ambassador Pascual, I understand that you were not involved 
in the 1,217 days of Keystone XL analysis or the final 
decision. However, you will be responsible for any future 
applications and will need to restore confidence in the State 
Department's independence from White House politics. I would 
like you to share with us today specific steps you will take to 
ensure an expeditious review of any new Keystone XL 
application.
    While broad energy security solutions will take time, I 
urge the administration to put in place, now, credible plans to 
manage an oil supply disruption. In particular, among the most 
significant challenges to enforcing strong sanctions on Iranian 
oil is concern over high gas prices.
    In addition to steps to increase domestic supply liquidity, 
international planning is needed. The administration should 
actively accelerate pipeline alternatives around the Strait of 
Hormuz and approve Keystone XL. It should work to improve data 
transparency and reporting in oil markets, such as prospects 
for new production to come online in Iraq, South Sudan, and 
Colombia.
    It needs to update international emergency response 
coordinating mechanisms and it needs to bring two of the 
fastest-growing oil consumers, China and India, into that 
system. And it should state clearly that restricting trade in 
energy is against U.S. interests. In other words, protecting 
Americans from oil price spikes takes more than talk of a 
release from the Strategic Petroleum Reserve.
    Ambassador, I would appreciate your assessment of where we 
stand on achieving each of these goals.
    Finally, Jake Walles has served with distinction over a 30-
year career in the Foreign Service--much of that time focused 
on promoting peace and stability in the Middle East. Most 
recently he served as Deputy Assistant Secretary of State with 
responsibility for Egypt, The Levant, Israel, and Palestinian 
affairs.
    Given the importance to the United States of Tunisia's 
continuing transition to democracy, I am pleased that someone 
with his wealth of regional experience and perspective has been 
nominated to this post.
    I thank you, Madam Chairman, for the opportunity to make 
this statement.
    Senator Boxer. Thank you so very much.
    And now we have the Honorable Chris Coons is going to 
introduce Mr. Jacob Walles to be Ambassador to the Tunisian 
Republic. And we know that Mr. Walles is from Delaware, and 
therefore, this is very appropriate.
    Senator, please proceed.

            STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Madam Chairwoman.
    It is rare that Delaware gets to contribute to the rank of 
Ambassador. So I appreciate both you and Ranking Member Lugar 
allowing me to make a brief statement of introduction.
    I am very proud of Jake Walles, who was not only born and 
raised in Delaware until he went off to college at Wesleyan 
University, but also attended the same high school that I did. 
So there is a double source of pride for our home State.
    As you both mentioned, for more than 20 years, Mr. Walles 
has served with distinction in the State Department, where he 
has played critical roles in Middle East and North African 
affairs. He served at the U.S. Embassy in Tel Aviv at the 
Office of Special Assistant for the Middle East Process, as 
chief of mission in Jerusalem, and now Deputy Assistant 
Secretary for Near Eastern Affairs.
    In all these roles, he has demonstrated an adept 
understanding of developments in a very difficult region and a 
unique ability to manage a host of relationships and issues.
    In his current position as Deputy Assistant Secretary of 
State for Near Eastern Affairs, he has overseen developments in 
a time of great regional transition and turmoil. He has a keen 
understanding of U.S. interests in the Middle East and has done 
a particularly good job briefing committee staff, I am told, on 
many regional developments and issues. These experiences will 
serve him well as U.S. Ambassador to Tunisia, a country at the 
heart of the Arab Spring, which has experienced significant 
political transition in the last year.
    As Secretary Clinton recently told our committee, the new 
Islamist government in Tunisia has demonstrated great promise, 
especially with regards to human rights, women's rights, and 
economic reform. And it is my hope with your leadership, should 
you be confirmed for ambassadorship, that these positive trends 
and this emerging new chapter in our longstanding relationship 
with Tunisia will continue to mature.
    I first met Jake at a dinner more than a year ago now with 
Israeli President Shimon Peres. At that dinner, President Peres 
said the uniqueness of the United States is that this is the 
only great power in history that became great not by what it 
took, but by what it gave, by helping other people regain their 
independence and their future.
    This exemplifies, I think, what makes American diplomacy so 
great, helping others through tough transitions. This has been 
a real accomplishment of the Arab Spring that we have played a 
supportive role, and it is my hope that with your leadership, 
Tunisia will one of the best examples of a new government 
emerging from a very difficult transition.
    I am confident Jake Walles will make a great Ambassador and 
continue to make the people of Delaware proud.
    Thank you, and thank you, Madam Chairwoman.
    Senator Boxer. Thank you so much.
    Well, with that, we might as well start with you, Mr. 
Walles.
    And I would ask each of you, if your family is here and you 
would like to acknowledge them, we would be thrilled to do 
that. They can stand, and we can give them the proper thanks. 
They deserve thanks because you are giving a lot of yourselves 
to your country.
    Go ahead, Mr. Walles.

STATEMENT OF JACOB WALLES, OF DELAWARE, TO BE AMBASSADOR TO THE 
                       TUNISIAN REPUBLIC

    Mr. Walles. Thank you, Chairman Boxer, Ranking Member 
Lugar, Senator Coons.
    It is an honor to appear before you today as President 
Obama's nominee to be the U.S. Ambassador to the Republic of 
Tunisia. I am grateful to the President and to Secretary 
Clinton for the confidence and trust they have shown in me.
    I would also like to thank Senator Coons for coming to 
introduce me today. I am proud of my roots in Delaware and 
pleased, Senator, that you took the time out of your busy 
schedule to join us today.
    I have served our country as a Foreign Service officer over 
these past 30 years and spent much of my career working on the 
Middle East, pursuing our objectives of peace, regional 
stability, and economic cooperation. For 4 years, I served as 
consul general and chief of mission in Jerusalem.
    Most recently, I have overseen U.S. policy in the Near 
East, dealing with the changes that have swept the Arab world 
in the past year. If confirmed by the Senate, I hope to use 
this experience to enhance our bilateral relationship with 
Tunisia, where the Arab Spring began just over a year ago.
    The people of the United States and Tunisia share over 200 
years of history. Only 3 years after the United States declared 
our independence, we signed our first agreement of friendship, 
cooperation, and trade with Tunisia. In 1805, the Tunisian 
Ambassador to the United States had the first known Ramadan 
iftar dinner with an American President. Since then, we have 
fought together against common enemies and helped each other in 
times of need.
    This historic bilateral relationship now has a new 
touchstone, the momentous events of the Arab Spring that began 
in Tunisia in December 2010. The Tunisian revolution triggered 
the transformations now underway across the Middle East and 
North Africa. It also marked the beginning of a new phase of 
cooperation between Tunisia and the United States.
    Tunisia is now leading the region into an era of democratic 
transition and serving as a model for others to follow. Tunisia 
is well-placed to do this, with its history of tolerance and 
respect for the rights of women and minorities.
    The United States has an interest in seeing that this new 
democratic model in the region succeeds. In the words of 
Secretary Clinton, ``We should do all we can to assist Tunisia 
in realizing a future of peace, progress, and opportunity.''
    As we know from our own Nation's history, building a 
democracy is difficult and time-consuming. Tunisia's first 
steps deserve praise, particularly the constituent assembly 
elections held in October 2011, which were the first truly 
democratic elections in that country in decades.
    I share President Obama's view that we must support a 
people that have mustered the courage to stand up for their 
rights and who have taken courageous steps toward freedom and 
democracy. Just as we supported Tunisia after its independence 
in 1956, we have a chance now to support Tunisia's transition 
to democracy.
    We have a range of tools at our disposal to support 
Tunisia's transition. In the interest of time, however, I would 
refer you to my full statement, which we have submitted for the 
record. I would be pleased to answer any questions that you 
might have.
    And in closing, Madam Chairman and members of the 
committee, I just want to say thank you again for allowing me 
today to discuss our interests in Tunisia. I believe that we 
have the opportunity of a generation before us, and I am 
excited about this new chance to serve our country.
    If confirmed, I look forward to working with you, with the 
other members of the committee, and with the Congress to 
continue to advance United States interests and promote our 
relationship with Tunisia.
    Thank you very much.
    [The prepared statement of Mr. Walles follows:]

                   Prepared Statement of Jacob Walles

    Chairman Boxer, Ranking Member Lugar, distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to be the U.S. Ambassador to the Republic of Tunisia. I 
am grateful to President Obama and Secretary Clinton for the confidence 
and trust they have shown in me.
    I have served our country as a Foreign Service officer over the 
past 30 years in advancing American interests abroad. I have spent much 
of my career working on, and living in, the Middle East, pursuing our 
objectives of peace, regional stability, and economic cooperation. For 
4 years, I served as consul general and chief of mission in Jerusalem, 
where I successfully managed a growing post in a complex political 
environment. Most recently, I have overseen U.S. policy in the Near 
East, dealing with the policy ramifications for the United States of 
the changes that have swept the Arab world in the past year. If 
confirmed by the Senate, I hope to use this experience to enhance our 
bilateral relationship with Tunisia, where the Arab Spring began just 
over a year ago.
    The people of the United States and Tunisia share over 200 years of 
history, with rich cultural, economic, and security ties. Only 3 years 
after the United States declared our independence, we signed our first 
agreement of friendship and trade with Tunisia. In 1805, the Tunisian 
Ambassador to the United States became the first to have a Ramadan 
iftar celebration dinner with an American President. Since then, we 
have fought together against common enemies, pursued the goals of 
regional stability, and helped each other in times of need. The United 
States operated a robust economic assistance program in Tunisia from 
1957 to 1994. And Tunisia has responded in our recent time of need, 
offering assistance to address the oil spill in the Gulf of Mexico in 
2009.
    Our historic bilateral relationship now has a new touchstone--the 
momentous events of the Arab Spring that began in Tunisia in December 
2010. The Tunisian revolution captivated the international community 
and triggered the transformations now underway across the Middle East 
and North Africa. It has also marked the beginning of a new phase of 
bilateral and people-to-people cooperation between the United States 
and Tunisia. Tunisia is now leading the region into a new era of 
democratic transition and serving as a model for others to follow. The 
United States has an interest in seeing that this new democratic model 
succeeds in the region. In the words of Secretary Clinton, ``we should 
do all we can to assist Tunisia in realizing a future of peace, 
progress, and opportunity.'' If confirmed, I will do all that I can to 
help Tunisia succeed on this path.
    As we know from our own Nation's history, building a democracy is 
difficult and time-consuming. That process is rarely without 
controversy, setbacks, and sometimes disappointment. But Tunisia's 
first steps deserve praise, particularly the Constituent Assembly 
elections in October 2011, which were the first truly democratic 
elections in that country in decades. In our engagement with the 
Tunisian Government we have seen their commitment to meeting the 
legitimate aspirations of the Tunisian people.
    I share President Obama's assessment that it is incumbent upon us 
to support people and governments that have mustered the courage to 
stand up for their rights and take courageous steps toward democracy, 
despite the challenges and difficulties that lie ahead. Just as we 
supported Tunisia shortly after its independence in 1956, now we have a 
chance to support Tunisia's efforts to achieve critical goals in its 
democratic transition, including accountable governance, economic 
growth, and security.
    We have a number of tools at our disposal that will allow us to 
support their efforts. Shortly after the revolution, the Department of 
State marshaled a strong package of assistance for elections and 
capacity-building for civil society to advance the rule of law and 
promote freedom of expression. With these forms of assistance, we 
sought to support the Tunisian people's efforts to contribute to the 
national political debate and decisionmaking process and to play 
active, constructive roles in their country's political transformation. 
If confirmed, I will continue the work that we have already begun in 
these areas, drawing on the resources of the Middle East Partnership 
Initiative (MEPI) and the U.S. Agency for International Development.
    The Tunisian revolution was not only about greater democratic 
freedoms, it was also about greater equality and opportunity in the 
economic life of the country. The people called for transparency, 
anticorruption, and the ability to improve their socio-economic 
standing through merit and hard work, rather than through connections 
and secrecy. We are sensitive to Tunisia's economic development needs, 
and we will do all we can to support them.
    If confirmed, I would welcome the opportunity to utilize the 
authorities and tools of the entire U.S. Government to help Tunisia 
address these needs. As an economic officer in my 30-year Foreign 
Service career, I have gained experience to draw on in enhancing our 
bilateral economic partnership with Tunisia. I will work with the 
Departments of Commerce and Treasury to promote responsible, market-
oriented reforms that will increase Tunisia's attractiveness as an 
investment destination and place the country on a solid macroeconomic 
foundation. I will work with the Overseas Private Investment 
Corporation to facilitate the entry of American businesses and products 
into the Tunisian market, and with the U.S. Trade Representative to 
maximize the utility of our bilateral Trade and Investment Framework 
Agreement and other trade facilitation tools.
    Programs are also needed to address the demands of young Tunisians 
eager for even more academic exchange and English language training. 
Our Fulbright program, previously underutilized in Tunisia, is now in 
heavy demand. We also have other tools at our disposal as well, and I 
would welcome the opportunity to expand recently developed university 
linkages and community college partnerships to build the capacity of 
Tunisia's educational system to better prepare Tunisian students for 
the demands of the modern global economy.
    A prosperous, democratic Middle Eastern country, in which citizens 
are free to apply honest effort toward achieving a higher standard of 
living, is an important symbol that the age of autocratic and opaque 
control of the political and economic environment in the Arab world is 
a thing of the past. It is therefore in our interest to work toward 
sustainable, inclusive, and free-market economic growth in Tunisia 
through a range of mechanisms.
    If confirmed, I will also endeavor to promote Tunisia's increasing 
engagement with the international community and greater cooperation on 
our regional security and foreign policy goals. Tunisia has 
demonstrated that it shares our interest in peaceful and cooperative 
relations across the Middle East and North Africa region and, if 
confirmed, I will continue our efforts to help build Tunisia's capacity 
to continue to be a good neighbor. I will work with the Department of 
Defense to continue to support the Tunisian military's efforts to 
secure the country's borders, improve its strategic planning capacity, 
and develop whole-of-government approaches to the national security 
challenges that the Tunisians face.
    Madam Chairman and members of the committee, in closing I would 
like to thank you again for allowing me to discuss ways that we might 
advance U.S. interests in Tunisia. I believe that we have the 
opportunity of a generation before us, and I am excited about this new 
opportunity to serve our country in the critical period ahead. If 
confirmed, I look forward to working with you, with the rest of the 
Senate Foreign Relations Committee, and with the Congress to continue 
to advance U.S. interests and promote our bilateral relationship with 
Tunisia. I would be pleased to answer any questions you may have.

    Senator Boxer. Thank you so much.
    Mr. Stevens.

  STATEMENT OF JOHN CHRISTOPHER STEVENS, OF CALIFORNIA, TO BE 
                      AMBASSADOR TO LIBYA

    Mr. Stevens. Madam Chairman, Ranking Member Lugar, and 
Senator Coons, thank you for the honor of appearing before you 
today.
    I wish to thank the President for nominating me to serve as 
Ambassador to Libya and for the confidence that he and the 
Secretary have shown in me.
    At your invitation, Madam Chairman, I would also like to 
acknowledge my mother, Mary Commanday, and my stepfather, 
Robert Commanday, who are visiting from the Bay area this week.
    Senator Boxer. Oh, good. Will they stand for us, please? 
Welcome.
    Mrs. Commanday. Thank you very much.
    Senator Boxer. How is it back there?
    Mrs. Commanday. We have been here all week. [Laughter.]
    Senator Boxer. You have been here all week. I heard it 
rained quite a lot, but we need the rain.
    Mrs. Commanday. Chris grew up in Larkspur and San Anselmo.
    Senator Boxer. No kidding? That is where I raised my 
children.
    We'll continue this over a cup of tea after. Please 
proceed.
    Mr. Stevens. Thank you.
    It has been a great privilege to be involved in U.S. policy 
toward Libya at different points over the past several years, 
as Ranking Member Lugar has noted. I first served in Tripoli in 
2007 in a country that was firmly in the hands of an oppressive 
dictator.
    Last March, I led a small team to Benghazi as the special 
envoy to the Transitional National Council. It was a time of 
great excitement as the Libyan people first experienced 
freedom. But it was also a time of significant trepidation for 
what might come next.
    Should I be confirmed, it will be an extraordinary honor to 
represent the United States during this historic period of 
transition in Libya. Libyans face a significant challenge as 
they make the transition from an oppressive dictatorship to a 
stable and prosperous democracy.
    Colonel Gaddafi deliberately weakened the country's 
institutions, banned even the most rudimentary of civil society 
organizations, and outlawed all electoral activity.
    During his rule, corruption was rewarded, initiative 
discouraged, and independent thought suppressed. To change such 
a system will take some time and much effort.
    Libya's new leaders must build democratic institutions from 
scratch, consolidate control over militias, ensure that all 
Libyans are represented and respected in the new government, 
and dispose of the country's oil wealth fairly and 
transparently.
    Despite these difficult challenges, there are some signs of 
progress. The interim government is paying salaries and 
providing basic goods and services to the Libyan people. It is 
reconstituting government ministries, preparing for elections 
in June, and ensuring that Libyans throughout the country are 
represented by the new government.
    Libya's oil production, which is important in stabilizing 
world oil prices, is expected to reach preconflict levels by 
the end of the year. It is clearly in the United States 
interests to see Libya succeed as a stable and prosperous 
democracy.
    Such an outcome would enhance our security and economic 
well-being. It would also serve as a powerful example to others 
in the region who are struggling to achieve their own 
democratic aspirations.
    There is tremendous goodwill for the United States in Libya 
now. Libyans recognize the key role the United States played in 
building international support for their uprising against 
Gaddafi. I saw this gratitude frequently over the months I 
served in Benghazi.
    If confirmed, I would hope to continue the excellent work 
of Ambassador Cretz and his team in assisting the Libyans with 
their transition and forging strong ties between United States 
and Libyan officials, business communities, students, and 
others.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Stevens follows:]

             Prepared Statement of John Christopher Stevens

    Madam Chairman, Ranking Member Lugar, and members of the committee, 
thank you for the honor of appearing before you today. I wish to thank 
the President for nominating me to serve as Ambassador to Libya, and 
for the confidence that he and the Secretary have shown in me.
    It has been a great privilege to be involved in U.S. policy toward 
Libya at different points over the past several years. I first served 
in Tripoli in 2007, in a country firmly in the hands of an oppressive 
dictator. Last March I led a small team to Benghazi as the Special 
Envoy to the incipient Transitional National Council. It was a time of 
great excitement as the Libyan people first experienced freedom. But it 
was also a time of significant trepidation for what might come next. 
Should I be confirmed, it will be an extraordinary honor to represent 
the United States during this historic period of transition in Libya.
    Libyans face significant challenges as they make the transition 
from an oppressive dictatorship to a stable and prosperous democracy. 
Colonel Qadhafi deliberately weakened the country's institutions, 
banned even the most rudimentary of civil society organizations, and 
outlawed all electoral activity. During his rule, corruption was 
rewarded, initiative discouraged, and independent thought suppressed. 
To change such a system will take some time and much effort. Libya's 
new leaders must build democratic institutions from scratch, 
consolidate control over militias, ensure that all Libyans are 
represented and respected in the new government, and dispose of the 
country's oil wealth fairly and transparently.
    Despite these difficult challenges, there are already signs of 
progress. The interim government is paying salaries and providing basic 
goods and services to the Libyan people. It is reconstituting 
government ministries, preparing for elections in June, and ensuring 
that Libyans throughout the country are represented by the new 
government. Libya's oil production--which is important in stabilizing 
world oil prices--is expected to reach preconflict levels by the end of 
the year. Several polls have shown the interim leadership is still 
viewed favorably by the majority of the population.
    It is clearly in the U.S. interest to see Libya become a stable and 
prosperous
democracy. Such an outcome would enhance our security and economic 
well-being, through, for example, security cooperation in the region, 
steady oil and gas production, and opportunities for U.S. businesses as 
Libyans rebuild their country. It would also serve as a powerful 
example to others in the region who are struggling to achieve their own 
democratic aspirations.
    There is tremendous goodwill for the United States in Libya now. 
Libyans recognize the key role the United States played in building 
international support for their uprising against Qadhafi. I saw this 
gratitude frequently over the months I served in Benghazi--from our 
engagements with the revolution's leadership to our early work with 
civil society and new media organizations. If confirmed, I would hope 
to continue the excellent work of Ambassdor Cretz and his team in 
assisting the Libyans with their transition, and forging strong ties 
between U.S. and Libyan officials, business communities, students, and 
others.
    As you know, the administration has proposed a modest package of 
technical assistance for Libya during the transition period. It is fair 
to ask why the United States should provide any assistance at all to 
Libya, given the country's wealth. Libya's new leaders have often 
stated that the country intends to fund its own operations and 
reconstruction, and they are, in fact, already doing so, tapping their 
petroleum revenue and other assets of the previous regime.
    It is in the U.S. interest to fund a limited number of activities 
that address immediate security and transition challenges. These U.S.-
funded programs are aimed at: preventing weapons proliferation; 
providing advice to the interim government on elections and other 
transitional governance issues of immediate concern; and promoting a 
vibrant civil society. A limited investment in the immediate transition 
needs of Libya now will pay dividends for a lasting U.S.-Libya 
partnership in the years to come, and will help ensure that Libya 
contributes to regional stability and security.
    Should I be confirmed, it would be a great honor to lead our 
Embassy in Tripoli in setting the foundations for a mutually beneficial 
relationship with a newly democratic Libya.
    Thank you and I look forward to your questions.

    Senator Boxer. Thank you so much.
    The Honorable Carlos Pascual.

STATEMENT OF HON. CARLOS PASCUAL, OF THE DISTRICT OF COLUMBIA, 
    TO BE AN ASSISTANT SECRETARY OF STATE, ENERGY RESOURCES

    Ambassador Pascual. Madam Chairman, Ranking Member Lugar, 
it is an honor to be here before you today as the President's 
nominee to be the first Assistant Secretary of State for the 
Bureau of Energy Resources.
    I thank President Barack Obama and Secretary of State 
Hillary Rodham Clinton for their trust and confidence. I 
appreciate the opportunity to submit a longer version of this 
testimony for the record.
    My 12-year-old boy wishes that he was here. He has a math 
test. But he asked me to send you a high-five and a fist bump 
for listening to his daddy.
    Senator Boxer. That is cute.
    Ambassador Pascual. The fact that this position of 
Assistant Secretary for Energy Resources has been created is a 
testimony to the leadership of the members of this committee, 
starting with legislation, Senator Lugar, that you introduced 
in 2006 to create a Coordinator for International Energy 
Affairs.
    Senator Lugar, I remember well the opportunity I had to 
introduce you in December 2007 at the Brookings Institution, 
where you sketched a comprehensive global energy strategy, and 
through such bipartisan cooperation, our oil imports today are 
at their lowest levels since 1995.
    Secretary Clinton built on these foundations in proposing 
to President Obama to create the Bureau of Energy Resources. 
The State Department's first Quadrennial Diplomacy and 
Development Review concluded that the effective management of 
energy resources is fundamental; fundamental to our national 
security and economic prosperity. It underscored as well the 
importance of diplomatic leadership.
    The Department of Energy has unsurpassed technical capacity 
and deep relationships with energy ministries around the world. 
The Department of Commerce, together with OPIC, Ex-Im, and TDA, 
can help convert American energy expertise into business 
opportunities. USAID has the capacity to offer technical advice 
to bring energy services to deprived populations.
    But by working with these agencies to create a strategic 
platform for our government, an Energy Resources Bureau can 
make more effective use of our resources to safeguard America's 
energy security.
    The opportunity to be considered for this position is a 
high point of my career. While working on the former Soviet 
states as Ambassador to Ukraine, as Ambassador to Mexico, and 
as vice president of the Brookings Institution, energy security 
reverberated in my work. Across these experiences, this lesson 
became clear. Governments must set strong, market-based 
incentives for the development of energy resources. But the 
success of those policies depends on private investment and 
strong commercial relationships.
    If confirmed in the position of Assistant Secretary for 
Energy Resources, I will make it my highest priority to draw on 
the expertise in government, the private sector, and the not-
for-profit sector to inform an energy diplomacy strategy 
focused on America's energy security.
    Hydrocarbons today make up 85 percent of the world's fossil 
fuel sources. We must use our diplomacy to ensure that access 
to oil, natural gas, and coal, but also to renewable energy is 
adequate, reliable, sustainable, affordable for the future.
    Today's markets are global. And in today's world, energy 
producers and consumers are not adversaries. We both depend on 
stable markets to foster global economic growth.
    Today, we see the importance of our energy diplomacy as we 
implement under the National Defense Authorization Act of 2012, 
which was spearheaded by this committee, sanctions to deny 
revenue to Iran's nuclear program. Iran has used every 
opportunity to threaten actions to disrupt oil markets. The 
best immediate counter to these threats is unrelented 
engagement with producers and consumers to help facilitate 
market relationships that keep supply and demand in balance.
    As the State Department's Coordinator for International 
Energy Affairs, I have traveled since January to Saudi Arabia, 
the United Arab Emirates, Libya, Iraq, Turkey, China, Nigeria, 
Angola, and Colombia, and conferred with our European allies. 
And we have engaged the world's main energy producers. They 
have reinforced to us that they will meet market demand as it 
arises.
    With those who import Iranian crude oil, we have left no 
doubt about our seriousness of purpose. Today, Secretary 
Clinton announced that 11 countries--10 that had imported 
Iranian crude oil in the European Union, plus Japan--have 
significantly reduced their volumes of imports of Iranian crude 
oil. Their actions underscore the success of our policy in 
strictly enforcing the provisions of the NDAA as passed by the 
Congress.
    If confirmed as Assistant Secretary for Energy Resources, I 
pledge to make the pursuit of good governance and transparency 
in the energy sector a central theme of the work that I do. The 
Cardin-Lugar amendment to the Dodd-Frank Wall Street Reform and 
Consumer Protection Act set a new standard for transparency in 
extractive industries, and I hope the regulations expected from 
the SEC reflect the clear intent of the law.
    As this committee knows, the purpose of American foreign 
policy is to make our Nation prosperous and strong.
    Energy diplomacy is one of our strongest tools to achieve 
the fundamental purpose of our foreign policy. I would welcome 
the opportunity to take on this challenge, if confirmed as 
Assistant Secretary for Energy Resources.
    I look forward to your questions.
    [The prepared statement of Ambassador Pascual follows:]

           Prepared Statement of Ambassador Carlos E. Pascual

    Madam Chairman, Ranking Member Lugar, members of the committee, I 
am honored to appear before you today as the President's nominee to be 
the first Assistant Secretary of State for the Bureau of Energy 
Resources or ``ENR.'' I thank President Barack Obama and Secretary of 
State Hillary Rodham Clinton for their trust and confidence. If 
confirmed by the United States Senate, I will bring to this position 
more than 25 years of practical experience in government and as a 
leader in one of the world's most respected think tanks--as well as an 
absolute dedication to my country.
    The fact that this position of Assistant Secretary for Energy 
Resources has been created is a testimony to the vision and leadership 
of members of this committee, starting with legislation Senator Lugar 
introduced in 2006 to create in the State Department a ``Coordinator 
for International Energy Affairs.'' Our Nation is indebted to Senator 
Lugar and this committee for keeping energy security at the forefront 
of American foreign policy. Senator Lugar, I remember well the 
opportunity I had to introduce you in December 2007 at a policy address 
at the Brookings Institution. There, you presented the Nation with a 
bold challenge to promote strong diplomacy, entrepreneurial innovation, 
and energy diversification as a platform for security. Through 
consistent bipartisan cooperation and the capabilities of the American 
private sector, today we see that U.S. oil imports have been falling 
since 2005. We have more oil and gas rigs operating in the United 
States today than the rest of the world combined. Our oil imports as a 
share of total consumption have declined from 57 percent in 2008 to 45 
percent in 2011--the lowest level since 1995.
    Secretary Clinton built on these foundations in proposing to 
President Obama to create the Bureau of Energy Resources. This Bureau 
emerged from the State Department's first Quadrennial Diplomacy and 
Development Review (QDDR). The QDDR's conclusions on energy were at the 
same time simple and profound: the effective management of global 
energy resources is fundamental to our national security and economic 
prosperity. Further, it became clear that diplomatic leadership in this 
area will strengthen American capacity to use our vast energy resources 
in government and the private sector to our national benefit. The 
Department of Energy has unsurpassed technical capacity in energy 
research and innovation and deep relationships with energy ministries 
around the world. The Department of Commerce, together with the 
Overseas Private Investment Corporation (OPIC), Export-Import Bank of 
the United States (EXIM), and the U.S. Trade and Development Agency 
(TDA), have the capacity to help convert American energy expertise into 
trade and investment opportunities. USAID has the capacity to bring 
technical advice to developing nations seeking to bring energy services 
to deprived populations. By working with other agencies advancing 
America's international energy interests to forge a coherent strategic 
platform that brings together these capabilities, the creation of an 
Energy Resources Bureau is a multiplying force. It can make our Nation 
stronger and more targeted in our ability to pursue our energy security 
goals.
    The opportunity to be considered for this position is a high point 
in my career, where I have consistently seen energy issues reverberate 
in importance. From 1997 to 2004, I had the opportunity to work on the 
transition of the former Soviet states to economically independent and 
self-sufficient nations. The mismanagement of Soviet energy resources 
was one of the very factors that contributed to the collapse of the 
Soviet Union. Later, strong U.S. policies--particularly the development 
of multiple pipelines--reinforced the independence of the Caspian 
states. Internal reform of Ukraine's electric power sector in 2000 
created the basis for investments that allowed Ukraine to close the 
Chernobyl nuclear power plant. Even in this decade, lack of 
transparency in commercial energy relationships has caused gas supply 
crises between Russia and Ukraine that have also shaken European 
markets. While serving as the Vice President of Brookings, I had the 
chance to learn of the dynamic interplay between energy markets and 
technological change from cochairing with Daniel Yergin a semiannual 
seminar on energy security. Across these experiences, this lesson 
became clear: governments must set strong market-based incentives for 
the development of energy resources, but the success of those policies 
will depend on private investment and strong commercial relationships.
    If confirmed in the position of Assistant Secretary for Energy 
Resources, I will make it my highest priority to draw on the expertise 
in government, the private sector, and the not-for-profit sector to 
inform an energy diplomacy strategy focused on America's energy 
security. Hydrocarbons today make up 85 percent of the world's fuel 
sources. We must use our diplomacy to insure that access to oil, 
natural gas, and coal are adequate, reliable, and affordable. We must 
use our diplomacy to forge policies that make our energy future 
sustainable--both commercially and environmentally. To do this we must 
have strong and consistent relationships with energy producers--
producers of all forms of energy in all parts of the world. Today's 
markets are global. And in today's world, energy producers and 
consumers are not adversaries. We both must understand that stable 
markets foster the best climate for global economic growth.
    Today we see the importance of our energy diplomacy as we 
implement, under the National Defense Authorization Act of 2012, 
sanctions designed to deny Iran revenue from petroleum sales, which in 
turn fund Iran's illicit conduct. Iran now faces unprecedented and 
damaging sanctions applied by the United States and our partners around 
the world. Iran has used every opportunity to undermine our efforts by 
threatening actions to disrupt oil markets. The best immediate counter 
to these threats is unrelenting engagement with producers and consumers 
to help facilitate market relationships that keep supply and demand in 
balance. Such engagement has been central to my role as the State 
Department's Coordinator for International Energy Affairs. Since 
January, I have traveled to Saudi Arabia, the United Arab Emirates, 
Libya, Iraq, Turkey, China, Nigeria, Angola and Colombia--and conferred 
with European allies.
    As we have engaged, the world's main energy producers have reacted 
in a similar and consistent way: they will meet market demand as it 
arises, because producers, like consumers, have an interest in economic 
growth that is linked to energy access. In Europe we have seen complete 
solidarity as they took action on January 23 to ban all new contracts 
for Iranian crude oil and phase out existing contracts by July 1. With 
those who import Iranian crude oil, we have left no doubt about our 
seriousness of purpose. We have seen a rise in oil prices as countries 
work out transitions from Iran to other suppliers. At any given time we 
will see production declines in parts of the world, as have occurred 
recently in South Sudan and Yemen. But the global relationships we are 
forging place us in a position of strength, as a leader in our goals 
toward Iran, and as a partner with other key producers in promoting 
stable energy markets at price levels consistent with economic recovery 
in the global economy.
    We have also seen that improved stability and market incentives 
create opportunities. Libya has restored over 1 million barrels per day 
of production, a testimony to that country's desire to forge a new 
future. Iraq in 2011 increased its production of oil by nearly 300,000 
barrels per day, and could realistically see another 500,000 barrels 
per day increase in 2012. Production prospects are strong from 
discoveries on the west coast of Africa, from the presalt fields in 
Brazil and of course here in the United States. In a global market of 
about 90 million barrels per day, there is not a magic bullet in 
achieving energy security. But the converse is also a strength--
diversification in global production adds resiliency. And when 
diversification is combined with good business climates and market 
incentives for production, then we have a platform for efficient energy 
markets and sustainable economic growth. These goals will guide our 
energy diplomacy.
    Our challenge as well is to look ahead, foster innovation and 
investment, assess changing markets and politics, and create business 
opportunities. In the United States we have experienced a natural gas 
revolution, due to technology and private investment. U.S. natural gas 
production grew in 2011--the largest year-over-year volumetric increase 
in history--and easily eclipsed the previous all-time production record 
set in 1973. We have learned valuable lessons to share on environmental 
safeguards, transparency, and regulation. Australia, Indonesia, Russia, 
Argentina, and Qatar just to name a few--have vast additional gas 
capacity that will come into the market in the coming 5 years. 
Increasingly gas is being traded as LNG, potentially changing the very 
structure of that market. One can envisage gas trading relationships 
not exclusively dominated by point-to-point pipelines that make 
consumers beholden to single suppliers. As a resurgent gas supplier, 
understanding this market will help us shape the rules--to make them 
transparent, predictable, and thus to our commercial benefit. These 
changes in global gas markets are fundamental to both our geopolitical 
and commercial interests, and to the effective conduct of American 
foreign policy.
    Business opportunities abound as well in clean and renewable energy 
and energy efficiency. American companies are world leaders in wind, 
solar, hydro, power transmission, efficient generation, and smart 
grids. The scale of this market is huge. The International Energy 
Agency estimates that from 2011 to 2035, the world will see $5.9 
trillion in new investments in hydroelectric and other renewable power, 
$2.8 trillion in coal, gas and oil-fired plants, and $1.1 trillion in 
nuclear power. This shift to renewable power is market driven, and 
unprecedented in the world's economic history. It is big business. 
Fostering market environments to compete in these fields is good for 
energy security, and it will generate export markets and American jobs 
in a field where we are commercial leaders.
    This changing face of global electric power also requires us to 
change the lens through which we see energy and economic development. 
Access to energy is the strongest driver of economic growth. To achieve 
universal access to energy by 2030, developing nations need to invest 
hundreds of billions of dollars in power infrastructure, but that is 
just 2.5 percent of global private investments in power. The challenge 
will be making strategic use of limited public resources to attract 
private capital to the markets of developing economies. Already, many 
poor people pay more for diesel-generated power than we do. The key to 
change is to create viable business models that bring efficient and 
reliable power to the poor, to foster their growth, to make it possible 
to educate their children, and to bring greater stability to where they 
live.
    If confirmed as Assistant Secretary for Energy Resources, I pledge 
to make the pursuit of good governance and transparency in the energy 
sector a central theme for the Energy Resources Bureau. The Cardin-
Lugar amendment to the Dodd-Frank Wall Street Reform and Consumer 
Protection Act set a new standard for transparency in extractive 
industries, and I hope the regulations expected from the SEC reflect 
the clear intent of the law. This effort compliments other efforts the 
State Department already undertakes, including strong engagement on the 
Extractive Industries Transparency Initiative, and a technical 
assistance program called the Energy Governance and Capacity 
Initiative, which provides advice and assistance to countries with 
emerging oil and gas industries, to help those countries manage their 
resources and revenues responsibly. Good governance and transparency 
will in the end help ensure that resources are used wisely, to the 
benefit of all citizens. That is good for economic growth, stability, 
and our foreign policy interests.
    As this committee well knows, the purpose of American foreign 
policy is to make our nation prosperous and secure. We have learned 
that in an interconnected world, we advance our security and prosperity 
when our friends and allies advance with us. Energy diplomacy is one of 
our strongest tools to achieve the fundamental purpose of our foreign 
policy. With the wise stewardship of resources, and by fostering 
private innovation and investment to expand energy access, we can 
ensure that the world's energy resources become a sustained driver of 
growth and stability. I would welcome the opportunity to take on this 
challenge if confirmed as Assistant Secretary for Energy Resources.
    I look forward to your questions.

    Senator Boxer. Thank you.
    I wanted us to talk about energy because I picked up on 
some of Senator Lugar's comments. He and I agree on a lot, but 
we don't agree on everything, and that is an area where I just 
see the world quite differently. And it makes your job, Mr. 
Pascual, very interesting.
    But Senator Lugar talked about protecting Americans from 
oil price spikes, and I couldn't agree with him more. That is 
where we agree. We want to protect Americans from these spikes 
at the pump because it hurts, and it hurts us as we are getting 
on with our economic recovery.
    And my view is I look at the oil companies. They are the 
ones who are raising the prices. So I want to know why are they 
raising the prices? Are they doing badly? Do they need to make 
sure they can maintain?
    Well, you look at it. The five big oil companies' profits 
went up 75 percent last year. And instead of thanking America 
for it, they don't. They push up the cost of a gallon of gas, 
week after week, week after week, week after week.
    And this is before any troubles were brewing in the Middle 
East, brewing worse troubles in Iran. And now, of course, you 
add that, and you have got a lot of speculators on Wall Street 
that are pushing up the futures. So I would just say in order 
to protect American consumers, we should press the oil 
companies to not punish the American public as they make record 
profits, No. 1. And No. 2, we should use the power that 
Congress gave the CFTC to protect, make sure we don't see more 
of the speculating.
    Now I think the other problem is, as we have seen these 
prices go up, we have seen petroleum exports from America go up 
by 67 percent over what period was that? Since 2009. We are 
exporting American-made petroleum, and we ought to keep it 
here.
    Now we are importing less. And Ambassador Pascual, you are 
right. We are importing less, and why? One reason is fuel-
efficient cars. Thanks to President Obama and bipartisan 
leadership in Congress, we are using fuel-efficient cars. That 
is really helping us. And moving toward electric, hybrid, and 
all the rest.
    Less demand. That is good. So less demand for imports. But 
if we could keep some of the American-grown oil here, we would 
have even less, fewer imports.
    So I am not going to ask you anything about what I just 
said because it is way too political and it is not in your 
portfolio. But I do want to ask you a question that I think is 
in your portfolio, Mr. Ambassador.
    We are trying to move toward alternatives to imported oil. 
Advanced biofuels like cellulosic fuel, algae, I see a lot of 
it in our State, Mr. Stevens, and we are making progress. And I 
see us as an exporter of these technologies.
    Do you, as you look at your portfolio and how it looks at 
this, can you talk to us about the potential for America to be 
the leader on these alternative fuels? Because the whole world 
is thrown off kilter when there are these problems in the 
Middle East and so on.
    Mr. Ambassador.
    Ambassador Pascual. Madam Chairman, thank you for raising 
that issue, and it is absolutely essential that we have a 
balanced portfolio of energy resources that we look at when we 
look at the world economy.
    On biofuels, the United States is largest producer of 
biofuels. We are the largest exporter of biofuels right now. We 
are one of the leading researchers in new technologies in 
biofuels.
    Interestingly, today, we are exporting biofuels to Brazil, 
which is an interesting dynamic that has occurred in the 
relationship. We have a particularly strong relationship with 
Brazil on the development of biofuels. As a result of our work 
together with Brazil, we have been undertaking joint research 
projects in Central America and in parts of Africa.
    We have worked together in the context of the Global 
Biofuels Energy Partnership, which is a broader international 
organization that has created standards on the development of 
biofuels so that in the process of developing them, we can 
assure that they are done in a way that is economically sound, 
socially sound, and environmentally sound. And that many of the 
questions that have been raised in the past and the tradeoffs 
between biofuels and food production don't have to become an 
argument for the future because we have clarity in the way that 
these issues are assessed and developed.
    The critical thing here is that a market in biofuels is 
developing internationally. We are a leader in this field. I 
would just only underscore as well the importance of the United 
States being a leader in other forms of renewable 
technologies--in wind and solar and transmission and smart 
grids.
    And in particular, in the area of smart grids and 
information technology, increasingly, the world is going to 
have to adopt these technologies to make the best possible use 
of the energy sources that are available to them. And this 
isn't just a question of an environmental issue. The 
environmental part is important, but the export of American 
products and goods and services and the creation of jobs in 
this wide-open field is one where we have a competitive 
advantage.
    Senator Boxer. Well, Mr. Ambassador, I really thank you for 
your terrific response because I see this as a great growth 
sector for America, these clean energy alternatives. Because, 
again, the whole world suffers when there is instability in the 
Middle East, and this would be a great role for us.
    I want to talk about Tunisia for a minute. Well, I want to 
talk about the role of religion and politics not just in 
America, but in Tunisia. That is a joke.
    Anyway, on one side are the Salafists, who adhere to a 
strict interpretation of Islam, are calling for a much more 
significant role for religion in the country's political 
system. On the other side are those who very much want to 
maintain Tunisia's historically secular political system.
    According to the Agence France Presse, just today thousands 
of Tunisians marched in the capital city of Tunis, holding 
banners saying, ``Leave my Tunisia free'' and ``Separation of 
religion and state.''
    Mr. Walles, do you expect to see these protests grow in 
size and scope? Are you concerned that both sides could pull 
further apart and present significant challenges for this 
emerging democracy?
    Mr. Walles. Thank you, Senator Boxer, for the question.
    I think, as I look at what has happened in Tunisia, they 
were the first country to experience a revolution in the Arab 
Spring, and they have been going through a process, first of 
having elections. Now they are in the process of drafting a 
constitution.
    What happened in Tunisia is for 30 years, there was a 
repressive regime that pretty much suppressed any free 
political discourse, and that lid has now been lifted. And 
there is this discussion going on in Tunisia about these very 
issues.
    As they draft a constitution, they have to go through a 
process of deciding what form of government do they want? Do 
they want a parliamentary system or Presidential system, or a 
mixture of that? And what is the relationship between religion 
and the state?
    And as you said, there are extremes on both sides here, and 
we have seen some extremist statements from the Salafists in 
particular, but the fact of the matter is that most of the 
political discourse and the discussion has been within what is 
the proper bounds of a political discussion there.
    And the election that they had, the party that got the most 
votes was the al-Nahda Party, which is a moderate Islamist 
party, as you described them. But they decided to go into a 
coalition government with two other parties, both secular 
parties, one from the center, one from the left. So there is a 
fairly broad range of views within the government.
    And each of the parties in the government have talked about 
the need to work together and to compromise and to look for 
ways to develop a consensus on how you would deal with these 
issues. So while there are extreme voices, the bulk of the 
Tunisian population is represented by these parties in the 
government that are looking for ways to work together.
    You mentioned also the rights of women, which is an area 
where Tunisia has led the Arab world. They have some of the 
strongest protections for the rights of women in their 
constitution and in their penal code. And there have been 
voices as well, calling for that to be rolled back, but we have 
also seen from within the government, and including in the 
Islamist al-Nahda Party, talking about the need to maintain 
those protections.
    So there is a lot of discussion going on, a lot of turmoil 
about the way forward. They are going to have to find Tunisian 
solutions to these problems.
    But as we have approached the Arab Spring, whether it is in 
Tunisia or elsewhere, we have always emphasized the importance 
of universal values--protection of the rights of minorities, 
protection of the rights of women, free speech, freedom of 
association, freedom of religion. That is a touchstone for our 
approach across the Arab Spring, and I think that also needs to 
be the focus of our approach in Tunisia as well.
    Senator Boxer. Thank you very much.
    I will hold my question for you, Mr. Stevens, until my 
second round and call on Senator Lugar.
    Senator Lugar. Well, thank you very much, Madam Chairman.
    Just to indicate our degree of accord, I would point out 
that I have been driving a Prius for the last 6 years. 
[Laughter.]
    Senator Boxer. Me, too.
    Senator Lugar. There we go. So you can understand the 
bipartisan outlook we have on these things.
    I would say, beyond that, as a corn farmer, I have been 
promoting corn ethanol for the last 15 years, and this has 
become a very prominent part of the biofuels. I appreciate 
there are all sorts of debates about corn ethanol, but 
nevertheless, it has displaced maybe 9 percent of the oil usage 
that we have in this country, and I hope it will do more.
    Let me just say in the Ag Committee, we take up regularly 
the CFTC, the Commodity Futures Trading Commission, and this 
deals with the question of so-called speculations. Others would 
just say price finding. But the dilemma illustrated by the oil 
price controlled by the CFTC and so forth is that there is 
great fear throughout the world, not just in our country, that 
the supplies transited through the Strait of Hormuz are likely 
to be affected by problems in Iran or elsewhere. Therefore, 
with both these possible severe disruptions of supply and the 
view of many that the Saudis alone have a reserve capable of 
addressing a significant supply decrease in mind, we are in a 
precarious predicament in which there could be a huge spike in 
price of gasoline in a short period of time, given the foreign 
policy questions we are discussing today.
    Which gets us back to, Ambassador Pascual, the fact that 
essentially these are questions of the security of our country, 
but they have a high content of diplomacy that we believe 
belongs in the State Department at the highest levels. And in 
testimony before this committee during the duration of time I 
have served, we have had one hearing after another in which it 
was recalled that Franklin Roosevelt and the Saudi monarchs 
came to some sort of implicit agreement that we in the United 
States needed oil.
    They needed also our friendship and, if not, protection. 
And attempting to maintain this over the years, of course, has 
brought us into the Middle East in many ways, and we have 
expended hundreds of billions of dollars over the course of the 
years even in times of relative peace in the region just to 
keep clearing the path and to making certain that our naval 
power was sufficient.
    So these are diplomatic considerations that are closely 
intertwined with our national defense, that I think these 
issues affect all of us. What I simply want to ask you, 
Ambassador Pascual, is that given the precarious nature of the 
oil situation, as we look at it presently and as reflected in 
prices at the pump or any other indicator, what are the 
provisions that our country can make?
    One of them, obviously, is to use less, conserve and, 
therefore, do those things which we can in our buildings, quite 
apart from our cars and transportation systems and every other 
way that we use fossil fuels or any other sort of fuel.
    We can, obviously, as the chairman has suggested, push very 
hard for biofuel substitution for almost anything else that 
might be there. And we have made great progress.
    Indeed, the 59 percent of the oil we were importing maybe a 
couple of years ago is down to 50 percent. That is significant. 
That is 50 percent, and it gets to the guts of how our whole 
economy works at this point, given our international 
responsibilities.
    So can you outline for us, at least in the work you have 
been doing already, prior to assumption of this new position 
and confirmable situation, how the State Department looks at 
this overall picture now of the prices that are clearly rising 
because of fears and the reality that there is very little 
reserve left anywhere in the world we could call upon?
    Ambassador Pascual. Senator, thank you very much.
    This is an issue of great interest to the American people, 
and it is of great concern to Secretary Clinton, to the 
President, and certainly to members of this committee.
    One of the things that we have to recognize is in this 
period where there have been rising energy prices and some 
degree of speculation in the market, as you and Madam Chairman 
have both indicated, Iran has tried to use that opportunity in 
every possible way to talk up the potential risk and push 
prices up. We have to recognize that that is its intent.
    At the same time, the best way to counter that is to be 
able to look at all the possible energy sources that we have, 
as both of you have indicated, to have diversification in our 
energy strategy and policies.
    In the United States today, we now have more oil and gas 
rigs operating than the rest of the world combined. We have 
significantly increased our production of oil. We have 
significantly increased our production of natural gas as well, 
which is another very important issue to be able to get back 
into.
    If we look at the situation internationally, there is no 
magic bullet that one can use and say that this is going to 
resolve the world's energy problems. But it underscores the 
importance of having a broad and diversified strategy, and that 
is one of the reasons why in my job over the past months, I 
have been so busily engaged, for example, in going to the 
Middle East and engaging with Saudi Arabia and Kuwait and the 
United Arab Emirates.
    And in those discussions, it has been interesting to the 
extent to which those countries have been reinforcing that they 
will respond to market demand. And indeed, even yesterday, 
there was an extraordinary meeting of the Saudi cabinet of 
ministers at the end of which they said the kingdom will work 
individually and in cooperation and coordination with the GCC 
and other producers inside and outside OPEC to ensure adequate 
oil supply, stabilize oil markets, and bring down oil prices to 
reasonable levels.
    It is an indication of the changing environment that we 
have today where producers and consumers have to have shared 
interests. It is why in visits to Iraq, for example, we have 
been working with them not only over the past year to help them 
increase their production by 300,000 barrels a day, but looking 
ahead, developing a strategy and a framework and a relationship 
in which we can help them secure their plans of producing 
another 500,000.
    My colleague to my right already indicated in Libya the 
significant recovery that we have seen to 1.4 million barrels a 
day and the potential of reaching higher levels by the end of 
the year. There are a number of other countries that are 
critical to engage in. In our own hemisphere, Colombia, Brazil, 
Canada, I would just underscore as significant countries and 
contributors to world energy markets.
    And the point of this is, is that this issue is not simply 
resolved by talking to one country, but by dealing with many 
countries in a concerted and strategic way. But at the same 
time, undertaking the kinds of actions that you and Senator 
Boxer have indicated of reducing our own consumption, ensuring 
that we have energy efficiency and fuel efficiency measures to 
be able to reduce the demand in the United States.
    Senator Lugar. I thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chair.
    Ambassador Pascual, let me ask you--well, before I do, let 
me just say I spoke to Secretary Clinton earlier today when she 
informed me of the exemption of the sanctions to the 10 
European Union countries and Japan because of those nations' 
significant reductions in petroleum purchases from Iran. And as 
the author of the sanctions, I support the Secretary's decision 
and applaud the action of our friends and allies in the 
European Union and Japan for their forthright and expedient 
action.
    And I think it sends a very clear message to others in the 
world about what they will need to do to offset their purchases 
of Iranian oil and, hopefully, create stability in the oil 
markets.
    That, plus the swift determination on Saturday, which is 
the financial messaging service provider cutting off services 
to the Central Bank of Iran and 30 designated Iranian banks 
that are on our list, is having a real impact. And that impact 
can be seen through Iran's currency plummeting as well as 
Iran's oil shipments in February falling to a 10-year low. This 
is exactly what we were trying to achieve.
    So that is the good news. The rest of what I want to get a 
sense of, since you will be in a key position based on how we 
wrote the law, is how do you define significant reduction and 
what level of reduction predicated your decision to recommend--
I assume you were part of this process--to recommend the EU and 
Japan be exempted from sanctions today?
    Ambassador Pascual. Senator, thank you very much. Thank you 
for your leadership in passing the legislation. Thank you for 
your very encouraging statement.
    I think that you hit on the key word in your statement 
about how to think about the issue of significant reduction, 
which is encouragement, example to others. Japan was a model, a 
model in the sense of a country that went through the tragedy 
of Fukushima, and at the same time, it worked to build the 
national consensus within its political system to underscore 
the fact that the threat of Iran was so great that it was 
necessary to continue to reduce their imports of Iranian crude.
    If Japan was able to do what it did over a course of 4 
years, but in particular in the second half of last year, 
drastically reducing its imports of Iranian crude oil, that 
should be an example to others that they could potentially do 
more.
    The European Union was another important example in which 
they have essentially ended new purchases, new contracts for 
Iranian crude oil, and are phasing out contracts, existing 
contracts by July 1. In other words, they are going to zero. 
The European Union did that for its own reasons, and we applaud 
the rationale.
    If we had been involved with a country in the negotiation 
and had preemptively or ahead of time taken a position on a 
specific percentage, we might have actually prescribed a 
percentage that was less than what that country was willing to 
do. And so, I think, going back to your words, example, 
encouragement, example to others.
    Here are two examples of what one country and a set of 10 
countries, the European Union as a whole, have done. And what 
we are looking for is for countries to come to us and tell us 
if they believe that they should be in that category that 
deserves an exemption. What are the kinds of significant 
reductions that they are willing to pursue?
    And to engage in a dialogue on that basis in order to be 
able to exact what we want through this legislation and I 
believe was your intent, which was to deny export markets to 
Iran.
    Senator Menendez. Well, let me explore this a little bit 
more with you. I appreciate your answer, but am not suggesting 
that you have a numerical number in mind.
    But obviously, from the European Union, which is going to 
be zero, to Japan, which is about, what, 30-percent reduction 
or a 25-percent reduction?
    Ambassador Pascual. The Japanese reduction, the current 
reduction is one that is privileged commercial information. But 
what is publicly available is that over the last half of last 
year, depending on the data source, that seasonally adjusted, 
they reduced between 15 and 22 percent.
    Senator Menendez. OK. So it seems to me that if the 
Japanese, with everything that they faced with the tsunami, the 
knocking out of their nuclear power, could in this time period 
do what they did that that would be, in my mind, the low mark 
for other nations who want to achieve the avoidance of 
sanctions. Would you agree with that?
    Ambassador Pascual. I think, Senator, that we want to 
continue to press for other countries to use these as examples 
and be able to present the best case that they can if they 
believe that they should be considered.
    I think that there are factors that we are going to have to 
take into account, including the percentage of their imports 
that come from Iran, the impact that they would have on their 
national economy, the kind of alternatives that they might have 
in the near term to seek other supplies. And on the basis of 
that, believe what is the best possible case that we can be 
able to work out with these individual countries.
    Senator Menendez. Have you already made any determination 
about which countries' sanctions will and won't apply at this 
point?
    Ambassador Pascual. No, sir.
    Senator Menendez. Beyond today's announcement?
    Ambassador Pascual. The determinations--the only 
determinations that have been made are the two that were 
announced by the Secretary of State today, the 10 European 
countries and Japan.
    Senator Menendez. What countries are you most concerned 
about in the context of reducing purchases of petroleum from 
Iran at this point?
    Ambassador Pascual. Sir, there are 23 countries that have 
imported crude oil from Iran. Eleven of them were covered 
today. Of the remaining 12, I think there is public information 
on the overall levels of how much those countries are 
importing.
    I would rather not go into the question of concern because 
what we would really like to see is those countries coming to 
us in a way that is open and engaging and shows a coincidence 
with the United States and our other partners that we all have 
a concern for reducing revenue to Iran and being able to 
negotiate and work out with them the best possible circumstance 
to reduce their imports.
    Senator Menendez. Well, let me just say that as much as I 
was complimentary, I think that what was done today was 
probably the easy part, to some degree, in terms of determining 
these countries. And we applaud them.
    But the next tranche is going to be a lot more difficult. 
And so, the standards that are set as you move toward the next 
tranche of countries that on the list that are not in the 
universe that was exempted today is going to be incredibly 
important. We are going to be looking to engage with you to get 
a sense of the outline of what is an exemption at the end of 
the day because that is going to set the standard.
    And of course, and I will close on this and wait for the 
second round, as the Secretary herself said, when she was 
before the full committee, and I asked her if she expected that 
significant reduction was every 180 days? And her answer was 
``yes.''
    So, how we start off is incredibly important in that 
regard.
    Senator Boxer. Thank you, Senator.
    Just we have a vote at 4 p.m., do we not? OK. So we are 
going to try to complete this, but I think we will have time 
for a second round.
    Yes, Senator.
    Senator Risch. Yes, Madam Chairman, I will yield back to 
you for the second round.
    Senator Boxer. Are you sure?
    Senator Risch. Positive.
    Senator Boxer. OK. I want to ask a question about Libya. 
And thank you for taking on this challenge. This is not an easy 
time to go over there. I am just very proud that you have 
accepted this challenge.
    As one who backed the decision to engage in the U.N. no-fly 
zone, obviously, there is much to be proud of--the successful 
overthrow of Gaddafi and watching the Libyan people try to 
build a new government, a civil society from the ground up.
    But I want to ask you about something troubling--the 
militias that refuse to disarm. Today, there may be up to 
200,000 fighters in Libya who are refusing to lay down their 
arms despite pleas from the highest levels of the transitional 
Libyan Government.
    What plans has the Libyan Government outlined to demobilize 
militia groups? What steps has it actively taken to implement 
those plans? What assistance has the U.S. Government offered? 
And just overall, are you concerned that armed militias could 
play an intimidating role in the runup to the planned elections 
in June?
    Mr. Stevens. Thank you, Madam Chairman, for your kind 
remarks and for your question.
    This is probably the most serious question that Libyan 
authorities face right now, the issue of disarming and 
demobilizing and reintegrating the militias into Libyan 
civilian life. As you said, there are thousands and thousands 
of militia members scattered around the country and based in 
the capital and Benghazi as well.
    The Libyan authorities are grappling with this issue as we 
speak. In fact, they already began some months ago in the final 
days of the revolution. And the plans that they have put 
together have a goal of incorporating some of them into the 
security forces, be they the police or the military, and some 
of them into civilian life, hopefully, the private sector or 
perhaps other civilian government jobs.
    In terms of the steps they have taken, they have coalesced 
around more than one plan. I have to say it is not as organized 
as one might like it to be. But the steps that they are 
following involve, first of all, registering the names and 
personal data of the militia members, and they have made quite 
a bit of progress on this. Long lists of these people, who they 
are, where they are from, what skills they have, and where they 
would like to fit into Libyan society. So this is the first 
step.
    And then, beyond that----
    Senator Boxer. So, if I can interrupt? So they want to 
reintegrate them? Because that is important. Remember in Iraq 
what happened? Said no more Baath Party members of the militia, 
and they just turned them all away, and that started a whole 
what I would say ``civil war.''
    So that is very interesting. Thank you for that 
information. Continue.
    Mr. Stevens. They are very mindful of the Iraq experience, 
and in fact, some of them use the phrase ``debaathification'' 
as something that they would want to avoid. So just to finish 
this thought, the next step would be to actually hire portions 
of them into the security services and the military and then 
direct others into the civilian areas of life, including 
training.
    Now what are we doing about this? Well, the U.N. is taking 
the lead role in organizing the international effort to help in 
many of these areas, and one of them is providing advice and 
assistance based on other experiences that countries like 
ourselves and the EU members have had around the world with 
similar situations.
    And so, we and the EU and other countries are working with 
the U.N. to provide assistance in this area, mainly in the form 
of advice.
    Senator Boxer. Thank you.
    I am just going to give back the rest of my time and call 
on Senator Lugar.
    Senator Lugar. Thank you, Madam Chairman.
    Mr. Walles, Tunisia essentially has not been overlooked by 
all the drama going on elsewhere, but there has been an 
assumption that democracy and democratic institutions have made 
substantial progress. In your opening statement, you 
illustrated ways that that is so.
    What I am curious about is what the benchmarks for knowing 
that, as a matter of fact, these institutions have taken hold? 
It was a surprise perhaps to many Americans to begin with that 
the Arab Spring began in Tunisia, as this would not have seemed 
to have been the logical focal point. But nevertheless, it did 
occur, and as the chairman has pointed out, some unusual people 
were elected in the legislative process.
    What I wonder is just as further observation, many of the 
people most celebrated in the Arab Spring were young people 
demonstrating in the squares, using Twitter and other forms of 
social media. But what seems to have followed is a reimposition 
of older people, whether they be religious leaders or elderly 
politicians who were not with the previous government. And the 
young people do not seem to be playing an increasingly 
significant role.
    Are we likely to see, therefore, a resumption again someday 
of people who feel that they are not getting the fulfillment in 
terms of jobs and their lives because even though there has 
been a change of regime and supposedly more democracy and human 
rights and so forth, somehow or other, they are still coming 
out on the short end of it?
    Mr. Walles. Thank you, Senator Lugar, for the question.
    You know, I have been working the past year on Egypt and a 
number of other countries that have been going through this. 
Each of these countries is a little bit different, and the 
circumstances in each country are different as they proceed.
    Tunisia went first, as we noted earlier. And they have had 
their election of a constituent assembly. They are now in the 
process of drafting a constitution. The constitution, I think, 
will be an important benchmark because they are going to have 
to grapple with a lot of difficult issues, including the 
relation between religion and the state, the role of women, 
things like that.
    So that is an important thing that we need to watch out 
for. Once they have a constitution, they will then elect a 
parliament, a permanent parliament. Right now, it is just a 
constituent assembly, and then they will also elect a 
President. And so, that is another benchmark as well.
    In Tunisia, as elsewhere in the Middle East, young people 
played an important role in the revolution. I think they will 
have to play an important role in the progress to democracy as 
well.
    There were a lot of reasons why the revolution took place 
in Tunisia, why this started in Tunisia, but economic pressure 
was an important thing. There is a very high unemployment rate 
in Tunisia now, particularly among young people. The 
unemployment rate for young people is about 30 percent.
    And particularly in the interior areas, which are much more 
disadvantaged, there is a very high rate of disaffection among 
youth. So that is an area that they are going to have to look 
at as well. So it is not just about building these institutions 
and the building blocks of the political process. It is also 
about building the economic underpinning for that so they can 
be a prosperous country as well.
    Those are areas that we are going to look to. We have been 
supporting. And if confirmed, those are things that I would be 
looking at as well.
    Senator Lugar. Thank you very much.
    I will yield my time to others.
    Senator Boxer. Thank you.
    We are going to go Senator Menendez, Senator Risch, Senator 
Udall.
    Senator Menendez. Thank you, Madam Chair.
    Ambassador Pascual, just two final questions. There are 
energy analysts that are projecting that Iran's oil exports 
will fall by as much as 50 percent in the coming months, 
meaning that Iran might lose the capacity to export between 
800,000 to 1 million barrels per day of oil. Is that estimate 
one that you share, or do you have a different one?
    Ambassador Pascual. If one looks at the commitments made by 
the European Union to eliminate their imports of Iranian crude 
oil, if we look at reductions made by Japan, if we look at 
other statements that other countries have made, while it is 
difficult to predict an exact number, that is in the ballpark 
of what countries have been saying that they are going to 
reduce in Iranian crude imports.
    Senator Menendez. On a slightly different topic, the 
Spanish company Repsol has begun to drill in Cuban waters, 
despite the fact that Cuba is clearly incapable of mitigating a 
leak that would harm U.S. interests in the Caribbean. Does your 
office have a role in this project? Have you had conversations 
with Repsol on their drilling in Cuba?
    Ambassador Pascual. No, sir. My office does not have a role 
in this. I have not had conversations with Repsol about this 
issue. We have discussed issues with Repsol, particularly to 
their imports of Iranian crude oil, which they have actually 
now brought to zero.
    Senator Menendez. OK. And finally, Mr. Stevens, I have the 
families of 32 of 189 Americans who died on Pan Am Flight 103. 
And as someone who has been supportive of our efforts in Libya, 
but I also believe it is very important, as I told the Prime 
Minister when he visited the committee, that in order for Libya 
to be able to move forward in its future, it must reconcile 
events of the past.
    And there are still many of these families who believe that 
justice has not been achieved for them. And while their loved 
ones can never be replaced, a sense of justice is desired and 
is ripe.
    So my question is have you met or will you meet with the 
Department of Justice about their open Pan Am case before 
departing for Tripoli? And is it your understanding of U.S. 
policy to continue to actively pursue information about the 
bombing and other terror attacks orchestrated by the Gaddafi 
regime against U.S. citizens?
    Mr. Stevens. Thank you, Senator.
    The Pan Am 103 bombing was a horrific act and one that we 
cannot forget, and I certainly will keep on my mind when I go 
to Libya, if I am confirmed.
    I do plan to meet with the Justice Department officials in 
the coming days and weeks to discuss their case, which I 
understand is ongoing, and I am referring to the criminal case. 
And we have, as you know, raised this issue with the interim 
Libyan authorities, including during the visit of the Prime 
Minister of Libya a week or so ago when you met with him.
    So, Senator, absolutely, that would be on the top of my 
list of issues----
    Senator Menendez. So you will visit with Justice before 
going to Tripoli?
    Mr. Stevens. Absolutely.
    Senator Menendez I appreciate you say you will keep it on 
the top of your mind. I would like it to be one of your 
priority items in your agenda.
    Mr. Stevens. It certainly would be, sir, if I am confirmed.
    Senator Menendez. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Risch.
    Senator Risch. Briefly, we are going to vote in a minute. 
So I want Senator Udall to have a chance. But I just have one 
question on the import reductions.
    I understand that this information is I don't know whether 
it is classified or what you call it. But when are we going to 
get numbers on this? How can we make a judgment on this without 
having actual numbers of what the cutback is going to be?
    Ambassador Pascual. Actual data on performance by countries 
usually is a couple of months in time lag. What we have seen 
already from the European Union is that they have taken legally 
binding measures that they cannot execute new contracts. That 
is happening already right now.
    As a result of that, they are not putting in place any 
additional supplies in the supply lines. They have committed to 
completely phase out or end existing contracts by July 1.
    We have been in regular contact with the European Union to 
determine if that has been the case, and indeed, we have seen 
from the European Union continued phase-down of all of those 
contracts. We have also seen, anecdotally, that as a result of 
the measures that have been put in place on prohibitions on 
finance and on insurance, especially for ships and for tankers, 
that many countries have simply not been able to import Iranian 
crude because they can't get ships.
    All of these things have actually accelerated the process 
of implementation. We are continually analyzing what the 
implications might be in terms of the numbers of volumes. But 
we, unfortunately, don't actually see that reflected in the 
data coming out of countries for a 1-to-2-month time lag.
    Senator Risch. How about the Japanese? You spoke of the 
European Union.
    Ambassador Pascual. The Japanese, as I mentioned, going 
forward, the information that they have provided us is 
commercially privileged because of the contracts that are 
involved. But what is public is what the import trends have 
been over the last 6 months of 2011.
    And from that, we have looked at different sources of data, 
including the International Energy Association, our own 
domestic data on actual ship movements, and depending on the 
data source, when you look at seasonally adjusted data, they 
have reduced imports in the range of 15 to 22 percent.
    Senator Risch. What is your level of confidence in that 
estimate?
    Ambassador Pascual. It is extraordinarily high. It is 
recorroborated by every type of data source, both what is 
coming out of the country by their customs data as well as 
shipping data, which is based on commercially available 
information on ship movements, liftings, and unloadings.
    Senator Risch. Thank you, Madam Chairman.
    I want Senator Udall to have a chance. So I yield my time.
    Senator Boxer. Senator Risch, thank you. And thank you for 
pressing on that. I think that was very helpful.
    Senator Udall, welcome.
    Senator Udall. Thank you, Chairman Boxer.
    Good to be with you all today.
    Mr. Stevens, one of the programs that Gaddafi left behind 
was a huge water project known as the Great Manmade River. The 
goal of this project was to bring water to arid regions of the 
country and improve the agricultural capabilities of the 
country. What is the current status of this project?
    I know issues have been raised in terms of sustainability 
and whether this was a good project or not. Is the United 
States supporting the project? What are you doing in terms of 
environmental review if you are going to work to move it 
forward?
    Mr. Stevens. Thank you for the question, Senator.
    The Great Manmade River Project, of course, is one of 
Gaddafi's legacies. It was actually begun before he came to 
power and got its start during oil exploration by an American 
company that stumbled on some water out in the desert in 
southern Libya.
    Since then, it has provided a good portion, if not the 
majority of Libya's water supply. Critics say that it is 
expensive and that it is a waste, that they are trying to grow 
agriculture in areas which they shouldn't. People on the other 
side say, well, it is a resource they have, and why shouldn't 
they use it?
    During my time in Benghazi during the revolution, it 
largely continued to work unaffected. There was a brief 
interruption at one point, but they since made the repairs that 
were necessary, and now it continues to provide significant 
water to Libyans, both to cities and to farmers.
    We are not providing any sort of assistance at all to this 
project. It is strictly funded by the Libyan Government, and 
they are using foreign contractors from Korea and Turkey and 
other places to help them.
    Senator Udall. Thank you.
    Ambassador Pascual, one of the issues, and I know you have 
heard about it some here from various questions that have come 
at you, but is the gas prices and how they are getting out of 
hand and how people back home in New Mexico and California and 
Indiana, all places across the country, people, you know, why 
at this particular time are they spiking?
    And I am wondering what, from your standpoint and what 
would you do as Assistant Secretary to improve the energy 
security of the United States, and what should be the short and 
long-term priorities to increase energy stability 
internationally?
    Ambassador Pascual. Senator, thank you very much.
    We had had an opportunity to discuss it, and I think you 
put it in exactly the right terms of energy security for the 
United States because that is, indeed, what the American people 
are looking for.
    One of the things that we have underscored throughout this 
discussion is that there is no single answer, but it needs a 
diversified strategy. That diversified strategy has to include 
what we are doing at home, including the measures and the steps 
that we have pursued to increase production, where we have had 
significant increases in our productions of both oil and gas 
over the past 5 years.
    It has been important to reduce our consumption and the 
kinds of fuel efficiency and other efficiency measures that we 
put in place in the United States that have cut consumption.
    On the international side, one of the things that we have 
done and in my position as Coordinator for International Energy 
Affairs that we have been seeking to do is to engage all major 
producers and partners to understand what the prospects are for 
their production, to understand where there are potential 
bottlenecks where we can work together, to engage with energy 
companies to understand where we might be able to resolve 
issues that allow them to increase their investment and 
increase their productive capabilities.
    We have spent time working with countries in the Middle 
East, and we have had consistent assurances that they will now 
respond to market demand. I mentioned yesterday an 
extraordinary meeting of the Saudi Cabinet that resulted in a 
conclusion that they will continue to produce supplies that 
will actually seek to balance out prices on the international 
market.
    And we have to recognize in the context of this that one of 
the things that Iran will do is do everything possible to talk 
up insecurity and risk and making statements such as cutting 
off the Strait of Hormuz. And when things like that happen, it 
creates speculation in the futures markets as well.
    And so, it is critical to continue on this all-out front to 
provide a sense and perception, but also the reality that 
supplies can be available and to do that--and by doing that to 
be able to counter the other factors related to the risk and 
speculation which could be in the marketplace.
    Senator Udall. OK. Thank you.
    And one final question for Mr. Walles. The former President 
Ben Ali was known to use the domestic security services to 
repress dissent in the country. Furthermore, it is believed 
that the security services outnumbered the military 
considerably, with nearly 200,000 members.
    How is the new government dealing with the remnants of the 
domestic security services, and what will the United States do 
to help improve the human rights situation in Tunisia to ensure 
a similar organization is not formed by future governments?
    Mr. Walles. Thank you, Senator, for the question.
    You are correct that in the past under the Ben Ali regime, 
the internal security forces were an instrument of repression 
on the population. That is no longer the case, although these 
security forces continue to exist. And this is a priority issue 
for the new government in terms of how they would reform these 
security forces.
    Many of the members of the current government, including 
the ministers, were imprisoned under Ben Ali or they were 
exiled during that period. So they have firsthand experience 
with this repression. So they are not, by any means, prepared 
to continue that sort of thing.
    But in order to make sure it doesn't happen again, they are 
going to have to reform the security forces so they are not an 
instrument of repression. They are an instrument to provide 
security for the people, which is what they should be doing.
    In terms of what the United States could do, this is an 
area that we have begun to look at a little bit. We have 
experience in other places in the Middle East where we have 
worked with security forces and helped them reform. I know from 
my time in Jerusalem, we began a program like that for the 
Palestinians, and that has been a success.
    Whether that would apply in the Tunisian case is something 
we are going to have to look at. I think the first step will be 
for the Tunisian Government to decide what they want to do with 
those security forces and how they want to reform them, and 
then we can look at whether it would be appropriate for us to 
assist in that.
    Senator Udall. Thank you very much.
    And Chairman Boxer, thank you, and thank you for your 
testimony today. I look forward to moving these nominations 
forward expeditiously.
    Senator Boxer. Senator Udall, thank you so much for coming 
here and asking those questions.
    And Senator Lugar, thank you so much for chairing this 
hearing with me today and for your thoughtful questions.
    I want to thank our nominees. They are outstanding. I can't 
imagine why we shouldn't act on each and every one of you 
expeditiously.
    We will leave the record open for 24 hours to accommodate 
any of our colleagues who would like to submit written 
questions.
    And again, we are going to do everything we can to move 
forward quickly.
    Thank you for making the sacrifices for your country.
    And we stand adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


      Responses of John Christopher Stevens to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Please provide detail for the committee on the Libyan 
fiscal situation, particularly as it pertains to assets frozen and 
unfrozen around the world.

    Answer. Libyan authorities recently released the 2012 budget, which 
totals 68.5 billion LYD (or $55 billion). According to local press 
reports, it is a balanced budget which relies heavily on oil revenues.
    In December 2011 the U.N. delisted the assets of the Libyan Central 
Bank and the Libyan Arab Foreign Bank. The United States also removed 
sanctions on those two government entities, leaving very few assets 
frozen under U.S. jurisdiction. Those assets are now available to 
Libyan authorities. The Libyan Government has not requested that 
sanctions be lifted from the two remaining government entities listed 
at the U.N., Libyan Investment Authority (LIA) and the Libyan African 
Investment Portfolio (LAIP), pending its reorganization of their 
management structures.

    Question. You are headed to an Embassy which was greatly damaged in 
the revolution. Please describe the Department's plans for rebuilding 
your Embassy and facilities.

  <bullet> Has the Government of Libya made any offers to assist in the 
        reconstruction?
  <bullet> What money has been designated and what planning has been 
        done by OBO?
  <bullet> What is the plan for consulates, if any?

    Answer. Due to the level of destruction at the former Embassy 
compound, the Department has established an Interim Embassy until such 
time as a New Embassy Compound can be built.
    At this time, the Government of Libya has not specifically offered 
to assist in the reconstruction of the U.S. Embassy but is engaged with 
the Department of State on the issue of land acquisition as we conduct 
initial site searches for the New Embassy Compound.
    OBO is working closely with Department offices and other agencies 
that will be working in the Interim Embassy to ensure that the facility 
adequately meets security and operational needs of all tenants. 
Evaluation teams have traveled to Libya to review existing facilities 
to ensure proper planning and usage of the facilities.
    Funding for building the Interim Embassy will come from all 
agencies that will make use of the facility. Within the Department, the 
Bureau of Resource Management is fully aware of the financial needs 
associated with the Interim Embassy.
    Currently, the Department is staffing a small office in Benghazi, 
Libya, that is responsible for monitoring the pulse of political action 
in eastern Libya. However, once national elections have taken place, 
the Department will reassess its utility.

    Question. Will assignments for Tripoli staff be conducted in a 
normal fashion, or are they being given shortened assignments and 
special incentive packages?

    Answer. There is a temporary incentive package for personnel 
assigned to Tripoli now and in the 2012 summer and winter 2012/2013 
cycles. The Department will return to a 2-year tour of duty when 
security and living conditions normalize.
    Embassy Tripoli is operating in extremely difficult conditions. 
U.S. Government employees are housed on a secure compound, two to four 
persons per bedroom and up to four people per bathroom depending on the 
number of personnel. All movements off-compound must be coordinated 
with a security package. Due to the limited living space, employees are 
not permitted to take unaccompanied baggage, household effects, 
consumables, or personal vehicles to post.
    The incentives package entails 1-year assignments, with 35 percent 
hardship pay, 25 percent danger pay, and the provision of two Rest and 
Recuperation (R&R) trips or one R&R and two Regional Rest Breaks (RRB).
    This package is being reevaluated as the situation in Tripoli 
changes and will be adjusted based on the overall security, stability, 
and openness of the situation.

    Question. Gas prices for many Americans currently top $4 per gallon 
and worldwide the price of a barrel of oil is $107. You stated in the 
hearing that Libya expected to be back to prewar levels of oil 
production by the end of the year, but would you provide more details 
on the status of the Libyan production and export capacity? Are 
American firms back fully, and if not, what reasons are they expressing 
to you?

    Answer. Even though the United States imports little oil from 
Libya, restoring Libya's participation in the global oil market will 
have the effect of stabilizing supplies, which is important for our 
ability to access supplies at an affordable price--a key element of our 
energy security policy. Libya is making significant progress in 
restoring output to its precrisis oil production level of about 1.6 
million barrels per day and is currently producing over 1.4 million 
barrels per day, according to the Libyan authorities.
    Most of the U.S. firms involved in production in Libya have 
reopened their offices in Tripoli and are taking steps to resume normal 
operations. U.S. firms have identified both security and logistical 
constraints in their meetings with us and we have engaged with the 
Libyan authorities on these issues.

    Question. If you were addressing American businessmen, what would 
you want to tell them about opportunities in Libya? Do you expect to 
have a Senior Commercial Officer from the Department of Commerce as a 
member of your Country Team to assist American companies interested in 
investing in Libya?

    Answer. As Ambassador Cretz has so often stated--and the Libyans 
have repeated publicly--Libya is now ``open for business.'' U.S. 
Embassy Tripoli, in coordination with the Department of State's Bureau 
for Economic and Business Affairs, established a series of sector-
specific teleconferences which provide a ``direct line'' for American 
companies to the U.S. Ambassador. The Embassy has completed six sector-
specific teleconferences to assist the American private sector identify 
commercial opportunities in Libya. These teleconferences have focused 
on sectors including infrastructure, security and health care, and have 
had upward of 100 participants per call. This program has been such a 
success that Secretary Clinton has asked the Department of State to 
expand it worldwide. If confirmed, I will continue the program in 
Libya, in order to keep U.S. companies abreast of all commercial 
opportunities emerging with Libya's political and economic transition.
    The demand by the U.S. private sector for commercial opportunities 
in Libya is big, and it's only getting bigger. There is also tremendous 
demand in Libya for goods and services produced by U.S. companies. 
Broadly, there is great need for infrastructure, information and 
communications technology, oil and gas services, power generation, 
transportation products, and infrastructure, including rail.
    I refer you to the Department of Commerce for details on their 
staffing plans in Libya and elsewhere. If confirmed, I certainly would 
want Department of Commerce representation in the Country Team at 
Embassy Tripoli.

    Question. What, if any, role will U.S. assistance play in the 
security sector reform elements you discussed in the hearing?

    Answer. The United States will continue to play a supporting role 
to the transitional Government of Libya (GOL) in security sector 
reform. We will work with the U.N. Support Mission in Libya (UNSMIL) 
and international partners to coordinate our assistance, and if 
confirmed, I will assist in these efforts.
    Libya's Ministry of Defense (MOD), Ministry of Interior (MOI), 
Ministry of Justice (MOJ), and intelligence services are being 
reconstituted in the wake of the revolution. Currently, there is 
minimal absorptive capacity within the GOL for robust security sector 
assistance. The greatest need is for technical expertise to help the 
GOL shape its security apparatus and to assist GOL efforts to disarm, 
demobilize, and reintegrate (DDR) revolutionary fighters.
    UNSMIL and our international partners have taken the lead in 
assisting the GOL to implement a DDR process. UNSMIL is diligently 
working to facilitate GOL security sector coordination through the 
creation of a Libyan national security staff. The U.K. has embedded a 
technical expert in the Libyan MOI to assist in standing up a GOL 
police force. Jordan has signed a memorandum of understanding (MOU) 
with the MOI to train 10,000 new police cadets in basic police 
curriculum. The Libyan MOD has launched an assistance coordination 
mechanism to keep track of assistance to the armed forces, avoid 
duplication and identify gaps. The French have conducted joint maritime 
training with the Libyan Navy. Qatar and the UAE have committed to MOD 
assistance, but have not had any real engagement or response to date.
    UNSMIL is also working closely with the GOL to coordinate the DDR 
process. The GOL and UNSMIL report that Libya's Warrior Affairs 
Committee has registered 148,000 fighters to date. Assisted by the 
international community, the GOL has announced a 3-year plan to 
integrate 25,000 revolutionaries into the regular military and 25,000 
into the police forces. The remaining revolutionary forces will be 
reintegrated into civilian life through initiatives to develop small 
and medium business enterprises, or through new educational and 
training opportunities.
    We aim to support these efforts by deploying targeted security 
sector assistance that will focus on bolstering GOL capacity and 
leveraging international assistance. In April, the Department's Export 
Control and Related Border Security (EXBS) program will fund the 
deployment of a team from the Bureau of International Security and 
Nonproliferation, Office of Export Control Cooperation, and the 
Department of Homeland Security, Customs and Border Protection, to 
conduct a 1-week consultation and basic enforcement training overview 
for Libyan MOI, MOD, and Customs Officials who will be leading the 
efforts to develop and integrate Libya's border security forces. We 
introduced the Defense Institution Reform Initiative (DIRI) program to 
Libyan Prime Minister El-Keib during his March 2012 visit. If accepted 
by the GOL, DIRI will provide a team of experts to advise the MOD on 
rightsizing its security forces and integrate rebel fighters into the 
Libyan armed forces.
    Over the summer, the Anti-Terrorism Assistance (ATA) program will 
send an assessment team to evaluate the current capacity of Libyan law 
enforcement units that perform counterterrorism functions and to 
examine whether and how we can begin offering ATA training in the 
coming year.
    In late March, we will deploy a security sector transition 
coordinator to U.S. 
Embassy Tripoli who will coordinate and report on these border security 
and MOI training efforts. We are also using the congressionally 
notified Presidential Drawdown authority to provide nonlethal personal 
equipment to the MOD as it forms a national military capable of 
providing protection to the civilians and civilian populated areas 
within Libya.
    Additionally, funding from the FY 2011 Middle East Response Fund 
(MERF) will be used to support a DDR advisor in Tripoli whose focus 
will be on reintegrating militias into civilian life through advising 
the GOL on creating employment and education opportunities for former 
militia fighters.

    Question. Libya faces significant needs as it develops its civil 
society in this period of transition. The United States is prepared to 
assist with training and technical assistance. With oil production at 
1.4 million barrels per day and expected to increase--to what degree is 
Libyan able to use its own national assets to bear the costs of this 
development.

    Answer. We do not have detailed information on the exact 
expenditures of the Libyan Government in various sectors, including in 
civil society. We, however, do have evidence that the government has 
taken steps to ensure it has funds to meet the country's needs 
including by working to get the production of oil back to prewar 
levels. The government has also passed a budget of $55 billion, helping 
to ensure that ministries can pursue reform, renovation, and capacity-
building projects.
    The Libyans have repeatedly stated they want to pay for the 
reconstruction and reform of their country and promote civil society. 
In the near term, however, Libya is spending the majority of its 
resources on ensuring that salaries are being paid and that basic 
services are provided to the Libyan people. The United States and the 
international community are currently filling short-term gaps in 
priority sectors and funding actors that we believe should receive 
assistance independent of the government, including certain civil 
society groups and the media.
                                 ______
                                 

            Responses of Jacob Walles to Questions Submitted
                      by Senator Richard G. Lugar

    Question. What, if any, have been the concrete results of U.S. 
transition support programs in Tunisia to date? How should the U.S. 
Government shape its future foreign aid programs in terms of balancing 
objectives related to security, democracy, the economy, and regional 
policy? How, if at all, can or should the United States assist with 
security sector reform?

    Answer. The United States is committed to supporting Tunisia's 
transition to democracy and helping to establish a foundation for 
political stability and economic prosperity. Since the revolution, we 
have committed approximately $197 million from FY 2010 and FY 2011 
resources to support Tunisia's transition.
    Securing a successful transition to democracy in Tunisia is a key 
policy priority for the United States, the importance of which cannot 
be overstated. A successful Tunisia will set a clear example for other 
democratic transitions underway in the Middle East and North Africa. 
Success will require progress in all four areas--security, democracy, 
economy, and regional policy. Following the revolution, U.S. efforts 
focused heavily on supporting Tunisia's political transition, 
especially in the runup to the October 2011 Constituent Assembly 
elections. We are now seeking to provide critical support needed to 
stabilize the economy and promote broad-based economic growth. We are 
also bolstering our efforts to assist Tunisia by promoting regional 
stability, countering terrorism, preventing the proliferation of 
illicit items, building law enforcement investigative capabilities, and 
enhancing border security efforts. Moving forward, we will continue to 
work with the Tunisian Government to build its capacity, to support 
civil society as they participate constructively in national political 
debate, and to support the Tunisian military and civilian security 
forces' efforts to improve the rule of law, promote regional security, 
and respect the rights of the Tunisian people.
    Following the revolution, initial U.S. Government assistance 
efforts focused heavily on supporting Tunisia's political transition 
and election preparations. This included technical assistance to the 
Independent Elections Committee (IEC). We also supported voter 
education, facilitated political party outreach to women and youth, and 
helped to expand opportunities for women and youth to run for office 
and play leadership roles. The Tunisian elections were fair, credible, 
and transparent.
    Since then, we are developing a robust economic assistance package 
that includes programs designed to ease the fiscal strain on the 
Government of Tunisia while encouraging private sector investment and 
market-oriented reforms. In this regard:

  <bullet> We are finalizing with the Government of Tunisia a loan 
        guarantee program to support its economic stabilization and 
        economic reform goals.
  <bullet> Tunisia will benefit from a Millennium Challenge Corporation 
        (MCC) Threshold Program, which will support policy reform that 
        can lead to faster growth and generate employment.
  <bullet> We intend to capitalize a U.S.-Tunisian Enterprise Fund with 
        an initial $20 million to help Tunisians launch small and 
        medium enterprises that will be the engines of long-term 
        opportunity.
  <bullet> The Peace Corps will return to Tunisia this year to provide 
        English language training and programs to help prepare Tunisian 
        students and professionals for future employment, build local 
        capacity, and foster citizenship awareness at the grassroots 
        level.
  <bullet> USAID will implement an Internet Communication and 
        Technology (ICT) sector development program. We are also 
        supporting an OPIC franchising facility in Tunisia, as well as 
        programs focused on developing entrepreneurship and 
        employability skills.

    Our security assistance for Tunisia includes $17.5m in FMF and 
$1.854m in IMET in FY12. Our bilateral military relationship, which has 
always been good, has grown stronger in the days since the revolution. 
We have a regular high-level bilateral dialogue with the Tunisian 
military, the Joint Military Commission, during which we share our 
respective regional security priorities, assess the Tunisian military's 
needs as they support Tunisia's territorial integrity, and discuss ways 
to support those needs to serve our mutual bilateral interests.
    Security sector reform is also an important priority for the 
Government of Tunisia. Prior to the revolution, the Ministry of 
Interior was a key player in the regime's oppressive rule. The current 
government is aware of that legacy and wants to change it. Tunisia has 
a new Minister of Interior, a former political prisoner of the Ben Ali 
regime, who is untainted by collaboration with the former regime. He 
will lead Tunisia's reform efforts in this critical sector.
    The United States stands ready to respond to Tunisian requests for 
support in this area. A ready and capable police force that respects 
human rights and adheres to the rule of law is critical to the success 
of a democratic country.
    If confirmed as Ambassador, I would work actively to maintain 
programs that address all of these objectives--security, democracy, 
economy, and regional policy--in a balanced way.

    Question. How would you evaluate al-Nahda's economic policy 
platform? To what extent does the coalition government share a common 
view of economic policy priorities and how to approach them? What steps 
are being taken to promote economic growth and job creation, and to 
address socio-economic grievances and regional economic disparities?

    Answer. Even prior to the current government's assumption of 
office, al-Nahda reiterated its commitment to market-oriented economic 
growth.
    Further, all political parties currently represented in government 
recognize Tunisia's urgent need to attract investment and create jobs. 
These are Tunisia's top two economic priorities today, and the parties 
are united in their pursuit of those goals.
    The coalition partners are working together to develop the details 
of a common approach to these challenges, and each party has affirmed 
the need for greater accountability, transparency and foundational 
reform to make Tunisia's economy more vibrant, inclusive, and 
responsive to the global market. They are aggressively courting foreign 
direct investment. And they are working together to pass a new budget 
to facilitate development in previously marginalized regions of the 
country in order to close the developmental divide.

    Question. The Peace Corps can be a powerful asset in promoting U.S. 
interests and values, particularly among Tunisia's more vulnerable 
populations in the interior of the country. How do you intend to 
leverage the presence of Peace Corps Volunteers in Tunisia to good 
effect?

    Answer. The Peace Corps represents an important opportunity to 
enhance people-to-people ties between Tunisia and the United States. As 
it does in other countries, the Peace Corps will work with the Tunisian 
Government to determine programming, priorities, and volunteer site 
placement.
    If confirmed as Ambassador, I will support the Peace Corps in its 
discussions with its Tunisian partners to ensure that Peace Corps 
Volunteers reach the most vulnerable populations in the south and 
interior of the country, and are meeting the needs of the communities 
in which they serve.
                                 ______
                                 

        Responses of Christopher Stevens to Questions Submitted
                        by Senator Barbara Boxer

    Question. According to the United Nations, as many as 6,000 
detainees--about three quarters of those arrested during Libya's civil 
war--continue to be held in prison facilities run by individual militia 
groups operating outside the control of the government.
    International human rights groups including Amnesty International 
and Human Rights Watch have provided deeply disturbing evidence of what 
appears to be widespread abuse.

  <bullet> If confirmed, how will you work to promote the humane 
        treatment of prisoners in Libya?

    Answer. I share your concern regarding continuing reports of 
arbitrary detention and prisoner abuse. I, too, find these reports 
deeply troubling and, if confirmed, I would continue to raise the issue 
at the highest levels of the interim Government of Libya, as I 
understand Ambassador Cretz and his team are currently doing.
    Ambassador Cretz and his team have stressed the importance that the 
United States places on protecting human rights and the specific need 
for the Government of Libya to get all detainees and detention 
facilities under central government control as soon as possible. Our 
Embassy has also joined with other like-minded embassies and 
multilateral organizations to press these points, a practice that I 
would continue if confirmed.
    The interim Libyan Government has made positive statements 
regarding its respect for human rights, condemnation of torture, and 
commitment to consolidating control over militias and detention 
centers, including informal sites where most allegations of 
mistreatment originate. We recognize that this will be an important 
step in ensuring humane treatment and in establishing registration and 
review processes in accordance with international standards, but the 
government needs to go further.
    If confirmed, I would continue the close contact with the Ministry 
of Justice that Ambassador Cretz and his team have maintained. I would 
continue to emphasize that the United States stands ready to assist 
Libya as it seeks to develop new Libyan judicial and corrections 
systems that meet international standards by ensuring due process and 
protecting basic human dignity.
    I would also continue to promote continued Libyan Government 
collaboration with the International Committee of the Red Cross, the 
Office of the U.N. High Commissioner for Refugees, and the 
International Organization for Migration which can provide technical 
assistance on protection of migrants and refugees as well as visit 
detainees, as our Embassy in Tripoli is already doing.

    Question. In November 2011 I held a joint Foreign Relations 
subcommittee hearing with my colleague Senator Casey to examine the 
role of women in the Arab Spring with a specific focus on Egypt, 
Tunisia, and Libya.

  <bullet> If confirmed, will you commit to working to help ensure that 
        women play a strong, meaningful role in in the political 
        process in Libya and that their rights are fully protected?

    Answer. Libyan women played a vital role in the 2011 civil uprising 
and revolution that toppled Moammar Qadhafi. During my time as the 
Special Envoy to the Transitional National Council in Benghazi last 
year, I had the privilege to meet and work with many inspirational 
Libyan women supporting the cause of the people. If confirmed, I am 
committed to ensuring that women are encouraged and supported to play a 
strong, meaningful role in the political process in Libya and that 
their rights are fully protected in law and in practice.
    After 42 years of Qadhafi's dictatorship, Libyans have very limited 
experience with democracy and an open political process. Most 
candidates, both men and women, have no experience in the democratic 
realm and the challenge for the Libyan people will be to create a 
national dialogue in which all of Libya's diverse population can 
participate. A number of Libyan women activists are already urging 
strong women's participation in decisionmaking bodies and speaking out 
about the importance of electing women in the June elections. Under the 
electoral law passed in February of this year, 80 of the 200 delegates 
to the interim National Congress will be elected from lists submitted 
by political parties. Party lists are required to alternate between 
male and female candidates, a process known as the ``zipper quota.'' 
Observers hope that the law will lead to increased participation by 
women in the government. A similar system was used in Tunisia and, 
based on that experience, some electoral experts expect that around 10-
15 percent of the Parliament will be comprised of Libyan women. This is 
still far lower than women's percentage of the population but is a 
start.
    Numerous women's groups and women-led organizations have emerged in 
Tripoli, Benghazi, and outlying areas since the beginning of the 
revolution. A few of these organizations, most of which are led by 
women who have management experience working for international 
corporations or significant experience outside Libya, have successfully 
initiated or completed projects that include a women's rights march to 
advocate at the Prime Minister's office, national conferences for youth 
and women, a reconciliation campaign, the establishment of women's 
centers and holding fundraising events. Many of the women's 
organizations are loosely constituted groups with limited 
organizational capacity to plan or implement activities beyond charity 
functions but have expressed a desire to expand their activities. Both 
experienced and inexperienced organizations have begun approaching our 
Embassy in Tripoli for assistance with conferences to inform women 
about their rights and prospective roles in elections, constitutional 
development, civil society, and the economy.
    I believe that the United States can help to provide targeted 
amounts of technical assistance to help these organizations build up 
their capabilities in these nascent stages, as we are already doing 
through USAID's Office of Transition Initiatives (OTI) and the Middle 
East Partnership Initiative (MEPI). I understand that the United States 
is one of the only donors currently providing support to these local 
grassroots women's organizations and, if confirmed, it's a priority I 
will continue to emphasize.
    USAID/OTI has already been providing support to women-led 
organizations as well as others that have significant female 
participation. USAID/OTI is currently planning initiatives such as: 
holding a national workshop on women in elections that will train women 
to educate people in their home communities about the importance of 
having female representation in the constituent assembly and 
constitutional commission; developing a toolkit of materials to be used 
in multiple training opportunities; and replicating a successful 
women's center that aims to facilitate engagement among women about how 
they can engage in political life. In addition to these new activities 
being developed, as mentioned above, USAID/OTI has already funded 
women's NGOs for the following projects: a constitutional workshop for 
government, political, and civil society leaders; a public awareness 
campaign to promote reconciliation, unity, and forgiveness as a means 
to move the nation toward a peaceful transition; and a youth training 
session that included a field visit to a local women's NGO.
    MEPI programs in the sphere of women's empowerment include: a 
program to help Libyan businesswomen and women entrepreneurs connect 
with their counterparts throughout the region; a National Democratic 
Institute-led candidate training for a group of aspiring women 
politicians; and a small grants and capacity-building program for 
several small women-led or women-focused civil society organizations. 
These organizations are working to combat discrimination against women, 
encourage the participation of Libyan housewives in the political 
process, support the advocacy efforts of women with disabilities and 
establish a women's training center.
    I applaud and support all of these programs and, if confirmed, 
would like to continue similar programming in support of women's 
political participation and the protection of women's rights in the new 
Libya.
                                 ______
                                 

            Responses of Jacob Walles to Questions Submitted
                        by Senator Barbara Boxer

    Question. As you know, the leaders of Tunisia's ruling al-Nahda 
Party have stated that they intend to uphold the country's progressive 
laws regarding women.
    However, many remain concerned about the future of women's rights 
in Tunisia, particularly in light of growing calls by hard-liners for 
an Islamic State.

  <bullet> Do you believe that al-Nahda will uphold and protect women's 
        rights? Or are you concerned that they could make modifications 
        to the country's laws to appease more hard-line elements?
  <bullet> If confirmed, will you commit to working with Tunisia's 
        leaders to encourage the promotion of women's rights in the 
        country's new constitution, and to convey the message that 
        women's rights are critical to security and prosperity in 
        Tunisia?

    Answer. As you note, the leaders of the an-Nahda Party have 
affirmed their intention to uphold and protect the rights Tunisian 
women are afforded under that country's constitution, as have other 
parties represented in Tunisia's current government.
    We believe that the majority of Tunisians support the rights 
Tunisian women enjoy. Those rights have long been a source of 
justifiable pride, and they are essential to Tunisia's future political 
and economic success.
    Equality under the law is a core tenet of our foreign policy. If 
confirmed, I will strongly convey the message that the advancement of 
women's rights and political and economic participation are critical to 
Tunisia's democracy and prosperity, and that these rights should 
continue to be enshrined in the Tunisian Constitution.

    Question. As you may know, Tunisia made gains regarding freedom of 
the press following the ouster of longtime Tunisian President Zine El 
Abedine Ben Ali. In fact, Tunisia rose 30 slots--from 164th to 134th--
on the Reporters without Borders ``2012 Press Freedom Index.''
    However, significant problems remain.
          1. Reporters without Borders has documented a number of 
        attacks by Tunisian police on independent journalists.
          2. A television station executive is facing trial and 
        possible jail time for screening the award-winning French film 
        Persepolis.
          3. And recently, the government provoked controversy when it 
        appointed two individuals associated with the Ben Ali regime to 
        senior posts in the State media.

  <bullet> Are you concerned about these developments?
  <bullet> If confirmed, will you commit to working to promote freedom 
        of the press in Tunisia?

    Answer. Freedom of the press is an important universal value that 
must be respected in order for Tunisia's transition to democracy to 
succeed. I understand that our Embassy has already registered with the 
highest levels of the Government of Tunisia our concern about these 
cases. Tunisia is making progress in its democratic transition, but 
such transitions are often difficult and they take time.
    If confirmed, I will continue to underscore our belief that freedom 
of expression is a fundamental human right and key to Tunisia's 
democratic success.
    I will also continue our efforts to invest in Tunisia's capacity to 
responsibly exercise that freedom, including through training Tunisian 
journalists on the fundamentals of responsible, fact-based reporting.
                                 ______
                                 

            Response of Carlos Pascual to Question Submitted
                     by Senator Benjamin L. Cardin

    Question. The SEC will soon issue rules to implement section 1504 
of the Dodd-Frank Wall Street Reform and Consumer Protection Act. How 
will you use the example set by the United States on this issue to 
further encourage transparency in the extractive sector in other 
countries? In particular, in your new role, will you place a priority 
on encouraging EU progress on their similar legislation? Also, will you 
place a priority on encouraging an extractives transparency agenda 
within the G20 and other forums? Please describe your plans and 
strategy on this issue.

    Answer. As Secretary Clinton underscored in recent testimony, the 
State Department will use its full diplomatic capabilities to encourage 
transparency in extractive industries around the world. Once the SEC 
issues the rules to implement section 1504, if confirmed, we will help 
educate other nations about the changes in U.S. law and explain how the 
new rules may affect countries and companies around the globe. Already 
we have taken advantage of excellent materials written by 
nongovernmental organizations on section 1504 and shared them with the 
EU and many countries with extractive industries in order to sensitize 
them to the legislation, its scope and importance. When the SEC's rules 
are issued, we will consult with these transparency organizations and 
draw on their materials and other publicly available information. We 
will use our extensive network of embassies to educate host governments 
and corporations about the existence and application of the Wall Street 
Reform and Consumer Protection Act. In addition, if confirmed, I will 
work through our posts overseas to help host governments create the 
necessary conditions for companies listed in the United States to be 
compliant with U.S. law.
    The State Department has engaged senior European Union officials on 
the Dodd-Frank Act since September 2011 in anticipation of SEC rules. 
EU representatives and parliamentarians are well aware of our interest 
in creating a common platform for transparency. With issuance of SEC 
rules, ENR proposes to engage EU officials on compatibility with 
possible EU regulations. Similarly, we will work with the G20 to 
advance the principles in Dodd-Frank, building on the strong 
anticorruption platform already created in the G20. The Seoul G20 in 
2010 set up an Anticorruption Working Group that provides an excellent 
vehicle to seek action by others comparable to Dodd-Frank.
    Already, the 2010 G20 Seoul Anticorruption Action Plan commits 
countries ``to promote integrity, transparency, accountability and the 
prevention of corruption, in the public sector, including in the 
management of public finances'' and to combat corruption in specific 
sectors. We will use the G20 Anticorruption Working Group to drill down 
to actionable steps, including in the critical areas of transparency 
and integrity in public procurement, fiscal transparency, adoption and 
enforcement of laws criminalizing foreign bribery, and public integrity 
measures.
    Our promotion of transparency around the world is supported by the 
example we set here at home. In addition to Dodd-Frank, the President 
recently announced our intention to implement the Extractive Industries 
Transparency Initiative in the United States. This international effort 
results in disclosure by companies of payments they make to 
governments, and by governments of payments they receive from 
companies. As the United States moves to become an EITI candidate 
country itself, we will look to encourage other members of the G20 to 
join the EITI as well. Moreover, through the Open Government 
Partnership (OGP), we are urging many of the more than 40 countries now 
developing national action plans to include EITI or other extractive 
industry transparency efforts in their plans.

 
NOMINATIONS OF TRACEY ANN JACOBSON, RICHARD B. NORLAND, KENNETH MERTEN, 
                 MARK A. PEKALA, AND JEFFREY D. LEVINE

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Tracey Ann Jacobson, of the District of Columbia, to be 
        Ambassador to the Republic of Kosovo
Hon. Richard B. Norland, of Iowa, to be Ambassador to Georgia
Hon. Kenneth Merten, of Virginia, to be Ambassador to the 
        Republic of Croatia
Mark A. Pekala, of Maryland, to be Ambassador to the Republic 
        of Latvia
Jeffrey D. Levine, of California, to be Ambassador to the 
        Republic of Estonia
                              ----------                              

    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Shaheen, Cardin, Lugar, and Barrasso.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good morning, everyone. My mike does work. 
I am delighted to welcome everyone here to the Senate Foreign 
Relations Committee hearing to consider the nominations of 
Tracey Ann Jacobson to be Ambassador to the Republic of Kosovo; 
Richard Norland to be Ambassador to Georgia; Kenneth Merten to 
be Ambassador to the Republic of Croatia; Mark Pekala to be 
Ambassador to the Republic of Latvia; and, Jeffrey Levine to be 
Ambassador to the Republic of Estonia.
    I am the person conducting this hearing this morning, 
because I chair the European Affairs Subcommittee, and I am 
very honored to have the ranking member of the full Foreign 
Relations Committee, Senator Dick Lugar, here as part of this 
hearing. You are all career diplomats, so you know that usually 
there are not a lot of Senators who come to these hearings, and 
that that is not a bad thing. [Laughter.]
    So we're delighted to be here with all of you today.
    Our nominees have been appointed to take on critical 
ambassadorial positions in countries throughout Europe and the 
Caucasus. Each of these posts will be important in 
strengthening U.S. influence and safeguarding American 
interests.
    I want to congratulate all of you on your nominations and 
welcome you and your families here today as we discuss the 
challenges and opportunities that you may face as you take on 
these new
responsibilities.
    Over the last 6 decades, the transatlantic community has 
committed itself to building the Europe that is whole, free, 
and at peace. The countries represented here today reflect the 
progress that we have made and the force for reform that 
institutions like NATO and the European Union have played over 
the last half century.
    However, as we will no doubt hear from our witnesses, the 
job is far from done, and we still have many challenges before 
us.
    Latvia and Estonia are relatively young but active and 
influential members of NATO and the EU. As Baltic countries, 
they are a testament to the success of the West's open-door 
policies and have led the charge among other post-Soviet states 
to promote democracy and Euro-Atlantic integration.
    In addition, Estonia has recently met its NATO commitments 
to spend 2 percent of its GDP on defense, an impressive feat 
considering that only three of the 28 NATO countries have met 
that commitment in 2011.
    Croatia, already a member of NATO, is slated to become the 
28th member of the EU next summer. Though it continues to 
struggle with economic difficulties and some corruption at 
home, Croatia stands as a model for the rest of the countries 
of the Western Balkans. And I hope that it will maintain its 
leadership in the region and continue to play a positive role 
in moving Serbia, Kosovo, Bosnia, and others toward EU 
integration.
    Since the Rose Revolution in 2003, Georgia has made 
tremendous progress on its reform agenda and today seeks full 
Euro-Atlantic integration.
    It is punching well above its weight, to use a boxing term, 
as a NATO partner country in Afghanistan and will soon be the 
largest per capita contributing nation in that fight.
    Georgia deserves to see some forward movement on its 
membership aspirations at the upcoming NATO summit in Chicago.
    Still, we must continue to emphasize the importance of 
Georgia continuing down the path of democratic reform, and the 
upcoming elections will be a critical test for the 
sustainability of Georgia's democratic future.
    Kosovo faces many daunting challenges beyond its struggle 
for international recognition, including unemployment, weak 
rule of law, corruption, and challenging relations with its 
neighbor Serbia.
    Both Kosovo and Serbia have made some difficult yet 
necessary decisions to engage each other in technical dialogue 
over the last year. The progress made under the EU-sponsored 
talks allowed both countries to move further down the path to 
future EU membership earlier this year, a welcome development 
after some violence in northern Kosovo last summer.
    Our diplomats working closely with our European colleagues 
must do more to creatively engage on the Serbia-Kosovo issue 
and work to find a long-term solution to the challenge of 
northern Kosovo.
    Again, I want to thank each of you for your willingness to 
take on these important and challenging posts, and I will just 
introduce each of you briefly, and then I'll turn it over to 
you for your testimony.
    First today we have Ambassador Tracey Ann Jacobson, who has 
been nominated to be the U.S. Ambassador to Kosovo. Ambassador 
Jacobson is the Deputy Director of the Foreign Service 
Institute. Prior to her tenure there, she served as U.S. 
Ambassador to both Tajikistan and Turkmenistan.
    Next we have Ambassador Richard Norland, our nominee for 
the post in Georgia. Ambassador Norland currently serves as the 
international affairs adviser and deputy commandant at the 
National War College and was previously the U.S. Ambassador to 
Uzbekistan.
    We also have Ambassador Kenneth Merten, the President's 
choice to be the Ambassador to Croatia. Ambassador Merten has a 
distinguished 25-year career in the Foreign Service and has 
served throughout Europe, in Central and South America, and is 
currently our Ambassador to Haiti.
    Mr. Mark Pekala has been nominated to take up the post in 
Latvia. Mark is currently a director in the Bureau of Human 
Resources and has served previously as the deputy chief of 
mission in France and the Deputy Assistant Secretary of State 
for Europe. This will be Mr. Pekala's first ambassadorial 
posting.
    And finally, we have Jeffrey Levine, who has been nominated 
to be the U.S. Ambassador to Estonia. Mr. Levine has served in 
a number of countries throughout Europe and is currently the 
Director of Recruitment, Examination, and Employment at the 
State Department. This will be his first ambassadorial posting 
as well.
    Again, thank you all for being here, for your willingness 
to serve, and I hope that you will feel free to introduce any 
family or friends who may be here with you this morning.
    Ambassador Jacobson.

   STATEMENT OF HON. TRACEY ANN JACOBSON, OF THE DISTRICT OF 
      COLUMBIA, TO BE AMBASSADOR TO THE REPUBLIC OF KOSOVO

    Ambassador Jacobson. Thank you. I would like to introduce 
the Kosovo desk officer, Wendy Brafman, and my very good 
friend, Susan Bauer, from State, Dave Recker from Justice, and 
Lt. Zac Schneidt from the Marines, and in absentia, my partner, 
David Baugh, who serves at the British Embassy in Kabul.
    Madam Chairwoman, Senator Lugar, members of the committee, 
I am honored to appear before you as President Obama's nominee 
to be the third U.S. Ambassador to the Republic of Kosovo.
    I have had the privilege of serving twice as U.S. 
Ambassador to Turkmenistan and Tajikistan, where my teams and I 
worked successfully on a range of issues, including the 
promotion of democracy and human rights, economic development, 
and security cooperation. I believe these and other experiences 
have prepared me well to be the chief of mission in Kosovo.
    This administration, as the one before it, has consistently 
made clear its commitment to Kosovo's sovereignty, territorial 
integrity, and independence, and its integration into regional 
and international institutions. This commitment will be the 
guiding principle of my mission as well, if confirmed.
    After 4 years of independence, Kosovo has come a long way. 
It is now recognized by 87 countries and is a member of the 
World Bank and International Monetary Fund. It is likely to 
meet another benchmark this year, with the end of supervised 
independence and the closure of the International Civilian 
Office.
    The goal of completing the integration of the Balkans into 
a Europe whole, free, and at peace has been an overarching, 
nonpartisan approach by successive U.S. Governments since the 
1990s. Euro-Atlantic integration remains a top policy priority 
in our relationship with Kosovo as with all its neighbors, 
because this will promote necessary domestic reform and 
regional cooperation.
    Kosovo has made several concrete steps toward this future 
recently. In January, Kosovo and its partners welcomed the 
European Commission's intention to launch a visa liberalization 
dialogue. And in March, it welcomed the decision to launch a 
feasibility study for a stabilization and association 
agreement.
    The EU consensus decisions in December of last year and 
February of this year mean that all members of the European 
Union, even those that have not recognized Kosovo's 
independence, see that its progress of the European path is 
good for the region and good for Europe as a whole.
    Kosovo's relations with its neighbors, in particular 
Serbia, are key to regional stability and cooperation. That is 
why the United States has fully backed the ongoing EU-sponsored 
dialogue between Serbia and Kosovo, which has resulted in 
significant achievement since it was launched last March.
    The two sides have been able to conclude a series of 
agreements that will improve the daily lives of citizens in 
both countries, to include the restoration of two-way trade, 
mutual recognition of university diplomas, and free movement 
across each other's borders.
    The political leadership in Kosovo has shown maturity and 
foresight in taking some tough decisions to reach these 
agreements, which were not without their domestic critics.
    I believe this political will is also motivated by an 
understanding that Serbia's progress on its European path is 
good for Kosovo, too.
    The United States has been able to consistently support 
Kosovo every step of the way, as it has demonstrated a forward-
looking approach. And if confirmed, I will ensure that we 
continue to support Kosovo's positive development.
    Kosovo faces a daunting agenda with many pressing reform 
priorities. The United States must continue to focus on 
Kosovo's progress as a multiethnic democracy, ensuring respect 
for the rights of all of its communities--Kosovo Serbs, Roma, 
and others--and protection and preservation of their cultural 
and religious heritage.
    Kosovo's reform agenda also includes tackling corruption, 
cementing the rule of law, further developing the energy 
sector, removing barriers to business and investment, and 
strengthening public administration to improve governance.
    NATO's Kosovo Force, KFOR, remains a relevant and crucial 
presence in Kosovo, as it helps to maintain, in accordance with 
its mandate, a safe and secure environment throughout the 
country. Its role has been particularly challenging in northern 
Kosovo, where tensions have run high and where hard-line Serb 
elements continue to deny Kosovo's authority and full freedom 
of movement to the international community.
    On occasion, these tensions have escalated into violence, 
resulting in injuries to Kosovo troops, including Americans. 
Given this situation, it is likely that KFOR staffing will 
remain at current levels for the foreseeable future.
    A solution to the situation in the north and normalization 
of relations requires a durable modus vivendi that respects 
Kosovo's sovereignty, takes into account the opinions of the 
citizens of the north, and allows both Serbia and Kosovo to 
make progress on their respective European paths.
    Madam Chairwoman, if confirmed, I will work with you, 
members of this committee and Congress, the Government and 
people of Kosovo, our European allies, the EU Rule of Law 
Mission, NATO, the OSCE, and the U.N., as well as our regional 
partners, to meet our shared goal of building a more stable, 
democratic, peaceful, and prosperous Balkan region.
    I would like to emphasize, as I've done before this 
committee before, that, if confirmed, I will not only be 
President Obama's representative, but also the leader of an 
interagency team, and I will take seriously my obligation to 
ensure a positive, productive, and safe environment for the 
people of my mission.
    Thank you for the opportunity to appear before you today, 
and I look forward to answering any questions you may have.
    [The prepared statement of Ambassador Jacobson follows:]

               Prepared Statement of Tracey Ann Jacobson

    Madam Chairman, members of the committee, I am honored to appear 
before you today as President Obama's nominee to be the third United 
States Ambassador to the Republic of Kosovo.
    I have had the privilege of serving twice as U.S. Ambassador--to 
Turkmenistan and Tajikistan--where my teams and I worked successfully 
on a range of issues including the promotion of democracy and human 
rights, economic development, and security cooperation. Prior to that I 
was deputy chief of mission in Latvia, where my main focus was to 
support Latvia's Euro-Atlantic aspirations. I believe these experiences 
have prepared me well to serve as chief of mission in Kosovo.
    This administration, as the one before it, has repeatedly made 
clear its commitment to Kosovo's sovereignty, territorial integrity and 
independence, and its integration into regional and international 
institutions. This commitment will be the guiding principle of my 
mission, if I am confirmed. After 4 years of independence, Kosovo has 
come a long way. It is now recognized by 86 countries and is a member 
of the World Bank and International Monetary Fund. Kosovo will likely 
reach a major benchmark with the end of supervised independence and the 
closure of the International Civilian Office this year. The 
International Steering Group must first determine that Kosovo has 
adopted the constitutional and legislative amendments to ensure that 
key principles of the Comprehensive Status Proposal are incorporated 
and preserved, and progress on this is well underway.
    The goal of completing the integration of the Balkans into a Europe 
whole, free, and at peace has been the overarching, nonpartisan 
approach of successive U.S. administrations since the 1990s. Euro-
Atlantic integration remains a top policy priority in our relationship 
with Kosovo, as with all its neighbors, because this will promote 
necessary domestic reforms and regional cooperation. Kosovo has 
recently made several concrete steps in its advancement toward this 
future. This year, Kosovo and its partners welcomed the European 
Commission's launch of a visa liberalization dialogue and the 
announcement of its intention to launch a Feasibility Study for a 
Stabilization and Association Agreement. The European Union (EU) 
consensus decisions taken in February and last December mean that all 
EU members, even the five that have not recognized Kosovo's 
independence, believe that Kosovo's progress on a European path is good 
for the region and for Europe as a whole.
    Kosovo's relations with its neighbors, in particular Serbia, are 
crucial to regional stability and integration. This is why the United 
States has fully backed the ongoing EU-facilitated dialogue between 
Kosovo and Serbia, which has achieved significant progress since its 
launch last March. The two sides have concluded several agreements that 
will improve the daily lives of the citizens of both countries, such as 
the restoration of two-way trade, mutual recognition of university 
diplomas, and the ability to move freely across each others' borders. 
The political leadership in Kosovo has shown maturity and foresight in 
making some tough decisions to reach these agreements, which have not 
been without domestic critics. I believe the political will shown by 
Kosovo's leadership to reach practical agreements with its neighbor is 
also motivated by the understanding that Serbian progress on its 
European path is good for Kosovo, too. The United States was able to 
support Kosovo every step along this way, as it demonstrated maturity 
and a forward-looking approach. If confirmed, I will ensure that the 
U.S. Government continues that support and backing for Kosovo's 
positive development.
    In the development of its democracy, Kosovo has a daunting agenda 
with many pressing reform priorities. The United States must continue 
to focus on advancing Kosovo's progress as a multiethnic democracy, 
ensuring respect for the rights of all of Kosovo's communities--Kosovo 
Serbs, Roma, and others--and the preservation of their cultural and 
religious heritage. Kosovo's reform agenda also includes tackling 
corruption, cementing rule of law, further developing the energy 
sector, reducing barriers to business and investment, and strengthening 
public administration to improve governance.
    Like other post-socialist societies, Kosovo still has much to do in 
developing the conditions for sustained, private sector-led expansion. 
It must reduce redtape, decentralize decisionmaking authority, and--
most importantly--ensure an independent judiciary and efficient court 
system to see that investors have legal certainty and timely resolution 
of disputes. There are some promising signs: as annual economic growth 
continues, spending remains within budgetary limits and inflation is 
stable.
    NATO's Kosovo Force (KFOR) remains a relevant and crucial presence 
in Kosovo, helping to maintain, pursuant to its mandate, a safe and 
secure environment throughout the country. Its role has been 
particularly challenging in northern Kosovo, where the tensions have 
run high, and hard-line Serb elements deny Kosovo's authority and the 
full freedom of movement for the international community. On several 
occasions, this tension has escalated to violence, resulting in 
injuries to several KFOR troops, including Americans. Given this 
situation, KFOR will likely remain at current troop levels for the 
foreseeable future. A solution to the situation in the north and 
normalization of relations require a durable modus vivendi that 
respects Kosovo's sovereignty, takes into account the views of the 
citizens of the north, and allows both Kosovo and Serbia to proceed on 
their respective Euro-Atlantic paths.
    Madam Chairman, if confirmed, I will work with you, members of this 
committee and Congress, the Government and people of Kosovo, our 
European allies, the EU Rule of Law Mission (EULEX), NATO, the OSCE and 
the U.N., as well as regional partners to meet our shared goal of 
building a more stable, democratic, peaceful and prosperous Balkan 
region.
    In my current position as the Deputy Director of the Foreign 
Service Institute, I have the privilege to mentor students at all 
levels from 47 government agencies. So I would like to emphasize, as I 
have during previous appearances before this committee, that if 
confirmed I will be not only the President's representative to Kosovo, 
but also the leader of an interagency team, and I will take seriously 
my responsibility to ensure a positive, productive, safe environment 
for the people of my mission.
    Thank you for the opportunity to appear before this committee 
today. I look forward to answering any questions you may have.

    Senator Shaheen. Thank you very much.
    Ambassador Norland.

         STATEMENT OF HON. RICHARD B. NORLAND, OF IOWA,
                  TO BE AMBASSADOR TO GEORGIA

    Ambassador Norland. Thank you, Madam Chairman, Senator 
Lugar.
    First, let me introduce my wife, Mary Hartnett, who's here 
with us today. And let me also thank Georgia desk officers, 
K.G. Moore and Laura Hammond for their help in preparing me for 
this testimony.
    It is a privilege to appear before you today as President 
Obama's nominee to serve as the U.S. Ambassador to Georgia. I 
am honored by the confidence placed in me by the President and 
by Secretary Clinton, and if confirmed, I look forward to 
working with this committee and the Congress in advancing 
United States interests in Georgia.
    Madam Chairman, we meet today on the eve of the 20th 
anniversary of United States-Georgia relations, which were 
established on March 24, 1992. As President Obama noted during 
President Saakashvili's visit to Washington earlier this year, 
Georgia has made extraordinary progress during this time in 
transforming itself from a fragile state to one that has 
succeeded in significantly reducing petty corruption, 
modernizing state institutions and services, and building a 
sovereign and democratic country.
    Georgia has also demonstrated itself to be a reliable 
partner on issues of importance to the United States and the 
international community, such as Afghanistan, nonproliferation, 
and trade.
    Much works remains to be done, however, as you pointed out. 
And if confirmed, I will build on the tremendous efforts of my 
predecessor, Ambassador John Bass, and of this committee and 
your colleagues in Congress to deepen our partnership with the 
Government and people of Georgia in these and other areas.
    Of paramount importance, I want to emphasize that the 
United States commitment to Georgia's territorial integrity and 
sovereignty remains steadfast. The United States will continue 
to take an active role in the Geneva discussions to address 
security and humanitarian concerns, and to pursue a peaceful 
resolution to the conflict. I experienced these challenges 
firsthand while serving in Georgia and working on conflict 
issues there in the early 1990s. The United States will 
continue efforts to persuade Russia to fulfill its 2008 cease-
fire obligations, while also working on the essential task of 
improving broader Georgia-Russia relations.
    Equally significant will be the strengthening of democratic 
institutions and processes in Georgia, especially in light of 
parliamentary elections this fall and Presidential elections in 
2013.
    The elections provide Georgia with an extraordinary 
opportunity to realize its first peaceful and fully democratic 
transfer of power. Free and fair elections will bring Georgia 
closer to Euro-Atlantic standards and integration. To get 
there, the Georgian Government will have to build on reforms 
made to date to foster greater political competition, labor 
rights, judicial independence, and media access.
    I strongly believe that advancing our key interests in 
Georgia's long-term security and stability is directly linked 
to the Government's furthering democratic reforms.
    As President Obama indicated, the United States continues 
to support Georgia's NATO membership aspirations. The Chicago 
summit is indeed an opportunity to highlight Georgia's progress 
toward meeting membership criteria as well as its significant 
partnership contributions. As you pointed out, Georgia 
currently contributes some 850 troops to ISAF and plans to 
deploy another 750 troops this fall, which will make it the 
largest non-NATO contributor.
    As a former deputy chief of mission in Kabul, I am keenly 
aware of the importance of our mission to help the Afghan 
people and of the hostile environment in Helmand province, 
where brave Georgian troops operate without caveats.
    Georgian soldiers and their families have also made 
extraordinary sacrifices with, sadly, 15 soldiers killed in 
action and more than 100 wounded, many severely. The United 
States will continue to work with the Georgian Government to 
care for the wounded soldiers.
    Sustaining robust bilateral security and defense 
cooperation with Georgia also will remain a high priority, if I 
am confirmed. Our plans for security assistance and military 
engagement with Georgia are to support Georgia's defense 
reforms, to train and equip Georgian troops for participation 
in the ISAF mission, and to advance Georgia's NATO 
interoperability.
    Both Presidents agreed in January to enhance these programs 
to advance Georgian military modernization, reform, and self-
defense capabilities. Economic linkages to the wider world have 
long formed the lifeblood of the Caucuses region.
    And if confirmed, I will also work to deepen economic and 
trade relations between the United States and Georgia. 
President Obama took our relations in this area to a new level 
in January when he announced the launch of a high-level 
dialogue to strengthen trade ties, including the possibility of 
a free trade agreement.
    In the interest of time, Madam Chairman, my testimony has 
been submitted for the record. I will close by saying that, 
taken together, these efforts will help bring Georgia closer to 
achieving its Euro-Atlantic integration goals. And if 
confirmed, I pledge to do my very best to advance U.S. 
interests there. Thanks very much for considering my 
nomination, and I look forward to your questions.
    [The prepared statement of Ambassador Norland follows:]

                Prepared Statement of Richard B. Norland

    Madam Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to serve as the 
United States Ambassador to Georgia. I am honored by the confidence 
placed in me by President Obama and Secretary Clinton. If confirmed, I 
look forward to working with this committee and the Congress in 
advancing U.S. interests in Georgia. I am pleased to introduce my wife, 
Mary Hartnett.
    Madam Chairman, we meet today on the eve of the 20th anniversary of 
United States-Georgia relations, which were established on March 24, 
1992. As President Obama noted during President Saakashvili's visit to 
Washington earlier this year, Georgia has made extraordinary progress 
during this time in transforming itself from a fragile state to one 
that has succeeded in significantly reducing petty corruption, 
modernizing state institutions and services, and building a sovereign 
and democratic country. Georgia has also demonstrated itself to be a 
reliable partner on issues of importance to the United States and the 
international community, such as Afghanistan, nonproliferation, and 
trade. Much work remains to be done, however, and if confirmed, I will 
build on the tremendous efforts of my predecessor, Ambassador John 
Bass, and of this committee and your colleagues in the Congress, to 
deepen our partnership with the government and people of Georgia in 
these and other areas.
    Of paramount importance, I want to emphasize that the United States 
commitment to Georgian territorial integrity and sovereignty remains 
steadfast. The United States will continue to take an active role in 
the Geneva discussions to address security and humanitarian concerns, 
and to pursue a peaceful resolution to the conflict. I experienced 
these challenges first-hand while serving in Georgia and working on 
conflict issues there in the early 1990s. The United States will 
continue efforts to persuade Russia to fulfill its 2008 cease-fire 
commitments, while also working on the essential task of improving 
broader Georgia-Russia relations.
    Equally significant will be the strengthening of democratic 
institutions and processes in Georgia, especially in light of 
parliamentary elections this fall and Presidential elections in 2013. 
The elections provide Georgia with an opportunity to realize its first 
peaceful and fully democratic transfer of power. Free and fair 
elections will bring Georgia closer to Euro-Atlantic standards and 
integration. To get there, the Georgian Government will have to build 
on reforms made to date to foster greater political competition, labor 
rights, judicial independence and media access. I strongly believe that 
advancing our key interest in Georgia's long-term security and 
stability is directly linked to the government's furthering democratic 
reforms.
    As President Obama indicated, the United States continues to 
support Georgia's NATO membership aspirations. The Chicago summit is an 
important opportunity to highlight Georgia's progress toward meeting 
membership criteria as well as its significant partnership 
contributions. Georgia currently contributes some 850 troops to ISAF 
and plans to deploy another 750 troops this fall, which will make it 
the largest non-NATO contributor. As a former deputy chief of mission 
in Afghanistan I am keenly aware of the importance of our mission to 
help the Afghan people, and of the hostile environment in Helmand 
province where brave Georgian troops operate without caveats. Georgian 
soldiers and their families have also made extraordinary sacrifices 
with 15 soldiers killed in action and more than 100 wounded, many 
severely. The United States will continue to work with the Georgian 
Government to care for their wounded soldiers.
    Sustaining robust bilateral security and defense cooperation with 
Georgia will also remain a high priority if I am confirmed. Our plans 
for security assistance and military engagement with Georgia are to 
support Georgia's defense reforms, to train and equip Georgian troops 
for participation in ISAF operations, and to advance Georgia's NATO 
interoperability. Both Presidents agreed in January to enhance these 
programs to advance Georgian military modernization, reform, and self 
defense capabilities.
    Economic linkages to the wider world have long formed the lifeblood 
of the Caucasus region, and, if confirmed, I will also work to deepen 
economic and trade cooperation between the United States and Georgia. 
President Obama took our relations in this area to a new level in 
January when he announced the launch of a high-level dialogue to 
strengthen trade relations, including the possibility of a free trade 
agreement. Through this dialogue our two countries can pursue 
cooperation that will benefit both U.S. and Georgian citizens alike. 
With the support of Congress we can continue to help Georgia strengthen 
rule of law, provide commercial and judicial training, and improve 
investment protections through continued U.S. assistance. Finally, 
building on Georgia's successful first Millennium Challenge Corporation 
(MCC) compact, I will also continue the work being done to develop a 
second compact proposal that, if completed, will make significant 
investments in the Georgian people through education.
    Madam Chairman, taken together, these efforts will help bring 
Georgia closer to achieving its Euro-Atlantic integration goals and, if 
confirmed, I pledge to do my very best to advance U.S. interests there. 
Thank you very much for considering my nomination, and I look forward 
to your questions.

    Senator Shaheen. Thank you.
    Ambassador Merten.

        STATEMENT OF HON. KENNETH MERTEN, OF VIRGINIA, 
          TO BE AMBASSADOR TO THE REPUBLIC OF CROATIA

    Ambassador Merten. Madam Chairwoman, members of the 
committee, it is a privilege to appear before you today as 
President Obama's nominee to serve as the U.S. Ambassador to 
Croatia. I am honored by the confidence placed in me by the 
President and the Secretary of State.
    If confirmed, I look forward to working with this committee 
and the Congress in advancing U.S. interests in Croatia.
    I am delighted and proud to be accompanied today by desk 
officer, Susan McFee, who is behind me there, and by my wife, 
Susan, and my daughter, Elisabeth. Sadly, my daughter, Caryl, 
could not get away from university today in Charlottesville to 
join us.
    We have been a Foreign Service family for over 20 years and 
have all felt proud to be given the chance to represent the 
United States at postings in Germany, France, the U.S. mission 
to the European Union, and three times in Haiti.
    As you are aware, my current assignment in Haiti has been 
slightly more eventful than we had hoped, but I am proud of the 
way my family and my colleagues at the Embassy responded 
following the earthquake to come to the aid of the Haitian 
people and to evacuate over 16,000 American citizens.
    While I hope not to face any similar crises in Croatia, my 
experience in Haiti demonstrates that I am an effective manager 
of people and resources, critical for any chief of mission.
    Our bilateral relationship with Croatia has never been 
stronger. In fact, this afternoon, Secretary Clinton will meet 
with Foreign Minister Vesna Pusic to discuss our many common 
interests and how we will further strengthen our partnership 
under Croatia's new government. Just a few weeks ago, Attorney 
General Holder met with his Croatian counterpart to discuss our 
cooperation on rule-of-law issues. We have a robust military-
to-military relationship. And next month, we will host the 
second Brown Forum, a regional conference held in honor of 
former Commerce Secretary, Ron Brown, focused on how to create 
positive conditions for increased trade and investment among 
the United States, Croatia, and the region. And these are only 
a few examples to illustrate our strong ties.
    Croatia has made remarkable progress in only two decades 
since independence, becoming a NATO member in 2009, and now 
standing on the threshold of the European Union with full EU 
membership expected in 2013. The citizens of Croatia deserve to 
be congratulated for all they have accomplished.
    Croatia's success in implementing often difficult reforms 
and creating a strong democratic society demonstrate that it is 
positioned to serve as a role model and a leader in the region 
for European and Euro-Atlantic integration.
    Indeed, the United States supports the positive decisions 
Croatia has made to improve regional cooperation. We also 
encourage Croatian leaders to continue their efforts toward 
good neighborly relations and to continue working with 
neighbors to address bilateral and regional challenges, such as 
refugees and transnational crime.
    As an international partner, Croatia has proven itself to 
be an active and committed NATO ally, as evidenced by its 
important contributions to global security, particularly in 
ISAF, KFOR, and U.N. peacekeeping missions.
    While Croatia has come a great distance in terms of 
democratic progress, there is more to be done. The Croatian 
economy continues to be challenged by high unemployment and 
anemic growth. This reflects both the global economic crisis 
and domestic challenges. The recently elected Government 
recognizes the urgent need for economic reform, and the United 
States will support Croatia's efforts to undertake those 
reforms to improve the business and investment climate so that 
sustainable economic growth and prosperity can be achieved. 
This in turn can be the basis for expanding our economic and 
trade relations.
    If I am confirmed, I will seek to forge an even stronger 
partnership with Croatia, building on the excellent work of our 
outgoing Ambassador, James Foley, and our country team in 
Zagreb.
    My foremost priority as Ambassador will be promoting United 
States interests in Croatia while pursuing our goals of 
strengthening the rule of law, fighting corruption, promoting 
economic growth and prosperity, reinforcing democratic 
institutions, and promoting regional security. I will actively 
seek to deepen our strategic alliance through NATO, ISAF, the 
Adriatic Charter, and other cooperative means.
    I will also work closely with our EU partners to help 
Croatia complete the few remaining accession requirements. I 
look forward to Croatia's celebrating its full EU membership in 
2013.
    Madam Chairwoman and members of the committee, thank you 
for this opportunity to appear before you today. I will be 
pleased to answer any questions you have.
    [The prepared statement of Ambassador Merten follows:]

                Prepared Statement of Kenneth H. Merten

     Madam Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to serve as the 
United States Ambassador to the Republic of Croatia. I am honored by 
the confidence placed in me by the President and Secretary Clinton. If 
confirmed, I look forward to working with this committee and the 
Congress in advancing U.S. interests in Croatia.
    I am delighted and proud to be accompanied today by my wife, Susan, 
and my daughter, Elisabeth. My daughter, Caryl, could not get away from 
university in Charlottesville to join us. We have been a Foreign 
Service family for over 20 years and have all felt proud to be given 
the chance to represent the United States at postings in Germany, 
France, at our mission to the European Union and three times in Haiti. 
As you are aware, my most recent assignment in Haiti was more eventful 
than we had hoped, but I am proud of the way my family and my 
colleagues at the Embassy responded following the earthquake, to come 
to the aid of the Haitian people and to evacuate over 16,000 American 
citizens. While I hope not to face any similar crises in Croatia, my 
experience in Haiti demonstrates that I am an effective manager of 
people and resources, critical for any chief of mission.
    Our bilateral relationship with Croatia has never been stronger. In 
fact, this afternoon Secretary Clinton will meet with Foreign Minister 
Vesna Pusic to discuss our many common interests and how we will 
further strengthen our partnership under Croatia's new government. Just 
a few weeks ago, Attorney General Holder met with his Croatian 
counterpart to discuss our cooperation on rule-of-law issues, including 
Croatia's ongoing efforts to root out corruption and bring suspected 
war criminals to justice. We have a robust military-to-military 
relationship, which includes a joint NATO unit in Afghanistan and the 
State Partnership Program with the Minnesota National Guard. Next 
month, we will host the second Brown Forum, a regional conference held 
in honor of former Commerce Secretary, Ron Brown, focused on how to 
create positive conditions for increased trade and investment among the 
United States, Croatia, and the region. And these are only a few 
examples to illustrate our strong ties.
    Croatia has made remarkable progress in only two decades since 
independence and a costly war, becoming a NATO member in 2009, and now 
standing on the threshold of the European Union, with full EU 
membership expected in 2013. The citizens of Croatia deserve to be 
congratulated for all they have accomplished. Croatia's success in 
implementing often difficult reforms and creating a strong democratic 
society demonstrate that it is positioned to serve as a role model and 
leader in the region for European and Euro-Atlantic integration.
    Indeed, the United States supports the positive decisions Croatia 
has made to improve regional cooperation. We also encourage Croatian 
leaders to continue their efforts toward good neighborly relations and 
to continue working with neighbors to address bilateral and regional 
challenges such as refugees and transnational crime. As an 
international partner, Croatia has proven itself to be an active and 
committed NATO ally, as evidenced by its important contributions to 
global security, particularly in the International Security Assistance 
Force (ISAF) in Afghanistan, the Kosovo Force (KFOR), and U.N. 
peacekeeping activities. These contributions to regional and global 
stability reflect our shared values and the depth of our partnership 
with Croatia.
    While Croatia has come a great distance in terms of democratic 
progress, there is more to be done. The Croatian economy continues to 
be challenged by high unemployment and anemic growth. This reflects 
both the global economic crisis and domestic challenges, including a 
cumbersome bureaucracy and an investment climate that needs to be much 
more welcoming to business. The recently elected Croatian Government 
recognizes the urgent need for economic reform. The United States will 
support Croatia's efforts to undertake reforms to improve the business 
and investment climate so that sustainable economic growth and 
prosperity can be achieved. This in turn can be the basis for expanding 
our economic and trade relations.
    If I am confirmed, I will seek to forge an even stronger 
partnership with Croatia, building on the excellent work of our 
outgoing Ambassador, James Foley, and our country team in Zagreb. My 
foremost priority as Ambassador will be promoting U.S. interests in 
Croatia while pursuing our goals of strengthening the rule of law, 
fighting corruption, promoting economic growth and prosperity, 
reinforcing democratic institutions, and promoting regional security. I 
will actively seek to deepen our strategic alliance through NATO, ISAF, 
the Adriatic Charter, and other cooperative means. I will also work 
closely with our EU partners to help Croatia complete the few remaining 
accession requirements and look forward to celebrating its full EU 
membership in 2013.
    Madam Chairman and members of the committee, thank you for this 
opportunity to appear before you. I would be pleased to answer any 
questions that you may have.

    Senator Shaheen. Thank you very much.
    Mr. Pekala.

           STATEMENT OF MARK A. PEKALA, OF MARYLAND, 
           TO BE AMBASSADOR TO THE REPUBLIC OF LATVIA

    Mr. Pekala. Thank you, Madam Chairwoman, distinguished 
manners of the committee. It is a genuine privilege to appear 
before you today, and I thank you.
    I am deeply grateful to President Obama and Secretary 
Clinton for their support and confidence in nominating me to be 
the next U.S. Ambassador to the Republic of Latvia.
    If confirmed by the Senate, I pledge to devote all my 
energy to represent the United States to the very best of my 
ability and to advance U.S. interests in Latvia, while further 
strengthening the partnership between our two countries.
    I am fully committed to working closely with this 
committee, your staff, and your congressional colleagues to 
advance our common objectives and shared agenda.
    With your permission, I would like to introduce my wife, 
Maria. We are the very happy and proud parents of Julia and 
Nora, age 10 and 7, who have spent nearly two-thirds of their 
lives overseas while Maria and I have tried our best represent 
the American people.
    I would also like to introduce and thank Julie-Anne 
Peterson, the Latvia desk officer at the State Department.
    Over the last 10 of my nearly 25 years of government as 
deputy chief of mission in France, deputy chief of mission in 
Estonia, and Deputy Assistant Secretary of State responsible 
for our bilateral relations with for 15 European countries, 
including Latvia, as well as director of the entry-level 
division of human resources at the State Department.
    I believe that these experiences have prepared me well, if 
confirmed, to lead our mission and to exercise American 
leadership in Latvia.
    Last year, Latvia celebrated the 20th anniversary of 
regaining its independence; 2012 will mark 90 years of unbroken 
diplomatic relations with our friend and ally.
    Since 1991, Latvia has embraced democracy and the 
principles of an open market; it is an excellent partner in a 
good environment in which to carry out the President's national 
export initiative dedicated to supporting U.S. businesses, 
increasing U.S. exports, and creating jobs in the United 
States.
    If confirmed, I will work with United States businesses to 
expand their markets into Latvia. United States exports to 
Latvia have been rising over the last 2 years, and recent 
successful advocacy by Embassy Riga on behalf of the American 
companies IBM and Datacard demonstrates that there is scope for 
expanded United States investment in the Latvian market.
    Latvia was hit extraordinarily hard by the economic crisis, 
losing nearly 25 percent of its GDP. But it has proven itself 
to be both resilient and innovative in meeting its economic 
obligations and finding creative ways to offer its expertise to 
its post-Soviet neighbors. After weathering its economic storm, 
Latvia is actively contributing to assistance projects in 
Moldova, including a rule-of-law program in cooperation with 
USAID.
    Latvia also provides training for Afghan railroad officials 
and is planning to participate in a training program for Afghan 
air traffic controllers.
    If confirmed, I will work with Latvia to continue this 
crucial development engagement.
    In 2004 Latvia joined NATO. It is a valued member of the 
alliance, contributing approximately 200 troops and police 
trainers in Afghanistan. In addition, the Latvian National 
Armed Forces have successfully developed a high-demand niche 
capability with their Joint Terminal Attack Controller, or JTAC 
program.
    Latvia is one of only six other allied countries certified 
to call in United States close air support on the battlefield.
    Standing with the alliance does not come without cost. 
Latvia has suffered the loss of four soldiers and had nine 
wounded during its years in Afghanistan. We are deeply grateful 
for Latvia's contributions and for its decision to remain with 
us in Afghanistan until 2014.
    As a native of Michigan, I am particularly proud of 
Latvia's partnership with the Michigan National Guard, now in 
its 20th year. In Afghanistan, Latvia successfully ran an 
operational mentoring and liaison team, or OMLT, with the 
Guard.
    Today, Latvia is once again is teaming up with its National 
Guard partners to train soldiers in Liberia, an effort that 
underlines not only how far Latvia has come in the 20 years 
since its regained its independence, but also its increasing 
focus and venturing outside its neighborhood to share the 
valuable lessons learned during its evolution from newly 
independent country to mature democracy.
    Although Latvia has made tremendous strides in democracy 
and the rule of law, it is still struggling to come to terms 
with some aspects of its past, particularly the legacies of 
World War II and Soviet rule.
    Latvia has work to do to promote social integration of its 
minority populations. We are encouraged to see the Latvian 
Government considering measures that would improve integration 
of this population. We hope that the recent language referendum 
can be used by both sides as a means to open a constructive 
dialogue between ethnic Russians and ethnic Latvians.
    If confirmed, I hope to use my position as Ambassador to 
support outreach efforts to all minority communities in Latvia.
    Should the Senate confirm my nomination, I will dedicate 
myself to protecting and advancing United States interests in 
Latvia.
    I thank you again for the privilege of appearing before you 
today, and I welcome any questions you may have.
    Thank you.
    [The prepared statement of Mr. Pekala follows:]

                   Prepared Statement of Mark Pekala

    Madam Chairman, distinguished members of the committee, it is a 
genuine privilege to appear before you today, and I thank you. I am 
deeply grateful to President Obama and Secretary Clinton for their 
support and confidence in nominating me to be the next U.S. Ambassador 
to the Republic of Latvia. If confirmed by the Senate, I pledge to 
devote all my energy to represent the United States to the very best of 
my ability and to advance U.S. interests in Latvia, while further 
strengthening the partnership between our two countries. I am fully 
committed to working closely with this committee, your staff, and your 
congressional colleagues to advance our common objectives and shared 
agenda.
    With your permission, I would like to introduce my wife, Maria. We 
are the very happy and proud parents of Julia and Nora, age 10 and 7, 
who have spent nearly two-thirds of their lives overseas while Maria 
and I have tried our best to represent the American people.
    Over the last 10 of my nearly 25 years of Government service, I 
have served as deputy chief of mission in France, deputy chief of 
mission in Estonia, and Deputy Assistant Secretary of State, 
responsible for our bilateral relations with 15 European countries, 
including Latvia, and as Director of the Entry-Level Division of Human 
Resources at the State Department. I believe that these experiences 
have prepared me well, if confirmed, to lead our mission--and to 
exercise American leadership--in Latvia.
    Last year, Latvia celebrated the 20th anniversary of regaining its 
independence; 2012 will mark 90 years of unbroken diplomatic relations 
with our friend and ally. Since 1991, Latvia has embraced democracy and 
the principles of an open market. It is an excellent partner and a good 
environment in which to carry out the President's National Export 
Initiative, dedicated to supporting U.S. businesses, increasing U.S. 
exports, and creating jobs in the United States. If confirmed, I will 
work with U.S. businesses to expand their markets into Latvia. U.S. 
exports to Latvia have been rising over the past 2 years, and recent 
successful advocacy by Embassy Riga on behalf of American companies IBM 
and DataCard demonstrates that there is scope for expanded U.S. 
investment in the Latvian market.
    Latvia was hit extraordinarily hard by the economic crisis, losing 
nearly 25 percent of GDP in the global economic crisis. But it has 
proven itself to be both resilient and innovative in meeting its 
economic obligations and finding creative ways to offer its expertise 
to its post-Soviet neighbors. After weathering its economic storm, 
Latvia is actively contributing to assistance projects in Moldova, 
including a rule of law program in cooperation with USAID. Latvia also 
provides training for Afghan railroad officials and is planning to 
participate in a training program for Afghan air traffic controllers. 
If confirmed, I will work with Latvia to continue this crucial 
development engagement.
    In 2004, Latvia joined NATO. It is a valued member of the alliance, 
contributing approximately 200 troops and police trainers in 
Afghanistan. In addition, the Latvian National Armed Forces have 
successfully developed a high-demand niche capability with their Joint 
Terminal Attack Controller (JTAC) program. Latvia is one of only six 
other allied countries certified to call in U.S. close air support on 
the battlefield. Standing with the alliance has not come without cost; 
Latvia has suffered the loss of four soldiers and had nine wounded 
during its years in Afghanistan. We are deeply grateful for Latvia's 
contributions and for its decision to remain with us in Afghanistan 
until 2014.
    As a native of Michigan, I am particularly proud of Latvia's 
partnership with the Michigan National Guard, now in its 20th year. In 
Afghanistan, Latvia successfully ran an Operational Mentoring and 
Liaison Team (OMLT) with the Guard. Today, Latvia is once again teaming 
up with its National Guard partners to train soldiers in Liberia--an 
effort that underlines not only how far Latvia has come in the 20 years 
since it regained its independence, but also its increasing focus on 
venturing outside its neighborhood to share the valuable lessons 
learned during its evolution from newly independent country to mature 
democracy.
    Although Latvia has made tremendous strides in democracy and rule 
of law, it is still struggling to come to terms with some aspects of 
its past, particularly the legacies of World War II and Soviet rule. 
Latvia has work to do to promote social integration of its minority 
populations. Almost a third of Latvia's residents are ethnic Russians, 
of whom just under 300,000 are noncitizens. We are encouraged to see 
the Latvian Government considering measures that would improve 
integration of this population; we hope that the recent language 
referendum can be used by both sides as a means to open a constructive 
dialog between ethnic Russians and ethnic Latvians. If confirmed, I 
hope to use my position as Ambassador to support outreach efforts to 
all minority communities in Latvia.
    Latvia is also making progress in coming to terms with the horrific 
events of the Holocaust, but more needs to be done. The restitution of 
private property is largely finished, but we need to see further 
progress on compensation for communal and heirless properties. If 
confirmed, I pledge to work diligently with the Government of Latvia 
and the local Jewish community to address Holocaust legacy and property 
restitution issues.
    Should the Senate confirm my nomination, I will dedicate myself to 
protecting and advancing U.S. interests in Latvia. I thank you again 
for the privilege of appearing before you today and I welcome any 
questions you may have.

    Senator Shaheen. Thank you very much.
    Mr. Levine.

        STATEMENT OF JEFFREY D. LEVINE, OF CALIFORNIA, 
          TO BE AMBASSADOR TO THE REPUBLIC OF ESTONIA

    Mr. Levine. Madam Chair, members of the committee, it is an 
honor to appear before you today as President Obama's nominee 
to be the next United States Ambassador to the Republic of 
Estonia. I'm grateful to the President and to Secretary Clinton 
for the trust they have placed in me.
    If confirmed, I will work tirelessly to advance the 
interests of the United States and further strengthen the 
already deep and productive relationship we enjoy with Estonia.
    Madam Chair, with me today are my wife, Janie, and son, 
Nick. I'm very fortunate to have a supportive family who has 
shared the joys and challenges of my 27-year Foreign Service 
career. Nick will be remaining in the United States to start 
college, but if I am confirmed, I hope he will share at least 
part of this adventure on school breaks.
    I also would like to introduce Rodney Hunter, the State 
Department's desk officer for Estonia.
    For nearly 50 years, the United States refused to 
acknowledge the illegal and forcible occupation of Estonia by 
the Soviet Union. Their regular statements of support that came 
from the White House and Congress served as signals of hope for 
Estonians both in Estonia and abroad. Since 1991 and the 
reestablishment of Estonia's independence, each American 
President and every Congress have continued the support as 
Estonia transformed itself from a Soviet satellite to the 
strong and reliable democratic ally that it is today.
    Estonia is a modern free-market success story. Even during 
the worldwide economic crisis, Estonia's fiscal and economic 
situation has steadily improved. After more than a year as a 
member of the eurozone, Estonia's economic situation is 
stronger than ever. In the midst of Europe's economic problems, 
Moody's upgraded Estonia's credit rating last year.
    Estonia is also sharing the benefits and lessons of its 
success with other democracies and nations in transition across 
the globe.
    Since it became a NATO ally in 2004, Estonia has shown 
unwavering support for shared objectives around the world. 
Estonian troops served with us in Iraq and continue to operate 
without caveats in southern Afghanistan.
    Estonia has expressed its commitment to stay on the ground 
as the NATO mission transforms into advice and assistance. This 
commitment will remain strong, though Estonia has paid a high 
price for the service with the lives of 11 of its brave 
soldiers in Iraq and Afghanistan, the second-highest per capita 
loss in Afghanistan of any ISAF partner.
    Estonia has also contributed to many other military 
missions, including Kosovo, Bosnia-Herzegovina, and the Horn of 
Africa. Estonia's military remains a force in transition, but 
one that is willing to take on dangerous missions side by side 
with American troops.
    Our support remains a crucial tool to help Estonia create a 
military even more capable of serving alongside United States 
forces in the future. Estonian soldiers and officers attend 
training in the United States and have proven themselves 
accomplished and knowledgeable partners on the ground in 
Afghanistan and around the world.
    As you noted, Estonia has also committed 2 percent of its 
GDP to defense spending, serving as a model for other allies 
and sharing the burden of our common security.
    Estonia is a world leader in information technology and an 
Estonian entrepreneur is the creator of Skype, now used around 
the world. It hosts the NATO Cyber-Security Center of 
Excellence in Tallinn, which the United States joined 
officially in 2011. Estonia's innovative Cyber Defense League 
works closely with the Maryland National Guard to boost cyber 
security in both our countries.
    In joint operations with the FBI and Secret Service, 
Estonia has been crucial in bringing a number of cyber 
criminals to justice in the United States.
    Estonia is also a pioneer in e-governance. In its last 
election, one quarter of Estonians voted online; electronic 
medical records are fully accessible from any doctor's office; 
and its citizens have unprecedented access to information about 
their government. Moreover, Estonia has willingly shared this 
expertise with more than 40 nations, from Tunisia to India to 
the Ukraine.
    If confirmed, I will work to continue our strong 
cooperation on cyber issues and find ways to leverage United 
States support of Estonia's endeavors to ensure that our 
assistance to young democracies, like Moldova, for example, is 
as effective as possible.
    The United States also welcomes Estonia's ongoing efforts 
to build strong communal relations among all Estonians, 
including the country's sizable Russian-speaking population.
    If confirmed, I hope to work closely with my public 
diplomacy colleagues in Washington and in the region to further 
utilize social media resources to better reach out to all in 
Estonia, including the Russian-speaking minority and especially 
the young people.
    Madam Chair, members of the committee, the history of 
relations between the American people and Estonia is one of 
trust and mutual support. Just as we stood side by side with 
the Estonian people during their difficult past, Estonians 
today are at our side as we meet common challenges and seize 
joint opportunities.
    Estonians are not just dependable allies and strong 
partners but also close friends of the American people. If 
confirmed, I will dedicate myself to advancing that friendship 
and promoting United States interests in Estonia to further our 
partnership.
    Thank you again for allowing me to appear before you today. 
I look forward to your questions.
    [The prepared statement of Mr. Levine follows:]

                Prepared Statement of Jeffrey D. Levine

    Madam Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to be the next U.S. 
Ambassador to the Republic of Estonia. I am grateful to the President 
and to Secretary Clinton for the trust they have placed in me. If 
confirmed, I will work tirelessly to advance the interests of the 
United States and further strengthen the already deep and productive 
relationship we enjoy with Estonia.
    Madam Chairman, with me today are my wife, Janie, and son, Nick. I 
am indeed fortunate to have a supportive family who has shared the joys 
and challenges of my 27-year Foreign Service career. Nick will be 
remaining in the United States to start college but--if I am 
confirmed--I hope he will share at least part of this adventure on 
school breaks.
    For nearly 50 years, the United States refused to acknowledge the 
illegal and forcible occupation of Estonia by the Soviet Union. The 
regular statements of support that came from the White House and the 
Congress served as signals of hope for Estonians both in Estonia and 
abroad. Since 1991 and the reestablishment of Estonia's independence, 
each American President and every Congress have continued this support 
as Estonia transformed itself from a Soviet satellite to the strong, 
reliable, and democratic ally, that it is today.
    Estonia is a modern free-market success story. Even during the 
worldwide economic crisis, Estonia's fiscal and economic situation has 
steadily improved. After more than a year as a member of the eurozone, 
Estonia's economic situation is stronger than ever; in the midst of 
Europe's economic problems, Moody's upgraded Estonia's credit rating 
last year. Estonia is also sharing the benefits and lessons of its 
success with other democracies and nations in transition across the 
globe.
    Since it became a NATO ally in 2004, Estonia has shown unwavering 
support for our shared objectives around the world. Estonian troops 
served with us in Iraq and continue to operate without caveats in 
southern Afghanistan. Estonia has expressed its commitment to stay on 
the ground as the NATO mission transforms into advice and assistance. 
This commitment remains strong, though Estonia has paid a high price 
for this service with the lives of 11 of its brave soldiers in Iraq and 
Afghanistan, the second highest per capita loss in Afghanistan of any 
ISAF partner. Estonia has also contributed to many other military 
missions, including in Kosovo, Bosnia/Herzegovina, and the Horn of 
Africa.
    Estonia's military remains a force in transition, but one that is 
willing to take on dangerous missions, side by side with American 
troops. Our support remains a crucial tool to help Estonia create a 
military even more capable of serving alongside U.S. forces in the 
future. Estonian soldiers and officers attend training in the United 
States and have proven themselves accomplished and knowledgeable 
partners on the ground in Afghanistan and around the world. Estonia has 
also committed 2 percent of its GDP to defense spending, serving as a 
model for other allies in sharing the burden for our common security.
    Estonia is a world leader in information technology, and an 
Estonian entrepreneur is the creator of the Skype technology now used 
around the world. It hosts the NATO Cyber-Security Center of Excellence 
in Tallinn, which the United States joined officially in 2011. 
Estonia's innovative Cyber Defense League works closely with the 
Maryland National Guard to boost cyber security in both our countries. 
In joint operations with the FBI and Secret Service, Estonia has been 
crucial in bringing a number of cyber criminals to justice in the 
United States.
    Estonia is also a pioneer in e-governance. In its last election 
one-quarter of Estonians voted online, electronic medical records are 
fully accessible from any doctor's office, and its citizens have 
unprecedented access to information about their government. Moreover, 
Estonia has willingly shared this expertise with more than 40 nations, 
from Tunisia, to India, to Ukraine. If confirmed, I will work to 
continue our strong cooperation on cyber issues, and find ways to 
leverage U.S. support for Estonia's endeavors to ensure that our 
assistance to young democracies like Moldova, for example, is as 
effective as possible.
    The United States also welcomes Estonia's ongoing efforts to build 
strong communal relations among all Estonians, including the country's 
sizeable Russian-speaking population. If confirmed, I hope to work 
closely with my public diplomacy colleagues in Washington and in the 
region to further utilize ``social media'' resources to better reach 
out to all in Estonia, including the Russian-speaking minority and 
especially to young people.
    Madam Chairman, members of the committee, the history of relations 
between the American people and Estonians is one of trust and mutual 
support. Just as we stood side by side with the Estonian people during 
their difficult past, Estonians today are at our side as we meet common 
challenges and seize joint opportunities. Estonians are not just 
dependable allies and strong partners, but also close friends of the 
American people. If confirmed, I will dedicate myself to advancing that 
friendship and promoting U.S. interests in Estonia to further our 
partnership.
    Thank you again for allowing me to appear before you today. I look 
forward to your questions.

    Senator Shaheen. Thank you very much, Mr. Levine.
    And thank you all for your testimony and for introducing 
your family members who are here. We especially appreciate 
their being here this morning and their support for the work 
that you have been doing and will continue to do.
    I know that Senator Lugar has some time constraints, so, 
Senator, would you like to begin the questioning?
    Senator Lugar. Thank you very much, Madam Chairman.
    Let me ask Ambassador Norland, you are aware of the 
Cooperative Threat Reduction Program in Georgia in which we 
recently have completed a central reference laboratory to 
address poten-
tial natural and bioterrorist infectious disease outbreaks 
which threaten Georgia, the United States, and others.
    This is taking some time and effort, but to my knowledge, 
this facility is presently functioning. I would just simply ask 
at the outset that you be aware of the project, and likewise be 
helpful in working with Georgian authorities to gain the 
greatest benefits from this, similar to other laboratories set 
up in the area under the Nunn-Lugar program where information 
is shared with the United States with the thought of stopping 
any potential biological threat.
    A specific question comes with regard to NATO, and I 
introduced the NATO Enhancement Act, which would encourage 
further NATO enlargement and designate all countries expressing 
a national interest in joining NATO, including Georgia, as 
potential aspirant countries.
    As you have studied the Georgian situation in preparation 
for your ambassadorship, what is the lay of the land as you see 
it? And what steps could the United States take constructively 
to help Georgian aspirations?
    Ambassador Norland. Well, thank you for both questions,
Senator.
    On the CTR issue, let me start by congratulating you for 
two decades of work on nonproliferation. These reference 
laboratories are sort of a continuation of that work. I am 
aware of this kind of project because we had one in Uzbekistan 
under way. I'm aware that the one in Georgia was recently 
inaugurated. It is an extremely important project, both for 
what it represents in terms of nonproliferation issues, but 
also in terms of public health, animal disease control, and 
things that are important to agriculture.
    The Embassy or mission there I understand is supporting the 
project actively, and the U.S. Army plans to actually station 
some people there to work with the Georgians to make sure the 
laboratory properly carries out its functions.
    On the NATO issue, also let me thank you and members of the 
committee for the tremendous work over the years that you have 
done in support of NATO enlargement, and particularly for the 
support you're lending to Georgia's NATO aspirations. We 
welcome this support from the Congress, and we strongly support 
Georgia's NATO aspirations.
    NATO has declared that Georgia will be a member, so the 
issue really has to do with how and when. There is no single 
path to NATO membership. As it stands now, as I understand, the 
annual national program and the NATO-Georgia council all their 
primary mechanisms through which Georgia and the allies are 
pursuing the issue of Georgia's membership.
    But a lot of emphasis at the same time is being placed on 
steps Georgia is taking already in the direction of membership. 
Its contributions to ISAF, which we noted already today, the 
steps it has taken on defense reform and modernization, and the 
steps which I alluded to regarding democracy and economic 
progress. These are all part of the package that go into 
meeting the criteria for NATO membership.
    As I carried out my consultations, I have become aware of a 
serious effort on the part of the administration to use the 
Chicago summit to signal acknowledgment for Georgia's progress 
in these areas and to work with the allies to develop a 
consensus on the next steps forward.
    And I can assure you that, if confirmed, carrying that 
forward will be an extremely important part of my duties.
    Senator Lugar. Well, that is a very, very important 
statement. I appreciate your leadership in that area. And you 
know you will have the support back here of many of us as you 
proceed.
    Let me ask you, Mr. Pekala, speaking of the NATO summit in 
Chicago, I am reminded of the NATO summit that occurred in Riga 
in 2006. I was honored to be the dinner speaker before the day 
of the summit and took that occasion to recall that the 
previous winter had been one in which natural gas shipments 
from Russia to Ukraine had been terminated. That also occurred 
in other countries, but it was especially conspicuous in regard 
to Ukraine, with ramifications in Germany.
    So I suggested that article 5 of the NATO charter really 
ought to be expanded to energy security, that warfare in Europe 
might not commence through troops marching across territory or 
aircraft bombings, but simply by cutting off the gas or cutting 
off the oil.
    This has been a subject of great importance, obviously not 
only to the country that you're going to represent, but its 
neighbors, and for that matter, all of Europe is represented 
with ideas like the Nabucco pipeline or other smaller projects.
    What is the situation now as you perceive it in the country 
that you are about to represent--the United States--in Latvia? 
What is the energy predicament? And what degree of energy 
independence or security does it have?
    Mr. Pekala. Senator, thank you for that very important 
question. We share your concerns, obviously.
    We in the State Department, you, many others, over the past 
many years, have been talking to countries in the region about 
the importance of diversifying the sources of energy and 
diversifying the ownership of the pipelines that bring that 
energy to various countries.
    The situation in Latvia is evolving. They do understand the 
importance of diversity of ownership and supply. They are 
subject to a near-Russian monopoly on their gas and oil. But in 
other areas, the picture is a lot more optimistic.
    Latvia only imports a tiny percentage of its energy, that 
mostly from Estonia. They produce most of their own energy 
through hydroelectric plants and other means. And they are 
working with the other two Baltic States on other means of 
renewable energy sources. They are working with Estonia and 
Lithuania on a possible nuclear power plant in Lithuania, and 
they are talking to Estonia and Lithuania and many other 
countries in the region about a possible LNG, a liquefied 
natural gas terminal, somewhere in the Baltics, also thinking 
about tapping into supplies that might be in Germany and Poland 
and elsewhere. And the Latvians, like others, are looking into 
shale oil and shale gas as a means of diversifying their supply 
and enhancing their independence.
    So the good news is that the Latvians clearly understand, 
along with you and us and many others, the importance of 
diversification, and they are working hard on establishing 
means to work hard on that in the 21st century to increase 
their independence.
    Senator Lugar. I appreciate that response. Obviously, you 
are on top of the subject, and I congratulate you.
    Thank you, Madam Chairwoman.
    Senator Shaheen. Thank you, Senator.
    You probably saw us doing some quick whispering up here. We 
think we are going have some votes called very shortly, so 
Senator Cardin is going to go next, and then I will continue. 
We will recess to vote, and then I will come back if there are 
still questions.
    So, Senator Cardin.
    Senator Cardin. Thank you very much, Madam Chair.
    What I will do is I will pose a question to all five that I 
will ask be answered for the record, so we don't need to take 
the time now.
    But let me make the point, if I might, and that is, first, 
thank all five of you for your public service. And I thank you 
for your families. You have all had an incredible career of 
public service, and you are continuing that, and we know this 
is sacrifice not only for you, but for your families. We 
appreciate that very much.
    All five of the countries that are represented here have a 
lot in common. They are all strategically important to the 
United States. We have excellent relationships with all five 
countries. And they are countries that we want to continue to 
strengthen those ties.
    I have the honor of chairing the U.S.-Helsinki Commission, 
the Senate chair of the commission. And my question deals with 
the highlighting the important role that you can play as 
Ambassador to continue the advancements on the human dimensions 
of the OSCE.
    I particularly mention Estonia, because Estonia has been a 
successful country in using the OSCE format in dealing with its 
Russian-speaking minority, and I applaud the Estonian 
Government. I've been there. I've worked with them, in using 
the OSCE to advance the humans rights issues.
    [The written answers submitted for the record by Ambassador 
Merten, Mr. Pekala, and Mr. Levine follow:]

    Ambassador Merten. The OSCE has played a key role in Croatia's 
transformation into a NATO Ally and soon-to-be EU member. Evidence of 
its progress can be seen in the decision to close the OSCE Office in 
Zagreb, truly a success story for the region and the organization. Yet 
more work remains. If confirmed, as Ambassador I will strongly 
encourage Croatia to continue to meet its OSCE human dimension 
commitments on human rights and fundamental freedoms, both for the 
citizens of Croatia and so that Croatia can be a model for the rest of 
the region. These commitments include protecting human and minority 
rights, ensuring civil society and independent media have space in 
which to operate, and inviting international election observation.
                                 ______
                                 
    Mr. Pekala. If confirmed as Ambassador, I would work closely with 
the Government of Latvia on the full panoply of OSCE activities 
throughout its geographic area of activity. We greatly value the work 
that the OSCE has accomplished. Both the United States and Latvia share 
its goals and objectives. We see Latvia as an excellent partner in 
these endeavors and anticipate a robust relationship on these issues in 
the future.
    In particular, I would urge close cooperation with OSCE 
institutions, with the aim of improving transparency. In the context of 
the OSCE, Latvia has demonstrated a willingness to share the experience 
it has gained through its democratic transition to assist other states 
in the region, and as part of OSCE's efforts to support OSCE partner 
states in the Mediterranean and North Africa.
                                 ______
                                 
    Mr. Levine. If confirmed, I will work closely with the Government 
of Estonia to advance our shared goal of strengthening the OSCE's human 
dimension. I believe that Estonia has a deep appreciation for OSCE's 
democratization and human rights work, as it benefited directly during 
Estonia's own democratic transition. Today, Estonia serves as an 
example of transparency, openness, and freedom and works to share its 
experience and expertise with other countries in the OSCE region, such 
as Belarus and Moldova. Estonia also takes the protection of freedoms 
of the press, speech, and Internet seriously, both domestically and 
abroad.
    Estonia has also worked over the past year to take several positive 
steps on its own issues of minority rights and citizenship, and it has 
reduced the number of people in the country who lack citizenship. While 
there is still some distance to go, Estonia is moving in the right 
direction. If confirmed, I will work closely with the Government of 
Estonia, as well as through our social media platforms with the public, 
to ensure that progress continues.

    Let me, if I just might very quickly, mention in Kosovo, 
there are challenges. There are serious challenges. Kosovo is 
not a member of the OSCE, because of the blockage of a minority 
number of countries within the OSCE. But it needs to pay 
attention to the rights of all of its citizens, and I will be 
asking, Ms. Jacobson, that you pay particular sensitivity to 
that in your role, when confirmed, as Ambassador.
    As Ambassador, what is the important role that you can play 
to continue the advancements on the human dimensions of the 
OSCE?
    [The written answer submitted for the record by Ambassador 
Jacobson follows:]

    The Government of Kosovo is not currently a participating State, 
but its admission would be welcome in the future. Much work takes place 
every day in Kosovo that furthers the OSCE's comprehensive view of 
security, especially in the human dimension. Supporting OSCE's efforts 
to protect human rights and strengthen democracy will be a critical 
element of my mission, if I am confirmed. If confirmed, I would look 
forward to working with the OSCE and would also hope to have the same 
good partnership with the Helsinki Commission that I enjoyed as 
Ambassador to Turkmenistan and Tajikistan. This partnership resulted in 
significant achievements, for example in the area of religious freedom 
in Turkmenistan.
    In Kosovo there has been a lot of progress made in the area of 
human rights with regard to protection of all communities, as required 
in the Constitution, and some progress has also been made in terms of 
bringing to justice those officials who commit abuses.
    The GoK is also taking steps to address irregularities and 
electoral manipulations which marred Assembly elections in 2010. In 
preparation for the next parliamentary elections, a legislative 
committee is revising the electoral code, while another committee is 
preparing constitutional changes that would allow direct election of 
the President. Further, after some criticism of the lack of serious 
sentences and fines for people who committed electoral abuses, we have 
noted a positive trend since 2011 toward serious sentences and fines 
for election fraud; 27 people have been sentenced to terms, and more 
than 100 people have been fined.
    There also remain concerns about discrimination, for example 
against ethnic and religious minorities, disabled persons and members 
of the lesbian, gay, bisexual and transgender community. Additional 
human rights issues included allegations of prisoner abuse as well as 
corruption and favoritism in prisons; lengthy pretrial detention; 
judicial inefficiency; intimidation of media by public officials and 
criminal elements; limited progress in returning internally displaced 
persons (IDPs) to their homes; government corruption; trafficking in 
persons; and child labor in the informal sector.
    Roadblocks established by Serb hard-liners in northern Kosovo have 
also seriously restricted basic rights for citizens in the north, 
including the free movement of goods, people, and services. Serb hard-
liners have employed violence and intimidation against domestic 
opponents and international security forces, which resulted in deaths 
and injuries during the year.
    Tackling these issues is going to take a concerted international 
effort to address, and will require leadership by the United States in 
cooperation with Kosovo.

    My main question, though, is to Ambassador Norland, if I 
might. You've come from Uzbekistan, which is not exactly the 
best nation as an example of the advancement of human rights. 
Georgia has problems. They are strategically important to us. 
They are moving forward in transition. I had a chance to talk 
to President Saakashvili when he was here about what he is 
doing as far as open and free elections for both the Parliament 
and for the Presidency. We know that there are efforts to limit 
those who are eligible to run for President, and there have 
been statements made by the opposition that they are being 
denied opportunities to fairly compete in the national 
elections.
    So my question to you is--and you can answer this for the 
record--that'll be fine--as to what steps you would take as 
Ambassador to make sure that Georgia continues its transition 
to free and open elections, allowing fair opportunities for 
opposition candidates to compete in the election?
    And, Madam Chair, I can have those answered for the record.
    Senator Shaheen. Well, I would actually like to hear the 
answer, so we have a few minutes before we have to recess for 
the vote. So perhaps, Ambassador Norland, you can go ahead and 
respond.
    Ambassador Norland. Thank you, Senator.
    And thank you, Senator Cardin, for the question, and for 
your work in support of the Helsinki Accords. I am familiar 
with that work from when I was with, at the time, CSCE in 
Georgia, and the principles that are represented by the accord 
are actually principles on the table still today with respect 
to the conflict zones in Georgia and also with respect to the 
democratic process that you have touched on.
    If confirmed, I would seek to develop broad firsthand 
knowledge of Georgia's performance with respect to promotion of 
rule of law and fundamental freedoms afforded under Helsinki 
Accords and to urge the Georgians to take all necessary steps 
to ensure they are in full compliance.
    Georgia has made progress toward becoming a full democratic 
state. The elections this year and the Presidential elections 
next year are testimony to that.
    But, as you indicate, there are very real concerns. While 
there has been real progress, there are real concerns about 
what you might call of the level playing field. And there are 
reports of harassment of opposition candidates that trouble us 
deeply. The role of the so-called chamber of control and party 
financing is drawing a lot of concern in Georgia and in the 
international community.
    I can tell you already our mission is raising these 
concerns publicly and privately with the Georgian Government. 
And if confirmed, it would be my role to continue to monitor 
very carefully Georgia's observance of the principles that we 
hold dear. This would be a central priority for my mission.
    The United States already spends millions of dollars in 
assistance to promote civil society, rule of law, and democracy 
in Georgia. And we need to be careful stewards of those funds 
to make sure that we are getting the results we're looking for.
    Finally, I would just point out, given Georgia's interests, 
Georgia's aspirations to NATO membership, and our support for 
those aspirations, how these elections are conducted is very 
important litmus test, and we will be watching carefully to 
make sure that the way these elections unfold are in keeping 
with NATO standards.
    Senator Cardin. I would just underscore the issue of 
qualification of opposition candidates. That has been used in 
too many European countries as a way of trying to block 
opposition opportunities. I would just urge our presence there 
to have the widest possible opportunities for opposition to 
effectively be able to compete on a level playing field.
    Ambassador Norland. Yes, sir.
    Senator Cardin. Thank you, Madam Chair.
    Senator Shaheen. Thank you. Would you like to hear a 
response from Ambassador Jacobson, too, on the Kosovo issue?
    Senator Cardin. Yes, thank you.
    Ambassador Jacobson. Thank you for the opportunity.
    If I am confirmed, the issue of human rights and promotion 
of democracy will be a critical element of my mission, as it 
was in my missions in Turkmenistan and Tajikistan. And I would 
look forward to working in very close partnership with the 
Helsinki Commission, a partnership which I think produces real 
results;
for example, our progress on the issue of religious freedom in 
Turkmenistan.
    In Kosovo, there has been a lot of progress made in the 
area of human rights with regard to protection of all the 
communities, which is included in the constitution. And some 
progress has also been made in terms of bringing to justice 
those officials who commit abuses.
    The Government is currently working on electoral law in 
preparation for parliamentary elections, which could occur as 
early as next year, and also looking at constitutional 
amendments to allow the direct election of the President.
    After some criticism of the lack of serious sentences and 
fines for people who committed electoral abuses, we have noted 
a positive trend in 2011 toward serious sentences and fines. 
And, in fact, 27 people have been sentenced to terms and more 
than 100 people have been fined.
    There are still serious problems with discrimination, 
societal discrimination, for example, against ethic and 
religious minorities, against disabled and LGBT people. There 
are issues with corruption and rule of law. There are a variety 
of issues that are going to take a concerted international 
effort, including leadership by the United States in 
cooperation with Kosovo, to address.
    I would also point out that the human rights situation in 
the North is not helped by the existence of the illegal 
parallel institutions, which do prevent full human rights; for 
example, the freedom of movement.
    And these issues would all be critically important to my 
mission, if confirmed.
    Senator Cardin. I am just pointing out there appears to be 
an opening with Serbia as it relates to north Kosovo. There 
appears to be a willingness to talk more openly about these 
issues, and Serbia is trying to become the leader; chair an 
office in the OSCE.
    So there is some opportunity, we think, to make significant 
progress in this area. And I agree with your assessment. But I 
think the United States can play a very important role, and our 
Embassy in Kosovo can be a critical partner.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you.
    At this point, we will recess for about 15 minutes while we 
vote. And I will return. I'm not sure who else will.
    Thank you.

    [Recess.]

    Senator Barrasso [presiding]. Thank you for resuming this. 
We apologize for the fact that there is a vote going on. 
Senator Shaheen will be back shortly.
    I wanted to first thank all of you for your willingness to 
serve, and congratulate you on your appointments, and look 
forward to additional discussions.
    I'm going to start, if I could, with the nominee to Kosovo.
    Ambassador Jacobson, in November last year, I traveled to 
Camp Bondsteel in Kosovo. That was my second visit. I spent 
Thanksgiving with the troops. We have 23 Wyoming Air National 
Guardsmen there. They are members of Detachment 3, the B 
Company, 777th Aviation Support Battalion. For the next 6 
months, they are going to continue to provide helicopter 
support and maintenance to the 112th Aviation Regiment. Also 
able to meet at the time on Thanksgiving Day with the Charge 
d'Affaires, Michael Murphy, and had a nice visit.
    On paper, our forces in Kosovo are classified as the third 
responder in support of the peacekeeping operations. However, 
we know that more often than not when violence erupts, these 
forces become the first responders when Kosovo security forces 
and European Union forces can't assist.
    So with the drawdown that is occurring there, I just want 
to know how we can encourage the people of Kosovo to step up 
and provide the type of security that people of Kosovo demand, 
expect, and who can we trust to make sure that that happens and 
what role you will plan that.
    Ambassador Jacobson. Thank you for the question, Senator.
    KFOR staffing is currently at about 5,800 troops, which the 
United States usually forms around 10 percent. We are what is 
known as Gate 2 in terms of the level of staffing. Given the 
violence that occurred last summer and the conditions on the 
ground, we see the staffing levels remaining relatively 
consistent for the near foreseeable future, because KFOR, as 
you mentioned, does play an incredibly important role in terms 
of maintaining security throughout the country.
    In addition to that, KFOR is playing an important role in 
terms of mentoring and advising the Kosovo security force, 
which has responsibility in four major areas, including civil 
emergency, fire suppression, disposal of hazardous materials, 
explosive ordnance disposal. And KFOR will continue to play 
that role as the Kosovo security force develops.
    The commander of KFOR has recommended that the full 
operating capacity status for the Kosovo security force. This 
is a decision that has to be taken by the North Atlantic 
Council. And that decision will inform how we go forward in the 
future.
    Senator Barrasso. Thank you.
    Ambassador Norland, I had a chance to travel to Georgia 
with Senator McCain and others, and meet with the President 
there. On December 31, 2011, President Obama signed the 
National Defense Authorization Act for Fiscal Year 2012. It 
specifically calls on the Secretary of Defense to submit a plan 
to Congress for the normalization of U.S. defense cooperation 
with Georgia, including the sale of defensive weapons.
    If confirmed as United States Ambassador to the Republic of 
Georgia, will you be committed to stepping up the United States 
defense security cooperation with Georgia and support efforts 
to assist in developing Georgia's self-defense capabilities?
    Ambassador Norland. Senator, yes. Thank you for the 
question. And thanks for your support for Georgia, for NATO 
enlargement, and for Georgia's defense capabilities.
    I firmly believe that a robust military-to-military 
relationship needs to be a part of United States-Georgia 
relations. And fortunately, during President Saakashvili's 
meeting with President Obama on January 30, I think some 
important forward impetus was given to that relationship.
    We have already seen approval of a shipment or the purchase 
of M4 carbines by the Georgians. There's going to be I think 
enhanced focus on support for Georgian defense reforms, for 
Georgia's ability to participate in the ISAF mission, and for 
NATO interoperability in that regard.
    As we speak, the U.S. Marines are wrapping up today an 
exercise, Agile Spirit, with Georgian military, in support of 
their ISAF presence. The Georgia National Guard here in the 
United States has a very important and active relationship with 
the military in Georgia. Deputy Assistant Secretary Wallander 
from the Department of Defense was there recently, and I 
understand a Georgian Deputy Minister of Defense is coming here 
next month to pick up the dialogue following the Presidential 
meeting here on this issue.
    Absolutely, if confirmed, I see it as an essential part of 
my mission to develop a robust military-to-military bilateral 
defense cooperation arrangement with Georgia.
    Senator Barrasso. Thank you, Mr. Norland. I appreciate it.
    Ambassador Merten, with regard to Croatia, I'm just 
wondering how Croatia has been impacted by the global economic 
crisis, and what sort of efforts have been taken by Croatia to 
boost its competitiveness, to boost its economic growth, and 
how the United States may be involved and helpful in future 
efforts.
    Ambassador Merten. Thanks so much.
    I think Croatia's accession to the European Union, if that 
goes forward as planned next summer--summer 2013--will be a 
large boon to the Croatian economy.
    One of the things I hope to focus on, should I be fortunate 
enough to be able to get out to post, is to work with the 
Croatians on investment and economic growth issues. I firmly 
believe that as a good partner economically, we can work with 
them and help them to develop their economy, to develop a 
business-friendly environment, which is very welcoming to 
foreign investment, particularly American investment.
    And, ultimately that is good for the American people, 
because a good, strong economic partner in Croatia will help 
create and generate jobs here in the United States.
    Senator Barrasso. Thank you.
    Mr. Pekala, the former President of Latvia is an orthopedic 
surgeon, and I'm an orthopedic surgeon. We trained with the 
same professors. So we have great relationships unrelated to 
all the things that you're going to be doing. But if you ever 
get into a pinch, let the orthopedic surgeons come in, and we 
can help.
    Latvia was significantly impacted by the global economic 
crisis. The country's gross domestic product dropped by 17 
percent in 2009, unemployment rose to 18 percent in 2010. In 
2008, the IMF provided a stabilization loan to Latvia.
    What steps is the Government taking in response to the 
economic crisis? And what kind of impact will the uncertainty 
in the eurozone have on Latvia?
    Mr. Pekala. Senator, thank you for that question, and I can 
ask former President Zatlers and you, then, if it hurts when 
I----
    Senator Barrasso. It hurts when you do that, stop doing 
that.
    Mr. Pekala. Exactly. [Laughter.]
    As you well stated, Latvia was hit very hard by the 
economic crisis. I mentioned in my prepared remarks that 
between 2008 and 2010, as you said, GDP in Latvia went down by 
25 percent.
    Prime Minister Dombrovskis, starting right away after the 
economic crisis hit, undertook a very serious program of 
reducing Government expenditures in increasing revenue. And 
after 2010, and as you mentioned the IMF, some European 
countries, especially Nordic countries, and the European Union, 
undertook a lending program to Latvia. With the seriousness of 
the Government program, and the assistance from these other 
places, Latvia has very impressively rebounded.
    Last year, 2011, their growth rate was 5.5 percent, one of 
the highest growth rates in the European Union. In the last 
quarter of 2011, their growth rate was 5.7 percent, the highest 
growth rate in the European Union. They have been very serious 
about the measures taken in the government and the economy to 
improve.
    There is great news on this for Latvia, of course. As you 
mentioned, unemployment went down from 20 through 15; it's now 
at 12. Still high but going in the right direction.
    And there's good news for the Latvians and for us. One of 
the elements of the good news for us is that there is really 
fertile ground now for increased American investment in Latvia. 
That has grown over the last 2 years. Last year it was about 
$600 million, a growth of almost 70 percent from the previous 
year. And if I am confirmed, I intend to put very high on my 
list of priorities enhancing American investment in Latvia. 
This creates American jobs. It is good for all of us. Good for 
America, good for Latvia.
    Another element of the benefit here is that Latvia has now 
reengaged and restarted its assistance program in its 
neighborhood and beyond. Through the economic crisis, it wasn't 
able to do so, it was so strapped. Some Government agencies 
lost 40 percent of their budgets, 30 percent of their people, 
during the economic crisis. But Latvia's back, and it has 
restarted its assistance program.
    They are extremely well engaged with Georgia and have been 
over many years with the Ministry of Interior and Justice of 
the Ministry of Foreign Affairs, and the Ministry of Defense, 
on what Georgia can do to improve its democratic reforms and 
get closer to NATO membership. And they have a very important 
assistance program with Moldova, again, to teach the lessons 
that they have learned as they have evolved.
    So there's good news for Latvia. And we want to be a part 
of that and help them and help America at the same time.
    Senator Barrasso. Thank you.
    Mr. Levine, I want to ask about the energy sector in 
Estonia. And I know they have called for diversification of 
Europe's energy supplies, the Government of Estonia is looking 
at different energy sources to reduce the country's dependence 
on Russian gas supply. So I just want to ask you, what kind of 
energy resources Estonia has and what progress is being made 
toward more energy independence, and what your evaluation is of 
the effectiveness of the country's energy independence 
strategy.
    Mr. Levine. Thank you, Senator.
    Estonia is lucky to have large deposits of oil shale, which 
provides the majority of its oil and petroleum products. It is 
dependent on Russia for gas, which provides about 15 percent of 
their energy needs. But so far, that relationship has been 
working smoothly.
    They have been very much a proponent of a European energy 
strategy and, themselves, tried to diversify. As was mentioned 
earlier, they are a part of the partnership that is looking at 
a nuclear power plant in Lithuania. And working with Finland, 
they have been laying cables to connect themselves to the 
Finnish electricity grid.
    Their expertise in oil shale I think is both an opportunity 
for them on the energy front as well as the commercial front. 
They have purchased oil shale property in the United States, 
about 30,000 acres in Utah, and hope to bring that into 
production by 2016, producing about 30,000 barrels a day.
    I think that kind of partnership between our two countries 
on both energy and technology is one of the benefits that we 
can enjoy.
    Senator Barrasso. Well, thank you.
    And, Madam Chairman, I now note a number of young people in 
the audience, obviously family members. And I congratulated 
each of the nominees. I also want to thank and congratulate 
each of the families. I know that it is a major family 
commitment to take on these kind of responsibilities for the 
United States.
    Thank you, Madam Chairman. No further questions.
    Senator Shaheen [presiding]. Thank you very much, Senator 
Barrasso. And thank you for bringing reinforcements to keep the 
hearing going while I was voting.
    I want to follow up on the economic question that you asked 
Mr. Pekala, to Mr. Levine, because one of the things--a number 
of you mentioned that effect the economic crisis on the 
countries that you're hoping to serve. But Estonia, actually, 
seems to have weathered the current economic crisis in Europe 
much better. To what do you attribute that? What are they doing 
right?
    Mr. Levine. I believe that Estonia is doing a lot right. 
They're viewed as one of the most open, most liberal economies 
in the world. And the policies that they have pursued very much 
in the free market realm are working for them.
    They are back to positive growth. Unemployment is down. 
They are followers of Maastricht Criteria. And they have a 
relatively small population. And all those factors combined has 
led to a real economic success story.
    With that said, I would like to see greater commercial and 
economic activity between the United States and Estonia in a 
way that will benefit both of our economies.
    Senator Shaheen. Thank you. You mentioned in your testimony 
NATO's Cyber Defense Center of Excellence, which is in Estonia. 
Can you comment on what impact that has had on Estonia? And 
also on NATO? What lessons have been learned from having that 
Center of Excellence there that we may be ought to learn here 
in the United States?
    Mr. Levine. Thank you, Senator.
    Their expertise in cyber security is one of the niches that 
Estonia has been able to offer to both the alliance and the 
world at large. At the center, they are working on issues 
directly related to NATO's internal cyber security, and in 
partnership with the Maryland National Guard, they have a 
similar program working on the development of cyber security 
strategies that are applicable to the society at large.
    We do have participants at the center in Tallinn. And it is 
viewed as a very successful enterprise.
    Senator Shaheen. And many people believe that the 2007 
cyber attacks that have made Estonia one of the leaders in 
cyber security, because of their need to respond to those 
attacks, that those attacks originated in Russia. Can you talk 
about how Estonia feels about the current Obama 
administration's reset policies toward Russia, and what the 
impact of both the 2007 attack and that reset policy have had 
on Estonia?
    Mr. Levine. Thank you, Senator.
    I would characterize the Estonian-Russian relationship as 
cool but correct. And our reset provided them a little bit more 
space in order to pursue the practical cooperation that they 
had with the Russians on things like border control, 
immigration.
    Outside of that, there isn't a lot of contact between the 
two governments. The reset, as I said, it allows them a little 
bit more space, but we wouldn't expect their own bilateral 
relationship to have any major improvements until there is a 
reconciliation of the 50 years of history that they had 
together.
    It is a very different view of the Soviet occupation, very 
different view of what that era was about, is going to be an 
obstacle in a closer relationship.
    Senator Shaheen. Thank you.
    Ambassador Jacobson, in your testimony, if I can find it 
here, you had a really good summary, I think, of what would be 
important to resolving the current situation with Serbia. And 
you say that a solution to the situation in the North, 
normalization of relations, require a durable modus vivendi 
that respects Kosovo's sovereignty, takes into account the 
views of the citizens of the north, and allows both Kosovo and 
Serbia to proceed on their respective paths.
    How do we help that happen?
    Ambassador Jacobson. Well, I think we have to continue to 
engage using the United States leadership with our 
international partners, with the government and with the people 
of Kosovo, with our regional partners.
    One of the examples that I think is useful in this regard 
is the Kosovo Serbs who live in the south. And there are 
actually a lot more of those in the south than there are in the 
north. And they have been able to take full advantage of the 
far-reaching protections afforded them both by the 
comprehensive status proposal and by Kosovo's own 
constitutions.
    I'm talking about local self-government and autonomy. I'm 
talking about the fact that the Kosovo Serbs in the south 
participate in all levels of government, from municipal--and 
there are Serb-majority municipalities in the south, all the 
way to the national level. And I think this is an important 
model.
    But just as important is the idea of engagement and 
dialogue, and Prime Minister Thaci has said that he and his 
government will reach out to community leaders in the north. 
This is something that we absolutely promote and encourage.
    And if I am confirmed, I will do my best to listen; to 
understand the interests of all the stakeholders in this issue; 
and to work with our international partners, with the Congress, 
and with the government and the people of Kosovo to work toward 
that durable modus vivendi based on practical agreements that 
make a difference in people's lives that I mentioned in my 
testimony.
    Senator Shaheen. And is there any evidence that in the 
northern part of Kosovo that those parallel structures that you 
mentioned are becoming a concern for Serbs who live in that 
area?
    Ambassador Jacobson. Well, I think recent polling in the 
north of Kosovo has indicated that 70 percent of the Serbs that 
live up there don't see that Belgrade has any sort of plan for 
their future. And this I think is a point. Nobody has any 
objections to Serbia providing legitimate, transparent 
assistance to Serbs in Kosovo in the areas of health and 
education and social welfare. But I don't see that that is what 
the illegal parallel structures are providing.
    They are, in fact, interested in preserving their own 
authority, and in some cases have actually created an 
atmosphere of intimidation and fear for those in the north who 
do wish to cooperate with the international community and with 
the Government in Kosovo.
    So clearly, this is an issue that is going to require 
sustained engagement, leadership, and contacts.
    Senator Shaheen. And is there evidence that that 
environment of fear is coming from Belgrade? Or is it coming 
from the local Serbs in the northern part of the country?
    Ambassador Jacobson. I think an environment of fear is a 
complex thing, and without having been there myself, I wouldn't 
want to ascribe the origins to it. But it certainly does exist, 
and it's something that we have to work toward ameliorating, 
both in terms of the security situation on the ground that is 
assisted by KFOR and in terms of our diplomatic engagement, and 
also in terms of ours assistance programs, some of which have 
been hampered in the north by the lack of freedom of movement.
    I have in mind some of USAID proposals for infrastructure, 
so we have had to focus more on community-building, short-term 
job creation. We have in fact created 1,600 jobs.
    So this is, I think, the kind of engagement that we need to 
continue together with our international partners in the 
countries of the region to reduce those levels of tension over 
time.
    Senator Shaheen. And one of the sources of conflict has 
been concern among Serbs about attacks on the Serbian 
monasteries that we have seen in the past. Is there a general 
acceptance now by the Kosovars that those monasteries are 
important historical and religious--I don't want to use the 
term ``artifacts''--religious symbols? So accepting their 
presence there without destroying them, because obviously that 
will continue, until that point happens, that will continue to 
be a source of conflict.
    Ambassador Jacobson. Well, I think the fact that the 
Government of Kosovo has really engaged in this reconstruction 
and implementation commission, which was established together 
with the Serbian Orthodox Church and the ministries of culture 
of both Serbia and Kosovo, to rebuild and repair those 
religious buildings that were destroyed in the 2004 riots is 
really testament to that fact.
    In fact, the Government of Kosovo not only financially 
supports that effort but also provides 17 sites with protection 
from the Kosovo security force.
    Societal discrimination does still exist--I don't want to 
downplay that--in Kosovo with harassment or vandalism against 
both Serbian Orthodox sites. Also, last year there was 
vandalism in a Jewish cemetery in Pristina, which the 
Government moved quickly to clean up and denounce.
    The Protestants have complained that they haven't been able 
to open a cemetery in Decani, and the Islamic community has 
protested the ban on headscarves in religious institutions.
    So these are all examples that appear in our religious 
freedom report. And if confirmed, I would work very hard on 
issues of respect for religious diversity.
    I've learned through my engagement with religious leaders 
at FSI that some of them don't like the word ``tolerance,'' 
because it indicates that I'm just putting up with you.
    So the eventual goal is to produce a requirement that 
respects and promotes religious diversity. And I would work 
very hard on that issue with religious communities and leaders 
and with the government and people of Kosovo, if confirmed.
    Senator Shaheen. Thank you very much.
    Ambassador Norland, I know that Senator Cardin raised some 
concerns about open elections in Georgia and some of the 
activities that raise questions about how free the opposition 
is to compete in those elections.
    Yesterday, the Atlantic Council had a panel discussion here 
about NATO and the upcoming summit in Chicago, which as you 
point out, and others have, I did in my remarks, Georgia has 
aspirations and has been promised membership in NATO, 
ultimately.
    But one of the points that former Secretary Albright made 
yesterday is that there is a connection between rule of law, 
and free and open elections, and government values, and 
participation in NATO.
    And so can you talk about how important an open, 
competitive election for Georgia's future, both for continued 
support here in the United States and Europe, and also in terms 
of NATO acceptance, will be?
    Ambassador Norland. Yes, Senator, thanks.
    I think that the relationship is pivotal, that Europe and 
the United States are closely watching the conduct of these 
elections to determine whether they meet the criteria that are 
expected of a NATO member country.
    There are real concerns about the way certain aspects of 
these elections are being conducted, harassment of opposition. 
Our goal is to see a level playing field.
    We have extended thanks to Congress. We have extensive 
assistance programs to try to develop the rule of law, to 
promote a civil society, the role of the media.
    And it is not that we are focused on any particular 
individual. What we are seeking to do is to protect the 
integrity and support the integrity of the process. And I think 
Georgian officials are beginning to understand that, in fact, 
they are being watched, that this is being monitored closely, 
and that it is being viewed as a litmus test for their 
membership in NATO.
    We hope that they will take the right steps.
    Senator Shaheen. Thank you. I certainly hope that is the 
case as well.
    As you remember so well, back in 2008, the Russian--there 
was a conflict between Georgia and Russia over Abkhazia and 
South Ossetia. There's not a lot that is being heard right now 
about what the status of that situation is, except that Russia 
has not complied with all of the terms of the agreement that 
ended that conflict, or at least created a cease-fire.
    So can you talk about whether there any recent measures 
that we have taken to encourage Russia to fulfill its 
obligations under the agreement?
    Ambassador Norland. Well, first of all, let me thank you 
for your participation in the Atlantic Council publication on 
Georgia in the West, because I think a lot of good ideas are 
contained in there, which I know will help guide me, if I am 
confirmed.
    Senator Shaheen. My staff appreciates your mentioning that.
    Ambassador Norland. What happened in Georgia in 2008 was a 
tragedy. And I think the entire international community is 
seized now with the issue of how do we overcome that tragedy 
and find a way to move forward, and, if you will, in a way, to 
move back toward the status quo ante.
    We continue to object to the presence of Russian troops in 
the occupied territories, and we strongly support Georgia's 
sovereignty and territorial integrity. These are matters of 
principle.
    You asked what additional steps can we take now; what is 
the prospect for galvanized movement on this? I will know 
better if confirmed and able to get out and get a sense on the 
ground of what is possible.
    But quite clearly, we need to continue to use the forum in 
Geneva and other fora to urge Russia to fulfill its 2008 cease-
fire obligations.
    There is no military solution to the situation, so the 
issue is how do we galvanize out diplomacy. As George Kennan 
would say, all measures short of war, to try to address the 
situation.
    In addition to the talks in Geneva, there's another round 
coming up at the end of this month. We can find ways to try to 
take steps to, for example, get international monitoring 
groups, whether from OSCE, the EU-monitoring mission, or 
others, into the occupied territories themselves and not simply 
on the margins.
    Try to get humanitarian assistance into those areas, and 
look for small confidence-building measures that can lay the 
groundwork for progress, such as Georgia's no-first-use-of-
force declaration. Hopefully, Russia would reciprocate--the 
projects that OSCE is doing with regard to water management in 
South Ossetia, or the UNDP's youth projects in Abkhazia.
    I think if we approach these issues in a spirit of 
transparency with a desire to minimize regional tensions and 
find a way forward, I think diplomacy can play a very important 
role in getting us out of this mess.
    Senator Shaheen. Thank you very much.
    Ambassador Merten, you talked about Croatia's EU 
membership, which will soon happen, in 2013. Can you talk a 
little bit more about how that membership is going to benefit 
Croatia? And what might be the impact of that on some of 
Croatia's neighbors in the Western Balkans?
    Ambassador Merten. Thanks for that question.
    I think full EU membership for Croatia opens up, obviously, 
a huge market for Croatian producers. It also presents them 
with a challenge, however, because they're going to need to 
raise the bar of their competitiveness to at least meet the 
level of their EU neighbors.
    But given Croatia's past performance over recent years, I 
am quite confident that the Croatian private sector and 
Croatian Government will be able to meet those challenges.
    Regarding the rest of the immediate neighborhood, if you 
will, I think Croatia sets a good example for the way other 
countries in the region can move forward. We have a mature 
partnership now with Croatia. We no longer have an AID mission 
there. They have made terrific progress. And I think they show 
a good roadmap to other countries in the region, to what is 
possible.
    And I am very optimistic that their EU membership will give 
them great opportunities if they are able to take advantage of 
them.
    Senator Shaheen. I had the opportunity to visit Croatia a 
couple years ago with Senator Voinovich when he was still in 
the Senate. And as I am sure you are aware, he is beloved in 
the Western Balkans. But one of the things we did was to meet 
with the Prime Minister at the time who had been very 
successful in cracking down on corruption, much more so, I 
think, than was anticipated when she took over that job.
    Can you talk about the extent to which many of those 
reforms are continuing and how big a challenge that continues 
to be in the country?
    Ambassador Merten. Of course. Thank you.
    My understanding is that there continue to be some 
challenges in that area. However, I think, as, again, part of 
Croatia's EU accession process, they have had to put in certain 
safeguards in place. As I understand it, they are still in the 
process of doing some of that, so there is some of the 
remaining homework, if you will, that needs to be done by 
Croatia before they can fully join next year.
    We will certainly encourage them, should I be confirmed, in 
continuing to meet those requirements and any offers of 
assistance or advice that we can offer, I would certainly make 
those available.
    Senator Shaheen. Thank you very much.
    Mr. Pekala, in your testimony, you talked about the effort 
to reach out to the minority communities in Latvia.
    What kind of things do you have in mind as you're talking 
about outreach? What could you do as the U.S. Ambassador, to 
help with that effort?
    Mr. Pekala. Madam Chairwoman, thank you for the question.
    I think we can operate on two levels in Latvia. And if I am 
confirmed, I would try to operate on both.
    On the overall approach to tolerance and understanding and 
dialogue, we, the United States, represent the world's best 
example of how multicultural societies can work in terms of 
diversity, inclusion, understanding, study, and conferences, 
and education, and teaching teachers, and so on.
    And we can present the example of how this works in 
practice. And Latvians understand that. And of course, they 
look to us for some examples.
    Under that level, on the ground, the Embassy now in Riga is 
very active on bringing people together and helping them 
achieve this kind of dialogue and understanding. So when they 
have events, they don't include any particular ethnic group and 
exclude others; they bring everyone together. And sometimes 
they find people haven't met their colleagues who speak a 
different language. And they can provide the lubrication and 
the mechanism for people to make these connections.
    As we all know, there are few things more powerful than 
just people-to-people connections. Our Embassy in Riga is doing 
a great job on those. If confirmed, I would like to continue 
and accentuate and reinforce those.
    And we have a simple goal of getting people together, help 
them understand each other, help them tolerate and move 
together on what will be, eventually, a fully integrated 
multicultural society.
    Senator Shaheen. Well, as you point out in your testimony, 
again, one of those groups are ethnic Russians. And obviously, 
given the history, the relationship with Russia has been 
challenging.
    There are some Latvians who suggest that NATO isn't 
prepared to deal with Russia, should conditions between Russia 
and its Baltic neighbors deteriorate. Do you share those 
concerns? And can you talk about why Latvians might be feeling 
that way right now, beyond just the historical context?
    Mr. Pekala. Madam Chairwoman, I don't share that view. I
believe that most Latvians, certainly officials and most of the 
population, feel that their strategic context, their historic 
and geographical connections with Russia, shifted in 2004, when 
Latvia joint NATO.
    They feel very confident about the article 5 guarantees of 
their security in NATO.
    I was serving in Estonia on March 29, 2004, when the Baltic 
States join NATO. And in Estonia, Latvia, Lithuania, this was a 
historic moment, a really joyous day when they found that their 
security concerns were shared now in an alliance that was not 
only throughout Europe but across the Atlantic as well. They 
take great comfort and pride in being associated with the 
United States and NATO.
    They can be very confident of this article 5 commitment. I 
think most of them are confident. And we take every opportunity 
to demonstrate that. I won't go on and on about Baltic air 
policing, but they feel, again, that this is a very real 
commitment to their security, a very real undertaking by the 
allies, and particularly the United States.
    I think they feel pretty comfortable about the security in 
the context of NATO and beyond.
    Senator Shaheen. Great, and thank you very much for that
answer.
    And I'm very impressed that your daughters are still awake. 
So, good job, girls. [Laughter.]
    Mr. Pekala. Thank you.
    Senator Shaheen. Thank you all very much. I have no further 
questions.
    We will keep the record open for 24 hours in case there are 
questions submitted.
    And I wish you all great luck in your new roles. And if 
this committee can be helpful to you in any way, please let us 
know.
    The hearing is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Richard B. Norland to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Little progress has been made in bringing Russia back in 
line with its international commitments to withdraw from the breakaway 
regions of Georgia, and confidence-building measures across the 
administrative boundary line have met with limited success and 
enthusiasm. If you are confirmed as Ambassador, what priorities will 
you pursue with respect to the breakaway territories of Georgia, in 
terms of advocating U.S. policies and bringing greater transparency to 
the situation?

    Answer. If confirmed, my priorities on this issue will be to 
continue to voice U.S. objection to Russia's occupation and 
militarization of the separatist Georgian regions of Abkhazia and South 
Ossetia and to insist that Russia fulfill its obligations under the 
2008 cease-fire agreement, including withdrawal of its forces to 
preconflict positions and free access for humanitarian assistance. I 
will also support diplomatic efforts by the United States, as an active 
participant in the Geneva discussions, to work with the cochairs and 
others in pursuit of a resolution to the conflict. In addition, if 
confirmed, I will continue to speak out in support of Georgia's 
territorial integrity, as the United States did recently in statements 
regarding the March 10 illegitimate ``elections'' in the separatist 
region of Abkhazia. We will also continue to support strongly Georgia's 
efforts to prevent any further recognitions of the occupied 
territories.
    The United States is supportive of efforts by all stakeholders to 
reach a peaceful resolution to the conflict, pursue confidence-building 
measures, increase transparency, promote security and stability, and 
address humanitarian issues through projects that directly improve the 
lives of the communities on the ground. I will support U.S. efforts to 
continue to press for full access to the separatist regions by the 
European Union Monitoring Mission (EUMM) and international 
organizations like the OSCE to increase transparency and address 
ongoing humanitarian and human rights concerns there.

    Question. Georgia will hold important elections for Parliament and 
President over the next year. Where do you see Georgia in terms of 
ensuring a free and fair playing field for these upcoming elections?

    Answer. The upcoming elections represent an important opportunity 
for Georgia to advance its democratic development through its first 
formal transfer of power via elections. Georgia has made important 
progress on democratic reforms since the Rose Revolution. However, the 
United States is concerned about reports of harassment of opposition 
party members. The United States is committed to supporting free and 
fair parliamentary and Presidential electoral processes in Georgia. The 
administration's focus is on contributing to efforts to strengthen 
processes and institutions, not to support individual candidates, 
specific political parties, or a particular outcome. The United States 
will continue to encourage the Government of Georgia to foster a 
competitive and pluralistic campaign environment leading to elections 
that allow the Georgian people to decide on the leadership that is best 
for them. Ensuring free and fair elections is also vital to Georgia 
achieving the standards necessary to facilitate its Euro-Atlantic 
integration.

    Question. During President Saakashvili's visit to the United 
States, reports suggested that the administration would be conducting 
an ``elevation'' of security cooperation with Georgia that would focus 
on territorial self-defense. What tangible changes will this new 
emphasis entail?

    Answer. President Saakashvili and President Obama discussed 
building upon existing successful programs to help the Georgian 
military continue its institutional reform and defense transformation 
efforts that support Georgia's self-defense, sustain its work with ISAF 
in Afghanistan, and help it operate more effectively with NATO. The 
Department of Defense and Georgian Ministry of Defense are discussing 
specific steps that will help Georgia achieve its goals. The 
administration will also work with the Georgian Government under our 
existing Charter on Strategic Partnership and Bilateral Defense 
Consultations forums to discuss and further develop these concepts, 
subject to fiscal constraints on both sides.

    Question. What is the timeline for negotiation of a free trade 
agreement with Georgia?

    Answer. President Obama and President Saakashvili agreed to 
increase trade and economic cooperation during President Saakashvili's 
visit to Washington earlier this year and agreed to launch a high-level 
dialogue to consider how to accomplish this through enhanced trade and 
investment frameworks, investment agreements, and the possibility of a 
free trade agreement. Initial USTR-led discussions will commence in the 
near future, as well as parallel discussions within the U.S.-Georgia 
Strategic Partnership Commission's economic working group as early as 
this spring.

    Question. Some reports have suggested that opposition supporters in 
Georgia have been detained. Are these reports correct and what steps 
are being undertaken to address this matter?

    Answer. We are not aware of any opposition supporters being 
detained, although there have been some credible reports of their 
harassment. In addition, there are indications that Georgia's new 
campaign finance law is being implemented in a manner which is curbing 
political speech.
    The United States has urged and will continue to urge the 
Government of Georgia to foster a campaign environment that is free and 
fair and perceived as such by the Georgian people. The Embassy has 
worked closely with all interested parties, both inside and outside the 
government, and including the opposition, in an effort to achieve a 
competitive campaign environment. Our focus is on the process and 
ensuring that all qualified candidates and political parties are able 
to compete on equal terms; the administration does not support any 
particular party or candidate.

    Question. Solomon Kimeridze, an opposition supporter, reportedly 
died while in custody. Is this report accurate and what is your 
understanding of the circumstances of his death?

    Answer. Official reports indicate that Solomon Kimeridze died while 
in custody of police in the town of Khashuri. As a result of the 
investigation by the Georgian Government, I understand new rules 
regarding law enforcement monitoring were implemented and the Khashuri 
Chief of Police was relieved of his duties due to ``failure to 
institute safety norms'' which led to injuries reportedly sustained 
from a fall from the third floor to the first floor of the police 
building. Embassy Tbilisi personnel met with Ministry of Justice and 
Ministry of Internal Affairs officials following the incident to 
discuss the ongoing investigation by the Chief Prosecutor's office and 
reiterated the importance of an independent and transparent 
investigation. The United States has raised rule-of-law concerns with 
the Georgian Government and spoken out repeatedly on rule of law and 
human rights issues, including concerns about ensuring the judiciary's 
independence and even-handed and consistent application of due process 
protections.

 
     NOMINATIONS OF SCOTT DeLISI, MICHAEL RAYNOR, AND MAKILA JAMES

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Scott DeLisi, of Minnesota, to be Ambassador to the 
        Republic of Uganda
Michael Raynor, of Maryland, to be Ambassador to the Republic 
        of Benin
Makila James, of the District of Columbia, to be Ambassador to 
        the Kingdom of Swaziland
                              ----------                              

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons, Udall, and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to chair this hearing of the 
Senate Foreign Relations Subcommittee for Africa, considering 
nominees to serve as Ambassador to the Republic of Uganda, the 
Republic of Benin, and Kingdom of Swaziland.
    As always, I welcome my good friend and ranking member, 
Senator Isakson, hopefully as well as some other members of the 
Foreign Relations Committee who may join us.
    I would like to welcome today our distinguished nominees, 
Ambassador Scott DeLisi, the nominee for Uganda; Makila James, 
the nominee for Swaziland; and Michael Raynor, the nominee for 
Benin. I apologize that ongoing votes and deliberations of the 
floor have delayed our start by a few moments. I am grateful 
for your patience.
    These three nominees bring to the table today a vast array 
of professional experience, and I look forward to hearing your 
vision for advancing United States interests, values, and 
policy concerns in Africa. We will speak about three important 
countries in three very different regions of Africa.
    Uganda, a country I visited 25 years ago, but have not had 
the joy yet of returning to. It is a valued strategic partner 
of the United States. Uganda is playing a critical role in 
regional efforts targeting Joseph Kony and the Lord's 
Resistance Army in close coordination with recently deployed 
U.S. military advisers in Central Africa. Uganda is also a 
leading contributor to the AMISOM peacekeeping mission in 
Somalia and has shown a longstanding commitment to countering 
al-Shabaab and other destabilizing forces in the Horn.
    The U.S. Ambassador to Uganda will have the challenging job 
of continuing that strategic partnership, while urging Uganda 
to also improve systems of governance and adopt democratic 
reforms. President Museveni has ruled for 26 years, and 
government security forces have at times taken a heavy-handed 
approach toward political opponents. Also, in my view, a deeply 
troubling bill imposing harsh criminal penalties for 
homosexuality that is currently making its way to the Ugandan 
Parliament, and has been a source of some tension between our 
governments.
    Last, new discoveries of oil promise to bring new revenue 
and economic opportunities to Uganda, but also increase the 
importance and urgency of insuring transparency and combating 
corruption.
    Swaziland, a tiny country on the border of South Africa, 
has a long record of stability, and is a top exporter of 
textiles to the United States under AGOA. Its constitutional 
monarchy has created tension between the dominant royal family 
and pro-democracy opposition groups who want the right to form 
political parties and participate more directly in governance.
    Swaziland has the highest HIV/AIDS infection rate in the 
world with more than a quarter of adults suffering from this 
infection. Challenges for the new Ambassador will include 
working with the government to encourage political freedom and 
democratic reform while continuing our effective health sector 
funding and partnership.
    Last, Benin, a country that Senator Isakson and I had an 
opportunity to visit together last year, has made important 
progress on governance, and has had two decades of peaceful and 
democratic transitions. With vital assistance from the 
Millennium Challenge Corporation, Benin has upgraded and 
rehabilitated its port, and it remains an important producer of 
cotton.
    I would be remiss if I failed to mention the important 
trade between the Port of Wilmington in my home State and the 
Port of Cotonou, making Benin one of the biggest international 
trading partners for the State of Delaware.
    Benin has the potential to be an even more diversified and 
important trading partner with the United States, and I hope 
the new Ambassador will work with President Yayi and his 
government to increase transparency, combat corruption, and 
improve the ease of doing business.
    All three nominees before us have had long, distinguished 
careers with the State Department and bring a wealth of 
experience to these positions. Ambassador DeLisi has 30 years 
of Foreign Service experience, is currently the Ambassador to 
Nepal, previously served as Ambassador to Eritrea, and deputy 
chief of mission to Botswana.
    Ms. Mikala James is also a Senior Foreign Service officer 
currently serving as Office Director for Caribbean Affairs, 
having previously served as Deputy Director in the Office of 
Southern African Affairs, and as the principal officer at the 
consulate general in Juba.
    Last, Mr. Michael Raynor is currently serving as the 
Executive Director of the Bureau of African Affairs, where he 
oversees support of U.S. policy goals for the Bureau and its 53 
overseas embassies, consulates, and offices. He has served 
primarily in Africa, including Zimbabwe, Namibia, Guinea, 
Djibouti, and Congo Brazzaville.
    I look forward to hearing from them after first turning to 
Senator Isakson for some opening remarks.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman. I would ask 
unanimous consent that a prepared statement be put in the 
record.
    Senator Coons. Without objection.
    Senator Isakson. And I want to welcome all of you today to 
this hearing and do what I always do when people accept posts 
that are not necessarily considered the political plums of 
assignments around the world. And your sacrifice for your 
country is noted and appreciated. And we appreciate your 
willingness to serve very, very much.
    I have had the occasion to have quite a relationship with 
the nation of Benin, which Mr. Raynor and I have discussed. The 
Ambassador preceding you, Mr. Knight, has done a phenomenal 
job, and I enjoyed visiting with him, along with Senator Coons.
    President Yayi has done a remarkable job in terms of 
reform, and I have to congratulate and commend Minister of 
Justice Ms. Bedo, who is undertaking the prosecution or the 
hopeful prosecution of the perpetrators of the murder of the 
young Georgian by the name of Kate Puzey, who served in the 
Peace Corps and was brutally murdered in Benin for doing the 
right thing, I might add.
    But I really appreciate the State Department's cooperation 
on this. Aaron Williams has been fantastic. Knight has been 
fantastic. And I am sure that will continue with Michael 
Raynor, and it is my hope that justice will ultimately be done.
    I also congratulate Benin on just entering into their 
second Millennium Challenge contract with further expansion to 
Port Cotonou. That shows that they are working on corruption 
issues and other issues that MCC requires for improvement. And 
like Senator Coons, acknowledge they will continue to be a 
growing trading partner with the United States of America.
    I have never had the privilege of going to Swaziland, but I 
have read the briefs, and I know it has got a number of 
challenges. I know its location is close to South Africa, and a 
part of the world I want to get to one day so I can add it to 
the list of African countries I visited. And I will be 
interested in seeing Ms. James' comment on what alarmed me, 
which was the high rate of AIDS infection in Swaziland, which 
was 25.9 percent of something we are obviously, because of 
PEPFAR and the initiative of President Bush and President 
Obama, interested in trying to make a contribution.
    Mr. DeLisi, it is a pleasure to see you again. I honor you 
for accepting this appointment to Uganda. I look forward to 
going to Uganda in the not too distant future. As you note in 
your prepared testimony, we have introduced advisors, military 
advisors, to help the Ugandan Government and the Democratic 
Republic of the Congo in terms of the issues with Joseph Kony 
and the Lord's Resistance Army. But that is--you are right in 
the garden spot of the Great Lakes Region of all of Africa. The 
friendship the United States has with Uganda has grown since 
the 1986 election, and we appreciate the improvements in 
democracy that have been made there. I look forward to hearing 
your comments, not only about our relationship, but also about 
any comments you have on Joseph Kony and the advisors we have 
deployed in that country.
    So, on behalf of the people of Georgia that I represent, 
thank you for your willingness to serve the country, and I look 
forward to your testimony.
    [The prepared statement of Senator Isakson follows:]

  Prepared Statement of Hon. Johnny Isakson, U.S. Senator From Georgia

    Thank you, Chairman Coons. I am pleased to join you in welcoming 
Ambassador Scott DeLisi, Mr. Michael Raynor, and Ms. Makila James to 
the committee. I appreciate this opportunity to discuss your 
nominations and discuss our bilateral relationships with Benin, 
Swaziland, and Uganda. All three countries present many opportunities 
and challenges.
    Last June, Chairman Coons and I had the opportunity to visit Benin 
to engage Benin's Government on the ongoing investigation into the 
murder of a young Georgian named Kate Puzey who was killed while 
serving as a Peace Corps Volunteer in northern Benin. Finding justice 
for Kate and her family has been a priority of mine and I am thankful 
for the U.S. mission to Benin and the Government of Benin for their 
cooperative efforts and continued dedication to pursuing justice. The 
current U.S. Ambassador to Benin, James Knight, has been a great 
advocate for the United States, particularly for the Puzey family, and 
I have greatly appreciated his efforts during his term.
    President Yayi's continuing reform efforts in Benin are helping to 
develop its economy and his collaborative efforts with fellow ECOWAS 
leaders have seen Benin emerge as a leader on the issues important to 
West Africa. In December 2011, Benin was declared eligible for a second 
compact with the Millennium Challenge Corporation. This compact would 
allow Benin to continue the development of the Port of Cotonou which is 
crucial to economic growth for Benin.
    While I have not had the chance to visit Swaziland or Uganda, I am 
well aware of some of the challenges facing the nominees if they are 
confirmed. Swaziland, with the world's highest HIV infection rate, has 
been the recipient of much U.S. assistance to turn the tide of the 
growth of that rate. As we consider U.S. commitments to global health, 
it is important to understand the strategy for implementation of U.S. 
global health programs in countries such as Swaziland. Swaziland has 
made great strides in increasing its ownership over U.S.-funded HIV/
AIDS treatment programs, and the next Ambassador will be charged with 
encouraging the continuation of this positive trend.
    President Museveni has been in power in Uganda since 1986 and has 
helped to bring stability and democracy to a country that had 
experienced years of civil war. However, concerns have been recently 
been growing about a deterioration in democratic rights and President 
Museveni's increasingly entrenched hold on the Presidency.
    Located in the troubled Great Lakes Region, Uganda is crucial to 
regional security cooperation. There are currently 100 combat-equipped 
U.S. military advisors providing training to the Ugandan military in 
their quest to track down and capture Joseph Kony and the Lord's 
Resistance Army. I look forward to hearing Ambassador DeLisi's thoughts 
on how he plans to continue to engage the Government of Uganda on our 
shared interest of regional stability and security.
    Thank you again, Mr. Chairman, for calling this important hearing. 
I look forward to hearing the testimonies of the nominees.

    Senator Coons. Thank you, Senator.
    I now look forward to hearing from our nominees, starting 
with Ambassador DeLisi, followed by Ms. James, and finally Mr. 
Raynor.
    Please start, if you would, by introducing your families or 
anyone else you would like to recognize that is here in support 
of you. And I would like to also start by thanking both you and 
your families and circle of friends and supporters for 
sustaining your long careers in service to the United States.
    Ambassador.

         STATEMENT OF HON. SCOTT DELISI, OF MINNESOTA,
           TO BE AMBASSADOR TO THE REPUBLIC OF UGANDA

    Ambassador DeLisi. Thank you, Senator, and I am honored to 
introduce my wife, Leah, who has been a partner in diplomatic 
service to our Nation for decades, and probably a better 
diplomat than I am.
    With that, Mr. Chairman, members of the committee, I am 
deeply honored to appear before you today as the nominee to be 
the next United States Ambassador to the Republic of Uganda. I 
am grateful to the President and the Secretary of State for 
their confidence and their support.
    Uganda is a vital partner in a volatile region. As the 
major troop contributor to the African Union mission in 
Somalia, AMISOM, Uganda has made tremendous sacrifices to 
promote peace and stability in the Horn of Africa.
    The Ugandan military has also led regional efforts to 
counter the Lord's Resistance Army. Although the LRA has not 
been active in Uganda since 2006, it continues to cast a wide 
shadow across Central Africa. The United States has supported 
Uganda's constructive role both in AMISOM and against the LRA. 
Most recently, we deployed a small number of U.S. military 
personnel to serve as advisors to Uganda's counter LRA forces 
and those of other regional partners.
    Uganda has also contributed to the peace and development in 
South Sudan, Africa's newest nation and Uganda's neighbor to 
the north, by providing training and assistance to its civil 
service, judiciary, and military.
    Uganda stands out not only for its current contributions to 
regional peace and security, but also for its own transition 
from a state in chaos to one of the region's most stable 
nations. When President Yoweri Museveni came to power in 1986, 
after decades of violent internal strife in Uganda, he 
instituted political reforms and sound macroeconomic policies 
that created a more inclusive government and contributed to 
steady economic growth.
    Against this backdrop, the United States has enjoyed a 
close bilateral partnership with Uganda for the past quarter 
century. We recognize, however, that we must continue to work 
with Uganda to address a number of ongoing challenges in terms 
of broad economic development and the nurturing of a democratic 
political culture.
    On the development front, we have a robust set of programs. 
The President's Feed the Future initiative focuses on improving 
productivity and incomes in the agriculture sector on which 70 
percent of Uganda's citizens rely for their livelihoods.
    Another area of focus has been Northern Uganda where we 
provided $102 million last year to help the region's people, 
including many former LRA abductees, rebuild their lives and 
communities.
    The health sector is another challenge. Although HIV/AIDS 
prevalence rates have decreased from a high of 20 percent in 
the 1990s, they have stagnated at around 6 percent for the past 
decade. Malaria is another lethal threat in Uganda, causing an 
estimated 100,000 deaths per year.
    There are also very significant challenges in the area of 
maternal and child health. Through the Global Health 
Initiative, the President's emergency plan for AIDS relief, the 
President's malaria initiative, we are working the Ugandan 
Government to improve the quality and accessibility of health 
services and to address Uganda's most pressing health concerns.
    We recognize, however, that long-term success will require 
a significant and sustained commitment from the Ugandan 
Government. If confirmed, I will continue to reinforce this 
point and seek to build an even more effective partnership with 
the Ugandan Government, civil society, and faith-based groups 
in the areas of economic development and health.
    We are also working to help Uganda strengthen its 
multiparty democracy and reinforce its respect for human 
rights. Although Uganda's electoral process last year was more 
transparent and peaceful than previous elections, it was 
carried out on an uneven playing field and fraught with 
irregularities. More can be done to improve and empower 
Uganda's governing institutions, and we will continue our 
efforts in that regard. Likewise, we continue to urge the 
Ugandan Government and civil society to respect not just 
political freedoms, but also the fundamental human rights of 
all individuals.
    Finally, Mr. Chairman, if confirmed, the protection of U.S. 
citizens and U.S. business interests in Uganda will be one of 
my foremost concerns for my team and for me.
    In sum, Mr. Chairman, if confirmed, I will seek to 
strengthen our partnership with Uganda as a force for regional 
peace and security. I will also work with the government and 
people of Uganda in pursuit of a healthier, more productive, 
and more prosperous society where protection of citizens' 
political and personal freedoms is a priority for all. 
Achieving these objectives will be critical to Uganda's future 
stability and economic growth, as well as its continued role as 
an important and constructive regional leader.
    I look forward to the opportunity to serve our Nation and 
Uganda if confirmed, and welcome any questions that the 
committee may have.
    Thank you.
    [The prepared statement of Ambassador DeLisi follows:]

             Prepared Statement of Ambassador Scott DeLisi

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the nominee to be the next United States 
Ambassador to the Republic of Uganda. I am grateful to the President 
and Secretary of State for their confidence and support.
    Uganda is a vital U.S. partner in a volatile region. As the major 
troop contributor to the African Union Mission in Somalia (AMISOM), 
Uganda has made tremendous sacrifices to promote peace and stability in 
the Horn of Africa. The Ugandan military has also led regional efforts 
to counter the Lord's Resistance Army (LRA). Although the LRA has not 
been active in Uganda since 2006, it continues to cast a wide shadow 
across central Africa.
    The United States has supported Uganda's constructive role both in 
AMISOM and against the LRA. Most recently, we deployed a small number 
of U.S. military personnel to serve as advisors to Uganda's counter-LRA 
forces and those of other regional partners. Uganda has also 
contributed to peace and development in South Sudan, Africa's newest 
nation and Uganda's neighbor to the north, by providing training and 
assistance to its civil service, judiciary, and military.
    Uganda stands out not only for its current contributions to 
regional peace and security but also for its own transition from a 
state in chaos to one of the region's most stable nations. When 
President Yoweri Museveni came to power in 1986 after decades of 
violent internal strife in Uganda, he instituted political reforms and 
sound macroeconomic policies that created a more inclusive government 
and contributed to steady economic growth. Against this backdrop, the 
United States has enjoyed a close bilateral partnership with Uganda for 
the past quarter century.
    We recognize, however, that we must continue to work with Uganda to 
address a number of ongoing challenges in terms of broad economic 
development and the nurturing of a democratic political culture.
    On the development front, we have a robust set of programs. The 
President's Feed the Future Initiative focuses on improving 
productivity and incomes in the agriculture sector, on which 70 percent 
of Uganda's citizens rely for their livelihoods. Another area of focus 
has been northern Uganda, where we provided $102 million last year to 
help the region's people, including many former LRA abductees, rebuild 
their lives and communities.
    The health sector is another challenge. Although HIV/AIDS 
prevalence rates have decreased from a high of 20 percent in the 1990s, 
they have stagnated at around 6 percent for the past decade. Malaria is 
another lethal threat in Uganda, causing an estimated 100,000 deaths 
per year. There are also very significant challenges in the area of 
maternal and child health. Through the Global Health Initiative, the 
President's Emergency Plan for AIDS Relief, and the President's Malaria 
Initiative, we are working with the Ugandan Government to improve the 
quality and accessibility of health services and to address Uganda's 
most pressing health concerns.
    We recognize, however, that long-term success will require a 
significant and sustained commitment from the Ugandan Government. If 
confirmed, I will continue to reinforce this point and seek to build 
even more effective partnerships with the Ugandan Government, civil 
society, and faith-based groups in the areas of economic development 
and health.
    We are also working to help Uganda strengthen its multiparty 
democracy and reinforce its respect for human rights. Although Uganda's 
electoral process last year was more transparent and peaceful than 
previous elections, it was carried out on an uneven playing field and 
fraught with irregularities. More can be done to improve and empower 
Uganda's governing institutions, and we will continue our efforts in 
that regard. Likewise, we continue to urge the Ugandan Government and 
civil society to respect not just political freedoms but also the 
fundamental human rights of all individuals.
    Finally, Mr. Chairman, if confirmed, the protection of U.S. 
citizens and U.S. business interests in Uganda will be one of the 
foremost concerns for my team and for me.
    In sum, Mr. Chairman, if confirmed, I will seek to strengthen our 
partnership with Uganda as a force for regional peace and security. I 
will also work with the government and people of Uganda in pursuit of a 
healthier, more productive, and more prosperous society where 
protection of citizens' political and personal freedoms is a priority 
for all. Achieving these objectives will be critical to Uganda's future 
stability and economic growth, as well as its continued role as an 
important and constructive regional leader.
    I look forward to the opportunity to serve our nation in Uganda if 
confirmed, and I welcome any questions the committee may have.

    Senator Coons. Thank you, Ambassador DeLisi.
    Ms. James.

 STATEMENT OF MAKILA JAMES, OF THE DISTRICT OF COLUMBIA, TO BE 
             AMBASSADOR TO THE KINGDOM OF SWAZILAND

    Ms. James. Mr. Chairman and members of the committee, it is 
a great privilege and honor to appear before you today as 
President Obama's nominee to be the Ambassador to the Kingdom 
of Swaziland.
    I am extremely pleased to have my family here with me--my 
husband, Louis Welles; my son, Mandela; and several close 
friends. They have always provided me with unwavering love and 
support throughout my Foreign Service career, and I am most 
grateful to them.
    Mr. Chairman, if confirmed, I look forward to working with 
you and the honorable members of this committee to advance U.S. 
interests in Swaziland. I am confident that based on my 24 
years in the Foreign Service, I am prepared for the challenges 
of leading our efforts to strive for an HIV-free generation, 
promote democracy and good governance, support respect for 
human rights and the rule of law, and foster sustainable 
development in Swaziland.
    Swaziland is an extraordinary country and a valued partner 
to the United States. As one of the few resident diplomatic 
missions in the Kingdom, we have a unique opportunity to engage 
directly and to influence the government on issues of shared 
strategic interest. We must take advantage of the opportunity 
to do so as Swaziland faces an uncertain future.
    After decades of absolute monarchy, the government's 
initial efforts to expand political freedoms have slowed. Swazi 
citizens have limited ability to engage meaningfully in 
politics, and basic rights, such as freedom of assembly, 
speech, and press are restricted. A deeply traditional society 
that prides itself on stability, the Kingdom is beset by modern 
problems: fiscal shortfalls, a devastating HIV/AIDS rate, and 
the need for political change toward a more inclusive 
democratic system. Despite these serious challenges, I am 
confident that progress remains possible, and that we must work 
diligently to pursue our goals in Swaziland.
    If confirmed, I will serve during a crucial moment in Swazi 
history. Under my guidance, the U.S. Embassy would continue to 
advance democracy in Swaziland by encouraging support for key 
government institutions, including Parliament and the 
judiciary. We will support civil society, labor unions, the 
media, and other institutions that hold the government 
accountable, in particular in the run up to the 2013 
parliamentary elections, a possible turning point in 
Swaziland's future.
    I would also work closely with the Government of the 
Kingdom of Swaziland and civil society to enhance the status of 
women and children--a critical area of engagement to help 
address HIV/AIDS and uphold universal human rights. Like many 
Swazis, I, too, am convinced that there is no fundamental 
tradeoff between democracy and tradition, that Swazis can be 
both proud of their culture and proud of their freedom. Perhaps 
the greatest threat to Swaziland's future, however, lies in the 
health of its people. Swaziland has the most severe national 
HIV/AIDS and tuberculosis crisis in the world with a prevalence 
rate of 26 percent and a life expectancy of only 43 years.
    The United States is helping Swaziland fight the HIV/AIDS 
epidemic by providing resources under the President's Emergency 
Plan for AIDS Relief, PEPFAR. The PEPFAR budget for Swaziland 
has risen from roughly $9 million in 2007 to $33 million in 
2011.
    To stem the tide of HIV/AIDS and help improve aid 
effectiveness, the U.S. Government has signed a Partnership 
Framework Agreement with the Government of the Kingdom of 
Swaziland that has contributed significantly to Swaziland's 
prevention of mother-to-child transmission and HIV/AIDS 
treatment programs, amongst some of the most effective in all 
of Africa.
    The aim now is to strengthen public health and community 
systems to sustain the response to the HIV/AIDS epidemic beyond 
the PEPFAR program lifespan. If confirmed, I will work to 
increase Swazi Government accountability and capacity to combat 
HIV/AIDS while promoting Swazi-led efforts to create an HIV-
free generation.
    The Government of Swaziland is also challenged by a fiscal 
crisis that has hampered its ability to operate effectively. If 
confirmed, I will continue our work with the Swazi Government 
to promote economic reforms, provide technical assistance, and 
encourage fiscal transparency and accountability. In addition, 
I will promote labor reform and provide other guidance for 
Swaziland to remain eligible for African Growth and Opportunity 
Act benefits, and I will advocate for U.S. businesses who are 
seeking to enter the Swazi market.
    As a rotating chair of regional organizations, including 
the Southern African Development community and the African 
Union, Swaziland is important to United States interests as it 
wields significance influence despite its small size. It is 
critical to our regional strategic interests that we ensure 
that Swaziland remains stable.
    Fortunately, the United States-Swazi bilateral relationship 
is strong. There is no greater evidence of our friendship than 
the vibrant Peace Corps program through which 66 American 
volunteers are currently engaged in community health, HIV/AIDS 
prevention programs, and youth development. Encouraged by the 
mutual respect our two nations share, and energized by the 
challenges that lie ahead, I look forward to serving as 
Ambassador to Swaziland if confirmed.
    Mr. Chairman and members of the committee, I want to thank 
you for the opportunity to appear before you today, and I will 
be happy to answer any questions you have.
    [The prepared statement of Ms. James follows:]

                   Prepared Statement of Makila James

    Mr. Chairman and members of the committee, it is a great privilege 
and honor for me to appear before you today as President Obama's 
nominee to be Ambassador to the Kingdom of Swaziland. I am extremely 
pleased to have my family here with me--my husband, Louis Wells, and my 
son, Mandela. They have always provided me with their unwavering love 
and support throughout my Foreign Service career and I am most grateful 
to them.
    Mr. Chairman, if confirmed, I look forward to working with you and 
the honorable members of this committee to advance U.S. interests in 
Swaziland. I am confident that based on my 24 years in the Foreign 
Service I am prepared for the challenges of leading our efforts to 
strive for an HIV-free generation, promote democracy and good 
governance, support respect for human rights and the rule of law, and 
foster sustainable development in Swaziland. I have spent the vast 
majority of my Foreign Service career working in or on Africa. I have 
served as Principal Officer in Juba, Southern Sudan; Political Officer 
in Harare, Zimbabwe; and Political/Economic Officer in Kaduna, Nigeria; 
as well as Desk Officer for Sierra Leone and The Gambia; International 
Relations Officer for Africa in the United Nations Security Council; 
and a Member of the Secretary of State's Policy Planning Office 
responsible for Africa. I believe that my experiences in Zimbabwe, a 
country still in transition toward greater democratization, has 
especially prepared me to serve as the U.S. Ambassador to Swaziland as 
it confronts similar challenges in expanding democracy. My overall 
experiences in each of these assignments has prepared me to serve in a 
difficult environment and afforded me a broad knowledge of the region 
and people.
    In my current position as Director of Caribbean Affairs, I have led 
my staff in supporting U.S. policy in the 14 countries and several 
independent territories for which I am responsible, helping to 
strengthen democratic institutions, address major threats to citizen 
security, promote human rights, and encourage economic development. I 
have also served as Deputy Director and Acting Director of the Office 
of Southern African Affairs. These positions, as well as my service in 
Juba, have provided me with the important management skills which I 
would bring to an assignment as U.S. Ambassador to Swaziland.
    Swaziland is an extraordinary country and valued partner of the 
United States. As one of the few resident diplomatic missions in the 
Kingdom, we have a unique opportunity to directly engage and influence 
the government on issues of shared strategic interest. We must take 
advantage of this opportunity as Swaziland faces an uncertain future. 
After decades of absolute monarchy, the government's initial efforts to 
expand political freedoms have slowed. Swazi citizens have limited 
ability to engage meaningfully in politics, and basic rights such as 
the freedom of assembly, speech, and press are restricted. A deeply 
traditional society that prides itself on stability, the Kingdom is 
beset by modern problems: fiscal shortfalls, a devastating HIV/AIDS 
epidemic, and the need for political change toward a more inclusive 
democratic system.
    Despite these serious challenges, I am confident that progress 
remains possible and that we must work diligently to pursue our goals 
in Swaziland. If confirmed, I will serve as Ambassador during a crucial 
moment in Swazi history. Under my guidance, the U.S. Embassy would 
continue to advance democracy in Swaziland by encouraging support for 
key government institutions, including Parliament and the judiciary, 
which engender and uphold democratic values. We would also support 
civil society, labor unions, the media, and other institutions that 
hold the government accountable, in particular in the runup to the 2013 
parliamentary elections, a possible turning point in Swaziland's 
future. I would also work closely with the Government of the Kingdom of 
Swaziland and civil society to enhance the status of women and girls--
critical areas of engagement to help address the HIV/AIDS epidemic, 
support poverty alleviation efforts, and uphold universal human rights. 
Like many Swazis, I, too, am convinced that there is no fundamental 
tradeoff between democracy and tradition, that Swazis can be both proud 
of their culture and proud of their freedom.
    Perhaps the greatest threat to Swaziland's future, however, lies in 
the health of its people. Swaziland has the most severe national HIV/
AIDS and tuberculosis crises in the world, with an HIV prevalence of 26 
percent and a life expectancy of only 43 years. The United States is 
helping Swaziland fight the HIV/AIDS epidemic by providing resources 
under the President's Emergency Plan for AIDS Relief, or PEPFAR. 
PEPFAR's budget for Swaziland has risen from roughly $9 million in 2007 
to $33 million in 2011. To stem the tide of HIV/AIDS and help improve 
aid effectiveness, the U.S. Government has signed a Partnership 
Framework Agreement with the Government of the Kingdom of Swaziland, 
the second-ever agreement of its kind. This Partnership has contributed 
significantly to Swaziland's prevention of mother-to-child transmission 
and HIV treatment programs, among the most effective in all of sub-
Saharan Africa. The aim now is to strengthen public health and 
community systems to sustain the response to the HIV/AIDS epidemic 
beyond the PEPFAR program's lifespan. If confirmed, I will work to 
increase Swazi Government accountability and capacity to combat HIV/
AIDS, while promoting Swazi-led efforts to create an HIV-free 
generation.
    Compounding the challenges of the HIV/AIDS epidemic, the Government 
of Swaziland is challenged by a fiscal crisis that has hampered the 
government's ability to operate effectively. If confirmed, I will 
continue our work with the Swazi Government to promote economic 
reforms, provide technical assistance, and encourage fiscal 
transparency and accountability. In addition, I will promote labor 
reforms and provide other guidance for Swaziland to remain eligible for 
African Growth and Opportunities Act (AGOA) benefits, and I will 
advocate for U.S. businesses seeking to enter the Swazi market. AGOA is 
a critically important program in Swaziland that is helping the country 
address its serious unemployment rate of 41 percent. Swaziland is a 
country that has successfully utilized AGOA and is one of the top 
African exporters of textile to the United States. AGOA employs 
approximately 15,000 Swazi workers in the textile sector, many of them 
women. I would encourage Swaziland to demonstrate the continued 
progress required for renewed AGOA eligibility to ensure its continued 
access to its trade preferences.
    As a rotating chair of regional organizations, including the 
Southern African Development Community (SADC), and the African Union, 
Swaziland is important to U.S. interests as it wields significant 
influence despite its small size. It is critical to our regional 
strategic interests that we ensure Swaziland is stable. Fortunately, 
the U.S.-Swaziland bilateral relationship is strong. There is no 
greater evidence of our friendship than the vibrant Peace Corps 
program, through which 66 American volunteers are currently engaged in 
community health/HIV prevention and youth development. As the impact of 
the Peace Corps Volunteers continues to gradually expand throughout 
2012, I would focus on working with the in-country Peace Corps staff to 
ensure the effectiveness of this important program--the face of America 
throughout much of rural Swaziland--as well as the safety and welfare 
of each of the volunteers. Encouraged by the mutual respect our two 
nations share and energized by the challenges that lie ahead, I look 
forward to serving as U.S. Ambassador to Swaziland, if confirmed.
    Mr. Chairman and nembers of the committee, I want to thank you for 
the opportunity to appear before you today. I will be happy to answer 
any questions you have.

    Senator Coons. Thank you, Ms. James.
    Mr. Raynor.

           STATEMENT OF MICHAEL RAYNOR, OF MARYLAND, 
           TO BE AMBASSADOR TO THE REPUBLIC OF BENIN

    Mr. Raynor. Thank you very much. Mr. Chairman and members 
of the committee, I am honored to appear before you today, and 
grateful to President Obama and Secretary Clinton for the 
confidence they have placed in me as their nominee for 
Ambassador to the Republic of Benin.
    I am happy to introduce my wife, Kate, my son, Bradley, and 
my daughter, Emma. They have all done America proud through 
many years overseas, and I could not be more grateful for their 
support.
    I have focused on Africa during 20 of my 24 years in the 
Foreign Service, including 14 years at our Embassies in Congo, 
Djibouti, Guinea, Namibia, and Zimbabwe, and 6 years in 
Washington, most recently as the Executive Director of the 
Bureau of African Affairs. From this experience. From the 
service I have gained rich experiences upon which I will draw 
to support U.S. interests if confirmed as the next U.S. 
Ambassador to the Republic of Benin.
    Mr. Chairman and Senator Isakson, I greatly respect the 
interest you have taken in Benin. Your visit last June 
highlighted important U.S. Government programs, as well as your 
strong interest in achieving justice for Kate Puzey, a 
wonderful Peace Corps Volunteer who was tragically murdered 
just over 3 years ago. The impressive luncheon you hosted last 
July for President Yayi and three other West African Presidents 
further reflected your significant engagement in the region.
    The United States and Benin have a strong relationship 
founded on common interests and objectives. Benin is a West 
African success story and a proponent of values we Americans 
hold dear. Since the early 1990s, Benin's embrace of democratic 
pluralism has resulted in multiple free and fair elections, 
including peaceful democratic transitions between political 
parties. And it continues to buttress its democratic 
institutions and procedures.
    If confirmed, I will promote U.S. engagement in support of 
good governance, accountability, and capacity-building within 
the government and civil society.
    Benin has a strong record on human rights. Religious 
tolerance and freedom of expression are hallmarks of Beninese 
society. Benin and the United States have collaborated to 
promote women's and children's rights and to counter violence 
against women. If confirmed, I will build upon efforts to 
protect Benin's most vulnerable populations. This commitment 
extends to investing in the health of the Beninese people to 
boost maternal and child health, keep Benin's HIV rate in 
check, and combat malaria and other diseases.
    Benin and the United States share an interest in countering 
terrorism and promoting regional stability. Benin's region 
presents significant terrorist and maritime security concerns. 
Benin participates actively in U.S. international military 
education and training programs, and has contributed to United 
Nations' peacekeeping efforts in Africa and Haiti. If 
confirmed, I will support Benin's capacity to promote regional 
and global security.
    Since embracing free market principles over 20 years ago, 
Benin has pursued economic reforms and diversification. Last 
October, Benin completed a $307 million Millennium Challenge 
Corporation Compact that improved Benin's port and increased 
its citizens' access to entrepreneurial credit, land title, and 
legal remedies. Due to this success, and in light of Benin's 
commitment to good governance an economic development, Benin 
was deemed eligible to develop a proposal for a second MCC 
compact. If confirmed, I will work closely with the Government 
of Benin toward a second compact, both to enhance Benin's 
economic vitality and to promote U.S. commercial opportunities 
in Benin.
    While Benin is indeed a success story, it faces challenges 
to sustaining and building upon its progress. Benin ranks low 
on many of development indicators, including measures of 
education, health, corruption, personal income, and business 
climate. The United States has a strong stake in helping Benin 
overcome these challenges, not only for the sake of the 
Beninese people, but because of the value that a democratic, 
responsible, and economically vibrant Benin brings to the 
United States efforts to promote these values more broadly.
    When he met with President Obama in Washington last July, 
President Yayi reiterated his commitment to building upon 
Benin's strengths, addressing its vulnerabilities, and 
expanding its positive role on the world stage. If confirmed, I 
will work hard to enhance the vital role of the United States 
in these efforts.
    Any discussion of United States interests in Benin must 
sadly include the terrible murder of Kate Puzey, a tragedy not 
only for her family and friends, but for all who stood to 
benefit from her positive influence on the world. Great good 
was brought from this tragedy through the enactment of the Kate 
Puzey Peace Corps Volunteer Protection Act last November, but 
legal justice is needed as well. The United States continues to 
assist Benin in investigating the crime. If confirmed, I will 
press efforts to achieve justice and resolution.
    Thank you, Mr. Chairman, and members of the committee, for 
the opportunity to address you today. If confirmed, I look 
forward to working with you and representing the interests of 
the American people in Benin. I am happy to answer any 
questions.
    [The prepared statement of Mr. Raynor follows:]

                  Prepared Statement of Michael Raynor

    Mr. Chairman and members of the committee, I am honored to appear 
before you today, and grateful to President Obama and Secretary Clinton 
for the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Benin.
    I am happy that my wife, Kate, my son, Bradley, and my daughter, 
Emma, are able to join me today. They have all done America proud 
through many years overseas, and I couldn't be more grateful for their 
support.
    I have focused on Africa during 20 of my 24 years in the Foreign 
Service, including 14 years at our Embassies in Congo, Djibouti, 
Guinea, Namibia, and Zimbabwe, and 6 years in Washington, most recently 
as the Executive Director of the Bureau of African Affairs. From this 
service I have gained rich experience upon which I will draw to support 
U.S. interests, if confirmed as the next U.S. Ambassador to the 
Republic of Benin.
    Mr. Chairman and Senator Isakson, I greatly respect the interest 
you have taken in Benin. Your visit last June highlighted important 
U.S. Government programs as well as your strong interest in achieving 
justice for Kate Puzey, a wonderful Peace Corps Volunteer who was 
tragically murdered just over 3 years ago. The impressive luncheon you 
hosted last July for President Yayi and three other West African 
Presidents further reflected your significant engagement in the region.
    The United States and Benin have a strong relationship founded on 
common interests and objectives. Benin is a West African success story 
and a proponent of values we Americans hold dear. Since the early 
1990s, Benin's embrace of democratic pluralism has resulted in multiple 
free and fair elections including peaceful democratic transitions 
between political parties, and it continues to buttress its democratic 
institutions and procedures. If confirmed, I will promote U.S. 
engagement in support of good governance, accountability, and capacity-
building within the government and civil society.
    Benin has a strong record on human rights. Religious tolerance and 
freedom of expression are hallmarks of Beninese society. Benin and the 
United States have collaborated to promote women's and children's 
rights and to counter violence against women. If confirmed, I will 
build upon efforts to protect Benin's most vulnerable populations. This 
commitment extends to investing in the health of the Beninese people to 
boost maternal and child health, keep Benin's HIV rate in check, and 
combat malaria and other diseases.
    Benin and the United States share an interest in countering 
terrorism and promoting regional stability. Benin's region presents 
significant terrorist and maritime security concerns. Benin 
participates actively in U.S. International Military Education and 
Training programs and has contributed to United Nations peacekeeping 
efforts in Africa and Haiti. If confirmed, I will support Benin's 
capacity to promote regional and global security.
    Since embracing free market principles over 20 years ago, Benin has 
pursued economic reforms and diversification. Last October, Benin 
completed a $307 million Millennium Challenge Corporation Compact that 
improved Benin's port and increased its citizens' access to 
entrepreneurial credit, land title, and legal remedies. Due to this 
success, and in light of Benin's commitment to good governance and 
economic development, Benin was deemed eligible to develop a proposal 
for a second MCC Compact. If confirmed, I will work closely with the 
Government of Benin toward a second compact, both to enhance Benin's 
economic vitality and to promote U.S. commercial opportunities in 
Benin.
    While Benin is indeed a success story, it faces challenges to 
sustaining and building upon its progress. Benin ranks low on many 
development indicators, including measures of education, health, 
corruption, personal income, and business climate. The United States 
has a strong stake in helping Benin overcome these challenges, not only 
for the sake of the Beninese people, but because of the value that a 
democratic, responsible, and economically vibrant Benin brings to U.S 
efforts to promote these values more broadly. When he met with 
President Obama in Washington last July, President Yayi reiterated his 
commitment to building upon Benin's strengths, addressing its 
vulnerabilities, and expanding its positive role on the world stage. If 
confirmed, I will work hard to enhance the vital role of the United 
States in this effort.
    Any discussion of U.S. interests in Benin must sadly include the 
terrible murder of Kate Puzey, a tragedy not only for her family and 
friends but for all who stood to benefit from her positive influence on 
the world. Great good was brought from this tragedy through the 
enactment of the Kate Puzey Peace Corps Volunteer Protection Act last 
November, but legal justice is needed as well. The United States 
continues to assist Benin in investigating the crime. If confirmed, I 
will press efforts to achieve justice and resolution.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Benin. I am happy to answer any questions.

    Senator Coons. Thank you to all three of our nominees 
today. I would like to open our first round of questions by 
just asking each of you in turn if you would, to broadly 
address what you see as the most critical policy objectives for 
the United States in your country of appointment, and, in 
particular, given our fairly difficult and limited budget 
environment in the coming decade, what you see as the means 
that you will use to focus our partnership, our assistance with 
these three countries to make sure that they are effective, and 
what you will be doing to promote trade and responsible 
economic development in partnership between the United States 
and your countries of appointment.
    Ambassador DeLisi.
    Ambassador DeLisi. Thank you for the question, Senator. It 
is wide ranging.
    Certainly in your introductory remarks, you touched on the 
key issues, I think, for us in Uganda. They certainly would be 
part of what I would address if confirmed. Strengthening and 
maintaining the strategic partnership that we have and the role 
that they have continued to play in support of bringing peace 
and stability to both the Horn of Africa and the Great Lakes 
Region is tremendously important. We appreciate the sacrifices 
that Uganda has made, especially in Somalia. We want to keep 
that relationship vibrant.
    But just because we have a strong security partnership does 
not mean that we cannot speak candidly and constructively to 
our partners about issues of concern, and that includes 
democracy and human rights. You have noted that there are 
challenges in that arena, and that is something that I think 
that we have to address.
    And on that front, it is not always about resources. We 
have some money that is in our democracy and governance 
programs that is intended to address those concerns, but it is 
about leadership, and it is about visibility. And I think one 
of the things that an ambassador has to do is be the 
spokesperson, to be seen as visibly and in a very clear way 
demonstrating that we care about these issues. And that is 
something that I have tried to do in Katmandu. It is something 
that I would try to do as well in Kampala if I am confirmed.
    Equally, as we seek to build strong partners in Africa, 
prosperous, stable societies, public health issues are 
critical. We have a robust budget there. We are not strained 
for resources. But I think it is imperative, given that it is a 
resource constrained world, that we look at the budget that we 
have and that we use it in the most effective way possible; 
that we review our programs, make sure they are directed toward 
the support of a comprehensive and strategic vision about what 
we are doing there.
    The other thing that I would hope to be able to do in terms 
of addressing our resources and the constraints is to leverage 
other people's money. I have found it can be an effective tool 
in Nepal and many of the efforts that we launched. We have 
provided leadership, but we have not been able to use the 
resources from partners in the private sector, other diplomatic 
partners, to support the issues of concern on which we have 
led, and I would hope we would be able to continue to do that.
    In terms of building the economic relations, the trade 
relationships, right now we have not a very robust trade 
partnership with Uganda. I would like to see that change, but I 
know that is not going to be easy. It is about building 
infrastructure. It is about addressing some of the fundamentals 
within the Ugandan economy that have to be looked at first 
before they can be the kind of partner that we might want. And 
that is what we are trying to do. We are trying to look at 
issues of corruption. We are looking at issues related to 
energy. We are looking at ways that we can strengthen the 
agricultural sector, which is the heart of the economy, and 
that is where we are directing our Feed the Future resources.
    We will continue to do all of that. And meanwhile, once I 
am on the ground, if confirmed, I will be looking to see what 
other opportunities there are for U.S. business, and we will 
pursue them as strongly as we can.
    Thank you, sir.
    Senator Coons. Thank you, Ambassador.
    Ms. James.
    Ms. James. Thank you, Mr. Chairman.
    As you know, Swaziland does have a very difficult and 
challenging political environment, and so democracy and 
governance are very high on the agenda for me, in particular. 
It has been a challenge because this is an absolute monarchy. 
Political parties are effectively banned, and basic rights have 
been severely restricted. Nevertheless, there are some signs of 
positive developments which I would want to take advantage of 
and really work very hard to engage on.
    Swaziland does have democratic institutions. The court 
system and Parliament are targets of opportunity that I think 
we would want to work very closely on. We try to build capacity 
there with the limited program funding that we do have.
    I also think it is important that we engage heavily with 
civil society and with the government to keep a regular 
dialogue open and to underscore that these are priority issues 
for the United States Government. As Ambassador, I would be 
very visible, very vigilant, in following up on these kinds of 
conversations with all parties in the country.
    We have very limited democracy and governance funds, and so 
it is going to require that we are smart, that we are 
efficient, and that we leverage all of our programs, because 
within a number of our programs, we have the opportunity to 
build good governance capacity.
    Within the PEPFAR program, which is very focused on the 
Health Ministry and the Finance Ministry, we have an 
opportunity to work to build up systems to help address 
accountability and transparency issues. Similarly, with the 
AGOA eligibility requirements, we have an opportunity to engage 
with the government on a regular basis to encourage 
anticorruption efforts and political pluralism. So, we have 
vehicles there that we will use, even though we do not have 
dedicated, significant democracy, and governance funds.
    With respect to promoting trade, I would note that 
Swaziland has actually benefited very much from the African 
Growth and Opportunity Act. They have exported extensively to 
the United States, and that is creating a more prosperous 
Swaziland. A key ingredient for American businessmen who want 
to operate in Swaziland is the need for a market. They need a 
purchasing market, and so to the extent that we are using AGOA 
to help build up Swaziland's own economy and its own income 
there, that is good for the U.S. economy as well.
    There is also a very enabling business environment in 
Swaziland despite the issues we talked about on the political 
front. There is a very good business climate there. Senator 
Isakson, as you may know, Coca-Cola has the largest plant on 
the continent in Swaziland. They have been there for many years 
successfully. They are a good corporation which exercises 
social responsibility. They are a role model. And I would want 
to engage with them to think about how we could bring in more 
businesses there.
    So, I think the enabling business environment and working 
with the government on labor issues, would support the kinds of 
conversations that I would want to have to encourage 
businessmen to look at Swaziland.
    Senator Coons. Thank you, Ms. James.
    Mr. Raynor, if you would.
    Mr. Raynor. Thank you, Mr. Chairman. First, on your 
question with regards to policy objectives, in a nutshell I 
would say that I would see, if confirmed, my objective in Benin 
to be essentially to solidify and build upon the gains that 
Benin has made, and then to look at the obstacles that it faces 
to further progress.
    As you noted, Mr. Chairman, Benin has established quite a 
strong track record in terms of democracy and good governance, 
as well as human rights. Indeed, it also has established a good 
record with regards to economic structural reforms and 
sustained rates of economic growth. As such, it already serves 
as something of a role model within West Africa and beyond of a 
stable, democratic society.
    I think one thing I would do if confirmed would be to 
stress in diplomacy and public diplomacy that these attributes 
are things that we, the United States, value very highly in 
Benin, and they essentially form the cornerstone of our very 
positive relations.
    And from that basis, I would then engage with the 
Government of Benin to look at the obstacles to further 
progress and what we may be able to do with regards to formal 
aid and otherwise to help the country overcome them. These 
obstacles include the need for further progress in areas of 
health and education. Also, the business climate. And I think 
we would need to look at what we are doing with our formal aid, 
and we would have to make sure that evolves in response to 
gains made, in response to the Beninese own assessment of their 
priorities, in response to what other actors in the donor 
community and the international community are engaging on so 
that there is complementarity and a sort of a multiplier effect 
to our engagement.
    Certainly growing Benin's economy, I think, is central to 
its interests in the future, and I would certainly look for 
ways to leverage and build upon the gains made through the MCC 
compact, which, as you noted, Senator Isakson, markedly 
improved the Port. It both expanded and renovated it. It also 
addressed some of the issues related to the business climate in 
the country with regards to access to credit, access to 
judicial process.
    So, I think those are gains that need to be solidified and 
built upon. The prospects of a second compact would also be a 
very encouraging prospect. And, more generally, I think we just 
need to look for ways to assist in Benin in diversifying its 
economy, both diversifying its agricultural sector and its 
broader economy.
    Senator Coons. Thank you, Mr. Raynor.
    Ambassador DeLisi, if I might, one last question this 
round, and then I will turn it over to Senator Isakson.
    Ambassador DeLisi, have we been doing enough as a nation to 
support the pursuit of Joseph Kony and to be actively engaged 
in the efforts to end the Lord's Resistance Army? What more 
could we be doing? How can we sustain this effort? And what has 
the United States been doing to help the communities in 
Northern Uganda recover from the impact of the Lord's 
Resistance Army?
    Ambassador DeLisi. Thank you very much for the question, 
Senator, and I would like to thank you and your colleague, 
Senator Isakson, and others who passed the resolution yesterday 
addressing this issue. The sort of leadership that we have seen 
on the Hill, and I do not say this just because I am here 
before you today, but this is important. It sends a powerful 
message to support what the administration is trying to do in 
pursuit of Joseph Kony and his lieutenants.
    And, yes, I think we are doing well. I am very pleased with 
what I have been able to learn in the few weeks that I have 
been reading. I think we have had a very active engagement and 
support of our African partners, because this is an African-
driven initiative, and I think that that is a good thing.
    But we have been active in support. We have provided over 
$50 million in assistance over the past 4 years as we have 
pursued this. We have now deployed, as you know, special 
operations forces to support, again, our African partners to 
give them both the intelligence and operational coordination 
that is necessary to make this more effective.
    We are looking to partner more effectively with the African 
Union, which is it sees now with this issue, and is launching 
their own initiative to press forward. And that is good. I 
think that will be especially important to us in terms of 
standing up the coordination center in South Sudan, giving us a 
standing headquarters that we can engage with, but also in 
encouraging the regional partners to work together as 
effectively as we need.
    We can always try to do more, but we know that this is a 
daunting task. Kony and his cadre are in an area the size of 
the State of California in some of the most inhospitable 
terrain, some of the most dense jungle, without roads, without 
easy access, not easy to track. This is a long-term effort. But 
we believe that the governments of the region and that the 
Government of Uganda in terms of its role is committed to 
staying the course. I hope that we will be as well.
    I know that there is pending legislation that was 
introduced in the House that would expand the Rewards for 
Justice Program. I think that that would be a tool that would 
be very useful for us if we could apply the Rewards for Justice 
Program to Mr. Kony and his top commanders, again another step 
in the right direction.
    We are looking as well to see what we can do in terms of 
assisting with one of the greatest challenges, and that is 
mobility, and that is something that we will be consulting 
with, and I will be talking to colleagues in the Africa command 
if I am confirmed, and we will look at these issues in 
coordination with colleagues in Washington.
    Finally, turning to Northern Uganda, we provided just last 
year alone, as I noted in my open remarks, $102 million. We 
have seen that close to 95 percent of the people who were 
displaced during the conflict, of those 2 million people, 95 
percent have now returned to their homes, to their communities, 
or are in transitional centers. We are starting to move from 
humanitarian assistance to more traditional development 
mechanisms. We are working with vocational training, creating 
jobs, revitalizing agriculture.
    And in that group that we are assisting are many former LRA 
abductees. There is over 12,000 who have come out in the past 
decade, little more than a decade. And many of them are being 
assisted by our programs in Northern Uganda. But we are doing 
that in partnership with the Government of Uganda, which has 
its own peace recovery and development program for the north, 
and they have been funding it, and they are continuing to do so 
as well.
    And that is the important part that this is in partnership 
with Africa and with African nations. I think we are making 
good progress. We will continue to do so, I hope.
    Senator Coons. Thank you, Ambassador DeLisi. We look 
forward to working with you and sustaining our effective 
engagement on this issue.
    Senator Isakson.
    Senator Isakson. Mr. Raynor, I want to sincerely thank you 
for your prepared statement and your commitment to the Puzey 
family. I want to make sure that statement gets in the hands of 
Kate's mom and dad. They will appreciate the fact that you are 
carrying on where Ambassador Knight began. Senator Coons and I 
are interested in following that and appreciate any 
communication along the way you can give to us as the process 
of that investigation and hopefully ultimately a trail. But I 
want to thank you for your acknowledgment of the gravity of 
that situation and your personal commitment to it.
    And I might also say, Ms. James, I want to thank you for 
mentioning Coca-Cola. Any time somebody mentions the biggest 
business for my home State, I am always grateful.
    Also, Senator Coons and I visited in Ghana a Coca-Cola 
water project. I do not know if you are aware of what Coca-Cola 
is doing in Africa, but they are investing millions of dollars 
in clean water projects where they put in purification systems, 
teach the people how to maintain the system, charge them 7 
cents a day for 5 gallons of water, which is the amount of 
money necessary to maintain and keep the plant in condition. 
And with clean water being the biggest issue, Africa really 
has, among many, many issues, I would encourage you to talk 
with Coca-Cola about that. But thank you for acknowledging 
them.
    And thank you for acknowledging the AIDS problem and the 
AIDS infection rate. And I would only--I read the governmental 
organization of the Kingdom of Swaziland, and it is a kingdom. 
It is not a democracy. I mean, any time the King can dissolve 
the Parliament, you got one person in charge. And I wish you a 
lot of luck with the democracy efforts that you make.
    But I would ask that you, for a second, comment on the 
fact. One thing Senator Coons and I are working on, every time 
we meet with African countries that are in the PEPFAR program, 
is to get the governments receiving--who are in PEPFAR to take 
over more of the human responsibility of testing and delivering 
the retrovirals. The more countries can help--and Tanzania, by 
the way, is doing a great job of that now. The more they can 
replace the manpower that we have been using through NGOs and 
through USAID and through CDC, the more we can put in 
retrovirals, but the less the total cost. So, I would 
appreciate your comment on that.
    Ms. James. Thank you, Senator Isakson.
    First of all, I want to thank you back for your kind words. 
I look forward to engaging with Coca-Cola. I understand they 
are a good corporate partner in the country, and I am very much 
interested to see what more we can do with that partnership.
    With respect to PEPFAR, PEPFAR is a very successful story 
in Swaziland. The program has been active for a while, and it 
is really a partnership with the government. Specifically, you 
mentioned antiretrovirals. I am really pleased to report that 
the Government of Swaziland has basically taken over the 
distribution of all the antiretrovirals. So, we are not in the 
business of doing that. We are in the business of capacity-
building, working with community organizations, getting more 
local engagement in solutions for the orphans and vulnerable 
children. The numbers there are just astronomical, about 10 
percent of the population.
    We are really working at the grassroots level and the 
capacity-building level, and the government has taken ownership 
of the ARV programs. At least since 2010, they have been solely 
in the business of distributing the ARVs. And from all 
accounts, it is going well. It is a multifaceted program.
    As I said, we also have Peace Corps engaged, and I think 
Peace Corps has been doing a great job for us in the rural 
areas, and they are working in partnership, one on one with 
local leaders in small community centers helping to build life 
skills and helping to deal with the needs of orphans and 
vulnerable children. And so, we really have a partnership out 
in the rural areas through Peace Corps as well as PEPFAR staff 
that is working in the major areas engaging with the Ministry 
of Health.
    So, I thank you, and I look forward to furthering that.
    Senator Isakson. Well, I thank you.
    Ambassador DeLisi, when you were referring to the north and 
humanitarian effort, I guess you were talking about Gulu or 
that region of Uganda, is that correct?
    One of the big NGOs in Africa is based out of Atlanta. That 
is CARE, and their presence, as I understand it, is pretty 
complete in Northern Uganda. And I am glad to hear we are going 
from humanitarian focus to vocational focus in trying to bring 
that area back, which was so devastated by Kony and his people.
    On Joseph Kony, I say the same thing to you I said to Mr. 
Raynor regarding his passion on the Puzey case. I think it is 
very important that America's diplomats and America's 
politicians speak forcefully when we see a human tragedy like 
what is going on at the hands of Kony. I traveled to Rwanda and 
saw firsthand how the world looked the other way. And they paid 
no attention to a genocide that was taking place in that 
country.
    And I think it is important that we as a country be a 
leader in focusing when we know there is an injustice. And I 
commend you on your passion for that. And when I go to Uganda 
later on, I intend to meet both with the military personnel as 
well as hopefully yourself or the person that you are 
succeeding, one way or another, to try and help in any way we 
can in the Congress of the United States to do that.
    And one other question on the South Sudan. I have traveled 
to Sudan and Darfur and South Sudan, or near South Sudan. We 
are grateful that the Comprehensive Peace Agreement was 
reached, but we are scared to death that the South Sudan and 
the North will get into a civil war like what happened in the 
past.
    You refer to Uganda's deployment or Uganda's assistance in 
South Sudan. Can you elaborate on what they are doing to help 
stabilize that area?
    Ambassador DeLisi. Senator, I have looked at this somewhat. 
I have not looked at it extensively. From what I have seen, 
though, I know that Uganda has been a longstanding friend of 
the people of the South to begin with, and has supported them 
through their struggles, and now supporting them into 
independence.
    The support at this point in time is largely on two fronts. 
One is to build an effective government, so they are working on 
establishing the government institutions, the military, the 
civil service, all of the things that a nation needs to begin 
to function effectively. And this is a challenge when you are 
starting from scratch in many ways.
    They are also involved very much in the economy of the 
region. I know that South Sudan is the major trading partner 
for Uganda, and there is a lot that goes on there. But the nuts 
and bolts I really cannot speak to at the moment. I would have 
to look at that a little bit closer. But this is one of the 
areas that I know is going to be extremely important as we move 
forward. And, like you, I think we all recognize that this is a 
volatile region. The potential for problems is always there, 
and it also means the potential for new refugee flows if 
problems erupt.
    So, it is in our interest and it is in Uganda's interest as 
well to try to forestall problems, to look at these things, to 
strengthen their regional partners. And that is one of the 
things that is so important to us and why our partnership with 
Uganda has really mattered. It is something that I will work to 
continue to build if confirmed and when I am in Uganda, and I 
know that we have to look across the region broadly, not just 
at Somalia, not just at Sudan, not just at Joseph Kony, but, 
again, many challenges throughout that part of Africa.
    And so far, Uganda has been a very good partner for us in 
addressing them, and I hope will be able to continue that.
    Senator Isakson. Well, I really appreciate your mentioning 
it in your remarks because you are being named Ambassador, and 
I hope confirmed Ambassador, to Uganda, in fact, South Sudan 
may be a major part of your role as you are in Uganda. That is 
a very nasty neighborhood, and to the east of South Sudan you 
have got Somalia. To the north you have got the North of Sudan, 
and you have got the rebels that are fighting, the Janjaweed, I 
think they call them, in the Darfur area. So, there is a lot of 
potential for an expansion of the bad things that have happened 
in West Sudan and in Somalia.
    And I think engagement by Uganda, which has been a forceful 
player in that portion of Africa, and our support for their 
engagement to help the South Sudan go from a fledgling 
democracy to a functioning democracy, will be critically 
important because if we fail to do that, we will be confronted 
with a civil war primarily over petroleum between the north and 
the south, and that would be a tragedy.
    Let me just conclude my remarks by thanking the spouses and 
the families of each one of these nominees because an 
ambassador's job is a team effort. Without your support, they 
could not do their job. Thank you for your support for these 
nominees.
    Senator Coons. I have one more round of questions. Thank 
you.
    If I might, just a few more questions for each of our 
nominees today because you each will be representing us, if 
confirmed, in countries I think with great and complex 
challenges.
    Mr. Raynor, if you might, piracy off the coast of Somalia 
has received a great deal of deserved attention for a number of 
years now. But piracy off of Benin and across the whole West 
African region is also a significant and growing challenge.
    What could we do to more effectively partner with Benin, 
with regional allies, in strengthening maritime security?
    Mr. Raynor. Thank you, Mr. Chairman.
    You are absolutely right. Piracy on the West Coast of 
Africa is certainly growing as a problem and a concern, and 
Benin has taken actually a leadership role in addressing that. 
I think it recognizes the potential impact of piracy on, for 
example, its port, which is a major economic driver in the 
country.
    Therefore, it has taken a lead role in trying to develop a 
national maritime strategy that the United States has been 
providing technical assistance toward. In addition, I think the 
United States can do more to help forge a common strategy 
between the states of Central and West Africa who share that 
coastline so that there is a coordinated approach and a pooling 
of resources.
    Senator Coons. Thank you.
    Ms. James, AGOA has meant a lot for Swaziland. What can we, 
should we be doing to make sure that AGOA is reauthorized in an 
appropriate timeline, and what impact do you think it might 
have, if, as has sadly often been the case here in the 
Congress, we wait right up until its expiration to deal 
legislatively with its reauthorization?
    Ms. James. Well, thank you, Senator, for the question.
    As I noted, AGOA has been very successful in Swaziland. It 
is one of the major producers of textiles on the continent 
exporting to the United States, and it has had an amazing 
impact on the country.
    About 15,000 people are actually employed, but each one of 
those people supports a very large extended family. So, it has 
had a broad impact in the country as well. It has been a source 
of stability, and many of those employees are women, and so we 
would like to see that kind of a program stay in place. It has 
a great impact on the health and the productivity of the 
country.
    With respect to the annual reauthorization, we have had 
some questions and some difficulties with Swaziland's status of 
governance, its levels of transparency and questions of 
corruption. And the AGOA reauthorization process has been an 
entry point for us to engage the government at all levels to 
talk about addressing those issues.
    We have focused heavily on labor rights and practices, and 
I think we can report today that the recent reeligibility 
decision to reapprove their AGOA status was a result of the 
fact that the Kingdom has made some progress, not a lot of 
progress, but progress nevertheless. And we will just keep 
hammering away on the areas of concern still to be addressed. 
The Government of Swaziland has actually begun to have more 
conversations with labor unions and with the international 
labor organization. The government has a tripartite standing 
dialogue that is ongoing on labor issues. So, this conversation 
that we have around AGOA has actually been helping democracy 
and labor and human rights across the board.
    As you may know, the country depends upon imported fabrics. 
It has a third-country preference in place, and that has been 
very important, and that has been a helpful thing for the 
country. If they were to lose that, it would probably have a 
very devastating impact on the ability to continue to operate 
as they have with AGOA. So, it is very important that AGOA 
remain and that it remains strong with all the elements that 
are currently in place.
    Senator Coons. Well, it is my hope and intention to support 
proceeding to the AGOA reconsideration as promptly as we can 
because of concerns that we have already heard from a number of 
African Ambassadors.
    Ms. James. That is very encouraging to hear. Thank you, 
sir.
    Senator Coons. Ambassador DeLisi, there was a tragic murder 
in Uganda, the killing of a gay activist, David Kato, last 
year. And I am concerned about the antihomosexuality bill that 
has been introduced and is proceeding in Uganda. It is one of 
the more extreme such laws being considered around the world 
because it includes the death penalty for homosexual acts.
    I think the opposition in the United States is clear. What 
do you think are its prospects of passage, and, if adopted, 
what are the options you would see in your role as Ambassador?
    Ambassador DeLisi. Thank you, Senator. I share your 
concern, and, as you know, our Embassy, our government has been 
forthright in stating our opposition to the bill.
    In terms of its potential for passage, obviously that is a 
decision that the people and the legislature in Uganda will 
have to make. But I think that I find encouraging several 
signs. First, the Ugandan Human Rights Commission has been very 
forthright, and has spoken out, and has made it clear that this 
bill as written, and I think almost in any form, would be 
contrary to both the Ugandan Constitution and violation of the 
constitution, and contrary to Uganda's international commitment 
and obligations on human rights.
    Other NGOs and civil society groups have become much more 
vocal and have spoken out strongly on this. I just saw an 
article recently in which some of the LGBT organizations said 
that their dialogue, that the community dialogue in Uganda, has 
become richer as a result of this. And they have seen not an 
outpouring of public support, but at least a greater degree of 
support for their efforts. And those are promising signs.
    I am also heartened by the fact that the Ugandan judiciary 
overall has shown consistent support for the rights of all 
communities, all the marginalized communities, and that is also 
promising.
    I hope the bill will not pass. I think most in the 
international community would hope that. I think that there are 
also many in Uganda who recognize that if the bill passes, that 
it has--there is significant potential consequences. The impact 
on Uganda's international reputation and standing, the impact 
on tourism. They are very proud to have been named as tourist 
destination of the year for 2012, and it is the pearl of 
Africa. But this is the sort of thing that does have an impact. 
And so, they have to look, and I think they are looking, at the 
realistic--the practical, pragmatic consequences of this also.
    For us meanwhile, I think that the Secretary has made it 
clear that while we are absolutely committed on these issues, 
we also recognize that it is not always about being punitive or 
lecturing; it is about engaging constructively. It is about 
educating civil society groups, supporting them. It is about 
getting the right sort of debate going, showing people that 
when the rights of any community within your country are being 
brought under attack, when you are discriminating against any 
element within society, all society ends up suffering, and 
everyone's rights are ultimately at risk.
    Those are the sorts of conversations that we have had that 
we will continue to have, no matter what the outcome of the 
legislation, even if it is not passed. We need to continue to 
be affirmative in our engagement and be good partners as we 
discuss these sometimes very sensitive social issues, but 
issues that have to be addressed and recognized, and that the 
fundamental human rights issues involved here are central to 
any engagement with our partners.
    Senator Coons. Thank you, Ambassador.
    I, last, would be interested in hearing a little more 
detail on the regional effort in the hunt for Joseph Kony, how 
the Central African Republics, how Sudan and, in particular, 
the DRC, have responded, how engaged they are with allowing 
Ugandan troops either in their territory or working 
collaboratively with them, and what you see as the critical 
next steps in this ongoing pursuit to remove Joseph Kony and 
his top lieutenants from the battlefield.
    Ambassador DeLisi. Thank you, Senator.
    I think the regional effort is going pretty well overall. I 
had the chance last week--we had our global chief of missions 
conference here, and we took advantage of that to sit down with 
our ambassadors throughout the region and our leadership in the 
State Department to discuss how we are coordinating our efforts 
and what we are finding in the respective capitals in the 
region.
    I think we are seeing very strong support for the overall 
goal of bringing Kony and his commanders to justice, and that 
is good news because these countries are still being affected. 
We see the continuing impact of the LRA in the DRC, and the 
CAR, and, to a degree, in South Sudan.
    I think that the militaries in these countries are 
participating. They are participating actively. Not all of them 
have as much to bring to the table in terms of resources as the 
Ugandans have, but they have long military experience. But it 
is improving. And we are working with those governments in all 
four instances to make sure that that partnership is right, 
that we are giving them the logistical and other support that 
they need to be effective in their efforts to bring Kony to 
justice.
    Overall, the coordination between the four countries is 
good, but there is that concern about Ugandan forces at this 
point in time are not entering into the DRC. The DRC asked the 
Ugandans to refrain from coming into their sovereign territory. 
This was in part due to the elections that were coming in the 
DRC; we understand that. I think that is an issue that does 
need to be addressed, and I know the two governments, the 
governments involved are talking to each other. I know our 
Ambassador in Kinshasa is working on these issues as well. I 
think that with the AU effort, we will also have perhaps 
greater traction in making this happen.
    So, I think that we are moving in the right direction. As I 
said earlier, if we can find ways to bring the Rewards for 
Justice Program to apply here, that could be a good thing. We 
will continue to look at issues of mobility, and sit down and 
say--figure out what--where we can make the greatest additional 
value to this effort in the coming months.
    Senator Coons. Thank you, Ambassador.
    Senator Isakson.
    Senator Isakson. In deference to Senator Udall, who has 
arrived, I am going to ask one question and then give him a 
chance, if that is all right, Mr. Chairman, to----
    Senator Coons. Absolutely.
    Senator Isakson [continuing]. Ask a question. But I would--
actually it is not a question. It is an observation.
    When the chairman and I were in West Africa, and, in 
particular, in Benin, you have got Nigeria, which had its first 
``successful''--and I put that in quotes--democratic election 
with Goodluck Jonathan. And then you have got Benin, and then 
you have got Togo, and then you have got Ghana, and then you 
have got Cote d'Ivoire, I think, is the right--if I got my 
geography right.
    And one of the barriers to their growth or some of the 
trade barriers between the countries and the fact that the 
roads are not always open, many times are manned by folks who 
are collecting corruption fees to let you pass. And so many of 
the goods are perishable--poultry, pineapple in particular, 
which is so prevalent in the region and which the chairman and 
I sat and ate in the middle of a pineapple patch one day, and 
it is the best pineapple I have ever eaten in my life. But the 
problem is it is highly perishable, and the roads are not that 
good. And the barriers to trade are.
    Can you share with us some ideas you might have on 
expanding the trade between countries on the West Coast of 
Africa so they can benefit from their own assets one to 
another?
    Mr. Raynor. Thank you. Thank you, Senator. You are 
absolutely right. It is one of the great hindrances to 
development in Africa, the interconnectivity, or lack thereof, 
between countries. And certainly these are a lot of countries 
that are very close to each other, and that should have very 
robust trading relationships, and for infrastructure reasons 
and other reasons, do not.
    Specifically with regards to infrastructure, it is a 
challenge. It is the sort of thing that one could look at as 
part of the second phase of the MCC potentially. I think 
ultimately it is something that requires collective effort, and 
I think perhaps ECOWAS would be a useful partner in that 
regard. Certainly President Yayi is very strongly engaged in 
ECOWAS. I think issues of economic integration within West 
Africa are central to his concerns and ECOWAS, and I think we 
would certainly look for opportunities to promote that sort of 
dialogue and to look for opportunities to build those linkages, 
and eventually those physical linkages, to improve those trade 
connections.
    Senator Isakson. Thank you very much. And I will defer the 
balance of my time to Senator Udall.
    Senator Coons. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and I very much
appreciate your courtesy, Senator Isakson.
    First of all, let me just thank Mr. Raynor for bringing up 
Kate Puzey and her--Peace Corps volunteer, her service to the 
country. We know she died in Benin, and we ended up honoring 
her, I think, in terms of naming a bill after her. And thank 
you for bringing her up.
    You know, Benin recently completed a successful 5-year 
compact with the Millennium Challenge Corporation. How do you 
think that Benin and the United States can build off the 
successes of this partnership and continue to encourage 
economic development?
    Mr. Raynor. Thank you, Senator. Yes, indeed, the MCC was 
quite successful in proving the port and in addressing certain 
aspects of the business climate that have been deficient--
access to credit, access to judicial process.
    I think the first and most important thing is to build on 
those gains and to make sure they are sustained. I think it is 
also important that we look for ways to engage with the 
Government of Benin and the people of Benin to boost U.S. 
commercial engagement in the country. Part of that will be 
looking for opportunities to diversify the economy of the 
country, which right now is very heavily dependent on cotton 
and to the vagaries of the cotton prices and production. So, I 
think it will be important to work with Benin in looking for 
ways, both to invite and promote U.S. engagement, and also for 
ways that Benin can itself expand its economic base.
    I think also part of that is building the human capacity of 
the people of the country. Right now you have got serious 
challenges with regards to education, with regards to health, 
and I think it will be important to continue to build the 
capacity of the people to be active agents for their own 
material as well as other gains.
    Senator Udall. Thank you for that answer. You know, experts 
estimate that Uganda's Albertine Basin holds up to 2.5 million 
barrels of oil. Accessing this reserve could impact both 
Uganda's economy and its environment. What steps can Uganda 
take to ensure that should the decision to access it be made, 
it is done with respect to this ecologically sensitive area, 
and should we be worried that Uganda signed a contract with 
China's CNOOC given China's record of environmental degradation 
in the region?
    Ambassador DeLisi. Thank you very much for the question, 
Senator.
    First of all, they are moving forward. They have recently 
approved the decision to move forward, and you have got three 
major companies that will be operating in the Albertine Basin. 
One of them is CNOOC.
    One of the things that we are doing, and we recognize the 
challenges and the potential for this great potential benefit 
to Uganda could also become a curse. And we all know that this 
is a challenge that has to be addressed.
    We are tackling it in a number of ways. USAID has already 
engaged on these environmental questions and is working with 
the government to talk about if they are going to exploit this 
oil, how do you do this in an ecologically sound way, and how 
do you protect this tremendous natural resource for Uganda? 
Those partnerships will continue I hope. If I am confirmed, 
certainly it would be one of my primary interests to see that 
they continue.
    Equally, USAID, through some of their programs, is working 
with civil society because civil society's voice and role in 
the managing of this and in holding the government accountable 
in looking at these issues will also be important. So, we are 
working with them, showing them what has happened elsewhere, 
giving them the skills that they will need to address these 
questions.
    But equally, we are working with the government. And 
through our new energy governance and capacity initiative, we 
are helping the government to try to build the legal and the 
financial framework, the system that they need to manage this 
resource in an effective way, to tie the resources that they 
are getting to their longer term development goals, and to do 
this in a coherent, effective way, to improve communication 
between ministries, all of this needs to be done.
    I am not familiar with CNOOC's record in terms of their 
environmental protection, but I certainly take you at your word 
that this is a concern. And no matter who it is, though, any of 
these oil companies, as I noted at the outset, this is a very 
sensitive environmental region. So, we are attuned to this, 
have already been working on this, and will continue to do so, 
Senator.
    Senator Udall. Thank you. One other question on Uganda. In 
2010 and early 2011, Uganda's economy and population suffered 
from high food prices, high fuel prices, and high inflation. In 
the past few months, it is my understanding that these 
indicators have leveled or dropped slightly. Is this a long-
term trend, or is Uganda suffering from issues of chronic food 
instability?
    Ambassador DeLisi. I think that it--from what I have read, 
and, again, I am not yet an expert on all of this. But what I 
am seeing and what I am told is that most economists believe 
that it will level, that this leveling off will continue, that 
the degree of economic growth we are going to see in Uganda 
will continue this past year, that it was still 5.8 percent. 
Not quite as robust as in earlier years, but still doing well.
    The issue of food security, though, is one that we really 
have to be cognizant of, and this is part of the reason that 
our Feed the Future Program is looking so closely at where we 
are going. And it becomes all the more of a concern because of 
the high population growth rate in Uganda.
    At present, we were looking at a population of 33 or 34 
million people, but in 20 years it is estimated that that is 
going to be a population of 60 million, and 20 years after that 
it will probably be 90 million.
    So, food security and the sustainability of agriculture 
becomes a crucial factor for us, and this is what we are 
starting to look at very careful, I believe, through our Feed 
the Future Program. Also increasing agricultural livelihoods, 
the whole agricultural process, including agro industries. 
Again, if confirmed, this is an area that I think I will work 
on because we have to be focusing on this in the days ahead.
    Senator Udall. Great. Thank you.
    Mr. Raynor, you mentioned that Benin's economy is dependent 
on cotton production, and we all know that in some of these 
areas, cotton production and this crop have been linked to 
degradation of the soil, in turning areas into deserts. And 
what I am wondering is, you know, is there a sustainable way to 
do this? I mean, is this an environmental threat they should be 
worried about? What, how will the United States work with them 
in order to bolster their economy, but at the same time make 
sure it is done in a sustainable way?
    Mr. Raynor. Thank you, Senator. Yes, in fact, Benin has 
been seeing cotton yields over time, and that is certainly--
desertification is an aspect of the problem they're facing. I 
think that is why one of the things that Benin really does need 
to focus on and we need to focus on in our engagement with 
Benin is ways for them to diversify their agricultural sector.
    Right now, cotton accounts for 40 percent of GDP, 
potentially as high as 80 percent of exports in a given year. 
So, really a vastly disproportionate bet on one commodity. I 
think it would be important for us through USAID engagement, 
Peace Corps engagement, there is a component of our Peace Corps 
activities that focuses exactly on issues of conservation and 
good stewardship of the land. I think we can build upon that. 
We can certainly look for additional ways to bring professional 
expertise to bear, to help the government understand the 
consequences of overreliance on one crop, and to explore 
opportunities for diversification.
    Senator Udall. Great. Thank you very much.
    And, Chairman Coons, good to be here with you. And I once 
again, even though Senator Isakson is not here, thank him for 
his courtesies on yielding time. And really appreciate all your 
hard work on chairing the African Subcommittee. I know you are 
working hard at that, and spending time in Africa, and also 
doing a lot of visits here with many of the officials that come 
through Washington.
    Thank you.
    Senator Coons. Thank you. And, Senator Udall, I am hoping 
you will join us in a future visit to Africa. It would be great 
to have your company.
    Senator Udall. I look forward to it.
    Senator Coons. Senator Isakson is well and widely 
recognized for his graciousness and is a wonderful partner in 
this work. And our trip to West Africa last year was memorable.
    Kate Puzey had Delaware roots. Her father was born in 
Delaware, and there has been a lot of attention paid to that 
case in Delaware as well. And I am really grateful for Senator 
Isakson's focus and leadership on this. And I know it will 
produce long-term benefits to Peace Corps Volunteers who serve 
all over the world, and who are an important part of our 
diplomatic and development presence globally.
    If you will forgive me, I need to go preside. We have had a 
thorough and full hearing. I am, again, impressed with the 
preparation and the professionalism, the dedication and the 
willingness to serve of all three of you, as Ambassadors, as 
nominees to be Ambassadors. It is my hope that the Senate will 
take up your nominations quickly and confirm you.
    I wanted to thank Leah, Louis, Mandela, Kate, Bradley, and 
Emma, for your patience. And neither Bradley nor Emma fell 
asleep. I am quite impressed.
    I was quite struck when my own children just two weekends 
ago asked me if I knew anything about the Lord's Resistance 
Army and Joseph Kony, and whether I was going to do anything 
about it. And I reminded them that I chair the Africa 
Subcommittee, the Foreign Relations Committee. They all three 
expressed quite, you know, they were really rather surprised by 
that and were unaware that I did things as I got on the train 
and went to Washington in the morning.
    So, one of the things that has been most inspiring to me 
about the very broad response of tens of millions of Americans 
and folks around the world is how many young people have been 
inspired and challenged by the issue of the Lord's Resistance 
Army and the hunt for Joseph Kony. And it is my hope that 
working together, we can engage them, and inform, and sustain 
their concern for African-led solutions to African problems, 
for an ongoing American engagement in responsible, mutual 
development, and for the kind of positive role for the United 
States and the world that all three of you have exemplified in 
your service, in the Foreign Service.
    With that, thank you very much.
    The record will be kept open for any members of the 
committee who had questions but were not able to join us today.
    And this hearing is hereby adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

       Additional Questions and Answers Submitted for the Record


  Responses of Scott DeLisi to Questions Submitted by Senator John F. 
                                 Kerry

    Question. Uganda is the youngest country in the world with 
approximately 50 percent of the population under the age of 15. If 
confirmed, what would your strategy be to engage with the youth of 
Uganda?

    Answer. I believe it is essential that we continue to engage 
effectively with the youth of Uganda, and, if confirmed, I would hope 
to emulate what I have done in Nepal in that regard. In Nepal, I have 
used social media (principally Facebook) to spark a dialogue with the 
more than 13,000 young Nepalis who follow that page. We have used it to 
great effect to discuss both U.S. policy and basic issues of 
development, governance, and economic growth. In addition, we created a 
Youth Council that continues to grow and provides us another platform 
from which to reach the youth of Nepal who, as in Uganda, make up a 
majority of the population. If confirmed, I would draw on these 
experiences, including the funding of civil action and democracy, 
building projects through the Youth Council, to deepen our engagement 
with the young people of Uganda. I would also build on Embassy 
Kampala's current activities, including its outreach to a number of 
Ugandan universities and to a group of 30 Youth Advisors drawn from 
academia, NGOs, media, and other civil society backgrounds.

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. Embassies are heavily 
involved in ensuring compliance with this requirement. If confirmed, 
what steps will you take to ensure that the Embassy effectively 
implements section 620M?

    Answer. Effective implementation of section 620M starts with the 
selection of host country candidates for security assistance. If 
confirmed, I will ensure that we carefully select units and individuals 
for U.S.-sponsored training based on their records and reputations. I 
will continue to ensure that Embassy Kampala thoroughly vets all 
individuals and units nominated for training before submitting the 
vetting requests to Washington for further review. If confirmed, I will 
make a point to be engaged in, and closely monitor, U.S.-funded 
security sector assistance and training while also ensuring that the 
Embassy's vetting of selected candidates continues to occur in a 
thorough and timely fashion.

    Question. In particular, what actions will you take to ensure, in a 
case in which there is credible evidence that a gross violation of 
human rights has been committed, that assistance will not be provided 
to units that committed the violation?

    Answer. The Department of State does not provide training to 
individuals or units against whom there is credible information of 
gross human rights violations. Leahy vetting is an important tool not 
only for ensuring that U.S. funding is not used to train or assist 
units or individuals who have committed gross human rights violations, 
but also for engaging host country military and security forces on the 
need to put in place accountability mechanisms and strengthen respect 
for human rights. If confirmed, I will ensure that we take advantage of 
any instances where Ugandan candidates do not pass Leahy vetting 
requirements to engage the Ugandan Government in a broader discussion 
of ways that the Ugandan military and police can strengthen respect for 
human rights and institutionalize accountability at all levels.

    Question. What steps will you take to ensure that the Embassy has a 
robust capacity to gather and evaluate evidence regarding possible 
gross violations of human rights by units of security forces?

    Answer. If confirmed, I will review the Embassy's vetting process 
to see if any changes are needed to make it more efficient, 
streamlined, and coordinated across the various relevant sections of 
the Embassy. I will ensure open and regular communication between the 
Defense Attache Office, Regional Security Office, and Political Section 
for the purposes of gathering and evaluating information from a range 
of different sources. I will also ensure that our Ugandan counterparts 
understand and take into consideration the vetting requirements when 
proposing candidates for U.S. security assistance, while at the same 
time encouraging them to institute reform where needed to 
institutionalize respect for human rights within the military and 
security sector.
                                 ______
                                 

            Responses of Makila James to Questions Submitted
                        by Senator John F. Kerry

    Question. Given your previous experience as Director of the Office 
of Caribbean Affairs and Deputy Director of the Office of Southern 
African Affairs as well as your other posts in the field, what lessons 
have most significantly shaped your approach to managing a post like 
Swaziland?

    Answer. Throughout my 24 years as a Foreign Service officer, I have 
served as a Political/Economic Officer in Nigeria, Desk Officer for 
Sierra Leone and The Gambia, Political Officer in Zimbabwe, Principal 
Officer in Southern Sudan, as well as International Relations Officer 
for several Africa-wide positions in the Bureau of International 
Organizations Affairs and as a Member of the Secretary of State's 
Policy Planning Staff, where I have engaged extensively in promoting 
democracy and good governance, respect for human rights and the rule of 
law, and sustainable economic development. In each of these positions, 
I served in or worked on countries that have had authoritarian or 
military regimes, and understand the challenges of engaging with such 
governments while also maintaining a robust dialogue with opposition 
groups and civil society to support their efforts to press for greater 
political rights and freedoms.
    One of the most important lessons I have learned in working on 
these issues is the necessity to engage all parties to underscore the 
mutual rights and responsibilities of governments and their citizens to 
promote democracy and development. The United States remains an 
influential partner for many African governments. Our values are 
respected by their citizens, who look to us to uphold democratic 
principles of good governance and universal human rights--critical 
elements for ensuring development and stability. My experiences have 
also impressed upon me the importance of promoting strong democratic 
institutions, particularly parliaments, courts, and independent 
oversight bodies to ensure transparency and accountability from every 
branch of government. Similarly, my election observation experiences 
have underscored the importance of engaging at all levels to help 
ensure political pluralism, civic education, and a level playing field 
before and after voting takes place.
    If confirmed, I would draw upon these experiences to support all 
elements of the mission in actively engaging with government and civil 
society to help identify opportunities for institutional capacity-
building, promote greater budget transparency, and strengthen oversight 
of government activities at every level. A daunting challenge I have 
worked on in every post, and which is a concern in Swaziland as well, 
is the need to enhance the status of women and children to address the 
HIV/AIDS epidemic, alleviate poverty, and protect universal human 
rights. I would urge the Mission to work closely with civil society 
organizations to expand their ability to participate in dialogue with 
their government on these fundamental rights. Each of my assignments 
has given me the chance to help promote efforts to expand U.S. exports 
and engage with the local private sector to encourage employment and 
development. I would draw on my knowledge of the many U.S. Government 
agencies responsible for trade and business development, along with 
State Department resources, to support American companies in the United 
States and the region who are seeking access to the Swaziland market.
    My experiences as the Director of the Office of Caribbean Affairs, 
in which I am responsible for the management, staff and policies of 
U.S. Government missions serving 14 developing countries, along with my 
experience as Deputy Director of the Office of Southern African Affairs 
and Principal Officer at U.S. Consulate Juba, have provided me with 
strong management skills to support the needs of small posts in 
difficult environments. I appreciate the importance of using limited 
resources wisely in a tight budget environment by seeking efficiencies 
and leveraging all available program funds to pursue our goals, as well 
as taking advantage of the close proximity of our mission in South 
Africa to work with their staff to bring activities to Swaziland. Most 
importantly, in a small mission without a significant U.S. security 
presence, I have learned to be extremely attentive to the safety of all 
Americans employees, as well as U.S. citizens in the country, and to 
ensure high morale within the community. If confirmed, I would bring a 
positive attitude, broad knowledge of American and African culture, and 
a commitment to public service to ensure that Embassy Mbabane is a 
strong diplomatic presence representing U.S. values and interests.

    Question. Male circumcision programs have encountered difficulties 
in Swaziland, although in other countries demand has been very high. 
How would you seek to work with the government and civil society in 
Swaziland to encourage the uptake of this important HIV prevention 
tool?

    Answer. The low level of male circumcision in Swaziland is one of 
the main drivers of the HIV/AIDS epidemic, and it is imperative that we 
do as much as possible to address it. The rapid expansion of male 
circumcision is a top priority of the President's Emergency Plan for 
AIDS Relief (PEPFAR) Partnership Framework Plan. Since 2008, PEPFAR has 
contributed to the circumcision of 36,453 men in Swaziland. In 2011, 
PEPFAR and the Swazi Government launched the Accelerated Saturation 
Initiative (ASI), which is a comprehensive package of HIV prevention, 
care, and treatment services centered on male circumcision. Its target 
was to reach 80 percent of 15-49-year-old men within a 1-year period 
with male circumcision services (approximately 152,000 MCs). The 
initiative, however, has fallen considerably short of that goal, 
reaching only 11,331 males.
    The main challenge facing ASI has been the low demand for male 
circumcision. Many Swazi men fear the pain of circumcision, lack 
information about it, or have heard bad stories and myths. To address 
these challenges, the PEPFAR in Swaziland will restrategize the male 
circumcision program for 2012 based on recommendations from the recent 
visit by the Office of the U.S. Global AIDS Coordinator (OGAC) and the 
male circumcision Technical Working Group (TWG). Recommendations 
focused on augmenting the Government of the Kingdom of Swaziland's 
ownership of the male circumcision program in Swaziland and increasing 
national leadership. While there was high-level buy-in for the campaign 
from the Minister of Health, the Prime Minister, and King Mswati III, 
there were challenges with buy-in from mid-level officials. More 
research will be done on the health seeking behaviors of Swazis and 
exploration of why demand has been low to date, followed by greater 
dialogue with local leaders and government management on the 
implementation of the male circumcision program moving forward. 
Increasing dialogue with civil society would also help the U.S. 
Government understand cultural barriers and myths that have resulted in 
low demand for male circumcision in Swaziland.
    If confirmed, I will encourage the augmentation of the Government 
of the Kingdom of Swaziland's ownership and leadership of the male 
circumcision program, increase dialogue with local leaders on the 
implementation of the male circumcision program, and increase dialogue 
with civil society to understand how the program can best overcome 
cultural barriers and how the local community can encourage men to seek 
male circumcision services.
                                 ______
                                 

           Responses of Michael Raynor to Questions Submitted
                        by Senator John F. Kerry

    Question. Given your experience as Executive Director of the Bureau 
of African Affairs and as Management Officer in Namibia, Guinea, and 
Djibouti, among other posts, what lessons have most significantly 
shaped your approach to managing a post like Benin?

    Answer. These experiences have taught me several lessons in 
building successful teams, eliciting strong performance, fostering high 
morale, and operating effectively in small, isolated, and hardship 
posts like Benin.
    To maximize operational impact and effectiveness at such a post, it 
is essential to engage every element of the mission in establishing 
clear goals within the framework of administration priorities, and to 
lead employees as an integrated team in pursuit of those goals.
    As at my previous posts, many employees in Benin are relatively 
inexperienced, including some who are new to the Foreign Service and 
others who are performing their current functions for the first time. 
In such a context, it is vital that employees receive the guidance, 
mentoring, feedback, training, and encouragement necessary to promote 
their professional development and to help them be as successful and 
happy in their jobs as possible.
    From my previous experiences at difficult, remote posts like Benin, 
I have learned that it is equally important to attend to issues of 
community morale and cohesion: ensuring that working and living 
conditions for employees and family members are safe, secure, pleasant, 
and responsive to the hardships faced; meeting the health, educational, 
recreational, and spousal employment needs of the community to the 
fullest extent possible; and promoting opportunities for community 
members to benefit both professionally and personally from the dynamic 
host-country environment to which they have been posted.

    Question. Though Benin is eligible for trade benefits under the 
African Growth and Opportunity Act, U.S. imports from Benin are 
typically quite limited. Given your previous experience, in what ways 
would you seek to increase trade between the United States and Benin, 
including efforts to increase U.S. exports to Benin and promote 
American business interests?

    Answer. The African Growth and Opportunity Act (AGOA) is about more 
than trade preferences for African products. By creating tangible 
incentives for African countries like Benin to implement the sometimes 
difficult economic and political reforms needed to improve its 
investment climate, AGOA contributes to better market opportunities and 
stronger commercial partners in Africa for U.S. companies. In addition, 
AGOA advances African regional economic integration efforts and helps 
promote larger markets and creating trade opportunities for U.S. 
exports. While Benin alone is a relatively small market that might have 
difficulty attracting U.S. companies, the West African market as a 
whole is a very attractive destination for U.S. trade and investment.
    Over the last several years, Benin has worked hard to increase 
trade and investment. If confirmed, I will work with my team at the 
Embassy to support U.S. business interests in Benin and work with the 
Government of Benin to promote an open business environment. Benin 
successfully completed its $307 million Millennium Challenge 
Corporation (MCC) Compact in October of 2011 and was selected as 
eligible to develop a second Compact. Benin's success with the MCC 
program demonstrates its commitment to providing an open and 
transparent business climate, protecting both rule of law and sanctity 
of contract. One major outcome of Benin's MCC Compact is the 
revitalization of its port in Cotonou. With improved efficiency and 
infrastructure at the port, we can expect Benin to increase trade 
regionally and hopefully attract more trade and investment from the 
United States.

 
   NOMINATIONS OF PETER WILLIAM BODDE, PIPER ANNE WIND CAMPBELL, AND 
                          DOROTHEA-MARIA ROSEN

                              ----------                              


                        WEDNESDAY, MAY 16, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Peter William Bodde, of Maryland, to be Ambassador to the 
        Federal Democratic Republic of Nepal
Piper Anne Wind Campbell, of the District of Columbia, to be 
        Ambassador to Mongolia
Dorothea-Maria Rosen, of California, to be Ambassador to the 
        Federated States of Micronesia
                              ----------                              

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb, 
presiding.
    Present: Senators Webb and Inhofe.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Good afternoon. The hearing will come to 
order.
    Let me begin by saying we are graced with the presence of 
Congresswoman Hochul here, and she has early votes in the 
House, so I will be as quick as I can with my opening statement 
to allow the Congresswoman to make a statement on behalf of one 
of our nominees and then we will get this hearing in the books.
    As everyone here knows, the confirmation process for 
senatorially approved positions is a very intricate and often 
lengthy process. I have gone through it twice myself, first as 
Assistant Secretary of Defense and then as Secretary of the 
Navy. It begins with the vetting of people inside the executive 
branch and then with very detailed examinations of all 
different parts of individuals' experiences and qualifications 
by committee staff over here. So this is simply the second-to-
the-last hurdle to be overcome before people who have given 
great service to our country have the opportunity to do that in 
a different, and I am not going to say more important way, but 
certainly ``very important to the country'' way.
    Today we are hearing the nominations of Ms. Piper Campbell 
to be Ambassador to Mongolia, Ms. Dorothea-Maria Rosen to be 
U.S. Ambassador to the Federated Sates of Micronesia, the 
Honorable Peter Bodde to be Ambassador to the Federal 
Democratic Republic of Nepal.
    Asia is a vast region with more than half the world's 
population and is of vital importance to the United States. 
Countries in this region differ economically, culturally, and 
in their governmental systems. The pursuit of democratic 
governance faces significant difficulties whether in 
consolidating a democratic transition or improving public 
accountability. However, while Asia's democracies may be 
challenged, they are seeking to thrive. Mongolia, Micronesia, 
and Nepal are no different.
    Mongolia, landlocked between Russia and China on the Asian 
Continent, has long sought to maintain its independence, 
officially proclaiming it in 1911 from China. Nearly 80 years 
later in 1990, Mongolia held its first multiparty elections, a 
development in sharp contrast to other countries in the region. 
With a population of less than 3 million, it has continued to 
pursue a democratic path. This year is President of the 
Community of Democracies, an intergovernmental coalition of 
democratic countries.
    Consequently, the United States has become an important 
third neighbor to Mongolia, supporting its democratic 
development. This year, we celebrate the 25th anniversary of 
the establishment of our diplomatic relations. Because of its 
reforms, Mongolia was one of the first countries eligible for 
the Millennium Challenge Account initiative. The United States 
and Mongolia signed a compact agreement in 2007, worth $285 
million, to improve property rights, road infrastructure, 
vocational training, and access to energy by 2013.
    These two countries also share an important security 
relationship. In particular, Mongolia became the 45th nation to 
contribute troops to the NATO mission in Afghanistan, providing 
training to Afghan national forces, and last year increased its 
commitment of troops from 200 to 400. Mongolia has also 
supported the six-party process to denuclearize the Korean 
Peninsula and bring stability to Northeast Asia.
    The Federated States of Micronesia is another important 
economic and security partner for the United States. We share a 
bond, in part based on our collective history following World 
War II when Micronesia became part of the United States-
administered United Nations Trust Territory. In 1979, four 
districts of this trust territory united to form the Federated 
States of Micronesia, and in 1986, it entered into a Compact of 
Free Association with the United States.
    The United States and Micronesia share a distinctive 
relationship through this compact. The United States provides 
economic assistance and security guarantees. Micronesia 
provides rights for the United States to operate military bases 
in the former territories. Micronesian citizens have the right 
to reside and work in the United States as lawful 
nonimmigrants, allowing entry into the United States without a 
visa. I am interested to know more about the mechanics of this 
process and its impact on Micronesia, with a population of some 
100,000 people.
    Micronesia's geostrategic position is important to the 
United States, as well as for the region. The United States is 
a key balancing force in the region, and it is incumbent upon 
us to strengthen our relationships and promote security and 
economic development in the Pacific. It is also important to 
note that Micronesia is a democratic partner for the United 
States in this region. It is in the United States interest to 
support this role in terms of regional democracy.
    Nepal, another landlocked country, located between China 
and India, is still striving toward a system of democratic 
governance. Peace only came to this South Asian nation in 2006 
following a decade-long insurgency led by Nepal's Maoists-
Communist Party. At the time of this committee's last 
consideration of Nepal, a coalition government had formed and 
Nepal faced a considerable task in consolidating its newly 
formed parliamentary system.
    Currently Nepal is confronting a May 27 deadline for the 
completion of its new constitution, and reports of protests 
around this event are troubling. Nepal sits in a prominent 
geostrategic position with a population of nearly 30 million. 
It is in the United States interest to bolster the democratic 
process in an inclusive manner and to promote stability within 
the country.
    Nepal is a threshold country for a Millennium Challenge 
Compact and, with further reforms, will become eligible for 
this assistance. Such a development would not only promote 
economic growth and democratic governance within Nepal, but 
would also strengthen the United States-Nepal relationship.
    We look forward to discussing these and other issues with 
our nominees today.
    I would like to begin by welcoming Ms. Piper Campbell, the 
nominee to be the Ambassador to Mongolia. Prior to this 
assignment, Ms. Campbell was consul general in Basrah, Iraq. 
She has also served as Chief of Staff to the Deputy Secretary 
of State for Management, as an advisor on Asian issues at the 
U.S. mission to the United Nations. Her overseas postings 
include Geneva, Croatia, Brussels, Cambodia, and Manila. Ms. 
Campbell speaks French, Cambodian, Serbo-Croatian, and 
Japanese.
    Second, I would like to introduce Ms. Dorothea-Maria Rosen, 
the nominee to be the U.S. Ambassador to Micronesia. She is 
currently a Diplomat in Residence at the University of Illinois 
in Chicago. Her previous overseas assignments include 
Frankfurt, Berlin, Stuttgart, Bern, Reykjavik, Bucharest, 
Accra, Manila, and Seoul. Ms. Rosen is a lawyer, a member of 
the California State Bar, and served in the Army as a JAG Corps 
captain. She speaks German, French, and Romanian.
    And last, I would like to introduce the Honorable Peter 
Bodde, the nominee to be the U.S. Ambassador to Nepal. Mr. 
Bodde currently is the assistant chief of mission for 
assistance transition at the U.S. Embassy in Baghdad. He 
previously served as the U.S. Ambassador to Malawi and as the 
deputy chief of mission at the U.S. Embassy in Islamabad. His 
other overseas postings include Frankfurt, Hamburg, New Delhi, 
Copenhagen, Sofia, and Guyana. He is no stranger to Nepal where 
he worked as a budget and fiscal officer as deputy chief of 
mission at the Embassy. Mr. Bodde speaks German, Bulgarian, and 
Nepali.
    Again, I would welcome all of you here today and encourage 
all of you to speak English as we go through the hearing. We 
have a tremendous respect for all of the linguistic skills that 
are at the table.
    And Congresswoman Hochul, I am appreciative of you for 
waiting for us to finish the opening remarks, and the floor is 
yours.

                STATEMENT OF HON. KATHY HOCHUL,
               U.S. REPRESENTATIVE FROM NEW YORK

    Ms. Hochul. Thank you, Mr. Chairman. I appreciate the
courtesy.
    On behalf of a very proud western New York community, I am 
honored to introduce nominee Piper Anne Wind Campbell who was 
born and raised in Buffalo, NY. I have known Ms. Campbell and 
her family, her parents in particular, David and Gay Campbell, 
for decades since she was a little girl. I am confident that 
her upbringing in Buffalo has prepared her well to handle any 
adversity, including any weather she might encounter in 
Mongolia. [Laughter.]
    A graduate of Georgetown University's School of Foreign 
Service, Ms. Campbell focused her undergraduate work on the 
Asian region and received a certificate in Asian studies. Later 
she received a master's degree in public administration from 
Harvard's Kennedy School with a specialization in negotiation 
and conflict resolution, certainly skills that will serve her 
well in her new capacity.
    Ms. Campbell has outstanding professional and academic 
qualifications for this post. A senior Foreign Service officer 
with 22 years of experience, Ms. Campbell currently serves as 
the consul general in Basrah, southern Iraq, one of our largest 
and certainly our most trying overseas posts.
    She has completed several tours with an Asian focus, as 
previously stated, including tours as the deputy chief of 
mission in Cambodia, an expert on Asian issues with the U.S. 
mission to the United Nations, counselor of humanitarian 
affairs in Geneva during the Asian tsunami, and a first tour as 
a consular and management officer at the U.S. Embassy in 
Manila.
    She has demonstrated her skills as a manager in Cambodia 
and Basrah, as well as her command over complex policy issues 
as Chief of Staff to the Deputy Secretary of State and, 
earlier, in war-torn Croatia.
    Many years ago as an attorney on the staff of Senator 
Daniel Patrick Moynihan, I guided Ms. Campbell in applying for 
an internship with the Senator's office. So I also know she 
understands the important role the Senate plays in foreign 
affairs issues.
    The Campbells have instilled in her a belief that we should 
look out for our neighbors, not just here in the United States, 
but abroad as well. In 2004, her father started All Hands--
hands.org--an organization that assists international 
communities affected by national disasters. Working with her 
parents, she certainly has a firsthand understanding of the 
importance of reaching out to and uniting the global community.
    Ms. Campbell has the skills, the energy, and aptitude to 
represent the United States in engaging with an important 
partner Mongolia. She truly represents all that is good and 
noble about public service, and I am confident that she will be 
a phenomenal U.S. Ambassador on behalf of our great country.
    Thank you very much, and I have to go vote.
    Senator Webb. Thank you very much for being with us today, 
Congresswoman Hochul.
    Just for the record, Daniel Patrick Moynihan was one of my 
great political heroes. As you are on your way out the door, I 
have to say when I was talking to Bob Kerrey about running for 
the Senate, he knew that I had a previous career as a writer, 
and he said Senator Moynihan wrote a book every year he was in 
the Senate. I have not been able to quite keep up with the 
example that he set.
    Senator Inhofe. Let me chime in here, too, if I could, Mr. 
Chairman.
    Senator Webb. Senator Inhofe.
    Senator Inhofe. He was born and raised next door to me in 
Tulsa, OK. You probably did not know that.
    Senator Webb. I knew he was born in Oklahoma. I did not 
know that you were in propinquity.
    Ms. Hochul. Well, thank you very much.
    Senator Webb. Thank you very much, Congresswoman.
    I think we will proceed from Ms. Campbell to my left or 
your right. Welcome.
    Let me make a couple of quick points here. First is that 
your full statement will be entered into the record at the end 
of your oral statement. Second, please feel free to introduce 
anyone who has come to share this day with you, family, people 
who are close to you, whatever. And the floor is yours.
    Senator Inhofe, did you want to make any kind of an opening 
statement before we proceed?

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Well, yes. It will be very brief.
    First of all, I had a chance to speak to Mr. Bodde, and I 
appreciate that very much. We have Africa and airplanes in 
common. So we had a chance to visit.
    And I apologize to you, Ms. Rosen, because we had it set up 
and you met with staff because we had a vote during the time 
you were in. And I have had a chance to look at both of you and 
all three of you and I am very much impressed.
    I would only say this. There is one thing that I thought 
maybe it is something we can look into. But I noticed, Ms. 
Campbell, I think it is the first time in the 22 years that I 
have been here that a career person makes political 
contributions to candidates, and I have never seen that before. 
And I understand that you have made considerable campaign 
contributions to candidates. They are checking. I do not think 
there is anything illegal about it, but I have just never seen 
it before. And that is something that perhaps you can maybe 
address during your comments.
    That is all.
    Senator Webb. Thank you, Senator Inhofe.
    Ms. Campbell, the floor is yours.

   STATEMENT OF PIPER ANNE WIND CAMPBELL, OF THE DISTRICT OF 
             COLUMBIA, TO BE AMBASSADOR TO MONGOLIA

    Ms. Campbell. Senator Webb, Senator Inhofe, thank you very 
much. It is an honor to appear before you as President Obama's 
nominee to be Ambassador to Mongolia. I am deeply grateful for 
the confidence the President and Secretary Clinton have shown 
in me. If confirmed, I look forward to working closely with 
this committee to build on the already strong ties between the 
United States and Mongolia.
    I want to thank Congresswoman Hochul for introducing me. 
Although the Foreign Service has taken me far from Buffalo, my 
roots there are deep. As the Congresswoman said, she helped 
arrange my internship with Senator Daniel Patrick Moynihan 
whose passion for foreign policy was one of the things that 
shaped my path of service which has taken me from the 
Philippines to Iraq and many places in between.
    The other thing that shaped my path has been the support of 
my family, and I want particularly, publicly, to express my 
love and gratitude to my parents, David and Gay Campbell, who 
are here, along with friends and neighbors from the District 
who I am pleased to have sitting behind me. My siblings and 
their spouses, my nieces, nephews, and cousins are not here 
today but they have actually visited me in every posting that I 
have had overseas except for Basrah, and I had to insist that 
Basrah was off limits.
    Senator Webb. To all your family and friends, welcome. I 
know what a big moment this is.
    Ms. Campbell. This is an exciting year for United States-
Mongolian relations as we mark the 25th anniversary of the 
establishment of bilateral relations. Over that time, our 
partnership has grown stronger so that now this relationship 
really is about opportunities, particularly on the economic 
front where Mongolia's resource-rich economy and significant 
growth potential have propelled it to the top ranks of frontier 
markets. With large reserves of coal, copper, gold, uranium, 
and other minerals, Mongolia has the potential to double its 
GDP over the next decade, making it one of the world's fastest 
growing economies.
    As Mongolia's economy continues to expand, there will be 
more opportunities for United States firms. Already Mongolia is 
charting a growth path for United States exports that puts it 
among the highest of any country in the world. If I am 
confirmed, our Embassy will actively practice what Secretary 
Clinton calls ``jobs diplomacy'': connecting U.S. industry with 
the best possible information and advocating on their behalf. 
Current United States programs in Mongolia, the Millennium 
Challenge Corporation, as well as USAID, Department of 
Agriculture, and the Trade and Investment Framework Agreement, 
all are focused on helping Mongolia to diversify its economy, 
expand its economic growth, and promote trade and investment.
    Any successful market-based economy must operate with 
openness and transparency, as well as good governance and 
accountability, but these attributes are particularly important 
in a situation like Mongolia's where you are seeing such rapid 
growth. And although the physical environments in Iraq and 
Mongolia are about as different as two countries can be, I 
think that my experience working on the oil industry in 
southern Iraq will very much shape what I am able to do in 
Mongolia.
    In the near term, it will be a very important step for the 
Mongolian Government to sign the proposed United States-
Mongolia agreement on transparency in international trade and 
investment. If confirmed, that would be one of my first efforts 
at post, to encourage that.
    Last summer, this body passed a resolution recognizing the 
increasingly prominent role the Government of Mongolia has 
assumed internationally. And Senator Webb, you mentioned that 
yourself. Mongolia has dispatched over 5,600 peacekeepers to 15 
different peacekeeping operations, has troops now in 
Afghanistan, and currently chairs the Community of Democracies.
    I spent much of my career representing the United States in 
international fora and focusing on conflict situations. And, if 
confirmed, I welcome the opportunity to work with Mongolian 
officials to advance our shared interests in these globally 
important areas consistent with Mongolia's Third Neighbor 
Policy--by which it actively engages with the United States and 
others while also maintaining good relations with its 
neighbors, China and Russia.
    Mongolia's decision for democracy in the 1990s was a truly 
remarkable development, and the United States has been a 
consistent and supportive partner on Mongolia's democratic 
path. While the challenges continue, I believe that Mongolia's 
tremendous economic potential and increased participation in 
multilateral fora bring enormous opportunities for further 
strengthening its democracy.
    I know that the rest of my statement has been added in the 
record, and I thank you very much. I look forward to taking any 
questions.
    [The prepared statement of Ms. Campbell follows:]

             Prepared Statement of Piper Anne Wind Campbell

    Mr. Chairman and members of the committee, it is an honor to appear 
before you as President Obama's nominee to be Ambassador to Mongolia.
    I am deeply grateful for the confidence that the President and 
Secretary Clinton have shown in me, and, if confirmed, I look forward 
to working closely with this committee to build on the already strong 
ties between the United States and Mongolia.
    I want to thank Congresswoman Hochul for introducing me. Although 
my 22 years in the Foreign Service have taken me far from Buffalo, NY, 
my roots there are deep. It seemed fitting for Congresswoman Hochul to 
be here today as she helped arrange my internship with the great 
Senator from New York--a former member of this committee--Daniel 
Patrick Moynihan. Senator Moynihan's passion for foreign policy was one 
of the things that shaped my path of service, which has taken me from 
the Philippines to Iraq, and many places in between.
    The other thing that shaped my path has been the support of my 
family. I would like publicly to express my love and gratitude to my 
parents, David and Gay Campbell; my siblings, Todd, April, and Skip; 
and my nieces, nephews, and cousins, who are here. They are an intrepid 
bunch, having visited me at almost every overseas post. Indeed, I am 
convinced they would have visited me in southern Iraq this past year, 
if I hadn't consistently told them that Basrah was off limits.
    This is an exciting year for United States-Mongolian relations, as 
we mark the 25th anniversary of the establishment of bilateral 
relations. Over that time, our partnership has grown stronger. One of 
the most exciting things about working in Mongolia, if I am confirmed, 
will be that so much of this relationship is about opportunities. Let 
me try to explain this better by briefly highlighting some of the key 
areas on which I plan to work, should I be confirmed as the next 
Ambassador to Mongolia.
    Creating opportunities for U.S. businesses in a growing economy: 
Mongolia's resource-rich economy and significant growth potential have 
garnered international attention and propelled it to the top ranks of 
what some call ``the frontier markets.'' With large reserves of coal, 
copper, gold, uranium, and other minerals, Mongolia has the potential 
to double its GDP over the next decade--making it one of the world's 
fastest growing economies. U.S. goods exported to Mongolia increased an 
astonishing 171 percent in 2010 over 2009 levels, and in 2011 they rose 
above the $300 million mark for the first time. Mongolia continues to 
chart a growth path for U.S. exports that ranks among the highest of 
any country in the world.
    As Mongolia's economy continues to expand, there will be more 
opportunities for U.S. firms. If I am confirmed, our Embassy will 
actively practice what Secretary Clinton calls ``jobs diplomacy'': 
connecting U.S. industry, small businesses, and state and local 
governments with the best possible information about opportunities in 
Mongolia and advocating on their behalf. I would like to see 
strengthened business ties not only in the mineral sector but also in 
``downstream'' industries as Mongolia's economy becomes larger and more 
complex and as interest in U.S. consumer goods grows. I think it is 
important to note that current U.S. programs in Mongolia--the 
Millennium Challenge Corporation as well as U.S. Agency for 
International Development and U.S. Department of Agriculture activities 
and our Trade and Investment Framework Agreement--also are helping 
Mongolia to diversify its economy, expand economic growth, and promote 
trade and investment.
    Any successful market-based economy must operate with openness and 
transparency, as well as good governance and accountability--but these 
attributes are particularly important in a situation of rapid growth, 
especially when driven by a single sector. Although the physical 
environments in Iraq and Mongolia are about as different as two 
countries can be, I believe that my experience working on southern 
Iraq's oil sector and dealing with a region experiencing rapid economic 
change provides excellent preparation in better understanding the 
issues Mongolia will be confronting and the opportunities rapid growth 
can provide for Mongolia--as well as for our growing trade and 
investment relationship. Certainly, in the near term, it would be an 
important step in the right direction for the Mongolian Government to 
sign the proposed U.S.-Mongolia agreement on transparency in 
international trade and investment.
    Building already excellent international cooperation to mutual 
advantage: Last summer, this august body passed a resolution 
recognizing the increasingly prominent role the Government of Mongolia 
has assumed internationally. Mongolia has participated in the 
International Monetary Fund, the World Bank, the Asian Development 
Bank, and the European Bank for Reconstruction and Development; it 
currently chairs the Community of Democracies and will host the next 
Ministerial Meeting in Ulaanbaatar; and it has been active in 
international peacekeeping from Afghanistan to Darfur and South Sudan, 
from the Western Sahara to Chad, in Kosovo, and in Iraq. Mongolia has 
dispatched over 5,600 peacekeepers to 14 different peacekeeping 
operations since 2002, and runs a unique Training Center for 
International Peace Support Operations.
    The United States and the Government of Mongolia share a common 
interest in promoting peace and stability. I have spent much of my 
career representing the United States in international fora and 
focusing on conflict situations. If confirmed, I will welcome the 
opportunity to work with Mongolian officials to advance our shared 
interests in these globally important areas. As one concrete example: 
In March of this year, Mongolia's Partnership Plan with NATO was 
approved, which will allow for greater cooperation and assistance to 
make Mongolia's military compatible with those of NATO allies. Mongolia 
already has a history of operating with NATO forces in Afghanistan, a 
history that demonstrates its commitment to global responsibility and 
security.
    Mongolia's ``decision for democracy'' in the 1990s was a truly 
remarkable development: Through its competing political parties, 
transparent and peaceful elections, and respect for human rights, 
Mongolia can serve as a positive role model for other countries in the 
region and beyond. A quarter of a century ago, Mongolia's contacts with 
the outside world were limited. Mongolia's progress over the last 20-
plus years provides an important and timely illustration of the value 
and importance of democratic systems. Mongolia recognizes the value of 
engagement with the United States and others in a ``Third Neighbor 
Policy,'' while also acknowledging the importance of maintaining good 
relations with its two immediate neighbors, Russia and China.
    The United States has been a consistent and supportive partner in 
Mongolia's journey to democracy. While this journey has included a 
number of difficult challenges, I believe that Mongolia's tremendous 
economic potential and increased participation in multilateral fora 
bring enormous opportunities for further strengthening its democracy 
and ensuring that all of Mongolia's citizens have a role to play in 
this journey. As Mongolia looks forward to two important elections--
parliamentary elections in June 2012 and a Presidential election in 
2013--we will continue our robust engagement with Mongolia on advancing 
its democracy, strengthening the rule of law, combating corruption, and 
developing its civil society. If confirmed, I will support and increase 
these efforts.
    U.S.-Mongolian people-to-people engagement: Our current Ambassador 
in Mongolia has unearthed documents that seem to show that the first 
U.S. citizen visited Mongolia 150 years ago. Although I cannot claim 
that U.S.-Mongolian people-to-people engagement flourished without 
interruption from that point, the past decade has seen a tremendous 
growth in U.S. interest in Mongolia (which was ranked last year by 
National Geographic as one of the top 20 places to visit), as well as 
Mongolian interest in the United States. I understand that two-way 
travel by Mongolians and Americans alike keeps the Embassy's consular 
section busy. The visa workload has been growing steadily over the last 
5 years. We have facilitated educational and cultural exchange travel, 
giving qualified Mongolians the opportunity to experience the United 
States and its people. This supports our bilateral relationship and the 
many areas of mutual interest I already described. I believe that U.S. 
support, both governmental and private, of Mongolia's cultural heritage 
sites, media sector, and amazing environment also is linked to 
increased U.S. interest--and to all the new associations our ever-more 
interconnected world engenders. If confirmed, I also would be delighted 
to serve in a country that hosts a vibrant Peace Corps program. Our 
Peace Corps Volunteers are among the best grassroots ambassadors for 
the United States and its values, and in Mongolia they are having a 
major and lasting effect.
    Mr. Chairman and members of the committee, it would be the highest 
honor for me to serve our country as the U.S. Ambassador to Mongolia. I 
joined the Foreign Service 22 years ago, coming in with a certificate 
in Asian studies from Georgetown University and a fascination with the 
region. Secretary Clinton recently predicted that the world's strategic 
and economic center of gravity in the 21st century will be the Asia-
Pacific region. She framed one of the most important tasks of American 
statecraft over the next decade as locking in a substantially increased 
investment--diplomatic, economic, strategic, and otherwise--in this 
region. I welcome the opportunity to be on the front lines of that 
challenge. If confirmed, I will lead a diplomatic mission of 
approximately 200 U.S. and Mongolian employees, representing seven 
agencies. I will do my very best to ensure that all members of that 
community and their families have the leadership, security, and support 
they need to get their jobs done and to engage on behalf of the United 
States to work with, and benefit from, the growth and dynamism so 
apparent in the Asian region.

    Senator Webb. Thank you very much, and your full written 
statement will be entered into the record at this point.
    Ambassador Bodde, I want to start off by saying I apologize 
here. I think I made a mistake in diplomatic protocol. As a 
former Ambassador, is it not true that Foreign Service grade is 
probably the highest at the table? I should have called on you 
first, and I apologize. But welcome. I think you, at least from 
your written testimony, have some pretty important folks in the 
audience today, important to your personal history.

   STATEMENT OF HON. PETER WILLIAM BODDE, OF MARYLAND, TO BE 
     AMBASSADOR TO THE FEDERAL DEMOCRATIC REPUBLIC OF NEPAL

    Ambassador Bodde. Thank you, Senator. No apology needed. I 
am honored to be here with my two colleagues. We joined the 
Foreign Service together and Piper and I serve in Iraq 
together. So it is a great honor.
    Mr. Chairman, Senator Inhofe, it is an honor and a 
privilege to appear before you today as the President's nominee 
to serve as the next United States Ambassador to Nepal. I am 
grateful for the trust placed in me by President Obama and 
Secretary Clinton. If confirmed, I look forward to working with 
the committee and my colleagues in the U.S. Government to 
further the interests of the United States in Nepal and in the 
region.
    I also want to take this opportunity to express my 
appreciation for the special efforts the committee has made to 
schedule these nomination hearings. Out of respect for the 
committee's valuable time, I will keep my remarks here brief 
and will submit an expanded statement for the record.
    Mr. Chairman, I would like to introduce four generations of 
my family this morning: my grandson, Andrew, my daughter, 
Sara----
    Senator Inhofe. Have them stand up.
    Ambassador Bodde [continuing]. My son-in-law, David, who I 
note is an Iraq veteran. And Senator Webb, they are all 
constituents of yours in Woodbridge, VA.
    Senator Webb. We appreciate all of you.
    Ambassador Bodde. I would like to also introduce my son, 
Christopher, who recently started his career at USAID and my 
father, Ambassador William Bodde, Jr. Mr. Chairman, he and I 
literally switched seats today. More than 30 years ago, I sat 
where he is when he appeared before your predecessor, the late 
Senator Paul Tsongas, during my dad's first confirmation 
hearing prior to becoming Ambassador to Fiji. Unfortunately, 
the press of work in Baghdad has precluded my wife, Tanya, from 
being present today. I am very proud of her, and I note that as 
a career Foreign Service employee, she has accompanied me on my 
tours, including Pakistan and in Iraq.
    Senator Webb. Well, Ambassador Bodde, will you please take 
a stand here, make a bow? And I will do my best to be easier on 
your son than Senator Tsongas was on you. [Laughter.]
    Ambassador Bodde. As you may already be aware, should I be 
confirmed, this will be my third time representing the United 
States in Nepal. Among the lessons I have learned during my 
career is that the success of every U.S. mission abroad depends 
on a strong interagency effort and a cohesive country team. It 
also requires clear goals, strict accountability, adequate 
funding, and trained personnel. These same critical concepts 
apply to our bilateral engagement and the delivery of 
significant levels of U.S. assistance at a critical juncture in 
Nepal's development. You have my full assurances that, should I 
be confirmed, I will ensure that these concepts are an 
essential element of all mission programs. While the generosity 
of the American people is great, all of us involved in the 
stewardship of this generosity must be accountable for 
measuring success and failure.
    The primary objective of the U.S. mission in Nepal, of 
course, is to promote and protect the interests of the United 
States and of U.S. citizens who are either in Nepal or doing 
business with Nepal. In addition to that fundamental 
responsibility, we are working with Nepal to promote political 
and economic development, decrease the country's dependence on 
humanitarian assistance, and increase its ability to make 
positive contributions to regional security and the broader 
global community.
    Nepal is one of the poorest countries in the world. It 
faces the daunting challenges of consolidating peace after a 
decade of civil conflict, writing a new constitution that will 
enshrine the values of a new federal democratic republic, 
developing its economy, expanding access to health and 
education, and improving its poor infrastructure.
    Despite these challenges, the Nepali Government has made 
significant strides over the last few years. The 10-year civil 
conflict is over. The Maoists have not only joined mainstream 
politics, but are heading the current government tasked with 
completing the peace process. And the government has made a 
meaningful commitment to raise living standards and improve the 
lives of its people. The United States is an important and 
growing partner in this process. Our assistance programs focus 
on governance, antitrafficking, private sector development, 
basic education and health, disaster risk reduction, and human 
rights training. I am also delighted that Peace Corps 
Volunteers will be returning to the country in September after 
an 8-year hiatus.
    Mr. Chairman, if confirmed, I will take a special interest 
in the promotion of Tibetan and Bhutanese refugee rights. This 
is an issue I dealt with the last time I served in Nepal and it 
is one that deserves particular attention.
    In closing, I want to note that anyone who represents the 
United States abroad has a unique responsibility. More often 
than not, we are the only nation that has the will, the values, 
and the resources to solve problems, help others, and to be a 
positive force for change in our challenged world. Being 
nominated to serve as an ambassador representing our Nation is 
in itself an incredible honor. With the consent of the Senate, 
I look forward to assuming this responsibility while serving as 
the next United States Ambassador to Nepal.
    Thank you for this opportunity to address you. I look 
forward to answering your questions.

             Prepared Statement of Hon. Peter William Bodde

    Mr. Chairman and members of the committee, it is an honor and a 
privilege to appear before you today as the President's nominee to 
serve as the next United States Ambassador to Nepal. I am grateful for 
the trust placed in me by President Obama and Secretary Clinton. If 
confirmed, I look forward to working with this committee and my 
colleagues in the U.S. Government to further the interests of the 
United States in Nepal and in the region. I also want to take this 
opportunity to express my appreciation for the special efforts the 
committee has made to schedule these nomination hearings.
    Mr. Chairman, I would like to introduce four generations of my 
family this morning. My grandson, Andrew; my daughter, Sara, who is one 
of your constituents in Woodbridge; my son, Christopher--who recently 
started his career at USAID--and my father, Ambassador William Bodde. 
Mr. Chairman, he and I literally switched seats today. More than 30 
years ago, I sat where he is when he appeared before your predecessor, 
the late Senator Paul Tsongas, during my dad's first confirmation 
hearing prior to becoming Ambassador to Fiji. Unfortunately, the press 
of work in Baghdad precluded my wife, Tanya, from being present today. 
I am very proud of her and I note that as a career Foreign Service 
employee, she has accompanied me to all of my assignments, including 
Pakistan and now Iraq.
    As you may already be aware, should I be confirmed, this will be my 
third time representing the United States in Nepal. Among the lessons I 
have learned during my career is that the success of every United 
States mission abroad depends on a strong interagency effort and a 
cohesive Country Team. It also requires clear goals, strict 
accountability, adequate funding and trained personnel. These same 
critical concepts apply to our bilateral engagement and the delivery of 
significant levels of U.S. assistance at a critical juncture in Nepal's 
development. You have my full assurances that, should I be confirmed, I 
will provide the necessary leadership to ensure that these concepts are 
an essential element of all mission programs. While the generosity of 
the American people is great, all of us involved in the stewardship of 
this generosity must be accountable for measuring success and failure.
    In my current position as assistant chief of mission for assistance 
transition in Iraq, as well as in my previous positions as Ambassador 
to Malawi and in Islamabad, Frankfurt, Nepal, and Bulgaria, I have had 
the opportunity to regularly brief dozens of your colleagues both in 
the House and Senate. Such regular interaction--whether at post or in 
Washington--is critical to our continued success. Frank exchanges of 
accurate information that build trust are essential for the Congress to 
make difficult resource and policy choices. Should I be confirmed, I 
will make every effort to interact on a regular basis with the members 
of the committee and other Members of the Congress and congressional 
staff. Nepal is one of the poorest countries in the world; it faces the 
daunting challenges of consolidating peace after a decade of civil 
conflict, writing a new constitution that will enshrine the values of a 
new federal democratic republic, developing its economy, expanding 
access to health and education, and improving its poor infrastructure. 
Despite these challenges, the Nepali Government has made significant 
strides over the last few years: the 10-year civil conflict is over, 
the one-time insurgent Maoists have not only joined mainstream politics 
but are heading the current government tasked with completing the peace 
process, and the Government has made a meaningful commitment to raise 
living standards and improve the lives of its people. The United States 
is an important and growing partner in this process.
    The primary objective of the U.S. mission in Nepal, of course, is 
to promote and protect the interests of the United States and of U.S. 
citizens who are either in Nepal or doing business with Nepal. In 
addition to that fundamental responsibility, we are working with Nepal 
to promote political and economic development, decrease the country's 
dependence on humanitarian assistance, and increase its ability to make 
positive contributions to regional security and the broader global 
community. Our USAID program focuses on governance, antitrafficking, 
private sector development, basic education, and disaster risk 
reduction. Nepal was recently chosen as a threshold country by the 
Millennium Challenge Corporation. And in another sign of the progress 
Nepal has made since the insurgency ended in 2006, Peace Corps 
Volunteers will also be returning to the country in September after an 
8-year hiatus. I have seen firsthand the significant impact a single 
Peace Corps Volunteer can make. I want to assure you that, should I be 
confirmed, I will support this inspiring American outreach program.
    If confirmed, I will do my utmost to ensure that Nepal finalizes 
its peace process and establishes a stable democracy. Nepal will soon 
integrate former Maoist combatants into the Nepal Army, one of the 
final steps in Nepal's peace process. Department of Defense programs 
are cultivating a professional force that respects human rights and 
civilian control. In addition, the Constituent Assembly is working to 
complete work on a new constitution by the upcoming May 27 deadline, 
grappling with such issues as how to devolve power to newly created 
federal states, how to ensure inclusiveness for long-marginalized 
ethnic minorities and women, and what form of government to establish. 
If confirmed, my previous experience in helping young or challenged 
democracies--including, especially, Nepal itself--will serve me well. 
Success, however, will require U.S. and international support to 
reinforce Nepal's developing democratic system.
    On the economic front, Nepal faces significant challenges in the 
near term, including energy shortages, poor roads, and a lack of 
education, especially for girls at the secondary level. Another problem 
is the lack of adequate and suitable employment for Nepal's burgeoning 
youth demographic, in which more than 64 percent of the population is 
under the age of 30. For me personally, this means the vast majority of 
the population was not even born when I completed my first tour there 
in 1984! Many villages in the countryside are populated primarily by 
the elderly and children, as many working-age Nepali citizens now go to 
the gulf countries, India, or elsewhere in Asia to earn a living, 
sending back as much as 25 percent of Nepal's GDP in remittances. From 
a longer -term perspective, however, the end of the conflict in Nepal 
and political stability means the country's leaders can refocus 
attention on improving economic opportunities for its citizens--indeed, 
this will be crucial for the peace process to be considered successful. 
Nepal has genuine opportunities for U.S. exporters and investors in 
sectors such as hydropower, agribusiness, tourism, and information 
technology. To that end, I will seek to improve the environment for 
foreign direct investment.
    Nepal also faces ongoing human rights challenges. If confirmed as 
Ambassador, I will continue to promote the rights of refugees, 
including the large Tibetan and Bhutanese refugee communities in Nepal. 
Reducing trafficking-in-persons will be another top priority, working 
closely with the government and courageous NGOs such as Maiti Nepal. 
Finally, the country is also still coming to terms with the gross human 
rights abuses that took place during the conflict, and we are urging 
the country's leaders to establish transitional justice mechanisms that 
are credible are consistent with best practices and address the 
concerns and ensure the rights of the victims.
    Weak health systems and disease, including malaria, tuberculosis, 
and chronic malnutrition, pose a tremendous obstacle to Nepal's 
continued growth. The Nepali Government has been a willing partner in 
addressing the challenges of improving access to health care, but 
government and public sector capacity remain weak. The United States, 
through the President's Global Health Initiative, has played a critical 
role in increasing access to treatment and public awareness and in 
improving health indicators such as maternal and infant mortality. 
Although Nepal is now on track to meet its Millennium Development Goals 
in reducing maternal and under-5 mortality rates, there is still much 
work to be done. If confirmed, I will be proud to shepherd the 
continued growth of these critical programs.
    As Nepal continues to develop domestically, it is increasingly able 
to play a constructive role in advancing important issues throughout 
the region. One example of such contributions is Nepal's continued 
deployment of peacekeeping battalions to U.N. missions in Sudan, Iraq, 
Congo, and other countries. Kathmandu is also host to the South Asian 
Association of Regional Cooperation (SAARC) Secretariat, to which my 
predecessor was appointed the lead U.S. Government representative. As 
an official observer to SAARC, the United States is encouraging the 
development of the organization's leadership in areas of regional 
concern such as trade, environment, and disaster risk reduction.
    In closing, I want to note that anyone who represents the United 
States abroad has a unique responsibility. More often than not, we are 
the only nation that has the will, the values, and the resources to 
solve problems, help others, and to be a positive force for change in 
our challenged world. Being nominated to serve as an Ambassador 
representing our Nation is in itself an incredible honor. With the 
consent of the Senate, I look forward to assuming this responsibility 
while serving as the next U.S. Ambassador to Nepal.

    Senator Webb. Thank you very much, Ambassador. And again, 
welcome to your family and your friends who are here today. 
Your full written statement will be entered into the record at 
this point.
    Ms. Rosen, welcome.

    STATEMENT OF DOROTHEA-MARIA ROSEN, OF CALIFORNIA, TO BE 
        AMBASSADOR TO THE FEDERATED STATES OF MICRONESIA

    Ms. Rosen. Thank you, Mr. Chairman and Senator Inhofe. I am 
honored to appear before you today as President Obama's nominee 
to be the Ambassador to the Federated States of Micronesia. I 
am deeply grateful to President Obama and Secretary Clinton for 
their trust and confidence in nominating me.
    I just wish my parents had lived to see this moment. They 
would have been as thrilled and as proud as I am.
    If confirmed, I look forward to the opportunity to return 
to the Asia-Pacific region. I have fond memories of my service 
in Korea and the Philippines.
    I am an educator, a lawyer, a veteran, a Foreign Service 
officer, and a mother. My three children were born while I was 
serving overseas and grew up as truly global citizens. All have 
graduate degrees and are gainfully employed in California, and 
they make me proud every day.
    Currently I am the Diplomat in Residence for the Midwest 
based out of Chicago. My challenge is to recruit future 
generations of Foreign Service officers and to be a resource 
and foreign policy expert to students in my region. This 
position has a strong public diplomacy component and it 
complements my many years of service as a consular officer and 
a political officer. Several of my positions, including service 
as Deputy Principal Officer in Frankfurt, required a great deal 
of interaction with other U.S. Federal agencies. And Frankfurt, 
with over 40 regional offices and Federal agencies, is often 
cited as an example of how interagency coordination and 
cooperation should work. If confirmed, I will seek to apply my 
interagency experience, which will be critically important in 
the FSM, where so many domestic Federal agencies operate side 
by side with foreign affairs and defense colleagues.
    The FSM consists of over 600 mountainous islands and low-
lying coral atolls spread over a million square miles of 
Pacific Ocean. It is one of the least populated countries in 
the world and one of the most isolated. Today the FSM and the 
United States enjoy a close relationship based on historical, 
moral, and security ties.
    The United Nations entrusted the United States with the 
administration of the Trust Territory of the Pacific Islands in 
1947. In 1986, the FSM and the United States signed the Compact 
of Free Association, and the FSM became independent. This 
compact, which was amended in 2004 to extend economic 
assistance for an additional 20 years, provides the framework 
for much of our bilateral relationship. Under the compact, 
citizens of the FSM can live, study, and work in the United 
States without a visa. Mutual security of our nations is an 
underlying element of the special relationship between the 
United States and the Federated States of Micronesia. The FSM 
has no military of its own, and under the compact, the United 
States has committed to defend Micronesia as it would our own 
territory.
    Citizens of Micronesia serve proudly in the United States 
military and at a far higher per capita rate than United States 
citizens. Many have made the ultimate sacrifice for freedom in 
Iraq and Afghanistan, and many have been seriously wounded. I 
would like to specifically note that President Mori's daughter 
and one of Vice President Alik's sons are currently serving in 
the armed forces. If confirmed, I pledge to ensure that these 
soldiers and their families continue to receive the recognition 
and support they deserve from a grateful nation.
    To help achieve the compact goal of economic self-
sufficiency, the United States provides assistance focused on 
six sectors: health, education, infrastructure, public sector 
capacity-building, sustainable private sector development, and 
the environment. And each year, all of the services, programs, 
and grants--the amount exceeds $130 million.
    If confirmed, I will work with the FSM on compact 
development goals, including improving the standard of living 
of citizens and reducing dependence on public sector employment 
funded by foreign contributions. I will strive to improve the 
business climate and fiscal policies, focus on the goals of 
greater accountability and implement this assistance based on 
well-informed assessments for those on the ground.
    If confirmed, I will coordinate closely with the other 
Departments involved with these efforts, and I will work to 
ensure that assistance is visible, recognized, and complements 
efforts in the region.
    In closing, I am grateful for the honor and opportunity to 
lead the United States mission in Micronesia and work with all 
these colleagues on this effort. It is a time of renewed focus 
on our role in the Pacific, and I am excited and proud to be a 
part of it.
    If confirmed, I look forward to working with this 
committee, the Congress, and others in the government to 
invigorate our relationship with Micronesia. I believe that the 
executive and legislative branches will be important to this 
endeavor.
    I appreciate the opportunity to appear before you and would 
be pleased to answer your questions. Thank you.
    [The prepared statement of Ms. Rosen follows:]

               Prepared Statement of Dorothea-Maria Rosen

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to be the Ambassador to 
the Federated States of Micronesia (FSM). I am deeply grateful to 
President Obama and Secretary Clinton for their trust and confidence in 
nominating me.
    I wish my parents had lived to see this moment; they would have 
been as thrilled and as proud as I am.
    If confirmed, I look forward to the opportunity this assignment 
will provide to return to the Asia-Pacific region. I have fond memories 
of my service in Korea and the Philippines.
    My early background was in education, and I went on to study law. I 
remain interested in education and rule of law issues. Upon admission 
to the New York State Bar, I joined the U.S. Army. As a JAG Corps 
captain I had the privilege of serving in the International Law 
Division at Headquarters U.S. Army Europe in Heidelberg, Germany. While 
in Germany I passed the Foreign Service Exam and have been a member of 
the Foreign Service since 1981. My three children were born while I was 
serving overseas and are truly global citizens.
    Currently, I am the Diplomat in Residence for the Midwest, based 
out of Chicago. My challenge is to recruit future generations of 
Foreign Service officers and to be a resource and foreign policy expert 
to students in my region. This position has a strong public diplomacy 
component which complements the many years of service I have had as a 
consular officer and political officer. Several of my positions, 
including service as Deputy Principal Officer in Frankfurt, required a 
great deal of interaction with other United States Government agencies. 
Frankfurt was often cited as an example of how interagency coordination 
and cooperation should work. We had the advantage of sharing a building 
and seeing each other on a daily basis so we developed excellent 
working relationships. If confirmed, I will seek to apply my 
interagency experience, which will be critically important in the FSM, 
where so many domestic federal agencies operate side by side with 
foreign affairs and defense colleagues.
    The FSM consists of over 600 mountainous islands and low-lying 
coral atolls spread over a million square miles of Pacific Ocean. It is 
one of the least populated countries in the world. The landscapes are 
beautiful and the people are friendly. Today, the FSM and the United 
States enjoy a close and unique relationship.
    The United Nations entrusted the United States with the 
administration of the Trust Territory of the Pacific Islands in 1947. 
In 1986, the FSM and the United States signed the Compact of Free 
Association and the FSM became independent. This compact, which was 
amended in 2004 to extend economic assistance for an additional 20 
years, provides the framework for much of our bilateral relationship. 
Under the compact, citizens of the FSM can live, study, and work in the 
United States without a visa. Mutual security of our nations is an 
underlying element of the special relationship between the United 
States and the Federated States of Micronesia. The FSM has no military 
of its own. Under the compact the United States has committed to defend 
Micronesia as if it were part of our own territory. Citizens of 
Micronesia serve in the U.S. military at a higher per capita rate than 
citizens of the United States. Many have made the ultimate sacrifice 
for freedom in Iraq and Afghanistan and others have been wounded, some 
with life-long injuries. I would like to specifically note that 
President Mori's daughter and one of Vice President Alik's sons are 
serving in the U.S. Armed Forces today. If confirmed, I pledge to 
ensure that these soldiers and their families continue to receive the 
recognition and support they have earned from a grateful nation.
    To help achieve the compact goal of economic self-sufficiency, the 
United States will provide the Government of the FSM over $90 million a 
year in direct economic assistance through FY 2023. This assistance is 
directed toward six sectors: health, education, infrastructure to 
support health and education, public sector capacity building, private 
sector development and the environment. Each year, U.S. assistance to 
the country--including all federal services, programs, and grants--
exceeds $130 million.
    If confirmed, I will work with the FSM to help attain its Compact 
development goals; these include a significant increase in the standard 
of living of the citizens of the FSM and a reduction in their economy's 
dependence on public sector employment funded by foreign contributions. 
To reach those goals I will seek to improve the business climate, 
fiscal policies, and capacity to govern, while reducing dependence on 
foreign assistance. I will also seek to ensure that U.S. assistance 
programs are implemented consistent with well-informed assessments from 
those on the ground. I will continue to work with others who are 
concerned with the economic impact of Compact State migrants on U.S. 
states and territories.
    If confirmed, I will coordinate closely with the Department of the 
Interior, which has primary responsibility for implementing the 
compact's economic provisions. I also look forward to working with the 
Department of Defense's Pacific Command on continued security and 
humanitarian assistance activities in the FSM. I will also continue our 
close cooperation with the United States Coast Guard to implement the 
Shiprider agreement with FSM and other maritime security arrangements. 
These activities strengthen the bonds of friendship that undergird our 
entire relationship with the FSM. I will also work to ensure that U.S. 
assistance is visible and recognized, and complements the efforts of 
other regional donors. If confirmed, my overarching goal will be to 
strengthen the positive relationship our two countries have enjoyed for 
decades and to support the people and government of the FSM as they 
work toward a more prosperous future.
    In closing, I can think of no greater honor or opportunity than to 
lead the U.S. mission in the Federated States of Micronesia and work 
with our valued Micronesian friends and allies on these and other 
important issues. It is a time of renewed focus on our role in the 
Pacific and I am excited to be part of it. If confirmed by the Senate, 
I look forward to working with this committee, the Congress, and others 
in the U.S. Government who seek to invigorate our relationship with 
Micronesia, across a range of interests relating to security, good 
governance, economic and budgetary self-reliance, health, education, 
and environmental protection. I believe that coordination between the 
executive and legislative branches will be important to this endeavor.

    Senator Webb. Thank you very much. Your full written 
statement will be entered into the record at this point.
    I would also like to point out that the hearing record will 
be held open until close of business tomorrow in case other 
members of this committee wish to submit questions in writing 
or if there are follow-on questions from myself or Senator 
Inhofe.
    Senator Inhofe, I am going to yield to you for your 
questions, and then I will pick up after you are done.
    Senator Inhofe. I appreciate that, Mr. Chairman.
    And on the issue that I brought up, Ms. Campbell, maybe for 
the record you could kind of send me a letter because this is 
something I had not seen before. And you might have some ideas 
on it, and I will certainly respect those ideas.
    Let me ask you, Ms. Rosen. You served some time in Ghana. 
Is that correct?
    Ms. Rosen. Yes, sir.
    Senator Inhofe. In Accra? When was that?
    Ms. Rosen. 1989 to 1991, quite some time ago.
    Senator Inhofe. I have spent quite a bit of time there and 
gone all the way through the Rawlings machine and John Kufuor 
and now with the new President. And I see that as a real 
shining star in west Africa with some great opportunities. It 
has changed considerably since that time.
    Ms. Rosen. I understand they have highways. The main street 
actually has high-rise buildings.
    Senator Inhofe. They do. But Bukom is the same. Does that 
mean anything to you? Bukom?
    Ms. Rosen. No. I never made it there.
    Senator Inhofe. That is the impoverished district. They are 
keeping that, I guess, part of their history maybe. I do not 
know.
    But anyway, I just wanted to say, Mr. Chairman, I have had 
the opportunity, of course, to visit with Mr. Bodde at some 
length, and I have looked very carefully at all three.
    And I have to say this, Ms. Campbell, about the job that 
you are taking on. I had occasion to--I have been in aviation 
all my life--fly an airplane around the world. I went right 
over the area that you will be representing, and your work is 
cut out for you. [Laughter.]
    Good luck.
    But I have looked at the credentials of these people, Mr. 
Chairman, and I am in full support of their confirmation. I 
look forward to working with all three of you.
    Thank you, Mr. Chairman.
    Senator Webb. Thank you very much, Senator Inhofe. And I 
share your confidence in the abilities of these nominees to 
fulfill their responsibilities to our country.
    Let me start, Ms. Rosen, with something that you and I had 
a discussion about yesterday, and it relates to something that 
I said in my opening statement, that the citizens of this area 
have the right to reside and work in the United States as 
lawful, nonimmigrants, allowing entry into the United States 
without a visa. And when we were discussing this yesterday--let 
me get the exact numbers--I think what we were talking about 
was approximately 100,000 citizens in this area. Is that 
correct? And 30,000 of which are here. Or is that 100,000 
presently living in the area and an additional 30,000 in the 
United States?
    Ms. Rosen. Yes. The figures I have seen are a little over 
100,000 in Micronesia and then approximately 30,000 in the 
United States.
    Senator Webb. So that would be 130,000--30,000 out of 
130,000 roughly?
    Ms. Rosen. Roughly.
    Senator Webb. Roughly speaking?
    And I also understand that this could serve as something of 
a pass-through. If you are not from Micronesia and you live in 
Micronesia for a certain period of time, you can then--how does 
that work? Can you then come to the United States as a citizen?
    Ms. Rosen. The compact allows Micronesian citizens to come 
without a visa. And they acquire citizenship by birth to a 
Micronesian parent. They can also apply for naturalization, but 
naturalization in Micronesia is quite--it is actually an act of 
Congress. So it does not happen all that often. The President 
can naturalize someone based on a bill from Congress, but there 
are a number of requirements as well. They require knowledge of 
the government and the history and the culture, one of the four 
indigenous languages. They have to have resided there legally 
for 5 years. So it is rather a lengthy and difficult process to 
do. Our colleagues at the Department of the Interior have 
indicated that in the past 10 years that it has not occurred. 
So it does not seem to be a large number.
    Senator Webb. So can you walk us through the mechanics of
Micronesian----
    Ms. Rosen. Naturalization?
    Senator Webb. No. How a Micronesian citizen would come to 
the United States without a visa. Mechanically how does that 
work?
    Ms. Rosen. They need passports because it is an independent 
foreign country. So they would book their flights and go down 
with their passport, and if they are citizens, they do not 
require a visa. So they could travel to the United States. They 
are subject to the ineligibilities. So they would be ineligible 
if they were a felon or public charge, but obviously, DHS does 
not have the opportunity at port of entry to know all those 
things.
    Senator Webb. So basically you come back and forth on a 
Micronesian passport in the same way as, say, we would do in 
Europe, but you can live----
    Ms. Rosen. But they can stay.
    Senator Webb. They can stay.
    Ms. Rosen. They can work. They do not require a work visa. 
They do not require any particular visa in order to stay. They 
can establish a residence in the United States, but it is a 
nonimmigrant status. They do not establish a residency that 
leads to citizenship.
    Senator Webb. So it is basically free flow.
    Ms. Rosen. It is free flow, but again it does not lead to 
citizenship, so they would not acquire U.S. citizenship.
    Senator Webb. But they could remain here permanently under 
the compact.
    Ms. Rosen. Yes. There is no time limit.
    Senator Webb. What is the principal economic future of the
region? How are we looking at that?
    Ms. Rosen. Well, the compact provides funding that is 
phasing down. So each year they receive less direct funding 
from the compact funds. And the funding goes into the trust 
fund, but that is not designed to fully support them in 2023. 
So we are encouraging increased development, hopefully in 
things that bring income. They do have tuna reserves that are 
worth a great deal of money. There is some potential for 
tourism, but it is a very isolated location, so there are 
difficulties with that. But there is a focus on greater 
accountability and focus on the goal of developing sustainable 
economic, viable possibilities.
    Senator Webb. So right now, in terms of volume of trade, 
most of the volume in actual commercial product is the United 
States going into Micronesia. Is that correct?
    Ms. Rosen. The source of income? Yes, in terms of monetary
income.
    Senator Webb. And what are they exporting?
    Ms. Rosen. Tuna.
    Senator Webb. I look forward to hearing some thoughts about 
what----
    Ms. Rosen. What they could export?
    Senator Webb. Yes, as you take your position out there. 
From what I am reading, there is not a lot of commercial 
enterprise in Micronesia. Is that fair to say?
    Ms. Rosen. That is fair to say. I think the farming is 
basically subsistence farming. From my colleagues in 
Agriculture, I did not learn of a great opportunity for raising 
cocoa or coffee beans.
    Senator Webb. I know when I was out there many, many years 
ago, the No. 1 export for a long time was scrap metal left over 
from all the battles in World War II. Hopefully, if we are 
going to have this relationship and if it is going to be such 
an open relationship in terms of the citizens involved, we 
could put some of our minds together and figure out what 
economically might benefit the region in the future.
    Ms. Rosen. We do need to try and create opportunity there 
so there is less of a need to migrate.
    Senator Webb. Ms. Campbell, can you give us your 
experiences in this region to date that relate to the 
ambassadorship?
    Ms. Campbell. Well, both my studies and the beginning of my 
professional focus was on East Asia, primarily on Southeast 
Asia. So I have lived or worked in Japan, the Philippines, 
Cambodia, worked on Indonesia, worked on East Timor. And so I 
feel like that combination of experience in East Asia and then 
my more recent experience in working more in supporting U.S. 
businesses, as I am doing now as the consul general in Basrah, 
that that is a good combination, both of a pretty deep 
understanding of the East Asian region, but also an 
understanding of some of the economic challenges and 
opportunities that are going to face Mongolia over the next 
decade.
    Senator Webb. You have a good bit of experience in the 
Middle East as well. Mongolia has been involved in Iraq and 
Afghanistan. I think the number that we were provided is they 
have gone from 200 to 400 troops, and they also benefit from 
our international military education training programs----
    Ms. Campbell. That is correct.
    Senator Webb [continuing]. And foreign military funds. Can 
you give us an idea of how those two realities interact?
    Ms. Campbell. Well, it was interesting. When I first 
started to speak with people in Iraq about the fact that I had 
been nominated for this position, they said, ``oh, yes, we 
remember the Mongolians. We remember when they came and sacked 
Baghdad.'' [Laughter.]
    And then they said, ``oh, yes, and then they came back 
about 8 years ago as part of the international effort in 
Iraq.'' And so it has been interesting to have that 
conversation.
    What I understand from my colleagues at the Department of 
Defense--and I should also say that one of my first exposures 
to Mongolia was actually when I was deputy chief of mission in 
Cambodia because we were working with the Cambodian military to 
have them go and participate in a military exercise that is 
held each year in Mongolia, which is called Khan Quest. And so 
we encouraged the Cambodians to go and participate, and when 
they came back, the Cambodian military interlocutors were so 
positive about what they had seen on the Mongolian side, 
including a Mongolian peace training institute which I believe 
is unique in East Asia. And so the Cambodians then started to 
try to build a training center for peace support missions 
similar to what they had seen in Mongolia. So that was one of 
the things which piqued my interest in Mongolia.
    So Mongolia has participated strongly--Mongolian officers 
have participated in training in the United States. Ten percent 
of all officers in the Mongolia Army have actually participated 
in training in the United States. You also have, as I said, the 
Mongolian military having participated in 14 different 
peacekeeping operations, primarily in Africa but also in 
Europe, in Iraq, and currently in Afghanistan. And so they are 
starting to develop some very specific niche expertise which I 
think is going to be useful and certainly the assessment of my 
colleagues from the Department of Defense is that their 
military capabilities, as well as their interest in 
participating in these international peacekeeping operations 
and efforts like in Afghanistan, where they are increasingly 
shifting----
    Senator Webb. Do you know the level of our funding for 
these two programs as it goes to Mongolia?
    Ms. Campbell. The combination of--it is approximately $3 
million per year, sir.
    Senator Webb. Combined?
    Ms. Campbell. That is our FMF. Our IMET is small, and I can 
provide you the exact figure. I do not remember it offhand.
    Senator Webb. Does that fund their activities in 
Afghanistan?
    Ms. Campbell. Let me please get a full answer to that and 
provide that to you because I believe that their activities in 
Afghanistan should be covered under NATO support funds as 
opposed to from our direct IMET and FMF contributions.
    [The submitted written information referred to follows:]

    In FY 2012, the Department of State allocated $875,000 IMET to 
Mongolia. IMET funding in FY2011 was $997,000.
    The U.S. Government reimburses Mongolia for its predeployment 
expenses related to Afghanistan (training, medical preparation, 
individual equipment) using Coalition Support Funds (CSF). Mongolia 
received $356,118 from CSF in December 2011 
(FY 2012 funds) as reimbursement for troop rotation costs incurred in 
FY 2010. Expenses incurred during deployment, such as for the care and 
feeding of troops in the field, are borne by the Mongolians themselves.
    U.S. FMF assistance totaled $3 million in FY 2012 and helps 
Mongolia's Ministry of Defense to train and equip units to participate 
in international peacekeeping and coalition operations. This includes 
acquiring equipment, such as radios and medical gear, that will be used 
by Mongolian troops in Darfur, South Sudan, and other future 
deployments.

    Senator Webb. It is an additional fund as compared to their
national defense budget.
    Ms. Campbell. That is correct.
    Senator Webb. That would be correct to say. OK.
    Ambassador Bodde, this is, I think, your third trip back to 
Nepal? Do you have any observations on the differences over the 
three?
    Ambassador Bodde. Well, each trip has been a different 
trip. When I went back the second time, Senator, it was right 
after the first restoration of democracy, and I was there for 3 
years. I think we had four governments in the 3 years I was 
there. I was there for the beginning of the civil strife. 
Obviously, Nepal is a much different place than when I arrived 
there 30 years ago. Sadly, some of the challenges they face, in 
terms of the poverty, the health conditions, while we have made 
tremendous progress, our assistance programs have been of great 
assistance, there is still a lot of work to be done.
    I have to say, having read in preparation for this hearing 
for my new position, should I be confirmed, that I am very 
optimistic about where things stand. What I have been seeing is 
that all of the parties involved now have made a lot of 
progress. Even today we got good news that they have agreed on 
13 states and how it is going to be.
    My concern is that this is only the beginning. They have, 
as you mentioned, up until May 27 to have their new 
constitution drafted, but once that is done, then comes the 
hard work of implementation in terms of the new states, what 
their authorities will be, the whole question of revenues, who 
is going to have the ability to generate things. There is a lot 
of work to be done. So I go back with a lot of experience, 
country experience, knowing the culture, knowing many of the 
political players there, but it will be a much different 
experience than the last two times I was there.
    Senator Webb. More optimistic I assume.
    Ambassador Bodde. Yes, I am more optimistic.
    Senator Webb. Well, I would have to--just as a general 
comment as someone who is privileged to chair the subcommittee 
and someone who spent a good bit of my life in and out of East 
and Southeast Asia including, Ms. Rosen, as we discussed, 
having in and out of Micronesia many, many years ago, I am 
really impressed by the scope of the language skills that the 
three of you combined have. It is an amazing comment, I think, 
about the capabilities of our own Department of State.
    Ms. Campbell, you particularly, you seem to pick small 
countries linguistically, Cambodia, Serbo-Croatian, not that 
small, and now Mongolia. How long is the Cambodian language 
program? Was that a Foreign Service Institute program?
    Ms. Campbell. It was, sir, and I should also say that my 
Cambodian is rusty and was never particularly fluent.
    Senator Webb. I do not know many people who can speak
Cambodian.
    Ms. Campbell. There are so few people who speak Khmer that 
even just the effort and being able to navigate simple 
conversations was, in fact, extremely useful. What I found was 
I had great pronunciation, and so I could work with a teacher 
and I, for example, was able to be the emcee for our Fourth of 
July and people could understand enough of what I was saying, 
could understand me for that. But Cambodian is a unique 
language.
    Serbo-Croatian actually, interestingly, will be more useful 
for Mongolia because the Serbs use the Cyrillic alphabet as do 
the Mongolians. So I have got a leg up in at least being able 
to read Mongolian, even though I do not at this point have the 
ability to decipher it.
    Senator Webb. I know having learned Vietnamese largely as 
an act of will, but I began by buying the Foreign Service 
Institute tapes years ago. One thing that I find is that the 
people who have taken those courses develop this defined 
vocabulary where you can actually sit down with each other and 
speak for hours and nobody around you of that language knows 
quite what you are talking about. [Laughter.]
    And when they break into slang, you are lost. But it is a 
great start.
    Well, I want to echo what Senator Inhofe said. I think 
these are very strong nominees, not just for the process, but 
for continuing to serve our country in this region. And I think 
I am on record about as strongly as I can be about how 
important this region is to our country and how important we 
are to the region in terms of long-term stability that allows 
the economies to grow and governmental systems to evolve. And I 
am glad we were able to get this hearing in and hopefully to 
get all three of you on your way as soon as possible.
    Again, to all friends and family, thank you for coming and 
sharing this day with us. I think there is maybe one more 
hurdle and then we can get you off to do what you are supposed 
to be doing for our country.
    Thank you.
    This hearing is over.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


     Response of Hon. Peter William Bodde to Question Submitted by
                        Senator Richard G. Lugar

    Question. Congress has long expressed an interest in the Tibetan 
population in Nepal, both those in transit to India and those who 
reside there. The Government of China is putting political pressure on 
Nepal regarding Tibetans. Will the U.S. Government continue to urge the 
Nepali Government to allow the transit of all Tibetan refugees and work 
with UNHCR to ensure that Nepali officials, including border personnel, 
are properly briefed on the so-called ``Gentlemen's Agreement'' and 
relevant international laws? Will the U.S. Government continue to press 
for a durable solution to the problem of the long-staying Tibetan 
residents without status and for a resettlement program for Tibetans 
modeled after the successfully implemented resettlement program for 
Bhutanese refugees?

    Answer. My predecessors have placed both protecting and finding a 
durable solution for Tibetan refugees at the top of the 
administration's agenda in Nepal and, if confirmed, it is my firm 
intention to keep it there. I am very concerned both by reports of 
deteriorating conditions for the long-staying population and by the 
drop in the number of new refugees transiting through Nepal to India. 
If confirmed, advocacy on behalf of the Tibetan refugees, including 
continued adherence to the Gentlemen's Agreement, will be one of my 
first and highest priorities.
                                 ______
                                 

    Responses of Hon. Peter William Bodde to Questions Submitted by
                          Senator Marco Rubio

    Question. Nepal is not party to the 2000 U.N. Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children. If confirmed, how would you engage the Nepalese Government in 
a dialogue to join this important human trafficking treaty?

    Answer. Nepal is just now concluding a more than 5-year long 
struggle to draft a new constitution and conclude their peace process. 
If confirmed, I would use this opportunity to press Nepal to join the 
2000 U.N. Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children. We are partnering with NGOs and 
the Government of Nepal to combat trafficking in persons. More needs to 
be done, however, and I believe that as the new government stands up, 
we will have an extremely important opportunity to make progress on 
this issue.

    Question. According to the State Department's 2011 Trafficking in 
Persons Report, Nepal is a Tier 2 country for human trafficking. Nepal 
is mainly a source country for men, women, and children subjected to 
labor and sex trafficking. If confirmed, what would be your approach to 
encourage the Nepalese Government to take significant steps toward 
protecting its own citizens from being trafficked abroad?

    Answer. Embassy Kathmandu, through State's Trafficking in Persons 
Office, and through USAID, currently partners with NGOs on programs to 
combat trafficking in persons in Nepal. These programs, totaling more 
than $8.2 million over 3 years, seek to prevent trafficking, assist and 
protect the victims of trafficking, and help Nepal's Government to 
investigate and prosecute suspected trafficking offenders more 
effectively. If confirmed, I will advocate to ensure that this issue 
remains high on the U.S. Government's assistance agenda. I believe that 
we also fight the scourge of trafficking in persons through our broader 
assistance to Nepal. Our initiatives to address food insecurity and 
other constraints to development also help address the root causes of 
trafficking in persons.
                                 ______
                                 

     Responses of Piper Anne Wind Campbell to Questions Submitted 
                         by Senator Marco Rubio

    Question. According to the State Department's 2011 Trafficking in 
Persons Report, during the reporting period there were an estimated 525 
North Koreans employed in Mongolia as contract laborers despite 
concerns that North Korean workers overseas do not appear to have 
rights and receive only a fraction of the money paid to the North 
Korean Government for their work. If confirmed, what steps would you 
take to ensure that the Mongolian Government no longer allows 
contracted laborers from North Korea who may have been trafficked into 
Mongolia?

    Answer. I am very concerned about the situation you describe. The 
Department of State and the Embassy in Ulaanbaatar have called on the 
Government of Mongolia to address well-documented concerns that North 
Korean workers in Mongolia are not free to leave their employment and 
receive only a fraction of the money paid to the North Korean 
Government for their work. If confirmed, I will again raise these 
concerns with Mongolian officials and urge that the practice cease.

    Question. The Mongolian Supreme Court's interpretation of 
Mongolia's antitrafficking laws confuses judicial officials, resulting 
in trafficking offenders to be prosecuted under the lesser offense of 
``forced prostitution.'' If confirmed, how would you engage the 
Mongolian judicial system to ensure clarity in article 113 of the 
criminal code, which prohibits all forms of trafficking?

    Answer. On January 19, 2012, the Mongolian Parliament passed the 
Law to Combat Trafficking in Persons (LCTP). Subsequently, the criminal 
code was also amended to bring certain articles into conformity with 
the LCTP, including article 113 (The Sale and Purchase of Human 
Beings), which now broadly criminalizes all forms of trafficking in 
persons. Our Embassy contributed significantly to Mongolian efforts to 
pass the LCTP, including by implementing Department of State-funded 
projects with several NGOs that raised awareness about the lack of 
judicial clarity, which the LCTP and the subsequent amendments 
resolved.
    Our next priority is to encourage the Government of Mongolia to 
implement this law so that perpetrators of human trafficking are held 
accountable with jail time and victims are identified and appropriately 
protected. If confirmed, I will continue to urge Mongolia to implement 
its law and to address human trafficking fully and effectively.
                                 ______
                                 

        Response of Dorothea-Maria Rosen to Question Submitted 
                         by Senator Marco Rubio

    Question. Micronesia is a Tier 3 country according to the 2011 
State Department's Trafficking In Persons Report for its failure to 
fully comply with the minimum standards to eliminate trafficking and is 
not making any efforts to do so. The Federated States of Micronesia 
does not have a comprehensive federal antitrafficking law and has never 
identified any human trafficking victims in the country despite being a 
source country for women subjected to sex trafficking.

  <bullet> If confirmed, what is your strategy to engage the Government 
        of the Federated State of Micronesia to enact a strong 
        antitrafficking policy which will address prosecution, 
        protection, and prevention? What specific steps will need to be 
        enacted to ensure comprehensive trafficking legislation is 
        passed?
  <bullet> If confirmed, what key policies need to be in place to 
        ensure that Micronesia is not listed as a Tier 3 country for 
        trafficking in place in the next Trafficking In Persons Report?

    Answer. Combating trafficking in persons remains a problem in the 
Federated States of Micronesia (FSM). If confirmed, I will pay special 
attention to and press the FSM to focus on human trafficking issues. On 
March 5, 2012, the FSM Congress passed the Trafficking in Persons Act 
of 2011 along with two protocols of the United Nation's Convention on 
the Rights of the Child. The newly passed legislation allows for the 
prosecution of cases involving human trafficking of FSM nationals 
occurring within the FSM. The law is also intended to address the FSM's 
obligations arising from its accession to the Palermo Protocol and is 
the first step toward its obligations to criminalize human trafficking. 
The FSM Government continues to make positive strides on 
antitrafficking efforts; however much more needs to be done to upgrade 
FSM from its current Tier 3 ranking. If confirmed, I will work closely 
with the FSM Government to ensure that the new legislation is 
implemented quickly and effectively. I will work with the government to 
encourage the collection and maintenance of crime data on forced labor 
and prostitution. I will work with appropriate officials to ensure that 
adequate resources are used for law enforcement training, a critical 
component in helping to identify and assist trafficking victims. In an 
effort to reach out to local communities, I will also work with the 
appropriate NGOs and women's groups to help support and facilitate 
comprehensive and visible antitrafficking awareness campaigns.

 
  NOMINATIONS OF EDWARD ALFORD, MARK ASQUINO, DOUGLAS GRIFFITHS, AND 
                               DAVID LANE

                              ----------                              


                         THURSDAY, MAY 17, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Edward M. Alford, of Virginia, to be Ambassador to the Republic 
        of The Gambia
Mark L. Asquino, of the District of Columbia, to be Ambassador 
        to the Republic of Equatorial Guinea
Douglas M. Griffiths, of Texas, to be Ambassador to the 
        Republic of Mozambique
David J. Lane, of Florida, to serve as U.S. Representative to 
        the United Nations Agencies for Food and Agriculture, 
        with the rank of Ambassador
                              ----------                              

    The committee met, pursuant to notice, at 2:36 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Coons, presiding.
    Present: Senators Coons and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to chair this hearing of the 
Senate Foreign Relations Committee and would like to welcome my 
good friend, Senator Isakson, as well as Senator Nelson, and 
our distinguished nominees.
    Today we will consider the nominees to be Ambassador to 
Mozambique, to Equatorial Guinea, and to The Gambia, as well as 
the U.S. Representative for the U.N. Agencies for Food and 
Agriculture.
    Turning first to the nomination of David Lane as the 
nominee for the U.N. Agencies for Food and Agriculture in Rome, 
I want to just briefly highlight the crucial role those 
agencies play in Africa and throughout the developing world. 
The World Food Programme provides lifesaving nutrition in 
countries like Somalia, Sudan, Niger, and many other conflict 
and famine zones. The U.N. Food and Agricultural Organization 
is a key complement to our own Government's Feed the Future 
program.
    We will also today consider nominations for Ambassador to 
three African countries that are all important to our national 
interests, including security, trade, investment, health, 
governance, and civil rights.
    Douglas Griffiths is the nominee for Mozambique, a country 
that has recently emerged from a long civil war as a promising 
democracy with impressive economic growth. Like many African 
countries, it is rich in natural resources but suffers from 
high levels of poverty. The next Ambassador will have a number 
of challenges in working with the Mozambican Government to 
consolidate democratic gains, use resources wisely, and 
increase trade with the United States.
    Equatorial Guinea where Mark Asquino is the ambassadorial 
nominee is an important producer of oil and natural gas with a 
GDP of more than $14 billion, but the United States has serious 
concerns about human rights protections, lack of political 
freedoms, and widespread corruption. President Obiang is 
Africa's longest serving and most entrenched political leader, 
and opposition parties regularly complain of oppression issues 
we will take up today.
    Our final nominee, Edward Alford, has been nominated to 
serve as Ambassador to The Gambia, a West African country 
almost entirely enveloped by Senegal which has few natural 
resources and relies on tourism and exporting for its economy. 
U.S. interests in The Gambia include concerns about drug 
trafficking, human rights, and governance. A number of 
Senators, including Senators Durbin and Casey, have repeatedly 
raised concerns about the lack of press freedom and the 
disappearance and death of journalists critical of the 
government. The Gambia is eligible for benefits under AGOA, and 
I encourage the next Ambassador to work closely with the 
government to increase trade and investment with the United 
States.
    With that summary, I now turn it over to Senator Isakson 
for his opening remarks.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman.
    Mr. Alford, Mr. Asquino, Mr. Griffiths, and Mr. Lane, 
congratulations on your nomination. We look forward to your 
testimony today.
    And it is always good to see my dear friend, Bill Nelson, 
who is always out when there is a hometown boy being nominated 
for anything. So, Mr. Lane, you are fortunate that he is on 
your side.
    And we welcome the family members of each of the nominees. 
Thank you for your support of them in their quest and their 
jobs.
    This is an important--all three of the African countries 
are very important, and they are not the places you get when 
you are a big donor to the President. They are places you go 
when you care passionately about your country and about the 
future of the continent of Africa, and I commend each of you on 
your willingness to take those posts on.
    And I think Senator Coons agrees with me that we look 
forward to being your conduit back here in America when you are 
out there on point and think everybody has forgotten about you. 
Please use us as a resource to try and help you in any way we 
can.
    Mr. Lane, let me just say that food security in Africa is 
critically important to me. I have traveled to all four of the 
countries that will be at the G8 this weekend, Benin, Ghana, 
President Mills from Ghana, Tanzania, all coming in to testify 
on the issue of food security, which is so critical.
    You come very highly recognized by two friends of mine, 
Beau Cutter and Helene Gale, and if you can pass that test, you 
ought to be pretty good at anything. But they are obviously 
delivering on the front through the U.N. Food Programme in 
Somalia, Dadaab, Darfur, and other places like that. And food 
security in Africa is a critical issue. In fact, there is a 
looming potential problem in the Sudan right now, which I am 
sure you are aware of as a hot bed. So I will be interested in 
hearing from you about those issues and your experience and 
hopefully the contribution you want to make to the program.
    But I end where I began. Thank you all for your willingness 
to serve, and I look forward to being a supporter of each and 
every one of you.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    And I, too, would like to thank your families who will 
support you, have supported you, and whom I hope you will 
introduce when we get to each of your opening statements.
    I would now like to turn it over to Senator Bill Nelson of 
Florida. I understand Senator Rubio will be introducing some 
comments for the record.
    So, Senator Nelson, if you would please.

                 STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And, Senator Isakson, you are right. When there is a home 
Florida person, it is my privilege to be here.
    But I am particularly pleased not only that both David Lane 
and I are Melbourne High School Bulldogs, but all of his family 
that is here today is as well.
    And he comes uniquely qualified for this position. You 
know, it is not all the time that we get to name an Ambassador 
who does not come from the ranks of the Foreign Service. This 
particular ambassadorship in Rome to all of the three U.N. 
organizations has been people who really have a heart for 
hunger and the poor.
    Our former colleague from the House, Congressman Tony Hall, 
served with great distinction, and he was the one that came to 
national prominence when he had the Hunger Committee in the 
House and suddenly the House decided they were taking the funds 
away from the Hunger Committee and to highlight that that was 
the wrong decision in his opinion, he went on a hunger strike. 
And the House reversed itself after days and days. And of 
course, Tony became uniquely qualified to be in this position 
in a previous administration.
    So too David is uniquely qualified. He has been coming to 
this position, if you all confirm--if we confirm in the Senate, 
which I think we will--he comes from the White House where he 
has been assistant to the President and counselor to the Chief 
of Staff. Before that, he was over at the Bono organization, 
the ONE Campaign, where he was the CEO. And during that time, 
ONE managed to grow more than 2 million members in over 100 
countries on all seven continents.
    I think David's passion for poverty, to fight it, and 
preventable disease--I think it is remarkable, and I think he 
comes to you as an exceptionally qualified person. You know all 
the background, how this is a unique position that relates 
between the Department of State and those three U.N. 
humanitarian agencies. And as we project the interest of the 
United States around the globe, this is one of the areas that 
we are uniquely capable of distinguishing ourselves because of 
our big humanitarian heart to try to help people all across the 
globe. And I think David will be a fitting representative for 
the United States in leading that effort.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Nelson.
    And I understand Senator Rubio, also of Florida, had wanted 
to join us but is going to submit a statement for the record.
    [The prepared statement of Senator Rubio follows:]

   Prepared Statement of Hon. Marco Rubio, U.S. Senator From Florida

    Chairman Kerry and Senator Lugar, thank you for the rare 
opportunity to introduce to the committee a fellow South Floridian, Mr. 
David Lane, for the position of United States Representative to the 
United Nations Agencies for Food and Agriculture. I ask that these 
remarks be included in the record.
    David was born at Mercy Hospital, a storied institution in the 
Miami area. Both his parents, George and Mary Lou, were raised in Coral 
Gables, a beautiful community of tree-lined streets in the heart of 
Miami.
    David has had the rare opportunity of participating at all levels 
of the policymaking process, from Senate advisor, to Chief of Staff in 
a Federal Agency (Commerce Department), to the executive branch as 
Assistant to the President and Counselor to the Chief of Staff.
    Out of government, David served as President & CEO of the ONE 
Campaign from November 2007 to January 2011. ONE is a world-renown 
international advocacy organization focused on reforms to public policy 
to more effectively combat extreme poverty. At the ONE, he oversaw the 
team that sets strategic policy and main initiatives of the 
organization.
    The combination of these experiences will serve him well as he 
takes on the challenge to represent U.S. views at the three leading 
U.N. agencies focusing on food security and agricultural development--
the Food and Agriculture Organization, the World Food Programme, and 
the International Fund for Agricultural Development.
    Despite robust U.S. aid in bilateral and multilateral programs, 
food insecurity is a daily concern for millions of people around the 
world and a source of instability that impact U.S. interests abroad. As 
we speak, a severe food crisis is affecting, once again, the countries 
of the Sahel, with the potential to increase tensions in a region 
already affected by unrelated political and security challenges.
    The U.N. agencies in which he will represent the United States 
serve as significant force multipliers to American bilateral efforts. 
It is my greatest hope that he will succeed in achieving consensus to 
implement the key FAO reforms as highlighted in the September 2011 
Government and Accountability Office report on this matter.
    In these challenging fiscal years, we all have an obligation to be 
good stewards of taxpayers' contributions. As president of ONE, David 
has firsthand experience of the need to strategically allocate precious 
resources to achieve the greatest results. I wish him every success in 
working with other U.S. missions at the U.N. and like-minded nations to 
increase fiscal accountability in U.N. programs and strengthen the 
agencies' mission with the adoption of free market policies that would 
reduce the occurrence of nutritional emergencies in vulnerable aid-
recipient countries.
    I appreciate the opportunity to welcome David to this committee, 
and I urge the committee to act swiftly on his nomination to be the 
next the U.S. Representative to United Nations Agencies for Food and 
Agriculture.

    Senator Coons. Mr. Lane, I invite you to begin a series of 
four opening statements by our different nominees today, and I 
would encourage you to begin by introducing and recognizing 
your family.
    Mr. Lane.

   STATEMENT OF DAVID J. LANE, OF FLORIDA, TO SERVE AS U.S. 
  REPRESENTATIVE TO THE UNITED NATIONS AGENCIES FOR FOOD AND 
            AGRICULTURE, WITH THE RANK OF AMBASSADOR

    Mr. Lane. Thank you, Senator, and thank you, Mr. Ranking 
Member.
    I should say my four siblings and various nieces and 
nephews are here: Tom Lane, John Lane, Susan Davies, and Lisa 
Wright. And I am very grateful that they have been able to join 
me.
    First of all, I should probably say I have a longer 
statement, a longer presentation, which as you know, has been 
presented for the record. So I am going to try to keep this as 
brief as possible.
    I do want to thank Senator Nelson for those very kind 
words. I am very grateful for his generous introduction.
    And I am honored to be the President's nominee for the U.S. 
Representative to the U.N. Agencies for Food and Agriculture. I 
would like to thank President Obama and Secretary Clinton for 
the confidence they have shown in me through this nomination.
    I just pointed out that my four brothers and sisters are 
here and a few of my amazing nieces and nephews. In front of 
them, I would actually like to say a few words about our 
parents, George and Mary Lou Lane. They are too frail to travel 
to Washington, but I know they are proud that I am being 
considered for a position that can help the United States make 
a difference for millions of poor people around the world. They 
instilled in all of us a deep love of our country and a strong 
commitment to serve others. By their example, our parents 
taught us the true meaning of compassion, the importance of 
service, and the moral necessity of helping those who are less 
fortunate than we are. And I want to thank them for their 
primary role really in preparing me to serve my country in this 
important position, if confirmed by the Senate.
    If you do confirm me, I would consider it a great privilege 
to serve the American people in pursuit of goals that I know we 
all hold dear: alleviating hunger and helping the poor lift 
themselves out of poverty through agricultural development. The 
United States has many important interests before the U.N. Food 
Agencies in Rome, and I am eager to help protect and advance 
those interests.
    If confirmed, I am committed to helping the U.S. mission, 
which has representatives from the Department of State, the 
Department of Agriculture, USAID, advance our national 
interests in a whole-of-government approach while helping to 
make agriculture a major force for poverty alleviation and 
economic transformation around the world.
    The Food and Agriculture Organization, the World Food 
Programme, and the International Fund for Agricultural 
Development can and must play a critical role in continuing 
recent momentum behind food security. I believe now is the 
perfect time for these three important agencies to sharpen 
their focus, clarify their roles, and improve their 
coordination, and I am optimistic that the U.S. mission in Rome 
can work with these agencies and align priorities in such a way 
that U.S. policies and investments can have the galvanizing 
effect that we all hope to see.
    Mr. Chairman and Mr. Ranking Member, I know the fiscal 
challenge we face, which is why, if confirmed, I would work to 
ensure that U.S. taxpayer-provided resources are used to their 
fullest effect and in the most efficient way possible. 
Americans are the most generous donors in the fight against 
hunger and they deserve vigilance in making sure their tax 
dollars are well spent. If confirmed, I will work with the U.N. 
Food Agencies to ensure that every penny of U.S. taxpayer-
provided assistance is well spent and that we are doing our 
utmost to avoid costly emergencies in the future.
    I truly believe that there has never been a more important 
time for U.S. leadership on food and agriculture issues at the 
U.N. Agencies in Rome and around the world, and I would be 
honored to do my part to build on current momentum and help 
ensure that we make the most out of this historic opportunity.
    I thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Lane follows:]

                  Prepared Statement of David J. Lane

    Thank you, Mr. Chairman and distinguished members of the committee. 
And thank you, Senators Nelson and Rubio, for your kind introductions.
    I am honored to be the President's nominee for the United States 
Permanent Representative to the United Nations Agencies for Food and 
Agriculture. I would like to thank President Obama and Secretary 
Clinton for the confidence they have shown in nominating me for this 
important post.
    If confirmed by the Senate, I would consider it a great privilege 
to serve the American people in pursuit of goals I know we all hold 
dear: alleviating hunger and helping the world's poor lift themselves 
out of poverty through agricultural development. The United States has 
many important interests before the U.N. food and agriculture agencies 
in Rome, and I am eager to help protect and advance them. If confirmed, 
I am committed to helping the U.S. mission, which has representatives 
from the Department of State, USDA, and USAID, advance our national 
interest in a whole of government approach while helping to make 
agriculture a major force for poverty alleviation around the world.
    Mr. Chairman and distinguished members of the committee, I believe 
there has never been a more important time for U.S. leadership on food 
and agriculture issues within the U.N. agencies in Rome and around the 
world. This is a time of unprecedented progress in food and nutrition 
security, and I want to do my part to sustain the momentum and help 
ensure that we make the most out of our historic opportunity. At the 
same time, the ongoing lack of food security in regions like the Horn 
of Africa and the Sahel continues to drive instability and slow 
progress in the development of these areas. With both the opportunity 
for accelerated progress and lingering challenges in mind, I appreciate 
this opportunity to share my views on how I would contribute to the 
fight against hunger, if confirmed.
    I hope you will agree that my experience prepares me well for the 
responsibilities of the position for which I have been nominated. I 
have spent most of my career in nonprofit service, and from 2001 until 
2011 I worked to help develop and promote public policies focused on 
enabling the world's poor to lift themselves out of poverty.
    At the Bill & Melinda Gates Foundation I established and led the 
organization's East Coast office in Washington, DC, for 6 years. In 
this role, I initiated and managed our collaboration with many of the 
key actors in the global development field. After we concluded that 
mobilizing public support for smart policies could be as important as 
making smart programmatic investments, I led the Foundation's senior 
leadership team in designing and implementing policy advocacy 
strategies. I believe strongly in the importance of data-driven public 
policy, and this conviction shaped my approach while leading the Gates 
Foundation's policy advocacy work. Driven by the strong evidence that 
improved agricultural productivity can have a transformative impact on 
rural communities, the Foundation chose to make agriculture a top 
priority, and it continues to be a major force helping to improve lives 
in poor countries through improved agriculture.
    From 2007 until 2011, I was president and CEO of ONE, a nonpartisan 
global organization committed to mobilizing public support for 
effective development and humanitarian policies. While there, I 
constantly heard how important the fight against poverty is to people 
all over the world and from all walks of life. In my experience, 
Americans from across our society--students, businesspeople, members of 
diverse faith communities, Republicans, Democrats--strongly support 
effective
efforts--both in terms of cost and impact. Feeding the hungry is 
perhaps the most powerful charitable impulse of all. In every sector of 
development, people just want to know--and deserve to know--that the 
programs they support are making a difference. And they want to know 
that our focus is on creating long-term transformation and self-
reliance, not only addressing short-term suffering.
    I frequently traveled to Africa during my tenure at ONE. I saw for 
myself the critical linkages between agriculture and other aspects of 
economic and social development. These linkages confirmed my belief 
that smart policies and public investments from developed countries 
like ours must build on and work in concert with committed leadership 
from developing countries themselves. Without the two working in 
concert, investments will not be as effective or transformative.
    I am also proud of other roles I've been given the opportunity to 
play in my career, especially those in the Federal Government. I 
believe my experience as a policy analyst, manager, convener, 
negotiator, and integrator of different perspectives would help me 
fulfill your expectations for this role.
    In addition, I would like to acknowledge the primary importance of 
my family in preparing me to serve my country in this important 
position, should the Senate confirm me. My parents, George and Mary Lou 
Lane, instilled in me a deep love of my country and a strong commitment 
to serve others. They were unable to travel to Washington, DC, but I 
know they are proud that I'm being considered for a position that can 
help the United States make a difference for millions of people. I have 
four wonderful brothers and sisters and nine amazing nieces and 
nephews, some of whom are here today, and they will all tell you the 
same thing: my parents--by their example--taught us the true meaning of 
compassion, the importance of service, and the moral necessity of 
helping those who are less fortunate than we are.
    I am particularly pleased to join my colleagues today who have been 
nominated for posts in Africa. Although the U.N. food agencies are 
based in Rome, the focus of their work must be in the field, especially 
Africa, which remains both the region of greatest concern and a 
potential source of long-term solutions. As I'm sure my fellow 
panelists know better than I, Africa is the only continent where 
agricultural productivity has remained stagnant for the past 30 years. 
And yet, there are countries in Africa where agriculture is on the 
brink of taking off, responding to strong leadership, smart new 
policies, and increased investment. Many believe that if we apply key 
lessons learned from recent experience we can dramatically increase 
agricultural productivity in Africa in the coming decade. This may 
offer the best chance we have to help lift tens of millions out of 
poverty and chronic hunger.
    In recent years, leaders in both developing and developed countries 
have, in fact, reaffirmed the importance of agricultural development 
and prioritized it as an area of policy focus and investment. Recent 
government-led initiatives--The G8's L'Aquila Food Security Initiative, 
The Rome Principles for Sustainable Global Food Security, The AU's 
Comprehensive African Agriculture Development Program, the G20's Global 
Agriculture and Food Security Program--have given new momentum to the 
drive to feed the world's hungry and lift millions of smallholder 
farmers out of poverty, and these efforts are beginning to show 
results. And civil society/NGO initiatives have long played a critical 
role addressing food security. In fact, according to one estimate, in 
2008 U.S. NGOs that engaged in development work managed $11.8 billion 
in private contributions and gifts-in-kind resources.
    Seventy-five percent of the world's poor live in rural settings and 
are dependent on agriculture, and most of these are women tending small 
plots of land. Studies have shown that growth in agriculture is three-
to-six times more effective than growth in other sectors in raising the 
incomes of the very poor. The stakes are very high for getting this 
right, and I believe the U.N. food and agriculture agencies can play a 
vital role supporting and facilitating the transformation of 
agriculture around the world. At the end of the day, I am confident 
that the American people will support these efforts if they are having 
an impact in a cost effective way.
    I would like to say a few words about the U.N. food and agriculture 
agencies--the Food and Agriculture Organization, the World Food 
Programme, and the International Fund for Agricultural Development. I 
realize many of you approach these and other large multilateral 
organizations with a fair amount of skepticism, and I believe past 
inefficiencies and other shortcomings confirm that we should take a 
firm approach to reform and renewal--something that the mission in Rome 
is pursuing. But I also believe that these organizations are in a 
better position than they've been in a long time to pursue their 
missions effectively and efficiently and serve as reliable partners in 
combating hunger.
    These three agencies--with dynamic leadership and a renewed 
commitment to their important mandates--can and must play a critical 
role in continuing recent momentum behind food security. I believe now 
is the perfect time for these three agencies to sharpen their focus, 
clarify their roles, and improve their coordination, and I am very 
optimistic that the U.S. mission in Rome can work with these important 
agencies and align priorities in such a way that U.S. policies and 
investments have the shaping and even galvanizing influence we all hope 
to see.
    While I am eager for your guidance on how best to advance U.S. 
policies and priorities in Rome, there are several issues that I 
believe will be important areas of focus if I am confirmed:

    (1) Ensuring that the humanitarian responses of the multilateral 
agencies are effective and efficient, even in the most challenging 
circumstances, while fostering resilience so that affected populations 
emerge less vulnerable after emergencies with the goal of breaking the 
cycle of disaster and expensive relief.
    (2) Building on the progress that has been made on food security in 
the past few years by ensuring that these agencies promote increased 
investments--both public and private, with a special emphasis on 
recruiting new donors--in initiatives and projects that contribute to 
developing resiliency and transform rural economies while fighting 
poverty.
    (3) Ensuring that efforts to reform the Rome-based U.N. agencies 
result in modern institutions that reduce redundancies, and are agile 
and responsive as well as efficient and transparent.
    (4) Using all the modern tools of public diplomacy to ensure that 
the leadership of the United States and great generosity of the 
American people in support of food and nutrition security and 
agricultural development is well understood around the world. This 
message is critical in underscoring our commitment to international 
peace, security, and development and can contribute to freedom, the 
development of democracy, and the promotion of good governance and 
market principles worldwide.
    (5) Ensuring that all the important day-do-day work of the U.S. 
mission I've been nominated to lead--dealing with standards, norms, 
international agreements, etc.--is responsive to our national interests 
while generating positive results on the ground.

    The work of the U.S. mission to the food and agriculture agencies 
in Rome is only possible because of the generosity of the American 
people you represent and we all serve. The United States leadership in 
this space has been in no small part the result of the continued 
determination by the branches of the United States Government to 
promote food security internationally. For instance, the United States 
contributed approximately $1.428 billion to the World Food Programme in 
CY 2011, which alone made up 37 percent of WFP's budget. We were the 
single largest donor to the FAO in FY 2011, providing an assessed 
contribution of $111 million--22 percent of the assessed budget--and an 
additional $66.67 million to FAO in extra-budgetary funding, mostly for 
emergency programs. We are also the largest donor to IFAD, at $30 
million per year.
    Distinguished members of the committee, I am filled with pride when 
I think of the determination of the American people and the ability of 
the United States Government--the legislative and executive branches 
alike--to join together to fight hunger worldwide. Since the emergency 
broke out last year in the Horn of Africa, in which drought affected 
parts of Ethiopia, Kenya, and Djibouti and famine was declared in five 
regions of Somalia, the United States has responded with more than $1.1 
billion in life-saving assistance, reaching an estimated 4.5 million 
people, many of whom would have otherwise died from starvation or 
related disease. As the specter of crisis rises once again, this time 
in the Sahel, I am sure the American people will continue to be in the 
vanguard of fighting it there as well.
    As president of the G8 this year and host of the G8 summit taking 
place this weekend at Camp David, the United States has been working 
with its partners to focus on food and nutrition security in sub-
Saharan Africa. Building on the success of the 2009 G8 L'Aquila Food 
Security Initiative and the U.S. Feed the Future initiative, the G8 
effort will focus on continuing our commitments to the financial 
pledges made at L'Aquila and to following the Rome principles while 
also stimulating private investment in agriculture at all scales and 
across the agriculture value chain.
    Working together, the actions taken by African Governments, the AU, 
international partners, private investors, and civil society will 
substantially accelerate agricultural growth across the continent and 
help more than 50 million people emerge from poverty over the next 10 
years. We believe that collectively, we can achieve this goal based on 
strong evidence that investments in agriculture--including CAADP 
Country Investment Plans and G8 actions--will significantly spur 
agricultural growth. This will be accomplished by working with African 
leaders to increase private capital investments in African agriculture, 
take innovations that can enhance agricultural productivity to scale, 
and reduce the risk borne by vulnerable economies and communities. We 
know from history and experience that agriculture-led growth resulting 
from these types of actions, paying special attention to small-holder 
women farmers and to nutrition, is a powerful driver of broader 
economic growth and poverty reduction.
    Clearly there is a role for the U.N. Rome-based agencies in G8 food 
and nutrition security efforts, and, if confirmed, I will work to 
ensure that the agencies' contribution is effective, complementary, and 
appropriate to their strengths.
    Distinguished members of the committee, I know the fiscal 
challenges we face, which is why, if confirmed, I would work to ensure 
that U.S. taxpayer provided resources are used to their fullest and 
with the greatest possible efficiency.

    Senator Coons. Thank you so much, Mr. Lane.
    Mr. Alford.

STATEMENT OF EDWARD M. ALFORD, OF VIRGINIA, TO BE AMBASSADOR TO 
                   THE REPUBLIC OF THE GAMBIA

    Mr. Alford. Thank you, Senator.
    Mr. Chairman, Mr. Ranking Member, and members of the 
committee, I am honored to appear before you today. I wish to 
express my gratitude to the President and to the Secretary of 
State for the trust and confidence they have placed in me as 
the nominee for Ambassador to the Republic of The Gambia.
    I want to recognize my family, represented by my daughter, 
Sylvia, who is here to support me.
    As a U.S. Foreign Service officer for more than 33 years, I 
enjoyed assignments which provided a variety of experiences in 
11 different countries, including three assignments in Africa 
totaling almost 9 years. I have worked extensively with the 
interagency community, especially in recent assignments in 
Frankfurt and Baghdad. I have particularly enjoyed mentoring my 
younger colleagues and helping them develop their careers. If 
confirmed, I believe the variety of my experience and my record 
of leadership and fostering mission effectiveness and morale 
under often difficult circumstances, will enable me to carry 
out the duties and responsibilities of a U.S. Ambassador.
    The United States has a close and historic relationship 
with The Gambia which has embraced the role of the Peace Corps 
in the country since 1967. With 83 Volunteers in-country, the 
Peace Corps is the central component of our public diplomacy 
and U.S. development assistance. Last year, President Jammeh 
showed his gratitude for the Peace Corps by hosting the 
commemoration of the 50th anniversary of the Peace Corps and 
their 45 years in The Gambia.
    The United States has a small diplomatic footprint in 
Banjul, but we arguably have more leverage than any other 
Western country, thanks to our positive bilateral relationship 
and continuing Peace Corps presence.
    The U.S. Embassy closely followed the 2011 and 2012 
electoral processes and worked to support credible and 
independent media and political parties, as well as democratic 
processes. Despite shortcomings, the Presidential elections in 
November 2011 were adjudged free and fair by several 
international and domestic observation teams. While there was 
high voter turnout, several organizations expressed concern at 
the unlevel playing field for candidates in advance of the 
elections.
    Promoting human rights remains the top U.S. priority in The 
Gambia. The U.S. mission in Banjul maintains a close dialogue 
with the government and civil society on the human rights 
situation. Continued engagement with Gambian authorities on 
press freedom and civil liberties will constitute a central 
piece of our bilateral relationship.
    If confirmed, I will continue our economic and regional 
security partnership with The Gambia. Through The Gambia's 
contributions to peacekeeping missions, we have enjoyed a 
steadfast partnership in efforts to promote regional stability. 
The Gambia also plays a positive role in counternarcotics in 
the region, and sustaining these efforts, along with enhancing 
the country's maritime security capacity, is another focus of 
our diplomacy.
    The U.S. Embassy must continue to work with the government 
and private sector to facilitate the growth of the tourism 
industry and the export of several commodities, including 
apparel and fish to the United States under the African Growth 
and Opportunity Act.
    U.S. staffing in Banjul consists of 13 Embassy officials 
and two Peace Corps American staff. If confirmed, I would make 
my top concern the safety and security of the nearly 2,000 U.S. 
citizens in The Gambia, half of whom at any time are tourists.
    Thank you, Mr. Chairman, for the opportunity to appear 
today. I would be pleased to respond to your questions.
    [The prepared statement of Mr. Alford follows:]

                 Prepared Statement of Edward M. Alford

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I wish to express my gratitude to the President and 
Secretary of State for the trust and confidence they have placed in me 
as their nominee for Ambassador to the Republic of The Gambia. I want 
to recognize my family, represented by my daughter, Sylvia, who is here 
to support me.
    As a U.S. Foreign Service officer for more than 33 years, I enjoyed 
assignments which provided a variety of experiences in 11 different 
countries including three assignments in Africa totaling almost 9 
years. I have worked extensively with the interagency community, 
especially in recent assignments in Frankfurt and Baghdad. I have 
particularly enjoyed mentoring my younger colleagues and helping them 
develop their careers. If confirmed, I believe the variety of my 
experience and my record of leadership in fostering mission 
effectiveness and morale under often difficult circumstances will 
enable me to carry out the duties and responsibilities of a U.S. 
Ambassador.
    The United States has a close and historic relationship with 
Gambians, who have embraced the role of the Peace Corps in their 
country since 1967. With 83 Volunteers in country, the Peace Corps is 
the central component of our public diplomacy and U.S. development 
assistance. Last year, President Jammeh showed his gratitude for the 
Peace Corps by hosting the Golden Jubilee, which commemorated the 50th 
anniversary of the Peace Corps and their 45 years in The Gambia. The 
United States has a small diplomatic footprint in Banjul, but we 
arguably have more leverage than any other Western country thanks to 
our positive bilateral relationship and continuing Peace Corps 
presence.
    The U.S. Embassy closely followed the 2011 and 2012 electoral 
processes and worked to support credible, independent media and 
political parties, as well as democratic practices. Despite 
shortcomings, the Presidential elections in November 2011 were judged 
free and fair by several international and domestic observation teams. 
While there was high voter turnout, several organizations expressed 
concern at the ``unlevel playing field'' for candidates in advance of 
the elections. The March 2012 parliamentary elections were also deemed 
generally peaceful and fair, but opposition parties boycotted the 
election, leaving them with only 5 of the 48 elected seats in 
Parliament.
    Promoting human rights remains the top U.S. priority in The Gambia. 
The U.S. mission in Banjul maintains a close dialogue with the 
government and civil society on the human rights situation. The Gambia 
has taken significant steps to address trafficking in persons through 
enforcement of legislation and the rescue and rehabilitation of 
victims. Continued engagement with Gambian authorities on press freedom 
and civil liberties will constitute a central piece of our bilateral 
relationship.
    If confirmed, I will continue our economic and regional security 
partnership with the Gambia. Through The Gambia's contributions to 
peacekeeping missions, we have enjoyed a steadfast partnership in 
efforts to promote regional stability. The Gambia also plays a positive 
role in counter narcotics in the region and sustaining these efforts 
along with enhancing the country's maritime security capacity is 
another important focus of our diplomacy.
    The U.S. Embassy must continue to work with the government and 
private sector to facilitate the growth of the tourism industry and the 
export of several commodities including apparel and fisheries to the 
United States under the African Growth and Opportunity Act.
    U.S. staffing in Banjul consists of 13 Embassy officials and two 
Peace Corps American staff. If confirmed, I would make my top concern 
the safety and security of nearly 2,000 U.S. Citizens in The Gambia, 
half of whom at any time are tourists.

    Senator Coons. Thank you so much, Mr. Alford.
    I now turn to Mr. Asquino.

        STATEMENT OF MARK L. ASQUINO, OF THE DISTRICT OF
COLUMBIA, TO BE AMBASSADOR TO THE REPUBLIC OF EQUATORIAL GUINEA

    Mr. Asquino. Thank you, Chairman Coons, Ranking Member 
Isakson. It is a great honor for me to appear before you this 
afternoon as the nominee to be the next U.S. Ambassador to the 
Republic of Equatorial Guinea. I am grateful for the confidence 
that President Obama and Secretary Clinton have placed in me, 
as well as for the support of Assistant Secretary of State 
Carson. If confirmed by the Senate, I will do my best to uphold 
this trust.
    Mr. Chairman, please allow me to introduce my wife, Jane. 
She is here today. We met and were married almost 2 decades ago 
in Bucharest, Romania. Jane has been with me ever since then. I 
have been incredibly fortunate to have had her accompany, 
support, and inspire me in often difficult and dangerous 
postings.
    Mr. Chairman, I have spent more than three decades as a 
Foreign Service officer, serving in Latin America, Europe, 
Asia, and Africa. Presently I am the Executive Assistant and 
Chief of Staff in the Office of the Under Secretary for 
Civilian Security, Democracy, and Human Rights. There I 
supervise a staff of 18 employees who work on these crucial 
issues.
    I have served in countries including Spain and Romania, 
which were in transition to democracy, as well as in oil-rich 
nations such as Kazakhstan and Sudan. The knowledge and 
experience I have gained in such postings have resulted in my 
deep commitment to advancing democracy, human rights, and 
transparency.
    Today I would like to speak to you briefly about the three 
major U.S. foreign policy issues that form the cornerstone of 
our bilateral relationship with Equatorial Guinea.
    The first is good governance and democracy. Although 
Equatorial Guinea is nominally a multparty constitutional 
republic, President Obiang's party controls all but one seat in 
the 100-member legislature. Equatorial Guinea is the third-
largest producer of oil in sub-Saharan Africa, and has one of 
the continent's highest per capita income rates. Despite this, 
much of the population lives below the poverty level. Official 
corruption is widespread in a country that needs to spend more 
on the health and educational needs of its citizens.
    Equatorial Guinea was unsuccessful in meeting the 
requirements to join the Extractive Industries Transparency 
Initiative, or EITI. However, it is considering applying again, 
and we support that action. Meeting the conditions to become an 
EITI candidate would be one positive signal by the Government 
of the Republic of Equatorial Guinea, or the GREG, that it 
intends to improve its fiscal transparency through revenue 
reporting.
    The GREG is investing in major public works projects that 
are improving infrastructure. It is also funding public health 
programs that have lowered infant mortality and drastically 
reduced the incidence of malaria. These are encouraging steps, 
and if confirmed, I will urge the GREG to devote more attention 
to transparency and governance and continue to invest in its 
people.
    The second issue is the protection of human rights. In 2010 
and 2011, following urgings from the United States and the 
international community, the GREG released a significant number 
of political prisoners. The GREG in recent years has also made 
modest progress in prison conditions and in human rights 
training for security forces.
    While Equatorial Guinea has taken measured actions to 
improve its human rights record, major problems remain. These 
include arbitrary arrests, restrictions on freedom of the 
press, assembly, and association. Since the 2008 visit of the 
U.N. Special Rapporteur for Torture at the invitation of the 
GREG, Equatorial Guinea has partnered with the International 
Committee of the Red Cross, or the ICRC, to speak out against 
torture and call for the prosecution of human rights abusers. 
One notable advance, the 2011 signing of a residency agreement 
between the ICRC and the GREG, culminated this year with the 
opening of the ICRC's fully functioning office in Malabo.
    In addition, the GREG recently announced it will revive the 
Interagency Commission on Trafficking in Persons. The 
government deserves credit for these actions, but Equatorial 
Guinea must do more to promote respect for human rights and 
also for transparency.
    The third issue, briefly, is U.S. national security and 
access to energy resources. With close to $14 billion invested 
in Equatorial Guinea, United States oil companies are that 
country's largest investors, and they have the lead role in oil 
and gas exploration and extraction. The United States presently 
imports approximately 12 percent of its oil from African 
nations in the Gulf of Guinea. For this reason, we have an 
abiding interest in the security of this zone.
    If confirmed, I will focus on these three issues--
governance, human rights, and national security--and I will 
give them my utmost energy and attention. I promise to work 
closely with you and the members of this committee.
    I thank you very much for the opportunity to speak with you 
this afternoon, and I welcome your questions.
    [The prepared statement of Mr. Asquino follows:]

                 Prepared Statement of Mark L. Asquino

    Chairman Coons, Ranking Member Isakson, members of the committee, 
it is a great honor for me to appear before you this afternoon as the 
nominee to be the next United States Ambassador to the Republic of 
Equatorial Guinea. I am grateful for the confidence that President 
Obama and Secretary of State Clinton have placed in me as well as for 
the support of Assistant Secretary of State for African Affairs Carson. 
If confirmed by the Senate, I will do my best to uphold this trust.
    Mr. Chairman, please allow me to introduce my wife, Jane, who is 
here today. We met and were married almost two decades ago in 
Bucharest, Romania. Jane was there as a Peace Corps Volunteer, and I 
was serving at the U.S. Embassy. Since then, I have been incredibly 
fortunate to have had Jane accompany, support, and inspire me, often in 
difficult and dangerous postings.
    Mr. Chairman, I have spent more than three decades as a career 
Foreign Service officer, serving in Latin America, Europe, Asia, and 
Africa. Presently, I am the Executive Assistant and Chief of Staff in 
the Office of the Under Secretary for Civilian Security, Democracy, and 
Human Rights. There I supervise a staff of 18 foreign and civil service 
employees who work on these crucial issues. I have served in countries 
including Spain and Romania, which were in transition to democracy, as 
well as in oil rich nations such as Kazakhstan and Sudan. During my 
most recent overseas assignment as deputy chief of mission in Khartoum, 
I focused on human rights abuses in Sudan. The knowledge and experience 
I've gained in such postings have resulted in my deep commitment to 
advancing democracy, human rights, and transparency.
    Today I would like to speak to you briefly about the three major 
U.S. foreign policy issues that form the cornerstone of our bilateral 
relationship with Equatorial Guinea.
    The first issue is good governance and democracy. Equatorial 
Guinea, with a population of fewer than 1 million people, is located in 
west central Africa's Gulf of Guinea. Although the country is nominally 
a multiparty, constitutional republic, President Obiang Nguema's 
Democratic Party of Equatorial Guinea controls all but one seat in the 
100-member legislature. Equatorial Guinea is the third-largest producer 
of oil in sub-Saharan Africa, and has one of the highest per capita 
income rates in Africa. Despite this, much of its population lives 
below the poverty level; and official corruption is widespread, in a 
country that needs to spend more on the health and educational needs of 
its citizens.
    Equatorial Guinea was unsuccessful in meeting the requirements to 
become compliant with the Extractive Industries Transparency Initiative 
(EITI). However, it is considering applying once again, and we are 
encouraging this action. Meeting the conditions to become an EITI 
candidate country would be one positive signal by the Government of the 
Republic of Equatorial Guinea (or, GREG) that it intends to improve its 
fiscal transparency through revenue reporting.
    In regard to the welfare of its people, the GREG has invested in 
major public works projects that are improving the country's 
infrastructure, and it is also funding public health programs that have 
lowered the infant mortality rate and dramatically reduced the 
incidence of malaria. These are encouraging steps, and if confirmed, I 
will urge the GREG to devote more attention to transparency and 
governance and continue to invest in its people.
    The second issue is the protection of human rights. In 2010 and 
2011, following calls from the United States and the international 
community, the GREG released a significant number of its political 
prisoners. The GREG in recent years has also made modest progress in 
improving prison conditions and providing human rights training for its 
security forces.
    While Equatorial Guinea has taken measured actions to improve its 
human rights record, major problems remain. These include arbitrary 
arrests, and restrictions on freedom of the press, assembly, and 
association. Since the 2008 visit of the U.N. Special Rapporteur for 
Torture, at the invitation of the GREG, Equatorial Guinea has partnered 
with the International Committee of the Red Cross (ICRC) to speak out 
against torture and call for the prosecution of human rights abusers. 
One notable advance, the 2011 signing of a residency agreement between 
the ICRC and the GREG, culminated this year with the opening of ICRC's 
fully functioning and fully staffed office in Malabo.
    In addition, the GREG has announced it will revive the Interagency 
Commission on Trafficking in Persons created to enforce its 2004 
Trafficking in Persons Law. The government has requested Embassy 
Malabo's technical assistance on how best to structure the commission. 
This is the first time in recent history that the GREG has taken the 
initiative to request assistance to prevent human trafficking, which is 
a major problem in Equatorial Guinea. The government deserves credit 
for such positive actions, but Equatorial Guinea must do more to 
promote respect for human rights.
    The third issue is U.S. national security, especially access to 
energy resources. During 2003-2006, I served as deputy chief of mission 
at the U.S. Embassy in Kazakhstan. There I worked to protect the 
commercial interests of U.S. oil companies that were major oil 
consortium partners. With close to $14 billion invested in Equatorial 
Guinea, U.S. oil companies are Equatorial Guinea's largest investors, 
and they have the lead role in oil and gas exploration and extraction. 
The United States presently imports approximately 12 percent of its oil 
from African nations in the Gulf of Guinea. For this reason, our 
country has an abiding interest in the maritime security of this vital, 
economic zone.
    If confirmed, I will focus on this issue, as well as on the 
security and well-being of the 500 U.S. oil company employees and other 
American citizens in Equatorial Guinea. I will also be a strong 
advocate for U.S. commercial interests.
    Mr. Chairman, if confirmed, I will give these three issues, 
governance, human rights, and national security interests, my utmost 
personal attention and energy. While our dialogue and engagement with 
Equatorial Guinea needs to respect its sovereignty and traditions, we 
also must be frank in discussing our concerns in each of these areas. 
If confirmed, I promise to work closely with you and the members of 
this committee.

    Senator Coons. Thank you.
    Mr. Griffiths.

 STATEMENT OF DOUGLAS M. GRIFFITHS, OF TEXAS, TO BE AMBASSADOR 
                 TO THE REPUBLIC OF MOZAMBIQUE

    Mr. Griffiths. Thank you, Mr. Chairman and Ranking Member 
Isakson. It is an honor to appear before you today as President 
Obama's nominee to be Ambassador to the Republic of Mozambique. 
I am grateful to the President and Secretary Clinton for the 
confidence they have placed in me as their nominee.
    I am also thankful for the enduring support of my wife, 
Alicia, and our two daughters. Through evacuations, 
earthquakes, gunfire, and floods, they have been enthusiastic 
and adventurous partners in public service. It is finals week, 
so they were not able to travel to be with me, but I expect 
through the wonders of Internet, they are here virtually with 
me, and they are represented by our dear friends and the 
godparents of our children, John and Betty Shippe.
    In my 24 years in the Foreign Service, I have served in 
Canada, Portugal, Mozambique, Morocco, Switzerland, Haiti, and 
Ecuador, gaining broad geographic exposure and solid experience 
in management, trade, and the promotion of good governance. 
While working in the Africa Bureau at the State Department, I 
covered economic issues across Southern Africa. In Haiti, 
Ecuador, and Geneva, I had the privilege to serve as charge 
d'affaires for extended periods. Mr. Chairman, I believe that 
my current position as Deputy Permanent Representative at the 
U.S. mission to the United Nations in Geneva where we engage 
daily on public health, economic development, and humanitarian 
relief is excellent preparation to serve as American Ambassador 
to Mozambique.
    Mr. Chairman, if confirmed, I look forward to working with 
you and the honorable members of this committee to advance 
American interests in Mozambique. Following three decades of 
conflict, Mozambique has enjoyed peace and stability since the 
early 1990s. We commend Mozambique on its progress over the 
past two decades and on its more recent steps in addressing 
governance concerns since the 2009 elections. As development 
depends on good governance and a strong civil society, if 
confirmed, my top priority will be to work alongside the 
Mozambican people to continue to strengthen democracy and 
governance.
    In recent years, Mozambique's economic growth has 
consistently been among the highest in sub-Saharan Africa, 
averaging 6 to 8 percent per year. However, despite this 
sustained growth and the quadrupling of gross domestic product 
since 1992, the majority of Mozambique's 23 million people 
still live below the poverty line. Mr. Chairman, if confirmed, 
I will support growth-oriented policies to foster job creation 
and poverty reduction, while stimulating broad-based economic 
growth. I will also aggressively identify and pursue every 
opportunity for American firms.
    Sound economic policies and transparent governance will be 
increasingly important in Mozambique as the country is poised 
to experience a boom in natural resource revenue in the coming 
years from recently discovered natural gas and newly developed 
coal deposits. For this reason, Mr. Chairman, if confirmed, I 
will champion U.S. Government efforts that support sustainable 
economic growth throughout Mozambique with a focus on the 
poorest areas of the country.
    The United States Government is helping Mozambicans boost 
the productivity of key crops, reform their agricultural 
policy, and improve maternal and child nutrition, with the 
ultimate goal of sustainably reducing hunger and poverty. The 
$506.9 million Millennium Challenge Corporation Compact is 
focused on road construction, water projects, and the land 
tenure system.
    The United States directs the bulk of our assistance to 
improving the health of Mozambicans. The President's Emergency 
Plan for AIDS Relief, the President's Malaria Initiative, the 
Global Health Initiative, and the Peace Corps are working 
jointly toward this goal. If confirmed, I will advance our 
vision of creating an AIDS-free generation by reducing the 
transmission of HIV/AIDS, boosting the percentage of HIV-
positive Mozambicans on treatment, and encouraging the 
Mozambican Government to commit more of its own resources to 
improving the health of its people.
    Mozambique and the United States share a strong common 
interest in promoting regional stability. Mozambique will 
assume the Presidency of the Southern African Development 
Community this August, significantly elevating its role in 
promoting regional stability and economic integration. Securing 
the country's long land borders and coastline are indispensible 
to economic development in Mozambique and the region at large. 
Facilitating the legal flow of goods, services, and people is a 
major driver for economic growth, but it must be coupled with 
sustained efforts to curb maritime piracy and illegal trade 
flows. I will, if confirmed, build upon our partnership with 
the Mozambican authorities to promote regional maritime and 
border security.
    Mr. Chairman and members of the committee, I want to thank 
you for the privilege of appearing before you today. If 
confirmed, I welcome the challenge of protecting and advancing 
American interests in Mozambique and accept the corresponding 
responsibilities of that duty.
    I would be happy to answer any questions you might have. 
Thank you.
    [The prepared statement of Mr. Griffiths follows:]

               Prepared Statement of Douglas M. Griffiths

    Mr. Chairman and members of the committee, it is an honor for me to 
appear before you today as President Obama's nominee to be Ambassador 
to the Republic of Mozambique. I am grateful to the President and 
Secretary Clinton for the confidence they have placed in me as their 
nominee. I am also thankful for the enduring support of my wife, 
Alicia, and my two daughters. Through evacuations, earthquakes, gunfire 
and floods they have been enthusiastic and adventurous partners in 
public service.
    In my 24 years in the Foreign Service, I have served in countries 
of vastly different economic and social circumstances. Through postings 
in Canada, Portugal, Mozambique, Morocco, Switzerland, Haiti, and 
Ecuador I have gained broad geographic exposure and solid experience in 
management, trade, and the promotion of good governance. I also worked 
in the Office of Southern African Affairs at the State Department, 
gaining invaluable insight into regional issues. In Haiti, Ecuador, and 
Geneva, I have had the opportunity to serve as charge d'affaires, a.i. 
for extended periods. Mr. Chairman, I believe that my current position 
as Deputy Permanent Representative at the U.S. Mission to the United 
Nations and Other International Organizations in Geneva, where we 
engage daily on public health, economic development, and humanitarian 
relief, is excellent preparation to serve as American Ambassador to 
Mozambique.
    Mr. Chairman, if confirmed, I look forward to working with you and 
the honorable members of this committee to advance U.S. interests in 
Mozambique. Following three decades of conflict, Mozambique has enjoyed 
peace and stability since the early 1990s. We commend Mozambique on its 
overall progress over the past two decades and on its more recent steps 
in addressing governance concerns since the 2009 elections. The 
upcoming 2014 Presidential and parliamentary elections will be key 
barometers of democratic freedoms. As development depends on good 
governance, if confirmed, my top priority will be to work alongside the 
Mozambican people to continue to strengthen democracy and governance in 
advance of these elections.
    Mozambique's economic growth has consistently been among the 
highest in sub-Saharan Africa in recent years, averaging 6 to 8 
percent. However, despite this sustained growth and the quadrupling of 
Gross Domestic Product since 1992, the majority of Mozambique's 23 
million people live below the poverty line, some well below that line. 
Mr. Chairman, if confirmed, I will support growth-oriented policies to 
foster job creation and poverty reduction, while stimulating broad-
based economic growth. I will also aggressively identify and pursue 
every opportunity for American firms.
    Sound economic policies and transparent governance will be 
increasingly important in Mozambique as the country is poised to 
experience a boom in natural resource revenue in the coming years from 
recently discovered natural gas and newly developed coal deposits. For 
this reason, Mr. Chairman, if confirmed, I will champion U.S. 
Government efforts that support sustainable economic growth throughout 
Mozambique, including the poorest areas of the country. The U.S. 
Government is helping Mozambicans to boost the productivity of key 
crops, improve their agricultural policy, and improve maternal and 
child nutrition, with the ultimate goal of sustainably reducing hunger 
and poverty. The $506.9 million Millennium Challenge Corporation (MCC) 
Compact is focused on road construction, water systems, and 
modernization of the land tenure system.
    As the largest bilateral donor to Mozambique, the United States 
directs the bulk of our assistance to improving the health of 
Mozambicans. The President's Emergency Plan for AIDS Relief, the 
President's Malaria Initiative, the Global Health Initiative, and the 
Peace Corps are all working toward this goal. If confirmed, I will 
advance our vision of creating an AIDS-free generation by reducing the 
transmission of HIV/AIDS, boosting the percentage of HIV-positive 
Mozambicans on treatment and encouraging the Mozambican Government to 
commit more of its own resources to improving the health of its people.
    Mozambique and the United States share a strong common interest in 
promoting regional stability. Mozambique will assume the Presidency of 
the Southern African Development Community in August 2012, 
significantly elevating its role in promoting regional stability and 
economic integration. Securing the country's long land borders and 
coastline are indispensable to economic development in Mozambique and 
the region at large. Facilitating the legal flow of goods, services and 
people is a major driver for economic growth, but it must be coupled 
with sustained efforts to curb maritime piracy and illegal trade flows. 
I will, if confirmed, build upon our partnership with the Mozambican 
authorities to promote regional maritime and border security.
    Mr. Chairman and members of the committee, I want to thank you for 
the privilege of appearing before you today. If confirmed, I welcome 
the challenge of protecting and advancing the interests of the United 
States in Mozambique and accept the corresponding responsibilities of 
that duty.

    Senator Coons. Thank you, Mr. Griffiths, and thank you to 
our whole panel.
    You have attracted, Mr. Lane, interest and support from a 
wide range of acquaintances of mine from Max Finberg and John 
Doerr, who both send their best, to Dr. Raj Shah, Administrator 
of the USAID, who has joined us in the back. There are very 
exciting developments over the next few days that Dr. Shah and 
I have been in communication about that I know all of us are 
eager to hear more about.
    So let me begin, if I could, a first round of questioning 
by focusing on food and agriculture and food security across 
the whole panel.
    First, if I might, Mr. Lane, in a difficult international 
financial environment and because Dr. Shah is here, how should 
the United States and other G8 members, given the impending 
conversations, approach the issue of global food security? And 
as the largest contributor to the Food and Agricultural 
Organization, World Food Programme, International Fund for 
Agricultural Development, what factors should we be seeking as 
we try and balance building long-term resilience in food 
security against emergency humanitarian needs?
    Mr. Lane. Senator, thank you. And I want to thank Dr. Shah 
for coming. I am pleasantly surprised that he is here.
    It has been estimated that by the year 2050, the world 
population will be 9 billion people and that agricultural 
productivity will have to increase by somewhere between 50 to 
maybe 70 percent in order to meet the world's needs for food. 
You mentioned the resource constraint that we face, the fiscal 
constraint. We cannot get there from here in terms of donor 
country providing the investment that is going to be necessary 
to achieve those kinds of productivity gains. It is going to be 
important for especially developing countries themselves to 
step forward with their own prioritization of agriculture 
investment but also for the private sector.
    And it is not my place to preview the G8 initiatives of the 
next couple days. I have, as a nominee, been asked to stay out 
of those things. But perhaps Raj would like to come up and 
elaborate. [Laughter.]
    But I think it is fair to say that the foundation was set 
at the Locula summit for public investment. There was, I think, 
a $22 billion donor, G8 and other wealthy country commitment 
and a 
commitment that this Senate and Congress has supported by 
the United States of $3.5 billion that I think is starting to 
show benefits.
    But the really, to me, very important part that I saw from 
my time at the Gates Foundation and from ONE is country-owned 
plans and country leadership, and that those countries are now 
starting to step up. And I think in my role in Rome, it is 
going to be important for me to work with my counterparts to be 
sure that they are doing their part to meet their own targets 
of 10 percent budget for agriculture spending, which is part of 
the Maputo targets, but even more importantly, the private 
sector investment that is going to be necessary to transform 
agriculture. And I have a feeling, a strong sense honestly that 
in the next few days that we are going to be hearing much more 
about the private sector side of agricultural development, and 
I think that is really going to be necessary to get done what 
we need done.
    Senator Coons. Thank you, Mr. Lane.
    If we might, the countries of The Gambia and Equatorial 
Guinea, both relatively small countries, but one is, Equatorial 
Guinea, resource-rich. In both cases, they need to strengthen 
the priority of their focus on meeting basic human needs and on 
agriculture. And Mozambique, a very large country, with a lot 
of potential in terms of arable land--the targets you 
referenced were established in Maputo.
    If you might each in turn just speak to how AGOA has or has 
not been used successfully by the country to which you have 
been nominated to serve as an Ambassador, in what sectors other 
than natural resources, extractive industries we might see some 
private sector investment from the United States, and in 
particular, how we might prioritize food security going forward 
in each of your respective countries.
    Mr. Alford.
    Mr. Alford. Thank you for the question, Senator.
    Food security in The Gambia depends very much year-to-year 
on the crop. Eighty percent of the people are involved in 
agriculture, although agriculture is only 38 percent of the 
GNP. I am pleased to note that our Peace Corps is involved in 
increasing the productivity there. USAID, working with the 
University of Rhode Island and with the World Wildlife 
Foundation, is working to improve fisheries. And the U.S. 
Department of Agriculture has a project to improve cashew 
production, and that is a combined project with Senegal and The 
Gambia.
    That being said, since 2008, The Gambia's exports have been 
limited to clothing and fisheries. And there may be other 
sectors in the future, primarily agricultural-based sectors 
where we could increase exports. Industry there is minimal now. 
Our exports to the country are about $30 million a year and we 
import less than $1 million a year. So the scope for increasing 
the imports there but primarily agriculture, fisheries, and of 
course tourism is a big, big industry there, primarily European 
tourists but a lot of Americans go there too.
    Senator Coons. Thank you, Mr. Alford.
    Mr. Asquino. Are there sectors other than oil and gas that 
might be attractive for U.S. investment and how does food 
security play into the future for Equatorial Guinea?
    Mr. Asquino. Thank you very much for the question, Senator.
    As you noted, Equatorial Guinea is a very small country. It 
has less than a million people. And yet, it is not independent 
in terms of food production. Only 2.2 percent of this GDP comes 
from agricultural production. And yet, if you look at the 
history of the country, in 1968 when it became independent from 
Spain, it was a major producer of cocoa, and it had a thriving 
agricultural sector.
    So I think to answer your question, AGOA is not running a 
program in Equatorial Guinea and we do not have USAID programs 
there. But there is great interest, including from U.S. 
companies, in developing the agricultural sector. The Chinese 
as well have been involved in various projects. And I really do 
feel that this is an area where Equatorial Guinea can improve 
its production. Almost everything right now is imported. 
Inflation runs at 9 or 10 percent every year. So this makes it 
very hard for the people of that country, and because of that, 
you have nutritional issues as well that are raised.
    So if I were confirmed, sir, I certainly would focus on 
agricultural investment. I think it is an area where we can, 
and we should, be doing more in Equatorial Guinea. Thank you.
    Senator Coons. Thank you.
    Mr. Griffiths, Mozambique is an enormous country with lots 
of natural resources. What is the prospect for food security? 
They are an MCC compact partner. What are the major areas of 
investment or activity in Feed the Future and in other 
agricultural sectors?
    Mr. Griffiths. Great. Thank you, Senator, for the question.
    And I fully agree that for Mozambique, this is one of the 
most important issues, and if confirmed, it is something that I 
will devote a lot of attention to.
    As in The Gambia, 80 percent of Mozambicans work in the 
agriculture sector. Yet, it only makes up 29 percent of GDP. So 
Feed the Future is the centerpiece very much for U.S. 
Government engagement in this process, and we have already had 
some successes and I think we will continue to have more.
    You were talking about, or Mr. Lane was talking about, 
private sector investment, and we have an example in 
Mozambique, an American investor. He is working on agricultural 
extension products and in helping families with crop rotation 
and with growing food crops interspersed with cash crops like 
tobacco that are having an impact. I think we also have to note 
the importance of Mozambique to regional food security. 
Transport corridors to landlocked countries pass through 
Mozambique. So it is important that we focus on these issues.
    As to AGOA, they have not made significant use of it. I 
would like to highlight two areas. One is cashews where USAID 
has worked for a long time in helping Mozambicans take 
advantage of processing cashews. They are not sending out raw 
nuts. And the second is the Embassy has been very engaged in 
working with Mozambique to get turtle excluder devices into 
their fisheries so that shrimp can be exported to the United 
States.
    Thank you.
    Senator Coons. I will turn it over to my friend, Senator 
Isakson, and note that both of us come from States with long 
and broad experience in poultry both in the science of poultry 
and in the export of poultry. And so if there is any way we 
could be helpful as to the respective countries you will be 
serving in, we would be happy to be drawn upon as a resource.
    Senator Isakson.
    Senator Isakson. Well, thank you, Senator Coons.
    Each of you made very positive remarks, which I am going to 
try and refer to and your awareness of some of the important 
roles that you are going to have in the next couple years.
    Starting with you, Mr. Lane, you made an acknowledgment of 
the American taxpayers need accountability in terms of U.S. 
funds that go into food programs and U.N. programs. As you 
probably are aware--I can speak for myself; I cannot speak for 
Senator Coons--but in our part of the world in the southern 
United States, there has been a growing resentment for the 
amount of disproportionate funding of the U.N. that the United 
States does through its dues. Now, that is not my statement, 
but that is a statement that I deal with.
    In terms of U.N. food programs and the three agencies 
within the U.N.--I think you said there were three--who deal 
with food, what percentage of the cost of that food does the 
U.S. taxpayer pay?
    Mr. Lane. Sir, as you have indicated in a very good 
question, we are the leading funder of all three. In the case 
of the World Food Programme, which is a voluntary set of 
contributions as opposed to an assessment, usually based on 
need, usually based on campaigns for emergency food relief, 
this year, in the current year, it is estimated that we will be 
37 percent of global funding to the WFP. The FAO slightly less, 
and 22 percent of the assessed amount plus different amounts 
depending on particular programmatic requirements. It can vary. 
And in the case of the International Fund for Agricultural 
Development, it is $30 million a year which I think is 11 or 12 
percent, but still significant and the leading amount. So it is 
quite significant.
    I take it as one of my important responsibilities, if I am 
confirmed, is to try to leverage our contribution to be sure 
that other donor countries are doing their part and to be sure 
that developing countries themselves are starting to take 
responsibility for their own food assistance.
    Senator Isakson. I was recently in Uganda, and I was asked 
the question by an NGO with reference to funding of the foreign 
affairs budget, what was going to be the top priority. I said, 
you know, the foreign affairs budget and the United States aid 
overseas is going to go from a compassion-driven appropriation 
to a politically driven appropriation. And I do not mean that 
in a crass way, but I mean it in a way that I think the 
American people are looking for our programs to do more than 
just feed the people for a day, but help to teach them to feed 
themselves for a lifetime.
    I am wondering if you had any ideas on taking that concept 
and making it a part or a contingency of the United States 
contribution.
    Mr. Lane. I do, sir, and I appreciate very much the 
question. In fact, I feel badly that Senator Coons has left 
because he mentioned this term ``resiliency,'' which is a new 
and emerging concept in food policy which I think is extremely 
important.
    Just if I can take a step back, the WFP provides 
humanitarian and emergency relief in situations of conflict or 
emergency disaster. The FAO has a different mission which is 
more focused on agricultural development, sharing of 
information, best practices so that countries can develop their 
agricultural sectors and ultimately transform their economies 
through economic growth. And I am sure you know, sir, that 
agricultural productivity is one of the most effective areas of 
economic growth as a stimulus for growth across the economy.
    While, on the one hand, my mission in many ways is to keep 
the different agencies sticking to their knitting and 
responsible to their own areas of responsibility, the blend 
between emergency response and development is this concept 
called resiliency, which is becoming much more important. and I 
think Dr. Shah, Gail Smith from the White House, a number of 
others, were in East Africa just this spring where they 
launched a new initiative with other international donors 
focused on this concept.
    So the idea is when we go in, in the case, for instance, of 
Somalia to help feed people in a dire situation, are we doing 
everything we can from a joint planning point of view and from 
a programmatic point of view to prepare for the recovery and 
averting a disaster and the next disaster. And there are things 
we can do. There are tools we have in terms of livestock 
preservation, vaccination, getting livestock to safety, crop 
insurance, drought resistant seeds, water management that can 
be much more effective because I think from a cost-effective 
point of view, as you have indicated, it is the disaster in 
humanitarian relief which is the most expensive and is giving a 
man a fish as opposed to helping a man to learn to fish. And I 
think making this transition will be very important.
    Senator Isakson. Well, I want you to understand clearly 
that I am well aware of some of our food security and our food 
effort go to countries where we have displaced individuals in a 
host country who have left a place like Somalia or southern 
Sudan or someplace like that.
    But I do think everywhere the American people can be aware 
that there is a contingency tie--I think Mr. Alford referred to 
country-owned plans where we can have a part of that be a part 
of our mission. We want to feed the people that are hungry, but 
we also want to help the countries to develop agricultural 
programs where it will lessen the pressure on the American 
taxpayer and improve the plight of that African country.
    So you recognized this in your remarks. I wanted to 
accentuate the importance of doing that.
    And I will go to Mr. Alford for a minute. I think we are 
going to do a second round anyway.
    And I appreciate your mentioning AGOA. For all of your 
benefit, the chairman and I offered an amendment to the bill we 
passed earlier this week on the EXIM Bank, which we did not 
call up, but we did it to send the signal that America needs to 
renew the AGOA act quick, sooner rather than later, and we 
think the African Growth and Opportunity Act is an important 
partnership between the United States and the entire continent 
of Africa. So I appreciate your mentioning it. I know Mr. 
Griffiths mentioned it and I appreciate it very much that you 
did.
    Mr. Asquino, we talked about the new Embassy that is being 
built. Is that right?
    Mr. Asquino. Yes, sir, that is correct. I would be happy to 
speak about that if you would like.
    Senator Isakson. I would mainly because my last trip to 
Equatorial Guinea, there was a 10-foot hole in the ceiling of 
the rented U.S. Embassy and it was raining the day I was there. 
[Laughter.]
    And I worked hard to try and get the State Department to 
raise the priority level of that Embassy. So I would love to 
have a report on it.
    Mr. Asquino. Well, first of all, thank you for the 
question. But I also want to thank you for the support. As you 
know from that visit, we have been working out of facilities 
that are woefully inadequate and housing that is really 
terrible.
    We expect that the new Embassy complex, which will include 
workspace, a chancery, as well as housing, will be completed by 
the summer of 2013. And that is important for a couple of 
reasons, sir. In addition to providing people with decent 
workspace, there were security issues in that Embassy. We had 
to have certain security waivers from our diplomatic security 
office in order for us to continue working there. So we will 
have far better security when we open the new Embassy.
    And the other issue that I would like to raise is our 
provision of American citizen services. We have over 500 
American citizens, mostly who are connected with the oil 
industry, who live and work in Equatorial Guinea. So having a 
decent consular section where they can come, where we can 
assist them across the board, is enormously important.
    So I will end by thanking you, and I will also end by 
offering an invitation. We would be deeply honored, sir, if you 
could come to the inauguration in the summer of 2013. Thank you 
again.
    Senator Isakson. Well, I will try and do that, but you 
should know my interest is more about your lovely wife having a 
good place to stay than it was you having a nice Embassy. 
[Laughter.]
    Senator Coons. Thank you, Senator Isakson.
    It is striking and just a reminder of his dedication to 
this work that the good Senator can say on my most recent trip 
to Equatorial Guinea, a sentence I suspect is not one widely 
said here on this panel. And I agree that keeping your family 
and your coworkers secure and providing appropriate support for 
Americans and their activities abroad, whether in the Peace 
Corps or private sector, is a critical part.
    Let me turn, if I could, to some governance and human 
rights questions. In The Gambia, there is a troubling and long 
pattern of press harassment. There have been some real 
challenges in terms of human rights. And current and former 
members of this committee, most principally Senator Durbin, but 
also Senators Casey and Feingold who previously was the chair, 
have been urging the government to allow greater press freedoms 
and to account for a missing Gambian journalist, Ebrima Manneh. 
The plight of this journalist is widely seen as symbolic of 
press harassment there. I did not know if you could comment on 
this particular case or if you could tell us something about 
what sorts of messages about human rights and press freedoms 
you would carry forward as Ambassador.
    And then last, it seems to me that Gambia's questionable 
human rights records and press freedom has raised real issues 
for them in terms of eligibility for Millennium Challenge 
Corporation funds. Is there a positive possibility of a 
positive outcome here or do you think this will be a 
challenging issue for your new service as Ambassador?
    Mr. Alford. Thank you for the question, Senator. It will be 
challenging. If confirmed, I intend to consistently speak for 
press freedom. I do note that the case of the disappearance of 
Mr. Manneh--the President Jammeh has agreed to have a U.N. 
study group look into that, and I would look forward, if 
confirmed, on cooperating with the U.N. and with NGOs and with 
the Government of The Gambia to see if we can get clarity in 
that case. And press freedom is one of our fundamental beliefs. 
If confirmed as American Ambassador, of course, I would speak 
consistently and forcefully for press freedom in every case.
    Senator Coons. Thank you. We would appreciate your 
persistent engagement on that and your reporting back to us any 
progress on that particular case and then whether the MCC 
provides some positive leverage as well.
    If I could to Mr. Asquino, President Obiang is now the 
world's longest ruling leader after 33 years, and the 
Government of Equatorial Guinea has recently amended its 
constitution in ways that many observers believe are designed 
to pave the way for his son to succeed him as President. In a 
number of other countries throughout the continent, we have 
recently seen constitutional changes that similarly led to a 
lack of full and fair and open elections.
    What sorts of messages as Ambassador would you deliver 
about democracy and rule of law?
    And last, their most prominent human rights activist was 
recently sentenced to 3 years in prison after what seemed to be 
a politically motivated trial. What role would you play in 
advancing human rights more broadly?
    Mr. Asquino. Thank you. You have touched on some very 
important issues, Senator.
    In terms of President Obiang, what we would seek is for him 
to view as his legacy to his country bringing about democratic 
reform. This is a country that is faced with some very serious 
challenges, both economic and political. And as he looks at his 
long time in office, what we have urged him to do, and what we 
have offered to partner, is to look at ways to open political 
space that will leave for his people a better life in terms of 
provision of services, fairer distribution of resources and 
also a society in which basic freedoms and liberties are 
respected.
    I would agree with you certainly on the constitutional 
package. It created the position of Vice President, and there 
is widespread concern that that referendum was held solely in 
order to create that position. So certainly as we look to 
municipal elections, which are the next elections coming up in 
2013, if confirmed, I would certainly urge for more openness, 
giving the one political party there that really is in the 
opposition, the Convergence for Social Democracy, a true level 
playing field.
    And I will finish by talking about Dr. Wenceslao Mansogo, 
whom you referred to. He is the Secretary General for Human 
Rights within the Convergence for Social Democracy Party. He 
was convicted of malpractice. We had an Embassy observer at 
that trial. Ambassador Fernandez met with the government and 
urged that he be treated fairly and humanely. And when that 
sentence was issued on May 7, shortly after that, the U.S. 
Embassy and the State Department issued a statement expressing 
major concerns about due process for Dr. Mansogo and also for 
guarantees of his rights under the constitution of Equatorial 
Guinea, which many observers felt he was not afforded.
    So if I were confirmed, sir, I would certainly urge that 
the President look to his legacy, that he look to ways to leave 
a country that is more democratic, and one that provides better 
for its people, and also that the opposition be given a chance 
to compete in the political sphere.
    Thank you, sir.
    Senator Coons. Thank you, Mr. Asquino.
    If I might, Mr. Griffiths. Former President Chissano was 
the first recipient of the Mo Ibrahim Prize, as you may know. 
Dr. Ibrahim recently testified in a hearing that we held on 
openness, transitions, governance, democracy. And to what 
extent has Chissano's legacy helped shape a more positive 
political environment for Mozambique and how durable do you 
think is the path forward toward multiparty democracy in 
Mozambique?
    Mr. Griffiths. Thank you very much for the question, 
Senator.
    That is correct. And sort of in terms of legacy, he was 
succeeded by President Guebuza who as finishing his second 
mandate and recently there were reports in the press that 
President Guebuza had confirmed that he would not seek another 
term. I think that is an excellent sign for not only 
Mozambique's democracy and stability but also is a symbol to 
the region where we have seen Presidents extend their mandates.
    I underscored that this would be, if confirmed, my top 
priority, and that is not only because of the importance we put 
toward governance, but I think as Senator Isakson was pointing 
out, the importance of ensuring that people know how to fish. 
Institutions matter which is why the Embassy has been focusing 
a lot on building up civil society, having a plethora of 
voices, people who can express pressure on the executive so 
that there are various sources of power. And I think it is very 
important to continue working as we have been with 
decentralized governments--some of the mayors now are from 
opposition powers--to continue working with business groups so 
that they too can articulate different points of views.
    And civil society has been key in Mozambique in pushing 
forward a recently passed series of anticorruption legislation, 
which I think puts the country in the right direction. They 
have whistleblower protection, which is very important not only 
for government but also for trafficking in persons protection. 
And there was recent legislation where civil servants have to 
declare their revenue.
    Thank you.
    Senator Coons. Well, thank you.
    Nelson Mandela to South Africa, George Washington to our 
own country, having founding executives, Presidents, Prime 
Ministers who voluntarily relinquish their elected role is a 
critical piece in most countries' transition to democracy. And 
I hope that you will be able to build regionally on Chissano's 
contributions.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Griffiths, I mentioned that each of you made comments 
that impressed me, and the one that you made in your 
presentation about the PEPFAR program was the need for the 
countries to use more of their own resources in the delivery of 
that program.
    You know, PEPFAR is a program a lot of people do not 
understand why we are making the investment we are making in 
it. But I am reminded of the fact that AIDS came to America 
through a flight attendant on a flight from Africa. And if we 
had had the type of CDC-type attention in Africa at the time, 
maybe that would not have happened, and think of the dollars it 
would have saved the American taxpayer and the world. So I 
think it is important that we do what we are doing through the 
PEPFAR program, but it is essential, as I said to Mr. Lane, 
that I can say to the American taxpayer in Georgia that that 
program is paying a dividend to the United States of America 
and that the countries in Africa are taking more ownership of 
it.
    I was in Tanzania a few years ago in 2009. They then--now, 
this may have changed, but then they were a pretty shining 
example. Ambassador Green had been there for a couple of years. 
They had taken over most all of the testing, most all of the 
delivery, and what we were really doing was providing the 
retrovirals, but they were delivering the manpower and 
everything else.
    I would like for you to comment on your vision of that as 
far as your country is going to be.
    Mr. Griffiths. Thank you very much for the question, 
Senator.
    And indeed, I think that is exactly the vision we have for 
Mozambique, and I will talk a bit about the program, but if I 
may just make a point on the transition. I spoke about the 
resource boom that is coming Mozambique's way, and I think it 
is essential that we do have these strong institutions in place 
so that we can see this transition, as you pointed out, when 
the government has more of its own resources that it can put it 
to benefit its own people.
    We do have a number of very impressive successes in our 
PEPFAR program in Mozambique. If I may just cite a few 
statistics. In 2003, fewer than 5,000 patients were on 
antiretroviral treatment. In 2011, we had 273,000. One other of 
those numbers, people on treatment increased 89 percent between 
September 2009 and March 2012.
    And what our Embassy is focusing on through the interagency 
work of the PEPFAR program is really building up the health 
care system which was destroyed during the civil war, and that 
is going to have a huge impact on rural societies.
    We talked a bit about the importance of agriculture, and if 
you have a rural health care system that can address the needs 
of the population, they can be vectors of growth within the 
community as well. And I think our partnerships with faith-
based organizations which have a great deal of credibility in 
their communities, our partnership with the Peace Corps, our 
partnership with the Department of Defense in helping to ensure 
that the military is ready to fulfill its mandate to protect 
the long land and sea borders, all of this comes together and 
the aim is very much what you signaled, Senator, that we will 
be able to transition the responsibility and the funding to the 
host government.
    Senator Isakson. Well, one thing a lot of people do not 
understand is because of PEPFAR, we have gone from a situation 
where we were supplying retrovirals to try and prevent to where 
now people are living a lifetime of relatively normal and 
productive lifetimes on those retrovirals. And so you are going 
to have a continuum of care, not just taking care of a pregnant 
mother for a few years and having a child born to that pregnant 
mother passing away in a few months. That continuum of care is 
going to have to be hosted by the countries in which those 
people reside because the United States, in a macrosense and in 
a longitudinal way, cannot continue to fund all of that. But if 
we have turned that paradigm and those countries are taking 
more of the ownership of the continuum of care, then it would 
be a great legacy for our entire country and what we did for 
mankind.
    Mr. Asquino, just do me one favor. The next time you see 
Mr. Obiang--we had a conversation when I was over there about 
the--you know, Marathon Oil helped develop the--I forgot the 
wildcatter who found the gas in the Gulf of Guinea, but 
Marathon helped do the liquefication plant. Am I not right?
    Mr. Asquino. That is correct, sir. There is a $1.5 billion 
gas liquefication plant that Marathon funded.
    Senator Isakson. Is the son that everybody suspects is the 
one the constitution was amended for, the good son that does 
the gas and oil or the one that is Malibu on the beach?
    Mr. Asquino. Malibu on the beach, sir. [Laughter.]
    The other son's name is Gabriel.
    Senator Isakson. I have met him. He is a pretty competent 
guy, seemed to be anyway.
    Mr. Asquino. Yes. That is what everyone says.
    Senator Isakson. But I talked to President Obiang about the 
fear of the Dutch disease infecting Equatorial Guinea because 
they were the poorest. But prior to the discovery of that gas 
and oil, they were, I think, the poorest country on the face of 
this earth, now as the chairman said, one of the richest 
growing economies. But if they are just investing that money in 
things and not investing it in their people, then they are 
going to have the same thing happen that has happened in most 
of the Middle East where they suffer from the Dutch disease and 
they do not develop their infrastructure themselves. So tell 
him I have not forgotten that conversation, and I encourage him 
to invest in his people.
    Mr. Asquino. Sir, if confirmed, I certainly will do so. 
Thank you.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    If I might, just a last question or two. I am interested in 
and concerned about across all three countries--there were in 
the background materials concerns about piracy, about maritime 
security, about regional cooperation. And we have varying 
degrees of partnership or relationship both military and 
diplomatic, relatively modest relations, in one case relatively 
broad and strong.
    What will you be doing and what do you see as our role in 
addressing what is an increasingly regional challenge, all the 
way down from Somalia in the case of Mozambique, all the way 
across the Gulf of Guinea, in your case in Equatorial Guinea, 
and then regionally with narcotrafficking into Europe with The 
Gambia? What role can we as a country constructively play in 
improving maritime security and in contributing to regional 
security across the continent? If you might, Mr. Alford, first.
    Mr. Alford. Thank you for the question, Senator.
    The Gambia is a relatively poor and resource-poor country. 
However, they have been engaged militarily in peacekeeping 
operations in Liberia and Sierra Leone, and they have over 400 
troops in Darfur now. I think building on this perhaps through 
IMET and through training--we are sending the first trainees 
down to Botswana for some INL-funded training. I think we can 
enhance their capabilities by using our expertise, by working 
with them on this. I do note that they are a committed regional 
player. They are very active in ECOWAS. I think with a little 
more training, maybe a little more resources down the road, I 
think they can play an even more constructive role on this.
    I would note that they recently seized, within the past 2 
years, $1 billion in cocaine with the assistance of the 
British, and I think that was the largest cocaine seizure ever 
in West Africa. So that is something else we can build on.
    Senator Coons. Thank you, Mr. Alford.
    Mr. Asquino.
    Mr. Asquino. Mr. Chairman, thank you for the question.
    Certainly piracy and the rise of militancy in the Gulf of 
Guinea are of major concerns to the United States. I had 
mentioned in my testimony that some 12 percent of our oil 
imports now come from the Gulf of Guinea.
    In terms of what the United States is doing in the Gulf of 
Guinea, we are working very closely with regional countries, 
specifically Cameroon, Gabon, and Nigeria through the Africa 
Partnership Station. And this provides training to those 
countries, helps them to develop the capacity, but also helps 
them to coordinate in terms of their response to those sorts of 
threats.
    Given the fact, as I said in my testimony, that human 
rights really is a top priority in Equatorial Guinea, we do not 
have military assistance programs with Equatorial Guinea. But 
Equatorial Guinea has worked with us, and we do guide them in 
terms of these issues. They themselves started a regional naval 
academy in 2009, which is the first regional naval academy for 
training on the African Continent. And so they themselves have 
been addressing these issues.
    Although we do not have programs with them, we have 
encouraged them to look to contractors who can help them, and 
in recent years, they have improved their own capacity for 
naval security.
    Senator Coons. Thank you.
    Mr. Griffiths, I was struck to see that Somali pirates 
seemed to be an issue in Mozambique, and certainly regional 
integration and security collaboration, something you referred 
to in your opening statement--what role can we possibly play to 
strengthen that security regionally?
    Mr. Griffiths. Thank you, Senator. Mozambique has the 
fourth-largest coastline in Africa. So it is a very important 
issue, and not only on the issue of piracy but also in its 
capacity to interdict illegal trafficking both of people and of 
drugs and other contraband, but also in protecting their 
fisheries and protecting the offshore gas exploration that will 
be continuing in the northern part of the country. So we have 
been working with the Mozambican Navy and we have given 17 
rigid hull inflatable boats, providing training, and other 
equipment to help them be able to patrol more and have a higher 
surveillance of the Mozambican channel. As you mentioned, 
helpfully they are working with Tanzania and South Africa so 
that the three countries can jointly assist in controlling the 
waters off the coast. If confirmed, I would certainly focus on 
these issues and see how we could further deepen our 
relationships with the Mozambican Government.
    Senator Coons. Terrific. Thank you.
    Senator Isakson, no further questions?
    Senator Isakson. No.
    Senator Coons. I just want to thank all four of you for 
appearing before us today. I want to thank your families for 
supporting you across what has collectively been more than a 
century of public service across quite difficult postings all 
over the world. I am confident that you will represent the 
United States well and that you will advocate for our interest 
as a nation and help move forward the values that I think are 
our greatest resource in our engagement with the world.
    There may be members of the committee who were not able to 
join us today who would like to submit questions for the 
record. I will keep the record open through next Friday, but in 
the absence of any further questions, thank you very much for 
your appearance before this committee.
    And this hearing is hereby adjourned.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Edward M. Alford to Questions Submitted
                        by Senator John F. Kerry

    Question. Given your previous experience as a management officer in 
multiple posts around the world, what lessons have most significantly 
shaped your approach to managing a post like The Gambia?

    Answer. Many years of supervising and leading large and diverse 
staffs have prepared me well to lead this small Embassy in a hardship 
environment. I have learned the importance of mentoring younger 
employees and fostering their career development and the importance of 
treating the locally employed staff with respect. I believe in the 
importance of integrating State Department Direct Hire employees, local 
employees, family member employees, and other agency employees into a 
team focused on our mission objectives and that the morale and well-
being of family members is a vital component to managing any mission, 
but especially so in a hardship post. On the programmatic side, my 
experience in prioritizing finite resources to meet the most critical 
mission objectives will serve me well as we focus on democracy, human 
rights, and development agendas in tough budgetary times.

    Question. According to the State Department Country Report on Human 
Rights, Gambia's challenges include restrictions on freedom of speech 
and press. Are there ways to utilize new media as a way of increasing 
outreach to advance U.S. goals? In your past experience, have you seen 
examples of effective uses of new media to support U.S. priorities?

    Answer. The State Department is adapting our statecraft by 
reshaping our development and diplomatic processes to meet old 
challenges in new ways. New media complements traditional foreign 
policy tools by using new technology to reach more people and reach 
them in a more direct and targeted way. In response to the challenges 
outlined in the State Department Human Rights Report for The Gambia, we 
are using new media as a means of bolstering freedom of speech and 
press while also increasing outreach to The Gambian youth, who 
constitute over 60 percent of the population.
    Embassy Banjul's Facebook Page is an excellent example of an 
effective use of new media to support U.S. priorities. According to the 
page statistics, the page is most popular with 25-34 year olds with 
broad participation including civil society organizations, 
universities, local musicians, even The Gambian talk shows.
                                 ______
                                 

          Responses of Mark L. Asquino to Questions Submitted
                        by Senator John F. Kerry

    Question. Given your most recent position as Executive Assistant in 
the Office of the Under Secretary for Civilian Security, Democracy, and 
Human Rights, and your previous experience, what lessons have most 
significantly shaped your approach to managing a post like Equatorial 
Guinea?

    Answer. My present position as Executive Assistant in the Office of 
the Under Secretary for Civilian Security, Democracy, and Human Rights 
has provided me with comprehensive knowledge of the various programs, 
resources, and tools the State Department has at its disposal to 
promote democracy and address human rights abuses. This knowledge, plus 
my overseas experience in engaging constructively on such issues with 
tough, nondemocratic governments, would form the basis of the firm, 
honest, and goal-oriented approach I would use to direct Embassy 
Malabo's interactions with the Government of the Republic of Equatorial 
Guinea (GREG) if I were confirmed.
    In Kazakhstan, I emphasized to the government the importance the 
United States places on transparency in reporting earnings from 
extractive industries, especially oil and gas. During my tenure as 
deputy chief of mission and Charge d'Affaires, a.i., in Almaty, 
Kazakhstan applied to be a candidate for membership in the Extractive 
Industries Transparency Initiative (EITI). My productive experience in 
working on this key issue with Government of Kazakhstan officials would 
shape how I envision leading Embassy Malabo's efforts to encourage the 
GREG to create the conditions that would make a reapplication for EITI 
membership possible.

    Question. In your testimony, you noted that during your most recent 
overseas
 assignment as deputy chief of mission in Khartoum, you focused on 
human rights abuses in Sudan. Though State Department human rights 
reports have noted some human rights improvements in Equatorial Guinea 
in recent years, serious issues continue to exist. Given your previous 
experience, and considering the very limited U.S. aid to Equatorial 
Guinea, are there ways to engage the government to support greater 
improvements and how would you characterize your approach?

    Answer. In Khartoum, I was a forceful advocate with the Government 
of Sudan (GOS) on the need for it to allow nongovernmental 
organizations (NGOs) and other civil society organizations to expand 
their humanitarian assistance to internally displaced persons in 
Darfur. If confirmed, I would draw on this experience and provide the 
Equatoguinean Government (GREG) with specific areas in which it needed 
improvement in its respect for human rights. I would advocate that the 
government ease restrictions on international and domestic 
organizations to allow them, with government cooperation, to continue 
to improve prison conditions, denounce human rights abuses, and ensure 
that Equatoguinean citizens are accorded their basic rights, including 
due process.
    Equatorial Guinea is ranked Tier 3 in the Trafficking in Persons 
Report. But on a positive note, the GREG has recently asked for the 
United States technical assistance in restructuring the country's 
dormant Interagency Commission on the Trafficking in Persons. If I am 
confirmed, I would like to further the GREG's restructuring of the 
Commission. As noted above, I would raise specific areas for 
improvement and inform the GREG what it needs to accomplish to improve 
its TIP ranking.
    Just as was the case in Sudan, my approach on such issues would be 
one of respectful, but firm and deliberate, engagement with Equatorial 
Guinea.
                                 ______
                                 

        Responses of Douglas M. Griffiths to Questions Submitted
                        by Senator John F. Kerry

    Question. Mozambique is home to a wide array of natural resources, 
but over half its population lives on less than 50 cents a day. Based 
on your experience in other posts, how can a government most 
effectively try to bridge those gaps rather than falling victim to the 
so-called resource curse that has plagued so many other countries? How 
can the U.S. Government most effectively assist that sort of genuinely 
democratic economic development?

    Answer. Strengthening democracy and governance is one of the 
highest priorities for the U.S. Embassy in Mozambique. If confirmed, I 
will continue to focus on U.S. Government efforts in this area to 
include the development of civil society and implementation of 
anticorruption legislation. Building strong local institutions and host 
government administrative capacity are crucial to Mozambique's long-
term stability and economic growth. Specific to natural resources, I 
will continue to encourage Mozambique in its ongoing application 
process to the Extractive Industries Transparency Initiative (EITI). 
Moving beyond transparency, I will encourage the Mozambican Government 
to adopt a fiscal regime that will govern the responsible management of 
natural resource revenues.
    Making progress toward more broad-based growth will be a 
significant challenge during my tenure, if confirmed. Broad-based 
economic growth and poverty reduction are also top priorities of the 
U.S. Embassy in Mozambique and U.S. Government initiatives are already 
working toward this goal. Through Feed the Future, the U.S. Government 
and Mozambique are working to sustainably reduce poverty by improving 
key agricultural value chains and supporting the policy enabling 
environment for agricultural development. Mozambique will soon take 
part in the ``New Alliance to Increase Food Security and Nutrition,'' 
launched at the Camp David G8 summit in May, which aims to increase 
responsible private investments in agriculture. Promoting a more 
dynamic private sector is an integral aspect of Feed the Future and the 
``New Alliance,'' and will create new jobs and improve livelihoods 
across Mozambique.
    Additionally, the Millennium Challenge Corporation is working in 
the less developed northern provinces of Mozambique--where many of the 
natural resources are found--to improve the road and water supply 
infrastructure, support farmers, and formalize land tenure 
administration. These improvements will create an environment more 
conducive to growth across all socioeconomic levels.

    Question. Given your previous experience, what management lessons 
will shape your approach if confirmed as chief of mission of the U.S. 
Embassy in Mozambique?

    Answer. My previous postings in places such as Haiti and Geneva 
have taught me the true value of the ``whole of government'' approach. 
While these postings starkly contrasted in many ways, the teamwork 
required to tackle complex crises across U.S. agencies remained at the 
core. If confirmed, I plan to harness all of the U.S. Government 
resources available at post and in Washington to achieve our mission 
goals.
    The U.S. Embassy in Mozambique is a fast-growing mission with 
employees from seven U.S. agencies spread out across the city in a 
number of annexes. If confirmed, I will lead by example in fostering 
interagency cooperation by encouraging cross-cutting projects and 
activities across the mission.
                                 ______
                                 

          Responses of Edward M. Alford to Questions Submitted
                         by Senator Marco Rubio

    Question. According to the State Department's 2011 Trafficking In 
Persons Report, The Gambia is a Tier 2 Watch List country for human 
trafficking for its failure to demonstrate increasing its efforts to 
address human trafficking over the previous year.

  <bullet> If confirmed, what would be your strategy to encourage the 
        Government of The Gambia to institute stronger human 
        trafficking policies?

    Answer. Gambia is a ``Tier 2 Watchlist'' source, transit, and 
destination country for children and women subjected to trafficking in 
persons, specifically forced labor and forced prostitution. If 
confirmed, I will encourage the Government of The Gambia to increase 
efforts to investigate and prosecute trafficking offenses and convict 
trafficking offenders. I will also urge the government to develop an 
educational module for police and government officials to distinguish 
smuggling from trafficking as well as encourage the government to train 
its law enforcement to improve victim identification efforts. In 
addition, I will work to support the development of the newly created 
National Agency Against Trafficking in Persons to become a strong 
partner in combating trafficking in persons in The Gambia. I will also 
urge it to complete the promised database that tracks the government's 
antitrafficking efforts.

    Question. The 2007 Trafficking in Persons Act mandated the 
formation of the National Agency Against Trafficking In Persons. This 
agency has not entered into formal existence and has not received its 
allocated funds from the government.

  <bullet> If confirmed, what steps will you take to ensure that the 
        government fulfills its obligation for the creation of this 
        agency?

    Answer. Despite limited resources, the Government of The Gambia is 
making significant efforts to meet the minimum standards for the 
elimination of trafficking in persons (TIP). In December 2011, the 
Ministry of Justice launched the National Agency Against Trafficking. 
This was in direct response to the 2011 Trafficking In Persons Report, 
which expressed concerns about the delayed formation of a national 
agency as mandated in the 2007 Trafficking in Persons Act. The new 
agency has the lead role in coordinating anti-TIP efforts and its 
boards of directors includes representatives from most of the 
government agencies that cover TIP-related issues as well as from local 
nongovernmental organizations (NGOs) that are active in antitrafficking 
efforts. The agency itself has staff and budget assigned to it. If 
confirmed, I will work to support the development of this nascent 
agency to become a strong partner in combating trafficking in persons 
in The Gambia.
                                 ______
                                 

          Responses of Mark L. Asquino to Questions Submitted 
                         by Senator Marco Rubio

    Question. According to the State Department's 2011 Trafficking In 
Persons Report, Equatorial Guinea is a Tier 3 county for human 
trafficking for its failure to make significant efforts to combat 
trafficking, despite the government's substantial financial resources.

  <bullet> If confirmed, what is your strategy to engage the Government 
        of Equatorial Guinea to enact a strong antitrafficking policy 
        which will address prosecution, protection and prevention?

    Answer. Our Embassy in Malabo is working with the Equatoguinean 
Government to strengthen Equatorial Guinea's efforts to combat and 
prevent trafficking in persons and to assist trafficking victims. Our 
mission regularly engages with the Ministries of Social Affairs, 
Interior, National Security, Defense and Foreign Affairs, and has 
raised the importance of combating human trafficking directly with 
Equatorial Guinea (EG) President Obiang. In part due to our 
intervention, EG's Director General for Immigration has recently 
informed our Embassy that EG will revive its Interagency Commission for 
Trafficking in Persons, which was formed when EG passed its trafficking 
in persons law in 2004, but which has not met in over 2 years. The 
Director General also intends to update EG's National Plan to Fight 
Human Trafficking and to begin steps to implement it. He has asked for 
U.S. advice on how to revive and structure the Commission. The State 
Department's Office to Monitor and Combat Trafficking in Persons is 
actively working with the Embassy on the request. Last week the 
Equatoguinean Government cohosted a seminar on trafficking in persons 
with the United Nations Development Programme (UNDP). While these first 
steps indicate a renewed commitment to trafficking issues, I believe 
that we must remain engaged with the Equatoguinean Government and 
continue to urge the government to take a holistic approach to combat 
trafficking. The Under Secretary for Civilian Security, Democracy, and 
Human Rights (J) is responsible for overseeing the work of the Office 
to Monitor and Combat the Trafficking in Persons 
(J/TIP). As Chief of Staff in this Under Secretariat, I am directly 
involved in discussions of TIP issues on a day-to-day basis. If 
confirmed, I will coordinate closely with J/TIP and continue the 
Embassy's dialogue with the Equatoguinean Government to encourage it to 
take concrete steps to combat human trafficking. I will strongly urge 
it to adopt a robust antitrafficking policy that addresses prosecution, 
protection, and prevention.

    Question. Public officials are often engaged in human trafficking 
and smuggling operations in Equatorial Guinea, which is principally a 
destination for children subjected to forced labor.

  <bullet> If confirmed, how would you engage the Equatoguinean 
        Government in a dialogue on the sensitive subject of government 
        officials engaging in trafficking?

    Answer. The U.S. Embassy in Malabo has maintained a frank dialogue 
with the Equatoguinean Government on a range of sensitive issues, 
including human rights and trafficking in persons. Our candid 
relationship extends to the highest levels, and previous ambassadors 
have been able to deliver tough human rights messages to President 
Obiang; if confirmed, I will continue this practice. When faced with 
credible accusations of official complicity in human trafficking, I 
will draw on my extensive experience in combating trafficking in 
persons in Uzbekistan, Kazakhstan, and Sudan to raise the issue at the 
highest levels of government. I understand that the Equatoguinean 
Government has generally been receptive to U.S. messages on the 
trafficking issue, and has some interest in ending official complicity 
in human smuggling and trafficking. In June 2010, an Equatoguinean 
court convicted an army officer and two others guilty of human 
trafficking and sentenced them to 15 years in prison in connection with 
the deaths of several foreign nationals who died of asphyxiation while 
being smuggled into Equatorial Guinea.
                                 ______
                                 

       Responses of Douglas M. Griffiths to Questions Submitted 
                         by Senator Marco Rubio

    Question. According to the State Department's 2011 Trafficking in 
Persons Report, Mozambique is a Tier 2 country for human trafficking. 
There are loose Mozambican and South African trafficking networks and 
also larger Chinese and Nigerian trafficking syndicates active in 
Mozambique.

  <bullet> If confirmed, how would you encourage the Mozambican 
        Government to investigate the transnational organization crime 
        element of human trafficking?

    Answer. In the 2011 Trafficking in Persons (TIP) Report, the 
Government of Mozambique received an upgrade to Tier 2 from Tier 2 
Watch List following progress made through its efforts to combat TIP in 
2010. Continuing its strong efforts, in 2011 the Mozambican Government 
initiated 15 new investigations of trafficking-in-persons cases, and 11 
new prosecutions. Eight cases were completed, seven of those resulting 
in convictions. These law enforcement efforts occurred under its strong 
2008 antitrafficking act and demonstrate the capacity of the Mozambican 
Government to address transnational crime.
    The Mozambican Government has implemented TIP training programs for 
border guards, customs officials, and police officers to help them 
recognize and prevent trafficking. If confirmed, I will continue to 
encourage U.S. support for this type of training, as well as for other 
programs that combat these illegal activities. I will also continue to 
encourage progress, specifically to finalize Mozambique's implementing 
regulations for the 2008 legislation, develop a formal system to refer 
victims to care, and continue to build the capacity of the 
antitrafficking police unit.
    The Mozambican Government recently began to compile data on 
trafficking cases nationwide, a first and significant step toward 
understanding TIP crime networks and trends. Parallel to this effort, 
Mozambique began drafting a national antitrafficking action plan. The 
U.S. Embassy in Mozambique has been assisting in these ongoing efforts. 
If confirmed, I will continue to make our assistance in these areas a 
priority.
    Our International Narcotics Control and Law Enforcement (INCLE) 
assistance to Mozambique has historically focused on border security. 
State is coordinating with USAID to expand the scope of our assistance 
to the Attorney General's office with a focus on strengthening 
prosecutorial capacity. We also are planning to target assistance to 
strengthening the enforcement of customs, antimoney laundering laws, 
and detecting and deterring drug trafficking--all initiatives with 
direct links to combating human trafficking networks.

    Question. The Mozambican Government deports foreign trafficking 
victims without screening them for possible victimization.

  <bullet> If confirmed, what steps will you take to ensure that 
        foreign trafficking victim cases are investigated and that the 
        victims are treated as victims instead of criminals?

    Answer. There are increasing numbers of migrants arriving in 
Mozambique from a number of other countries in Africa, particularly 
Ethiopia and Somalia, as well as from South Asian nations. The 
overwhelming majority of these are economic migrants voluntarily 
transiting Mozambique on their way to South Africa.
    The government has a national system of Women and Children's Victim 
Assistance Units, operating in over 200 police stations throughout the 
country, and these Units assist trafficking victims as well as victims 
of domestic violence. If confirmed, I will encourage the Mozambican 
Government to meet its responsibilities under international conventions 
to erect comprehensive screening procedures at its borders, as well as 
to increase the capacity of the Victims Assistance Units for the 
benefit of foreign trafficking victims.
    The Mozambican Parliament recently passed a comprehensive Witness 
and Victims Protection Act, which will offer a broad range of 
protective measures, including physical protection and foreign and 
domestic relocation. This law will have direct application to 
Trafficking in Persons (TIP) cases. If confirmed, I will encourage the 
Mozambican Government to devote adequate resources to this new act.

 
     NOMINATIONS OF MICHELE SISON, BRETT McGURK, AND SUSAN ELLIOTT

                              ----------                              


                        WEDNESDAY, JUNE 6, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Michele Jeanne Sison, of Maryland, to be Ambassador to the 
        Democratic Socialist Republic of Sri Lanka and to serve 
        concurrently as Ambassador to the Republic of Maldives
Brett H. McGurk, of Connecticut, to be Ambassador to the 
        Republic of Iraq
Susan Marsh Elliott, of Florida, to be Ambassador to the 
        Republic of Tajikistan
                              ----------                              

    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert P. Casey, 
Jr., presiding.
    Present: Senators Casey, Udall, Lugar, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Good morning. Today the Senate Foreign 
Relations Committee meets to consider the President's nominees 
to serve as Ambassador to the following countries: Iraq, Sri 
Lanka, the Maldives, and Tajikistan. I want to thank all of the 
witnesses and others who are here with us today for appearing 
to discuss challenges in these countries and obviously to 
discuss each nominee's work, as well as their work upon 
confirmation, and of course, U.S. policy in each of the 
countries.
    Let me just go through a little bit about each place first 
and then we will get to our witnesses, our nominees.
    In Iraq, the picture, of course, is mixed nearly 6 months 
after the redeployment of United States troops from the 
country. We know that political and ethnic divisions remain 
sharp as Iraq recovers from years and years of war. The current 
government took months to establish in 2010 and a high degree 
of mistrust still exists among key political factions. Iraqis 
and Americans have sacrificed mightily to support the 
democratic process in Iraq. At this critical time, we should 
continue to support the political reconciliation among key 
players in the country as they work to further deepen the 
democratic process.
    This unsettled political environment exists within a very 
precarious security situation where extremist groups are still 
capable of and have launched significant attacks in the 
country. Just last week, six bomb blasts across Baghdad killed 
at least 17 people mostly in Shia neighborhoods. On Monday, a 
suicide bomber killed at least 26 people in Baghdad and wounded 
more than 190 in an attack on the government-run body that 
manages Shiite religious and cultural sites. While security is 
certainly a significant challenge in Iraq and all loss of life 
is a tragedy, violence has, in fact, decreased substantially 
since the height of the conflict.
    With the end of the U.S. military presence in the country 
at the end of 2011, Iraq has sought to deepen the roots of its 
sovereignty and play a leadership role in the region. Iraq 
recently hosted a meeting of the Arab League in Baghdad, a 
symbol that it is once again a key player in the region after 
years of isolation under Saddam Hussein. With this enhanced 
standing in the region, there are serious questions about 
Iraq's position on, for example, Syria. While I understand 
Iraq's concerns about Syria's stability in a post-Assad era, 
the violence over the past year perpetrated by Assad's forces 
is inexcusable. Iraq should join with others in the 
international community and use its position in the Arab League 
to bring increased diplomatic pressure to bear on Mr. Assad.
    I also continue to have significant concerns about Iran's 
efforts to exert influence in Iraq. I look forward to hearing 
the nominee's thoughts on this seminal issue and an assessment 
of the United States ability to diplomatically mitigate the 
negative effects of Iranian influence in Iraq.
    Despite these continuing challenges, there is positive news 
in Iraq that we can build upon. This was reflected in a recent 
public opinion survey fielded by the National Democratic 
Institute, known as NDI. NDI found that 48 percent of Iraqis 
believed that Iraq was headed in the right direction. Oil 
exports have increased by 20 percent this year to nearly 2.5 
million barrels a day. American companies have increased their 
presence in Iraq. And, as mentioned, violence levels have, in 
fact, decreased. We are seeing signs of progress, but this 
progress is delicate and fragile.
    In October of last year, the State Department became the 
lead U.S. agency in the country. The U.S. Embassy in Baghdad is 
the biggest U.S. presence in the world with approximately 
16,000 staff and contractors. Questions remain about the State 
Department's ability to operate in this still precarious 
security environment and handle the significant workload 
associated with the processing of billions of dollars' worth of 
arms sales to the Iraqi Government. A diplomatic presence of 
this size requires sustained oversight from Congress. And I 
look forward to continued engagement with our nominee, upon 
confirmation, to ensure our footprint in Iraq is the right size 
and that we have the right amount of resources to pursue our 
interests.
    The President has nominated Brett McGurk to represent our 
interests amid the myriad significant challenges in Iraq. Mr. 
McGurk, perhaps due to his great upbringing in Pittsburgh, PA, 
is eminently capable to assume this position. Of course, there 
are other reasons for his preparation, but it does not hurt 
that you have roots in Pittsburgh. He has been engaged in U.S. 
policy in Iraq since 2004, advising every U.S. Ambassador at 
post in Iraq. He has an intimate understanding of the political 
players and history of Iraq, as well as the role of the United 
States in the country since 2004. His unique experience across 
two administrations is very good preparation to establish a 
leadership vision for the Embassy that reflects U.S. 
diplomatic, security, and economic interests. Mr. McGurk is the 
right choice at the right time in United States-Iraq diplomatic 
relations.
    Mr. McGurk, welcome. We will hear from you in a moment.
    In Sri Lanka, 3 years after the end of more than a quarter 
century of devastating civil war, we also see a mixed picture. 
On the one hand, the end of the conflict has led to strong 
economic growth, driven by large-scale reconstruction and 
development projects, increasing commodity exports, and a 
growing tourist industry. However, the war left Sri Lanka with 
a legacy of internal displacement, mistrust among ethnic 
groups, and of course, insufficient protection for human rights 
that have yet to be adequately addressed. According to the 
Internal Displacement Monitoring Center, nearly 100,000 people 
remain displaced and even more have been unable to repossess 
their homes. The military's significant presence in the north 
and east of the country poses an obstacle to returning 
internally displaced people, as well as to the delivery of 
humanitarian aid. Some observers have expressed concern about 
the ongoing Sinhalization of ethnic Tamil areas.
    Perhaps most importantly, the Sri Lankan Government has 
failed to meet expectations with regard to investigating 
alleged human rights violations and holding culpable 
individuals accountable. International experts have found 
credible allegations of serious human rights violations 
committed by both sides in the last stages of the war, but the 
perpetrators have not been called to account yet for their 
crimes. The recommendations of the Lessons Learnt and 
Reconciliation Commission, the so-called LLRC, released more 
than 6 months ago have yet to be implemented.
    I and others remain very concerned about the lack of 
accountability for actions taken during the final days of the 
war, as well as about reports of ongoing human rights 
violations in the country. In March 2011, I led a resolution in 
the Senate calling for greater accountability in Sri Lanka, and 
in November of that year, I wrote a letter to Secretary 
Clinton, along with Senators Leahy and Cardin, calling for an 
independent international investigation into the human rights 
situation in Sri Lanka. Recent reports by the Department of 
State, the U.N., and international human rights groups cite 
forced disappearances, arbitrary detention and torture, and 
repression of media and political opposition all as ongoing 
problems. The United States should continue to work with the 
international community to push for greater accountability and 
protection for human rights in Sri Lanka.
    The Maldives is certainly an important ally of the United 
States and we enjoy a productive relationship. In 2008, the 
Maldives experienced historic elections which heralded a new 
democratic beginning for this small island, and we know that 
this year's political unrest has unfortunately threatened to 
derail the progress that has been made. The United States 
should continue to press for elections as soon as possible to 
ensure that the seeds of the democratic process, planted in 
2008, are able to flourish.
    I welcome Ambassador Sison, and I met the Ambassador during 
my visit to the Middle East in 2010 where she was in charge of 
our Embassy in Lebanon. I was impressed with her ability to 
navigate a complicated and at times, indeed, treacherous 
political environment in Beirut. She has also served as 
Ambassador in the United Arab Emirates and in a variety of 
diplomatic positions in Iraq, Pakistan, India, the Ivory Coast, 
Cameroon, Benin, Togo, and Haiti. She will be well prepared for 
what I know will be a very challenging assignment in Sri Lanka 
and the Maldives.
    Ambassador, I know that your two daughters, Alexandra and 
Jessica, are in Arizona today. But as they have accompanied you 
to seven overseas posts over the years, they deserve special 
recognition for their unwavering support for you and for the 
country. And we want to recognize that today.
    And finally, Tajikistan. Tajikistan's strategic location 
and internal instability pose important challenges for United 
States policymakers. While the United States operations in 
Afghanistan continue, we must rely upon close cooperation with 
Tajikistan in order to manage the flow of goods and people into 
and out of Afghanistan. This includes bringing materials and 
equipment into Afghanistan that are critical to progress there, 
disrupting the dangerous flow of narcotics across the border, 
and preventing militants from seeking safe haven and causing 
instability in Tajikistan.
    However, we must balance these strategic priorities with 
the need to address serious human rights concerns in the 
country. The U.N. Human Rights Council in March 2012 reported 
on Tajikistan and revealed worrying trends in human rights, 
including reports of repression of media freedom and political 
opposition and the use of torture by law enforcement officials. 
I am particularly concerned about the reported restrictions on 
the rights of women and ethnic and religious minorities, and I 
appreciate the work that our dedicated Foreign Service and 
USAID personnel are doing in Tajikistan and look forward to 
hearing more about how we will advance this work going forward.
    The President has nominated Susan Marsh Elliott to be the 
new U.S. Ambassador to Tajikistan. Susan, I note that you were 
born in Doylestown, PA. I cannot say that that will guarantee 
your confirmation, but it will not hurt. [Laughter.]
    It certainly will not hurt.
    She is currently the Deputy Assistant Secretary of State 
for South and Central Asian Affairs. She has served in Russia, 
Northern Ireland, Greece, Peru, and Honduras. She also has the 
distinction of having been born in Pennsylvania, but I do not 
want to put too much weight on that.
    I would also like to welcome her son who has joined her 
today, Kurt Mitman, for being with her today, and I would also 
like to acknowledge Deputy Assistant Secretary Elliot's 
husband, Matthias Mitman, who could not be with us today 
because he is currently serving as the deputy chief of mission 
in our Embassy in Honduras. And please wish him well for us.
    Again, I want to thank all of our witnesses for being here. 
Madam Ambassador, we will start with you and maybe go from my 
right to the left. If you could try to keep your opening 
remarks to 5 minutes. If you have a longer statement, that will 
certainly be made part of the record, and then we will get to 
questions.

  STATEMENT OF HON. MICHELE JEANNE SISON, OF MARYLAND, TO BE 
 AMBASSADOR TO THE DEMOCRATIC SOCIALIST REPUBLIC OF SRI LANKA 
  AND TO SERVE CONCURRENTLY AS AMBASSADOR TO THE REPUBLIC OF 
                            MALDIVES

    Ambassador Sison. Thank you. Mr. Chairman, Senator, it is 
an honor to appear before you as President Obama's nominee to 
be the U.S. Ambassador to Sri Lanka and U.S. Ambassador to 
Maldives. I am deeply grateful to the President and to 
Secretary Clinton for their confidence in my abilities. If 
confirmed, I look forward to working with the committee and 
interested Members of Congress to represent the American people 
and to advance U.S. goals in Sri Lanka and Maldives.
    In my 30 years in the U.S. Foreign Service, I have been 
posted as U.S. Ambassador to the United Arab Emirates and as 
U.S. Ambassador to Lebanon, as you noted, Mr. Chairman. I also 
have considerable experience in South Asia, having served in 
India and Pakistan and as Principal Deputy Assistant Secretary 
for the South Asia region.
    The United States has important interests in both Sri Lanka 
and Maldives. Sri Lanka is located along the busiest shipping 
lanes in the Indian Ocean, a region emerging as a strategic 
arena in which America's enduring interests are increasingly at 
play. Sri Lanka has also been a contributor to U.N. 
peacekeeping operations. The United States thus recognizes the 
importance of maintaining a broad range of partnerships with 
Sri Lanka as we encourage a lasting democratic peace in the 
country after nearly 3 decades of devastating conflict.
    The United States and other international partners have 
encouraged the Government of Sri Lanka to pursue the steps 
needed to foster genuine reconciliation and accountability. 
Although the Government of Sri Lanka defeated the terrorist 
organization, Liberation Tigers of Tamil Eelam, serious 
allegations of violations of human rights law and international 
humanitarian law committed by both sides at the end of the war 
remain to be investigated and have slowed reconciliation.
    In March, the U.N. Human Rights Council adopted a U.S.-
sponsored resolution calling on the Government of Sri Lanka to 
implement the recommendations of Sri Lanka's own government-
appointed Lessons Learnt and Reconciliation Commission. In 
April, the State Department issued its third report to Congress 
on accountability in Sri Lanka since the end of Sri Lanka's 
conflict in 2009. Achieving genuine reconciliation will require 
Sri Lanka to take credible steps to ensure equality and justice 
for all Sri Lankans, particularly for those living in the 
former conflict areas. Such steps include demilitarization of 
the former conflict zones, establishment of a mechanism to 
address cases of the missing and detained, and setting a date 
for provincial elections in the north. Also critical will be 
the achievement of an agreement between the Sri Lankan 
Government and the elected representatives of the Tamil 
community on devolution of power to provincial institutions.
    During a May 18 meeting with the Sri Lankan Foreign 
Minister, Secretary Clinton underscored that an enduring peace 
is unsustainable without adequate measures to address 
reconciliation and accountability. She encouraged a transparent 
and public process with regard to reconciliation and 
accountability to strengthen confidence inside and outside of 
Sri Lanka and to speed the healing of the country. If 
confirmed, I stand ready to lead our efforts to support Sri 
Lanka as it moves forward and to use U.S. assistance 
strategically to promote reconciliation, strengthen democratic 
institutions and practices, and foster economic growth 
particularly in the north and east, the former conflict zones.
    The U.S. Ambassador in Colombo is also accredited to the 
Republic of Maldives. In February, following a series of 
controversial events and protests, the former Vice President 
took office after the resignation of the President. The United 
States continues to encourage Maldives to work within existing 
democratic institutions to resolve political challenges 
peacefully and transparently. The U.S. Government now has a 
window of opportunity to step up its engagement in Maldives, 
and USAID recently committed funding to assist Maldives in 
ensuring that the next round of Presidential elections is free 
and fair.
    The United States also recognizes the importance of 
promoting security in the Indian Ocean. To that end, the U.S. 
Coast Guard has provided training to the Maldivian Coast Guard 
to improve its ability to respond to threats of piracy, as well 
as to combat transshipment of illicit commodities. U.S. 
assistance to the Maldives also promotes the development of a 
robust ``climate resilient islands'' model.
    If confirmed, I plan to consult with Sri Lankans and 
Maldivians from all walks of life on how the United States can 
best support local initiatives to promote civil society, 
protect freedom of expression, and encourage youth exchanges. 
It would also be my goal, if confirmed, to engage in vigorous 
commercial advocacy in Sri Lanka and Maldives on behalf of U.S. 
companies, in support of President Obama's National Export 
Initiative.
    I would welcome your insights and views, as well as any 
questions you might have for me today. Thank you.
    [The prepared statement of Ambassador Sison follows:]

         Prepared Statement of Ambassador Michele Jeanne Sison

    Mr. Chairman and members of the committee, it is an honor to appear 
before you as President Obama's nominee to be the United States 
Ambassador to Sri Lanka and United States Ambassador to Maldives. I am 
deeply grateful to the President and to Secretary Clinton for their 
confidence in my abilities. If confirmed, I look forward to working 
with this committee and interested Members of Congress to represent the 
American people and to advance U.S. goals in Sri Lanka and Maldives.
    My 30 years in the U.S. Foreign Service includes postings as U.S. 
Ambassador to the United Arab Emirates and U.S. Ambassador to Lebanon. 
I also have considerable experience in South Asia, having served in 
India and Pakistan and as Principal Deputy Assistant Secretary for the 
region.
    The United States has important interests in both Sri Lanka and 
Maldives. Sri Lanka is located along the busiest shipping lanes in the 
Indian Ocean, a region emerging as a strategic arena in which America's 
enduring interests are increasingly at play. Sri Lanka has also been a 
contributor to U.N. peacekeeping operations. The United States 
recognizes the importance of maintaining a broad range of partnerships 
with Sri Lanka as we encourage a lasting, democratic peace in the 
country after nearly three decades of devastating conflict.
    The United States and other international partners have encouraged 
the Government of Sri Lanka to pursue the steps needed to foster 
genuine reconciliation and accountability. Although the Government of 
Sri Lanka defeated the terrorist organization Liberation Tigers of 
Tamil Eelam, serious allegations of violations of human rights law and 
international humanitarian law committed by both sides at the end of 
the war remain to be investigated and have slowed reconciliation.
    In March, the U.N. Human Rights Council adopted a U.S.-sponsored 
resolution calling on the Government of Sri Lanka to implement the 
recommendations of Sri Lanka's own government-appointed Lessons Learnt 
and Reconciliation Commission. In April, the State Department issued 
its third report to Congress on accountability in Sri Lanka since the 
end of Sri Lanka's conflict in 2009. Achieving genuine reconciliation 
will require Sri Lanka to take credible steps to ensure equality and 
justice for all Sri Lankans, particularly for those living in former 
conflict areas. Such steps include demilitarization of the former 
conflict zones, establishment of a mechanism to address cases of the 
missing and detained, and setting a date for provincial elections in 
the north. Also critical will be the achievement of an agreement 
between the Sri Lankan Government and the elected representatives of 
the Tamil community on devolution of power to provincial institutions.
    During a May 18 meeting with the Sri Lankan Foreign Minister, 
Secretary Clinton underscored that an enduring peace is unsustainable 
without adequate measures to address reconciliation and accountability. 
She encouraged a transparent and public process with regard to 
reconciliation and accountability to strengthen confidence inside and 
outside of Sri Lanka and to speed the healing of the country. If 
confirmed, I stand ready to lead our efforts to support Sri Lanka as it 
moves forward and to use U.S. assistance strategically to promote 
reconciliation, strengthen democratic institutions and practices, and 
foster economic growth, particularly in the north and east.
    The U.S. Ambassador in Colombo is also accredited to the Republic 
of Maldives. In February, following a series of controversial events 
and protests, the former Vice President took office after the 
resignation of the President. The United States continues to encourage 
Maldives to work within existing democratic institutions to resolve 
political challenges peacefully and transparently. The U.S. Government 
now has a window of opportunity to step up its engagement in Maldives, 
and USAID recently committed funding to assist Maldives in ensuring 
that the next round of Presidential elections is free and fair.
    The United States also recognizes the importance of promoting 
security in the Indian Ocean. To that end, the U.S. Coast Guard has 
provided training to the Maldivian Coast Guard to improve its ability 
to respond to threats of piracy as well as to combat transshipment of 
illicit commodities. U.S. assistance to the Maldives also promotes the 
development of a robust ``climate resilient islands'' model.
    If confirmed, I plan to consult with Sri Lankans and Maldivians 
from all walks of life on how the United States can best support local 
initiatives to promote civil society, protect freedom of expression, 
and encourage youth exchanges. It would also be my goal if confirmed to 
engage in vigorous commercial advocacy in Sri Lanka and Maldives on 
behalf of U.S. companies, in support of President Obama's National 
Export Initiative.
    I would welcome your insights and views, as well as any questions 
you might have for me today. Thank you.

    Senator Casey. Thank you, Madam Ambassador.
    Mr. McGurk.

         STATEMENT OF BRETT H. McGURK, OF CONNECTICUT,
            TO BE AMBASSADOR TO THE REPUBLIC OF IRAQ

    Mr. McGurk. Thank you, Mr. Chairman, Ranking Member Risch, 
Senator Lugar. It is a tremendous honor to appear before you 
today as President Obama's nominee to become U.S. Ambassador to 
Iraq. I am deeply grateful to the President and to Secretary 
Clinton for the confidence they have placed in me with this 
nomination. If confirmed, I look forward to working closely 
with you to advance America's many important and vital 
interests in Iraq.
    I have had the distinct privilege of serving alongside each 
of the last five U.S. Ambassadors to Iraq. I was with 
Ambassador John Negroponte in July 2004 when he raised the 
American flag to open a U.S. Embassy in Baghdad for the first 
time since 1991. Nearly 8 years later, I was with Ambassador 
Jim Jeffrey as he led the challenging transition from military 
to civilian lead for the first time since the toppling of 
Saddam Hussein.
    I have also served alongside our heroic military 
commanders, including Generals Petraeus, Odierno, and Austin. 
The opportunities that are now before us in Iraq exist only 
because of the leadership of these individuals and the more 
than 1 million Americans who have served there, including the 
nearly 4,500 who have paid the ultimate price.
    Like too many Americans, I have lost friends in Iraq. If 
confirmed, I will do everything in my power, drawing on all the 
tools of our foreign policy, to build a lasting partnership 
with Iraq that is worthy of their memory and sacrifice.
    I believe such a partnership is possible. I also believe, 
however, that we are not there yet. There is so much the United 
States must do to mitigate risks of backsliding and increase 
prospects for consolidating the many gains that we have seen 
since the worst periods of the war.
    Iraq today is slowing emerging from decades of war, 
isolation, and dictatorship. More recently, it faced down, with 
American help, a sectarian war that left tens of thousands of 
Iraqis dead and millions displaced. The violence threatened to 
collapse the Iraqi state and reduced many citizens to their 
most basic ethnic and sectarian identities.
    This legacy is felt most acutely in the political process. 
For the first time in Iraq's modern history, politics is now 
the primary arena for engagement among all of Iraq's many 
different sects and ethnicities. That is the good news. The bad 
news is that their vast differences still threaten to overwhelm 
the nascent institutional framework that was established under 
the Iraqi Constitution. I am deeply concerned about this 
situation.
    Iraq's Constitution envisions a united, federal, 
democratic, and pluralistic state in which all citizens enjoy 
fair representation in local and national institutions. This 
vision, however, remains an aspiration. Fear, mistrust, and 
score-settling still dominate political discourse. As a result, 
Iraqis have sought to supplement the constitutional design with 
additional political agreements and accommodations.
    I have often been one of the few Americans in the room when 
such agreements were being developed. If confirmed, I pledge my 
utmost efforts to work with leaders from all political blocs, 
to encourage respect for prior agreements, durable compromise, 
and constitutional arrangements that help guarantee meaningful 
power-sharing and partnership.
    These efforts would be guided by the 2008 Strategic 
Framework Agreement, which is now the cornerstone of U.S. 
policy in Iraq. The SFA is unique in that it structures a long-
term partnership across the fields of defense, energy, 
economics, diplomacy, education, and justice. With respect to 
the political process, it calls on the United States to help 
strengthen Iraq's democracy and its democratic institutions as 
established in the Iraqi Constitution.
    If confirmed, my mission is clear: to establish an enduring 
partnership with a united, federal, and democratic Iraq under 
the SFA. As one of the lead negotiators of the SFA, I would be 
honored to carry out that charge, together with Iraqi leaders 
and close colleagues from across the U.S. Government, many of 
whom I have worked with over a number of years.
    Going forward, if confirmed, I will seek to organize the 
mission around four mutually reinforcing lines of operation: 
defense and security, political and diplomatic, energy and 
economics, rule of law and human rights.
    In the defense and security area, if confirmed, I look 
forward to working with our Office of Security Cooperation and 
CENTCOM to ensure that we are doing everything possible to 
deepen our military defense partnership in Iraq.
    In the diplomatic area, if confirmed, I look forward to 
working with our Ambassadors in regional capitals, most of whom 
I have worked with and admired for many years, to ensure close 
coordination of U.S. policies in Iraq and throughout the 
region.
    In the political area, Iraq is scheduled to hold elections: 
provincial elections in 2013 and national elections in 2014. If 
confirmed, it will be a central focus of our mission to work in 
coordination with the U.N. to ensure that these elections are 
held freely, fairly, and on time.
    Energy and economics are now foremost priorities. If 
confirmed, it will be among my highest priorities to connect 
U.S. businesses with emerging opportunities in Iraq and to 
refocus Iraqi leaders on the urgent necessity of diversifying 
their economy and grappling with national hydrocarbons 
legislation.
    As the United States pursues its interests in Iraq, we must 
never lose sight of our values, including promotion of human 
rights, women, and protection of vulnerable minorities.
    This is an ambitious agenda, but it should not require an 
unsustainable resource base. If confirmed, I pledge to work 
with the Congress to establish a diplomatic presence in Iraq 
that is secure, strategic, effective, and sustainable. A 
focused U.S. mission with prioritized lines of operation 
organized around the SFA can enhance our influence and ensure 
the agility we will need to advance U.S. interests in a 
constantly changing and dynamic environment.
    I will also ensure, if confirmed, that precious taxpayer 
resources are applied effectively, transparently, and with an 
eye toward long-term sustainability.
    I have tried to touch upon a number of the issues that I 
will soon confront, if confirmed, as the next U.S. Ambassador 
to Iraq. For me, there is no more important mission in the 
world. I have served across two administrations over 8 years 
developing U.S. policy in Washington or executing U.S. policy 
in Iraq.
    I was with President Bush when we planned a surge of 30,000 
U.S. troops under a new strategy to turn around a losing war. I 
was with General Petraeus and Ambassador Ryan Crocker when we 
worked to implement that strategy against tremendous odds. I 
later helped manage the transition of our Iraq policy to the 
Obama administration under two binding international 
agreements. Over the past 2 years, I have answered repeated 
calls to return to Iraq and public service at times of crisis.
    My eyes are wide open to the risks and challenges ahead. 
But I close from where I started. For every challenge, there is 
also opportunity and obligation: to honor those lost in this 
war or forever changed by it, we must do everything in our 
power to build a partnership with Iraq and its people that can 
endure and advance United States interests in this most vital 
region. If confirmed, that is what I will seek to do.
    Thank you and I look forward to answering your questions.
    [The prepared statement of Mr. McGurk follows:]

                 Prepared Statement of Brett H. McGurk

    Mr. Chairman, Ranking Member Risch, members of the committee, it is 
a tremendous honor to appear before you today as President Obama's 
nominee to become United States Ambassador to Iraq. I am deeply 
grateful to the President and to Secretary Clinton for the confidence 
that they have placed in me with this nomination. If confirmed, I look 
forward to working closely with this committee and your colleagues in 
Congress to advance America's many important and vital interests in 
Iraq.
    I have had the distinct privilege of serving alongside each of the 
last five U.S. Ambassadors to Iraq. I was with Ambassador John 
Negroponte in July 2004 when he raised the American flag to open a U.S. 
Embassy in Baghdad for the first time since 1991. Nearly 8 years later 
I was with Ambassador Jim Jeffrey as he led the challenging transition 
from military to civilian lead for the first time since the toppling of 
Saddam Hussein.
    I have also served alongside our heroic military commanders 
including Generals Petraeus, Odierno, and Austin. The opportunities 
that are now before us in Iraq exist only because of the leadership of 
these individuals, and the more than 1 million Americans who have 
served there--including nearly 4,500 who have paid the ultimate price.
    Like too many Americans, I have lost friends in Iraq. If confirmed, 
I will do everything in my power--drawing on all the tools of our 
foreign policy--to build a lasting partnership with Iraq that is worthy 
of their memory and sacrifice.
    I believe such a partnership is possible. I also believe, however, 
that we are not there yet. There is still much the United States must 
do to mitigate risks of backsliding and increase prospects for 
consolidating the many gains that we have seen since the worst periods 
of the war.
    The situation in Iraq today is much different from what I 
encountered after first landing in Baghdad in January 2004. Back then, 
the road from the airport was known as the highway of death. American 
troops offered the only visible security presence. Sovereign authority 
was vested in an American administrator. Iraqi ministries were looted 
and abandoned shells.
    Today, Iraqis are securing their own country. Sovereign authority 
is vested in an elected Iraqi Government that serves under a popularly 
ratified constitution. And many key indicators are positive: Iraq's GDP 
is forecast to increase by double digits over each of the next 3 years. 
Its oil production recently surpassed levels not seen in three decades. 
Its Parliament recently passed a $100 billion budget, which was praised 
by the IMF for its fiscal prudence. The security situation has remained 
generally stable.
    Such indicators might point the way to a globally integrated Iraq 
that is more secure and prosperous than at any time in its history. 
This future is now possible, but not inevitable.
    The positive indicators I just cited should not obscure the 
sobering situation that now confronts Iraq. The country is slowly 
emerging from decades of war, isolation, sanctions, and dictatorship. 
More recently, it faced down--with American help--a sectarian war that 
left tens of thousands of Iraqis dead and millions displaced. The 
violence threatened to collapse the Iraqi state and reduced many 
citizens to their most basic ethnic and sectarian identities.
    This legacy is felt most acutely in the political process. For the 
first time in Iraq's modern history, politics is now the primary arena 
for engagement among all of Iraq's many different sects and 
ethnicities. That is the good news. The bad news is that their vast 
differences still threaten to overwhelm the nascent institutional 
framework that was established under the Iraqi Constitution. I am 
deeply concerned about this situation.
    Iraq's Constitution envisions a united, federal, democratic, and 
pluralistic state, in which all citizens enjoy fair representation in 
local and national institutions. This vision, however, remains an 
aspiration. Fear, mistrust, and score-settling still dominate political 
discourse. As a result, Iraqis have sought to supplement the 
constitutional design with additional political accommodations. An 
example of these included the Erbil agreements, which were negotiated 
over the course of 5 months in 2010 to serve as a roadmap for a new 
government.
    I have often been one of the few Americans in the room when such 
agreements were being developed. If confirmed, I pledge my utmost 
efforts to work with leaders from all political blocs to encourage 
respect for prior agreements, durable compromise, and arrangements that 
help guarantee meaningful power-sharing and partnership under the Iraqi 
Constitution.
    This is not simply a policy desire of the United States. It is a 
central commitment under the 2008 Strategic Framework Agreement (SFA), 
which President Obama has established as the cornerstone of U.S. policy 
toward Iraq. The SFA is unique in that it structures a long-term 
partnership across the fields of defense, energy, economics, diplomacy, 
education, and justice. With respect to the political process, it calls 
on the United States to help ``strengthen [Iraq's] democracy and its 
democratic institutions as defined and established in the Iraqi 
Constitution.''
    For Iraqis concerned that the United States might lose interest in 
supporting the political process, they need only look to the SFA and 
our commitment to its execution. As Secretary Clinton has said, ``The 
SFA commits our countries to work together on a range of issues, from 
governance and rule of law, to economics, education, energy, and the 
environment. And we're committed to following through.'' Such follow-
through will require active and sustained U.S. diplomacy.
    If confirmed, my mission is clear: to establish an enduring 
partnership with a united, federal, and democratic Iraq--under the SFA. 
As one of the lead negotiators of the SFA, I will be honored, if 
confirmed, to carry out that charge together with Iraqi leaders and 
close colleagues from across the U.S. Government, many of whom I have 
worked with over a number of years.
    Going forward, we should have no illusions. Building an enduring 
partnership with a country that since 1958 defined itself in hostility 
to the West will be exceedingly hard. But it is no harder than what we 
have done before--and we now have a roadmap.
    The SFA provides a common point of reference with the Iraqis and 
lends coherence to the U.S. mission in two important ways. First, it 
prioritizes U.S. objectives and thus helps ensure that taxpayer 
resources are targeted to advance U.S. interests. Second, it 
institutionalizes state-to-state relations and thus forces long-term 
thinking across U.S. and Iraqi administrations.
    I would like to discuss each of these points in turn, as they will 
frame my tenure as Ambassador, if confirmed.

                    PRIORITIZING LINES OF OPERATION

    In her introduction to the Quadrennial Diplomacy and Development 
Review, Secretary Clinton stated: ``We will eliminate overlap, set 
priorities, and fund only the work that supports those priorities.'' In 
Iraq, that means immediately directing our precious resources--
including time and personnel--toward four priority lines of operation.
1. Defense and Security Cooperation
    The first line of operation is defense and security cooperation. It 
would be a mistake to view the withdrawal of U.S. military forces as 
foreclosing a military partnership with Iraq. The SFA--which is a 
permanent agreement--provides the foundation for enduring defense ties.
    Iraq already has the fourth-largest Foreign Military Sales (FMS) 
program in the region and ninth-largest in the world. Through FMS, the 
Iraqi Government has chosen U.S. suppliers to build the backbone of its 
security forces--supporting tens of thousands of American jobs. The 
program is now valued above $10 billion and includes over 400 separate 
cases that are designed to help build Iraqi self-defense capabilities 
through ground power (tanks and radars), air power (pilot training, 
helicopters, F-16s, and air defense), and sea power (patrol boats, 
support vessels, and threat detection). Importantly, Iraq is now 
funding its defense and security needs. Its most recent budget included 
$15 billion in defense and security spending--twice the amount Iraq 
spent 5 years ago. It is in our mutual interest to ensure that these 
funds are spent wherever possible on U.S. manufactured equipment 
through our FMS program.
    Indeed, FMS sales have been the bedrock for U.S. strategic 
partnerships in the region and they can do the same for Iraq. As a 
staff report from this committee noted: ``The sale of military 
equipment gives us an edge in diplomacy, builds relationships, and 
fosters interoperability. But perhaps most importantly, it fills a void 
that other countries, including Iran, are more than willing to step 
into if left empty.'' FMS cases also ensure appropriate congressional 
scrutiny and end-use monitoring to deter and prevent misuse. Of course, 
this committee will be called upon to provide critical oversight of 
foreign military sales to Iraq. If confirmed, I look forward to working 
closely with you to protect and advance U.S. interests through our FMS 
program.
    The Office of Security Cooperation (OSC-I) is the primary 
implementer of U.S. security assistance in Iraq. I have worked closely 
with the leadership of OSC-I, Lieutenant General Bob Caslen and Rear 
Admiral Ed Winters. If confirmed, I look forward to working with them 
to build a streamlined and innovative OSC-I to advance our defense 
partnership with Iraq.
    This partnership will go beyond arms sales. It might also include 
joint exercises, strategic training and doctrinal development, support 
for critical infrastructure protection, NATO exchanges, professional 
military education, and other programs consistent with an enduring 
defense relationship. Iraq's regional integration through military-to-
military partnerships is also an important priority for CENTCOM. This 
will remain a challenge, particularly with some GCC states, but as 
Iraq's military grows and matures, technical mil-to-mil relationships 
may precede--and help set conditions for--diplomatic progress between 
Baghdad and GCC capitals.
    Additionally, the United States must work with the Iraqi Government 
to ensure that al-Qaeda never again secures a foothold in Iraq. While 
Iraq's Special Forces are among the most capable in the region, their 
effectiveness can be enhanced through cooperation with U.S. technical 
experts and advisors. If confirmed, I will work closely with Iraqi 
leaders to ensure that we are doing all we can to help Iraqi forces 
eliminate al-Qaeda's leadership and uproot its networks from Iraqi 
soil.
2. Diplomatic and Political Cooperation
    The second line of operation is diplomatic and political 
cooperation. Iraq has made diplomatic strides in recent months. It 
began to settle a series of long-outstanding disputes with Kuwait 
arising from the 1990 invasion. Saudi Arabia named its first ambassador 
to Iraq since 1990. Jordan has begun discussions to enhance energy and 
economic ties. The Arab League summit in Baghdad signaled Iraq's 
gradual reemergence on the regional stage.
    But the challenges are immense and growing due to the crisis in 
Syria. Syria was one of the main topics of conversation during my 
recent assignments in Baghdad. Prime Minister Maliki and other Iraqi 
leaders know that U.S. policy is firm: Bashar al-Assad must go. The 
longer he remains, the greater the danger to the Syrian people, to the 
region, and to Iraq. We have sought to encourage Iraq to support the 
Arab League consensus on Syria and demanded full adherence to relevant 
U.N. Security Council resolutions. In recent months, the record on 
these points has improved; but this matter will require constant 
vigilance and resolve.
    Iran has tremendous influence in Iraq, sharing a 3,000-kilometer 
border, as well as interwoven religious, cultural, and economic ties. 
But Iraqis have also resisted Iranian designs. Millions of Iraqis still 
bear deep scars--visible and invisible--from a bitter war with its 
eastern neighbor. Grand Ayatollah Sistani and the Marjayiya in Najaf 
profess a vision of Shia Islam that undercuts the very legitimacy of 
the Iranian regime. Iraqis complain about a flood of shoddy Iranian 
goods flooding their markets. The vast majority of Iraqis seek to live 
in a globally integrated nation, whereas Iran seeks to further isolate 
Iraq from the world.
    It is between these competing visions--an Iraq that is globally 
connected versus an Iraq that is isolated and dependent on Iran--that 
the United States retains substantial advantage and influence. Indeed, 
our vision for Iraq is one most Iraqis share, and it is codified 
throughout the SFA. To be sure, Iraqi leaders now in power have 
relationships with the Iranian regime. But they also have relationships 
with us. If confirmed, I will seek to enhance a broad range of 
relationships across government and civil society that can help Iraqis 
resist undue Iranian influence, increase U.S. influence, and advance 
our own mutual interests as defined in the SFA.
    The relationship with Turkey is increasingly complex. Turkey and 
Iraq enjoy booming economic ties and cooperate on counterterror 
policies. But recent months have seen rising tension between Ankara and 
Baghdad in line with rising tensions in the region. Ankara has also 
established unprecedented relations with Iraq's Kurdish leadership in 
Erbil, further raising the ire and suspicions of some in Baghdad. In 
2007, I was involved in developing a policy to initiate Ankara-Erbil 
ties after a series of devastating PKK attacks on Turkish territory. At 
the time, these ties were dormant; progress since then shows how 
rapidly dynamics can change. Going forward, the United States must 
continue to play a mediating role between Ankara, Baghdad, and Erbil.
    The greatest threat to Iraq's regional position comes from within. 
The divisions among Iraq's political blocs--and increasingly within the 
blocs themselves--have led to a perpetual state of political crisis. 
Some of this is inevitable. The governing coalition that formed in 2010 
includes 98 percent of the elected Parliament--nearly the entirety of 
Iraq's political spectrum--and naturally gives rise to rivalry, 
inefficiency, and intrigue. But escalating accusations in recent months 
present a heightened image of internal discord and open the door to 
meddling by outside actors. The withdrawal of U.S. forces--while 
increasing Iraq's sense of sovereignty and ownership over its internal 
affairs--may have also increased short-term risks of miscalculation and 
raised the stakes of lingering power-struggles.
    An underlying problem is that Iraq still suffers from a political 
system driven as much by individual personalities as institutions. Our 
aim, therefore, is to support and strengthen Iraq's democratic 
institutions wherever possible. There are some encouraging signs. The 
Parliament has at times asserted its independence and reined in the 
authority of the Prime Minister, most recently by removing from the 
budget a $15 billion investment fund that some believed left too much 
discretion to the Executive. Current debates in Parliament include 
deliberations over laws to devolve powers to provincial capitals, 
impose term limits on the Speaker and Prime Minister posts, and stand 
up a new Supreme Court. These are the types of quiet but important 
``issues-based'' debates that focus needed attention on what remains an 
unfinished constitutional design.
    It will also be essential over the next 24 months to help ensure 
that Iraq holds scheduled elections--provincial elections in 2013 and 
national elections in 2014. Elections may require new laws to allocate 
seats in provincial councils and Parliament as well as a new mandate 
and membership for Iraq's electoral commission. These matters will be 
politically charged and we must do everything possible--working in 
close coordination with the United Nations--to help Iraqis prepare for 
elections that are free, fair, internationally monitored, and on time.
    In the meantime, we must encourage Iraqi leaders to forge solutions 
consistent with the Iraqi Constitution. This includes achievement of a 
durable solution to Iraq's disputed internal boundaries in accordance 
with article 140 of the constitution, and a legal framework for the 
development, management, and distribution of Iraq's hydrocarbon 
resources.
    The United States cannot dictate outcomes. But we can nurture 
processes that open channels of dialogue and narrow areas of 
disagreement. If confirmed, I will engage national, provincial, and 
regional leaders every day--including regular visits to the Kurdistan 
region--to do just that.
3. Energy and Economic Cooperation
    The third line of operation is economics and energy cooperation. 
Secretary Clinton has placed ``economic statecraft'' at the heart of 
our foreign policy with an emphasis on harnessing economic forces to 
increase our influence abroad and strengthen our economy at home. I 
believe Iraq can be a centerpiece of this agenda. As a staff report 
from this committee found: ``Given that Iraq's fate will be decided in 
large part by the economic growth trajectory it realizes, the top 
priority for the U.S. Embassy should be helping American companies do 
business in Iraq.''
    Some U.S. companies are doing well in Iraq--including Boeing, Ford, 
General Motors, and General Electric. U.S. exports to Iraq rose 48 
percent in 2011 (to nearly $2.5 billion) and Iraqi consumers have 
demonstrated a preference for American goods, including American cars, 
which now account for nearly one-third of all vehicles sold in Iraq. 
But U.S. exports lag behind China ($4 billion) and the European Union 
($5 billion). Given all that we have invested, we must do all we can to 
connect Iraq's fast-growing market with U.S. businesses. The Commerce 
Department now offers Gold Key services for business-to-business 
matchmaking. State and Treasury offer advice and workshops for U.S. 
companies. The U.S. Business Council in Iraq seeks to promote private 
sector investment. If confirmed, I will endeavor to make such programs 
central to the Embassy agenda with a focus on driving investment into 
Iraq and supporting American jobs.
    The Iraqis must do their part. Iraq's macroeconomic picture is 
sound with low inflation and sustainable growth projected over the next 
3-5 years. But the country faces dire economic challenges--including 
overdependence on oil, weak financial institutions, corruption, and a 
dated regulatory structure. Its cumbersome legal environment, excessive 
subsidies, and barriers to entry further discourage growth and foreign 
investment. By helping the Iraqis address these challenges, the United 
States can gain leverage and influence while pursuing mutual goals.
    For example, the SFA envisions joint cooperation to help integrate 
Iraq into the global economy, including through accession to the World 
Trade Organization. WTO accession is a long-term process but it can 
help standardize import and export requirements, protect investors, and 
signal to the world that Iraq is ready to play by international rules. 
Iraq is also a candidate country for the Extractive Industries 
Transparency Initiative (EITI), which applies international standards 
of accounting and independent audits to deter corruption and boost 
confidence in a country's economic standing. Iraq would be the sole 
Middle Eastern member of the EITI and it has asked for U.S. assistance 
to meet its requirements.
    Iraq must also diversify its economy. While there is growth 
potential in nonhydrocarbon sectors--including agriculture, housing, 
fisheries, tourism, and telecommunications--Iraq is one of the most 
oil-dependent economies in the world. Sixty percent of its GDP and 
ninety percent of government revenues depend on the oil industry. 
Absent diversification, Iraq risks onset of the oil curse with a 
bloated state crowding out private investment and ingenuity. On the 
positive side, Iraq recently enacted a 5-year $186 billion development 
plan with projects for roads, hospitals, housing, sewage, and 
electricity plants. USAID and Commerce are working with Iraqi 
ministries to reform Saddam-era legal codes. But serious reform will 
require a sustained focus by Iraqi leaders with assistance from the 
United States, World Bank, UNDP, and the IMF.
    The oil sector is booming. Iraq today is one of the few potential 
swing producers in the world and has helped stabilize global markets. 
In 2011, Iraq produced an average of 2.7 million barrels per day--a 30-
year high--and this year production has increased by another 300,000 
barrels per day thanks to improvements in offshore infrastructure. 
Under contracts with international oil companies, including Occidental 
and Exxon-Mobil, Iraq has set a production target of 10 million barrels 
per day by 2020. Key obstacles, however--poor infrastructure, 
bottlenecks, bureaucracy, political infighting, and legal uncertainty--
may limit production to half that amount. It is in our mutual interest 
to help Iraq overcome these obstacles, and we have begun to do so by 
linking U.S. and Iraqi expertise to systematically analyze immediate 
problems and think jointly about long-term solutions. If confirmed, 
this will be a core Embassy focus.
4. Rule of Law and Human Rights
    The fourth line of operation is rule of law and human rights. I 
have seen Iraqi judges welcome U.S. assistance as they seek to build an 
independent judiciary free from political interference. This is 
extremely hard to do, as it was in the early years of our own 
constitutional experiment. But it is also important, and, as pressure 
on the Iraqi judiciary grows, we must work to deepen and enhance these 
relationships. Standing up a new Supreme Court--a requirement of the 
constitution that has never been acted upon--can also help further 
define legal boundaries that are intended to check and balance power 
horizontally (between branches of the federal government) and 
vertically (between the federal government, provinces, and regions).
    As the United States pursues its interests in Iraq, we must never 
lose sight of our values, including the promotion of human rights, 
women, and protection of vulnerable minorities. Iraq recently stood up 
an independent Human Rights Commission with authority to receive and 
investigate complaints from any Iraqi citizen. The U.S. Embassy is now 
working with the United Nations and interested Iraqi leaders to help 
ensure this commission lives up to its potential.
    The protection of vulnerable minorities also requires urgent 
attention. We must continue to work with the Iraqi Government and 
international partners to maintain a dialogue with these groups and 
address their concerns. In particular, the Embassy maintains an open 
dialogue with Iraqi officials and Christian leaders to discuss 
protection for Christian facilities. This dialogue should continue in 
earnest and become institutionalized over the coming months and years.
    Programs that promote women in Iraq--including assistance through 
Iraqi ministries to widows and training for emerging women leaders--are 
low cost and high impact. Secretary Clinton has placed these programs 
at the top of our human rights agenda in Iraq.
    Refugee assistance rounds out that agenda. This includes the nearly 
1.3 million internally displaced (IDPs) since 2006. Iraq has boosted 
resources to IDPs, including a fivefold increase in direct grants. U.S. 
support includes humanitarian assistance and processing refugees who 
wish to enter the United States. Recent changes in the intake criteria 
should ease processing of these cases--including through the Special 
Immigration Visa program. Iraqis who risked their lives to work with us 
should feel welcomed, even as we uphold essential security checks.

                      INSTITUTIONALIZING RELATIONS

    In Iraq today we confront a newly sovereign and assertive nation. 
The SFA is designed to account for this inevitability by establishing 
an organized partnership centered on high-level Joint Coordinating 
Committees (JCCs). Standing up these committees can establish regular 
patterns of engagement to widen avenues of cooperation and narrow areas 
of disagreement.
    Much of this is now underway. In April, the Energy JCC held its 
inaugural meeting to discuss how best to increase Iraq's supply of oil 
to global markets as well as its emerging electricity and natural gas 
sectors. Two weeks ago, the Defense and Security JCC began a structured 
dialogue over the contours of a long-term defense partnership. The 
Education and Culture JCC now oversees the largest Fulbright program in 
the Middle East and the largest International Visitors Leadership 
Program in the world.
    These JCCs help interconnect our governments, militaries, 
economies, cultures, and educational institutions. They are the 
institutional foundation for a long-term partnership.
    The SFA does not foreclose additional linkages between the United 
States and Iraq. For instance, given the increasingly important role of 
Parliament as an independent institution, it would be beneficial to 
develop linkages between the U.S. Congress and Iraqi parliamentarians.
    Additionally, America's close and historic relationship with 
Kurdistan and the Kurdish people must be sustained and enhanced. The 
U.S. consulate in Erbil is building deep and long-term relationships 
with Kurdish officials and civil society leaders. If confirmed, I look 
forward to continuing a dialogue with Kurdish officials on issues of 
mutual interest, including easing visa processing for travel to the 
United States, strengthening economic and educational connections, and 
supporting the region's emerging role as a gateway to the broader Iraqi 
marketplace.

                    INSTITUTIONALIZING OUR PRESENCE

    If confirmed, I pledge to work with the Congress to establish a 
diplomatic presence in Iraq that is secure, strategic, effective, and 
sustainable. I will welcome your guidance and continue a discussion 
with the Congress on the most appropriate U.S. footprint in light of 
U.S. priorities and conditions on the ground. I will also ensure that 
the use of precious U.S. taxpayer resources is transparent, effective, 
and targeted to advance U.S. interests.
    In Iraq today, our size often bears little proportion to our 
influence. In my experience, the opposite can be true. Our large size 
and contract tail can lead to friction with the Iraqi Government and 
misunderstanding among the Iraqi people, thereby depleting diplomatic 
leverage and capital. A focused U.S. mission with prioritized lines of 
operation--organized around the SFA--can help enhance our influence 
over the long term and ensure the agility we will need to advance U.S. 
interests in a dynamic and constantly changing environment.
    I have tried to touch upon a number of the issues that I would soon 
confront if confirmed as U.S. Ambassador to Iraq. For me, there is no 
more important mission in the world. I have served across two 
administrations over 8 years developing and implementing U.S. policy in 
Iraq.
    I was with President Bush when we planned a surge of 30,000 U.S. 
troops under a new strategy to turn around a losing war. I was with 
General Petraeus and Ambassador Ryan Crocker when we worked to 
implement that strategy against tremendous odds. I later helped manage 
the transition of Iraq policy to the Obama administration under two 
binding international agreements with the Iraqi Government. Over the 
past 2 years I have answered calls to return to Iraq and public service 
at times of crisis.
    I have always sought to take an empirical and pragmatic approach to 
the many complexities we confront in Iraq; and I have based my 
assessments on measurable risks to U.S. interests. If confirmed, I 
pledge to do the same with you.
    Mr. Chairman and members of the committee, my eyes are wide open to 
the risks and challenges ahead in Iraq. But I close from where I 
started. For every challenge, there is also opportunity and obligation: 
to honor those lost in this war, or forever changed by it, we must do 
everything in our power to build a partnership with Iraq and its people 
that can endure and advance U.S. interests in this most vital region.

    Senator Casey. Thank you, Mr. McGurk.
    Ms. Elliott.

STATEMENT OF SUSAN MARSH ELLIOTT, OF FLORIDA, TO BE AMBASSADOR 
                 TO THE REPUBLIC OF TAJIKISTAN

    Ms. Elliott. Thank you, Mr. Chairman, Ranking Member Risch, 
and Senator Lugar. As the chairman pointed out, I do have 
strong ties to the State of Pennsylvania, having been born 
there, and my son is a student at the University of 
Pennsylvania. But I also have strong ties to Indiana, having 
been a graduate of Indiana University and lived in Muncie, IN. 
So it is an honor for me to be here in front of you today.
    Senator Risch. How about Idaho? [Laughter.]
    Ms. Elliott. I do not have any to Idaho.
    Senator Risch. But you do eat the potatoes. [Laughter.]
    Ms. Elliott. Yes, I do and I love them.
    I am very honored to be President Obama's nominee to become 
the U.S. Ambassador to the Republic of Tajikistan. I am 
grateful for the trust and confidence that the President and 
Secretary Clinton have placed in me with this nomination. If 
confirmed, I will work closely with you, the committee, and the 
entire Congress to advance America's goals and interests in 
Tajikistan.
    I would also like to thank my wonderful colleagues, 
friends, and family who have supported me over my 22-year 
career at the State Department.
    Since recognizing Tajikistan's independence and 
establishing diplomatic relations 20 years ago, the United 
States has supported Tajikistan's sovereignty and encouraged 
its development as a more prosperous, tolerant, and democratic 
society. Shortly after its independence, when I first began 
working on Central Asia policy, Tajikistan was in the midst of 
a civil war. Today, the people of Tajikistan enjoy peace and 
stability. As Deputy Assistant Secretary of State for Central 
Asia over the last 2 years, I often traveled to Tajikistan and 
developed a deeper understanding and appreciation for the 
importance of Tajikistan to U.S. foreign policy interests.
    Tajikistan shares a long border with Afghanistan. Although 
the terrain is mountainous and the infrastructure is not well 
developed, Tajikistan plays an important role in the Northern 
Distribution Network that brings vital supplies to U.S. and 
coalition forces in Afghanistan. Tajikistan also provides vital 
air transit routes for U.S. and coalition cargo and military 
personnel.
    The Government of Tajikistan recently cohosted with the 
Government of Afghanistan a successful regional economic 
cooperation conference on Afghanistan. The conference achieved 
consensus on a concrete set of achievable projects and reform 
initiatives that can advance regional integration and provide 
new opportunities for private investment in the region. If 
confirmed, I will encourage Tajikistan to maintain and expand 
where possible this important support.
    Narcotics trafficking and terrorism plague Tajikistan's 
neighborhood. Over the years, U.S. cooperation with Tajikistan 
has grown in addressing this and other transnational challenges 
through engagement, assistance, and training. Currently we are 
working with the Government of Tajikistan to develop expanded 
counternarcotics cooperation with the goal of targeting 
organized traffickers, bringing them to justice, and reducing 
the flow of narcotics through Tajikistan. If confirmed, I will 
work to further strengthen our partnership with Tajikistan to 
combat the flow of narcotics and other illicit goods.
    Tajikistan is also the poorest country in Central Asia. The 
people and the government, though, are working to improve their 
economy and aspire to become members of the World Trade 
Organization. If confirmed, I will work with Tajikistan to 
develop its agricultural sector and to improve the regulatory 
environment for foreign investment and trade. If confirmed, I 
will also continue encouraging Tajikistan to take steps 
necessary to attract U.S. companies to help develop and 
diversify its economy with American goods, expertise, and 
services.
    Secretary Clinton visited Tajikistan in October 2011. 
During her visit, she met with the citizens of Tajikistan from 
all spectrums of society, from human rights activists to 
religious leaders to members of the media. The Secretary 
stressed the importance for governments and leaders to provide 
space necessary for citizens to have a voice in their 
governments, to pursue their aspirations, and promote their 
ideas. She also emphasized the belief that an open, democratic, 
tolerant society provides a firm foundation for a stable, 
secure, and prosperous nation. If confirmed, I will work with 
the Tajik Government to take concrete steps toward continuing 
the development of this kind of society.
    If confirmed, I will also engage the government and people 
of Tajikistan to increase not only our bilateral security and 
economic engagement, but also continue our dialogue on human 
rights, civil society issues, such as allowing freedom of the 
press and freedom of religion or belief.
    I know that success in all aspects of our engagement 
depends on my taking a leadership role in encouraging and 
supporting a strong, dedicated Embassy staff that coordinates 
closely with the administration, Members of Congress, and if 
confirmed, I look forward to continuing this active dialogue 
with you as we seek to advance America's interests with the 
government and people of Tajikistan.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Elliott follows:]

               Prepared Statement of Susan Marsh Elliott

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. I am honored to appear before 
you today as President Obama's nominee to be U.S. Ambassador to the 
Republic of Tajikistan. I am grateful for the trust and confidence that 
the President and Secretary Clinton have placed in me with this 
nomination. If confirmed, I will work closely with you, the committee, 
and the entire U.S. Congress to advance America's goals and interests 
in Tajikistan.
    I would like to thank all of my wonderful colleagues, friends, and 
family who have supported me over my 22-year career at the State 
Department. My son, Kurt Mitman, is here today. My husband, Matthias 
Mitman, is unable to be here because he is a career Foreign Service 
officer serving as the deputy chief of mission at the U.S. Embassy in 
Tegucigalpa, Honduras. He encouraged me to join the Foreign Service and 
has been my strongest advocate. I would not be here today without his 
love and support.
    Since recognizing Tajikistan's independence and establishing 
diplomatic relations 20 years ago, the United States has supported 
Tajikistan's sovereignty and encouraged its development as a more 
prosperous, tolerant, and democratic society. Shortly after its 
independence, when I first began working on Central Asia policy, 
Tajikistan was in the midst of a civil war. Today, the people of 
Tajikistan enjoy peace and stability. As Deputy Assistant Secretary of 
State for Central Asia for the last 2 years, I often traveled to 
Tajikistan and developed a deeper understanding and appreciation for 
the importance of Tajikistan to U.S. foreign policy interests.
    Tajikistan shares a long border with Afghanistan and has provided 
assistance to its neighbor to the south and to U.S. and coalition 
efforts to stabilize the security situation there. Although the terrain 
is mountainous and the infrastructure is not well developed, Tajikistan 
plays an important role in the Northern Distribution Network that 
brings supplies to U.S. and coalition forces in Afghanistan. It also 
provides vital air transit routes for U.S. and coalition cargo and 
military personnel. A stable future for Afghanistan depends on 
continued progress to develop the road, rail, and energy linkages with 
its Central Asian and other neighbors. Tajikistan cohosted, with the 
Government of Afghanistan in late March, the fifth and most substantive 
and successful Regional Economic Cooperation Conference on Afghanistan 
to date. The conference achieved consensus on a concrete set of 
achievable projects and reform initiatives that can advance regional 
integration and provide new opportunities for private investment in 
this region. Likewise, greater peace, stability, and prosperity in 
Afghanistan will contribute to stability and prosperity in Tajikistan 
and the other countries of Central Asia. If confirmed, I will encourage 
Tajikistan to maintain and expand, where possible, this important 
support.
    Narcotics trafficking and terrorism plague Tajikistan's 
neighborhood. Over the years, U.S. cooperation with Tajikistan has 
grown in addressing these and other transnational challenges through 
engagement, assistance, and training. Currently we are working with the 
Government of Tajikistan to develop expanded counternarcotics 
cooperation with the goal of targeting organized traffickers, bringing 
them to justice and reducing the flow of narcotics through Tajikistan. 
If confirmed, I will work to further strengthen our partnership with 
Tajikistan to combat this flow of narcotics, and other illicit goods.
    Tajikistan is the poorest country in Central Asia. The people and 
the government are working to improve their economy and aspire to be 
members of the World Trade Organization. If confirmed, I will encourage 
Tajikistan to develop its agriculture sector and improve the regulatory 
environment for foreign investment and trade. If confirmed, I will also 
continue encouraging Tajikistan to take the necessary steps to attract 
U.S. companies to help develop and diversify its economy with American 
expertise, goods, and services.
    My experience in the Foreign Service has taught me that long-term 
peace and stability are only possible when accompanied by respect for 
human rights, the rule of law, the fostering of transparent and 
democratic governmental and civic institutions, and an open and free 
media environment. If confirmed, I will engage the government and 
people of Tajikistan to increase not only our bilateral security and 
economic engagement, but also continue our dialogue on human rights and 
civil society issues such as allowing freedom of the press and freedom 
of religion or belief.
    The Obama administration has established conditions for 
constructive dialogue and trust with the government and people of 
Tajikistan. Secretary Clinton visited Tajikistan in October 2011. 
During her visit, she met with citizens of Tajikistan from all 
spectrums of society--from human rights activists to religious leaders 
to members of the media, women leaders, students, and educators. While 
there, the Secretary noted that Tajikistan is home to courageous, 
dedicated, and talented people who want to help improve the prospects 
for Tajikistan's future. The Secretary stressed the importance for 
governments and leaders to provide the space necessary for citizens to 
have a voice in their governments, to pursue their aspirations, and 
promote their ideas. It is also important to ensure fundamental 
freedoms, including religious and media freedoms for all people--men, 
women, young, and old. We believe that an open, democratic, tolerant 
society provides a firm foundation for a secure, stable, and prosperous 
nation. If confirmed, I will encourage the Tajik Government to take 
concrete steps toward continuing the development of that kind of 
society.
    I recently participated in the third Annual Bilateral Consultations 
with Tajikistan's Minister of Foreign Affairs, hosted in Washington, 
DC, by the State Department's Bureau of South and Central Asian Affairs 
Assistant Secretary, Robert Blake. In these consultations we discussed 
openly and comprehensively a wide range of bilateral and multilateral 
interests, including counternarcotics cooperation, regional security, 
development assistance, economic development cooperation and human 
rights. If confirmed, I will continue working with the Government of 
Tajikistan to achieve positive results on these issues and others.
    Finally, I know success in all aspects of our engagement depends on 
my taking a leadership role in encouraging and supporting a strong, 
dedicated embassy staff that coordinates closely with the 
administration and Members of Congress. If confirmed, I look forward to 
continuing an active dialogue with you as we seek to advance America's 
interests with the government and people of Tajikistan.

    Senator Casey. Thank you, Ms. Elliott.
    Before I get to my questions, we are joined by two ranking 
members: the ranking member of our Foreign Relations Committee, 
Senator Lugar; and the ranking member of our subcommittee, 
Senator Risch. And I think Senator Risch has a statement.
    Senator Risch. Why do you not go ahead on the questions? I 
will do it later.
    Senator Casey. OK. Thanks very much.
    Let me start with Iraq, Mr. McGurk. I just have a couple of 
questions on this first round. And we will do as many 5-minute 
rounds as we can.
    I wanted to ask you about leadership, which is a central 
concern in any confirmation process, but maybe especially so 
for the position that you have been nominated for. There will 
be those who say--and I want to have you respond to this--that 
you have, based upon your record, broad experience in Iraq, 
several time periods within which you have served and you have 
been called back for service, as I indicated, under two 
administrations. But they will also say that you have not had 
the leadership position that would lend itself to the kind of 
experience that would prepare you for such a substantial 
assignment. And I want you to answer that question because I 
think it is an important one in terms of demonstrating your 
ability to lead not just an embassy but an embassy and a 
mission of this size and consequence.
    Mr. McGurk. Thank you, Senator. Thank you for allowing me 
to address that, and I would like to do it in really three 
ways.
    First, leadership of the embassy starts at home at the 
embassy. As you noted in your opening statement, I have served 
with all five of our prior Ambassadors to Iraq and I have seen 
every permutation of the Embassy from the very beginning to 
where it is today.
    Throughout that process, I have learned and seen and been 
involved in what it takes to lead in Iraq, and to lead in Iraq, 
you need a really fingertip understanding of the operational 
tempo in Iraq, of what it is like day to day, of knowing when 
something is a crisis and when it is not, managing morale and 
keeping people focused on the goals.
    It also takes a team, and if I am fortunate enough to be 
confirmed, I would be inheriting a team of extraordinary talent 
and depth at the embassy. I have been fortunate to have worked 
with every member of the country team in Iraq, one of whom 
happens to be sitting to my left, Ambassador Sison. That team 
incorporates individuals from across the U.S. Government, just 
a whole-of-
government approach from Commerce to Transportation to Treasury 
to State to the defense community to the intelligence 
community. I have been fortunate and also gratified to learn 
that key members of that team have volunteered to stay on for 
another year and, if I am confirmed, would serve with me.
    As Ambassador, the buck would stop with me. And as I think 
I said in the opening statement, I have a very clear vision, in 
coordination with the President and the Secretary, of where we 
need to take this mission. But I would be working with a very 
strong team. Ambassador Steve Becroft, the DCM--I have worked 
with him for a number of years. I think we would make a very 
unique leadership team in the front office. The Regional 
Security Officer, Mark Hunter, has done an extraordinary job 
under difficult circumstances. He would be staying on. I have 
worked with him for a number of years. It would be my honor to 
lead them.
    Leadership also in this context--you have to look at 
interagency experience because you are leading a whole-of-
government approach. As the senior director for President Bush 
in the NSC, particularly at one of the most intense periods of 
the war, from the time of planning and implementing the surge 
and through the end of his administration, I was at point for 
organizing a whole-of-government effort to implement the surge. 
Throughout that process, I developed extremely strong 
relationships across the entire U.S. Government. I was involved 
in setting goals such as negotiating the Strategic Framework 
Agreement--that started in March 2007--organizing the U.S. 
Government, getting the right team in place, getting the right 
people in place, the right inputs in place, and then having an 
operational plan leading it through to fruition. That is just 
one of many examples of my interagency experience.
    And finally, I think one of the most important criterion 
for the Ambassador is the relationship with the Iraqis. And one 
of the reasons I have been called back into public service to 
come back to Iraq a number of times over the last 2 years I 
think is due to my unique relationships with the Iraqis. I have 
worked with these individuals since I first got to Iraq in 
January 2004. I was involved in those early days in the 
negotiation of Iraq's interim constitution called the 
Transitional Administrative Law, and I dealt with a lot of the 
same issues we are dealing with now and a lot of the same 
individuals we are dealing with now. I have deep and strong 
relationships across the board in the Iraqi Government.
    And I was just talking to Ambassador Jim Jeffrey, who just 
returned from Iraq, and we were talking about the leadership 
question. He said, you know, a lot of it is politics and 
personal, and one of the key jobs for the Ambassador is making 
sure that the Iraqis--we are working in a seamless way with the 
Iraqis so that we can run an effective mission, and that 
requires daily interaction and contact at the highest levels of 
the Iraqi Government. And that is something that I have done in 
Iraq for a number of years.
    Senator Casey. Thanks very much. I am almost out of time in 
this round, but Madam Ambassador, I will come back to you in a 
couple of minutes to ask especially about what I would assert 
is a lack of progress in Sri Lanka after the LLRC work that was 
done. I will pick up with that.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, let me say that, Mr. McGurk, I do not think 
anyone can question your knowledge and understanding of what 
has happened in Iraq. You have had an incredible amount of 
experience there. In fact, I would be hard-pressed, I would 
think, to find someone who would have a resume like you would 
as far as dealing with that is concerned.
    Having said that, Iraq of course is in a volatile, post-
conflict situation, and it is in, probably arguably, the most 
unstable region in the world. It is the largest Embassy that we 
have anywhere in the world. Last year, the United States spent 
about $6.5 billion there and this year it will be about $4 
billion there, very substantial amounts, more than my State had 
when I was Governor as an entire annual budget.
    Also, given the lack of representation that we do not have 
today in both Tehran and Damascus, the Ambassador in Baghdad is 
going to be responsible for, and have the responsibility for, 
the much larger regional context. And the ability to navigate 
all of these issues with the right balance and the right 
leadership and the right management will certainly be critical 
to the success of our Ambassador there. And again, recognizing 
the experience that you have had in Iraq, I appreciate that. I 
will have to say you are going to be challenged, I think, 
inasmuch as the size and the complexity of this operation 
confronts you, never having been an Ambassador before. And I 
wish you well in that. Certainly the administration recognized 
your understanding and abilities to pick you for the Ambassador 
there, but as Ambassador, obviously, your responsibilities will 
be substantially larger and much broader than what you have 
done there before. So I wish you well.
    Ms. Elliott, I want to talk briefly about Tajikistan. And 
one of the things you did not mention is the relationship 
Tajikistan has with Iran, and I think that is a concern to all 
of us, particularly when it comes to the purchase of crude oil 
from Iran. What are your thoughts in that regard?
    Ms. Elliott. Thank you, Mr. Senator. That is actually a 
very
important question.
    The people of Tajikistan have close cultural ties with the 
people of Iran, and of course, they are in the same 
neighborhood.
    I will say, in terms of sanctions, that we have been 
working very closely with the Government of Tajikistan on the 
recent Iran Sanctions Act. We have discussed with them at high 
levels and we have had an interagency approach. Not only the 
State Department but the Treasury Department has visited 
Dushanbe to talk with the Government of Tajikistan about this. 
We feel that from our discussions that they are very supportive 
and will be in compliance with the sanctions, and we look 
forward to continuing that discussion with them.
    Senator Risch. They are not in compliance with the 
sanctions now. Did they give you any timeframe as to when they 
would comply with the sanctions?
    Ms. Elliott. Well, we have been talking with them and they 
are, especially through their banking structure, working on 
improving those. And that will be a priority of mine to work 
with them to make sure that they do stay and become in 
compliance with them.
    Senator Risch. Have they given you a timetable?
    Ms. Elliott. I have not received a timetable.
    Senator Risch. Have you requested a timetable of that?
    Ms. Elliott. I believe that we have, but I can get back to 
you on that on the specifics of the timetable.
    Senator Risch. I will take that for the record.
    [The written reply for the record follows:]

    Despite misleading reports by Iran-based media, we can confirm that 
Tajikistan does not import crude oil from Iran. Relevant Ministries 
confirmed to our Embassy that Tajikistan is not purchasing, and has no 
plans to purchase, crude oil from Iran and that media reporting was 
incorrect. I would also note that, contrary to the Iran-based media 
report, there is no rail link to Afghanistan to transport the oil to 
Tajikistan nor does Tajikistan have sufficient capacity to refine 
significant volumes of crude oil in Tajikistan. Tajikistan also does 
not have any pipelines connecting it with Iran.
    Though we can confirm that Tajikistan is in compliance with Iran 
Sanctions with respect to crude oil, we continue to monitor and engage 
with the Government of Tajikistan on other potentially sanctionable 
activity. The Government of Tajikistan has responded swiftly when we 
have raised activities of concern, including in the financial sector, 
and has taken immediate steps to preclude any re-occurrence.

    Senator Risch. I am going to yield to Senator Lugar at this 
time.
    Senator Casey. Thank you, Senator Risch.
    Senator Lugar.
    Senator Lugar. Thanks, Mr. Chairman.
    Mr. McGurk, there was considerable discussion in this 
committee, as well as in our Government as a whole, about the 
size and the scope of our Embassy in Baghdad after the nature 
of our post-withdrawal presence there was made clear. Iraq was 
very insecure, and we apparently had ambitions that the Embassy 
might be a fulcrum for activities throughout the area, almost a 
headquarters for the United States ambitions for democracy and 
human rights and so forth throughout the Middle East. However, 
we still have that Embassy. It is still huge and it has been 
suggested, in addition to the diplomatic employees of the 
United States, maybe as many as 16,000 people are affiliated 
with it, in a situation where our troops are no longer 
providing security on the ground there in the numbers they 
were.
    I am just simply wondering about your reflections, having 
served in all of these capacities through five Ambassadors, 
just physically how do you plan to administer this building, 
quite apart from the people? I appreciate that this is a 
several-chapter answer. But in light of the security 
predicaments and increased hostility on the part of the Iraqis 
regarding our participation, how do you plan to manage this?
    Mr. McGurk. Senator, thank you very much. I have given a 
great deal of thought to this. On my last assignments in Iraq, 
I participated in almost every internal conversation, both 
interagency and in Baghdad, about how not only to plan the 
transition after our troops were withdrawing but also how to 
get the size down. Quite frankly, our presence in Iraq right 
now is too large. There is no proportionality also between our 
size and our influence. In fact, we spend a lot of diplomatic 
capital simply to sustain our presence. So there is a process 
underway now, as you may know, to cut our presence by about 25 
percent by next fall. I fully agree with that approach, and I 
think we can do more.
    It is important to keep in mind the reason we are so big 
now is that the transition was planned--it was all contingency 
planning. The Department was not quite sure what we would face 
in the early months of this year. And so we planned for every 
possible contingency. But where we are now I think we need to 
really focus, and that is why I had this four-part test. It 
will be a test for every program in Iraq. Are we secure? Are 
our people safe? Is it strategic? And that means is it a core 
priority to advance our national interests. We need to ask that 
very directly because we are institutionalizing our long-term 
presence now. Is it effective? Are our programs getting 
results? That means do they have adequate buy-in from the 
Iraqis? And is it sustainable, something we can do for the long 
term? If I am confirmed as the next Ambassador, I will put 
everything to that test.
    In terms of managing the day-to-day operations of the 
Embassy, I have also been involved in this because what often 
happens is it is not just the internal management. We need to 
go discuss something with the Iraqi National Security Advisor, 
with the Prime Minister, and I am often doing that shuttling.
    As I mentioned in my earlier answer to Senator Casey, I 
have a very strong team in Iraq. Steve Becroft, who would be 
the DCM and the COO of the shop, I have worked with for a 
number of years. We would sit right next to each other. Offices 
would be right next to each other. The buck would stop with me 
for every single decision, but Steve is a terrific day-to-day 
manager of the operation, and I think we would make a very 
strong team. But I cannot discount the challenges ahead.
    Senator Lugar. Well, I appreciate that answer very much and 
the very specific though that you will examine each and every 
program, that we probably are overrepresented, and that the 
expense of this is enormous. This impact our whole State 
Department budget, as you know. So I appreciate that managerial 
idea.
    Let me ask how you are going to advise Prime Minister 
Maliki under the current circumstances in which he is not 
getting along well with the opposition, to say the least, and 
the Kurds are drifting off by themselves. What are the 
challenges for our diplomacy here?
    Mr. McGurk. Thank you, Senator. It is a really critically, 
critically important point.
    I have worked with Prime Minister Maliki for a number of 
years and all the Iraqi leaders. And I have worked with him in 
his capacity as the Prime Minister. I said in my written 
statement I would try to focus now on dealing with the Iraqis 
in an institutional way, so dealing with Maliki as a Prime 
Minister now. If there was a new Prime Minister tomorrow, I 
would have the same, I hope, close working relationship with 
him. I have worked with four speakers of Parliament, for 
example, to focus on the institutions.
    When you are in Iraq and dealing with all sides, there are 
different narratives to the political process. The government, 
though, was put in place in 2010, as you know. It took 8 months 
to put in place. When it finally came together, it represents--
98 percent of the Council of Representatives are represented in 
the cabinet. That naturally leads to a lot of inefficiency, a 
lot of rivalries, a lot of intrigue, and that is certainly 
going on now. Maliki will say that his opposition figures who 
are in his Cabinet will not share responsibility for governing. 
The opposition figures say Maliki is consolidating power. They 
are all right. And we need to work with all of them to live up 
to their prior agreements and to work within the constitutional 
system to change the process.
    You mentioned the Kurds, and this is critically important. 
I would plan to visit the Kurdistan region as much as possible. 
I would like to be up there, if I am confirmed, at least once a 
week because it is the personal interaction between the Iraqi 
leaders and the U.S. Ambassador that is so important for 
keeping everything stable and for bridging areas of 
disagreements. The Kurds are having some difficulties with the 
Baghdad Government right now. The Baghdad Government is having 
difficulties with the Kurds. The real rivalry is Massoud 
Barzani and Prime Minister Maliki. We have to play an important 
role in mediating that effort.
    I would just leave it at there is a constitutional system 
in place now. This is the third Iraqi Government. This is the 
second Parliament. The Iraqis are going to fight through their 
politics under the constitutional rules that they themselves 
have devised. We cannot direct outcomes through that process. 
When you try to do that, the unintended consequences are quite 
enormous. But we can help bridge differences. We can mediate 
back and forth and be constantly actively engaged. And that is 
what I would intend to do if I am confirmed.
    Senator Lugar. Well, thank you for very comprehensive and 
thoughtful answers. I appreciate it.
    Senator Casey. Thank you, Senator Lugar.
    Senator Udall.
    Senator Udall. Thank you, Chairman Casey and ranking 
members that are here. Good to see you.
    And thank you for the panel being here. I very much 
appreciate all of your service to our country.
    In April 2012, the Special Inspector General for Iraq 
Reconstruction found in his report that there was a record low 
amount of casualties for the month of March and a drop in 
violence overall in the last few months and specifically 
reported that 112 Iraqis died as a result of violent attacks in 
the month of March, the lowest toll since the United States 
invaded in 2003.
    Based on such improvements, do you think that the Iraqi 
Government is on the right track to secure its government, and 
how has the fact that Iraq is accountable for its own security 
changed the security calculus in the country and the U.S. 
relationship with Iraq?
    Mr. McGurk. Thank you, Senator.
    At the very top of my mind is the safety of all Americans 
serving in Iraq. I track this extremely closely. Over the 
course of this year, we have had, on average, zero to three 
attacks a week on the overall U.S. presence, almost entirely 
107 millimeter rockets from the Naqshbandi group which is 
remnants from the Baathist Party in the north. Fortunately, we 
have had no casualties from those attacks. Zero to three 
attacks on our presence compared to about 1,000 a week, which I 
can remember very well, 5 or 6 years ago. So that is positive. 
We want to make sure that that trend continues.
    The reason for that trend is there are really five militant 
groups in Iraq right now.
    First, there is Al Qaeda in Iraq. Al Qaeda in Iraq remains 
active. Their operating tempo--they are able to strike every 30 
to 40 days. Sometimes those attacks are quite spectacular. 
Senator Casey mentioned recent attacks just this past week. Al 
Qaeda in Iraq is now striking at a level that is about the same 
as it was over the course of last year. The Iraqi Government 
has not been able to degrade Al Qaeda in Iraq. That is a 
serious concern and we need to work with them on that.
    The second group, as I mentioned, is the Naqshbandi group. 
They operate in the north around Nineva and Kirkuk, and they 
primarily only target us.
    Then there are three militant Shia groups. There is Asaib 
al-Haq. There is Kataib Hezbollah and the Promise Day Brigades. 
The Jaish al-Mahdi, which you might remember, Sadr's army, has 
pretty much--is now part of the political process.
    Those three Shia militant groups since January 1 have 
really gone to ground. And I was just discussing this with 
General Mattis, and it is interesting. We are watching it very 
closely. Our withdrawal seems to have taken them--their ability 
to recruit and sustain operations has really been depleted. 
They have almost stopped attacking us.
    However, I would not bank on that. I remember very well 
when the Iraqi Army went into Basra and we took hundreds of 
rockets on the compound from groups that were lying in wait to 
strike us. And I watch this very carefully with all of our 
assets within the U.S. Government.
    In terms of internal security and the Iraqis and being able 
to secure their country, they are not doing a bad job. They 
secured the capital to host an Arab League summit. They secured 
the capital to host the P5+1 talks. That would have been 
unheard of 3 to 5 years ago. So they are doing very good 
internal security. They remain weak in external security, and 
that is where the Office of Security Cooperation under the 
Embassy is working very closely with the Iraqis to try to close 
some of their capability gaps.
    Senator Udall. Thank you. I have another couple of 
questions, but I think it will run over if I pursue those right 
now.
    Senator Casey. Senator, we allow an extra minute.
    Senator Udall. OK, well, that is good.
    I am changing direction here a little bit. I want to ask 
you about the future stability of Iraq and its ability to have 
a sustainable water supply in the Tigris and Euphrates River 
Basin. This area is considered one of the birthplaces, as you 
know, of human agriculture, and their ability to sustain the 
ecology of the area has been threatened by increased water use 
upstream. And we are seeing this, I think, in rivers across the 
region.
    How will you work with Iraq's neighbors to develop 
sustainable use of water, and how can the United States work to 
leverage its scientific and engineering talents, especially 
those at the national labs, to find a long-term solution to the 
problem?
    Mr. McGurk. Senator, it is a really great and overlooked 
point. The water situation in Iraq and the region is very 
serious. If you look at Iraq's agriculture, it used to be the 
bread basket of the world. Today agriculture is approximately, 
at best, 20 percent of GDP. But agriculture in Iraq uses 90 
percent of Iraq's water. That is not sustainable. And it is to 
the point where if we get their agriculture going again, they 
are going to have a serious water problem.
    Maliki and the Iraqi Government recently hosted a 
conference to discuss this with some of the regional neighbors 
in Baghdad, and Maliki said we face a real crisis. So the 
Iraqis are now seized of it.
    We have a common way forward within the Strategic Framework 
Agreement because it calls on cooperation between the United 
States and Iraq to address issues like this to call on the 
expertise--I know there is some of it in New Mexico--from 
within our country to help the Iraqis think in a systematized 
way. Do they need dams? Do they need to redirect some water 
supplies? And to work with Turkey in particular to address this 
problem over the long term.
    All I will say is it has been overlooked. It has been 
overlooked because Iraq has been involved in a fierce sectarian 
war. Now that we are coming out of that phase, these very 
important issues need to rise to the highest priority within 
our Embassy.
    Senator Udall. Thank you.
    Thank you for your courtesies, Mr. Chairman.
    Senator Casey. Thank you, Senator Udall.
    Ambassador Sison, I wanted to ask you about the so-called 
LLRC in Sri Lanka, the Lessons Learnt and Reconciliation 
Commission. I have a two-part question. For part one, you heard 
me assert that I do not think they have made anywhere near 
substantial progress. How do you assess where Sri Lanka is as 
it relates to the LLRC, the implementation of the results or 
maybe more pointedly the imposition of accountability on 
individuals for their actions especially at the end of the 
civil war? No. 2, Why have the United States and other 
countries in the international community not insisted upon an 
independent investigation, and will they?
    Ambassador Sison. Thank you, Senator.
    The Lessons Learnt and Reconciliation Commission 
recommendations were, of course, front and center as a topic 
when the Sri Lankan Foreign Minister met with Secretary Clinton 
last month here in Washington. We have asked the Government of 
Sri Lanka to provide regular and public updates on the 
implementation of what is the government's own commission, 
particularly with regard to demilitarization of the north, to 
setting a date for provincial elections in the north, focus on 
human rights protections, including increased space for civil 
society to operate, increased focus on media freedom.
    I agree we do need to see in more specific terms benchmarks 
met on the recommendations of the action plan set out by the 
LLRC.
    Senator Casey. As a result of that meeting, were we 
enlightened by it or were there any indications that there is 
progress, momentum, results, deadlines? Because it has been 6 
months and the concern here is obvious. It is about human 
nature when you have that kind of internal conflict and a 
winner, in this case the Sinhalese side of the debate. They 
have power and they have set up their commission. The question 
is, Will they ever be able to implement recommendations, and 
should we, in fact, have an international independent 
investigation?
    Ambassador Sison. Senator, not just the United States but 
many international partners, of course, voted in March in 
Geneva at the Human Rights Council on a U.S.-sponsored 
resolution on reconciliation and accountability. There has been 
an international call for progress on both reconciliation and 
accountability because one cannot have true reconciliation, 
genuine reconciliation without that accountability. There are 
credible, serious allegations, I completely agree, of crimes 
committed by both sides in terms of violations, I should say, 
of international human rights law and international 
humanitarian law.
    So we do look for near-term progress, benchmarks to be met, 
particularly on setting a date for the provincial elections in 
the north, specifically demilitarization in the north. And if 
confirmed, Senator, I can absolutely commit to you and to your 
colleagues that human rights issues, protection of the ability 
of civil society and the media to do their job, will be on the 
top of my agenda. I do believe that we can have constructive 
engagement and at the same time principled engagement that 
keeps human rights protections, rule of law at the forefront.
    Senator Casey. Look, I know this has been a priority, but 
when people see almost no progress on the implementation of 
recommendations, this question of an international 
investigation is going to present itself continually. And I 
realize it is sensitive. It is a difficult question for the 
administration.
    But I would say two things. No. 1, it is not going to go 
away until the world sees results. So the question will not go 
away. And No. 2, I would urge you, upon confirmation, to use 
every bit of energy and persuasion and cajoling and anything 
else you can bring to bear on the leadership in Sri Lanka to 
get results because in the end people are not going to be 
satisfied until we see those results, meaning progress on the 
recommendations.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. McGurk, you commented about the Kurds, and I am 
interested in that and I would like to pursue that a little bit 
further.
    It seems to me, as an outsider looking at this, the Kurds 
seem to be doing very well on their own. The construction that 
is going on there far outstrips what is being done in Baghdad 
and other parts of Iraq. They just seem to be progressing.
    Having said that, it would seem to me that they are being 
left alone to a degree because of the--for lack of a better 
word--chaos down south. What is your view as to what is going 
to happen as this thing--the rub right now you blamed on 
personalities I think I picked up from your statement. But I 
think it is going to go deeper than that. Once Baghdad gets its 
act together and they see what is happening with the Kurds and 
the Kurds--as is pointed out, they are moving away and are 
happy to move away and seem to be doing very well moving away. 
I do not think that is going to set very well with Baghdad as 
time moves on. Can I get your thoughts on that?
    Mr. McGurk. Thank you, Senator. And it is far deeper than 
personalities, so I do not want to leave that impression. These 
issues are--some of them are centuries in the making and it 
could take centuries to really resolve for good.
    Between the Kurds and the Arabs, there is obviously an 
issue on what the call the disputed internal boundaries. That 
still remains unresolved. You have my commitment, if confirmed, 
to work through the process that is designed through article 
140 of the constitution--and the U.N. will play a role in 
that--to get the sides together to begin discussing in a 
serious way an equitable resolution to the disputed internal 
boundaries.
    Also, nothing could go further to stem these centrifugal 
forces that you are discussing than agreement on national 
hydrocarbons legislation. That is agreement on the management, 
the distribution of their national patrimony. We have made a go 
at that over the years, made some progress in 2007, and had a 
package of laws that were pretty close.
    On my last trip in Baghdad, even in the midst of a 
political crisis, I found a new urgency among some of the key 
players to return to the table on the issue of national 
hydrocarbons. If I am confirmed, that will be one of my central 
priorities to do everything we possibly can. Again, we cannot 
dictate the outcome but we can do shuttling and figure out 
where are the areas of agreement that we can build on and where 
can we narrow areas of disagreement because without consensus 
on how to manage the national hydrocarbon resources, 
centrifugal forces can accelerate, and I am deeply concerned 
about that. And I think focusing on the 140 process and on the 
hydrocarbons legislation will be very important.
    Senator Risch. Do you think the parties are amenable to 
that resolution?
    Mr. McGurk. Some of them are and some of the are not. There 
is a lot of division within the Kurdish region and there is 
division in Baghdad among all of the many parties. And one of 
the key things to do is to try to find the leaders who are in a 
compromising frame of mind to work sometimes behind closed 
doors to build compromise, and it can be very difficult. I 
cannot underestimate the challenges of this issue. The Kurds 
want to develop their resources in their region, and under the 
constitution, they have a right to. In Baghdad, they want to 
develop the resources in a national way in which the Baghdad 
Government has a say, and under the constitution, as they read 
it, they have a right to. What we need to do is find a 
compromise within the constitutional framework.
    My hope is that as Iraq's oil production is increasing--and 
it is one of the good news stories in Iraq right now. They are 
producing around 3 million barrels a day for the first time 
really in 30 years. Iraq's own estimates--they want to get up 
to about 10 million barrels a day by 2017. As I said in my 
written statement, we do not think that they will meet that. 
Probably it may plateau at about five. But still as these 
resources are being developed, there is a new sense that 
something has to be done with a consensus for how these 
resources are going to be managed and the profits and the 
revenues shared. It is one of the most central issues on the 
domestic political agenda.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Senator Udall.
    Senator Udall. Thank you.
    You, with Senator Risch, discussed this whole issue of 
hydrocarbons. It has been reported that Iraq has the goal of 
doubling its oil output over the next 3 years. And I think in 
the long term they want to reach a total of 12 million barrels 
per day, which, as you know, Mr. McGurk, would be pretty 
incredible in that region. That would put them up there with 
Saudi Arabia. Do you believe Iraq is on track to achieve this 
goal, and what has helped Iraq improve its successful increase 
of petroleum output over the last year?
    And in particular, I am interested in while we were there, 
there were lots of reports that the security was not good 
enough for oil companies from around the world to move in and 
do the job and get the oil back online. But apparently now, I 
mean, they are going up dramatically. I think they are up past 
what it was from the invasion, and they look like they are very 
aggressive. I know you are not an oil expert, but I mean, you 
are over there talking to them and you have been over there a 
while. Do you have a sense of where they are headed on oil 
output?
    Mr. McGurk. Thank you, Senator. We addressed this briefly 
in your office, and I am fortunate for the chance to develop it 
further here.
    There were two key events in 2007 and 2009 that have really 
led to this major increase in oil. In 2007, during the surge 
period, we really convinced the Iraqis that they have a single 
point of failure and a national security problem in how their 
oil is exported. It is really exported through the Basra oil 
terminal called the ABOT, and if you go out there, it is kind 
of like the movie ``Water World'' or a Mad Max movie. It is 
very vulnerable and it is old and rusting. And were that 
terminal to fail, Iraq would not be able to export oil other 
than through the north in the Ceyhan pipeline, but about 80 
percent goes through the south.
    So a plan was put in place. And General Petraeus was part 
of this and Ryan Crocker was part of really urging the Iraqis 
to do this with the Oil Minister at the time, Sharastani, to 
develop new offshore infrastructure. And these are called 
single-point moorings. Foster Wheeler had a big role in the 
engineering feat in actually pulling this off.
    The first single-point mooring started delivering oil in 
February and it immediately increased Iraq's oil by 200,000 
barrels a day. Other single-point moorings in the gulf are 
scheduled to open over the course of this year. It is a major 
engineering feat. There will be setbacks, but it could increase 
Iraq's oil--just those single-point moorings--by 2.5 million 
barrels a day. It is a tremendous story from 2007 and getting 
the Iraqis to where they are now.
    The second piece were the bidding rounds in 2009 where 
Iraq, for the first time, invited international companies in to 
bid for their fields. It was a success. And it was very 
difficult because I used to hear from Iraqis in 2004, 2005, 
2006 and say you really got to get international companies in 
here. There was this fear of a kind of nationalist backlash if 
they got companies in to drill and to help the Iraqis produce 
their oil. But it happened in 2009. They drove a very hard 
bargain. But because of those contracts, there is now 
international companies. BP, Exxon Mobil, Occidental, the 
Chinese Lukoil are drilling and helping the Iraqis develop 
their resources.
    So very briefly, where do we go from here? The Iraqis still 
are not thinking in terms of a system and how to really get 
their oil going. Sometimes they do not have the right pumps in 
place. They do not have the right water pressure to come in and 
get the oil out of some of their older fields. And we have been 
working closely with the Iraqis. And Ambassador Jim Jeffrey has 
really raised this to the top of our embassy priority. He has 
done an incredible job with it through the Joint Coordinating 
Committee, the SFA. We now have very deep ties with the Iraqis. 
They recently had their inaugural meeting here in Washington 
with our Department of Energy with Carlos Pasqual at the State 
Department and showing the Iraqis how to think in terms of a 
systematized way to develop the oil resources. A number of do-
outs came from that meeting, and we are now following up.
    But it is an important way how under the SFA we can talk to 
the Iraqis about high-level strategic issues and how we can 
cooperate both whole-of-government and within our private 
industry. And getting our private industry harnessed and into 
Iraq is going to be really critical. And through the oil sector 
and through the energy sector, there is a gateway for doing 
that.
    Senator Udall. Thank you for that answer.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Udall.
    Senator Lugar.
    Senator Lugar. Ms. Elliott, I would like to pursue further 
just for our own knowledge of what is occurring in Tajikistan 
presently. How would you describe the relations of that country 
with Russia, for example, or with China or other countries that 
may have strategic interests there?
    Ms. Elliott. Thank you, Mr. Senator. That is a very good
question.
    Having been a former country of the Soviet Union and also 
sharing a border with China, Tajikistan I believe shares very 
good relationships with those countries, but they also share 
good relationships with us. As I mentioned in my statement, we 
have good cooperation with them on the Northern Distribution 
Network, and they are doing a lot to help their neighbors to 
the south and also to help in fighting crime and narcotics.
    We believe that it is not a zero sum game in Central Asia 
and that the countries of Central Asia need to keep good 
relations with their neighbors and with Russia. We have also 
had good cooperation. I have served in Embassy Moscow, and our 
Assistant Secretary Blake, as part of our annual bilateral 
consultations--we have consulted in the region. So I would say 
that the situation is very good, that Tajikistan shares good 
relations with its neighbors. And we look forward to continuing 
those strong relationships, and if confirmed, I will make that 
a priority.
    Senator Lugar. Well, you have described in your opening 
statement a civil war that occurred there, the resolution of 
that, and the beginnings at least of a government that 
apparently aspired to democratic tendencies. But try to 
describe the evolution of that government. To what extent is 
there a sharing of power between the branches? How active is 
the legislative branch, and how active are persons who are 
demanding human rights and the recognition of minorities and 
what have you? What is the lay of the land in terms of 
political progress there?
    Ms. Elliott. Well, that is also a very good question and 
one that concerns us because I think in the 20 years of its 
independence, we have not perhaps seen the growth of civil 
society and the growth of democracy that we would have liked to 
have seen. This is something that the Obama administration has 
engaged on. As I mentioned in my statement, Secretary Clinton 
visited Tajikistan, and part of the reason she visited was to 
be able to engage with civil society but also to engage with 
the government on the need for expanding human rights, 
expanding freedom of the press, expanding freedom of religion. 
There is one independent Islamic party that participates in the 
Parliament in Tajikistan.
    However, I would say that we need to do more to open civil 
society there and to improve the human rights of the people of 
Tajikistan. And again, if confirmed, this will be one of my top 
priorities. We do have national security interests there, but 
our interest in improving the human rights and the rights of 
the people of Tajikistan are also extremely important.
    Senator Lugar. The reason I asked these questions in that 
order is that clearly there are influences governmentally from 
China and from Russia, quite apart from historical problems in 
Tajikistan. We have, as you have illustrated, our own ideas 
about what would be ideal for the people of the country and 
espouse those, and Secretary Clinton's visit is a good, high-
profile example. I am just curious in terms of the complexity 
as we weigh in diplomatically with regard to our thoughts about 
their governance, while at the same time hoping for support in 
Afghanistan or elsewhere where they can be helpful. This 
requires diplomacy with really a high degree of tact, I 
suspect, and recognition of the cross currents historically as 
well as presently.
    Has there been a trend, would you say, toward the human 
rights aspect and toward developments that we would find more 
compatible with our ideas of governance?
    Ms. Elliott. Well, as I mentioned, I do not think that the 
trends have been perhaps as extensive as we would have liked in 
the 20 years of Tajikistan's independence. I think one thing we 
have to remember is they do not share the same history of 
democracy that we do. They are a young country, and I believe 
that they are working toward improving the human rights 
situation there. They just recently passed a law that would get 
rid of the laws that make criminalization of libel which will 
help journalists there. So we have seen some progress. Some 
journalists who had been arrested have been released, but there 
is still a lot of work to be done.
    And I would say that Russia does have interests in 
Tajikistan. They have a military base there. Their concern, I 
think, is for security and for stemming the flow of narcotics 
from Afghanistan.
    So if confirmed, I think we will continue to work on that 
and make it a priority and to work not only with Tajikistan but 
with the neighbors to make sure that we are all moving and 
helping them to move in the right direction.
    Senator Lugar. Well, I thank you for your answers and 
likewise for your experience in that area.
    Thank you.
    Senator Casey. Thank you, Senator Lugar.
    I will go another round and others may as well, but I know 
we are coming to the end of our hearing.
    Ms. Elliott, I wanted to ask you about the Northern 
Distribution Network, and I will hold that in abeyance just for 
a moment to get to Mr. McGurk on special immigrant visas. If a 
citizen of Iraq has helped American forces in ways that put him 
or her at substantial risk, we expedite their visas pursuant to 
the Special Immigrant Visa program. And as I said, these are 
individuals that live under threat today. I know that the 
process has been expedited and that the United States has 
admitted as many applicants in fiscal year 2012 as it did in 
all of 2011. So there is progress. But there is still a 
backlog.
    And the question I have for you--I do not know if you have 
a number, but if you do not, if you can get it to us. The 
number of cases of special immigrant visas--how many of those 
are in the pipeline for the so-called principal applicants? And 
No. 2, how many cases are pending for applicants through the 
direct access visa process?
    Mr. McGurk. Thank you, Senator. This issue is very 
important to me and it is a very personal issue to me. I had 
the opportunity to discuss it in some depth with Senator Cardin 
when I visited him in his office.
    I have known Iraqis in Iraq who have worked with us and 
lost their lives. I have known Iraqis who have got into this 
program and never came out of it or were never able to get a 
visa. And I have known Iraqis who have resettled in the United 
States. It is very personal to me.
    As you may know, we also have to have security checks to 
make sure that the American people are protected. That is also 
first and foremost.
    There is a substantial backlog, which as you said in your 
statement--it is absolutely right. We have now over the first 
half of this year admitted more SIV cases into the United 
States than we did all of last year, and I have been told that 
the numbers for the third quarter look to be substantially 
higher. I think this year so far the number is about 850.
    Senator, I will get you the exact figures on the number of 
cases that are being processed now and the backlog.
    [The written reply for the record follows:]

    This issue is very important to me and it's a very personal issue 
to me. While serving in Iraq I have known Iraqis who have worked with 
us and lost their lives. I have known Iraqis who have got into this 
program and never came out of it. They were never able to get a visa 
and I have known Iraqis who have resettled in the United States.
    As you may know, we have security checks to make sure that the 
American people are protected; that's first and foremost. There was a 
substantial backlog which, as you've said in your statement, is 
absolutely right. We have now over the first half of this year admitted 
more SIV cases into the United States than we did all of last year, and 
I have been told that the numbers for the third quarter look to be 
substantially higher. Through the end of March 2012, the Department had 
already issued 865 SIVs to Iraqis, up from a total of 706 such visas 
issued to Iraqi citizens in FY 2011. Preliminary counts for April and 
May of this year show 1,733 additional SIVs have been issued. If 
confirmed, I pledge to continue working to increase these numbers as 
much as possible.

    Mr. McGurk. Since I saw Senator Cardin, I visited with 
Samantha Power at the National Security Council, the national 
security staff, who has done a terrific job in streamlining the 
processing of these cases and making sure that we have the 
personnel and the right resources directed to process them 
effectively and efficiently. The Embassy plays a key role in 
that, and we have increased our staff there to make sure that 
these cases can be processed from the initial point of entry at 
the Embassy. And if I am confirmed, I pledge to you I will do 
everything I possibly can to make sure that these cases are 
processed efficiently, with reasonable security checks to make 
sure that the American people are protected, but that Iraqis 
who have worked with us who wish to come to our country feel 
welcomed, that they know where they stand in the process, and 
that they know they are taken care of. I will do everything I 
possibly can to make this program effective.
    Senator Casey. Thank you very much.
    Ms. Elliott, I wanted to ask you about the Northern 
Distribution Network on two levels. No. 1, the importance of it 
is so apparent as we draw down in Afghanistan and need to get 
supplies, equipment, and so much else through that network. Can 
you assess where we are as it relates to the role played by 
Tajikistan? No. 2, How will you, upon confirmation, prioritize 
and focus on the importance of Tajikistan's help for us in the 
Northern Distribution Network?
    Ms. Elliott. Well, thank you, Mr. Chairman.
    Tajikistan has played a very important role in the Northern 
Distribution Network which, as you rightfully mentioned, has 
become extremely important in getting vital supplies to our 
troops in Afghanistan. Likewise, it will play an extremely 
important role in taking equipment out of Afghanistan as we 
begin to lessen our military presence there.
    I have worked closely with the Government of Tajikistan on 
these issues. While Tajikistan does not have a developed rail 
network like some of the other countries in Central Asia, they 
have been very supportive and played a vital role in the part 
of the Northern Distribution Network that I would call the KKT 
route. It is Kazakhstan, Kyrgzstan, and Tajikistan. The 
capacity is not great because we have to truck things through 
the mountains of Tajikistan. However, we have had a very good 
success rate with very low loss of cargo, no pilferage, and we 
have gotten a lot of cooperation from the Government of 
Tajikistan on that. And President Rahmon indicated to Secretary 
Clinton when she met with him that he wants to continue to 
support us in that area because, as I think the Government of 
Tajikistan and the people of Tajikistan realize, in order to 
have a safe and prosperous Tajikistan, we need to have a safe 
and stable and prosperous Afghanistan.
    Senator Casey. Thank you very much.
    My time is up for this round. Senator Udall, Senator Risch, 
Senator Lugar, anything?
    Senator Udall.
    Senator Udall. I would just ask one final question here.
    Since the invasion displaced Saddam Hussein's Sunni 
governing structure, or whatever you want to call it there, one 
of the major issues has been this divisive conflict between 
Sunni and Shia. And we have seen it in terms of talk of a civil 
war and all the various bombings and suicide bombings that have 
gone on.
    What is your assessment of how the current government is 
moving to integrate Sunnis into the government at all levels, 
whether it is high positions in the government or people that 
held kind of bureaucratic positions and were not necessarily 
involved in all the atrocities and things? What is your 
assessment about how they are performing on the integration?
    Mr. McGurk. Thank you, Senator. Senator Casey referenced an 
NDI poll which shows that there is still this vast gap in 
perceptions of the government between Shia and Sunnis. Among 
Sunnis, according to this poll, it has increased in recent 
months, but it has increased from about 10 percent to only 30 
percent of Sunnis would see this government favorably.
    The current government has a lot of work to do in this 
area. We can track it through the percentages of military 
officers. The last order of battle I saw, Sunni officers were 
about 13 percent overall. That is below the population figure.
    In this current round of political negotiation and debate, 
it has been very interesting because there has been a real 
shakeup in different alliances. So Muqtada Sadr, for example, 
who was seen as the face of the Shia Jaish al-Mahdi group which 
was involved in a lot of atrocities during the sectarian war, 
is now aligning with a lot of Sunnis in kind of an Iraqi 
nationalist view, and that is interesting and something to 
watch.
    The Sons of Iraq is also something we need to watch very 
closely. So far, about 70,000 have been incorporated into 
government positions. About 30,000 Sons of Iraq are still 
manning checkpoints. They are getting paid under the current 
budget. I have been told under the current budget, they get 
paid about $300 a month, which is slightly below the per capita 
GDP. But that needs to continue because one of the indicators, 
if you look at academic studies of precursors of renewed or 
reignited civil war, is militant insurgent groups beginning to 
coalesce and reform. And I think making sure the Sons of Iraq 
are continued to be taken care of will be very important. So 
far the government has kept most of its promises on that, but 
we need to watch it.
    So obviously, Senator, these Sunni-Shia cleavages are 
extremely deep. There is the overhang now of a very bitter 
sectarian war which the Iraqis are still overcoming. We need to 
help them overcome it, and we need to remind the current 
government every day that they need to do what they can to make 
Sunnis feel like they are a full part of the process.
    Senator Udall. Thank you.
    Senator Casey. Thank you, Senator Udall.
    Mr. McGurk, Ambassador Sison, Ms. Elliott, we thank you for 
your testimony, for your prior service, and for your 
willingness to serve yet again in tough assignments.
    And I want to make sure for the record I say this, that we 
are going to keep the record open--and I know I and others will 
have more questions--for 48 hours for questions. That is a 
short window, but I want to make sure that members of the 
committee knew that.
    We are grateful for your presence here and for your 
testimony.
    And we are adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


       Responses of Michele Jeanne Sisson to Questions Submitted
                        by Senator John F. Kerry

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.
    If confirmed, what steps will you take to ensure that the Embassy 
effectively implements section 620M? In particular, what actions will 
you take to ensure, in a case in which there is credible evidence that 
a gross violation of human rights has been committed, that assistance 
will not be provided to units that committed the violation? What steps 
will you take to ensure that the Embassy has a robust capacity to 
gather and evaluate evidence regarding possible gross violations of 
human rights by units of security forces?

    Answer. Our current engagement with Sri Lanka takes many forms--
economic, humanitarian, cultural, and military--and helps us move 
forward our agenda of fostering a peaceful and stable Sri Lanka by 
improving human rights, democratic governance, reconciliation, and 
accountability. We take very seriously credible allegations of abuses 
of international human rights law and violations of international 
humanitarian law at the end of the conflict, as well as ongoing abuses. 
If confirmed, I will continue to urge full accountability for 
individuals on both sides of the conflict alleged to be responsible for 
those violations and a demilitarization of civilian affairs. Mindful of 
human rights concerns, the administration is pursuing measured military 
engagement with the Sri Lankan Government commensurate with our 
security interests in the region. This engagement includes human rights 
or humanitarian components and is in accordance with Leahy vetting 
policy and law. Assistance and engagement is not now, nor will it be, 
undertaken with units or individuals associated with credible 
allegations of abuses of international human rights law or violations 
of international humanitarian law. As always, adequate resources, along 
with Embassy Colombo and State Department staff, will be assigned to 
undertake the full Leahy vetting procedures in all applicable cases.

    Question. If confirmed, what specific steps will you take to 
encourage the Government of Sri Lanka to implement the recommendations 
of the Lessons Learned and Reconciliation Commission (LLRC) report, 
given the Sri Lankan Government's apparent intransigence in pursuing 
national reconciliation and reducing human rights violations over the 
past 3 years? If Sri Lanka continues to ignore international calls to 
seriously pursue reconciliation and accountability, what steps would 
you recommend for U.S. policy toward Sri Lanka?

    Answer. The United States successfully sponsored a United Nations 
Human Rights Council Resolution in March 2012 that calls on the Sri 
Lankan Government to take concrete steps toward reconciliation and to 
address alleged human rights violations during the final stages of the 
country's conflict. Secretary Clinton invited Foreign Minister Peiris 
to Washington May 18 to discuss the way forward on reconciliation and 
accountability in Sri Lanka in the post-UNHRC resolution environment. 
The Secretary stressed the importance of making progress on the 
recommendations made by Sri Lanka's own Lessons Learnt and 
Reconciliation Commission and the importance of providing regular and 
public updates to all Sri Lankans and to the international community.
    We now look to Sri Lanka to take the necessary steps to achieve 
reconciliation and accountability for the alleged abuses that occurred 
in the final months of the conflict, while ensuring respect for human 
rights and institutionalizing democratic governance. If sufficient 
progress is not made, however, there will be pressure to look at 
international mechanisms.
    An important opportunity to review progress will come this fall, 
when Sri Lanka is scheduled for its Universal Periodic Review before 
the U.N. Human Rights Council on the status of human rights in Sri 
Lanka, then again next March, when the U.N. High Commissioner for Human 
Rights will brief the Council on Sri Lanka's progress on 
reconciliation, accountability for human rights abuses, and 
implementation of the recommendations from Sri Lanka's LLRC. In the 
time preceding these two critical review opportunities, we will 
continue our vigorous engagement with the Government of Sri Lanka, as 
well as India and other international partners, to foster true 
democracy, reconciliation, and accountability in Sri Lanka.

    Question. How do you assess the state of democracy in Sri Lanka, 
given increasing threats against journalists and limited press 
freedoms, limited provincial powers and no timetable for provincial 
elections in the north, ongoing disappearances of individuals with 
impunity, continued military presence in the north, and ongoing human 
rights concerns and violations? What future actions might the United 
States take bilaterally and multilaterally to push Colombo on these 
issues? Are there any economic or trade measures you would favor 
employing?

    Answer. We are deeply concerned by reports of ongoing human rights 
abuses and an erosion of democratic institutions and practices, and 
continuing to engage the Government of Sri Lanka on these issues would 
be one of my highest priorities. There has been progress in some 
discrete areas, particularly in regards to the return of people 
displaced by the conflict to their homes, demining of the former 
conflict regions, building of transport infrastructure, schools and 
hospitals, and in the reintegration of former combatants.
    There are, however, ongoing issues that concern us, such as the 
shrinking space for civil society, military involvement in civilian 
affairs and restrictions on freedom of expression and other fundamental 
rights. There is also much that remains to be done to achieve genuine 
reconciliation, democratic governance, and accountability. Sri Lanka's 
Universal Periodic Review of its human rights situation will occur in 
November under the auspices of the U.N. Human Rights Council. This 
should be an excellent opportunity to evaluate Sri Lanka's current 
human rights record and progress towards achieving reconciliation and 
accountability.
    Solutions that come from the Sri Lankans themselves are most likely 
to have the greatest impact and also help strengthen Sri Lanka's 
democratic institutions, including defending space for its long-
established civil society. We would, therefore, first like to see the 
Sri Lankans implement the LLRC's recommendations, and establish an 
independent mechanism to investigate the credible allegations that the 
LLRC failed to address, both of which could directly help achieve 
lasting reconciliation and democratic governance. We are looking to Sri 
Lanka to take the necessary steps to achieve reconciliation, 
accountability and respect for human rights and democratic processes, 
and are not considering economic or trade measures at this time. If 
sufficient progress is not made, however, there will be pressure to 
look at international mechanisms.
                                 ______
                                 

        Response of Michele Jeanne Sisson to Question Submitted
                     by Senator Benjamin L. Cardin

    Question. What bilateral measures has the United States taken to 
highlight its concerns about the human rights situation on Sri Lanka? 
Given a sense that existing measures have not been effective, what 
future actions might the United States take bilaterally to push the 
Colombo to resolve its domestic conflict? Are there any economic or 
trade measures you would favor employing?

    Answer. The United States successfully sponsored a United Nations 
Human Rights Council Resolution in March 2012 that calls on the Sri 
Lankan Government to take concrete steps toward reconciliation and 
investigate alleged human rights violations during the final stages of 
the country's civil conflict. Secretary Clinton invited Foreign 
Minister Peiris to Washington on May 18 to discuss the way forward on 
reconciliation and accountability in Sri Lanka in the post-UNHRC 
resolution environment. The Secretary stressed the importance of making 
progress on the recommendations made by Sri Lanka's own Lessons Learnt 
and Reconciliation Commission and the importance of providing regular 
and public progress updates to all Sri Lankans and to the international 
community.
    We are looking to Sri Lanka to take the necessary steps to achieve 
reconciliation, accountability and respect for human rights and 
democratic processes, and are not considering economic or trade 
measures at this time. If sufficient progress is not made, however, 
there will be pressure to look at international mechanisms.
    An important opportunity to review progress will come this fall, 
when Sri Lanka is scheduled for its Universal Periodic Review on the 
status of human rights, then again next March, when the U.N. High 
Commissioner for Human Rights will brief the Human Rights Council on 
Sri Lanka's progress on reconciliation and implementation of the 
recommendations from the LLRC.
    Biographic note: I have been a resident of the State of Maryland 
since 1962, and I appreciate your interest in this matter.
                                 ______
                                 

       Responses of Michele Jeanne Sisson to Questions Submitted
                    by Senator Robert P. Casey, Jr.

    Question. The United Nations Human Rights Council Resolution passed 
a resolution in March 2012 that calls on the Sri Lankan Government to 
investigate alleged human rights violations during the final stages of 
the country's civil war. The United States strongly supported this 
resolution, which was a positive step toward greater accountability for 
perpetrators of abuses.
    What is the United States strategy for further action on 
accountability in international bodies, particularly at the Human 
Rights Council? How is the administration using the resolution to push 
further action on LLRC recommendations and wider accountability? How 
are you planning to engage with India to build on its important vote 
for the resolution?

    Answer. Secretary Clinton invited Foreign Minister Peiris to 
Washington May 18 to discuss the way forward on reconciliation and 
accountability in Sri Lanka in the post-UNHRC resolution environment. 
The Secretary stressed the importance of making progress on the 
recommendations made by Sri Lanka's own Lessons Learnt and 
Reconciliation Commission and the importance of providing regular and 
public progress updates to all Sri Lankans and to the international 
community. We are looking to Sri Lanka to take the necessary steps to 
achieve reconciliation and accountability for past abuses while 
ensuring democratic governance and respect for human rights now. If 
sufficient progress is not made, however, there will be pressure to 
look at international mechanisms.
    An important opportunity to review progress will come this fall, 
when Sri Lanka is scheduled for its Universal Periodic Review on the 
status of human rights, then again next March, when the U.N. High 
Commissioner for Human Rights will brief the Human Rights Council on 
Sri Lanka's progress on reconciliation and implementation of the 
recommendations from Sri Lanka's Lessons Learnt and Reconciliation 
Commission Report. In the time preceding these two critical review 
opportunities, we will continue to coordinate with India and other 
international partners to encourage, reconciliation and accountability 
in Sri Lanka.

    Question. The United States and the Maldives enjoy a strong 
bilateral relationship. However, the small country faces several 
significant challenges, including serious environmental concerns and 
recent political unrest that has threatened to upset the country's 
democratic progress.
    What do you consider the most pressing issues facing the Maldives 
at this time? Apart from participating in global climate change 
initiatives, what might the United States do to help support 
Maldivians? Do you view recent regime change in Maldives as having been 
a coup d'etat, as described by former President Nasheed or as a self-
initiated resignation, as claimed by his opponents? How should the 
United States respond to former President Nasheed's call for more U.S. 
pressure in support of democratic institutions in Maldives?

    Answer. Former President Nasheed resigned from office under murky 
circumstances. He was succeeded by his own Vice President, Mohamed 
Waheed. Maldives' Parliament continues to function and a civilian, 
democratic government continues. Former President Nasheed, current 
President Waheed and others have agreed to a Commission of National 
Inquiry to look into the circumstances surrounding the transfer of 
power. The United States, India, U.N., Commonwealth and others are 
supportive of Maldives' own efforts to resolve questions about the 
transfer of power through this mechanism.
    Our Embassy in Colombo is engaged with all the parties in Maldives 
to foster dialogue, respect for democratic procedures and the rule of 
law. Assistant Secretary Blake, who was formerly Ambassador to Sri 
Lanka and Maldives, is also personally engaged. In addition, State 
currently has one person from our Conflict and Stabilization Operations 
Bureau on the ground in Maldives, working across political divisions. 
USAID has committed funding to assist Maldives in ensuring that the 
next round of Presidential elections is free and fair and we are 
working with Maldives to find additional ways to support its rule of 
law and justice sector.
                                 ______
                                 

       Responses of Michele Jeanne Sisson to Questions Submitted
                      by Senator Richard G. Lugar

    Question. In December 2009, the Senate Foreign Relations Committee 
released a bipartisan staff report entitled ``Sri Lanka: Recharting 
U.S. Strategy after the War.'' The report contained eight recommended 
action points for the Obama administration related to Sri Lanka. What 
is the status of the administration's response to each of the points of 
recommendation? http://www.gpo.gov/fdsys/pkg/CPRT-111SPRT53866/pdf/
CPRT-111SPRT53866.pdf

    Answer. The administration's policies toward Sri Lanka seek to 
balance U.S. interests in reconciliation and accountability with 
economic, security, and strategic interests. Since the end of the 
conflict in 2009, we have provided robust demining assistance, worked 
with the U.N. and other international organizations to support the Sri 
Lankan Government's resettlement of more than 300,000 displaced 
persons, designed many USAID-sponsored democracy and governance 
programs and public diplomacy programs to create and enhance people-to-
people links across Sri Lanka, and worked to provide needed training 
for Sri Lanka's judicial sector. The administration, of course, 
vigorously enforces existing laws concerning visa applications and loss 
of citizenship. We are continuing to work with the Peace Corps in the 
hope that the Peace Corps can return to Sri Lanka in the future and 
resume its invaluable work.

    Question. If confirmed, how will you most effectively deal with Sri 
Lankan officials representing U.S. geostrategic interests while 
advocating accountability for the wide range of human rights violations 
for which the Sri Lankan Government is allegedly responsible?

    Answer. Our unwavering support for human rights, democratic 
governance, reconciliation, and accountability informs our principled 
engagement with Sri Lanka in all areas. However, we remain cognizant of 
our security interests, which include the security of the Sea Lines of 
Communication and counterterrorism, for which Sri Lanka is an important 
regional partner. If confirmed, I will continue to press Sri Lanka to 
address issues related to reconciliation and accountability, including 
those highlighted in the 2009 Senate Foreign Relations Committee 
bipartisan staff report ``Sri Lanka: Recharting U.S. Strategy after the 
War'' while seeking areas of common ground on U.S. geostrategic 
interest.

    Question. Please inform the committee as to the use of the American 
Center in Sri Lanka. What is the volume of activity during the past 
year and how does that compare to the preceding 4 years? In addition, 
what is the range of activities occurring through the Center and what 
are the priorities of the Center's focus?

    Answer. The American Corners in Kandy and the post-conflict area of 
Jaffna, Sri Lanka, were opened in 2005 and 2011, respectively. The U.S. 
Embassy in Colombo reports they have both enjoyed a noticeable increase 
in activities and visitors over the past several years and particularly 
throughout 2011.
    The American Corner in Kandy focuses on programs for youth and 
education. Over 5,500 people visited the Corner in Kandy this past 
year, a marked increase from 3,200 visitors in 2010, for student 
advising, film screenings, book readings, and video conferences with 
the Embassy featuring monthly public lectures from Colombo. In 2011 the 
American Corner in Kandy organized an environment program for students 
in collaboration with the Ministry of Education, social media training 
for our newly created Youth Forum, HIV/AIDS awareness program in 
collaboration with educational authorities, and a discussion series on 
current affairs for teachers. The number of programs increased from 16 
in 2010 to 40 in 2011.
    The American Corner in Jaffna opened in January 2011 and also 
focuses thematically on programs that help rebuild communities in the 
post-conflict environment. Entrepreneurship and education programs are 
targeted at vulnerable populations, such as war widows and youth whose 
education has been interrupted by the civil conflict. Over 6,500 people 
have visited the American Corner in Jaffna. The American Corner hosts 
school orientation programs, public lectures by visiting Embassy staff 
and U.S. citizens, and a summer camp program for children of 
orphanages. The American Corner organized an outreach program with 
``Shadows of Change'' visual theater for over 3,000 students from nine 
Jaffna schools. The program included a workshop for students that led 
to the formation of the Jaffna Youth Forum, which now meets at the 
Corner every month to discuss community issues. Future programming 
includes English teaching, entrepreneurship workshops for rural young 
women seeking self-employment, and psychosocial training for youth.
    The American Center at the U.S. Embassy in Colombo aims to educate 
Sri Lankans about the United States through its ample library and film 
offerings, and to bring to Sri Lanka timely and topical subjects of 
importance to the United States. The American Center in Colombo 
recently commemorated World Press Freedom Day by hosting a panel 
discussion in which journalists, editors, and activists discussed the 
Sri Lankan perspective on the emergence of citizen journalism and how 
inadequate access to quality information undermines media freedom. The 
Center also hosted an American water specialist to discuss water 
management and a local attorney to raise children's awareness of 
intellectual property rights. Upcoming events will include a 
celebration of World Environment Day, a presentation on implementing 
international conventions on women's issues, and a monthly storytelling 
program.

    Question. During the war, what countries or political and other 
entities were providing material or other support to the LTTE and what 
was the nature of their respective support?

    Answer. To best address your question, I respectfully offer to 
arrange a classified briefing on this subject, with the appropriate 
Department officials.

    Question. What is the status of the military relationship between 
the United States and Sri Lanka? Do you see opportunities for expanding 
that relationship and if so, under what circumstances or conditions?

    Answer. Our current engagement with Sri Lanka takes many forms--
economic, humanitarian, cultural, and military--and helps us move 
forward our agenda to foster a peaceful and stable Sri Lanka by 
improving human rights, democratic governance, reconciliation, and 
accountability. Mindful of human rights concerns, the administration is 
taking measured steps to maintain military engagement with the Sri 
Lankan Government commensurate with our security interests in the 
region, and engagement is in accordance with Leahy vetting policy and 
law. These include demining, disaster assistance, sea-lane security, 
and antipiracy. We take very seriously credible allegations of 
violations of international human rights law and international 
humanitarian law at the end of the conflict. We continue to urge full 
accountability for individuals on both sides of the conflict alleged to 
be responsible for those violations. We also continue to urge 
demilitarization of civilian affairs. Any consideration of an expansion 
of our military relationship could only be undertaken in response to 
demonstrable improvements in the protection of human rights, democratic 
governance, and accountability.

    Question. From your perspective, what is going particularly well 
with the reconciliation process after the war? What are two specific 
concerns related to the status of reconciliation and what do you 
envision as your role, if any, related to these challenges?

    Answer. There has been significant progress in several areas in the 
aftermath of Sri Lanka's long conflict, chief among them the 
resettlement of the majority of internally displaced persons and the 
rehabilitation and reintegration into civilian life of thousands of 
former LTTE combatants. Much still remains to be done, however. As 
Secretary Clinton and other senior State officials have urged, we would 
like to see progress on further demilitarization in the former conflict 
zones in the North and East, the provision of basic services to 
returnees, provincial elections before the end of the year, answers 
regarding the fate of the missing for their loved ones, and further 
progress in implementation of the recommendations of Sri Lanka's own 
Lessons Learnt and Reconciliation Commission. If confirmed, my role, 
like that of Ambassador Butenis and other senior State Department 
officials such as Assistant Secretary Robert Blake, would be to 
continue to press vigorously to achieve these goals.

    Question. If confirmed, will you meet with Sri Lankan journalists 
to receive an update on the status of intimidation and challenges 
confronting journalists?

    Answer. Yes. If confirmed, I will engage directly with journalists, 
civil society, and NGOs to listen to their concerns and monitor trends 
affecting fundamental rights including freedom of expression in all its 
forms. Our deep concern over this issue is why we highlighted the 
disappearance of political reporter and cartoonist Prageeth Ekneligoda 
during World Press Freedom Day. We have called on the Government of Sri 
Lanka to credibly investigate his disappearance and call on the 
Government of Sri Lanka to take the steps necessary to create space for 
journalists to work without fear of violence or persecution, including 
by ending impunity for attacks and intimidation against journalists.

    Question. What other countries do you view as ``like-minded'' with 
the overall U.S. foreign policy emphasis related to Sri Lanka and 
Maldives?

    Answer. We have been working closely with a number of international 
partners to achieve our policy goals both in Maldives and Sri Lanka. 
For example, the U.S.-sponsored resolution promoting reconciliation and 
accountability in Sri Lanka that passed with 24 votes in favor, 15 
against, and 8 abstentions during the March 2012 session of the United 
Nations Human Rights Council had 39 cosponsors in addition to the 
United States (cosponsors need not be voting members of the Council). 
Notably, India voted in favor of the resolution, a departure from its 
usual policy of abstaining on country-specific resolutions and a strong 
statement of support for increased action by Sri Lanka to achieve 
reconciliation and a lasting peace.
    We coordinate closely with the Commonwealth Ministerial Action 
Group and the United Nations to resolve the ongoing political stalemate 
Maldives.

    Question. What countries are presently contributing resources to 
demining operations in Sri Lanka and what would you project to be the 
total dollar value of international contributions toward this effort?

    Answer. Demining in Sri Lanka is an important initiative for the 
Department of State, as it enables the timely resettlement of 
internally displaced persons and provides the foundation for the 
reconstruction and rehabilitation process. Funding provided by the 
Department of State is directly contributed to international 
nongovernmental agencies. This funding is augmented by several 
international donors, including contributions from the Government of 
Japan, the United Kingdom's Department for International Development, 
and the Australian Government. The Department of State does not track 
the total dollar value of international contributions. However, since 
FY 2003 the State Department has contributed $27,962,000 to demining 
efforts in Sri Lanka.

    Question. What is the status of U.S. exports to Sri Lanka and in 
what sectors do you envision opportunity for future export growth?

    Answer. Sri Lanka is currently the 80th-largest goods trading 
partner of the United States with $2.4 billion in two-way goods trade 
in 2011. Sri Lanka was the United States 114th-largest goods export 
market in 2011. U.S. goods exports to Sri Lanka were $302 million in 
2011, up 72 percent ($128 million) from 2010. U.S. exports to Sri Lanka 
consist primarily of wheat, civilian aircrafts, machinery and 
mechanical appliances, medical and scientific equipment, electrical 
apparatus, plastics, and paper. If confirmed, I will work to increase 
U.S. exports to Sri Lanka and Maldives under President Obama's National 
Export Initiative. The tourism, infrastructure, transportation, and 
energy sectors of Sri Lanka's economy currently hold the most 
opportunity for growth, and Embassy Colombo is actively advocating for 
several U.S.-based bids in these sectors. I have a strong track record 
in economic initiatives and received an Honorable Mention in 2008 for 
the Charles E. Cobb Award for Initiative and Success in Trade 
Development for my work as chief of mission in the United Arab 
Emirates.

    Question. According to the Congressional Research Service, U.S. 
exports to Maldives ``more than doubled from $20 million in 2008 to $45 
million in 2011.'' What is the basis for the doubling of exports in a 
short time period? What are future best sector prospects for U.S. 
exports to Maldives?

    Answer. U.S. exports to the Maldives received a boost in October 
2009 when the United States and Maldives signed a Trade and Investment 
Framework Agreement (TIFA). Maldives was subsequently granted 
Generalized System of Preferences (GSP) trade benefits in December 
2009. The economic team at our Embassy in Colombo has worked vigorously 
to support the National Export Initiative, and has adopted a three 
pronged strategy to increase market access, outreach to encourage U.S. 
exports, and commercial advocacy. U.S. exports to Maldives increased by 
58 percent in 2011. Areas of opportunity for U.S. businesses in the 
Maldives include tourism, construction, and simple export-oriented 
manufacturing, such as garments and electrical appliance assembly. If 
confirmed, I will work to increase U.S. exports to Sri Lanka and 
Maldives under President Obama's National Export Initiative. I have a 
strong track record in economic initiatives and received an Honorable 
Mention in 2008 for the Charles E. Cobb Award for Initiative and 
Success in Trade Development for my work as chief of mission in the 
United Arab Emirates.

    Question. Please provide details/quantify the Maldives challenge 
with rising sea levels.

    Answer. As an island nation as well as a developing country, 
Maldives faces significant challenges related to climate change. The 
islands of the Maldives lie primarily between 1 and 1.5 meters above 
mean sea level. The IPCC fourth assessment report, the leading 
international assessment on climate change, in 2007 estimated average 
global sea level rise at between 0.18 and 0.59 meters by 2090-2099. 
Many peer-reviewed studies since then have raised these estimates. Any 
of these scenarios threaten damage from storm surges, land erosion, and 
salt water intrusion in the coming decades. Of particular concern are 
the likely impacts associated with saltwater intrusion on freshwater 
supplies, increasingly damaging extreme weather events, and sea level 
rise and related land erosion negatively impacting infrastructure, 
livelihoods, and key economic sectors, including tourism.
    To address this vulnerability, the United States invested $3 
million in FY11 through USAID to support an adaptation program that 
aims to improve access to drinking water supplies and enhance 
resilience to climate change. The program provides assistance to the 
Maldives on climate change adaptation strategies, with special emphasis 
on integrated water resources management. Future USAID assistance will 
focus on climate resilience and water security in support of the 
Maldives' ongoing work related to water and sanitation service delivery 
to the islands.
                                 ______
                                 

       Responses of Michele Jeanne Sisson to Questions Submitted
                         by Senator Marco Rubio

    Question. According to the State Department's 2011 Trafficking in 
Persons Report, Sri Lanka is a Tier 2 country for trafficking. There 
was evidence of government complicity in trafficking through bribes and 
political connections for brothels.
    If confirmed, how will you engage government officials to confront 
corruption in combat trafficking crimes? How will you encourage the 
government to investigate and prosecute government officials who are 
complicit in human trafficking offenses?

    Answer. We have been working closely with the Government of Sri 
Lanka on sex trafficking and labor trafficking issues. The Government 
of Sri Lanka takes these issues seriously and has taken steps to 
address their trafficking problems. Most notably, the government is 
working with International Organization for Migration to develop victim 
identification procedures. We have directly engaged with the Government 
of Sri Lanka on their Trafficking in Person's Action Plan and the 
government has already begun to implement the plan. Even with this 
progress, trafficking in persons remains an issue of great concern. I 
have considerable experience in this area and was named 2005 
Trafficking in Persons Ambassador of the Year for my work to combat 
human trafficking in United Arab Emirates. If confirmed, I will ensure 
that it remains a priority for U.S. Mission Colombo.

    Question. A 2011 Human Rights Watch Report noted that over one-
third of Sri Lankan domestic workers in Jordan are physically abused by 
their employer, 11 percent were sexually assaulted, 60 percent not paid 
any wages and over 60 percent had their passports confinement. These 
are abuses which indicate trafficking for forced labor.
    If confirmed, how will you assist the Sri Lankan Government in 
monitoring the foreign labor recruiting agencies which employ Sri 
Lankans abroad?

    Answer. I share your concerns on trafficking in persons and forced 
labor in Sri Lanka, where over 1.7 million citizens are employed 
outside their country. The Government of Sri Lanka has taken steps to 
monitor labor recruiting agencies which employ Sri Lankans abroad, most 
notably, by recently convicting two labor recruiters for fraudulent 
recruitment--a key contributor to forced labor. Our Embassy in Colombo 
has coordinated with other U.S. Missions and the Department to provide 
information and assistance to the Government of Sri Lanka to respond to 
specific cases and to help the Government of Sri Lanka address the 
trafficking issue generally. I have considerable experience in this 
area and was named 2005 Trafficking in Persons Ambassador of the Year 
for my work to combat human trafficking in United Arab Emirates. If 
confirmed, I will work closely with the Government of Sri Lanka, The 
International Organization for Migration, civil society, and other 
interested parties to increase protection for their citizens from 
domestic and international labor abuse.
                                 ______
                                 

          Responses of Brett H. McGurk to Questions Submitted
                     by Senator Benjamin L. Cardin

    Question. Special Immigrant Visas (SIVs) for Iraqi employees of the 
United State: As you know from our earlier conversations, I am very 
concerned about delays in the processing of Special Immigrant Visas 
(SIVs) for those Iraqis who risked their lives to work for us in Iraq--
particularly those who were living and working on our bases and have 
been ``cut loose'' since our withdrawal last December. How can SIV 
processing be expedited? What can be done to offer protection to those 
who are literally in hiding and on the run inside Iraq as they await 
issuance of their visas?

    Answer. This issue is very important and personal to me. It will 
receive my close attention, if confirmed. Since we met in your office, 
I have spoken with the leading U.S. officials who have been working to 
address delays in processing of Special Immigrant Visas (SIVs) for 
Iraqis who have risked their lives to work with us. The State 
Department is working closely with our interagency colleagues to 
streamline the SIV application process, eliminate redundant 
requirements, and accept electronic submissions wherever possible. If 
confirmed, I will work to ensure that the Embassy is staffed to manage 
applications efficiently and in a manner that provides fair process to 
our Iraqi partners while also ensuring necessary background and 
security checks to protect the American people. In recent months, 
strides have been made in eliminating the backlog of Iraqi SIV cases 
pending security screening. Over the first half of this year, the State 
Department issued more SIVs to Iraqis than during all of FY 2011. In FY 
2011, the Department issued 706 SIVs to Iraqi citizens. By the end of 
March 2012, the Department already had issued 865 SIVs to Iraqis. 
During April and May 2012 alone, it issued an additional 1,733 SIVs to 
Iraqis, based on preliminary data. Thus, the trend appears to be a 
positive one, and now we must ensure it continues. If confirmed, I am 
committed to working diligently with our interagency partners to 
balance the safety of American citizens with the aspirations of Iraqis 
who risked their lives to work with us, and now wish to resettle in our 
country.

    Question. Iraq and the Extractive Industries Transparency 
Initiative (EITI): According to the World Bank, Iraq possesses a proven 
143 billion barrels of oil, and high oil prices and increasing exports 
should enable Iraq's GDP to grow by about 12 percent in 2012. It is 
therefore critical that the Government of Iraq implement an effective 
and transparent process for handling and accounting for these rapidly 
increasing revenues. Iraq has been an Extractive Industries 
Transparency Initiative (EITI) candidate country since 2010 and is 
supposed to complete the requirements to become a ``compliant'' country 
later this year. What are the prospects for this happening?

    Answer. The Board of the Extractive Industries Transparency 
Initiative (EITI) accepted Iraq as a candidate country on February 10, 
2010. Iraq has until August 9, 2012, to undergo EITI validation to 
determine whether the country is compliant. Iraq issued its first EITI 
report in December 2011, reporting $41 billion in revenues from oil and 
gas exports in 2009. Iraq's second report, covering 2010, is expected 
on schedule by the end of the year. Iraq has hired one of the approved 
international validation companies to conduct its validation exercise, 
a highly detailed procedure to reconcile national revenue and company 
payment figures for extractive industries. We believe the Iraqi 
authorities are committed to the EITI process.
    The United States strongly supports Iraq's efforts to become EITI 
compliant. Iraq is one of only two countries in the Middle East to have 
sought EITI compliant status and holds the largest reserves of any 
country seeking this status.
    Revenues from crude oil exports account for approximately 95 
percent of Iraqi Government revenues, so the EITI reconciliation 
exercise is tightly tied to the overall transparency of Iraqi 
Government revenues. All Iraqi oil export revenues flow through the 
accounts of the Development Fund for Iraq at the New York Federal 
Reserve and are subject to audit by Iraq's governmental auditing and 
internal control body, the Committee of Financial Experts. Iraq 
publishes its annual budget. The 2012 budget was reviewed by experts 
from the International Monetary Fund.
    In September 2011, the State Department's Bureau of Near Eastern 
Affairs awarded a $1million grant to Revenue Watch Institute to broaden 
and strengthen Iraqi civil society working on EITI issues and to 
support a more robust implementation process. As stated in my written 
testimony, helping the Iraqis to meet the requirements of the EITI 
would be among my top priorities if confirmed. ``By helping the Iraqis 
address these challenges, the United States can gain leverage and 
influence while pursuing mutual goals.''
                                 ______
                                 

          Responses of Brett H. McGurk to Questions Submitted 
                        by Senator John F. Kerry

    Question. The State Department has long promised faster action to 
resolve the issues surrounding the delays in approving Special 
Immigrant Visas for Iraqis who supported the U.S. effort in Iraq after 
the 2003 invasion.

  <bullet> (a) How many SIVs have been issued, by fiscal year, since 
        the inception of the program?

    Answer. The chart below details how many Special Immigrant Visas 
(SIVs) the Department of State has issued to Iraqi applicants under 
both the Section 1059 and Section 1244 programs since implementation in 
FY 2007. FY 2012 numbers are preliminary:

----------------------------------------------------------------------------------------------------------------
                                                                     Principal      Derivatives       Totals
----------------------------------------------------------------------------------------------------------------
2007............................................................         431             383             814
2008............................................................         518             449             967
2009............................................................       1,448           1,385           2,833
2010............................................................         951           1,091           2,042
2011............................................................         322             384             706
2012*...........................................................       1,137           1,461           2,598
                                                                 -----------------------------------------------
      Totals....................................................       4,807           5,153           9,960
----------------------------------------------------------------------------------------------------------------
* Applications through May 31, 2012.


  <bullet> (b) How many applications have there been, by fiscal year?

    Answer. The chart below details the number of approved I-360 
immigrant visa petitions received by the State Department's National 
Visa Center (NVC) from USCIS for Iraqis applying for the Section 1059 
and Section 1244 SIV Programs. FY 2012 numbers are preliminary:

----------------------------------------------------------------------------------------------------------------
                                                                   Iraqi section   Iraqi section
                                                                   1059 approved   1244 approved  Combined total
                                                                      I-360s          I-360s
----------------------------------------------------------------------------------------------------------------
FY 2007.........................................................         650               0             650
FY 2008.........................................................         149              48             197
FY 2009.........................................................         139           1,614           1,753
FY 2010.........................................................          10           1,025           1,035
FY 2011.........................................................           2           2,398           2,400
FY 2012*........................................................           0             659             659
                                                                 -----------------------------------------------
      Totals....................................................         950           5,744           6,694
----------------------------------------------------------------------------------------------------------------
* Applications through May 31, 2012.


  <bullet> (c) How long is the average processing time (as measured by 
        application filing date until the date visa issuance or notice 
        of denial) for such applications, by fiscal year?

    Answer. Processing SIVs involves a number of different steps, many 
of which are outside the control of the State Department's Bureau of 
Consular Affairs. As a result, I understand that the Department does 
not have general statistics on processing times for SIVs. I understand 
there were significant delays in returning clearances on SIV cases in 
FY 2011, but there has been improvement on processing times in FY 2012. 
The State Department's internal standards require scheduling interviews 
60 days from the receipt of the application. As the numbers of SIVs 
issued to Iraqis in FY 2012 indicate above, our interagency partners 
have made significant strides in eliminating the backlog of Iraqi SIV 
cases pending security screening. This progress allowed us to cut the 
backlog of Iraqi SIVs pending final action (issuance or refusal of the 
visa application) by 50 percent since March. In late February, 2,832 
Iraqi SIV applications were pending security vetting. A little over 3 
months later, that number has fallen to 1,388.
    We owe it to those Iraqis who have worked with us to ensure that 
this program runs as transparently as possible while also maintaining 
essential security checks to protect the American people.

  <bullet> (d) How many are pending as of June 1, 2012?

    Answer. As of June 6, 2012, there were 1,388 Iraqi SIV applications 
pending security clearances.

  <bullet> (e) How many have been denied by fiscal year? Please list 
        the reasons for denial and the corresponding number of visas 
        denied for each reason, by fiscal year.

    Answer. In order to provide this detailed information that you have 
requested on refusals, we are currently running a customized query 
through our files. The query will take several days to complete and 
will provide a detailed response as soon as possible.

    Question. The Police Development Program in Iraq has been the 
subject of continued revision and reduction since the State Department 
took control of the program in late 2011. What type of information did 
the Defense Department provide to the State Department when it turned 
the program over? How many Iraqi Police have been successfully trained 
under State Department control? In which cities are U.S.-trained Iraqi 
Police located and what are the metrics for evaluating their abilities? 
How has the prevalence of crime and violence changed in those cities as 
a result of the presence of U.S.-trained Iraqi Police?

    Answer. As noted in my testimony, if confirmed, I will work with 
the State Department and the Congress to ensure that our diplomatic 
presence in Iraq is secure, strategic, effective, and sustainable. This 
same rubric will apply to individual programs, including the Police 
Development Program (PDP). If confirmed, I look forward to working 
closely with the Congress and the State Department to revise and 
restructure any program that does not meet this test. I understand the 
PDP is currently undergoing a review in light of present conditions in 
Iraq. I strongly support this and another initiative as we work to 
streamline our overall mission and presence in the country.
    I was not involved in the planning or development of the PDP. But I 
have been informed that the Department of Defense (DOD) and the State 
Department consulted closely during the transition period on an 
informal basis, and that DOD provided some operational readiness 
assessments to the State Department prior to closing out its programs.
    I have also been informed that the PDP was designed to provide 
senior levels of the Iraqi Police Services and Ministry of Interior 
with the management, leadership, and technical skills necessary to 
manage and maintain Iraq's internal security and support the rule of 
law. With a focus on mentoring and advising, the program does not train 
large numbers of Iraqi Police as the DOD-led mission had since 2004.
    The DOD police training program trained Iraqi Police throughout the 
country. The PDP is focused on Ministry of Interior (MOI) and police 
leadership based in Baghdad and Erbil,\1\ and our advisors have 
traveled on occasion to other provinces.
---------------------------------------------------------------------------
    \1\ Basrah hub of the program will be closed by the end of June 
following the mutual agreement of the U.S. and Iraqi Governments.
---------------------------------------------------------------------------
    The PDP seeks to provide the necessary tools for the MOI to build 
an effective police force that supports the rule of law through a set 
of nine goals that complement the MOI's strategic goals. To pursue 
these goals the PDP developed an approach based on police functions, 
such as investigations, criminal intelligence, and border security, 
each of which has supporting objectives and indicators that guide 
advisors in their engagements. The program is linked to a Performance 
Monitoring Plan, which is implemented through a monitoring and 
evaluation staff.
    While the security situation in Iraq has generally improved, I have 
been informed that the Department does not have records of individual 
police who were trained by DOD, and it is difficult to identify a 
causal link between the training and levels of crime and violence. 
Unlike the DOD program, the PDP was never intended to provide training 
in basic skills to large numbers of police, including the individual 
responders whose presence may deter criminal activity. The program is 
intended, instead, to help Iraqis advance strategic institutional 
capacity to, and senior management of, key institutions. For example, 
our advisors helped establish an Iraqi interagency executive 
development committee, and work with the Iraqi Police leadership to 
address the ongoing problem of determining jurisdiction at crime 
scenes.
    As noted above, if confirmed I look forward to participating in the 
ongoing review of this program to ensure that it is structured to 
advance U.S. interests on a sustainable basis.

    Question. The Lebanese Hezbollah-associated militant Ali Musa Daq-
Duq was transferred to Iraqi custody in late 2011 and released shortly 
thereafter. What were the legal provisions that prevented the United 
States from transferring Daq-Duq to another detention facility outside 
of Iraq? Does the United States have any credible information that Daq-
Duq is now involved with or materially supporting any U.S.-designated 
Foreign Terrorist Organization?

    Answer. I was not responsible for this case during my time in Iraq 
in 2011 and I was not involved in deliberations internally or with the 
Iraqi Government on whether and how to transfer Daqduq to another 
detention facility outside of Iraq. However, I have been informed that 
Daqduq was transferred to Iraqi custody in December due to the 
expiration (on December 31, 2011) of the 2008 Security Agreement. Under 
that agreement, the Iraqi Government had legal custody of Daqduq and we 
were physically holding him at their request and in accordance with 
Iraqi law. Per the expiration of the agreement, we had no legal basis 
for holding Daqduq and his transfer out of Iraq required the full 
consent of the Iraqi Government pursuant to existing laws.
    It is my understanding that Daqduq currently remains in Iraqi 
custody. As the Secretary has stated, Daqduq is a dangerous individual 
and his release could have a detrimental effect on U.S. interests. I 
believe strongly that Daqduq should be held accountable for his crimes 
and, if confirmed, I will work closely with Iraqi leaders to explore 
all legal options to pursue justice in this case.

    Question. The Iraqi Government has recently threatened U.S. oil and 
gas companies who have attempted to develop fields in the Kurdish 
region and in southern Iraq.

  <bullet> (a) How is the U.S. Embassy facilitating the exposure of 
        U.S. companies to opportunities in Iraq?

    Answer. The State Department and the U.S. mission in Iraq are 
engaging in a vigorous outreach effort to help US firms identify 
opportunities in Iraq. These opportunities are significant and growing. 
While the obstacles to doing business in Iraq remain very challenging, 
one private consulting firm has reported that during 2011, U.S. 
companies concluded investment and commercial deals worth $6.9 billion 
USD, up from $2 billion in 2010. Moreover, U.S. exports to Iraq 
increased by nearly 50 percent from 2010 to 2011.
    The State and Commerce Departments and the U.S. mission in Iraq are 
working hard with our partners to help U.S. businesses overcome key 
entry barriers, such as identifying Iraqi Government procurement 
opportunities, screened Iraqi business partners, and vetted security 
firms to operate in a safe and effective manner on the ground in Iraq.
    Last November, the U.S. Embassy in Baghdad hosted 83 U.S. firms and 
universities at the U.S. pavilion at the Baghdad Trade Fair, the first 
official U.S. presence at Iraq's flagship trade fair in more than 30 
years. In March, the State Department--with participation via 
videoconference by our Embassy in Baghdad and consulates in Erbil and 
Basrah--hosted an event for over 100 companies to explain how to 
address the challenges of doing business in Iraq. Looking forward, I 
understand the Embassy plans activities that will highlight 
opportunities for U.S. firms in areas such as housing, electricity, and 
water infrastructure.
    Boosting trade and investment ties between the United States and 
Iraq is in the interests of both countries. If confirmed, one of my 
highest priorities will be to ensure that U.S. companies have every 
opportunity to benefit from this new and potentially very wealthy 
market.

  <bullet> (b) How does the U.S. Embassy ensure that U.S. oil and gas 
        companies are protected under international conventions on 
        investments?

    Answer. Iraq is not yet a signatory to major conventions on the 
protection of international investment, such as the New York Convention 
of 1958 on the Recognition and Enforcement of Foreign Arbitral Awards. 
Our Embassy continues to press the Government of Iraq to participate in 
these conventions. Indeed, such participation is very much in Iraq's 
interests and is essential to attract the foreign direct investment 
that Iraq so badly needs. If confirmed, I will certainly take every 
opportunity to encourage the Iraqi Government to join appropriate 
international investment protection agreements like the New York 
Convention. With respect to investment protection in the energy sector, 
in the case of irreconcilable disputes, Iraq's oil contracts typically 
have provisions for international arbitration.
    The Embassy, in cooperation with the Department of Commerce's 
Commercial Law Development Program, is working also to strengthen 
investment protection under Iraqi law by assisting Iraq to develop 
specialized commercial courts. The first such court opened in 2010 and 
others are planned.
    I believe that harnessing the U.S. private sector can be one of our 
strongest levers of influence in Iraq over the months and years to 
come. This is why, as noted in my testimony, outreach to, and 
facilitation for, U.S. businesses in Iraq will be one of the top 
mission priorities, if confirmed.

    Question. There have been allegations in the press regarding e-mail 
exchanges between you and Gina Chon, a reporter for the Wall Street 
Journal. (http://cryptome.org/2012/06/mcgurk-chon/mcgurk-chon.htm) 
Please explain the nature of your e-mail exchanges with Ms. Chon using 
your State Department e-mail address.

    Answer. On the morning of June 5, 2012, the day before my 
confirmation hearing, personal e-mails between me and my now beloved 
wife, Gina, were made public by others without authorization. They 
appear to be a printed copy of an e-mail exchange that took place 4 
years ago. The State Department has not authenticated the e-mails. I do 
not recall sending some of the statements that have been quoted in the 
media. My wife does not recall receiving them. But I take full 
responsibility for my relationship with Gina and for our exchange of 
personal messages.
    These e-mails appear to have been sent from my State Department 
blackberry, the only reliable way to communicate at the time in Iraq. 
Personal e-mail accounts were not available on handheld devices and 
incidental personal use from an official account is authorized under 
State Department regulations (5 FAM 723).
    The printed exchanges reflect a series of personal messages from 
shortly after we first met. At times, they contain flirtatious banter, 
but also my adherence to professional boundaries. I did not share 
sensitive information with Gina. I was a source for her stories only 
when formally briefing media organizations as I did often over the 
course of 2008. As an investigation by the Wall Street Journal found, 
there is ``no evidence that her coverage was tainted'' by our 
relationship, which was then in its earliest stages.
    Regarding my relationship with Gina, I take full responsibility for 
my conduct. By the summer of 2008, I had been in and out of Iraq 
regularly for 4 years. I had a difficult time when home connecting with 
those who had not served there. My marriage fell apart and friendships 
suffered. Gina, who had also been in and out of Iraq since 2004, became 
the love of my life, is now my wife, and I would not be here without 
her.
    Media coverage of the e-mails rests on inaccurate assumptions. For 
example, one oft-cited exchange refers to a dinner at the home of an 
Iraqi official. This official often hosted large gatherings, attended 
by political leaders, journalists, and civil society figures. When I 
determined that this particular dinner was invite only, I made clear 
that Gina's attendance was ``no go.'' Another oft-quoted statement of 
mine says: ``If treated to many glasses of wine, you could be the 
chosen vultures'' (plural). This was a joke, written in response to 
Gina's description of an evening with her colleagues from multiple news 
organizations involving ``many glasses of wine''--something that was 
rare in Baghdad at that time.
    When it came to official activities or information, I wrote 
clearly: ``Can't tell you about it, of course.'' In short, when read in 
context, the e-mails contain instances of inside humor and sarcasm but 
also observed professional boundaries.
    At the time of these personal messages, my assignment was to secure 
follow-on security arrangements with the Iraqi Government and a broader 
strategic framework for U.S. relations with Iraq. That mission was not 
compromised and was achieved under extremely difficult circumstances 
and immense pressure. As the last three Ambassadors shared with the 
committee last week, my professional experience makes me ``uniquely 
positioned to build on all that America has sacrificed over this past 
decade and to establish the strongest possible relationship between our 
two countries.''
    Four years have passed since the date of these leaked e-mails. I am 
now happily married and have spent much of this period either in Iraq 
or in New York where I was working on Iraq issues in academia. I am 
grateful that the current and two former Ambassadors believe I have 
``the right vision for leading the mission and [that I] enjoy the full 
trust and confidence of the current leadership team at the Embassy.'' 
As I shared with the committee in my testimony, I have a coherent plan 
for leading the mission and I look forward to the committee judging my 
candidacy on the merits.

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement. If confirmed, 
what steps will you take to ensure that the Embassy effectively 
implements section 620M? In particular, what actions will you take to 
ensure, in a case in which there is credible evidence that a gross 
violation of human rights has been committed, that assistance will not 
be provided to units that committed the violation? What steps will you 
take to ensure that the Embassy has a robust capacity to gather and 
evaluate evidence regarding possible gross violations of human rights 
by units of security forces?

    Answer. If confirmed, I will ensure that the Embassy fully complies 
with the State Department's legal obligations pursuant to the Section 
620M of the Foreign Assistance Act of 1961, also known as the Leahy 
law, for its programs in Iraq. The State Department screens all 
candidates for Department-funded training courses and other assistance 
for gross human rights violations pursuant to standard Leahy vetting 
procedures. Specifically, I will ensure that Embassy Baghdad continues 
vetting recipients of U.S. security assistance through the INVEST 
(International Vetting and Security Tracking) system, which is used for 
all countries whose security forces are proposed for assistance from 
the United States
    I will also, if confirmed, engage with the Government of Iraq when 
human rights concerns related to Iraqi security force units arise, and 
will inform the Iraqi Government if funds are withheld from any units 
pursuant to the Leahy law. The U.S. Embassy will continue working with 
the Iraqi Government and promoting the importance of respecting human 
rights through diplomatic means.
                                 ______
                                 

          Responses of Brett H. McGurk to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Hopes for a stable power-sharing government in Iraq in 
the wake of the U.S. troop withdrawal last year have faded. Prime 
Minister Maliki gives every appearance of a man seeking absolute 
power--levying charges against his main Sunni rival and refusing to 
implement power-sharing agreements.

  <bullet> What is your plan for engaging opposition parties 
        effectively to ensure U.S. influence remains strong in a post-
        Maliki Iraq?

    Answer. To help ensure that Iraq remains on the course envisioned 
in its own constitution--a united, federal, democratic, and pluralistic 
state--we must work to engage with and strengthen Iraq's institutions. 
As explained in my written testimony, there are examples of the 
Parliament acting as an independent check on executive authority. The 
United States can work to encourage ``issues based'' alliances within 
Parliament, which can help Iraq transcend a political culture dominated 
by ethnosectarian blocs. The most recent political dispute has seen 
interesting cross-sectarian alliances. The Sadrist bloc, for example, 
has joined with members of Iraqiyya and the Kurdish alliance to 
pressure the Prime Minister. At the same time, the Prime Minister has 
built alliances with key Sunni constituencies from within Iraqiyya to 
pressure his opponents. If confirmed, I will plan to engage every 
political bloc on a neutral basis and seek to build on areas of 
agreement and narrow areas of disagreement. It will be important to 
ensure that channels of communication remain open between all parties--
especially between Baghdad and Irbil. My approach, if confirmed, will 
be active personal engagement. We cannot dictate outcomes but we can 
and must facilitate dialogue, search for opportunities for compromise, 
and then seize on those opportunities. Finally, if confirmed, I will 
encourage the Iraqis to remain focused on their scheduled elections--
local elections next year and national elections in 2014. It will be 
essential for Iraq's democratic trajectory to ensure that these 
elections take place freely, fairly, and on time.

    Question. One of the challenges to stability in Iraq remains the 
stalled process to settle territorial disputes between the Kurds and 
Iraq's Arabs. What more can the United States do to play a constructive 
role in helping the parties get beyond this impasse?

    Answer. We continue to support a durable solution to Iraq's 
disputed internal boundaries (DIBs). This includes supporting the 
United Nations Assistance Mission for Iraq's (UNAMI) efforts to 
reconvene the High Level Task Force or any other mechanism that will 
bring national and provincial leaders together to look for a long-term 
resolution to Iraq's disputed internal borders. We continue to make 
clear (and UNAMI agrees) that a referendum regarding resolution of 
DIBs, including ultimate administrative control over the province of 
Kirkuk, should confirm a political settlement negotiated by 
stakeholders before a vote can take place. The proposed census, which 
article 140 of the Iraqi Constitution also calls for, remains on hold 
primarily due to disagreements among parties in the north on codifying 
ethnicity in disputed areas. We also encourage a potential UNAMI role 
in mediating these disagreements to find common ground. As noted in my 
testimony, I believe article 140 continues to provide the roadmap for a 
durable solution but the United States must remain actively engaged to 
build compromises around the many questions that article 140 does not 
answer, or (in most cases) leaves to resolution at a later date.
    Security in the DIBs region is the responsibility of the Iraqis. 
However, we will continue to play a mediation role when asked to ensure 
relevant national and provincial leaders find a diplomatic solution to 
any territorial or other security-related disputes in the DIBs. We will 
also continue to provide security training and rule of law programs to 
complement the high-level dialogue. Our Office of Security Cooperation 
and its relationships with top Iraqi security officials will also have 
a central role to play in maintaining a peaceful settlement in these 
areas.
    As noted in my testimony, if confirmed, I also will visit the 
Kurdistan region regularly to ensure face-to-face interaction and to 
strengthen regular bridges of dialogue between Baghdad and Erbil. I 
have been personally involved in helping to resolve flashpoint disputes 
in the DIBs and it will remain a central priority of mine, if 
confirmed, to ensure that our engagement is regular and continuous to 
dampen any potential conflicts far before they can begin.

    Question. The drawdown of U.S. forces challenges our ability to 
confront the terrorist threat posed by al-Qaeda in Iraq. How effective 
are the Iraqi Security Forces in meeting this threat and what role is 
the United States prepared to play in strengthening their capabilities?

    Answer. As I noted in my testimony, al-Qaeda in Iraq retains the 
capacity to launch attacks--mostly directed at Iraqi civilians and 
Iraqi security forces--approximately every 30-40 days and the level of 
attacks this year are consistent with those in the first half of 2011. 
Since the U.S. withdrawal, Iraqi Special Forces have demonstrated the 
capacity to locate and take down AQI cells, as seen earlier this year 
following a series of AQI attacks in Anbar province (focused in the 
Haditha area). While Iraq's Special Forces are among the most capable 
in the region, their effectiveness can be enhanced through cooperation 
with U.S. assistance. If confirmed, I will work closely with Iraqi 
leaders to ensure that we are doing all we can to help Iraqi forces 
eliminate al-Qaeda's leadership and uproot its networks from Iraqi 
soil.

    Question. Iran's influence in Iraqi affairs remains a significant 
concern, and Iran's support for Shiite factions in Iraq has been long 
established. As Ambassador to Iraq you must be able to represent U.S. 
strategic regional objectives amidst this volatile relationship.

  <bullet> How will you leverage your relationships with Iraq's leaders 
        to forward key U.S. objectives on Iran, such as 
        nonproliferation, sanctions, state-sponsorship of terrorism, 
        and human rights?

    Answer. If confirmed, I will ensure that our key objectives on 
Iran, such as those related to nonproliferation, sanctions, state-
sponsored terrorism, and human rights, are part of our dialogue with 
the senior leaders of the Iraqi Government as well as with leaders 
across the political spectrum. The United States also will continue to 
support the development of democratic institutions in Iraq that serve 
the needs of the Iraqi people and withstand Iranian political 
influence. In addition, Iraqi outreach to neighboring states and with 
other countries in the region will keep Iraq oriented toward its Arab 
neighbors through improved diplomatic and commercial ties, as opposed 
to relying on Iran to make progress in these areas. I will also ensure 
open and regular channels of communication between my office in Baghdad 
and our ambassadors in regional capitals, most of whom I have worked 
with for many years. I've found that such regular communication can be 
essential to identifying opportunities and advancing U.S. interests in 
the region.
    As I noted in my testimony, Iranian efforts to influence Iraq in a 
negative manner are balanced by the simple fact that Iraqis vigorously 
defend their independence and sovereignty. Years of conflict during the 
Iraq-Iran war have led the Iraqi people to be deeply distrustful of 
Iranian intentions. Also, followers of Shia Islam in Iraq, led by Grand 
Ayatollah Sistani, maintain different views from those in Iran with 
regard to the appropriate role for religious figures to play in 
politics. If confirmed, I will make clear that the U.S. Embassy is open 
to engagement and dialogue with all Iraqis of good will to include, in 
particular, the Shia religious leadership in Najaf.
    In 2007 and 2008, I was involved in planning and preparing for 
trilateral talks with Iranian diplomats in Baghdad. I was also an 
active participant in regional engagement efforts, to include the U.N.-
sponsored neighbors conferences between 2006 and 2008, which included 
Iran. I have learned first-hand Iran's tactics and levers of influence 
within Iraq and I will align the mission, if confirmed, in a manner 
that helps our Iraqi partners build an independent state free of such 
interference. The centerpiece of this will be the Strategic Framework 
Agreement, which envisions a globally integrated Iraq--precisely the 
opposite of what Iran desires.
    As noted in my testimony, helping the Iraqis expand their oil 
sector will be essential to Iraq's development, stabilizing global 
markets, and retaining pressure on the Iranian regime. This will also 
be a top priority, if confirmed.
    Furthermore, we must harness the power of U.S. private industry, 
one of our strongest levers of influence that remains yet undeveloped. 
The demonstrated Iraqi desire for U.S. firms to help build the backbone 
of their security forces, airlines, and energy sector gives us a good 
foundation for this effort.
    On the specific issues of sanctions and state sponsorship of 
terrorism, I plan to continue working with Iraq's key politicians and 
leaders not only to preserve the hard-won security and political 
progress for which I saw Iraqis sacrifice their lives, but also to push 
for more progress in developing a sound and independent political 
system that can successfully counter Iran's nefarious influence and 
meddling. It is worth noting the role of the Iraqis as host for the May 
23 P5+1 talks in Baghdad. The Iraqis demonstrated a clear interest in a 
peaceful, diplomatic resolution to international concerns about Iran's 
failure to meet its obligations with respect to its nuclear program. 
This is an important step for the Iraqis as they resume their place in 
the international community and learn to conduct their own foreign 
policy.
    Finally, I remain committed to incorporating human rights into my 
engagements with all Iraqi politicians and throughout the various 
spheres of Iraqi society--relying on Iraq's own constitution as the 
centerpiece of my argument. It is not enough to have security and 
prosperity. For Iraq to reach its full potential, all Iraqis must enjoy 
the right to freedom of expression, worship, and the right to political 
participation. We saw Iraqi exercise their political will at the ballot 
box in March 2010. The time will come for them to return to the polls. 
As I emphasized in my testimony, ensuring that these future elections 
happen freely, fairly, and on time, will be essential to securing 
Iraq's democratic gains.

    Question. The crisis in Syria continues to dominate the region. As 
we look to the Arab League and other regional partners to play a 
stronger role in pressing Bashar al-Assad to cease the violence, what 
is your assessment of the role that Iraq's leadership can play in this 
regard and in stopping spill-over effects from further destabilizing 
Iraq?

    Answer. The Iraqi Government follows a general foreign policy of 
nonintervention in the affairs of neighboring countries. When it comes 
to Syria, however, Iraq has a mixed record. In August 2009, the Iraqi 
Government blamed Syria for a series of bombings and sought Arab League 
and U.N. Security Council assistance for an investigation. More 
recently, the Iraqi Government has acted hesitatingly in the wake of 
unfolding events in Syria. After at first retaining a neutral stance, 
the Iraqi Government has more recently said publicly that the Syrian 
President's dictatorship must come to an end and that the days of one 
party rule in Syria are over. On June 2, Iraq joined the Arab League in 
its most recent condemnation of the Syrian Government's continued 
violence against civilians, including the massacre in Houla. Iraq's 
concern regarding the situation in Syria is driven by fear among Iraqi 
leaders that a sudden collapse of the Assad regime could lead to a 
sectarian upheaval that could spill over Iraq's western border. The 
United States will continue to urge Iraq to call for the immediate 
departure of Assad, and to support a political solution to the crisis 
in Syria, as outlined by U.N.--Arab League Joint Special Envoy Annan's 
six point plan and UNSCRs 2042 and 2043.
    As for what I can do from Baghdad: if confirmed, I will (1) remain 
constantly engaged with U.S. ambassadors in regional capitals and at 
the highest levels of the White House and State Department and (2) 
ensure the Syria situation is assessed and approached 
multidimensionally within Iraq: with the Central Government, with the 
Kurdistan Regional Government, and with the tribes of western Iraq. It 
will be essential to seize opportunities where they exist and to ensure 
that the Iraqi Government both adheres to its Security Council 
obligations and remains within the Arab League consensus on the Syria 
situation. As I stated in my testimony, all Iraqis must know: ``U.S. 
policy is firm: Bashar al-Assad must go. The longer he remains, the 
greater the threat to the Syrian people, to the region, and to Iraq.''

    Question. Our Embassy in Baghdad is our largest. How sustainable is 
that posture and what is your assessment of plans to reduce U.S. 
civilian staff in the wake of the military withdrawal?

  <bullet> Absent attractive incentive packages (such as ``linked 
        assignments'') what steps would you take to ensure that you get 
        the best people to take assignments in Iraq?

    Answer. As I noted in my testimony, the current size of the Embassy 
reflects an ``all contingency'' plan that was developed in light of the 
uncertainties facing our mission over the early part of this year. Now 
that we are 6 months into the first year without a substantial U.S. 
military presence, we are able to plan for a more institutionalized and 
sustainable presence. If confirmed, my aim will be to build a mission 
that is secure, strategic, effective, and sustainable. This will 
require a consolidation of our footprint and a reduction in personnel. 
We are also moving to a posture that allows us as much as possible to 
live off the local economy, decreasing dependence on offshore contract 
firms. I believe the current planned reductions are a good start in 
this regard.
    Iraq remains a difficult environment for American employees of all 
agencies. The Department of State expects a full package of incentives 
to remain in place for the next several years, although there may be 
some alterations. If confirmed, I will work with the Department to 
ensure that service in Iraq produces a record of achievement that is 
not overlooked in promotions, awards, and assignments. I will also 
endeavor to recruit those who have served Iraq in the past to draw on 
the nearly decade of experience our Foreign Service professionals have 
in the country. To succeed in Iraq we will need the best people, with 
the most experience, operating on the ground.

    Question. Please respond to the following questions with regard to 
the Special Immigrant Visa (SIV) Program for Iraq:

  <bullet> (a) Please provide the number of Iraqi SIVs that have been 
        issued, by fiscal year, since the inception of the program;

    Answer. The chart below details how many Special Immigrant Visas 
(SIVs) the Department of State has issued to Iraqi applicants under 
both the Section 1059 and Section 1244 programs since implementation in 
FY 2007. FY 2012 numbers are preliminary:

----------------------------------------------------------------------------------------------------------------
                                                                     Principal      Derivatives       Totals
----------------------------------------------------------------------------------------------------------------
2007............................................................         431             383             814
2008............................................................         518             449             967
2009............................................................       1,448           1,385           2,833
2010............................................................         951           1,091           2,042
2011............................................................         322             384             706
2012*...........................................................       1,137           1,461           2,598
                                                                 -----------------------------------------------
      Totals....................................................       4,807           5,153           9,960
----------------------------------------------------------------------------------------------------------------
* Applications through May 31, 2012.


  <bullet> (b) Please list the number of applications, by fiscal year, 
        since the inception;

    Answer. The chart below details the number of approved I-360 
immigrant visa petitions received by the State Department's National 
Visa Center (NVC) from USCIS for Iraqis applying for the Section 1059 
and Section 1244 SIV Programs. FY 2012 numbers are preliminary:

----------------------------------------------------------------------------------------------------------------
                                                                   Iraqi section   Iraqi section
                                                                   1059 approved   1244 approved  Combined total
                                                                      I-360s          I-360s
----------------------------------------------------------------------------------------------------------------
FY 2007.........................................................         650               0             650
FY 2008.........................................................         149              48             197
FY 2009.........................................................         139           1,614           1,753
FY 2010.........................................................          10           1,025           1,035
FY 2011.........................................................           2           2,398           2,400
FY 2012*........................................................           0             659             659
                                                                 -----------------------------------------------
      Totals....................................................         950           5,744           6,694
----------------------------------------------------------------------------------------------------------------
* Applications through May 31, 2012.


  <bullet> (c) Please list the average processing time for an SIV, by 
        fiscal year.

    Answer. Processing SIVs involves a number of different steps, many 
of which are outside the control of the State Department's Bureau of 
Consular Affairs. As a result, I understand that the Department does 
not have general statistics on processing times for SIVs. I understand 
there were significant delays in returning clearances on SIV cases in 
FY 2011, but there has been improvement on processing times in FY 2012. 
The State Department's internal standards require scheduling interviews 
60 days from the receipt of the application. As the numbers of SIVs 
issued to Iraqis in FY 2012 indicate above, our interagency partners 
have made significant strides in eliminating the backlog of Iraqi SIV 
cases pending security screening. This progress allowed us to cut the 
backlog of Iraqi SIVs pending final action (issuance or refusal of the 
visa application) by 50 percent since March. In late February, 2,832 
Iraqi SIV applications were pending security vetting. A little over 3 
months later, that number has fallen to 1,388.
    We owe it to those Iraqis who have worked with us to ensure that 
this program runs as transparently as possible while also maintaining 
essential security checks to protect the American people.

  <bullet> (d) Please list the total number of pending SIV applications 
        as of June 1, 2012.

    Answer As of June 6, 2012, there were 1,388 Iraqi SIV applications 
pending security clearances.
                                 ______
                                 

          Responses of Brett H. McGurk to Questions Submitted 
                     by Senator Benjamin L. Cardin

    Question. Special Immigrant Visas (SIVs) for Iraqi employees of the 
United States: As you know from our earlier conversations, I am very 
concerned about delays in the processing of Special Immigrant Visas 
(SIVs) for those Iraqis who risked their lives to work for us in Iraq--
particularly those who were living and working on our bases and have 
been ``cut loose'' since our withdrawal last December. How can SIV 
processing be expedited? What can be done to offer protection to those 
who are literally in hiding and on the run inside Iraq as they await 
issuance of their visas?

    Answer. This issue is very important and personal to me. It will 
receive my close attention, if confirmed. Since we met in your office, 
I have spoken with the leading U.S. officials who have been working to 
address delays in processing of Special Immigrant Visas (SIVs) for 
Iraqis who have risked their lives to work with us. The State 
Department is working closely with our interagency colleagues to 
streamline the SIV application process, eliminate redundant 
requirements, and accept electronic submissions wherever possible. If 
confirmed, I will work to ensure that the Embassy is staffed to manage 
applications efficiently and in a manner that provides fair process to 
our Iraqi partners while also ensuring necessary background and 
security checks to protect the American people. In recent months, 
strides have been made in eliminating the backlog of Iraqi SIV cases 
pending security screening. Over the first half of this year, the State 
Department issued more SIVs to Iraqis than during all of FY 2011. In FY 
2011, the Department issued 706 SIVs to Iraqi citizens. By the end of 
March 2012, the Department already had issued 865 SIVs to Iraqis. 
During April and May 2012 alone, it issued an additional 1,733 SIVs to 
Iraqis, based on preliminary data. Thus, the trend appears to be a 
positive one, and now we must ensure it continues. If confirmed, I am 
committed to working diligently with our interagency partners to 
balance the safety of American citizens with the aspirations of Iraqis 
who risked their lives to work with us, and now wish to resettle in our 
country.

    Question. Iraq and the Extractive Industries Transparency 
Initiative (EITI): According to the World Bank, Iraq possesses a proven 
143 billion barrels of oil, and high oil prices and increasing exports 
should enable Iraq's GDP to grow by about 12 percent in 2012. It is 
therefore critical that the Government of Iraq implement an effective 
and transparent process for handling and accounting for these rapidly 
increasing revenues. Iraq has been an Extractive Industries 
Transparency Initiative (EITI) candidate country since 2010 and is 
supposed to complete the requirements to become a ``compliant'' country 
later this year. What are the prospects for this happening?

    Answer. The Board of the Extractive Industries Transparency 
Initiative (EITI) accepted Iraq as a candidate country on February 10, 
2010. Iraq has until August 9, 2012, to undergo EITI validation to 
determine whether the country is compliant. Iraq issued its first EITI 
report in December 2011, reporting $41 billion in revenues from oil and 
gas exports in 2009. Iraq's second report, covering 2010, is expected 
on schedule by the end of the year. Iraq has hired one of the approved 
international validation companies to conduct its validation exercise, 
a highly detailed procedure to reconcile national revenue and company 
payment figures for extractive industries. We believe the Iraqi 
authorities are committed to the EITI process.
    The United States strongly supports Iraq's efforts to become EITI 
compliant. Iraq is one of only two countries in the Middle East to have 
sought EITI compliant status and holds the largest reserves of any 
country seeking this status.
    Revenues from crude oil exports account for approximately 95 
percent of Iraqi Government revenues, so the EITI reconciliation 
exercise is tightly tied to the overall transparency of Iraqi 
Government revenues. All Iraqi oil export revenues flow through the 
accounts of the Development Fund for Iraq at the New York Federal 
Reserve and are subject to audit by Iraq's Governmental auditing and 
internal control body, the Committee of Financial Experts. Iraq 
publishes its annual budget. The 2012 budget was reviewed by experts 
from the International Monetary Fund.
    In September 2011, the State Department's Bureau of Near Eastern 
Affairs awarded a $1million grant to Revenue Watch Institute to broaden 
and strengthen Iraqi civil society working on EITI issues and to 
support a more robust implementation process. As stated in my written 
testimony, helping the Iraqis to meet the requirements of the EITI 
would be among my top priorities if confirmed. ``By helping the Iraqis 
address these challenges, the United States can gain leverage and 
influence while pursuing mutual goals.''
                                 ______
                                 

          Responses of Brett H. McGurk to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. In July 2010, U.S. Ambassador to Iraq Jim Jeffrey said 
the following on Iran's role in Iraq during his confirmation hearing 
``Iran attempts to exert its influence through financial and political 
backing for political parties, high-level engagement with Iraqi 
leaders, and support for Shia militant groups. But, we should recognize 
that Iran's efforts continue to run into the natural independence of 
Iraqis.''

  <bullet> (a) Do you believe that this analysis still holds? How does 
        Iran exert its influence in Iraq today?

    Answer. Yes, this analysis still holds. As noted in my written 
testimony, ``Iran has tremendous influence in Iraq, sharing a 3,000 
kilometer border, as well as interwoven religious, cultural, and 
economic ties.'' Iran largely failed, however, in its efforts to create 
Iraqi Shia extremist militia groups capable of driving U.S. forces from 
Iraq, as these groups publicly pledged to do time and time again. Over 
the course of this year, the three primary Shia extremist groups have 
largely gone to ground--although we must retain a vigilant eye on their 
activities. Iran's influence is now primarily economic and political; 
and this is where we must focus our efforts to push back: through 
active political engagement, strengthening our economic and commercial 
ties with Iraq (including private sector engagement), and deepening our 
permanent ties--in education, defense, culture, commerce--under the 
Strategic Framework Agreement.

  <bullet> (b) How has Iraq recently exhibited its natural independence 
        against influence from Iran? What can we do to help support 
        that ``natural independence''?

    Answer. I have been involved in a number of conversations with 
Iraqi leaders to push back against nefarious Iranian influence. Last 
summer, when U.S. troops were coming under fire from Iranian-backed 
extremist groups, Embassy Baghdad pushed for Iraqi Security Forces to 
move into Maysan province to protect our people and detain those 
responsible. The Iraqi security forces did and the attacks nearly 
ceased. Iraqi leaders have also sought to ensure a growing supply of 
oil to international markets which is not in Iran's interest. The Shia 
religious leadership in Najaf professes a vision of Shia Islam that 
undercuts the legitimacy of the Iranian regime. And, of course, Iraqi 
security forces (with our help) defeated Iranian-backed militia groups 
that had been controlling much of Basrah in the spring of 2008. This 
was a major turning point in Iraq's trajectory. Furthermore, as I noted 
in my testimony, ``The vast majority of Iraqis seek to live in a 
globally integrated nation, whereas Iran seeks to further isolate Iraq 
from the world. It is between these competing visions--an Iraq that is 
globally integrated versus an Iraq that is isolated and dependent on 
Iran--that the United States retains substantial advantage and 
influence.'' Our vision for Iraq is one that most Iraqis share and it 
is codified in the Strategic Framework Agreement.
    Having stronger, effective government institutions will also 
support Iraq's ability to withstand Iranian political influence. We 
continue to support the development of democratic institutions in Iraq 
that serve the will and needs of the Iraqi people. In addition, 
developing stronger ties with other neighbors and the larger Middle 
East region will temper Iraqi ties to Iran. We are urging all of the 
regional players to engage directly with the Iraqi Government. Iraq's 
hosting of the Arab League summit in Baghdad was a significant and 
positive step in Iraq's integration into the region. Iraq is resolving 
longstanding issues with Kuwait and also building political ties as 
well as exploring economic/energy cooperation with other GCC states and 
Jordan. Finally, encouraging military-to-military engagements between 
Iraq and GCC states will be one of my top priorities at the Embassy, if 
confirmed.

    Question. Iraq has unique concerns with respect to the unrest in 
Syria. The ongoing violence and apparent failure of Annan's peace plan 
has increased calls for greater regional efforts to remove Assad from 
power and support a democratic transition in Syria.

  <bullet> What do you make of the Iraqi relationship with Syria and 
        how will you use your position to urge the Iraqi Government to 
        play a more constructive role bilaterally and through the Arab 
        League to bring about a democratic transition in Syria?

    Answer. The Iraqi Government follows a general foreign policy of 
nonintervention in the affairs of neighboring countries. When it comes 
to Syria, however, Iraq has a mixed record. In August 2009, the Iraqi 
Government blamed Syria for a series of bombings and sought Arab League 
and U.N. Security Council assistance for an investigation. More 
recently, the Iraqi Government has acted hesitantly to unfolding events 
in Syria. After at first retaining a neutral stance, the Iraqi 
Government has more recently said publicly that the Syrian President's 
dictatorship must come to an end and that the days of one party rule in 
Syria are over. On June 2, Iraq joined the Arab League in its most 
recent condemnation of the Syrian Government's continued violence 
against civilians, including the massacre in Houla. Iraq's concern 
regarding the situation in Syria is driven by fear among Iraqi leaders 
that a sudden collapse of the Assad regime could lead to a sectarian 
upheaval that could spill over Iraq's western border. The United States 
will continue to urge Iraq to call for the immediate departure of 
Assad, and to support a political solution to the crisis in Syria, as 
outlined by U.N.-Arab League Joint Special Envoy Annan's six point plan 
and UNSCRs 2042 and 2043.
    As for what I can do from Baghdad: if confirmed, I will (1) remain 
constantly engaged with U.S. ambassadors in regional capitals and the 
Iraq and Syria policy teams at the State Department and (2) ensure the 
Syria situation is assessed and approached multidimensionally within 
Iraq. It will be essential to seize opportunities where they exist and 
to ensure that the Iraqi Government both adheres to its Security 
Council obligations and remains within the Arab League consensus on the 
Syria situation. As I stated in my testimony, all Iraqis must know that 
``U.S. policy is firm: Bashar al-Assad must go. The longer he remains, 
the greater the threat to the Syrian people and to the region, and to 
Iraq.''

    Question. Despite efforts to expedite processing of Special 
Immigrant Visas (SIV) for Iraqis who assisted the United States 
Government during the war, there continues to be a significant backlog 
of visas. In the meantime, applicants are under threat and some have 
been killed for their work with U.S. forces.

  <bullet> (a) How many cases of SIV principal applicants are currently 
        in the pipeline? How many principal applicants have been 
        granted SIVs since the beginning of 2012?

    Answer. As I noted in my testimony, addressing the delays in 
security vetting of Iraqi SIV applications is an issue I take 
personally. I have known Iraqis who lost their lives after cooperating 
with us and others who have either resettled in the United States or 
never had an application processed. It is my understanding that in 
recent months, the United States has streamlined the application 
process to conform with existing laws and ensure reasonable security 
checks while also eliminating redundant requirements and accepting 
electronic submissions wherever possible. We are seeing some progress 
in eliminating the backlog of Iraqi SIV cases pending security 
screening. As of June 6, there were 1,388 Iraqi SIVs applicants whose 
visas were pending security clearances. Over the first half of this 
year, the State Department issued more SIVs to Iraqis than during all 
of FY 2011. In FY 2011, the Department issued 706 SIVs to Iraqi 
citizens. By the end of March 2012, the Department already had issued 
865 SIVs to Iraqis. During April and May 2012 alone, the Department 
issued an additional 1,733 SIVs to Iraqis, based on preliminary data. 
If confirmed, I pledge my utmost efforts to ensure that the Embassy is 
appropriately staffed to efficiently process SIV applications, and to 
ensure as much as possible that Iraqis who have worked with us and wish 
to resettle in the United States undergo a fair process with reasonable 
security checks.

  <bullet> (b) How many cases are pending for applicants through the 
        direct access visa process? How many direct access visas have 
        been granted since the beginning of 2012?

    Answer. Approximately 40,000 Iraqis have pending applications for 
the direct access in-country refugee resettlement program in Iraq. Of 
that number, more than 25,000 Iraqis are pending case prescreening and 
their required in-person interviews with the Department of Homeland 
Security. Since FY 2007, we have admitted more than 8,200 direct-access 
Iraqi applicants to the United States from Iraq. Of that number, we 
admitted more than 530 from Iraq in FY 2012. If confirmed, I will 
ensure close cooperation from the Embassy and through the interagency 
to process these cases as rapidly as possible while maintaining 
reasonable security checks. It will be a priority to ensure that Iraqis 
who worked with us feel welcomed not only at the U.S. Embassy in their 
capital city but also in the United States.

  <bullet> (c) What is your plan to recognize the bravery of these 
        individuals by further expediting this backlog of applicants?

    Answer. The SIV program was implemented in Iraq as a means to both 
recognize and provide protection for those Iraqis who risked their 
lives, and the lives of their families, to further U.S. goals in Iraq. 
The best solution for helping those in danger awaiting SIV and refugee 
processing is continued swift processing of their applications, 
including the security vetting process. Ensuring the success of these 
programs will be a top priority, if confirmed. As I stated in my 
written testimony: ``Iraqis who risked their lives to work with us 
should feel welcomed, even as we uphold essential security checks.''
                                 ______
                                 

        Responses of Susan Marsh Elliott to Questions Submitted 
                        by Senator John F. Kerry

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.

  <bullet> If confirmed, what steps will you take to ensure that the 
        Embassy effectively implements section 620M?
  <bullet> In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?
  <bullet> What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?

    Answer. Urging the Government of Tajikistan to improve its human 
rights performance will be one of my top priorities, if confirmed as 
Ambassador to Tajikistan. Embassy Dushanbe already routinely conducts 
Leahy vetting in accordance with the requirements of section 620M of 
the Foreign Assistance Act of 1961. Still, given the importance of 
human rights monitoring, I would lead a review of our Leahy vetting 
procedures to ensure we are conducting these reviews based on the most 
complete information. Such efforts could include leveraging the growing 
reach of the Internet; maintaining steady contact with activists, NGOs, 
journalists, and others; increasing outreach to local police and 
government contacts; and encouraging victims and their families to come 
forward. If confirmed, I will continue our coordinated work with the 
Bureau of Democracy, Human Rights, and Labor in Washington and maintain 
use of the International Vetting and Security Tracking (INVEST) system 
to maximize the breadth and depth of our vetting activities.
    I cannot speculate broadly on hypothetical cases of gross 
violations of human rights, as each case is unique, but I can pledge to 
follow U.S. law: If our coordinated vetting processes reveals credible 
information that a member or unit of the security forces is responsible 
for gross violations of human rights, the Embassy will prohibit that 
unit or individual from receiving assistance. We will use the tools at 
our disposal, including end use monitoring and our bilateral security 
agreements, to ensure U.S. assistance is never provided to those 
committing such violations.

    Question. Does Russia have plans to redeploy its troops to the 
Tajikistan-Afghanistan border following NATO's post-2014 withdrawal 
from Afghanistan? If so, what implications does that have for U.S. 
policy in the region? Would the United States support such a Russian 
deployment?

    Answer. I cannot speak to Russia's long-term intentions with regard 
to border guard deployments on the border between Tajikistan and 
Afghanistan following NATO's withdrawal from Afghanistan. It is 
conceivable that Russia may desire to redeploy troops to the border 
given Russian concerns over the large volume of Afghan origin narcotics 
that transit Tajikistan en route to Russia. Russia has had a Border 
Advisory Group in Tajikistan ever since their main forces left in 2005, 
but neither country characterized these advisers as ``troops.''
    Any potential deployment must take into account the sensitivities 
of Tajikistan. On a number of occasions in the past, Tajikistan has 
refused to permit Russian troops along the border. While I cannot 
speculate on the potential U.S. reaction to Russian deployments, we 
fully respect Tajikistan's sovereign right to determine the best course 
forward on foreign policy matters.
                                 ______
                                 

         Response of Susan Marsh Elliott to Question Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. While U.S. operations in Afghanistan continue, we must 
rely on close cooperation with Tajikistan in order to manage the flow 
of goods and people in and out of Afghanistan. However, we must balance 
this strategic imperative with our serious concerns about human rights 
in the country, including the repression of media freedom and political 
opposition and restrictions on the rights of women and ethnic and 
religious minorities.

  <bullet> How are we pushing the Government of Tajikistan to rectify 
        these abuses? Are discussions of human rights with Tajik 
        officials effective in producing positive change? If not, what 
        else could we be doing?

    Answer. Promoting and protecting freedom of the press, the rights 
of women, religious and ethnic minorities is an integral part of our 
engagement with the Government of Tajikistan. We consistently raise 
these and other human rights issues with all levels of the government.
    In May 2012, Assistant Secretary Robert O. Blake, Jr., hosted the 
third round of U.S.-Tajikistan Annual Bilateral Consultations (ABC), 
which served as a vehicle to frankly discuss our wide range of 
bilateral issues. Our delegations to the ABCs regularly include 
representatives of the Department of State's Bureau of Democracy, Human 
Rights and Labor, Office of Central Asian Affairs, and Office of 
International Religious Freedom, the Office of Central Asia in the 
Office of the Secretary of Defense, and the U.S. Agency for 
International Development. In addition to meetings with officials of 
the Government of Tajikistan, when in-country, Assistant Secretary 
Blake and I regularly meet with civil society, including human rights, 
business, and political leaders to discuss these issues.
    The goal of the ABCs is to increase the level of our engagement. We 
see opportunities for progress in all areas of our dialogue over the 
coming year, including strengthening respect for human rights and 
religious freedom, promoting democratic governance, and enhancing the 
rule of law. In our interactions with the Government and people of 
Tajikistan, we seek to ensure Tajikistan continues to be a stable 
country with secure borders and an improving economic climate.
    When Secretary Clinton visited Tajikistan, she stressed the 
importance for the governments and leaders to provide the space 
necessary for citizens to have a voice in their government, to pursue 
their aspirations, and promote their ideas. If confirmed, I will work 
hard to convey to the Government of Tajikistan the importance of an 
open, democratic, tolerant society which can provide a firm foundation 
for a secure, stable, and prosperous nation.
                                 ______
                                 

         Response of Susan Marsh Elliott to Question Submitted 
                     by Senator Benjamin L. Cardin

    Question. Does the Tajik Government respect human rights, in your 
view? Has trafficking in persons decreased? Are there political 
prisoners in Tajikistan? How should the United States address human 
rights problems in Tajikistan?

    Answer. The Government of Tajikistan has a great deal of work to do 
on the human rights front but their engagement on this issue has 
recently increased. The most significant human rights problems included 
torture and abuse of detainees, restrictions on freedoms of expression 
and religion (especially regarding the prosecution of journalists and 
repression of faith groups), and violence and discrimination against 
women. We continue to remind Government officials that a free and open 
exchange with the public is in the government's interest and a sign of 
a modern state.
    During the 2011 Trafficking in Persons reporting period, 
encompassing the 2010 cotton harvest, the Government of Tajikistan took 
strong measures to prevent forced child labor in the cotton harvest, 
including disseminating widely a directive that ordered the enforcement 
of existing prohibitions against forced labor and accrediting and 
assisting NGOs to monitor the cotton harvest. These actions in part 
resulted in Tajikistan's upgrade from Tier Two Watch List to Tier Two 
in the 2011 (and most recent) TIP Report. During the last cotton 
harvest, the government continued these efforts, fulfilling the first 
recommendations in the 2011 TIP Report.
    We have repeatedly recommended that the Government of Tajikistan 
vigorously investigate and prosecute suspected trafficking offenses, 
especially those involving forced labor, and convict and punish 
trafficking offenders, including local officials who force individuals 
to participate in the cotton harvest. We also raise frequently the need 
for the Government of Tajikistan to continue to educate school 
administrators and teachers about Tajik laws against forced labor of 
children.
    On the issue of political prisoners, according to the State 
Department's 2011 Human Rights Report, Tajik authorities claimed that 
there were no political prisoners and that they did not make any 
politically motivated arrests. Opposition parties and local observers 
claimed, however, that the government selectively prosecuted political 
opponents. Due to lack of transparency there is no reliable estimate of 
the number of political prisoners.
    Promoting and protecting basic freedom is a key USG interest. In 
May 2012, I participated in the third U.S.-Tajikistan Annual Bilateral 
Consultations, hosted by Assistant Secretary for South and Central Asia 
Robert O Blake, Jr., which served as an additional vehicle to frankly 
discuss the wide range of bilateral issues--including human rights. 
During the discussions, we expressed concern about restrictions on 
religious freedom such as the Parental Responsibility Law and 
reiterated continued need for the Government of Tajikistan to improve 
its human rights record. At the ABC and in other settings, we encourage 
the Government of Tajikistan to explore ways to combat violent 
extremism through the promotion of human rights--including religious 
freedom--in Tajikistan.
    I can assure you that I will continue to raise these issues as a 
top priority in Tajikistan, if I am confirmed as Ambassador.
                                 ______
                                 

        Responses of Susan Marsh Elliott to Questions Submitted 
                         by Senator Marco Rubio

    Question. (1) According to the State Department's 2011 Trafficking 
in Persons Report, Tajikistan is a Tier 2 country for human 
trafficking. Tajikistan serves as a source country for sexual 
exploitation and forced labor. The annual cotton harvest has been a 
concerning event where numerous instances of forced labor of children 
occurs.

  <bullet> If confirmed, what is your strategy to combat the use of 
        forced labor during the annual cotton harvest?

    (2) There have been reports where school aged children were forced 
to pick cotton during the harvest but government officials did not 
prosecute the teachers and farmers involved.

  <bullet> If confirmed, how do you plan on addressing the issue of 
        enforcement of antihuman trafficking laws, particularly in 
        cases of forced labor during the cotton harvest?

    Answer. During the 2011 Trafficking in Persons reporting period, 
encompassing the 2010 and 2011 cotton harvests, the Government of 
Tajikistan took strong measures to prevent forced child labor in the 
cotton harvest, including disseminating widely a directive that ordered 
the enforcement of existing prohibitions against forced labor and 
accrediting and assisting NGOs to monitor the cotton harvest. These 
actions in part resulted in Tajikistan's upgrade from Tier Two Watch 
List to Tier Two. During the last cotton harvest, the government 
continued these efforts, fulfilling the first recommendations in the 
2011 TIP Report. The International Organization on Migration's (IOM) 
2012 ``Report on the 2011 Tajik Cotton Harvest,'' which was released in 
March 2012 and funded by the Department of State's International 
Narcotics and Law Enforcement Bureau, noted that the Tajik Government 
took action on reported cases of forced child labor during the cotton 
harvest.
    We have repeatedly recommended that the Government of Tajikistan 
vigorously investigate and prosecute suspected trafficking offenses, 
especially those involving forced labor, and convict and punish 
trafficking offenders, including local officials who force individuals 
to participate in the cotton harvest. We also raise frequently the need 
for the Government of Tajikistan to continue to educate school 
administrators and teachers about Tajik laws against forced labor of 
children.
    If confirmed, I will vigorously raise with the Government of 
Tajikistan the issue of enforcement of antihuman trafficking laws, 
particularly in cases of forced labor during the cotton harvest. Also, 
I will follow closely our assistance in this area to ensure that it is 
achieving the intended results.

 
   NOMINATIONS OF RICHARD MORNINGSTAR, TIMOTHY BROAS, AND JAY ANANIA

                              ----------                              


                        WEDNESDAY, JUNE 13, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Richard L. Morningstar, of Massachusetts, to be Ambassador 
        to the Republic of Azerbaijan
Timothy M. Broas, of Maryland, to be Ambassador to the Kingdom 
        of the Netherlands
Jay Nicholas Anania, of Maryland, to be Ambassador to the 
        Republic of Suriname
                              ----------                              

    The committee met, pursuant to notice, at 2:49 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Kerry, Shaheen, Menendez, Cardin, Lugar, 
and Barrasso.
    The Chairman. The hearing will come to order. I am going to 

exercise the prerogative of being the Chair with the ranking 
member's consent and start the hearing, even though I have 
asked Senator Shaheen, who is now here, to chair the hearing. 
And what I will do is recognize Senator Shaheen to formally 
open the proceedings, and then we will go from there.
    Senator Shaheen [presiding]. Well, thank you, Mr. Chairman. 
Since it is your committee, you can start whenever you are 
ready, and I appreciate that and apologize for being late.
    We are here today to consider the nominations of Richard 
Morningstar to be United States Ambassador to Azerbaijan, Mr. 
Timothy Broad to be the United States Ambassador to the 
Netherlands, and Mr. Jay Nicholas Anania to be the United 
States Ambassador to the Republic of Suriname.
    And, Mr. Chairman, I do not know if you would like to go 
ahead and do the introductions, and then I have an opening 
statement since I know you have to go on.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. I appreciate that. I have to go on to another 
meeting and appreciate that enormously.
    First of all, thank you for letting me say a few words and 
for chairing this. I really appreciate it. And I am very 
pleased that the President has nominated such strong candidates 
to serve as Ambassador to Azerbaijan, the Netherlands, and 
Suriname.
    Jay Anania has served as a career Foreign Service officer, 
which we always welcome here, to take on chief of mission 
roles. He served in a variety of important and challenging 
posts, most recently at our Embassy in Baghdad. And he is a 
highly qualified nominee, and I know he is going to be an 
excellent Ambassador in Suriname. We look forward to confirming 
you.
    Tim Broas comes to us from a long and very distinguished 
career in the private practice of law. For the last 3 years, 
various legal associations have listed him as one of the best 
lawyers in America, and some even have given him the super 
lawyer's award. No doubt this experience will be put to good 
use as he takes the post in The Hague because the Dutch proudly 
refer to themselves as the international legal capital of the 
world. We are very fortunate that he has agreed to serve on 
behalf of our country.
    I have known Tim for many years, and I can tell you that he 
is as decent and humble as he is passionate about serving his 
country. He embodies not just the accomplishments to which 
every American should aspire, but he is a living example of the 
kind 
of compassion and strength that we expect from our Nation's 
diplomats.
    I will say on a personal note I know he is a quintessential 
family man. This September he will celebrate his 27th wedding 
anniversary with his wife, Julie, herself an accomplished 
lawyer. And together they have raised three extraordinary 
children: Emily, Allison, and Mattie, who are here today with 
him. I got to know Emily when she was an intern in my 
Washington office and during her years at Dartmouth College. It 
is a testament to things unseen that Emily is still here with 
us today. As a freshman when many of the rest of the freshman 
classes were agonizing over what courses to take or clubs to 
join, she was diagnosed with leukemia, and anyone who knows her 
will understand that she is a fighter. Through courage, grit, 
and sheer determination she stared down adversity and keep her 
dreams afloat. And Tim never let go during that process. He was 
there every step of the way with compassion and grace and a 
unique sense of humor that is always leavening in those 
stressful moments.
    Tim and I share a mutual appreciation for Bruce 
Springsteen. Back in 2004 when my Presidential campaign was in 
full swing, ``the Boss,'' who campaigned with me, wrote an op-
ed that I think sums what is best about Tim. This may be the 
first confirmation hearing at which ``the Boss'' is quoted on 
behalf of the nominee, he wrote, ``It's through the truthful 
exercise of the best of human qualities, respect for others, 
honesty about ourselves, faith in our ideals, that we come to 
life in God's eyes. It is how our soul as a nation and as 
individuals is revealed.''
    So I can tell you that in him I think the President has 
nominated a man of the highest integrity who will represent 
this Nation with honesty, with respect for other people, and an 
unwavering faith in our ideals.
    Finally, I am delighted to introduce an old friend from 
Massachusetts, Richard Morningstar, to serve as our Ambassador 
to Azerbaijan. I have known Dick Morningstar since I entered 
politics in Massachusetts, and I have worked with him now for 
decades. Many times he has answered the call to serve our 
country in various posts, and he is now doing so once again in 
a post where I believe our country, and the President need his 
skills far more than he needs the job. He will bring the right 
intelligence, commitment, and broad experience, including 
profound regional experience to this task.
    Ambassador Morningstar currently serves as special envoy 
for Eurasian energy at the State Department, where he has 
worked tirelessly and with great skill to enhance Europe's 
energy security and assist the Caspian and Central Asian 
countries to find new routes to the market. It is a position of 
strategic importance to the United States, and it is the kind 
of position that Dick has excelled in.
    In the interest of time, I am not going to detail his long 
list of previous accomplishments, but I will say for the record 
that he has served as Ambassador to the European Union, a 
Special Advisor to the President and Secretary of State for 
Caspian Basin energy diplomacy, Ambassador and Special Advisor 
to the President and Secretary of State for the newly 
independent states of the former Soviet Union, and, above all, 
he had the good sense to be born and educated in Massachusetts.
    It is a pleasure to welcome him here today. And I 
understand that his wife, Faith, and his daughter, Jill, and 
son-in-law, Al Fitzpayne, are also in attendance. So we welcome 
all them here this afternoon. And a quick shout out to Dick's 
son, Tim, and his wife, Liz, who also did a terrific job of 
helping me back in 2004.
    Before I wrap up, I just want to underscore that really no 
issue may be more important to us than stability in the south 
Caucasus than a lasting and peaceful resolution to the Nagorno-
Karabakh conflict. And as cochair of the OSCE Minsk Group, the 
United States is committed to a comprehensive peace settlement 
that is going to require sustained engagement and political 
will. And I know Secretary Clinton's recent travel to the 
region underscores our determination to move forward on this 
issue.
    So, Ambassador Morningstar, your nomination could not be 
more timely, and I want to say personally that I am grateful 
for your continued dedication to public service, and grateful 
for your friendship and support.
    I urge my colleagues to support all three of these nominees 
and hope we can move them as expeditiously as possible. Thank 
you, Madam Chairman, very much.
    Senator Shaheen. Thank you very much, Senator Kerry. We 
very much appreciate the fact that you are able to be here at 
the start of this hearing. And I also want to recognize Ranking 
Member Lugar, who is the ranking member on the full committee, 
and thank him for being here as well. Would you like to make 
any kind of a statement following the Chair?

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. My statement would simply be that I am 
delighted with the remarkable quality of the candidates that 
are in front of us today. I have had the special privilege to 
work with Ambassador Morningstar and look forward to his 
testimony. And we will have questions for him in due course.
    We are grateful to all three of you for coming to our 
hearing and for your public service.
    Senator Shaheen. Thank you very much, Senator Lugar.
    I have a very brief statement that I will make before 
turning it over to the ranking member of this subcommittee, 
Senator Barrasso, for his statement before we finally turn it 
over to you all. So you have a brief reprieve before we begin 
asking you questions.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. I want to start by congratulating each of 
you on your nominations. We all thank you for taking on these 
very important jobs and look forward to hearing from you this 
afternoon.
    I also want to just make sure that you take the 
opportunity, if you would like, to introduce any family or 
friends that you have here with you. I see a big crowd, so that 
says to me you must have lots of people who care about you and 
this nomination here with you. So feel free to do that. We ask 
a lot of our diplomats and their families, and we know that 
service abroad is sometimes very challenging, and it is very 
important to have the support of your families.
    First on the agenda today, the committee will examine our 
relationship with Azerbaijan, a critical partner for the United 
States in the strategically vital Caspian region. This year 
marks the 20th anniversary of diplomatic relations between the 
United States and Azerbaijan.
    Azerbaijan is currently a U.N. Security Council member, 
and, as such, recently attended the NATO summit in Chicago. It 
has made important contributions as a NATO partner for peace 
country in Iraq, in Kosovo, and in Afghanistan. And today it 
remains a key point for the transport of troops and supplies 
into and out of Afghanistan. And, of course, as Senator Kerry 
mentioned earlier, it has massive energy supplies. Azerbaijan 
is also a crucial component of the Southern Corridor with those 
energy supplies to bolster our energy security in Europe.
    Human rights remain a concern in Azerbaijan, and I was 
pleased to see that this was a point that Secretary Clinton 
made when she visited there recently. It was also encouraging 
to see a prominent opposition activist who was released from 
prison prior to the Secretary's visit. And I hope that others 
who are being detained there for simply expressing their views 
will be released soon as well.
    Unfortunately, violence has once again flared up over the 
conflict in Nagorno-Karabakh in recent weeks. I am concerned 
about the escalating tension in this region and call on all 
sides to peacefully resolve the dispute and comply with the 
1994 cease-fire agreement. There is no military solution to 
this conflict, and continued violence could be a disaster for 
both sides. Diplomacy, under the auspices of the Minsk Group, 
will be key to any peaceful and sustainable resolution that 
turns the page on the violence of the past.
    Our second nominee and the second issue that we will 
consider this afternoon is United States policies with respect 
to the Netherlands. And I understand that there are some 
representatives here from the Dutch Embassy. We do apologize 
for the timing of the hearing because it is coming in a direct 
conflict with the soccer championship game against Germany, so 
we are impressed that you are here. And, Mr. Broas, we are 
going to have to ask you about this game before this hearing 
ends.
    But as a founding member of NATO and a strong member of the 
European Union, the Netherlands is obviously a critical and 
important ally that shares wide-ranging interests and values 
with the United States. Dutch troops have been very valuable 
contributors to the engagement in Afghanistan where they fought 
in some of the toughest southern provinces of that country. 
Today Dutch troops provide support to the police training 
programs that are run by the EU and NATO, and they are one of 
the strong active participants in the joint development of the 
F-35 fighter program. And they were the first non-U.S. NATO 
ally to offer a contribution for the European phased adaptive 
approach missile defense plan.
    Netherlands, like so much of Europe, has been hit hard by 
the global downturn and the ongoing debt crisis in Europe. And 
as a member of the eurozone and one of the few AAA credit 
rating countries left in Europe, the Dutch will need to play an 
important role in working toward a resolution in Europe that 
addresses both debt and growth throughout the continent.
    Finally today we will be assessing U.S. relations with the 
Republic of Suriname, a young South American country which 
gained its independence from the Netherlands in 1975. Suriname 
is a constitutional democracy with two decades of continuous 
democratically elected civilian governments. With an economy 
dominated by mineral and energy deposits, a number of U.S. 
mining companies have a strong presence and an interest in the 
country.
    Perhaps one of the biggest challenges for the United States 
and Suriname remains drug trafficking. The country is a transit 
point for cocaine and other illegal narcotics, and the United 
States will need to deepen relations with Suriname if we are to 
curb illicit trafficking and strengthen rule of law in this 
region of the world.
    I will not do any more to introduce our three nominees as 
Senator Kerry did that very eloquently. So I will now call on 
Senator Barrasso for his opening remarks.

            OPENING STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman, and I would like to also congratulate each of the 
nominees who are before us today. These are very important 
nominations for our country and for our future. Each of these 
positions is important to fostering vital relationships and 
promoting U.S. national interests. There are some real 
challenges ahead. It is important that the United States 
continue to be a strong leader across the globe.
    Should you represent our Nation as a U.S. ambassador, it is 
important for each of you to provide strong stewardship of 
American taxpayer dollars, demonstrate professionalism, and 
good judgment, and vigorously advocate for the priorities of 
the United States. So I look forward, Madam Chairman, to 
hearing the goals from each of these individuals with regard to 
the countries that they will be moving to, and for whom they 
will be representing the United States, and then all of your 
plans for achieving those goals.
    So I join you, Madam Chairman, in congratulating each of 
you on your nomination, and would like to extend, as you did, a 
warm welcome to all of the families, and congratulate them as 
well.
    Senator Shaheen. Thank you very much. I will ask each of 
you to give us your testimony before we open it up for 
questions. And we will start with Ambassador Morningstar and 
just go right down the table. So, Ambassador.

STATEMENT OF HON. RICHARD L. MORNINGSTAR, OF MASSACHUSETTS, TO 
          BE AMBASSADOR TO THE REPUBLIC OF AZERBAIJAN

    Ambassador Morningstar. Thank you very much, Madam 
Chairman, and thank you for your comments, with which I fully, 
fully agree. And also thank you to the other distinguished 
members of the committee for the privilege of appearing before 
you today as President Obama's nominee as the United States 
Ambassador to Azerbaijan. I am grateful for the opportunity to 
testify.
    I would like to particularly thank Senator Kerry and 
Senator Lugar for their very kind comments. And, Senator Lugar, 
I truly appreciate your support over the years. And I think 
that even going back to the 1990s when we were working on the 
Baku-Tbilisi-Ceyhan pipeline, that our policy in the Caspian 
and in the Caucasus region has been truly bipartisan. And 
because of that, I think we have been able to achieve a lot 
over the years.
    I am also humbled by the confidence that the President and 
Secretary Clinton have placed in me, and if confirmed I look 
forward to working with this committee, other Members of 
Congress, and your staffs to advance the interests of the 
United States in Azerbaijan.
    I would like to briefly introduce my wife, Faith, who has 
been such a strong support during all of my government 
wanderings--and my daughter, Jill, who actually has served very 
capably as the recipient of my wife's vents during all of my 
government wanderings, and my son-in-law, Al Fitzpayne, whom 
some of you may know well because he is now the Assistant 
Secretary for Legislative Affairs at the Treasury Department. 
And also our three oldest friends are here today, and that is 
Sally Fowler, Dr. Jay Kaufman and Susie Kaufman. And we are 
certainly glad that they are here as well.
    Long before my current position as the Secretary's Special 
Envoy for Eurasian Energy, and before my appointment as the 
United States Ambassador to the European Union, I served as 
special advisor to the President and Secretary of State for 
assistance to what were then called the newly independent 
states of the former Soviet Union. One of the primary goals 
during that time was the stabilization and development of the 
entire south Caucasus region, a goal that we continue to pursue 
today.
    I have vivid memories during the 1990s of working through 
my office to supply fuel oil and wheat to Georgia and Armenia 
to help them through some very difficult winters. And over the 
years, I have made several trips to all three Caucasus 
countries.
    This year, the United States and Azerbaijan celebrated the 
20th anniversary of the establishment of our diplomatic 
relationship. This milestone is an opportunity to take stock of 
how far we have come in the three core areas of importance to 
the relationship: security, which also includes the Nagorno-
Karabakh situation, energy and other economic issues, and 
democratic and economic reform.
    The United States has long recognized Azerbaijan as a 
stalwart partner on international security. Following the 
attacks of September 11, 2001, then Azerbaijani President 
Heydar Aliyev was among the first to extend a hand of support 
in our time of need and to offer close cooperation in our 
efforts to combat terrorism. That cooperation continues to this 
day. American and Azerbaijani soldiers have served together in 
Kosovo and Iraq, and they now serve together in Afghanistan. 
Azerbaijan has shown a continued commitment to the allied 
effort in Afghanistan, including its vital role as a 
transportation route in the Northern Distribution Network for 
supporting NATO's operations in Afghanistan.
    The United States and Azerbaijan have also enjoyed 20 years 
of cooperation on energy security, as has already been 
mentioned. The Baku-Tbilisi-Ceyhan pipeline, which I worked on 
in the past, and the development today of the Southern Corridor 
for gas, represent powerful symbols of Azerbaijan's pursuit of 
closer Euro-Atlantic integration and global commitment to 
energy security, a key part of our strategy to diversify energy 
routes and sources for European markets.
    But Azerbaijan's integration into the West can and must 
expand well beyond pipelines. The United States must also 
continue to work with Azerbaijan on advancing democratic and 
economic reforms, including promoting respect for the rule of 
law, transparency, and fundamental freedoms. There is no 
question that Azerbaijan is located in a tough neighborhood, 
facing real pressures. However, democratic reforms are 
essential to Azerbaijan's long-term security and prosperity. It 
is in Azerbaijan's own interest to undertake these reforms, 
both to ensure long-term stability and to unleash the full 
potential of its people. As Azerbaijan advances along this 
path, our bilateral relationship will become even stronger.
    As Madam Chairman has said, the Secretary of State last 
week, while in Baku, made a strong statement affirming our 
commitment to working with Azerbaijan to advance respect for 
human rights and fundamental freedoms, and how important those 
issues are. And if confirmed, I will do everything in my power 
to help Azerbaijan succeed in developing as a strong, 
independent, and modern democracy.
    To achieve a more secure and prosperous future for the 
region, there is no higher priority for the United States than 
the peaceful settlement of the Nagorno-Karabakh conflict. As a 
cochair of the OSCE Minsk Group, the United States continues to 
assist the sides to achieve a peaceful, lasting, negotiated 
settlement of the conflict based on the principles of the 
Helsinki Final Act, including the nonuse of force or threat of 
force, territorial integrity, and the equal rights and self-
determination of peoples. If confirmed, I will support the 
administration's commitment at the highest levels to achieve 
this goal. I will also support the efforts of the U.S. cochair, 
Ambassador Robert Bradtke, as we work closely with the sides to 
reach a settlement. Only a negotiated settlement can lead to 
long-term peace and stability in the region.
    Finally, Madam Chairman, our wide range of shared interests 
intersects with many of the United States highest foreign 
policy priorities, but there is still much that we can do to 
bring our governments, our societies, and our people even 
closer together.
    Madam Chairman, thank you very much for considering my 
nomination, and I look forward to getting into a lot more 
detail on the questions.
    [The prepared statement of Ambassador Morningstar follows:]

               Prepared Statement of Richard Morningstar

    Thank you, Madam Chairman, and distinguished members of the 
committee, for the privilege of appearing before you today as President 
Obama's nominee to be the next United States Ambassador to Azerbaijan. 
I am grateful for the opportunity to testify this afternoon, and I am 
humbled by the confidence that President Obama and Secretary Clinton 
have placed in me. If confirmed, I look forward to working with this 
committee, other Members of Congress, and your staffs to advance the 
interests of the United States in Azerbaijan.
    I would like to introduce my wife, Faith, who has joined me here 
today, along with my daughter, Jill Morningstar, and son-in-law, Al 
Fitzpayne.
    Long before my current position as the Secretary's Special Envoy 
for Eurasian Energy, and before my appointment as U.S. Ambassador to 
the European Union, I served as Special Advisor to the President and 
Secretary of State on Assistance for the Newly Independent States of 
the Former Soviet Union. One of the primary goals during that time was 
the stabilization and the development of the entire South Caucasus 
region--a goal that we continue to pursue today. I have vivid memories 
during the 1990s of working through my office to supply fuel oil and 
wheat to Georgia and Armenia to help them get through some difficult 
winters. Over the years, I made several trips to all three Caucasus 
countries.
    The United States stands only to gain--and to reap benefits well 
into the future--from an Azerbaijan that is peaceful, democratic, 
prosperous, and strategically linked to the United States and our 
European allies. Azerbaijan has enormous potential.
    This year, the United States and Azerbaijan celebrated the 20th 
anniversary of the establishment of our diplomatic relationship. This 
milestone is an opportunity not only to appreciate the depth of our 
cooperation, but also to take stock of how far we've come in the three 
core areas of importance to the relationship: security, energy, and 
democratic and economic reform. The administration believes we must 
intensify our cooperation in these areas and work together to resolve 
the ongoing challenges that the region continues to face.
    The United States has long recognized Azerbaijan as a stalwart 
partner on international security. We remember that following the 
attacks of September 11, 2001, then-Azerbaijani President Heydar Aliyev 
was among the first to extend a hand of support in our time of need and 
to offer his country's close cooperation in our efforts to combat 
terrorism. That cooperation continues to this day. American and 
Azerbaijani soldiers have served together in Kosovo and Iraq, and they 
now serve together in Afghanistan. Azerbaijan has shown a sustained 
commitment to the allied effort in Afghanistan, including its vital 
role as a transportation route in the Northern Distribution Network for 
supporting NATO's operations in Afghanistan. Thousands of flights have 
crossed Azerbaijan's airspace en route to Afghanistan, and thousands of 
containers have departed Baku in support of the International Security 
Assistance Force. The United States works closely and productively with 
Azerbaijan on the U.N. Security Council, where this year Azerbaijan 
began its first-ever term as a nonpermanent member.
    The United States and Azerbaijan have also enjoyed 20 years of 
cooperation on energy security. In my current position as Special Envoy 
for Eurasian Energy, I work closely with Azerbaijan. The Baku-Tbilisi-
Ceyhan pipeline, which I worked on in the past, and the development 
today of the Southern Corridor for gas represent powerful symbols of 
Azerbaijan's pursuit of closer Euro-Atlantic integration and global 
commitment to energy security--a key part of our strategy to diversify 
energy routes and sources for European markets. If confirmed, I will 
continue to work with Azerbaijan to diversify its energy routes and 
bolster its critical energy infrastructure protection. But Azerbaijan's 
integration with the West can and must span well beyond pipelines.
    The United States must also continue work with Azerbaijan on 
advancing democratic and economic reforms, including promoting respect 
for the rule of law, transparency, and fundamental freedoms. There is 
no question that Azerbaijan is located in a tough neighborhood, facing 
real pressures. However, democratic reforms are essential to 
Azerbaijan's long-term security and prosperity. It is in Azerbaijan's 
own interest to undertake these reforms, both to ensure long-term 
stability and to unleash the full potential of its people. And as 
Azerbaijan advances along this path, our bilateral relationship will 
become even stronger. An independent judiciary, a free media, a vibrant 
civil society, political pluralism, competition through free and fair 
elections, and respect for fundamental freedoms are essential 
components of any democracy, and we need to work together to increase 
the pace of Azerbaijan's development in these areas. The Secretary of 
State last week, while in Baku, made a strong statement on these 
issues. If confirmed, I will do everything in my power to help 
Azerbaijan succeed in developing as a strong, independent, and modern 
democracy.
    To achieve a more secure and prosperous future for the region, 
there is no higher immediate priority for the United States than the 
peaceful settlement of the Nagorno-Karabakh conflict. As a cochair of 
the OSCE Minsk Group, the United States continues to assist the sides 
to achieve a peaceful, lasting negotiated settlement of the conflict 
based on the principles of the Helsinki Final Act, including the Non-
Use of Force or Threat of Force, Territorial Integrity, and the Equal 
Rights and Self-Determination of Peoples. If confirmed, I will support 
the administration's commitment, at the highest levels, to achieving 
this goal. I will also support the efforts of the U.S. cochair, 
Ambassador Robert Bradtke, as we work closely with the sides to reach a 
settlement. The President, Secretary of State, and Ambassador Bradtke 
have made major efforts to facilitate a settlement. We must continue 
these efforts. Only a negotiated settlement can lead to long-term peace 
and stability in the region.
    Madam Chairman, if I am confirmed, I will have the great honor of 
advancing a relationship that has progressed, steadily and 
uninterrupted, for the 20 years since Azerbaijan declared its 
independence. Our wide range of shared interests intersects with many 
of the United States highest foreign policy priorities. But there is 
still much we can do to bring our governments, our societies, and our 
people even closer together.

    Senator Shaheen. Thank you very much.
    Mr. Anania.

STATEMENT OF JAY NICHOLAS ANANIA, OF MARYLAND, TO BE AMBASSADOR 
                  TO THE REPUBLIC OF SURINAME

    Mr. Anania. Madam Chairman and members of the committee, I 
am pleased to appear before you today. I am grateful for the 
confidence Secretary Clinton placed in me and deeply honored by 
President Obama's nomination to serve as United States 
Ambassador to the Republic of Suriname.
    I am extremely pleased that my wife, Lourdes, and parents, 
Joan and Edward Anania, are with me here today. Lourdes and I 
have shared the challenges and pleasures of the Foreign Service 
since 1984, and we have served together during six overseas 
postings. I could not have reached this stage in my career 
without her love and support.
    I would also like to recognize my mother, Joan, whose own 
foreign affairs career was cut short by the discriminatory 
policies that applied to women in the 1950s. Thankfully women 
no longer have to resign if they decide to marry. She first 
inspired me to consider a Foreign Service career.
    My father, who was born and raised in Portsmouth, NH, also 
set a positive example of public service with his U.S. Army and 
Department of Defense civilian career.
    While representing the United States abroad in such diverse 
places as Mexico, Jordan, Cuba, the United Arab Emirates, 
Germany, Hong Kong, and currently in Iraq, I have drawn on my 
experience as an American to encourage people to see that 
working together helps make progress possible. Although 
countries cannot immediately change the legacy of centuries, a 
commitment to human rights, decency, and a shared future by all 
sectors of society, without regard to ethnicity or religion, 
can help a nation in its efforts to overcome legacies of the 
past.
    If confirmed, I look forward to representing the United 
States in Suriname, one of the most ethnically and religiously 
diverse countries in the world. The ancestors of Suriname's 
people hail from various regions, including some where I have 
served, and their customs and religious beliefs reflect the 
world's diversity. If confirmed, I look forward to working with 
the many communities of this remarkable nation.
    My first priority would be protecting the safety and 
welfare of Americans in Suriname, both private citizens and the 
official community. If confirmed, I will work with the Suriname 
Government to adopt policies and promote development that 
increases American investment and tourism between our two 
countries.
    If confirmed, I also plan to work to strengthen democracy 
and transparency in government. Suriname has made real progress 
in the 21 years since the reestablishment of civilian rule, and 
in 2010, Suriname held its fifth consecutive free and fair 
national election. It is very much in the United States 
interests that Suriname remains a stable democratic partner, 
and if I am granted the opportunity to serve there, one of my 
highest priorities will be to advance that goal.
    The United States, Suriname, and other nations in the 
region share a vital interest in protecting the rule of law. 
People cannot feel secure if they do not have a legal system 
they can count on. Close cooperation between duly constituted 
law enforcement institutions in both countries and strengthened 
law enforcement capabilities are important shared interests. 
Suriname has made progress in its battle to stop trafficking in 
persons, arms, and narcotics, and stands to benefit greatly 
from bilateral and regional assistance under several U.S.-
sponsored programs, including the Caribbean Basin Security 
Initiative.
    Under our CBSI partnership, Suriname will receive 
significant assistance to improve port security, provide 
technical training to its law enforcement officers, combat 
money laundering and financial crimes, and develop biometric 
screening measures for its ports of entry.
    Suriname remains a key partner for the United States in our 
efforts to promote citizen security in the Caribbean. The 
administration is working with partner countries to protect the 
global environment, and to combat the dangers posed by 
pollution, and the risks of climate change. Some of the people 
of Suriname, heirs to a wonderful rain forest and other natural 
areas, see ecotourism as one way to demonstrate that these 
environments are worth protecting from destruction by clear 
cutting, or illegal logging, or mining. If confirmed, I will 
work hard with the Surinamese to help protect their wonderful 
natural environment, a goal I firmly believe is in both the 
interests of the United States and of the people of Suriname.
    Suriname is a land of significant natural resources from 
bauxite and gold to untapped petroleum reserves. Free trade is 
a key part of the economic engine that drives progress and 
growth, and it 
is in our interest to increase our trade and economic ties with 
Suriname.
    If confirmed, I look forward to representing the United 
States in Suriname, working with you, and your colleagues in 
Congress on behalf of the administration, while also working 
closely with the government and people of Suriname in a genuine 
spirit of cooperation and mutual respect.
    I would be happy to answer any questions you might have. 
Thank you.
    [The prepared statement of Mr. Anania follows:]

                    Prepared Statement of Jay Anania

    Madam Chairman and members of the committee, I am pleased to appear 
before you today. I am grateful for the confidence that Secretary 
Clinton has placed in me, and I am deeply honored by President Obama's 
nomination to serve as United States Ambassador to the Republic of 
Suriname.
    I am extremely pleased that my wife, Lourdes, and parents, Joan and 
Edward, are with me here today. Lourdes and I have shared the 
challenges and pleasures of the Foreign Service since 1984, and we 
served together during six overseas postings. I could not have reached 
this stage in my career without her love and support. I would also like 
to recognize my mother, Joan, whose own foreign affairs career was cut 
short by the discriminatory policies that applied to women in the 
1950s. Thankfully, this particular policy no longer exists, and women 
no longer have to resign from the Foreign Service if they decide to 
marry. She first inspired me to consider a Foreign Service career. My 
father also set a positive example of public service with his U.S. Army 
and Department of Defense civilian career.
    While representing the United States abroad in such diverse places 
as Mexico, Jordan, Cuba, the United Arab Emirates, Germany, Hong Kong, 
and currently in Iraq, I have drawn on my experiences as an American to 
encourage people to see that working together helps make progress 
possible. Although countries cannot immediately change the legacy of 
centuries, a commitment to human rights, decency, and a shared future 
by all sectors of society without regard to ethnicity or religion can 
help a nation in its efforts to overcome legacies of the past.
    If confirmed, I look forward to representing the United States in 
Suriname--one of the most ethnically and religiously diverse countries 
in the world. The ancestors of Suriname's people hail from various 
regions, including some where I have served, and their religious 
beliefs also reflect much of the world--Christianity, Hinduism, Islam, 
and the oldest continuous Jewish community in the Americas. If 
confirmed, I look forward to working with the many communities of this 
remarkable nation.
    My first priority would be protecting the safety and welfare of 
Americans in Suriname--both private citizens and the official 
community. If confirmed, I will work with the Suriname Government to 
adopt policies and promote development that increases American 
investment and tourism between our two countries.
    If confirmed, I also plan to work to strengthen democracy and 
transparency in government. Suriname has made real progress in the 21 
years since the reestablishment of civilian rule, and in 2010 Suriname 
held its fifth consecutive free and fair national election. It is very 
much in the United States interest that Suriname remains a stable 
democratic partner, and if I am granted the opportunity to serve there, 
one of my highest priorities will be to advance that goal.
    The United States, Suriname, and other nations in the region share 
a vital interest in protecting the rule of law. People cannot feel 
secure if they do not have a legal system they can count on. Close 
cooperation between duly constituted law enforcement in both countries, 
and strengthened law enforcement capabilities, are important shared 
interests. Suriname has made progress in its battle to stop trafficking 
in persons, arms, and narcotics. Suriname stands to benefit greatly 
from bilateral and regional assistance under several U.S.-sponsored 
programs, including the Caribbean Basin Security Initiative (CBSI)--a 
multiyear, multifaceted initiative that complements the Central 
American Regional Security Initiative and the Merida Initiative in 
Central America and Mexico. Under our CBSI partnership with Government 
of Suriname and other Caribbean neighbors, Suriname will receive 
significant assistance to improve port security, provide technical 
training to its law enforcement officers, combat money-laundering and 
financial crimes, and develop biometric screening measures for its 
ports of entry. Suriname remains a key partner for the United States in 
our efforts to promote citizen security in the Caribbean.
    The administration is working to protect the global environment and 
to combat the dangers posed by pollution and the risks of climate 
change. An important part of this effort is working cooperatively with 
other countries around the world. Some of the people of Suriname, heirs 
to a wonderful rainforest and other natural areas, see eco-tourism as 
one way to demonstrate that these environments are worth protecting 
from destruction by clear-cutting or illegal logging or mining. If 
confirmed, I will work hard with the Surinamese to help protect their 
wonderful natural environment, a goal that I firmly believe is in both 
the interest of the United States and of the people of Suriname.
    Suriname is a land of significant natural resources, from bauxite 
and gold to untapped petroleum reserves. Free trade is a key part of 
the economic engine that drives progress and growth, and it is in our 
interest to increase our trade and economic ties with Suriname.
    If confirmed, I look forward to representing the United States in 
Suriname, working with you and your colleagues in Congress on behalf of 
the administration, while also working closely with the government and 
the people of Suriname in a genuine spirit of cooperation and mutual 
respect.

    Senator Shaheen. Thank you, Mr. Anania. I am pleased to 
hear about your New Hampshire roots, too.
    Mr. Broas.

STATEMENT OF TIMOTHY M. BROAS, OF MARYLAND, TO BE AMBASSADOR TO 
                 THE KINGDOM OF THE NETHERLANDS

    Mr. Broas. Madam Chairman, Ranking Member Barrasso, and 
distinguished members of the Senate Foreign Relations 
Committee, thank you for the privilege of appearing before you 
today. I am deeply grateful to President Obama and to Secretary 
Clinton for their support and confidence in nominating me to be 
U.S. Ambassador to the Kingdom of the Netherlands. If confirmed 
by the Senate, I pledge to devote all my energy to represent 
the United States to the best of my ability.
    If you will permit me, I would like to introduce the 
members of my family who are here: my wife, Julie Broas, who is 
from Indiana and worked for Senator Lugar as an intern many 
years ago; my daughter, Emily Broas, who recently graduated 
from Dartmouth College; my daughter, Allison Broas, a senior at 
Boston College; and my daughter--my youngest daughter, Madeline 
Broas, fresh from her high school graduation this weekend, and 
bound for Hanover, NH, to follow in her sister's footsteps to 
Dartmouth. I am happy they could join me today. They have been 
patient, steadfast, and loving supporters of me throughout this 
process for which I am forever grateful.
    I would also like to thank Senator Kerry for his kind words 
and his gracious introduction. He is right about the 
Springsteen connection, and it is something I will never live 
down, proudly.
    Madam Chairman and fellow Senators, all of you know well of 
the United States long and strong relationship of the 
Netherlands. The United Provinces of the Netherlands was the 
second nation to officially recognize the United States when 
the Dutch Government accepted the credentials of U.S. Minster 
John Adams on April 19, 1782. Since then, the Netherlands has 
remained one of our oldest and most reliable diplomatic 
partners.
    More recently, the Dutch have become one of our strongest 
economic and trade partners, as well as one of the world's most 
generous development and donor nations. They are our ninth-
largest trading partner and the third-largest foreign direct 
investor in the United States.
    From 2000 through 2010, the Netherlands was the No. 1 
destination in the world for U.S. direct investment, far ahead 
of Canada, Mexico, Singapore, and Japan. Clearly for a country 
barely the size of Rhode Island with only 16 million people, 
the Netherlands punches well above its weight. If I am 
confirmed, I will work tirelessly to maintain and improve our 
strong economic and trade relations with the Netherlands, 
consistent with the administration's goal to increase exports 
and create new jobs.
    Our strong relations find harmony on many levels beyond the 
economic and diplomatic. The Netherlands works closely with the 
United States to promote security, stability, and justice 
throughout the world through military support and development 
aid, support of our strongest allies, and condemnation of our 
most threatening enemies, and hosting the international 
tribunals to litigate and resolve the world's most complex and 
difficult legal conflicts.
    Indeed I had occasion to invoke the jurisdiction of the 
International Court of Justice in The Hague during my legal 
career on behalf of an American client seeking to recover 
property and funds confiscated in 1979 by the Iranian regime. 
That same Iranian regime is now threatening to upend worldwide 
peace and stability in an attempt to obtain nuclear weapons and 
threaten the security of its neighbors. The international 
community is united to impose sanctions on the Iranian 
Government, and our European partners are crucial to this 
effort. If confirmed, I will work tirelessly to ensure that our 
Dutch allies remain shoulder to shoulder with us as we strive 
to hold Iran to its international obligations.
    The Netherlands has risen to the global security challenges 
of our time and join with the United States and other countries 
as an active contributor to international security missions. As 
Senator Shaheen said, the Netherlands contributes to the NATO 
mission in Afghanistan, and it currently provides the flagship 
for NATO's counterpiracy mission off the Horn of Africa. The 
Netherlands has also participated in the alliance's Libya 
mission. We remain thankful for Dutch commitment to these 
missions.
    The United States and Netherlands are committed to 
combating terrorism and preventing violent extremism. The Dutch 
counterterror program, which they published in 2011, follows 
closely plans developed in the United States and the United 
Kingdom. The Dutch agree that we must never lower our vigilance 
against the grave threat of terrorism, and that it is important 
to work with at-risk populations to make sure that young people 
do not become alienated and susceptible to radicalism. If I am 
confirmed, I will use the Embassy's resources to reach out to 
key populations in the Netherlands along these lines.
    The Netherlands and the United States also share a strong 
commitment to the political participation of women. The 
Netherlands supports President Obama's Presidential challenge 
on women's political and economic participation. If confirmed, 
I pledge to advance our collaboration with the Netherlands to 
promote women in politics and business.
    The United States and the Netherlands also share an 
important commitment to green energy. If confirmed, I will 
build on the close cooperation our Embassy has forged with the 
Netherlands on alternative energy and environmental 
sustainability.
    Madam Chairman, I have spent over 30 years representing 
clients in a wide variety of complex criminal and civil 
disputes. While some involved only money and sums small and 
large, others involved my clients' liberty and freedom and 
often his or her livelihood. I have managed teams of lawyers, 
clients, and consultant on cases both large and small, all with 
the goal of reaching the most favorable result for my client. 
Along the way, I have encountered legal, factual, and 
managerial minefields of every possible type, some predictable 
and some from out of nowhere.
    In all of these cases, I was called upon to make critical 
decisions and manage diverse personalities and points of view. 
If I am confirmed, I will draw upon this management experience 
when I assume leadership of the team at the Embassy in The 
Hague.
    Let me close with a personal story. I am one of nine 
children born to the late William Broas and Anita St. Germain. 
My only regret here today is that neither of my parents is here 
to see their son appear before your committee to seek 
confirmation as an ambassador. They would have been very proud.
    My father, of Dutch descent, served honorably in the 
Marines in the Pacific theater during World War II. My mother 
lived in Paris until her father, confronted like all French 
citizens by the Nazi invasion and occupation of France, put 
her, along with her mother and her five siblings, on a small 
boat to New York. She eventually met my father after the war, 
and one of the many things that bound them together was their 
profound love for the freedom they found in the United States.
    The experience of my parents and the love they felt for and 
showered on this country left a lasting lesson with me. I 
always believed that if I ever had the chance to serve our 
country, I would do so whenever the call came. When President 
Obama asked me to be our next Ambassador to the Netherlands, 
the country of my father's ancestors, I could almost hear my 
parents echoing my affirmative reply. If I am confirmed, I will 
be guided at all times by the pride and love of country that my 
parents instilled in me from a young age.
    Thank you for your time, and I look forward to answering 
any of your questions.
    [The prepared statement of Mr. Broas follows:]

                  Prepared Statement of Timothy Broas

    Madam Chairman, Ranking Member Barrasso, and distinguished members 
of the Senate Foreign Relations Committee, thank you for the privilege 
of appearing before you today. I am deeply grateful to President Obama 
and Secretary Clinton for their support and confidence in nominating me 
to be United States Ambassador to the Kingdom of the Netherlands. If 
confirmed by the Senate, I pledge to devote all my energy to represent 
the United States to the best of my ability.
    If you will permit me, I would like to introduce the members of my 
family who are here today. My wife, Julie Broas; my daughter, Emily 
Broas, who recently graduated from Dartmouth College; my daughter, 
Allison Broas, a senior at Boston College; and my youngest daughter, 
Madeline Broas, fresh from her high school graduation this past weekend 
and bound for Hanover, New Hampshire to follow her older sister's 
footsteps at Dartmouth. I am happy they could join me today. They have 
been patient, steadfast, and loving supporters of me throughout this 
process, for which I am forever grateful.
    Madam Chairman and fellow Senators, all of you know well of the 
United States long and strong relationship with the Kingdom of the 
Netherlands. The United Provinces of the Netherlands was the second 
nation to officially recognize the United States when the Dutch 
Government accepted the credentials of U.S. Minister John Adams on 
April 19, 1782. Since then, the Netherlands has remained one of our 
oldest and most reliable diplomatic partners. More recently, the Dutch 
have become one of our strongest economic and trade partners, as well 
as one of the world's most generous development aid donor nations. They 
are our ninth-largest trading partner and the third-largest foreign 
direct investor in the Unites States. From 2000 through 2010, the 
Netherlands was the number one destination in the world for U.S direct 
investment, far ahead of Canada, Mexico, Singapore, and Japan. Clearly, 
for a country barely the size of Rhode Island with only 16 million 
people, the Netherlands punches well above its weight. If I am 
confirmed, I will work tirelessly to maintain and improve our strong 
economic and trade relations with the Netherlands, consistent with the 
administration's goals to increase exports and create new jobs.
    Our strong relations find harmony on many levels beyond the 
economic and diplomatic. The Netherlands works closely with the United 
States to promote security, stability, and justice throughout the world 
through military support and development aid, support of our strongest 
allies and condemnation of our most threatening enemies, and hosting 
the international tribunals to litigate and resolve the world's most 
complex and difficult legal conflicts.
    Indeed, I had occasion to invoke the jurisdiction of the 
International Court of Justice in The Hague during my legal career on 
behalf of American clients seeking to recover property and funds 
confiscated in 1979 by the Iranian regime. That same Iranian regime is 
now threatening to upend worldwide peace and stability in its attempt 
to obtain nuclear weapons and threaten the security of its neighbors. 
The international community has united to impose sanctions on the 
Iranian Government and our European partners are crucial to this 
effort. If confirmed, I will work tirelessly to ensure that our Dutch 
allies remain shoulder to shoulder with us as we strive to hold Iran to 
its international obligations.
    The Netherlands has risen to the global security challenges of our 
time and joined with the United States and other countries as an active 
contributor to international security missions. For example, the 
Netherlands contributes to the NATO mission in Afghanistan and 
currently provides the flagship for NATO's counterpiracy mission off 
the Horn of Africa. The Netherlands has also participated in the 
alliance's Libya mission. We remain thankful for Dutch commitment to 
these missions.
    The United States and the Netherlands are committed to combating 
terrorism and preventing violent extremism. The Dutch counterterror 
program, which they published in 2011, follows closely plans developed 
in the United States and the United Kingdom. The Dutch agree that we 
must never lower our vigilance against the grave threat of terrorism 
and that it is important to work with at-risk populations to make sure 
that young people do not become alienated and susceptible to 
radicalism. If I am confirmed, I will use the Embassy's resources to 
reach out to key populations in the Netherlands along these lines.
    The United States and the Netherlands also share a strong 
commitment to political participation of women. The Netherlands 
supports President Obama's Presidential Challenge on Women's Political 
and Economic Participation. If confirmed, I pledge to advance our 
collaboration with the Netherlands to promote women in politics and 
business.
    Additionally, the United States and the Netherlands share an 
important commitment to green energy. If confirmed, I will build on the 
close cooperation our Embassy has forged with the Netherlands on 
alternative energy and environmental sustainability.
    Madam Chairman, I have spent over 30 years representing clients in 
a wide variety of complex criminal and civil disputes. While some 
involved only money, in sums small and large, others involved my 
client's liberty and freedom and often his or her livelihood. I have 
managed teams of lawyers, clients, and consultants on cases both large 
and small--all with the goal of reaching the most favorable result for 
my client. Along the way I have encountered legal, factual, and 
managerial minefields of every possible type, some predictable and 
others from out of nowhere. In all of these cases I was called upon to 
make critical decisions and manage diverse personalities and points of 
view. If I am confirmed, I will draw upon this management experience 
when I assume leadership of the team at the Embassy in The Hague.
    I have also had the pleasure of serving as a board member on a 
number of nonprofit institutions, including Partners in Health and the 
Woodrow Wilson International Center for Scholars. If confirmed, I will 
draw upon these experiences in my work in the Netherlands, which is 
such an important partner in promoting democracy, human rights, 
developmental aid, and economic growth around the world. The 
Netherlands understands, as does the United States, that military and 
diplomatic efforts are not the only tools for combating instability; 
development plays a very important role. If confirmed, I pledge to 
advance U.S.-Dutch cooperation on democratic development, from Belarus 
and Ukraine, to the Middle East, and North Africa.
    Let me close with a personal story. I am one of nine children born 
to the late William Broas and Anita St. Germain. My only regret here 
today is that neither of my parents is here to see their son appear 
before your committee to seek confirmation as an ambassador. They would 
have been very proud. My father, fittingly of Dutch descent, served 
honorably in the Marines in the Pacific theatre during World War II. My 
mother lived in Paris, France, until her father, confronted like all 
French citizens by the Nazi invasion and occupation of France, put 
her--along with her mother and her siblings--on a small boat to New 
York. She eventually met my father after the war and one of the many 
things that bound them together was a profound love for the freedom 
they found in the United States. The experiences of my parents and the 
love they felt for and showered on this country left a lasting lesson 
with me. I always believed that, if I ever had the chance to serve our 
country, I would do so whenever the call came. When President Obama 
asked me to be our next Ambassador to the Netherlands, the country of 
my father's ancestors, I could almost hear my parents echoing my 
affirmative reply. If I am confirmed, I will be guided at all times by 
the pride and love of country that my parents instilled in me from a 
young age.

    Senator Shaheen. Thank you very much. Thank you all for 
your testimony.
    I would like to begin with you, Ambassador Morningstar.
    Senator Kerry, you, and I all mentioned Secretary Clinton's 
recent trip to Azerbaijan, and her concerns that she raised 
about human rights abuses there. And, as you point out, that is 
not a new development in the country. It stretches back to at 
least 2005 when two brothers--Aliyev brothers--were jailed for 
political reasons, and they remain in prison there, despite two 
decisions from the European Court of Human Rights that their 
arrests were unlawful, and their trials were procedurally 
deficient. And this is just one example of the troubling abuses 
of human rights that have come out of Azerbaijan.
    Can you talk about whether you think conditions there are 
getting better or worse, and then the opportunities you would 
have as Ambassador to address these kinds of abuses?
    Ambassador Morningstar. It is hard to gauge and measure 
improvements. There have been changes in the laws. Those laws 
have to be implemented, and we have to work closely with them 
with respect to that.
    The case that you mentioned is something that has been of 
concern to us, and, as I understand it, has been raised on a 
continuing basis since 2005. It was positive that Bakhtiyar 
Hajiyev, another prisoner who was released just prior to the 
visit of Secretary Clinton, is on parole right now. We have to 
continue to watch that case. And Secretary Clinton actually met 
with her during her visit, which was very positive and 
emphasized her concern for the issues. We have to deal with 
these cases on a case-by-case basis. We will. That will be one 
of my prime responsibilities if I am confirmed.
    I also think that it is very important that we not just 
say, hey, you know, you ought to do better in this and it is 
important. We have to be able to convey how much it is in their 
interest to make changes, and to open up society, and to 
create, hopefully, greater stability within the society.
    One final point is, and that I will be very much involved 
in, during the work that I did in the 1990s coordinating our 
programs in the former Soviet Union, I spent a lot of time, 
and, in fact, tried to reshape our programs to emphasize more 
building civil society from the bottom up. And I think that is 
going to be the, in the longer term, the best way that we are 
going to see improvement in Azerbaijan.
    And one of the things that I am committed to do if I am 
confirmed is to look at every program that we have there and to 
work with USAID and other agencies, and with the our Embassy to 
try to determine what really helps and what does not. What can 
we do to improve the situation? And try to use some of the 
experience that I have had from the past to help bring that 
about.
    Senator Shaheen. I think that is terrific, the kind of 
thing we ought to be doing everywhere. You talked about helping 
or trying to help convey the message that it is in the interest 
of Azerbaijan to open up and to understand why supporting 
institutions, rule of law, human rights is good for them. That 
is one specific way that you can help do that, looking at those 
programs and what works. Are there other ways beyond just kind 
of job owning that you will have the opportunity to do as 
Ambassador that can help convey those messages?
    Ambassador Morningstar. I think it is important to convey 
the message that the relationship between Azerbaijan and the 
United States and Azerbaijan and Europe, for example, will be 
even stronger if we recognize these things. I know that Senator 
Cardin, who was here a moment ago, is very interested in the 
whole transparency issue.
    There has been some progress in Azerbaijan in that area. 
They are a member of EITI, the Extractive Industries 
Transparency Initiative. That can work hand in hand with the 
Cardin-Lugar bill, which would require the disclosure of 
project payments and so on. And I think these kinds of 
activities are going to make it even more possible for Western 
companies, international companies, to be involved in 
Azerbaijan, to be able to do so without threat of corruption 
and the like, and will help over a period of time to pull 
Azerbaijan further toward models and values that we consider to 
be important. And we have to just keep being imaginative and 
working in every area that we possibly can in a constructive 
way to make progress.
    Senator Shaheen. Thank you. I am going to come back to this 
because I am running out of town. But on Nagorno-Karabakh, we 
are seeing tensions flare there again. Can you talk about what 
the resolution of this dispute would mean and how some of the 
other players in the region might be either helping or trying 
to disrupt an effort to resolve the dispute?
    Ambassador Morningstar. I cannot imagine any specific thing 
that could help create more stability within the whole Caucasus 
region than resolution of the Nagorno-Karabakh issue. From the 
standpoint of creating regional growth, from the standpoint of 
creating more political stability, it is extremely important.
    I will give you an example in a very specific way. I get 
asked the question all the time, why cannot Armenia participate 
in the Southern Energy Corridor? Well, the fact of life is that 
it is impractical because of the dispute with Azerbaijan. If 
Nagorno-Karabakh were ever settled or resolved, Armenia could 
become a full-fledged member working on energy infrastructure, 
on energy transit, and the like to its great benefit, and to 
Azerbaijan's great benefit and to the region's great benefit. 
That would be one example.
    Another example. I have to believe that Nagorno-Karabakh is 
a huge distraction when there are other critical security 
issues within the region that Azerbaijan faces. The issue of 
Iran becomes greater every day with respect to Azerbaijan, the 
whole Caspian Sea area. There are any number of issues. And 
resolution of Nagorno-Karabakh would allow Azerbaijan to focus 
even more on some of the other political and security issues 
that are critically important. I could go on and on. I will 
stop there, but obviously it would be a very good thing.
    Senator Shaheen. Thank you. I am out of time.
    Senator Lugar.
    Senator Lugar. Thank you very much, Madam Chairman. I thank 
you, and I thank my colleague, Senator Barrasso, for yielding 
this time.
    Ambassador Morningstar, just last week President Obama made 
the rare step of endorsing the trans-Anatolian gas pipeline 
known as TANAP. TANAP would be a major new gas pipeline 
transiting Turkey and would be largely financed by Azerbaijan. 
TANAP would replace the need for the proposed Nabucco trunkline 
section within Turkey, but it would require pipelines to carry 
gas from Turkey's Bulgarian border onward to Europe, such as 
through a scaled-down version of Nabucco.
    There are several rival pipeline proposals to carry Caspian 
gas to Europe, and each may have some economic credibility. But 
they vary greatly in strategic benefit and whether they warrant 
U.S. Government backing. Specifically, our first priority must 
be to help relieve our Eastern European allies from their 
overdependence on Russian gas, and, in doing so, not subject 
them to European energy companies heavily influenced by 
Russian-state controlled companies.
    Transit decisions made by a BP-led consortium developing 
Shah Deniz gas and the Government of Azerbaijan will directly 
impact U.S. policy, including the extent to which projects in 
the Caspian warrant consideration as strategically important to 
the United States, vis-a-vis our sanctions regime on Iran.
    Could you please clarify the administration's position 
following the President's comments on TANAP, and describe what 
have been the primary delays in gas projects advancing in the 
years since you and I attended the Nabucco treaty signing in 
Ankara? In short, has the United States endorsed TANAP?
    Ambassador Morningstar. Thank you very much for the 
question, Senator Lugar. First of all, let me briefly outline 
what our policy has been over the last couple of years.
    It became apparent to us that, at least in the first 
instance, there is probably not enough gas to make a full 31 
bcm Nabucco pipeline commercially viable. The Shah Deniz 
consortium as a result of that is looking at three 
alternatives. And by the way, I might add that there will 
ultimately be plenty of gas, but not in the first instance. So 
they are looking at two possible smaller pipelines with respect 
to Central and Eastern Europe, the so-called southeast Europe 
pipeline and a scalable Nabucco pipeline, and then one of the 
pipeline projects to Italy, the trans-Adriatic pipeline.
    Our position is that any of those pipelines--the 
administration's position has been that any of those pipelines 
can work and would be acceptable with two conditions--one that 
gas be supplied to the vulnerable countries in the Balkans, and 
second, that there be concrete guarantees that any such 
pipeline could be expanded, which will absolutely be necessary 
as more gas becomes available.
    I think that the TANAP pipeline could be very helpful in 
this way. A final decision will not be made until mid-2013 as 
to the actual size of the pipeline, but by having a dedicated 
pipeline across Turkey, that will make it more possible to be 
flexible and to be able to adjust the size of what can then be 
taken into Central and Eastern Europe. So I see it as very 
positive.
    There is a commitment on the part of Turkey and Azerbaijan 
to get an agreement completed by the end of June. You know what 
that has been like over the last few years, and hopefully that 
will happen. But it will happen certainly at some point, and I 
think we should support it strongly.
    Senator Lugar. Well, I thank you for that expert testimony 
based on years of working through those problems.
    Another priority issue. As you know, the Nunn-Lugar 
Cooperative Threat Reduction Program has been involved in 
Azerbaijan for a number of years. And recently the focus has 
been on Caspian energy security and biothreat discussions. I 
would simply like to ask that you make this work a priority in 
Azerbaijan when you assume your new responsibilities in Baku, 
and would ask if you have any thoughts as to how to advance 
this cooperation when you arrive in Baku.
    Ambassador Morningstar. Excuse me. The first few words?
    Senator Lugar. The Nunn-Lugar Cooperative Threat Reduction 
Program and the bioweapons threat.
    Ambassador Morningstar. It is something that I would, if 
confirmed, certainly want to look at. And it relates to, I 
think, a very interesting policy issue that we have with 
respect to Azerbaijan, which is how to work through our 
security assistance to Azerbaijan without in any way--and I 
emphasize: without in any way--affecting the balance with 
respect to Nagorno-Karabakh and giving any advantage to 
Azerbaijan with respect to that situation.
    And I think that we need to work very carefully to 
determine in what areas we can help, including areas relating 
to things like maritime security, counterterrorism, and 
training in various ways. And we have to do it in a way in 
which we are extremely careful. But given the security 
situation in that area, as you so well know, we have to look at 
all these issues, and I will if confirmed.
    Senator Lugar. I would like to commend your efforts to 
advance many critical initiatives as the special envoy for 
Eurasian energy. Key initiatives such as the Unconventional Gas 
Technical Engagement Program and opening the Southern Corridor 
from the Caspian in Eastern Europe, offer opportunities to 
promote economic growth and shift power dynamics in energy 
markets in favor of the United States and our allies.
    The special envoy position was created by Secretary Rice at 
the urging of Vice President Biden and myself, and it was 
propelled with the strong support of Secretary Clinton. Several 
former Soviet states will come under tremendous pressure from 
Russia, and energy is a primary point of leverage.
    I am hopeful you will join me today and encourage the 
continuation of the special envoy role following your departure 
to Baku. But more to the point, will the special envoy for 
Eurasian energy continue to report directly to the Secretary of 
State given the creation of the new Energy Bureau?
    Ambassador Morningstar. You have touched upon an issue that 
is obviously being discussed within the State Department right 
now. I can promise you that the functions of our office, my 
present office, will continue, and we are working to determine 
what that structure should be. And obviously your points, as 
always in the energy area, will be very important, and we will 
continue to work with you and your staff with respect to that 
issue.
    Senator Lugar. I thank you for your assurance.
    Madam Chairman, I have four more questions I would like to 
submit for the record, if possible.
    Senator Shaheen. Absolutely, without objection.
    Senator Lugar. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    If I could, Ambassador Morningstar, just to continue--a 
continuation on the line of questioning from Senator Lugar in 
terms of energy as a point of leverage. Increased development 
of gas supplies in Azerbaijan can play an important role in 
helping to diversify European gas supplies. However, it is 
going to be vital that the development of energy resources not 
benefit Iran. In Baku, you are going to be about 100 miles from 
the border with Iran. When you take a look at the map of 
Azerbaijan and Iran, there is about 100 miles of border between 
the two.
    So can you give a little bit about how Iran is involved in 
Azerbaijan's gas supply, energy sector, and what we can do to 
try to prevent Iran in terms of gaining technical or financial 
benefit from any projects that may be going on?
    Ambassador Morningstar. First of all, the best thing that 
we can do is develop a Southern Corridor and to develop routes 
that to go to Europe, because if we are not successful in 
developing those routes, then Azerbaijan will find other 
options as to where that gas may go, which one theoretical 
option or possible option is obviously Iran.
    There is right now, I would say, a minor relationship 
between Iran and Azerbaijan with respect to gas. That includes 
the fact that gas cannot be supplied directly to the separated 
Azeri province of Nakhchivan. Basically the gas has to get 
there through Iran, and there is a swap arrangement with Iran 
that allows that to happen. And at least at this point--at 
least I am not aware of any alternatives.
    You may be referring also to the fact that in the original 
Shah Deniz I project, since its inception in 1996, there is a 
10-percent ownership interest, and I might say, passive 
ownership interest, by NICO, which is a subsidiary of the 
National Iranian Oil Company.
    And our position on that--it presents frankly a very 
difficult policy issue. The Shah Deniz project is a critical 
project because 
it is what will allow Azeri gas to get to Europe, but yet there 
is a 10-percent ownership interest by an Iranian company. But 
we believe that if that project were not able to go forward 
because of that 10-percent passive interest, that the 
ramifications would be a lot worse than Shah Deniz moving 
forward, because what it would mean is that the project would 
be left with partners who would not be particularly friendly, 
and that that gas would end up going to different places, which 
we would obviously want to avoid.
    I know it is now being considered in legislation as to how 
to take this into account. I do not discount for a second what 
a difficult policy issue that is, but, you know, we are 
certainly hopeful that we will not find ourselves in a 
situation in which we shoot ourselves in the foot. And in the 
meantime, we will do everything we can to minimize the 
participation of the Iranian company in this project, which is 
now a very passive investment.
    Senator Barrasso. Thank you very much.
    Mr. Broas, I want to start off. I enjoyed the story of your 
parents. My dad would have been 95 today. He would have been 
shocked, surprised, and very pleased, and I know your father 
would be not shocked, but very pleased to see you here today in 
front of this committee. So thank you for mentioning that.
    I did want to ask you, historically the Dutch have been 
strong supporters, I always thought, of European integration. 
But they voted 2005 against a European Union constitutional 
treaty. Can you just give us your overview, your thoughts, and 
understanding of the view today of the people in the 
Netherlands regarding the European Union?
    Mr. Broas. Thank you, Senator. Thank you for your comments. 
Is that good?
    Senator Barrasso. Much better.
    Mr. Broas. OK, sorry. As you know, the Dutch were one of 
the founding members of the EU, and they are strong supporters 
of the EU, and I do not doubt for a minute that they will 
continue to be a strong supporter of the EU. And if confirmed, 
as an ambassador, I will certainly advocate the 
administration's position that they should continue to be a 
part of the EU.
    You are right that lately there have been some political 
dustups and some disagreements. And, in fact, we all know that 
there is a caretaker government in charge right now, and they 
are waiting for elections in September to see whether they can 
form a new government. And all I can say, Senator, is that if 
confirmed, I will advocate the administration's position, and 
do my best to see that the Dutch remain a part of the EU and a 
supporting member of the EU.
    Senator Barrasso. Thank you, I appreciate it.
    And then, Mr. Anania, your father is here. And, you know, 
looking at your parents while you were talking about them, your 
mom was looking on with skepticism, but your dad, that was one 
of the proudest fathers I have ever seen, and it was great to 
watch him watch you talking. So thank you, and congratulations.
    I want to talk about the relationship with Venezuela and 
how would you characterize Suriname's relationship with 
Venezuela? What type of influence does Venezuela have in 
Suriname?
    Mr. Anania. Yes, thank you, Senator. That relationship is 
of great interest to the administration, and President Bouterse 
has, in fact, at times made some rhetorical statements in favor 
of joining the Venezuelan-led ALBA Union. However, the rhetoric 
fortunately has been quite different than the actions of the 
government, and so far they have taken no steps to join ALBA.
    On the other hand, Suriname is the recipient of some modest 
quantities of oil via the PetroCaribe program that Venezuela 
runs. So we continue to watch that relationship very carefully. 
It is a friendly relationship between the two countries. There 
is a Venezuelan Embassy in Suriname.
    Senator Barrasso. Thank you. My time has expired. Thank 
you, Madam Chairman.
    Senator Shaheen. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chair. And 
congratulations to all of the nominees on their nominations.
    The focus of my questions are with you, Ambassador 
Morningstar, as you might guess. I appreciate the fact that 
this is probably not the assignment you were looking for and 
that you were happy doing what you were doing. This is 
something that the Secretary has asked you to do, so I 
understand that. But it is also an opportunity to discuss 
policy issues vis-a-vis your nomination here.
    Last week, Secretary Clinton was touring the South 
Caucasus, and her visit to the region coincided with an 
escalation of cease-fire violations by Azeri forces, including 
a cross-border incursion that killed three Armenian soldiers 
and wounded five others, as well as a breach along the Nagorno-
Karabakh line of contact. These actions confirm, in my view, 
the threat by the President of Azerbiajan that Armenia will 
live in fear.
    I look at that statement, ``Armenia will live in fear,'' 
and I look at the speech that was given in an official state 
address to his people, in which Azerbaijan's President, Aliyev, 
stated that, ``Our main enemies are Armenians of the world.''
    Now if confirmed, what steps will you take to address this 
ongoing problem along the line of contact? And do you think 
that, based upon those types of statements, that proposed sales 
of military hardware to be used in conjunction with the 
Azerbaijan's military helicopter fleet is really in the 
national interests of the United States?
    Ambassador Morningstar. Well, first of all, let me just 
preface my comments with just one thing. I want to make very 
clear that I am very happy and excited to go to Azerbaijan, and 
it is a country that is extremely important to our national 
interests. And so I am looking forward to being there.
    Senator Menendez. Duly noted.
    Ambassador Morningstar. Second, when I am in Baku, if I am 
confirmed, and when I deal at the highest levels of the 
government, whether it be with the President or the Foreign 
Minister, or the like, I will follow administration policy and 
work also with Bob Bradtke, our Nagorno-Karabakh negotiator, 
very closely.
    I think it is fair to say that, and I will say, that any 
language that is counterproductive, you know, such as the 
language that you have said, that any actions by any party that 
bring about loss of life, as the Secretary of State said last 
week, create increased tension, can create escalation that can 
have unpredictable and unforeseeable consequences and make even 
more difficult the task of achieving a settlement in Nagorno-
Karabakh.
    I will do everything that I can, looking at it from the 
Azerbaijan side of things, if confirmed, to discourage that and 
talk about how unacceptable that is. And I think that goes 
without saying. And it is important. I think it is critically 
important. I do not think any party should inflame the 
situation by either unhelpful rhetoric or by escalating 
tensions through actions that result in the tragic loss of 
life.
    With respect to the question of the sales of military 
hardware, it raises a difficult issue, but something that we 
have to pay incredibly close attention to. We have to comply 
strictly with the waiver provisions under section 907. I think 
we also have to recognize that Azerbaijan does live in a 
difficult neighborhood. There are increasing tensions with 
respect to other neighbors, particularly Iran. And that we have 
to provide, I think, security assistance, possibly military 
assistance, in ways that cannot be used to exacerbate any 
situation with respect to Armenia or Nagorno-Karabakh. And I 
think we have to do that--we have to be very strict in doing 
that. But that still would allow us to do some things that are 
important, whether it be maritime security in the Caspian, 
whether it be cooperating on counterterrorism with respect to 
Iran, with respect to some of the other things we do. I fully 
appreciate your concern.
    Senator Menendez. Well, I did not hear President Aliyev say 
his main enemy or security concern is Iran. He said his main 
enemy or enemies are Armenians of the world. And so when we are 
talking about giving military or selling military hardware to 
the Azerbaijanis, I think about what the Helsinki Final Act's 
bottom lines are. When I asked a similar question to former 
ambassador-designee, Mr. Bryza, because there had been another 
incident where four Armenians had been killed. He reiterated 
the three pillars of the Helsinki Final Act: nonuse of force or 
the threat of force, the principle and territorial integrity, 
and equal rights and self-determination of people. Well, nonuse 
of force or the threat of force, obviously that gets enhanced 
by giving military hardware to the Azerbaijanis, especially 
when they say our major enemy is the Armenians of the world.
    I have a real problem with us going ahead and selling 
military hardware to Azerbaijanis based upon what has happened. 
He did not say the Iranians are their threat.
    Let me ask you, if I may, with the indulgence of the chair, 
two other questions. One is, why was Azerbaijan's demolition of 
the Christian Armenian cemetery in Djulfa not included in the 
State Department's international religious freedom report? Do 
you know?
    Ambassador Morningstar. No, I do not know, but I can say 
that if I am confirmed and if I go to Baku, I will make every 
effort to visit that cemetery, that any kind of desecration 
such as that is, you know, unacceptable, outrageous. And I will 
do my best to get there and see it.
    Senator Menendez. So do I take your response to mean--and 
correct me if I am wrong--that if confirmed, you will 
personally travel to Djulfa to investigate the destruction of 
the cemetery?
    Ambassador Morningstar. I will make my best effort.
    Senator Menendez. Well, I would assume that your best 
effort would only be impeded by the Azerbaijanis not letting 
you go. I want to try and understand what your best effort is. 
You are going to do everything possible to go.
    Ambassador Morningstar. Yes.
    Senator Menendez. OK. Second, what specific steps will you 
take if confirmed and if you have the opportunity to go, which 
I would expect you should be, to have the cemetery preserved as 
a protected holy site?
    Ambassador Morningstar. I think that it is important as one 
of our major priorities to press for religious freedom in 
Azerbaijan. It is not an all-negative record. They have been 
helpful with respect to some communities, but not others. What 
we need to do is to take very strong positions as an 
administration and in Baku if I am there to protect the rights 
of the Armenian church as well as to rectify the situation with 
respect to the cemetery. And that would be a major part of the 
agenda.
    Senator Menendez. Well, I appreciate that answer. Finally, 
I do not expect you to answer differently than have previous 
nominees before this committee. But I do have to ask you 
whether or not you contest any of the facts of what transpired 
in 1915 as it relates to 1.5 million Armenians who were 
brutally massacred or marched to their deaths in the waning 
days of the Ottoman Empire.
    Ambassador Morningstar. No, I do not.
    Senator Menendez. Thank you, Madam Secretary. I look 
forward to following up with Ambassador Morningstar.
    Senator Shaheen. Thank you. I am going to give Ambassador 
Morningstar a little break here and----
    Ambassador Morningstar. No, it is fun.
    Senator Shaheen [continuing]. Focus on the other two 
nominees for a few minutes.
    Mr. Broas, I want to start with you because as you 
mentioned and Senator Barrasso mentioned, the Netherlands 
currently has a caretaker cabinet. Its government is one of 
those that has fallen as the result of the fiscal crisis in 
Europe and disagreements over what the austerity measures mean 
there. The caretaker cabinet that is currently in power agreed 
on an emergency austerity deal, but elections are coming up in 
September, and it raises the prospect that a new Parliament 
might withdraw support for that agreement.
    Can you talk about what the implications of that might be 
for the Netherlands, and the ripple effect that might have 
throughout the rest of Europe, and also whether we have an 
official policy on whether we are going to urge the country to 
support the current austerity deal that has been advocated in 
Europe, or whether we will have any statement at all relative 
to that?
    Mr. Broas. Thank you, Senator. I do not know what the 
administration's position will be, and I will just wait for the 
elections to see what happens in September. So I do not know 
sitting here today what position I will be advancing, if I am 
confirmed as Ambassador.
    The eurozone crisis that we are all reading about and 
hearing about is being felt very deeply in the Netherlands. We, 
of course, the United States, we are not a member of the 
eurozone. We do not have a say in this. We do not have a vote. 
But we have a huge stake in this. As you know, the EU is our 
biggest trading part-
ner, so the outcome of these negotiations is critical to the 
United 
States. And if I am confirmed to be an ambassador, I will 
certainly strongly and diligently advance and advocate the 
position of the administration, to the extent it takes a 
position with respect to the austerity measures being advanced 
by the rest of the EU.
    Senator Shaheen. Certainly I would think that one of our 
positions is that we hope the Europeans will move expeditiously 
to do everything they can to address the crisis there. And I 
appreciate that they have been working toward it. But as you 
point out, there are significant implications for the inability 
to positively respond to the crisis, not only for Europe, but 
for the United States and for the rest of the world.
    Mr. Broas. And, Senator, I fully expect the Netherlands, as 
one of the few AAA-rated sovereign debt countries in the EU, I 
fully expect them to be a leader in these negotiations, and 
that the rest of the EU will look to the Netherlands for 
support and leadership.
    Senator Shaheen. And have they taken that kind of a role to 
date? Have they been aggressive?
    Mr. Broas. To my knowledge, they have been--in light of 
their caretaker government situation, they have been fairly 
neutral lately. That is my understanding.
    Senator Shaheen. OK. One of the things that you pointed out 
in your testimony is the importance of the trade relationship 
between the United States and the Netherlands. And certainly 
even in my home State of New Hampshire, there is a very 
important bilateral trade relationship with the Netherlands. 
Can you talk about what role you might play as Ambassador, as 
the top U.S. official in the Netherlands, to help promote that 
trade relationship?
    Mr. Broas. Certainly, Senator. Thank you for the question. 
As I said in my opening statement, they are one of our biggest 
and most reliable trading partners. And as you know, the Port 
of Rotterdam is the biggest port in Europe. So many things 
transship through Rotterdam and through the Amsterdam airport 
that it is a huge trading center, and it remains one of the 
biggest investors in the United States. And vice versa we are 
one of the biggest investors in the Netherlands.
    As Ambassador, if I am confirmed, I will certainly have an 
open door and welcome the Dutch companies, to meet with them, 
and advance, and advocate for them to continue and to increase 
their trade relationships with all of our States and vice 
versa. I will have an open door to American companies. As you 
know, there are 2,100 U.S. companies with offices in the 
Netherlands, and they are all doing business with Dutch 
companies and Dutch consumers. And so I will have an open door, 
and I will welcome commercial opportunities from the 
Netherlands and from the United States to maintain that trade 
relationship.
    Senator Shaheen. Thank you. So it is fair to say that you 
will commit to making commercial ties and business advocacy a 
top priority.
    Mr. Broas. That is going to be one of my top priorities, 
absolutely, Senator.
    Senator Shaheen. Great, thank you. You pointed out that the 
Netherlands was a founding member of the EU. It is also a 
founding member of NATO, and has been a significant contributor 
to the alliance. It has participated in supporting the 
operations in Libya, and, as we mentioned both of us in our 
testimony, supporting our operations in Afghanistan, although 
their role there has changed. It is the first non-U.S. NATO 
ally to contribute to the alliance's new missile defense 
system. And it also participating in the multinational program 
to develop the F-35 joint strike fighter, something that has 
been a very important priority in this country, though not 
without its detractors and not without controversy.
    Can you talk about the opportunity that you will have as 
Ambassador to learn more about what is going on with the 
development of the joint strike fighter, and the cooperation 
that you might advocate for the continued effort toward 
development of the plane, and what role you see for the joint 
strike fighter in the Netherlands?
    Mr. Broas. Thank you, Senator. Yes, I would be happy to.
    As you know, the Dutch have invested over a billion dollars 
since 1997 in the joint strike fighter program, and the 
research, and the development. And they remain one of the key 
contributors to the development and construction of the joint 
strike fighter. If I am confirmed as Ambassador, I will 
certainly advance the administration's position to have the 
Dutch continue to contribute to the development of the program 
and to commit to purchase as many of the planes as possible 
once constructed.
    They have committed, so far to my knowledge, to buying 2, 
but they have also had discussions about buying as many as 85. 
And as Ambassador, I am going to advocate very strongly that 
they purchase at least 85.
    Senator Shaheen. Good, we appreciate that. As we are 
talking about NATO, I had the opportunity to be in Chicago for 
the NATO summit, and it was, I thought, a great opportunity for 
those countries who have participated in NATO to point out the 
continuing relevance of our alliance, how important it is to 
our transatlantic partnership, and to so many other countries 
around the world.
    And one of the things that has been challenging, 
particularly as we deal with the fiscal issues that we are 
facing both in Europe and the United States, are the resources 
that are needed to continue NATO's role in the world. One of 
the things that was touted in Chicago and that is talked about 
to address those fiscal challenges is the new Smart Defense 
Initiative that is being promoted.
    Can you talk about how this concept of pooling military 
resources is being received in the Netherlands? And it is my 
understanding that the Dutch have agreed to purchase new 
refueling tankers with the French and the Germans and to share 
those aircraft. And can you talk about how that is being 
received as well?
    Mr. Broas. Yes, thank you, Senator. Yes. At the Chicago 
meetings on NATO, the Dutch did commit, as did several other 
members of the EU, to adopting the smart defense approach, 
employing technology and missile defense as the top priorities 
for the future of NATO's alliance. My understanding is that 
they have also agreed to replace the older Hawk missiles with 
the Patriot missiles, and that that is something they have 
committed to.
    My understanding is that the Dutch are very enthusiastic 
and very actively considering all of the commitments and 
discussions that were in Chicago, and that they are very 
enthusiastic about the Smart Defense Program.
    Senator Shaheen. That is great. Thank you. I think, as you 
point out with the Dutch and was touted in Chicago, that smart 
defense is something that makes sense as we try and figure out 
how to use our limited resources. I think we are all concerned 
that it not become an opportunity for countries to contribute 
less than their fair share to NATO as well. So I will just say 
that for the record and not ask you to respond to that.
    I want to go now to Suriname. And, Mr. Anania, you pointed 
out that--you mentioned the new President of Suriname who was 
elected in 2010. And only as we were preparing for this hearing 
did I learn how controversial he has been, that he was 
convicted in absentia by the Dutch for smuggling cocaine in 
1999, that he has been on trial over the past 4 years for the 
1982 killing of 15 prominent political opponents, although he 
denies any direct involvement in those killings. The likelihood 
of any conviction appears slim given that the national assembly 
has now approved an amendment granting amnesty to offenses 
committed between 1980 and 1992.
    The U.N. High Commission on Human Rights and Amnesty 
International have both called for the amnesty law to be 
reversed, and there was a large silent march there in April 
2012 to protest the law.
    Given the controversial trial, the issues surrounding the 
President, can you comment on the state of democracy and the 
rule of law in Suriname and whether there are any efforts under 
way to urge a repeal of that amnesty law?
    Mr. Anania. Yes, Senator. Thank you for the question. It is 
a very important issue of great concern to the people of 
Suriname at the moment, and you are right to highlight it with 
your question.
    First of all, the United States certainly expects Suriname 
to actively participate in the Western Hemisphere region's 
general consensus supporting democracy and human rights, and we 
certainly do look with concern upon these most recent actions. 
The President was democratically elected. It is a coalition 
government that he leads. He has a solid majority in their 
national assembly. But nonetheless, his past is checkered, and 
he previously did lead a military coup against the civilian 
government. So we continue to be very concerned about any 
actions that the government might take to infringe upon, in 
this case, an independent judiciary.
    In fact, the national assembly did pass an amnesty law 
which would apply to the murders which took place in 1982. 
However, the court proceeding has not been terminated, and so 
at this point the people of Suriname are very carefully 
discussing the situation. And I think you are right to be 
concerned that the prosecution will end; however, it has not 
yet ended, and the court is still considering it.
    So for that reason, the Embassy and the administration 
continue to encourage the Government of Suriname to respect the 
separation of powers within its democratic structures in 
keeping with its own constitution.
    Unfortunately, the Constitution of Suriname calls for the 
creation of a constitutional court, but there has never been 
one created. And this has further exacerbated the situation and 
made it difficult to determine what the outcome of this 
particular amnesty law or what impact it will have on the trial 
will be.
    Senator Shaheen. And are there other areas where there are 
concerns about human rights violations and rule of law in 
Suriname?
    Mr. Anania. Well, in general, the Bouterse government does 
generally respect the rule of law and human rights as they seek 
to improve Suriname's infrastructure and economic conditions. 
However, Suriname is a middle-income country, probably trending 
toward the low end of that scale, and it is quite a large 
country with not a lot of people in it. So its borders are 
porous, and the ability of the government to enforce law 
throughout the country is often very limited. And so there 
certainly are documented cases of human rights abuses, which 
have taken place within Suriname. Particularly there is a large 
informal and, in many cases, illegal gold mining sector, which 
operates within the interior of the country. And most of the 
people who are working in that sector are coming from other 
countries, particularly Brazil.
    And so the administration does have concerns about 
potential trafficking in persons both for labor or the sex 
trade, and we continue to engage with the Government of 
Suriname, which has made progress in these areas. They have a 
fairly good legal regime. There have been some limited 
prosecutions. And if confirmed, I pledge to you that we will 
continue to follow these issues closely, and beyond that, seek 
to assist and advise the Government of Suriname to combat these 
gorges, which unfortunately do exist in the country.
    Senator Shaheen. The porous borders also make drug 
trafficking a bigger concern. And certainly we have assisted 
Suriname in fighting drug trafficking, and by training antidrug 
units, police officers, and custom officials. Is there evidence 
that cooperation has been effective?
    Mr. Anania. I would say, yes, there is, but the effect is 
limited, it must be said. As I noted, Suriname is a country 
with modest means. The government does not have large law 
enforcement resources. It is a very large country. So while 
they do have generally a free and independent judicial system, 
and while they have prosecuted successful many small-time drug 
traffickers, there is continuing concern that there might be 
larger scale activities undertaken either unknown to the 
government or possibly even with the connivance of some 
officials.
    We do have a Drug Enforcement Agency office at the Embassy. 
It is quite active. And I am pleased to have learned that the 
relevant law enforcement entities in Suriname do cooperate 
closely with us. They participate in many of our training 
programs. And they are very grateful for the support that we 
offer. And we have, in fact, increased the dollar value of the 
programs within Suriname, so I would say that this is a bright 
spot in the relationship.
    Senator Shaheen. And given that it has had mixed success, 
are we looking at trying to do anything differently? Is 
Suriname looking at trying to do anything differently? Is there 
an effort to get more buy-in from the population there to 
address the issues around drug trafficking, or do we think 
continuing the program as it has existed is what is warranted?
    Mr. Anania. Well, again, we have to speak of limited 
resources both on the part of the Government of Suriname, but 
also from the United States. I was pleased to see that we have 
increased our training dollars fairly significantly. It should 
be up to about a million dollars. But I think we have to 
restrain our expectations for the impact that such a small 
amount of money could have in a place like Suriname, which, 
after all, is a very wild country.
    Senator Shaheen. One of the things that I understand is 
that President Bouterse is making strengthening ties with China 
a priority. Have we seen an increase in influence on the part 
of China in the country? And are there ways in which we should 
be cooperating or working together to try and look at where 
there are areas of mutual interest that we could cooperate on, 
the United States and China, in Suriname?
    Mr. Anania. Well, that is an important development in the 
economy history of Suriname. China is very interested in 
Suriname as they are in many other countries of the world 
because Suriname does have such a large array of natural 
resources. So, in particular, logging and mining industries are 
very attractive to China, and they have obviously devoted some 
significant resources to building a strong relationship with 
Suriname.
    There are also political elements of that because Suriname 
continues to support a one China policy, which has, of course, 
for many years been a major priority for the Government in 
Beijing.
    In terms of cooperation, that is actually an interesting 
question, and there may be some areas in particular. 
Unfortunately in many cases, extractive industries lead to 
damage to the environment, and that is very much a concern in 
Suriname. I mentioned informal mining that goes on, 
particularly gold mining. The price of gold is very high now, 
and there has been an influx of informal/illegal gold miners. 
And they have caused great environmental degradation because, 
in particular, I understand that these operators use quantities 
of mercury in their gold mining operations, and this poisons 
rivers and destroys the environment.
    There is also concern frankly that some Chinese companies 
may not be interested in preserving the environment, and, 
therefore, may go in and clearcut forests, rain forests in 
particular, or otherwise cause damage to the environment. And 
this is, of course, not an issue that is solely confined to 
Suriname. This is an issue in many countries in Africa and 
elsewhere in Latin America as well. So it remains to be seen if 
we could find common ground.
    I must also say, building on one of the earlier questions, 
that I definitely believe that promoting U.S. industry and 
economic ties between our countries would be extremely 
important. And in this area, I guess we could say that China 
may be the competition, and I would certainly, if confirmed, 
work to advance the argument that having United States firms 
working in Suriname would, in fact, be more likely to result in 
protection of the environment.
    Senator Shaheen. Well, thank you. You make a very important 
point. And as you suggest, China is investing in a lot of parts 
of the world, and we need to think about how we are affected by 
that growing influence around the world.
    Ambassador Morningstar, there are two issues I want to 
raise with you before closing out the hearing that have not 
been explored in the kind of detail that I had hoped. One is 
Iran, and several people have mentioned Iran. But can you talk 
about how concerned you are about Iran's influence in 
Azerbaijan, and how extensive that is, and what approach we 
might take to counteract the influence that Iran is having in 
Azerbaijan?
    Ambassador Morningstar. Thank you. I think it is a really
important question, and Iran is a concern, and it is a concern, 
I believe, to the Azeri Government. I think they have made that 
very clear. And they are concerned about the influence that 
Iran is having internally within Azerbaijan.
    We also have to recognize that Azerbaijan is in a difficult 
situation. Iran is a neighbor. To some extent, I think it has 
to walk a tightrope. At the same time, they recognize the 
dangers. And I come back to the point, and not to reiterate too 
much, but they are looking for our help with respect to Iran, 
and that we do have to provide help from the standpoint of how 
from a civil society standpoint they can deal with the Iranian 
situation, but also from the standpoint of security assistance. 
And that is recognizing that--
I said this before to the questions from Senator Menendez--that 
we have to very strictly draw the line with respect to 
assistance that can be in our interest and helpful to 
Azerbaijan as opposed to assistance that could be used with 
respect to the dispute with Armenia.
    Now that is a difficult line to draw, but we have to make 
every effort to draw that line in working with Congress and 
working with the Senate and your staff to ensure that that 
happens. And I think there is a lot we can do. I believe that 
when I get there, that is going to be a very major issue, if 
confirmed.
    Senator Shaheen. It is interesting to me that Azerbaijan 
has
recently agreed to purchase 1.6 billion dollars' worth of 
Israeli-made weapons. And there was a March Foreign Policy 
article that reported that Azerbaijan has likely given Israel 
access to its military bases for activities targeting Iran, 
though I think it is important to point out that both countries 
have denied that report.
    So can you talk about how we should we view this weapons 
deals between Azerbaijan and Israel, and what that growing 
military relationship between the two countries signals for 
Iran?
    Ambassador Morningstar. Well, I think we obviously have to 
watch it very closely. Israel is our close friend and ally, and 
Azerbaijan is another close friend.
    I do not think at this point, at least the best information 
I have, we do not know much about that arms agreement and what 
it entails, how much it really does entail, and so on. And I 
think we need to learn more about it. But it is incumbent upon 
us, to the extent that there is a relationship that grows, and, 
again, recognizing that they have denied some of the more 
explosive allegations with respect to their cooperation, that 
we need to work closely with both countries to understand what, 
if anything, is really happening.
    Senator Shaheen. Thank you. I want to thank all of you for 
agreeing to take on this responsibility and for your testimony 
today. I think we will keep the record open for, what, another 
24 hours?
    Voice. Yes, 48 hours.
    Senator Shaheen. For another 48 hours in case any questions 
come in from the committee.
    But at this time, I would like to close the hearing and, 
again, congratulate you all. And we look forward to working 
with you in your future roles in these ambassadorship posts.
    Thank you.
    [Whereupon, at 4:24 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Richard Morningstar to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Just last week President Obama made the rare step of 
endorsing the Trans-Anatolia gas pipeline, known as ``TANAP.'' TANAP 
would be a major new gas pipeline transiting Turkey and would be 
largely financed by Azerbaijan. TANAP would replace the need for the 
proposed Nabucco trunkline section within Turkey, but it would require 
pipelines to carry gas from the Turkish-Bulgarian border onward to 
Europe such as through a scaled-down version of Nabucco.
    There are several rival pipeline proposals to carry Caspian gas to 
Europe. Each may have some economic credibility, but they vary greatly 
in strategic benefit warranting U.S. Government backing. Specifically, 
our first priority must be to help relieve our Eastern European allies 
from their overdependence on Russian gas, and, in doing so, not subject 
them to European energy companies heavily influenced by Russian state-
controlled companies.
    Transit decisions made by the BP-led consortium developing Shah 
Deniz gas and the Government of Azerbaijan will directly impact U.S. 
policy, including the extent to which projects in the Caspian warrant 
consideration as strategically important to the United States vis-a-vis 
our sanctions regime on Iran.

  <bullet> Please clarify the administration's position following the 
        President's comments on TANAP and describe what have been the 
        primary delays in gas projects advancing in the years since you 
        and I attended the Nabucco Treaty signing in Ankara? In short, 
        has the United States endorsed TANAP officially?

    Answer. President Obama sent a letter to President Aliyev 
congratulating Azerbaijan at the 19th Annual Caspian Oil and Gas 
Conference. The letter did not specifically mention TANAP but rather 
recognized the critical importance of Azerbaijan in the role of the 
Southern Corridor and the signing of gas transit agreements between 
Azerbaijan and Turkey.
    It has become apparent that there is not sufficient gas to fill a 
full scale Nabucco pipeline by 2017-18. By the early to mid 2020s, 
there will likely be sufficient gas from Azerbaijan and possibly 
Turkmenistan and Iraq. The United States supports any commercially 
viable pipeline that brings Caspian gas to Europe provided the 
following two conditions are met: (1) a significant portion of the gas 
must be supplied to our friends and allies in the Balkans and elsewhere 
in Central and Eastern Europe, which are particularly dependent on a 
single source of gas; and (2) the pipeline must be expandable, so that 
additional sources of gas can be accommodated once they become 
available. TANAP could play an important and valuable role in bringing 
Caspian gas to Europe.
    Delays in opening the Southern Gas Corridor have stemmed primarily 
from the difficulty of reaching agreement among all of the stakeholders 
on what export route will best address their commercial and political 
interests. In my role as the Special Envoy for Eurasian Energy, I have 
been working diligently on this issue and continue to work closely with 
all the companies and parties involved to achieve energy security for 
Europe as soon as possible. With the recent progress in narrowing down 
potential routes, it appears likely that the Shah Deniz Consortium will 
reach a decision on a final export route within the next year.

    Question. As you know, the Nunn-Lugar Cooperative Threat Reduction 
Program has been involved in Azerbaijan for a number of years. 
Recently, the focus has been on Caspian energy security and biothreat 
discussions. I'd like to ask that you make this work a priority in 
Azerbaijan when you assume your responsibilities in Baku.

  <bullet> Please indicate how you will advance this cooperation when 
        you arrive in Baku.

    Answer. The Nunn-Lugar Cooperative Threat Reduction (CTR) Program 
has been a critical component of our security assistance to Azerbaijan, 
serving as a vivid example of how our assistance to Azerbaijan bolsters 
vital U.S. interests in the region. Just this month, the Defense Threat 
Reduction Agency (DTRA) conducted a successful training session for 
Azerbaijani officials in Baku on combating proliferation of weapons of 
mass destruction (WMD). If confirmed, I pledge to ensure that these 
efforts remain a priority at the U.S. Embassy in Baku.
    In another prominent example of our CTR cooperation with 
Azerbaijan, DTRA Director Kenneth Myers traveled to Azerbaijan last 
year to attend the opening of a new state-of-the-art disease-monitoring 
laboratory. The construction of the laboratory was financed by the U.S. 
Government within the framework of DTRA's Cooperative Biological 
Engagement Program (CBEP); the lab was the first of 10 regional 
diagnostic labs to be opened within the framework of this program, 
which aims to secure dangerous pathogens, promote disease reporting and 
response, and advance research on pathogens and potential 
countermeasures. United States-Azerbaijan cooperation has also led to 
the renovation of two national level diagnostic laboratories for the 
Ministry of Health and the Ministry of Agriculture, bringing the 
facilities, equipment, and procedures of these institutes up to 
international standards. In addition to the upgrades to Azerbaijan's 
physical infrastructure, the CBEP has completed numerous training 
events and cooperative research projects, building skills among 
Azerbaijani scientists in areas such as biosafety, biosecurity, 
laboratory techniques, epidemiological analysis, and international 
research standards.
    The CTR program also had a successful partnership with Azerbaijan's 
maritime security forces in bolstering Azerbaijan's capacity to secure 
its interests in the Caspian. An interagency effort continues to 
address Critical Energy Infrastructure in the Caspian, and this issue 
will remain a priority for the Embassy.
    If confirmed, I will look forward to continuing these critical 
efforts to enhance Azerbaijan's capacity to reduce, eliminate, and 
counter the threat of WMD, a vital U.S. interest.

    Question. Ambassador Morningstar, I would like to commend your 
efforts to advance many critical initiatives as the Special Envoy for 
Eurasian Energy. Key initiatives such as the Unconventional Gas 
Technical Engagement Program and opening the Southern Corridor from the 
Caspian to Eastern Europe offer opportunities to promote economic 
growth and shift power dynamics in energy markets in favor of the 
United States and our allies.
    The Special Envoy position was created by Secretary Rice at the 
urging of Vice President Biden and myself, and it was propelled with 
the strong support of Secretary Clinton. Several former Soviet states 
still come under tremendous pressure from Russia, and energy is a 
primary point of leverage. The constant presence of a high-level U.S. 
Envoy demonstrates U.S. commitment to these countries and to energy 
security at little taxpayer expense.
    I am hopeful that you will join me today in encouraging the 
continuation of the Special Envoy role following your departure to 
Baku. But more to the point, please indicate whether the Special Envoy 
for Eurasian Energy continue to report directly to the Secretary of 
State given the creation of the new Energy Bureau.

    Answer. Thank you for the support you have given to addressing 
energy security challenges generally, as well as in Europe and Eurasia 
particularly. As you know, Secretary Clinton has appreciated your 
leadership on the integration of energy security with American foreign 
policy, as these issues directly affect our national security and 
prosperity. Secretary Clinton has tasked the Assistant Secretary of the 
Energy Resources Bureau and, until his confirmation in the interim, our 
Coordinator for International Energy Affairs, Carlos Pascual, to lead 
our energy issues in Europe and Eurasia to ensure that we sustain the 
highest level of attention in the Department, while mobilizing the full 
support of the Energy Resources Bureau. Ambassador Pascual will 
continue to report to the Secretary directly on these matters.

    Question. Good governance of oil and gas resources and revenues is 
fundamental to the future prosperity and democratic development of 
Azerbaijan. I have had several conversations with President Aliyev on 
this topic, and he has professed his intention to pursue the ``Norway 
model'' in transparency and spending of revenues.
    To that end, the State Oil Fund of Azerbaijan has made remarkable 
progress. However, more needs to be done, particularly to account for 
SOCAR's [State Oil Company of Azerbaijan] revenues and to improve civil 
society involvement.
    The Cardin-Lugar amendment will require many oil companies 
operating in Azerbaijan to disclose payments through SEC filings. If 
confirmed, what will be your priority areas to further improve 
transparency in Azerbaijan, and how will you advocate for the purposes 
of the Cardin-Lugar amendment?

    Answer. Advocating for transparency and compliance of international 
standards and U.S. laws will be a key priority in engaging both the 
public and private sector at all levels in Azerbaijan. Azerbaijan was 
the first country to complete Extractive Industries Transparency 
Initiative (EITI) validation, with the Board finding Azerbaijan EITI 
compliant in February 2009. Azerbaijan will be up for revalidation in 
2014, and we will continue to monitor its compliance and place 
consistent emphasis on the importance of EITI and the Cardin-Lugar 
amendment, which is an extremely valuable complement to EITI. Once the 
SEC issues final regulations, the Embassy will work with the Government 
of Azerbaijan to create the necessary conditions for companies listed 
in the United States to be compliant with U.S. law.
    Azerbaijan has also signed on to the Open Government Partnership 
(OGP), a global partnership between governments and civil society in 
which governments commit to an action plan to promote transparency and 
fight corruption and submit to independent monitoring on their progress 
in carrying it out. If confirmed, I will continue to work closely with 
both the government and civil society groups to help Azerbaijan carry 
out its commitments under the OGP.

    Question. What is your view of the Nabucco West proposal? Is 
Nabucco West premised on TANAP becoming a reality? Would the 2009 
Intergovernmental Agreement still be valid for Nabucco West?

    Answer. The United States supports any commercially viable pipeline 
that brings Caspian gas to Europe provided the following two conditions 
are met: (1) a significant portion of the gas must be supplied to our 
friends and allies in the Balkans and elsewhere in Central and Eastern 
Europe, which are particularly dependent on a single source of gas; and 
(2) the pipeline must be expandable, so that additional sources of gas 
can be accommodated once they become available.
    There will ultimately be large amounts of gas to ship through 
Georgia and Turkey to Europe. We believe that TANAP could be an 
excellent project, because it would be a dedicated pipeline across 
Turkey that would provide greater flexibility as more gas becomes 
available. Nabucco West, however, is not necessarily premised on TANAP 
becoming a reality. The parties are discussing how best to utilize the 
Nabucco IGA as part of the project.

    Question. What is your view of the Southeastern Europe Pipeline 
(SEEP) proposal? If reports are correct that SEEP would rely on much 
existing infrastructure, how would it be able to handle additional gas 
supplies, if Iraq or Turkmen gas comes online in the future?

    Answer. A full Nabucco pipeline may not be the first pipeline, but 
ultimately there will be significant gas available in the future from 
Azerbaijan and possibly Turkmenistan and Iraq. The South East European 
Pipeline (SEEP), as well as the two other pipelines being considered 
(Nabucco West and the Trans Adriatic Pipeline (TAP)), are still in the 
running. We would support SEEP, or any commercially viable pipeline 
that brings Caspian gas to Europe, provided the following two 
conditions are met: (1) a significant portion of the gas must be 
supplied to our friends and allies in the Balkans and elsewhere in 
Central and Eastern Europe, which are particularly dependent on a 
single source of gas; and (2) the pipeline must be expandable, so that 
additional sources of gas can be accommodated once they become 
available.
    The final architecture of SEEP is not yet clear. The expandability 
of SEEP to handle potential future volumes of gas from countries beyond 
Azerbaijan is an important question, and one that we will be examining 
closely as the process of choosing an export route for Shah Deniz gas 
proceeds.
                                 ______
                                 

        Responses of Richard Morningstar to Questions Submitted
                        by Senator Barbara Boxer

    Question. According to news reports, on June 4-7, at least eight 
Armenian and Azeri soldiers were killed during fighting along the 
border of Armenia and Azerbaijan. In a troubling development, the 
fighting--which reportedly began after Azeri forces attempted to 
penetrate Armenian lines--took place at the same time that Secretary of 
State Hillary Rodham Clinton was visiting the region.

  <bullet> If confirmed, how will you respond, publicly and privately, 
        to new acts of aggression that now extend beyond the Nagorno-
        Karabakh region into the Armenian-Azerbaijani border area?
  <bullet> How will you specifically work to ensure that the 
        Azerbaijani Government respects the Organization for Security 
        and Co-operation in Europe (OSCE) Minsk Group negotiated cease-
        fire?

    Answer. As a cochair of the OSCE Minsk Group, the United States 
remains committed at the highest levels to assisting the sides of the 
Nagorno-Karabakh conflict to reach a lasting and peaceful settlement. 
During her recent visit to the region, Secretary Clinton made clear 
that these cycles of violence must end and that the sides should 
exercise restraint, comply with their obligations under the 1994 cease-
fire agreement, and take the steps necessary for peace. The Secretary 
also expressed concern about the danger of rising tensions, which could 
have unpredictable and disastrous consequences.
    If confirmed, I will work with U.S. Minsk Group cochair, Robert 
Bradtke, and engage at the highest levels of the Azerbaijani Government 
to urge respect for the cease-fire and strengthen its implementation.

    Question. Last year, then-Ambassador Matthew Bryza attempted to 
visit the Armenian cemetery of Djulfa to investigate the 2005 
destruction of Armenian Khachkars, or burial monuments. The desecration 
of one of the oldest and largest Armenian cemeteries was an affront to 
religious freedom and was criticized by the European Parliament and 
international archaeological bodies. Disturbingly, the Azerbaijani 
Government denied Ambassador Bryza's request to visit the site.

  <bullet> If confirmed, will you commit to attempt to travel to Djulfa 
        to investigate the destruction of the cemetery? What steps will 
        you take to ensure that other religious sites and monuments in 
        Azerbaijan are protected?

    Answer. The United States has publicly condemned the desecration at 
Djulfa and reiterated our concerns to the Azerbaijani Government on 
this issue, urging a transparent investigation of the incident. Despite 
our requests to visit the Djulfa Cemetery, local authorities have so 
far refused permission to do so. If I am confirmed, I pledge to make 
every effort to visit the cemetery at Djulfa. I will also amplify our 
concerns to the Government of Azerbaijan and stress the need to respect 
and safeguard Armenian religious and cultural sites in Azerbaijan.
    As a strong proponent of preserving world cultural heritage, we 
urged Azerbaijan and Armenian to work with UNESCO to investigate the 
destruction of these cultural monuments.

    Question. I am deeply concerned by recent reports of attempts by 
Iran-linked operatives to kill foreign diplomats, including American 
Embassy employees and their families, in Azerbaijan. According to news 
reports, U.S. Embassy officials in Azerbaijan have been alerted to 
plots against employees at least three times in the past 2 years.
    I am also troubled by inadequate security at the U.S. Embassy 
building in Baku. According to a 2007 report by the Office of the 
Inspector General report, the Embassy is ``lodged in a 100-year-old 
building and has an unprotected annex 30 minutes away through horrific 
traffic.'' For the safety of our citizens serving in Azerbaijan, it is 
imperative that the Embassy go through the Compound Security Upgrade 
Program and relocate. In her recent visit to Azerbaijan, Secretary 
Clinton reminded President Aliyev about the need to build a new, state-
of-the-art chancery, which has been under negotiation with the 
Azerbaijani Government for more than 10 years.

  <bullet> What will you do to protect U.S. Government employees--
        particularly regarding threats from Iran--and how do you intend 
        to communicate to the Azerbaijani Government the urgency of 
        this situation?
  <bullet> What are the existing obstacles to relocating the Embassy 
        and when do you expect that a new facility could be ready?

    Answer. If confirmed, my highest priority as Ambassador will be the 
safety and security of our staff and their families in Baku. Our 
security cooperation with the host government is a key component of 
that effort. Azerbaijani authorities have announced the arrest of a 
number of individuals since the start of this year for allegedly 
plotting attacks against foreign interests in Azerbaijan. We are 
appreciative of our cooperation with the Government of Azerbaijan and 
we continue to work closely with Azerbaijani authorities to provide for 
the safety and security of our Embassy and personnel in Baku.
    The upgrading our Embassy facility in Azerbaijan must be the 
highest priority, both to improve security and to provide a larger and 
more modern workspace similar to our other embassies throughout the 
region. As part of this ongoing effort, we have been working to obtain 
property for a New Embassy Compound in Baku, fully compliant with 
current security standards.
    Even in my role as Special Envoy for Eurasian Energy, I have raised 
the issue with President Aliyev in the strongest possible terms. And 
while in Baku earlier this month, the Secretary also conveyed to the 
Azerbaijani Government the importance of accelerating the process 
toward building a modern, secure, state-of-the-art chancery in Baku.
    If confirmed as Ambassador, I will continue to stress the 
importance of this effort to the government and do everything possible 
to surmount the remaining obstacles and ensure that this project 
becomes a reality.

    Question. In February, Azerbaijani President Ilham Aliyev stated in 
a public speech that was later posted on his Web site that 
``[Azerbaijan's] main enemies are Armenians of the world.''
    Statements such as the one above foment anti-Armenian sentiment in 
Azerbaijan, which exacerbates existing tensions and makes it 
increasingly difficult to reach a permanent peace agreement regarding 
the Nagorno-Karabakh region.

  <bullet> If confirmed, what will you do to work with the Azerbaijani 
        Government to counter anti-Armenian sentiment and to further a 
        meaningful peace process?

    Answer. The United States has joined with the other Minsk Group Co-
Chairs to urge that all sides show restraint in their public statements 
and on the ground to avoid misunderstandings and unintended 
consequences. Secretary Clinton reiterated these points during her 
travel to the region earlier this month, and if confirmed I will 
reinforce this message at the highest levels of the Azerbaijani 
Government.
    As Secretary Clinton and the other Foreign Ministers of the OSCE 
Minsk Group Cochair Countries noted in a joint statement earlier this 
year, a new generation has come of age in the region with no first-hand 
memory of Armenians and Azeris living side by side, and it is important 
to emphasize that prolonging these artificial divisions only deepens 
the wounds of war. If confirmed, I will make the case that 
irresponsible rhetoric is unacceptable and undermines our efforts to 
achieve a peaceful settlement of the conflict. I will urge the 
Azerbaijani Government to show restraint in its rhetoric and to prepare 
its people for peace, not war.

    Question. Congress has enacted legislation known as ``Section 907'' 
prohibiting U.S. assistance to Azerbaijan until it meets a number of 
conditions, including taking demonstrable steps to cease ``offensive 
uses of force against Armenia and Nagorno-Karabakh.''
    Yet just last week, the Azeri military was involved in a violent 
attack that left three Armenian soldiers dead.
    Furthermore, the Azeri Government continually threatens to resolve 
the conflict by force. According to The Economist, the Azeri 
President--Ilham Aliyev--threatened war to resolve the Nagorno-Karabakh 
conflict in nine separate speeches in 2010 alone.

  <bullet> Is the Government of Azerbaijan fully meeting the conditions 
        of section 907?
  <bullet> Do you support continuing to waive section 907, as the 
        administration has done for the last several years?
  <bullet> Should the U.S. Government be providing military aid to the 
        Government of Azerbaijan at the same time that it is committing 
        acts of aggression and threatening renewed war against both 
        Nagorno-Karabakh and Armenia?

    Answer. Since 2002, the President has waived section 907 on an 
annual basis. Deputy Secretary Burns signed the 2012 waiver on behalf 
of President Obama again this year. If confirmed, I will support the 
appropriate application of this waiver authority and any and all other 
statutory requirements that dictate the conditions of U.S. assistance 
to Azerbaijan, including section 907.
    Azerbaijan is an important security partner for the United States 
and our assistance to Azerbaijan is provided in this context, helping 
to further common objectives including counterterrorism, border 
control, and maritime security. Azerbaijan has over 90 troops stationed 
in Afghanistan and provides critical support for U.S. and coalition 
aircraft bound for Afghanistan. U.S. assistance to Azerbaijan has 
enhanced Azerbaijan's interoperability with NATO and U.S. forces and 
advances vital U.S. security interests in the region.
    If confirmed, I will advocate for assistance programs in areas that 
serve these key U.S. interests while ensuring that our security 
assistance cannot be used for offensive purposes against Armenia and 
does not undermine ongoing efforts to negotiate a peaceful settlement 
between Armenia and Azerbaijan.

    Question. As you know, a goal of U.S. policy in the South Caucasus 
is to foster regional cooperation and economic integration. Yet, 
Azerbaijan continues to undermine U.S. efforts in the region.
    For example, in May 2011, Azeri President Aliyev stated in his 
Republic Day address, ``As far as Armenia is concerned, we will 
continue to make efforts to isolate Armenia from all regional projects. 
We do not hide it. This is our policy.''

  <bullet> How will you address Azerbaijan's continued attempts to 
        isolate Armenia?
  <bullet> How will you work to promote regional cooperation and 
        economic integration?

    Answer. The only path to peace, stability, and prosperity in the 
region is a lasting, peaceful settlement of the Nagorno-Karabakh 
conflict. As a cochair of the Minsk Group, the United States remains 
committed, at the highest levels, to helping the sides achieve this 
outcome. If confirmed, I will emphasize to Azerbaijan's leadership that 
it is in Azerbaijan's interest to accelerate efforts toward peace and 
regional economic integration.
    As part of this effort, the United States and the other cochairs 
have proposed confidence-building measures, including humanitarian and 
people-to-people contacts, which should be used to promote mutual 
understanding among peoples of the region. The sides have agreed to 
pursue such measures, and if confirmed, I will urge the Azerbaijani 
Government to move forward with these vital initiatives to help move 
the region toward peace.
    A peaceful resolution of the Nagorno-Karabakh conflict would also 
allow the essential and long overdue integration of Armenia into the 
vital energy routes and infrastructure that are developing across the 
region. If confirmed, I will make the case in Baku that Azerbaijan 
stands only to gain from such an outcome.
                                 ______
                                 

        Responses of Richard Morningstar to Questions Submitted
                       by Senator Robert Menendez

    Question. Do you support the proposed sale of military hardware to 
be used in conjunction with Azerbaijan's military helicopter fleet for 
border surveillance and ``police-type'' activities? What message would 
this sale send to the Azeris about cross-border incursions and what 
message does it send about U.S. even-handedness or seriously 
encouraging Baku to agree to Minsk Group cochair demands that it remove 
its snipers from the ``line of contact'' in the Nagorno-Karabakh 
region?

    Answer. The United States reviews all license applications in light 
of our international commitments and U.S. laws. In this specific case, 
I understand that the applicant seeking the Department's approval for a 
proposed license agreement has now requested that the Department remove 
Azerbaijan from the sales territory of the agreement. The Department 
will honor this request from the applicant when it delivers the 
statutory notification of the sale to Congress.
    If confirmed, I will ensure that our security assistance to 
Azerbaijan cannot be used for offensive purposes against Armenia, and 
does not undermine ongoing efforts to negotiate a peaceful settlement 
between Armenia and Azerbaijan.
    As a cochair of the OSCE Minsk Group, the United States remains 
deeply committed to assisting the sides of the Nagorno-Karabakh 
conflict to reach a lasting and peaceful settlement. We reiterate at 
every opportunity that there is no military solution to the conflict, 
and that only a peaceful settlement will lead to security, stability, 
and reconciliation in the region.

    Question. Baku has rejected successive appeals by the OSCE and the 
U.N. 
Secretary General to withdraw its snipers from the line of contact. 
Armenia and the Nagorno-Karabakh leadership have consistently said they 
will withdraw their snipers provided Azerbaijan agrees to do the same.

  <bullet> What will you do to convince Azerbaijan to support the Minsk 
        Group and U.N. Secretary General's call to pull back snipers, 
        as both Armenia and the Nagorno Karabakh Republic have agreed 
        to do?

    Answer. If confirmed as Ambassador, I will support our U.S. cochair 
for the OSCE Minsk Group, Ambassador Robert Bradtke, in his efforts to 
work with the sides to achieve a lasting, peaceful resolution to the 
conflict in Nagorno-Karabakh. I will urge the highest levels of the 
Azerbaijani Government to take steps--including the withdrawal of 
snipers--to improve the atmosphere for negotiations, prevent 
unnecessary casualties, and strengthen implementation of the cease-
fire. I will emphasize at every opportunity that there is no military 
solution to the conflict, and that only a peaceful settlement will lead 
to security, stability, and reconciliation in the region.

    Question. Why wasn't Azerbaijan's demolition of the Christian 
Armenian cemetery in Djulfa included in the State Department's 
International Religious Freedom Report? Will it now be documented in 
future editions of this report?

    Answer. The incident remains of great concern to the Department, 
and if confirmed as Ambassador, I will raise the issue frequently and 
forcefully with the Azerbaijani Government. I will also review reports 
of the incident and its relationship with the International Religious 
Freedom Report.
    The United States has publicly condemned the desecration at Djulfa 
and called for a transparent investigation. If confirmed, I pledge to 
make every effort to visit the cemetery and will emphasize the need to 
respect and safeguard Armenian religious and cultural sites in 
Azerbaijan.

    Question. Will you, if confirmed, personally travel to Djulfa to 
investigate the destruction of the Djulfa Armenian cemetery? What 
specific steps will you take, if confirmed, to see the Djulfa Armenian 
cemetery restored or preserved, to the extent possible, as a protected 
holy site?

    Answer. If I am confirmed, I pledge to make every effort to visit 
the cemetery at Djulfa, including pressing for permission from the 
appropriate authorities if needed. I will also amplify our concerns to 
the Government of Azerbaijan and stress the need to respect and 
safeguard Armenian religious and cultural sites in Azerbaijan.
    The United States has publicly condemned the desecration at Djulfa 
and reiterated our concerns to the Azerbaijani Government on this 
issue, urging a transparent investigation of the incident. Despite our 
requests to visit the Djulfa cemetery, local authorities have so far 
refused permission to do so.

    Question. If confirmed, will you commit, during your trips to 
Washington, DC, to consult with members of the Senate Foreign Relations 
Committee and other Senators regarding United States-Azerbaijani 
relations and the issues raised during your confirmation hearing?

    Answer. If confirmed, I will be happy to meet with members of the 
Senate Foreign Relations Committee, other Senators, and their staffs to 
discuss United States-Azerbaijan relations and the issues raised during 
my confirmation hearing. I will also be available for any consultations 
at any time in Baku.

    Question. If confirmed, will you commit, during your trips to 
Washington, DC, to consult with the leaderships of the Azerbaijani and 
Armenian American communities regarding the issues raised during your 
confirmation hearing?

    Answer. Yes. If confirmed, I would look forward to visiting and 
meeting with members of the Azerbaijani- and Armenian-American 
communities both in the United States and in Azerbaijan, as my 
predecessors have done before. If I am confirmed, I would also be happy 
to meet with both communities prior to leaving for Baku. It would be a 
valuable opportunity to understand and respond to their concerns, 
update them on the status of the United States-Azerbaijan relationship, 
and to exchange views on a wide range of issues.

    Question. The administration's position has been that the 
resolution of the Nagorno-Karabakh issue and the normalization of 
relations between Turkey and Armenia are on separate tracks. The former 
Ambassador to Baku since leaving that post has contested that 
assessment and said that we need to manage the two processes together.

  <bullet> What is your view of the path to resolving each of these 
        issues? Should Baku have a role in negotiations between Armenia 
        and Turkey?

    Answer. Our interest is in seeing Armenia and Turkey heal the 
wounds of the past and move forward together in a shared future of 
security and prosperity. Our policy is guided by this goal. The United 
States strongly supports the efforts of Turkey and Armenia to normalize 
their bilateral relationship, and has urged the parties to ratify the 
normalization protocols without preconditions. We believe the ball is 
in Turkey's court.
    We have consistently emphasized that there is no linkage between 
the protocols process and the Nagorno-Karabakh negotiations. These are 
two separate processes.
    As a cochair of the Minsk Group, the United States remains firmly 
committed to achieving a peaceful, negotiated settlement of the 
Nagorno-Karabakh conflict based upon three core principles of the 
Helsinki Final Act: the nonuse or threat of force, territorial 
integrity of states, and equal rights and self-determination of 
peoples. If confirmed, I would work with U.S. Minsk Group Cochair 
Robert Bradtke and engage at the highest levels of the Azerbaijani 
Government to support these efforts.

    Question. Over the past decade, strategic energy projects launched 
with U.S. support in the South Caucasus have created long-term 
development opportunities for most of the nations in the region. 
However, these initiatives have not benefited Armenia, due to Turkish 
and Azerbaijani policies. Ongoing attempts to isolate Armenia from 
regional projects, such as the Azeri-proposed rail bypass of Armenia, 
also run counter to stated U.S. policy goals of regional cooperation 
and economic integration.

  <bullet> What concrete steps will be taken to eliminate the Turkish 
        and Azeri blockades of Armenia and Azerbaijan's continued 
        pattern to try and isolate Armenia?

    Answer. The United States believes that the only path to peace, 
stability, and prosperity in the region is a lasting, peaceful 
settlement of the Nagorno Karabakh conflict. A settlement of the 
conflict would have a profound impact in promoting regional cooperation 
and economic integration. As a cochair of the Minsk Group, the United 
States remains committed, at the highest levels, to helping the sides 
achieve this outcome.
    To support this goal, the United States and the other cochairs have 
proposed confidence-building measures, including humanitarian and 
people-to-people contacts, which would promote mutual understanding 
among peoples of the region. The sides have agreed to pursue such 
measures, and if confirmed, I will emphasize to Azerbaijan's leadership 
at the highest levels that it is in Azerbaijan's interest to accelerate 
efforts towards peace and regional economic integration.
    One of the many unfortunate consequences of the conflict is that 
Armenia has been precluded from participating in regional energy 
projects and other projects. A peaceful resolution of the Nagorno 
Karabakh conflict would allow the essential and long overdue 
integration of Armenia into the vital energy routes and infrastructure 
that are developing across the region. If confirmed, I will make the 
case in Baku that Azerbaijan stands only to gain from moving the region 
forward toward peace, prosperity, and stability.
    The United States also strongly supports the efforts of Turkey and 
Armenia to normalize their bilateral relationship, and has urged Turkey 
to ratify the normalization protocols without preconditions. We have 
consistently emphasized that there is no linkage between the protocols 
process and the Nagorno-Karabakh negotiations. These are two separate 
processes.

    Question. You testified before the Senate Foreign Relations 
Committee in 2009 that ``At the heart of our policy is the belief that 
energy security is best achieved through diversity--diversity of 
suppliers, diversity of transportation routes and diversity of 
consumers.'' On the one hand the United States values the Azeri 
relationship because of role the Azeris play in providing alternative 
sources to Russian oil and gas to Europe and Israel and on the other 
hand the Azeris are continuing to provide natural gas to Iran.

  <bullet> What is U.S. policy regarding Azerbaijan's gas supply 
        relationship with Iran? How crucial is Azerbaijan to securing 
        alternative energy supplied for Europe? What specific actions 
        can be taken to integrate Armenia into regional energy 
        initiatives?

    Answer. We work closely with Azerbaijan on energy security, and we 
share Azerbaijan's goal of establishing a Southern Corridor for natural 
gas exports to Europe. Azerbaijan plays a key role in our efforts to 
promote a diversity of energy routes and sources for European energy 
consumers. The government in Baku clearly recognizes the benefits that 
multiple routes to market would bring to Azerbaijan.
    The Shah Deniz gas field and potential future developments in 
Azerbaijan are critical to European energy security, particularly for 
those countries that are largely reliant on a single source. Azerbaijan 
has been an active and willing strategic partner for both the United 
States and Europe in efforts to achieve this important goal. If gas 
from Shah Deniz does not go to Europe, Azerbaijan would be forced to 
sell it to Iran, Russia, or further east.
    It is our policy to minimize the gas supply relationship between 
Azerbaijan and Iran, and if confirmed, I will advance this policy. We 
are aware that Azerbaijan has a swap relationship with Iran whereby 
Azerbaijan provides gas to Iran in exchange for Iranian gas supplies to 
the exclave of Nakhchivan. At present, there is no alternative to 
supply gas to this isolated region of Azerbaijan.
    If confirmed as Ambassador in Baku, I will emphasize to the 
government the benefits that Azerbaijan stands to gain from a peaceful, 
lasting settlement of the Nagorno-Karabakh conflict, which is the best 
path toward regional cooperation and economic integration. A peaceful 
resolution of the conflict would allow the integration of Armenia into 
the vital energy routes and infrastructure that are developing across 
the region.

    Question. By all account the human rights situation in Azerbaijan 
has declined significantly over the last year. President Aliyev has 
been in power since 2003. Do you see him become more entrenched and 
less tolerant of dissent?

    Answer. Advancing respect for human rights and fundamental freedoms 
in Azerbaijan continues to be a key pillar in the bilateral 
relationship. As the Secretary said during her recent visit to Baku, 
``The United States remains strongly committed to working with the 
government and people to advance respect for human rights and 
fundamental freedoms.'' She urged the government to respect its 
citizens' right to express views peacefully, including dissenting 
views, and to release those who have been detained for doing so in 
print or on the streets or for defending human rights. If confirmed as 
Ambassador, I will reinforce this vital message at the highest levels 
of the Azerbaijani Government.
    We continue to believe that respect for these rights is essential 
for promoting the sort of dialogue between citizens and their 
government that forms the basis for positive change and the deeper 
development of a culture of democracy in any society. The United States 
continues to raise these concerns privately and publicly, including 
concerns about many specific cases. For example, last year, following 
the authorities' efforts to thwart the gathering of opposition groups 
in Baku, we urged the Azerbaijani Government to uphold its own 
international commitments to the rights of all its citizens to freedom 
of assembly and freedom of expression, which are guaranteed under the 
Azerbaijani Constitution, and which are enshrined in OSCE agreements to 
which the government has committed.
    The 2013 Presidential election will be an opportunity for the 
government to demonstrate its commitment to these fundamental freedoms, 
and the United States will continue strong diplomatic and assistance 
efforts to encourage such progress.

    Question. In an official state address to his people, Azerbaijan's 
President Aliyev stated that ``our main enemies are Armenians of the 
world.'' Last year, Azerbaijani citizens were questioned, on national 
security grounds, simply for suspicion of having voted for Armenian 
artists in a Europe-wide singing contest. Also, in August 2011, the 
head of Azerbaijan's Presidential Administration's Political Analysis 
Department Elnur Aslanov told a gathering of hundreds of Azerbaijani 
students, who were studying abroad, that Ramil Safarov, who was 
convicted of murdering an Armenian with an axe while he was sleeping in 
his dorm room in Hungary, is an inspiration and ``give[s] special 
spirit to Azerbaijani youth.''

  <bullet> What plans do you have for confronting Azerbaijan's official 
        anti-Armenian rhetoric?

    Answer. If confirmed, I will make the case that inflammatory 
rhetoric is unacceptable, dangerous, and undermines our efforts to 
achieve a peaceful settlement of the conflict. As a cochair of the 
Minsk Group, the United States has repeatedly called on all sides to 
show restraint in their public statements and on the ground to avoid 
misunderstandings and unintended consequences. Secretary Clinton 
emphasized this message during her travel to the region earlier this 
month, and if confirmed I will urge the Azerbaijani Government to show 
restraint in its rhetoric and to prepare its people for peace, not war.
    As Secretary Clinton and the other Foreign Ministers of the OSCE 
Minsk Group Cochair Countries noted in a joint statement earlier this 
year, a new generation has come of age in the region with no first-hand 
memory of Armenians and Azeris living side by side, and it is important 
to emphasize that prolonging these artificial divisions only deepens 
the wounds of war.

 
                    NOMINATION OF DEREK J. MITCHELL

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Derek J. Mitchell, of Connecticut, to be Ambassador to the 
        Union of Burma
                              ----------                              

    The committee met, pursuant to notice, at 10:35 a.m,. in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb, 
presiding.
    Present: Senators Webb, Inhofe, and Rubio.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. The hearing will come to order.
    The committee meets today to consider the nomination of 
Ambassador Derek Mitchell to be U.S. Ambassador to Burma, also 
known as Myanmar. The nomination of Ambassador Mitchell comes 
at a historic turning point in Burma's political transition and 
in our relations with that country. I would say this is one of 
those moments we will look back on clearly as a historic 
turning point.
    And when such moments occur, history teaches us that we 
must act in a clear and decisive manner. I am pleased that the 
administration has responded to positive changes within Burma 
by upgrading our diplomatic relations to this proper status.
    Three years ago when I visited Burma in August 2009, I can 
safely say that few were considering this prospect. My visit 
was the first visit to Burma by a Member of Congress or a 
national leader in more than 10 years. The country was locked 
in isolation, keeping its government, military, and people from 
exposure to the international community.
    Aung San Suu Kyi remained under house arrest. Numerous 
other activists remained in prison. Conflicts with ethnic 
minority groups continued and challenged the unity of the 
country. The prospects for reform opening up and economic 
development looked bleak, while the potential for increased 
isolation and tighter sanctions seemed likely.
    Yet during that visit, one could clearly see the promise of 
a different future. My own interactions with leaders in the 
military government, as well as with Aung San Suu Kyi, 
suggested that with international support and faith, Burma 
could begin a different path.
    In September 2009 with my support, the administration 
redirected U.S. policy to engage directly with the government, 
which began sending positive reciprocal signals. Then Foreign 
Minister Nyan Win visited New York for the U.N. General 
Assembly and made a private visit to Washington, DC.
    The next year, the government announced that elections 
would be held. And on November 7, 2010, the country held 
elections for national and regional Parliaments with the 
participation of multiple political parties. By all accounts, 
these elections were neither completely free nor fair, but they 
represented a step toward a new system of governance, a step 
that many of Burma's regional neighbors have not yet taken.
    Additionally, in March 2011, the military government 
officially transferred power to the civilian government led by 
President Thein Sein. In his first year of office, President 
Thein Sein released more than 620 political prisoners, released 
more than 28,000 prisoners, and reduced the sentences of all 
prisoners by 1 year. He began a series of economic reforms to 
prepare the country for trade and investment. Also during this 
time, the Parliament passed new labor and peaceful 
demonstration laws, amended the political party laws, and 
enabled the National League for Democracy to conclude that they 
would participate in the next elections.
    During my August 2009 visit, I specifically observed to 
Burmese Government officials that at a time when Aung San Suu 
Kyi was still under house arrest, in order for elections in 
Burma to be perceived as credible, she and her party should be 
offered the opportunity to participate fully and openly in the 
process. Her release in November 2010, the government's 
compromise on the political party laws, and Aung San Suu Kyi's 
decision to participate in the April parliamentary bielection 
of this year demonstrates the political reconciliation taking 
place within that country.
    Over the past year, many people across the world have 
followed Aung San Suu Kyi's dramatic transformation from a 
prisoner under house arrest, to a political candidate, and now 
to Member of Parliament. As an elected official in the national 
legislative body, she's now in a position to work within the 
government to formally affect the reconciliation process.
    In the bielection, the NLD won 43 out of 45 seats, making 
it the largest opposition party in the Parliament, and placing 
it in a position to advance policies that support democratic 
transition.
    While much needs to be done to solidify this transition, 
the combined efforts of President Thein Sein and MP Aung San 
Suu Kyi have moved the country forward toward promised 
democracy. I respect them both for their courage, and for their 
commitment to their country, and also for their foresight in 
accomplishing political reforms ahead of economic reforms. They 
have led the country on a different path than many of their 
neighbors in the region, and we all hope they remain successful 
in those efforts.
    And I think a couple of comparisons are useful given the 
jurisdiction of this subcommittee. First, within China, 
democratic activists and ethnic minorities, such as Tibetans or 
Uighurs face the threats of constant surveillance, detention, 
and repression. The State Department estimates in its ``Country 
Reports'' of 2011, ``Tens of thousands of political prisoners 
remain incarcerated, some in prisons, others in re-education 
camps or administrative detention.'' Notably, China's Nobel 
Peace Prize winner, as opposed to Aung San Suu Kyi, Liu Xiaobo, 
remains incarcerated.
    China has no free elections. Its leadership transition this 
year will not be influenced by popular vote. The Freedom House 
``Freedom in the World Report'' for 2012 notes that China is 
``trending downward in its protection of political freedoms and 
civil liberties.'' In the 2012 ``Freedom of the Press Report,'' 
North Korea is the only country ranked below China for its lack 
of freedoms of the press. Yet no one is advocating at this time 
that we impose economic sanctions on China.
    The United States lifted its trade embargo against China 41 
years ago. It continues to promote U.S. investment there. Last 
year, our trade totaled $530 billion, making China our second-
largest trading partner.
    Second, consider Vietnam, with which I have had a 
continuous relationship since I was a 23-year-old Marine 
serving there during the war, and over the past 21 years have 
participated regularly and continuously in rebuilding the 
relations between our two countries.
    The United States lifted its trade embargo in Vietnam in 
1994. Our total trade has grown from $6.9 million in 1993 to 
$21 billion last year. Vietnam has never had popular elections 
for its leaders or allowed opposition parties. Concerns about 
censorship of the media, restrictions on the freedom of 
religion, or detention of political prisoners have not prompted 
the United States to restrict our trade with Vietnam. In fact, 
our policy has been based on the premise that increased trade 
will promote rule of law, transparency, and political freedom. 
Otherwise, we would not be negotiating a significant trade 
agreement with Vietnam at this moment, the Trans-Pacific 
Partnership.
    This is not to single out China or Vietnam for opprobrium. 
On the contrary, it is simply to point out the need for 
consistency in the logic of those who argue for overly punitive 
restrictions as we develop our relations with Burma.
    Let us not forget that this country has had two peaceful 
national elections within the last year, released hundreds of 
political prisoners, negotiated cease-fire agreements with 12 
ethnic minority groups, reduced censorship of the media, and 
supported the development of an effective political opposition. 
This is a country whose political system remains a challenge, 
but where positive conduct calls for reciprocal gestures.
    We should never take our concerns about political freedoms 
or individual rights off the table. We should make these 
concerns central to our engagement with all countries, 
including with Burma, as I mentioned. But we should also be 
promoting economic progress to sustain the political reforms 
that have taken place. It is time to make our policies 
internationally consistent with our principles.
    As was evident during my visit to Burma in April of this 
year, there is general enthusiasm in the country, but there is 
also some skepticism inside Burma that Burma and the United 
States will be able to pull this thing off. People need to see 
and believe that the government is working for them and that 
our government is sincerely dedicated to seeing further change.
    I believe that President Thein Sein and other government 
leaders are sincere in their efforts, but they need our support 
in building a better foundation for the government and economy 
to deliver results to their people. For this reason, it is ever 
more important that our sanctions policies not inhibit this 
development. In fact, we should take pains to incentivize this 
development.
    Initial steps have been taken. In February, the United 
States granted a partial waiver to allow international 
financial institutions to conduct assessment missions in Burma. 
On April 17, the Treasury Department issued a general license 
for educational and nonprofit institutions to support 
development and humanitarian projects. On May 17, Secretary 
Clinton announced that the ban on U.S. investments and export 
of financial services would be suspended, a move that has the 
potential to jump-start United States private sector 
engagement. However, more than 1 month later, the Treasury 
Department has not issued a general license for companies to 
begin this process.
    In April before this subcommittee, OFAC Director Adam 
Szubin testified that the main categories of sanctions imposed 
by statute or Executive order can be lifted by the President 
via licenses, rescission of Executive orders, or issuance of 
waivers on national security. Further, he noted that Executive 
decisions to remove sanctions can still target and blacklist 
the assets or activities of people which they refer to as ``bad 
actors'' from their previous military junta so that they will 
not benefit from economic relations with the United States.
    I believe this is the right approach to take. I have 
supported the steps taken thus far, but I believe more needs to 
be done. Time is of the essence here. If we do not act 
proactively and soon, we will lose a critical window of 
opportunity to influence development of financial governance 
inside Burma. It is critical to implement the decisions that 
have been announced and to continue to ease additional 
sanctions, such as the ban on imports.
    Ambassador Mitchell, as the special representative and 
policy coordinator for Burma, has been well situated to observe 
and influence American policy across agencies during this 
period of transition. And now if confirmed, he will have a 
unique opportunity to strongly impact this new approach and to 
identify new means to incentivize and aid reform. I will look 
forward to hear your ideas and suggestions on this matter.
    And now I would like to recognize Senator Inhofe.

              STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I think you are 
aware of it, but they may not be, that as chairman and ranking 
member of EPW, Barbara Boxer and I are in the middle of our 
final negotiations right now as we speak on the highway 
reauthorization bill. So I am going to have to leave to go to 
that. But this is very significant. There are some things that 
I am concerned about, and so I thank you for holding this 
hearing.
    This is kind of historic. This is the first time we will be 
sending an ambassador there in, what, 20 years, I guess, since 
1992. So I want to welcome Ambassador Mitchell, and I 
understand that we are going to be able to talk in my office 
tomorrow. We can elaborate a little bit more on this subject.
    But as you know, I am very interested in the ability of our 
American oil and gas industry to compete for business in Burma 
as soon as possible. Unfortunately, that has not yet happened, 
and in the meantime, European Union oil and gas companies have 
been there since the suspension of the EU sanctions against 
Burma last April. And, of course, China and Russia are already 
there.
    Senator Webb and I wrote a letter on May 4, 2012, to 
Secretary Clinton, which stated that it would be a strategic 
mistake to exclude the U.S. petroleum industry in the 
suspension of U.S. sanctions in Burma. Her response on May 23 
was encouraging, I thought anyway, when she wrote that certain 
sanctions would remain, but there was no mention that the 
American oil and gas firms would be excluded.
    I have heard rumors, however, that there is an intent by 
this administration to ``carve out'' the American petroleum 
industry from doing business in Burma by slow rolling and 
issuing of licenses to this industry by the U.S. Treasury 
Office of Foreign Assets Control.
    I reiterate that this or any other carve-out strategy would 
be a strategic mistake. I believe that U.S. companies, 
including the oil and gas companies, can play a positive role 
in the effort by demonstrating high standards and responsible 
business conduct and transparency, including the respect for 
human rights in Burma.
    And I am sure that maybe you can, during your opening 
statement, could tell me whether or not you agree. And I hope 
so because this is a direct quote from the State Department, 
response to my question for the record from our hearing on 
Burma back on April the 26th. And I could not be more in 
agreement.
    So I thank you again, Mr. Chairman, for holding this 
nomination. I look forward to hearing your opening statement 
here, but as I say, since we are in what I consider to be a 
very significant breakthrough with the highway reauthorization 
bill, I will have to be leaving early. Thank you, Mr. Chairman.
    Senator Webb. Thank you very much, Senator Inhofe.
    Ambassador Mitchell, welcome. Just for the record, 
Ambassador Mitchell currently serves a special representative 
and policy coordinator for Burma with the rank of Ambassador.
    Prior to this appointment, he served as a Principal Deputy 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs. He also worked as a senior fellow at the Center for 
Strategic and International Studies, a Special Assistant in the 
Department of Defense, a senior program officer at the National 
Democratic Institute.
    Ambassador Mitchell has a master's degree from the Fletcher 
School of Law and Diplomacy, and a bachelor's degree from the 
University of Virginia.
    And I understand your wife is here with you today. We would 
like to welcome her.
    Ambassador Mitchell. Yes, my wife is right here.
    Senator Webb. And appreciate both of your dedication to 
public service.
    And, Ambassador, welcome, and the floor is yours.

  STATEMENT OF HON. DEREK J. MITCHELL, OF CONNECTICUT, TO BE 
                AMBASSADOR TO THE UNION OF BURMA

    Ambassador Mitchell. Thank you very much, Mr. Chairman, 
Senator Inhofe, members of the committee. I am honored to 
appear before you today as the President's nominee to serve as 
the U.S. Ambassador to Burma, the first in more than two 
decades.
    I am humbled by the confidence that President Obama and 
Secretary of State Clinton have shown in me with this 
nomination. Mr. Chairman, I know you take a particularly keen 
personal interest in the situation in Burma, as you have 
discussed, and I commend all you have done during your tenure 
to advance the relationship between our two countries.
    Mr. Chairman, it was almost exactly a year ago that I sat 
before you and this committee as the President's nominee to 
serve as the first special representative and policy 
coordinator for Burma. I noted in my testimony then the many 
challenges facing Burma and our bilateral relationship. As you 
said, no one would have thought possible the remarkable 
developments that have occurred since then. Ongoing reform 
efforts have created an opening for increased engagement 
between our two countries, and instill the sense of hope among 
millions inside and outside Burma who have worked and 
sacrificed so much for so long for real change.
    During my time as special representative, I traveled to the 
country many times and was able to have open and candid 
conversations with the government in Naypyitaw and 
representatives from all sectors of society. I was able to 
discuss a full range of perspectives on the complexity and 
diversity of the country, and I thank these interlocutors for 
their hospitality and their candor.
    I have traveled throughout East Asia and Europe to share 
ideas and coordinate policy approaches. This included meetings 
with the many men and women in Thailand who have worked 
tirelessly along the border with Burma for decades to provide 
the humanitarian needs of Burmese migrants and refugees. With 
so much attention focused on developments inside Burma, we 
should not forget the work of these committed individuals.
    I have, of course, spent many hours with Daw Aung San Suu 
Kyi. As we all know, Daw Suu Kyi remains a uniquely iconic 
figure inside and outside Burma. Upon helping bring her country 
to this point, she has now entered the field as an elected 
politician to help guide its next steps toward a secure, 
democratic, just, and prosperous future. If confirmed, I look 
forward to many more opportunities for discussions with her 
about her country and about how the United States can assist 
its progress going forward.
    Perhaps the most important development of the past year, 
again, as you suggested, Mr. Chairman, in fact has been the 
partnership between Daw Suu Kyi and President Thein Sein. 
President Thein Sein has proved to be a remarkable figure. We 
should never forget to recognize his extraordinary vision and 
leadership and the many reformist steps he and his partners in 
government have taken over the past year, steps that have 
clearly reflected the aspirations, indeed sacrifices, of 
millions of brave Burmese over many years.
    At the same time, we have no illusions about the challenges 
that lie ahead. As Secretary Clinton has observed, reform is 
not irreversible, and continued democratic change is not 
inevitable. We remain deeply concerned about the continued 
detention of hundreds of political prisoners and conditions 
placed on those previously released, lack of the rule of law, 
and the constitutional role of the military in the nation's 
affairs.
    Human rights abuses, including military impunity, continue, 
particularly in ethnic minority areas. Recent sectarian 
violence in Rakhine State demonstrates the divisiveness in 
Burma cultivated over many decades, if not centuries, that will 
need to be overcome to realize lasting peace and national 
reconciliation in the country.
    We have been quite consistent and direct in public and 
private about our continuing concerns about the lack of 
transparency in Burma's military relationship with North Korea, 
and specifically that the government must adhere to its 
obligations under relevant U.N. Security Council resolutions 
and its other international nonproliferation obligations. If 
confirmed as Ambassador, I will continue to make this issue of 
highest priority in my conversations with the government and be 
clear that our bilateral relationship can never be fully 
normalized until we are fully satisfied that any illicit ties 
to North Korea have ended once and for all.
    As the Burmese Government has taken steps over the past 
year, so, too, has the United States in an action-for-action 
approach. Each action we have taken in recent months has had as 
its purpose to benefit the Burmese people and strengthen reform 
and reformers within the system. This engagement should 
continue and expand. If confirmed, I will do my part in the 
field to support a principled approach that effectively marries 
our values with our broader national interests.
    Most recently, as you know, Mr. Chairman, Secretary Clinton 
announced a broad easing of restrictions on new investment and 
the exportation of U.S. financial services to Burma. As she 
stated in May, ``We look forward to working with the business 
sector as a new partner in our principled engagement 
approach.'' If confirmed, I will promote U.S. business 
interests in Burma while ensuring companies understand the 
complex environment in which they will be engaging, and the 
important role they can play in promoting American values and 
interests in the country.
    It is clear to me from my discussions inside the country 
that the Burmese people admire U.S. products, standards, and 
principles. Staying true to them promises to serve both our 
public and private interests going forward. And I think that 
would address Senator Inhofe's questions about the carve outs 
and such. She had talked about a general license that hits all 
sectors equally, no carve outs according to sector.
    Mr. Chairman, members of the committee, as the special 
representative and policy coordinator for Burma, I made it a 
priority to provide regular briefings and consultations on 
Capitol Hill. I also urged the Burmese Government to open its 
doors to congressional visitors so they may see the changes on 
the ground for themselves. I believe the administration and 
Congress have formed an effective, bipartisan partnership on 
Burma policy. It is critical to maintain this partnership going 
forward. Should I be confirmed, I will make every effort to 
continue to reach out to interested members and staffs, and 
hope to see you all regularly on our doorstep in Rangoon.
    Let me conclude by taking this opportunity to extend my 
utmost appreciation to my many partners within the executive 
branch with whom I have worked over the past year as special 
representative, including at USAID, Treasury, Commerce, DOD, 
the White House, and, of course, at State.
    In particular, I want to commend the excellent career 
officers, interagency representatives, and locally engaged 
staff members at our Embassy in Rangoon whom I have gotten to 
know during my visits. This team has proved again and again to 
me that we have people of the highest quality in Rangoon and in 
the Department. They have responded superbly to a rapidly 
changing tempo of operations in the field, and have done so 
with professionalism and skill. If confirmed, I will make it a 
priority to ensure they have the tools and the direction 
necessary to continue serving our interests in Burma in an 
exemplary fashion and be proud of the work they do for our 
country every day.
    Thank you for considering my nomination. I will look 
forward to your questions.
    [The prepared statement of Ambassador Mitchell follows:]

               Prepared Statement of Hon. Derek Mitchell

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the U.S. 
Ambassador to Burma, the first in more than two decades. I am humbled 
by the confidence that President Obama and Secretary of State Clinton 
have shown in me with this nomination. Mr. Chairman, I know you take a 
particularly keen personal interest in the situation in Burma, and I 
commend all you have done during your tenure to advance the 
relationship between our two countries.
    It was almost exactly a year ago that I sat before you and this 
committee as the President's nominee to serve as the first Special 
Representative and Policy Coordinator for Burma. I noted in my 
testimony then the many challenges facing Burma and our bilateral 
relationship. No one would have thought possible the remarkable 
developments that have occurred since a year ago. Ongoing reform 
efforts have created an opening for increased engagement between our 
two countries, and instilled a sense of hope among millions inside and 
outside Burma who have worked and sacrificed so much for so long for 
real change.
    During my time as the Special Representative and Policy Coordinator 
for Burma, I traveled to the country many times. The government in 
Naypyitaw provided excellent hospitality and demonstrated a willingness 
to have open and candid discussions with me on each occasion. I also 
want to thank the many other interlocutors--political party officials, 
civil society representatives, ethnic minority and religious leaders, 
former political prisoners, business executives, international 
diplomats and nongovernmental representatives, and many local 
citizens--for opening their doors to me to discuss a full range of 
perspectives on the complexity and diversity of Burma.
    I have also traveled throughout East Asia and Europe to share ideas 
and coordinate policy approaches. This included meetings with the many 
men and women in Thailand who have worked tirelessly along the border 
with Burma for decades to provide for the humanitarian needs of Burmese 
migrants and refugees. With so much attention focused on developments 
inside Burma, we should not forget the work of these committed 
individuals who help those in need. I am confident that these and many 
other committed individuals will join ongoing efforts inside the 
country when conditions are right.
    And of course I have spent many hours with Daw Aung San Suu Kyi. As 
we all know, Daw Suu Kyi remains a uniquely iconic figure inside and 
outside Burma. Upon helping bring her country to this point, she has 
now entered the field as an elected politician to help guide its next 
steps toward a secure, democratic, just, and prosperous future. I look 
forward to many more opportunities for discussions with her about her 
country and about how the United States can assist its progress going 
forward.
    Perhaps the most important development of the past year, however, 
has been the partnership forged between Daw Suu Kyi and President Thein 
Sein. President Thein Sein has proven to be a remarkable figure. We 
should never forget to recognize his extraordinary vision and 
leadership, and for the many reformist steps he and his partners in 
government have taken over the past year. These actions have clearly 
reflected the aspirations, indeed sacrifices, of millions of brave 
Burmese.
    At the same time, we have no illusions about the challenges that 
lie ahead. As Secretary Clinton has observed, reform is not 
irreversible, and continued democratic change is not inevitable. We 
remain deeply concerned about the continued detention of hundreds of 
political prisoners and conditions placed on those previously released. 
The rule of law requires an independent and effective judiciary. The 
constitutional role of the military in the nation's affairs is 
inconsistent with traditional democratic principles of civil-military 
relations.
    Human rights abuses, including military impunity, continue, 
particularly in ethnic minority areas. Although there may be some hope 
for an end to the violence and establishment of serious dialogue on 
fundamental political issues, mutual mistrust between the government 
and ethnic minority groups runs deep and a long road lies ahead. Recent 
sectarian violence in Rakhine State demonstrates the divisiveness in 
Burma cultivated over many decades, if not centuries, that will need to 
be overcome to realize lasting peace and national reconciliation in the 
country.
    We have been quite consistent and direct in public and private 
about our continuing concerns about the lack of transparency in Burma's 
military relationship with North Korea, and specifically that the 
government must adhere to its obligations under relevant United Nations 
Security Council Resolutions and its other international 
nonproliferation obligations. If confirmed as Ambassador, I will 
continue to make this issue of highest priority in my conversations 
with the government, and be clear that our bilateral relationship can 
never be fully normalized until we are fully satisfied that any illicit 
ties to North Korea have ended once and for all.
    As the Burmese Government has taken steps over the past year, so 
too has the United States in an action-for-action approach. Each action 
we have taken in recent months has had as its purpose to benefit the 
Burmese people and strengthen reform and reformers within the system.
    Most recently, Secretary Clinton announced a broad easing of 
restrictions on new investment and the exportation of U.S. financial 
services to Burma. As she stated in May, we look forward to working 
with the business sector as a new partner in our principled engagement 
approach. If confirmed, I will promote U.S. business interests in Burma 
while ensuring companies understand the complex environment in which 
they will be engaging and the important role they can play in promoting 
American values and interests in the country. It is clear to me from my 
discussions inside the country that the Burmese people admire U.S. 
products, standards, and principles; staying true to them promises to 
serve both our public and private interests going forward.
    As the Special Representative and Policy Coordinator for Burma, I 
made it a priority to provide regular briefings and consultations with 
Capitol Hill. I also urged the Burmese Government to open its doors to 
congressional visitors so they may see the changes on the ground for 
themselves. I believe the administration and Congress have formed an 
effective, bipartisan partnership on Burma policy. It is critical to 
maintain this partnership going forward. Should I be confirmed, I will 
make every effort to continue to reach out to interested Members and 
staffs, and hope to see you all regularly on our doorstep in Rangoon.
    Mr. Chairman, members of the committee, let me conclude by taking 
this opportunity to extend my utmost appreciation to my many partners 
within the executive branch with whom I have worked over the past year 
as Special Representative--including at USAID, Treasury, Commerce, DOD, 
the White House, and State. In particular, I want to commend the 
excellent career officers, interagency representatives, and locally 
employed staff members of our Embassy in Rangoon whom I have gotten to 
know during my visits. This team has proved again and again to me that 
we have people of the highest quality in Rangoon. They have responded 
superbly to a rapidly changing tempo of operations in the field, and 
have done so with professionalism and skill. If confirmed, I will make 
it my priority to ensure they have the tools and direction necessary to 
continue serving our interests in Burma in an exemplary fashion and be 
proud of the work they do for our country every day.

    Senator Webb. Thank you very much, Ambassador Mitchell. And 
since I know Senator Inhofe has to leave fairly quickly, let me 
begin with a question that I know that Senator Inhofe also will 
want to address. And then I will get into the more general 
policy issues that I would like to hear from you about.
    In a recent speech before the ILO, Aung San Suu Kyi stated, 
and I am going to quote, that ``The Myanmar Government needs to 
apply internationally recognized standards, such as the `IMF 
Code of Good Practices on Fiscal Transparency.' Other countries 
could help by not allowing their companies to partner with the 
MOGE, the state-owned oil company, unless it signed up to such 
codes.''
    This raises a number of questions, first, about 
standardization of policy from the United States, and, second, 
about officials of a foreign government basically telling us 
where we should allow our economic interests to apply once we 
lift sanctions.
    It is my understanding that the United States does not 
require countries to endorse this code or other standards as a 
prerequisite for U.S. investment. In fact, I asked my staff, 
you know, whether there were other countries that did not 
adhere to this code, and among them are China, New Zealand, 
Singapore, South Africa, and a number of other countries. So it 
does not seem like this is a standard United States policy as a 
prerequisite.
    And then, second, there is a concern about our being told 
from the outside where we should allow our companies to invest, 
and that goes directly to Senator Inhofe's question.
    So could you clarify this matter from your understanding of 
her statement and what our policy should be?
    Ambassador Mitchell. Thank you, Mr. Chairman. The issue of 
MOGE is one that we are looking very carefully at. We have 
concerns about this enterprise and its transparency and the 
corruption that is associated with it through reports that we 
have. And, of course, there is corruption and lack of 
transparency throughout the economy, the current economy in 
Burma. There are particularly concerns here with connections to 
the military and such.
    We obviously are going to be careful, and we should be 
careful, as we stated, that however we engage, that we do so 
with the highest standards of transparency, that we are 
contributing to reform inside the country, that we are 
contributing to the highest values, and that we model the type 
of behavior that we like to see broadly by U.S. companies and 
by others.
    This particular issue, when it comes to the general 
licenses that are being debated and discussed, obviously it is 
on the agenda and being looked at. There are no decisions made 
on this particular question. Clearly, we want to see others 
raising their level to the standards that not just the American 
companies so that we are on a level playing field. And as we 
looked at the general license, we understand the balance 
between competitiveness and the standards that we want to set.
    So this is an ongoing question. There is nothing I can say 
here definitively on this because it is an ongoing internal 
discussion--interagency discussion that applies to the general 
license that will come out.
    But, as I said before, we are not looking to exclude any 
sectors from this, but we are trying to make the balance very 
carefully.
    Senator Webb. Would you agree that standards that are 
applied should be the same standards that the United States 
applies in other countries?
    Ambassador Mitchell. Yes, absolutely. And I know under 
Dodd-Frank and under Cardin-Lugar as well, there are certain 
standards there that Dodd and Lugar is law, and we want to act 
consistent with that, and do not want to--we think that we are 
looking to do is complementary with those types of standards.
    We are encouraged, I should also say--I mean, I want to add 
here that the Burmese Government has also taken steps itself in 
terms of transparency and talked about signing up for the EITI, 
the Extractive Industry Transparency Initiative. There is going 
to be a delegation coming in at the end of the July, and there 
have been public statements saying they are interested in more 
transparency in the extractive industries, including oil and 
gas.
    It is very encouraging. I think it is our role to encourage 
that, to continue to educate. And I see things moving in the 
right direction. And Aung San Suu Kyi could certainly play a 
role inside the country in doing that so that, as you say, 
everyone has a level playing field.
    But I would never dismiss what she says from our thinking. 
I mean, she is obviously a unique figure representing the 
people in the country, and she represents the values that we 
care about. So we will make our own decisions, but we take her 
thoughts on this as an ongoing conversation that we will have 
with her.
    Senator Webb. Thank you. I would--let me just summarize 
my--what I think is my agreement with you here. The United 
States sets the standards of transparency of our own business 
environment. You know, I took American companies into Vietnam 
for 2\1/2\ years in the mid-1990s. We had the laws that we have 
to obey. And it is a little delicate to say that an official 
from any foreign government should be telling us what sectors 
that we should invest in and not invest in.
    And, Senator Inhofe, I know you have a question here.
    Senator Inhofe. I appreciate that very much. Let me--first 
of all, Senator Webb and I signed a letter back on May 4. I 
would like to have that part of the record.
    Senator Webb. Without objection, it will be entered into 
the record at this point.
    [The letter referred to follows:]

                                               U.S. Senate,
                                       Washington, DC, May 4, 2012.
Hon. Hillary Clinton,
Secretary of State, U.S. Department of State,
Washington, DC.
    Dear Secretary Clinton: We write you to express our strong belief 
that it is imperative for the United States to act in a clear, 
proactive manner to facilitate reforms in Burma through the lifting of 
economic sanctions. This recommendation is based on years of 
interaction with the countries of East Asia, including visits to the 
region and to Burma and meetings with its top leadership, as well as 
the testimony received at the East Asian and Pacific Affairs 
Subcommittee hearing of April 26, 2012, regarding ``U.S. Policy on 
Burma.''
    We are mindful that the European Union (EU) announced on April 23, 
2012, that it is suspending all sanctions against Burma, except for an 
arms embargo. Other countries that share our political philosophy, 
including Japan, have enacted similar measures. The countries of the 
Association of Southeast Asian Nations (ASEAN) have embraced recent 
political reforms in the country and are unanimously in favor of 
immediate changes in economic policies. In short, the United States 
alone is left holding the most restrictive sanctions on Burma, banning 
visas, imports, exports, financial services, foreign assistance, and 
assistance by international financial institutions.
    In response to questions raised at the hearing last week, Office of 
Foreign Assets Control Director Adam Szubin testified that the main 
categories of sanctions imposed by statute or executive order can be 
lifted by the President via licenses, rescission of executive orders, 
or issuance of waivers on national security. Further, he noted that 
executive decisions to remove sanctions can still target and blacklist 
the assets or activities of specific ``bad actors'' from the previous 
military junta so that they will not benefit from economic relations 
with the United States. These decisions do not require legislation; 
importantly, they can also be reversed, should the situation in Burma 
deteriorate.
    We understand that as part of its review of sanctions policy, the 
Administration is considering lifting sanctions sector by sector, with 
the possibility that sanctions may be retained on individual industries 
such as petroleum. We believe that this would be a strategic mistake. 
The United States should not be picking winners and losers in our 
economic engagement abroad, but rather should be encouraging the 
business community as a whole to take on the risk of investing in human 
development in Burma. Their involvement can foster an open, transparent 
business environment that supports the rule of law and a level playing 
field for foreign investment.
    Progress in Burma toward the goals we all share--greater freedom 
and prosperity for the people of Burma--is ultimately tied to the 
sanctions that are in place. Unlike some other countries in the region, 
most notably China and Vietnam, Burma's new leadership has moved 
forward with political change ahead of economic change. It is important 
to note that Daw Aung San Suu Kyi herself, speaking as an elected 
representative of the government of Burma, publicly announced her 
support for the EU's decision to suspend sanctions in response to 
democratic reforms in the country. The process of reform in Burma is 
still far from complete, but the positive steps that have been taken 
should be met with a positive response from our own government.
    It is also important to note that the lifting of sanctions on Burma 
does not equal the establishment of full trading relations. The U.S. 
trade embargo with China was lifted 41 years ago, but permanent normal 
trade relations were granted only 12 years ago and continue despite 
ongoing concerns about the detention of political prisoners, repression 
of religious activity and lack of representative government. Burma has 
a long way to go, but its leaders--notably President Thein Sein and 
Aung San Suu Kyi--should be acknowledged for their concrete efforts to 
take the country in a different direction.
    At this critical moment, it is imperative that our policy toward 
Burma be forward thinking, providing incentives for further reforms and 
building the capacity of reformers in the government to push for 
additional change. We urge the Administration to take action under its 
own authority, and seize this opportunity to support the Burmese people 
in their efforts to form an open, democratic government that respects 
and protects the rights of all.
            Sincerely,
                                   Jim Webb,
                                           United States Senator.
                                   James M. Inhofe,
                                           United States Senator.

    Senator Inhofe. All right. We will have a chance to talk 
about this tomorrow, but I want to get three questions just in 
the record here and get your responses. It will be very brief.
    You talked a little bit about the state-owned oil company 
there, and I have heard some things concerning their lack of 
transparency. And I would only say, do you not think that our 
involvement, the United States, in oil and gas there could add 
transparency to the system?
    Ambassador Mitchell. I would say, Senator, yes. I think our 

engagement with them, again, through EITI and other methods can 
help model the type of behavior and help with this.
    Senator Inhofe. I appreciate that. Now there is no one who 
has more of an intimate knowledge of Burma than you do and the 
people. And I would only say that if the United States 
Government decided not to allow our oil and gas companies to 
operate there, would those resources go undeveloped, or would 
they--the companies, some other countries take up that slack?
    Ambassador Mitchell. Well, I think it has been demonstrated 
from the past the countries will likely take up the slack. But 
there may be some areas where the United States is uniquely 
able to exploit. But clearly there are other countries that are 
ready to pick up the slack.
    Senator Inhofe. OK, I appreciate that. And last, do you 
agree that the U.S. oil and gas companies are more transparent 
and generally operate in a more free market manner than 
Chinese, Russian, and many other nationally owned oil 
companies?
    Ambassador Mitchell. Well, Senator, I am not an expert on 
that. I believe American companies overall exhibit higher 
standards than other countries.
    Senator Inhofe. I think that is right, and that is good 
enough.
    Senator Webb. Thank you. Thank you, Senator Inhofe. And let 
me reclaim my time and ask a couple of questions before we go 
to Senator Rubio.
    As you recall, in my opening statement I mentioned the 
comparison with political and economic situations in China and 
Vietnam. And, again, not as a suggestion that we impose 
sanctions on those two countries, but to try to put what we are 
doing here into some sort of consistent standard.
    I actually held a hearing a couple of years ago on the--
what I was calling the situational ethics in American foreign 
policy where we tend to focus on different countries in 
different ways, depending on power relationships and economic 
relationships and where we really need to have a common 
standard.
    And I think we have something in the recent developments in 
Burma that is fairly unique, and that is that a governmental 
system has made a political decision to liberalize, to take a 
great risk before the economic systems are liberalized, before 
sanctions are raised. And as I mentioned, in China we lifted 
sanctions 41 years ago. We have proceeded under the hope and 
the assumption that liberalized economy might encourage a 
liberalized political system. I think the results in that so 
far are pretty mixed.
    As I mentioned to you, Nobel Prize winner Liu Xiaobo, if I 
am saying his name right, is still incarcerated while, you 
know, we have had a positive journey with Aung San Suu Kyi. 
China has no free elections. Freedom House report for 2012 
notes that China is trending down in terms of its political 
freedoms and civil liberties.
    If you look at a listing of the 40 countries in East Asia 
and the Pacific, China is above only North Korea and actually 
tied with Burma in terms of media openness. And yet we are not 
suggesting, and I am not suggesting, that we should alter our 
economic policies. The same principle applies with the comments 
that I made about Vietnam.
    So what are we doing here that would be inconsistent with 
what we are doing in China, places like China and Vietnam, and 
what is the rationale?
    Ambassador Mitchell. Well, it is hard for me in this 
position to comment on broader policy with Asia. It is not my 
role, I suppose. But I think you take each context 
individually. I think the Burma context has been one where they 
had a closed system for a long time. They had a unique set of 
human rights challenges over a consistent period of time, and 
there are individuals like Aung San Suu Kyi there who have 
served as a beacon of change, and have represented a certain 
type of leadership inside the country.
    And I think what we tried to do in Burma, we will have a 
debate on what succeeded and what did not. But I think we tried 
to have that system changed through pressure, and then over 
time through more engagement. I think the combination of the 
two has worked.
    And I think, as I suggested in my testimony, and I think 
you also suggested, this is not irreversible, that we are only 
a year into this or several--you know, about a year into this. 
And we need to support the reformers, but also I think be very 
careful about rushing forward too fast. But at the same time, I 
think we are doing remarkable things and changing remarkably 
quickly ourselves and our policy.
    So I think the path that we are on has proven to have been 
constructive, have served our interests, served our goals, 
served our values. And I do not see us moving too fast or too 
slow. I think it is just right, and I think we can--this is an 
ongoing issue. And I think if the Burmese continue, time will 
tell. If Thein Sein and his partners continue on this path and 
show more progress, then we will be looking at the 
infrastructure that is there of sanctions, regulations, and 
such over time.
    Senator Webb. Well, let me just respond with the personal 
view that I do not think that there has been any greater 
challenge in this area in my adult life than Vietnam. Burma has 
a situation where when we examine the inequities that occurred, 
we have the ability to personalize them because of Aung San Suu 
Kyi's unique situation. But look at the aftermath of the 
Vietnam war, with more than a million Vietnamese jumping into 
the sea, including my wife's family, by the way. A Stalinist 
state was clearly taking over that was subsidized by the Soviet 
Union. A tremendous division inside our own country that had to 
be overcome before we began to repair relations.
    I was one of those--I think as you and I have discussed 
before--I was one of those who was very opposed to lifting the 
trade embargo against Vietnam until the mid-1990s after Japan 
lifted their trade embargo. And just kind of similar to what 
Senator Inhofe just said, after Japan lifted their trade 
embargo toward Vietnam, the sensibility of keeping one just 
lost its place. And the idea was for us to move in in a more 
proactive way, and I think it has had enormously positive 
results.
    And there is a moment in time here, and I totally agree 
with you that we are on unchartered ground, but we have seen 
clear gestures from President Thein Sein and the people he is 
trying to work with, not just simply in terms of opening up 
trade relations, but in attempting to learn more about 
democratic systems from which they were basically firewalled 
for 20 years.
    So I hope we are going to approach this issue with a sense 
of being proactive, of incentivizing the positive conduct so 
that we do not lose this moment here and then have people 
sitting around and saying, well, see, we said this was not 
real. I mean, this very well could be a great change, and to 
the benefit of our country, their country, and also the region.
    And let me ask you your thoughts in terms of the motivation 
of the present government. Do you see the main momentum in this 
present government as pro-democracy, pro-change?
    Ambassador Mitchell. Mr. Chairman, I think you have to pick 
and choose within the government. I think there is--the people 
I meet with, many of them seem quite committed to real change. 
The Lower House Speaker of the Parliament, Thura Shwe Mann, has 
been remarkable in his desire, for instance, to have exchanges 
with the Congress here. And he has gone around to India, and 
Britain, and, I think, Germany, and sought to learn about 
legislative processes and how to build an institution--a 
parliamentary institution. He has empowered that institution 
remarkably, more than we ever would have expected a year ago.
    I think you have, again, the President himself and some 
other partners and certain ministries that are very much 
committed to a very progressive agenda. Where it leads we do 
not know. We just do not know. We do not know how long this 
leadership will last. We do not know. As you say, expectations 
are high. We do not know if they can fulfill their remarkable 
challenge or fulfill the goals given the remarkable challenges 
they face.
    I completely agree with you, and this administration 
completely agrees with you, that this is a window of 
opportunity. And Aung San Suu Kyi, people in the opposition, 
former political prisoners have been released. They all say we 
must go in and support this government and Thein Sein to try to 
keep reform going. There is no question about that. I think we 
have taken those steps to empower the reformers, to help the 
people of Burma to try to institutionalize the change as best 
as possible.
    But as long as the constitution is as it is, which I 
mentioned in my opening testimony, the military has a unique 
role to play, which is not consistent with democratic values. 
The civil-military relationship is not consistent with what you 
want to see in a democracy. Until those fundamentals change, 
you do have the question of whether this can revert or whether 
the military or others associated with it can reverse what is 
going on.
    So we have to be careful, but I do not think there is any 
question through or rhetoric publicly or through our activities 
privately and otherwise that we are on the side of reform. We 
will partner with them. We will work with them on this, and I 
should say work with the international community, which is 
extremely important. It has a tremendous interest in helping 
Burma. We need to coordinate effectively so that we are doing 
it in the most productive way possible. And that has been my 
job, and that will continue to be my job if confirmed on the 
ground.
    Senator Webb. Would you say that the opposition parties in 
Burma are legitimately now a part of the government?
    Ambassador Mitchell. I do not know what legitimate would 
mean in this case. I mean, the elections in 2010 were not 
credible. There are political parties. I mean, they allowed the 
National League for Democracy to register, which is obviously a 
very positive move. There are some parties in some ethnic areas 
that were not able to take part in even the most recent 
elections. In the most recent elections, just 7 percent of the 
legislature were up for grabs.
    So there is still much more that needs to be done on the 
democratic development side and the civil society side, and, 
again, to really embed this. The rule of law, the balance of 
power, the activity of civil society, all this needs to be 
ingrained. The right things are being done, the right words. 
But time will tell whether it really takes hold or not.
    Senator Webb. Would you say there are legitimate opposition 
parties in China?
    Ambassador Mitchell. In China? I think I can say pretty 
honestly, probably not, no. There are not.
    Senator Webb. Well, we have something to build on, which is 
really the point I am trying to make. And I hope we do not lose 
this moment.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman. Ambassador 
Mitchell, welcome and thank you for your service to our 
country. I want to build on the topic you touched upon.
    The length between economic openings and political openings 
are two separate things sometimes. And I think it is important 
to draw that distinction because I think where we can make the 
biggest influence, not just in Burma, but in all countries 
around the world, is toward this direction of a political 
opening. Ultimately it is the right of people to choose any 
economic model they want. But it is the political opportunities 
that are most important.
    And I think is a unique opportunity for our country to use 
our sanctions as a leverage point, for lack of a better term, 
to help bring about or continue to encourage political 
openings. And so I wanted to walk through with you some of the 
challenges that we face in that regard with this specific case.
    The first is, I was struck by a statement that President 
Sein made back in 2011 where he said there were no political 
prisoners in Burma, that all prisoners have broken the law. I 
do not think that would be our position.
    What is the best estimate that we have in terms of the 
existence of political prisoners? Has that thought process 
changed? Where do we stand from his point of view and from our 
point of view on the existence of political prisoners and their 
prospects?
    Ambassador Mitchell. Thank you, Senator. The President last 
year did say the traditional view has been the traditional view 
of the government publicly. And he stayed consistent with that 
publicly. But to be honest, in private discussions with the 
government, they acknowledge, however they call them--prisoners 
of conscience--there are various words or phrases you can use.
    We were talking in the same terms, and we saw that when we 
engaged with them on lists, the types of people we were talking 
about that were in because of political moves and such. They 
took it very seriously. They continue--from what I understand, 
even today they take it very seriously. They have released more 
than 500, up to 600 back last May, and then last October, and 
then this past January, including the most--the leaders of the 
movement.
    Senator Rubio. So how many are still in?
    Ambassador Mitchell. So we think there are still hundreds. 
There are different lists out there. Our list has several 
hundred in it, and we have been sharing this with the 
government. There is an exile group along the Thai border who 
has several hundred. I think theirs is in the 400 range. Aung 
San Suu Kyi has her list. And now we are all bringing this to 
the government.
    Senator Rubio. When you say ``released,'' are they all back 
in the country? Were they exiled? What is the status of----
    Ambassador Mitchell. They are back in the country. They 
were not released unconditionally; they had for the most part, 
sign. But they are not released unconditionally in the sense 
that they were--there is still a section 403, I think it is. 
But they are actually acting as if they are normal citizens in 
the country. They are not restrained from--in fact, some of 
them ran for office last April. They are forming civil society.
    Senator Rubio. What are the conditions?
    Ambassador Mitchell. I am sorry?
    Senator Rubio. What are the conditions of their release?
    Ambassador Mitchell. Well, they just said--it was not 
unconditional in the sense of--if they have--if they commit 
another crime of some kind, they could be put back in prison 
and their sentence is resumed. That is on paper. We are 
watching that very closely. We are making it clear to them we 
want to see this unconditional. It is still a Damocles sword 
hanging over their head that is unacceptable that I think is a 
cloud that they feel psychologically. But in practice, we have 
been encouraged that they have not been constrained.
    The one area I would say that is different, though, they 
have not been able to travel as freely as I think we would like 
to see.
    Senator Rubio. Within the country.
    Ambassador Mitchell. Well, no, I think outside the country.
    Senator Rubio. Oh, outside.
    Ambassador Mitchell. Some have tried to, and there have 
been difficulties getting passports here and there. But we have 
been working on this issue. It could be as much an issue of 
internal bureaucracy because they are not a very efficient 
government yet. But we will work on these issues. It is not 
over and done with just because they are released.
    Senator Rubio. The second issue, which is related to all of 
this, is just this terrible history of trafficking in persons 
that has existed there. Burma has historically been Tier 3 
ranking. I think they have been upgraded to a Tier 2. I know 
the President last year--our President--suspended, if I am not 
mistaken--I had it here in my notes--suspended or waived 
Section 110 of the Trafficking Victims Protection Act with 
respect to Burma, meaning certain sanctions would not be 
applied.
    I am curious to know two things, because it sounds from 
what I have read that what they are doing on trafficking is all 
aspirational. What specifically have they done? And it is not 
just trafficking. They have this horrible problem with child 
soldiers being conscripted into the armed services. I want to 
talk about the armed services in a moment.
    But what exactly have they done that has been so promising 
to move them from a Tier 3 to a Tier 2 and lead to the waiving 
of these Trafficking Victims Protection Act sanctions. What 
have they done? What exactly has happened with regards to child 
soldiers and trafficking and persons that justify this?
    Ambassador Mitchell. There is no question there continues 
to be severe challenges in the country on forced labor, and 
child soldiers, and the rest. And the Tier 2 Watch List does 
not mean that they are given a blank slate on this. What it 
says is they are moving in the right direction.
    I was with Ambassador Cdebaca, who is our Ambassador 
responsible for trafficking in persons. I was with him in Burma 
in January. And he went in with very low expectations of what 
he could get from the Burmese, and it was remarkable actually. 
He talked about this when he released the most recent report, 
how they had done a lot internally. They had books and tabs of 
what they were doing on this issue, particularly on trafficking 
outside the country, of trafficking in Thailand, trafficking 
into China. But they also were looking at some issues of forced 
labor internally.
    Since then, and this is what Ambassador Cdebaca had pressed 
very heavily. There was a law in place from 1907 when the 
British were there--it is colonial. It is the Village and Towns 
Act that gave the authority to the government to force labor, 
to requisition labor for official purposes. And what Ambassador 
Cdebaca said, you need to get rid of this law. This is official 
sanction for doing this. You need to get rid of the official 
sanction. And they did that. They did that in March. So it was 
actually a fairly substantial move where they took action to 
say it is not official policy. We are going to work on this.
    And what has been very encouraging, I can tell you 
privately, that they were very happy about being moved up to 
the Tier 2 Watch List. They felt that was at least recognition 
that they were trying to deal with these issues. And they said 
next year we want to be off the list. How can we get off the 
list? So this is not done.
    Senator Rubio. What was our answer? What did we tell them 
when they said that?
    Ambassador Mitchell. Oh, we said we will work with you on 
the types of things we need to see, including on forced labor, 
including on child soldiers, including accountability for what 
is going on. So we were going to--we will say you want to get 
off the list.
    Senator Rubio. My time is running out. I had one more 
question, so I do not want to belabor this point. But I am very 
interested to know specifics of what they are doing, what they 
have done, and what we expect them to continue to do on this 
issue, because--and I am not accusing them of this. I am, quite 
frankly, not as aware, and that is why I am asking. But there 
are cosmetic things that people do to show, and then there are 
real things that they do on trafficking.
    My last concern, and I think it is a broader issue, is the 
military continues to be unaccountable to the civilian 
leadership. It seems to me from my reading--I have never 
visited there--that the military in particular has and many 
officers in the military have benefited greatly from the crony 
nature of the economy.
    Here is my concern, how big of an impediment in your 
observation is it to have this continued existence of this very 
powerful military not accountable to civilian leadership still 
be able to step in at any moment and stop this progress? And 
what are your general thoughts on where that is headed, and how 
much willingness there is from the civilian areas in government 
to deal with it.
    Ambassador Mitchell. Well, as I said, it is imbedded in the 
constitution. As long as that is imbedded in the constitution, 
it raises questions about how far they are going to go for 
democratic reform. And they have said repeatedly privately and 
publicly we are committed to democracy and democratic change. 
But as long, as you suggest, that the military remains able to 
act with impunity and has a unique position in the affairs of 
the nation that is not democratic, then that raises questions. 
And I think that has been raised repeatedly as a concern, and 
we will continue to focus on that.
    Having said that, I think we need to bring the military in 
and continue to talk to them about how they see themselves 
playing in this road to reform.
    The final thing I will say on trafficking in persons, we 
can get Ambassador Cdebaca to come up and talk to you about his 
observations specifically on Burma, what he sees and what he is 
not seeing. I do not mean to whitewash. There are obviously a 
lot of concerns that remain, but it is just that they are 
making some progress, and we just took them out of a Tier 3 
kind of closet and put them in a Tier 2 watch list so we can 
work more closely with them.
    Senator Webb. Senator Rubio, before we leave you, or before 
you leave us, I would like to add on to what you just said 
about this TIP list.
    We have been working on this from our staff for 4 years 
now. And my strong view, and we have communicated to Secretary 
Clinton on more than one occasion, is that the entire process 
for developing these TIP lists is fundamentally flawed. What 
they do in their evaluations is they rank a country against 
itself year by year rather than compared to an international 
standard. And the benchmark that they use most frequently is 
the number of legal actions and the number of legal procedures 
that have been put into place in order to address the issue.
    And you have these unexplainable disparities country by 
country where you have advanced governmental systems, like 
Singapore and Japan or Tier 2 Watch Lists, and then last year 
we had Nigeria, which was Tier 1, because in 1 year they had 
increased the number of legal actions rather than, you know, 
the actual state of these trafficking issues inside their 
country.
    And we got literally a blast from the foreign ministry of 
Singapore about this when they were downgraded talking about 
how the United States had the audacity to give itself a Tier 1 
with all of the trafficking in persons that goes on here with 
respect to immigration policies and these sorts of things.
    So I would welcome the opportunity to have a discussion and 
show you what we have done on this in terms of remedial 
legislation. I think it is really--countries around the world 
do not understand the numbers that are coming out of it.
    Ambassador, Senator Rubio mentioned another issue that I 
would like to get your clarifications on, and that is the 
numbers of prisoners and the release process, because from what 
we have been hearing is this present government has been 
attempting to address these issues name by name. In other 
words, if they are given specific names, that they are doing 
for the most part a good job of trying to separate political 
prisoners from others who might have committed recognizable 
criminal offenses.
    And, in fact, yesterday I was speaking with my friend and 
yours, Thant Myint, who is just back from a visit in Bangkok. 
And he was saying to me--back in Bangkok from a visit inside 
Burma. And he was saying to me that this is a priority over the 
next 2 months for their government to try to review the lists 
as they are being furnished in an attempt to clear the slate. 
Is that your impression of what is going on?
    Ambassador Mitchell. I have heard the same, and we are 
going to take advantage of that window to put our list forward 
and encourage them to take that step. I think it will be a very 
positive step.
    And I do think there are people in the government quite 
serious about it. Whether they call them political prisoners or 
common criminals, we do not care. We want these people out 
because they should not be incarcerated.
    Senator Webb. You can legitimately in any country have 
someone who has committed acts that are not political acts and 
still be a political person who is incarcerated.
    Ambassador Mitchell. That is right. There are different 
definitions that people have, but I think we will stand by our 
definition of what we consider a political prisoner and seek to 
get them released unconditionally.
    Senator Webb. All right. I wish you the best. I am very 
grateful that we are going to have you, barring some 
unfortunate incident that I do not think is going to occur over 
the next 24 hours, I think we are going to be very grateful to 
have you serving as our Ambassador in this very unique and 
historic time.
    It is our intention to try to move this nomination before 
the end of the week. For that reason, I am asking any members 
of the subcommittee who wish to get you questions for the 
record to do so by close of business today, and appreciate your 
rapid turnaround so that we might request that your nomination 
be moved before the end of the week.
    Also we have statements from the Chamber of Commerce and 
the U.S. ASEAN Business Council that will be entered into the 
record at this time.
    And, Ambassador, we again appreciate your willingness to 
continue in public service.
    Ambassador Mitchell. Thank you.
    Senator Webb. This hearing is closed.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Hon. Derek Mitchell to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What role, if any, can the United States play in Burma's 
national reconciliation? In the wake of ongoing change within Burma, 
please describe the strategy being implemented by the United States to 
communicate with each of the ethnic groups and their respective 
militias, and/or encourage such an effort by the United Nations.

    Answer. Burma's national reconciliation, which will address key 
political, economic, and cultural issues among the central government 
and ethnic groups, must be driven by the Burmese people themselves to 
be successful in the long term. Secretary Clinton, myself, and other 
U.S. Government officials have met with ethnic groups and their 
representatives in Burma, throughout the region, and in the United 
States. Our embassies in the region maintain regular contact with U.N. 
agencies, international NGOS, and ethnic groups along Burma's borders 
and inside the country to gauge their concerns and seek current 
information on the ongoing political process and cease-fire 
negotiations.
    We also meet with Burmese Government officials and consistently 
convey at the highest levels that, while we understand the sensitivity 
of the national reconciliation questions, the United States stands 
ready to assist in effective and appropriate ways to establish a 
durable solution for peace. We also strongly encourage the Government 
of Burma to work cooperatively with ethnic groups to find peaceful, 
lasting solutions to their conflicts and, in the meantime, to negotiate 
cease-fire agreements by which all sides will abide.
    Additionally, in light of ongoing conflict and tensions in ethnic 
minority areas, including Kachin State and Rakhine State, we urge the 
government to allow unfettered humanitarian access to Internally 
Displaced Persons (IDPs). We regularly contact U.N. offices and local 
and international NGOs operating in Burma to provide assistance to 
those most in need. In March 2012, we provided $1.3m to UNHCR to assist 
Kachin IDPs in the areas of protection, nonfood items, and shelter/camp 
management. We also collaborate closely with our international partners 
and the donor community to work with the Burmese Government and ethnic 
groups to encourage and strengthen the cease-fire negotiations and 
political dialogue.

    Question. Have United States officials raised concern with North 
Korea regarding the country's military and technological exports to 
Burma, and collaboration with the Burmese military? Are submarines 
among the exports from North Korea to Burma?

    Answer. In our broader bilateral engagement with the North Koreans 
and with regional partners, we have consistently raised our concerns on 
proliferation activities. We also consistently raise with the Burmese 
Government at the highest levels our concerns over military ties with 
North Korea, and stressed the importance of full and transparent 
implementation of UNSCRs 1718 and 1874 which prohibit all purchases of 
military equipment and weapons from North Korea. We take all reports of 
military trade between the two countries very seriously. We would be 
happy to offer you a classified briefing to fully address any questions 
regarding military ties between Burma and North Korea.

    Question. Have United States officials raised concerns with China 
regarding North Korea's military and technological exports to Burma, 
and collaboration with the Burmese military? Have United States 
officials raised specific concerns to China regarding reports of 
transshipment of military-defense cargo to Burma from North Korea via 
China?

    Answer. We regularly, and will continue to, address a broad range 
of proliferation issues, to include links to Burma, with our partners 
in the region, including China.

    Question. Please provide a list of political prisoners (or 
combination of lists of prisoners), which the United States uses as a 
point of reference in discussions with the Government of Burma.

    Answer. We have attached a current list of political prisoners. We 
consulted with key political parties and civil society organizations in 
Burma, including members who are former political prisoners and will 
continue to have ongoing conversations to ensure we have the most 
accurate and up-to-date information.

[Editor's note.--The list of political prisoners mentioned 
above was too voluminous to include in the printed hearing 
therefore it will be maintained in the permanent record of the 
committee.]

    Question. When does the United States anticipate that IAEA 
officials and inspectors will travel to Burma?

    Answer. We have regularly urged Burma to improve its cooperation 
with the IAEA, particularly in support of concluding an Additional 
Protocol (AP). Universalization of the AP was an important aspect of 
the 2010 NPT Review Conference Action Plan, which was adopted by 
consensus and with Burma's support. In addition, the same commitment 
was made by the 10 ASEAN States at 2011 U.S.-ASEAN's Leaders Summit. 
While the Government of Burma has indicated a willingness to consider 
an AP, we have no indication that it has initiated the necessary 
consultations with the IAEA.

    Question. How do you envision American institutions of higher 
learning contributing to the overall reform process within Burma?

    Answer. American institutions of higher learning, as well as 
private foundations and other nongovernment entities, can effectively 
contribute to the overall process of reform in several ways. Many such 
institutions are already contributing. One way is to establish faculty 
exchanges to send American professors to Burma and bring Burmese 
professors to the United States in order to modernize and reinvigorate 
the Burmese system of higher learning. Another way is to promote 
leadership and management training for Burmese diplomats and government 
officials to develop their capacity to lead both in Burma and at the 
international level. Additionally, hospital to hospital exchanges or 
collaborations help ensure the availability of high-quality medical 
treatment for the people of Burma.
    The State Department has been encouraging American institutions to 
make their own fact-finding trips to Burma to assess opportunities to 
assist on higher learning activities. Many U.S. educational 
institutions are considering establishing campuses in Burma or 
partnering with Burmese educational institutions. We will work, along 
with our Embassy in Rangoon, to facilitate their efforts. We encourage 
these institutions to take into serious consideration the views of 
their Burmese counterparts who, for example, have identified a great 
demand for English Language Teaching.

    Question. What are the benchmarks that when achieved, the United 
States will favor international financial institutions providing 
technical and financial assistance to the Government of Burma?

    Answer. The administration has carefully calibrated its approach on 
international financial institutions (IFIs) under the ``action for 
action'' framework articulated by Secretary Clinton to encourage 
continued progress on economic and political reforms in Burma. The 
Secretary of State waived the portion of the Trafficking in Persons 
(TIP) sanctions that applied to IFI assistance, which remains operable 
until September 30, 2012. The TIP waiver gave U.S. Executive Directors 
(USEDs) at the IFIs limited flexibility to support those assessment 
missions and limited technical assistance to Burma that did not require 
a Board vote. Burma moved up this year in its TIP Ranking from Tier 3 
to Tier 2 Watch List and will not be subject to TIP sanctions in 2013.
    However, USEDs are currently directed to vote ``no'' on IFI 
financial assistance to Burma, based on existing legislation, including 
several Burma-specific laws (section 570 of the Burma Freedom and 
Democracy Act and section 7044 (b) of the FY12 Foreign Operations 
Appropriations Act) . The FY12 Appropriations Act contains no criteria 
for Burma to meet, nor does it provide waiver authority of any kind for 
these laws.
    We assess that the critical priorities for IFI engagement with 
Burma at this time include assessment, technical assistance, and 
capacity-building, but that conditions are not yet appropriate for IFI 
lending to Burma. IFI engagement in Burma, which Aung San Suu Kyi 
supports, can be a valuable tool of United States foreign policy, 
particularly in encouraging economic reform in Burma
    Other major shareholders are already beginning to discuss the 
preparation of multilateral development bank (MDB) country assistance 
strategies, and options for the clearance of Burma's arrears to the 
MDBs and to certain bilateral creditors. Although the United States 
will vote ``no'' on any IFI operations that require a Board vote, the 
United States cannot unilaterally prevent the IFIs from engaging with 
Burma, and a strong international consensus is emerging in favor of 
deeper IFI engagement to cement the positive direction of economic 
reforms undertaken by President Thein Sein.
    The administration is not seeking congressional action on directed 
vote mandates at this juncture, but it is possible to envisage a future 
need for the United States to effectively guide IFI engagement in Burma 
in a manner that meets our shared objectives through the flexible 
exercise of its voting power.

    Question. What evidence exists that Burma's Commander in Chief, 
Gen. Min Aung Hlaing and his senior officers support political reform 
in Burma and are willing, at some future time, to accept civilian 
control over the military and relinquish the military's privileged 
status as provided for in Burma's constitution?

    Answer. During my time as Special Representative and Policy 
Coordinator, I met with Commander in Chief Min Aung Hlaing, Defense 
Minister Hla Min, and other senior military officials. In those 
discussions, these officials expressed support for the political reform 
process initiated by President Thein Sein. Min Aung Hlaing stressed his 
intention to make the military a responsible, respected, and 
professional force, and stated that the armed forces no longer wanted 
responsibility for governing the country. While the internal dynamics 
and debates within the military are relatively opaque, and we have 
ongoing concerns about the authority granted to the military under 
Burma's constitution, to date, the military has not intervened or taken 
any other overt action to derail the political and social 
liberalization that has taken place over the past year.
    There are no guarantees, however, that the military in the future 
will remain supportive of continued political reform, accept de facto 
control of its affairs by civilian authorities, or relinquish its 
privileged status under Burma's Constitution. Such steps will be 
necessary for a full democratic transition and will continue to be 
factors in U.S. assessments of Burma's reform process.

    Question. What are the benchmarks that when achieved, the United 
States will initiate military-to-military interaction with Burma? Once 
those benchmarks are met, what will be your recommendation(s) as to the 
specific type of military-to-military contact?

    Answer. Increased military-to-military ties with Burma would enable 
greater insight into the Burmese military, and offer opportunities, 
consistent with U.S. values and interests, to promote a professional, 
respected, and responsible military force. We have started this process 
of engagement by renewing joint cooperation on efforts to recover 
remains of U.S. personnel from the World War II era, suspended in 2004, 
and the visit of a National War College student delegation to Burma in 
early May.
    Continued violence and human rights abuses against civilians, 
including women and children, in Kachin and Shan states, and questions 
about the Burmese military's relationship with North Korea are the 
major constraints on further development of military-to-military ties.

    Question. What is the timetable for the completion of guidelines 
for a general
license to authorize new investment and the waiver needed to authorize 
financial transactions with Burma--as announced by the administration 
last May?

    Answer. We are moving forward through an interagency process to 
complete the steps necessary to implement President Obama and Secretary 
Clinton's May 17 announcements on easing sanctions on the export of 
financial services and on new investment. Procedurally we expect to 
take several steps to ease the ban on new investment in Burma, 
including by exercising statutory waiver authority and issuing a 
general license to authorize such investment. We will also seek a 
separate general license to ease the prohibition on the exportation of 
financial services to Burma.
    We seek to ensure our sanctions easing measures support our overall 
policy objectives of transparency and accountability and are 
comprehensible for both the Burmese people and the business community. 
We will continue to pursue a calibrated approach in our engagement with 
Burma and will work to promote responsible investing practices.

    Question. What is the administration's perspective on the status of 
the Rohingyas? What steps have been taken to address the challenges of 
injury and death to the Rohingyas resulting from the policies of the 
governments of Bangladesh and Burma? By name and title, who are the 
lead State Department officials on matters related to the Rohingyas?

    Answer. The administration has, and will continue to, express 
serious concern at the continuing discrimination, human rights 
violations, violence, displacement and economic deprivation affecting 
numerous ethnic minorities in Burma, including the stateless Rohingya 
ethnic minority in northern Rakhine state. We have consistently called 
upon the Government of Burma to take immediate action to bring about an 
improvement in their situation, to recognize the right of the Rohingya 
to nationality, and to protect their human rights.
    Soon after sectarian violence broke out in early June between 
Buddhist ethnic Rakhine and Muslim minorities, including ethnic 
Rohingya, in Burma's Rakhine state, Secretary Clinton issued a 
statement condemning the violence and urging authorities to conduct a 
timely investigation into attacks and a dialogue among all key 
stakeholders to promote greater religious and ethnic tolerance and 
understanding.
    Embassies Rangoon and Dhaka continue to work in close coordination 
to monitor the situation in Rakhin state and along the Burma-Bangladesh 
border and have met with relevant ministers from the respective 
governments to note our concern and to encourage both governments to 
work with the international community to restore peace and to provide 
protection and assistance to those individuals fleeing the violence. We 
continue to urge the Government of Bangladesh to respect the principle 
of nonrefoulement as these persons may be refugees or have other 
protection needs. We remain deeply concerned and, and if confirmed, I 
will continue to call for restraint, an end to violence, and the 
upholding of principles of nondiscrimination, tolerance, and religious 
freedom.
    In the State Department, several bureaus and offices track the 
Rohingya population in Burma and the region, including the Bureaus of 
East Asia and Pacific Affairs; South and Central Asia Affairs; 
Population, Refugees, and Migration; Conflict and Stabilization 
Operations; and Democracy, Human Rights, and Labor. Senior principals 
including Assistant Secretary Campbell, Assistant Secretary Posner, 
Assistant Secretary Barton, and Assistant Secretary Richard, office 
directors, program officers, and embassies related to the above-
mentioned offices work in coordination with the international community 
to not only address the current violence, but also to develop 
comprehensive durable solutions to address the Rohingya situation.

    Question. Officials of Thailand have discussed the forced return of 
thousands of displaced person to Burma who fled to Thailand. Have U.S. 
officials discussed 
this situation with Thai authorities and what is the present position 
of the Thai Government?

    Answer. U.S. officials in Thailand and Washington have consistently 
reinforced with Thai leaders our firm belief that refugees from Burma 
should only return voluntarily, and when they can do so safely and in 
dignity. Secretary Clinton raised this issue with Foreign Minister 
Surapong on June 12. The Foreign Minister, as well as Thai officials 
from both civilian and military agencies, confirmed to us that the Thai 
Government will avoid the forcible return of Burmese refugees back to 
Burma, that there is no timeline for return, and return will only occur 
when conditions are right in Burma. We will continue to monitor the 
situation and reinforce our message as appropriate.

    Question. Some Burmese leaders have been accused of committing or 
ordering international crimes of humanity against ethnic minorities 
within Burma. How should these allegations be addressed to ensure 
accountability and to facilitate reconciliation within Burma? Does the 
administration support a Commission of Inquiry?

    Answer. We consistently prioritize concerns with human rights 
violations and, in our engagement with Burmese Government officials and 
members of civil society, we have underscored the importance of 
establishing a mechanism for accountability. We view the establishment 
of a national human rights commission in Burma in September 2011 an 
important first step, and we have encouraged the government to draw on 
international expertise to ensure the impartiality and the credibility 
of the commission.
    As Secretary Clinton noted during her November visit to Burma, the 
United States supports an appropriate mechanism to ensure justice and 
accountability. We believe it is important to support the Burmese 
Government, the political opposition, and civil society in pursuing 
their own approach toward achieving these objectives. An inclusive 
process that comprises key Burmese stakeholders is required for a 
sustainable mechanism to ensure accountability.

    Question. Has the United State held discussions with the Government 
of India and the government of Mizoram state to help identify and 
address protection of the Chin?

    Answer. India is not a signatory to the 1951 U.N. Refugee 
Convention, but all refugees, along with foreign residents, tourists, 
and migrants, are covered by the Foreigners Act. The Indian Government 
does not afford refugee status to any group.
    U.S. Consulate officers from Kolkata have met in Kolkata and in 
Aizawl with members of Burma's ethnic Chin population and with groups 
assisting the Chin in Mizoram. During visits to the state, consulate 
officers consistently raise the Chin issue with members of local 
government and civil society. Most recently, the Consul General used a 
June meeting with the Chief Minister to encourage the government of 
Mizoram and the Government of India to provide more assistance to this 
population.
    The State Department will continue to engage with UNHCR on 
indentifying durable solutions for Burma's ethnic Chin, including 
resettlement.
                                 ______
                                 

        Responses of Hon. Derek Mitchell to Questions Submitted
                         by Senator Marco Rubio

    Question. Beyond the anecdotes provided in the 2012 Trafficking in 
Persons 
Report, what specific steps or measures has the Burmese Government 
taken to move from Tier 3 to Tier 2 Watch List in the 2012 TIP report?

    Answer. Burma's record on human trafficking, including forced labor 
and the use of child soldiers, has been a concern for many years. The 
ILO and other international observers assessed that the government had 
used the colonial-era Village Act and Towns Act of 1907 to legally 
sanction forced labor. The government's moves to repeal these 
antiquated acts, however, and to replace them with a new law that 
explicitly prohibits forced labor as a criminal offense, were in direct 
response to U.S. Government requests, and attest to a stronger 
commitment to cooperate more closely with the United States on human 
trafficking issues.
    Several other significant and unprecedented steps in advancing 
political reforms corrected Burma's legal framework vis-a-vis human 
trafficking:

  <bullet> An interministerial working group on trafficking in persons 
        introduced best practices through collaboration with 
        international partners. As a result, we have seen improved 
        victim protection measures.
  <bullet> Authorities undertook significant efforts to address the 
        cross-border sex trafficking of women and girls; inaugurated a 
        national hotline to respond better to public complaints of all 
        forms of human trafficking that has since led to the rescue of 
        57 victims of trafficking; and launched an antitrafficking Web 
        site in February 2012.
  <bullet> Earlier this year, the government signed a framework 
        agreement with the ILO that commits it to developing and 
        implementing an ambitious new plan of action to eradicate 
        forced labor in the country by 2015.

    The government's cooperation with the ILO also achieved progress in 
addressing conscription of child soldiers in the Burmese military. Of 
324 complaints of forced labor in Burma that the ILO received in 2011, 
236 involved alleged conscription of children for military service. For 
the first time in several years, the Ministry of Defense provided data 
on military personnel disciplined for forced labor offenses: four 
officers and 37 enlisted personnel were punished for ``improper 
recruitment.''
    The Ministry of Labor also took a number of unprecedented steps to 
prevent forced labor of Burmese citizens at home and abroad. In late 
2011, the Deputy Minister of Labor negotiated with the Thai Government 
for the placement of a labor attache at the Burmese Embassy in Thailand 
and the opening of five labor assistance centers in Thailand. The 
centers, which the Thai Government has not yet approved for opening, 
will help expatriate Burmese workers with obtaining Burmese identity 
documents and other assistance.
    Through several visits by the Special Representative and Policy 
Coordinator for Burma, Ambassador Derek Mitchell, and Ambassador 
CdeBaca from the Office to Monitor and Combat Trafficking in Persons, 
the United States engaged relevant ministries and security forces in 
Burma to express our concerns and guide the government toward progress 
in meeting achievable goals.
    We recognize there is still much to be done, and Burma's Tier 2 
Watch List ranking reflects serious deficiencies. We also remain 
concerned with continued reports on conscription of child soldiers. We 
will build upon the foundation we have laid with the government to 
cooperate on these issues as well as collaborate with Aung San Suu Kyi, 
who has highlighted the issue of human trafficking as an essential 
issue to resolve.

    Question. What are the measures that the Burmese Government must 
meet for Burma to remain off the Tier 3 list in the 2013 TIP Report?

    Answer. In order to avoid a Tier 3 ranking in the 2013 TIP Report, 
the Burmese Government must avoid backsliding on its improvements to 
date and begin to make progress on implementing a series of 
recommendations that the Department of State provided in the 2012 TIP 
Report:

  <bullet> Complete and implement the terms of the International Labor 
        Organization (ILO) action plan for the elimination of forced 
        labor offenses perpetrated by government employees, 
        particularly military personnel.
  <bullet> Take additional measures to confront the unlawful 
        conscription of children into the military and ethnic armed 
        groups, including the criminal prosecution and punishment of 
        offenders.
  <bullet> Increase efforts to investigate and sanction, including 
        through criminal prosecution, government and military 
        perpetrators of internal trafficking offenses, including child 
        soldier recruitment and other such crimes.
  <bullet> Actively identify and demobilize all children serving in the 
        armed forces.
  <bullet> Continue improving U.N. access to inspect recruitment 
        centers, training centers, and military camps in order to 
        identify and support the reintegration and rehabilitation of 
        child soldiers.
  <bullet> Cease the arrest and imprisonment of children for desertion 
        or attempting to leave the army and release imprisoned former 
        child soldiers.
  <bullet> Enhance partnerships with local and international NGOs to 
        improve victim identification and protection efforts, including 
        victim shelters.
  <bullet> Develop and implement formal victim identification and 
        referral procedures.
  <bullet> Focus more attention on the internal trafficking of women 
        and children for commercial sexual exploitation.

    Question. At the hearing, you mentioned an interest by Burmese 
authorities to take measures that would lead to their removal from the 
TIP Report's Tier 2 Watch List. What specific measures would the 
Department of State expect Burma to take in order to accomplish this? 
What type of monitoring will the State Department do to ensure these 
measures are followed?

    Answer. Each Trafficking in Persons Report narrative contains 
specific recommendations for a government to consider implementing over 
the coming year toward achieving a favorable tier ranking. In addition 
to the country-specific recommendations within the TIP Report 
narrative, the Department of State provided the Government of Burma 
with an action plan that is derived from these recommendations. The 
State Department delivered the action plan to the Government of Burma 
on June 19. Both the action plan and accompanying recommendations are 
aimed at providing authorities with guidance related to the minimum 
standards outlined in the Trafficking Victims Protection Act. In order 
for Burma to be removed from the Watch List, its Government must make 
progress on these recommendations.
    To help the government achieve its goal of a more favorable tier 
ranking, we will build on our strengthened engagement, including 
upgraded diplomatic ties, to work with relevant ministries and 
authorities on the necessary criteria it must address. We will outline 
procedures and recommendations from our Trafficking in Persons report 
and seek progress on core concerns specific to Burma. The Department's 
Office to Monitor and Combat Trafficking in Persons, in partnership 
with the Bureau of East Asian and Pacific Affairs and the U.S. Embassy 
in Rangoon, will assess the Government of Burma's progress in achieving 
the action plan items through direct discussions with authorities, 
soliciting feedback from nongovernmental organizations and monitoring 
media coverage of these issues.
                                 ______
                                 

           Prepared Statement of the U.S. Chamber of Commerce

    The U.S. Chamber of Commerce, the world's largest business 
federation, representing the interests of more than 3 million 
businesses of all sizes, sectors, and regions, as well as State and 
local chambers and industry associations, is pleased to have the 
opportunity to submit this statement for the record to the Senate 
Committee on Foreign Relations in connection with today's hearing on 
the nomination of Derek Mitchell to be United States Ambassador to 
Burma.
    The Chamber has been very encouraged by political and economic 
developments in Burma over the past year. Badly needed political and 
economic reforms in that country are moving forward, in many cases at a 
pace faster than most observers had expected. Following the landslide 
victory by the opposition National League for Democracy in the April 1 
elections, there is, for the first time in many years, a genuine sense 
of hope for the future.
    It is patently in U.S. interest that the process of reform and 
liberalization in Burma continue. The Chamber has therefore strongly 
supported the U.S. Government's responses to developments there, 
including Secretary of State Hillary Clinton's visit last December, the 
upgrading of diplomatic relations, and the announcement that some U.S. 
economic sanctions will be eased.
    Many observers question whether the changes in Burma are 
irreversible. That is the wrong question; little in this world is truly 
irreversible. The momentum is currently behind reform, but the process 
will not be linear. As with most major changes, reform of the economic 
and political system in Burma is fraught with formidable challenges, 
and there is ultimately no guarantee of success. Therefore, U.S. policy 
should be geared toward supporting and strengthening the hand of the 
reformers. Strategic engagement by the U.S Government, as well as by 
leaders from the nonprofit and business sectors, is vital to 
solidifying and broadening these reforms.
    For these reasons, we are pleased that the Senate is considering 
the nomination of Derek Mitchell as U.S. Ambassador to Burma. It has 
been 20 years since the United States last had an Ambassador in Burma, 
and his appointment further demonstrates U.S. sincerity in its 
commitment to ongoing engagement with that country. If we are to have 
meaningful dialogue and interaction with Burma, there is no substitute 
for the presence of an ambassador.
    U.S. Chamber representatives visited Burma last month and had 
discussions in Naypyidaw with a broad range of officials, including the 
Ministers of Finance, Health, Construction, National Planning, and 
Energy, and the Vice Ministers of Commerce and Railways. In Rangoon, 
the Chamber met with economic and political advisors to the President, 
among others.
    The message was clear and consistent: They want U.S. investment 
because they recognize that U.S. companies bring with them a respect 
for the rule of law and high standards of corporate governance. Leaders 
understand that these are essential elements for sustained economic 
growth.
    In those meetings, we detected no illusions on the part of anyone 
we met about the daunting challenges the country faces. Burma is 
woefully short of technical skills as well as skilled manpower across 
every part of the economy from the health care system to the financial 
sector. They need and want help, and they know it, and they freely 
admit it. And the United States is in a position to offer that help.
    Its realization of the difficulty of the path forward is has not 
deterred Burma from moving down that path. Indeed, the commitment to 
reform is genuine, and in the view of the Chamber executives who 
recently visited, it is not a question of pro- vs. anti-reform, but 
rather a question of the pace of reform. The pace of reform relates 
directly to the question of capacity.
    U.S. business community involvement can play a crucial role here. 
U.S. companies not only create jobs, but they bring capital, 
technology, training, community development, high standards for 
protecting the environment and respecting human rights and the rule of 
law that will build a foundation for sustained economic growth. Without 
this foundation, development and improved standards of living for the 
people of Burma (or any other country) is simply not possible.
    How do we build this foundation? Most immediately, the lifting of 
financial services and investment sanctions--as promised by Secretary 
Clinton on May 17--will be essential to the sustainable expansion of 
the Burmese economy and the successful operation of any U.S. business 
effort. Currently, U.S. companies are unable to conduct many basic 
research efforts that would enable them to even formulate plans to 
operate there. Lifting the financial services and investment ban is a 
prerequisite for enabling any U.S. business to work in Burma. A basic 
financial services infrastructure is a prerequisite for creating an 
environment in which businesses can invest, and where other promising 
sectors, such as tourism, can flourish.
    Secretary Clinton's announcement generated great enthusiasm on the 
ground in Burma, as the Chamber executives who were there at the time 
saw firsthand. However, it is disappointing that the announcement has 
not been followed by action. Movement is needed quickly to issue a 
general license that is needed to authorize new investments in, and 
financial transactions with, Burma, consistent with the Secretary's May 
17 announcement.
    This license should apply across the board to all industry sectors 
and should avoid burdensome reporting requirements or onerous 
preconditions on any sector. For example, suggestions to restrict 
engagement with Burma's State-owned oil company, Myanmar Oil and Gas 
Enterprise (MOGE) would result in a de-facto investment ban. In Burma, 
like many other countries around the globe, foreign investors are 
legally required to enter into joint ventures with state-owned 
companies. Our standard should continue to be to limit engagement with 
those entities on the prescribed list of prohibited entities and 
persons known as Specially Designated Nationals (SDN) who have been 
unjustly enriched in the past, have violated other statutes such as 
counterterrorism, money laundering, proliferation, counternarcotics 
proscriptions or who are owned by the military. MOGE has not been 
listed for any of these violations and is not controlled by the 
military. Instead, MOGE reports to the civilian-controlled Ministry of 
Energy.
    Effectively prohibiting American companies from dealing with MOGE 
will only ensure that non-American companies continue to capture 
additional energy projects. It will not lead to greater transparency 
over natural resource revenues.
    American companies have been at the forefront of a decade-long 
global effort to promote greater transparency around the flow of 
natural resource revenues, i.e. the Extractive Industries Transparency 
Initiative (EITI). Some 35 nations are now implementing countries in 
this initiative and participate with other stakeholders from industry, 
international financial institutions and civil society; 14 countries 
have achieved ``compliant'' status with the EITI disclosure standard. 
The United States has recently applied to join EITI. American companies 
can and will encourage Burma, as they have encouraged other countries, 
to join this initiative, which provides the capacity not only to 
implement the disclosure standard, but to develop the institutions to 
manage public expenditures over the long term. If the U.S. Government 
goal is to promote transparency, then our policy should strongly 
support U.S. companies entering the natural resource space, and 
engaging with MOGE and the government to embrace EITI.
    But these are only first steps. What is needed is a broader and 
longer term vision about the future of the U.S. relationship with 
Burma. That vision must address how we can sustain support for a reform 
process that will likely take many years, see fits and starts, and 
encounter challenges both foreseen and unforeseen.
    That vision must also consider a plan for more comprehensive easing 
of economic sanctions. Over the past few months, all the major 
economies that had sanctions in place against Burma have now suspended 
or eliminated them. A sanctions regime that was multilateral is now 
unilateral.
    As the U.S. Chamber of Commerce has pointed out repeatedly, tying 
the hands of U.S. companies simply ensures that our competitors fill 
the void, as they are already doing. As a result, the jobs which could 
go to American workers will instead go to their counterparts in Asia, 
Europe, and elsewhere. U.S. companies are already starting from a 
disadvantage, as numerous entities from other nations have 
substantially stepped up their activity in recent months.
    For example, the AFP noted in a June 19 article that Myanmar has 
recently signed a series of oil and gas exploration deals with 
companies from Hong Kong, Switzerland, Malaysia, India, Thailand, 
Indonesia, and Russia. In recent weeks, a flurry of business 
delegations from Japan, Singapore, and many European countries have 
visited the country. Not only have other governments eased sanctions, 
but many, such as those in Japan and Europe, in fact are helping and 
partnering with their industries to get them into Burma. Similar 
efforts on the U.S. side, perhaps led by the Commerce Department, would 
be helpful.
    Ironically, slow-walking the implementation of the administrative 
steps necessary to suspend sanctions on new investment and financial 
transactions will not increase transparency, advance respect for human 
rights, or slow economic activity. It will only mean that U.S. 
companies that push for better governance and transparency are not 
involved in shaping the corporate culture and norms that are formed as 
Burma's private sector is invigorated.
    Moreover, the easing announced last month does not limit U.S. 
policy options. The United States can renew the investment and 
financial services sanctions should conditions in Burma deteriorate. 
Other sanctions remain in place and in some cases would require 
legislative action to undo. Thus, their removal will be neither quick 
nor easy.
    In addition, the SDN list provides a way to ensure that business 
dealings do not enrich those parties responsible for Burma's decades of 
suffering, and that those honest entrepreneurs seeking a way to connect 
with the outside world are not kept in isolation due to the actions of 
others. This list could be made more accessible and user-friendly, but 
we are not recommending its elimination. Many countries around the 
world have individuals and entities on this list, so it is not unique 
to Burma, and it serves a very important function.
    However, our long-term vision must take into account those 
sanctions and restrictions which are unique to Burma. We need an open 
and honest dialogue in which we can discuss the efficacy and utility of 
some of the remaining sanctions and their impact on the Burmese people.
    From the Chamber's discussions on the ground, it is clear that a 
U.S. presence is welcomed in Burma and in a sense, the U.S. is pushing 
on an open door. A U.S. commercial presence will serve our economic, 
political, and strategic interests, and will help the people of Burma.
    The past 20 years have been a dark chapter in Burma's history. We 
believe that Burma is trying to turn the page, and the United States 
must support this process. Deepening our engagement with that country 
is an important way to do so.
                                 ______
                                 

 Prepared Statement of Alexander Feldman, President, US-ASEAN Business 
   Council and Frances Zwenig, President, US-ASEAN Business Council 
                            Institute, Inc.

    The US-ASEAN Business Council and the US-ASEAN Business Council 
Institute, Inc are pleased to have the opportunity to submit a 
statement for the record to the Senate Committee on Foreign Relations 
in connection with today's hearing on the nomination of Derek Mitchell 
to be United States Ambassador to Myanmar.
    The US-ASEAN Business Council is the premiere advocacy organization 
for U.S. corporations operating within the dynamic Association of 
Southeast Asian Nations (ASEAN). ASEAN represents nearly 600 million 
people and a combined GDP of USD $1.5 trillion across Brunei 
Darussalam, Cambodia, Indonesia, Laos, Malaysia, Myanmar, the 
Philippines, Singapore, Thailand, and Vietnam. The Council's members 
include the largest U.S. companies working in ASEAN, and range from 
newcomers to the region to companies that have been working in 
Southeast Asia for over 100 years.
    The US-ASEAN Business Council Institute, Inc is a charitable 
organization whose purpose is to enrich the opportunities for 
strengthened and deeper engagement by U.S. companies in ASEAN through a 
variety of educational activities and capacity-building. Broadly 
defined, this mission also supports humanitarian activities and 
community engagement to help improve the lives of people in ASEAN where 
the Council's companies work; support for programs to preserve and 
expand knowledge about the rich cultural and art heritage of the region 
in the U.S. and of the U.S. in ASEAN; and other initiatives in the 
fields of education, governance and rule of law, health, the 
environment, trade, commerce and investment that the Council's members 
may propose from time to time.
    The Council and its members have been very pleased to see the 
forward motion in the reform process that has taken place in Myanmar 
over the past year. This reform has been not only political, as Myanmar 
has held elections which have included key opposition groups and has 
expanded the political space for open, sometimes critical dialogue, but 
also economic, as Myanmar has taken the long-overdue step of allowing a 
managed floating exchange rate, invited in foreign investment, and 
begun the process of privatizing state-owned enterprises. President 
Thein Sein has promised further reforms, and Myanmar has indicated it 
will continue the process of releasing political prisoners.
    These reforms are not irreversible, and need support from all 
corners in order to be successful. The presence of a U.S. Ambassador 
will make a substantial difference in the amount of influence the 
United States can wield in encouraging further reforms.
    The Council supports without qualification the confirmation of 
Derek Mitchell for the position of U.S. Ambassador to the Union of 
Burma, or Union of Myanmar. Ambassador Mitchell brings experience from 
his years of government service in the Congress and in the executive 
branch which will prove invaluable in this position, and is very well 
qualified for the job. He has demonstrated his commitment and energy to 
finding a way forward in this rapidly changing environment, and has the 
temperament, ability, and insight which this challenging position will 
require. The Council has long believed that the cause of improving the 
lives of Burmese people was ill-served by the lack of an American 
Ambassador to Myanmar and the subsequent U.S. insistence that Myanmar 
downgrade its diplomatic representation in Washington, DC. Levels of 
representation matter and impact the quality of dialogue, access to key 
decisionmakers, and quality of information about one another's country. 
With representation restored to normal levels, we hope the guidance to 
the Embassy to provide the full array of assistance to American 
individuals and companies seeking to undertake projects with civil 
society and business with business and government partners will be 
adopted. Currently, as this committee knows, the Embassy's ability to 
provide any assistance to individuals or companies seeking to do 
business is constrained by State Department policy.
    U.S. companies bring best practices in governance, corporate 
responsibility, safety and environmental standards. We believe they can 
make an important contribution to the new legal and fiscal frameworks 
now under discussion, but they must have access to good information as 
the insights that an active diplomatic presence can provide. We urge 
the State Department to update their guidance to the Embassy to be 
consistent with the May 17 announcement by Secretary Clinton that the 
United States is suspending sanctions on new investment and financial 
transactions with Myanmar.
    The Council is also very encouraged that the administration has 
decided to suspend sanctions and allow economic engagement. The Council 
has long believed that engagement can be more effective than isolation 
in effecting positive change.
    The next vital step will be the issuing of a general license that 
will allow U.S. business to begin to work in Myanmar. Secretary 
Clinton's May 17 announcement of the suspension of certain sanctions 
has emboldened reformers, but it must be backed up with action. It is 
essential that a general license authorizing new investments in and a 
waiver authorizing financial transactions with Myanmar are issued soon, 
and that both apply equally across all industry sectors.
    Currently, potential U.S. investors remain in limbo, unable even to 
perform basic research functions while their competitors move forward 
aggressively. A June 19 article by the AFP indicated that Myanmar has 
signed oil and gas deals with numerous companies from Asia and Europe, 
and large delegations of foreign companies have made numerous visits. 
Each day puts U.S. companies further behind.
    Major U.S. companies, including iconic brands like council members 
the Coca-Cola Company and GE, have indicated that they intend to pursue 
opportunities in Myanmar once they are allowed.
    A key example of the level of business interest in Myanmar is the 
excitement surrounding the Council's first Business Mission to Myanmar, 
which will take place in July. Despite the challenges that will face 
companies looking to do business in Myanmar, 37 leading U.S. companies 
have agreed to join the mission. The companies participating in the 
mission include 5 of the Fortune 10, and represent all sectors. Top 
firms in health care, manufacturing, infrastructure, financial 
services, energy, and ICT are interested in the opportunities offered 
by the opening up of Myanmar's economy.
    During their visit to Yangon, the delegates will meet with a wide 
spectrum of the key figures in Myanmar's evolution: key government 
ministers, members of opposition groups like the NLD, NDF, and the 
88'ers, and members of civil society. They will participate in meetings 
with U.S. Government officials who will travel to Myanmar as part of 
the State Department delegation which will also visit Myanmar. The 
business mission will include a panel of NGOs who will describe the 
conditions they face in operating on the ground, and share their 
knowledge and experience on the best way for U.S. companies to help 
move Myanmar forward. Those NGOs will include: PACT, Proximity Designs, 
Marie Stopes International, and World Vision.
    Connecting Burmese citizens to the wider world of global business 
will be a vital step in helping them build the civil society that will 
enable them to move Myanmar from the list of failed states into being a 
member of ASEAN's success story. The Council encourages maintaining, 
regularly updating, and providing easy to use access to the Specially 
Designated Nationals list as a way to ensure that business dealings do 
not enrich those parties responsible for Myanmar's decades of 
suffering, and that those honest entrepreneurs seeking a way to connect 
with the outside world are not kept in isolation due to the actions of 
others.
    U.S. companies can create the jobs and economic base needed for the 
government to jump-start the economy and meet the expectations of the 
people. U.S. companies bring with them respect for the rule of law, 
corporate governance structures including adherence to the Foreign 
Corrupt Practices Act, intellectual property rights, and labor 
standards unmatched in the world. U.S. companies can and do provide 
capacity-building, training, and respect for the environment, as well 
as projects to engage with communities where they work to a 
substantially greater degree than most of their competitors from other 
nations. These Corporate Social Responsibility projects include 
globally successful education, public health, and environmental 
programs. U.S. companies look forward to vastly expanding their 
presence in Myanmar.
    These are programs which are already clearly reported and 
documented, and which major U.S. companies view as part of their 
competitive advantage. Burdensome reporting requirements surrounding 
CSR work in Myanmar will have the effect of making it more difficult 
for companies to bring in existing successful programs, and will act as 
a barrier to entry for small and medium-sized enterprises.
    In addition to the efforts of its members, the US-ASEAN Business 
Council Institute performs a variety of CSR functions. Those efforts 
have included facilitating and supporting flood relief in Thailand and 
will include expanding the Council's training program for small and 
medium-sized enterprises throughout ASEAN.
    Myanmar has already been the location of one of the Council's key 
CSR efforts; the restoration of the Musmeah Yeshua Synagogue. Rangoon 
was once the home of a thriving Jewish community consisting primarily 
of Jews from Iraq, Iran, and India. Musmeah Yeshua Synagogue was built 
in 1893-1896 to serve the growing Jewish population, which, at its 
peak, numbered about 2,500 individuals. During World War II, and, in 
the years following, most of the Jews in Burma fled to other countries. 
The Burmese Government's nationalization of businesses in 1969 caused 
further migration.
    As a result of the community's dwindling numbers, the synagogue has 
limited funds to support itself. Even before the May 2008 cyclone, the 
building was in desperate need of restoration and the historic Jewish 
cemetery nearby was slated to be destroyed by the city. Cyclone Nargis 
only made the situation more desperate. This historic building still 
serves as the religious center for Jews visiting Myanmar. Without 
restoration and maintenance, this unique piece of history would have 
been lost.
    Moses Samuels and his family are among the few Jews in Myanmar. 
Moses is the Trustee of Musmeah Yeshua Synagogue. Cyclone Nargis rocked 
the beautiful synagogue, shattered its windows, and destroyed its roof. 
Without assistance, the Jewish community of Myanmar would have been 
unable to restore and maintain its place of worship. Even with its own 
Nargis damage, the Jewish community--led by Moses's son Sammy--
organized several aid missions to help their fellow Burmese in the 
hard-hit Delta.
    The US-ASEAN Business Council Institute, Inc., the US-ASEAN 
Business Council's 501(c)(3) tax exempt organization, obtained a 
license from the United States Department of the Treasury's Office of 
Foreign Assets Control (OFAC) to raise funds for the maintenance and 
restoration of Musmeah Yeshua Synagogue in Yangon, Myanmar. With the 
OFAC license, the Council achieved a number of things:

  <bullet> Raised funds to complete restoration and necessary 
        maintenance of the synagogue;
  <bullet> Raised funds for the synagogue's monthly expenses consisting 
        of utilities, salaries for workers, and various miscellaneous 
        expenses;
  <bullet> Raised funds for the maintenance of 700 historic graves and 
        for the construction and maintenance of the new cemetery.

    It is unquestionable that U.S. companies are at a disadvantage to 
foreign competitors who are already operating in Myanmar. Jobs that 
could be created in the U.S. are instead going to other nations. We 
hope this testimony will help to show some of the vital and necessary 
CSR projects that the Burmese people will be denied by the absence of 
U.S. companies.
    We believe Derek Mitchell has a firm grasp of these issues and the 
importance of welcoming Myanmar back into the global fold.
    We respectfully urge his swift confirmation.

 
   NOMINATIONS OF GENE A. CRETZ, DEBORAH R. MALAC, DAVID B. WHARTON, 
                         ALEXANDER M. LASKARIS

                              ----------                              


                        THURSDAY, JULY 12, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Gene Allan Cretz, of New York, to be Ambassador to the 
        Republic of Ghana
Deborah Ruth Malac, of Virginia, to be Ambassador to the 
        Republic of Liberia
David Bruce Wharton, of Virginia, to be Ambassador to the 
        Republic of Zimbabwe
Alexander Mark Laskaris, of Maryland, to be Ambassador to the 
        Republic of Guinea
                              ----------                              

    The committee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senator Coons.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order this 
nomination hearing of the Senate Foreign Relations Committee 
for the Ambassadors for Ghana, Zimbabwe, Liberia, and Guinea. 
As always, I am grateful for the supportive service of my good 
friend and ranking member, Senator Isakson of Georgia, as well 
as other members of the committee. Senator Isakson and I were 
just on the floor together where we had a series of three 
votes, and he wanted me to express his apologies. He hopes to 
join us briefly, but he may well not be able to join us here 
for this hearing today. He has been a diligent and reliable 
partner and has attended literally every single hearing from 
beginning to end we have had so far. So he wanted me to make 
those apologies at the outset given the exigencies of trying to 
make his flight home.
    I want to welcome and thank our distinguished nominees, 
Ambassador Cretz, the nominee for Ghana, David Wharton, who is 
the nominee for Zimbabwe, Deborah Malac, who is the nominee for 
Liberia, and Alexander Laskaris, the nominee to serve in 
Guinea. All four of you bring to the table a vast array of 
relevant experience in Africa and around the world, and I look 
forward to hearing your vision for how to advance U.S. foreign 
policy objectives in these countries.
    Last year, Senator Isakson and I traveled to Ghana, which 
has experienced remarkable growth and has placed it amongst the 
top 10 fastest-growing economies in the world. Despite the 
persistent challenge of widespread poverty, Ghana is largely 
seen as a regional model for good governance, democracy, 
stability, and economic success. And I look forward to hearing 
from you about how we will continue to utilize our resources to 
encourage greater U.S. trade investment in Ghana, which 
presents, I think, great opportunities for American business.
    As I mentioned at our last subcommittee hearing, I am 
disappointed that the U.S. Department of Commerce chose not to 
replace the U.S. commercial service officer, formerly posted in 
Accra. And I believe it is one of many examples why the 
administration needs to be better coordinate its strategy for 
promoting economic engagement with Africa among the many 
agencies responsible for this task.
    Zimbabwe is sadly at the other end of the spectrum from 
Ghana when it comes to democracy and good governance as 
demonstrated by the fact President Mugabe has been in power 
more than 32 years. Since 2009, a transitional coalition 
government has worked toward reform and power-sharing, mediated 
by SADC, which is proven to be one of the more effective 
regional organizations in Africa. While Zimbabwe's political 
environment remains volatile, the GPA has led to a period of 
stability and recovery, relatively speaking, after many years 
of violence and collapse.
    I look forward to hearing about how the international 
community can encourage the constitutional reform process and 
progress that SADC has made with the Global Political 
Agreement. I am hopeful all political parties will soon agree 
on a draft constitution that can pave the way toward successful 
future elections.
    Since its historical elections in June 2010, Guinea has 
begun to emerge from decades of authoritarianism toward a more 
open and democratic system, but there are very significant 
challenges which remain. Legislative elections have been 
delayed due to disagreements about elections management and 
distrust. Tensions that escalated during the 2010 elections 
remain central today, but there also has to be accountability 
for abuses carried out by the military and government. And 
Guinea must implement economic reforms to reduce corruption, 
including in its mining sector where increased transparency and 
certainty could open the door to increased investment and 
trade.
    Finally, we turn to Liberia, which has experienced economic 
growth, improved rule of law, and increase stability since the 
civil war there ended in 2003. In my view, much of Liberia's 
progress can be attributed to strong leadership, and I am 
hopeful President Johnson Sirleaf will continue to build on 
gains made combating corruption and strengthening governance in 
her second term. I was honored to join the Secretary of State 
at her second inaugural.
    As the U.N. Peacekeeping Force continues its drawdown, 
Liberia must continue to focus on building its security and 
justice sectors, especially the police. Increased recent 
violence on the border with Cote d'Ivoire underscores the 
importance of security sector reform.
    As I mentioned, in all four countries, we have before us 
four strong nominees. Since 2008, Ambassador Gene Cretz has 
served as the United States Ambassador to Libya. He is the 
current nominee to serve in Ghana. He has previously overseen 
the closing and reopening of the U.S. Embassy and significant 
transition that followed the fall of Gadhafi. Previously, 
Ambassador Cretz served as DAS in the Bureau of Near Eastern 
Affairs, in addition to posts in Tel Aviv, Damascus, Beijing, 
and New Delhi.
    David Wharton is the nominee to be Ambassador to Zimbabwe. 
He is currently serving as the Deputy Assistant Secretary for 
Public Diplomacy in the Bureau of African Affairs following 
posts in Guatemala, Tanzania, Nigeria, and Kenya.
    Alexander Laskaris is the nominee to be Ambassador to 
Guinea, who most recently served as counsel general at the U.S. 
consulate in Erbil, Iraq. He has previously served as DCM at 
Embassies in Kosovo and Burundi, as well as postings in Angola, 
Botswana, and Liberia.
    Finally, last but not least, Deborah Malac is the nominee 
to serve as our next Ambassador to Liberia, currently serving 
as Director of the Office of East African Affairs. I have a lot 
I want to talk to you about. Previously Ms. Malac served as DCM 
at the U.S. Embassy in Ethiopia, as well as important posts in 
Senegal and Bangkok and South Africa and Laos and in Cameroon.
    I am very pleased to welcome all four of today's 
distinguished nominees and look forward to your opening 
statements.
    Senator Coons. I would, in the absence of Senator Isakson--
do we expect Senator Isakson? We're not sure.
    Voice. The latest I heard was he was going to try to join 
us later.
    Senator Coons. OK. If at some point Senator Isakson's 
evolving schedule allows him to drive by, please let me know 
and we will interrupt wherever we are.
    I would like to invite, in turn, each of the four nominees 
to introduce your family, your supporters, your friends, anyone 
you would like to recognize who might be watching us by 
Webcast, which is increasingly common. And after that, in 
order, we will then turn to your opening statements. If we 
might just simply go in order from right to left.
    Ambassador Cretz.
    Ambassador Cretz. Thank you, Mr. Chairman. I would like to 
introduce my wife, Annette, my daughter, Gabrielle, my son, 
Captain Jeffrey Cretz of the Air Force National Guard Unit, you 
will be pleased to know, out of Newcastle, DE.
    Senator Coons. Wonderful. I look forward to talking with 
you.
    Ambassador Cretz. My daughter-in-law, Meghan, and my 
daughter's fiance, Justin, as well as friends, the Ludwig 
family, who recently came from Tunisia, and they will be 
heading to Cambodia.
    Thank you.
    Senator Coons. Thank you, Ambassador.
    Ms. Malac.
    Ms. Malac. I would like to introduce my husband, Ron Olson, 
my daughter, Katharine, my oldest son, Nicholas, and my younger 
son, Gregory, who are here today.
    Thank you.
    Senator Coons. Thank you, Ms. Malac.
    Mr. Wharton.
    Mr. Wharton. Thank you, Senator. I am honored to introduce 
my wife, Julia, and my son, Sam, who I believe has the proxy 
vote for our other two children, Sarah and Turner, who could 
not be here today, but they wanted to be. And to my parents if 
they are watching on Webcast from North Carolina.
    Thank you.
    Senator Coons. Thank you, Mr. Wharton.
    Mr. Laskaris.
    Mr. Laskaris. Senator, I was in Iraq until Saturday of last 
week, so this is kind of in a hurry, so my family is watching 
on the Web throughout the United States and in the old country.
    Senator Coons. Thank you so much for joining us today. I am 
grateful for your willingness to serve. And just at the outset, 
I would like to thank your families, both the parents or 
extended families, that made possible your personal commitments 
to public service in what, in many cases, have been difficult 
or challenging posts, which are exactly the sorts of places 
where American values are shown most clearly. And to your 
families who are with you today or who are watching by Web. I 
am just grateful for their support for your service. None of 
you serve alone. You are all sustained by a network of family 
and friends. And so I just join, I know, with my ranking 
minority member, who always also makes this comment, to express 
our gratitude for your careers of public service and for your 
families who support you.
    I would like to now invite each of you to make an opening 
statement to the extent you would like to.
    Ambassador Cretz.

    STATEMENT OF HON. GENE ALLAN CRETZ, OF NEW YORK, TO BE 
              AMBASSADOR TO THE REPUBLIC OF GHANA

    Ambassador Cretz. Mr. Chairman, thank you. I am honored to 
appear before you today and grateful to President Obama and 
Secretary Clinton for the confidence they have placed in me as 
their nominee for Ambassador to the Republic of Ghana.
    As I mentioned, I am joined today by my wife, Annette, my 
son, Jeffrey Cretz, and my daughter, Gabrielle, whose love and 
support have carried me throughout my 31 years in the Foreign 
Service. Without them I would not be here today.
    In addition, I would note that my son has honorably served 
his country through three deployments to Afghanistan and the 
Middle East.
    My journey began as a Peace Corps Volunteer in Kabul, 
Afghanistan, before joining the Foreign Service in 1981. I have 
served in Islamabad, Damascus twice, New Delhi, Tel Aviv twice, 
Beijing, Cairo, and most recently as United States Ambassador 
to Libya. If confirmed as the next U.S. Ambassador to the 
Republic of Ghana, I will draw upon these experiences to 
advance U.S. interests in Africa.
    I am very proud of the role the United States played to 
help the courageous people of Libya gain their freedom from the 
42-year dictatorial rule of Muammar Gadhafi. One only has to 
visit Libya today to witness a people breathing freedom for the 
first time to realize how important our efforts were.
    Ghana is a good news country as President Obama stated in 
his remarks during President Mills' March visit to the Oval 
Office. A democracy since 1992 and an economic success story 
with GDP growth rates reaching a historic high of over 13.5 
percent in 2011, and sustaining a growth rate of at least 8 
percent in 2012, Ghana's record of achievements speaks for 
itself.
    Having successfully completed its first $547 million 
Millennium Challenge Corporation Compact in February, Ghana is 
eligible to receive its second compact focused on improving 
access to reliable power. We have seen the Ghanaian people 
benefit from improved schools, health services, roads, and 
basic infrastructure as a result of sound macroeconomic policy 
and debt relief. If confirmed, I will maximize the talents and 
skills of Embassy personnel, advance existing USAID programs, 
and implement a second MCC Compact, if approved.
    United States exports to Ghana have grown 186 percent over 
the past 5 years, and two-way trade is expected to reach an 
all-time high, surpassing the $2 billion mark in 2012 as Ghana 
continues its impressive economic development. Companies such 
as GE, IBM, Baker Hughes, Cargill, Archer-Daniels-Midland 
Company, and others are investing in Ghana precisely because 
Ghana is a model for economic development in West Africa. I 
look forward to ensuring that the promotion of U.S. commercial 
interests remains an integral part of our statecraft.
    Home to a lively, free media, an apolitical military, and 
blessed with cocoa, gold, mineral reserves, and natural 
resources, Ghana is setting the standard for democracy and 
economic development on the continent of Africa. If confirmed, 
I will explore new and innovative approaches to expand 
commercial ties between the United States and Ghana.
    Ghana has held five free and fair national elections since 
1992, and witnessed two peaceful transitions from one political 
party to another in 2000 and 2008. National and legislative 
elections are scheduled for this December. And if confirmed, I 
expect to witness Ghana achieve its sixth consecutive peaceful 
and transparent democratic election.
    The people-to-people links made strong through more than 50 
years of a continuous and vibrant Peace Corps presence, 
Fulbright, Humphrey, Community College Initiative, and Kennedy-
Lugar Youth Exchange and Study student exchange programs, and 
military cooperation through our International Military 
Education and Training Program, the Africa Contingency 
Operations Training and Assistance Program, the State 
Partnership Program with the North Dakota National Guard, and 
Africa Command's Africa Partnership Station are among the 
initiatives I will continue to advance if confirmed.
    Ghana and the United States share an interest in countering 
terrorism and promoting regional stability. It is one of 
Africa's premier peacekeeping partners. If confirmed, I will 
support Ghana's capacity to promote regional and global 
stability. This includes combating escalating drug trafficking 
and human trafficking. Protecting the safety and welfare of 
U.S. citizens will be a top priority.
    Political power in Ghana remains highly centralized, and 
Ghana faces challenges in managing its oil resources. With a 
GDP per capita of $1,286 in 2010, Ghana is a lower middle-
income country. The Government is committed to a path of 
reducing Ghana's aid dependency in the medium to long term. 
U.S. developments are
focused on maintaining sustainable, broad-based economic growth 
through initiatives such as Feed the Future and the Partnership 
for Growth.
    President Obama chose Ghana as the site for his historic 
speech in 2009 about a new moment of promise for Africa. Ghana 
is living up to that promise, and our continued cooperation 
will enhance the partnership further.
    Thank you, Mr. Chairman, and members of the committee for 
the opportunity to address you today. If confirmed, I look 
forward to working with you in representing the interests of 
the American people in Ghana. And I am happy, of course, to 
answer any questions you have.
    [The prepared statement of Ambassador Cretz follows:]

                 Prepared Statement of Gene Allan Cretz

    Mr. Chairman and members of the committee, I am honored to appear 
before you today, and grateful to President Obama and Secretary Clinton 
for the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Ghana.
    I am joined today by my wife, Annette, my son, U.S. Air Force 
Captain Jeffrey Cretz, and my daughter, Gabrielle, whose love and 
support have carried me throughout my 31 years in the Foreign Service. 
Without them I would not be here today. In addition, I would note that 
my son has honorably served his country through three deployments to 
Afghanistan and the Middle East.
    My journey began as a Peace Corps Volunteer in Kabul, Afghanistan, 
before joining the Foreign Service in 1981. I have served in Islamabad, 
Damascus (twice), New Delhi, Tel Aviv (twice), Beijing, Cairo, and most 
recently as United States Ambassador to Libya. If confirmed as the next 
U.S. Ambassador to the Republic of Ghana, I will draw upon these 
experiences to advance U.S. interests in Africa. I am very proud of the 
role the United States played to help the courageous people of Libya 
gain their freedom from the 42-year dictatorial rule of Muammar 
Qadhafi. One only has to visit Libya today to witness a people 
breathing freedom for the first time to realize how important our 
efforts were.
    Ghana is a ``good news'' country as President Obama stated in his 
remarks during President Mills' March visit to the Oval Office. A 
democracy since 1992 and an economic success story with GDP growth 
rates reaching a historic high of over 13.5 percent in 2011, and 
sustaining a growth rate of at least 8 percent in 2012, Ghana's record 
of achievements speaks for itself. Having successfully completed its 
first $547 million Millennium Challenge Corporation (MCC) Compact in 
February, Ghana is eligible to receive its second compact focused on 
improving access to reliable power. We have seen the Ghanaian people 
benefit from improved schools, health services, roads, and basic 
infrastructure as a result of sound macroeconomic policy and debt 
relief. If confirmed, I will maximize the talents and skills of Embassy 
personnel, advance existing USAID programs, and implement a second MCC 
Compact, if
approved.
    United States exports to Ghana have grown 186 percent over the past 
5 years, and two-way trade is expected to reach an all-time high, 
surpassing the $2 billion mark in 2012 as Ghana continues its 
impressive economic development. Companies such as GE, IBM, Baker 
Hughes, Cargill, Archer-Daniels-Midland Company (ADM), and others are 
investing in Ghana precisely because Ghana is a model for economic 
development in West Africa. I look forward to ensuring that the 
promotion of U.S. commercial interests remains an integral part of our 
statecraft. Home to a lively, free media, an apolitical military, and 
blessed with cocoa, gold, mineral reserves, and natural resources, 
Ghana is setting the standards for democracy and economic development 
on the continent of Africa. If confirmed, I will explore new and 
innovative approaches to expand commercial ties between the United 
States and Ghana.
    Ghana has held five free and fair national elections since 1992, 
and witnessed two peaceful transitions from one political party to 
another in 2000 and 2008. National and legislative elections are 
scheduled for this December, and if confirmed, I expect to witness 
Ghana achieve its sixth consecutive peaceful and transparent democratic 
election. The people-to-people links made strong through more than 50 
years of a continuous and vibrant Peace Corps presence; Fulbright, 
Humphrey, Community College Initiative (CCI) and Kennedy-Lugar Youth 
Exchange and Study (YES) student exchange programs; and military 
cooperation through our International Military Education and Training 
Program, the Africa Contingency Operations Training and Assistance 
Program, the State Partnership Program with the North Dakota National 
Guard, and Africa Command's Africa Partnership Station are among the 
initiatives I will continue to advance if confirmed.
    Ghana and the United States share an interest in countering 
terrorism and promoting regional stability. Ghana is one of Africa's 
premier peacekeeping partners. If confirmed, I will support Ghana's 
capacity to promote regional and global stability. This includes 
combating escalating drug trafficking and human trafficking. Protecting 
the safety and welfare of U.S. citizens will be a top priority.
    Political power in Ghana remains highly centralized and Ghana faces 
challenges in managing its oil resources. With a GDP per capita of 
$1,286 in 2010, Ghana is a lower middle-income country. The Government 
is committed to a path of reducing Ghana's aid dependency in the medium 
to long term. U.S. development efforts are focused on maintaining 
sustainable, broad-based economic growth through initiatives such as 
Feed the Future and the Partnership for Growth. The G8 New Alliance for 
Food Security and Nutrition, announced by President Obama under the 
U.S. G8 Presidency, strongly supports private sector investment in 
agricultural development and nutrition; and Ghana is one of the first 
three countries where the New Alliance will be launched. If confirmed, 
my priority will be to work with the Government of Ghana to enhance 
Ghana's economic vitality and to promote U.S. commercial opportunities 
in Ghana.
    President Obama chose Ghana as the site for his historic speech in 
2009 about ``a new moment of promise for Africa.'' Ghana is living up 
to that promise, and our continued cooperation will enhance the 
partnership further. As one of only four countries in the world 
selected for the Partnership for Growth, I intend to work closely with 
our Ghanaian partners to support Ghana's development efforts, not only 
in the areas of power and credit as highlighted in the Joint Country 
Action Plan, but also in areas such as food security and health.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Ghana. I am happy to answer any questions you have.

    Senator Coons. Thank you very much, Ambassador Cretz.
    And thank you for your service and for Jeffrey's service. 
And I look forward to further questions.
    Ms. Malac.

STATEMENT OF DEBORAH RUTH MALAC, OF VIRGINIA, TO BE AMBASSADOR 
                   TO THE REPUBLIC OF LIBERIA

    Ms. Malac. Thank you. Mr. Chairman, I am honored and 
pleased to appear before you today as President Obama's nominee 
to be the next United States Ambassador to the Republic of 
Liberia. I would like to thank the President and Secretary 
Clinton for the confidence and trust they have placed in me by 
nominating me for this position.
    As I mentioned earlier, I would like to recognize the 
presence of my husband, Ron Olson, and my three children, 
Nicholas and Gregory and Katharine. I am deeply grateful for 
their unstinting love and support, and without it, I certainly 
would not be sitting here today.
    Mr. Chairman, I have been privileged to spend the last 31 
years representing the United States as a member of the Foreign 
Service. The majority of my career has been spent working in 
Africa and on African issues, starting with an assignment to 
Cameroon in 1981. That assignment was followed by assignments 
to South Africa, Senegal, and Ethiopia, interspersed with time 
in Washington to work on issues, such as South Africa's 
transition to democracy, East African issues, agricultural 
trade and development, and food security.
    Mr. Chairman, the United States and Liberia share a strong 
relationship rooted in our historical ties and preserved 
through our mutual commitment to democracy, human rights, and 
economic prosperity. We have always been a friend to the 
Liberian people, and our commitment is demonstrated through our 
robust foreign assistance. If confirmed, I will continue to 
strengthen our bilateral relationship and leverage our 
resources to help Liberia overcome its challenges to 
development.
    Mr. Chairman, it has been 9 years since the end of 
Liberia's 14-year civil war, and Liberia has taken significant 
steps to develop democratically and economically.
    Last fall, Liberia held its second free, fair, and 
transparent national election since 2003. The success of these 
elections demonstrated Liberia's strong commitment to 
democracy. President Ellen Johnson Sirleaf was reelected to her 
second and final term, and she has laid out an ambitious agenda 
to move Liberia forward. If confirmed, I will work to pursue 
key shared priorities that include improving the investment 
climate, increasing access to education, reducing the 
unemployment rate, and encouraging reconciliation.
    Liberia has made progress, but it still faces many 
challenges. It remains one of the most impoverished countries 
in the world, with most Liberians having limited access to 
health care, education, or other government services. There is, 
however, growing investor interest in Liberia, and over the 
past several years, Liberia has negotiated nearly $16 billion 
in foreign investment. If confirmed, I will leverage our 
existing resources, most notably our robust USAID programming, 
to help the Government of Liberia ensure that all Liberians 
have access to basic rights and services.
    I will also encourage the Government of Liberia to continue 
to create an environment that is conducive to business and 
investment because sustained economic growth is essential to 
reducing poverty and stabilizing the country.
    Preserving security in Liberia is a priority of both the 
Liberian and U.S. Governments. The United States has been a 
major player in security sector reform, and we will continue 
this role even as a reconfiguration of United Nations Mission 
in Liberia Forces takes place. If confirmed, I will work with 
the Government of Liberia to encourage it to take the necessary 
steps to continue to build the capacity of its security sector.
    Addressing reconciliation is also important to the future 
stability of Liberia. President Sirleaf is committed to 
reconciliation, and has appointed fellow Nobel Peace Laureate 
Leymah Gbowee to lead Liberia's new national reconciliation 
initiative. As this process moves ahead, it will be important 
that all Liberians participate actively and have their voices 
heard.
    As a partner, the United States can play a supportive role, 
offering technical or logistical support to the Government of 
Liberia's efforts. We understand, however, that this process 
must be Liberian-led and Liberian-owned.
    Mr. Chairman, thank you for the opportunity to address you 
today. If confirmed, I look forward to working with you to 
represent the interests of the American people in Liberia. And 
I am happy, of course, to answer any questions you may have.
    Thank you.
    [The prepared statement of Ms. Malac follows:]

                Prepared Statement of Deborah Ruth Malac

    Mr. Chairman, Ranking Member Isakson, and distinguished members of 
the committee, I am honored and pleased to appear before you today as 
President Obama's nominee to be the next United States Ambassador to 
the Republic of Liberia. I would like to thank the President and 
Secretary Clinton for the confidence and trust they have placed in me 
by nominating me for this position.
    Mr. Chairman, I would like to take the opportunity to recognize my 
husband, Ron Olson, and my three children, sons, Nicholas and Gregory, 
and daughter, Katharine. I am deeply grateful for their strong and 
unstinting support; without it, I would not be seated here today.
    Mr. Chairman and members of the committee, I have been privileged 
to spend the past 31 years as a member of the Foreign Service, working 
abroad and here in Washington. The majority of my Foreign Service 
career has been spent working in Africa and on African issues, although 
I started my career expecting to focus on issues such as the former 
Soviet Bloc and missile throw-weights. Instead, the Department of 
State, in its infinite wisdom, sent me to Cameroon, and I was hooked. 
That first assignment was followed by assignments to South Africa, 
Senegal and Ethiopia interspersed with time in Washington to work on 
South Africa's transition to democracy, East African issues, 
agricultural trade and development and food security. For the past 
year, I have served as the Director of the Office of East African 
Affairs. If confirmed, I look forward to the opportunity to return to 
West Africa.
    Mr. Chairman, the United States and Liberia share a strong 
relationship rooted in our historical ties and preserved through our 
commitment to democracy, human rights, and economic prosperity. We have 
always been a friend to the Liberian people and our commitment is 
demonstrated through our robust foreign assistance. If confirmed, I 
will continue to strengthen our bilateral relationship and leverage our 
resources to help Liberia overcome its challenges to development.
    Mr. Chairman, it has been 9 years since the end of Liberia's 14-
year civil war and Liberia has taken significant steps to develop 
democratically and economically. Last fall, Liberia held its second 
free, fair, and transparent national election since 2003. The success 
of these elections demonstrated Liberia's strong commitment to 
democracy. As a result, President Ellen Johnson Sirleaf was reelected 
to her second and final term, and has laid out an ambitious agenda to 
move Liberia forward. If confirmed, I will work to address the key U.S. 
priorities, which also are priorities of the Government of Liberia, and 
include improving the investment climate, increasing access to 
education, reducing the unemployment rate, and encouraging 
reconciliation.
    Through a $15 million Millennium Challenge Corporation (MCC) 
Threshold program, Liberia is taking the right steps to advance 
development and economic growth. Liberia's Threshold Program focuses on 
improving land rights and access, increasing girls' primary education 
enrollment and retention, and improving Liberia's trade policy and 
practices. If confirmed, I will work closely with the Government of 
Liberia to encourage progress on its MCC Scorecard indicators so that 
Liberia can be eligible for a MCC Compact in the near future.
    Though significant progress has been made, Liberia still faces many 
challenges. Liberia remains one of the most impoverished countries in 
the world, with most Liberians having limited access to health care, 
education, or other government services. There is, however, growing 
investor interest in Liberia and over the past several years Liberia 
has negotiated nearly $16 billion in foreign investment. If confirmed, 
I will leverage our existing resources, most notably our robust USAID 
programming, to help the Government of Liberia ensure that all 
Liberians have access to basic rights and services. I will also 
encourage the Government of Liberia to continue to create an 
environment conducive to business and investment, as sustained economic 
growth is key to reducing poverty and stabilizing the country.
    Preserving security in Liberia is a priority of both the Liberian 
and U.S. Governments. The U.N. Secretary General has recommended 
reducing the United Nations Mission in Liberia's (UNMIL) troop levels 
from 7,900 to 3,750 over 3 years while increasing the U.N. police 
levels by up to three Formed Police Units. The United States has been a 
major player in security sector reform and will continue this role when 
UNMIL's reconfiguration takes place. If confirmed, I will work with the 
Government of Liberia to encourage it to take the necessary steps to 
continue to build the capacity of its security sector. It will be 
important that the United States, Liberia, and UNMIL and other donor 
countries work closely together so that when a reconfiguration does 
occur, the gradual handover of security responsibility from UNMIL to 
Liberia will be handled properly.
    Addressing reconciliation will also be important to the future 
stability of Liberia. The conviction of former Liberian President 
Charles Taylor for his role in the Sierra Leone civil war brings to the 
forefront the need for Liberia to address the wounds left open from its 
own civil war. President Sirleaf is committed to reconciliation and has 
appointed fellow Nobel Peace Laureate Leymah Gbowee to lead Liberia's 
new national reconciliation initiative. As this process moves ahead, it 
will be important that all Liberians participate actively and have 
their voices heard. As a partner, the United States can play a 
supportive role, offering technical or logistical support to the 
Government of Liberia's efforts. We understand, however, that this 
process must be Liberian-led and Liberian-owned.
    Last, my highest priority, if confirmed, will be the protection of 
Americans and American business interests, including mission personnel, 
living and traveling in Liberia.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Liberia. I am happy to answer any questions.

    Senator Coons. Thank you, Ms. Malac.
    Mr. Wharton.

STATEMENT OF DAVID BRUCE WHARTON, OF VIRGINIA, TO BE AMBASSADOR 
                  TO THE REPUBLIC OF ZIMBABWE

    Mr. Wharton. Mr. Chairman, thank you very much. I am 
honored to appear before you today, and grateful to President 
Obama and Secretary Clinton for the confidence that they have 
placed in me as their nominee for Ambassador to the Republic of 
Zimbabwe.
    And as I expressed before, I am also deeply honored by the 
presence of my wife and my son here, and their representation 
of others in my family. My family has represented the United 
States well in our five overseas assignments, and have been a 
tremendous support to me. So I thank them for that.
    Having been raised myself in a family full of stories 
about, and respect for, the people of Africa, which is a legacy 
of my grandparents' 35 years as missionaries there, and having 
raised our own children in Africa during previous Foreign 
Service assignments, the possibility of returning to Zimbabwe 
to lead the United States mission is a privilege that is full 
of personal, as well as professional, meaning for my wife and 
me.
    With full recognition of the complex challenges Zimbabwe 
faces, I am optimistic about that country's future, and I know 
that the United States has an important role to play in helping 
the people of Zimbabwe build a just, free, and prosperous 
nation.
    Though battered by more than a decade of political strife 
and economic decline, Zimbabwe retains a foundational human and 
physical infrastructure upon which it can build a strong 
future. And it is in the interest of the United States to be a 
partner in that process. If confirmed, I will continue the work 
of building productive and respectful relationships with all 
Zimbabweans of goodwill. And I will look forward to working 
with the representatives of other friends of Zimbabwe, 
especially countries in the SADC region in supporting progress 
on the Global Political Agreement and on the SADC roadmap to 
elections.
    The United States has shown our abiding concern for 
Zimbabwe through the nearly $1 billion in humanitarian relief 
and health-related assistance we have provided just in the last 
6 years. But we need to move the relationship beyond aid. The 
people of Zimbabwe are fully capable of feeding themselves, of 
meeting the nation's health and education needs, of building a 
dynamic political system, and restoring their nation's economy. 
Zimbabwe can and should be a nation of economic opportunities, 
of respect for the rule of law, and the rights of all people. 
Those are the values that reflect the core beliefs that 
Americans share with the people of Zimbabwe, and those are the 
values that we should pursue together.
    United States policy in Zimbabwe is not about regime 
change. Only the people of Zimbabwe have the right to choose 
their government. Our policies support principles, not parties 
or people. However, when the right to self-determination is 
denied, the United States cannot stand idly by. We will always 
stand up for the rights of Zimbabweans to speak, write, read, 
meet, and fully participate in their nation's political 
processes. That was United States policy in 1980 when we were 
the first nation to recognize an independent Zimbabwe, and it 
continues to be our policy. We will not always agree with the 
Government of Zimbabwe, but we will always attempt to maintain 
a respectful and open dialogue.
    The United States stands ready to alter the current 
restrictions on the relationship with Zimbabwe and to forge 
stronger economic and political ties. Full implementation of 
the Global Political Agreement, progress on the Southern 
African Development Community's roadmap, and well-managed and 
credible electoral processes should be triggers for the United 
States to open a much more dynamic relationship with one of 
Africa's most important countries.
    If confirmed, I will give special attention to the welfare 
of American citizens in Zimbabwe, and to meeting with people 
from across the rich spectrum of Zimbabwe's society, making an 
assessment of the situation there, and offering recommendations 
on the best way forward.
    As we continue to urge democratic development, we must also 
continue to invest in the people of Zimbabwe in order to 
preserve the human capital that is needed to rebuild Zimbabwe 
in the years ahead. I have faith that with this support, the 
people of Zimbabwe will find the best path forward and pursue 
it successfully.
    Thank you again for the chance to appear before you, and I 
will be happy to answer any questions you may have.
    [The prepared statement of Mr. Wharton follows:]

               Prepared Statement of David Bruce Wharton

    Mr. Chairman and members of the committee, thank you. I am honored 
to appear before you today, and grateful to President Obama and 
Secretary Clinton for the confidence they have placed in me as their 
nominee for Ambassador to the Republic of Zimbabwe.
    Having grown up in a home full of stories about and respect for the 
people of Africa--a legacy of my grandparents' 35 years as missionaries 
in what was then the Belgian Congo--and having raised our own wonderful 
three children in Southern Africa during previous Foreign Service 
assignments in South Africa and Zimbabwe, the possibility of returning 
to lead a U.S. mission is a privilege that is full of personal as well 
as professional meaning for my wife and me.
    With full recognition of the complex challenges Zimbabwe faces, I 
remain optimistic about the country's future and believe that the 
United States has an important role to play in helping the people of 
Zimbabwe build a just, free, and prosperous nation. The trajectory of 
Zimbabwe's last 15 years should not obscure the nation's tremendous 
potential. Though battered by more than a decade of political strife 
and economic decline, Zimbabwe retains a foundational human and 
physical infrastructure upon which it can build a strong future. It is 
in the interest of the United States to be a partner in that process 
and, if confirmed, I will continue the work of building productive and 
respectful relationships with all Zimbabweans of goodwill.
    The United States has shown its deep and abiding concern for 
Zimbabwe through the nearly $1 billion in humanitarian relief and 
health-related assistance we have provided just in the last 6 years. 
There is no more explicit expression of our support for the people of 
Zimbabwe than our standing by them through their times of greatest 
need. But, we need to prepare to move beyond a relationship defined by 
aid. The people of Zimbabwe are fully capable of feeding themselves, 
meeting the nation's health and education needs, building a dynamic 
political system, and restoring what was once one of the strongest 
economies in Africa. Zimbabwe can and should be a nation of economic 
opportunities, of respect for the rule of law and the rights of all 
people. Those are values that reflect the core of what Americans share 
with Zimbabweans and that we should pursue together.
    U.S. policy in Zimbabwe is not about regime change. Only the people 
of Zimbabwe have the right to change their government. Our policies 
support principles, not parties or people. However, when the right to 
self-determination is denied, as it has been in Zimbabwe through 
restrictions on citizen rights, through political violence, and 
fraudulent and mismanaged elections, the United States cannot stand 
idly by. We have taken principled steps to demonstrate our concern 
about the actions of those responsible for, and those who profit from, 
miscarriages of the promise Zimbabwe offered at independence. We will 
always stand up for the rights of Zimbabweans to speak, write, read, 
meet, organize, and fully participate in their nation's political 
processes.
    If confirmed, I will work to enable Zimbabwe to become a just, 
prosperous, and democratic state that meets the needs of its people, 
contributes to development in the region, and plays an important role 
in world affairs. That was U.S. policy in 1980 when we were the first 
nation to recognize Zimbabwe's independence, and it continues to be our 
policy. We will not always agree with the Government of Zimbabwe, but 
we will always attempt to maintain a respectful and open dialogue.
    The United States stands ready to alter the current restrictions on 
our relationship with Zimbabwe and to forge stronger economic and 
political ties.
    The full implementation of the Global Political Agreement, progress 
on the Southern African Development Community's roadmap toward 
elections, and well-managed and credible elections will be a trigger 
for the U.S. to open a much more dynamic relationship with one of 
Africa's most important countries. The United States remains open and 
willing to work with the government to support free and fairly 
elections.
    If confirmed, I will give special attention to the welfare of 
American citizens in Zimbabwe and to meeting with people from across 
the rich spectrum of Zimbabwe's society, making an assessment of the 
situation there and offering recommendations on the best way forward. 
As we continue to urge democratic development, we must also continue to 
invest in the people of Zimbabwe--the health, education, humanitarian 
aid, and business development work--to preserve the human capital 
needed to rebuild Zimbabwe in the years ahead. I have faith that with 
this support, once given the opportunity to communicate, organize, and 
express their will, the people of Zimbabwe will find the best path 
forward and pursue it successfully.
    Thank you for the chance to appear before you and I would be happy 
to answer any questions that you might have.

    Senator Coons. Thank you, Mr. Wharton.
    Mr. Laskaris.

   STATEMENT OF ALEXANDER MARK LASKARIS, OF MARYLAND, TO BE 
              AMBASSADOR TO THE REPUBLIC OF GUINEA

    Mr. Laskaris. Thank you, Mr. Chairman. I am deeply honored 
to appear before you today, and very grateful to President 
Obama and Secretary Clinton for the confidence they have placed 
in me as their nominee for Ambassador to the Republic of 
Guinea.
    For my family and me, this is another milestone in our 
American dream and our American journey, both of which began in 
the chaos of post-World War II Greece. My presence here today 
is made possible by the land of opportunity that embraced my 
late father in 1946 and my mother in 1960.
    I approach an assignment in the Republic of Guinea, if 
confirmed, knowing that Guinea has sent a large number of 
immigrants to the United States originally via the horrors of 
the African slave trade, but later in the manner of my parents, 
young people seeking better lives for themselves and their 
future children. Indeed a walk down 125th Street in Harlem 
today shows part of a prospering and vibrant Guinean-American 
community with which I will be actively engaged, if confirmed. 
Together with this diaspora, a large community of returned 
Peace Corps Volunteers, former missionaries, and other 
dedicated Americans, serve as committed advocates for Guinean-
American relations and for the welfare of the Republic of 
Guinea.
    My first exposure to the African Continent was during a 2-
year stint as a volunteer high school teacher in a township 
parochial school in Galeshewe, South Africa. It was 1989 and 
1990, and in those 2 years, I lived the miraculous democratic 
transition led by men and women of good will. As hitchhiking 
was my only means of travel, I missed Namibian independence by 
a few days, but still managed to absorb the career lesson that 
even the most momentous political changes can take place 
peacefully and democratically.
    My first exposure to the Republic of Guinea was quite the 
opposite from the inspiration of South Africa. I arrived in 
Monrovia, Liberia, my first Foreign Service posting in 1991, as 
the countries of the Mano River Union were falling into chaos 
and violence. The Guinea I first encountered was host to some 1 
million Liberian refugees. Its armed forces served in the West 
African peacekeeping force, then known as ECOMOG. And its 
government sought to avoid the abyss from which Liberia and 
Sierra Leone are only now emerging. This experience suggests to 
me that if confirmed, I will be working in a country that both 
supports us and needs our support.
    The Republic of Guinea has recently been in the headlines 
for the best reasons: real democratic progress after a 
succession of dictators. But the story behind the headlines 
reveals the longstanding social and economic challenges that 
impoverish the country and stymie its development.
    Have also served in Botswana, Angola, and Burundi, my 
experience in a number of African conflicts tells me that past 
performance is indeed an indicator of future performance when 
it comes to countries emerging from dictatorship and civil 
conflict. To break the cycle, to keep the Republic of Guinea 
from lapsing back into authoritarianism, we need to be part of 
the architecture of democracy, supporting all three branches of 
government plus media and civil society. We need engagement 
with the military to professionalize the force and bring it 
firmly and irrevocably under elected civilian authority. We 
need to be engaged in poverty relief and disease eradication, 
as well as in responsible mineral exploitation and sustainable 
agriculture.
    The Republic of Guinea achieved a landmark election in 
2010, its first free and fair democratic Presidential campaign. 
President Alpha Conde, who spent decades advocating for 
democratic change, emerged as Guinea's first ever 
democratically elected head of state, ending 50 years of 
despotic rule and military repression. However, Guinea's 
transition to a fully functioning democracy will not be 
complete until the long-anticipated legislative elections are 
held. I do not need to remind this chamber on the importance of 
the legislative branch to sustainable democracy. If confirmed, 
I will have no higher priority than helping Guinea to seat a 
new legislature and then helping that branch of government to 
fulfill its critical role--its critical institutional role.
    In the Republic of Guinea, we have a willing but 
technically limited partner on regional and international 
issues. If confirmed, I will work with the Government of Guinea 
on a coordinated approach to regional crises in Mali and 
Guinea-Bissau. I will do my best to strengthen cooperation on 
counterterrorism and counternarcotics issues, as well as other 
forms of transnational crimes, such as trafficking in persons 
and money laundering. I will also make promoting the safety and 
welfare of U.S. citizens my highest priority and seek out 
commercial opportunities for U.S. companies.
    Thank you, Mr. Chairman, for the opportunity to address you 
today. If confirmed, I look forward to working with you in 
representing the interests of the American people in Guinea. 
And I am happy to answer any questions you might have.
    [The prepared statement of Mr. Laskaris follows:]

             Prepared Statement of Alexander Mark Laskaris

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today, and grateful to President Obama and Secretary 
Clinton for the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Guinea.
    For my family and me, this is another milestone in our American 
journey and our American dream, both of which began in the chaos of 
post-World War II Greece. My presence here today is made possible by 
the land of opportunity that embraced my late father in 1946 and my 
mother in 1960.
    I approach an assignment in the Republic of Guinea--if confirmed--
knowing that Guinea has sent a large number of immigrants to the United 
States . . . originally via the horrors of the African slave trade, but 
later in the manner of my parents, young people seeking better lives 
for themselves and their future children. A walk down 125th Street in 
Harlem shows part of a prospering and vibrant Guinean-American 
community with which I will be engaged, if confirmed. Together with 
this diaspora, a large community of returned Peace Corps Volunteers, 
former missionaries, and other dedicated Americans serve as committed 
advocates for Guinean-American relations and for the welfare of the 
Republic of Guinea.
    My first exposure to the African continent was a 2-year stint as a 
volunteer high school teacher in a township parochial school in 
Galeshewe, South Africa. It was 1989 and 1990, and in those two years, 
I lived the miraculous democratic transition led by men and women of 
goodwill; as hitchhiking was my only means of travel, I missed Namibian 
independence by a few days, but still managed to absorb the career 
lesson that even the most momentous political changes can take place 
peacefully and democratically.
    My first exposure to the Republic of Guinea was quite the opposite 
from the inspiration of South Africa. I arrived in Monrovia, Liberia--
my first Foreign Service posting in 1991--as the countries of the Mano 
River Union were falling into chaos and violence. The Guinea I first 
encountered was host to some 1 million Liberian refugees; its armed 
forces served in the West African peacekeeping force, known as the 
Economic Community of West African State Monitoring Group or ECOMOG; 
and its government sought to avoid the abyss from which Liberia and 
Sierra Leone are only now emerging.
    This experience suggests to me that--if confirmed--I will be 
working in a country that both supports us and needs our support. The 
Republic of Guinea has recently been in the headlines for the best 
reasons--real democratic progress after a succession of dictators--but 
the story behind the headlines reveals the longstanding social and 
economic challenges that impoverish the country and stymie its 
development.
    My experience in a number of African conflicts tells me that past 
performance is indeed an indicator of future performance when it comes 
to countries emerging from dictatorship and civil conflict. To break 
the cycle, to keep the Republic of Guinea from lapsing back into 
authoritarianism, we need to be part of the architecture of democracy, 
supporting all three branches of government plus free media and civil 
society. We need engagement with the military to professionalize the 
force and bring it firmly, irrevocably under elected civilian 
authority. We need to be engaged in poverty relief and disease 
eradication, as well as in responsible mineral exploitation and 
sustainable agriculture.
    The Republic of Guinea achieved a landmark election in 2010, its 
first free and fair democratic Presidential campaign. President Alpha 
Conde, who spent decades advocating for democratic change, emerged as 
Guinea's first-ever democratically elected head of state, ending 50 
years of despotic rule and military repression. However, Guinea's 
transition to a fully functioning democracy will not be complete until 
the long-anticipated legislative elections are held. I do not need to 
remind this chamber on the importance of the legislative branch to 
sustainable democracy; if confirmed, I will have no higher priority 
than helping Guinea to seat a new legislature and then motivating that 
branch of government to fulfill its critical institutional role.
    In the Republic of Guinea, we have a willing but technically 
limited partner on regional and international issues. If confirmed, I 
will work with the Government of Guinea on a coordinated approach to 
regional crises in Mali and Guinea-Bissau; I will do my best to 
strengthen cooperation on counterterrorism and counternarcotics issues, 
as well as other forms of transnational crimes, such as trafficking in 
persons and money laundering. I will also make promoting the safety and 
welfare of U.S. citizens my highest priority and seek out commercial 
opportunities for U.S. companies.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Guinea. I am happy to answer any questions.

    Senator Coons. Thank you, Mr. Laskaris. Thank you to all 
four of you for those thoughtful, concise, well-rounded 
summaries of the challenges facing you in the posts to which 
you go, and for helping me gain some further insight into the 
things that motivate you to this. Whether it is a family 
history of missionary service, or personal experience as a 
Peace Corps Volunteer, or personal experience teaching in a 
township in South Africa, it is always helpful. You know, I get 
these profiles and backgrounds. It is always helpful to see and 
hear the personal experience. And the fact that, literally, you 
have spent decades in the Foreign Service across the region and 
across the world further leavens my respect for your 
willingness to serve.
    I am going to ask a series of questions that sort of 
looking at the interplay between security, democracy, and 
economic development. And I am interested in a variety of 
issues. How can we most effectively partner with these nations? 
How can we work with regional institutions? And what are the 
things we are doing right, doing wrong. And I will just ask a 
series of questions in order, if I might.
    I have about 20 minutes, and unless another member of the 
committee surprises by showing up at this point, I am simply 
going to keep asking them. I do not think we need to limit me 
by minutes or rounds or anything like that. We are not used to 
having that much freedom here.
    So if I might, Ambassador Cretz, first, I think you are the 
one nominee who referenced on the security sector both IMET and 
the state partnership. I am quite interested to hear from you 
in the future how you think the State partnership between, I 
think it is the North Dakota National Guard. Is it North or 
South Dakota?
    Ambassador Cretz. North.
    Senator Coons. North Dakota and Ghana. If I am not 
mistaken, there is a North Dakota National Guard State 
Partnership with Ghana. And this is something I have discussed 
with General Hamm as well as with some of the leaders of the 
National Guard Bureau. Our own Delaware General Vavala is the 
current chair of the adjutant's nationally.
    I think there is a lot of potential for the State 
Partnership Program, particularly in nations where you have 
militaries where accepting civilian rule, as is the case in 
Guinea, transitioning out of great conflict, as is the case in 
Liberia, have a lot to offer.
    If you have any comments for me about how our IMET work or 
the State Partnership Program with the National Guards could be 
more effective, or what promise you think it might hold, I 
would appreciate that.
    Ambassador Cretz. Mr. Chairman, I think that, first of all, 
the relationship with AFRICOM is a very important one.
    And having worked very closely with General Ward and now 
over the past year and a half with General Hamm, I am fairly 
aware of the different kinds of activities that AFRICOM can 
bring to bear.
    We do have a close relationship with the military in Ghana. 
They are apolitical. They are very professional. They have been 
a bulwark in terms of the peacekeeping efforts, whether through 
the African Union ECOWAS or the U.N. throughout the region and 
throughout the world, in fact.
    I think there is a great deal of opportunity to expand 
that. I think we have seen already that those countries that 
take advantage of our IMET programs, we find those people 
return to their countries very respectful certainly of the U.S. 
military, and certainly wanting to get more of U.S. expertise.
    So I think with respect to the relationship and the better 
coordination that we could do with the States, I certainly am 
willing to look at how we can develop that relationship 
further. I think that the National Guard units, of which my son 
is a member, especially in Delaware, bring to bear a lot of 
expertise that these countries can use in coping with the 
various crises, et cetera. And certainly given the issues that 
Ghana faces, for example, in the explosion of drug trafficking 
throughout the region, in terms of the problems in the Gulf of 
Guinea with piracy, et cetera, that there will be ample scope 
to expand that relationship between our military in the State, 
AFRICOM, and the Guinean Army as well.
    Senator Coons. Well, thank you. I will be interested to 
stay in touch about regional security, training, what ECOWAS is 
hoping to do and able to do. I think your experience in Libya 
will be particularly relevant here. And I think AFRICOM has the 
opportunity as a combatant command that does not have a lot of 
legacy assets that is relatively new to be a leader in how we 
imagine a new relationship for security with the whole region, 
where we can deploy assets, such as the National Guard, that 
have not really been utilized with the strength that I think is 
possible here.
    You mentioned in your statement new, innovative processes 
for economic growth. And I am particularly in and concerned 
about our economic relationship with Ghana. I think it is very 
strong. I am hopeful that the second MCC compact will be quite 
successful. If I remember correctly, you mentioned it is around 
power and power generation.
    I would be interested in what you see as the opportunities 
and limitations for economic growth with Ghana. They have had 
some challenges with extraction recently in terms of their oil 
discoveries. So, if you would, just to what were you referring 
in terms of innovative economic development procedures? And how 
do we make sure that Ghana does not follow the path of Nigeria, 
but instead is more like Norway? And what are the developmental 
issues you see tackling?
    Ambassador Cretz. Right. Well, I think, Mr. Chairman, that 
we--first of all, I think there is a great opportunity for 
American businesses to invest and trade in Ghana. And just as I 
have throughout my career, and especially in the last several 
years in terms of positions when I have had the ability to 
interact with American companies, this will be a main priority 
certainly of mine should I be confirmed and take over the 
mission.
    I think we have a lot of tools available to help Ghana 
improve what--even the dramatic improvements that they have 
made in trade and investment and in developing their economy 
over the past several years. We have the Africa Growth and 
Opportunity Act. We have the West Africa trade hub. We have the 
MCC, as you said. And I think the idea with the MCC is that we 
are going to be able to have a more mature relationship as we 
discuss the possibility of having a second MCC pact with Ghana 
because it will follow on the agrarian reforms that were 
undertaken in the first pact. Only this time we are asking them 
to pay a certain amount of the funding, and we are also asking 
them for some policy reform as part of that compact. So I think 
that that would be a very possible, very fruitful area for 
cooperation.
    The Partnership for Growth is also a very important aspect 
of the economic tools that we can utilize to help Ghana in this 
way because what it does is with no specific funding, it 
basically lays out a framework whereby the United States 
Government adopts a whole of government approach to helping 
Ghana develop its economy, and says that, look, if you have 
certain issues, you have certain problems within your economy 
that need to be improved, such as access to credit, the power 
infrastructure.
    We as the United States are willing to take a look at the 
various kind of policy changes, adaptions, or see what 
flexibility we have in response to policy changes that you are 
willing to take as well.
    And I think at the end of the day, if you look at the 
various economic tools that we have to work with Ghana, what 
they do is they help open--improve the climate in Ghana so as 
to make it easier and more attractive for American companies 
and others to come in to help them with their infrastructure.
    So I think there's tremendous opportunity. And, you know, 
as you mentioned, the loss of the FCS officer is a blow, there 
is no doubt. And I experienced the same thing in Libya where 
Libya is on the verge of an explosion in terms of American 
business, especially to help them rebuild after 42 years of the 
devastation of Gadhafi's rule. And we lost that officer.
    But there are ways, you know. I leave it to the Department 
of Commerce colleagues to explain what the rationale behind it 
is. But we did try to find other ways to do it. But at the end 
of the day, given the importance of helping these countries 
move forward, and given the importance of having American 
business, and help these countries, and invest in them, that 
the Embassy--other parts of the Embassy and the mission are 
going to have to pick up the slack because we cannot do without 
commercial advocacy and getting American trade, you know, 
increased, especially in a country like Ghana, which is poised 
for even more great success in that area.
    Senator Coons. I agree. Thank you, Ambassador Cretz. And I 
look forward to staying in contact as you support their work in 
preparation for the December elections, and as you further 
develop and implement the second MCC. There is also a long-
standing relationship between Delaware actually and GMSA--
Delaware State University's leadership and GMSA, which provides 
critical career training for certain mid-level managers. And 
Ghana is also of real interest to me.
    If I might, Ms. Malac, given the limitations of time, I 
will move to each of you, if I might.
    I am very interested in the National Reconciliation 
Initiative which you referenced. Given your prior experience, 
you, I know, can give some insight into how it is similar to or 
different from the reconciliation commissions that Kenya is 
currently sort of winding up, one that really was largely a 
regional model in South Africa and different others in other 
countries. What do you see as the prospects for reconciliation 
through this reconciliation initiative, and how will you 
support it as Ambassador?
    Ms. Malac. Thank you, Senator. We are still waiting for the 
fuller details on what this newest initiative is going to look 
like, and we expect that that will be forthcoming very soon. It 
appears to be something that will look different than the 
Truth-in-Reconciliation Commission, for example, that has been 
held before. So at this point, it is very difficult for me to 
give you any sort of real insight into any estimate of what 
might happen or how it might play out.
    I think, as I said in my comments, the role that the United 
States can really play is to, as appropriate, and where we can 
find ways to do so, to provide technical and/or logistical 
support in order to ensure that those kinds of constraints do 
not prevent the process from going forward. But it certainly is 
critical that is a nationwide effort and that Liberians from 
all parts of the country and all factions are able to 
participate and feel that they can do so.
    Senator Coons. And security sector reform, as you 
referenced, as the U.N. presence is drawn down, given some 
recent incidents in the border with Cote d'Ivoire, and given 
the tragic national history, what more can we and should we be 
doing, and to what extent will we be taking advantage of some 
of the partnerships that Ambassador Cretz also referenced as 
being relevant to Ghana?
    Ms. Malac. Security is a huge concern for both us and for 
the Liberian Government. I mean, given the history that the 
country has, it is clear that we need to continue to be 
vigilant in the security sector.
    I do believe that the Government of Liberia has certainly 
responded appropriately after the recent incident, has worked 
with the Government of Cote d'Ivoire, both through UNMIL and 
through UNOSE, to take steps to move more forces into the 
region, to try to at least shut down some of that cross-border 
activity.
    But it is going to be an ongoing challenge. It is something 
that we are going to have to watch as UNMIL starts this 
drawdown, and certainly President Sirleaf has expressed her 
concern about this phased withdrawal. There will be a 
requirement for very close coordination both between the United 
States, the Government of Liberia, UNMIL, and other donors who 
are active in this sector to ensure that this all happens in a 
very manageable and responsible fashion. It is going to be 
still a long process to get to the point where we have enough 
capacity within Liberia itself to provide for its own security.
    But if confirmed, certainly this will be a very high 
priority for me and will be something that I suspect will take 
a great deal of my time and energy.
    Thank you.
    Senator Coons. Mr. Laskaris referenced the vibrant Guinean 
diaspora community. There is certainly a strong Liberian 
diaspora community that just by coincidence has a strong 
footprint in the State of Delaware. The last time I saw 
President Johnson Sirleaf, I was referencing that there was a 
reunion of an Episcopal high school from Liberia that has folks 
from all over the United States, as well as two very large 
family reunions happening in Delaware of Liberians.
    I think this is an important emerging strategy for economic 
development, helping access American entrepreneurship, 
financing, export opportunities. What advantage will you take 
of the tools available to an ambassador? You mentioned $16 
billion, if I am not mistaken, in foreign direct investment in 
Liberia.
    I was very concerned at my first meeting with President 
Johnson Sirleaf about her comments about the Chinese and their 
very sizable infrastructure investments, her desire for 
partnership with the United States, but our very real lack of 
available programs or resources outside of MCC or Partnership 
for Growth.
    What advice would you have for me about how we might 
strengthen those opportunities, and what do you hope to do as 
Ambassador?
    Ms. Malac. Thank you, Senator. Well, you have raised 
several very good issues here.
    I think on the diaspora side, there is, in fact, a program 
through--both through UNDP, and USAID itself provides some 
funding to help try to match individuals and organizations 
within the diaspora with Liberia to bring particular skills or 
expertise to bear in different sectors. And so certainly this 
is actually something I just learned about in the last couple 
of days, and have great interest in, and will certainly make it 
a priority to find out more about this program, having worked 
with other countries where we have a vibrant diaspora--Somalia 
comes to mind.
    We believe very firmly that they can play a role in a 
country like Liberia in a post-conflict situation where there 
is so much need and so much to be done. So I can assure you 
that at least in that regard, we are looking--I would be 
looking, if confirmed, to build some of those bridges and work 
to support efforts that the Government of Liberia itself has 
put into place to try to tap into that diaspora expertise 
because there is a lot of potential there.
    As for the Chinese, they are a relatively small presence, 
as it were, in Liberia compared to some places on the 
continent. But, of course, they are looking, as they always 
are, to enlarge that footprint. They are currently working on 
World Bank grants to build road infrastructure in Liberia. I 
mean, again, there is a lot to be done in terms of 
infrastructure building, so there is lots of room for everyone.
    You can have my pledge that if confirmed, I will do 
everything I can to identify opportunities for U.S. business, 
not just in the infrastructure arena obviously, but in all 
aspects of the economy
because there is potential there, I think, for U.S. businesses. 
And we are only at the beginning end of that.
    But we are seeing progress in that regard. U.S. presence on 
the economic side has been steadily increasing, and I can 
assure you if confirmed, that it will be a high priority for 
me.
    Thank you.
    Senator Coons. Thank you. Mr. Wharton, Zimbabwe is 
certainly a nation with great economic potential that has gone 
through one of the worst economic collapses we have seen in 
recent history. I have in my office--what is it?
    I think it is a $100 trillion bank note. My kids thought it 

was fake. Sadly, it is not. My sense is they have sort of 
clawed 
their way back out by largely adopting the U.S. dollar's 
working currency.
    I would be interested in hearing what you view--I 
appreciated your statement that our policy is not regime 
change, but rather the opportunity for self-determination. 
There have been calls from other of our allies at SADC and U.N. 
and others for us to either review or relax our sanctions. On 
what conditions and at what timeline do you think we would 
consider that, and then how will you support appropriate 
political progress, hopefully forward progress in Zimbabwe?
    Mr. Wharton. Thank you, Senator. I think that, in fact, 
those are key issues in the relationship between the United 
States and Zimbabwe, and in Zimbabwe's way forward.
    One of the problems with sanctions that I am sure you are 
aware of is that they have turned into talking points for the 
ruling party in Zimbabwe.
    I do not think, though, that the evidence supports the 
thesis that American sanctions have hurt Zimbabwe's economy. I 
note that the Zimbabwe Democracy Economic Recovery Act has been 
in force for 11 years now, but in the last 3 years, Zimbabwe's 
economy has grown by 7, 8, 9 percent per year. Per capita GDP 
has grown about 5 percent a year. And the agricultural and 
mining sectors have grown by nearly 50 percent.
    So I think that the key to continued economic development 
in Zimbabwe actually has more to do with economic policies in 
Zimbabwe, and establishing a sort of transparent framework and 
rule of law that will encourage investors, businesses, and 
Americans, I hope among them, to take another look at Zimbabwe.
    I believe that the individual sanctions that we have placed 
on about 120 individuals and about 70 entities have had an 
effect. And, again, I would cite recent economic growth as an 
indication that these specific sanctions and travel 
restrictions have not hurt the larger Zimbabwean economy.
    I believe, though, that we do need to make it clear that 
our policies are flexible. They are not static. And we should 
be able to adjust them in response to democratic progress and 
progress on the rule of law on the ground in Zimbabwe.
    Some of the benchmarks that I think would be important I 
mentioned in my statement: continued progress on the Global 
Political Agreement, clear progress toward the SADC roadmap on 
elections. And one of the things that I think would be 
especially important would be an express commitment from the 
Government of Zimbabwe to welcome international as well as 
national election monitoring groups, groups that could come in 
6 months or even a year before the election to take a look at 
and certify, essentially build international confidence that 
the people of Zimbabwe have, in fact, had the right to choose 
their own government.
    So those are some of the benchmarks that I think would be 
critical as we look at adjusting our own policy.
    Senator Coons. Thank you. Forgive me because I am greatly
interested in the transition in Zimbabwe. I have to go preside 
over the body, the Senate, in 7 minutes. And so I am going to 
turn to Mr. Laskaris for a final question, if I might.
    I was just interested to read about the Guinean mining code 
of 2011 and some of the other changes that they are making in 
the direction of post-security sector reform and economic 
reform. What do you think are the most important steps Guinea 
can take to stabilize and secure its transition toward both 
rule of law and predictability and civilian supervision of the 
military? And what do you think are going to be the most 
important steps you will take as Ambassador in these areas?
    Mr. Laskaris. Well, thank you, Senator. I think one thing 
we have learned in the Africa Bureau over the last two decades 
is that elections are necessary, but not sufficient, for 
democratic development. We held a successful election, but we 
realized that what I call the architecture of democracy needs 
to follow along with that.
    And so let us start on the security side. One of the few 
forms of military assistance that we did not suspend as a 
result of the coup in Guinea is a security sector reform 
advisor who is embedded in the Guinean ministry of defense. And 
that person works with regional, with donors, and local 
counterparts trying to devise the policy moving forward on 
reforming the security services. And that is specifically 
professionalizing it, bringing it firmly and irrevocably under 
the control of elected civilian authorities, improving its 
human rights record, improving its civil military relations.
    I think we need to give the Government of Guinea a very 
clear roadmap on the conditions under which IMET would be 
resumed. And if we do that, I will report faithfully back to 
the Department and let the Washington policy community make a 
determination as if those conditions had been met. If those 
conditions are met, I would recommend moving to an IMET 
program, what we used to call expanded IMET, which is the focus 
on civil military relations, professionalization of the force.
    As I mentioned in my statement, Senator, Guinea has been a 
reliable and consistent troop contributor to regional 
peacekeeping, both under the ECOWAS umbrella and under the 
United Nations umbrella. I think it is an area of real mutual 
interest that we get the Guinean Armed Forces into the 
peacekeeping function through ACODA and through subregional and 
international means.
    So, again, given a roadmap to the Government of the 
Republic of Guinea, if they meet the conditions for resumption 
of that kind of aid, I think we need to be looking at Guinea as 
a troop contributor and folding it into broader Africana 
activities on the continent.
    On the rule of law side, sir, No. 1, I think there is a 
national reconciliation commission in Guinea. From what I can 
tell, it really has yet to be fleshed out. It has really yet to 
function. I think one of our key priorities as donors, as the 
United States Government, is to end the culture of impunity in 
Guinea, and you do that through a transitional justice 
mechanism. It can be the Truth-in-Reconciliation Commission 
model of South Africa or the Rwandan Cachaca model of tribal 
justice.
    Guinea is an overwhelmingly Islamic country. It can come 
through the institutions of Islam. It can come through the 
indigenous tribal institutions of the country. What the United 
States thinks of that is less important than what the Guineans 
think of the legitimacy of that process. So if confirmed, I 
will get out there and try to work within the context of 
Guinean culture to find something that the Guinean people 
regard as a legitimate means of addressing the crimes of the 
past.
    On the question of the mining law, specifically, and 
drawing on your question to my colleague about China, I think 
the United States mining industry should welcome free and fair 
competition on a level playing field. So I think it is my 
obligation as chief of mission, if confirmed, to make sure the 
regulatory system is free, it is transparent, and it meets the 
world-class standard, is capable of attracting world-class 
companies, including those from the United States.
    Senator Coons. Thank you, Mr. Laskaris.
    Mr. Wharton, Ms. Malac, Ambassador Cretz, I am deeply 
interested in the issues we have raised today and wish I could 
dedicate more time to it. One of the things I have not done as 
a Senator is be late to preside, so I hope to maintain that 
now.
    Jeffrey, thank you for your service. I am a past honorary 
commander of the 166th, and I hope that if there is anything my 
office or I could do to support you, you will let me know.
    To everyone from the families of these four very talented 
nominees, thank you for being with us here today. And I look 
forward to hearing from you as you serve as our Ambassadors in 
very important regions. I know Senator Isakson and I really 
enjoy serving together and intend to travel regularly to Africa 
in the years ahead. It is my hope to continue on this 
subcommittee for some time, and so developing relationships and 
knowing how we can support and sustain you in your very 
important work is of real value to me. And I believe I also 
speak for Senator Isakson in that regard. We are both very 
grateful for your willingness to serve.
    We will keep the record open for a week for any member of 
the committee who may wish to submit questions for the record.
    Senator Coons. We are otherwise for today adjourned. 
Congratulations.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

 
    NOMINATIONS OF MARCIE RIES, JOHN KOENIG, MICHAEL KIRBY, THOMAS 
                 ARMBRUSTER, AND GRETA CHRISTINE HOLTZ

                              ----------                              


                        WEDNESDAY, JULY 18, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Marcie B. Ries, of the District of Columbia, to be 
        Ambassador to the Republic of Bulgaria
John M. Koenig, of Washington, to be Ambassador to the Republic 
        of Cyprus
Hon. Michael David Kirby, of Virginia, to be Ambassador to the 
        Republic of Serbia
Thomas Hart Armbruster, of New York, to be Ambassador to the 
        Republic of the Marshall Islands
Greta Christine Holtz, of Maryland, to be Ambassador to the 
        Sultanate of Oman
                              ----------                              

    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Shaheen, Menendez, and Barrasso.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. Welcome. I am 
pleased to open these nomination hearings this afternoon and 
pleased to be joined by Ranking Member Senator Barrasso from 
Wyoming.
    Today the Senate Foreign Relations Committee considers the 
nominations of Marcie Ries to be the U.S. Ambassador to 
Bulgaria; John Koenig to be the Ambassador to Cyprus; Michael 
Kirby to be the Ambassador to Serbia; Thomas Armbruster to be 
Ambassador to the Marshall Islands; and Greta Holtz to be 
Ambassador to Oman.
    We have a wide variety of posts under consideration today 
and an impressive panel of Career Foreign Service nominees. 
Each of you will be critical in helping to meet U.S. 
responsibilities and protecting American interests throughout 
Europe, the gulf, and the Pacific.
    First on the agenda today, the committee is going to 
examine our relationship with Bulgaria, and as some of you may 
have already heard, this afternoon there was an explosion in 
Bulgaria on a bus carrying tourists from Israel. It killed at 
least seven civilians and wounded many more. Early reports 
suggest that this was a suicide bomb attack likely aimed at 
innocent Israeli civilians. If true, it represents the kind of 
cowardly attack that has been condemned by civilized society 
across the world. We must all stand together to strongly 
condemn those individuals responsible for the attack and to 
hold accountable any associated terrorist organizations or 
nations who played a role in this heinous and senseless 
violence against innocent civilians.
    There have been a number of attempted attacks against 
Israeli diplomats in recent months around the world, and if 
this explosion proves to be a similar attack, it will be part 
of a troubling pattern that should not be accepted by the 
international community. I am confident that the United States 
will do everything in its power to work with Bulgarian and 
Israeli officials to fully investigate the attack and reveal 
those responsible. And when we get to the question and answer 
portion of this afternoon's hearing, I will ask the nominee to 
be Ambassador to Bulgaria if she would comment.
    As a relatively new member of the NATO alliance, Bulgaria 
has contributed significantly to the military and training 
effort in Afghanistan and it continues to provide the United 
States with several of its military bases for joint training 
exercises in Southeast Europe. As one of the poorest countries 
in the European Union, Bulgaria faces serious issues with 
respect to organized crime, corruption, and trafficking which 
need to be more robustly addressed.
    This afternoon we will also consider U.S. policies with 
respect to the Republic of Cyprus, a critical ally of the 
United States and an EU Member State that took over the 
rotating Presidency of the European Union this month. As I and 
26 other U.S. Senators attested to in a letter to President 
Obama last fall, the U.S.-Cyprus friendship remains an anchor 
of American foreign policy in the strategically important 
Mediterranean region, and our relationship is based on shared 
traditions of freedom, democracy, and a market-based economy. 
In fact, one of the strongest components of our bilateral 
relationship is the active and vibrant Hellenic-American 
community in the United States, and if you will forgive me for 
being parochial, particularly in my home State of New Hampshire 
where we have the highest percentage of Hellenic Americans in 
the country.
    The ongoing division of Cyprus has lasted for far too long, 
and a fair and lasting reunification agreement which benefits 
all Cypriots is in everyone's strategic interest. I hope the 
United States will continue to encourage all parties, including 
Turkey, to work toward a fair resolution.
    We will also discuss U.S. relations with Serbia, a 
critically important country in the challenging region of the 
Western Balkans. Serbia's most recent elections have brought 
new leadership to the country with Tomislav Nikolic and his 
Serbian Progressive Party winning the Presidency and leading 
the new parliamentary coalition there. The new leadership has 
committed to continue the previous administration's path toward 
EU integration. I hope that Belgrade will make progress in the 
ongoing dialogue with Kosovo and will be a constructive partner 
with the international community in Bosnia. I share the 
concerns of our State Department over recent comments by 
Serbia's new leadership denying the Srebrenica genocide, and I 
would urge the Nikolic administration to do more to promote 
reconciliation rather than divisiveness at this important time 
for the Western Balkans.
    Today we will also consider America's relationship with the 
Marshall Islands, a country in the northern Pacific that has 
long had a unique free association agreement with the United 
States since it gained its independence in 1986--the Marshall 
Islands, obviously, not the United States. The Marshall Islands 
also provide a critical missile defense base for the United 
States in the Pacific.
    And finally today we will examine U.S. policies with 
respect to Oman, a strategically located sultanate in the 
Persian Gulf. The United States has long had a constructive 
security partnership with Oman, and despite some important 
political reforms over the course of the last several decades, 
protests in the early part of last year highlight the 
importance of the United States doing more to encourage the 
sultanate to continue to open up its political process and give 
the people of Oman a voice in its government.
    Now, before introducing our panel, I will turn over the 
chair to the ranking member, Senator Barrasso, for his 
statement.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman. And I would like to associate myself with your 
remarks about the act of violence in Bulgaria and the senseless 
loss of life of Israeli citizens. So I appreciate your comments 
and we know it is a heartfelt and great concern.
    Today the Senate Committee on Foreign Relations meets to 
consider five positions from different areas around the globe. 
Each of your nominations is important to fostering vital 
relationships and promoting U.S. national interests. There are 
real challenges ahead, and it is important that the United 
States continues to be a strong leader across the globe. Should 
you represent our Nation as a U.S. Ambassador, it is important 
that each of you, No. 1, provide strong stewardship of American 
taxpayer dollars; No. 2, demonstrate professionalism and good 
judgment; and No. 3, vigorously advocate for the priorities of 
the United States.
    I look forward to hearing your goals for each of these 
countries and your plan for achieving them, and I join Madam 
Chairman in congratulating each and every one of you on your 
nominations. And I want to extend also a warm welcome to all of 
your family and friends who are here joining you today.
    Thank you, Madam Chairman.
    Senator Shaheen. Thank you, Senator Barrasso.
    Today we have five distinguished nominees with wide-ranging 
experience and expertise. All five members of our panel are 
career members of the Foreign Service who have served 
extensively in leadership posts around the world and here in 
Washington. Together the panel represents over 14 decades of 
experience working in the Foreign Service. And I must say none 
of you look old enough to--even combined--represent 14 decades. 
That is a very long time.
    But first, going from right to left--at least my right to 
your left--up first we have Ambassador Marcie Ries, nominated 
to be the United States Ambassador to Bulgaria. Ambassador Ries 
is currently the Principal Deputy Assistant Secretary of State 
for Arms Control, Verification, and Compliance and has 
previously served as the United States Ambassador to Albania.
    Next, we have John Koenig who is nominated to be our 
Ambassador to the Republic of Cyprus. Mr. Koenig most recently 
served as the political advisor to the Allied Joint Force 
Command in Naples and as the Deputy Chief of Mission in Berlin.
    We also have Ambassador Michael Kirby, the nominee to be 
the United States Ambassador to Serbia. He is currently the 
Principal Deputy Assistant Secretary of State for Consular 
Affairs and previously served as the United States Ambassador 
to Moldova.
    Mr. Thomas Armbruster has been nominated to be the United 
States Ambassador to the Marshall Islands. He is currently a 
diplomat in residence at City College in New York and was 
previously the consul general at the United States consulate in 
Vladivostok, Russia.
    And finally today we have Greta Holtz, the nominee to be 
our Ambassador to Oman. Ms. Holtz is the Deputy Assistant 
Secretary of State for Public Diplomacy in the Bureau of Near 
Eastern Affairs, and prior to that, she was the director of 
provincial affairs at the United States Embassy in Baghdad.
    Congratulations to each of you on your nominations. We 
thank you for taking on these important jobs and look forward 
to hearing from you this afternoon.
    And I would just ask when you are testifying, if you would 
feel free to introduce any family or friends who are here with 
you. We understand that we ask a lot of your families when you 
are serving in our diplomatic core, and we want to have the 
opportunity to thank them as well for their service jointly 
with you. So I thank all of you.
    I am actually going to begin this afternoon with Ms. Holtz 
because we are still expecting some people in the audience, and 

so we are going to left to right. So if you would begin with 
your testimony.

    STATEMENT OF GRETA CHRISTINE HOLTZ, OF MARYLAND, TO BE 
              AMBASSADOR TO THE SULTANATE OF OMAN

    Ms. Holtz. Thank you very much, Madam Chairman and 
distinguished members of the committee. I thank you for the 
opportunity to appear before you today.
    I am very honored to be President Obama's nominee to serve 
as Ambassador to the Sultanate of Oman. I deeply appreciate the 
confidence that the President and Secretary Clinton have shown 
in me.
    If confirmed by the Senate, I will employ the full range of 
our diplomatic tools to help achieve our goal of a stable, 
secure, and democratic Middle East. I will work with our Omani 
partners on counterterrorism, counterproliferation, and 
encourage their efforts to promote transparency, 
accountability, and reform. With our private sector partners, I 
will encourage expansion of the commercial ties between the 
United States and Oman, together with efforts to diversify the 
Omani economy through the development of entrepreneurship and 
the additional empowerment of women and youth. Finally, I will 
work with the Government of Oman to promote the growth of 
independent civil society and deepen the people-to-people 
engagement that we have between our two countries.
    Thank you very much, Madam Chairman, for allowing me 
recognize my family. I have here today with me my husband, 
Paco; our two daughters, Victoria and Alexandra; and a dear 
friend Annie. Our son, Anthony, is in music camp in Michigan 
and cannot be with us today.
    Senator Shaheen. Thank you. Can we just ask you all if you 
would raise your hands? Great. Thank you.
    Ms. Holtz. Thank you very much.
    I want to thank them for their endless support through 
accompanied and unaccompanied tours in Saudi Arabia, Yemen, 
Tunisia, Syria, Turkey, and Iraq. They have loved our tours 
together in the region and have been stoic during long 
separations.
    The United States and Oman have shared a strong and dynamic 
relationship since the earliest days of our Nation's history. 
This bond dates back to 1790 when the Boston brig Rambler 
entered the port of Muscat. In 1833, the United States and Oman 
concluded a treaty of friendship and navigation.
    The United States and Oman enjoy an excellent security 
relationship and work together to pursue shared regional 
strategic objectives, enhanced border security, and freedom and 
safety of navigation in vital shipping lanes. Operation 
Enduring Freedom, Operation Iraqi Freedom, and other 
contingency operations have benefited from Omani support and 
cooperation. The Omani military is well trained, pursues a 
focused strategy, and is regarded as one of the most 
professional armed forces in the region. If confirmed, I will 
work hard to broaden and deepen the decades-long security 
relationship between the United States and Oman.
    From the United Nations to the Gulf Cooperation Council and 
the Arab League, Oman has played an active and helpful role in 
multilateral diplomacy. In neighboring Yemen, Oman invests 
significant resources in a strategy of stabilization through 
political engagement, development aid, and humanitarian 
assistance. Oman is a strong partner of the United States in 
countering terrorism and extremism in the Arabian Peninsula.
    Since Sultan Qaboos bin Said came to power in 1970, Oman 
has made dramatic gains in its development, emerging as a 
modern state with first-class infrastructure and modern 
educational institutions. In the 2010 U.N. Human Development 
Report, Oman ranked No. 1 out of the 135 countries studied for 
progress in the previous 40 years in human development which 
focuses on education, access to quality health care, and other 
basic living standards.
    The sultan has demonstrated his ongoing interest in 
partnering with the institutions of higher education around the 
world, including our own. In 2011, Oman established a new 
scholarship program through which more than 500 young Omanis 
have enrolled in higher education in the United States. Last 
October, the sultan funded an endowed professorship of Middle 
East studies at the College of William and Mary.
    Madam chairman, with your permission, I will end my oral 
testimony here and submit the rest as my written statement.
    [The prepared statement of Ms. Holtz follows:]

              Prepared Statement of Greta Christine Holtz

    Madam Chairman and distinguished members of the committee, I thank 
you for the opportunity to appear before you today.
    I am honored to be President Obama's nominee to serve as Ambassador 
to the Sultanate of Oman. I deeply appreciate the confidence that the 
President and Secretary Clinton have shown in me. If confirmed by the 
Senate, I will employ the full range of our diplomatic tools to help 
achieve our goal of a stable, secure, and democratic Middle East. I 
will work with our Omani partners on counterterrorism and 
counterproliferation, and will encourage their efforts to promote 
transparency and accountability. With our private sector partners, I 
will encourage expansion of the commercial ties between the United 
States and Oman together with efforts to diversify the Omani economy 
through the development of entrepreneurship, and the empowerment of 
women and youth. Finally, I will work with the Government of Oman to 
promote the growth of independent civil society, and deepen people-to-
people engagement between our two countries.
    I would like to pause for a moment, Madam Chairman, to recognize my 
husband, Paco Cosio-Marron, our children, Victoria, Alexandra, and 
Anthony, and my sister, Carla Holtz, who are with me here today. I 
thank them for their endless support through accompanied and 
unaccompanied tours in Saudi Arabia, Yemen, Tunisia, Syria, Turkey, and 
Iraq. They have loved our tours together in the region, and have been 
stoic during long separations.
    The United States and Oman have shared a strong and dynamic 
relationship since the earliest days of our Nation's history. This bond 
dates back to 1790, when the Boston brig Rambler entered the port of 
Muscat. In 1833, the United States and Oman concluded a treaty of 
friendship and navigation.
    The United States and Oman enjoy an excellent security 
relationship, and work together to pursue shared regional strategic 
objectives, enhanced border security, and freedom and safety of 
navigation in vital shipping lanes. Operation Enduring Freedom, 
Operation Iraqi Freedom, and other contingency operations have 
benefited from Omani support and cooperation. The Omani military is 
well-trained, pursues a focused strategy, and is regarded as one of the 
most professional armed forces in the region. If confirmed, I will work 
hard to broaden and deepen the decades-long security relationship 
between the United States and Oman.
    From the United Nations to the Gulf Cooperation Council, and in the 
Arab League, Oman has played an active and helpful role in multilateral 
diplomacy. In neighboring Yemen, Oman invests significant resources in 
a strategy of stabilization through political engagement, development 
aid, and humanitarian assistance. Oman is a strong partner in 
countering terrorism and extremism in the Arabian Peninsula.
    Since Sultan Qaboos bin Said came to power in 1970, Oman has made 
dramatic gains in its development, emerging as a modern state with 
first class infrastructure and modern educational institutions. In the 
2010 U.N. Human Development Report, Oman ranked No. 1 out of the 135 
countries studied for progress in the previous 40 years in ``human 
development,'' which focuses on education, access to quality health 
care, and other basic living standards.
    The Sultan has demonstrated his ongoing interest in partnering with 
institutions of higher education around the world, including our own. 
In 2011 Oman established a new scholarship program through which more 
than 500 young Omanis have enrolled in higher education in the United 
States Last October, the Sultan funded an endowed professorship of 
Middle East Studies at the College of William and Mary.
    Oman has made important strides in promoting women's rights and 
participation in public life. Omani women serve in elected and 
appointed political offices, including two Cabinet posts. In 2005 Oman 
was the first Arab country to appoint a woman as Ambassador to the 
United States, the Honorable Hunaina Al Mughairy, who remains a pillar 
of Washington's diplomatic community. Omani women comprise over 40 
percent of university students, though female illiteracy remains a 
significant problem. The Government of Oman is making an effort to 
strengthen legislation that will enhance the resources available for 
women and children in health and education. The State Department's 
Middle East Partnership Initiative (MEPI) has, for many years, 
supported training and other programming for Omani women, and if 
confirmed, I look forward to enhancing those efforts.
    The Sultan took quick action to respond to demands by the Omani 
public for greater civic participation early last year. There were 
elections for the country's Consultative Council, a Cabinet shuffle 
that incorporated several members of the elected Council into 
leadership positions in government, and programs to address 
unemployment. If confirmed, I will encourage Oman, our friend and 
partner, to continue to respond to the hopes and aspirations of its 
people.
    Economic and commercial ties between our two countries are growing 
rapidly across a variety of sectors. U.S. exports to Oman were over 
$1.4 billion last year, and bilateral trade volume is up over 50 
percent since January 2009, when the U.S.-Oman Free Trade Agreement 
came into effect. If I am confirmed, I will place a high priority on 
ensuring that U.S. companies have the support needed to pursue new 
commercial opportunities in Oman.
    The important cultural connection between our two countries was 
demonstrated recently by the 2011-2012 inaugural season of the Royal 
Opera House in Muscat. Over the past year, world-renowned American 
artists such as Wynton Marsalis, 
Yo-Yo Ma and Renee Fleming shared the great American performing arts 
tradition with sold-out audiences in Muscat. The Kennedy Center will 
continue its partnership with the Opera House in the coming season, in 
which American artists will headline nine performances. If confirmed, I 
look forward to encouraging a blossoming cultural relationship.
    I would also like to assure you that, if confirmed, my highest 
priority will be protecting the safety and security of the dedicated 
men and women at our mission, as well as all Americans living in, 
working in, and visiting Oman.
    Finally, if confirmed, I also look forward to welcoming the 
committee's members and staff to Muscat. Madame Chairman, thank you for 
this opportunity to address the committee. I look forward to your 
questions.

    Senator Shaheen. That would be great. Thank you.
    Mr. Armbruster.

    STATEMENT OF THOMAS HART ARMBRUSTER, OF NEW YORK, TO BE 
       AMBASSADOR TO THE REPUBLIC OF THE MARSHALL ISLANDS

    Mr. Armbruster. Thank you very much, Madam Chairman and 
members of the committee. It is a pleasure to appear before you 
today as President Obama's nominee for the Republic of the 
Marshall Islands as United States Ambassador. I am thankful for 
their confidence and would welcome the chance to work with you, 
this committee, and other Members of Congress, and would be 
honored to advance American interests in the Pacific.
    I would like to introduce my wife, Kathy, and son, Bryan, 
who are here with me and Kathy's mom, Kitty Chandler, and also 
my brother, Chris, and his daughter, Natalie. They have joined 
me on this career path from Hawaii to Finland, to Cuba, Russia, 
Mexico, Tajikistan. We have all got a lot of mileage.
    The Marshall Islands is a key partner in the United States 
deepening commitment in the Pacific. Secretary Clinton said: 
``One of the most important tasks of American statecraft over 
the next decade will be to lock in a substantially increased 
investment--diplomatic, economic, strategic, and otherwise--in 
the Asia-Pacific region.'' And in just a few weeks, Assistant 
Secretary Campbell and Admiral Haney will travel to the 
Marshall Islands underscoring our commitment to the region.
    The United States and the Marshall Islands have a close and 
special relationship. The Marshall Islands, as you said, Madam 
Chairman, became part of the U.N. Trust Territory of the 
Pacific Islands under the administration of the United States 
after World War II, and in 1986, the Compact of Free 
Association came into force and the RMI, Republic of the 
Marshall Islands, became an independent state. Accordingly, 
citizens of the RMI can live, study, and work in the United 
States without a visa. The compact obliges our two countries to 
consult on foreign policy, and I am happy to say that the RMI 
has an excellent voting affinity with the United States in the 
United Nations, sharing our positions on many contentious 
issues, including human rights and Israel.
    Under the compact, the United States is committed to 
defending the Marshall Islands. The RMI has no military of its 
own, and Marshallese citizens serve in the U.S. Armed Forces, 
volunteering at a higher rate than citizens from any individual 
State. And Jefferson Bobo was the first Marshallese cadet to 
graduate from the U.S. Coast Guard Academy in May 2011.
    As mentioned, Senator, the Marshall Islands hosts the U.S. 
Army's Ronald Reagan Ballistic Missile Defense Test Site on 
Kwajalein Atoll, known as USAKA. The base is the country's 
second-largest employer. And I met with General Formica and his 
talented and dedicated team at the Space and Missile Defense 
Command in Huntsville. I know what an important job they have. 
The test site plays a significant role in the U.S. missile 
defense research, development, and testing network. It is used 
to monitor foreign launches, provides deep-space tracking, and 
is an ideal near-equator launch site for satellites. If 
confirmed, I will work to maintain the strong relationship 
between USAKA and the Marshall Islands Government and promote 
USAKA's beneficial role for affiliated Marshallese communities.
    The United States and the Marshall Islands have a 
developing economic relationship. To help achieve the goal of 
self-sufficiency, the United States will provide the Government 
of the RMI over 
$60 million a year in assistance through 2023. The majority of 
our assistance goes toward health, education, environment, and 
a jointly managed trust fund will serve as a source of income 
after that grant assistance expires in 2023.
    Despite our aid, Marshallese citizens struggle with health 
issues, unemployment, and social problems. More has to be done 
to prepare young Marshallese for today's global economy. I 
believe education is the key. If confirmed, I intend to do 
everything I can to ensure that our programs are effective and 
will lead the country team in a whole-of-government approach.
    If confirmed, I will draw on my experience from postings 
throughout the world to work cooperatively with Marshallese 
officials and society. We have a lot of interagency departments 
in the Marshall Islands, and I will be happy to work with them 
to coordinate that effort.
    The Marshallese are great Pacific navigators, and I am sure 
we can chart a course together. I would like to continue the 
great work Ambassador Martha Campbell is doing with her staff 
of 39 officers, local staff, and guards.
    Thank you, Madam Chairman, for your consideration, and I 
welcome questions later.
    [The prepared statement of Mr. Armbruster follows:]

               Prepared Statement Thomas Hart Armbruster

    Madam Chairman, Ranking Member Barrasso, members of the committee, 
it is an honor to appear before you today as President Obama's nominee 
to be the U.S. Ambassador to the Republic of the Marshall Islands 
(RMI). I am thankful to President Obama and Secretary Clinton for the 
confidence shown in me by this nomination. If confirmed, I would 
welcome the chance to work with you, this committee, and other Members 
of Congress to advance American interests in the Pacific.
    I would like to introduce my wife, Kathy, and son, Bryan, who along 
with our daughter, Kalia, have traveled every step of my career path 
from Hawaii to Finland to Cuba, Russia, Mexico, Tajikistan, and New 
York serving the United States in the Foreign Service.
    The Marshall Islands is a key partner in the United States 
deepening commitment to the Pacific. Secretary Clinton said: ``One of 
the most important tasks of American statecraft over the next decade 
will be to lock in a substantially increased investment--diplomatic, 
economic, strategic, and otherwise--in the Asia-Pacific region.''
    The United States and the Marshall Islands have a close and special 
relationship dating back to the end of the Second World War, when the 
Marshall Islands became part of the U.N. Trust Territory of the Pacific 
Islands under the administration of the United States. In 1986, the 
Marshall Islands and the United States signed the Compact of Free 
Association and the RMI became an independent state. This Compact, 
which was amended in 2004 to extend economic assistance for an 
additional 20 years, provides the framework for much of our bilateral 
relationship. Under the Compact, citizens of the RMI can live, study, 
and work in the United States without a visa. The Compact obliges the 
two countries to consult on matters of foreign policy, and the RMI 
Government has an excellent voting affinity with the United States in 
the United Nations, sharing our positions on many contentious issues, 
including on human rights and Israel.
    Mutual security of our nations is an underlying element of the 
special relationship between the United States and the Republic of 
Marshall Islands. Under the Compact the United States has committed to 
defend the Marshall Islands as if it were part of our own territory, 
and the RMI has no military of its own. Marshallese citizens serve in 
our Armed Forces, volunteering at a higher rate than citizens from any 
individual state. Jefferson Bobo was the first Marshallese cadet to 
graduate from the Coast Guard Academy in May 2011. He will do his part 
to defend global peace and security, in peacekeeping missions, in U.S.-
led combat operations, and in patrolling the world's waterways. If 
confirmed, I will work closely with the host government and the 
Marshallese people to ensure such mutual benefits of our close 
relationship are widely recognized.
    The United States also enjoys complete access to Marshallese ports, 
airports, and airspace, a vital asset for our defense and security 
needs. The Marshall Islands hosts the U.S. Army's Ronald Reagan 
Ballistic Missile Defense Test Site on Kwajalein (known as USAKA). The 
base is the country's second-largest employer, second only to 
government services. I met with General Formica and his talented and 
dedicated team at the Space and Missile Defense Command Headquarters in 
Huntsville and know how important their work is. The test site plays a 
significant role in the U.S. missile defense research, development, and 
testing network. It is used to monitor foreign launches and provide 
deep-space tracking and is an ideal near-equator launch site for 
satellites. Under the Amended Compact, the United States has access to 
Kwajalein through 2066 with the option to extend until 2086. Continued 
access is important, but as important is a good relationship with the 
Marshallese. If confirmed, I will work to maintain the strong 
relationship between USAKA and the Marshall Islands Government and to 
promote USAKA's beneficial role for affiliated Marshallese communities.
    The United States and the Marshall Islands also have an important 
economic relationship. To help achieve the Compact goal of economic 
self-sufficiency, the United States will provide the Government of the 
RMI over $60 million a year in economic assistance through FY 2023. The 
majority of this assistance is provided as grants directed toward six 
sectors: health, education, infrastructure to support health and 
education, public sector capacity-building, private sector development 
and the environment. In addition, U.S. federal agencies operate more 
than 20 different government programs in the Marshall Islands. Another 
very important aspect of the Compact is a jointly managed Trust Fund 
that will serve as a source of income for the Marshall Islands after 
annual grant assistance expires in 2023. If confirmed, I will promote 
economic development and strongly advocate that the Marshallese work 
vigorously toward economic self-sufficiency, which is one of the 
primary goals of the Compact, as Amended.
    Maintaining a solid partnership requires work on both sides. 
Education is a priority sector under the Amended Compact, but more has 
to be done to prepare young Marshallese for today's global economy. 
Despite our aid every year, Marshallese citizens are struggling with 
health issues, unemployment, and social problems. It is in our interest 
to help the Marshall Islands become more self-reliant and retain their 
talented and ambitious citizens to foster development and economic 
growth at home. As I mentioned, many U.S. Government agencies are 
working to advance those goals. If confirmed, I intend to do everything 
I can to ensure that our programs are effective in achieving their 
objectives and will ensure that the interagency is also working 
harmoniously in a ``whole of government approach.''
    If confirmed, I will draw on my experiences from postings 
throughout the world to work cooperatively with Marshallese officials 
and society. For example, joint efforts like the Border Liaison 
Mechanism that I cochaired with my Mexican counterpart were effective 
in coordinating policy. In Moscow, as nuclear affairs officer, I 
coordinated with a range of U.S. agencies to safeguard Russia's nuclear 
materials. And in negotiating an emergency response agreement with 
Russia, I forged a close relationship with the Russian negotiator to 
have that agreement signed and in force to the benefit of both 
countries.
    If confirmed, I will work closely with colleagues in other Pacific 
countries to advance U.S. interests regionally. In that spirit I led a 
counternarcotics team 
from Tajikistan to Kabul and a business delegation to Konduz, 
Afghanistan, to strengthen regional ties to the benefit of the United 
States in Central Asia. Furthering citizen services, I currently serve 
as an auxiliary police officer with the New York Police Department in 
Manhattan and I have assisted Americans in prison in Cuba, Mexico, and 
Russia.
    If confirmed, my interagency experience will be a critical asset in 
the RMI, where so many domestic federal agencies--such as the U.S. 
Postal Service, the Federal Aviation Administration, and the National 
Weather Service--operate side by side with foreign affairs and defense 
colleagues. If confirmed, I will work closely with these agencies, and 
particularly with the Department of the Interior, which has primary 
responsibility for implementing the Compact's economic provisions, to 
ensure that assistance efforts are appropriately coordinated and 
implemented with transparency and accountability.
    Working in several embassies around the world, I know how critical 
local staff is to our success. Our mission in the Marshall Islands 
depends, not just on the written text of the Compact of Free 
Association, but also on creating a bilateral relationship based on 
partnership and mutual respect between Marshallese and the American 
people. The Marshallese are great Pacific navigators and I'm sure we 
can chart a course together. If confirmed, I will work hard to ensure 
that my staff has the resources and support it needs to meet our 
mission in the Marshall Islands. I would like to continue the great 
work Ambassador Martha Campbell is doing with her staff of 39 officers, 
local staff, and guards.

    Senator Shaheen. Thank you.
    Ambassador Kirby.

   STATEMENT OF HON. MICHAEL DAVID KIRBY, OF VIRGINIA, TO BE 
              AMBASSADOR TO THE REPUBLIC OF SERBIA

    Ambassador Kirby. Thank you, Madam Chairman. It is a 
privilege to appear before you today as President Obama's 
nominee to serve as United States Ambassador to the Republic of 
Serbia. I am honored by the confidence placed in me by the 
President and Secretary Clinton. If confirmed, I look forward 
to working with this committee and the Congress in advancing 
United States interests in Serbia.
    I am pleased to have my wife, Sara Powelson Kirby, here 
with me today. Foreign Service families are unsung heroes and 
true diplomats themselves. My wife and daughters, Katherine and 
Elizabeth, neither of whom could be here with me today, have 
been living, working, and going to school overseas for most of 
their lives, serving as examples of American values to their 
friends and colleagues.
    I would also like to note the presence of my mother, 
Dolores Kirby. She has been a great help to my siblings and to 
me. She also contributed greatly to the career of my father who 
was in the Foreign Service for 30 years.
    I had the privilege of serving for the past 4 years as the 
Principal Deputy Assistant Secretary in the Bureau of Consular 
Affairs of the State Department. Prior to this, as U.S. 
Ambassador to Moldova, I worked with my team to manage a range 
of issues, including the frozen conflict in Transnistria, 
improving the climate for multiparty democracy, furthering U.S. 
business interests, and trying to reduce corruption. I believe 
these experiences have prepared me well to serve as chief of 
mission in Serbia.
    The Serbia-United States relationship is 130 years old. In 
fact, we marked the anniversary on July 5. Our cooperation, 
friendship, and close commercial ties are anchored by a vibrant 
Serbian diaspora community here in the United States. While our 
ties were strained in the 1990s, for the past 12 years, we have 
worked with successive Serbian governments to overcome recent 
challenges and to build a new, strong partnership with a 
country that we see as critical to regional stability.
    Over the past 4 years, the United States has worked closely 
with the outgoing government to help Serbia realize its goal of 
attaining candidate status in the European Union. We now look 
forward to helping Serbia meet the standards the European Union 
has set out in order to obtain a start date for accession 
negotiations. Serbia has made significant progress by 
undertaking democratic reforms and strengthening institutions 
to solidify the rule of law. In addition, the military services 
have undergone fundamental restructuring with the goal of 
building a modern, civilian-directed force that can play a 
positive, stabilizing role in the region. Serbia joined NATO's 
Partnership for Peace with our support, and its military has 
established a robust cooperation with ours. Its partnership 
with the Ohio National Guard serves as a model for the region. 
Together, the United States and Serbia have made significant 
strides in recent years to repair and rejuvenate our 
relationship, and if confirmed, I look forward to working with 
President Nikolic and the new government, once constituted, to 
build on this strong foundation and continue to deepen our 
partnership.
    While much progress has been made in Serbia, Kosovo remains 
a significant challenge to our bilateral engagement. We have 
made clear that on the matter of Kosovo, we can agree to 
disagree on Kosovo's status as an independent state. We 
understand that for now Serbia will not recognize the Republic 
of Kosovo. However, we have also made clear that Serbia must 
begin to come to terms with today's realities and move toward 
normalizing its relationship with Kosovo. As the European Union 
stated in its council decisions in December 2011 and 
subsequently confirmed, Serbia's path into the EU passes 
through normalization of its relationship with Kosovo. This is 
in Serbia's interest, as it is the only way to ensure the 
Kosovo issue does not continue to interfere with Serbia's 
relations with its neighbors, the EU, or the United States.
    If confirmed, I will also seek to bring resolution to two 
important challenges to our bilateral relationship. The 
murderers of the three Bytyqi brothers, New York residents who 
were executed by Serbian Ministry of Interior personnel in 
1999, have never been prosecuted. The U.S. Government cannot 
accept that the murderers of three of its citizens go 
unpunished. Likewise, those who authorized the attacks on the 
United States and other Western embassies in February 2008 have 
never been arrested. While we welcome the recent indictments of 
12 of the perpetrators who participated in the attack on our 
Embassy in Belgrade, we also expect Serbia to thoroughly 
complete its investigation and ensure that all who were 
involved are brought to justice regardless of their rank or 
position.
    This is a challenging agenda but it is also achievable. If 
confirmed, I am committed to working to make this vision: a 
Serbia at peace with all of its neighbors, firmly set on a path 
of European integration.
    Thank you once again for granting me the opportunity to 
appear before this committee today, and I look forward to your 
questions.
    [The prepared statement of Ambassador Kirby follows:]

                 Prepared Statement of Michael D. Kirby

    Madam Chairman, Ranking Member Barrasso, and members of the Senate 
Foreign Relations Committee, it is a privilege to appear before you 
today as President Obama's nominee to serve as the United States 
Ambassador to the Republic of Serbia. I am honored by the confidence 
placed in me by both President Obama and Secretary Clinton. If 
confirmed, I look forward to working with this committee and the 
Congress in advancing U.S. interests in Serbia.
    I am pleased to have my wife, Sara Powelson Kirby, here with me 
today. Foreign Service families are unsung heroes and true diplomats 
themselves: my wife and daughters, Katherine and Elizabeth--neither of 
whom could be with me today--have been living, working, and going to 
school overseas for most of their lives, serving as examples of 
American values to their friends and colleagues. I would also like to 
note the presence of my mother, Dolores Kirby. She has been a great 
help to my siblings and me. She also contributed greatly to my father's 
more than 30-year Foreign Service career.
    I have had the privilege of serving for the past 4 years as the 
Principal Deputy Assistant Secretary in the Consular Affairs Bureau of 
the State Department. Prior to this, as U.S. Ambassador to Moldova, I 
worked with my team to manage a range of issues, including the frozen 
conflict in Transnistria, improving the climate for multiparty 
democracy, furthering U.S. business interests, and trying to reduce 
corruption. I believe these experiences have prepared me well to serve 
as Chief of Mission in Serbia.
    The Serbia-United States relationship is 130 years old--in fact, we 
marked its anniversary on July 5. Our cooperation, friendship, and 
close commercial ties are anchored by a vibrant Serbian diaspora 
community here in the United States. While our ties were strained in 
the 1990s, for the past 12 years we have worked with successive Serbian 
governments to overcome challenges and build a new, strong partnership 
with a country that we see as critical to regional stability.
    Over the past 4 years, the United States has worked closely with 
the outgoing government to help Serbia realize its goal of attaining 
candidate status in the European Union. We now look forward to helping 
Serbia meet the standards the European Union has set out in order to 
obtain a start date for accession negotiations, the next step in the 
process leading to EU membership. Serbia has made significant progress 
by undertaking democratic reforms and strengthening institutions to 
solidify the rule of law. In addition, the military services have 
undergone fundamental restructuring with the goal of building a modern, 
civilian-directed force that can play a positive, stabilizing role in 
the region. Serbia joined NATO's Partnership for Peace with our 
support, and its military has established a robust cooperation with 
ours. Its partnership with the Ohio National Guard serves as a model 
for the region and has helped to encourage civilian partnerships 
between Serbia and the State of Ohio. I take great pride in the Ohio 
roots of my parents--both native Clevelanders--and will seek to deepen 
the Ohio-Serbia bonds. Together, the United States and Serbia have made 
significant strides in recent years to rejuvenate our relationship, and 
if confirmed I look forward to working with President Nikolic and the 
new government, once constituted, to build on this strong foundation 
and continue to deepen our partnership.
    Our economic ties also continue to grow. An economically prosperous 
Serbia can serve as an engine for the region. Like many countries 
around the world, Serbia is suffering from the consequences of the 
global recession. But Serbia has enormous economic potential, including 
a well-educated and talented workforce, which make it a potentially 
attractive source for foreign direct investment by U.S. as well as 
European companies. Over the past several years, with assistance from 
the EU and the United States, Serbia has undertaken real economic 
reforms designed to demonstrate its commitment to long-term economic 
growth and harmonization with EU norms. There is still much work left 
to be done, however, to streamline the process of doing business, 
reduce bureaucratic impediments, and combat the corrosive consequences 
of corruption. The United States has worked closely with the Serbian 
Government to aid this effort, particularly in supporting the 
implementation of the government's anticorruption strategy and action 
plan. If confirmed, I look forward to continuing this work.
    While much progress has been made in Serbia, Kosovo remains a 
significant challenge to our bilateral engagement. When Vice President 
Biden visited Belgrade in May 2009, he emphasized that the United 
States wanted to move beyond the recriminations of the past and looked 
toward the future, to a fully European-integrated Serbia partnering 
with us in the pursuit of common interests in the region. We understand 
that, for now, Serbia will not recognize the Republic of Kosovo. 
However, we have also made clear that Serbia must begin to come to 
terms with today's realities and move toward normalizing its relations 
with Kosovo. As long as there is instability in the region, Serbia and 
all the other countries of the region are held back from realizing 
their full potential. As the European Union stated in its Council 
decisions in December 2011 and subsequently confirmed, Serbia's path 
into the EU passes through normalization of its relationship with 
Kosovo. This is in Serbia's interest, as it is the only way to ensure 
the Kosovo issue does not continue to interfere with Serbia's relations 
with its neighbors, the EU, or the United States. And it is in the 
interest of Kosovo Serbs, as it will improve the daily lives of 
citizens, irrespective of ethnicity, on both sides of the border. 
Serbia needs to understand that Kosovo's status and border are decided 
and that partition is off the table. At the same time, we have assured 
Serbia that the United States, in partnership with the EU, will remain 
vigilant in working with the Kosovo Government to ensure that the far-
reaching rights of Kosovo Serbs are fully protected under Kosovo's 
Constitution and laws.
    If confirmed, I will also seek to bring to resolution two important 
challenges to our bilateral relationship. The murderers of the three 
Bytyqi brothers, New York residents who were executed by Serbian 
Ministry of Interior personnel in 1999, have never been prosecuted. The 
U.S. Government cannot accept that the murderers of three of its 
citizens go unpunished. Likewise, those who authorized the attacks on 
the U.S. and other Western embassies in February 2008 have never been 
brought to justice. While we welcome the recent indictments of 12 of 
the perpetrators who participated in the attack on our Embassy in 
Belgrade, we also expect Serbia to complete a thorough investigation 
and ensure that all who were involved are brought to justice, 
regardless of their rank or position.
    This is a challenging agenda, but it is also achievable. If 
confirmed, I am committed to working to make this vision a reality: a 
Serbia at peace with all of its neighbors, firmly set on a path of 
European integration.

    Senator Shaheen. Thank you.
    Mr. Koenig.

STATEMENT OF JOHN M. KOENIG, OF WASHINGTON, TO BE AMBASSADOR TO 
                     THE REPUBLIC OF CYPRUS

    Mr. Koenig. Madam Chair, thank you very much. Members of 
the committee, thank you for giving me the opportunity to be 
with you here today. It is a great honor to appear before you. 
It is also my great honor to be nominated by President Obama to 
serve as the next Ambassador of the United States to the 
Republic of Cyprus. If confirmed, I look forward to working 
with the committee and Congress to advance the interests of the 
United States in Cyprus.
    I would like to introduce my wife, Natalie, who has joined 
me here today, along with my sons, Theodore and Alexander, and 
my Cyprus desk officer, Lindsay Coffey from the State 
Department. I would also like to mention my friends, Bob and 
Ellen Cory and Will Embrey, who have attended this hearing 
today.
    My wife and sons have been living, working, and going to 
school overseas for much of their lives. We look forward to 
serving our Nation overseas once again. Both of my sons started 
school in Cyprus and they, like Natalie and me, have fond 
memories of the island and its people.
    I believe the 28 years I have spent in the Foreign Service 
have helped prepare me for this important assignment. I served 
previously in Cyprus, an experience which I believe will 
enhance my effectiveness as chief of mission, if I am 
confirmed.
    In addition, my two tours in Greece deepened my 
understanding of regional issues. From my time spent working at 
the U.S. mission to NATO and as political advisor to the Allied 
Joint Forces Command in Naples, I understand the importance of 
NATO in maintaining peace and stability throughout Europe and 
beyond.
    If I am confirmed, my top priority will be to support 
efforts to reunite Cyprus into a bizonal, bicommunal 
federation. The longstanding division of the island must come 
to an end through a just and lasting settlement. Since 2008, 
the leaders of the Greek Cypriot and Turkish Cypriot 
communities have made important progress in the Cypriot-led 
negotiations under the auspices of the U.N. Good Offices 
Mission coordinated by Special Advisor Alexander Downer. 
However, much more must be done to end the de facto division of 
the island. Although this is a Cypriot-led process, the United 
States will remain actively engaged. The reasons are clear. The 
status quo is unacceptable. It threatens effective NATO-EU 
cooperation and affects regional stability and also remains an 
obstacle to Turkey's EU accession process, which the United 
States and this administration have long supported.
    If confirmed, I look forward to continuing to build our 
bilateral relationship with the Republic of Cyprus and 
strengthening cooperation in our many areas of common interest. 
I am pleased to see increased investment by U.S. companies in 
Cyprus especially in the energy sector. Our countries have also 
been working together to safeguard Cypriot cultural heritage, 
prevent pillaging, and stop the illegal trafficking and sale of 
antiquities. In addition, Cyprus has been a generous host for 
an increasing number of U.S. Navy ship visits, which has driven 
growing cooperation in antiterrorism and port security.
    The Republic of Cyprus is facing a number of challenges: 
assuming the rotating Presidency of the European Union, 
responding to the European financial crisis, and managing newly 
discovered natural gas resources. Although Cyprus has the 
third-smallest economy in the EU, its financial sector is 
heavily exposed to Greek debt. If confirmed, I will work 
closely with the Government of Cyprus to explore ways the 
United States can assist Cyprus as it seeks to meet these 
challenges. We must also work together to address serious 
issues such as possible terrorist threats and trafficking in 
persons.
    The administration recognizes the Republic of Cyprus' right 
to develop its Exclusive Economic Zone. We believe that its oil 
and gas resources, like all of its resources, should be 
equitably shared between both communities in the context of an 
overall settlement. The discovery of natural gas underscores 
the urgent need for a settlement, but it need not hinder the 
talks.
    I also look forward to engaging the Turkish Cypriot 
community. If confirmed, I will be accredited to one 
government, that of the Republic of Cyprus. That said, we need 
to maintain a constructive relationship with the Turkish 
Cypriot community. I am pleased that they share our goal of 
peaceful reunification of the island. We must continue to work 
with them to help prepare for reunification by strengthening 
civil society and reducing economic disparities across the 
island.
    Madam Chair, members of the committee, if I am confirmed, 
my foremost priority will be promoting United States interests 
in Cyprus while working to advance a comprehensive settlement. 
The United States stands only to gain from a reunited Cyprus 
that is peaceful, prosperous, and fully benefits from EU 
membership.
    Thank you for this opportunity to appear before you. I 
would be pleased to answer any questions you may have later.
    [The prepared statement of Mr. Koenig follows:]

                  Prepared Statement of John M. Koenig

    Madam Chairman and members of the committee, thank you for giving 
me the opportunity to be with you here today. It is a great honor to 
appear before you. It is also my great honor to be nominated by 
President Obama to serve as the next Ambassador of the United States to 
the Republic of Cyprus. If confirmed, I look forward to working with 
the Committee and Congress to advance the interests of the United 
States in Cyprus.
    If you will permit me, I would like to introduce my wife, Natalie, 
who has joined me here today, along with my sons, Theodore and 
Alexander, and Cyprus desk officer, Lindsay Coffey. My wife and sons 
have been living, working, and going to school overseas for much of 
their lives. We look forward to serving our Nation overseas once again. 
Both of my sons started school in Cyprus, and, like Natalie and me, 
have fond memories of the island and its people.
    I believe that the 28 years I have spent in the Foreign Service 
have helped prepare me for this important assignment. I served 
previously in Cyprus, an experience which I believe will enhance my 
effectiveness as Chief of Mission, if I am confirmed. In addition, my 
two tours in Greece deepened my understanding of regional issues. From 
my time spent working at the U.S. Mission to NATO and as political 
advisor to the Allied Joint Forces Command in Naples, I understand the 
importance of NATO in maintaining peace and stability throughout Europe 
and beyond.
    If I am confirmed, my top priority will be to support efforts to 
reunite Cyprus into a bizonal, bicommunal federation. The longstanding 
division must come to an end through a just and lasting settlement. 
Since 2008, the leaders of the Greek Cypriot and Turkish Cypriot 
communities have made important progress in the Cypriot-led 
negotiations under the auspices of the U.N. Good Offices Mission and 
coordinated by Special Advisor Alexander Downer. However, much more 
must be done to end the de facto division of the island. Although this 
is a Cypriot-led process, we will remain actively engaged. The reasons 
are clear. The status quo is unacceptable. It threatens effective NATO-
EU cooperation and affects regional stability, and also remains an 
obstacle to Turkey's EU accession process, which the United States and 
this administration have long supported.
    If confirmed, I look forward to continuing to build our bilateral 
relationship with the Republic of Cyprus and strengthening cooperation 
in our many areas of common interest. I am pleased to see increased 
investment by U.S. companies in Cyprus, especially in the energy 
sector. Our countries have also been working together to safeguard 
Cypriot cultural heritage, prevent pillaging, and stop the illegal 
trafficking and sale of antiquities. In addition, Cyprus has been a 
generous host for an increasing number of U.S. navy ship visits, which 
has driven growing cooperation in antiterrorism and port security.
    The Republic of Cyprus is facing a number of challenges: assuming 
the rotating Presidency of the European Union, responding to the 
European financial crisis, and managing newly discovered natural gas 
resources. Although Cyprus has the third-smallest economy in the EU, 
its financial sector is heavily exposed to Greek debt. If confirmed, I 
will work closely with the Government of Cyprus to explore ways the 
United States can assist Cyprus as it seeks to meet these challenges. 
We must also work together to address serious issues such as possible 
terrorist threats and trafficking in persons.
    The administration recognizes the Republic of Cyprus' right to 
develop its Exclusive Economic Zone. We believe that its oil and gas 
resources, like all of its resources, should be equitably shared 
between both communities in the context of an overall settlement. The 
discovery of natural gas underscores the urgent need for a settlement, 
but it need not hinder the talks.
    I also look forward to engaging the Turkish Cypriot community. If 
confirmed, I will be accredited to one government, that of the Republic 
of Cyprus. That said, we need to maintain a constructive relationship 
with the Turkish Cypriot community. I am pleased that they share our 
goal of peaceful reunification of the island. We must continue to work 
with them to help prepare for reunification by strengthening civil 
society and reducing economic disparities across the island.
    Madam Chairman and members of the committee, if I am confirmed, my 
foremost priority will be promoting U.S. interests in Cyprus while 
working to advance a comprehensive settlement. The United States stands 
only to gain from a reunited Cyprus that is peaceful, prosperous, and 
fully benefits from EU membership.

    Senator Shaheen. Thank you.
    Ambassador Ries.

STATEMENT OF HON. MARCIE B. RIES, OF THE DISTRICT OF COLUMBIA, 
          TO BE AMBASSADOR TO THE REPUBLIC OF BULGARIA

    Ambassador Ries. Madam Chairman, Ranking Member Barrasso, 
members of the committee, it is an honor to appear before you 
today as President Obama's nominee to serve as the United 
States Ambassador to the Republic of Bulgaria. I am grateful 
for the confidence placed in me by the President and by 
Secretary Clinton.
    The United States and Bulgaria share a very strong 
partnership and friendship both between our governments and our 
peoples. If confirmed, I will work with Congress and this 
committee to further strengthen the relationship and to advance 
United States interests in Bulgaria.
    I am delighted and proud that my husband, Charlie, who was 
a fellow officer in the Foreign Service for more than 30 years, 
as well as my son, Alexander Ries, and his friend, Susan Ziff, 
are here with me today. My mother, Mona Berman, who is a 
continuing inspiration to all of us, plans to accompany me to 
Bulgaria if I am confirmed. Although unable to attend this 
hearing, I would also like to mention my daughter, Meredith, 
who was along on postings in Ankara, Brussels, and London. 
While it was an honor and a privilege for us together to 
represent our country abroad, I am especially grateful for my 
family's encouragement, even when I was posted without them in 
Kosovo and Albania, and for their unswerving support when my 
husband and I were assigned together in Baghdad.
    This summer marks the 109th anniversary of diplomatic 
relations between Bulgaria and the United States. This is worth 
noting because our relationship with Bulgaria, a member of NATO 
and the European Union, exemplifies the sort of transatlantic 
cooperation that has been the cornerstone of our common 
security. Bulgaria has generously contributed to NATO and EU 
missions, notably in Afghanistan. If confirmed, I will apply my 
prior experience, especially as Principal Deputy Assistant 
Secretary for the Bureau of European and Eurasian Affairs, to 
further enhance our security cooperation with Bulgaria.
    I learned during my time as chief of mission in Pristina 
and Ambassador to Albania that ensuring the rule of law is both 
fundamental and a long-term endeavor. Bulgaria has made 
progress in rule of law, including taking important steps to 
pursue judicial reform, combat corruption, and fight organized 
crime. Bulgaria's new asset forfeiture legislation is a 
positive example of such progress. However, much more needs to 
be done, and if confirmed, I will do my best to support 
Bulgarian efforts to move forward via robust law enforcement 
cooperation and engagement with the Bulgarian Government and 
civil society.
    The Roma population in Bulgaria, as elsewhere in Europe, 
has not fully benefited from Bulgaria's progress. The Bulgarian 
Government has launched a new integration strategy and worked 
with civil society to develop an action plan. If confirmed, I 
will work hard with the Bulgarian Government and the Roma 
communities to support and encourage effective implementation.
    Bulgaria has taken noteworthy steps toward diversifying and 
securing the country's energy supplies while protecting the 
local environment. If confirmed, I will make working with the 
Bulgarian Government, business, and civil society toward 
achievement of this goal a high priority.
    Bilateral trade with Bulgaria jumped from US$429 million in 
2010 to $672 million in 2011. This includes a 33-percent 
increase in U.S. exports directly supporting American jobs.
    In conclusion, Bulgaria is a country with great potential 
for economic advancement, a proud history going back to ancient 
times, and warm feelings toward the United States. If I am 
confirmed, I will work with Congress and this committee to 
expand and develop the strong partnership we have with 
Bulgaria, building on the fine work of outgoing Ambassador, 
James Warlick, and our country team at U.S. Embassy Sofia. As 
Ambassador, my highest priorities will be to advance U.S. 
interests in Bulgaria, including working together to counter 
organized crime and corruption, promoting economic growth and 
prosperity in both our countries, and strengthening security 
cooperation both bilaterally and within the NATO alliance.
    Madam Chairman, and members of the committee, thank you for 
this opportunity to appear before you. I would be pleased to 
answer any questions that you may have.
    [The prepared statement of Ambassador Ries follows:]

                  Prepared Statement of Marcie B. Ries

     Madam Chairman, Ranking Member Barrasso, and members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to serve as the United States Ambassador to the 
Republic of Bulgaria. I am grateful for the confidence placed in me by 
the President and by Secretary Clinton. The United States and Bulgaria 
share a very strong partnership and friendship, both between our 
governments and our peoples. If confirmed, I will work with Congress 
and this committee to further strengthen the relationship and to 
advance U.S. interests in Bulgaria.
    If you will permit me, I would like to introduce my family members 
who are here with me today. I am delighted and proud that my husband, 
Charlie, who was a fellow officer in the Foreign Service for more than 
30 years, as well as my son, Alexander Ries, and my mother, Mona 
Berman, are with me today. Although unable to attend this hearing, I 
would like to mention my daughter, Meredith, who was also along through 
postings in Ankara, Brussels, and London. While it was an honor and a 
privilege for us to represent our country abroad, I am especially 
grateful for my family's encouragement even when I was posted without 
them in Kosovo and Albania, and for their unswerving support when my 
husband and I were assigned together to Baghdad in 2007 and 2008.
    This summer marks the 109th anniversary of diplomatic relations 
between Bulgaria and the United States. This is worth noting because 
our relationship with Bulgaria, a member of NATO and the European 
Union, exemplifies the sort of transatlantic cooperation that has been 
the cornerstone of our common security, freedom, and prosperity. 
Bulgaria has generously contributed to NATO and EU missions, including 
in Afghanistan, Kosovo, Bosnia, Libya, Georgia, and off the coast of 
Somalia. If confirmed, I will apply my prior experience in NATO and EU 
matters, especially as Principal Deputy Assistant Secretary for the 
Bureau of European and Eurasian Affairs, to further enhance our 
cooperation with Bulgaria. I will also encourage Bulgaria's efforts to 
develop a military that is modern, deployable, and fully interoperable 
with its European and American partners.
    Our relationship with Bulgaria is based upon much more than 
security cooperation. Bulgaria's experience transitioning from 
authoritarian rule to democracy and persevering through many challenges 
is commendable and provides positive lessons for others making 
democratic transitions. Today, Bulgaria plays a constructive role in 
promoting stability in the Western Balkans and supporting emerging 
democracies in the Middle East and North Africa, including by sharing 
these lessons.
    I learned during my time as Chief of Mission in Pristina and 
Ambassador to Albania that ensuring the rule of law is both fundamental 
and a long-term endeavor. Bulgaria has made progress in rule of law, 
including taking important steps to pursue judicial reform, combat 
corruption, and fight organized crime. Bulgaria's new asset forfeiture 
legislation is a positive example of such progress. However, more needs 
to be done, and if confirmed I will do my best to support Bulgarian 
efforts to move forward via robust law enforcement cooperation, the 
Open Government Partnership, and engagement with the Bulgarian 
Government and civil society.
    The Roma population in Bulgaria, as elsewhere in Europe, has not 
fully benefited from Bulgaria's progress. The Bulgarian Government has 
launched a new integration strategy, worked with civil society to 
develop an action plan, and is organizing a resource framework. If 
confirmed, I will work with the Bulgarian Government and the Roma 
communities to support and encourage effective implementation.
    Bulgaria has taken noteworthy steps toward diversifying and 
securing the country's energy supplies while protecting the local 
environment. If confirmed, I will make working with the Bulgarian 
Government, business and civil society toward achievement of this goal 
a high priority.
    Bilateral trade with Bulgaria jumped from 429 million U.S. dollars 
in 2010 to 672 million in 2011. This includes a 33-percent increase in 
U.S. exports, directly supporting American jobs. Though Bulgaria is a 
small market of 7.3 million consumers, there are considerable 
commercial opportunities due to an educated work force and a strong 
work ethic, membership in the European Union, and approximately 7 
billion euro in EU funds to be spent in the coming years on 
infrastructure development and modernizing the country's institutions.
    In conclusion, Bulgaria is a country with great potential for 
economic advancement, a proud history going back to ancient times, and 
warm feelings toward the United States. If I am confirmed, I will work 
with Congress and this committee to expand and develop the strong 
partnership we have with Bulgaria, building on the fine work of 
outgoing Ambassador James Warlick and our country team at U.S. Embassy 
Sofia. As Ambassador, my highest priorities will be to advance United 
States interests in Bulgaria, including working together to counter 
organized crime and corruption, promoting economic growth and 
prosperity in both our countries, and strengthening security 
cooperation both bilaterally and within the NATO alliance.

    Senator Shaheen. Thank you all very much for your 
testimony.
    Ambassador Ries, I would like to give you an opportunity to 
comment on the crime that was perpetrated against innocent 
Israeli victims today in Bulgaria. I know that reports are 
still coming in. So it is difficult to get the facts, but I do 
want to ask you if you would like to comment.
    Ambassador Ries. Thank you very much, Madam Chairman.
    Of course, I do not want to get ahead of the people who are 
on the ground in Bulgaria and who have direct access to the 
information, but I certainly do want to add my voice to all 
those who would condemn such attacks on innocent people in the 
very strongest possible terms. And certainly all of our 
thoughts and prayers are with the family and friends of the 
victims, as well as with the people of Israel and the people of 
Bulgaria.
    I am certain that our Embassy in Baghdad will offer to 
assist their counterparts in any way possible, as I would do in 
the same circumstances.
    Thank you very much.
    Senator Shaheen. Thank you.
    As I indicated in my statement and I am sure you are aware, 
this is one in a series of troubling attacks. Well, in January 
there was a package found on a bus carrying Israeli tourists 
from Turkey to Bulgaria. I wonder, are you confident that the 
Bulgarian local police will work closely with us and with 
Israel in trying to get to the bottom of these attacks and that 
they have the technical expertise to be able to engage in this 
kind of investigation?
    Ambassador Ries. Madam Chairwoman, yes. I do believe that 
we will certainly work very closely with the Bulgarians to 
attempt to get to the bottom of this matter. We enjoy very 
strong law enforcement cooperation with the Bulgarians on a 
continuing basis. That includes training and all kinds of 
exchanges and work together, and I am sure that that will be 
helpful as we work together to get to the bottom of this.
    Senator Shaheen. Thank you.
    Mr. Koenig, in your testimony, you mentioned the new 
natural gas find off the coast of Cyprus, and as I understand 
it, the President of Cyprus has committed to sharing this 
resource with all Cypriots, including the Turkish Cypriot 
community. And as you point out, this is another critical 
reason for the Greek and Turkish communities on Cyprus to come 
together to find a just resolution to the divisions in Cyprus.
    Unfortunately, Turkey has called on the major international 
oil and gas companies to withdraw their bids to seek a license 
for development of those gas deposits in Cyprus saying it will 
not allow exploration to go ahead and threatening to ban those 
companies from Turkish energy projects.
    Can you tell us whether you agree that the discovery of 
natural gas within Cypriot waters could, with some leadership, 
help to bring a resolution to the division in Cyprus? And can 
you put the Turkish response in context for us? Are you 
concerned that Turkey's response will contribute to a further 
deterioration of relations between Turkey and Cyprus? And 
finally, how can the United States and our EU counterparts work 
to help as this situation unfolds?
    Mr. Koenig. Thank you, Madam Chair.
    This is, indeed, a very important discovery and a very 
important new factor in the region, the presence of these 
resources in the offshore area in the eastern Mediterranean.
    We believe that the existence of this new resource, these 
new riches in that region should spur the parties to think of 
new ways of cooperation, and we very much appreciate President 
Christofias' statements that he is interested in sharing this 
resource with all the people of Cyprus with both communities. 
We see that as important to realize in the context of an 
overall settlement of the Cyprus issue.
    With regard to our position on the EEZ and Cyprus' right to 
exploit resources in the EEZ, we have been very clear, and I 
think that has helped a great deal in responding to the actions 
of others, including Turkey. Cyprus is exploiting these 
resources in a manner that is cooperative with Israel. We 
recognize Cyprus' right to delimit the EEZ and to enter into 
such bilateral arrangements. So the clarity that we have 
expressed on this, I think, has been unmistakable.
    The administration is very pleased to see that American 
companies are engaged in the exploration and development of 
these resources and other energy opportunities in Cyprus. I 
believe the administration is committed to supporting these 
companies in their work, as we do with other companies 
interested in such situations, and if I am confirmed, I will 
certainly support those efforts very energetically.
    Senator Shaheen. Well, so can you elaborate a little more 
on Turkey's reaction and what additional response might be 
needed either to reassure the companies who would like to bid 
on these projects or Cyprus that we are serious about engaging 
on this issue and helping to make sure that the development can 
occur in the waters around Cyprus?
    Mr. Koenig. Yes, Madam Chairman. The United States has 
engaged with--first, let me say that the United States does not 
believe that any country in the region or any party involved in 
the situation on Cyprus should do anything to heighten tensions 
or to create new problems. The situation on Cyprus is already 
difficult enough. So we have been engaging with Turkey and with 
others on this very consistently and hope that our message is 
understood.
    Senator Shaheen. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    If I could start, Ms. Holtz. I wanted to visit with you a 
little bit about Iran sanctions and wondering if Oman is 
complying with United States sanctions, international sanctions 
against Iran. If not, how would you address the issue with the 
Government of Oman, and what is Oman's current relationship and 
economic ties and trade endeavors with Iran?
    Ms. Holtz. Thank you very much, Senator, for that question.
    Oman is a regional player. It is a member of the Gulf 
Cooperation Council, Arab League, and as a regional player, it 
shares our concerns about Iran's destabilizing activities, 
including their acquisition or attempt to acquire nuclear 
weapons capability. They are compliant and supportive of the 
international sanctions on Iran. They are deeply concerned, as 
are we, about the tensions and instability in the region. So 
they have been a very effective partner for the United States 
in addressing those issues.
    Oman does have a unique relationship with Iran given its 
geographic proximity and its policy of having good relations 
with its neighbors. But as we see the tensions in the region 
increasing, it has been very beneficial for the United States 
to have a partner like Oman who is able to de-escalate some of 
the tensions that are out there because of Iran. So if I am 
confirmed, I will continue to work very hard to partner with 
our Omani ally on Iran's destabilizing role in the region.
    Senator Barrasso. Because I had some concern. I understood 
there was an agreement signed between Oman and Iran and they 
had some joint military operations together last year. Is my 
understanding correct?
    Ms. Holtz. Yes, they did sign an agreement and I believe 
they held one exercise.
    Senator Barrasso. OK, thank you.
    Mr. Armbruster, in terms of United States priorities in the 
Marshall Islands, you mentioned Secretary Clinton and some of 
the comments that she had made. So I just wonder what the top 
three United States priorities are with respect to the Marshall 
Islands and what initiatives you might have to implement them.
    Mr. Armbruster. Thank you, Senator.
    And now with Secretary Clinton breaking travel records, 
maybe she will visit the Marshall Islands.
    The top three priorities, I would think--the first would be 
our strategic relationship. The Marshall Islands is a good 
friend of ours in the United Nations, and in terms of our 
Pacific strategy, I know that the Defense Department is talking 
about rebalancing and looking at the Pacific as a very 
important part of their overall global strategy. So the USAKA 
base and the strategic part I think would be the first 
priority.
    Second would be education. The Marshallese are not able to 
compete globally and the education system needs work frankly. 
Many Marshallese migrate to the United States, and if they are 
coming to the United States, I think they have to be better 
prepared to work here and contribute, as I know that they can.
    And the third priority, Senator, I think would be something 
that I know you are interested in and that is health. They have 
some challenges: dengue, Hansen's disease, TB, and so on. But I 
have received good news that we are working on telemedicine to 
try to take care of some of their health challenges in the 
Marshall Islands, and that would be something that, if 
confirmed, I would work very closely with my colleagues on.
    Senator Barrasso. Thank you.
    Ambassador Kirby, recent reports indicate that Serbia's new 
President is seeking to clarify some of the agreements 
previously signed by the previous government with Kosovo. Do 
you believe that Serbia is going to go back on any of the 
agreements signed between Serbia and Kosovo, and what steps are 
you going to take to ensure the new government remains 
committed to negotiations from a previous administration?
    Ambassador Kirby. Thank you, Senator.
    If confirmed, I would--the agreements that were reached 
were never fully implemented in any case. We will have a 
dialogue because Serbia is committed. The new President has 
said that he is committed to getting Serbia into the EU. That 
path leads through a more normalized relationship with Kosovo. 
So I think, working with our European partners, we would stress 
that the United States is firmly committed to Kosovo with its 
borders, and I think that that would give us a lot of leverage.
    Senator Barrasso. Ambassador Ries, during Secretary 
Clinton's trip to Bulgaria in February, she stressed the 
importance of energy security and energy independence for the 
country of Bulgaria. Can you talk a little bit about why energy 
independence is so important for Bulgaria and for the broader 
European energy sector?
    Ambassador Ries. Thank you for the question, Senator.
    We believe that energy diversity both of sources and routes 
for supply is very important for Bulgaria, as it is for all of 
the countries in the region. Bulgaria has had some discussions 
with other countries in the region about interconnectors. We 
are encouraging them to pursue those discussions with respect 
to sources of supply. We are encouraging them to pursue sources 
such as from the Caspian area and to look at unconventional 
sources of gas.
    Senator Barrasso. I believe Bulgaria currently has a 
moratorium on shale gas exploration and production. Do you 
believe that they should maybe lift that moratorium as a way to 
diversify their energy supply?
    Ambassador Ries. You are correct, Senator. They do have a 
moratorium on shale gas exploration, and they have appointed a 
parliamentary committee to examine the question. Eventually 
they will need to make a decision, which should be based on 
economic factors, environmental factors, and research and 
scientific matters. It will be their sovereign decision, but we 
are encouraging them to take all those things into account.
    Senator Barrasso. Thank you.
    Mr. Koenig, when you think about Cyprus and the two 
distinct solutions that are often mentioned as ways to resolve 
the dispute, either reunification or complete partition, does 
the administration back either of these options? And if not, 
what solution does the administration support?
    Mr. Koenig. Senator Barrasso, the administration strongly 
supports the efforts to reunify the island as a bizonal, 
bicommunal federation, and we are very, very supportive of the 
effort that is Cypriot-led and is being coordinated by the U.N. 
Secretary General's Good Offices Mission.
    Senator Barrasso. Thank you.
    My time has expired, Madam Chairman. Thank you very much.
    Senator Shaheen. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chairlady.
    Congratulations to all of you on your nominations.
    First, I want to say my thoughts and prayers are with those 
Israeli citizens who died today in Bulgaria and those who are 
injured.
    And I want to ask you, Ambassador Ries, even though I know 
these are unfolding events, so I do not expect you to have 
information. But on the broader question of Bulgaria, do you 
view them as a cooperative security ally of the United States 
vis-a-vis Iran?
    Ambassador Ries. Senator, I think that Bulgaria is a very 
good and effective security partner for us. In addition, I 
mentioned earlier that they are deployed in Afghanistan. They 
are also in Kosovo, in Bosnia. They mustered a frigate on short 
notice for the situation in Libya and Georgia and off the coast 
of Somalia. They voted with us on the Iraq war. I do not have 
any specific information to speak to the question that you 
asked, but I must say that as a security partner, the 
Bulgarians really are very effective.
    Senator Menendez. We have a wide range of interests as it
relates to Iran. As the author of the sanctions on the Central 
Bank of Iran, I am concerned that some countries are not 
cooperating with us in that regard. I am also concerned, within 
the context of today's attack, how seriously the Bulgarians 
take to the whole question of our efforts to ensure that Iran 
does not achieve nuclear weapons. Are they in concert with us, 
do you believe?
    Ambassador Ries. Senator, I cannot speak for the Bulgarians 
myself, but----
    Senator Menendez. I am asking for your observation of them, 
not for their official view.
    Ambassador Ries. Yes, sir. I think that would be consistent 
with the positions that they have taken on many of these 
subjects and their willingness to stand with us in all of these 
other conflicts which they have done in the past.
    Senator Menendez. We look forward to your being able to 
follow up on this and I will be looking forward to having a 
conversation with you when you are on the ground.
    Ambassador Ries. Yes, sir. I would look forward to that.
    Senator Menendez. Mr. Koenig, I am very interested in 
Cyprus. I have spent a good part of my time both on the House 
International Relations Committee and on this committee 
addressing this issue. Thirty-eight years after the occupation 
and invasion, it is beyond the mindset of anyone to believe 
that we would still be in this set of circumstances today. And 
so this assignment in my mind is incredibly important to the 
national interests of the United States. Cyprus has been a good 
ally of the United States in critical times when we have needed 
them, including providing refuge for our citizens at different 
times. And so I want to get a sense from you of your positions 
on a number of issues. I listened to your responses earlier. 
Let me go through a series of questions.
    No. 1, I assume that you believe that the solution to the 
Cyprus issue must be based on a Cypriot-run, Cypriot-determined 
basis and that our goal, as with the Cypriots, is to have a 
single sovereignty with an international personality, a single 
citizenship with independence and territorial integrity 
safeguarded and comprising all of those elements that are 
relevant in Security Council resolutions. Is that the view that 
you would take with you to Cyprus if you are confirmed?
    Mr. Koenig. Yes, sir, that is. These are the principles 
behind the bizonal, bicommunal federation as well.
    Senator Menendez. Now, how do you view the two new 
conditions laid out by Turkish Cypriot leader Eroglu 2 weeks 
ago that talks can only resume if there is an introduction of a 
deadline for negotiations and the lifting of embargos placed on 
Turkish Cyprus?
    Mr. Koenig. Sir, we do not see any reason why talks cannot 
resume immediately. We do not want to set artificial deadlines 
or anything like that. We think it is important that the 
parties work toward a solution as soon as possible but that 
there is no need to impose artificial deadlines on these talks. 
And these other issues regarding Turkish Cypriot contacts with 
the outside world--these are subjects that can also be 
discussed in the framework of these discussions that we would 
like to see resumed as soon as they can.
    Senator Menendez. So I look at that view, and then I look 
at the continuing colonization, I will call it, of northern 
Cyprus. I am sure that you are aware that in 1974 the 
demographic composition of Cyprus was estimated to be about 
506,000 Greek Cypriots and about 118,000 Turkish Cypriots. 
Today the demographic composition of the Republic of Cyprus is 
estimated to be 672,000 Greek Cypriots, 89,000 Turkish 
Cypriots, and 200,000 to 500,000 Turkish citizens transferred 
by Turkey to live permanently in Cyprus.
    Do you feel that Turkey's efforts to colonize the north 
constitutes a violation of article 49 of the Fourth Geneva 
Convention which states, ``the occupying power shall not deport 
or transfer parts of its civilian population into the territory 
it occupies''?
    Mr. Koenig. This is clearly a very, very important issue, 
sir, and it is one of the tragic consequences of the division 
of the island and the events of 1974 which all of us lament so 
greatly.
    The administration sees the best way to resolve this issue 
is to actually achieve a settlement based on a bizonal, 
bicommunal federation which would deal with the question of who 
really belongs on the Island of Cyprus, who has an entitlement 
to citizenship, who----
    Senator Menendez. I still see tens of thousands of people 
who were never there, who have no history with the Island of 
Cyprus and I see them from Anotoli and elsewhere, and there is 
no family background, no roots, no hereditary background here. 
And all we have is an enormous transfer of people. How do we 
expect there ever to be a solution?
    It seems to me that part of what we should be saying is 
that there should be a ceasing of the colonization of northern 
Cyprus because, if not, at the rate that we are going, it will 
almost make it impossible for us to work with the real Cypriots 
in my mind, Turkish Cypriots and Greek Cypriots, who I think if 
we left to their own devices, would find a solution. But if you 
are going to get hundreds of thousands of people transferred 
and at the rate we are going, that is where we are headed, then 
how do we achieve our goals here?
    Mr. Koenig. I recognize that this is a very sensitive 
issue, a very big challenge. I would be very interested in 
knowing more about your views. If confirmed, I would like to 
get out to the island and maybe we could discuss this further 
and we could look at ways that we can be helpful.
    Senator Menendez. With the chair's indulgence, let me ask 
you. Are you aware that the Turkish leadership in the north has 
rejected the Council of Europe's request to conduct an 
islandwide census to accurately determine the current 
demographic composition of the island's population?
    Mr. Koenig. Yes, I am aware of that, Senator.
    Senator Menendez. So you are aware that they have rejected 
that.
    Now, I can only assume that one would reject a census 
because the very essence of my question is the concern that is 
being driven here. Are you aware of recent press reports in the 
news which illustrate that thousands of remaining Turkish 
Cypriots have been demonstrating against Turkey, some of them 
actually carrying banners that read ``Ankara, get your hands 
off of our shores.'' Are you aware of those press reports?
    Mr. Koenig. Yes, sir, I am aware of those press reports.
    Senator Menendez. You said earlier that while you will only 
be credentialed to one country and that is the Republic of 
Cyprus, the only one that is internationally recognized and the 
only one that we recognize as the United States, you also said 
that it is important to have meetings with the Turkish 
community in the north. Will you focus those meetings also with 
Turkish Cypriot groups?
    Mr. Koenig. Yes, of course, sir. All of our efforts--all of 
these contacts are focused on our effort to support--on the 
administration's effort to support reconciliation and 
reunification of the island.
    Senator Menendez. Also, if I may, Madam Chair, I have 
concerns that for some time while you are the Ambassador, there 
is going to be a host of people who are there with different 
interests. I hope that when you become the Ambassador, you will 
come to your own independent conclusions. In my many visits, I 
have often found that there is somewhat of a historical bias 
here in which there is an inbred view versus looking at the 
view from where we are today, all of the pertinent factors 
considered. So I hope when you become the Ambassador, presuming 
that you get confirmed, that you will commit to the committee 
to go there with an independent view. Of course, you will have 
a staff to talk to, but I want to hear from you that you are 
going to approach the many issues that we have in Cyprus with a 
fresh, independent view, and while you may listen to the views 
of existing staff at the Embassy, you are going to come to your 
own independent judgment as to what is the set of circumstances 
that bedevils us after 38 years. Is that something that we can 
get you to commit to the committee?
    Mr. Koenig. Yes, Senator. Of course, I will go there with 
an open mind, and I will do my best to reach sound judgments 
based on everything that I learn there. And I also look forward 
to staying in touch with you and others on the committee to 
help me understand the Cyprus situation.
    Senator Menendez. And my very last question is will you 
commit to the committee that, if confirmed, you will engage 
with the Cypriot diaspora here in the United States prior to 
your departing to Cyprus to get some of their perspectives. 
They are very much engaged with their original homeland. They 
are U.S. citizens who have every right to express a point of 
view. Is that something that we would expect of you?
    Mr. Koenig. Absolutely, sir. If confirmed, I would be very 
eager to do that to understand the points of view of people who 
are deeply committed to this issue and have in many cases felt 
the pain of the situation on the island.
    Senator Menendez. Thank you, Madam Chair.
    Senator Shaheen. Thank you, Senator Menendez.
    Ambassador Kirby, last year I had the opportunity to travel 
to Serbia to represent the U.S. Senate at the OSCE 
Parliamentary Assembly, and during that trip, I went for a day 
to Bosnia and, while I was there, participated in a very moving 
ceremony on the 16th anniversary of the Srebrenica massacre 
which commemorated the nearly 8,000 Bosniac men and boys who 
were killed in that awful event.
    And I have been very troubled to see some of the statements 
from Serbia's new President claiming that these acts were not 
genocide. In fact, as you know, the International Criminal 
Tribunal for the former Yugoslavia has confirmed with some of 
its verdicts that the events of Srebrenica were genocide. I 
think it is important that that not be denied.
    And so I wonder if you could give us your perspective on 
how you think we should interpret these recent statements from 
President Nikolic and where Serbia might be on the efforts to 
continue the reconciliation with Bosnia and the impact on the 
stability there in Bosnia.
    Ambassador Kirby. Thank you, Madam Chairman.
    President Nikolic's comment both on Srebrenica and, 
frankly, also on Vukovic were unhelpful, and that was, of 
course, of concern to the administration. I would note that his 
statements subsequently, particularly related to his 
inauguration, were much more helpful. He has said useful things 
in terms of wanting to cooperate in the region. I think he got 
off on the wrong foot by saying things that were troubling in 
the region and troubling here and inconsistent with the 
international community's view.
    But I think we can work with him. I think that we will have 
conversations certainly, if confirmed. I will share your 
concerns, note that you were there. But we have to move 
forward. Serbia plays a very important role in the region and 
long-term stability in the region rests also through a good 
dialogue with the President and the future government.
    Senator Shaheen. And can you talk about how those comments 
were viewed in the Republic of Srbsca and Bosnia and whether we 
should be concerned about potential mischief there as the 
result of the change in administration in Serbia?
    Ambassador Kirby. Of course, I was here at the time.
    Senator Shaheen. Right.
    Ambassador Kirby. And certainly, if I am confirmed, I will 
get a better view of that.
    There are a variety of opinions in Serbia, as there are in 
many places, but I would note that the recent election results 
supported parties that were committed to a European trajectory, 
committed to joining the EU, and I think with that commitment 
comes an understanding that they have to deal with and go 
beyond what happened in the past in the breakup of the former 
Yugoslavia. So I think that they were unfortunate but I think 
we can work with the government. We will. We have to move 
forward and he has said some positive things since then that we 
should also balance with that.
    Senator Shaheen. You talked about the importance of making 
progress on Kosovo in terms of the EU admission. Are there 
other challenges that face Serbia that will be important as it 
works to be welcomed into the EU?
    Ambassador Kirby. Well, I think the first challenge they 
have right now is very difficult economic conditions. They have 
unemployment of over 25 percent and they have youth 
unemployment that is in some cases double that. They have some 
poor regions in the country that have to come forward and 
prosper more economically. So that for the new government is 
going to be a very important step.
    Clearly there are issues of corruption, not just in Serbia 
but in the region, and they will have to deal with that and to 
make more effective government. The corruption impedes good 
governance. And so those, I think, are a couple of the items 
that I think are most important that have to come along with EU 
membership, and EU membership and that kind of stuff can help 
it along, help it forward.
    Senator Shaheen. And is there a reason to be hopeful about 
the potential to address some of the economic challenges facing 
Serbia?
    Ambassador Kirby. Well, first, I am optimist. I think we 
have to be. There is a number of countries that are going 
through difficult times in Europe. Serbia had launched itself 
on an export-driven growth that has not done so well in the 
last year as there have been problems in the region between 
Greece, Spain, Italy, and other countries in the EU. But I 
think that the idea of using private industry and private 
development to spur the economy is the right idea. So I think 
there is some optimism there, but I think it is related also 
to--some of their troubles are related not just domestically 
but to the international situation.
    Senator Shaheen. Well, as you point out, Serbia is very 
important in the region. I have been a friend of Serbia since I 
arrived here. I have shared the interest and seen it succeed 
and will continue to do everything that I can as chair of this 
subcommittee to support those efforts.
    As we are talking about the financial challenges facing 
Europe, Mr. Koenig, I know that you are watching Cyprus very 
closely because it became the fifth country in the eurozone to 
apply for financial support. Can you assess for us their 
current economic situation? You talked about the relationship 
with Greece and the amount of Greek holdings in Cyprus that 
have affected their economic situation, but can you elaborate a 
little bit on that?
    Mr. Koenig. Yes, thank you, Madam Chair.
    The Cypriot financial sector grew very, very rapidly during 
the last decade, and one of the places where large Cypriot 
banks were heavily exposed was in Greece so that the 
consequences of the serious problems, things like the so-called 
haircut and so forth in the Greek economy have been felt very, 
very strongly in Cyprus. And this has created big problems on 
the balance sheets of two of the largest three Cypriot banks.
    This is one of the reasons why Cyprus did become the fifth 
country to seek a eurozone bailout arrangement. Those 
discussions between Cyprus and the troika, the EC, the European 
Central Bank, and the IMF, are still underway, but those are 
the reasons why there is such an acute situation in Cyprus. 
They also need to undertake reforms, and that would be part of 
an EU bailout package.
    Senator Shaheen. So should we be comfortable that Cyprus is 
moving forward to take those steps to address the 
recommendations from the EU, or are there going to be obstacles 
in trying to get that done?
    Mr. Koenig. We should encourage them I think--and I will do 
that if confirmed--to take these tough decisions about reform, 
but the current discussions are the right framework in which to 
sort out the requirements in order to take advantage of the 
European support funds.
    Senator Shaheen. Thank you.
    Ms. Holtz, you mentioned in your testimony the role of 
women in Oman. I wonder if you could talk about what is 
currently going on in terms of women's participation in Omani 
politics and government. Has there been progress? Should we be 
pleased about what is happening there or should we be 
concerned?
    Ms. Holtz. Thank you very much, Madam Chairman. I 
appreciate your asking this question because I think it 
highlights the importance that the U.S. Congress and the 
American people place on women's empowerment for our allies and 
friends and throughout the world.
    I believe that the sultan, since he took over in the 1970s, 
has opened his society and has really advocated for an equal 
role for women. They have the right to vote. They run for the 
Majles, the Parliament equivalent. The Omani Ambassador to the 
United States is a woman. Forty percent of the college students 
in Oman today are women. Oman is a traditional society. So 
there are areas for improvement, but they have equal treatment 
under the law.
    So I think that, if I am confirmed, of course, I will 
advocate for greater participation, work with the Government of 
Oman on its reform goals, work closely with the NGO partners 
that we have in Oman, the civil society advocates who also 
advocate for a greater role for women. We have the Middle East 
Partnership Initiative office in Oman which for many years has 
done work to empower women, education of women.
    So I think the trajectory is very good. The intention is 
there. The sultan of Oman gave an interview this February 
wherein he said that men and women are like the two wings of a 
bird, and without one wing, the bird cannot fly. So I think 
that shows his intention. But, you know, additional progress 
can be made, absolutely.
    Senator Shaheen. And you said that women are equal under 
the law. Do we see that, in fact, in things like ability to 
inherit ownership of property, rights to divorce, and being 
able to have children in divorce that are able to stay with the 
mother?
    Ms. Holtz. So thank you very much for the question.
    I am not an expert yet on Omani law. They have many 
different types of law. They have civil law. They have sharia 
law I am not yet familiar with what part of that law would 
apply to women. If I am confirmed, I will, of course, welcome 
further engagement from you on these issues and advocate for 
equal rights under all parts of the law.
    Senator Shaheen. Thank you.
    Mr. Armbruster, as you know, the United States has provided 
the Marshall Islands with compensation for damages stemming 
from nuclear weapons testing in the 1940s and 1950s. Can you 
tell us what the current status is with respect to compensation 
for those affected by radiation as a result of the tests that 
were done there and also, if you could, speak to the ongoing 
effort to address monitoring of citizens who have been exposed?
    Mr. Armbruster. Yes. Thank you, Madam Chair, for that 
question.
    The United States has provided full and final compensation 
for the Pacific Island nuclear series of tests that took place 
in the 1940s and 1950s, some 67 nuclear explosions. The 
Marshallese asked for a review of that compensation package 
asking that we look at changed circumstances, and the State 
Department did review the claims and determined that the 
circumstances had not changed. So in terms of the compensation, 
that package has been paid.
    However, we do, through the compact of free association, 
have ongoing payments and assistance to the Marshall Islands in 
a range of programs. The last nuclear test took place some 50 
years ago. So there are survivors who are monitored and whose 
health is screened very thoroughly by the Department of Energy. 
So it is a legacy and a problem that we review with the 
survivors, and I think it is something that I know Ambassador 
Campbell has taken part in the commemorations of the 
anniversary of those tests. But as far as the compensation 
package itself, that has been settled, Senator.
    Senator Shaheen. And are there issues that have occurred in 
the next generation of people who were exposed?
    Mr. Armbruster. Senator, I am not aware of issues that I 
could speak to authoritatively about issues, but I know that it 
is a very small population, some 60,000 people. And the health 
issues that are most prominent now are often lifestyle issues, 
obesity, as I mentioned TB, dengue, those types of challenges, 
but that is a question that I will become more fully informed 
on.
    Senator Shaheen. Well, I know that the Marshall Islands is
already experiencing the effects of climate change and that it 
is having an impact on rising sea levels, contamination of 
water, damage to homes and crops. Are we taking steps to help 
the Marshall Islands citizens cope with these effects of global 
warming, and are there any actions that you have heard that you 
think we should be taking that we are not?
    Mr. Armbruster. Thank you, Senator.
    I know that it is a very strong concern of the Marshallese. 
They took part in the recent Rio summit. So they have reached 
out to many partners, including the United States, in having a 
look at this issue. We are fortunate to have in the State 
Department the Office of Oceans, Environment, and Science, and 
we have very strong experts who can work with the Marshallese 
on these questions. Whether the programs in place right now are 
considered sufficient by the Marshallese, I do not know, but I 
know that that would be one of the top issues that we would be 
working on.
    Senator Shaheen. Thank you.
    Mr. Armbruster. Thank you.
    Senator Shaheen. Ambassador Ries, Senator Barrasso raised 
the question about energy for Bulgaria, and in March Bulgaria 
canceled a project to build two Russian nuclear reactors in the 
country. Can you elaborate on the reasons for the cancellation 
of this project and both the impact that it might have had on 
Bulgaria's relationship with Russia, as well as the energy 
requirements and where the source of that energy is going to 
come from in the future?
    Ambassador Ries. Senator, the Bulgarians did decide this 
year not to continue the project of building the Belene nuclear 
power plant. They came to this decision after some 
consideration and I am sure a thorough examination of the 
economic factors involved in going ahead with it. As I 
mentioned, we have been encouraging very strongly energy 
diversity in Bulgaria which would include further development 
of their nuclear capacity. They do have another nuclear plant 
at Kosloduy, and I imagine that they will be using that one as 
well.
    Senator Shaheen. Thank you.
    You talked about the rule of law challenges facing the 
country. The EU has suspended funding to Bulgaria due to some 
of the ongoing corruption concerns in the country. Can you 
explain what those suspensions were for and whether we should 
expect to see further suspensions from the EU or whether 
Bulgaria is moving to address some of those issues of 
corruption that have been raised?
    Ambassador Ries. Bulgaria has, with the EU, a cooperation 
and verification mechanism through which Bulgaria has an 
ongoing dialogue with the EU about rule of law issues. As it 
happens, the EU has just issued a report on 5 years of 
Bulgaria's performance under this mechanism. It just came out 
today, and I have not yet seen the complete report. It 
discusses a number of areas of concern.
    I must say that the Bulgarian Government itself has 
identified rule-of-law matters as of concern to them and 
certainly of civil society. And one of the good things that has 
happened as a result of this is that there is a robust public 
discussion of rule-of-law matters.
    I cannot speak to penalties that have been assessed. I do 
not have any specific information on that. I would be glad to 
look into it. But certainly having this relationship with the 
EU, this dialogue has had several positive effects. One is, as 
I mentioned, that there is a broad discussion in the society of 
these matters, and certainly any improvements that accrue as a 
result of this mechanism will be all to the good.
    Senator Shaheen. Thank you.
    In response to Senator Barrasso, I think you talked about 
some of the military cooperation between Bulgaria and the 
United States, and I do want to acknowledge, before we close 
our discussions, the contribution that Bulgaria has made to the 
NATO efforts in Afghanistan. I know that has been very 
important to the United States and we very much appreciate 
that, and I hope you will share that, when you are confirmed 
and you get to Bulgaria, with the people of the country.
    Ambassador Ries. Yes, ma'am, I certainly will.
    Senator Shaheen. I just have one final question for you, 
Ms. Holtz, before closing the hearing, and that is with respect 
to regional cooperation in the gulf because at a GCC leadership 
meeting in May, Saudi Arabia proposed a plan to strengthen the 
political unity of the GCC members and that move would 
indirectly give the Saudis greater control over the GCC. Can 
you let us know what the Omani position was with regard to the 
Saudis' plan, and do they support that? Are they signed on or 
do they have some concerns about it?
    Ms. Holtz. Thank you, Madam Chairman. A very good question.
    Oman has occasionally taken a somewhat independent role and 
voice in the GCC deliberations and decisions, and I believe in 
this case that they are still debating the issue but have 
concerns about the relative weight that the other gulf 
countries apply within the GCC role. So we are in a constant 
dialogue with all the GCC partners about the security 
architecture and beefing up the regional capacity to deal with 
issues as a political union, as a security union. So, yes, you 
are correct that Oman has occasionally been somewhat 
independent in that body. They support the strategic goals of 
the GCC, of course: regional stability, resolution of conflict, 
de-escalation of tensions, and all those things.
    Senator Shaheen. And does our State Department think that 
the Saudis should have greater control over the GCC?
    Ms. Holtz. I do not think we have taken a position on that 
at all. I think we want to enhance the ability of the GCC to 
address the issues regionally, but I do not think that we have 
indicated that any one particular GCC member should be dominant 
over the rest.
    Senator Shaheen. Thank you.
    Well, thank you all very much for your testimony this 
afternoon, for your willingness to take on these new 
challenges.
    And I will just announce that the record for this hearing 
will be open until close of business tomorrow. So there may be 
other questions that come in during that time.
    Again, thank you all. Thank you to your families.
    And the hearing is now ended.
    [Whereupon, at 4: p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Responses of Greta C. Holtz to Questions Submitted
                        by Senator John F. Kerry

    Question. The U.S.-Oman Free Trade Agreement entered into force in 
January 2009. In a review of the potential effects of an FTA with Oman, 
the U.S. Trade Representative indicated that the FTA would likely have 
negligible impact on U.S. employment.

  <bullet> Since its implementation in 2009, how has the FTA changed 
        the nature and level of trade between Oman and the United 
        States?
  <bullet> What categories of trade have seen the greatest growth, and 
        how have the U.S. and Omani economies been affected by the FTA?

    Answer. Bilateral trade volume has grown by over 50 percent since 
the FTA was implemented, from $2.2 billion in 2008 to $3.6 billion in 
2011. U.S. exports to Oman were up 56 percent in the first quarter of 
2012, measured year on year. U.S. firms are involved in large-scale 
cooperative construction projects, such as Oman's new international 
airport. The FTA has enabled U.S. firms to export high-quality products 
at very competitive prices. U.S. chemical exports increased 196 percent 
from 2008 to 2011 while U.S. agricultural exports increased 176 percent 
in the same time period. Embassy Muscat is facilitating joint ventures 
in health care, port development, and marine research. If I am 
confirmed, continuing to promote American businesses in Oman will be 
one of my priorities. In addition, I will work with the Omani 
Government on full implementation of the agreement.

    Question. The Sultan of Oman has been leading his government 
through a series of political reforms for many years, including a 
parliamentary election in 2011.

  <bullet> How much progress has the Omani Government made in securing 
        political and civil rights for its citizens and ensuring that 
        Omani leaders are accountable to their citizens?
  <bullet> How can the United States continue to facilitate the gradual 
        reforms already underway?

    Answer. In 2010, a United Nations Development Program report ranked 
Oman No. 1 globally in human development over the previous 40 years. In 
addition, Sultan Qaboos has addressed Omani citizens' requests for a 
more active role in government by appointing seven members of the 
Majlis al-Shura, or Consultative Council, to the Cabinet in 2011. 
Immediately following the 2011 Council elections, he granted the 
Council new fact-finding and regulatory powers. The Sultan has raised 
the level of government accountability by replacing several ministers 
and enhancing the State auditing institution's power of review, as well 
as increasing the authority of elected representatives to call 
ministers to account for performance. Increased women's participation 
in government is also an encouraging sign.
    If confirmed, I will work with the Omani Government to actively 
expand and strengthen civil society and political participation, 
judicial reform, media independence, and progress on gender issues.
                                 ______
                                 

       Responses of Thomas H. Armbruster to Questions Submitted 
                      by Senator Richard G. Lugar

    Question #1. Please provide a copy of the minutes of the meetings 
of the Joint Economic Management and Accountability Committee for 
calendar 2009, 2010, and 2011.

    Answer. Thank you for your question. The documents you requested 
are maintained by the Department of Interior. I refer you to them for 
this request.

    Question #2. Please describe the nature of the U.S. Department of 
the Interior and the U.S. Department of State relationship in the 
Marshall Islands. In what area(s) does the Interior Department take the 
lead in matters involving the U.S. Government and the Marshall Islands?

    Answer. The U.S. Department of the Interior and the U.S. Department 
of State enjoy a unique and productive relationship in the Marshall 
Islands. This interagency cooperation is critical to continuing 
progress in our engagement with the Marshall Islands. As Chief of 
Mission, the Ambassador oversees the overall bilateral relationship 
with the Marshall Islands, and is responsible for all executive branch 
employees while in the Marshall Islands. Under the terms of the Compact 
as Amended, the Department of the Interior is responsible for 
administering most financial assistance provisions under the Compact. 
The Ambassador confers frequently with the Department of the Interior's 
Grant Management Specialist working in the Embassy as well as other 
Interior officials in Hawaii and Washington, DC, on issues related to 
oversight of Compact assistance as well as policy issues such as the 
financial impact of Compact State migrants on U.S. jurisdictions. The 
Director of Insular Affairs at the Department of the Interior chairs 
meetings of the Joint Economic Management and Financial Accountability 
Committee and the Trust Fund Committee for the people of the Republic 
of the Marshall Islands.

    Question #3. Please provide a list of U.S. Government civilian 
positions, by Departments/other entities, in the Marshall Islands.

    Answer. The U.S. Embassy employs 39 individuals, including four 
direct hire U.S. State Department employees, one direct hire 
representative from the Department of the Interior, and one Personal 
Services Contract employee of the U.S. Agency for International 
Development. The remaining 33 are local-hire Embassy employees, 17 of 
which are the guard force. The Department of Energy employs 22 local 
hire employees in the RMI at its office in Majuro, 2 employees in 
Kwajalein,and 13 local workers in Rongelap, Utrik, Bikini, and Enewetak 
(including full-time, part-time and casual field workers). Marshallese 
citizens staff the whole body counting facilities in Majuro, Rongelap, 
and Enewetak. The National Oceanographic and Atmospheric Administration 
(NOAA) funds one position to manage the regional NOAA weather station 
in Majuro. The U.S. Department of Agriculture has one local hire 
position in the RMI to manage the agency's housing loan program.
    On Kwajalein, the U.S. Army Installation on Kwajalein Atoll is led 
by 14 uniformed members of the U.S. military and 39 Army civilians. The 
remaining workers on the installation include 778 U.S. contractors and 
873 local Marshallese workers.

    Question #4. U.S. grant assistance to the Marshall Islands under 
the Compact targets the areas of education, health, infrastructure, 
public sector capacity-building, private sector development, and the 
environment.

  <bullet> What mechanisms are in place in each sector to provide 
        transparency and
        accountability in the use of U.S. funds?

    Answer. The Department of the Interior employs one full-time grant 
oversight officer, working out of the U.S. Embassy in Majuro, to ensure 
that Compact funds are properly managed and reported. In addition, the 
Department of the Interior's Office of Insular Affairs in Honolulu 
sends representatives to Majuro every quarter to review accounting 
reports and ensure all funds are properly administered.
    Articles V,VI, and VII of the Agreement Concerning Procedures for 
the Implementation of United States Economic Assistance provided in the 
Compact, as amended, of Free Association Between the Government of the 
United States of America and the Government of the Republic of the 
Marshall Islands (the Fiscal Procedures Agreement) stipulate the 
mechanisms that are in place in each sector of the Compact, as amended, 
to provide transparency and accountability in the use of U.S. funds.
    Requirements under Article V include the submission by the 
Government of the Republic of the Marshall Islands (GRMI) of a Medium-
Term Budget and Investment Framework (MTBIF) and amended every 3 years; 
the submission of an annual proposal for the division of the annual 
economic assistance among sectors; and annual U.S./RMI Budget 
consultations in July of each year prior to the Annual JEMFAC Meeting 
in August of each year.
    Article VI stipulates the Standards for Financial Managements 
Systems, Quarterly Financial Reporting Requirements, Annual Financial 
Reporting Requirements, Accounting Basis, Period of Availability of 
Grant Funds, and Procurement Regulations.
    Article VIII requires that the GRMI conduct a yearly financial and 
compliance audit, within the meaning of the Single Audit Act, as 
amended (31 U.S.C. 7501 et seq.), More detailed information can be 
found in the attached sections of Articles V, VI, and VIII of the 
Compact's Fiscal Procedures Agreement.

    Question #5. During the last 3 years what have been the areas of 
greatest progress in anticorruption efforts in the Marshall Islands 
pertaining to the flow of U.S. funds, and other areas as well?

    Answer. Although more work remains to be done, the Republic of the 
Marshall Islands (RMI) have worked to improve capacity and 
accountability for the flow of U.S. and other bilateral funds. In 2011, 
the RMI identified $539,888 in fraudulent transactions involving U.S. 
federal grants, and the RMI Office of the Attorney General continues to 
prosecute the individuals involved. These prosecutions--the first in 
RMI history related to misuse of foreign donor assistance--send an 
important message that the country is committed to improving 
accountability. In 2012, the RMI also increased the staffing of the 
Office of the Auditor General and has begun conducting performance 
audits and other regular audits of public accounts.

    Question #6. During the last 3 years, what are the other major aid 
donor countries with which United States officials have had direct 
discussions to coordinate and to promote sustainable development in the 
Marshall Islands? Please provide a comparison, by country, of aid 
provided to the Marshall Islands.

    Answer. The United States, through our Embassy in Majuro, routinely 
consults with the other largest bilateral donors--Taiwan and Japan--
resident in the Marshall Islands and Australia, resident in the 
Federated States of Micronesia, as well as with multilateral 
organizations such as the Asian Development Bank and the United Nations 
Development Program. The United States has also, on occasion, met with 
and discussed donor issues with other nonresident diplomatic 
representatives visiting the Republic of the Marshall Islands (RMI), 
such as New Zealand, the European Union, France, and Sweden. Embassy 
officials have information suggesting the RMI also receives donor 
assistance from Israel and the United Arab Emirates, but we have not 
had the opportunity to meet with their representatives, who are not 
resident in Majuro. In December 2011, the RMI hosted a Development 
Partner Meeting for bilateral and multilateral donors.
    The RMI does not currently have an office to coordinate donor 
assistance or provide a breakdown of assistance received by country. A 
recent recommendation from the Pacific Islands Forum during a 2012 
visit was the creation of an aid management unit with a mandate to 
monitor aid flows and develop and implement a development assistance 
policy to better coordinate international donor assistance.

    Followup to Question #1. Does the State Department not have a copy 
of the minutes of the meetings referenced even though the Department is 
represented on the JEMFAC?

    Answer. The Department of the Interior holds the final, official 
copies of the minutes of JEMFAC meetings. The Department of State is on 
the board of the committee, and we collaborate closely with the 
Department of the Interior in oversight of RMI funding. The Ambassador 
attends JEMFAC meetings as an observer.
    As a result of Senator Lugar's request and followup question, the 
Department of State consulted with the Department of the Interior about 
releasing copies of the meeting minutes requested. The Department of 
the Interior has no objection to releasing the documents through the 
Department of State to Senator Lugar, and the minutes of the meetings 
have been attached.

[Editor's note.--The JEMFAC meetings documents mentioned above were too 
voluminous to include in the printed hearing therefore they will be 
maintained in the permanent record of the committee.]
                                 ______
                                 

          Responses of Marcie B. Ries to Questions Submitted 
                     by Senator Benjamin L. Carden

    Question. The situation of the Roma may present the most serious 
human rights issues in Bulgaria.

  <bullet> First and foremost, are you prepared to speak out and speak 
        out publicly in the event of significant intraethnic violence 
        of the kind that erupted before the local elections last fall?

    Answer. In reaction to the protests, the administration strongly 
encouraged efforts by the Bulgarian Government authorities to ensure 
respect for the rule of law and the protection of all citizens. If 
confirmed, I will continue to vigorously advocate for respect for the 
rule of law, and in the event of significant incidents of interethnic 
violence, to condemn them publicly.

    Question. Bulgaria, like a number of other countries, has failed to 
adequately 
ensure that all of its Romani citizens have proper identity documents. 
Separately, Bulgaria has also failed to adequately regularize the legal 
status of significant amounts of housing in which Roma live. It now 
appears that these two problems are spiraling together to create yet a 
third: a new law requires people to own property or have a tenancy 
agreement in order to get identity documents, and without identity 
documents, they can't vote. I don't have any indication that the 
disenfranchisement of Roma was an intended consequence, but it is a 
terrible result.

  <bullet> Will you engage with Bulgarian authorities on all three of 
        these issues: identity documents, regularizing housing, and 
        voting rights for Roma?

    Answer. As Secretary Clinton told young Roma leaders when she met 
with them in Sofia on February 5, protecting and promoting the human 
rights of Roma everywhere has long been a personal commitment of hers 
and remains a priority for the Obama administration. If confirmed, I 
will advocate for nondiscrimination and equal protection of all 
citizens, including the Roma, and will encourage strong, effective 
Romani civil society capable of advancing and defending its own 
interests.
                                 ______
                                 

          Responses of Michael D. Kirby to Questions Submitted
                     by Senator Benjamin L. Cardin

    Question. I want to thank the State Department for keeping the 
unresolved case of the Bytyqi brother murders on the bilateral agenda.

  <bullet> What steps will you take as Ambassador to ensure justice in 
        this case?
  <bullet> There are other unresolved cases from the late Milosevic era 
        as well; do you believe the Interior Ministry should be 
        targeted for reform that would remove the holdovers from the 
        1990s and deny them their current protection from prosecution 
        for past crimes?

    Answer. The ongoing failure of Serbian authorities to investigate 
adequately, and hold accountable those responsible for the murder of 
the Bytyqi brothers continues to pose a challenge to the deepening of 
our bilateral relationship. Secretary Clinton, Deputy Secretary Burns, 
and other senior officials have urged Serbian authorities to bring 
those responsible to justice, including most recently Assistant 
Secretary Philip Gordon during his July 8-9 visit to Belgrade.
    The failure of the Serbian Government to prosecute not only those 
who ordered and carried out the Bytyqi killings, but also those who 
permitted the attack on our Embassy in Belgrade in 2008 and those 
responsible for such crimes as the murder of Slavko Curuvija in 1999--
who was shot and killed not long after he testified before the Helsinki 
Commission in 1998--is deeply troubling. The United States will 
continue to advocate strongly for justice in these cases. These 
failures point to continuing weaknesses in the rule of law in Serbia, a 
critical criterion for Serbia's advancement in the EU accession 
process.
    The United States expects the Serbian authorities to take necessary 
steps to investigate properly these cases, to continue undertaking 
necessary reforms within the Interior Ministry to break down this 
``wall of silence,'' and to ensure that those complicit in Milosevic-
era crimes are brought to justice. If confirmed, I will make it a 
priority to seek justice in these cases.

    Question. What can we be doing now to ensure that Serbia will not 
abuse its chairmanship of the OSCE in 2015 to advance its own national 
agenda in the Western Balkans? Given the longstanding OSCE focus on 
Roma, will we use the upcoming 2015 chairmanship as a mechanism to 
press Serbia to respect the rights of Roma, especially as authorities 
address the housing disputes which recently have increased tensions and 
led to violence?

    Answer. Each OSCE Chairman-in-Office is expected to uphold the 
values, principles, and institutions of the OSCE during its 
chairmanship. The United States will expect no less from Serbia. The 
2014 Chairman-in-Office, Switzerland, is working closely with Serbia to 
establish continuity across their two chairmanships. We expect that 
their proposed program of work will focus on the core issues facing the 
organization, including how to ensure and enhance our collective 
efforts to meet the OSCE's commitments in an era of tight budgets. In 
addition, during Serbia's chairmanship, Switzerland will appoint a 
Swiss envoy on Balkan issues to avoid any perceptions of a conflict of 
interest, given Serbia's vested interests in the region, in particular 
in Kosovo and Bosnia and Herzegovina, which currently host the OSCE's 
two largest field missions.
    Chairing the OSCE is Serbia's opportunity to demonstrate it is 
ready to take a position of leadership in world affairs. This also 
means leading by example. Living up to its OSCE commitments will show 
all concerned that Serbia is ready for its chairmanship, and if 
confirmed I will engage at all levels of the Government of Serbia to 
assist them in this endeavor.
    The United States will expect Serbia to live up to its commitments 
in the human dimension, including those that concern minority 
populations such as Roma. This administration remains committed, a fact 
reinforced by Secretary Clinton's announcement that the United States 
will be an observer in the Decade of Roma Inclusion, to continuing to 
champion the human rights of members of the Roma minority and reminding 
Serbia and other OSCE participating states of their commitments to 
protect and promote the inclusion of Roma.
                                 ______
                                 

           Response of Greta C. Holtz to Question Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. Oman is one of our closest allies in the Persian Gulf, 
and also maintains a friendly relationship with Iran.

  <bullet> How does Oman balance relations with the United States and 
        Iran?
  <bullet> How does Oman support U.S. and international policy on Iran, 
        including compliance with sanctions?
  <bullet> If confirmed, how will you work with Oman on Iran?

    Answer. The Sultanate of Oman is one of our oldest and most 
dependable friends in the Arab world. Oman values its close 
relationship with the United States and has expressed its appreciation 
for U.S. cooperation on a range of issues. With a longstanding policy 
of maintaining open avenues of communication and working relations with 
all of its neighbors, Oman has also served as a helpful interlocutor 
between the United States and Iran in the past. The Omanis have 
conveyed to Iran the possible consequences of its behavior. We work 
with Omani officials on issues related to Iran. The Omanis share our 
concern about a nuclear Iran and have cooperated with the United States 
on U.S. and international sanctions.
    TheGgovernment of Oman has made it clear that it is in Oman's 
national interest to maintain peace and security in the region. This 
includes keeping the region free of a nuclear-armed Iran and other 
Iranian provocations. Oman also shares the interest of the United 
States and the international community in maintaining the free flow of 
commerce and freedom of navigation in the Strait of Hormuz, which falls 
within Omani territorial waters, as well as other international 
waterways. As a member of the Gulf Cooperation Council (GCC) and the 
Arab League, Oman has been supportive of initiatives such as the U.S.-
GCC Strategic Cooperation Forum, which promotes regional collaboration 
on issues of strategic importance to the region, such as the threat 
posed by Iran.
    If confirmed, I will employ the full range of our diplomatic tools 
to deepen our engagement and enhance cooperation with Oman in order to 
achieve our national security objectives of regional stability and 
resolution of regional conflicts.
                                 ______
                                 

            Response of John M. Koenig to Question Submitted
                    by Senator Robert P. Casey, Jr.

    Question. Negotiations between the Greek and Turkish Cypriot 
communities have stalled, and some have suggested the hope for a 
settlement is low. Prospects for a settlement have suffered as a result 
of Turkey's objections to the Republic of Cyprus's plans for energy 
exploration and threats to boycott EU activities involving Cyprus as 
rotating EU president. Concerns have also been raised about non-Cypriot 
Turkish citizens who have settled on the island in the past 20 years, 
changing the island's demographics. This group has become a key issue 
in the negotiations.

  <bullet> What is your assessment of these concerns?
  <bullet> What is the future of reunification negotiations, and if 
        confirmed how would you work with the Cypriots to encourage a 
        negotiated settlement between the two communities?

    Answer. If confirmed, I will support the United Nations' efforts to 
work for a negotiated settlement that addresses the human rights of all 
concerned in a balanced manner. I will also exert all possible efforts 
to support the process, which is the only practical way to resolve the 
many critical issues between the communities.
    A comprehensive settlement plan will need to address issues of 
citizenship and residency on the island. The administration believes 
that a settlement plan dealing with these and other questions needs to 
be worked out between the communities, with United Nations support, and 
needs to be acceptable to majorities in both of the island's 
communities. The Cypriot-owned and Cypriot-led process provides the 
best way forward to achieve a just and lasting settlement. Greek 
Cypriot and Turkish Cypriot leaders must demonstrate courage and 
ingenuity to achieve convergences on the difficult issues before them. 
The United States urges both sides to engage constructively and find 
ways to bridge differences.

 
        NOMINATIONS OF JAMES B. CUNNINGHAM AND RICHARD G. OLSON

                              ----------                              


                         TUESDAY, JULY 31, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. James B. Cunningham, of New York, to be Ambassador to the 
        Islamic Republic of Afghanistan
Hon. Richard G. Olson, of New Mexico, to be Ambassador to the 
        Islamic Republic of Pakistan
                              ----------                              

    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Casey, Udall, Lugar, 
Corker, Rubio, and Isakson.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
              U.S. SENATOR FROM NEW MASSACHUSETTS

    The Chairman. The hearing will come to order. Good morning.
    We apologize for beginning a few minutes late, but since 
this is our wrapup week, there are more meetings going on than 
there are hours and available moments to get to them, I'm 
afraid.
    We're delighted to welcome everybody here to consider the 
nominations of two distinguished career Foreign Service 
officers who are selected to serve in the very important posts 
of Afghanistan and Pakistan.
    Ambassadors James Cunningham and Richard Olson are very 
experienced and talented diplomats, and I am convinced, as I 
think the committee is and will be, that they bring the 
combination of intelligence and experience, diligence, 
necessary for both of these critical assignments.
    Obviously, today's hearing comes at a pivotal moment. All 
you have to do is pick up the newspapers any given day in the 
last few weeks, and Afghanistan and Pakistan are, as usual, 
swirling around in them.
    The signing of the strategic partnership agreement earlier 
this year marked the beginning, not the end, of a new phase of 
U.S. engagement in Afghanistan. And as international 
conferences from Istanbul and Bonn to Chicago and Tokyo have 
made clear, the world is not going to simply walk away from or 
abandon its investment in a stable Afghanistan.
    Our task now is to leverage our commitment into a 
sustainable transition that prevents Afghanistan and the region 
from backsliding into widespread ethnic or sectarian violence.
    A coordinated political, security, and economic transition 
will be challenging. And as we move forward, there are several 
key steps that we need to focus on.
    First and most important, we must prepare now for the 
Afghan elections in 2014. Ultimately, it is the political 
transition that will determine whether our military gains are 
sustainable, and the strength and quality of the Afghan state 
we leave behind will be determined by that political 
transition.
    Our role should not interfere in domestic politics. It is 
critical that Afghans must pick their leaders freely and 
fairly. But we should make clear that we will only support a 
technical process that is transparent and credible. Selection 
of an accountable, independent election commission, 
transparency in new election laws, and early preparation of 
voter lists are all critical steps for Afghans in order that 
they have a voice and a choice in the election.
    Just as important, our political strategy has to go beyond 
reconciliation in order to support a national consensus among 
key Afghan stakeholders. Too many Afghans are preparing to 
fight to secure their interests, instead of uniting for the 
good of their country. I think we need to send a strong message 
that the United States supports a comprehensive political 
process that is fully inclusive, transparent, and respectful of 
the rights of all groups, including women and ethnic 
minorities.
    Facilitating a political transition also requires us to 
consider how to best build and sustain the Afghan Army and the 
police in order to leave behind a force that can independently 
secure key terrain. And there are a lot of questions about the 
viability of that, needless to say.
    We have 2 years to lay that foundation for a force that is 
responsive to the needs of its people.
    And it's interesting, as I talk to leaders in Pakistan, you 
get a difference in stated interests about the size and scope 
and capacity of that force. And obviously, there is a 
connection to those interests with respect to each country's 
choices that it is making right now.
    So we need to continue to focus on combating corruption, on 
emphasizing respect for human rights and rule of law. We also 
need to focus our assessment tools on creating an affordable 
and sustainable effective force.
    As we begin to build or as we build, and as the Afghans 
gain confidence about their future, we also need to move in the 
areas of economic development and stability.
    Despite the progress that was made in Tokyo to pledge $16 
billion in donor aid through 2015, Afghanistan could very well 
still face a major economic crisis. And we've made significant 
development achievements over the past decade, but I think 
everyone would agree the gains are fragile. Sustaining them is 
going to require continued investments and an Afghan Government 
that itself can generate sufficient revenue.
    Our development approach must also take into account 
Afghanistan's worsening humanitarian crisis and the immense 
need of vulnerable populations. So obviously, there's no 
shortage of challenge here.
    Finally, our strategy has to continue to reflect the 
interconnectedness of the region's challenges, from Central 
Asia to Iran to India to Pakistan.
    I've said a number of times before, but I believe it even 
more so now, that what happens in the region, in the region as 
a whole, will do more to determine the outcome in Afghanistan 
than any shift in strategy. And Pakistan, in particular, 
remains central to that effort.
    It's no secret that last year was a very challenging one in 
our relationship, in the United States-Pakistan axis. Many 
Pakistanis believe that America will simply once again abandon 
the region, as we did after the fall of the Soviet Union, which 
is one reason why Pakistan continues to hedge its bets and rely 
on certain insurgent groups for strategic depth.
    The result has been a counterproductive back-and-forth, 
point and counterpoint, that undermines what really ought to be 
a more cooperative relationship. And we see that in today's 
newspaper stories about accusations regarding Afghanistan-based 
insurgent initiatives in Pakistan.
    I'm pleased that the recent developments with Pakistan have 
led to the reopening of the critical NATO supply lines. And 
despite many of our frustrations and setbacks, serious 
policymakers on both sides understand that we have more to gain 
by finding common ground and working together on areas of 
mutual concern. And those are, clearly, from fighting terrorism 
to facilitating economic development.
    I think we also need to point out that Pakistan has 
suffered grievously at the hands of al-Qaeda, the Taliban, and 
affiliated terrorist groups. Some 38,000 Pakistani citizens and 
more than 6,000 Pakistani Army and security forces have died 
from terrorist incidents since 2001.
    Pakistan is also facing a massive economic and energy 
crisis. And political infighting and election-year politics 
complicate efforts to address deteriorating situations. And 
none of us are unfamiliar with those kinds of dynamics even 
here at home.
    For years now, we've been trying to work with Pakistan to 
create a stable economy. And that's why our committee led the 
effort with the Kerry-Lugar-Berman bill. It's why Senator Lugar 
and I have fought for continued investments in the long-term 
relationship that is based on mutual goals.
    Often, the reward for diplomats who succeed in difficult 
postings with long odds is tougher assignments with longer 
odds. And our nominees today are no exception to that rule.
    James Cunningham has already served a tour in Afghanistan, 
most recently as Deputy Ambassador in Kabul. He's uniquely 
placed, I think, to lay the foundation for our coordinated 
political, security, and economic transition.
    And I want to note that the Ambassador's wife, Leslie, and 
I think his daughters, Emma and Abigail, are here today, and we 
welcome both of them, all of you, all three of you. Thank you.
    It's particularly good to see him again here. I've been 
with him in Kabul and before that, when he was serving as our 
Ambassador to Israel, and delighted to welcome him back here.
    Richard Olson served most recently as the coordinating 
director for development and economic affairs in Kabul. And I 
am confident that his experience in Afghanistan and previous 
leadership in the Middle East will serve him well as he works 
to strengthen our relationship with Pakistan.
    So we're very pleased to welcome them here today.
    Also, I think, Ambassador Olson, your daughter is here. Am 
I correct? Isabella? She's interning in Senator Udall's office.
    Delighted to have you here. You've got an inside track on 
the seating and other things, too.
    So we really thank you for your service, and we 
particularly thank your families for their service, because 
everybody is part of this. And no one recognizes that more than 
this committee, I think.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join the chairman 
in welcoming the distinguished nominees and their family 
members this morning.
    The Foreign Relations Committee is taking up these 
nominations at a critical time. It is important to avoid gaps 
in leadership that could diminish the effectiveness of our 
policies toward Afghanistan and Pakistan.
    We look forward to hearing the administration's assessments 
of the situation in those countries and its plans for moving 
forward.
    American policy in Afghanistan has been evolving on the 
margins. Troop levels are anticipated to be reduced in the 
coming months, and we have seen some narrowing of the mission. 
However, the United States continues to spend enormous sums in 
that country on national building objectives that ultimately 
may contribute little to U.S. vital interests.
    We need a clear explanation of what metrics must be 
satisfied to achieve the original intent of the mission to 
prevent Afghanistan territory from being used as a terrorist 
safe haven. It is essential that Afghanistan is viewed in the 
broader strategic context and that our policy there is not 
determined by political optics or inertia.
    If we reapportioned our worldwide military and diplomatic 
assets without reference to where they are now, it is doubtful 
that a rational review would commit so many resources to 
Afghanistan. The country is important, but does not hold that 
level of strategic value for us, especially at a time when our 
Nation is confronting a debt crisis, our Armed Forces have been 
strained by repeated combat deployments, and we are attempting 
to place more emphasis on East Asia.
    Further, we know that al-Qaeda has a far more significant 
presence in Pakistan than in Afghanistan. To the extent that 
our purpose in Afghanistan is to confront the global terrorist 
threat, we should be refocusing resources on Pakistan, Yemen, 
Somalia, parts of North Africa, and other locations.
    In this context, the question becomes how to transition to 
an efficient strategy for protecting our vital interests in 
Afghanistan over the long term that does not involve massive, 
open-ended expenditures and large American military 
deployments.
    The Pakistan side of the border has a fundamentally 
different dynamic. Despite the death of Osama bin Laden, al-
Qaeda and other terrorist groups maintain a strong presence in 
the country. There is no question that the threat of these 
groups, combined with worries about state collapse, conflict 
between India and Pakistan, the safety of the Pakistani nuclear 
arsenal, and Pakistan's intersection with other states in the 
region, make it a strategically vital country worth the cost of 
engagement.
    But the contradictions inherent in Pakistani society and 
government necessitate that we apply intense oversight to 
ensure that our assistance and diplomacy advance our 
objectives.
    Our Ambassador will be the critical player in evaluating 
whether our programs in Pakistan are working and contributing 
to a genuine partnership between our two countries.
    It is worth noting that in 2011, almost 3,200 Pakistanis 
died in terrorist-related incidents. Despite our differences, 
our countries have strong incentives to cooperate on economic 
and security issues.
    I appreciate the sacrifices that our nominees have made on 
behalf of U.S. national security, and I applaud the commitment 
they are showing in accepting these very challenging 
assignments. I thank the chairman.
    The Chairman. Thank you, Senator Lugar, very much.
    Ambassador Cunningham, if you'd lead off, and then 
Ambassador Olson. We appreciate, again, thanks for being here.
    Your full statement will be placed in the record, as if 
read in full, and we look forward to your summary.

   STATEMENT OF HON. JAMES B. CUNNINGHAM, OF NEW YORK, TO BE 
       AMBASSADOR TO THE ISLAMIC REPUBLIC OF AFGHANISTAN

    Ambassador Cunningham. Thank you very much, Mr. Chairman, 
Ranking Member Senator Lugar, members of the committee. Thank 
you for the opportunity to appear before you today as President 
Obama's nominee to be the United States next Ambassador to the 
Islamic Republic of Afghanistan.
    I'm truly honored that President Obama and Secretary 
Clinton have placed their trust in me. And I look forward, if 
confirmed by the Senate, to working closely with you to advance 
America's interests in Afghanistan, and I will welcome frequent 
opportunities to consult with you.
    For the past year, I've been serving as Deputy Ambassador 
at U.S. Embassy Kabul, supporting Ambassador Ryan Crocker in 
leading a mission of some 1,100 dedicated staff from 18 U.S. 
Government agencies. I fully intend, if confirmed, to follow 
his example of maintaining the closest possible cooperation 
between the civilian and the military efforts in Afghanistan 
and of pursuing a whole-of-government approach to the important 
challenges before us.
    Under Ambassador Crocker's outstanding leadership, we have 
achieved a great deal over the past year, including completion 
of our historic strategic partnership agreement, which will 
guide our enduring partnership now and beyond the end of 
transition in 2014.
    The strategic partnership and the successful NATO summit in 
Chicago and the Tokyo conference send a clear message to the 
Afghan people and to the region that Afghanistan will have the 
support of the international community and of the United States 
in the years ahead.
    If confirmed, I will build on this successful diplomatic 
campaign, underscoring our commitment to help build an 
Afghanistan that will contribute to stability in the region and 
never again be a source of international terrorist threat to 
the United States.
    On September 11, 2001, I was the Acting Representative to 
the United Nations in New York. The next day, I told the 
members of the U.N. in the Security Council and in the General 
Assembly, on behalf of the United States, that the 9/11 terror 
attack was not just an attack on the United States, but an 
attack on all, of whatever religion or nation who share the 
values on which our global community rests.
    That struggle between terror and those values continues 
today and will, unfortunately, continue for some time to come.
    In Afghanistan, we are turning a page. Over the past 
several months, we and our Afghan and international partners 
have created an unprecedented, yet sustainable, framework of 
support for Afghanistan consisting of a web of bilateral and 
multilateral commitments.
    Our strategy for a stable Afghanistan has five elements: 
transitioning to Afghan responsibility for security in 2014, 
training Afghan National Security Forces, building an enduring 
partnership with Afghanistan, supporting Afghan reconciliation, 
and promoting regional stability and economic integration.
    At the Lisbon summit in 2010, with our allies and partners, 
we established the timeline for security transition. And as 
foreseen, the Afghans are taking on responsibility for 
security, with Afghan security forces taking the lead now in 
providing security for some 75 percent of the population. 
Afghan security forces will reach their full surge strength 
soon and are becoming increasingly capable, despite the many 
obstacles to be overcome.
    At the Bonn conference in December last year, Afghan 
leaders presented to the international community the outlines 
of a strategy to ensure Afghanistan's stability beyond the 
troop drawdown. And in turn, the international community 
committed to supporting Afghanistan throughout a transformation 
decade, from 2015 to 2024, with the aim of ensuring continued 
security, economic, and democratic gains after the transition.
    In May of this year, President Obama and President Karzai 
signed the strategic partnership agreement, which provides a 
long-term framework for relations between the United States and 
a fully sovereign Afghanistan.
    Secretary Clinton's announcement during her July 7 visit to 
Kabul that the President had designated Afghanistan a major 
non-NATO ally was another signal of our commitment.
    At the NATO summit in Chicago, NATO and its ISAF partners 
noted that, come mid-2013, we will shift to a support role as 
the Afghans step forward to lead. The United States reaffirmed 
our commitment to Afghan security beyond 2014, and the 
international community committed to providing the Afghan 
security forces the support and funds they need for 
sustainment.
    The Afghan Government also recognized that NATO and its 
partners have a crucial role to play in training, advising, and 
assisting the Afghan security forces and invited NATO to 
continue its support after the ISAF mission concludes at the 
end of 2014.
    In order to address support for Afghanistan's development, 
growth, and governance, the international community gathered in 
Tokyo on July 8 to further define the concept of mutual 
accountability and assure Afghanistan of continued economic 
assistance. The Japanese announced that the international 
community had pledged $16 billion in aid over the next 4 years, 
sufficient to cover Afghanistan's fiscal gap as identified by 
the World Bank.
    Of equal importance was the adoption of a mutual 
accountability framework, which affirmed that international 
assistance to Afghanistan is not unconditional, that the Afghan 
Government must act decisively to ensure that the returns on 
the international effort are sustained and irreversible.
    That must include, as Secretary Clinton observed, fighting 
corruption, improving governance, strengthening the rule of 
law, and increasing access to economic opportunity for all 
Afghans, especially for women.
    So today, the pieces of a long term, enduring support 
structure for Afghanistan's continuing progress and development 
are now in place. This makes clear to Afghans and to the region 
that the security transition does not mean we are abandoning 
Afghanistan. And the Taliban appear to be taking notice.
    For the first time in a decade, they are debating and 
signaling an openness to negotiations. The sole purpose of U.S. 
support for reconciliation is to create the conditions for 
inclusive national dialogue among all Afghans about the future 
of their country.
    We have been consistent, along with our partners, about the 
necessary outcomes of any negotiation. Insurgents must break 
ties with al-Qaeda, renounce violence, and abide by the Afghan 
constitution, including the rights afforded to women and 
minorities. And we have been clear about steps the Taliban 
should take to signal their interest in a peace process.
    So the Taliban face a clear choice: They can dissociate 
from international terrorism and enter an Afghan peace process, 
or face increasingly capable Afghan National Security Forces 
supported by the United States and our allies.
    And also key to Afghanistan's future stability will be a 
credible and inclusive Presidential election in 2014, followed 
by a constitutional transfer of power.
    President Karzai has repeatedly affirmed his commitment to 
a peaceful constitutional transition of power at the end of his 
second term. All Afghans, whatever their gender, ethnicity, or 
religion, have much to gain from a successful political 
transition and should support it.
    The United States is committed to working with 
international partners to support the Afghans as they choose 
their next leader.
    Mr. Chairman, I will not play down the difficulties, but 
many, many Afghans are working hard every day for a better 
future, and we will continue to support the Afghan Government 
and people, now and after the 2014 elections with a new 
President, in the hard work needed to bring the security, 
development, and stability which the Afghan people so earnestly 
desire and deserve after decades of violence.
    I would be honored, with the consent of the Senate, to lead 
the U.S. mission in Afghanistan in the important work of 
enhancing the security of the United States and of helping 
Afghanistan make further progress toward that vision of the 
future.
    Thank you, Mr. Chairman, and members, I look forward to 
your questions.
    [The prepared statement of Ambassador Cunningham follows:]

               Prepared Statement of James B. Cunningham

    Mr. Chairman, Ranking Member Lugar, members of the committee, thank 
you for the opportunity to appear before you today as President Obama's 
nominee to be the United States next Ambassador to the Islamic Republic 
of Afghanistan. I am truly honored that President Obama and Secretary 
Clinton have placed their trust in me. I look forward, if confirmed by 
the Senate, to working closely with you to advance America's interests 
in Afghanistan. I will welcome frequent opportunities to consult with 
you, as I know many of you have spent a great deal of time working on 
Afghanistan in recent years and I have had the pleasure of meeting 
several of you in Afghanistan and during my previous assignment as U.S. 
Ambassador to Israel. We appreciate that so many of you are willing to 
travel to Afghanistan to see firsthand the conditions on the ground, 
and we welcome your future visits.
    For the past year I have been serving as Deputy Ambassador at U.S. 
Embassy Kabul, supporting Ambassador Ryan Crocker in leading a mission 
of some 1,100 dedicated staff from 18 U.S. Government agencies. I fully 
intend, if confirmed, to follow his example of maintaining the closest 
possible cooperation between the civilian and military efforts in 
Afghanistan and of pursuing a ``whole of government'' approach to the 
important challenges before us. Under Ambassador Crocker's outstanding 
leadership we achieved a great deal over the past year, including 
completion of our historic Strategic Partnership Agreement (SPA), which 
will guide our enduring partnership now, and beyond the end of 
Transition in 2014. The SPA, and the successful NATO summit in Chicago 
and the Tokyo Conference, send a clear message to the Afghan people, 
and to the region, that Afghanistan will have the support of the 
international community, and of the United States, in the years ahead. 
If confirmed, I will build on this successful diplomatic campaign, 
underscoring our collective commitment to help build an Afghanistan 
that will contribute to stability in the region, and never again be a 
source of international terrorist threats to the United States.
    On September 11, 2001, I was the Acting Representative to the 
United Nations in New York. The next day, I told the members of the 
U.N. on behalf of the United States that the 9/11 terror was not just 
an attack on the United States but an attack on all, of whatever 
religion or nation, who shared the values on which our global community 
rests. That struggle between terror and those values continues today, 
and will, unfortunately, continue for some time to come.
    In Afghanistan, we are turning a page. Over the past several 
months, we and our Afghan and international partners have created an 
unprecedented yet sustainable framework of support for Afghanistan, 
consisting of a web of bilateral and multilateral commitments. As the 
President said in his May speech to the nation from Bagram Air Base, 
our core goal in Afghanistan is to defeat al-Qaeda and prevent 
Afghanistan from ever again becoming a safe haven for terrorists. Our 
strategy for a stable Afghanistan has five elements: transitioning to 
Afghan responsibility for security in 2014; training Afghan National 
Security Forces (ANSF); building an enduring partnership with 
Afghanistan; supporting Afghan reconciliation; and promoting regional 
stability and economic integration. Our task will be to ensure that the 
successes and outcomes of the three surges: military, civilian and 
diplomatic, which have accomplished so much over the last 18 months, 
are consolidated as Afghanistan assumes full security responsibility 
and embarks on the ``transformation decade'' agreed at Bonn.
    At the Lisbon NATO summit in 2010, with our allies and partners, we 
established the timeline for security transition. Transition is 
progressing, with three of the five tranches underway. As foreseen, the 
Afghans are taking on responsibility for security, with Afghan security 
forces taking the lead now in providing security for some 75 percent of 
the population. Afghan security forces will reach their full surge 
strength soon, and are becoming increasingly capable despite the many 
obstacles to be overcome.
    In Istanbul in November 2011, Afghanistan's neighbors and near-
neighbors--with our support--began a much-needed dialogue on regional 
issues, including security, counterterrorism, and economic cooperation. 
At the Bonn conference in December 2011, Afghan leaders presented to 
the international community the outlines of a strategy to ensure 
Afghanistan's stability beyond the troop drawdown. In turn, the 
international community committed to supporting Afghanistan throughout 
a ``transformation decade'' from 2015-2024, with the aim of ensuring 
continued security, economic, and democratic gains in the post-
Transition period.
    In May 2012, President Obama and President Karzai signed the 
Strategic Partnership Agreement (SPA), which provides a long-term 
framework for relations between the United States and a fully sovereign 
Afghanistan. Secretary Clinton's announcement during her July 7 visit 
to Kabul that the President designated Afghanistan a Major Non-NATO 
Ally was another signal of our commitment.
    At the NATO summit in Chicago in May, NATO and its ISAF partners 
welcomed the progress being made on Transition, and noted that, come 
mid-2013, we will shift into a support role as the Afghans step forward 
to lead. The United States reaffirmed our commitment to Afghan security 
beyond 2014, and the international community committed to providing the 
Afghan security forces the support and funds they need for sustainment 
after 2014. The Afghan Government also recognized that NATO and its 
partners have a crucial role to play in training, advising, and 
assisting the ANSF, and invited NATO to continue its support after the 
ISAF mission concludes by the end of 2014.
    In order to address support for Afghanistan's development, growth, 
and governance, the international community gathered in Tokyo on July 8 
to further define the concept of mutual accountability and assure 
Afghanistan of continued economic assistance. The Japanese announced 
that the international community had pledged $16 billion in aid over 
the next 4 years, sufficient to cover Afghanistan's fiscal gap as 
identified by the World Bank. Of equal importance was the adoption of a 
``Mutual Accountability Framework,'' which affirmed that international 
assistance to Afghanistan is not unconditional: the Afghan Government 
must act decisively to ensure that the returns on the international 
effort are sustained and irreversible. Afghanistan's partners, who want 
so much to help, made clear that their ability to sustain support for 
Afghanistan depends upon the Afghan Government delivering on what it 
must do, particularly in the area of governance, to preserve and build 
on the gains of the past decade.
    I want to quote Secretary Clinton in Tokyo: ``The future of 
Afghanistan belongs to its government and its people. And I welcome the 
clear vision presented by President Karzai and the Afghan Government 
today for unlocking Afghanistan's economic potential by achieving a 
stable, democratic future. That must include fighting corruption, 
improving governance, strengthening the rule of law, and increasing 
access to economic opportunity for all Afghans, especially for women.''
    Today, the pieces of a long term, enduring support structure for 
Afghanistan's continuing progress and development are now in place. We 
have made clear to Afghans, and to the region, that the security 
transition does not mean we are abandoning Afghanistan. And the Taliban 
appear to be taking notice. For the first time in a decade, they are 
debating and signaling an openness to negotiations. The United States 
supports Afghan peace efforts, aimed at a responsible settlement of the 
conflict. The sole purpose of U.S. support for reconciliation is to 
create the conditions for an inclusive national dialogue among all 
Afghans about the future of their country. We have been consistent 
about the necessary outcomes of any negotiation: insurgents must break 
ties with al-Qaeda, renounce violence, and abide by the Afghan 
Constitution, including the rights afforded to women and minorities. 
And we have been clear about steps the Taliban should take to build 
confidence, and signal their interest in a peace process. So, the 
Taliban face a clear choice: they can dissociate from international 
terrorism and enter an Afghan peace process, or face increasingly 
capable Afghan National Security Forces supported by the United States 
and our allies.
    Looking to the future, there is much more to do to strengthen 
Afghanistan's institutions, to ensure a smooth political transition in 
2014 consistent with Afghanistan's Constitution, and to build regional 
support for a stable, prosperous, secure Afghanistan in a stable, 
prosperous, secure region.
    Also key to Afghanistan's future stability will be a credible and 
inclusive Presidential election in 2014, followed by a constitutional 
transfer of power. President Karzai has repeatedly affirmed his 
commitment to a peaceful, constitutional transition of power at the end 
of his second term. All Afghans, whatever their gender, ethnicity or 
religion, have much to gain from a successful political transition, and 
the United States is committed to working with international partners 
to support the Afghans as they choose their next leader.
    I will not play down the difficulties. But many Afghans are working 
hard for a better future, and we will continue to support the Afghan 
Government and people, now and after the 2014 elections with a new 
President, in the hard work needed to bring the security, development, 
and stability which the Afghan people so earnestly desire and deserve 
after decades of violence. I would be honored, with the consent of the 
Senate, to lead the U.S. mission in Afghanistan in the important work 
of enhancing the security of the United States and of helping 
Afghanistan make further progress toward that vision of the future.
    I want also in this testimony to highlight some of the substantial 
gains Afghanistan has made over the last decade in partnership with the 
United States and the international community. Today, over 8 million 
Afghan children are enrolled in school, a third of them girls, compared 
to just less than a million in school, nearly none of them girls, in 
2001. Sixty percent of Afghans now have access to basic health care 
facilities--a sixfold increase as compared to 2002--and a recent public 
health survey showed average life expectancy has increased from 42 to 
62, and infant mortality was cut in half. Nearly two-thirds of Afghans 
have phones, and expanded radio and TV access is facilitating 
information flow and connecting Afghan society. Approximately 100,000 
Afghan women have benefited from microfinance opportunities and our 
funding supports 17 protective service facilities for women and 
children. And since 2006, our rule of law programs have trained over 
20,000 professionals working in the Afghan criminal justice system 
including prosecutors, defense attorneys, judges, investigators, 
corrections personnel, and social workers.
    With your continued support, our bilateral civilian assistance to 
Afghanistan that has helped to achieve these results will continue to 
facilitate economic stability, encourage responsive governance, and 
sustain the social gains made over the last ten years. The critical 
principles underlying our work are ``sustainability'' and ``mutual 
accountability.'' Our resources will align with Afghan priorities, lay 
the foundation for a successful security transition, bolster viable 
sectors of the economy to build economic self-reliance, and promote 
critical sectors of the Afghan economy, including agriculture and 
extractives. Our programs will continue to strengthen the legal system 
and law enforcement, and we will redouble our efforts to increase the 
participation of women in all aspects of Afghan society. The Tokyo 
mutual accountability framework also called for a greater portion of 
our funding to be directly conditioned on specific reforms via an 
incentive mechanism. We remain committed to the goal of providing at 
least 50 percent of our development assistance through the Afghan 
Government and believe the systems we have put in place will promote 
transparency and accountability.
    We all recognize that corruption challenges loom large in 
Afghanistan and, if confirmed, I will continue to urge the government, 
in its own vital interest, to aggressively pursue anticorruption 
policies. I will also continue to make every effort to ensure that the 
assistance which the American people have so generously provided is 
used wisely and effectively, with the maximum degree of confidence that 
it is serving the intended purpose. It is also important to note that 
Afghanistan is making progress on key transparency reforms to 
facilitate economic growth, including significant progress toward 
Extractive Industry Transparency Initiative (EITI) compliance and World 
Trade Organization accession. And while there is still much work to be 
done, the Afghans have taken steps toward holding accountable those 
responsible for the Kabul Bank crisis, permitting the IMF to restart 
its relationship with Afghanistan in November of last year, a decision 
which was reaffirmed in late June by the IMF Executive Board. The 
United States is also continuing to assist the Afghans in disrupting 
the opium trade as a funding source for Taliban and insurgent actors.
    Private sector growth in Afghanistan, both through domestic and 
international investment, will be key to building Afghanistan's 
economic self-reliance throughout the Transformation Decade. We believe 
that the Secretary's vision for a ``New Silk Road'' will gradually 
transform South and Central Asia through a network of transit, trade, 
investment, energy, and increased people-to-people ties.
    A critical next step in our partnership with Afghanistan will be 
the conclusion of a Bilateral Security Agreement (BSA), which we expect 
will supersede our current Status of Forces Agreement for the long 
term. Like the SPA, the BSA will be a negotiation between equal 
partners and sovereign countries to create an agreed, updated framework 
in which to implement the security cooperation and assistance committed 
in the Strategic Partnership. There will be tough issues, but both 
sides are committed to work together and we have built strong 
relationships and partnership through the SPA.
    Post transition in 2014, the Department of State envisions 
maintaining an enduring presence in Afghanistan. We have learned 
lessons from Iraq and seeking a balance between an appropriately sized 
mission able to effect U.S. policy and current budget realities. We 
plan to maintain an Embassy in Kabul and presences in four regional 
centers that will signal our commitment to the Afghan people, support 
effective diplomacy and avoid the perception of regional favoritism. We 
are embracing a whole of government approach in our planning with the 
goal of leveraging all USG capabilities across agencies and avoiding 
redundancies. The staffing levels will be scaled appropriately for the 
civilian mission in Afghanistan and in relation to other global 
priorities.
    Ultimately, the gains of the last decade must be sustained by the 
Afghan people themselves. The processes of transition and continued 
economic, political and social development must be Afghan-led, and we 
are seeing Afghanistan taking increasing responsibility for its future. 
Afghanistan will continue to face significant challenges, but we have 
created the regional and international context for a political 
settlement of the Afghan war and a gradual and responsible handover of 
authority to Afghan National Security Forces.

    The Chairman. Thank you, Ambassador Cunningham.
    Ambassador Olson.

   STATEMENT OF HON. RICHARD G. OLSON, OF NEW MEXICO, TO BE 
         AMBASSADOR TO THE ISLAMIC REPUBLIC OF PAKISTAN

    Ambassador Olson. Mr. Chairman, Ranking Member Senator 
Lugar, members of the committee, I thank you for the 
opportunity to appear before you today.
    I'm honored by President Obama's decision to nominate me as 
United States Ambassador to the Islamic Republic of Pakistan, 
and I deeply appreciate this demonstration of confidence by 
President Obama and Secretary Clinton.
    I look forward, if confirmed by the Senate, to working 
closely with you to advance America's interests in Pakistan.
    I have been privileged to serve in the Foreign Service 
since 1982. I have worked many of these years in the Islamic 
world, including most recently as Ambassador to the United Arab 
Emirates just prior to my service in Afghanistan as the 
coordinating director for development and economic affairs.
    Through my career, I've been thankful for the support of my 
family, especially my wonderful daughters, Anna and Isabella, 
who, as you noted, Senator, Isabella is here today.
    Senators, I do not need to tell you how important Pakistan 
is to the United States. The United States has a clear interest 
in supporting a stable, sovereign, and democratic Pakistan at 
peace with itself and with its neighbors.
    Continued engagement with Pakistan is necessary to pursue 
the strategic defeat of al-Qaeda. Engagement is necessary to 
promote peace and stability in Afghanistan, to encourage 
regional stability, and to support political and economic 
stability within Pakistan itself. Instability in Pakistan would 
undermine what we are trying to achieve in the region.
    Pakistan faces many challenges. It is located in a tough 
region, continues to face economic stagnation, and is home to a 
burgeoning population of nearly 200 million people, the 
majority of whom are under the age of 25.
    Pakistan has its own challenge in combating extremists that 
have killed over 30,000 soldiers and Pakistani citizens. But 
Pakistan is also a country with great potential, vast natural 
resources, and a talented, resilient people.
    As you know, the last several years have been extremely 
difficult for United States-Pakistan relations. As Secretary 
Clinton has said, our relationship with Pakistan is not always 
an easy one, but it is important for both of our nations.
    Throughout the past year, despite many challenges, we have 
continued to engage the Pakistanis at the highest levels. We 
are committed to putting this relationship on a more stable 
footing.
    The reopening of the NATO supply lines provides a renewed 
opportunity to increase cooperation on our many shared 
interests. And I would like to note in this regard that today 
in Islamabad our Charge d'Affaires, Mr. Hoagland, signed a 
memorandum of understanding with the Pakistani Ministry of 
Defense on the reopening of the ground lines of communication, 
NATO ground lines of communications, formalizing that opening.
    If confirmed, I hope to build on this opportunity to 
identify and refine our shared interests with Pakistan and find 
practical, effective ways to work together to achieve them. 
Those shared interests are many.
    We share an interest in combating the extremists that 
threaten both of our countries. Tragically, the Pakistani 
people have suffered greatly from the extremist violence in 
their country. They have lost more troops and civilians to acts 
of terror than any other nation. But there has been cooperation 
between our nations.
    As President Obama has noted, we have captured or removed 
from battlefield more terrorists on Pakistani soil than from 
anywhere else. We could not have done that without Pakistan's 
assistance.
    We also share an interest in supporting political stability 
and security in Afghanistan. As President Obama said on May 2, 
we want Pakistan to be a full partner in supporting Afghan 
peace and stability in a way that respects Pakistan's 
sovereignty, interests, and democratic institutions.
    Pakistani officials have told us repeatedly that, more than 
any other Nation, they have a vested interest in seeking a 
stable, secure Afghanistan.
    Promoting democratic and economic stability in Pakistan is 
also in our shared interest. Pakistan's upcoming general 
election will mark the country's transition of power from one 
civilian government to another, the first in Pakistan's 
history.
    We also share an interest in combating the use of 
improvised explosive devices, and we are engaged in discussions 
on this critical issue, including on ways to increase border 
controls to restrict the flow of IED precursors.
    Unlocking Pakistan's economic potential by supporting 
private sector growth and expanding trade and economic 
cooperation across borders is central to creating jobs for 
Pakistan's dynamic people.
    Progress on normalizing trade relations between India and 
Pakistan will have a tremendous impact on increasing regional 
economic cooperation in line with Secretary Clinton's vision 
for a new Silk Road linking the economies of South and Central 
Asia.
    And our continuing civilian assistance, which is focused on 
five priority sectors--energy, economic growth, stabilization 
of the border areas, education, and health--also helps promote 
a secure, stable, democratic Pakistan and stimulate economic 
growth over time.
    If confirmed, I will consult regularly with the Congress, 
and particularly with this committee, which has played a vital 
role over the years in supporting our goals in Pakistan, from 
the generosity of the Kerry-Lugar-Berman civilian assistance 
authorization to numerous trips to Pakistan to help the 
Pakistani leadership and your counterparts understand how the 
American people view Pakistan and this complex and challenging 
region.
    Mr. Chairman, members of the committee, please allow me to 
reiterate how deeply honored I am to have been nominated as 
United States Ambassador to the Islamic Republic of Pakistan. I 
thank you for considering my nomination and would be pleased to 
answer any questions.
    [The prepared statement of Ambassador Olson follows:]

                 Prepared Statement of Richard G. Olson

    Mr. Chairman and members of the committee, I thank you for the 
opportunity to appear before you today. I am honored by President 
Obama's decision to nominate me as the U.S. Ambassador to the Islamic 
Republic of Pakistan, and I deeply appreciate the confidence President 
Obama and Secretary Clinton have in me. I look forward, if confirmed by 
the Senate, to working closely with you to advance America's interests 
in Pakistan.
    I have been privileged to serve in the Foreign Service since 1982. 
I worked for many of those years in the Muslim world, including most 
recently as Ambassador to the United Arab Emirates, just before I went 
to Afghanistan as the Coordinating Director for Development and 
Economic Affairs. Over the years and through these positions, I have 
worked closely with senior leadership of the State Department and other 
national security agencies, and look forward to continuing those 
relationships in promoting U.S. interests in, and ties with, Pakistan. 
I am grateful for the continuing support of my family, especially my 
wonderful daughters Ana and Isabella.
    I don't have to tell you how important Pakistan is to the United 
States. The United States has a clear interest in supporting a stable, 
sovereign, and democratic Pakistan at peace with itself and its 
neighbors. Continued engagement with Pakistan is necessary to pursue 
the strategic defeat of al-Qaeda. Engagement is necessary to promote 
peace and stability in Afghanistan, to encourage regional stability, 
and to support political and economic stability in Pakistan. 
Instability in Pakistan would undermine our goals in the region.
    Pakistan faces many challenges. It is located in a challenging 
region, continues to face economic stagnation, and is home to a 
burgeoning population of nearly 200 million people, the majority of 
whom are under 25. Pakistan has its own challenge in combating 
extremists that have killed almost 30,000 soldiers and Pakistani 
citizens. But Pakistan is also a country with great potential, vast 
natural resources, and talented, resilient people.
    As you know, the last several years have been extremely difficult 
for U.S.-Pakistan relations. As Secretary Clinton has said, our 
relationship with Pakistan is not always an easy one, but it is 
important for both of our nations. Throughout the past year--one that 
has been marked by events including the May 2 raid against Usama Bin 
Laden and the November 26 Salala cross-border incident that resulted in 
the deaths of 24 Pakistani troops and the subsequent closure of the 
Ground Lines of Communication--we have continued to engage the 
Pakistanis at the highest levels. We are committed to putting this 
relationship on more stable footing.
    The reopening of the NATO supply lines provides a renewed 
opportunity to increase cooperation on our many shared interests. If 
confirmed, I hope to build on this opportunity to identify and refine 
our shared interests with Pakistan, and find practical, effective ways 
to work together to achieve them.
    Those shared interests are many.
    We share an interest in combating the extremists that threaten both 
of our countries. Tragically, the Pakistani people have suffered 
greatly from the extremist violence in their country. They have lost 
more troops and civilians to acts of terror than any other nation. But 
there has been cooperation between our nations. As President Obama has 
noted, we have captured or removed from the battlefield more terrorists 
on Pakistani soil than anywhere else. We could not have done that 
without Pakistan's assistance.
    We also share an interest in supporting political stability and 
security in Afghanistan. As President Obama said on May 2, we want 
Pakistan to be a full partner in supporting Afghan peace and stability 
in a way that respects Pakistan's sovereignty, interests, and 
democratic institutions. Pakistani officials have told us repeatedly 
that, more than any other nation, they have a vested interest in seeing 
a stable, secure, Afghanistan.
    Even as the U.S.-Pakistan bilateral relationship has faced 
challenges, we have been encouraged by the enhanced dialogue between 
Afghanistan and Pakistan on reconciliation. As Afghanistan and Pakistan 
intensify their bilateral dialogue, including through restarting the 
Joint Peace Commission, all parties need to focus on concrete steps to 
support Afghanistan. This includes squeezing insurgents--most notably 
the Haqqani Taliban Network--which threaten to spoil nascent Afghan 
reconciliation efforts, and which target Afghans, as well as U.S. 
personnel.
    We will continue to encourage Afghanistan-Pakistan cooperation 
through the Core Group, which Secretary Clinton convened for the first 
time at the Ministerial level on the margins of the Tokyo Conference. 
At the July 8 Ministerial-level Core Group meeting in Tokyo, 
Afghanistan, Pakistan, and the U.S. reiterated that the surest way to 
lasting peace and security for Afghanistan and the broader region is 
through an Afghan political process of peace and reconciliation for 
Afghanistan. The three countries underscored that this process should 
be supported by Afghanistan's neighbors and by the international 
community. The meeting resulted in the first joint U.S.-Afghanistan-
Pakistan call for the Taliban to enter a dialogue with the Afghan 
government, and reaffirmed Pakistan's commitment to respond to Afghan 
requests with concrete support that would advance peace efforts.
    Promoting democratic and economic stability in Pakistan is also in 
our shared interests. Despite the current internal political turmoil, 
Pakistan's upcoming general election it will mark the country's first 
transition of power from one civilian government to another--the first 
in Pakistan's history.
    We also share an interest in combating the use of improvised 
explosive devices, and we are engaged in discussion on this critical 
issue, including on ways to increase border controls to restrict the 
flow of IED precursors.
    Unlocking Pakistan's economic potential by supporting private 
sector growth and expanding trade and economic cooperation across 
borders is central to creating jobs for Pakistan's dynamic people. 
Progress on normalizing trade relations between India and Pakistan will 
have a tremendous impact on increasing regional economic cooperation in 
line with Secretary Clinton's vision for a New Silk Road linking the 
economies of South and Central Asia. And our continuing civilian 
assistance, which is focused on five priority sectors--energy, economic 
growth, stabilization of the border areas, education, and health--also 
helps promote a secure, stable, democratic Pakistan, and stimulate 
economic growth, over time.
    If confirmed, I look forward to working with the enormously 
talented team at our Embassy in Islamabad and our three consulates in 
Lahore, Peshawar, and Karachi, and our team in Washington. We will 
energetically work with members of the Pakistani Government, business 
community, and civil society to promote security and prosperity in 
Pakistan, Afghanistan, and throughout the region, and to improve the 
image Pakistanis have of the United States and the American people.
    I will also consult regularly with Congress, and in particular this 
committee, which has played an important role over the years in 
supporting our goals in Pakistan, from the generosity of the Kerry-
Lugar Berman civilian assistance authorization to numerous trips to 
Pakistan to help the Pakistani leadership and your counterparts 
understand the concerns--and also the empathy--the American people have 
about Pakistan and this complex and challenging region.
    Mr. Chairman and members of the committee, please allow me to 
reiterate how deeply honored I am to have been nominated as the U.S. 
Ambassador to the Islamic Republic of Pakistan.

    The Chairman. Thank you very much, Ambassador Olson.
    Let me make my excuses early here. We have a competing 
meeting in the Finance Committee on the tax extenders, which I 
need to attend shortly. And I think Senator Casey is going to 
chair at the point that I do that. I appreciate his willingness 
to do that.
    And I apologize to our witnesses.
    But let me ask you, Ambassador Olson, if I can, obviously, 
you are well aware of the crosscurrents here on the Hill with 
respect to the relationship with Pakistan. And I have met 
recently with Ambassador Rehman and others, just to try to talk 
it through. And obviously, they are well aware, and I think 
this most recent step to reopen is an effort to try to settle 
things down.
    But some people in Congress, I think ill-advisedly, but 
nevertheless, some people in Congress are advocating a more 
precipitous kind of reaction to the current state of affairs. 
Some want to suspend aid. Some don't think there's a value to 
it, et cetera.
    So could you state to the Congress, as you go over there, 
which you will, as Ambassador, how you see that, why that would 
be 
ill-advised in your judgment, and what you see as the stakes, 
and also, importantly, the things you see the Pakistani's doing 
that are helpful to us, notwithstanding the difficulties we've 
had in the relationship?
    Ambassador Olson. Thank you, Mr. Chairman.
    I think that our relationship with Pakistan is critical to 
our national security interests, primarily in the area of 
counterterrorism cooperation.
    Over the past decade, thanks in significant part to 
cooperation from Pakistan, we are in the position of virtually 
eliminating 
al-Qaeda as a threat to us. And I think that we want to 
continue to formulate a relationship that allows us to 
strengthen counterterrorism cooperation.
    I was also, Senator, very pleased that in your opening 
remarks you mentioned the perception of many Pakistanis that 
the United States had disengaged in the 1990s. And I think 
that's a very 
important backdrop for our relationship today.
    I think Pakistanis, in the government and outside, are very 
concerned about what will happen in Afghanistan post-2014. And 
as Ambassador Cunningham indicated, we have put in place over 
the last year some very strong measures for assuring Afghans, 
and, indeed, the region, that we will be engaged after 2014.
    I think this is also the great significance of the Kerry-
Lugar-Berman assistance, that it provides assistance on a 
predictable basis; it provides a stable basis for an ongoing 
relationship.
    I think that if we can continue to emphasize to the 
Pakistanis our engagement over time, it will be possible to 
build the kind of productive relationship based on mutual 
interests that will serve us over the long term.
    The Chairman. And what do you think the Pakistani attitude 
is now about the so-called Haqqani Network?
    Ambassador Olson. Well, sir, with regard to the Haqqani 
Network, first of all, I think this is one of the toughest 
challenges that we face. And I would say, at a personal level 
as well as a professional level, I have been in Embassy Kabul 
for the last year. I was at the Embassy on September 13 and 
April 15, the two attacks that took place. So I have a certain 
amount of skin in the game, for this particular issue.
    And we do know, of course, that the Haqqanis are based in 
north Waziristan. But the question is how we will address the 
challenge represented by the Haqqani presence.
    We have already taken some actions against the Haqqani 
Network on a whole-of-government basis. As you know, key 
Haqqani Network leaders have already been designated as foreign 
terrorists, sanctioning their travel and their finances. And 
the question of the designation of the network as a foreign 
terrorist organization is with Secretary Clinton right now.
    I can assure you, Senator, that this will be a primary 
focus of my activities and diplomatic engagement with the 
Pakistanis, to encourage further measures against the Haqqani 
Network, further squeezing of the Haqqani Network.
    The Chairman. Well, I look forward to connecting with you 
when I get out there, and I appreciate your observations on it. 
It's worth a lot more conversation, obviously, but thank you 
for that.
    Ambassador Cunningham, I assume you had an opportunity to 
read Dexter Filkins' piece in the New Yorker. Can you comment 
on the recurring number of articles that seem to be appearing 
talking about how Afghans are planning for the fight and laying 
the groundwork for a longer confrontation as we draw down, 
rather than engaging in the fight for the democratic process 
and the rule of law and other things?
    Can you give us your sense of that state of play at this 
point?
    Ambassador Cunningham. Sure, Senator, thank you.
    I think what we're seeing and have seen for a while, as 
Ambassador Olson said, there are a lot of people in this 
region, in Afghanistan, hedging their bets about the future.
    I think the talk of rearming and reforming of militias is 
overstated. But the temptation is there, and the uncertainty 
about how various groups will advance their interests in the 
future is very much on the table.
    That's why I said in my statement, and as you said in 
yours, the upcoming political transition is really vitally 
important. As I said in my statement, it's not an issue of one 
party or another.
    It really is an issue for all Afghans and all Afghan 
political actors to take a really hard look at the significance 
of the upcoming elections and the political transition and what 
that means for Afghanistan's future and for the unity of the 
country and of the body politic.
    We're already working on that, in consultations with 
members of the international community and with Afghans across 
the political and civil society spectrum. And it's something 
that I regard as a key element and a key task for all of us who 
are interested in Afghanistan's future, and getting the concept 
right that the way forward in Afghanistan has to be one of a 
political process, including, hopefully in due course, the 
Taliban or elements thereof. And it cannot be a future that 
resorts to internal conflict or based on armed conflict between 
various elements of Afghan society.
    The Chairman. Do we have sufficient leverage? Are there 
ways in which we could increase our initiatives in that regard? 
Or are we kind of locked in, because of the drawdown?
    Ambassador Cunningham. I think our leverage is quite 
substantial. I think the logic is there. I think Afghans across 
a broad spectrum see that there's a tremendous amount at stake 
in the coming years. We will still have a crucial role in all 
the elements of our strategy--political, military, and 
economic--not just we, the international community more 
broadly.
    And one of the core messages that comes out of all of these 
meetings and discussions that we've been having, most clearly 
at Tokyo, is that Afghans' international partners are 
absolutely united behind the proposition that the political 
process going forward needs to be credible and needs to produce 
a peaceful transition.
    The Chairman. Well, thank you. Thank you very much, 
Ambassador.
    Thank you, both of you, and I look forward also to seeing 
you out there.
    Senator Lugar.
    Then Senator Casey will chair.
    Senator Lugar. Thank you, Mr. Chairman.
    I'm very pleased that you, Ambassador Cunningham, and you, 
Ambassador Olson, are willing to undertake these 
responsibilities. I have confidence in both of you.
    And the confirmation process, therefore, offers an 
opportunity for us to discuss Pakistan and Afghanistan, to 
obtain more information for our committee and for the public.
    Ambassador Olson, I want to raise this question broadly. 
According to recent State Department country reports on 
terrorism, deadly, brutal attacks within Pakistan itself 
amounted to well over 3,000 Pakistanis killed in 2011 alone. 
The threat of violent militant groups is pervasive. No part of 
Pakistan is spared. Suicide and armed attacks occurred in the 
coastal city of Karachi, the business capital of Lahore; the 
FATA capital of Peshawar; as well as in the tribal areas 
adjoining Afghanistan.
    How does the Pakistani Government classify this threat? How 
does the Pakistan Government work to address the internal 
threat to life and government institutions these terror groups 
represent? To what extent can you distinguish between our 
efforts, the United States efforts, to support their efforts to 
combat internal terror threats and the regional threat 
emanating from Pakistan's safe havens that is our primary 
concern?
    Ambassador Olson. Thank you, Senator Lugar.
    I agree entirely with your assessment about the nature of 
the challenge that Pakistan faces internally. And I think we 
have seen a great shift in the Government of Pakistan's 
approach over the past few years to dealing with the internal 
threat that is represented by the terrorist groups that you 
describe.
    There was a time in the not-too-distant past when the 
Pakistani army was primarily deployed along the frontier with 
India. It is now very heavily deployed internally and 
especially in the area around FATA and Khyber Pakhtunkhwa 
province, to deal with the insurgent threat. And, of course, I 
think we're all familiar with the counterinsurgency operation 
in Swat a few years ago.
    I think that we have recognized and, indeed, supported this 
change. And thanks to the generosity of the Congress, we have a 
variety of funding mechanisms providing security assistance to 
build the capability of the Pakistani forces, particularly in 
counterinsurgency operations, moving them away from a focus on 
heavy armor toward lighter counterinsurgency operations.
    There have been challenges with the security assistance 
program, but I will look forward to working with you and 
members of other committees to see what we can do to remove 
some of the obstacles and move forward on those important 
security assistance programs.
    Senator Lugar. To what extent does this violence, the loss 
of life, undermine any potential for civil governance in 
Pakistan? What are the ramifications on governance of the 
country itself?
    Ambassador Olson. Well, Senator, I think that the Pakistani 
Government does face many challenges, and it has faced 
challenges, for instance, in the last year with regard to the 
floods.
    I would say that there are some sinews of strength in 
Pakistani society. There is a very active civil society, which 
picks up a considerable amount of the slack.
    For historic reasons, the Pakistan military is a very 
strong institution and has been involved in building capacity.
    Our assistance program, of course, our civilian assistance 
program, and especially the Kerry-Lugar-Berman funds, are very 
much focused on building up some of the capacity of the 
civilian government, particularly in the all-important area of 
energy and economic growth, and also in stabilization, 
particularly road-building in the areas closest to the Afghan 
border.
    I think all of these programs have been effective, but I 
take on board the point that has been made that we need to 
exercise diligent oversight and report back to you on the 
effectiveness of those programs.
    Senator Lugar. While teetering on the brink of insolvency 
on some occasions, Pakistan appears to forgo considerable 
revenues, including those associated with transit trade. Though 
Pakistan has signed a transit trade agreement with Afghanistan 
that was intended to allow direct transit of goods between 
Central Asia and South Asia, there has been little progress in 
actual trade across Pakistan and, thus, considerable revenue 
and jobs continue to be lost.
    What is the status and prospect of finding permanent 
alternative trade routes, such as through Iran? Is the road-
rail infrastructure through eastern Iran fully operational and 
capable of transferring the vast iron ore India and others will 
seek to export from rich mineral deposits in Afghanistan? What 
is the total estimate of revenue lost to Pakistan during the 
closure of the NATO ISAF resupply routes?
    What is the concentration of focus when it comes to trade 
and other sources of income in the country?
    Ambassador Olson. Thank you, Senator. Yes, I agree with you 
that the Afghan-Pakistan Transit and Trade Agreement has not 
fully lived up to its potential. It's a very important step, 
potentially. And it's one that I was somewhat involved in 
supporting in my previous position.
    I have, in fact, traveled to Islamabad last fall to meet 
with Pakistani officials to urge further implementation. There 
have been a variety of technical factors that have yet to be 
worked out between the Pakistani and Afghan governments. And I 
will certainly pursue that, if confirmed, with great vigor.
    I think that with regard to the regional trade, one of the 
most promising things that we have seen out of Pakistan in 
recent years is the liberalization of trade with India. And as 
we all know, the Indian economy is experiencing a period of 
rapid expansion.
    Pakistan has granted most-favored-nation status to India 
and has moved to liberalize its trade from a so-called positive 
list--that is to say, a restrictive list--to a negative list, 
one that limits only certain strategic goods.
    This is all to the good. And I think we want to encourage 
further progress in the economic dialogue and commercial 
relationship between India and Pakistan.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey [presiding]. Thank you, Senator Lugar.
    I want to commend both Ambassador Cunningham and Ambassador 
Olson for their continuing service. These are tough 
assignments, and we're grateful for their service, and of 
course that of their families, because when you serve, they 
serve with you, in one form or another.
    Ambassador Cunningham, I'm resisting the temptation to say 
how great it is that you were born in Allentown, PA.
    Ambassador Olson, New Jersey's pretty good, too.
    I want to start with Pakistan, and I'll provide a little 
bit of a backdrop as a predicate to my question. It's about 
this issue of IEDs and the precursor elements.
    In your testimony, Mr. Ambassador, you say on the second to 
last page of your testimony, ``We also share an interest in 
combating the use of improvised explosive devices, and we're 
engaged in discussion on this critical issue, including on ways 
to increase border controls to restrict the flow of IED 
precursors.''
    And I'm happy to see that in your statement.
    Most Americans know what IEDs are and the horrific impact 
they have on our troops and also on civilians the world over. 
They may not be as familiar with the precursor ingredient, the 
calcium ammonium nitrate flowing from Pakistan into Afghanistan 
and becoming the central element in that explosive capacity.
    I've spent a lot of time on this issue, as have many 
Members of Congress. The administration has worked very hard on 
this. I just spoke to Secretary Clinton yesterday about it, and 
she and the whole team at the State Department have worked very 
hard.
    I wanted to get your sense of it, because when I was in 
Pakistan last August for 3 days, in every meeting that we had--
I was there with three other United States Senators--and in 
every single meeting, whether it was then-Prime Minister 
Gilani, whether it was with President Zardari, with General 
Kayani, the army chief, wherever we were, we brought this up. 
And they knew we were coming, in a sense. They were prepared 
for the question. They would address the question, express 
their solidarity with us on this issue, because they've lost a 
lot of civilians in this horrific nightmare.
    And then they went another step by providing us with a 
briefing by their Interior Ministry, outlining their written 
strategic plan, and then expressing determination to implement 
what they had written down on paper.
    We said, when? Is this weeks away? Is it months away? They 
said it's within months. Basically, that was their answer.
    So I was expecting sometime in the fall we'd see some 
measure of progress, or maybe it would take a little longer, 
maybe we'd be into 2012 by the time they really made progress.
    To date, in my judgment, there's been almost no progress 
made, or no substantial progress made, and you see it in every 
state. Pennsylvania has lost 79 troops in Afghanistan, more 
than half of those from IEDs.
    So I ask you, in light of that bad news I just outlined, 
that unfortunate recent history, what can you do in your new 
posting and what will you do in literally the first couple of 
weeks after you get there, to press the Pakistan Government on 
at least one fundamental point: It is in their interest, as 
much as it's in our own interest, to stop the flow of ammonium 
nitrate, to reduce the chances that more of our troops or their 
civilians will be blown up by these horrific explosions?
    Ambassador Olson. Senator Casey, thank you very much, both 
for the question, and I do want to acknowledge the central 
importance of IEDs and countering the precursors. I am coming 
out of a year in Afghanistan, and I certainly appreciate the 
enormous cost that these devices have brought about.
    I also want to thank you for spending 3 days in Pakistan, 
and making the effort to make the trip out there, and to spend 
a significant amount of time. It's always greatly appreciated 
when Senators do that.
    I do think we share a common interest, and I agree with 
your assessment, Senator, with the Pakistanis on countering 
IEDs. They have suffered heavy losses on both their military 
forces and among civilians from IEDs.
    There is a slight distinction, as you're well aware, 
because most of the IEDs they encounter are actually generated 
not from the calcium ammonium nitrate, but from, I guess, 
military-grade explosive devices, which they have found, which 
have been leaked out into the marketplace.
    But that said, I think the fundamental interest is the 
same, and I think there are ways that we can pursue it.
    I will work closely with my team, if confirmed, with the 
DOD elements, and with the civilian aspects of the mission, to 
develop an approach for approaching the government, as you 
note, in the early days of my tenure, if confirmed, to follow 
up on this and to report back to you.
    Senator Casey. What is your sense as to the reason why 
there hasn't been progress made? And I realize the relationship 
doesn't help here. The relationship is an impediment to them 
making progress on IEDs. But I can't tell you how many times 
the promise was made to us, as representatives of our 
government, promising over and over again that they would make 
progress.
    I want to get your sense of what you believe to be the 
reason why they haven't made progress on this.
    Ambassador Olson. Well, Senator, I think this is probably 
an issue where it would be best for me to go out and attempt to 
get the ground truth on this and come back to you. My very 
preliminary sense on this is that, as you note, there have been 
relationship issues that have perhaps added some friction 
overall and prevented some movement forward on this.
    I think there is also the question of calcium-ammonium-
nitrate production in Pakistan. It is not illegal to produce 
it, because it has agricultural use. So I think that that may 
present a domestic political issue, but that's a very 
preliminary sense. I would like to get out, if confirmed, on 
the ground and report back to you.
    Senator Casey. And I'll talk to you more later about 
General Barbero's work, who, as you know, has spent a lot of 
time on this. And we can both benefit from his experience.
    Thanks very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for your public service. I know Mr. 
Cunningham and I had a lot of time yesterday in the office. I 
appreciate that.
    I understand, Ambassador Olson, we're going to be doing the 
same here in just about a hour.
    So thank you both for your service and for your bringing 
your families.
    And if any of us wanted to be hard on you, it's hard to do 
in front of daughters. So thank you all for being here.
    I know that you all are currently working together--is that 
correct?--or have, in Kabul, spent some time together. And I 
know, as we travel through Afghanistan, multiple trips, our 
military operators there are most concerned about fighting a 
war in Afghanistan that's being controlled out of Pakistan. And 
I think that's been the greatest frustration to our military 
leaders.
    And I know you all have certainly experienced those 
comments and concerns.
    Which of the two jobs, as you all talk, do you consider to 
be the most difficult, Pakistan or Afghanistan? Seriously. I 
don't want a long paragraph, but, seriously, which of the two 
do you consider to be most----
    Ambassador Olson. Senator, Jim Cunningham was my boss in 
Kabul, so I'm going to let him answer that, if that's all 
right. [Laughter.]
    Ambassador Cunningham. It impossible to say. They are both
challenging positions in challenging times.
    Certainly, being Ambassador to Pakistan, a country that's 
so large and so vexed with so many problems, has got to be a 
really significant challenge. But my task in a country that is 
at war, and where we are fighting along with our Afghan and 
international partners, is a challenge of--I don't think you 
can rank them--but it's a challenge of a different order.
    Senator Corker. Several years ago, I guess, we embarked on 
something called AfPak. It was called the Holbrooke doctrine.
    As we talk with people in both countries, but especially 
Pakistan, I think Pakistan viewed that whole approach to be 
very offensive. I mean, looking at Pakistan through the eyes of 
Afghanistan was pretty offensive, I think, to the folks in 
Pakistan. And we really don't have a relationship in Pakistan. 
It's more of a long-term relationship. It's more of a 
transactional relationship. It's almost a pay-to-play kind of 
relationship. And it's been that way for a long, long time.
    And so, to Mr. Olson, as we deal with a country that 
basically the military controls and the elected leaders are, 
candidly, not particularly effective, how do we, as Members of 
Congress--you talked about Congress' generosity. It's really 
the American taxpayer that's footing this bill and is quite 
frustrated with the Pakistan at present.
    How do we leverage our relationship with them, since it is 
more of a transactional relationship, not one that's really 
built on good will? How do we leverage the resources that we 
have to cause Pakistan to act, ``in ways that we would like to 
see them act''?
    Ambassador Olson. Thank you, Senator. That's an excellent 
question.
    I think that we have to remember that our relationship with 
Pakistan goes back quite a ways. It goes back right to the 
beginning of the Pakistani state.
    For 65 years, we've had a relationship. It has had some ups 
and downs during that period, but there have been periods of 
very close and very intense partnership, probably most notably 
in the 1980s. And, of course, that was a relationship that 
centered around Afghanistan.
    And I think I would agree with you that Pakistanis have 
perhaps some concern about being labeled AfPak. But at the same 
time, I think the long-term status of Afghanistan is enormously 
important to Pakistanis, and it's one of the critical questions 
in our relationship.
    I think that what our interest is with Pakistan over time 
is building a more stable relationship, one that is focused on 
our mutual interests, but takes account of the fact that the 
United States and the international community are not going to 
disengage from Afghanistan.
    The great fear amongst many in the region, amongst--I 
certainly heard this from my Afghan friends when I was serving 
there, and I think it's true in Pakistan as well--is that the 
international community will repeat the experience of 1989 to 
1992, when, having accomplished the withdrawal of the Soviet 
forces from Afghanistan, the international community turned 
away and disengaged.
    And that had a severe cost, particularly in Pakistan, where 
a generation of military officers who had previously served 
with the United States and trained in U.S. institutions no 
longer had that opportunity. And we are, frankly, paying a cost 
in our relationship now, because many of those officers are now 
general officers and have not been exposed to us in a way that 
their predecessors were.
    So I think that all of the work that Ambassador Cunningham 
described that he and Ambassador Crocker have been doing over 
the past year on the strategic partnership agreement, 
solidifying the future of Afghanistan, will have an enormously 
reassuring effect on Pakistani sensibilities.
    And certainly, that will be my priority, to have that 
strategic level discussion about the United States not 
disengaging from the region.
    Senator Corker. But it seems to me that--and, again, I 
realize the, ``elected leadership of Pakistan'' is more than 
weak.
    It seems to me that they continue to do those things that 
only are in their self-interests, which obviously we as a 
country do in many cases, too. But the very issue that Senator 
Casey is mentioning but also multiple other issues, it just 
seems they are concerned about Afghanistan. They're concerned 
about India, not having any influence there, because they're 
such a narrow country and it's at their rear, and that's 
really--they'd rather it be destabilized, would they not, than 
India have any influence there?
    Ambassador Olson. Senator, on the question of this has been 
a doctrine that the Pakistanis, over the years, have talked 
about, strategic depth, the idea that Afghanistan represents 
strategic depth against a potential conflict with India.
    My sense is that the Pakistani military and the Pakistani 
Government have moved away from that. Foreign Minister Khar has 
made some public comments about moving away from the doctrine 
of strategic depth. Chief of the Army, Staff General Kayani, 
has redeployed his forces internally to deal with the internal 
threat, and heavily toward the border with Afghanistan to deal 
with the threats emanating from that region.
    So I think there is a basis at a strategic level for some 
further discussion with the Pakistanis, and I think that these 
are, frankly, positive developments that we would want to 
encourage as Pakistan looks to its strategic position.
    Senator Corker. So I realize that we as a country need to 
continue to be involved with Pakistan and I know that the 
notion of just cutting off all aid is not a particularly good 
way of staying engaged with Pakistan.
    But on the other hand, I think just to continue as we have 
been going is also not a good route. So sometimes Congress can 
be helpful to people like you by doing certain things that make 
certain things that cause you to be able to talk with them 
about the fact that if things don't change then Congress will 
continue doing X.
    What are some of those things that we might do prior to you 
being over there, to help us leverage Pakistan, which again, I 
understand what you're saying about relationships down the road 
and building on it, and how they're looking to our engagement 
in Afghanistan. I understand all those things.
    But at present our relationship is very transactional.
    So how do we--you know, do we have the physician there who 
aided us with Osama bin Laden who is in prison? I mean, how do 
we get them to act in a way that's very different than they're 
now acting on things that are very important to us?
    Ambassador Olson. Thank you, Senator.
    I think we need to focus on the core areas of mutual 
interest, and I think this is primarily in the counterterrorism 
area. As I noted, I think we have made enormous progress 
against al-Qaeda over the past decade, and we are within grasp 
of shutting down al-Qaeda. I think that has got to be our 
primary strategic objective.
    And I think we need to have some very candid and direct 
discussions with the Pakistani Government about the question of 
the safe havens and the Haqqani Network.
    But I think it's important that that discussion take place 
against the context of some predictability in the overall 
relationship. And that is what I would be hoping to, if 
confirmed, bring to the relationship, some sense that we want 
to move away from a more transactional relationship to one that 
is based on a longer term policy of engagement.
    And I think that the assistance that has been so generously 
provided by, as you note, by the American people has had a 
significant role and potentially has a significant role in the 
future on stabilizing that relationship and showing that our 
interests are not short term but, rather, long term.
    Senator Corker. Well, our interests are in our interest.
    I will say, I know we're taking too much time. I thank you 
for your generosity. I thank both of you for your service. I 
look forward to talking to you.
    And look, we have an election that is going to be over here 
soon, and regardless of what the outcome is, in many ways there 
is a clean slate, if you will. There won't be the issue of 
dealing with who did what when. We'll have, in many ways, a 
clean slate, no matter what the outcome is.
    I would just ask that both of you continue to be totally 
transparent with us. And the fact is that we candidly have 
leaders in both countries that are extremely difficult to deal 
with, and, candidly, in many cases, are not working in ways 
that are beneficial to us.
    And I hope, as you continue to talk with us, you will 
continue to be as transparent as you were in our office, Mr. 
Cunningham, and as you will be, I'm sure, in the next hour. We 
look forward to your service.
    Thank you.
    Senator Casey. Thank you, Senator Corker.
    I wanted to turn to some questions for Ambassador 
Cunningham. Maybe two broad areas, and in the less than 7 
minutes we have in the question period we probably don't have 
enough time, but we can further amplify them in questions for 
the record.
    I wanted to ask you first about women and girls in 
Afghanistan. At one level or by one measure, we could assert 
that, over roughly the last decade, significant progress has 
been made. When you just do the one metric, which I think has a 
lot of meaning and value, which is the number of girls in 
school, it was almost zero or in the area of almost no girls in 
school a decade ago. Now maybe as much as a third or more of 
the millions of Afghan children that are in school are girls. 
So that's a great measure of progress.
    And also, the participation of women in the Government of 
Afghanistan has also been a significant measure of progress. 
The concern, though, is that even as that progress is marching 
forward, and even as President Karzai speaks to this issue, 
that those gains will be diminished or maybe even wiped out as 
a result of a reconciliation process that results in a 
conclusion after negotiations where women are set back, if not 
to where they were, but at least to a place where the gains 
would be substantially eroded.
    Ambassador Cunningham, you might remember--I know we have a 
lot of meetings and I don't expect you to remember this--but 
when we were there, we had a meeting with women 
parliamentarians. And they were inspirational on a lot of 
levels.
    We think politics here is tough. Over there, it's a lot 
tougher when your life is at stake, very often.
    One of them I remember in particular was Fawzia Kofi.
    She talked about her father and her husband participating 
in politics, both killed in the process. And yet here she was 
sitting, talking to us about her own involvement and her own 
focus on the future of being involved in politics in 
Afghanistan.
    I just wanted to get your sense of not just where we are, 
but how our strategy can prevent the dramatic erosion of those 
gains.
    Ambassador Cunningham. That is an important issue, Senator.
    Before I comment on it, though, I wanted to thank you for 
your focus on IEDs. We discussed this when you were in 
Afghanistan in August. They are now the killer of choice in 
Afghanistan for both military and, very horrifically, for 
civilians. They are a real challenge, so I appreciate your 
focus on that.
    Women. We have something called the Woman of Courage Award 
in the Department of State that the Secretary gives every year. 
For the last, I think, 5 or 6 years that the award has been 
given, an Afghan woman has been a recipient of it. I think 
there are about 10 a year from around the world.
    We had a reception hosted by Ambassador Crocker to welcome 
this year's recipient, who is a politician and a media person 
in Kandahar. An absolutely incredible woman. And we had the 
other previous recipients of the award and a number of women 
from Kabul and the region for this event. And in that event, 
Ambassador Crocker said quite perceptively that to be a woman 
in public life in Afghanistan--any woman--is a woman of 
courage. And that is the case.
    It's a marvel to meet with these people and to hear their 
stories and their sense of determination and commitment, as you 
did meeting with the parliamentarians.
    They have literally invested their lives and their personal 
safety and that of their families, in many cases, in taking up 
a public role, whether it is in business or even teaching or 
working in a health clinic or being a politician. And there are 
a lot of female politicians now in Afghanistan, including at 
the provincial and district level, as well as the national 
level.
    Several female ministers, deputy ministers, President 
Karzai's deputy chief of staff is a woman. And they've worked 
hard to create this space and to create the space for those who 
are coming after them.
    And it is particularly inspiring to meet with women who are 
in universities now, and coming out educated, looking for 
opportunities, sometimes with the support of their families, 
but many times not.
    Which is a long way of saying, a lot has been invested in 
bringing Afghanistan's women into--those who can and who want 
to--bringing them into society in a constructive way. And we've 
played, I'm proud to say, the United States has played a 
significant role in this. We have programs across the board, 
everything from education to midwifing to teaching business 
skills, entrepreneurial skills, language, information 
technology, educating women about the law.
    There is actually a good law in Afghanistan that prohibits 
violence against women, if it's enforced. And we contribute to 
a network of shelters that, unfortunately, are necessary in 
Afghan society, but extremely valuable in providing refuge for 
women who, for whatever reason, can't stay with their families 
or their husbands.
    So a tremendous amount has been accomplished in this area 
over the last years. It is one of the significant success 
stories and a real tribute, again, to the American people, that 
we've supported that.
    The United States, as well as, again, our international 
partners through a series of declarations, have made very clear 
that these gains are not to be rolled back. They're protected 
under Afghan law and the constitution. It's a cardinal 
principle for us in discussions about reconciliation and about 
the future of Afghanistan. And I expect that will continue--I'm 
sure that will continue to be the case and will certainly be my 
point of view, if I'm confirmed as Ambassador.
    Senator Casey. Well, thanks very much. And I know that 
Secretary Clinton has not just spoken to this over and over 
again, but has made that a central focus of her work, and we're 
grateful for that.
    I'm out of time. I want to turn to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your long service to our country.
    Ambassador Cunningham, my understanding of the President's 
goal was to shift from a military mission to an assistance 
mission in Afghanistan, in hopes of creating a functioning 
government that helps rebuild lives and institutions. We have 
done that elsewhere, but with, from my perspective, a much more 
committed partner.
    I look at the special inspector general for Afghanistan 
reconstruction's new report that suggests a significant portion 
of about $400 million investment in large-scale infrastructure 
projects in Afghanistan designed to win support from local 
governments may be wasted because of delays and weaknesses in 
planning and execution such that those programs might not be 
completed until American troops leave or have already left.
    And then I look at a commitment by the United States of 
more than $90 billion to development in Afghanistan, and the 
administration requesting $9 billion for aid and development in 
2013.
    And I look at all of this, and I say, given the continuing 
problems with instability and corruption, how do we justify and 
expect that we will, if we were to commit to those funds, 
effectively use those funds toward the development of a 
sustainable economy in Afghanistan, something that I could go 
to taxpayers back in New Jersey and say this is worthy of our 
support and it's going to be well spent, based upon the 
experience we've had so far?
    Ambassador Cunningham. That's also an important issue, 
Senator, and thank you for raising it.
    Yes, we have a very broad, and have had a very broad, 
assistance and development program in Afghanistan. The specific 
issue of the Afghan infrastructure fund that you referenced, we 
have some differences of view with the inspector, with SIGAR, 
as we often do, but we also agree with many of the 
recommendations that they've made.
    This was an innovative program that tried to do something 
new, which is bring together several different U.S. entities 
that had not been cooperating particularly well with each 
other, and to try to use this fund to bridge the difference 
between what normally had been short-term infrastructure 
projects designed to influence the counterinsurgency campaign, 
and longer term infrastructure that's really necessary for 
stability and longer term growth, particularly with roads and 
electric power.
    This has taken longer to get underway than we would have 
hoped, but it has brought together a whole-of-government 
approach to doing this. And the program is constantly being 
reviewed and in each iteration has gotten better in terms of 
the coordination, oversight, and evaluation of sustainability 
going forward.
    So while it will stretch out longer than was originally 
intended, we are working hard to make it as effective as 
possible and make the best use of the funds that we have been 
given for a very important purpose. And one of those purposes 
is to link together the power networks in the north and the 
south of Afghanistan, so Afghans and their economy have the 
electrical power that they need.
    To the question principle of the worth of the assistance 
that we have provided and will be providing in a lesser amount 
going forward, I understand very well that this entails 
sacrifice on the part of all of our taxpayers, Americans and 
the others who are supporting these efforts. But it has 
produced results and will continue to produce results.
    It is really an investment on preserving the gains that we 
have made on the field at great cost through our own efforts on 
security and the efforts that the Afghans are increasingly 
taking on on security.
    Afghanistan is a very poor country. Under the best of 
circumstances, it would be still a very poor country with 
tremendous problems. Our work in development assistance is part 
of our campaign to prepare an Afghanistan which can stand on 
its own feet in a way that it has stability that is sustainable 
over time. And this goes to the point that Senator Lugar raised 
about what our enduring vital interest is in Afghanistan.
    Senator Menendez. I don't want to interrupt. I've let you 
go on at length. I wanted to hear your answer, but here's my 
problem. I understand our goals, but we have an administration 
in Afghanistan that undoubtedly is significantly corrupt. We 
have an administration in Afghanistan for which we have seen 
wasted amounts of money.
    So if Afghanistan is going to be a ward of the United 
States for over a decade, and we're going to spend $90 billion 
and maybe more, at least--at least--there should be an 
expectation that there should be greater transparency, greater 
efficiency, less corruption. And unless there are benchmarks to 
do that, I don't see how, in fact, we can continue to make this 
long-term, open-ended commitment without a concurring response.
    And I know that we have some responsibilities because we 
went in there. But by the same token, there are 
responsibilities by the Afghan Government to be responsive, 
transparent, honest, and more efficient.
    And I just don't get the sense that we pressure in terms of 
accomplishing those goals as much as we are committed to giving 
money.
    And so I'm hoping that, if you are to be confirmed, that 
there is a strong commitment here not just for us to give, but 
for us to get, at the end of the day.
    Would it be my understanding that that is going to be part 
of your drive here?
    Ambassador Cunningham. Absolutely. I've been in Afghanistan 
for the past year and it is, as Ambassador Olson knows, it is a 
daily part of not just our business with the Afghan Government, 
but of everybody's business with the Afghan Government.
    And one of the key outcomes of the series of international 
meetings that I discussed earlier, and especially the Tokyo 
conference, is putting clearly on the record that there is 
precisely this expectation on the part of the people who are 
supporting Afghanistan, who want to support Afghanistan, but 
need to see that real progress is being made, particularly on 
dealing with corruption and governance issues.
    And in what's called the mutual accountability framework, 
there are specific things laid out that are expectations that 
the government will address. And as we speak, my colleagues 
still in Kabul are meeting with the Afghan Government about how 
those elements are going to be addressed going forward. And 
it's very much the kinds of thing you said: greater 
transparency, greater accountability.
    We're doing that internally in our own processes, to make 
sure that we know where American assistance is going and what 
it's being used for. And we will absolutely be insisting that 
the Afghan Government produce greater transparency and 
accountability in its own part.
    Senator Menendez. Well, Mr. Chairman, I see the time has 
expired. I have one more question, if I may, to Ambassador 
Olson.
    Senator Casey. Sure.
    Senator Menendez. I just want to make a comment.
    For myself, I have been supportive, but it is not an open-
ended support, just speaking for one member.
    I have to see the movement toward those elements, and I 
cannot continue at a time in which we face such enormous 
challenges here at home to vote for billions of dollars that at 
the end of the day do not lead toward a more open, transparent, 
honest process, at a minimum, at a minimum.
    Ambassador Cunningham. I understand.
    Senator Menendez. Ambassador Olson, just in a similar 
light, Senator Corker and I had, a while back, looked for some 
benchmarks as it relates to our assistance in coalition support 
funds to Pakistan.
    You know, in my view, it's incongruous to provide enormous 
sums to the Pakistan military via the coalition support funds 
unless we're certain that the Pakistanis are committed to 
locate, disrupt, and dismantle terrorist threats inside of 
their border.
    My understanding is this new deal that we've cut with 
Pakistan to permit the transport of military resupply convoys 
also promises to deliver more than a billion dollars in delayed 
military aid.
    What commitment are we getting in return, beyond the 
convoy, that the Pakistani military will cease support to 
extremist and terrorist groups and prevent al-Qaeda, the 
Taliban, and associated terrorist groups from operating within 
the territory of Pakistan?
    All I hear is about the Pakistanis seeking an end to the 
drone attacks that have been the one successful effort and 
turning it over to them.
    You know, again, if we're going to be providing billions of 
dollars, then what is the commitment, the concurrent 
commitment, here?
    Ambassador Olson. Thank you, Senator, for the excellent 
question.
    With regard to the coalition support funds, as you know, 
this is a reimbursement for expenses incurred in support of the 
coalition activities. And my understanding of the process is 
that the Pakistanis submit certain expenditures for our review, 
and we review them very carefully, and we do not in any way 
accept all of those expenditures. In other words, we're very 
careful to make sure that they are in line with our own 
standards and our own criteria for the expenditure.
    With regard to the overall question of the Pakistani 
support for counterterrorism, I think the record of the last 
decade shows that we have had substantial cooperation from the 
Pakistanis on the question of al-Qaeda in particular. I mean, 
we are virtually within grasp of defeating al-Qaeda as an 
organization.
    A lot of that, as President Obama has indicated, is due to 
support from the Pakistani Government.
    In addition, the Pakistani Government is very concerned 
about the internal threat from insurgents and extremist 
organizations. The Pakistani Army has been effectively 
redeployed. Many of 
the units that used to be on the Indian border have now been 
redeployed internally for dealing with the threat coming from 
extremists.
    On the question of drones, Senator, as you well know, the 
President has said that we will go after extremists and those 
who threaten us wherever we find them. It's beyond the level of 
classification for this hearing to discuss those programs in 
any great detail. But I will, if confirmed, continue to follow 
the President's direction on the question of defending our 
national interests.
    Senator Menendez. So I take it that what you're telling me 
is that we're satisfied with the Pakistani response?
    Ambassador Olson. Senator, I think that there is more that 
can be done, absolutely. And I think that, particularly with 
regard to the Haqqani Network, this is a very difficult issue. 
I am coming at this from having served at Embassy Kabul for the 
last year. I was in the Embassy on September 13 and April 15 
when the attacks took place that originated from the Haqqani 
Network out of North Waziristan.
    We are looking at all the ways that we can, as the whole of 
the U.S. Government, attack the question of the Haqqani Network 
and its support. We have already designated a number of 
individuals.
    I will certainly, if confirmed, take it as a central 
responsibility, and the most urgent of my responsibilities, to 
continue to press the Pakistanis for further action on the 
Haqqani Network in every way possible.
    Senator Menendez. Thank you, Mr. Chairman, for your 
courtesy.
    Senator Casey. Thank you, Senator Menendez.
    We're at the end of the hearing. We want to thank both of 
our witnesses for your testimony and for your continuing 
commitment to public service in especially these difficult 
postings, and we again thank your families.
    The record will be open until noontime tomorrow for 
Senators to submit questions.
    And unless there is nothing further, we're adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of James B. Cunningham to Questions Submitted
                        by Senator John F. Kerry

    Question. In April, my staff shared in writing significant concerns 
about the 
Afghanistan Infrastructure Fund (AIF) with the administration, 
cautioning against investing in new, large-scale infrastructure 
projects that the Afghans would not be able to sustain. To date, there 
has been no response to the inquiry. This week, the Special Inspector 
General for Afghanistan Reconstruction (SIGAR) released a report 
reaching similar conclusions for FY 2011 AIF projects.

    Answer. The administration is committed to the effective use of 
United States resources for activities in Afghanistan. Your committee's 
input has been integrated into our joint planning efforts under the 
Afghanistan Infrastructure Program and we would be happy to provide an 
updated informational briefing at the earliest opportunity. We should 
note that we do not agree with many of the conclusions of the SIGAR 
audit and our concerns were voiced in multiple annexes of the report. 
The Afghanistan Infrastructure Program and Fund were conceived as tools 
in the counterinsurgency campaign with ancillary development impacts. 
We disagree with SIGAR's assertion that extension of the project 
timeframes will have a negative effect on the counterinsurgency 
campaign and development. It has been our experience that all stages of 
infrastructure projects (which provide essential services the 
insurgency could never offer) have a positive impact. The planning 
stage of these long-term projects gives clear assurance of the enduring 
commitment of the United States to the people of Afghanistan, the 
construction phase creates employment and helps stabilize conflict 
areas; and final completion opens the way for greater economic 
opportunity. We have provided below specific answers to your question 
on the execution of infrastructure projects in Afghanistan.

    Question. What is the timeline for installing the third turbine at 
the Kajaki dam? How many additional megawatts of energy will this add 
to the grid for Kandahar, and at what cost per megawatt? What is the 
total cost estimate for bringing the third turbine online, including 
security costs incurred by U.S. and coalition forces?

    Answer. The third turbine at Kajaki Dam is conservatively scheduled 
to be operational by the end of 2014 and will add 18 megawatts (MW) of 
electricity to the southern electrical power grid, for a total 
generation at Kajaki of 51 MW. The Government of Afghanistan and USAID 
estimate production costs of electricity at Kajaki to be 1.5 cents per 
kilowatt-hour (or $15 per MW-hour) including operation and maintenance 
costs. The estimated cost to install the new turbine at the Kajaki dam 
is $85 million, including the cost of security, logistics, and camp 
support. Based on initial planning, we expect 8-10 MW of the power 
generated by the new turbine to reach Kandahar, while the remaining 
electricity will be distributed in Sangin and Helmand Valley.

    Question. When will the North East Power System (NEPS)--South East 
Power System (SEPS) connection come online? Could the NEPS-SEPS 
connection destabilize the grid in Kabul, and if so, what happens then?

    Answer. USAID will use the Power Transmission Expansion 
Connectivity (PTEC) Project as the mechanism to construct the 
connection between Afghanistan's Northeast Power System (NEPS) and 
Southeast Power System (SEPS). This ``NEPS-SEPS Connection'' includes 
approximately 500 kilometers of transmission line and seven 
substations. The current completion date for the project is September 
2016. According to the results of the recently completed feasibility 
study for the PTEC project, the connection of the northern and southern 
power grids is technically feasible and will not result in the 
destabilization of either grid. The study identified priorities for 
synchronization and reactive power compensation in and around the Kabul 
load center. Overall, conclusions of the study supported the planned 
system expansion, which is also consistent with the Afghan Energy 
Master Plan (funded by the Asian Development Bank, currently in draft).

    Question. What is the sustainment plan for the Kandahar Power 
Bridging solution given that SIGAR found ``that more sustainable 
sources will not be available to replace the Kandahar Bridging Solution 
until well beyond 2014?

    Answer. The Kandahar Bridging Solution currently provides 
approximately 28 MW of diesel generated power to the SEPS system. The 
Department of Defense plans to use the Afghanistan Infrastructure Fund 
(AIF) to provide diesel fuel through 2014, adjusting expected 
requirements to account for new sources of power as they come online in 
southern Afghanistan. As indicated above, the third turbine at Kajaki 
is expected to come online by the end of 2014 which will relieve some 
of the burden on the current diesel generators for Kandahar. The 
connection of the northern grid to southern Afghanistan will bring 
additional power (between 25 MW to 70 MW, depending on multiple 
variables). At a minimum, the grid-based power from NEPS will displace 
the current diesel generation, but is not estimated to be fully 
operational until 2016. In the meantime, we are working with the 
Government of Afghanistan and the Department of Defense to improve the 
performance of the Kandahar grid to reduce technical and commercial 
losses. We are also working with the Afghan National Utility on a plan 
to manage diesel fuel and increase revenue collection. In addition, we 
are exploring ways to incentivize revenue generation in southern 
Afghanistan by giving paying customers priority to diesel-generated 
electricity.
    Ultimately, sustainability of the electrical grid in Afghanistan 
depends on the capacity of the Afghan National Utility, which has made 
great strides in the last few years and continues to improve its 
operations. USAID is working with the Afghan National Utility at both 
the national and local levels to better define the capital investments 
needed over the near and long term, the costs of operation and 
maintenance, and the technical, human, and financial resources needed 
to meet these obligations.

    Question. What steps are being taken to address frustrations 
expressed by the local population for destruction of their property for 
the Nawa to Lashkar Gah road AIF project?

    Answer. We are implementing the Afghanistan Infrastructure Program 
in close coordination with local officials of the Afghan Government to 
ensure local popular support for all projects and proper compensation 
by the government to the citizens impacted by construction. For 
instance, the Department of Defense worked with local officials to 
ensure proper procedures were followed in compensating residents for 
loss of their land due to the construction of the Lashkar Gah road. We 
have contacted our local government partners for the project and will 
make sure citizen concerns are addressed.

    Question. For each FY 2011 and FY 2012 AIF project, please submit 
(1) a realistic estimate of costs necessary to sustain the project, the 
planned source of such funding, and an assessment of the reliability of 
the planned source; (2) evidence that estimated sustainment costs have 
been provided to the Afghan Government and that the Afghan Government 
has committed to sustain the project; and (3) a joint assessment of the 
capacity of the Afghan Government entity responsible for sustaining the 
project.

    Answer. It is difficult to accurately estimate sustainment costs 
before project plans are finalized and bids are received for 
construction. The costs for operation and maintenance of infrastructure 
projects will be supported by a combination of funds from the 
international community and the Afghan Government. We continue to meet 
with the Ministry of Finance and line ministries to improve their 
capacity to generate revenue and budget for future maintenance. We are 
happy to provide as much information as we can on this subject and have 
attached the previously provided approaches for sustainment for each 
project funded with AIF to this document.

    Question. Please provide background on the Afghanistan 
Reintegration Program (ARP), including the strategy and an assessment 
of efforts to date.

    Answer. The Afghan Peace and Reintegration Program (APRP) was 
established by President Karzai on June 29, 2010. Representatives of 
the international community endorsed the APRP at the July 2010 Kabul 
Conference. The Afghan Government then issued a ``Joint Order'' on 
September 6, 2010, that gave detailed instructions to ministries and 
provincial governors on how to implement the APRP. The High Peace 
Council (HPC) was established in October 2010. This body is responsible 
for providing advice to the President and for guiding, overseeing, and 
ensuring APRP implementation.
    The APRP seeks to enable local agreements where communities, 
supported by GIRoA, reach out to insurgents to address their 
grievances, encourage them to stop fighting, and rejoin their 
communities with dignity and honor. To date, the program has brought in 
over 5,000 fighters, allowing them to rejoin their communities by 
pledging to renounce violence, support the political process, and 
contribute to their communities.

    Question. Of the $50 million authorized for ARP for FY 2012, please 
explain why only $616,000 has been obligated as of March 31, 2012, and 
how and when the remainder of the funds will be obligated.

    Answer. The Department of Defense (DOD) provides funds in support 
of the APRP through Afghan Reintegration Program (ARP) and can provide 
further information on funding and execution of those funds.

    Question. As I said during my opening statement, ``we must prepare 
now for 
Afghan elections in 2014. Ultimately, it is the political transition 
that will determine whether our military gains are sustainable and the 
strength and quality of the Afghan state we leave behind will be 
determined by that political transition. Our role should not interfere 
in domestic politics. It is critical that Afghans must pick their 
leaders freely and fairly. But we should make clear that we will only 
support a technical process that is transparent and credible. Selection 
of an accountable Independent Election Commission, transparency in new 
elections laws, and early preparation of voter lists are all critical 
steps for Afghans in order that they have a voice and choice in the 
election.''

  <bullet> Please describe the U.S. strategy to prepare for a credible 
        Presidential election in 2014, including how we will ensure 
        that elections will be held in 2014 and not delayed or moved 
        earlier and how we will ensure that the technical process is 
        transparent and credible.

    Answer. We have and will continue to support the democratic process 
in Afghanistan in accordance with the Afghan Constitution. An orderly 
and legitimate constitutional political transition through Presidential 
elections in 2014 is key to future Afghan stability. This political 
transition is first and foremost a question for the Afghan Government 
and people, but we stand ready to support and assist them. We recognize 
the importance of strengthening Afghanistan's democratic institutions 
in the lead up to the 2014 political transition and beyond, and it is a 
key component in our U.S.-Afghanistan Strategic Partnership Agreement. 
Additionally, we will continue to work with international partners to 
provide appropriate support, including to Afghanistan's electoral 
institutions.
    The Tokyo Declaration and President Karzai's July 26 Executive 
order both outlined that the Presidential election will take place in 
2014, and the International Election Commission (IEC) has indicated its 
plans to hold the elections on time in spring 2014, as mandated in the 
Afghan Constitution.
    The U.S. Government made significant contributions to the 2009 and 
2010 elections, including programming to strengthen the IEC and 
Electoral Complaints Commission (ECC). We plan to continue this line of 
effort for 2014. We plan to support the election management 
institutions and strengthen their capacity to administer legitimate 
elections, including supporting the IEC to hire qualified and impartial 
election officials; providing logistics support to the IEC; assisting 
the IEC in establishing a credible and cost-effective voter registry; 
and assisting in identifying and allocating polling locations in 
accordance with Afghan laws.

    Question. What are the key steps that the Afghan Government must 
take to ensure a credible election in 2014?

    Answer. One of the key challenges the Afghan Government faces in 
advance of the 2014 election is the passage of needed electoral 
reforms. The Afghan Parliament is currently considering electoral 
reform legislation that would determine how IEC commissioners are 
appointed and would spell out the duties of the IEC commissioners. We 
support this Afghan discussion and are encouraged that civil society 
groups and political actors are engaged in a wide-ranging public debate 
on measures to improve the electoral process, including promoting 
checks and balances to enhance the independence of the IEC and ECC.
    The IEC and other Afghan officials still need to identify the 
precise date of the election in 2014. As part of the Tokyo Declaration, 
the Afghan Government committed to announcing the election date by 
January 2013, which will enable sufficient preparation time for 
security, logistics, and candidates.

    Question. What must the Afghan Government and international 
community do in 2012 to lay the groundwork for a legitimate political 
transition in 2014?

    Answer. Through 2012, it will be important for the Afghans to 
continue working to pass a revised electoral law and the IEC Structure 
Law. Through a revised electoral law, the Afghans can establish a 
credible electoral complaints body with a clear mandate. The 
international community will focus on providing the technical 
assistance needed to help the Afghans strengthen their electoral 
process.

    Question. The Electoral Complaints Commission (ECC) of Afghanistan, 
which played a key role in detecting fraud in the 2009 election and 
forcing a recount, is reportedly facing a loss of its independence 
because it may be subsumed by the Ministry of Justice. As the U.S. 
Ambassador to Afghanistan, would you support the continued independence 
of the ECC? If so, what steps will you take to ensure its independence?

    Answer. An independent electoral complaints mechanism is critical 
for advancing the credibility and legitimacy of the election. Under 
current Afghan law, the ECC is established 120 days prior to the 
election and its activity ends 2 months after the certification of 
election results. The IEC submitted its recommendations for the draft 
electoral law to the Ministry of Justice on June 11, and under his July 
26 Executive order, President Karzai ordered the Ministry of Justice to 
complete its review of the electoral law within 2 months.

    Question. If confirmed, will you create a position similar to that 
held by Ambassador Tim Carney in 2009 to lead Embassy Kabul's election 
efforts? Why or why not?

    Answer. Ambassador Tim Carney's efforts helped to focus and 
coordinate U.S. Government efforts in preparing for the 2009 
Presidential election. At this time, we are still discussing our senior 
staffing needs for the 2014 Presidential election, taking into account 
the level of resources and the importance of Afghan ownership during 
transition.

    Question. In your opening statement before the committee, you 
stated that the Japanese announcement at the Tokyo conference on July 
8, 2012, that the international community had pledged $16 billion in 
aid over the next 4 years was ``sufficient to cover Afghanistan's 
fiscal gap as identified by the World Bank.''

  <bullet> Please clarify exactly how donor pledges will sufficiently 
        cover an estimated $16 billion fiscal gap, given that pledges 
        are not actual dollars until and unless funding has been 
        obligated by donors, a great deal less than 100 percent of 
        donor aid will go toward financing the Afghan state and its 
        budget, and development aid in Afghanistan largely does not go 
        directly to the Afghan state. Has the World Bank confirmed that 
        the donor pledges in Tokyo are sufficient to cover 
        Afghanistan's fiscal gap?

    Answer. At the July 8 Tokyo Conference, the international community 
agreed to support Afghanistan over the next 4 years with assistance 
pledges totaling $16 billion, according to an informal Government of 
Japan tally. As noted in the U.S.-Afghanistan Strategic Partnership 
Agreement, which Congress supported in a nonbinding resolution on July 
31, we will consult closely with Congress on a yearly basis to seek 
appropriate funds to ensure that the United States provides sufficient 
assistance to maintain our hard-won gains in security and development 
in Afghanistan. We were pleased that commitments made at Tokyo indicate 
that our international allies have pledged to contribute an increased 
percentage of Afghanistan's civilian assistance needs, which means that 
our own share of civilian assistance levels as a percentage of overall 
international civilian assistance to Afghanistan is decreasing. Donors 
also recommitted at Tokyo to find ways to put more assistance on 
budget, or channeled through the Afghan Government in transparent ways, 
consistent with Busan outcomes, such that our assistance will have a 
greater impact and be better aligned with Afghan national priorities. 
Prior to Tokyo, a joint IMF and World Bank debt sustainability analysis 
found that Afghanistan's nonsecurity budgetary requirements would be 
between $3.2 and $3.9 billion annually, inclusive of on- and off-budget 
expenditures.

    Question. In light of the Tokyo conference and commitments, what 
changes will take place in how USAID and the State Department will 
obligate funds in Afghanistan to help meet Afghanistan's fiscal gap?

    Answer. The Tokyo Declaration and Framework outlines ways in which 
donors will change their approach to providing assistance to 
Afghanistan through greater accountability, increased predictability, 
and incentive mechanisms. Working closely with our congressional 
partners, we will adjust how we request and obligate funds in 
Afghanistan following Tokyo. At Tokyo, donors agreed that additional 
work will need to be done to continue improving the effectiveness of 
civilian assistance. At Tokyo, donors also agreed that we should 
reenergize the Joint Coordination and Monitoring Board (JCMB) as the 
key coordinating mechanism between donors and the Afghan Government. We 
agree that donors and the Government of Afghanistan must improve 
coordination to ensure that pledged funds are utilized most 
effectively, are allocated to the highest priorities, and are 
supportive of sustainability. The JCMB will be the primary means to 
follow up on the mutual accountability commitments made in Tokyo.
    Based on commitments reaffirmed at Tokyo, we will attempt to 
provide up to 50 percent of development assistance through the Afghan 
budget, and ensure that at least 80 percent of our assistance is in 
line with Afghan national priorities. The Tokyo Declaration also 
encourages donors to provide increasing levels of assistance through 
incentives programs, such as those in the World Bank-run Afghanistan 
Reconstruction Trust Fund (ARTF).

    Question. What percentage of FY 2012 funds is going through the 
national budget of the Afghan Government (``on-budget'')? What 
percentage of FY 2013 funds is estimated to go on-budget?

    Answer. We expect approximately 45 to 50 percent of FY 2012 
development assistance will be placed on-budget. Development assistance 
encompasses most of our Economic Support Funds, but does not usually 
include security, humanitarian, stabilization, or law enforcement 
funding. Prior to placing funds on-budget multiple safeguards are put 
in place. These include:

  <bullet> Risk Assessments to determine whether an Afghan ministry or 
        institution has the structures and processes in place to 
        appropriately manage U.S. Government funds
  <bullet> Agreements with clear and achievable goals and objectives, 
        provisions for incremental funding, along with audit and 
        inspection rights, for each project or activity implemented.

    For FY 2013 we intend to similarly pursue a responsible on-budget 
program. Percentage of funds placed on budget will be dependent on the 
final appropriation.

    Question. What percentage of FY 2012 funds is aligned with the 
Afghan Government's National Priority Programs (NPP)? What percentage 
of FY 2013 funds is estimated to be aligned with the NPPs?

    Answer. We have determined that nearly 80 percent of our 
development assistance is already in line with Afghan national 
priorities, as defined in Afghanistan's National Priority Programs 
(NPPs). Post Tokyo, we are now engaged in an evaluation to determine 
our precise program alignment to NPP deliverables.

    Question. In your opening statement, you stated that 
``international assistance to Afghanistan is not unconditional.'' In 
light of the mutual accountability framework and commitments made in 
Tokyo, please describe specifically what conditions will be attached to 
U.S. civilian assistance in Afghanistan going forward, excluding funds 
obligated by the United States to the World Bank's Afghanistan 
Reconstruction Trust Fund (ARTF) incentive program.

    Answer. Donors continue to define specific criteria related to 
Tokyo commitments. Once we have determined what conditions will be 
attached to civilian assistance--over and beyond the incentive 
structures already in place in the ARTF and other similar programs--we 
will coordinate with you to ensure full transparency. The mutual 
accountability framework includes specific, measurable reform goals for 
the Government of Afghanistan and the international community. Progress 
toward these goals will be regularly evaluated through the JCMB and 
other meetings with participation from Afghan civil society, and 
findings will be made available to the public. The international 
community was clear at Tokyo that lack of progress on these reform 
goals, especially those related to the rights of women, would make it 
difficult to justify large assistance budgets and could result in 
decreased levels. Our regular consultations with Congress about the 
annual assistance requests for Afghanistan will include a discussion of 
specific progress toward the goals of the Tokyo Mutual Accountability 
Framework.

    Question. How much of FY 2011 funds was obligated to the ARTF's 
incentive program? How much is planned to be obligated for FY 2012? FY 
2013?

    Answer. In FY 2011, the United States provided $371 million to the 
ARTF; $166 million of that contribution was not ``preferenced'' to 
specific programs, and will be distributed among the existing ARTF 
incentive program, recurrent cost funding, and program funding. In 
2011, the World Bank's ARTF did not provide incentive program funding 
to the Government of Afghanistan due to the absence of an IMF country 
program. For 2012, the U.S. plans to contribute $300 million to the 
ARTF, and the fund is planning a $50 million incentive fund, increasing 
to $150 million in 2013, with the intent of applying more funding 
toward incentive-based approaches in coming years.

    Question. Please describe the plans to manage Afghanistan's fiscal 
gap starting in 2016.

    Answer. The Tokyo Declaration recommends holding a Ministerial to 
review progress on Tokyo mutual accountability in 2014. At that 
conference, we expect that we will also review Afghan efforts to 
prioritize fiscal needs, as well as Afghan efforts to increase revenue 
generation. Now, and particularly post-Transition, the Afghan 
Government will define how to best address its fiscal gap based on an 
assessment of its needs at that time, as it describes in its pre-Tokyo 
strategy ``Towards Self Reliance.'' At Tokyo, donors were clear that 
civilian assistance levels would diminish through the Transformation 
Decade, as the Afghan Government increasingly takes responsibility for 
its own fiscal sustainability.

    Question. Beyond the extractive industries sector, what are the 
Afghan Government's plan to raise and collect revenue?

    Answer. The IMF country program for Afghanistan calls for the 
application of a Value Added Tax (VAT) in an effort to capture 
additional revenues for the Afghan Government, with a goal of reaching 
15 percent of GDP by 2015. For the first time, the Afghan Government 
recorded revenues of over $2 billion this year. The Afghan Government 
also realizes that it must make reforms that attract private sector 
investment and encourage economic growth. As Afghanistan's economy 
grows, the country should collect more revenues in real terms.

    Question. What is your perspective on the Afghan Government's 
recent rejection of the mining law? What implications does it have for 
U.S. support to develop the extractive industries sector?

    Answer. We understand that the Afghan Cabinet has reviewed proposed 
revisions and additions to the mining law, and that Cabinet members 
requested additional time to review and understand these complex laws 
and amendments. We understand that many of the proposed amendments to 
the current mining law, if approved, would create a more attractive 
business environment for potential international investors. We are 
encouraged that the Cabinet is closely reviewing the law, with the 
understanding that the passage of a widely accepted law is important to 
attract foreign direct investment to the mining sector and the Afghan 
economy. This is an Afghan-led process and we recognize the Afghan 
Government's desire to ensure that revenues from the extractive sector 
benefit the Afghan people in a transparent manner.

    Question. What has the United States accomplished in its goal of 
reducing corruption in the Afghan Government? If confirmed, what 
approach do you intend to take on this issue, and how, if at all, would 
your approach differ from that taken previously?

    Answer. We and the Afghans recognize that corruption challenges 
loom large in Afghanistan. It is in Afghanistan's own interest to 
aggressively pursue anticorruption policies and we continue to 
underscore the importance of these efforts in our engagements with the 
Afghan Government.
    Before the Tokyo Conference on July 8, the Afghan Government 
published a strategic vision for the transformation decade entitled 
``Towards Self-Reliance,'' in which governance issues play a prominent 
role. In this strategy, the Afghans Government pledged to meet 17 
governance indicators defined at Tokyo in five key areas: governance 
capacity and accountability; anticorruption; budget planning and 
execution; rule of law; and economic governance. Many of these pledges 
are defined in the Tokyo Mutual Accountability Framework, which the 
international community and the Afghan Government are working to make 
specific and actionable.
    Just recently, on July 26, President Karzai issued a Presidential 
decree detailing an expansive plan to combat corruption with specific 
instructions. This follows a June 21 speech to a special session of 
Parliament during which President Karzai made clear that he would like 
anticorruption to be part of his legacy.
    Afghanistan is making progress on key transparency reforms to 
facilitate economic growth in specific areas. Afghanistan has made 
significant progress toward Extractive Industry Transparency Initiative 
(EITI) compliance and World Trade Organization accession. EITI 
compliance will be important for Afghanistan in the coming years to 
ensure that it equitably and transparently uses the significant 
revenues it expects from the mining and extractives sector.
    The Afghans have also taken steps toward holding accountable those 
responsible for the Kabul Bank crisis, permitting the IMF to restart 
its relationship with Afghanistan in November of last year. This 
decision was reaffirmed in late-June by the IMF Executive Board. The 
Afghan Government has affirmed its commitment to hold those involved in 
the Kabul Bank scandal accountable and has instituted a process that 
requires all shareholders to take part in a combination of civil and 
criminal proceedings. This process should result in continued asset 
recoveries and prosecutions. The Afghan central bank is also in the 
process of implementing wide-ranging financial sector reforms as 
defined under the IMF country program.
    If confirmed, I will continue to hold the Afghan Government 
accountable to the pledges made in the Mutual Accountability Framework. 
I will encourage the Afghans to make meaningful progress on 
anticorruption efforts and I will do everything possible to ensure that 
U.S. assistance funds are used appropriately.

    Question. According to the Special Inspector General for 
Afghanistan Reconstruction's July 30, 2012, report, the U.S. Congress 
has appropriated more than $52 billion to support the Afghan National 
Security Forces (ANSF). Current projections to sustain the ANSF exceed 
$4 billion a year.

  <bullet> Through what security assistance authority does the 
        administration plan to fund the ANSF in years to come?
  <bullet> As the U.S. mission in Afghanistan slowly transitions to a 
        civilian-led effort, will the administration continue to 
        request funding through the Afghan Security Forces Fund or will 
        it seek to shift assistance toward traditional mechanisms such 
        as Foreign Military Financing and International Education and 
        Military Training?

    Answer. No decisions have been taken on future funding that would 
change the current model with the Department of Defense taking the lead 
in the training and funding of the Afghan National Security Forces 
(ANSF). As transition progresses, we will make assessments on whether 
and when State should seek a greater role in funding the ANSF and make 
appropriate requests.

    Question. Although the ANSF has shown progress in certain 
capabilities, there are still serious questions about its ability to 
operate autonomously, without the aid of coalition forces. The ANSF 
still confronts significant problems of illiteracy, high attrition, and 
corruption. U.S. Government assessments and metrics are focused on 
creating the force rather than on transition. NTM-A has not issued a 
useful public report on ANSF development since 2011.

  <bullet> Please explain how the administration's current assessment 
        metrics determine whether the ANSF has the will to fight and 
        the ability to hold together a coherent force representing the 
        central government.

    Answer. Regarding metrics, the Department of Defense (DOD) provides 
metrics that assess capability milestones across the Afghan National 
Army (ANA) and Afghan National Police (ANP). DOD also provides a 
quarterly Progress Report on Stability and Security in Afghanistan that 
assesses the ability of the ANSF. Overall, we have seen growing 
confidence of the ANSF during this 2012 season in responding capably 
and largely independently to complex insurgent attacks in Kandahar, 
Wardak, Kabul province and Kabul city. The ANSF are also increasingly 
capable of taking the lead for some of the most complex missions--
including a recent successful night air assault planned and led by 
Afghans, comprising over 50 Afghan commandos and four MI-17s flown by 
Afghan pilots. While the ANSF continues to need ISAF support in 
enablers, their operational effectiveness is increasing and the 352,000 
ANSF target later this year will provide a solid foundation as the 
transition of provinces continues through December 2014. As the 
coalition continues the drawdown to our sustainment level, the NATO 
Training Mission Afghanistan (NTMA) is developing the leadership and 
technical skills within the ANSF that can support independent 
operations by the end of 2014.

    Question. What do recent assessments of the Afghanistan Local 
Police (ALP), the Afghan Public Protection Force (APPF), and the 
Counter Narcotics Police of Afghanistan (CNPA) say about their 
effectiveness, and what are the plans to sustain these forces?

    Answer. The Afghanistan Local Police (ALP), the Afghan Public 
Protection Force (APPF), and the Counter Narcotics Police of 
Afghanistan (CNPA), on the whole, have performed admirably and continue 
to develop capabilities to secure Afghan. The majority of Afghans have 
a favorable view of the ALP program, which is providing security in 
rural regions that lack regular ANP or ANA. As it stands, the Ministry 
of Interior and DOD approved manpower ceiling is 30,000 ALP in a 
program to last no more than 5 years. There are currently less than 
half that number of ALP operating in Afghanistan. The Afghan Ministry 
of Interior will formalize the continuation of ALP beyond 2015.
    With regards to the APPF, we respect the sovereignty of the Afghan 
Government and its right to regulate the provision of security services 
within Afghanistan. The APPF is part of the overall transition to 
Afghan security lead by 2014 and the program has taken longer than 
expected to develop the institutional support for the APPF, while guard 
hiring, training and employment are steadily increasing. Although APPF 
is overseen and managed through the Ministry of Interior, the APPF 
operates as a State-owned enterprise, under which its own revenues will 
support the force in the future.
    As a law enforcement component of the Ministry of the Interior, the 
CNPA follows a strategy, codified within their Ministry Development 
Plan (MDP) that was developed and is being implemented by DOD-funded 
entities (NTM-A/CSTC-A). The U.S. Government focuses its evaluation and 
assessment activities of the effectiveness of its programs in building 
capacity, and in enabling an independent CNPA. As such, the current 
monitoring and evaluation activities take into account measures of both 
the transfer of knowledge to the specialized investigative personnel, 
as well as to the CNPA administrative personnel. Oversight of the 
infrastructure components of the programs is conducted by an onsite 
Contracting Officer's Representative (COR) and Government Technical 
Monitor (GTM). These individuals are continuously reviewing and 
evaluating the contractor's performance in maintaining the basing 
facilities so that when the Afghan's are ready for a full transition, 
they receive the high-quality platforms necessary for success.

    Question. With the continued drawdown of coalition forces, how will 
the United States sustain a coherent and competent ANSF? What actions 
is the administration undertaking to ensure the international community 
shares in continued burden of sustaining the ANSF?

    Answer. As pledged at the NATO summit in Chicago, NATO will 
continue to lead a post-2014 Train, Advise and Assist mission designed 
precisely to develop a competent and coherent ANSF as they take the 
lead throughout the country. At Chicago, ISAF Allies and Partners also 
joined the Afghan Government in pledging around $1 billion so far in 
financial support to a post-2014 ANSF. The Afghan Government has 
pledged to provide at least $500 million a year beginning in 2015 and 
progressively increasing its share over time. We will continue to urge 
countries, particularly those in the region who have a strong stake in 
Afghanistan's security, to provide funding to the ANSF. This will be 
critical to secure the gains the ANSF has made and ensure a sustainable 
future for the security force.

    Question. What is your assessment of the political sustainability 
of the ANSF post 2014, given the difficulties of recruiting and 
retaining Pashtun officers and the overwhelming dominance of non-
Pashtun groups within the ANA officer corps?

    Answer. Within the ANA officer corps, the NATO Training Mission 
Afghanistan (NTMA) has directed recruitment in a way that reflects the 
ethnic and regional demographics of Afghanistan, including Pashtuns. As 
NTMA continues to train officers over the next years, they will 
continue to seek these targets and develop a cohesive ANA officer 
corps, reflective of Afghan society.
                                 ______
                                 

          Responses of Richard G. Olson to Questions Submitted
                        by Senator John F. Kerry

    Question. Section 620M of the Foreign Assistance Act of 1961, 
commonly known as the Leahy amendment, provides guidance for U.S. 
embassies regarding the collection, use, and public disclosure of 
information relating to gross violations of human rights by units of 
foreign security forces. Among other things, the law requires that if 
the Secretary of State has credible information that such a unit has 
committed such a violation, U.S. training, equipment, or other 
assistance to that unit must cease, unless the foreign government is 
taking effective steps to bring the responsible members of the unit to 
justice. The law has a mandatory provision that requires the U.S. 
Government to notify the foreign government if the United States 
decides to withhold training, equipment, or other assistance pursuant 
to the law. The law also requires the Department of State to take 
affirmative steps to piece together available information and to work 
to identify security force units responsible for violations.

  <bullet> (a). If confirmed, please describe the steps you would take: 
        (1) to ensure that the law is implemented effectively, 
        including to vet units to determine their eligibility to 
        receive training, equipment, or other assistance; and (2) to 
        ensure your Embassy receives information that such a crime may 
        have occurred.

    Answer. The Department of State ensures full compliance with the 
Leahy law in Pakistan. Embassy Islamabad has a process in place to vet 
security force units and individuals before they receive U.S. 
assistance to ensure they are not implicated in any gross human rights 
violations. This process is led by an in-country vetting coordinator 
and an interagency team, which reviews all potential recipients, 
including security force units, of training and other assistance.

  <bullet> (b). If confirmed, please also describe the steps you would 
        implement to ensure: (1) that the people of Pakistan are aware 
        of the law and the commitment of the United States to avoid 
        providing training, equipment, or other assistance to units 
        that commit human rights violations; (2) that persons in 
        Pakistan with credible information about human rights 
        violations have a means to provide that information to the U.S. 
        Embassy so it can be considered in vetting units; and (3) that 
        the Embassy staff is affirmatively seeking to identify security 
        force units responsible for human rights violations and not 
        simply waiting to receive information?

    Answer. Addressing human rights abuses by Pakistan's security 
forces continues to be a key part of our bilateral dialogue with 
Pakistan. We regularly engage the civilian government and Pakistani 
military and police officials on human rights abuses, including any 
report of extra judicial killing. We have been clear with the 
Pakistanis that such practices will not be tolerated and that we expect 
Pakistan to investigate credible allegations of human rights abuses and 
take appropriate action to deal with these abuses. If confirmed, I will 
continue to press the Government of Pakistan to take action against 
human rights violators. I will also continue to ensure Embassy 
Islamabad's compliance with the Leahy law, including offering 
assistance to the Government of Pakistan to help identify and prosecute 
members of security forces who commit violations.

  <bullet> (c). The law also requires that if any training, equipment, 
        or other assistance is withheld the U.S. Government offer 
        assistance to the maximum extent practicable to help identify 
        and prosecute members of security forces who commit violations. 
        If confirmed, will you fully implement this requirement of the 
        law and help Pakistan end impunity for human rights violations?

    Answer. Regarding the vetting process, Embassy Islamabad has a 
Human Rights Officer who actively collects information on reported 
human rights abuses, which is reported in the Department's annual Human 
Rights Report and is incorporated into the vetting process. Embassy 
Islamabad, in coordination with the Bureau of Democracy, Human Rights & 
Labor (DRL), complies with a vigorous vetting system to ensure that 
security force recipients of U.S. assistance have not committed human 
rights abuses. The International Vetting and Security Tracking (INVEST) 
system is used to monitor all requests for assistance to members of 
foreign security forces. The vetting process is as follows:

  <bullet> Embassy Islamabad enters those individuals or units 
        nominated for training or assistance into the INVEST system, 
        and uses governmental, nongovernmental, and media resources on 
        human rights abuses in Pakistan to vet the candidates. The 
        Embassy also undertakes checks with local police and government 
        for other derogatory information. Should any credible 
        derogatory information be uncovered, the Embassy may deny or 
        suspend the individual or unit from assistance.
  <bullet> If there is a need for further review of information, DRL 
        assembles a broader team of Department representatives to 
        determine the credibility of the information and determines 
        whether assistance should be denied or authorized. Posts are 
        automatically notified of final Leahy vetting results through 
        INVEST.

     If confirmed, I plan to continue this process and will look for 
opportunities to improve the effectiveness of our procedures.

  <bullet> (d). If confirmed, we ask that you provide this committee 
        along with the Senate Appropriations Committee on Foreign 
        Operations (SACFO) the steps you have taken to implement the 
        steps you have identified in response to these questions after 
        you have been at the Embassy for 6 months.

    Answer. If confirmed, I will also look for opportunities to expand 
our efforts to engage the Pakistani public about credible human rights 
violations by its security forces and explore how we could increase the 
mission's ability to proactively seek information regarding potential 
violations. I will continue U.S. support for bolstering Pakistani 
institutions that are responsible for investigating and prosecuting 
these allegations.
    I will continue to keep the Senate Foreign Relations Committee and 
the Senate Appropriations Committee, Subcommittee on Foreign Operations 
informed of our progress.

    Question. The Center for Global Development's July 2012 report 
``More Money, More Problems: A 2012 Assessment of the U.S. Approach to 
Development in Pakistan'' found that ``despite improvements in 
individual projects and agencies, the government-wide development 
strategy for Pakistan still lacks clear leadership, mission, 
transparency, and adequate exploitation of nonaid tools.''

  <bullet> (a). If confirmed, please describe the steps you will take 
        to clarify the mission, increase transparency, and measure 
        progress.

    Answer. There are significant challenges to implementing U.S. 
assistance to Pakistan. We have recognized, however, that we can and 
must do a better a job of informing the United States and Pakistani 
public of the accomplishments and goals of our civilian assistance 
program. One of my top priorities, if confirmed as Ambassador, would be 
to work closely with USAID, the Department, and other interagency 
partners engaged in international development in Pakistan to further 
increase transparency and ensure our assistance is deployed 
effectively.
    We have already taken extensive steps to clarify our mission. In 
February 2011, State and USAID reviewed all civilian assistance to 
Pakistan and streamlined our investment to have maximum impact on our 
national security objective of supporting a stable, secure, and 
prosperous Pakistan. Following consultations with the Government of 
Pakistan on its top development priorities, the result was a concerted 
effort to focus our assistance into five priority sectors: energy; 
economic growth, including agriculture; stabilization, mainly of the 
border areas; education; and health. This framework is available online 
in strategic documents such as the ``Afghanistan and Pakistan Civilian 
Engagement Status Report,'' available at: http://www.state.gov/
documents/organization/176809.pdf.
    We are identifying key goals for each of these five sectors and 
quantifiable metrics so that we can concretely measure progress. These 
metrics will be available online in the coming weeks. USAID has already 
increased the amount of detailed programmatic information available on 
its website to include disbursement data and will be increasing the 
amount of detail on the Web site over time.
    I also appreciate the work of think tanks in informing our efforts 
in Pakistan, including that of the Center for Global Development. If 
confirmed, my team and I will review their ideas for performance 
improvements and adapt as appropriate.

  <bullet> (b). Would you support establishing a multilateral trust 
        fund to channel some Kerry-Lugar-Berman funds? Please explain 
        why or why not.

    Answer. The United States has previously contributed funds to the 
Multi-Donor Trust Fund (MDTF) in Pakistan, a mechanism to fund projects 
in Pakistan's border regions. In the past, the Government of Pakistan 
has expressed some reservations about establishing MDTFs for assistance 
to the rest of Pakistan, but we would consider channeling U.S. civilian 
assistance into a MTDF if the Government of Pakistan were supportive.

  <bullet> (c). Would you support cofinancing with other donors that 
        have proven track records, such as the British development 
        agency (DFID) on education projects? Please explain why or why 
        not. What steps would you take to amend USAID regulations to 
        allow for greater flexibility to use funds for cofinancing?

    Answer. The United States has previously cofinanced assistance 
initiatives with other donors. For example, following the 2010 floods, 
the United States contributed $190 million to Pakistan's Citizens' 
Damage Compensation Fund. We have discussed the potential for 
additional cofinancing opportunities with organizations like DFID and 
if confirmed, my team and I will look for logical opportunities to do 
so in the future. USAID regulations are not an obstacle to cofinancing 
arrangements.

  <bullet> (d). If confirmed, what steps would you take to encourage 
        longer staff rotations, hire more experienced development 
        staff, and hire experienced Pakistanis at the Embassy and USAID 
        Mission in Islamabad, Lahore, Karachi, and Peshawar?

    Answer. I recognize that shorter tenures of service in Pakistan 
create challenges in achieving all aspects of the mission's work. If 
confirmed, I am personally committed to recruiting and retaining top 
talent for the entire Pakistan country team, including recruiting for 
key positions staff who will agree to serve for longer tours. 
Currently, approximately 20 percent of USAID staff extend their tour to 
two or more years. I will work with the State Director General and 
USAID's Deputy Assistant Administrator for Human Resources to encourage 
longer rotations and hiring experienced staff.
    As an example of progress already achieved, USAID/Pakistan's top 
three employees--the Mission Director and his two Deputies--all 
acquired extensive experience serving as Mission Directors in other 
countries before they came to Pakistan. USAID/Pakistan has also 
undertaken extensive efforts to hire experienced local staff in 
Islamabad, Lahore, Karachi, and Peshawar to take on critical positions. 
However, harassment and security issues pose challenges to our ability 
to recruit and retain talent for mission local staff for all agencies, 
including USAID.

    Question. The administration recently released more than $1.1 
billion in reimbursements through Coalition Support Funds to the 
Government of Pakistan. Pakistan also receives security assistance 
through mechanisms such as the Pakistani Counterinsurgency Capability 
Fund, Foreign Military Financing, International Military Education and 
Training, and Nonproliferation, Antiterrorism, Demining, and Related 
Programs. Given the often strained bilateral relationship between the 
United States and Pakistan, how will the administration continue to 
leverage security assistance to ensure that the Government of Pakistan 
is acting in the best security interests of the United States?

    Answer. Pakistan's cooperation on our key counterterrorism concerns 
has continued despite the turbulence of the past year. Sustained U.S. 
and Pakistani counterterrorism efforts have seriously impacted the 
leadership of al-Qaeda (AQ) and degraded the organization's ability to 
operate against us and our troops. Pakistan has continued to conduct 
counterterrorism operations in the Federally Administered Tribal Areas 
and Khyber-Pakhtunkhwa, including ongoing missions in North and South 
Waziristan, Mohmand, and Orakzai. Pakistan military liaisons continue 
to staff border coordination centers in Afghanistan and work with their 
U.S. and Afghan counterparts to improve the effectiveness of border 
operations against militants. The Pakistan Navy also participates 
regularly in multinational maritime security operations.
    U.S. security assistance strengthens the counterterrorism and 
counterinsurgency capabilities of Pakistan's security forces, and 
promotes closer security ties with the United States. Specifically, we 
are using security assistance to enhance Pakistan's ability to secure 
its borders and increase its counter-IED capabilities. These 
capabilities are central to promoting stability in the region post-
transition, and critical to U.S. national interests. As we begin to 
draw down coalition forces in Afghanistan, it is vital that Pakistan 
security forces have the ability to conduct targeted operations against 
insurgent safe havens that remain a threat to the United States, 
Pakistan, and the region.
    As a matter of policy, we continue to review and calibrate the 
delivery of security assistance to Pakistan to ensure it is in line 
with our shared objectives and commensurate with levels of Pakistan's 
cooperation. This allows us to responsibly deliver security assistance 
to Pakistan in support of our key national security interests and 
shared interests with Pakistan. If confirmed, my team and I will 
continue to regularly monitor all security assistance programs to 
verify that they are consistent with the broader U.S.-Pakistani 
relationship, and reflective of the level of Pakistani cooperation, 
including with the U.S. military presence on the ground.

    Question. India and Pakistan have taken some encouraging steps in 
recent months to improve relations and to reduce the risk that disputes 
between the two countries could spark a nuclear showdown. But as long 
as those arsenals exist, that risk continues. Please identify concrete 
actions that you believe the United States should take in the coming 
months and years to build greater confidence and transparency between 
the two countries regarding their nuclear arsenals, and to further 
reduce, if not eliminate, the risk that future crises could result in 
nuclear use.

    Answer. We welcome the steps that India and Pakistan have taken 
toward improving their bilateral relations and encourage continued 
progress. We see great importance in both countries taking steps to 
reduce the risk of nuclear weapons use. Indian and Pakistani officials 
met in December 2011 to discuss conventional and nuclear confidence 
building measures as part of the wider dialogue between the two 
countries.
    These are actions that ultimately India and Pakistan must take 
themselves, but we continue to encourage both sides in their efforts. 
There are also many opportunities for cooperation on this issue through 
``Track Two'' channels that enable experts from India, Pakistan, and 
the international community to share ideas and best practices, and to 
engage in informal diplomatic dialogue.
                                 ______
                                 

           Responses of Richard Olson to Questions Submitted
                      by Senator Richard G. Lugar

    Question. While teetering on the brink of insolvency, Pakistan 
appears to forgo considerable revenues, including those associated with 
transit trade. Though Pakistan has signed a Transit-Trade Agreement 
with Afghanistan that was intended to allow direct transit of goods 
between Central Asia and South Asia there has been little progress in 
actual trade across Pakistan and thus considerable revenue and jobs 
continue to be lost.

  <bullet> (a). What is the status and prospect of trade finding 
        permanent alternative routes, such as through Iran?

    Answer. We have seen progress in working with our Pakistani 
counterparts to promote transit trade with Afghanistan. While South 
Asia is poorly integrated economically, the Pakistani Government has 
realized that future economic prosperity depends on greater economic 
integration with Afghanistan and India, and has made efforts to expand 
its trade and investment relations with both countries. In 2010, 
Pakistan and Afghanistan reached agreement on the Afghanistan-Pakistan 
Transit Trade Agreement (APTTA), which is meant to expedite transit and 
customs processing for trade between Afghanistan and Pakistan. Despite 
entering into force in 2011, both sides have struggled to implement 
APTTA because of technical and political challenges. In January 2012, 
the Afghan and Pakistani Finance Ministers agreed to a framework for 
resolving the remaining issues. Recently, the two sides indicated their 
intention to convene technical level coordination meetings to discuss 
treaty implementation. Additionally, the joint statement released by 
Prime Minister Ashraf and President Karzai in late July announced the 
intent of the two sides to pursue the extension of APTTA to include 
Tajikistan.
    We continue to support Pakistan's economic integration in the 
region through the New Silk Road and are encouraged by the concrete 
steps India and Pakistan have taken to normalize trade relations. 
Pakistan's cross-border trade with India has increased to $2.7 billion 
per year from just $300 million per year a decade ago. To further this 
growth, the Pakistani Cabinet approved in February a 1,209-product 
``negative list'' of goods from India, replacing the previous 
``positive list'' which had allowed import of fewer than 2,000 tradable 
items.
    The implementation of APTTA should help Afghanistan and Pakistan 
recover trade that was diverted through other countries including Iran 
while the ground lines of communication were closed by enabling faster 
border processing and by improving the predictability of transit along 
the routes. Businesses and commercial carriers in Pakistan and 
Afghanistan have indicated that if the situation were to improve, they 
would prefer to resume or expand their trade across Pakistan because it 
covers a shorter distance over less difficult terrain.

  <bullet> (b). Is the road/rail infrastructure through eastern Iran 
        fully operational and
        capable of transferring the vast iron ore India and others will 
        seek to export from rich mineral deposits in Afghanistan?

    Answer. However, we have not assessed Iran's road and rail capacity 
for this purpose. We continue to work with the Government of 
Afghanistan to promote the development of infrastructure required for 
the exportation of its resources.

  <bullet> (c). What is the total estimate of revenue lost by Pakistan 
        during the closure of the NATO/ISAF resupply routes (GLOC)?

    Answer. We do not have a good estimate of the revenue lost by 
Pakistan due to the GLOC closure. All of the cargo that travels along 
the Pakistani GLOCs is transported by privately owned Pakistani freight 
forwarding companies. While it is clear that the Government of Pakistan 
lost revenue by the closure, private businesses were more directly 
impacted.

    Question. According to the 2011 State Department Country Reports on 
Terrorism, brutal and deadly terror attacks within Pakistan itself have 
amounted to well 
over 3,000 Pakistanis killed in 2011. The threat of violent militant 
groups is pervasive, and no part of the Pakistan is spared. Suicide and 
armed attacks occur in the coastal city of Karachi, the business 
capital of Lahore, the frontier capital of Peshawar, as well as in the 
tribal areas adjoining Afghanistan.

  <bullet> How do the Pakistan Government and the people of Pakistan 
        classify this threat?
  <bullet> How has the Pakistan Government worked to address the 
        internal threat to life and governing institutions that these 
        terror groups represent?
  <bullet> Distinguish to the extent possible between our efforts to 
        support Pakistan
        efforts to combat internal terror threats, and the effort 
        toward the regional threat emanating from Pakistan safe havens? 
        Which is our primary concern?

    Answer. The United States and Pakistan have vital, shared strategic 
interests in the fight against terrorism and, since the 9/11 attacks, 
Pakistan has been an important counterterrorism partner of the United 
States. Pakistan recognizes the threat that extremists pose to its own 
security and to regional security; more than 35,000 Pakistanis, 
including over 14,000 Pakistani security personnel, have been killed or 
injured by terrorist attacks or in counterterrorism and 
counterinsurgency operations.
    There are over 120,000 Pakistani troops deployed to the 
Afghanistan-Pakistan border region conducting counterterrorism and 
counterinsurgency operations to address the threat posed by groups such 
as al-Qaeda and the Tehrik-e-Taliban Pakistan (TTP). The Pakistani 
Government is also working to improve the capacity of Pakistan's 
security forces and the capacity of the Pakistani Government as a whole 
to combat terrorism and to conduct counterinsurgency operations. To 
this end, the U.S. Government has provided training and assistance, for 
example, through our Pakistan Counterinsurgency Capability Fund and the 
Antiterrorism Assistance program. This includes training for bomb 
detection, crime scene investigation, airport and building security, 
and maritime protections. We also assist with judicial and 
prosecutorial training, to bolster the ability of the Pakistani legal 
system to deal with terrorism cases.
    More broadly, Pakistan generally continues its cooperation with us 
on al-Qaeda--whose defeat is our core national security objective in 
Afghanistan and Pakistan. As President Obama has said, ``We have been 
able to kill more terrorists on Pakistani soil than just about any 
place else. We could not have done that without Pakistani 
cooperation.'' The importance of this fact cannot be overstated. As 
both the President and Secretary Clinton stated after the death of 
Osama bin Laden, our close counterterrorism cooperation with Pakistan 
has put unprecedented pressure on al-Qaeda and its leadership.
    We are focused on doing more with Pakistan, including helping it 
implement the April 2012 Parliamentary recommendation that Pakistani 
territory is not to be used for attacks on other countries and all 
foreign fighters are to be expelled. We are also seeking greater 
cooperation with Pakistan on addressing the threat posed by improvised 
explosive devices (IEDs) which pose a significant threat to Pakistani 
civilians and security personnel as well as to U.S. and partner forces 
across the border in Afghanistan.
    At the same time, we have to continue to apply pressure on the 
Pakistanis to go after groups like the Haqqanis and Lashkar-e-Taiba, 
which are a threat to regional stability. We will continue to insist on 
improved cooperation to eliminate the continuing threats emanating from 
Pakistan. We are using our diplomatic and assistance tools to press 
that point.

    Question. While the Haqqani network has been implicated in attacks 
on U.S. entities in Afghanistan, including the Embassy in Kabul, and 
multiple diplomatic entreaties of the Pakistan Government by U.S. 
officials have yielded little assistance, there is an obvious gap in 
our ability to address this threat.

  <bullet> What role and function does the Haqqani network play in the 
        tribal areas, including from a social and economic perspective?
  <bullet> Is targeting the Haqqani network a redline that has been 
        explicitly expressed by Pakistan authorities?
  <bullet> Have there been any inferences by Pakistan officials that 
        some agreement can be made regarding the Haqqani? If so, what 
        are the terms?
  <bullet> Under what conditions would the Haqqani network be targeted?
  <bullet> Similarly, why is the Quetta Shura able to operate so openly 
        in Balochistan? Is targeting Queta Shura explicitly redlined by 
        Pakistan authorities?

    Answer. The Haqqanis have an extensive business and criminal 
network which operates primarily in the Loya Paktia region of 
Afghanistan and portions of North Waziristan, Pakistan. This includes 
legitimate business activities, for example those related to the 
construction sector (some of which are also used as fronts for illicit 
activities), and criminal activities, such as extortion and kidnapping. 
The diversity and extensiveness of the Haqqanis' activities makes it 
both an influential powerbroker and a feared actor.
    In April 2012, Pakistan's Parliamentary Committee on National 
Security stated that Pakistan's territory shall not be used for any 
kind of attacks on other countries and all foreign fighters shall be 
expelled from Pakistani soil. We have underscored to the Pakistani 
Government the importance of following up on these recommendations with 
concrete steps to squeeze the Haqqanis, the Quetta Shura, and other 
groups to include sharing intelligence about Haqqani operations, taking 
action to close and dismantle extremist camps and operational 
locations, and controlling its movement along the border with 
Afghanistan. At the same time, ISAF continues to target Haqqani 
operatives on the Afghan side of the border, such as Sher Mohammad 
Hakimi on August 4.

    Question. The Pakistan Business Council submits a list of suggested 
reforms to the Pakistan Government through the Finance Minister each 
fiscal year.

  <bullet> To what extent are the United States and other donors, 
        including the multilaterals, supportive of this effort and 
        what, if any, similar efforts are recognized?
  <bullet> What is the U.S. assessment of these efforts in mobilizing 
        reform?
  <bullet> What sectors and what percentage of the economy are assessed 
        to be significantly influenced by the Pakistan military?

    Answer. Pakistan's economy remains resilient but unstable. Economic 
reforms, especially in energy, revenue collection, and fiscal 
management, must be implemented to unlock its potential. We support the 
reforms proposed by the Pakistan Business Council to change the tax 
structure and widen the taxation base, which if enacted, would revive 
business confidence and help put the Pakistani economy on track to 
achieve the consistent growth needed to provide employment for its 
growing population, more than half of which is under 25 years of age. 
Engagement on economic reform is therefore an important part of our 
relationship with Pakistan. For example, we are currently negotiating a 
Bilateral Investment Treaty with Pakistan, which we believe will spur 
U.S. investment and encourage transparency in Pakistani Government 
decisionmaking. We also support the efforts of business associations 
and civil society to encourage economic reform.
    In addition to our bilateral efforts, the IMF and the multilateral 
development banks remain actively engaged in Pakistan, and work to 
advance economic reforms needed to support stabilization and 
development. We participate in the Friends of Democratic Pakistan 
(FODP) group, which has produced reports and roadmaps for the reform on 
post-conflict reconstruction requirements in the tribal areas and the 
energy sector.
    While the Pakistani Government has made some progress toward 
implementing necessary reforms to achieve more market-based electricity 
prices, reduce subsidies, and expand revenue collection, these steps 
are not enough to resolve Pakistan's macroeconomic instability. 
Political will is necessary to overcome entrenched interests. While 
business associations have spoken in favor of reform, they 
traditionally have not been strong advocates. We support efforts by the 
U.S. Chamber of Commerce through its NGO affiliate to strengthen the 
voices of these business associations.
    The Pakistani military is both a significant employer and consumer 
in Pakistan, and as such plays a central role in driving Pakistan's 
economy, particularly in the energy, agriculture, and transportation 
sectors. We do not have an estimate of the percentage of the economy 
influenced by the military, but it is significant. Two well-known 
examples of state-owned and ``private'' service providers are: (1) the 
National Logistics Cell, a military-controlled logistics company that 
manages transportation and border infrastructure, and (2) the Fauji 
Foundation, one of the largest energy conglomerates in Pakistan, with 
interests in fertilizer, cement, food, power generation, gas 
exploration, financial services, employment services, and security 
services. These entities, and others like them, employ retired military 
personnel.

    Question. The United States declaration of intent to shift its 
focus toward Asia and the Indo-Pacific region as introduced by the 
President in January and reinforced in the region by the Secretary of 
Defense recently provided considerable opportunity for India's 
important role.

  <bullet> What if any increased commitment has India made to help 
        regionally, especially in Afghanistan, as it relates to this 
        opportunity?
  <bullet> What if any redline does the U.S. assess exists in Pakistan 
        as it relates to India's assistance and investment in 
        Afghanistan?
  <bullet> What impact has been noted in Pakistan by the SECDEF 
        encouragement of India to act in Afghanistan?

    Answer. India shares our goal of a stable, secure, and prosperous 
Afghanistan, and has made significant commitments toward that end. As 
South Asia's largest economy, India is a natural partner to promote 
long-term stability and economic development in Afghanistan.
    India's commitments were formalized in the Indo-Afghan Strategic 
Partnership Agreement (SPA) signed in October 2011. In May, Indian 
External Affairs Minister Krishna and Afghan Foreign Minister Rassoul 
launched the India-Afghanistan Partnership Council to implement the 
SPA. The council is comprised of joint working groups on economic 
cooperation, political and security issues, capacity development and 
education, and civil society.
    On the security front, India provides training to several Afghan 
National Security Forces (ANSF) officers each year. As Secretary 
Panetta noted during his June trip to India, we appreciate India's 
ongoing training of ANSF officers in India, and we hope India will 
continue its support for the ANSF up to and beyond the 2014 security 
transition.
    We also appreciated the Indian Government's role in hosting the 
June 28 New Delhi Investment Summit on Afghanistan, which attracted 
broad participation from companies in the region and around the globe 
to promote stronger commercial ties and regional integration along the 
New Silk Road. A number of American companies attended the summit.
    India has pledged a total of around $2 billion in economic 
assistance to Afghanistan since 2001. During President Obama's November 
2010 visit to India, he and PM Singh announced joint projects in the 
areas of agriculture and women's development. Indian assistance has 
focused primarily on agriculture and infrastructure projects--including 
the Parliament building in Kabul, the Salma dam, and several roads and 
power lines. An Indian state-owned consortium plans to invest over $10 
billion in developing the Hajigak iron ore deposit in Bamiyan Province. 
In July, India announced that it will offer 600 scholarships to Afghan 
students over the next 5 years to study at Indian universities.
    Now that both the United States and India have signed Strategic 
Partnership Agreements with Afghanistan, we aim to enhance coordination 
and cooperation with both countries through the new India-Afghanistan-
United States trilateral mechanism announced by Secretary Clinton and 
EAM Krishna at the June 13 U.S.-India Strategic Dialogue.
    Some Pakistanis have voiced concerns about India's role in 
Afghanistan, including after Secretary Panetta's visit to India. 
Pakistan is principally concerned with India's security-related 
assistance and training of ANSF, and fears that India's military will 
one day put ``boots on the ground'' in Afghanistan. Even so, we are 
encouraged by the ongoing dialogue between India and Pakistan on a wide 
range of mutual priorities, and note that Pakistan has significantly 
improved its own commercial relations with India over the past year and 
a half, which we believe is an important element of deepening regional 
economic cooperation in the wider South and Central Asian region.
                                 ______
                                 

        Responses of James B. Cunningham to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. With the upcoming Afghanistan elections as the preeminent 
governance milestone in Afghanistan's national reemergence as a 
sovereign and independent country there are considerable steps that 
remain in achieving a reasonably free and fair election.

  <bullet> (a). Will the U.S. Embassy elevate and prioritize the 
        preparation for national elections upon which international 
        donor assistance so depends?

    Answer. We will continue to support the democratic process in 
Afghanistan in accordance with the Afghan Constitution. An orderly and 
legitimate constitutional political transition through Presidential 
elections in 2014 is critical to future Afghan stability.

  <bullet> (b). With regard to the next national election cycle in 
        Afghanistan, where will the U.S. focus its assistance and 
        according to what agreement and milestones with Afghan 
        officials?

    Answer. The 2014 political transition is first and foremost a 
question for the 
Afghan Government and people, but we stand ready to support and assist 
them. We recognize the importance of strengthening Afghanistan's 
democratic institutions in the lead up to the 2014 political transition 
and beyond, and it is a key component in our U.S.-Afghanistan Strategic 
Partnership Agreement.
    The Strategic Partnership Agreement describes Afghanistan's 
commitment to free, fair, inclusive and transparent elections, as well 
as recognizing its need for electoral reforms to reinforce democratic 
development. The Tokyo Declaration and President Karzai's July 26 
Executive order both outlined that the Presidential election will take 
place in 2014, and the Independent Elections Commission (IEC) has 
indicated its plans to hold the elections on time in spring 2014, as 
mandated in the Afghan Constitution. President Karzai also assigned the 
IEC to prepare an election platform and comprehensive electoral 
schedule within 3 months, which will enable sufficient preparation time 
for security, logistics, and candidates well before the 2014 
Presidential election.
    The U.S. Government made significant contributions to the 2009 and 
2010 elections, including programming to strengthen the IEC and 
Election Complaints Commission (ECC). For 2014, we plan to continue 
support for these election management institutions to strengthen their 
capacity to administer legitimate elections, including hiring qualified 
and impartial election officials; providing logistics support to the 
IEC; assisting the IEC in establishing a credible and cost-effective 
voter registry; and assisting in identifying and allocating polling 
locations in accordance with Afghan laws. In addition, the U.S. 
Government will continue its support for Parliament, civil society 
organizations, election monitors, political parties, media, and women's 
organizations to help build their capacity to understand and 
participate in the electoral process.

  <bullet> (c). Given your response to the question above, what will 
        other partner entities and donors likewise be responsible for 
        in preparation for the elections?

    Answer. While this is an Afghan-led process, we will continue to 
work with international partners to coordinate our support, including 
to Afghanistan's electoral institutions, as well as ensuring civil 
society organizations, election monitors, political parties and media 
play a role to ensure elections are fair and inclusive. Additionally, 
United Nations Assistance Mission in Afghanistan (UNAMA) will be 
central in coordinating the international community and engaging with 
Afghan authorities on the elections.

  <bullet> (d). Given the integral role in transition of power of 
        independent electoral complaints and adjudication mechanisms 
        such as in Mexico, it appears the Afghan Electoral Complaints 
        Commission is facing a loss of its independence and will thus 
        lose the important positive influence it had in detecting fraud 
        in the past. Will the U.S. Embassy work to maintain such a 
        capable and independent entity in Afghanistan?

    Answer. An independent electoral complaints mechanism is critical 
for advancing the credibility and legitimacy of the elections. Under 
current Afghan law, the Elections Complaints Commission is established 
120 days prior to the election and its activity ends 2 months after the 
certification of election results. The Independent Elections Commission 
submitted its recommendations for the draft electoral law, which 
includes a revision of the electoral complaints mechanism, to the 
Ministry of Justice on June 11. Under his July 26 Executive order, 
President Karzai ordered the Ministry of Justice to complete its review 
of the electoral law within 2 months. The U.S. Government is following 
this process closely. Afghans have a strong interest in a credible 
complaints process as a component of free, fair, inclusive and 
transparent elections.

    Question. The transfer of the Mazar e-Sharif consulate building 
from our own use to that of a leased facility has left in question the 
likelihood of establishing a consulate in that part of the country.

  <bullet> (a). How important is it to our national interests to 
        establish a full-fledged consulate in this part of Afghanistan?

    Answer. In 2009, Secretary of State Clinton approved the opening of 
a consulate in Mazar-e Sharif. The city is a stronghold of the former 
Northern Alliance and is comprised largely of Tajik, Uzbek, and Turkmen 
ethnic communities. Along with its political influence, Mazar is also a 
major commercial, energy, and industrial center. Mazar sits on a 
strategic transportation hub linking Afghanistan and Uzbekistan by road 
and railroad. The ethnic communities, which include members of the 
political opposition, have come to expect a U.S. permanent presence in 
the North. Neglecting this region would alienate traditional allies who 
are concerned that U.S. support for reconciliation with the Taliban 
will result in the abandonment of minority rights in favor of majority 
Pashtun interests. India, Iran, Pakistan, Russia, Tajikistan, 
Turkmenistan, Turkey, and Uzbekistan all have consulates in Mazar. We 
understand Germany, which has had a robust role in northern Afghanistan 
in the last decade, is also considering opening a consulate there.

  <bullet> (b). What role would each proposed/existing U.S. consulate 
        play in our relations with Afghanistan and the region?

    Answer. The Department of State's enduring presence plan for 
Afghanistan's civilian mission post-2014 consists of the Embassy in 
Kabul and four regional platforms in Kandahar, Herat, Mazar-e Sharif 
and Jalalabad. This residual civilian presence will be a visible sign 
of American resolve and vigilance. An enduring presence countrywide is 
the most effective way to further our strategic goals of disrupting and 
defeating terrorists, promoting regional stability, fostering good 
governance, and ensuring economic growth. The ``hub and spoke'' mission 
will promote the reintegration and reconciliation of former insurgents, 
monitor and report on political and social trends that impact Afghan 
stability and democracy, and work to strengthen the Afghan Government's 
capacity to govern, deliver services to the population and enforce rule 
of law.

  <bullet> (c). What is the timeline and prospect for the U.S. 
        consulates in Afghanistan as we observe and glean lessons from 
        our Iraq experience, including the continuing contraction 
        there?

    Answer. Drawing on lessons learned from Iraq, the Department of 
State has utilized a ``whole of government'' approach in planning our 
enduring presence with a goal of leveraging all U.S. Government 
capabilities across all agencies to avoid duplication and redundancy. 
In each location we have colocated or will colocate with interagency 
partners.

  <bullet> (d). How does our relationship in Afghanistan over the next 
        10-20 years compare with Iraq over the same period?

    Answer. Our planned relationship with Afghanistan is well described 
in the Strategic Partnership Agreement, which is echoed by 
international agreements reached at the NATO summit in Chicago and 
Tokyo Conference on Afghanistan, which lay out mutual commitments 
between the Government of Afghanistan and the international community 
for continued reform and sustained international assistance. On our 
likely relationship with Iraq over the next 10-20 years, I am not in a 
position to reflect upon that. However, I can say that we are applying 
lessons we have learned from Iraq to Afghanistan.

    Question. The United States has had the preeminent responsibility 
for the training and equipping of the Afghan National Security Forces.

  <bullet> (a). Provide a breakdown of current ANA capacity in defense 
        of Afghanistan, including the number and ethnic makeup of the 
        enlisted, senior enlisted and officer corps; the critical 
        equipment and respective shortfalls in critical equipment; the 
        current general dispersal of the force around the country and 
        their responsibility for current operations. Extract further 
        the ethnic breakdown by faction and identify their region of 
        influence within Afghanistan and neighboring areas.
  <bullet> (b). Provide a breakdown of the current ANP capacity in 
        securing the population of Afghanistan, including the number 
        and ethnic makeup of the enlisted and officer corps as well as 
        that of the Ministry of the Interior.
  <bullet> (c). Provide a breakdown of the LDP by province, including 
        the number and associated training of forces. Include any 
        additional formal security elements trained or being trained to 
        cooperate with the Government of Afghanistan.

    Answer. The NATO-led NATO Training Mission Afghanistan (NTM-A) has 
the lead for the training, advising, and equipping of the Afghan 
National Security Forces. NTM-A is led by a three-star U.S. general who 
is dual-hatted as the commander of the U.S. training command, Combined 
Security Transition Command-Afghanistan (CSTC-A).

    (a). The Afghan National Army (ANA) currently has approximately 
185,000 personnel as of June, 2012. Overall, the ethnic breakdown 
reflects the demographics of Afghanistan and NTM-A supports the Afghan 
Ministry of Defense's (MOD) recruiting efforts to maintain the balance 
throughout the forces. According to the U.S. Department of Defense's 
April 1230 Progress Report on Security and Stability, NTM-A and the MOD 
also continue efforts to recruit southern Pashtuns as well as improve 
the overall ethnic balance of the ANA. Using the MOD and NTM-A-agreed 
definition for Southern Pashtuns,\1\ this ethnic segment comprised 6.6 
percent of enlisted recruits during the reporting period. Despite 
persistent efforts, the impact of the initiatives in the south remains 
marginal due to the security situation.
---------------------------------------------------------------------------
    \1\ Southern Pashtuns are defined as belonging to the following 
tribes: Ghilzai, Durrani, Zirak, Mohammadzai, Barakzai, Alikozai, 
Achakzai, Popalzai, Panjpao, Alizai, Ishaqzai, Tokhi, Hotaki, Khogiani.
---------------------------------------------------------------------------
    NTM-A and CSTC-A continue to procure equipment and invest in 
capital and infrastructure expenditures through 2014, when investment 
funding requirements are expected to finish and costs will revert 
solely to recurring equipping needs. As additional equipment becomes 
available, NTM-A will continue to fill corps units to 100 percent.
    The ANA is regionally disbursed throughout Afghanistan, but mobile 
in order to respond to operational needs as they develop. Their 
regional placement is based on MOD coordination with the International 
Security Assistance Force (ISAF) to target the insurgency and provide 
critical Afghan National Security Force (ANSF) units to lead operations 
and security in three tranches of transitioning provinces and 
districts, covering 76 percent of the Afghan population.

    (b). The Afghan National Police (ANP) have an estimated 146,000 
personnel as if June 2012. NTM-A/CSTC-A work closely with the Ministry 
of Interior to ensure the ANP generally reflects the ethnic makeup of 
local communities, which is enhanced by the fact that ANP often serve 
in the area where they join the force. However, when aggregated at the 
national level, Tajiks are significantly overrepresented in the force, 
Pashtuns are represented proportionally to the Afghan population, and 
Hazara, Uzbeks and others are underrepresented to varying degrees.

    (c). At this time, State, the Department of Defense and NTM-A are 
not involved in a force known as Local District Police (LDP). The 
Afghan Local Police (ALP) are village-based security forces 
administered by the Afghan MOI and trained through U.S. Special 
Operations Forces. As of April, the ALP totaled 12,660, with an 
approved ceiling of 30,000 police. The MOI has approved 99 districts 
for ALP units, largely focused along the ring road in the south and 
east, but also operating in the north and west.

    Question. The ``New Silk Road'' effort by the USG has shown some 
prospect for attracting economic development interest around the idea 
of moving goods/trade overland between central and south Asia.

  <bullet> (a). What infrastructure requirements are there to 
        facilitate such a trade corridor and through what transit 
        points in Afghanistan and Pakistan are there?

    Answer. The State Department views the New Silk Road vision as an 
organizing principle for long-term development and sustainable economic 
security for Afghanistan with a focus on regional integration and 
private sector engagement. It does not consist of a single list of 
projects, but is rather a framework used to inform broader decisions 
about U.S. assistance. Expanded trade corridors are an important 
regional initiative consistent with the New Silk Road vision.
    Infrastructure requirements to implement these trade corridors are 
planned and coordinated between governments and donors through regional 
initiatives, including the Regional Economic Cooperation Conference on 
Afghanistan (RECCA), the South Asian Association for Regional 
Cooperation (SAARC), and the Central Asia Regional Economic Cooperation 
(CAREC) program. Afghanistan's policy paper ``Towards Self Reliance,'' 
presented at the recent Tokyo Conference, confirmed their commitment to 
apply modern systems and approaches to facilitate transit and trade 
among regional neighbors.
    CAREC, funded by the Asian Development Bank, has identified six 
trade corridors in Central Asia, with Afghanistan situated at the heart 
of two corridors, consisting of existing and planned infrastructure. 
The State Department and USAID will initially focus primarily on 
Corridor 5 (from India to Pakistan, through Afghanistan, and into 
Central Asia via Tajikistan and Kyrgyzstan to China) as a proof of 
concept, while simultaneously looking for opportunities to remain 
engaged in Corridor 6 (from Afghanistan through Uzbekistan and 
Kazakhstan and on to Europe).

  <bullet> (b). What is the status of these infrastructure elements? 
        Roads/rail/terminals/cold storage/security/customs and duty/
        fuel etc.

    Answer. The Fifth RECCA, held in March of this year, identified a 
number of infrastructure projects that will improve regional trade 
links. These include the Afghan Rail System, the Salang Tunnel and 
Bypass Road, the E-W Road Corridor, and the Kabul-Jalalabad-Peshawar 
Highway. These projects are currently in the planning or construction 
phases. The first phase of the Afghan rail system, connecting the 
economic hub of Mazar-e-Sharif to Uzbekistan, became operational 
earlier this year.
    USAID, coordinating with the State Department, has begun a process 
to realign its assistance priorities in Central Asia and South Asia to 
support the New Silk Road vision. The primary initial focus of this 
realignment will be support of cross-border trade and transit along 
CAREC's Corridor 5, including through technical assistance to improve 
the regulatory environment and increase private sector engagement. The 
Department of State and USAID will also work to engage with 
international financial institutions to encourage investments in cross-
border energy projects, such as CASA 1000 (involving the Kyrgyz 
Republic, Tajikistan, Afghanistan, and Pakistan).

  <bullet> (c). Describe the existing corridor that runs through 
        eastern Iran and its condition and planned improvements as well 
        as any additional routes?

    Answer. Trade routes to Iran through Islam Qala and Zaranj involve 
greater distances, significant logistical challenges, and higher 
transit costs relative to comparable transit trade routes through 
Pakistan. However, these routes have seen increased use following 
persistent trade disruptions between Afghanistan and Pakistan. 
Afghanistan and Pakistan are in the process of resolving disagreements 
and fully implementing the Afghanistan-Pakistan Transit Trade Agreement 
(APTTA), which will ensure a harmonization of trade policies. The lower 
barriers facilitated by APTTA make routes through Pakistan more 
attractive for Afghan traders who are currently undertaking transit 
trade through Iran. We will continue to work with both sides to 
encourage these efforts.

  <bullet> (d). What are the associated revenues for current trade 
        through this alternative Iranian route and what are the 
        projected revenues associated with a corridor that incorporates 
        the Transit Trade Agreement between Pakistan and Afghanistan?

    Answer. While we are making significant improvements in the customs 
capacity for trade across the Iranian border, we have limited data at 
present. We have not performed an analysis of trade revenues comparing 
the Iran routes with the Pakistan routes under the scenario of a fully 
functional APTTA, but we expect that APPTA, once implemented, will 
significantly increase Afghanistan's trade revenues.
                                 ______
                                 

        Responses of James B. Cunningham to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. As we move toward the 2014 Presidential elections, the 
Afghan electoral process continues to be a major source of concern. In 
particular, I am concerned that neither the Independent Electoral 
Commission (IEC) nor the Electoral Complaints Commission (ECC) can be 
trusted to ensure a fair and transparent process. Afghan authorities 
need to take steps now to reform these institutions and create public 
confidence in the process.

  <bullet> (a). As Ambassador, how will you work to increase the 
        independence of Afghanistan's electoral institutions, 
        specifically the IEC and the ECC, in advance of the 2014 
        elections?

    Answer. We have and will continue to support the democratic process 
in Afghanistan in accordance with the Afghan Constitution. An orderly 
and legitimate political transition through Presidential elections in 
2014 is key to future Afghan stability. This political transition is an 
internal Afghan process, but we stand ready to assist them in any way 
we can. We recognize the importance of strengthening Afghanistan's 
democratic institutions in the lead up to the 2014 political transition 
and beyond. As such, it was a central component in our U.S.-Afghanistan 
Strategic Partnership Agreement. Additionally, we will continue to work 
with international partners to provide appropriate support, including 
to Afghanistan's electoral institutions.
    The Afghan Parliament is currently considering electoral reform 
legislation that would determine how the Independent Election 
Commission (IEC) commissioners are appointed and what their duties are. 
We support the Afghan legislative process and are encouraged that civil 
society groups and political parties have engaged in a debate over what 
would be appropriate checks and balances to enhance the independence of 
the IEC and Electoral Complaints Commission (ECC). We also note that 
the Afghan Government has committed to holding ``free, fair, inclusive, 
and transparent'' elections in both the U.S-Afghanistan Strategic 
Partnership Agreement and the Tokyo Declaration.
    The U.S. Government made significant contributions to the 2009 and 
2010 elections, including programming to strengthen the IEC and ECC. We 
aim to continue this line of effort for 2014. We plan to support the 
election management institutions and strengthen their capacity to 
administer legitimate elections, including supporting the IEC to hire 
qualified and impartial election officials; provide logistical support; 
establish a more credible voter registry; and to identify and allocate 
polling locations in accordance with Afghan laws.
    In the Afghan public sphere, a wide-ranging and public discussion 
is already taking place on the reforms needed to improve the electoral 
process. Actors across the political spectrum are having public 
dialogues debating electoral reforms, including in the Independent 
Election Commission, political parties, and civil society 
organizations.

  <bullet> (b). How will you work to encourage the participation of all 
        of Afghanistan's 
        diverse ethnic groups in the electoral process, and how 
        important will this be for the success of the political 
        transition and political stability?

    Answer. We recognize that only an inclusive political process, 
acceptable to all Afghans regardless of ethnic background or gender, 
can bring lasting peace to Afghanistan and the region. Everyone must 
feel they have a stake in the outcome and a responsibility for 
achieving it.
    We have engaged and will continue to engage with all legitimate 
political actors in Afghanistan. We regularly meet with Afghan leaders 
both in and out of government. We continue to stress to the Afghan 
Government the importance of inclusive, credible, transparent, and 
constitutional elections as the 2014 elections will be key to shaping a 
peaceful and democratic future for Afghanistan. The Afghan Government 
includes members of all ethnic groups and backgrounds, including 
members of the former Northern Alliance, the Afghan Parliament, and the 
High Peace Council. Similarly, a successful political transition will 
need to equally encompass all Afghans--including opposition groups, 
women, and civil society.

    Question. A new report by the Special Inspector General for Afghan 
Reconstruction indicates that two major U.S. funded infrastructure 
projects, designed to build popular support for the Afghan Government, 
demonstrate a long-term commitment to the Afghan people, and improve 
relations between NATO forces and Afghan civilians, are severely behind 
schedule and are unlikely to be completed before the 2014 troop 
drawdown. In addition to costing taxpayers $400 million, the projects' 
delays may jeopardize key counterinsurgency goals.

  <bullet> (a). Why have these projects been so severely delayed, and 
        what additional costs will be associated with the longer 
        project timeline?

    Answer. Over the last 18 months, the Department of State has worked 
closely with the Department of Defense and the U.S. Agency for 
International Development to identify, design, and execute projects 
funded by the Afghanistan Infrastructure Fund (AIF). The Afghanistan 
Infrastructure Fund is a new authority designed to improve the 
coordination and execution of infrastructure projects in Afghanistan to 
maximize counterinsurgency and development impact. Establishing the 
management processes and structures has taken time, but at this point 
we feel strongly that the new authority has greatly improved 
interagency coordination and communication with the Government of 
Afghanistan on infrastructure projects that contribute to the future 
stability of the country. Infrastructure development in a war zone is 
never easy; several projects have been delayed because we took 
additional steps to notify, manage, and execute activities to ensure 
proper accountability. We also revised project procurements to attract 
cost-effective bids and to ensure that implementing agencies had the 
staffing necessary to properly oversee the work. These projects were 
never tied to the schedule for the troop drawdown.
    Project costs increased from initial estimates following receipt of 
the first bids from qualified vendors. Despite these delays, we expect 
to complete on time the AIF transmission line project for southern 
Afghanistan.

  <bullet> (b). What is your assessment of the impact of these delays 
        on the projects' goals of improving public perceptions of the 
        U.S. and Afghan Governments, particularly in light of the 
        planned timeline for drawing down international troops?

    Answer. We do not agree with the SIGAR's assertion that extension 
of the project timeframes will have a significant negative effect on 
the counterinsurgency and the development impact. It has been our 
experience that all stages of infrastructure projects, which provide 
essential services that the insurgency could never offer to the Afghan 
people, have a positive impact. The planning stage of these long-term 
projects gives clear assurance of the enduring commitment of the United 
States to the people of Afghanistan. The construction phase creates 
employment and helps stabilize conflict areas. Final completion opens 
the way for greater economic opportunity.
    The United States Government is working hard to make sure our 
investments in Afghanistan are sustainable. In our discussions with the 
Committee on Foreign Relations staff, we have looked for ways to 
improve the sustainability of projects under the Afghanistan 
Infrastructure Fund (AIF). In order to increase ownership and develop 
the capacity of the Afghan Government to sustain these projects, 
several AIF projects will be implemented on-budget, or through the 
Afghan Government. Though the AIF was conceived as a counterinsurgency 
program, it provides positive impacts for Afghanistan's economic 
development. We believe that the Government of Afghanistan's 
involvement in the implementation of these infrastructure projects 
improves sustainability of projects. However, ensuring proper oversight 
and financial accountability for these projects has added time to their 
implementation.
                                 ______
                                 

         Responses of Richard G. Olson to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. Haqqani Network.--The Senate approved legislation last 
week that would require the State Department to report on whether the 
Haqqani network should be designated a Foreign Terrorist Organization. 
I traveled to RC East last August where the Haqqani Network has been 
responsible for the deaths of American service members. The Haqqani 
Network manufactures IEDs used against our troops and has conducted 
suicide attacks in Kabul. These are terrorist acts. However, the 
Haqqanis could play spoilers if they are not included in political 
negotiations to bring hostilities to a close.

  <bullet> Based on the terrorist activities of the Haqqani Network, 
        should it be designated as an FTO? If the Haqqani Network were 
        designated a terrorist organization, what impact would this 
        have on the negotiation process? Is there really any hope that 
        the Haqqanis will come to the negotiating table and play a 
        constructive role post-2014?

    Answer. I share Congress' serious concern about the Haqqanis. In 
meetings with Pakistani officials, we have raised and continue to 
underscore the importance of further squeezing the Haqqanis, including 
by limiting its ability to conduct attacks from Pakistani soil. We have 
a whole-of-government effort underway to apply pressure to the 
Haqqanis. Our troops in Afghanistan continue to pressure the Haqqanis, 
inflicting heavy losses. A key Haqqani leader was killed as recently as 
July 28 during a joint ISAF/Afghan operation in Paktiya province. State 
and Treasury have also sanctioned key Haqqani leaders under Executive 
Order 13224.

  <bullet> Sirajuddin Haqqani was designated by the Department of State 
        in 2008, while key members Badruddin Haqqani, Sangeen Zadran, 
        and Mali Khan were all designated in 2011. The Department of 
        the Treasury has also designated additional Haqqani members and 
        we have worked with the Department of Commerce to list Haqqani-
        affiliated businesses on the Department of Commerce's Entity 
        List. With Executive Order 13224 designations, any assets of 
        the designated individual that are in the United States or held 
        by a U.S. person are frozen. Further, the U.S. Government can 
        pursue legal action against those who conduct unauthorized 
        transactions with designated individuals.
  <bullet> The international community has added key Haqqani leaders to 
        the sanctions list under United Nations Security Council 
        Resolution 1988. This resolution requires states to impose 
        asset freezes and arms embargos on listed individuals and 
        entities and travel bans on listed individuals.

    The Department of State is reviewing the possibility of additional 
sanctions, including a Foreign Terrorist Organization designation for 
the entire Haqqani organization.

    Question. I was privileged to meet with Pakistan's former Minister 
for Minority Affairs, Shahbaz Bhatti, shortly before he was 
assassinated last year. His tragic death, and the lack of 
accountability for those who were responsible, has understandably 
discouraged others from openly opposing Pakistan's blasphemy law and 
promoting religious tolerance.

  <bullet> As Ambassador, how would you partner with the current 
        Minister for Minority Affairs, Dr. Paul Bhatti, and other 
        minority leaders to combat religious intolerance? How will you 
        work with the Pakistani Government to push for increased 
        protection for religious minority groups?

    Answer. If confirmed, I will continue the Embassy's engagement with 
the Government of Pakistan on the deteriorating state of religious 
freedom in the country. I will emphasize the importance of prosecuting 
those who commit religiously motivated acts of violence, such as the 
assassinations of Minister of Minority Affairs Shahbaz Bhatti and 
Punjab Governor Salman Taseer in 2011. We will work with the current 
Minister of National Harmony, Dr. Paul Bhatti, and other minority 
leaders to help Pakistan reform laws that unfairly punish Muslims and 
non-Muslims alike and promote religious discrimination. I will also 
press the Pakistani Government to better protect religious minorities 
and individuals who defend religious freedom.

    Question. The United States and Pakistan have historically had some 
ups and downs in our bilateral relationship, but it is clear that we 
need to work together to address the challenges facing the region. For 
this reason, I am committed to supporting a long-term multidimensional 
relationship with Pakistan.

  <bullet> How can we leverage people-to-people ties with Pakistan, 
        including business connections, student exchanges, civil 
        society collaboration, and the large diaspora population here 
        in the United States, to forge a lasting, multidimensional 
        partnership between our two countries?

    Answer. If confirmed, I will continue the work to strengthen 
people-to-people ties between the United States and Pakistan. Over the 
course of the last 2 years, we have worked to significantly expand 
cultural affairs programs and professional and academic people-to-
people exchanges. These programs build cooperation between our 
countries and bring Pakistanis together with Americans in meaningful 
ways.
    Embassy Islamabad, in partnership with the Bureau of Education and 
Cultural Affairs, manages the largest U.S. bilateral academic and 
professional development exchange programs in the world, as well as the 
largest English Access Microscholarship Program. The exchange and 
English language programs are among the most successful tools we have 
to foster positive Pakistani opinions about the United States and to 
counter extremist voices. In the past 12 months, the Embassy also 
implemented over 60 speaker programs, reaching more than 15,000 
Pakistanis, and engaged many more through music programs with U.S. 
musicians. Beyond the goodwill and understanding these programs 
generate, they are building a cadre of Pakistanis with a deeper 
knowledge of the United States and a constituency that is supportive of 
a strong United States-Pakistan partnership. The Department of State 
and USAID are also working to establish several United States-Pakistan 
university partnerships, to foster lasting cooperation in a variety of 
academic and research sectors.
    The Department of State and Embassy Islamabad continue to nurture 
relationships with a diverse group of diaspora entrepreneurs and NGOs 
to advance the goals of private sector development and job growth in 
Pakistan. The Department's growing engagement with young Pakistani 
entrepreneurs offers an example of how private-sector engagement can 
enhance relations between the two countries. We recently facilitated a 
series of events for Pakistani entrepreneurs to share ideas and explore 
opportunities with U.S. entrepreneurs, including video-teleconferences 
that have been streamed into dozens of Pakistani universities. This is 
part of our effort to do what Pakistanis have been asking us to do for 
many years--to build an economic relationship based on trade, not just 
aid. The Department also recently hosted over a dozen leaders of 
Pakistan's fastest-rising companies for policy briefings and networking 
events with members of American companies and diaspora groups. These 
leaders are part of the ``Pakistan 100,'' chosen by the All World 
Network (AWN), an organization affiliated with Harvard University that 
bolsters entrepreneurship in emerging markets.
    In the United States, we have significantly increased our efforts 
to engage the diaspora community. The Pakistani American community is 
well accomplished and has leaders in the fields of medicine, business, 
education, the arts, and sciences. This community is directly 
contributing to improving the livelihood and welfare of Americans, and 
also plays an important role in linking business communities in the two 
countries. Pakistan relies heavily on philanthropy and innovative 
social entrepreneurship to fill in gaps in its social net. We continue 
to ask the diaspora to help push the Government of Pakistan toward 
vital economic reforms, including on taxation, regulation, and 
pricing.Our goal through all of our multifaceted outreach and people-to 
people exchanges is to create permanent links between Pakistan and the 
United States that will strengthen our mutual understanding and 
facilitate progress on key interests.

 
   NOMINATIONS OF JOSEPH MACMANUS, SHARON VILLAROSA, AND WALTER NORTH

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Joseph E. Macmanus, of New York, to be Representative of the 
        United States of America to the Vienna Office of the 
        United Nations and to be Representative of the United 
        States of America to the International Atomic Energy 
        with the rank of Ambassador
Sharon English Woods Villarosa, of Texas, to be Ambassador to 
        the Republic of Mauritius and the Republic of 
        Seychelles
Walter North, of Washington, to be Ambassador to Papua New 
        Guinea, the Solomon Islands, and the Republic of 
        Vanuatu
                              ----------                              

    The committee met, pursuant to notice, at 2:47 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tom Udall, 
presiding.
    Present: Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. I would call this hearing of the Senate 
Foreign Relations Committee to order. And let me just--I have 
just a preliminary statement and something here I would like to 
do before we really get started. And welcome to all of you.
    Today the Senate Foreign Relations Committee mourns the 
loss of four brave Americans in Libya, including our 
Ambassador, John Christopher Stevens. As many of you probably 
know, Ambassador Stevens was very close to this committee. He 
was a Pearson fellow. He worked for Senator Lugar, our ranking 
member. A Foreign Service Information management officer, Sean 
Smith, and two other victims have not yet been officially named 
out of respect for their need to contact their next of kin.
    I strongly condemn what the President has already correctly 
defined as an outrageous attack on our diplomatic facility in 
Benghazi. This is a tragic loss, and our thoughts and prayers 
go out to the families and friends of the victims.
    I, like other members of this committee, had met with 
Ambassador Stevens to discuss the changes occurring in Libya. 
He had expressed a hope that Libya would emerge a strong 
democratic state which respected the rule of law and the 
principles of freedom and justice that we as Americans cherish. 
Ambassador Stevens knew there was much work to be done. I have 
no doubt that President Obama has stated that his legacy will 
endure wherever human beings reach for liberty and justice.
    Before we begin this hearing to consider the nominations of 
three other Americans who continue to serve our country 
courageously, I would like to ask the committee to take a 
moment of silence to remember and honor the Americans who were 
unjustly killed in Libya and all other Americans who serve our 
country overseas every day. These individuals have all made 
extraordinary sacrifices, and their service deserves our 
recognition. And I would ask for a moment of silence here.

    [Moment of Silence.]

    Senator Udall. Thank you very much, and thank you to the 
three nominees for being here. Today the committee will 
consider these three nominees--Mr. Joseph E. Macmanus of New 
York. If confirmed, he will serve as Representative of the 
United States of America to the Vienna office of the United 
Nations, and to be Representative of the United States of 
America to the International Atomic Energy Agency, with the 
rank of Ambassador. Ms. Sharon English Woods--in New Mexico we 
would say Villarosa. I do not know if that is--is that OK? We 
always do the two ``Ls'' with a ``Y,'' but you can correct me 
here--but of Texas, would serve as Ambassador to the Republic 
of Mauritius and the Republican of Seychelles. And Mr. Walter 
North of Washington would serve as Ambassador to Papua New 
Guinea and the Solomon Islands and the Republic of Vanuatu.
    All three nominees are very well qualified and will be 
serving in areas of world importance for national security and 
the long-term diplomatic goals of the United States.
    The United States mission at Vienna and the International 
Atomic Energy is a position which focuses on some of the most 
serious issues confronting the world, including the work to 
prevent the proliferation of nuclear weapons. In addition to 
this work, the United States mission to international 
organizations in Vienna works with the U.N. Office on Drugs and 
Crime, the Preparatory Commission of the Comprehensive Test-Ban 
Treaty Organization, and the U.N. Office of Outer Space 
Affairs, and the U.N. Commission on International Trade Law.
    Mr. Macmanus is a career member of the Senior Foreign 
Service. His previous positions include work as the Principal 
Deputy Assistant Secretary of State for Legislative Affairs, 
and Executive Assistant to Secretary of State Hillary Clinton 
and former Secretary of State, Condoleezza Rice. He has served 
as the consular for public affairs in Brussels, Belgium, the 
public affairs officers in Krakow, Poland, as well as positions 
in El Salvador Mexico.
    He has a bachelor's degree from the University of Notre 
Dame, as well as an MLS from the State University at Buffalo.
    Mr. Macmanus will need to bring his years of experience to 
bear to work on some of the most critical issues facing the 
United States and our allies. His work with IAEA will bring him 
to the forefront of our efforts to prevent Iran from developing 
a nuclear weapon, preventing the proliferation of nuclear 
materials and technology from North Korea and Pakistan, and 
meeting the peaceful objectives of the IAEA.
    With regard to Iran, the President is making a strong 
effort to prevent Iran from acquiring a nuclear weapon. The 
sanctions are putting pressure on the Iranian regime, and the 
administration is working with our allies to tighten those 
sanctions. Continued negotiations and access for IAEA 
inspectors are critical tools to prevent Iran from obtaining a 
nuclear weapon.
    While the administration has reportedly concluded that Iran 
is ``not on the verge of achieving a nuclear weapon,'' it is 
important to remain vigilant about the threat. Thus far, the 
main concerns center around Iran's continuing enrichment of 
uranium to levels up to 20 percent. While not weapons grade, 
the enrichment to such levels has rightly raised the concerns 
of the international community and the IAEA. I concur with the 
administration that there is time and space to continue to 
pursue a diplomatic path. I also agree with the IAEA that Iran 
should immediately open all sites to IAEA's inspectors in order 
for the IAEA to fully resolve its outstanding issues.
    Mr. Macmanus, your work representing the United States at 
the IAEA will be critical to achieving these goals.
    In Mauritius and the Seychelles, Ms. Villarosa will work 
with a country actively working to protect the sea-lanes 
against piracy. Mauritius recently agreed to open its courts 
and jails to aid the prosecution of pirates who operate with 
impunity inside Somalia. This work is important for global 
trade and the U.S. economy and the local economies of Mauritius 
and the Seychelles. The Seychelles and the United States 
military have also been increasing partnerships to help patrol 
sea-lanes and counter piracy in the region.
    Ms. Villarosa has years of experience as a Foreign Service 
officer. She has served as Deputy Coordinator for Regional 
Affairs in the Office of the Coordinator for Counterterrorism 
at the Department of State, Chief of Mission at the U.S. 
Embassy in Rangoon, and Director of the Philippines, Malaysia, 
Brunei, and Singapore Affairs in the Department of State's East 
Asia and Pacific Bureau, and numerous other positions.
    She holds a bachelor's degree from the University of North 
Carolina at Chapel Hill and a law degree from William and Mary 
School of Law.
    Mr. Walter North will also be serving U.S. interests in 
multiple island countries. If confirmed, he will serve in Papua 
New Guinea, the Solomons, and Vanuatu. These Pacific nations 
are known to most Americans because of the deadly battles which 
occurred in and around these islands during World War II. The 
United States has been a long-time friend, and we remember the 
efforts to free the islands from Japanese control.
    Today one of the biggest threats to the Solomons is not 
from 
foreign militaries, but from the growing threat of rising sea 
levels due to climate change. Mitigating against sea-level rise 
and protecting the livelihood of inhabitants is one of the most 
important priorities for the Solomons, as well as Vanuatu. 
Small island developing nations are extremely vulnerable to 
climate change. Many of the low elevation islands in the 
Pacific and other regions may disappear over the next century, 
causing mass migrations, conflict, and disruptions to trade and 
the global economy. I believe that this and maintaining 
sustainable economic development is one of the most important 
challenges facing the next Ambassador to the region.
    Mr. Walter North is currently the United States Agency for 
International Development Mission Director in Egypt, and 
previously served as USAID Mission Director in neighboring 
Indonesia as well as India and Zambia. Posts at USAID in 
Washington headquarters have included Interim Assistant 
Administrator for the Bureau for Africa, Deputy Assistant 
Administrator for the Bureau for Policy and Program 
Coordination, and Deputy Assistant Administrator for the Bureau 
for Asia and the Near East.
    Before joining USAID in 1980, Mr. North was a project 
manager for the nonprofit organization, CARE, in India and 
Bangladesh, and a Peace Corps Volunteer in Ethiopia. He 
received his bachelor's degree from Lawrence University, a law 
degree from Washington University Law School, and an MPA from 
Harvard University.
    And as all of you can see, we have three very capable 
individuals before us.
    Senator Udall. Since I started with Mr. Macmanus and then 
work down the line here. Mr. Macmanus, why do we not start with 
you on your opening statement, and then we will move to Ms. 
Villarosa, and then to Mr. Walter North. Thank you for being 
here, and please feel free--we know how important your families 
are to you and how--I know in the foreign service they really 
back you up. In all of my travels, it has been a remarkable 
thing to see how much family is involved. So please feel free 
whoever is here to introduce them and give a shout out to them.
    Mr. Macmanus.

      STATEMENT OF JOSEPH E. MACMANUS, OF NEW YORK, TO BE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE VIENNA 
 OFFICE OF THE UNITED NATIONS AND TO BE REPRESENTATIVE OF THE 
  UNITED STATES OF AMERICA TO THE INTERNATIONAL ATOMIC ENERGY 
              AGENCY, WITH THE RANK OF AMBASSADOR

    Mr. Macmanus. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today as President Obama's 
nominee for the position of Chief of Mission to the U.S. 
Mission to International Organizations in Vienna and as the 
U.S. Permanent Representative to the International Atomic 
Energy Agency, also in Vienna. I am grateful to the President 
and to the Secretary for their trust and support, and to this 
committee for your consideration of my nomination.
    I am joined today by my wife, Carol Krumback Macmanus, and 
our son, Chris Macmanus. I am forever grateful for their love 
and support throughout our long career in the Foreign Service. 
I will refrain from mentioning all of the Macmanuses who 
populate the rest of the country, sir. It would take too much 
time. [Laughter.]
    Mr. Chairman, I have submitted to the committee a written 
statement for the record. I would like to briefly summarize 
some of the points covered there, if I may.
    Briefly by way of introduction, I have been a Career 
Foreign Service officer for the past 26 years and a member of 
the Senior Foreign Service since 2003. During this time, as you 
noted, I have served abroad in Central and Western Europe and 
in Latin America, as well as in Washington.
    At the Department, I have held successive positions of 
increasing responsibility as an office director, deputy 
assistant secretary, principal deputy assistant secretary, and, 
most recently, as Acting Assistant Secretary in our Bureau of 
Legislative Affairs. In these positions, I have managed foreign 
policy portfolios that have included every major region and 
issue, including those appropriate to the work of the U.S. 
mission to the international organizations in Vienna, the 
position for which I have been nominated.
    For the past 5 years, I have been a senior aide and advisor 
to two Secretaries of State--for Secretary Clinton from 2009 
until the present, and previously for Secretary Rice from 2008 
until 2009. As the Secretary's executive assistant, I 
participated in daily policy meetings and bilateral and 
multilateral meetings in Washington, and traveled extensively 
with both Secretaries on official travel abroad.
    In this capacity and in the 5 years prior while serving in 
leadership positions in our Bureau of Legislative Affairs, I 
coordinated policy and strategy across the broad spectrum of 
foreign policy issues, and participated in senior-level 
discussions on these issues in the Department, in interagency 
meetings and processes, and of course with the Congress.
    If confirmed as the chief of mission, I will provide policy 
direction and leadership to our political and public diplomacy 
efforts in Vienna in close coordination with other 
international affairs agencies in Washington, with the White 
House, and in consultation with the Congress. I will also lead 
an impressive interagency team of technical and political 
experts assembled in Vienna, who advocate for U.S. national 
security and foreign policy interests there.
    The work of the U.S. mission in Vienna, and, Senator, you 
touched on this, pursues many important foreign policy purposes 
crucial to our national security. I will highlight just a few.
    At the IAEA, the U.S. mission encourages the strengthening 
of nonproliferation capabilities, such as integrated 
safeguards, the securing of nuclear facilities and materials 
against the threat of terrorism, and the resolution of serious 
concerns related to nuclear programs in Iran, North Korea, and 
Syria.
    The UNVIE mission--the short form of that long title that 
we deal with--assists in the establishment of standards and 
practice in the safety of nuclear facilities and materials, and 
in the development of normative standards that guide and 
instruct member-states in their management of nuclear 
technology. The mission also assists in the development of 
monitoring networks that provide an increasingly sophisticated 
capability to deter nuclear detonations around the world.
    As a benefit of the Comprehensive Nuclear Test-Ban Treaty, 
this international monitoring system is a key instrument in 
tracking treaty adherence, and confronting treaty violations, 
and in deterring states that fear the risk of such detection. 
The IMS, or International Monitoring System, has also 
contributed to nuclear safety monitoring by providing valuable 
data about the spread of radioactivity following most recently 
the Fukushima nuclear power plant disaster.
    Finally, in the U.N. Office on Drugs and Crime, the UNVIE 
mission provides leadership in coordinating counternarcotics 
efforts around the world, principally in Central Asia, and in 
addressing the continuing harassment and damage caused by 
modern-day piracy.
    If confirmed, I will apply my Foreign Service experience to 
the purpose of leading our mission in Vienna as we address the 
serious challenges of nonproliferation, nuclear security, and 
nuclear safety, while promoting the potential benefits of 
nuclear technology.
    Mr. Chairman, it is worth noting that while we meet here, 
the IAEA Board of Governors is also meeting in Vienna to take 
up many of the same issues I have touched on here and in my 
written statement. These issues will continue to be the 
specific focus of our concern and our diplomacy and will 
continue to be the subject of deliberation by the Congress.
    I appreciate the committee's consideration of my 
nomination, and if confirmed I look forward to working closely 
with the members 
of this committee and with Congress on the careful work of 
securing peace and security in a world safe from the 
proliferation of 
nuclear weapons, and advancing the peaceful benefits of nuclear 
technology.
    Thank you, Mr. Chairman, and I welcome your questions.
    [The prepared statement of Mr. Macmanus follows:]

                 Prepared Statement of Joseph Macmanus

    Thank you, Mr. Chairman and members of the committee. It is an 
honor for me to appear before this committee as President Obama's 
nominee to serve as the United States Representative to the Vienna 
Office of the United Nations (UNVIE) and to be the United States 
Representative to the International Atomic Energy Agency (IAEA). I am 
grateful to President Obama and Secretary Clinton for the confidence 
they have placed in me.
    This is a critical time for our Nation and for our allies and 
partners. We face unprecedented challenges in the areas of nuclear 
nonproliferation, terrorism, transnational crime and corruption, the 
environment, and the peaceful utilization of outer space. Increasingly 
interrelated global challenges mean that our sustained engagement with 
specialized international organizations such as those in Vienna is 
vital to helping us to protect and advance our national interests 
abroad and the well-being of Americans at home.
    I have been a Career Foreign Service officer for the past 26 years, 
and a Senior Foreign Service officer since 2003. During this time, I 
have served abroad in Central and Western Europe and in Latin America, 
as well as in Washington. At the Department, I have held successive 
positions of increasing responsibility, as an Office Director, a Deputy 
Assistant Secretary, a Principal Deputy Assistant Secretary, and as the 
Acting Assistant Secretary in the Bureau of Legislative Affairs. In 
these positions, I have managed foreign policy portfolios that have 
included every major geographic region and issue, including the Bureau 
of International Organizations, which oversees the work of the U.S. 
Mission to the U.N. in Vienna.
    For the past 5 years, I have been a senior aide and adviser to two 
Secretaries of State--for Secretary Rice from 2008 until 2009, and for 
Secretary Clinton from 2009. In both cases, as the Secretary's 
Executive Assistant, I participated in daily policy meetings, provided 
expert foreign policy guidance and advice on key issues in bilateral 
and multilateral meetings in Washington, and traveled with the 
Secretaries on official trips abroad. In this capacity, and in the 5 
years prior while serving in leadership positions in our Bureau of 
Legislative Affairs, I coordinated policy and strategy across the 
Department, participated in senior-level discussions on a wide range of 
national security matters in the Department and the interagency, and 
liaised with the Congress. If confirmed, I will use this broad 
multilateral background and experience to provide policy direction and 
leadership to our political and public diplomacy efforts in Vienna, in 
close coordination with other agencies in Washington, the White House, 
and the Congress.
    In Prague in 2009, President Obama outlined a robust agenda on 
nuclear nonproliferation and arms control. Significant progress has 
been made in fulfilling that agenda, including two productive Nuclear 
Security summits in Washington and Seoul, a successful Nuclear Non-
Proliferation Treaty (NPT) Review Conference in 2010, and the 
successful launch of a new NPT Review cycle in 2012. But much work 
remains. Recent challenges and geopolitical changes underline the 
importance of U.S. engagement and leadership in multilateral 
institutions, including those in Vienna. Today, we face threats from 
states who seek to acquire nuclear weapons and delivery systems and 
from nonstate actors who may seek nuclear material. The IAEA is 
essential to our efforts to counter these threats, and the U.S. Mission 
in Vienna is central to our efforts in the IAEA. Through the NPT and 
international safeguards, the IAEA is uniquely positioned to report to 
the international community with authority on the status of compliance 
by Member States--and in particular Iran and Syria--with regard to 
their nonproliferation obligations under the NPT.
    With regard to Iran, if confirmed, I will continue efforts to bring 
that country into full compliance with their international obligations. 
In 2011, the Director General of the IAEA informed the Board of 
Governors of the status of his investigations into Iran with a frank 
assessment of the lack of cooperation with which his efforts had been 
met as well as the possible military dimensions of Iran's nuclear 
program. In August 2012 the Director General issued his latest report 
on Iran, highlighting the ongoing lack of transparency, cooperation, 
and concrete steps toward resolving outstanding concerns. The United 
States supports the IAEA in its efforts to obtain full cooperation from 
Iran, including access to the locations, documents, and personnel that 
the IAEA requires to determine whether Iran's program is exclusively 
for peaceful purposes. The IAEA will be a key player as the 
international community assesses what next steps must be taken on Iran.
    The United States recognizes the essential role that the IAEA 
should play in the complete and verifiable denuclearization of the 
DPRK. The international community has consistently called on the DPRK 
to cease immediately all nuclear activities and to permit the IAEA to 
resume its sustained presence to monitor and verify these 
understandings and requirements. We stand firmly behind the IAEA's 
efforts to maintain readiness for resumption of its monitoring and 
verification activities in the DPRK.
    If confirmed as the United States Representative to the IAEA I will 
encourage strong support for IAEA safeguards activities, including 
strengthening the verification authority of the IAEA to ensure that it 
has the tools it needs. The mission, in tandem with U.S. diplomatic 
approaches in capitals, has worked tirelessly to promote Member States' 
adoption of the highest standards of nuclear safeguards, and, as a 
result, 117 states now have the Additional Protocol in force. While we 
have made progress, if confirmed I am committed to leading the 
mission's ongoing efforts to achieve the goals of universal adherence 
to the Additional Protocol. Furthermore, if confirmed, I will make it 
my priority to continue strong U.S. support for the IAEA's safeguards 
mission, including appropriate funding to support necessary upgrades to 
IAEA capabilities such as the Safeguards Analytical Laboratory, and to 
seek full support from other Member States in this regard.
    Beyond the important work of nuclear safeguards, our efforts in the 
IAEA seek to support and protect U.S. national interests in other 
areas. The international community looks to the IAEA for technical 
information, guidance, and recommendations on matters of nuclear safety 
and security. This was most clearly demonstrated during the March 2011 
Fukushima crisis and in the months that followed, when the IAEA played 
a pivotal role in helping Japan and other countries assess the crisis 
and disseminate needed information. If confirmed, I will continue 
active U.S. leadership in the IAEA in helping to ensure the broadest 
application of safety standards internationally in a market that is 
open and competitive for the U.S. nuclear industry. We must also 
strengthen the IAEA's capacity to support and coordinate national and 
international efforts to secure nuclear materials and prevent nuclear 
terrorism.
    Promoting access to the peaceful benefits of nuclear energy remains 
a central purpose of the IAEA and one which the United States has long 
supported. The IAEA is uniquely placed to help states access peaceful 
nuclear energy applications and techniques in a way that is fully 
consistent with U.S. safety, security, and nonproliferation goals. This 
includes not only nuclear power but also applications in food security, 
water resource management, and advances in human health such as cancer 
treatment. Many Member States--particularly those in the developing 
world with little capacity to develop or access such peaceful benefits 
on their own--view this as the IAEA's most important mandate. Technical 
cooperation and assistance through the IAEA strengthens the global 
nuclear nonproliferation regime by building broad support for the NPT, 
its safeguards obligations, and the normative understanding that all 
nuclear cooperation must be accompanied by nonproliferation 
responsibilities. It was in this context, during the 2010 NPT Review 
Conference in New York, that Secretary Clinton announced President 
Obama's well-received IAEA Peaceful Uses Initiative campaign, which 
includes the goal of raising $100 million to further expand and 
accelerate implementation of technical cooperation projects. If 
confirmed, I will work to continue the U.S. mission's strong leadership 
in supporting the IAEA's work in peaceful uses, while ensuring that the 
provision of assistance continues to adhere to the highest standards of 
safety, security, and nonproliferation.
    The spread of sensitive technology related to the fuel cycle, 
including enrichment and reprocessing, has always been of particular 
concern to the United States. In December 2010, the IAEA's Board of 
Governors voted to approve establishment of an IAEA ``Low Enriched 
Uranium fuel bank,'' in line with President Obama's Prague proposal to 
establish an assured international nuclear fuel supply to enable 
countries to access nuclear fuel without the need to develop their own 
nuclear enrichment capabilities. If confirmed, I will work with the 
IAEA and its Member States to ensure that the necessary political, 
operational, and management decisions are reached to make the bank a 
reality.
    Mr. Chairman, if confirmed, I will be responsible for key U.S. 
priorities in other multilateral bodies such as the Preparatory 
Commission for the CTBT Organization (CTBTO PrepCom) and The United 
Nations Office on Drugs and Crime (UNODC), as well as U.S. 
participation in multilateral regimes, including the Nuclear Suppliers 
Group and the Wassenaar Arrangement.
    As laid out in President Obama's Prague Agenda, the United States 
has actively reengaged with the CTBTO PrepCom to support the completion 
of the International Monitoring System, the global network of over 321 
monitoring stations and 16 laboratories which, at Entry into Force of 
the Treaty, would contribute critical data to verify compliance with 
the CTBT. Beyond their treaty uses, these facilities currently 
contribute enormously valuable, real-time seismic and environmental 
data to the global community. This data was vital to the international 
community's response to the Fukushima crisis.
    UNODC aids in the prevention of terrorism by assisting countries in 
strengthening legal frameworks to fight terrorism and frustrate 
terrorist financing. UNODC continues to focus on providing states with 
the tools they need to fight money laundering and the financing of 
terrorism and drug trafficking in Afghanistan and Central Asia, 
coordinating and implementing international counterpiracy efforts in 
East Africa and off the Horn of Africa, and raising awareness of 
international prohibitions on trafficking in persons. If confirmed, I 
look forward to working closely with UNODC and its Member States to 
enhance further its effectiveness in these and the other areas of its 
mandate.
    The Vienna-based Nuclear Suppliers Group promulgates guidelines to 
help prevent nuclear trade from contributing to proliferation or 
providing proliferant and terrorist access to nuclear materials and 
equipment. The Wassenaar Arrangement, also headquartered in Vienna, 
coordinates efforts among 41 partner states to implement export 
controls to prevent destabilizing arms buildups and terrorist access to 
conventional weapons. If confirmed, I will continue to provide robust 
support for these multilateral arrangements that constitute a strong 
and effective network to fight proliferation of materials that give 
substance to the most dangerous terrorist threats.
    In addition to the above, there are other smaller organizations in 
Vienna that are nevertheless important to U.S. interests, including the 
U.N. Commission on International Trade Law (UNCITRAL), and the Office 
of Outer Space Affairs, which supports the Committee on the Peaceful 
Uses of Outer Space (COPUOS).
    Finally, in light of the current financial situation, ensuring 
strong management of the Vienna organizations will remain a critical 
feature of U.S. stewardship. The United States has worked intensively 
with partners to ensure improved fiscal and management practices, 
notably at the IAEA. If confirmed I will work closely with these 
organizations to ensure that they adhere to the highest standards of 
management and transparency.
    Mr. Chairman, during the past few years U.S. engagement in 
multilateral institutions and with the International Organizations in 
Vienna has resulted in significant successes, some of which I have 
outlined today. These achievements highlight the force-multiplying 
effect in both political capital and financial resources that 
multilateral engagement can produce. If confirmed, I will pursue an 
active political and public diplomacy agenda in support of U.S. 
national interests at the IAEA, the U.N. and International 
Organizations in Vienna.

    Senator Udall. Thank you very much for that excellent 
statement. And your full statement will be put in the record, 
and the same is true of the other two witnesses. So you can 
shorten them or read them, whatever you would like.
    Mr. Macmanus. Thank you.
    Senator Udall. Ms. Villarosa, please proceed.

 STATEMENT OF SHARON ENGLISH WOODS VILLAROSA, OF TEXAS, TO BE 
  AMBASSADOR TO THE REPUBLIC OF MAURITIUS AND THE REPUBLIC OF 
                           SEYCHELLES

    Ms. Villarosa. Thank you, Chairman Udall, for the 
opportunity to discuss my nomination to become the Ambassador 
of the United States to Mauritius and the Seychelles. I also 
wish to thank President Obama and Secretary Clinton for the 
honor of this nomination.
    This is a particular honor for my family, which is proud of 
its long history of service to this country, to help keep our 
Nation free, prosperous, and secure. My international travels 
as an Army brat began at the age of 6 months. I have also 
experienced firsthand the amazing breadth and diversity of the 
United States living in or visiting all but 2 of our 50 States.
    My Foreign Service career provided me a broad range of 
responsibilities. In Burma, I was a vocal advocate for human 
rights and democracy, and am proud of our contributions there 
to the opening we are now seeing. I also set up our Embassy in 
the newly independent nation of East Timor. Most recently, I 
was responsible for building political will and capacity around 
the world to confront critical terrorist threats from actors in 
Asia, Africa, and the Arabian Peninsula. We regard Mauritius 
and Seychelles as strong partners in this effort.
    I am very excited at the prospect of serving in Mauritius 
and Seychelles should the Senate confirm me. These countries, 
while small, are geostrategically located in the Indian Ocean. 
Their Exclusive Economic Zones cover 3.2 million square 
kilometers, and possess vast maritime resources. They share our 
values in support of democracy and free markets. They are 
outward looking, which has enabled them to gain prominence on 
the international stage by their willingness to exercise 
leadership.
    I wish to thank the bipartisan work and support of the 
Senate Foreign Relations Committee, the Finance Committee, and 
the Senate leadership to extend the Africa Growth and 
Opportunity Act's Third Country fabric provisions, which are 
important to regional trade and our bilateral relationship with 
Mauritius. Mauritius is one of the leading beneficiaries of 
this important law. If I am confirmed, I would like to increase 
U.S. exports to this healthy, thriving market economy, making 
better use of 21st century means of communication and 
transportation.
    Mauritius has also been a good partner with us in the 
United Nations, and is willing to provide police as part of 
U.N. peacekeeping efforts to help other nations build the 
foundations for stable, civilian-led government that respects 
the rule of law. Seychelles has also taken on important 
leadership responsibilities in confronting piracy that poses 
serious risk to global commerce. Seychelles stepped up to try 
pirates and hold them accountable for their crimes, which helps 
restore maritime security for all.
    Through our cooperation on counterpiracy and 
counterterrorism, Seychelles has become one of the U.S. 
Government's best partners in Africa. Seychelles shifted away 
from one-party rule in 1991 to institute a multiparty system of 
government. It also shifted away from socialist policies to 
pursue market-oriented policies, which have enabled the country 
to significantly reduce its debt, run a budget surplus, and 
grow at a time when much of the world has been in recession. If 
I am confirmed, I will encourage Seychelles' continued progress 
in implementing sound political and economic reforms and 
respect for human rights.
    I am joined in my efforts by my family, which is very 
supportive--they are back in Colorado and Texas--and my broader 
Foreign Service family that has joined me today. Everything 
that I have done has been with the terrific support of these 
people. I would specifically like to mention Julie Dorsey and 
Marisol Brady, who are present today, as the second generation 
of Foreign Service officers that I hope will join the Foreign 
Service. And we will benefit greatly from that.
    In conclusion, I am honored to be nominated to serve as the 
United States Ambassador to Mauritius and Seychelles. If 
confirmed, I will do my best to strengthen our relationship 
with both nations to advance democratic and free market 
principles, as well as to confront any threat to these 
principles, thereby increasing United States and global 
security.
    Thank you very much, Mr. Chairman, and I look forward to 
responding to any questions you may have at this time.
    [The prepared statement of Ms. Villarosa follows:]

                 Prepared Statement of Shari Villarosa

    Thank you, Chairman Udall and members of the committee, for the 
opportunity to discuss my nomination by President Obama to become the 
Ambassador of the United States to Mauritius and the Seychelles. I 
would like to thank President Obama and Secretary Clinton for the honor 
of this nomination.
    It has been a particular honor for my family and me personally to 
defend and advance our interests around the world to help keep our 
Nation free, prosperous, and secure. My family's long history of 
service to this country dates back to the Revolution. My father, both 
grandfathers, and every preceding generation fought for this Nation so 
we could live in freedom. My international travels as an ``Army brat'' 
began at the age of 6 months when I accompanied my parents serving in 
Germany. I have also enjoyed the opportunity to experience firsthand 
the amazing breadth and diversity of the United States, living in or 
visiting all but 2 of our 50 States.
    My Foreign Service career provided me a broad range of 
responsibilities, working closely with many other U.S. Government 
agencies in Washington and overseas. I have served twice as Charge 
d'Affaires. I was a vocal advocate in Burma for human rights and 
democracy and hope that I contributed to the opening we are now seeing. 
I also set up our Embassy in this millennium's first new independent 
nation, East Timor. Most recently, I was responsible for building 
political will and capacity around the world to confront critical 
terrorist threats to our country from actors in Central Asia, East 
Africa, the Arabian Peninsula, and the Sahel. We have developed strong 
partnerships with many nations around the world, including Mauritius 
and Seychelles, to eliminate terrorist safe havens, disrupt terrorist 
plots, and dry up the pools of potential terrorist recruits.
    I am very excited at the prospect of serving in Mauritius and 
Seychelles, should the Senate confirm me. These countries, while small, 
are geostrategically located along important sea-lanes in the Indian 
Ocean. As a result of their expansive Exclusive Economic Zones, 
covering 3.2 million square kilometers, they have vast maritime 
resources. They share our values in support of democracy and free 
markets. They are outward looking, which has enabled them to gain 
prominence on the international stage by their willingness to exercise 
leadership on key issues. Their heterogeneous populations reflect their 
international focus and should make it easy for me, as a product of the 
melting pot that is the United States, to fit right in.
    Mauritius is a thriving democracy that the Democracy Index ranks as 
the only full democracy in Africa. It also ranks first among all 
African countries in the 2012 Ibrahim Index based on effective 
governance that informs and empowers citizens, civil society, and 
governmental actors. Mauritius has prospered due to its reliance on 
free market economic principles. The World Bank's 2012 Doing Business 
Report ranks Mauritius first among African economies and 23rd 
worldwide. The Heritage Foundation ranks Mauritius first in sub-Saharan 
Africa and eighth worldwide in its 2012 Index of Economic Freedom.
    Mauritius has been one of the leading beneficiaries of the Africa 
Growth and Opportunity Act (AGOA), one of the centerpieces of the 
administration's policy toward sub-Saharan Africa. As Assistant 
Secretary of State for African Affairs Johnnie Carson remarked in June, 
the vision of AGOA to spur economic development, trade, and investment 
is becoming a reality. If I am confirmed, I would like to increase U.S. 
exports to this healthy, thriving market economy, expanding upon the 
links between the two economies forged by Mauritius' imports to the 
United States under AGOA. In this regard, I would note that 
congressional extension of AGOA's Third Country Fabric Extension was a 
great relief to the government and people of Mauritius, is important to 
regional trade, and politically is very important to our bilateral 
relationship. We appreciate the bipartisan work and support of this 
committee, the Finance Committee, and the Senate leadership in ensuring 
this extension. I think we can make better use of 21st century means of 
communication and transportation to increase our trade with Mauritius.
    Mauritius has been a good partner with us in the United Nations, 
and has indicated its willingness to provide police as part of U.N. 
peacekeeping efforts. We should welcome its offer to help build 
stability in fragile countries and offer to assist in providing the 
necessary training so Mauritius can help others build the foundations 
for stable civilian-led government that respects the rule of law. 
Seychelles has also taken on important leadership responsibilities in 
confronting a relatively recent challenge to global security: piracy 
stemming from Somalia that poses serious risks to commercial trade, 
particularly sea-borne cargo.
    Seychelles, more than any other government in the region with the 
possible exception of Kenya, stepped up to try these criminals and hold 
them accountable for their crimes, which helps restore maritime 
security for all. This is particularly notable, considering Seychelles' 
relatively small size and resources in comparison to most other 
countries in the region. Through our cooperation on counterpiracy and 
counterterrorism efforts in recent years, Seychelles has quickly grown 
to become one of the U.S. Government's strongest partners in Africa.
    Seychelles shifted away from one-party rule in 1991 to institute a 
multiparty system of government. It has also turned away from the 
socialist policies of the past to pursue market-oriented policies, 
enacting an economic reform program which has enabled the country to 
significantly reduce its debt from 98 percent of GDP to 56 percent in 
2010, run budget surpluses, and in 2011 grow by 6.2 percent at time 
when much of the world has been in recession.
    If I am confirmed, I will try to encourage Seychelles' continued 
progress in implementing sound political and economic reforms and 
protecting human rights. In addition, with the Senate's help, I hope 
that we can continue to support the efforts of Seychelles to counter 
piracy and promote better security in East Africa and the Indian Ocean.
    In conclusion, I am honored to be nominated to serve as the United 
States Ambassador to Mauritius and Seychelles. If confirmed, I will do 
my best to strengthen our partnership with both nations to advance 
democratic and free market principles, as well as to confront any 
threats to those principles, thereby increasing U.S. and global 
security.

    Senator Udall. Thank you. Thank you for your statement.
    Mr. North, please proceed.

 STATEMENT OF WALTER NORTH, OF WASHINGTON, TO BE AMBASSADOR TO 
  PAPUA NEW GUINEA, THE SOLOMON ISLANDS, AND THE REPUBLIC OF 
                            VANUATU

    Mr. North. Mr. Chairman, thank you so much for having us 
here this afternoon. I just want to build on Sherry's comments 
and thank you for the kind things that you said about the 
Career Foreign Service and our dedication and service on this 
rather sad day for many of us.
    I am, of course, honored to appear today before you as 
President Obama's nominee to be the Ambassador of the United 
States to the Papua New Guinea, Solomon Islands, and Vanuatu. I 
am grateful to President Obama and Secretary of State Clinton 
for their confidence and trust in me. If confirmed, I look 
forward to working with the committee and other interested 
Members of Congress.
    I would not be here today if it were not for the strong 
support of my wife, Dr. Judy Ryon, and our family. And I am 
happy that a special friend, Carla Barbiero, could be with us 
as well. They have always encouraged me, and I deeply, deeply 
appreciate that.
    It has been my privilege to serve our country as a career 
diplomat. Prior to my nomination, I served as the director of 
USAID's mission in Egypt. This followed several assignments 
with USAID throughout the world.
    Of course, many Americans, as you suggested, Mr. Chairman, 
know Papua New Guinea, Solomon Islands, and Vanuatu because of 
World War II. In my own family, my stepfather and two uncles 
served in that theater. I remember well their stories of the 
generosity of spirit of the people of the South Pacific.
    The events of the Second World War created an enduring bond 
of friendship between the United States and the people of 
Melanesia. We continue to benefit from that legacy. Today we 
are deeply engaged in confronting new challenges and 
opportunities, including the challenges you mentioned briefly 
in your opening comments related to climate change.
    This is reflected across a broad range of interests. For 
example, we support economic development and effective 
stewardship of the region's rich natural resources. We 
encourage inclusive, sustainable, and transparent growth. We 
advance the status of women. We work on a troubling HIV/AIDS 
epidemic. We assist American citizens and promote our business 
interests. We help our partners build strong, responsive 
democratic institutions, and we cooperate on regional security 
issues, and have a strong military-to-military relationship 
with Papua New Guinea.
    Clearly, the United States has many shared interests and 
values with the government and people of New Guinea, Vanuatu, 
and the Solomon Islands. If confirmed, and with your support, I 
will build on those efforts.
    I want to thank you again for this opportunity to appear 
before you. I would be happy to answer any questions you may 
have and would like to submit my written testimony for the 
record. Thank you.
    [The prepared statement of Mr. North follows:]

                   Prepared Statement of Walter North

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to be the Ambassador of 
the United States to Papua New Guinea, Solomon Islands, and Vanuatu.
    I am grateful to President Obama and Secretary Clinton for their 
confidence and trust in me. If confirmed, I look forward to working 
with the committee and other interested Members of Congress.
    I would not be here today if it were not for the strong support of 
my wife, Dr. Judy Ryon, and our family. They have always encouraged me. 
I deeply appreciate that.
    It has been my privilege to serve our country as a career diplomat. 
Prior to my nomination, I served as the Director of USAID's Mission in 
Egypt. This followed several assignments with USAID.
    Many Americans know Papua New Guinea, Solomon Islands, and Vanuatu 
because of World War II. In my own family, my stepfather and two uncles 
served in that theater. I remember well their stories of the generosity 
of spirit of the Pacific Islanders.
    The events of the Second World War created an enduring bond of 
friendship between the United States and the people of Melanesia. We 
continue to benefit from that legacy.
    Today we jointly confront new challenges and opportunities in the 
region. Secretary Clinton has emphasized the need to listen carefully 
to each other and to actively cooperate in addressing the priorities 
identified by the Pacific Island nations. If confirmed, I will follow 
this guidance.
    The United States has an enduring commitment to the Pacific which 
is reflected in the depth of our engagement.
    This is richly reflected across a range of interests. For example, 
I am pleased that USAID's new Office for the Pacific Islands, has 
prioritized natural resource issues. Strong climate change adaptation 
and mitigation strategies are critical for sustainable, inclusive 
economic growth. If confirmed, I will work closely with the governments 
and civil societies of Papua New Guinea, Solomon Islands, and Vanuatu 
to ensure that we support economic development and effective 
stewardship of the region's natural resources while protecting the 
fundamental rights and future of those who live there.
    The governments of both Papua New Guinea and Solomon Islands have 
prioritized improvements in these areas and have moved to improve their 
management of their countries' natural resources. Solomon Islands' 
decision to participate in the Extractive Industries Transparency 
Initiative is an important first step. In Papua New Guinea, revenue 
streams for the government are expected to increase exponentially in 
large part due to the ExxonMobil-led construction of a liquefied 
natural gas pipeline.
    Their government has already taken critical steps to ensure that 
these resources are better utilized, including through the creation of 
off-shore sovereign wealth funds that broadly comply with 
recommendations of the international financial institutions. As a next 
step, Papua New Guinea will need to accelerate movement toward full 
participation in the Extractive Industries Transparency Initiative. In 
tandem with this progress, I am excited about the Department's Energy 
Governance and Capacity Initiative which is expanding Papua New 
Guinea's ability to manage the resource flows effectively, and in 
conformity with international best practices.
    Realizing this goal depends on the development of strong, 
responsive democratic institutions that deliver for all citizens. We 
welcome the commitment of Papua New Guinea's government and civil 
society to strengthen the nation's Parliament, addressing critical gaps 
in electoral law, and promoting national dialogue on additional ways to 
strengthen institutional democracy.
    Secretary Clinton has eloquently and consistently reminded us all 
that a society can only progress if it takes full advantage of the 
talents of all of its citizens. Nowhere is this more true than in Papua 
New Guinea, Solomon Islands, and Vanuatu. For historical, social, and 
cultural reasons, women have been repeatedly marginalized in both 
public and professional life. Despite the well-documented problems of 
violence and economic marginalization, there remains cause for hope. In 
the recent Papua New Guinean elections, three women were elected to 
general seats in the nation's Parliament.
    During her recent visit to the Pacific Island Forum in the Cook 
Islands, Secretary Clinton met with leading women from the region. She 
underscored American support for their ongoing efforts to improve the 
status of women. To that end, the Secretary joined in the launch of the 
Rarotonga Partnership for the Advancement of Pacific Island Women. If 
confirmed, I will work to ensure that all of our assistance and public 
diplomacy programs in Papua New Guinea, Solomon Islands, and Vanuatu 
maintain their focus on advancing the status of women.
    As the Pacific island country with the highest rates of HIV/AIDS 
infection, Papua New Guinea remains a partner country for the 
President's Emergency Plan for AIDS Relief. If confirmed, I intend to 
work closely with other international donors and to focus our limited 
funding on models that, in addition to having maximum impact on control 
and treatment of the disease, can be replicated by other donors and 
that can have cross-cutting benefits across the government's health 
care system.
    As the most populous Pacific Island state, Papua New Guinea has 
recognized the unique responsibility that it has for peace and security 
in the Asia-Pacific region. To that end, its military has been a strong 
partner of the United States, and we have enjoyed a cooperative 
security assistance relationship that has focused primarily on joint 
humanitarian exercises, such as the Pacific Partnership, and the 
training of Papua New Guinean military personnel through International 
Military Education and Training and participation in the Asia-Pacific 
Center for Strategic Studies in Honolulu. Papua New Guinean Defence 
Force personnel were integral participants, along with Australia and 
New Zealand, in the Regional Assistance Mission in Solomon Islands. As 
that successful mission begins to transition security operations back 
to Solomon Islands government institutions, Papua New Guinea has agreed 
to take on new responsibilities as full participants in United Nations 
Peacekeeping Operations. Its decision to deploy officers to Darfur and 
South Sudan in support of these operations is a laudable accomplishment 
and one that merits American support. If confirmed, I will work closely 
with the United States Pacific Command to find ways to expand our 
military-to-military engagement with the Papua New Guinea Defence Force 
in order to support its continued role in both humanitarian and 
international peacekeeping operations.
    The United States has many shared interests and values with the 
Governments of Papua New Guinea, Solomon Islands, and Vanuatu. If 
confirmed, I will work closely with Papua New Guinea, the Solomon 
Islands, and Vanuatu to build on our existing cooperative efforts and 
to explore new critical areas of partnership.
    Thank you for this opportunity to appear before you. I would be 
happy to answer any questions you may have at this time.

    Senator Udall. Thank you very much, Mr. North. And your 
written testimony--all of your written testimonies will be 
fully in the record.
    Mr. North, why do I not start with you? You know, rising 
sea levels are no joke for the United States. I recently note 
the New York Times, I think, in the last couple of days talked 
about New York City, and the rising sea levels there, and what 
they were doing about it. And obviously no joke for low-lying 
countries, such as island nations in the Pacific. The Solomon 
Islands and Vanuatu are two such vulnerable nations.
    Los Alamos National Laboratories' Climate, Ocean, and Sea 
Ice Modeling Project is currently working on modeling to 
determine how melting ice in Greenland and Antarctica will 
impact specific regions. While they do not know how sea level 
will impact specific areas, such as the Solomons, they do know 
that we are quickly passing the point of no return, and that 
sea-level rise is occurring, and that the ice melt from 
Greenland and Antarctica have nearly doubled since 2000.
    In your opinion, what should we be doing to help these 
island nations prepare for sea-level rise, and how will this 
help prevent instability in the future?
    Mr. North. Mr. Chairman, thank you very much for that 
question. These are very critical issues which the 
administration takes very seriously. As you know, the Secretary 
has committed to reengaging more seriously in the South 
Pacific, with a special focus on that issue. And one of the 
ways that we most effectively cooperate with those countries on 
these questions is through some of our investments through our 
USAID programs that are based in our newly opened USAID office 
in Port Moresby.
    We have a regional coastal adaptation program that has been 
put in place, and those two countries that you mentioned will 
be primary beneficiaries of it. I certainly believe that 
contributions from the scientific community, like the labs in 
New Mexico, can really make a contribution to a better 
understanding so that those programs can be effective.
    Thank you.
    Senator Udall. Well, I know from our National Laboratories 
in New Mexico, they really enjoy working all around the world 
on these kinds of issues. So we look forward to focusing that 
scientific expertise and moving these countries along in that 
area.
    You know, agriculture is very important for the long-term 
economic development of Papua New Guinea, but as you are aware, 
many barriers to development still exist. The May 2010 USAID 
Enabling Agricultural Trade Project issues the agribusiness, 
commercial, legal, and institutional reform report, found that 
the island is endowed with abundant natural resources to 
support a robust agricultural sector. Yet starting and 
operating an agricultural business in Papua New Guinea is a 
risky endeavor. Why is operating an agricultural business risky 
in Papua New Guinea, and what can you do as Ambassador to 
encourage reforms to help further economic development and food 
security?
    Mr. North. Thank you for that question, Mr. Chairman. This 
is a really complicated issue. I think it is ironic that Papua 
New Guinea's highlands, which were a birthplace of agriculture 
9,000 years ago, have not developed along the same path as we 
have seen in the other centers where agriculture developed 
initially about 10,000 years ago. There are a number of reasons 
for that. Some of them related to the extreme biodiversity and 
biological disparity of the geographical configuration of the 
island of the Papua New Guinea.
    As you may know, there are almost 1,000 ethnic groups 
living there, and they are mostly separated from each other by 
mountains and inaccessible terrain. And while in the highland 
areas that has helped to augment the opportunities for 
agriculture in many parts, it has frustrated people's attempts 
to have successful agriculture.
    So transportation limitations are ones that farmers face 
currently. Extreme weather events are another problem. As you 
may have read in today's paper, there is flooding in the 
central highlands in Papua New Guinea as a result of some of 
that extreme weather. There are also high costs that are 
associated with the extractive industry part of the Papua New 
Guinea economy, which draws off jobs and has a Dutch disease-
like effect on parts of the rest of the economy. There is a 
lack of education, and there is a huge communal land ownership 
issue, which frustrates the interests of external investors in 
investing in the plantation economy.
    So it is a complicated issue, but I am thankful that the 
U.S. Government has engaged with the Papuans in a variety of 
ways to talk to them about what we can do to make it more 
transparent, to create opportunities for economic growth, and 
to see some movement in the sector.
    Thank you.
    Senator Udall. Thank you. Some of your descriptions 
sounds--with the tribal entities and the many languages, sounds 
a lot like New Mexico. We have 22 tribes, and I have worked for 
years and years on protecting native languages. And I am 
wondering, is that an issue in terms of--you know, if you look 
on a big worldwide basis, indigenous languages are disappearing 
rapidly. And with indigenous languages disappearing, culture 
disappears. Do you have any thoughts on that?
    Mr. North. Yes, sir, I do. I had the good privilege of 
visiting your home State and enjoying some of that diversity. I 
think that one of the things I saw when I was in New Mexico 
that was most interesting to me, and I think about it in terms 
of Papua New Guinea, is that oftentimes it is this very 
interesting relationship between older people and the young 
that works to preserve those traditions. And that is if you get 
to a space where the young people have the education, the 
intelligence, and the opportunity, there is a moment, a sweet 
spot, if you will, where those two generations can come 
together and work to preserve the past and protect it.
    And you are right, Papua New Guinea has something like 20 
percent of the world's languages. And so we need to try, I 
think, to encourage them to work with the young people to 
educate them and to do just that.
    Senator Udall. No, you have hit right on the head. What we 
do in many places in New Mexico on tribal lands is in the Head 
Start Program, in the early education program, we bring the 
grandmas and grandpas together with the 3-, and 4-, and 5-, and 
6-year-olds. And it is that interaction that allows the 
language to continue. And it is an interesting--very 
interesting thing to see.
    Thank you very much.
    Ms. Villarosa, Mauritius and Seychelles--and the Seychelles 
are located strategically in the Indian Ocean east of 
Madagascar and the African Continent, and are playing an 
important security role protecting global commerce.
    As you know, according to some estimates, nearly 16,000 
vessels pass through the Suez Canal a year. The canal, which is 
north of both countries, also carries an estimated 14 percent 
of the world's shipping and 30 percent of the world's oil 
supplies. That being said, the ships that traffic the canal are 
vulnerable to piracy as they pass near the Horn of Africa.
    Given that the Seychelles is currently partnering with the 
United States and other countries to help counter piracy, and 
that Mauritius is working to try pirates apprehended by allied 
navies, what should the Embassy be doing to help strengthen 
this relationship and ensure that Mauritius especially has the 
judicial capability to prosecute pirates?
    Ms. Villarosa. Thank you very much for your question, 
Senator. These are very important issues. And the U.S. Embassy 
has been very active in working with both countries to build 
their judicial and prosecutorial capacity to try these 
individuals.
    In addition, we are providing support and training and 
equipment to their coast guards since you can imagine these 
small countries with these vast amounts of ocean that they need 
to patrol. So we have been providing capacity-building in that 
regard.
    They are very welcoming of both assistance from us as well 
as from other nations in the world. The British are in the 
process of setting up a rapid action intelligence center based 
in the Seychelles so that we can get the information out to the 
various ships patrolling in the sea to take quick action, and 
as well as preserve evidence that can be used in sound 
prosecutions.
    We are also looking at since--right now Seychelles has 
prosecuted people and is housing many people, but it has got 
limitations on how many people they can hold. So we are working 
to persuade other countries to take some of these individuals 
once they are convicted. But we will continue to be very active 
in supporting the Seychelles, and if confirmed, I look forward 
to working with you and discussing other ways where we might be 
able to help.
    Senator Udall. Thank you, and we look forward to working 
with you. The Seychelles is beginning to recover after the 
worst of the pirate attacks scared off fishermen from their 
shores. This had an impact on both the maritime economy, but 
also the tourist and construction economy. And according to one 
report, fish supplies at local hotels dried up because local 
fishermen were afraid to set sail, and a multimillion port was 
put on hold because foreign fishermen were no longer trawling 
nearby waters.
    What will the Seychelles need to do to recovery 
economically, and what can the United States do to work with 
the Seychelles to ensure that as fishermen return, that future 
fishing is done sustainably so that the people of the 
Seychelles can have access to fishing stocks for multiple 
generations?
    Ms. Villarosa. Thank you, Senator. Again, this is--tourism 
and fishing are the mainstays of the Seychelles' economy. 
Piracy has had a significant impact on both of them, so these 
are very important issues.
    With regard to the fishing, it is my understanding that the 
shortage was temporary. It was immediately felt because fish is 
a mainstay of the local diet. But according to our Embassy that 
visits Seychelles regularly, the fish supplies are plentiful in 
the markets, in the restaurants.
    The Seychelles has actually a very good oversight regime of 
commercial fishing vessels in its waters and does not have a 
serious problem with illegal fishing. In fact, I just read a 
newspaper report that they were able to identify an illegal 
trawler in their waters and take action. But they are very 
interested and committed to managing their resources in a 
sustainable manner.
    The artisanal fishermen are more vulnerable to the pirates 
and are beginning to return now as the incidence of piracy have 
somewhat abated.
    Thank you.
    Senator Udall. Right. Yes, thank you.
    Mr. Macmanus, in its latest report, the International 
Atomic Energy Agency determined that it still has significant 
problems with access to sites in Iran. After the report, prior 
Charge d'Affaires Robert Wood made a strong statement that the 
agency is still unable to provide credible assurance about the 
absence of undeclared nuclear material and activities in Iran 
and, therefore, cannot conclude that all nuclear material in 
Iran is in peaceful activities.
    I am sure that you will bring a similar strong message to 
the international community. What in your opinion will be the 
first steps you will take to help increase the pressure on Iran 
to open its sites to inspectors, and what can we do in Congress 
to support you?
    Mr. Macmanus. Thank you, Senator. The Iran issue clearly is 
the most prominent and the most serious issue confronting the 
IAEA and, therefore, our representation there.
    Senator, the report the Director General issued in August 
that is being discussed in the current Board of Governors 
meeting was, in effect, a report card on how well Iran had 
responded to the Director General's report from approximately a 
year earlier in November 2011, when the Director General issued 
a very thorough presentation on the Iran nuclear program, and 
the questions that attend that program, and the inability of 
the IAEA, because of lack of access, to fully investigate the 
Iranian nuclear program to ensure that it, one, Iran was fully 
representing its nuclear activities to the IAEA, a 
responsibility that it carries under the statutes of the IAEA 
itself, and as a treaty member of the Nuclear Nonproliferation 
Treaty.
    And also to determine what other activities Iran had been 
or was engaging in that would fall under the heading of a 
possible military dimension to that program. In that case, some 
of those activities are not in and of themselves related to the 
enrichment or reprocessing of nuclear material, but would be 
activities that would indicate a possible military intent to 
use the nuclear technology that Iran has available to it.
    This report card, which was fairly brief--this was the 
report that the Director General gave this month--this week, in 
fact, to the Board of Governors--describes the failure of Iran 
to take the basic steps that have been laid out. Those steps 
are not unclear. They are fairly transparent, I think, to 
anyone who follows this issue. They are easily determined by 
reading in plain language the U.N. Security Council resolutions 
that have called on Iran to suspend its enrichment program, 
suspend its heavy water research and development activities, 
become transparent in its activities, and allow full safeguards 
to be applied, which would include the Iranian legislative body 
ratifying the additional protocol which would permit greater 
access to locations.
    Senator, if confirmed, I would continue to bring both a 
strong political diplomacy and public diplomacy focus on Iran's 
responsibility, on the stark difference between Iranian 
behavior on nuclear issues and the behavior of the majority of 
other countries who participate successfully and fully at the 
IAEA, and who follow the guidance and the requirements of 
Nuclear Nonproliferation Treaty.
    Senator Udall. Thank you very much for that answer. During 
the 2010 nuclear summit in Washington, DC, President Obama 
stated that, ``We will advance our goal of securing all of the 
world's vulnerable nuclear materials within 4 years.'' Since 
the summit, many notable achievements have been met, including 
the removal of 50 kg of highly enriched uranium from three 
sites in the Ukraine, a shipment of HEU and plutonium in 
Kazakhstan from an aging reactor, and a plan to convert an HEU-
fueled research reactor in Mexico. In addition, work in the 
United States included the cleaning of excess nuclear materials 
from Sandia National Laboratory in New Mexico.
    What, in your opinion, will be the biggest challenges to 
achieving the goal by 2014, and how will you work to make 
securing vulnerable nuclear materials a priority?
    Mr. Macmanus. Thank you, Senator. Senator, first, if I 
could, I would frame the President's call for the securing of 
nuclear material in a 4-year time span as being the necessary 
call to attention and to action. Nuclear security, which in the 
IAEA context, and that is the framework in which I will address 
my remarks, nuclear security and nuclear safety have 
traditionally been talked about together as a similar kind of 
process.
    Increasingly, it is recognized that nuclear safety is also 
a state responsibility, one that does reside with states and 
should be based on changes that they make to their legislative 
and regulatory framework in order to truly provide use of safe 
nuclear technology.
    Similarly, nuclear security, which has a much broader 
implications--nuclear security is not simply limited to the 
proper handling of nuclear material, but touches on aspects of 
nuclear terrorism and proliferation. Nuclear security was 
identified by the President in the 2009 speech in Prague. This 
became an initiative that resulted in a nuclear security summit 
here in Washington in 2010, and was followed on by a nuclear 
security summit hosted by South Korea in 2012.
    The IAEA has similarly kept pace with these changes. It 
understands that it plays an important role in nuclear security 
and has provided both greater resources and a greater focus for 
member states in responding to the challenge of nuclear 
security, and itself will host a high-level nuclear security 
conference at the IAEA next year.
    All of this shows, Senator, a proper focus and development 
of an international concern about nuclear security. As I stated 
earlier, these are always going to be state responsibilities. 
Each state is going to have to address the problems that it has 
internally, but many of the solutions in the examples that you 
cited do involve international cooperation, the support of 
other states in order to secure and remove material from 
insecure environments.
    The 4-year goal is a laudable one. It provided focus and 
direction and a certain push to approaching these issues. I do 
not know that a 4-year goal is absolutely rigid. I do know that 
in that 4-year period, more has been done on nuclear security 
issues than had previously been done. And I think that as a 
laudable achievement is one that is worth noting.
    Senator Udall. And I do think it is real clear we have made 
some real progress on that front.
    Employees from the National Labs are permitted to take 
government service leave of absences to work at the IAEA and 
other U.N. organizations in Vienna. In addition, IAEA safeguard 
inspectors are trained at Los Alamos for hands-on instruction 
in measuring nuclear materials. Just a month ago, a team from 
the IAEA attended the advanced plutonium verification course. 
This is an important part of our nonproliferation regime. But 
as our infrastructure at Los Alamos ages, I am concerned that 
the training capabilities will waiver unless we make 
significant investments in our infrastructure at Los Alamos and 
other sites.
    What can you do to ensure this important relationship with 
the National Labs and IAEA continues, and what, in your 
opinion, is needed to strengthen this relationship?
    Mr. Macmanus. Thank you, Senator. I appreciate your 
leadership on this issue. I understand that it would be 
certainly a purpose of your service in the Senate from New 
Mexico to raise this issue. And it is one that deserves the 
attention that you are giving it.
    Our contributions to the IAEA are often talked about in 
terms of dollars. With international organizations that seems 
to be the initial focus.
    The fact is that our intellectual leadership in this 
context--both in general nuclear technology, in the areas of 
safety and security and in nonproliferation, the American 
experience, the American discipline, and how we address these 
issues--continues to be pace setting. And so a constant 
interaction and involvement of American nuclear scientists and 
those who are representing these various activities in the 
National Labs is both beneficial to us, but maybe, most 
importantly--and, excuse me, I will be parochial in terms of 
the position for which I am being nominated. But certainly the 
benefit is directly to the International Atomic Energy Agency.
    Senator, the Americans who participate in positions at the 
IAEA now, without going into an exhaustive list, are there not 
just because they are Americans and because they have 
particular skills, but also because they serve in leadership 
positions, in important positions in management and in legal 
affairs, and in safeguards. These are important activities that 
have to do with the management of the International Atomic 
Energy Agency, and where American leadership is crucial.
    I would welcome the opportunity, if confirmed, to work with 
you, to work with other Senators who similarly have investments 
in international labs in their States where this constant 
conversation between our institutions and our specialists and 
those at the IAEA is going to benefit both institutions and do 
so in a way that does deserve full and adequate funding.
    Senator Udall. You know, you mentioned something that leads 
me to the next question in terms of American serving in IAEA. 
And apparently, you know, we contribute about 25 percent of the 
budget, but I think 12 percent of the employees are American 
citizens. Do you think there is room for improvement there? I 
mean, I know you talked about what good leadership we provide 
right now. But is there room for improvement in those numbers?
    Mr. Macmanus. Well, Senator, of course there is. You have 
identified it exactly as that, and I agree with you.
    Now of course an international organization would, by its 
nature, seek the broadest possible participation from nations, 
many of which are either incapable of certainly providing the 
kinds of resources that we provide. And I am not only talking 
about financial resources, but I am talking about Americans 
being placed in jobs at IAEA, and I am talking about our 
consultancies and no-cost experts, the general flow of 
intellectual conversation that takes place.
    There are meetings hosted throughout the year in Vienna at 
IAEA where important delegations that include representatives 
from the Labs, from national security elements of the executive 
branch, especially the Department of Energy, attend and engage 
in important work, work that shapes the outcomes that are 
valuable to our leadership in the IAEA.
    Of course, again, I would work, Senator, with you under 
your leadership and with other members of the committee to 
ensure that we were always putting the best candidates forward, 
that we were seeking opportunity to place people in appropriate 
and important positions, and that, you know, if at the end of 
the day we are never going to get the percentage to quite fit, 
that is all right. That is an impetus for a chief of mission to 
take a hand at seeing if we can get those numbers to increase.
    Senator Udall. Great. Great. Thank you. Now I am changing 
direction just a little bit on you here. As you are aware, the 
agency you have been nominated for works closely with the U.N. 
Office on Drugs and Crime.
    Mr. Macmanus. Yes.
    Senator Udall. And the United States has embarked on a 
major new strategy for dealing with Afghanistan's narcotics 
production problem. At the same time, the UNODC has become 
increasingly active in Afghanistan. What role do you see for 
this U.N. Drugs and Crime organization playing in the United 
States counternarcotics strategy in Afghanistan?
    Mr. Macmanus. Thank you, Senator. Certainly in Central 
Asia, the contributions that do derive from our working with 
UNODC are important. You know, the State Department has always 
had an active counternarcotics program run out of our Bureau of 
International Narcotics and Law Enforcement, INL. That Bureau 
is certainly the focus for coordinating policy and programs 
when it comes to international cooperation.
    UNODC may not be the sole or best mechanism for cooperation 
in other parts of the world where we have a strong program. But 
in Central Asia, we have a good and productive relationship 
have with UNODC.
    These are difficult endeavors politically. They are, I 
think, aided by international support and not just bilateral 
activities. And in that sense, the UNODC does contribute to 
what still remain U.S. national security goals.
    Senator Udall. Thank you for those answers.
    And let me thank the entire panel. I think your testimony 
today and your answers to questions have been excellent. I 
really look forward to working with you closely on moving these 
nominations along.
    We are going to keep the record open for 24 hours for any 
questions for the record. And if you can help us with answering 
those as quickly as possible, we can then move your nominations 
along.
    And so with that, I am going to adjourn this hearing and 
look forward to visiting with you a little bit.
    The hearing is adjourned.
    [Applause.]
    Senator Udall. Thank you.
    [Whereupon, at 3:44 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


 Responses of Sharon English Woods Villarosa to Questions Submitted by 
              Senators John F. Kerry and Richard G. Lugar

    The Office of Inspector General (OIG) issued a Report of Inspection 
of Embassy Rangoon in June 2008 covering the time period for which you 
served as charge d'affaires at the mission. The ``key judgments'' 
section of the report stated as follows:

        Leadership and management of the mission by the [charge 
        d'affaires (``CDA'')] and [Deputy Chief of Mission (``DCM'')] 
        have been inconsistent and have failed to provide the necessary 
        communication, coordination, problem solving and fairness to 
        foster a genuine sense of teamwork or address morale problems 
        at post.

    The ``Mission Coordination'' section of the report stated as 
follows:

        While most individual elements of the mission function 
        reasonably well and manage to work appropriately with each 
        other, the Office of Inspector General (OIG) team found the 
        absence of a genuine sense of teamwork under a unified command. 
        The embassy holds one country team meeting per week and another 
        meeting of section and agency heads. The CDA and DCM meet or 
        converse numerous times each day, but they sometimes send mixed 
        or conflicting messages to the staff. They have not conveyed a 
        consistent sense of trust or confidence in their staff, but 
        immerse themselves, at times, into the details of an issue in 
        an unproductive fashion. In the personal questionnaire 
        administered by OIG, mission staff assessed that the CDA and 
        DCM were not performing well in the categories of coordination, 
        communication, allowing dissent, problem solving, fairness or 
        feedback. At times of stress, the CDA has berated American and 
        [Locally Employed] staff in public. The DCM has mostly good 
        interpersonal relations with staff but has failed, at times, to 
        accept responsibility for his own statements. In the course of 
        the OIG inspection the CDA and DCM acknowledged the perceived 
        weaknesses in the leadership and began an intensive set of 
        individual consultations with staff intended to listen to staff 
        concerns and staff suggestions on how they might improve 
        mission teamwork.

    The ``Morale'' section of the report stated as follows:

        Morale within Embassy Rangoon was mixed, only partly due to 
        living in an isolated post with poor communications, limited 
        opportunities for travel and recreation, and a negative 
        relationship with the host government. In the administrative 
        services questionnaire prepared for OIG, embassy personnel 
        assessed that the attentiveness of the CDA and DCM to morale 
        was low. The CDA and DCM did not effectively address morale 
        problems at post because of unclear communication with staff 
        and perceived indifference of the CDA to family members in the 
        embassy community. The CDA has organized and hosted a number of 
        community events, but she has at times not included family 
        members or international school staff in such events. The CDA 
        told the OIG team that she recognizes the importance of doing 
        more to demonstrate her interest and support for American staff 
        and the community.

    Question. Do you believe the conclusions reached by OIG in its 
report are accurate? If not, please comment.

    Answer. I appreciate this opportunity to respond to the above 
questions and to detail efforts I have since made to strengthen my 
leadership and management abilities. I fully understand that, as the 
chief of mission in Burma and--if confirmed--Embassy Port Louis, morale 
and leadership are my primary responsibility. The OIG report on Rangoon 
made legitimate criticisms that served as a powerful wake-up call to me 
on the need to make certain changes. Based on the OIG's findings and 
suggestions, I immediately took steps to adjust my approach, starting 
by acknowledging to my staff that I had not been the leader they 
deserved and committing myself to improve. The DCM and I moved quickly 
to better clarify our respective roles, and I increased my 
communications with my staff and their families. I believe that these 
efforts paid off 2 months later, after OIG inspectors had departed, 
during the mission's response to the massive 2008 cyclone. However, I 
did not stop there and have since used my time in Washington to further 
improve my leadership skills. I am committed to making improvements on 
a continuing basis so that everyone who works with me realizes how much 
I respect their efforts. I will detail further background in my 
responses below.
    The OIG conclusions accurately identified morale as a serious 
issue, but I believe they failed to describe the difficult 
circumstances that we faced or our efforts to address the problem. I 
knew that morale was a serious problem and had requested a Crisis 
Management Exercise months before the inspection in order to get a 
better handle on the problems. Unfortunately the Exercise leaders could 
not obtain visas. I also flagged morale as an issue in my Memorandum to 
the inspectors in the hopes that they would have constructive advice to 
offer.
    I did try repeatedly to take steps to address morale. For instance, 
I worked with the Embassy Information Management Officer to set up an 
Internet cafe at the American Club for family members and teachers to 
have access through our State Department system to get around the 
filters, slow speeds, and blackouts that the military regime imposed on 
Internet access. This is not generally done elsewhere in the world and 
required special permission from the State Department. Additionally, in 
order to empower our more junior staff, I let them take the lead in 
developing proposals for our small grants program and followup on the 
implementation and results.
    I fully understood the high anxiety caused by the military regime's 
refusal to grant or renew visas for more than 6 months, not because 
people were worried that they could not leave, but because they were 
worried that if they had to leave for any reason they might not be able 
to get back into Burma. I frequently spoke to many staff members 
individually during the 6-month visa hold regarding these frustrations 
and was able to secure assistance for several. I understood their 
tremendous dedication our mission's role in Burma and their desire to 
be part of it.
    Further, throughout my 3 years in Rangoon, I hosted at least five 
social functions a year that included families and the broader American 
community in Rangoon. In addition, I arranged for regular presentations 
to the broader American community by our Regional Medical personnel to 
address health concerns and organized well-attended townhall meetings 
with the entire American community to answer all questions after the 
September 2007 demonstrations and the 2008 cyclone.
    In addition to our attempts to improve morale, I believe the 
mission's performance in handling multiple crises over time provides a 
more positive example of my leadership of a unified mission team. It is 
important to understand that the mission was under constant 
surveillance and high levels of stress by a hostile military regime. 
Yet we managed to keep people motivated and highly productive despite 
the stress level. I am very proud of the outstanding collaboration and 
teamwork shown by every member of our mission team, which went well 
beyond what duty required. They deserve the lion's share of the credit, 
but I believe that my leadership was also important.
    For example, our move into a new chancery in September 2007 
required careful leadership by both the DCM and me because we had to 
ensure that we accomplished our move in 1 day, while still continuing 
to cover massive pro-democracy demonstrations that had begun a few days 
earlier. The day of the move was further complicated by torrential 
rains and fallen trees that shut streets throughout the city and 
blocked the entrance to the new chancery. After talking with our 
staff--who were most interested in covering the demonstrations--we 
arranged for them to trade off responsibilities so they could both 
escort classified shipments and cover the demonstrations. Their reports 
enabled us to report back the latest developments to Washington even 
though most of our communications were down. The DCM and I had listened 
to our staff and came up with a fair way to divide the work that 
satisfied everyone. This team effort helped build everyone's sense of 
pride and accomplishment. I considered this was the most impressive 
display of teamwork that I had ever seen until the following May.
    Rangoon and the southern delta were hit by a cyclone in May 2008, 2 
months after the inspection. This was a massive storm unlike anything 
experienced in over 100 years. Several of the American staff sustained 
major damage to their homes and many of our Locally Employed Staff were 
hit much harder. My first focus was to ensure the safety and well-being 
of my team and our mission. The DCM and I convened a meeting with key 
staff the next morning to elicit status reports, assess the damage, and 
guide our cleanup. We recognized that communication was critical and 
that most phone lines were down, so we utilized the Embassy radio 
system to communicate frequent updates to our entire staff throughout 
the coming days. The entire staff and family members could listen, 
nonstop, to our discussions if they wished and could ask questions and 
raise concerns as they arose. Guards stayed at their posts for up to 3 
days straight before replacements could reach them.
    After moving families to safer quarters, we quickly turned our 
attention to helping the millions of Burmese who suffered terrible 
losses. Since the military regime initially rejected offers of 
international assistance, and our American and Burmese staff wanted to 
respond, I encouraged them to organize private relief efforts and 
permitted them to deliver the relief supplies to remote villages. We 
also organized a relief fund to help our Burmese staff most harmed by 
the cyclone that served as a model for subsequent efforts elsewhere. 
Finally, overcoming military resistance to outside assistance, we moved 
quickly to show U.S. leadership of relief efforts with almost 200 U.S. 
military C-130 flights over 6 weeks delivering relief supplies. This 
ended up being a massive undertaking that involved the entire mission. 
We had first-tour officers directing unloading operations at the 
airport to make sure they were not diverted to the military. Our staff 
accompanied relief shipments to the devastated villages, so that we 
could report back to Washington on the ultimate destination of the 
deliveries. The USG response to Cyclone Nargis required a dedicated, 
motivated, and cohesive team to sustain this effort over 3 months. 
There was no way our response could have been effective without strong 
leadership, clear communications, and careful coordination to overcome 
the numerous obstacles the Burmese military tried to put in our way. It 
was an honor for me to lead our outstanding dedicated staff and keep 
them motivated over time to creatively overcome the many obstacles we 
faced.
    In sum, I agree that morale was a serious problem and I tried my 
best to make improvements. The ultimate responsibility for mission 
morale is the chief of mission and, before the OIG inspectors had even 
departed, I assumed personal responsibility before the entire mission 
and reiterated my personal desire to do better at boosting staff morale 
in my individual sessions with them. If confirmed as chief of mission 
to Mauritius, I will do my utmost to support staff morale at all times 
by making sure that I am aware of my staff's concerns, input, 
criticisms and thoughtfully discuss with them our approach forward. 
Although we have a much friendlier relationship with Mauritius than we 
do with Burma, our staff will still be far from their families and 
friends. During my consultations, I have learned about the resources--
medical, psychological, personnel, education--that are based in the 
region which I can call on for support. I am determined that my 
leadership will provide the necessary communication, coordination, 
problem solving and fairness to foster team spirit and high morale.

    Question. Please describe any steps that you took while serving as 
charge d'affaires at Embassy Rangoon to address the issues raised by 
the OIG report.

    Answer. I immediately convened a Country Team meeting at the 
conclusion of the inspection and congratulated the entire mission staff 
for their outstanding work as evidenced by the relatively few 
recommendations. I explained that the inspectors' primary concerns were 
focused on the Front Office and pledged to improve communication and 
clarity, and stated my intent to sit down with everyone individually to 
listen to his or her concerns. The DCM and I were able to quickly agree 
on our respective roles and responsibilities, which we then 
communicated jointly to the staff. In addition, we met jointly as 
needed with individuals to ensure we gave no mixed messages.
    Listening to concerns and discussing morale with my American staff, 
and several family members, proved very informative. I learned that 
most of our American staff, and near all of our local staff, had no 
discussions with the inspectors about morale and/or the Front Office. 
My individual discussions reinforced my positive impression of 
extremely dedicated individuals. They were all very proud of their 
contributions to our mission and pleased to be part of the team. Many 
offered suggestions on how we could do more. Their realization of my 
openness to their suggestions paid dividends later on, perhaps best 
evidenced during our response to the May 2008 cyclone. The staff 
readily responded during that crisis that affected us all with many 
great ideas on how we could help our families and the Burmese people 
devastated by the cyclone, which we then implemented while publicly 
recognizing the individual initiatives. We also circulated materials 
for dealing with stress and obtained increased support from the 
Regional Medical Office in Bangkok to attend to health concerns. We 
also revised bidding materials to give a clearer picture of the some of 
the hardships at Post.
    During these individual meetings, I specifically asked about 
perceptions of favoritism or unfairness, and only one gave those 
assertions any credence. Several did inquire about my reasoning on 
particular decisions, which I explained and requested their feedback on 
how I could have done better.
    Finally, I learned that I should engage more with individual staff 
about decisionmaking and our policies, rather than relying on 
supervisors to brief their staff on my behalf. Accordingly, I made more 
of an effort to speak regularly to individual staff members and 
actively solicit questions.

    Question. Has your management style changed since you left Embassy 
Rangoon? If so, please describe the specific steps you have taken in 
this regard.

    Answer. Thank you for the opportunity to address this issue, as I 
have worked hard to strengthen my management and leadership styles 
since serving in Embassy Rangoon.
    I now make it a point to meet often with my staff on an individual 
basis in order to listen to their concerns and views and to seek out 
their opinions and feedback. I meet almost daily with individual staff 
members and I make a point of proactively seeking them out for 
conversations. My staff also often regularly drops by my office, as I 
have made it clear that they do not need to make an appointment to do 
so. My staff has welcomed the access and my receptivity to their 
thoughts, which has empowered them as they meet with other agencies and 
bureaus. In addition, these personal contacts have given me a much 
better sense of their concerns and challenges, thus allowing me to step 
in early on to help address any problems. My current office is a 
talented mix of civil servants, Foreign Service officers, and detailees 
from other agencies. It is an actively sought-after place to work 
because people have heard that I am a good person to work with. My 
staff regularly solicit career advice from me and I have helped several 
obtain positions that advanced their career aspirations.
    In addition to increasing my outreach to staff, I have also sought 
out courses to help improve my leadership skills. I recently completed 
a crisis leadership course that emphasized the importance of clear 
communications and listening carefully to the concerns of the staff. I 
also enrolled in an executive mentoring program which provided an in-
depth look at my leadership and management style as viewed by 
subordinates and peers, and which identified areas where I could 
further refine my skills. In the course of further reading, I have also 
learned that I should treat everyone as unique individuals and utilize 
a variety of leadership skills depending on the needs of the particular 
individual.
    I will always be open to suggestions on what more that I can do to 
lead the talented Americans and local employees on my staff.

    Question. You are currently serving in a management position at 
Main State 
Department headquarters in Washington DC, which is a considerably 
different environment for employees than serving in isolated posts such 
as Rangoon or Port Luis. If confirmed, what steps will you take to 
ensure that Embassy Port Luis does not suffer from the same sorts of 
mission coordination and morale problems that were identified by OIG as 
being a problem in Embassy Rangoon?

    Answer. I believe that there are key differences between a post 
like Burma, where we must deal with a hostile regime that has actively 
sought to hinder the mission's activities, and a post like Mauritius 
with a friendly democratic government.
    That said, I can cite several examples of my successful leadership 
in small, isolated posts, as well as high stress posts before I served 
in Burma. For instance, in 2002 I put together and managed a team of 
relatively junior officers and volunteers to help set up our new 
Embassy in East Timor. Our team successfully organized the visit to 
East Timor of former President Clinton, Richard Holbrooke, and then-
Assistant Secretary of State Kelly. We followed that successful 
endeavor by securing in a matter of months several key agreements which 
ordinarily take years to negotiate, including a Status of Forces 
agreement.
    Additionally, the Economic Section I ran in Jakarta in 2001-2004 
was broadly viewed as having the best morale of any section in the 
Embassy despite losing two-thirds of our staff due to multiple 
evacuations in response to serious terrorist threats over 2 years.
    Some of the lessons that I learned from these experiences, as well 
as my time in Burma, is the importance of clear communication--not just 
saying something, 
but asking questions to see what message was received and also asking 
for suggestions so that the individual feels invested in the decisions. 
I also liberally include all the interested officers on internal e-
mails and transmit policy decisions to the entire staff so they have a 
better idea of other issues that we are working on. This later leads to 
lively discussions with individuals and the group about the other 
factors that led to the decisions, so they have better insight into 
senior policymaker thinking.
    I also learned that, rather than just proposing solutions for 
problems, I must also make sure to clearly indicate my sympathy and 
understanding for the challenges individuals who work for me face. To 
improve teamwork and cohesiveness, I have learned that it helps if 
individuals take on different tasks than their usual ones to both 
broaden their expertise and so they better understand the challenges 
their colleagues face.
    Finally, as a manager of people I have learned that different 
people require different styles of management. Some individuals desire 
a great deal of autonomy while others require more hands-on guidance. I 
have learned to tailor my management style to each individual.
    In the course of my Department of State consultations to prepare 
for my proposed assignment, I have learned that the current Charge in 
Port Louis is very highly regarded and presides over a contented, 
productive Embassy staff. My main responsibility is to keep it that 
way. I have no plans to overhaul a well-functioning operation. I am 
sympathetic to the isolation factor there and have explored the 
possibilities of exchanges with other embassies in the region in order 
to provide more opportunities for staff to broaden their experiences 
and learn how larger posts operate. Because we have a small staff, 
everyone will have to cover for each other, which also provides further 
opportunity for the staff to demonstrate their versatility and make 
them more attractive bidders for their followup assignments. I have 
also learned about the resources available in Washington and at other 
posts in the region that I can call upon as needed in the areas of 
medical and psychological care, educational opportunities, and 
personnel issues. Fortunately they will be able to travel easily should 
the need arise since visas will not be an issue.
                                 ______
                                 

            Responses of Walter North to Questions Submitted
                        by Senator John F. Kerry

    Question. The U.S.-Pacific Islands Multilateral Tuna Fisheries 
Treaty has been a major success in fostering a better dialogue between 
the United States and Papua New Guinea (PNG). The recent treaty 
negotiations in Vanuatu were an important step forward and the 
negotiations appear to be moving in the right direction, but the treaty 
is set to expire in 8 months. Given that Papua New Guinea is a key 
Pacific Island nation in these negotiations and on fishery issues, what 
steps do you plan to take to engage the PNG Government in support of 
continued progress under this treaty and to help conclude negotiations 
in a timely manner?

    Answer. For most Pacific Island nations, including Papua New 
Guinea, Vanuatu, and the Solomon Islands, the fishery resources in 
their waters, in particular tuna, provide a key natural resource to 
support their economic development. The United States has a long 
history of cooperation and collaboration with the Pacific Island States 
to protect these resources for current and future generations, while 
ensuring access to American fishermen. Since 1988, the United States 
tuna purse seine fleet has operated in the Western and Central Pacific 
under the terms of the South Pacific Tuna Treaty. This mutually 
beneficial treaty has provided access to Pacific fisheries for the U.S. 
tuna fleet and has served as a vehicle for the Pacific Island countries 
to receive hundreds of millions of dollars in revenues, U.S. Government 
economic development funding, and assistance with sustainable fisheries 
management as well as combating illegal fishing. The United States is 
negotiating with the Pacific Island Parties to extend the treaty beyond 
the June 2013 end date.
    At the most recent round of negotiations to extend the South 
Pacific Tuna Treaty, held September 5-8,2012 in Port Vila, Vanuatu, 
U.S. negotiators made good progress in closing the gaps on a number of 
remaining issues. This progress, in addition to the agreement reached 
in Auckland on access for the U.S. fleet and the associated financial 
package, brings us closer to a final agreement. If confirmed, I will 
engage heavily with the governments of Papua New Guinea, Solomon 
Islands, and Vanuatu to press for a successful conclusion to the treaty 
at the next negotiation round in Solomon Islands in November.

    Question. Papua New Guinea comprises over 28 million hectares of 
rainforests. It is home to over 200,000 species and boasts a rich and 
diverse ecosystem. Forest degradation in particular is a critical 
concern in the region. Forestry and agriculture account for 90 percent 
of greenhouse gas emissions in the country. Extensive logging and 
removal of forests for agricultural use are a significant driver of 
this forest degradation and source of emissions. How do you plan on 
engaging in addressing the drivers of forest degradation as well as 
conservation of the forest biodiversity in Papua New Guinea? How do you 
plan to work with private sector, nongovernmental groups, and other key 
stakeholders in your efforts?

    Answer. Papua New Guinea (PNG) is one of the most richly diverse 
places on earth. There are millions of hectares of rainforests, as well 
as abundant marine resources. These rich resources provide the 
livelihoods for a significant portion of the population and are 
particularly important to the poor.
    Regrettably, there are multiple causes driving forest loss and 
degradation in PNG. These include invasive species, slash and burn 
agriculture, and local conflicts related to land use and access. The 
most challenging issue is weak governance. Because of weak governance, 
there has been extensive overexploitation and poor management of forest 
interests. I believe that there are a number of ways in which the 
United States can work with the government and people of PNG on these 
issues, and, if confirmed, I will work hard to advance the following 
efforts.
    The United States is addressing the drivers of deforestation in a 
number of fora, from the United Nations Framework Convention on Climate 
Change (UNFCCC), to the Forest Investment Program (FIP) and Forest 
Carbon Partnership Facility (FCPF), to bilateral programs. Most 
relevant is a new alliance announced at the Rio+ 20 meeting (June 21, 
2012) by the United States and the Consumer Goods Forum to bring 
together governments, the private sector, and NGOs to address 
deforestation associated with commodity production. The first meeting 
of this alliance will be held later this fall; both palm oil and pulp 
and paper, which are important issues in PNG, will be priorities for 
this alliance. PNG will also submit a Readiness Preparation Plan in the 
next few months to the FCPF, where the United States is an active donor 
and participant; this plan includes strategies to address the drivers 
of deforestation.
    The United States will also continue to work regionally and with 
key countries such as PNG to combat illegal logging and associated 
trade, and more broadly to promote sustainable management of forests, 
through cooperation in the International Tropical Timber Organization, 
the U.N. Forum on Forests, and APEC.
    Bilaterally, we are working to encourage commitments by the 
Government of PNG to strengthen democratic institutions to reduce 
corruption, expand inclusiveness, and strengthen law enforcement. In 
this regard, the intention of the PNG Government to join the Extractive 
Industries Transparency Initiative is a very positive development. If 
confirmed, I will encourage the PNG government to sustain and build on 
improvements in the management of rich biodiverse protected areas, 
including stimulating ecotourism. I will work to advance the PNG 
Government's commitments under the representations that it has made to 
the United Nations Framework Convention on Climate Change (UNFCCC) on 
forest protection and will work with them and NGO partners to monitor 
progress toward those objectives.
    Finally, the United States will continue to make direct investments 
through USAID. A new Coastal Management Program will focus on PNG's 
rich coastal forest resources and work with communities in those areas 
on sustainable management of terrestrial and marine resources. 
Resources permitting, we would augment this with support for active on-
the-ground monitoring and scientific research. Meanwhile, ongoing 
programs through the Coral Triangle Initiative engage NGOs, local 
communities, government, researchers and academics in increasing the 
scale of and better managing protected areas, getting local buy-in to 
these approaches, and working in surrounding areas to better manage 
them.
    If confirmed, I will seek opportunities to work with NGOs, the 
private sector, academia, the people of PNG, and other governments to 
explore further ways to enhance conservation and protection of Papua 
New Guinea's incredible biodiversity.

    Question. Climate change poses devastating risks to small island 
nations that are particularly vulnerable to sea-level rise because of 
their geography. By 2008, the sea level surrounding the Carteret 
Island, an atoll of the Autonomous Region of Bougainville, had risen to 
a point where residents began to relocate to higher ground and/or 
neighboring islands. The impacts of climate change and the threat it 
poses on small island nations is an important issue for our diplomatic 
missions to address. Please describe what you consider to be effective 
ways to diplomatically address climate change. What in your previous 
experience lays the foundation for you to be successful in working on 
these issues?

    Answer. The United States recognizes that climate change is an 
urgent environmental, economic, development and security issue for the 
Pacific region. The United States will continue our efforts to assist 
the people of the Pacific in finding workable adaptation solutions to 
the challenges of climate change. We stand behind our pledges in the 
United Nations Framework Convention on Climate Change (UNFCCC) to take 
prompt, substantial action to help vulnerable countries adapt to 
climate change and, if confirmed, one of my priorities is to work with 
Papua New Guinea, Solomon Islands, and Vanuatu on ways to tackle the 
problem of climate change. Existing programs provide an avenue to open 
enhanced regional dialogue and cooperation on this difficult issue. I 
hope to develop those channels during my tenure, if I have the honor of 
being confirmed as Ambassador. In addition, the newly opened USAID 
office in Port Moresby extends added opportunities to bring together 
regional and U.S. experts on climate change and environmental 
degradation. The United States currently provides significant climate-
related assistance to the region, with $40.5 million in appropriated 
and requested funds for climate programs between fiscal year 2010 and 
2013. At the Pacific Island Forum Post Forum Dialogue on August 31, 
Secretary Clinton announced a $25 million USAID program to help 
vulnerable coastal communities in the Pacific region to withstand 
extreme weather events in the short term, plus sea-level rise in the 
long term.
    As a long-time USAID mission director, I have overseen the 
development and implementation of successful programs to address a 
number of comparable challenges, particularly in Indonesia where I 
worked on the Coral Triangle Initiative and significant bilateral 
terrestrial and marine programs. If confirmed, I will draw on that 
experience in reaching out to actors in the region to do all that we 
can to build on the serious commitments made by the administration.
    We want to ensure that our programs in the region not only support 
adaptation efforts related to food security, water resources, coastal 
infrastructure, and ecosystems, but also address critical governance 
issues that will help the region build institutional and human capacity 
to access adaptation funds and to understand, forecast, and use climate 
information. If confirmed, I look forward to working with the committee 
on these issues.
                                 ______
                                 

           Responses of Walter North to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Mr. North, you have extensive background on a wide range 
of development issues. What are ``lessons learned'' during your time in 
Indonesia that may be helpful as you consider development opportunities 
and challenges in Papua New Guinea?

    Answer. If confirmed, I believe that I will be able to build on my 
experiences in Indonesia and elsewhere. In Indonesia, by listening 
carefully to a variety of partners, we were able to build alliances for 
sustainable change on education, the environment, jobs, food security, 
health, disaster risk reduction, and democratic governance. We relied 
heavily on our committed local staff of Indonesians who cared deeply 
about their country and its future. They and our dedicated American 
team helped us reach out to local communities, the Government of 
Indonesia, nongovernmental partners, academia, business, and faith-
based organizations to build interventions that could be implemented on 
a broader scale. The Embassy's power to bring together stakeholders, 
the contributions of a number of other U.S. Government entities, and 
the support of successive strong, creative, and dedicated Ambassadors 
was a huge plus. That combined with ability to draw on the best of 
American know-how and first-rate technical assistance kept the momentum 
going forward. Finally, we had excellent counterparts in the Government 
of Indonesia who shared a commitment to regular monitoring and rigorous 
evaluation. When things were not working, we changed course or stopped 
them. And when they did do well, the Government of Indonesia was ready 
to expand them using their own resources. I expect that elements of 
this approach will be useful in Papua New Guinea, too. I am 
particularly committed to using the influence of the Embassy and my 
position as Ambassador, if confirmed, to advance existing and future 
initiatives to advance development and address critical issues, such as 
public health, climate, and the environment.

    Question. What is the status of the $1.5 million-per-year U.S.-
funded HIV/AIDS project in Papua New Guinea? Please provide details of 
the latest evaluation of this program's effectiveness.

    Answer. USAID and the Centers for Disease Control (CDC) jointly 
implement the U.S. Government's HIV/AIDS prevention, care, and 
treatment programs in Papua New Guinea. Papua New Guinea suffers from 
the highest HIV/AIDS prevalence rate in the Pacific, and U.S. 
Government efforts are targeted to reach the most at-risk populations 
in the country. The geographic focus of U.S. Government-funded programs 
is carefully coordinated with the programs of other bilateral and 
multilateral donors, as well as with the Papua New Guinea Ministry of 
Health and National AIDS Council, to avoid duplication of efforts and 
maximize coverage. USAID programs focus on building the capacity of the 
host government to scale up public and community-based, fully 
integrated HIV prevention, care, and treatment programs in defined 
geographic areas to halt the spread of the disease and mitigate its 
negative effects on society. CDC works closely with the Ministry of 
Health to improve its laboratory testing and surveillance capacity to 
enable better understanding of the epidemic and support a fact-based 
public health response.
    U.S. Government programs have been instrumental in raising 
awareness of HIV/AIDS transmission patterns, establishing treatment 
protocols, and pioneering work in promoting voluntary testing and 
counseling among at-risk groups. Indeed, many of the approaches adopted 
by U.S. Government programs have served as models for other donors and 
the national Ministry of Health. Comprehensive reviews of the initial 
5-year program, which will be completed in December 2012, have been 
uniformly positive. In accordance with the recommendations of the 
review, the next 5-year program will increase focus on the intersection 
between HIV/AIDS and violence against women, while still maintaining 
the overall focus on an integrated model of prevention, care, and 
treatment in targeted geographic areas. In FY 2012, Papua New Guinea 
received $5 million from the U.S. President's Emergency Plan for AIDS 
Relief (PEPFAR) for its HIV/AIDS response.

    Question. Please provide details of the model or approach you 
utilized as USAID mission director in Indonesia to review the 
effectiveness of U.S.-funded assistance.

    Answer. In Indonesia, U.S. investments benefited from a legacy 
commitment to evaluation that had been instilled and nurtured in the 
mission culture over successive directors. This meant that there were 
staff with requisite skills, tracking and monitoring systems in place, 
resources set aside for monitoring and evaluation, and a consideration 
of monitoring and evaluation at every step of an activity's cycle. 
Regular portfolio reviews and consultations with counterparts 
reenforced the importance of the issue. Consequently, when USAID 
Administrator Shah's AID Forward reform agenda focused on evaluation, 
we welcomed the commitment and were well positioned to participate in 
it.

    Question. Having worked in Indonesia, you are familiar with efforts 
between the United States and Indonesia, to study tropical diseases. Is 
such a collaborative project presently underway in Papua New Guinea? If 
not, what do you see as prospects for the United States and Papua New 
Guinea to work together so that tropical diseases and other public 
health issues connected to the country's biodiversity may be studied?

    Answer. The National Institutes of Health currently partners with 
the Papua New Guinea Institute of Medical Research in Goroka through a 
Malaria Center of Excellence. This initiative brings together 
researchers from both countries to examine collaboratively new ways to 
control the spread of this tropical disease, which is endemic 
throughout Papua New Guinea. Both the National Institutes of Health and 
USAID are examining ways to increase this collaborative work in Papua 
New Guinea through expanded tropical disease research, prevention, and 
treatment. CDC is working to strengthen laboratory and disease 
surveillance systems in the country. The addition of a public health 
specialist from the Navy Bureau of Medicine and Surgery to the Embassy 
staff in October 2012 will help facilitate expanded Department of 
Defense engagement in this area. If confirmed, I will work closely with 
all elements of our health diplomacy team in Port Moresby to identify 
areas for closer partnership and collaboration on tropical diseases and 
public health challenges in Papua New Guinea, Solomon Islands, and 
Vanuatu.

    Question. When did the latest review of security at the U.S. 
Embassy in Papua New Guinea occur? Were there recommendations for 
improvement? If so, have the recommendations been implemented?

    Answer. The last Diplomatic Security Program Management review for 
Embassy Port Moresby was published on June 8, 2011. Two of the 
recommendations contained in that report have not yet been fully 
implemented. The outstanding recommendations deal with timekeeping and 
communication equipment that the local guard force contractor has not 
yet provided to local guard force employees. Embassy Port Moresby has 
been in regular contact with the local guard force contractor to press 
for the deployment of the recommended equipment. The local guard force 
contractor is working to procure its equipment--a difficult exercise in 
Papua New Guinea--and intends to deploy it in the near future. In the 
interim, Embassy Port Moresby has provided U.S. Government-owned 
equipment to local guard force employees to ensure that there are no 
gaps in security coverage.

    Question. To what degree are the people of Papua New Guinea reliant 
upon fish for their food supply? To your knowledge, have any studies 
been conducted regarding the longevity of the fish stock supplying 
Papua New Guinea for domestic consumption as well as export?

    Answer. Fish and seafood are an important source of protein in the 
diet of coastal communities in Papua New Guinea. Numerous studies have 
been conducted both by governmental and nongovernmental sources 
analyzing the sustainability of Papua New Guinea's fish stocks, 
particularly migratory fish stocks, including various tuna species, the 
country's principal fish export. In addition, a number of governmental 
and nongovernmental studies have been conducted to determine the impact 
of climate change on Papua New Guinea's fish stocks, focusing primarily 
on various species of reef fish, which are important for domestic 
consumption. These studies have all highlighted the need for careful 
conservation of Papua New Guinea's fish stocks in order to ensure their 
long-term viability, as well as the need for measures to protect Papua 
New Guinea's coral reefs from the impact of climate change.
    The Government of Papua New Guinea has been a credible partner in 
efforts to ensure the sustainable management of migratory fish stocks 
in the Pacific. Papua New Guinea's waters contain about 10 percent of 
the world catch of tuna, the biggest tuna resource base of any country 
on earth. The South Pacific Tuna Treaty and the Western and Central 
Pacific Fisheries Convention (WCPFC) are the two major treaties 
regulating tuna fishing in the South Pacific region. Earlier this year 
Papua New Guinea revoked its prior withdrawal from the Tuna Treaty, and 
since then has been a constructive partner in the ongoing negotiations 
on its extension. The United States looks forward to working with Papua 
New Guinea to conclude the remaining steps to extend this agreement.
    Both Papua New Guinea and the Solomon Islands receive USAID support 
as members of the six-nation Coral Triangle Initiative, which also 
includes Indonesia, Philippines, Timor-Leste, and Malaysia. The Coral 
Triangle Initiative--which is also supported by other bilateral donors, 
multilateral development banks, and international NGOs--works to 
protect mangroves, coasts/coral reefs, fisheries, and other coastal 
resources within a 5.7 million square kilometer area of ocean and 
islands with the highest marine biodiversity on earth. To complement 
this work, USAID, as part of the regional climate change work being 
done through its Pacific Islands Office in Port Moresby, is 
establishing a coastal mangrove planting, protection, and management 
program that will assist coastal communities in Papua New Guinea and 
Solomon Islands in protecting reefs and fish breeding grounds. In 
addition, as part of its program to assist communities in Papua New 
Guinea, Solomon Islands, and Vanuatu to adapt to the realities of 
climate change, USAID intends to assist with sustainable fisheries 
management in coastal communities.

    Question. According to the U.S. Department of State's Background 
Notes for Papua New Guinea, ``petroleum and mining machinery and 
aircraft have been the strongest U.S. exports. Looking to the future, 
do you see opportunities for expanded categories of U.S. exports to the 
country? Please elaborate.

    Answer. Given the projected expansion of Papua New Guinea's 
petroleum and mining sectors over the next several years, it is very 
likely that U.S. exports to the country will continue to be dominated 
by machinery related to these industries. There is potential for 
immediate growth in other categories, however, particularly renewable 
energy technology and construction machinery. The potential for 
increased export of U.S. food and consumer products to Papua New Guinea 
also exists. The export of such products has, however, been hampered by 
Papua New Guinea's stringent sanitary and phytosanitary regime and 
weaknesses in intellectual property protection. To address these 
barriers to increased U.S. exports, the United States has agreed to 
begin bilateral discussions on trade matters with the Papua New Guinean 
Government.
    If confirmed, I will work closely with all elements of the U.S. 
Government to identify ways to broaden our exports to Papua New Guinea 
and will engage with Papua New Guinean Government authorities to reduce 
barriers to the entry of U.S. products in their market.
                                 ______
                                 

          Responses of Joseph Macmanus to Questions Submitted 
                       by Senator Robert Menendez

    Question. Mr. Macmanus, as you assume a key role as the lead U.S. 
Representative to the IAEA, what are the administration's top 
priorities? Where do IAEA priorities differ from those of the United 
States? Where differences between U.S. and IAEA priorities exist, do 
you have a plan to bring those priorities more in line with our own?

    Answer. The administration's top foreign policy priority at the 
IAEA is to prevent Iran from obtaining a nuclear weapon and to support 
the IAEA's efforts to monitor and inspect both Iranian and Syrian 
nuclear activities, as the international community continues to 
pressure these countries to comply fully with its international nuclear 
obligations. As set out by U.N. Security Council Resolutions (UNSCRs) 
1696, 1737, 1747, 1803, 1835, 1929, and 1984, such cooperation entails 
access for the IAEA to sites, materials, and persons relevant to the 
effort to ascertain the true nature of Iran's nuclear program, 
including the possible military dimensions of that program. If 
confirmed, supporting IAEA's efforts to gain full access to Iranian and 
Syrian nuclear programs and to prevent Iran from obtaining a nuclear 
weapon will be my top priority.
    Another priority is to support the IAEA's efforts to maintain 
readiness to reestablish a long-term presence to effectively monitor 
and verify the cessation of nuclear activities in the DPRK. UNSCR 825 
concerns the DPRK's nuclear activities and requires access for IAEA 
inspectors.
    The 2011 Fukushima tragedy in clearly demonstrated the critical 
importance of international cooperation on nuclear safety and incident 
response. The administration is committed to supporting IAEA 
initiatives in this area, including implementation of the Agency's 
Nuclear Safety Action Plan which was adopted by member states in 
September 2011.
    Keying off U.S. leadership on nuclear security matters, the IAEA is 
also exploring how it can play a strengthened role in promoting nuclear 
security and keeping nuclear materials out of the hands of terrorists. 
This effort reinforces Presi-
dent Obama's Nuclear Security Summit Initiative and will help to 
sustain and strengthen international focus on this issue beyond the 
planned 2014 summit to be held in the Netherlands.
    The administration is committed to supporting the Agency in its 
unique and indispensable role in implementing nuclear safeguards, which 
provide the technical and substantive case for U.N. Security Council 
and other actions and sanctions. To that end, if confirmed, I will do 
all I can to ensure that the IAEA has the resources to carry out the 
infrastructure improvements and technical upgrades it may need to 
maintain its effectiveness.
    In the same vein, the United States has long been the greatest 
supporter of the Agency's role in promoting the availability of the 
peaceful uses of nuclear energy through its program of Technical 
Cooperation. Technical Cooperation projects promote food security, 
human health/cancer treatment, water management and other benefits, 
particularly for the developing world. U.S. support was demonstrated 
most recently in President Obama's commitment to the IAEA Peaceful Uses 
Initiative, which was announced by the Secretary at the 2010 Nuclear 
Nonproliferation Treaty Review Conference and which seeks to raise $100 
million to expand and accelerate Technical Cooperation. The Peaceful 
Uses Initiative has made possible such quick-reaction projects as the 
IAEA's study of the marine environment effects of Fukushima in the 
Pacific Islands region.
    The administration also strongly supports the IAEA's ongoing work 
to set up an IAEA LEU fuel bank, which gives substance to member 
states' commitment to making the peaceful uses of the atom accessible 
to all and helps to reduce incentives for member states to develop the 
enrichment and reprocessing capabilities that can contribute to 
proliferation risks.
    Despite overall strong management within the Agency, I believe that 
more progress could be made with respect to transparency and 
accountability. In 2012, the Agency took a welcome advance in 
transparency by publishing the first ever annual activity report for 
the Office of Internal Oversight Services (OIOS). The Agency has 
expressed reservations about public disclosure of individual OIOS 
internal audits reports due to concerns that it could impede access to 
member states' sensitive technical information and capabilities.
    If confirmed, I will continue to press the IAEA to continue to work 
to enhance fiscal and management accountability. Given the Agency's 
positive track record in revising procedures for vetting Technical 
Cooperation projects, and a strong relationship of openness and candor, 
I remain very optimistic that we will be successful in our efforts to 
encourage the IAEA to continue to review and reform itself and its 
procedures in a way that benefits the overall efficiency and 
accountability of the organization.

    Question. Can you tell us more about the IAEA Iran Task Force? 
Beyond the name, how will this task for change the short-term 
interaction and long-term approach that the Agency takes on Iranian 
nuclear issues? Has the IAEA had a similar task force before? If so, do 
you think it was effective, and if not, what will you do to ensure that 
the Iran Task Force produces results?

    Answer. The International Atomic Energy Agency (IAEA) has stood up 
an Iran Task Force. This is the first such Task Force organized to 
handle an ongoing investigation of a specific country in noncompliance 
with its safeguards agreement. Given Iran's ongoing and increasing 
intransigence and failure to cooperate with the IAEA, we consider the 
Task Force to be a positive development and an example of both the 
commitment of the Director General and the seriousness of the IAEA in 
resolving this issue. Among the first jobs of the task force should be 
the successful conclusion of discussions leading to a structured 
approach to resolving outstanding issues concerning Iran's nuclear 
program as articulated by the Director General's report of November 
2011 and subsequent reports.
    The Task Force will consolidate Iran experts into a single unit 
that will allow them to more deeply analyze the information available 
to the IAEA. This will allow the IAEA to put together an even better 
picture of the Iranian nuclear program and, among other things, be 
better poised to implement a structured approach when Iran agrees to 
doing so. It could also make additional information available to the 
international community through the Director General's reports to the 
IAEA Board of Governors.
    If confirmed, I will work to ensure that both the IAEA and the Task 
Force produce positive results on this issue.

    Question. Mr. Macmanus, as you know the IAEA plays a critical role 
in standards setting and information-sharing with regard to nuclear 
energy safety. Following the Fukushima disaster this role is more 
important than ever. What role do you think the United States should 
play in shaping the IAEA's response to this disaster and what lessons, 
if any, do you think the United States can learn from other member 
nations' responses to the disaster?

    Answer. The United States, along with many other member states, 
played a key, and I believe appropriate, role in supporting the efforts 
of the IAEA to share-information during the Fukushima crisis. During 
the crisis, the IAEA was somewhat constrained by its regulations that 
do not permit dissemination of information to other member states or 
the public without the consent of the Government of Japan and other 
countries concerned. While these governments were forthcoming in 
providing such consent, the additional requirement caused unavoidable 
delays in some announcements and briefings by the IAEA.
    I would note that member state support in the form of extra-
budgetary contributions, Cost-Free Experts, and additional technical 
information and resources provides the IAEA with the considerable 
expertise and capability it needs. Moreover, other organizations also 
contributed valuable assistance. For example, the Preparatory 
Commission for the Comprehensive Nuclear Test-Ban Treaty Organization 
(CTBTO) provided real-time seismic data that greatly assisted the IAEA 
and the international community in predicting tsunami and other 
activities during this crisis period.
    The Fukushima disaster and member states' responses underscored two 
important aspects of nuclear safety: First, that preparation for and 
response to nuclear safety incidents remain first and foremost 
responsibilities of the individual state; and second, that 
international standards of regulation, practice, and response bring 
needed transparency and predictability to disaster preparedness.
    Moving forward, the United States will continue to play an active 
role in shaping the IAEA's continued response to the Fukushima 
disaster. The administration commended the efforts of the Agency and 
its member states in implementing the Action Plan for Nuclear Safety 
and absorbing lessons from the Fukushima Daiichi accident. Among the 
many actions taken, the United States believes self-assessments by 
national regulators and efforts to strengthen the effectiveness and 
thoroughness of international peer review missions have been especially 
helpful in assessing and providing insights into how national 
regulatory programs can be strengthened. For example, the United States 
is actively compiling lessons learned from assessment mission programs 
such as the Integrated Regulatory Review Service, which aims to make 
these peer reviews more robust. In addition, under IAEA auspices, the 
Parties to the Convention on Nuclear Safety held an Extraordinary 
Meeting on August 27-31, where they identified a number of actions in 
the ``Action-Oriented Objectives'' document that I understand can and 
should be taken immediately to enhance nuclear safety worldwide.
    These actions focus on implementing IAEA Safety Standards broadly 
and effectively, strengthening the independence and transparency of 
national regulatory bodies, employing international peer review 
missions (such as those already offered by the IAEA) to consult with 
member states on their safety regimes, and increasing transparency and 
public involvement with respect to nuclear safety activities. To be 
truly effective, in my view, states must implement these identified 
actions in an expeditious, thorough, and continuing manner.
    No nuclear program can be verifiably safe without a robust, 
effective, and independent regulator, like the U.S. Nuclear Regulatory 
Commission (NRC) that operates in an open and transparent manner. 
Contracting Parties to the IAEA Convention on Nuclear Safety are 
committed to reviewing their national regulatory programs to implement 
the lessons learned after the Fukushima accident, and to develop 
regulations and other mechanisms to anticipate, prevent, mitigate and 
effectively respond to events in the future.
    Immediately following the Fukushima accident, the NRC established a 
task force to review data and actions taken by Japan. The objective of 
the task force was to better understand the accident itself, and to 
also make recommendations on how to enhance the safety of the U.S. 
nuclear program. The NRC has also participated in ongoing consultations 
with counterpart regulators in Europe to study the criteria established 
for, and the results of, the nuclear power plant ``stress tests'' 
initiated for European countries. NRC has had similar consultations 
with regulators with mature nuclear programs elsewhere in the world to 
ensure that the recommendations provided to the Commission are informed 
by actions taken by other countries.
    As I understand, governments are committed to assisting and 
learning from the Fukushima accident as they develop technical and 
regulatory approaches to their nuclear activities. If confirmed, I will 
work to see that this focus on safety remains in the forefront of IAEA 
activities.
                                 ______
                                 

           Responses of Walter North to Questions Submitted 
                         by Senator Marco Rubio

    Question. The State Department's 2012 Trafficking in Persons Report 
lists Papua New Guinea as a Tier 3 country for trafficking due to its 
failure to meet minimum standards for the elimination of trafficking 
and failure to make significant efforts to combat trafficking. Papua 
New Guinea is a source, transit and destination country for men, women, 
and children subjected to sex trafficking and forced labor. Papua New 
Guinea had been listed as a Tier 3 country since the 2008 Trafficking 
in Persons Report.

  <bullet> If confirmed, what would be your new strategy to engage the 
        government in
        beginning to seriously combat this crime?

    Answer. In the 2012 Trafficking in Persons (TIP) Report, Papua New 
Guinea (PNG) was ranked Tier 3 for the fifth year in a row. If 
confirmed, I will work closely with PNG authorities to reverse that 
trend by adopting and implementing tools required to address human 
trafficking.
    For example, with U.S. assistance the Government of PNG has drafted 
anti-trafficking legislation and has taken tentative action toward 
enacting this legislation. If confirmed, I will urge the PNG Government 
to enact this legislation. The next step will be to work with the PNG 
Government to ensure that it enforces this legislation by 
investigating, prosecuting, and punishing trafficking offenders, 
including government officials complicit in trafficking. I will also 
work with the Government of PNG to encourage the development and 
implementation of procedures to identify trafficking victims among 
vulnerable groups and ensure they receive protective services.
    In addition, the State Department's Office of Trafficking in 
Persons has provided grants between 2010 and 2012 to the International 
Organization for Migration (IOM) to assist PNG in designing and 
implementing antitrafficking legislation and to help launch PNG's first 
antitrafficking awareness campaign. If confirmed, I intend to work 
closely with the government and with the IOM to ensure that the 
legislation is implemented effectively and other antitrafficking 
measures are adopted and implemented.

    Question. What specific benchmarks must Papua New Guinea meet to 
earn a Tier 2 Watch List designation? How do you plan on reaching 
these?

    Answer. Each country narrative in the TIP Report includes a list of 
recommendations, providing governments with a roadmap for addressing 
deficiencies in their antitrafficking efforts and improving their 
performance and their tier ranking. The 2012 TIP report on the PNG 
provided a number of recommendations, such as enacting legislation 
prohibiting and punishing all forms of trafficking; investigating, 
prosecuting, and punishing trafficking offenders; instituting a formal 
procedure to identify victims of trafficking among vulnerable groups; 
training law enforcement officers to proactively identify victims and 
refer them to protective services; ensuring that victims of trafficking 
are not arrested, deported, or otherwise punished for acts committed as 
a direct result of being trafficked; and acceding to the 2000 U.N. TIP 
Protocol.
    If confirmed, I will ensure that the Embassy regularly engages with 
the PNG Government to discuss the recommendations, to evaluate progress 
made to date, and to encourage additional actions as needed.
                                 ______
                                 

        Response of Sharon English Woods to Question Submitted 
                         by Senator Marco Rubio

    Question. The State Department's 2012 Trafficking In Persons Report 
lists Seychelles as a Tier 2 Watch List country for trafficking. 
Seychelles is a source and destination country for sex trafficking. 
Currently there are contradictions in existing laws relating to the sex 
trafficking crimes of child prostitution and forced prostitution of 
adults.

  <bullet> If confirmed, what steps will you take to ensure that 
        Seychelles passes clear and comprehensive antitrafficking 
        legislation?

    Answer. Secretary Clinton has spoken out forcefully against sexual 
slavery as a crime that cannot be tolerated in any culture. If I am 
confirmed, I will give this critical issue increased attention and urge 
the Seychelles Government to take immediate action to enact clear and 
comprehensive antitrafficking legislation. I will also seek to mobilize 
Seychelles civil society to protect women and children from this 
pernicious crime. The Seychelles economy is very dependent on tourism, 
and absent clear legislation, the type of tourists it risks attracting, 
could negatively impact its reputation for high-end tourism.
    To assist in these efforts, if I am confirmed, I will work with 
Congress and the State Department to provide assistance on legislative 
drafting, and follow that up with training of police, prosecutors, 
judges and civil society to protect women and children from further 
victimization. Our mission in Mauritius has collaborated with the 
Department of Justice to conduct training for the Mauritian judiciary, 
and I believe a similar training program could have significant 
benefits in combating trafficking in the Seychelles once the 
appropriate legislation is in place.

 
                  NOMINATIONS OF STEPHEN D. MULL AND 
                             DAWN M. LIBERI

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Stephen D. Mull, of Virginia, to be Ambassador to the 
        Republic of Poland
Dawn M. Liberi, of Florida, to be Ambassador to the Republic of 
        Burundi
                              ----------                              

    The committee met, pursuant to notice, at 10:30 a.m,. in 
room SD-419, Dirksen Senate Office Building, Hon. Richard 
Durbin, presiding.
    Present: Senators Durbin and Lugar.

         OPENING STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order. Today the 
committee considers two nominations: The Honorable Stephen Mull 
to be Ambassador to the Republic of Poland, and Ms. Dawn 
Liberi--did I pronounce that right?
    Ms. Liberi. Liberi.
    Senator Durbin. Liberi--to be Ambassador to the Republic of 
Burundi. Welcome to the nominees, their families, and friends.
    I am pleased to stand in for Senator Kerry, who is unable 
to join us. I will be brief with my introductory remarks, and 
then turn to Senator Lugar. I am glad that he has joined us. 
And then we will give you two an opportunity for opening 
statements. Please feel free at that time to introduce any 
family members that are here with you.
    Congratulations to both of you. I am pleased the President 
has nominated two experienced individuals who, if confirmed, 
will bring years of service to our country to bear in their 
respective posts.
    With the tragic deaths in the last several days of four 
Americans serving in our consulate in Libya, including 
Ambassador Chris Stevens, we are all reminded of the difficult 
and sometimes dangerous environment in which our dedicated 
State Department staff serve. Over my travels to some of the 
most remote and isolated corners of the globe, I have always 
been struck by the talented, dedicated U.S. personnel 
representing America in our embassies and consulates.
    Before we take your testimony, I would like to start with 
the introduction of each our nominees.
    Stephen Mull--I have the distinct pleasure of representing 
Illinois where Chicago is often noted as home to the largest 
Polish community outside of Poland. As Polish-Americans have 
been vibrant and active members of the fabric of our Nation 
since the 19th century, many even earlier, so, too, is the 
relationship between the United States and Poland.
    It was no coincidence President Obama awarded a posthumous 
Presidential Medal of Freedom to Prof. Jan Karski this last 
spring. A member of the Polish underground during World War II, 
Professor Karski was among the first to provide eyewitness 
accounts of the horrors of the Holocaust. I knew Jan Karski. He 
was my professor at the Georgetown School of Foreign Service--
yours as well. What a magnificent man. He was a great teacher 
and a great individual, and I am glad that he was recognized. 
He touched the lives of so many people in and out of the 
classroom. His spirit and compassion were displayed many times 
both in Poland and in the United States.
    The strong diplomatic ties between the United States and 
Poland are reflected in every aspect of our efforts to maintain 
international security, support economic development, promote 
democracy, and respect for human rights. Poland's historic 
entry into NATO and the European Union, its support in 
Afghanistan, collaboration on missile defense, its economic 
growth in a financial crisis that continues to sweep across 
Europe, are among the many examples of its outstanding progress 
over the past few decades, and its commitment to 
democratization and free market.
    Russia, in particular, has too often been a troubling 
neighbor to Baltic and Eastern European states, many times 
using blustering language and energy to bully its neighbors. 
Next door to Poland's thriving democracy is Belarus. What a 
contrast: a brutal dictatorship that still uses its own version 
of a KGB--and that is what they call it--to repress its own 
people and lock up those who dare to run against their 
President, Alexander Lukashenko.
    Poland has been a good friend to the Belarusian neighbors 
who are still struggling for freedom. When I visited Belarus 
after the imprisonment of these Presidential candidates, how 
many of those families said that the only place they could go 
to speak out about what was happening was Poland. Poland 
allowed them that opportunity to visit and a venue for 
expressing themselves.
    As the current Executive Secretary of the State Department 
and a diplomat with years of experience in Europe, Ambassador 
Stephen Mull, if confirmed--and he will be--is praised to 
confront--pardon me, poised to confront these many issues in 
Poland.
    Former Senior Advisor to the Under Secretary for Political 
Affairs, Ambassador Mull is currently Executive Secretary of 
the Department of State. He served previously as Acting 
Assistant Secretary of State for Political-Military Affairs. He 
served as U.S. Ambassador to Lithuania from 2003 to 2006, 
Deputy Chief of Mission at the U.S. Embassy in Indonesia from 
2000 to 2003. He has over 30 years of experience at the State 
Department. He received his B.S. degree from the prestigious 
Georgetown University.
    If confirmed, Ambassador Mull can offer the leadership 
necessary to continue cooperation between the United States and 
Poland.
    Having traveled to the central African region on many 
occasions, I have seen for myself, as I am sure Senator Lugar 
has, the significant challenges that countries, such as 
Burundi, face. Civil war, lack of clean water, schools, and 
jobs, and the need to ensure that a true democracy is nurtured, 
are just a few of the issues that face Burundi.
    In addition, the ongoing conflict in the Democratic 
Republic of Congo threatens to spill over and destabilize the 
Great Lakes Region. It is an issue I have tried to address 
through legislation and several visits to the Democratic 
Republic of Congo. I recently worked with some success with my 
colleagues on both sides of the aisle to address the issue of 
conflict minerals in that part of Africa.
    Dawn Liberi joins us today with many years of experience in 
many challenging countries. She served as senior assistant 
coordinator in Tripoli, Libya. Before that was the coordinator 
for Interagency Provincial Affairs and senior civilian 
representative for Regional Command East in Afghanistan. She 
has also served as the executive civil military counselor at 
USAID. Prior to that, was USAID mission director in Iraq, 
Nigeria, and Uganda. That may be where I met you the first time 
was Uganda.
    Ms. Liberi. Yes, Senator.
    Senator Durbin. Ms. Liberi holds a B.A. from Hampshire 
College and a master's in public health from the University of 
California at Berkeley. A seasoned diplomat with on the job 
experiences that help her serve as a true advocate for U.S. 
priorities and a comprehensive approach to assistance.
    If confirmed, Ms. Liberi will face enormous challenges in 
Burundi. Her nomination serves as a fitting followup to the 
assignments she had in the past. If confirmed, Ms. Liberi will 
be vital in helping Burundi continue to rebuild from its years 
of war and instability, as well as working with the government 
to contribute to the need for peace in the Great Lakes Region.
    I encourage all of you to respond expeditiously to any 
questions that may be forwarded after this committee hearing. 
The record is going to remain open for questions through noon 
on Friday.
    Senator Durbin. I want to thank you and all of your 
families for your service, and look forward to your testimony. 
In the interest of time, I will limit your testimony to 5 
minutes and then open it to questions.
    And before I proceed to your testimony, I would like to 
turn to my colleague, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
thank you for chairing this hearing and to the President and 
the Secretary of State for making these nominations in a timely 
way before we adjourn because the need to fill these posts is 
obvious.
    I am especially pleased to see Stephen Mull here. I 
remember our visits in Poland and your kindness during one of 
my travels there. And I have appreciated especially your 
ambassadorship in Lithuania. It was a very important time as 
Lithuania came into NATO's responsibilities, and a good number 
of other situations that are very important to our security.
    And, Ms. Liberi, I am so pleased that you have been 
nominated, as reassuring as you know Uganda will next door. As 
in the case of the chairman, my privilege at the behest of the 
Department of Defense to visit Kenya, Uganda, and Burundi a 
year ago in November. At that time, really taking a look at 
laboratories that had dangerous pathogens, but had no guards, 
and some diplomacy was required so there would not be a 
question of sovereignty, but a joint situation.
    Burundi did not have the pathogens. It had arms of all 
sorts, even in the neighborhood of Lawrence, as well as farm 
fields left over from previous wars, and huge problems in terms 
of health and education and problems of youth.
    As our notes committee has posted with our staff, Burundi 
points out has not often been a major focus of United States 
foreign policy. But it needs to be, and your presence there is 
likely to highlight that in a very timely way.
    So we are grateful to both of you for your willingness to 
assume these new obligations of service. We look forward to 
asking questions of you so that we can have our thoughts 
illuminated by your experience.
    I thank you again, Mr. Chairman, for having the hearing.
    Senator Durbin. Thank you, Senator Lugar.
    Ambassador Mull, please begin.

     STATEMENT OF HON. STEPHEN D. MULL, OF VIRGINIA, TO BE 
              AMBASSADOR TO THE REPUBLIC OF POLAND

    Ambassador Mull. Thank you very much, Senator Durbin, Mr. 
Chairman, and Senator Lugar. It is actually a real honor to be 
here with the both of you, having met not only you, Senator 
Lugar, but I believe I was the control officer for your first 
visit to Poland as a Senator in 1997, Senator Durbin. So it is 
a nice turnabout to be here with the both of you today.
    I would also like to introduce my family, who has joined me 
today: the love of my life and best friend, Cheri Stephan, and 
the light of our life, our son, Ryan, who we agreed to let play 
hooky so he could be with us today.
    Mr. Chairman and Senator Lugar, it is a great honor to 
appear before you as President Obama's nominee to be the next 
Ambassador to the Republic of Poland. I am deeply grateful to 
Secretary Clinton and to the President for their confidence and 
trust. And I pledge to you, if confirmed, to work very closely 
with the Congress in advancing America's interests with this 
most valuable and important ally.
    Beginning with Kazimierz Pulaski's and Tadeusz Kociuszko's 
really decisive support for the American Revolution almost 240 
years ago, through daily sacrifices in support of our common 
objectives in Afghanistan today, the people of Poland have 
repeatedly proven themselves to be among America's best and 
most reliable friends.
    Americans draw great inspiration from the Poles' stubborn 
resistance to oppression, whether confronting Nazi occupiers in 
the streets and forests, or exposing the horrors of the 
Holocaust, as Jan Karski did, but also when they were fighting 
for justice in the shipyards of Gdansk in the 1980s.
    The American people are proud to have supported their 
Polish friends over the years, beginning with President 
Wilson's steadfast support for Poland's independence at the end 
of World War I, through our assistance to Poland's new 
democracy in the 1990s.
    Our friendship with Poland is based on the very strong ties 
of family, a love of freedom, and a shared vision based on 
common values. Our friendship with Poland has very strong roots 
in the past, but it also has bright promise for the future. 
Poland has pledged to remain with us in Afghanistan through the 
end of combat operations through 2014, and to continue 
assisting Afghanistan after its troops depart.
    The United States and Poland will strengthen our promising 
economic relationship through working together to promote solid 
growth through expanded two-way investment, enhanced trade, and 
supporting energy independence, even as we closely cooperate in 
responding to the European financial crisis. Our two countries 
will continue to work to expand the frontiers of freedom 
through a close and hardworking partnership in support of 
democratic values and human rights around the world. And the 
United States and Poland share an important common agenda in 
modernizing NATO to meet the security challenges of the 21st 
century.
    If I am confirmed, it will be an extraordinary privilege to 
lead our team of over 140 Americans and more than 350 locally 
employed staff representing a large interagency presence at our 
Embassy in Warsaw and consulate general in Krakow.
    I will work hard, if confirmed, to protect American 
citizens, to deepen and broaden our cooperation with Poland on 
so many of our common issues, and to open new opportunities for 
American investment in Poland's growing economy, helping to 
bring jobs back home for Americans.
    Returning to Poland will have a special personal 
significance for me. I fondly remember working there as a 
junior officer in the mid-1980s when I had the honor of 
carrying messages of support between Lech Walesa and President 
Reagan, and meeting many of the activists who would later lead 
Poland to freedom. I returned to serve there in the exciting 
days of Poland's new democracy in the 1990s, where I had the 
honor of helping to prepare the way for Poland's membership in 
NATO. Returning to Poland a third time as Ambassador would open 
a rewarding new chapter in my work to strengthen this vital and 
important relationship for the United States.
    Thank you very much for the honor of appearing before you 
today, and I look forward to answering your questions.
    [The prepared statement of Ambassador Mull follows:]

                 Prepared Statement of Stephen D. Mull

    Mr. Chairman, members of the committee, it is a great honor to 
appear before you today as President Obama's nominee to be the next 
Ambassador of the United States to Poland. I am deeply grateful to 
Secretary Clinton and the President for their confidence and trust, and 
I pledge to you that if confirmed, I will work closely with the 
Congress in advancing America's interests with this most valuable and 
important ally.
    From Kazimierz Pulaski's and Tadeusz Kosciuszko's decisive support 
for the American Revolution almost 240 years ago through their daily 
sacrifices in support of our common objectives in Afghanistan today, 
the people of Poland have repeatedly proven themselves to be among 
America's best and most reliable friends. Americans have drawn 
inspiration from the Poles' stubborn resistance to oppression, whether 
challenging Nazi occupiers in the streets and forests and exposing the 
horrors of the Holocaust, or fighting for justice in the shipyards of 
Gdansk. The American people have been proud to assist our Polish 
friends through the years, from President Wilson's steadfast support 
for Polish independence at the close of World War I through our support 
for Poland's new democracy in the 1990s. Ours is a friendship based on 
the ties of family, a love of freedom, and a shared vision based on 
common values.
    While America's friendship with Poland has strong roots in the 
past, it also has bright promise for the future. Poland has pledged to 
remain with us in Afghanistan through the end of combat operations in 
2014, and to continue supporting Afghanistan after its troops depart. 
The United States and Poland will strengthen our promising economic 
relationship by promoting solid economic growth through expanded, two-
way investment, enhanced trade, and support for energy independence, 
and through close consultation in responding to the European financial 
crisis. Our two countries will continue to work together to expand the 
frontiers of freedom, with a close and hardworking partnership in 
support of democratic values and human rights around the world. And the 
United States and Poland have an important common agenda in modernizing 
NATO to meet the security challenges of the 21st century.
    If I am confirmed, it will be an extraordinary privilege to lead 
our team of over 140 Americans and more than 350 locally employed staff 
representing a large interagency presence in our Embassy in Warsaw and 
Consulate General in Krakow. I will work hard, if confirmed, to protect 
American citizens, promote even closer cooperation with Poland on our 
common interests, and open new opportunities for American trade and 
investment in Poland's growing economy, helping to deliver jobs back 
home for Americans. Returning to Poland will have a special personal 
significance for me. I fondly recall working there as a junior officer 
in the mid-1980s, when I had the honor of carrying messages of support 
between President Reagan and Solidarity leader Lech Walesa and meeting 
many of the activists who would later lead Poland to freedom. I served 
there again in the mid-1990s in the exciting days of Poland's new 
democracy, when I helped prepare the way for Poland's membership in 
NATO. Returning as Ambassador, if I am confirmed, will open a rewarding 
new chapter for me in working to strengthen this important and valuable 
friendship.

    Senator Durbin. Thank you, Ambassador.
    Ms. Liberi.

 STATEMENT OF DAWN M. LIBERI, OF FLORIDA, TO BE AMBASSADOR TO 
                    THE REPUBLIC OF BURUNDI

    Ms. Liberi. Thank you, Mr. Chairman, Senator Durbin, and 
Senator Lugar. Senator Durbin, you may recall that I had the 
honor to host you in Uganda, and we visited a women's financial 
microenterprise program. And I was very impressed because you 
actually agreed to hold the meeting in a chicken coop, which is 
where the women wanted to have the meeting. So thank you. 
[Laughter.]
    I am very honored to be here today, and I am honored that 
President Obama has nominated me to be the next Ambassador to 
the Republic of Burundi. And if confirmed, I will do everything 
in my power to live up to the trust that President Obama and 
Secretary Clinton have placed in me.
    I have spent the majority of my Foreign Service career in 
sub-Saharan Africa, as well, as has been noted, in postings 
most recently in Iraq, Afghanistan, and Libya. Serving in 
Africa over a span of 20 years provides me with an 
understanding of the challenges that Burundi faces, also as 
well as the opportunities that they present. If confirmed, I 
will work closely with the government and people of Burundi to 
strengthen our bilateral relationship and support its 
burgeoning democracy.
    A friend of the United States, Burundi is also one of the 
world's poorest countries, and 70 percent of the population 
live below the poverty line. A young, unskilled labor force, 
high population density, and refugees returning from Tanzania, 
pose daunting challenges for Burundians' fledgling democracy 
and struggling economy. Despite these challenges, it is 
important to note the steps that Burundi has taken toward 
achieving peace, stability, and democratic transition.
    The Arusha Peace Accords, signed in 2000 and codified in 
Burundi's 2005 Constitution, created a framework for power-
sharing and de-ethnicizing political competition. Burundi has 
held two rounds of successful democratic elections in 2005 and 
2010, when President Nkurnziza was reelected for a second term.
    However, Burundi's institutions of democracy are young and 
evolving. There remain very serious challenges to protection of 
human rights, trafficking in persons, political violence, and 
extra-judicial killings. Endemic corruption, coupled with a 
lack of judicial independence and transparency, create a 
culture of impunity that has lasted for decades. These are 
challenges that must be actively engaged. If confirmed, I am 
committed to speaking out against these serious problems, 
working to advance the protection of human rights, pushing for 
accountability and real progress on establishing independent 
justice mechanisms, and working in partnership with the 
Burundian Government and civil society to strengthen and 
protect the gains that have been made with democratic 
institutions. And this will be a critical step toward 
successful elections in 2015.
    A committed contributor to the African Union mission in 
Somalia since its inception in 2008, Burundi is a critical 
partner of the United States in our collective efforts to fight 
the al-Qaeda linked terrorist group al-Shabab. Currently, six 
battalions of Burundian troops support the AMISOM operations 
with a strength of over 5,500 soldiers, making it the second-
largest troop contributor to this mission.
    Ranking 185 out of 187 countries on the human development 
index, transforming Burundi's economy to produce sustainable 
job-creating growth is the cornerstone toward maintaining long-
term peace and stability. Reliant on subsistence agriculture, 
Burundi faces high unemployment, food shortages, growing youth 
population, and historic land disputes. HIV/AIDS and high rates 
of maternal and child mortality also undermine the economy.
    To address these issues, the Burundian Government has 
adopted a poverty reduction strategy plan, and is now 
implementing phase two in accordance with this economic vision, 
Burundi 2025, which was launched last year. This vision focuses 
on economic diversification with private sector development, 
strengthening rule of law, good governance, and promoting 
gender equality and access to services. A key factor in this 
will be Burundi availing itself to a larger regional market and 
improved trade and investment regime by participating in east 
Africa community's trade regime integration. The United States 
continues to support a development assistance program in 
Burundi with an emphasis on health and HIV/AIDS.
    America's relationship with Burundi has been historically 
constructive based on trust and shared values.
    If confirmed, I will build on that sold foundation and work 
tirelessly to successfully represent American values and to 
pursue American interests in Burundi.
    Mr. Chairman, members of the committee, I thank you again 
for this opportunity to appear before you. And I would be happy 
to take questions.
    [The prepared statement of Ms. Liberi follows:]

                  Prepared Statement of Dawn M. Liberi

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am honored that President 
Obama has nominated me to serve as Ambassador to the Republic of 
Burundi. If confirmed, I will do everything in my power to live up to 
the trust the President and Secretary Clinton have placed in me.
     I have spent the majority of my Foreign Service career in sub-
Saharan Africa, serving in five postings--including as USAID mission 
director in Nigeria and Uganda, and deputy director in Ghana. Most 
recently I have served in Iraq, Afghanistan, and Libya--countries at 
the forefront of U.S. foreign policy. Serving in Africa over a span of 
20 years provides me with an understanding of the challenges that 
Burundi faces and the opportunities they present. If confirmed, I will 
work closely with the government and people of Burundi to strengthen 
our bilateral relationship and support its burgeoning democracy.
    A friend of the United States, Burundi is also one of the world's 
poorest countries with 70 percent of the population living below the 
poverty line. A young, unskilled labor force, high population density, 
and reintegrating returning refugees from Tanzania poses daunting 
challenges for Burundi's fledgling democracy and struggling economy.
    Despite these challenges, it is important to note the steps Burundi 
has taken toward achieving peace, stability, and democratic transition. 
The Arusha Peace Accords, signed in 2000 and codified in Burundi's 2005 
Constitution, created a framework for power-sharing and de-ethnicizing 
political competition.
    Burundi has held two rounds of successful democratic elections; in 
2005 and 2010, when President Nkurunziza was reelected for a second 
term.
    However, Burundi's institutions of democracy are young, and 
evolving. There remain very serious challenges relating to the 
protection of human rights, trafficking in persons, political violence, 
and extrajudicial killings. Endemic corruption, coupled with a lack of 
judicial independence and transparency create a culture of impunity 
that has lasted for decades. These are challenges that must be actively 
engaged. If confirmed, I am committed to speaking out against these 
serious problems, working to advance the protection of human rights, 
pushing for accountability and real progress on establishing 
independent justice mechanisms, and working in partnership with the 
Burundian Government and civil society organizations to strengthen and 
protect the gains made with democratic institutions--a critical step 
toward achieving successful elections in 2015.
    A committed contributor to the African Union Mission in Somalia 
(AMISOM) since its inception in 2008, Burundi is a critical partner of 
the United States in our collective efforts to fight the al-Qaeda-
linked terrorist group al-Shabaab. Currently six battalions of 
Burundian troops support AMISOM operations with a total strength of 
5,542 soldiers, making it the second-largest troop contributor to this 
important mission.
    Ranking No. 185 of 187 countries on the Human Development Index, 
transforming Burundi's economy to produce sustainable job-creating 
growth is a cornerstone toward maintaining long-term peace and 
stability. Reliant on subsistence agriculture, Burundi faces high 
unemployment, food shortages, a growing youth population and historic 
land disputes. HIV/AIDS and high rates of maternal and child mortality 
further undermine the economy.
    To address these issues, the Burundian Government adopted a Poverty 
Reduction Strategy Plan (PRSP) in 2006, and is now implementing Phase 
II in accordance with its economic plan Vision Burundi 2025 launched by 
the government in 2011. This vision focuses on economic diversification 
with private sector development, strengthening rule of law, good 
governance and promoting gender equality, and improving access and 
quality of social services. A key factor in achieving these goals will 
be Burundi availing itself to a larger regional market and improved 
trade and investment regime by fully participating in the East African 
Community's efforts to advance regional integration. The United States 
supports continued development assistance to Burundi, with an emphasis 
on health and HIV/AIDS.
    America's relationship with Burundi has been historically 
constructive, based on trust and shared values. If confirmed, I will 
build on that solid foundation, and work tirelessly to successfully 
represent American values and to pursue American interests in Burundi.

    Senator Durbin. Thanks, Ms. Liberi. There will be a few 
questions for each.
    Ambassador Mull, if I asked the Polish community in Chicago 
their No. 1 concern, it is the visa waiver program. So could 
you please tell me what the position of the administration is 
and how you would explain it to Polish-Americans who wonder why 
they are not getting preferred treatment when it comes to this 
issue?
    Ambassador Mull. Thank you for the question, Senator. The 
President very much supports the views of the Polish community 
of Chicago and that as well as many Poles who live in Poland. 
President Obama has committed in diplomatic channels to our 
Polish friends, as well as publicly, his support for bringing 
Poland into the visa waiver program.
    Because of various technicalities associated with previous 
legislation governing participation in the program, it is quite 
possible that there will be required some legislative fixes to 
allow Poland to take its place. And so I know several of your 
colleagues are sponsoring legislation on that. And I know the 
administration and as well as I, if I am confirmed, look 
forward to working very closely with you to enact the necessary 
legislation, and also to work within the administration side to 
make whatever administrative changes we need to make it 
possible. It is a very important goal for our relationship with 
Poland, and I look forward to working hard on it.
    Senator Durbin. I am joining as a cosponsor on that 
legislation. My colleague, Senator Kirk, who is away recovering 
from a stroke, is one of the leaders on that legislation, and I 
think he is right. I want to support his efforts in moving 
toward visa waivers.
    Tell me about Belarus because it is such a stark contrast. 
Leaving Lithuania or Poland, going into Belarus, you almost 
feel like you are driving onto a movie set. There is very 
little economic development, very little signs of economic 
activity other than agriculture until you arrive in Minsk, and 
then there is a flurry of activity in construction. And yet the 
man known as the last dictator in Europe, Lukashenko, still 
rules over that country.
    So could you comment on our relationship and the Polish 
relationship with Belarus?
    Ambassador Mull. You are right. Belarus has been a very 
difficult challenge I think, not only for us as a foreign 
policy question, but really all of our European friends. And it 
has been so disappointing after the tides of freedom washed 
over Central and Eastern Europe at the end of the Soviet era 
that there is one island of Soviet style repression that 
remains there.
    I remember when I served in Lithuania, actually traveling 
over to Minsk just to see what it was like, and it was very 
strange, as you say. It is just a 2-hour drive from Vilnius to 
Minsk. But you could not--it is like going into an alternate 
universe of repression, with no freedom of speech, and a very 
tight, repressive atmosphere.
    Mr. Lukashenko, President Lukashenko, has done a very good 
job at building a repressive structure to keep himself in 
power. It is very clear he has no compunction about jailing his 
political opponents. The ability of foreign embassies is very 
much constrained to be in touch with the people there.
    But that has not stopped us and countries like Poland in 
trying to keep alive and nurture the very same trends that 
freed Poland and other parts of the Soviet bloc. Poland has a 
very vibrant relationship with civil society and trade unions 
in Belarus. They host many people to come over to Warsaw, just 
as Lithuania does, to give them a home base to operate and to 
network, and to strengthen their organization.
    Ultimately, I think democracy is going to come to Belarus 
just as it came to most other corners of the former Soviet 
empire. We are just going to keep working really hard at it to 
bring it about.
    Senator Durbin. I always found it interesting in the former 

Soviet republics that what drives the relationship with Moscow 
is usually energy. And in Belarus now, the proposal of building 
a new nuclear plant, I am afraid, along the design of 
Chernobyl, close to the border of Lithuania I am sure has 
raised some concerns in Poland as well. Have we taken a 
position in terms of that nuclear plant or nuclear expansion in 
the area?
    Ambassador Mull. In terms of Belarus, Senator, I am afraid 
I am not very familiar with the proposal in Belarus. But I 
certainly look forward to learning about it. I know on the 
Poland side of the border, there is growing interest in nuclear 
power as a source of energy for Poland as it tries to diversify 
its supplies.
    And, in fact, the government says that in the near future, 
they plan to offer a tender worth up to $11 billion, of which 
$6 billion can be accessible to American exports. And they are 
hoping to build a couple of reactors in Poland by 2030. I have 
said that if I am confirmed, one of my very highest priorities 
is to open the way for American exports in that sector.
    Senator Durbin. Thank you. Ms. Liberi, I remember when you 
hosted us at your residence in Kampala. And then I also 
remember the trip to the nearby village on microcredit issues. 
And I still remember the chicken coop because it turned out 
that there were two, if you will remember. They cleared out one 
chicken coop and scrubbed it clean, and moved all the chickens 
into the other coop. And so they were not happy with my arrival 
or my visit. [Laughter.]
    But the people could not have been more gracious. That was 
the meeting, Senator Lugar, when I asked one woman how 
microcredit had changed her life, and she said her knees had 
gone soft. And I said what does that mean. She said, I no 
longer have to crawl on my knees to beg my husband for money 
for the kids.
    Ms. Liberi. Yes.
    Senator Durbin. And I have remembered that response ever 
since. So you have been at ground level with these economic 
development and social justice issues.
    Burundi is in a tough neighborhood, the Great Lakes Region, 
which has a lot of instability and a lot of forces at work. I 
certainly see those in DRC, but Burundi has been touched by 
this as well.
    So the obvious question is, as we fight for stability in 
this region, how do we address the issue you raised and we have 
read about about the repressive tactics of the Burundi 
Government when it comes to journalism and freedom of speech 
and press?
    Ms. Liberi. Senator, thank you very much for that question. 

Obviously, this administration, yourself, everyone in this room 
places a great emphasis on human rights. And if confirmed, this 
will be among my highest priorities to work with the Burundian 
Government to, again, impress upon them the importance that we 
place on human rights, free media, and obviously religious 
tolerance as well.
    I think that there are ways in which the Burundian 
Government is in the process right now of engaging with 
political parties to ensure that they are actually part of the 
political process and the opposition parties. And I think that 
this is one way that they can help to move that process along.
    Second, again, addressing these issues relating to civil 
society organizations, ensuring that they have a voice in this 
process so that they can express their interest in human 
rights. And also as you have stated, making sure that the media 
is free and it is allowed to express itself.
    Senator Durbin. One of the enduring memories of that trip, 
and it was many years ago, to Kenya and Uganda was the contrast 
in one important respect. Uganda was a government that was 
facing the AIDS crisis directly, showing real leadership when 
many parts of Africa were in complete denial. And it was also a 
government where women played a critical role in leadership. 
Kenya not so, neither at the Cabinet or sub-Cabinet level. That 
has changed in Kenya. I recently met with the Chief Justice of 
the Supreme Court with Senator Coons and Isakson just this 
week.
    So what is the experience in Burundi in terms of the role 
and involvement of women in government leadership?
    Ms. Liberi. Thank you, Senator. That is a very important 
question. And the Burundian Government has made a commitment to 
enabling women to have leadership positions. This is codified 
in the 2005 constitution. Thirty percent of the seats, both in 
the national assembly as well as in the Cabinet, are for women. 
And, in fact, women are now ministers of health, agriculture, 
and trade, so I think that is very significant.
    There are two areas I think that are very important. There 
is a women's entrepreneurship association, and there are over 
200 members. These are key, influential women that run their 
own businesses, that employ people. They are seen as leaders in 
the community. And also there is a Burundi business incubator 
project that is now ongoing. And 40 percent of the 
beneficiaries of that program for entrepreneurship are women. 
So I think that the Burundian Government has made a commitment 
to this. And obviously, if confirmed, this is an area that I 
would continue to engage in.
    Senator Durbin. Great.
    Senator Lugar.
    Senator Lugar. Ms. Liberi, I just want to hear your views 
on this set of situations. When I visited Burundi, I was 
informed that the average life span of a citizen of that 
country was 50 years of age. That is sort of a shocking figure 
all by itself, quite apart from tables that were given of per 
capita income of people around the world. I think there were 
175 countries on the chart, and Burundi was 173 or something in 
that neighborhood. Really staggering in terms of the economic 
predicament and health predicament reflected by those 
statistics.
    But there were two factors that were helpful. We had State 
Department and Defense Department officials along, and, as I 
mentioned in my opening comments, saw these fields filled with 
arms that are sitting there. Now at that time, and I ask you 
for your research, there were some State Department funds to 
help clean this up. We were trying to energize that to occur, 
even cooperation in our own government between State and 
Defense.
    And I hope that some movement has occurred in that respect 
because Burundi was sort of left as the crossroads of many 
battles of contending parties, and yet in a dangerous 
predicament.
    The encouraging thing I saw was a university situation in 
which some persons from the Methodist churches in the United 
States that contributed a great deal of money. I visited with 
the students. They even had a radio broadcast in which we could 
broadcast to the citizens, whoever was listening at that hour 
of the day in Burundi. But this was encouraging. And my visit 
with the President and members of his Cabinet, the assembled, 
he was very pleased we were going to the university. He saw a 
great hope really in these young leaders and the idealism that 
they represented in addition the reflection of all these 
statistics that I have mentioned about health and education.
    I am just curious. Where do we stand with regard to foreign 
assistance either through the State Department, the Defense 
Department, or anybody else? And how effective could that be? 
As Ambassador, how would you be able to at least direct those 
efforts of our departments back here to do some things which 
some people have been thinking about and have committed to for 
some time?
    Ms. Liberi. Senator, thank you very much for that question. 

Obviously economic development is key for Burundi. And in 
regard to your first question, regional integration is going to 
be key to help increase both the per capita income as well as 
life expectancy. The east Africa community has about 133,000 
million people and an economy of about $79 billion. So again, 
if confirmed I would work with the Burundian Government to 
ensure its integration into the east African community.
    In terms of the United States, we have been supporting a 
development assistance program there, as well as through the 
Department of Defense promoting training for the troops that I 
mentioned that are going to AMISOM. In terms of development, 
there has been economic assistance, and this has been focused 
on agribusiness and some of the microenterprise programs I 
mentioned.
    In the future, there is going to be a big emphasis, as I 
stated previously, on the issues that you just raised in terms 
of health, helping to address maternal and child mortality, and 
specifically helping to deal with the HIV/AIDS issue, 
prevention of transmission from mothers to children. So all of 
these things are going to be very key.
    And if confirmed, I as Ambassador would obviously seek to 
work very closely with my Burundian counterparts to enhance 
these programs to the extent that we can, and to ensure that 
they are benefiting as much as possible from the programs that 
we have.
    Senator Lugar. Thank you. Mr. Mull, I would say that one of 
the things that I have heard about Poland recently that has 
been most encouraging is that they have discovered more shale 
gas. And I am curious as to what your research and findings are 
about how extensive this is, and what difference this will make 
in the energy pattern in Poland, giving it a great deal more 
independence from whoever, as well as perhaps even some gas to 
sell as far as its own economy. What do you see in this 
development?
    Ambassador Mull. Senator Lugar, you are right. There is a 
great deal of excitement in Poland about the prospects for what 
could be underground in terms of shale gas availability. And 
the U.S. Government has actually been a very close partner with 
Poland in working with not only the government, but, more 
importantly, with the private sector, in exploring how 
substantial these deposits might be.
    For some years now, we have had some exchange programs with 
Polish industry and government under the Unconventional Gas 
Technical Exchange Program, in which we bring Polish and 
American experts together to look at best practices in the 
development of shale gas in an environmentally friendly as well 
as economically productive way.
    As part of our discussions with the Polish Government, we 
earlier this year commissioned the U.S. Geologic Service to do 
a study on what deposits they believe are available in Poland. 
Their findings indicated much less there than what many Poles 
were hoping for. And around the same time that they announced 
their findings, Exxon-Mobil, which had a presence there in 
Poland, decided that it was not going to be economically viable 
to remain there.
    However, there are many other companies that have remained 
there. Marathon Oil is there. Chevron is there. A couple of 
other smaller companies are there. They believe that the U.S. 
Geologic Service did not explore all of the places that could 
have been explored, and they are still quite optimistic that 
this will be a viable enterprise for them.
    So I am going to continue, if I am confirmed as Ambassador, 
working very hard to support that very close technical 
cooperation and providing support to the Polish Government as 
they try to develop this as a source of new energy, because I 
completely agree with you. Not only is it in Poland's national 
interests. It is in all of our interests to really promote a 
much greater diversity of energy sources.
    Senator Lugar. This is a quick followup question. What is 
the situation for Polish agriculture? Is it a country that can 
feed itself? To what extent does it rely upon imports from 
other countries? Does it export? In other words, in a world in 
which the food supplies, I believe, are going to be more and 
more constricted, how do the Poles stand?
    Ambassador Mull. Many economists and agricultural analysts 
believe, despite all of the good things that have happened in 
Poland since the end of communism over the last 23 years, that 
the agricultural sector has lagged behind. I remember actually 
visiting Poland as a tourist when I worked in Lithuania and 
found that in many of the smaller villages, they still use not 
the newest kind of technology, and things may not be organized 
in the best possible way.
    The Polish Government currently is negotiating for its next 
tranche of structural funds from the European Union, and I know 
the Tusk government is very eager to apply some of that support 
from Brussels to modernize and develop the Polish agricultural 
sector.
    That said, despite the technological progress that they 
still require there, I think most people agree there is 
enormous potential for Poland as an agricultural exporter. 
There is a long, proud tradition of farming life and cultural 
life in Poland. And I do not have the exact statistics in terms 
of what percentage of their exports comprise agricultural 
products, but I would be happy to find that out and look into 
it when I get to post.
    Senator Lugar. This may be an argument beyond which an
ambassador should be proceed, but I would be hopeful, in a way 
that you could insinuate into the discussion, genetically 
modified processes clearly that lead to magnificent new yields.
    Frequently we are busy focusing on African countries. There 
is the Gates Foundation or USAID, hoping somehow that people 
might be able to feed themselves, forgetting that there are 
European countries, and Poland is our good friend, who are not 
getting the kind of yields, the kind of production from the 
same land that they could.
    So I ask you to sort of assume the Department of 
Agriculture role and a humanitarian feed the world role in 
addition to your normal duties. Thank you very much, sir.
    Ambassador Mull. Thank you, Senator.
    Senator Durbin. Thanks, Senator Lugar. And I want to thank 
the two witnesses for coming today and answering the questions. 
As I mentioned, there will be an open opportunity until 
Friday--tomorrow--for more questions to be submitted, which I 
hope you can respond to on a timely basis. And I hope the 
Senate can respond to your nominations on a timely basis as 
well.
    Thank you, I guess it bears repeating, for your service to 
our country, both of you, service overseas. We have been 
tragically reminded of the risk that is associated with that--
with the terrible events in Libya just a few days ago. So thank 
you again for giving so much of your life to the service of 
this country.
    At this point, this meeting of the Senate Foreign Relations 
Committee will stand adjourned.
    [Whereupon, at 11:08 a.m., the hearing was adjourned.]

       Additional Questions and Answers Submitted for the Record


           Responses of Dawn Liberi to Questions Submitted by
              Senators John F. Kerry and Richard G. Lugar

     The committee expects all Embassy personnel to pay special 
attention to matters of ethics and professional conduct while serving 
abroad, and expects Chiefs of Mission and others serving in leadership 
roles at post to set the highest example for Embassy staff in this 
regard. In your response to question E.1 of the committee 
questionnaire, you indicated that you received a letter of admonishment 
in 2006 concerning incidents that took place during your time as 
Mission Director in Iraq.

    Question (a). Please describe the incidents that led to the letter 
of admonishment and why these incidents occurred.

    Answer. I understand that, if confirmed as Ambassador, I must lead 
by example and that my personal conduct must be beyond reproach. In 
this regard, I appreciate this opportunity to respond to questions 
posed by the committee regarding incidents during my tenure as Mission 
Director in Iraq which led to the issuance of a 2007 letter of 
admonishment.
    The letter of admonishment addressed specific incidents in the 
following areas:

          (1) Travel issues relating to a February 2006 trip from 
        Baghdad to Washington, DC;
          (2) Compliance with procedures for procuring art for the 
        benefit of the USAID's Mission in Iraq and dispensation of an 
        unsolicited gift of artwork; and,
          (3) Receipt of hospitality (housing and meals) from an 
        outside source and use of my official position for the benefit 
        of another in discussing a non-USAID related matter during a 
        July 2006 boating trip.
1. February 2006 Travel
    I was scheduled to travel from Baghdad, Iraq, to Washington, DC, 
for USAID-related business in February 2006. My departure from Iraq was 
scheduled for Friday, February 17, 2006, but was delayed for 3 days by 
a severe sandstorm. I was forced to wait out the entirety of the storm 
at Baghdad International Airport, as flights were on standby to leave 
immediately if the weather cleared.
    Upon arrival for my layover in Amman, Jordan, on Sunday, February 
19, I had no options for a rest day since I was due in Washington on 
Monday and therefore needed to depart immediately. As the Amman-
Washington trip was longer than 14 hours, I requested approval from the 
mission in Baghdad to fly business class. I received an e-mail from the 
USAID/Iraq Executive Officer approving my request prior to my departure 
and was later informed by the Executive office in Baghdad that the 
necessary paperwork justifying business-class travel had been prepared. 
At that point, I believed my travel to have been approved by the 
correct authorities and documented properly. During my trip, which was 
comprised primarily of official meetings, I took 2 days of personal 
leave before subsequently accompanying the Acting USAID Administrator 
back to Iraq. I then spent several days hosting the Acting 
Administrator during his visit, traveling to a number of sites in Iraq.
    I was not aware of any concerns relating to my travel until I was 
informed by the USAID Inspector General (IG) several months later that 
an investigation had been initiated into the trip. Specifically, the IG 
questioned: (1) the authority of the approval given for business-class 
travel, and, (2) that the 2 days of personal leave had not been 
properly documented in my travel voucher and that I had been 
erroneously given per diem during those 2 days. I immediately took two 
steps to rectify the situation upon learning of both concerns.
    First, I immediately reimbursed the U.S. Government for full amount 
of the 2 days of per diem and adjusted the timesheets my secretary had 
prepared on my behalf during this period to reflect hours of annual 
leave taken. In hindsight, I should have ensured my secretary in 
Baghdad received information about my personal leave, instead of 
assuming she had the information based on my schedule.
    Second, since concerns over the legitimacy of my business-class 
travel revolved around the policy interpretation of who had approval 
authority in this case--the statutory requirements for allowing 
business-class travel had been met based on the duration of the Amman-
Washington flight--I chose to immediately reimburse the U.S. Government 
for the difference between the economy and business-class ticket.
2. Artwork for USAID/Iraq Mission
    In approximately May or June 2005, USAID/Iraq Mission management 
had discussed purchasing Iraqi artwork for the representational office 
in the Embassy Palace building and the newly constructed building on 
the USAID compound. Given the security situation, it was difficult to 
meet with artists in Baghdad. While on a USAID business trip to Amman, 
I was introduced to Iraqi artists through an Iraqi-owned gallery and 
subsequently purchased several pieces. I planned to keep one piece for 
personal use, while the remaining pieces would hang in the mission. I 
indicated to the USAID/Iraq Executive office to deduct the value of the 
piece I kept from the reimbursement amount. Unfortunately, due to 
confusion during the reimbursement process, my understanding is that 
the reimbursement message was transmitted verbally from the Executive 
office to the Controller's office and not made clear to the voucher 
examiner--who approved a payment for the full amount indicated on the 
receipt--I was reimbursed the full amount for all pieces. Upon learning 
of the mistake, I immediately reimbursed the mission for the piece I 
had kept. USAID IG's concerns were whether correct procedures were 
followed in: (1) procuring and (2) reimbursement for the art.
    In my meeting with USAID IG, it was pointed out that the standard 
practice for procuring mission artwork involves a representative 
committee being formed to select the pieces with direct payment by the 
mission to the vendors. Having been Mission Director in two other posts 
where that was the practice, I acknowledged that I understood that was 
the case and, had we been able to do so in Iraq, we would have followed 
this practice. However, as noted above, the security and travel 
situation mitigated against this practice. I acknowledge I did not 
follow the normal procedure for procuring Iraqi artwork for the mission 
and utilized my own funds to make the purchase, since the Iraqi vendor 
in Jordan required immediate payment. In doing so, I recognize the 
mission was under no obligation to reimburse me for the artwork.
    Separately, two pieces of unsolicited artwork of uncertain but 
insignificant value were delivered to the mission by an acquaintance 
working under a USAID contract in Iraq, who had previously worked in 
USAID/Nigeria when I was Mission Director there. I informed the 
Executive office the art was received in an unsolicited manner and 
would need to be disposed of appropriately. Given the urgency of other 
issues, the art work sat on the floor in the mission for several 
months. Prior to my departure, in order to ensure their final 
disposition I turned the two pieces of art over to the Regional Legal 
Advisor. In my meeting with the IG, it was pointed out that I should 
have turned the art pieces over to the Controller's office or Regional 
Legal Advisor from the outset, rather than going through the Executive 
office, and I acknowledge that would have been the correct 
administrative course of action. At that point the matter was 
considered closed.
3. July 2006 Gifts of Hospitality from Outside Source and Discussion of 
        non-USAID Matter
    In July 2006, I was scheduled to meet the Canadian Ambassador to 
Jordan and Iraq and his wife, both of whom are close friends, in Paris 
for the weekend of July 6-9 to celebrate mutual birthdays. In the 
interim, the Ambassador and his wife were invited to spend the same 
weekend with another friend and his wife on their houseboat in Turkey. 
I was invited to join. Prior to accepting this invitation, I evaluated 
whether I was precluded by any USAID regulation from doing so. I had 
not been invited in my capacity as USAID Mission Director for Iraq. The 
host owned a shipbuilding company, so I checked whether he had any 
current business with USAID, or was bidding on or had any potential 
business with USAID. He did not in either regard. Consequently I agreed 
to join my friends and the weekend in entirety was spent socializing. 
Subsequently, USAID HR raised the issue of whether I needed to report 
my time on the houseboat--housing and meals--as a gift of hospitality 
from the host. Upon consulting a USAID ethics official, I did report 
the hospitality on my SF-278 Financial Disclosure Form and valued it at 
the USAID per diem rate for that region, as advised by USAID's ethics 
official. At that point the issue was considered resolved by USAID HR.
    The only business related topic discussed during the trip was 
regarding U.N.-contracted work performed by the host's shipbuilding 
company in Basra, Iraq--to be paid from the U.N. Trust Fund--which 
Canada was chairing at the time. Payment from the Trust Fund was 
delayed and the host raised the issue with the Canadian Ambassador, who 
contacted his staff to ascertain the status. Simultaneously, the host 
made a call to the Deputy U.N. Director in Iraq, who was a friend and 
colleague of mine, and I was passed the phone to say hello. During my 
brief phone conversation with the Deputy U.N. Director, which was 
primarily social in nature, the contract paperwork was raised. I made 
it clear to the host that this contract issue was between his company 
and the United Nations. It did not involve USAID, or the U.S. 
Government. I had also made clear that I would not intervene in any way 
whatsoever regarding his receipt of payment from the U.N. USAID HR 
raised the issue of whether or not my participation in the telephone 
call regarding the status of this paperwork might create an appearance 
of impropriety. However, upon my interview with the IG, my admonishment 
letter concluded that ``[my] participation in the telephone call noted 
above apparently constituted nothing more than a gesture of good 
will.''

    Question (b). Please describe the steps you have taken to ensure 
that such incidents will not be repeated.

    Answer. I have taken to heart the issues raised above to ensure 
there are no similar occurrences, and accept responsibility for my 
actions. The 2007 letter of admonishment indicated the one factor 
common to each situation was a failure on my part to exercise the 
proper degree of care in ensuring I fulfilled my duties at the first 
opportune moment. I acknowledge and accept this criticism and since 
receiving the letter have made a priority of addressing such issues in 
a timely manner. As a representative of the U.S. Government charged 
with executing programs paid for by U.S. taxpayers, I take my ethical 
and administrative responsibilities very seriously. I have learned from 
the incidents outlined above, and have redoubled my efforts not to 
repeat them.
    I have taken several steps to ensure that such incidents will not 
be repeated, and to avoid any appearance of impropriety. I have taken 
extra care to personally ensure proper documentation of all 
administrative procedures. I now perform personal validation of my time 
sheets and all travel vouchers, as well as seeking written verification 
of all relevant regulations. Additionally, I seek to consistently stay 
abreast of best practices for adhering to relevant administrative and 
ethical procedures and requirements, and consistently reflect on how 
any potential action could be interpreted from an ethical standpoint. 
As a leader, I fully recognize the importance of modeling all aspects 
of my position from crisis management to routine paperwork. I also 
recognize that circumstances of assignment do not exonerate inattention 
to administrative detail or adherence to USG regulatory process. 
Throughout my career I have faithfully executed my duties and 
responsibilities, and that is my priority for any future public service 
position.

    Question (c). Please explain whether you believe matters of ethics 
and professional conduct are important, and how these incidents bear 
upon your ability to manage Embassy personnel successfully with regard 
to matters of ethics and professional conduct.

    Answer. I firmly believe that matters of ethics and professional 
conduct are vital and I recognize they directly bear upon my ability to 
manage personnel successfully. I have a deep and abiding commitment to 
outstanding leadership and recognize that in my position I am always a 
representative of the United States--a charge I take seriously. I 
believe that ethics and professional conduct are the pillars of public 
service, and I have a renewed appreciation of the importance of 
modeling impeccable qualities of leadership, particularly serving as a 
Chief of Mission in an Embassy.
    I believe that a Chief of Mission must be unimpeachable in his or 
her actions from an ethical and professional standpoint and must lead 
by example. Ensuring that all staff understand the importance of 
professional and ethical behavior, and that their actions must be above 
reproach, as they represent the U.S. Government, will be my highest 
priority. As a steward of the public trust, I will ensure that my own 
behavior demonstrates the highest moral and ethical levels, and that my 
staff understands that is the standard upon which they will be expected 
to execute their duties. In addition, I believe that my experiences 
will enable me to mentor staff at all levels to ensure they understand 
the importance of their own behavior as Foreign Service professionals 
and representatives of the United States Government.
                                 ______
                                 

           Response of Stephen D. Mull to Question Submitted
                         by Senator Marco Rubio

    Question. The State Department's 2012 Trafficking in Persons Report 
lists Poland as a Tier 1 country for trafficking. The TIP report noted 
that Poles are brought to the United Kingdom by organized crime groups 
and coerced to commit other crimes.

  <bullet> What steps is the Polish Government taking to prosecute 
        organized crime groups which engage in human trafficking?
  <bullet> If confirmed, how will you encourage Polish and British 
        cooperation on these cases?

    Answer. Polish authorities, including the Central Bureau of 
Investigation, the Polish Border Guards, and the Polish prosecutors' 
office, conducted several investigations and prosecutions against human 
trafficking offenders in 2011. The Polish Government also accelerated 
antitrafficking training for judges, police, and border guards in 
Poland to strengthen antitrafficking law enforcement activities, 
including against organized groups.
    The British and the Polish authorities have a longstanding 
relationship in cooperating on trafficking in persons investigations. 
We anticipate this cooperation will be strengthened through activities 
planned in the new European Union (EU) strategy against trafficking, 
which contemplates more robust cross-border collaboration against 
trafficking within the EU through joint investigation teams and by 
collaboration with Europol and Eurojust. If confirmed, I will engage 
the Polish Government to encourage continued proactive initiatives both 
within the EU context and bilaterally to combat modern day slavery. I 
will also work with the interagency team at Embassy Warsaw and with the 
Department to explore what further we might do bilaterally with Poland 
to complement and enhance Poland's own antitrafficking efforts.
                                 ______
                                 

            Response of Dawn M. Liberi to Question Submitted
                         by Senator Marco Rubio

    Question. Burundi was identified as a Tier 2 Watch List country in 
the State
Department's 2012 Trafficking Report for its lack of compliance with 
the minimum standards for the elimination of trafficking. In 2011, the 
government did not collect aggregate data on its antitrafficking law 
enforcement efforts.

  <bullet> If confirmed, what would be your strategy to encourage the 
        Burundi Government to collect data on law enforcement's efforts 
        to combat trafficking?

    Answer. Trafficking in persons in Burundi remains a challenging 
issue which Burundian officials have acknowledged. The Government of 
Burundi has made some important efforts to address trafficking, 
including ratifying the Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children (``Palermo 
Protocol''), supplementing the United Nations Convention against 
Transnational Organized Crime in 2012 and conducting a nationwide 
awareness-raising campaign. The signing of the Palermo Protocol 
demonstrated a renewed interest in combating trafficking in persons.
    The current lack of mechanisms in place, however, to collect 
aggregate data is a significant issue that should be addressed. If 
confirmed, I will work closely with the Government of Burundi to 
strongly encourage implementation of a National Action Plan to combat 
trafficking in persons. A major component of that plan would include a 
formalized collection of data.
    The Children and Ethics Brigade leads antitrafficking efforts 
within the Burundian Police Force. To effectively combat trafficking 
and collect accurate data, the government should ensure that all police 
officers within its police force are trained to identify trafficking 
victims and potential trafficking cases within the course of their 
routine enforcement activities.
    If confirmed, I will also support continuing the government's 
awareness campaigns that are already underway--another important 
component of collecting data. The Commander of the Children and Ethics 
Brigade in charge of the TIP awareness training program, for example, 
has visited each region in the country since the beginning of the year 
to further awareness of trafficking among local police and civil 
society. I will urge the government to continue such awareness 
campaigns to include working closely with civil society, NGOs, and 
community leaders to raise public awareness, which will also support 
the effective collection of data.

    Question. According to the 2012 TIP report, in 2010 Burundi police 
discovered government officials soliciting people in prostitution, 
including children during raids on hotels functioning on brothels. Two 
years later, the government has yet to prosecute or convict any 
official for their complicity in trafficking.

  <bullet> If confirmed, how do you plan to address the issue of 
        government complicity in trafficking?

    Answer. The United States remains deeply concerned that law 
enforcement in Burundi has identified clear cases of trafficking, 
including the trafficking of children--which have to date, not led to 
prosecutions.
    If confirmed, I will strongly encourage the Government of Burundi 
to comply with its 2009 Criminal Code amendments to investigate, 
prosecute, convict, and punish trafficking offenders, including 
officials suspected of complicity. I would emphasize that that these 
actions are obligatory as a signatory of the United Nations Palmero 
Protocol.
    Within the larger context of human rights, I would also urge the 
Burundian Government to take concrete steps to address human rights 
violations and the lack of accountability within the judiciary. Members 
of the police force and intelligence services are known to have 
committed gross human rights violations such as extrajudicial killings 
and torture, as well as complicity in the trafficking and exploitation 
of children.
    If confirmed, I would strongly and persistently urge the Government 
of Burundi to protect the civil liberties of its citizens, particularly 
children victimized by trafficking, and to fight impunity by bringing 
all criminal perpetrators justice.

 
                 NOMINATION OF ROBERT STEPHEN BEECROFT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Robert Stephen Beecroft, of California, to be Ambassador 
        to the Republic of Iraq
                              ----------                              

    The committee met, pursuant to notice, at 9:42 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Casey, Udall, Lugar, Corker, 
Rubio, DeMint, and Barasso.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you 
all. I apologize to everybody that we are running a little bit 
late. Even though it does not appear as though a lot is 
happening around here, there is actually a lot going on. And I 
am sorry for the competing process.
    I want to thank everybody for coming. I am very, very 
pleased to welcome Robert Stephen Beecroft, who is a Career 
Foreign Service officer and nominated by President Obama to be 
our Ambassador to Iraq. And I think all of us on the committee 
are pleased that the President has nominated somebody of high 
caliber, great experience, who has already been serving as the 
deputy chief of mission in Baghdad for the past year and 
previously served as Ambassador to Jordan and Executive 
Assistant to Secretaries of State Colin Powell and Condoleezza 
Rice.
    While America's war has ended in Iraq, the struggle for 
Iraq's future obviously has not ended. Violence is down, but Al 
Qaeda in Iraq remains a very deadly foe. And Iraq may not 
capture the day-to-day headlines, but no one should make the 
mistake to somehow come to the conclusion that Iraq does not 
present extraordinary challenges.
    This administration has worked tirelessly to assure that it 
does not become a forgotten front. Through the Strategy 
Framework Initiative Agreement, we have put in place a roadmap 
to expand our relations with Iraq on a broad spectrum of 
issues: political, economic, cultural, educational, scientific, 
and military. Our bilateral partnership has the potential to 
contribute, we believe, to the stability in the Middle East.
    But Iraqi leaders have to decide for themselves what kind 
of country they hope to create. And as they do, we need to 
devote the diplomatic energy and the civilian resources 
necessary to help them succeed.
    Ambassador Beecroft, all of your skills--considerable 
skills--are going to be called on in Iraq. And among the many 
challenges that you will face, there are four to which I would 
personally particularly like to just call your attention.
    As we mourn the tragic death last week--deaths of 
Ambassador Chris Stevens and his three colleagues in Benghazi, 
we are reminded that our diplomats all around the world serve 
on the front lines of some of the world's most dangerous 
places. And they do so at great risk to themselves and at great 
personal sacrifice for their families.
    Our Embassy in Baghdad, the consulates in Basra and Erbil, 
other offices supporting the Embassy and Office of Security 
Cooperation still number about 14,000 people. And that makes it 
our largest mission in the world. We are going to need someone 
with Ambassador Beecroft's demonstrated management skills to 
right size the mission and ensure that all the appropriate 
security measures are in place to keep our staff safe and 
secure.
    Iraq's leaders have a rare opportunity to consolidate their 
democracy and build a strong, durable institution or set of 
institutions that can hold the country together. But more will 
be required from the Iraqi Government.
    Questions remain about whether Iraqi leaders, including the 
Prime Minister, aspire to represent a unified Iraq in all of 
its diversity, or whether they seek to govern narrowly 
according to ethnic and sectarian constituencies.
    To ensure that parliamentary elections in 2014 are free and 
fair, Iraq's electoral commission must be professional, 
transparent, and impartial. Iraqi leaders across the political 
spectrum must also be willing to make tough compromises and put 
national priorities over personal ambitions.
    It is no secret that we are at a moment of heightened 
sectarian tensions in the Middle East. Iraqi leaders should 
understand that the best way to insulate themselves from the 
horrific violence in Syria is through a meaningful, political 
compromise in Iraq. As Iraq's leaders work to establish a more 
stable political order, they need to redouble efforts to reach 
agreement on disputed boundaries, on oil, and on Kirkuk's final 
status. If progress is not made in diffusing tensions, the 
window for a peaceful resolution of Kirkuk and other disputed 
territories may well close.
    Baghdad and Erbil must resolve their differences on the 
Kurdish region's authority to enter into oil exploration and 
production contracts. And to their credit, the Iraqis have made 
efforts to resolve issues related to revenue-sharing, but the 
country still lacks an overarching legal framework for its oil 
industry. Without this agreement, Iraq will be unable to 
unleash the full potential of its oil sector.
    For years, Iraq has focused on its internal politics, but 
it now must also begin to look outward. It is not surprising 
that Iraq seeks neighborly relations with Iran, but the reports 
of Iran using Iraqi air space to resupply Assad's ruthless 
regime are troubling. Just this week, the commander of the 
Islamic Revolutionary Guard Corps acknowledged that Iran is 
providing assistance and training to groups inside Syria, 
begging the question of how else Iranian material might get 
into Syria. This is a problem, and it will only grow worse if 
it is not addressed.
    Iraq's response to the situation in Syria will also be an 
important test case. The Maliki government should play a 
constructive role in supporting initiatives that bring about a 
peaceful transition in Syria. At a minimum, it should avoid 
fanning the flames of violence. It will also be incumbent on 
other countries in the region, particularly the Gulf 
Cooperation Council, to recognize Iraq as something other than 
an Iranian proxy and to work more proactively to normalize 
relations.
    I continue to believe that Iraq has an opportunity to chart 
its own course as an alternative to the Iranian model and 
demonstrate the vibrant potential of a truly multiethnic, Shia 
majority democracy.
    Let me just close by reiterating that our Embassy in 
Baghdad is one of our most important today. And what happens 
there is critical to our bilateral relationship, but also to 
all of our work in the Middle East. This is not a time for 
delay. There is no substitute for having a confirmed ambassador 
in place and ready to hit the ground running, especially at 
this critical moment in the region.
    It is my hope to move this nomination as rapidly as we can 
in the next 48 hours because we must have a confirmed 
ambassador, and it would be a dereliction of the Congress' 
responsibility were we to leave here for the next 6 weeks and 
not have done so.
    I strongly support Ambassador Beecroft's nomination and 
intend to work for that swift confirmation.
    So, Ambassador Beecroft, we welcome you today. Thanks for 
coming on short notice. I know we appreciate it, and we look 
forward to hearing your thoughts on the way forward in Iraq.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. Today's 
hearing is our first since the attack in Libya that claimed the 
lives of four Americans, including our Ambassador, Chris 
Stevens. The events in Benghazi and ongoing threats to our 
embassies remind us of the dangers and difficulties of 
performing diplomatic missions. It is almost impossible to be 
an effective American diplomat without exposing oneself to 
risk.
    In some countries, these risks can be intense, yet 
exceptional Americans, like Ambassador Stevens, continue to 
volunteer for these assignments. We are grateful that you 
continue to volunteer, sir.
    Chris' life and work resonate especially with our 
committee, not merely because he was a talented diplomat, but 
also because he was one of us. On many occasions during his 
time as a detailee to the Republican staff in 2006 and 2007, he 
sat directly behind where I am sitting now. He staffed hearings 
on Lebanon, Iraq, and other Middle East topics. In fact, 
exactly 6 years ago today, he helped staff a hearing on Iran. 
After departing the committee, he stayed in close touch with 
friends here as he did at every stage in his career. We will 
miss our friend dearly. Our thoughts go out to his family.
    Although the death of Ambassador Stevens and three others 
was a blow to the State Department and our country as a whole, 
it also underscored the importance of our diplomacy and the 
difference that an ambassador can make. All of us have read 
accounts of Chris Stevens' extraordinary service and it should 
be clear to everyone that he was personally instrumental in 
advancing United States interest in Libya.
    We need good ambassadors at their posts providing energetic 
leadership to their embassy teams. I appreciate Ambassador 
Beecroft's courage and commitment in taking on an extremely 
difficult assignment that has been complicated even further by 
violence in the Middle East. He has been functioning as chief 
of mission for several months, and I believe we should move 
with dispatch to confirm him as our Ambassador to Iraq.
    His experience with managing large embassies is especially 
critical given that the United States mission in Iraq is the 
biggest Embassy in the world. The operation includes the huge 
Embassy Complex in Baghdad, several outlying facilities in 
Baghdad, about 10 security cooperation and police training 
sites, and consulates in Basra and Erbil. Employees number 
approximately 1,600 United States direct hires, 240 Iraqis, and 
thousands of contractors.
    Iraq sits astride the Sunni-Shia divide that has been the 
source of great conflict. Politically, Iraq remains fractured 
along sectarian lines, and those divisions appear to have 
deepened in the last year. Iraq's stability depends on it being 
integrated with responsible neighbors and the world community. 
Its long-term future depends on its willingness to stand on the 
side of human rights, democracy, and the rule of law.
    Iraq's political fragmentation and corruption also present 
fundamental challenges to its economy. An annual World Bank 
report that analyzes the ease of doing business and the 
protection of property rights across 183 economies ranked Iraq 
164th in 2012, down five slots from its 2011 ranking.
    Despite Prime Minister Maliki's claims that Iraq is open 
for business, most interested investors and trade partners are 
challenged to get a visa or definitive answers from the 
government about its tender and bidding processes. According to 
the World Bank, Iraq last year implemented policies that made 
it more difficult for Iraqis themselves to do business.
    I look forward to hearing Ambassador Beecroft's insights 
into the security situation in Iraq, as well as his views of 
the prospects for economic improvement and political stability. 
Beyond reports on the current status of Iraq, the 
administration needs to illuminate United States intentions in 
Iraq for the long term. Though some significant downsizing has 
occurred, the Iraq operation continues to be enormously 
expensive. How does the administration define United States 
goals in Iraq? What are the prospects for achieving these 
goals? And what resources will be required over the long term?
    I thank the chairman for this hearing.
    The Chairman. Thanks very much, Senator Lugar, and thanks 
for your personal recollections of Chris Stevens. We appreciate 
it very much.
    Ambassador Beecroft, you can tell there is a considerable 
interest here, and we look forward to your comments, and then 
some period for the committee to ask some questions.

STATEMENT OF HON. ROBERT STEPHEN BEECROFT, OF CALIFORNIA, TO BE 
               AMBASSADOR TO THE REPUBLIC OF IRAQ

    Ambassador Beecroft. Thank you, Chairman Kerry, Senator 
Lugar, members of the committee. It is an honor to appear 
before you today as the President's nominee to serve as the 
United States Ambassador to the Republic of Iraq. I am deeply 
grateful to the President and to Secretary Clinton for this 
opportunity. With your permission, I would like to submit my 
full statement for the record.
    The Chairman. Without objection, it will be placed in the 
record. Thank you.
    Ambassador Beecroft. Thank you. I would like to begin by 
taking a moment to acknowledge my colleagues who perished in 
Benghazi only last week. These four brave public servants 
represent the best of the United States. My thoughts and 
prayers remain with their family and friends.
    I have spent most of my career working on the Middle East, 
including my assignments in Syria and Saudi Arabia and as 
Ambassador to Jordan. For much of my career, I have been 
immersed in Iraqi issue, from serving on the Iraq desk in 
Washington, DC, to most recently serving as deputy chief of 
mission and now Charge d'Affaires in Baghdad, where I have had 
the honor to work with an extraordinarily talented, 
hardworking, and collegial team, the best in the business in my 
experience.
    Today the United States is engaging with an evolving Iraq. 
The country is only now emerging from over 50 years of 
isolation, fragmentation, and war. We have a strong 
relationship with the democratically elected government. This 
relationship is codified in the U.S.-Iraq Strategic Framework 
Agreement, which lays out a shared vision and a concrete common 
roadmap for our bilateral commitments across the fields of 
defense, economics, justice, diplomacy, education, and energy. 
Through this agreement, we support and assist the Iraqis in 
building a united, federal, and democratic country that can 
play a constructive role in the region.
    Of course, challenges abound, and our work is not easy.
    Sectarian frictions remain strong and often threaten to 
derail negotiated accords and institutional progress. Lack of a 
hydrocarbons law feeds this tension and unsettles Iraq's oil 
expert sector. Factional feuding in the Council of 
Representatives has slowed the organization of provincial 
elections scheduled for early 2013. Tensions with Turkey, the 
conflict within Syria, and Iraq's relationship with Iran all 
fan anxiety and complicate our relationship with Iraq.
    Nevertheless, developments I have seen in Iraq give me 
reason for optimism. A large majority of Iraqis of all 
confessions and ethnicities remain committed to resolving their 
differences politically instead of through violence. Iraq's oil 
production recently passed 3 million barrels per day, a level 
it had not achieved for more than 3 decades. U.S. commercial 
interests are returning to Iraq, and Iraqi students are 
studying in the United States in 
increasing numbers. These are signs of positive change, and the 
United States retains a vital and continuing role in support of 
Iraq's democratic progress.
    If confirmed, I pledge to continue working with our allies 
across the Iraqi political spectrum to strengthen Iraq's 
democracy and its democratic institutions. I also pledge to 
continue engaging with the Iraqi Government on a wide range of 
initiatives to expand economic growth, strengthen the justice 
sector, fight corruption, and protect human rights. If 
confirmed, I assure you that my No. 1 priority will continue to 
be the safety of Embassy personnel and U.S. citizens living in 
Iraq. Nothing is more important to the President, the Secretary 
of State, or to me personally.
    I will also work to ensure that we have the right personnel 
and resources to successfully carry out our mission. As Charge 
d'Affaires, I am continuing the GlidePath process begun by 
Ambassador Jeffrey earlier this year. As part of that effort, 
we have already made significant cuts in our staffing and 
contractor support, and will further reduce our footprint 
without compromising our mission or our security. We continue 
to work toward a more appropriate posture in Iraq, while even 
more effectively pursuing our policy objectives.
    It is a tremendous honor to have been nominated by 
President Obama to serve as the U.S. Ambassador to Iraq. Should 
I be confirmed, I will seek to expand and deepen our 
collaboration with Iraq and its people, and to secure our vital 
interests.
    I look forward to collaborating closely with you and your 
staffs, and I encourage you to visit Iraq to see the important 
work we are doing there.
    Thank you for the opportunity to testify today. I welcome 
your questions.
    [The prepared statement of Ambassador Beecroft follows:]

             Prepared Statement of Robert Stephen Beecroft

    Chairman Kerry, Ranking Member Lugar, members of the Senate Foreign 
Relations Committee, it is a distinct honor to appear before you today 
as President Obama's nominee to be the United States Ambassador to the 
Republic of Iraq. I am deeply grateful to the President and to 
Secretary Clinton for the opportunity to serve my country in this 
capacity and, if confirmed, I will work closely with you to advance our 
many interests in Iraq and in the region.
    I would like to begin my testimony by taking a moment to 
acknowledge my colleagues who perished in Benghazi only a few days ago. 
Those four brave public servants represent the best of the United 
States and I feel their loss keenly. My thoughts and prayers remain 
with their families and friends.
    Mr. Chairman, I have spent most of my career working on the Middle 
East, including assignments in Syria and Saudi Arabia and as Ambassador 
to Jordan. For much of my career I have been immersed in Iraq issues, 
from the Iraq Desk in Washington, DC, to recently serving as deputy 
chief of mission and now Charge d'Affaires in Baghdad. I stand on the 
shoulders of the thousands of brave and committed Americans who have 
worked, fought, and died to help the Iraqi people achieve our shared 
goal of a united, federal, and democratic Iraq. If confirmed, I would 
commit to continuing their work to build a lasting partnership with 
Iraq. In so doing, I would labor alongside a team of able and dedicated 
personnel who understand the importance of achieving success. While the 
size and nature of our presence may have changed, our interests and 
commitments remain the same, and Iraq continues to be a top priority 
for the United States.
    Today, the United States is engaging with an evolving Iraq. The 
country is only now emerging from over 50 years of isolation, 
fragmentation, and war. We now have a strong relationship with a 
democratically elected government. As President Obama stated last year, 
our relationship with Iraq is a ``normal relationship between sovereign 
nations, an equal partnership based on mutual interests and 
mutual respect.'' This relationship is based on a shared vision of the 
future and a concrete, common roadmap of how to get there. This 
fundamental accord is codified in the 2008 U.S.-Iraq Strategic 
Framework Agreement (SFA), a comprehensive document that structures our 
bilateral commitments across the fields of defense, economics, justice, 
diplomacy, education, and energy. Through the SFA, we support and 
assist the Iraqis in building a united, federal, and democratic country 
that is a strong partner that can play a vital and constructive role in 
the region. I am confident that our policy based on the Strategic 
Framework Agreement offers a new window of opportunity for sound 
relations with Iraq for years to come. If confirmed as Ambassador, I 
will deploy all the tools available to me to this end.
    Strengthening our partnership with Iraq will help us to advance 
significant U.S. national interests, including counterterrorism 
cooperation against threats to our national security and that of the 
region, economic growth and the stabilization of global energy markets, 
and the development of democracy during this historic moment of 
transition in the Middle East. I would like to share with you some of 
my views on the work ahead and on the priorities that we have in Iraq.

                     SECURITY AND COUNTERTERRORISM

    Terrorists and extremists in the region continue their destructive 
efforts to hinder the great strides made by the Iraqi people to put 
aside violence. The Iraqi security forces are aggressively pursuing and 
disrupting these enemies, but Al-Qaeda in Iraq (AQI) and other militant 
groups continue to pose a threat to the Iraqi people and to U.S. 
personnel working in Iraq. The Department is taking all possible 
measures to mitigate the threat to our personnel and facilities in Iraq 
and we continuously monitor security conditions throughout the country. 
However, terrorist violence still occurs on a regular basis in Iraq and 
presents an inherent risk and threat to our mission, which will 
continue to exist for the foreseeable future.
    We share a common goal with the Iraqi people--to ensure that Iraq 
does not become a land that provides safe haven to those who mean harm 
and to those who seek to reverse the progress that has been made. While 
some significant attacks continue to take place in Iraq, security today 
is nonetheless far better than in 2006 and 2007, and we must be mindful 
of this strong progress as we work to understand the reality of the 
situation on the ground. These gains were achieved through a strong 
partnership with the Iraqi Government and engagement on a wide range of 
counterterrorism and security-related efforts that aimed to provide an 
environment of safety and stability for both the Iraqi people and for 
U.S. personnel and interests in Iraq. This partnership continues to 
this day. It is in our strategic interests that Iraq is now defending 
itself, as the Embassy's Office of Security Cooperation in Iraq helps 
train and professionalize Iraqi defense forces, and the Police 
Development Program and the Anti-Terrorism Assistance Program advises 
and trains Iraqi law enforcement units. No one wants peace in Iraq more 
than the Iraqi people, and we will continue to work with the Iraqi 
Government and security forces toward that goal.

                                ECONOMY

    Although security often dominates what we hear and read about Iraq, 
I would like to draw attention to the remarkable progress made to spur 
the growth of the Iraqi economy. Iraq's oil production recently passed 
3 million barrels per day, a level it had not achieved for more than 
three decades. The influx of revenue from increased oil production and 
exports is driving growth in all sectors of the Iraqi economy, which is 
expected to continue to expand at double-digit growth rates in the next 
few years. With the third-largest conventional oil reserves in the 
world, Iraq's potential is extraordinary, and we are working closely 
with the Iraqis to help them reach this potential.
    We are working with the government and private firms on initiatives 
to more transparently manage Iraq's oil revenues, enhance Iraqi 
entrepreneurialism and integration into the global economy, and reduce 
its dependence on the oil and gas sector. Iraq's growth and potential 
also offer exciting opportunities for U.S. firms. We are encouraging 
and working with U.S. businesses, universities, and other institutions 
to partner with Iraqi organizations and find new opportunities that 
will bring benefit to all sides and to remove barriers to deeper 
economic ties. The response has been strong, both from Iraqis and from 
Americans.

                                SERVICES

    We are working with Iraq to ensure that the benefits of growth 
accrue to all Iraqis in all corners of the country. The Iraqi people, 
through their votes and their voices, have demanded better access to 
water, electricity, and other important services. The Iraqi Government, 
working to address the concerns of its people, created a 5-year 
national development plan that includes more than 2,700 projects valued 
at about $186 billion--including projects to support its utilities 
infrastructure, transportation network, education, health care, 
agriculture, and telecommunications systems. In the 2012 budget alone, 
the Iraqi Government has allocated $32 billion for public investment. 
Still, there is much more work needed to be done by the Iraqi 
Government to give the Iraqi people what they deserve--a stable, secure 
nation where basic services are readily available and one in which they 
can build a prosperous future.

                    DIPLOMATIC AND POLITICAL SUPPORT

    Iraq's diversity has made it a unique and important nation in the 
Middle East for thousands of years. This same diversity now serves as 
one of the most important tests to democracy in the region. As with all 
democracies, Iraq's Government contains myriad differing opinions 
regarding the rightful direction of the country. Sectarian friction 
remains strong and often threatens to derail negotiated accords and 
institutional progress. There is no denying the tensions between the 
Kurdistan Regional Government and the central government, even as 
increased dialogue to discuss these issues appears possible. The lack 
of a hydrocarbon law feeds this tension and unsettles Iraq's oil sector 
and thereby its primary source of income. Factional feuding in the 
Council of Representatives has slowed the organization of provincial 
elections scheduled for early 2013. Tensions with Turkey, the conflict 
within Syria, and Iraq's neuralgic relationship with Iran all fan 
anxiety and complicate our relationship with Iraq. My colleagues and I 
at Embassy Baghdad and its constituent posts have no illusions about 
the difficulty of addressing these challenges.
    Nevertheless, developments in Iraq give me reason for optimism. 
Despite disputes and disagreements, Iraqi leaders have worked within 
the political process and have chosen to use dialogue and negotiation 
rather than resort to violence. Iraq's Government institutions, like 
those of any democracy, are far from perfect, but they have become an 
important space where both agreement and dissent can be raised and 
discussed--a far cry from the dictatorial domination of the past.
    The United States continues to play a central role in facilitating 
dialogue between the various political parties and leaders in Iraq. We 
assume this role while remaining clearly cognizant of the need to 
respect Iraq's sovereignty. We are not in the business of telling the 
Iraqi people what they can and cannot do. Instead, working closely with 
all Iraqis, including ethnic and religious minorities, displaced 
persons, widows, and other populations, we help ensure that all groups 
in Iraq, no matter how large or how small, have a voice. Our efforts 
seek to promote important issues such as human rights, anticorruption, 
religious freedom, economic development, political openness, and 
opportunities for women. Through a range of programs and initiatives, 
we strive to increase the capabilities of Iraqi Government institutions 
to ensure that the decisions that affect the fate of the Iraqi nation 
are not made at the whim of individuals, but through the deliberative 
process laid out in Iraq's Constitution.

                           REGIONAL RELATIONS

    Turning to the region, the U.S. effort in Iraq has far-reaching 
effects as Iraq remains vital to U.S. interests in the Middle East. 
Strategically positioned between Syria and Iran, bordering regional 
powers and important U.S. partners in Turkey, Saudi Arabia, Jordan, and 
Kuwait, Iraq plays a vital role in a wide range of U.S. interests and 
in major foreign policy priorities throughout the region.
    It is clear that Iraq is growing stronger, and there is no doubt 
that it will become a major power in the region as it continues to 
ascend. It is developing its own unique identity, one that is fiercely 
protective of its sovereignty. Iran will continue to try to exert 
influence on Iraq but, the stronger and more cohesive that Iraq is as a 
nation, the more resistant it will be to unwanted pressure. Maintaining 
Iraq as a strong, stable, and strategic partner will help the United 
States maintain visibility and influence in this dynamic and vitally 
important region for years to come.

                           EMBASSY MANAGEMENT

    To better achieve our policy goals and to pursue our national 
interests in Iraq, we must maintain a strong, safe presence capable of 
addressing the many facets of our strategic partnership. If confirmed 
as Ambassador, I assure you that my No. 1 priority will be to ensure 
the safety of Embassy personnel and U.S. citizens living in Iraq. 
Nothing is more important to the President, the Secretary, or to me 
personally.
    As we planned and executed the transition to a wholly civilian-led 
presence in 2011, we began looking at the next phase of our transition 
to the post-Security Agreement era. We prudently built a robust 
structure to cope with the enormous uncertainties in the wake of the 
withdrawal, but we always anticipated streamlining and normalizing our 
operations in a methodical, phased fashion to something more consistent 
with our other missions around the world.
    With our personnel safely in place, we will do our best to carry 
out the mission we were sent to do; the mission I have described in my 
testimony. Let me speak for a moment about the resources required to 
make all this happen. Earlier in my testimony I noted that the U.S. 
relationship with Iraq is transitioning. Our Embassy footprint reflects 
this, in tandem with our bilateral relationship. As Charge d'Affaires, 
I am continuing the glide path process begun by Ambassador Jeffrey 
earlier this year. As part of that effort, we have already made 
significant cuts in our staffing and contractor support and will 
further reduce our footprint without compromising our mission and 
security.
    Managing our presence and efforts in Iraq also takes a significant 
degree of coordination between leadership here in Washington and those 
working on the ground. Our effort in Iraq is still very much a 
collaborative process with a wide range of U.S. departments and 
agencies working together to provide the expertise needed to support 
our policy and goals. I would like to thank all involved for their 
continued support in Iraq. To succeed in Iraq, it will continue to take 
a whole-of-government approach to make sure we have the right 
expertise, the right resources, and the right policies.
    If confirmed as Ambassador, I will continue the rightsizing effort, 
matching resources to mission, and will work closely with the Congress 
to ensure that we have what we need to reach our policy objectives and 
support the national security interests of the United States.
    It is a tremendous honor to have been nominated by President Obama 
to serve as the U.S. Ambassador to Iraq. Should I be confirmed, I will 
seek to expand and deepen our collaboration with Iraq and its people 
and to secure our vital interests. We accomplish our work ever mindful 
that our country has given much in support of our objectives in Iraq. 
Although our troops have departed Iraq, we will never forget their 
sacrifices and accomplishments. Working side by side with hopeful 
Iraqis, they created an Iraq with a brighter future. And for those who 
gave their lives for this cause and their families who bore the brunt 
of our Nation's loss, we will continue to work to build a lasting and 
successful relationship with Iraq that pays tribute to and honors their 
sacrifice.

    The Chairman. Thanks very much, Mr. Ambassador. Thank you.
    Can you share with me an answer to the issue I raised about 
the Iranians using Iraqi air space in order to support Assad? 
What are we doing--what have you been doing, if anything, to 
try to limit that use?
    Ambassador Beecroft. I have personally engaged on this 
repeatedly at the highest levels of the Iraqi Government. My 
colleagues in Baghdad have engaged on this. We are continuing 
to engage on it. And every single visitor representing the U.S. 
Government, from the Senate--recently 3 visitors--to 
administration officials, has raised it with the Iraqis and 
made very clear that we find this unacceptable, and we find it 
unhelpful and detrimental to the region and to Iraq, and, of 
course, first and foremost, to the Syrian people. It is 
something that needs to stop and that we are pressing and will 
continue to press until it does stop.
    The Chairman. Well, I mean, it may stop when it is too 
late. If so many people have entreated the government to stop, 
and that does not seem to be having an impact, that sort of 
alarms me a little bit and seems to send a signal to me that 
maybe we should make some of our assistance or some of our 
support contingent on some kind of appropriate response.
    I mean, it just seems completely inappropriate that we are 
trying to help build their democracy, support them, put 
American lives on the line, money into the country, and they 
are working against our interests so overtly--against their 
interests, too, I might add.
    Ambassador Beecroft. Senator, I share your concerns 100 
percent. I will continue to engage, and, with your permission, 
I will make very clear to the Iraqis what you have said to me 
today, and that this is--you find it alarming, and that it may 
put our assistance and our cooperation on issues at stake.
    The Chairman. Well, I think that it would be very hard to--
I mean, around here I think right now there is a lot of anxiety 
about places that seem to be trying to have it both ways. So I 
wish you would relay that obviously, and I think members of the 
committee would want to do so.
    Can you tell us, with respect to the safety issues, and 
personnel, and our citizens there, are you taking extra steps 
now? Are there additional initiatives in place as a result of 
what has happened in the last week or two?
    Ambassador Beecroft. For some time now, and all the more so 
in light of recent events, we have taken a very cautious and 
careful look at our security on a regular basis. We have our 
own security at the Embassy. We think it is sizable. It is 
robust. And we are very confident that it is what we need at 
this time.
    At the same time, we are fully engaged with Iraqi 
officials, both political and security officials, at the most 
senior levels to ensure that they give us the cooperation that 
we feel we need. And so far they have done that. They have 
pledged to protect us, and we are doing everything to ensure 
that they keep to that pledge, and that we meet our part of it 
by ensuring that we are as safe as can be on our terms.
    At the same time, I would comment we enjoy geographic 
advantages. The Embassy is located inside the international 
zone, the green zone, as you know. And there are a number of 
checkpoints that are closely guarded getting into it. It is not 
a place where demonstrations usually take place.
    The Chairman. What has the reaction of the Iraqi people 
been to the events of the last week?
    Ambassador Beecroft. So far compared to other places in the 
region, it has been quite muted. There have been demonstrations 
throughout the country, but they have been low level. And there 
has been nothing that is specifically threatening. There have 
been statements highly critical of the film that is at issue, 
and statements by some political leaders that they should 
examine their relationship with the United States because of 
this film.
    But on the whole, we get good cooperation. We continue to 
engage, and Iraqi officials are meeting with us as regular in 
going about business.
    The Chairman. Increasingly we are hearing more anecdotal 
and other reports about the increased authoritarianism of the 
Maliki government and the political system itself, perhaps 
becoming less democratic and so forth. Can you share your 
perceptions of that with us, and how you see this trend line 
moving?
    Ambassador Beecroft. Iraq is a democracy. It does face a 
lot of issues that are challenging to that democracy. It is 
fragile in many ways. We are working constantly with all sides, 
with the Prime Minister, with his party, his bloc, with other 
blocs and other parties across the political spectrum to ensure 
that democratic institutions and the democratic process is 
strengthened.
    In short, what we are doing is pushing them all to engage 
to pursue their interests in the legislative process, in an 
independent reform process that they have agreed to. In other 
words, use the system to achieve what you need to achieve 
rather than look outside the system and make it fall apart.
    The Chairman. So, Mr. Ambassador, I remember sitting 
downstairs--we in this building on the ground floor in that big 
hearing room when Secretary Condoleezza Rice testified. And I 
remember her saying to us vividly, well, we are just a few 
weeks away from signing an agreement on the oil--on the 
division of the oil and having an oil agreement--you know, 
global oil agreement for Iraq.
    I guess we are about 5 years later now, maybe 6. I do not 
remember the precise timing of that. Still no agreement. Still 
the problem with the Kurds. Still the problem with Sunni 
minority feeling divorced, et cetera.
    There is certain skepticism now about whether or not the 
current government actually intends to have a diverse, 
pluralistic representative government, or whether we are moving 
toward some other form of sectarian division here. I think a 
lot of people are worried about it. Can you share your 
perspective about that?
    Ambassador Beecroft. You are right about the hydrocarbons 
law. There still is no hydrocarbons law. We think this, next to 
Iraq's Constitution, is one of the most important laws that 
could go into place in the country. We are pushing it very 
aggressively.
    Most recently, Ambassador Carlos Pasqual from the State 
Department, who looks after energy issues there, and a 
representative from the Department of Energy, came to Iraq, met 
with Iraqi officials. Deputy Secretary Bill Burns followed up 
last week with a visit and pushed the same issue. We are 
pointing out to them this is a way to unify and unite the 
country, which is what they need to do at this time.
    I am pleased to be able to say that there has been some 
subsequent engagement by the Iraqis on oil issues, and some 
discussion of restarting negotiations on the hydrocarbons law. 
And we are going to continue to push them in that direction. It 
is a positive trend, a positive sign.
    Most recently, representatives from the Kurdish regional 
government were in Baghdad only a few days ago meeting with the 
Minister of Oil there. And by all reports what we hear, what we 
see in the press, they did make some progress, and they are 
moving forward on that. So while it is not the hydrocarbons law 
itself, these are issues which should smooth relations and 
allow for the hydrocarbons law to go forward in the future. 
Thank you.
    The Chairman. Well, Inshallah.
    Ambassador Beecroft. Inshallah.
    The Chairman. Senator Lugar.
    Ambassador Beecroft. Thank you, sir.
    Senator Lugar. Let me just follow on Senator Kerry's 
questioning, because what he and you have described is a 
country which clearly is a sovereign country. But without the 
hydrocarbons law, which was anticipated so that the oil, the 
basic revenue for a good part of managing the government, never 
came to be. Therefore, deals have been made by the Kurds on 
occasion with companies outside of Iraq, that sort of commerce 
is proceeding with or without the hydrocarbon law. Therefore, 
there is some dispersion of the wealth of the country, quite 
apart from some questions about how the Kurds fit into this 
Iraq situation.
    The question that Iraqis must have, quite apart from 
Americans, sort of getting back to testimony we used to hear 
before this committee, in which some people were advocating 
there really were three different countries, or we ought to 
recognize really the realities of Iraq as opposed to having 
this fiction that there was one country, and somehow or other 
this oil and constitutional framework representing the three 
major groups and others would come into being.
    How does the country operate given these divisions, granted 
that Maliki has authority. From time to time, there are reports 
of terrorism in Iraq against Iraqis. And you mentioned these 
are still going to happen, but how do they move toward 
happening at all? Is there an impetus toward unity in the 
country that we should say, given patience and given time, this 
is going to work out? Or is the trend maybe the other way given 
the events in the Middle East, given the ties with Iran, 
whatever they may be, or problems of Shiites and Sunnis 
everywhere? Is this really a solid country?
    Ambassador Beecroft. Thank you, Senator Lugar. Yes, I think 
it is. There's a solid basis for the country to go forward and 
succeed here. While there are forces that would pull Iraq 
apart, what we continue to see and what is encouraging is that 
Iraqis continue to resolve their differences through dialogue, 
through negotiation. And so when they do have disputes, which 
they have frequently to be perfectly honest, they find ways to 
resolve them peacefully and as part of this democratic process.
    Our job is to continue to encourage that and then continue 
to support them as they do that, and point out ways where they 
can do it more effectively.
    The hydrocarbons law, as you point out, is one way of doing 
that. Strengthening the legislative process is another way of 
doing that, focusing on key--helping them to focus on key laws 
that they need to pass as part of that legislative process. For 
example, the law on the High Electoral Commission, putting new 
commissioners in place. These are things that well help unify 
the country over time.
    But right now, I think it is headed in the right direction, 
but with plenty of ups and downs on that trend line. We need to 
keep the trend line going and try to minimize the downs.
    Senator Lugar. Is your counsel appreciated? Our enthusiasm 
in the United States obviously is for a unified Iraq.
    Ambassador Beecroft. I think by and large, we are listened 
to very closely. Most Iraqis will say the United States 
continues to have a role to play in Iraq. And I think most 
Iraqis are committed to the same thing we are committed to, 
which is a unified federal and democratic Iraq.
    Senator Lugar. Now you mentioned the relative security of 
our Embassy. In the past, there has been considerable 
discussion, not only among diplomats, but the American public, 
about the size of the Embassy in Iraq. There was discussion 
when this was first built, a rather monumental structure to say 
the least.
    I remember at one conference I suggested that, in fact, 
this structure was so big, it might really serve as a unifying 
purpose for Middle Eastern countries, a sort of united forum in 
which they would all come together in this like The Hague. Some 
people found some interest in this even if the Iraqis did not. 
Some members of our government were not fond of this idea since 
it is our Embassy.
    What is the future of all of the real estate, all of the 
responsibilities? They are huge, and this is going to be an 
ongoing debate, I am certain, in the Congress, as we come to 
budget problems in this country.
    Ambassador Beecroft. Thank you very much. We recognize that 
this is an issue. We started with an Embassy that was staffed 
to address all possible contingencies, to follow up on the 
wonderful work that the United States military had done in 
Iraq. Since that time, and again starting with Ambassador 
Jeffrey, and it is something that I personally am continuing 
and have been very, very closely involved in, and that we will 
pursue. We are calling it a GlidePath exercise where we are 
looking at what our objectives are and how we are resourced and 
staffed to meet those objectives. And what we have found is 
that we can prioritize and focus our mission and will continue 
to do that on what we really need to accomplish. And as we do 
that, we are able to reduce personnel.
    Since the beginning of the year, we have reduced personnel 
by more than 2,000. We are now somewhere between 13,000 and 
14,000 personnel in Iraq, down from over 16,000. Facilities, we 
have given back in the last couple of days facilities we had in 
Kirkuk at an air base up there, and facilities we had in 
Baghdad for a police training center. And we have another 
facility in the next few days, which we will give back also in 
Baghdad.
    So we are reducing not just the number of personnel, but we 
are reducing the number of pieces of property that we occupy 
and use. And we are very mindful of the costs that it takes to 
support the mission in Iraq. And I personally am dedicated to 
reducing those costs by again focusing our mission on what we 
really need to achieve and to reshaping it so that it best does 
that.
    Senator Lugar. Well, we congratulate you on your service. I 
join our chairman in saying we are hopeful we can get action on 
this nomination very swiftly so that you are there and can 
serve our country well during these weeks and months ahead.
    Thank you very much.
    Ambassador Beecroft. Thank you, Senator.
    The Chairman. Thank you, Senator Lugar.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thanks for 
calling this hearing. And thank you, Mr. Ambassador, for your 
willingness to serve here, and what you have been there, and 
for your earlier comments along with Senator Lugar's regarding 
Chris Stevens. I was just sitting here thinking. I listened to 
Senator Kerry's comments, and, you know, over the last decade 
there has been quite a turn of events in Iraq and for Iran over 
the last decade.
    I mean, 10 years ago their most major enemy was right next 
door in Iraq. Today they are flying airplanes over Iraq into 
Syria to help one of their allies. And I know that you have 
mentioned that everyone at every level has talked to Maliki 
about this, and I know that you say you will continue to do 
that. What I would like to hear is what his response is when 
you say that you would like for him to cooperate with us in our 
interests. What does he exactly say in response to our efforts 
there?
    Ambassador Beecroft. Thank you, Senator. The response is 
typically to express a lot of concern about events in Syria. 
And they are very clear that both the Prime Minister and other 
Iraqi officials, that they have no interest in seeing the 
current government continue, the regime continue. That they are 
no friends of that regime; that that regime has been hostile to 
them in the past and allowed terrorists to come into Iraq 
hostile to democracy in Iraq, and the institutions in Iraq, and 
the people of Iraq.
    What they are interested in seeing, though, is that there 
is a clear outcome in Syria that protects their interests. And 
they are having a little trouble seeing that.
    Senator Corker. But what about the air space issue? I mean, 
why are they continuing to cooperate with Iran in that effort? 
What do they specifically tell you regarding that? I know we 
talk with them, but what is their response?
    Ambassador Beecroft. They say they engage with all parties, 
that they will not allow their air space, their land, their 
ground, to be used to transport weapons. And so that they read 
the manifest closely, and they have instructed that they will 
not allow flights in. We think----
    Senator Corker. Well, they are convinced that the flights 
are not carrying armaments into Syria.
    Ambassador Beecroft. Well, they are taking the manifest at 
face value. And what we are urging them to do is either 
disapprove the flights, or per U.N. resolutions, ask them to 
land in----
    Senator Corker. And they are taking the manifest at face 
value.
    Ambassador Beecroft. And so again, we are pressing them to 
have the aircraft either disapprove the flights or have them 
land and be inspected, which is their right to do.
    Senator Corker. So I think it really does--you know, I 
think speak to our continuing role there. And I know the first 
two questioners have asked this, and by the way, again I thank 
you for your service there, and I know it is a heavy lift.
    When Senator Barasso and I first got here, which was 5\1/2\ 
years ago roughly, 5 years ago for him, we were talking about 
this hydrocarbon discussion at that time. And I remember 
sitting and interact with Khalilazad as he was running back and 
forth trying to work out some hydrocarbon law at that time. 
Still nothing has happened. There is no constitution. And so I 
think it does beg the question. I mean, we have a situation 
where obviously our national interests in Syria is very 
different than whatever Iraq is allowing to happen.
    I would like for you to point to some of the things that 
our involvement there has caused them to do that is in our 
national interest, and what our continuing role should be in 
Iraq.
    Ambassador Beecroft. Well, let me point to--thank you very 
much--one particular example. Iraq recently passed the 3 
million barrels per day threshold production of oil. This is 
certainly something, getting more oil on the market; 2.5 
million barrels per day of that are exported. The rest is used 
domestically. This is something that is in our interests.
    Senator Corker. In the world's interest, right? It is in 
China's interest. It is in everybody's interest, right?
    Ambassador Beecroft. That is correct.
    Senator Corker. Yes.
    Ambassador Beecroft. But it is particularly in our interest 
is there are sanctions on Iran, and as Iran's production has 
decreased, an increase in Iraq's production helps counter that 
and helps maintain stable oil markets across the world. You 
might imagine----
    Senator Corker. It is very much in Iraq's interest, too, 
right?
    Ambassador Beecroft. Yes, it is, but at the same time you 
might imagine that they are under pressure from others not to 
do this, but they are doing it anyway. And it is, again, 
something we work closely with them on. So I take your point, 
but I did want to flag that as one example.
    Senator Corker. I think it is a serious question. We have 
had ambassadors, really good ambassadors, and I am sure you are 
going to be equally as good. But we have the best of the best 
in Iraq, and as you look at the things that we have encouraged 
them to do, it is really difficult. I cannot really remember 
anything of significance that our involvement there through 
diplomatic relations has caused them to do that is in our 
national interest.
    If you could just point to one. I mean, selling 3 million 
barrels of oil is in their interests, OK? I mean, it would be 
cutting their nose off to spite their face not to do that. So I 
would not say that is in our interest.
    So what is it that we have shaped there diplomatically 
since we have been there that has been in our national 
interest?
    Ambassador Beecroft. Well, it is certainly national 
interests, I believe, that we have a unified Iraq that plays a 
productive, constructive role in the region. Iraq recently 
hosted back in March, end of March, the Arab League summit, 
where it brought all the Arab leaders, and you had 9 heads of 
state, and I believe 22 delegations present for that. Again, a 
sign that it is a unified peaceful Iraq, not Iraq that is 
fractured, broken up, at war with itself, or at war with its 
neighbors.
    It continues to battle al-Qaeda very, very strongly. This 
is something also that is in our interests, the fight against 
terrorism. And we will continue to work with them on things 
like this. These are our most important priorities, in my view, 
and we are getting a degree of success.
    Senator Corker. Are there not some border leakages right 
now between Iraq and Syria that are allowing more al-Qaeda 
folks to flow into Syria at present? I mean, is that not an 
issue?
    Ambassador Beecroft. The Iraqis have dispatched a whole 
number of troops to the border to protect the border to stop 
the flow either way into or out of. I read in this morning's 
news, for example, sir, that they had killed, I think, three 
terrorists attempting to cross over, AQI, into Iraq from Syria. 
So they are there. They are trying to protect the borders, and 
again they are trying to stop the flow of weapons on the ground 
and personnel, either way.
    Senator Corker. Well, I know my time is up, and I think you 
have heard from the three questioners so far of different 
parties that, first of all, we thank you for your service, and 
I do think you will be approved very quickly. And we thank you 
for coming in for this hearing.
    We know that the work there is very difficult, and we are 
dealing with folks that obviously, as you would expect, are 
looking after their own interests first. But I think you are 
going continue to be pressured by folks here and other places 
to see results there with our diplomatic actions. I know that 
they are asking for increased aid. I do think that aid is 
coming under increased pressure. And I think people are going 
to want to see results.
    So I thank you for your willingness to take on this role. I 
thank you for answering in an earnest way our questions. But I 
think there are going to be many, many more. And as you take 
this on, I hope the Government of Iraq understands also that we 
would like to see some movement in a positive direction on 
issues that have been sitting around for a long, long time and 
left unaddressed.
    Thank you very much.
    Ambassador Beecroft. Thank you, sir.
    The Chairman. Ambassador, I have to go to another meeting, 
and I apologize to you. Senator Casey is going to chair, and he 
is going to be recognized as the next questioner anyway. But I 
just want to wish you well. As I said, we will try to move this 
as fast as we can.
    I want to thank you for your taking on this tough task, and 
thank your family at the same time for their contribution to 
this effort. We really appreciate it. Thank you very, very 
much.
    Ambassador Beecroft. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey [presiding]. Thank you, sir. We are grateful 
for your willingness to serve yet again, and we appreciate 
that.
    I have a couple of questions to start with that involve the 
issue of the over flights over Iraq. And as a predicate to 
that, I wanted to ask you about your sense of what we can do to 
be as vigilant as possible.
    A number of weeks ago now, I chaired a hearing on the 
Iranian influence in the region, especially their support for 
terrorism in the region. And one of our witnesses at that 
hearing was Ambassador Jim Jeffrey. And as a predicate to my 
question, I want to quote from something Ambassador Jeffrey 
said. I asked him about Iranian influence in Iraq, and he said 
the following, and I am quoting. He said, ``At present, our 
overall strategy in Iraq, including stemming strategy Iranian 
dominance of the country, has been successful despite a massive 
cut in our resources committed. That is a policy we should 
continue, bearing always in mind that this success is fragile 
and should not be placed at risk for wider policies. If Iranian 
pressure increases, we have tools to counter it.'' That is what 
Ambassador Jeffrey said at the time, not too long ago. So it is 
clear that Iran has brought to bear great pressure on Iraq as 
it relates to allowing that air space for the over flights.
    I wanted to ask you specifically, What tools do we have to 
deal with that problem? And I know you spoke to this in 
response to questions already this morning. But just to put an 
even finer point on it, if you can do that.
    Ambassador Beecroft. Thank you, Senator. I will answer what 
I can in this setting.
    Senator Casey. Sure.
    Ambassador Beecroft. And I am sure that there could be a 
classified meeting if necessary. But what I want to say is that 
our major tool is to work with the Iraqis. I think the starting 
point that they have their own self-interests that all groups 
in Iraq recognize that they have their own interests, and those 
are not necessarily Iranian interests, and why there is some 
overlap or some shared interests.
    On the whole, Iraqis take the approach that they are a 
sovereign democratic nation, that they are independent of Iran. 
If their interests happen to coincide, that is fine. But if 
their interests do not coincide, what we see is that they 
follow their own interests, and they do not succumb to 
pressure. And one example of this is the oil example I just 
gave.
    What we need to do is again strengthen this democracy, that 
there is an Iraq. Make sure that it is not a house divided 
which is easily influenced and pressured, but a house that is 
united and strong by getting all parties to play in the 
political process constructively. And we need to work with them 
to show them that, you know, we will support them in pursuing 
their own interests. That we will counterbalance the influence 
that is coming from outside to the extent we can, except we can 
play a helpful role. That we will have a strong relationship 
with them that supports them.
    Senator Casey. Well, I appreciate that because I have great 
confidence you will be confirmed. And as you assume your new 
posting, I hope that you make it very clear to the Iraqi 
leadership that we have great concerns about this. I think 
people in both parties here in the House and the Senate have 
concerns, first and foremost, about the Iranian nuclear program 
and preventing them from getting a nuclear weapons capability. 
At least that is my position. I think that is a widely shared 
belief or point of view.
    But in addition to that, even if there was not this nuclear 
threat, the threat that they pose to the region and beyond is 
of paramount importance to us. So I hope that you continue to 
reiterate that position.
    I want to ask you as well about the politics of Iraq. We 
sometimes do not have a chance to spend a lot of time on an 
issue like that. But I was struck when I was there in July 2010 
with Senator Shaheen and Senator Ted Kaufman from Delaware. Our 
visit to Iraq just happened to overlap with a visit by the Vice 
President. So we had a moment, probably about a 2-hour window, 
when we could actually sit with him. And he had just come from 
a series of meetings with the various Iraqi officials trying to 
work out the politics and the difficult management of that and 
doing everything he could to bring the sides together.
    As you know a lot better than I, it is one thing to have 
political or ideological differences. It is another thing when 
it has its origin in ethnicity and all kinds of other 
divisions. So it is particularly difficult to bring the sides 
together.
    I was also struck by how capable the Vice President was in 
dealing with that because he spent a lot of time with all these 
players.
    There is still a real concern now that those politics have 
not worked out as well as we had hoped. And in particular, 
there is a concern or maybe an allegation--that might be too 
strong a word--that Prime Minister Maliki is becoming more and 
more authoritarian. And I wanted to get your sense of that and 
your sense of the overall politics, because that, of course, 
will be the underpinning of the progress. They cannot make 
progress to the extent that we would hope, unless they can 
manage those political differences.
    So I wanted to get your sense of that and what you could do 
to further advance those areas of cooperation or consensus.
    Ambassador Beecroft. Thank you. There clearly are divisions 
within Iraq and different interests. But what we see and what 
is encouraging is that the parties when they have disputes, 
when they have differences, that at the end of the day, they 
come together to talk and negotiate their differences. And they 
continue to function as a democracy. They continue to work 
through the legislature and the council of ministers, and 
outside it in informal processes or unofficial processes, to 
work out their differences and find ways forward.
    Now it is oftentimes a slow, protracted process. It 
certainly does not move at the pace that we would like to see 
or with the efficiency we would like to see. But as I see it, 
our role is largely to continue to encourage this, to be 
helpful in pointing out ways forward, the ways things might be 
done, the way they might be able to compromise or reach 
consensus on issues. And then to be as supportive as possible 
in helping them avoid any backsliding on those agreements, and 
to find ways to help consolidate them. And we will continue to 
do that as best we can.
    But again, I would like to reiterate, the encouraging thing 
is that Iraq has not fallen apart, that it has held together. 
And there certainly are forces that would like to pull it apart 
both internally and externally. But the Iraqis themselves, much 
to their credit, have found ways to continue to work with each 
other and continue to resolve their disputes.
    And I do not want to minimize the importance of these 
disputes. There have been very serious ones that are of great 
concern to particular groups in Iraq or to all Iraqis. But 
again, at the end of the day they find a way to step back from 
the precipice, to talk, and find a way forward. And we will 
continue to work with them on that to push them in those 
directions in the most positive, constructive, and encouraging 
way we can.
    Senator Casey. Thank you. I will have another line of 
questioning, but my time is up. And I think Senator Rubio is 
next.
    Senator Rubio. Thank you. Congratulations. Thank you for 
your service. I, too, anticipate there will be little, if any, 
objection to your nomination. I know you want to get to work 
quickly.
    So let me touch on three subjects. The first one, there has 
been already discussions about Iran's influence in Iraq. In 
your opinion, does that influence extend to the judiciary? And 
I am particularly concerned in light of the Vice President's 
trial. There is growing evidence, at least allegations, that 
the Prime Minister and others have manipulated the judiciary to 
persecute their political enemies.
    Do we have concerns that Iran's influence in Iraq has now 
reached or extended into the judiciary as well?
    Ambassador Beecroft. Thank you, Senator. I would say we 
have concerns across the board that any country, Iran or 
others, not play an overbearing or an overly influential role, 
particularly a negative one, in Iraq. We work closely with the 
judiciary in Iraq and the legal community. We do everything we 
can to ensure that there 
is support for rule of law programs. And so far what we see is 
a largely functioning judiciary that, while not--again, I 
cannot give it a 100 percent endorsement as perfect. No country 
has a perfect judiciary. It is something that again continues 
to function and will continue to help it function better to the 
extent we can.
    Senator Rubio. My second concern is about the well-being of
the leader of the Democratic Party of the Iraqi Nation, Mithal 
al-Alusi. Have we expressed our concerns about the way he has 
been treated? And I believe he is now in the northern region. 
He has been given--I guess he has been allowed to enter and is 
living under their protection. But I have read a series of 
accounts about how different types of protections have been 
withdrawn. His life has been made a miserable mess in Baghdad. 
Apparently he has to leave Baghdad.
    Have we expressed our concern about his well-being and our 
concern about how he has been treated?
    Ambassador Beecroft. I am sorry, Senator. I missed the 
name.
    Senator Rubio. Mithal al-Alusi. He is the leader of the 
Democratic Party of the Iraqi Nation.
    Ambassador Beecroft. Excuse me. Let me just say that first 
and foremost, we have concerns about human rights across the 
board. And we will raise those concerns at every opportunity, 
as well as rule of law concerns to make sure everyone is 
treated fair and freely.
    On this specific individual, I am going to have to go back 
for an answer and get back to you as quickly as I can.
    [The written reply from Ambassador Beecroft to the above 
question follows:]

    Through our ongoing engagement with the Government of Iraq (GOI), 
we place the highest priority on respect for human rights. We will 
continue to encourage the GOI to adhere to the highest standards of 
human rights and the rule of law in a fair and transparent manner, 
including in the case of Mr. al-Alusi. If confirmed, I will personally 
look into this case with my Embassy colleagues on my return to Baghdad.

    Senator Rubio. Well, just so that I can point, he, in 
addition to being the leader of the Democratic Party of the 
Iraqi Nation, he has also been a staunch ally of the United 
States, courageous in many instances, a proponent of a more 
open society, basically everything we hope the region will 
become in terms of the things he stood for.
    I encourage you to look into his case. It is actually well 
documented and pretty well known. And he has now had to leave 
to northern Iraq for protection because of the way the current 
government in Baghdad has treated him. I think it sends a 
terrible message to our friends and to moderate reformers in 
the region when the United States is silent about their well-
being. I think it is concerning that, quite frankly, that there 
is not more awareness about his plight.
    But let me just to add to that. What is your view of our 
relationship with the regional government in the north, the 
Kurdish regional government? There have been accounts about how 
well they have developed. Certainly it is a safer region than 
the rest of Iraq. They have certainly progressed economically 
quicker than the rest of the nation. How is our relationship 
with them? How do you envision our relationship with them 
moving forward as far as their own aspirations, et cetera?
    Ambassador Beecroft. Thank you, Senator. On the first case, 
I will look into the case personally and we will get back to 
you and your staff.
    Regarding the north, we are very supportive of the 
autonomous region of the north, and you are absolutely right, 
has progressed in many ways, and in many ways sets an example 
for not just the country, but the region, and what it can be. 
We will continue to support them and work with them as part of 
a unified, federal Iraq. And we have the best of relations with 
them, and we will continue to have those relations.
    Senator Rubio. I have heard concerns that the closer we get 
to them, the more we risk alienating the Prime Minister, and 
the less cooperative he may be with us. Do you share that view?
    Ambassador Beecroft. We have excellent relations also, sir, 
with the Prime Minister and we are going to continue to keep 
those. And so long as people understand this is part of a 
unified, federal Iraq, our work with the north should not be 
objectionable, and it so far has not been objectionable.
    Senator Rubio. Right, but I have heard some commentators 
say that we have got to be careful how we deal with them and 
not to appear too close to them because it may alienate or make 
the Prime Minister less cooperative with us. I think--and I do 
not want to put words in your mouth, but I think what you are 
saying is that there is nothing necessarily that would stand in 
your way of reaching out to them, and working with them, and 
having a close relationship with them. You do not view it as a 
zero sum game. You think you can have a good relationship with 
both.
    Ambassador Beecroft. That is absolutely right.
    Senator Rubio. OK, thank you.
    Senator Udall. Senator Casey.
    Senator Casey. Senator Udall.
    Senator Udall. Are you our chairman here?
    Senator Casey. You just arrived. I want to make sure you 
are OK for questioning.
    Senator Udall. Great. I am ready to go here.
    Senator Casey. Senator DeMint is ready, so I want to warn 
you.
    Senator Udall. OK. Thank you for being here, and we very 
much appreciate your service, especially in light of all of the 
things we have seen over the last couple of weeks. And so we 
are pleased that you are willing to serve.
    According to the Special Inspector General for Iraq 
Construction, in its report of this year, the inspector said, 
``Antigovernment forces continue to target prominent Iraqis for 
assassination. Thirty-two senior government officials were 
killed from April until July of this year. Not only are 
government officials being targeted, but judges and military 
offices have been targeted by assassins.''
    How have these tensions impacted governance in Iraq, and 
are people becoming reluctant to participate in the system? And 
if so, how does this impact the long-term political health of 
Iraq?
    Ambassador Beecroft. Thank you, Senator. Violence is 
certainly at the top of our list of concerns in Iraq, and we 
are doing everything we can to cooperate with Iraqis in 
confronting violence, and reducing it, and holding those 
responsible for it accountable.
    While a serious threat, we have not seen that it keeps 
Iraqis from continuing to work in the system. And not just 
that, but Iraqis from going out on the street and participating 
in normal life out on the street. While there may be some 
examples of Iraqis opting not to serve, most Iraqi are more 
than happy to serve and take government positions, judicial 
positions, and to vigorously carry out their jobs and 
responsibilities.
    That is something we will encourage. It is something we 
have worked with the Iraqis on in the past is protecting their 
officials, and we will continue to do that very much with them 
so that these people can carry out their jobs safely without 
fear of retribution assassination.
    Senator Udall. And some of this, as you know, has been 
attributed to Al Qaeda in Iraq. And I was just wondering about 
your assessment of that. How much are they involved? Is there a 
resurgence there? How big of an impact are they having?
    Ambassador Beecroft. You are absolutely right. Al-Qaeda is 
a huge concern. They continue to perpetrate violence in Iraq. 
The Iraqis are focused on it. Fortunately, we are finding that 
the violence has not led to the things that al-Qaeda is hoping 
to achieve. It is not leading to sectarian conflict. It is not 
undermining the government in a way that people have lost 
complete confidence in it. It is something that again is a 
major concern that we need to help Iraqis deal with.
    They have asked for our help, and we are going to help them 
as much as possible. But, yes, it absolutely remains a concern, 
and it needs to be dealt with.
    Senator Udall. And do you believe that the Iraqi military 
and intelligence services are focused on that, and that they 
are putting their maximum effort there?
    Ambassador Beecroft. They are focused. They have good 
people that are working this issue. We talk to them regularly 
about it, and they assure us that they are strong in their 
commitment.
    What they have also asked us for frankly is assistance; 
assistance in providing information that we have, and we are 
doing that, and assistance in providing equipment. And we are 
also doing that as well.
    Senator Udall. Ambassador, I know it is not on the same 
level as in Afghanistan, but corruption is still a very big 
issue in Iraq. And I am just wondering, what do you believe 
they have done to effectively deal with this? Are there efforts 
that you would take when you get there to kind of move this 
whole effort along. I mean, how are we dealing with the 
corruption issue?
    Ambassador Beecroft. Corruption is a large issue. I think 
Transparency International's last report had Iraq ranked eighth 
in the world on corruption, not something you want to be. 
Iraqis are aware of this, and the government is focused on it. 
We are continuing to work with them. We have people in the 
Embassy that work on corruption issues and engage with them 
regularly. It is a concern.
    What we would like to point out--what we do point out to 
them and what they are perfectly aware of is that this hurts 
the things they want or diminishes the opportunity for those 
things--business investment first and foremost. People find it 
not just a difficult environment to operate in because of other 
reasons, but because of corruption by and large. And it makes 
it very, very difficult. And it discourages businesses from 
coming forward. So we will continue to work with them to try to 
deal with the problem and improve it.
    Senator Udall. One of the major criticisms that has been 
leveled against our participation was the signing of the 
agreement between Iraq and the United States as we left. Do you 
have any thoughts on that in terms of where we are today? Have 
we been able to function effectively with them? Has that set 
back our efforts?
    Ambassador Beecroft. Let me start by saying that United 
States military did fantastic work in Iraq. And I think most 
Iraqis today recognize that and appreciate it.
    Let me also say that we put in place the Strategic 
Framework Agreement, which we are working through with the 
Iraqis to engage in a whole range of issues, everything from 
justice, to diplomacy, to economic issues, education issues. 
And this is the framework we are pursuing to ensure that we are 
fully engaged with them on issues that are of concern to us and 
also of concern to them where we can make some traction.
    I think we continue to see this function well, and it 
continues to make progress, the progress that we want to 
achieve and that we want to see Iraq achieve.
    Senator Udall. Great. Thank you. Thank you very much, and 
once again, thank you for your service.
    Senator Casey. Thank you, Senator Udall.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman. Mr. Beecroft, I 
also thank you for your service and your willingness to 
continue to serve in Iraq. We have got a lot of our blood and 
treasure invested.
    Frankly, you have encouraged me today just as I have heard 
you talk. You have answered a lot of questions I have had, 
because I have heard a number of folks say that Iraq is 
unraveling, that it is just coming apart. The fact that we did 
not leave a stabilizing force in Iraq makes it virtually 
impossible for us to impact policy. And some of the things you 
have said suggested otherwise.
    I have to admit that I am a little cynical because over the 
last 10 years I have gotten a number of reports that were very 
rosy, only to find out that was not the case at all. But you 
seem to be very credible and knowledgeable, so I am encouraged 
by what you said.
    But I will just ask a few questions as a followup, and you 
have answered some of these to some degree. Clearly there is a 
growing anti-American sentiment throughout the Middle East. How 
pervasive is that in Iraq? And do you think the manipulated 
rage I think that we have seen in other countries, can that 
take hold in Iraq?
    Ambassador Beecroft. Thank you, Senator. Starting with 
manipulated rage, we have seen reactions recently in Iraq. 
While there have been demonstrations, they have not been of the 
size or severity that we have seen in other countries. And the 
Iraqi Government has handled matters in a very calm and 
peaceful way as well, and has not sought, for the most part at 
least, from what I have seen, to inflame things.
    I think, and going to the larger question that you ask, 
that there is increasing good will toward the United States in 
Iraq, and increasing recognition of the positive role that the 
United States, starting with the United States military, has 
played there. It is our job to capitalize on that and make the 
most of it, and build a partnership and a relationship with 
Iraq.
    And I do not want to minimize the difficulties that Iraqis 
face and that we also face. But I do want to stress that there 
are signs that are encouraging. There are rays of light and 
hope. And we will continue to work to increase the number of 
encouraging signs, increase the successes. And a large part of 
that is building the partnership that we have with Iraq and 
making it stronger. And this is the platform we have been left 
by the excellent work of the U.S. military.
    Senator DeMint. You mentioned a house divided, and this 
question has already been asked. But we have seen a number of 
reports that both Sunni Arabs and Kurds are fearful of a power 
grab by the Prime Minister. Some sectarian division going on 
there. How serious is that?
    And you mentioned that it is seems to be working out in a 
democratic way rather than a violent way. Is that the good news 
is there is division, but it is being worked out?
    Ambassador Beecroft. Sir, yes, you are absolutely correct, 
that is the good news. There are divisions. There are disputes. 
There are disagreements. Interests vary from issue to issue. 
But what we see is that Iraqis continue to talk, and, more 
importantly, they continue to channel their concerns through 
the democratic process and handle things as part of the 
democratic process.
    So if it comes to, let us say, recently there was talk of a 
no confidence vote. Again, that no confidence vote was allowed 
in the Iraqi Constitution. And again, it was a democratic 
procedure which people were looking at and considering. It was 
not something that was outside the democratic framework.
    Senator DeMint. Just one other question, just religious 
freedom. You mentioned human rights. We get a lot of reports, 
particularly from Christian missionaries that the religious 
freedom is not being protected by the Iraqi Government. Is this 
a priority of theirs or something they try to sweep under the 
rug? Is there hope that the different faiths can operate within 
Iraq?
    Ambassador Beecroft. I think there is hope. That said, it 
is one of the concerns that the Embassy and that the State 
Department and others are very focused on in Iraq. We have 
received I think since 2008 three directives from Congress to 
spend $10 million each, so $30 million. We have actually spent 
$72 million pursuing religious freedom and looking for ways to 
protect minority religious groups in Iraq. We are going to 
continue to do that.
    We engage with them regularly. We will continue to engage 
with them regularly. And while the Iraqis have shown that not 
only do they have laws protecting religious freedom and 
minority religions, they have taken steps in the past in 
response to attacks to protect, for example, Christian 
churches. And when there are holidays for minority religious 
groups, they frequently will increase the security presence to 
protect these people.
    These are things that, again, we need to continue to 
encourage and to see expand so that all people can practice 
their religion freely.
    Senator DeMint. Thank you. I look forward to meeting with 
you a little bit later. Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator DeMint. Mr. Ambassador, I 
just have a couple more questions. I may be the last 
questioner, so you can get a sense of the light at the end of 
the tunnel for the hearing.
    I have two lines of questioning, one on the special 
immigrant visas, which we know are a program that allows Iraqis 
who have helped American forces and helped our efforts in Iraq 
to have their visas expedited. As you know better than I, these 
are people of 
uncommon courage and who were of great assistance to us. They 
obviously live under threat of death or something very serious 
in terms of a threat to their safety.
    I realize as well that these have been expedited, and there 
is some good news about the numbers. I am told that in fiscal 
year 2012, that there was enough expediting that the United 
States admitted more SIV applicants in 2012 than we did in 
2011. That is encouraging, but there is a backlog, and I wanted 
to have you address where we are with that. How many applicants 
are in the pipeline and how can you, upon assumption of your 
new duties, move that forward?
    Ambassador Beecroft. Thank you, Senator. This is an issue 
that we at the Embassy, working with Washington, are very 
focused on. I do not have off the top of my head--I mean, I 
will have to go check the exact number in the pipeline right 
now. But you are absolutely right that numbers in 2012 have 
exceeded numbers in 2011 already.
    [The written reply from Ambassador Beecroft to the above 
question follows:]

    A total 707 SIVs were issued to Iraqis in FY 2011 and 3,802 have 
been issued in FY 2012 through August 31. As of August 31 a cumulative 
total of 11,165 SIVs have been issued to Iraqis since 2007.

    We are going to continue to do everything we can to process 
these as quickly as possible. And as we get the approvals from 
Washington, we will expedite them.
    Let me also assure you that what I have seen happen at the 
Embassy, and something we will continue to do, is when there 
are particular individuals that are suffering or under a 
particular threat and their case is urgent, we go out of our 
way. Our consular section has done a brilliant job on this, of 
going out of its way to make sure these people get immediate 
service as fast as possible, and make sure that they are as 
reassured as possible. We stay in touch with them. We get back 
to them. We do everything we can to help these people, because 
as you rightly point out, they have risked their lives on our 
behalf, and we need to do everything we can to repay that.
    Senator Casey. Thank you. And finally, I know that you have 

addressed this, and it has been raised before, but I want to 
discuss Syrian refugees. I think there are so many of us that, 
even as we introduce, as I have, legislation to try to move 
forward in terms of humanitarian and other assistance to the 
Syrian people, we have a real concern about refugees. And there 
has been news in the last couple of days about denying men 
coming in, allowing women and children in in one instance.
    I think there is a real concern, and you can understand how 
difficult it is for the Iraqis to be able to handle a lot of 
new refugees coming in. I remember going back--way back to 2007 
when I was in my first visit to Iraq and hearing stories when 
we went to Jordan, a place you are familiar with, about the 
number of Iraqi refugees into Jordan, and how big a number that 
was, tens of thousands. So it is a difficult problem to manage.
    But I would ask you if you can, in a broad way, assess the 
Iraqi refugee policies that relate to Syrian refugees. And 
maybe in particular, how many, if you know that number or a 
ballpark figure on that. And also what kind of support they 
have, what they can expect when they get there, and what kind 
of challenges there are. If you address those questions as 
broadly or as specifically as you can.
    Ambassador Beecroft. Thank you, Senator. The figures I saw 
earlier this morning, and I check these regularly, there were a 
little over 27,000 Iraqi refugees now in Jordan. The majority 
of those, roughly 23,000, are in the north, and these tend to 
be Syrian Kurds who have come across into the Kurdish area of 
Iraq.
    Senator Casey. You said 26?
    Ambassador Beecroft. Twenty-seven thousand, roughly a 
little over 27,000 total.
    Senator Casey. Oh.
    Ambassador Beecroft. Twenty-three thousand of those are up 
in the north.
    Senator Casey. OK.
    Ambassador Beecroft. Around 4,000, a little over 4,000, are 
in the south or center of the country. They come across largely 
at border crossing between Syria and Iraq, the Iraqi side known 
as al-Qaim. And the ones there, that border crossing has been 
closed. Only 2 days ago it reopened. This was very encouraging. 
It is something that we have been urging the Iraqis to do for 
some time. I think it closed around the middle of August. They 
let in, I believe, about 121 people yesterday. We expected more 
to be let in today.
    The Iraqis have been constructing camps for refugees, but a 
lot of them that are cross are still in Iraqi Government 
institutions or with friends, families, and others.
    What we are doing as the U.S. Government is we have 
contributed heavily to UNHCR and its efforts in the region. I 
cannot break down specifically the amount of money that goes 
for UNHCR's work in Iraq. I do not know that. But we do work 
closely with UNHCR and in touch with them on a daily basis 
about this issue. And we are providing all possible support for 
their efforts to help address the refugee inflows into Iraq.
    Senator Casey. I know this is a generalization, but do you 
feel positive about the Iraqi Government's and either the 
government or other support systems, their capacity to handle 
the inflow, or do you think that there are some pretty 
significant challenges they have to surmount?
    Ambassador Beecroft. I think they can handle the inflow if 
they focus on it and prioritize it. And we have seen evidence 
that they have done that at times. They need to continue to do 
it. And again, this is something that we engage regularly with 
them on, and something our visitors from the administration 
and, most recently, three from the Senate, have engaged with 
them on as well.
    This is an important issue. Many Iraqis were refugees in 
Syria, and this is something that many Iraqis see as something 
positive they can do for Syrians in return. And we will 
continue to work with them to make sure that they do the right 
thing, and that they have the support they need to do it the 
right way. And we will continue to work with UNHCR also so that 
it is out there able to assist and provide support to the 
refugees that come in.
    Senator Casey. Well, Mr. Ambassador, we want to thank you 
for your testimony today and your presence here in answering 
our questions. But also in a much more significant way, thank 
you for your commitment to the country. This is a tough 
assignment even for someone who has spent a lot of time there 
as you have. And we know you will do well, and I know I will 
and a lot of members of this committee will do everything we 
can to move your nomination as fast as possible so that we can 
get you started.
    But thanks for your commitment and that of your family.
    And unless there is anything further, we are adjourned. But 
I do not have a gavel, so I will just pound the table.
    Ambassador Beecroft. Thank you very much, sir.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


      Responses of Robert Stephen Beecroft to Questions Submitted
                        by Senator John F. Kerry

    Question. The State Department has long promised faster action to 
resolve the issues surrounding the delays in approving Special 
Immigrant Visas (SIVs) for Iraqis who supported the U.S. effort in Iraq 
after the 2003 invasion.

  <bullet> (a). How many SIVs have been issued, by fiscal year, since 
        the inception of the program?

    Answer. The chart below details how many SIVs we have issued to 
Iraqi applicants under both the section 1059 and section 1244 programs 
since implementation in FY 2007. FY 2012 numbers are through August 31, 
2012.


------------------------------------------------------------------------
                                       Principal  Derivatives    Totals
------------------------------------------------------------------------
2007.................................        431         383         814
2008.................................        518         449         967
2009.................................      1,448       1,385       2,833
2010.................................        951       1,091       2,042
2011.................................        322         384         706
2012.................................      1,627       2,175       3,802
                                      ----------------------------------
                                           5,297       5,867      11,164
------------------------------------------------------------------------


  <bullet> (b). How many applications have there been, by fiscal year?

    Answer. The chart below details the number of approved I-360 
immigrant visa petitions received by the State Department's National 
Visa Center (NVC) from U.S. Citizenship and Immigration Services 
(USCIS) for Iraqis applying for the section 1059 and section 1244 SIV 
Programs:


------------------------------------------------------------------------
                                      Iraqi        Iraqi
                                     Section      Section
                                       1059         1244       Combined
                                   Approved I-  Approved I-     Total
                                       360s         360s
------------------------------------------------------------------------
FY 2007..........................          650            0          650
FY 2008..........................          149           48          197
FY 2009..........................          139        1,614        1,753
FY 2010..........................           10        1,025        1,035
FY 2011..........................            2        2,398        2,400
FY 2012*.........................            1          873          874
                                  --------------------------------------
      Totals.....................          951        5,958        6,909
------------------------------------------------------------------------
* Applications to August 31, 2012.


  <bullet> (c). How long is the average processing time (as measured by 
        application filing date until the date visa issuance or notice 
        of denial) for such applications, by fiscal year?

    Answer. Processing SIVs involves a number of different steps to 
ensure a complete security check is performed on each applicant. 
Several different U.S. Government agencies are involved in this 
process. We do not maintain average processing times year by year for 
SIVs. The SIV process begins with the individual applying to Embassy 
Baghdad through NVC for a chief of mission letter confirming his/her 
eligibility for the SIV program. If the individual is found eligible 
for the SIV program, s/he files an immigrant visa petition with USCIS. 
Upon approval, USCIS sends the approved petition and supporting 
documents to NVC, which schedules the applicant's visa interview at the 
embassy or consulate of his/her choice. At the interview, the consular 
officer reviews the case, and if everything is in order, requests the 
required security vetting for all adult applicants from our interagency 
partners. The security vetting has been the principal delay in 
processing these cases since the end of 2010, but we have made great 
improvements since spring 2012. This improvement is reflected in the FY 
2012 visa issuance numbers, which are the highest since the program's 
inception.
    Addressing delays in security vetting of Iraqi SIV applications 
remains a priority for the State Department. We have streamlined the 
application process--which must conform to the preexisting immigrant 
visa process under current law--as much as possible, eliminating 
redundant requirements and working with our interagency partners to 
accept electronic submissions wherever possible. This progress allowed 
us to cut the backlog of Iraqi SIVs pending final action (issuance or 
refusal of the visa application) by 50 percent since March. In late 
February, 2,832 Iraqi SIV applications were pending security vetting; 
as of September 19, that number was reduced to 1,348.

  <bullet> (d). How many are pending as of September 19, 2012?

    Answer. As of September 19, 2012, there were 1,348 Iraqi SIV 
applications pending security clearances.

  <bullet> (e). How many have been denied by fiscal year? Please list 
        the reasons for
        denial and the corresponding number of visas denied for each 
        reason, by fiscal year.

    Answer. To provide this information, we need to run a customized 
query. We are proceeding, but it will take a few days to generate the 
date for a response. We will transmit this information as soon as we 
have it.

    Question. The security situation in Iraq has improved since the 
worst days of the civil war, but the terrorist attacks in July remind 
that extremist groups are still active and demonstrate the country's 
fragile peace.

  <bullet> (a). What is your assessment of the current security 
        situation? Where do you see the major threats?

    Answer. The security environment in Iraq continues to present 
challenges, and we are supporting the Government of Iraq's (GOI) 
efforts to confront threats and build long-term security and stability 
in Iraq. It is clear that AQI remains a dangerous threat. While there 
has been clear and measurable success against AQI over the years, 
recent attacks make clear the security situation warrants attention.
    While there are formidable security challenges, the Iraqi Security 
Forces (ISF) have made impressive gains in combating terrorism. We are 
confident the ISF will continue pressuring AQI--and others--to further 
diminish their capabilities. Although Iranian backed militias have 
largely been quiet since the departure of U.S. Forces, they remain 
capable of launching attacks against the residual U.S. presence. The 
United States continues to stand with the GOI and is ready to work 
within the scope of the Strategic Framework Agreement to ensure that 
the capacity and ability of extremists to carry out attacks is 
diminished.

  <bullet> (b). How are the Iraqi Security Forces developing and do you 
        think they are capable of addressing the threats?

    Answer. We are encouraged by the GOI's continuing commitment and 
progress in developing the capacity of Iraqi military and police 
forces. In February, the GOI passed a budget for 2012 that included $15 
billion in defense and security spending--15 percent of their total 
spending.
    While the GOI is increasingly capable and effective in addressing 
the various security threats, we are working with it through our 
security assistance office, Police Development Program, and other 
programs to further improve the capacity of its security forces to 
counter terrorism, insurgency, and external threats.

  <bullet> (c). Given the military withdrawal, how is the security 
        situation impacting our Embassy's access to places beyond 
        Baghdad? What measures are in place to support diplomatic 
        efforts to remain engaged with all cross-sections of Iraqi 
        society? What more, in your assessment, is needed?

    Answer. Engagement is a cornerstone of our relationship with Iraq 
and we are meeting on a regular basis with all levels of Iraqi 
Government and society including the Prime Minister, the President, 
Cabinet and Parliament members, politicians, and civil and social 
leaders. The Department places the highest priority on the protection 
of our personnel and we take extraordinary protective security measures 
to enable mission staff to engage outside of secure chief of mission 
facilities. Every protective security detail movement is assessed from 
the standpoint of threat and security conditions, prioritized on the 
basis of available resources. Only if necessary, moves are restricted 
or postponed.
    In the first two quarters of this calendar year, more than 6,000 
protective security detail missions were carried out. Only a small 
number of requests have been postponed or cancelled due to threat or 
lack of resources.
    There has been no diminishment of our ability to meet with our 
Iraqi counterparts since U.S. Forces left Iraq and in some areas the 
level of engagement is higher today than it was before the withdrawal 
took place.

    Question. When it comes to human security, what are the ongoing 
challenges faced by the most vulnerable groups, including women, 
children, and religious minorities as Iraq struggles to establish 
lasting peace? What specific programs would you as Ambassador support 
to assist these populations?

    Answer. Iraq's vulnerable communities face ongoing threats of 
violence and discrimination as well as a lack of economic 
opportunities. If confirmed, I will ensure that we continue to utilize 
all Embassy assets to advance a human rights agenda that includes the 
elimination of violence and discrimination based on gender, religion, 
ethnicity, or sexual orientation.
    If confirmed, I will continue to work closely with: the Government 
of Iraq; the Department's Deputy Assistant Secretary of State for Iraq, 
Barbara Leaf, who serves as the Secretary's Coordinator for Iraq's 
Religious and Ethnic Minorities; the Department's Ambassador at Large 
for International Religious Freedom, Suzan Johnson Cooke; and 
Ambassador at Large for Women's Issues, Melanne Verveer, to help 
improve conditions for Iraq's vulnerable groups.
    To date, we have provided over $72 million in targeted assistance 
to Iraq's minority communities. Projects have provided short-term 
humanitarian assistance as well as long-term economic development 
initiatives to help create and secure the environment for these 
communities to remain in Iraq and play a meaningful role in Iraqi 
society. We are continuing to work with the GOI to improve security 
conditions for its vulnerable communities, including by urging the GOI 
to continue its efforts to provide additional security for places of 
worship and during religious holidays.
    Other examples of our ongoing programs for vulnerable groups 
include: support for microfinance institutions to provide economic 
opportunities for at risk populations including women and minorities; a 
legal advocacy program for assistance to minorities in pursuing legal 
remedies through legal clinics; a ``Minorities Caucus'' within Iraq's 
Council of Representatives; and the Iraq Women's Democracy Initiative 
and Secretary's War Widows Program to strengthen political 
participation, economic empowerment, women's rights advocacy, media 
skills, as well as negotiation and capacity-building for women's NGOs.
    If confirmed, I will continue the good work that has been done to 
help create conditions for these communities to remain in Iraq and 
bring their concerns to the highest levels of the GOI.

    Question. On September 16 the last major relocation of residents 
from Camp Ashraf to Camp Hurriya was successfully completed. But there 
remain concerns about the long-term safety of this group. What are the 
major humanitarian challenges for finding long-term solutions for the 
residents, and how can the U.S. Embassy and the Iraqi Government work 
together to overcome those obstacles?

    Answer. The relocation of former Ashraf residents out of Iraq will 
not be easy or a quickly accomplished process. However, the United 
Nations (U.N.) and international community are turning their full 
attention to the task now that the major relocations from Ashraf have 
been completed. At Camp Hurriya, the Office of the U.N. High 
Commissioner for Refugees (UNHCR) continues an identity verification 
and refugee status determination process for the relocated residents. 
Embassy Baghdad, in support of the UNHCR process, is working closely 
with the diplomatic community in Baghdad to intensify efforts and if 
confirmed. I would be personally involved in these engagements, if 
confirmed as next Ambassador to Iraq. My colleagues in the Department 
are also working diligently with foreign governments to encourage them 
to help in the permanent resettlement of the former Ashraf residents.
    With regard to their current situation, the Government of Iraq, the 
U.N. Assistance Mission for Iraq (UNAMI), and UNHCR--all with our 
support--continue to cooperatively address humanitarian concerns raised 
by the residents. For example, Iraqi authorities managing the 
relocation efforts have facilitated the transfer of a variety of 
property from Ashraf, ranging from televisions and computers to water 
storage tanks and other life support items. Additionally, in response 
to residents' concerns over access to a sustainable water source, Iraqi 
authorities are working with the residents to connect Camp Hurriya to a 
nearby reservoir. Also, Camp Hurriya residents have access to U.N. 
human rights monitors around the clock.
    My colleagues at Embassy Baghdad have worked tirelessly to see the 
relocation effort from Ashraf to Hurriya concluded peacefully and 
safely. We will continue to visit Hurriya regularly, and, if confirmed, 
I will remain committed to seeing this issue through to humane and 
secure solutions for the individuals at Camp Hurriya.
                                 ______
                                 

         Responses of Stephen Beecroft to Questions Submitted 
                       by Senator James M. Inhofe

    Question. Considering that under the Saddam regime, minority and 
opposition groups were attacked using Soviet aircraft and helicopters, 
many Sunni, Shia, and Kurd communities fear it will happen again with 
U.S.-made aircraft. What safeguards has the United States placed on 
U.S. arms transfers to Iraq to prevent U.S. origin weapons and 
equipment from being used against Iraqi minority and opposition groups? 
What controls have been placed specifically on U.S. origin aircraft and 
associated munitions to ensure misuse does not occur?

    Answer. We have encouraged and continue to encourage Iraqi leaders 
to settle their differences through the political process in accordance 
with the Iraqi Constitution without resorting to violence.
    To achieve our strategic objective of a sovereign, stable, and 
self-reliant Iraq that contributes to peace and stability in the 
region, we will continue to responsibly support Iraq's efforts to 
develop capable Iraqi Security Forces (ISF) that adhere to the rule of 
law and respect human rights. We support Iraq's efforts to purchase 
defense equipment to meet its legitimate defense needs, in line with 
its domestic spending priorities and in accordance with its budget laws 
and procedures.
    In reviewing security assistance programs and export licenses for 
U.S.-origin defense articles to any country, the United States takes 
into account a full range of foreign policy, national security, and 
human rights considerations. We consider a variety of factors, 
including consistency with arms control initiatives and agreements, 
appropriateness of the transfer in responding to legitimate U.S. and 
recipient security needs, internal political stability, and regional 
stability interests.
    In addition, all equipment provided under our security assistance 
programs or sales is subject to end-use restrictions and conditions. 
Embassy Baghdad has implemented robust End Use Monitoring programs: 
``Blue Lantern'' (State program) and ``Golden Sentry'' (DOD program). 
These programs require routine inspections to ensure there are no 
unauthorized transfers of arms and equipment.

    Question. What initiatives or programs has the United States 
continued with 
minority security forces, such as the Kurdish Peshmerga, now that all 
U.S. forces have withdrawn from Iraq?

    Answer. The Department of State is continuing a Department of 
Defense (DOD) effort to professionalize security forces in the Iraqi 
Kurdistan Region and to integrate them into the central government's 
Iraqi Security Forces. Earlier this year, the Department approved a 
program, fully funded by the DOD's Iraq Security Forces Fund (ISFF), to 
train and equip the Kurdistan Regional Government's (KRG) Regional 
Guard Brigades (RGBs).
    Additionally, the Department of State's Police Development Program 
(PDP) and its Anti-Terrorism Assistance (ATA) program provide 
assistance to the KRG's police forces. The PDP provides training on 
criminal investigations, information technology and communication, 
professional development, and border security. The ATA program provides 
training in VIP protection, critical incident management, and explosive 
incident countermeasures.

    Question. Recent reports indicate Iran has been using Iraqi 
airspace to transfer weapons to the Assad regime because the Iraqi Air 
Force doesn't have a capability to defend its territory. What 
confidence does the United States have that the Iraqi Government will 
use its newly acquired F-16s to protect its airspace and enforce U.N. 
sanctions against Iran and Syria? Is the Department of State providing 
foreign military aid for border patrol and air sovereignty training 
that includes arms smuggling scenarios?

    Answer. The sale of F-16s and other military equipment is part of 
our long-term vision for a strategic partnership with Iraq. Iraq's F-
16s are currently scheduled for delivery in September 2014. These 
aircraft will play a key role in helping Iraq protect its airspace, 
defend its sovereignty, and deter or counter regional threats. We 
believe the Government of Iraq can play an increasingly positive role 
in preserving regional stability, and this is one of the points that we 
stress to the Iraqis in pressing them to fully implement U.N. sanctions 
against Iran.
    Air sovereignty and border security are legitimate defense 
requirements for Iraq. Department of Homeland Security (DHS) subject 
matter experts, through the Police Development Program, continue to 
support key ministries responsible for border security, including the 
Ministry of Interior, to achieve a level of self sufficiency in their 
operations and relevant training requirements. Should the Iraqis 
request additional border patrol or air sovereignty training aimed at 
arms smuggling scenarios in the future, the Department would review 
such a request under our Conventional Arms Transfer Policy, taking into 
account a number of factors ranging from regional security and 
nonproliferation to human rights. Some of the equipment which Iraq has 
purchased through a combination of host nation funding and Department 
of Defense-provided Iraqi Security Forces Funds (ISFF) will help Iraq 
confront a variety of security challenges including arms smuggling.

    Question. Now that the last major group of residents from Camp 
Ashraf, home to 3,200 members of the Iranian opposition group, the 
Mujahedin-e Khalq (MEK), have relocated to Camp Liberty, what specific 
steps is the United States taking in ensuring the safety and security 
of the residents now in Camp Liberty?

    Answer. In my capacity as Charge d'affaires in Baghdad, my 
colleagues and I are fully engaged in ensuring the safety and security 
of the residents at Camp Hurriya (Liberty). Embassy Baghdad officers 
continue to visit Hurriya regularly and speak with the residents. My 
colleagues and I also work closely with U.N. and Iraqi officials 
regarding Hurriya. If confirmed, I will remain attentive to the 
situation at both Ashraf and Hurriya and remain in active, regular 
contact with both the U.N. and the Government of Iraq in support of 
completing a peaceful and safe relocation process. In addition, Embassy 
Baghdad officials will continue to observe movements at both Ashraf and 
Hurriya and to monitor relocations as they take place.

    Question. As one of your first acts as Ambassador, if confirmed, 
will you convey to the Maliki government, that the Iraqi Government 
must ensure the safety, security, and dignity of all the residents of 
Camp Liberty so long as they are in Iraq?

    Answer. In my capacity as Charge d'affaires in Baghdad, I have 
personally engaged with Prime Minister Maliki and senior Iraqi 
officials to work to ensure the safety, security, and dignity of the 
residents of Camp Hurriya (Liberty). The United States has publicly 
supported a Memorandum of Understanding (MOU) between the Government of 
Iraq and the United Nations Assistance Mission to Iraq (UNAMI) that in 
part calls on the Iraqi Government to provide for the safety and 
security of Hurriya. If confirmed, I will continue to urge the 
Government of Iraq at the highest levels to continue to abide by the 
MOU and ensure the security of the residents of Hurriya.

    Question. As one of your first acts as Ambassador, if confirmed, 
will you focus and work toward a permanent and just resolution to the 
MEK issue?

    Answer. In my capacity as Charge d'affaires in Baghdad, I take the 
greatest interest in working toward a permanent and just resolution to 
the MEK issue. My colleagues and I at Embassy Baghdad are fully engaged 
in the relocation process and in ensuring the safety of the residents 
of Camp Hurriya (Liberty). If confirmed, I will continue to work with 
all sides at the highest levels to bring this issue to a peaceful 
resolution.
                                 ______
                                 

      Responses of Robert Stephen Beecroft to Questions Submitted
                       by Senator Robert Menendez

    Question. Mr. Beecroft, as you assume the critical role of 
Ambassador to the Republic of Iraq, what are the administration's 
priorities as we transition from a military to civilian assistance 
role? How do we continue to encourage the Iraqi people to follow the 
path toward democracy and religious tolerance?

    Answer. Progress in Iraq remains critical to U.S. national 
security. We are dedicated to supporting a sovereign, stable, and self-
reliant Iraq that can be a partner to the United States.
    Our relationship with Iraq is one of our most strategically 
important bilateral relationships. Our direct engagement with the Iraqi 
Government and people has remained robust since the departure of USF-I. 
As Charge d'affaires, I have regularly engaged with President Talabani, 
and Prime Minister Maliki and my colleagues meet with cabinet 
ministers, parliamentarians, and civil society leaders throughout Iraq.
    The administration's priorities in Iraq include supporting a 
unified federal democratic Iraq, fighting AQI and supporting human 
rights. We are working with Iraq to help develop their economy and 
Iraq's oil resources while promoting and increasing U.S. business 
engagement in Iraq. If confirmed, I will do my best as Ambassador to 
further these objectives. We remain focused on strengthening Iraq's 
democratic institutions and ensuring that their voices determine the 
future direction of their country. Part of our work to help build 
Iraq's democratic institutions is our continued support for the 
Independent High Electoral Commission (IHEC). We continue to work 
closely with the government and with IHEC in preparation for provincial 
elections in 2013 and parliamentary elections in 2014.
    As part of our larger effort to promote religious freedom in Iraq, 
Secretary Clinton appointed Deputy Assistant Secretary of State for 
Iraq, Barbara Leaf, to serve as the Coordinator for Iraq's Religious 
and Ethnic Minorities. DAS Leaf has traveled to Iraq to meet with these 
communities and, along with the Ambassador at Large for International 
Religious Freedom, Ambassador Suzan Johnson Cook, has engaged Iraq's 
Christian diaspora communities in the United States. Our Embassy in 
Baghdad continues to meet frequently with minority religious and 
community leaders to discuss their concerns and to determine ways the 
U.S. Government can assist. To date, we have provided over $72 million 
in targeted assistance to Iraq's minority communities. Projects have 
provided short-term humanitarian assistance as well as long-term 
economic development to help create and secure the environment for 
these communities to remain in Iraq and promote their rightful place in 
the social fabric of Iraqi society. We have also focused on 
strengthening the ability of Iraq's minority communities to receive the 
full attention and support of their own government through the Iraqi 
Minority Parliamentary Caucus. We believe these efforts are critical to 
strengthening the relationship between minority communities and their 
government and are critical to helping these communities secure their 
rightful place within Iraq's social fabric.

    Question. For over 25 years, Camp Ashraf in Iraq was the home to 
more than 3,000 Iranian refugees. As provided for under the Memorandum 
of Understanding (MOU) with Iraq last December, the residents of Camp 
Ashraf began the transition to Camp Hurriya early this year, with the 
seventh convoy arriving on September 16. It is my understanding that, 
over the coming weeks, the small group temporarily remaining at the 
former Camp Ashraf will soon be making the final trip to Camp Hurriya.
    It has come to my attention that there remain unresolved and 
legitimate concerns regarding the humanitarian conditions at Camp 
Hurriya.

  <bullet> As Ambassador, will you commit to visiting the facilities at 
        Camp Hurriya and meeting with its residents? Will you ensure 
        that their concerns are addressed, to the best of your 
        abilities?

    Answer. We take the greatest interest that the residents of Camp 
Hurriya have access to facilities that meet international humanitarian 
conditions. At Camp Hurriya, the High Commission for Refugees (UNHCR) 
continues a verification and refugee status determination process for 
the relocated residents, and U.N. monitors are accessible round-the-
clock. UNHCR and the U.N. Human Rights Office in Baghdad have 
determined facilities at Camp Hurriya, the previous home of U.S. troops 
stationed in Baghdad, to be in accordance with international 
humanitarian standards. A recent tour of the facilities found adequate 
electricity to power flat-screen televisions, sufficient water 
(residents receive on average in excess of 200 liters per person per 
day of water), landscaped grounds and fresh produce. There continue to 
be some complaints by the residents at Hurriya, but we have seen 
progress between the residents and the GOI on finding practical 
solutions to these issues.
    U.S. Embassy Baghdad officers continue to visit Hurriya regularly 
and speak with the residents, and with U.N. and Iraqi officials 
regarding Hurriya. If confirmed, I will ensure that we remain attentive 
to the situation at both Ashraf and Hurriya and remain in active, 
regular contact with both the U.N. and the GOI in support of completing 
a peaceful and safe relocation process. I will make every effort to 
personally visit Camp Hurriya at the earliest, appropriate opportunity.

 
        NOMINATIONS OF ROBERT F. GODEC AND DEBORAH ANN McCARTHY

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington, DC
                              ----------                              

Hon. Robert F. Godec, of Virginia, to be Ambassador to the 
        Republic of Kenya
Deborah Ann McCarthy, of Florida, to be Ambassador to the 
        Republic of Lithuania
                              ----------                              

    The committee met, pursuant to notice, at 2:25 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons, Lugar, and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I call this hearing to order.
    I am honored to chair this hearing for the ambassadorial 
nominees to serve this Nation in Kenya and Lithuania, 
Ambassador Robert Godec and Ms. Deborah Ann McCarthy. Both 
nominees have impressive and long records of service and 
accomplishment in the Foreign Service of the United States, and 
I look forward to hearing about their priorities for advancing 
U.S. policies and interests in the countries to which they may 
soon go as our Ambassadors.
    I am also very pleased to be joined by my good friend and 
ranking member, Senator Isakson, of Georgia, and particularly 
honored that Senator Lugar, the ranking member of the full 
committee, has joined us today; and I understand Senator 
Durbin, of Illinois, may as well join us shortly.
    I apologize for the delay in getting started. We had a vote 
on the floor of the Senate.
    As some know, Kenya has particularly important meaning for 
me. The first time I ever set foot in Africa was as a 
undergraduate spending a semester at the University of Nairobi, 
and I later volunteered at an orphanage in Ngong. My experience 
there was transformative, and changed my perspective on the 
world, and gave me a new sense of purpose and focus. And I 
returned to Kenya, for the first time in 25 years, just a few 
months ago.
    In Nairobi, I had the opportunity to speak at the Kenyan 
National Prayer Breakfast, as Senator Isakson has, as well, 
this year, with President Kibaki and others, where I affirmed 
the centrality for the United States of the upcoming elections 
and our sincere hope that the violence and chaos of the 2007 
elections can be averted. The United States, in my view, is, 
and should be, closely watching the process surrounding this 
election, and we'll work closely with Kenyan officials to 
ensure the elections are peaceful, credible, and transparent. 
And I emphasized then, as I will again today, that we do not 
favor any particular outcome or candidate, but, instead, a free 
and fair process.
    Kenya has made remarkable progress in recent years in 
reforming its constitution, building democratic institutions, 
expanding press freedoms, and improving its economy. I was 
particularly impressed, during that visit with the younger 
generation of Kenyans, in the great potential that exists 
amongst entrepreneurs.
    There are many other things to be concerned about in the 
process toward the election, and I look forward to hearing 
about them in more detail from Ambassador Godec.
    Several factors may well influence the outcome of the 
election--ethnic tensions, the balloting registration process, 
the behavior of the police and security services, messaging of 
the candidates--all of which I hope we will get into in some 
more detail.
    The other main area of concern for me regarding Kenya is 
its military involvement in Somalia, the ongoing security 
challenges, both within and without Kenya and its borders.
    Kenya is home to the largest diplomatic mission in Africa, 
from which a host of government agencies oversee bilateral and 
regional programs, and serves as a base for humanitarian 
relief, food security, and global health initiatives, and I'm 
eager to talk about that, as well as the potential for trade 
and investment in the region.
    To serve as our next Ambassador in this critical post, in 
my view, President Obama has chosen wisely in nominating 
Ambassador Godec, who has served as Charge in Nairobi since 
August and has been received positively by government, civil 
society, and NGOs. Having built a strong career as the former 
Ambassador to Tunisia, he recently served as Principal Deputy 
Counterterrorism Coordinator in the State Counterterrorism 
Bureau. Prior to his service in Tunisia, he served as Deputy 
Assistant Secretary for Near Eastern Affairs. This is 
Ambassador Godec's second time in Nairobi, following a posting 
from 1996 to 1999 as Economic Counselor.
    Just as Kenya has worked hard to improve and reform its 
democracy and economy, Lithuania, too, serves, in my view, as a 
model of democratic transition since the cold war, the first 
former Soviet Republic to declare its independence, on March 
11, 1990. Moscow, however, did not recognize this proclamation 
until the following year. Since then, Lithuania has experienced 
a smooth transition, democratic elections, a restructured 
economy, and has joined NATO and the EU. Having just completed 
its own elections in October, our incoming Ambassador there, if 
she is confirmed, must work with the new Lithuanian Government 
to encourage economic growth, greater cooperation on energy 
security, and many other regional issues relating to both 
Russia and other regional actors.
    Ms. McCarthy, the nominee to serve as our Ambassador to 
Lithuania, has a long and distinguished career, having served 
for 30 years in the Foreign Service, currently as Principal 
Deputy Assistant Secretary for the Bureau of Economic and 
Business Affairs, and previously as Deputy Chief of Mission in 
Embassy Athens, Special Coordinator for Venezuelan Affairs, 
Senior Advisor for Counterterrorism, and Deputy Assistant 
Secretary in the Bureau for International Narcotics and Law 
Enforcement.
    Now, I very much look forward to hearing from both 
nominees, and will encourage them, in time, to introduce their 
families, as well, who, as we all recognize, are the often 
unsung true heroes, in terms of supporting through sacrifice 
and service, but let me first turn to my friend and ranking 
member, Senator Isakson, for his opening remarks.
    Senator Isakson. Out of respect for the chairman, I'm going 
to defer my remarks to the Chair and let him make the opening 
statement.
    Mr. Chairman.
    Senator Coons. Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Likewise, I will ask that my comments and 
opening be put in the record.
    I simply come, as all of us do, to try to affirm how 
important these two ambassadorial positions are and how 
important it is we act promptly so that these positions are 
filled.
    [The prepared statement of Senator Lugar follows:]

                Prepared Statement of Richard G. Lugar,
                       U.S. Senator From Indiana

    It is a pleasure to welcome Ambassador Godec once again before the 
committee, in this case as the President's nominee to be Ambassador to 
Kenya. His stewardship as Charge over the last several months comes at 
a very challenging time for our large and important East Africa 
Embassy. He has brought deft and experienced management to Nairobi and 
effectively sustained our varied interests and priorities with Kenyans 
and the Kenyan Government at a critical time.
    Among the most important interests is United States support for a 
free and fair electoral process leading up to national elections in 
2013, the first since the abhorrent violence that followed the 2007 
elections. United States interests extend broadly in East Africa and 
recognize the commitment Kenya has made in Somalia under the AMISOM 
umbrella, as well as its long support for regional peace initiatives. 
Kenya also has been a key counterterrorism partner in a variety of 
areas that are of mutual concern with broad global potential for 
impact. These include Kenyan efforts fighting al-Shabab and building 
its own counterterror capabilities in maritime and border security. Our 
extensive cooperation extends to providing a regional platform for the 
Defense Threat Reduction Agency and the Center for Disease Control in 
securing biological materials that pose a threat to millions if 
neglected. I would like to thank Ambassador Godec for his expeditious 
review of a longstanding request incorporating DTRA into a large 
Embassy country team.
    I am also pleased to welcome Deborah Ann McCarthy, who has been 
nominated to represent the United States in Lithuania. Lithuania 
remains a key strategic NATO ally, and I am hopeful that Ms. McCarthy, 
if confirmed, will advance several key U.S. foreign policy priorities. 
Among other objectives, it is critical that the United States advance 
energy security for Lithuania and the entire region by supporting 
interconnections and the development of alternative sources of energy. 
We must also reaffirm NATO's Article Five commitments in the region 
through support of NATO's Baltic Air Policing mission and other means 
of reassurance.
    Thank you Mr. Chairman.

    Senator Coons. Thank you very much, Senator Lugar.
    Senator Isakson, did you have an opening comment you'd like 
to share?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Just echo your comments about the 
importance of both countries to the United States of America. 
And I, too, have been to Kenya, though I did not go and study 
or live there, but have been there to visit, understand the 
importance of it. And, of course, Lithuania, their relationship 
with Russia and the particular challenges that, economically, 
they have had, are of tremendous importance to the United 
States, and I look forward to questioning both Ms. McCarthy, as 
well as Mr. Godec.
    We appreciate your accepting the responsibility of these 
nominations.
    Senator Coons. Thank you, Senator Isakson.
    I'd now like to turn to our nominees for their opening 
statements, starting with Ambassador Godec, followed by Ms. 
McCarthy. And again, I invite you to introduce your families or 
other loved ones or supporters you might have with us today, as 
well.

   STATEMENT OF THE HON. ROBERT F. GODEC, OF VIRGINIA, TO BE 
              AMBASSADOR TO THE REPUBLIC OF KENYA

    Ambassador Godec. Mr. Chairman, Ranking Member Senator 
Lugar, I am honored to appear before you today as President 
Obama's nominee to be the next U.S. Ambassador to the Republic 
of Kenya.
    I want to thank the President and Secretary Clinton for 
their confidence in me. If confirmed, I look forward to working 
with you and the other Members of Congress to advance U.S. 
interests in Kenya and the East African region.
    Mr. Chairman, I'd like to introduce to you, today, my wife, 
Lori Magnusson. Lori has been a constant source of strength, 
support, and wisdom to me throughout my career. I'd also like 
to introduce my mother, Nancy Dietrich, and to express my 
profound thanks to her for all she has done for me over the 
years.
    Kenya is a strategic partner for the United States. Our two 
countries are linked by history and shared values. Kenya is a 
positive and constructive leader in a region that faces major 
challenges, including conflict, violent extremism, and poverty.
    For 50 years, as friends, Kenya and the United States have 
stood together to face these challenges. Meeting them is in the 
interest, not just of Kenya and its neighbors, but of the 
United States and, indeed, the world. As a consequence, our 
relationship with Kenya is both broad and deep. We work 
together with Kenya to resolve regional conflicts, combat 
terrorism, and provide humanitarian assistance. As a partner, 
we have a commitment to a strong Kenya and are assisting with 
Kenyan efforts to reform their political institutions, 
accelerate economic growth and development, and improve health 
and education systems. If confirmed, I will continue our work 
on these challenges, and will engage with Kenyans from across 
the country to do so.
    A democratic Kenya, which embraces national reconciliation 
and rejects corruption and impunity, is critical for the future 
of East Africa. Since the deadly violence that swept Kenya 
following the disputed December 2007 Presidential elections, 
the United States has focused on supporting political and 
constitutional reform in Kenya.
    Kenya's new constitution, adopted in August 2010, is one of 
the most progressive in Africa, and envisions nothing less than 
the complete overhaul of the political system. It holds the 
promise of anchoring Kenya's democracy firmly in the rule of 
law.
    Facing many other challenges, including internal political 
disagreements, drought, and the global economic crisis, Kenya 
has made significant progress passing the legislation necessary 
to implement the constitution. Kenya's judicial reforms have 
been a particular bright spot.
    The upcoming March 2013 election is the next key moment for 
Kenya in the implementation of its constitution and in 
advancing political reform. The responsibility for the election 
rests squarely with the Kenyan Government and people, and 
success, frankly, is not assured.
    If confirmed, one of my top priorities will be to support 
Kenyan efforts to make the election free, fair, and peaceful. 
We have a strong and varied set of programs in place to assist 
institutions charged with carrying out the most complex 
election in Kenya's history. We're working with the government, 
with civil society, religious leaders, community leaders, and 
youth across the country to promote peaceful participation in 
the election. We are also coordinating closely with the 
international community and other partners on our election 
assistance to ensure the wise and effective use of taxpayer 
resources.
    Beyond the election, Kenya faces many other internal 
challenges, including devolving power to new county 
governments, carrying out land reform, improving environmental 
protection, combating HIV/AIDS, and strengthening its 
institutions. Kenya needs to make progress to address these 
challenges, and, if confirmed, I will continue our mission's 
work to assist the Kenyans to do so.
    I will also seek to deepen and strengthen our economic and 
commercial ties, including the promotion of U.S. exports and 
the protection of U.S. investment.
    Kenya's security remains a major concern. It is 
inextricably linked to our own, as was clearly illustrated in 
the 1998 bombing of our Embassy, carried out by al-Qaeda, which 
left 218 people dead and thousands injured. Kenya has borne a 
heavy burden from the insecurity and from extremist violence 
and humanitarian challenges associated with the conflict in 
Somalia.
    As a troop-contributing country to AMISOM, Kenya has helped 
to establish the security necessary for the new government in 
Mogadishu to begin serving the needs of the Somali people. In 
taking a higher profile in Somalia, however, Kenya increasingly 
has become a victim of violent attacks by terrorists. If 
confirmed, I will continue to support Kenya's efforts to secure 
its borders and to protect its citizens while working to ensure 
that Kenya respects human rights and international law as it 
fights terrorism.
    Kenya also hosts more than 600,000 refugees, primarily from 
Somalia, which places a burden on its limited resources. The 
United States will continue to assist Kenya to meet its 
international obligations with respect to refugees.
    Finally, Mr. Chairman, a tangible indicator of Kenya's 
importance to the United States is the fact that the United 
States mission in Nairobi is now our largest in Africa. The 
staff at the Embassy has recently weathered a period of 
transition and uncertainty. In my brief time as Charge 
d'Affaires, I've been impressed by the professionalism, 
dedication, and integrity of the mission staff, both Kenyan and 
American.
    Mr. Chairman, members of the committee, if confirmed, I 
would be honored to serve as the next United States Ambassador 
to the Republic of Kenya and to lead the capable and committed 
public servants at our mission there.
    I'd be pleased to answer any questions you might have 
today.
    Thank you very much.
    [The prepared statement of Ambassador Godec follows:]

                 Prepared Statement of Robert F. Godec

    Mr. Chairman, ranking member, and members of the committee, I am 
honored to appear before you today as President Obama's nominee to be 
the next United States Ambassador to the Republic of Kenya. I want to 
thank the President and Secretary Clinton for their confidence in me. 
If confirmed, I look forward to working with you and the other Members 
of Congress to advance United States interests in Kenya and the East 
African region.
    Mr. Chairman, I would like to introduce to you my wife, Lori 
Magnusson, who is here with me today. Lori has been a constant source 
of strength, support, and wisdom to me throughout my career. I would 
also like to introduce my mother, Nancy Dietrich, and to express my 
profound thanks to her for all she has done for me over the years.
    Kenya is a strategic partner for the United States. Our two 
countries are linked by history and shared values. Kenya is a positive 
and constructive leader in a region that faces major challenges, 
including conflict, violent extremism, and poverty. For 50 years, as 
friends, Kenya and the United States have stood together to face these 
challenges. Meeting them is in the interest not just of Kenya and its 
neighbors, but of the United States and, indeed, the world.
    As a consequence, our relationship with Kenya is both broad and 
deep. We work together with Kenya to resolve regional conflicts, combat 
terrorism, and provide humanitarian assistance. As a partner, we have a 
commitment to a strong Kenya and are assisting with Kenyan efforts to 
reform their political institutions, accelerate economic growth and 
development, and improve health and education systems. If confirmed, I 
will continue our work on these challenges and will engage with Kenyans 
from across the country to do so.
    A democratic Kenya, which embraces national reconciliation and 
rejects corruption and impunity, is critical for the future of East 
Africa. Since the deadly violence that swept Kenya following the 
disputed December 2007 Presidential elections, the United States has 
focused on supporting political and constitutional reform in Kenya. 
Kenya's new constitution, adopted in August 2010, is one of the most 
progressive in Africa and envisions nothing less than the complete 
overhaul of the political system. It holds the promise of anchoring 
Kenya's democracy firmly in the rule of law. Despite facing many other 
challenges, including internal political disagreements, drought, and 
the global economic crisis, Kenya has made significant progress passing 
the legislation necessary to implement the constitution. Kenya's 
judicial reforms have been a particular bright spot.
    The upcoming March 2013 election is the next key moment for Kenya 
in the implementation of its new constitution and in advancing 
political reform. The responsibility for the election rests squarely 
with the Kenyan Government and people, and success, frankly, is not 
assured. If I am confirmed, one of my top priorities will be to support 
Kenyan efforts to make the election free, fair, and peaceful. We have a 
strong and varied set of programs in place to assist institutions 
charged with carrying out the most complex election in Kenya's history. 
We are working with government, civil society, religious leaders, 
community leaders, and youth across the country to promote peaceful 
participation in the election. We are also coordinating closely with 
the international community and other partners on our election 
assistance to ensure the wise and effective use of taxpayer resources.
    Beyond the election, Kenya faces many other internal challenges, 
including devolving power to new county governments, carrying out land 
reform, improving environmental protection, combating HIV/AIDS, and 
strengthening its institutions. Kenya needs to make progress to address 
these challenges and, if confirmed, I will continue our mission's work 
to assist the Kenyans to do so. I will also seek to deepen and 
strengthen our economic and commercial ties, including the promotion of 
U.S. exports and protection of U.S. investment.
    Kenya's security remains a major concern. It is inextricably linked 
to our own, as was clearly illustrated in the 1998 bombing of our 
Embassy, carried out by al-Qaeda, which left 218 people dead and 
thousands injured. Kenya has borne a heavy burden from the insecurity, 
extremist violence, and humanitarian challenges associated with the 
conflict in Somalia. As a troop contributing country to the African 
Union Mission in Somalia (AMISOM), Kenya has helped to establish the 
security necessary for the new government in Mogadishu to begin serving 
the needs of the Somali people. In taking a higher profile in Somalia, 
however, Kenya increasingly has become a victim of violent attacks by 
terrorists. If confirmed, I will continue to support Kenya's effort to 
secure its borders and to protect its citizens, while working to ensure 
that Kenya respects human rights and international law as it fights 
terrorism.
    Kenya also hosts more than 600,000 refugees, primarily from 
Somalia, which places a considerable burden on its limited resources. 
The United States will continue to assist Kenya to meet its 
international obligations with respect to refugees.
    Finally, Mr. Chairman, a tangible indicator of Kenya's importance 
to the United States is the fact that U.S. Mission Nairobi is now our 
largest in Africa. The staff at the Embassy has recently weathered a 
period of transition and uncertainty. In my brief time as Charge 
d'Affaires, I have been impressed by the professionalism, dedication, 
and integrity of the mission staff, both American and Kenyan. Mr. 
Chairman and members of the committee, if confirmed, I would be honored 
to serve as the next United States Ambassador to the Republic of Kenya 
and to lead the capable and committed public servants at our mission 
there.
    I would be pleased to respond to any questions you might have.

    Senator Coons. Thank you, Ambassador Godec.
    Ms. McCarthy.

         STATEMENT OF DEBORAH ANN McCARTHY, OF FLORIDA,
         TO BE AMBASSADOR TO THE REPUBLIC OF LITHUANIA

    Ms. McCarthy. Thank you.
    Members of the committee, it is indeed a privilege and 
honor for me to appear before you today.
    I am very grateful to the President and the Secretary for 
their confidence in nominating me as the United States 
Ambassador to Lithuania. If confirmed, I pledge to represent 
the United States to the best of my ability, and to work with 
this committee, your staff, and your congressional colleagues 
to advance U.S. interests.
    With your permission, I would like to introduce my 
daughter, Natalia; my sisters, Linda Malone and Diana Bernard; 
and my brother-in-law, Paul Malone, as well as my extended 
Foreign Service family, which includes colleagues at the 
Foreign Service Institute and new members of the United States 
mission in Lithuania who are here today.
    Over the last 14 years, I have served in a number of 
positions, which you mentioned. I believe that these 
experiences have prepared me well, if confirmed, to lead our 
mission and to exercise American leadership in Lithuania.
    We enjoy a close relationship with Lithuania. It's a 
relationship founded on 90 years of unbroken diplomatic 
relations, transatlantic ties of the many American citizens of 
Lithuanian ancestry, and the energetic engagement of Lithuania 
with the United States in addressing challenges to freedom and 
security worldwide.
    Since it established its independence in 1990, Lithuania 
has embraced democracy and the principles of a free market. In 
addition to its active role in NATO and the EU, Lithuania 
successfully has chaired the Community of Democracies and the 
OSCE in 2010-2011, demonstrating its growth into a leading 
promoter of democratic values, on a global scale. Moreover, the 
fact that Lithuania has one of the highest rates of voting with 
the United States at the U.N. is evidence of the principles it 
shares with us.
    Lithuania's particularly dedicated to advancing democracy 
in the countries of the former Soviet Union, sharing the 
experience and expertise it has during its hard-won 
reintegration into the West. It is actively helping the 
Belarusian people to build civil society in the face of 
terribly difficult circumstances. It is vigorously supporting 
Georgia's territorial integrity and accession into NATO. And 
it's working, on the grassroots level elsewhere in Eastern 
Europe, to build stronger democratic institutions.
    When Lithuania takes on the presidency of the European 
Union in July of next year, it plans to make the EU's Eastern 
Partnership Initiative a key priority in that very region. 
Lithuania is a committed ally of the United States, sending 
troops to Afghanistan, leading a Provincial Reconstruction 
Team, deploying Special Operation Forces, and it has pledged to 
help financially sustain the Afghan National Security Forces 
beyond 2014. It is doing this as it has also undergone an 
economic downturn through the global economic crisis. It lost 
over 14 percent of its GDP in 2009, alone.
    However, the economy has rebounded and has become one of 
the fastest growing in the EU. The energy sector, in 
particular, has been growing as it seeks to diversify its 
sources of power. This presents opportunities to support the 
President's National Export Initiative and help create jobs in 
the United States. I've spent the last 2 years in the Economic 
Bureau directing State's efforts to carry out the National 
Export Initiative, and, if confirmed, I will work actively with 
United States businesses to expand their opportunities in 
Lithuania and the region.
    Addressing issues that linger from the days of war and 
totalitarian occupation has been difficult for Lithuania, but, 
during the past several years, the government has made 
significant progress in doing so. To name a few developments: 
the Lithuanian authorities have granted protection to a 
historic cemetery considered sacred by Jews worldwide, 
dedicated 2011 to the remembrance of Holocaust victims, passed 
legislation to compensate for Jewish communal property seized, 
and approved the resumption of the International Commission for 
the Evaluation of the Crimes of the Nazi and Soviet Occupation 
Regimes in Lithuania.
    If confirmed, I will work closely with the government to 
monitor and encourage effective implementation of these 
agreements, as well as to promote tolerance and historical 
understanding.
    Thank you, again, for the opportunity to appear before you 
today. Should the Senate confirm my nomination, I will dedicate 
myself to protecting and advancing United States interests in 
Lithuania. And I would be pleased to answer any questions that 
you may have.
    [The prepared statement of Ms. McCarthy follows:]

               Prepared Statement of Deborah A. McCarthy

    Members of the committee, it is a privilege and an honor for me to 
appear before you today. I am grateful to President Obama and Secretary 
Clinton for their confidence in nominating me to be the United States 
Ambassador to Lithuania. If confirmed, I pledge to represent the United 
States to the best of my ability and to work with this committee, your 
staff, and your congressional colleagues to advance U.S. interests.
    With your permission, I would like to introduce my daughter, 
Natalia, and my sister, Diana McCarthy Bernard.
     Over the last 14 of my 30 years of government service, I have 
served as Deputy Chief of Mission in Nicaragua, consul general in 
Montreal, Deputy Assistant Secretary of State for Narcotics, Deputy 
Chief of Mission in Greece, and now Principal Deputy Assistant 
Secretary for Economic and Business Affairs, responsible for global 
economic engagement. I believe that these experiences have prepared me 
well, if confirmed, to lead our mission--and to exercise American 
leadership--in Lithuania.
    The United States enjoys a close relationship with Lithuania. It is 
a relationship founded on America's 90 years of unbroken diplomatic 
relations with Lithuania, the transatlantic ties of the many American 
citizens of Lithuanian ancestry, and the energetic engagement of 
Lithuania with the United States in addressing today's challenges to 
freedom and security worldwide.
    Since Lithuania reestablished its independence in 1990, it has 
embraced democracy and the principles of a free market. In addition to 
its active role in the North Atlantic Treaty Organization (NATO) and 
the European Union (EU), Lithuania successfully chaired the Community 
of Democracies and the OSCE in 2010-2011, demonstrating Lithuania's 
growth into a leading promoter of democratic values on a global scale. 
Moreover, the fact that Lithuania has one of the highest rates of 
voting with the United States at the United Nations is evidence of the 
principles it shares with us.
    Lithuania is particularly dedicated to advancing democracy in the 
countries of the former Soviet Union, sharing the expertise it gained 
during its hard-won reintegration into the West. It is actively helping 
the Belarusian people build a strong civil society in the face of 
terribly difficult circumstances, vigorously supporting Georgia's 
territorial integrity and accession into NATO, and is working on the 
grassroots level elsewhere in Eastern Europe, including in Ukraine and 
Moldova, to build stronger democratic institutions. When Lithuania 
takes on the Presidency of the European Union in July of next year, it 
plans to make the EU's Eastern Partnership Initiative a key priority, 
hosting the Eastern Partnership Summit in November 2013.
    Lithuania is a committed ally of the United States, volunteering to 
send troops to Afghanistan even before joining NATO. It leads a 
Provincial Reconstruction Team in Ghor province, deploys Special 
Operations Forces to Regional Command-South, and has pledged to help 
financially sustain the Afghan National Security Forces beyond 2014.
    The global economic crisis had severe effects on Lithuania. GDP 
shrank by 14.8 percent in 2009. Through the government's implementation 
of strict austerity measures and active trade and investment efforts, 
the economy has rebounded and become one of the fastest growing in the 
EU, with a 5.9 percent increase in GDP in 2011 and 2.5 percent forecast 
for 2012. The energy sector in particular has been growing as part of 
the Lithuanian Government's strategy to diversify its sources of power. 
Such growth offers opportunities to support the President's National 
Export Initiative (NEI) and help create jobs in the United States. I 
have spent the last 2 years in the Economic Bureau directing State's 
efforts to carry out the NEI and, if confirmed, I will work actively 
with United States businesses to expand their opportunities in 
Lithuania and the region.
    Addressing issues that linger from the days of war and totalitarian 
occupation has been difficult for Lithuania, but during the past 
several years, the government has made significant progress in doing 
so. To name a few developments: the Lithuanian authorities granted 
protection to a historic cemetery considered sacred by Jews worldwide, 
dedicated the year 2011 to the remembrance of Holocaust victims in 
Lithuania, passed legislation to compensate for Jewish communal 
property seized under Nazi and Soviet rule, and approved the resumption 
of the International Commission for the Evaluation of the Crimes of the 
Nazi and Soviet Occupation Regimes in Lithuania. If confirmed, I will 
work closely with the government to monitor and encourage effective 
implementation of the afore-mentioned agreements as well as to promote 
tolerance and historical understanding.
    Thank you for this opportunity to appear before you today. Should 
the Senate confirm my nomination, I will dedicate myself to protecting 
and advancing United States interests in Lithuania. I will be pleased 
to answer any questions you may have at this time.

    Senator Coons. Thank you very much, Ms. McCarthy and 
Ambassador Godec.
    I'll now begin--5-minute round? Seven minutes. How about 7-
minute rounds? Fine.
    Senator Lugar, do you need to leave us early? Should I 
defer--I welcome you to ask the first round of questions.
    Senator Lugar. Well, thank you. I thank the Chair.
    And, first of all, I appreciate the testimony of both of 
the witnesses.
    Ambassador Godec, a year ago, at Thanksgiving time, it was 
my privilege to accompany Ash Carter, of the Defense 
Department, and Kenny Myers, of the Defense Threat Reduction 
Agency, to Kenya and Uganda for the purpose of working with the 
governments of those two countries in behalf of the security 
for laboratories in which they were collecting blood samples 
from farm animals, attempting to create pathogens that might be 
of assistance in
the event of an Ebola epidemic, or Marburg, or Anthrax, with 
the fear that al-Shabaab personnel, or others, might come into 
these wooden laboratories, scoop up the pathogens, and create 
problems in those countries, or perhaps even in our own. We 
were successful, in terms of gaining the cooperation, in terms 
of mutual assistance. And I believe that that has occurred. 
But, I would appreciate it if you, after your confirmation, 
would check on the progress of that security, and familiarize 
yourself--you may already be familiar, but--with the progress 
that the Defense Threat Reduction Agency has had. Because one 
of these laboratories was on a hillside--overlooking very low-
cost housing for about 300,000 people, in which even the 
residues from the laboratory might be a risk to that 
population.
    And I mention all of this because there are ways in which 
we can provide security assistance to each other in this 
particular case, even as we work on the democratic institutions 
that you already have fostered so well and have mentioned in 
your testimony today. And so, I simply mention this as we have 
an opportunity to visit during this hearing.
    Now, I'm hopeful the transition, now--how long has the 
Ambassador been away, in Kenya? Have you been--you've been 
serving, obviously, over in that country now, but has been 
there been no ambassador for a period of time?
    Ambassador Godec. Senator, the previous Ambassador left in 
July. Another Charge, Steve Nolan, was sent out immediately 
after Ambassador Gration's departure, and then I arrived at the 
end of August, and have been there since then.
    Senator Lugar. Yes.
    Ambassador Godec. I might just add, on the issue of DTRA 
and the threat, I am quite concerned about the risks, as you 
suggest, that some of these pathogens could fall into the hands 
of terrorists. I have discussed this issue with our team, our 
staff there. I have also approved the stationing of a 
representative, of an official from DTRA, at the mission in 
Nairobi to work with CDC, and I promise you that we will be 
focused on this issue.
    Senator Lugar. I thank you. I thank you very much.
    Ms. McCarthy, you've emphasized, in your testimony, the 
energy situation in Lithuania; likewise, progress there. This 
has been a critical problem for some time. I was in Poland over 
the Thanksgiving weekend. And, of course, they are attempting 
to do a number of things there that would make them less 
vulnerable from the days in which the natural gas cutoff, which 
affected a number of countries in the area, really imposed a 
severe dilemma; and still does, for that matter. What 
percentage of--after all of the activities you described are 
achieved, to what extent will Lithuania have a degree of energy 
independence? What percentage will be independent? What will 
still be dependent on somebody else?
    Ms. McCarthy. Senator, you raise a very important question. 
Lithuania, like many other countries in the region, as you 
mentioned, is heavily dependent, still, on Russia for 
electricity and gas. Heavily dependent. It has been seeking, 
through its own national strategy, but also through EU 
directives, to unbundle and to diversify. We have worked in the 
Baltic region on that issue as various options are considered, 
and support the EU directive, which, as I said, is forcing them 
to unbundle. And, in fact, it's led to a number of lawsuits 
that are taking place, and legal issues. And it is a key factor 
for that country's future, and for linking it to the West. It 
has, right now on its electrical grid, no connection to the 
West. So, if confirmed, that would be a key issue to focus on, 
for myself and working with my colleagues in the region.
    Senator Lugar. Well, I appreciate your testimony. And, very 
frankly, as you pointed out, no ties to the West--and that that 
is something that would be a major achievement, if you are able 
to move that situation onward, because the dilemma for, not 
only the Baltic States, but still for Poland and maybe for 
others, is obvious. Many of us have been working for years, 
through the Baku-Ceyhan pipeline or through various other 
situations, to try to think how our European allies and NATO 
could come out from underneath what really could be a critical 
hobbling situation, in the event of conflict, or even a 
misunderstanding. So, I wish you every success, and, likewise, 
Lithuanians, because until that is solved, the problems for 
that country will be enormous, and I just simply hope that we, 
in the Congress, will understand that, and will be able to work 
with you, as you have suggested.
    I thank the Chair very much for giving me this opportunity.
    Senator Coons. Of course. Thank you, Senator Lugar, for 
your leadership and service, and for those insightful questions 
that reflect your personal engagement with both countries over 
a very long period of time. And I know you've got commitments 
from both potential ambassadors to follow through on the areas 
that you've raised.
    If I might now move to some questions for Ambassador Godec. 
The upcoming elections in Kenya, as you mentioned, are 
essential. They have one of the most progressive and sweeping 
constitutional reform efforts on the continent underway, both 
the devolution of power to counties and the election of 
completely new county leadership, and some very real 
challenges, in terms of the dynamics of registration and police 
accountability, and so forth. What's your perspective on the 
pace of preparations for the March elections, what additional 
challenges remain, and what we can and should be doing to help 
prevent violence in the upcoming elections?
    Ambassador Godec. Thank you, Mr. Chairman. Those are all 
very important questions.
    The pace of preparations. First, the IEBC, the electoral 
commission in Kenya, faces a major challenge getting ready for 
this election. This is the most complex election in Kenyan 
history. They have been moving forward.
    They have just started, a little over a week ago, biometric 
voter registration, and they've been moving to put in place a 
number of the systems which are necessary. That said, there is 
little room left for slippage in the schedule. They face a 
number of major challenges, including identifying all of the 
final polling places, doing all of the preparatory work related 
to the ballots and other challenges along the way, in addition 
to the security issues which surround the election.
    So, there are a number of challenges in front of the IEBC 
to get this election right. It is critically important that 
they do so. They are receiving significant support from the 
international community, generally. They're receiving 
significant support from the United States. The total donor 
support for this election will be over $100 million, of which 
the United States is currently over $30 million.
    We are assisting the IEBC directly, through IFES, with 
technical support in a wide range of areas. We're also 
assisting with the process of putting together a domestic 
election observation team. There is a domestic organization 
called ELOG, which will do domestic observation. And we're also 
planning for international observers, as well.
    In addition, we are assisting with civic education and 
voter education, contributing to it in a variety of ways, and 
there are some ongoing campaigns to help educate Kenyans. We 
have done training of, now, more than--or now roughly 1,000 
party members, on issues like how to draft a platform, how to 
actually put together a set of policies for a political party. 
We've also trained journalists, in the media area, to help them 
cover the elections. So, there's a variety of things that are 
underway to assist in getting the election, frankly, as good as 
it can be--make it as good as it can be, make it free, fair, 
and peaceful.
    As I said, though, at the end of the day, this election 
rests squarely on the shoulders of the Kenyan people and the 
Kenyan Government. We can assist. We are assisting. There are a 
number of things that we are doing, and will continue to do in 
the coming months, but, at the end of the day, the Kenyans are 
responsible for the election. And it's important, frankly, for 
the country, and for the entire region, that the election be a 
success.
    Senator Coons. In my view, the Kenyan judiciary--and some 
of the recent reforms there have been a bright spot--there 
needs to be more and greater progress toward security-sector 
reform and police accountability. The new Independent Police 
Oversight Authority is also somewhat encouraging. What are you 
doing, or what do you think the mission can and should do, 
overall, between now and next year, to provide more support to 
ensure that both judicial reforms and police reforms continue? 
And would you agree they are, in some ways, essential to the 
integrity and success of the elections?
    Ambassador Godec. Mr. Chairman, I agree, entirely, that 
both judicial reform and police reform are essential. And 
judicial reform is, as you said--and as I indicated, as well, 
in my statement--it is a bright spot, it is an area of, 
frankly, significant change; it's one of the success stories 
since the passage of the new constitution in 2010.
    We are doing a variety of things to assist the judiciary, 
everything from training for personnel in the judiciary to, for 
example, assisting them with the computerization of their 
records. I visited a courthouse in Mombasa, a few weeks ago, 
and saw the paper files in the courtroom in Mombasa. It was 
quite extraordinary. And I think the computerization, putting 
this into electronic form, will be a significant advance in, 
frankly, the ability of the judiciary to do its job.
    The Chief Justice there, Willy Mtunga, is an extraordinary 
individual, who deserves, I believe, considerable praise for 
his work. He's expanded the number of judges. He is putting in 
place reforms to make the judiciary more efficient. And I think 
that the success of the judiciary is both critical and, I 
think, offers some hope, the progress that has been made so 
far.
    On the police front, the police have significant problems. 
Frankly they have been implicated and involved in human rights 
abuses, in some instances. There are a lot of concerns about 
the things that have happened over the course of many years. We 
are providing a range of assistance to them. I think it's 
critical that we continue to do so. The new constitution did 
reform the police, in the sense that it created a new civilian 
oversight structure, which is beginning to operate. And we're 
providing assistance, for example, on the standup of an 
internal affairs unit, which will help to review police 
abuses--potential abuses or things that may have been abuses.
    So, we're doing a number of things to assist with the 
police reform, as well, but it is a critical area, because, at 
the end of the day, the Kenyan people need to have confidence 
in their police force.
    Senator Coons. Thank you, Ambassador.
    Senator Isakson.
    Senator Isakson. Well, thank you, Mr. Chairman. And thank 
you for your acknowledgment of Chairman Lugar, at the outset. 
And I'll take the same liberty, if I can.
    I wouldn't be the ranking member of this Subcommittee on 
Africa, had it not been then-Chairman Lugar's decision to offer 
me the opportunity, which has been a great opportunity, and one 
I've enjoyed a lot. But, I think the committee will greatly 
miss the leadership of Dick Lugar, but I want to thank him, 
publicly and personally, for what he's done for me and what 
he's done for the country.
    So, with that said, Ms. McCarthy, you are the current Under 
Secretary for Economic and Business Affairs at the State 
Department. Is that right?
    Ms. McCarthy. Sir, I'm the--I'm lower down in the rank--I'm 
the Principal Deputy Assistant Secretary. So, two ranks below.
    Senator Isakson. But, it is of Economic and Business----
    Ms. McCarthy. Correct.
    Senator Isakson [continuing]. Affairs?
    Ms. McCarthy. Correct, sir.
    Senator Isakson. I appreciate your humility, but your 
qualifications for this job, given Lithuania's economic 
situation, probably is very helpful.
    Senator Lugar's question on energy--energy is a huge 
problem in Lithuania, but also, the most recent election, the 
overturning of the old Parliament and the center-right 
government to a--I think, a four-party coalition government, 
and they--the whole issue was over austerity programs the 
previous administration had put in place, as I understand it. I 
fear, with countries in Europe and in the EU moving away from 
austerity back to old practices--it's going to compound the 
problems of the economic demise in Europe. Would you comment on 
that?
    Ms. McCarthy. Certainly, Senator.
    In the case of--in the larger context, yes, Europe has 
moved, particularly in the eurozone, to a situation where key 
issues of growth and creation of jobs are extremely important. 
That is why our new U.S./EU High Level Working Group, that is 
looking into these issues and is seeking to deepen the 
relationship to address those issues, is going to be a valuable 
discussion. In that context, obviously, Lithuania will 
participate, especially as it takes on the presidency.
    Lithuania itself managed to go through the trough and begin 
to take off again, balancing out growth and austerity measures, 
which were actually quite interesting to review, in my 
preparation. So, unlike some other countries, it is poised for 
new growth. It's actually doing quite well. And the challenge 
that it will face, as others are facing, is: export markets are 
declining as demand decreases in areas such as China and so 
forth.
    So, it will be something that I will be closely following, 
drawing on my expertise, noting that, as I said, this new High 
Level Working Group is a great opportunity for us to speak to 
all of the EU members the challenges of creating growth in jobs 
in both in the United States and in Europe, because it is a 
long-term challenge, I agree with you, and I will be working on 
this issue, should I be confirmed.
    Senator Isakson. Well, good luck, and we appreciate your 
accepting the challenge.
    Ambassador Godec, how is the morale of the Embassy staff, 
given the transition, so far this year?
    Ambassador Godec. Senator, the morale of Mission Nairobi is 
obviously a very important concern for me, and would be, going 
forward, if I am confirmed by the Senate.
    Obviously, the morale of the mission is really, at the end 
of the day, best assessed, or best evaluated, by the members of 
the mission itself, both Kenyan and American. I will tell you, 
though, that, since my arrival, I have focused on this issue 
and made it a priority. Within 24 hours of my arrival in 
Nairobi, I had met with the full country team and held a 
townhall meeting with all members of the mission staff. Since 
then, I have met with every section and agency head, and their 
senior staffs. I have walked the entire mission, greeting 
people in their workplaces. I've visited the staff at our Peace 
Corps offices in Nairobi and at CDC in Nairobi, and I traveled 
to Kisumu to visit with CDC and MRU officials there. I've met 
with the FSN, the local employee committee. I met with our 
first- and second-tour personnel. I've attended a number of 
community events.
    My objective in all of this is really to build a team at 
Embassy Nairobi, to give a sense of a mission, as a whole, 
that's operating together. Obviously, we have many objectives, 
many goals that we have to accomplish, but, at the end of the 
day, we have to be part of one team, all working there on 
behalf of the U.S. Government and the U.S. people. That's been 
my goal, and I hope I've been successful in starting that 
process.
    Senator Isakson. Well, I appreciate your answer. And the 
reason I asked the question is, the morale of the Embassy is 
critical to the mission of the Embassy. And I know they've been 
through a difficult time, and I want to compliment you on the 
leadership you've initiated, since you got there, to actually 
touch those people, to understand their job, and call them in 
to have them comment on the mission of the Embassy. And that's 
good leadership, and if you'll continue that, that Embassy will 
continue to be a critical part of our State Department.
    As I expressed to you before the hearing, I have a real 
concern with Dadaab. I've been to Darfur and seen what can 
happen in these camps that become permanent isolation places, 
if you will, for folks. And we've had a part of the drought 
that's taken place in Ethiopia and Somalia--it's gone down as 
far as Dadaab. There's a lot of hunger, food shortage. Although 
Somalia is trying to stabilize, certainly, many of the people 
in that camp are not going back to Somalia.
    Is there a working group, or is there a--is the Kenyan 
Government and the United States Government and the African 
Union working together for a Plan B, in terms of a transition, 
eventually, out of Dadaab, for those people? Because, if not, 
it runs the risk of becoming another Darfur. Maybe not--some of 
the elements that are around Darfur aren't there, but it still 
has the potential, and I worry about a half a million people 
struggling in that tiny camp, with all the hunger and famine 
they've got going right now.
    Ambassador Godec. Senator, thank you, that is a very 
important question, and it's a very important issue. It's one I 
have discussed, on many occasions, with senior Kenyan 
Government officials.
    The conditions in Dadaab are, indeed, very difficult. It 
also, I think, is not a place that anyone would want to stay 
long term. Nevertheless, the conditions there have been better, 
in many instances, of course, than inside Somalia itself.
    The Kenyan Government has been quite welcoming, over time, 
of the refugees, and has served as a place of first asylum, 
obviously enough, and we encourage them to continue to do so, 
as long as is necessary.
    We are discussing--UNHCR, the Kenyans, the United States, 
others--the question of what might come next, at some point. 
Obviously, the refugees cannot go back to Somalia until the 
conditions permit that. Any return would have to be under 
circumstances where there was adequate security in Somalia and 
where the return was voluntary.
    But, efforts are underway to begin to discuss the question; 
in some small programs, to provide training and the like to 
some refugees, to perhaps give them an opportunity to have a 
livelihood, if and when they were to choose to return.
    But, this is an issue that is a focus. There is concern 
about it, and there is ongoing discussion about how to address 
this in the long term, because--I agree with you, Senator--
ultimately, I don't think it's in anybody's interest to have 
that camp stay where it is.
    Senator Isakson. Thank you very much.
    Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    I'll start a second round of questions, if I might.
    First, Ms. McCarthy, I was interested and encouraged to 
hear about your very active role in the National Export 
Initiative, and, as Senator Isakson referenced, eager to hear 
about the leadership you may be able to bring to the Embassy in 
Vilnius and in Lithuania to export opportunities for the United 
States and to helping Lithuania with energy development 
opportunities. What sort of opportunities are there for United 
States economic partnership or exports to Lithuania?
    And do you know whether the United States plans to be an 
active participant in the Center of Excellence on Energy 
Security that, if I understand right, NATO is standing up in 
Lithuania?
    Ms. McCarthy. Thank you, Senator.
    I'll respond to your question in two ways. One, in terms of 
supporting U.S. business overseas, often we are looking at a 
regional model instead of just focusing on one country. So, if 
confirmed, I would use my knowledge, energy, to look to 
regional opportunities, and then beyond, as Lithuania, as other 
countries, is looking to make itself a hub for activity going 
even further east--much further east, in fact. So, that would 
be one aspect.
    The Center of Excellence, yes, we are participating in the 
Center of Excellence, which we think was a valuable addition 
for looking at the challenges of uses of energy within the NATO 
context. It has been approved as an official Center of 
Excellence. And, to my knowledge--and I will confirm this with 
you, Senator--I believe we are going to billet someone there. 
But, I will confirm that. So, therefore, we definitely will be 
participating.
    Energy, as I note, is an area, but there are other exports 
that take place--cars and other things.
    So, again, when I get there, I'll get the full breakdown of 
everything. But, it'll be focused regionally, as the individual 
markets are quite small.
    Senator Coons. Being from a modestly scaled State, myself, 
I think I understand the importance of regional integration. 
The economy of Delaware would probably scale comparably to 
Lithuania.
    Ambassador Godec, I'd be interested in the same question, 
or topic, if I might, with regard to Kenya. It's one of the 
more promising diversified, robust economies in Africa. What 
are we doing to promote U.S. direct investment in Kenya, a 
vibrant export/import relationship between the United States 
and Kenya with the East African community? And, in particular, 
how well is AGOA being utilized? And, beyond the third-party 
fabric provisions and the apparel that's going on now, what 
else might we do, through AGOA, that would help with this 
relationship?
    Ambassador Godec. Mr. Chairman, Kenya is an important trade 
and investment partner for the United States, an important 
partner in Africa. Our two-way trade, last year, was about $850 
million, and the United States did enjoy a trade surplus. The 
Kenyans have taken strong advantage of AGOA, particularly the 
third-party fabric provisions, where they're manufacturing 
apparel and shipping it on to the United States. And I think 
that the Kenyans would certainly welcome the renewal of that 
provision in AGOA, generally. I think it would be helpful, 
broadly speaking, to the Kenyan economy.
    The promotion and, frankly, the support for U.S. trade and 
investment, and Kenyan trade and investment here in the United 
States, would be, if I was confirmed, a very important priority 
for me. It is an area where I worked before, when I was in 
Kenya, as economic counselor, and I have a lot of experience 
and background in that area. I've already engaged with the 
American Chamber of Commerce there on a number of occasions, 
and would continue to do so.
    We do get, in Kenya, an interest from a lot of American 
businesses. Just a couple of weeks ago, we had a trade 
delegation from Florida that I met with--was looking at doing 
trade and investment. Acting Commerce Secretary Blank is, in 
fact, visiting Kenya today, and will--actually, it's tomorrow 
and Friday, excuse me--and will be there to help deepen the 
U.S. trade and investment relationship with the country. And I 
understand that this is the first visit by a Secretary of 
Commerce in quite some time--about a decade or so--and so, I 
think it's a very important development.
    The East African community is obviously a focus of 
attention. We're providing considerable support to the East 
African community through USAID at the moment, in a wide range 
of areas, to include trade and investment. And part of Acting 
Secretary Blank's visit to Kenya is focused on the EAC, and 
she'll be doing some EAC-related events there, some signing 
ceremonies.
    But, I think there are a number of things that the mission 
is doing to support business, whether it be sort of the 
concrete advocacy efforts that our commercial section is 
undertaking or whether it be the work that our economic section 
is doing, for example, to improve the business climate in 
Kenya. There are a number of issues there with, obviously, 
nontransparency, corruption, poor business practices that, 
frankly, do impede business.
    So, there's a range of things, I think, that need to 
happen. And, if confirmed, I would certainly pursue all of 
them, whether it be assistance to U.S. business, working on the 
business environment, encouraging our companies to come, and 
assisting them, as they need it.
    Senator Coons. Great. I know Senator Durbin had hoped to 
join us. I understand he may not be able to. He has 
particularly focused on the role of the Foreign Commercial 
Service and the promotion of exports from the United States to 
Africa. That's been an area of great and persistent interest 
from him. He may well submit questions for the record.
    Last question, if I might. In terms of monitoring, you made 
a somewhat passing reference, in the first round of questions, 
to National Democratic Institute. I also understand the Carter 
Center might be involved. There's a multinational election 
monitoring effort, both domestic and foreign. But, what else 
needs to happen? What other steps might the Embassy take to 
fund and facilitate foreign election observers, and to sustain 
them through what may well be a second round, what may be a 
fairly complex election, both at the national and at the county 
level?
    Ambassador Godec. Mr. Chairman, election observation is 
critically important, I think, for this upcoming election, and 
it's something I've been very focused on in my time as Charge 
d'Affaires out there.
    I really see sort of three, kind of, components to the 
election observation effort:
    The first is the Kenyan domestic election observation 
effort that I mentioned earlier. And we, through USAID, are 
supporting the Kenyan civil society group, ELOG, which is 
organizing the domestic observation. We've arranged for 
training for 9,500 election observers--short-term election 
observers--another 450 long-term election observers. And we're 
doing a variety of things to support them.
    The second component of this is the--kind of, the missions 
that are in Nairobi--the U.S. mission and other partners plan 
to organize, are working toward doing direct election 
observation; and not just the election itself, in March, but 
also the party primaries, which will take place in January, 
and, of course, any runoff that might take place, if there is 
one, in April. So, there's a robust effort underway to do that.
    The U.S. mission is chairing a group in Nairobi, a 
coordination group among donors, to put that together. And I'm 
actively engaged in that particular effort. I see the U.S. 
mission field itself fielding perhaps as many as 50 teams on 
election day.
    And the third part of this is the international observation 
component. And we are in the process--USAID is in the process 
of potentially soliciting for an international group. And there 
are some possibilities--you mentioned two of them; there may 
well be others that might be interested. We see putting perhaps 
25 or 30 fairly long-term observers, international individuals 
of stature who have some experience in this area, out in the 
field to observe the elections. Again, I think this is a 
critical component. There are other groups, of course--the EU, 
various African groups, and others--which will be doing 
election observation. So, it looks set to be a fairly robust 
effort.
    Senator Coons. Great. Thank you, Ambassador.
    And I note the Kenyan Ambassador has joined us.
    If I could, Senator Isakson.
    Senator Isakson. Thank you. Thank you, Mr. Chairman.
    I have a couple of quick questions.
    One, the largest investment of the American taxpayer on the 
continent of Africa has been the PEPFAR program, which has been 
a hugely successful program, too. There was a problem, in 
Kenya, with a lot of the funds getting backed up in the 
pipeline, and the deployment of some of that aid not going 
smoothly; in fact, backing up in the pipeline, as I understand 
it. How is that working now, in terms of PEPFAR programs? 
That's part one.
    And part two is: Is the Kenyan Government doing its share 
of the job of taking over the delivery-system responsibilities 
of the PEPFAR program, in terms of the antiretrovirals going to 
the people?
    Ambassador Godec. On the PEPFAR pipeline, you're quite 
correct, there had been some backup. There's been a robust 
effort to address that, and I believe it's been addressed. We 
will be spending down some of the funds that have been backed 
up in the pipeline. I believe we were over the, kind of, 18-
month limit that we were supposed to be at. So, we have been 
very focused on that, the PEPFAR team out in Nairobi and, I 
know, the folks here, as well, in Washington, as part of the 
PEPFAR operation here. So, I believe it's been addressed, but 
obviously it's something that is worth keeping a close eye on; 
and, if confirmed, I would do so.
    The second part of this is--I agree entirely about the 
importance, ultimately, of the Kenyans assuming responsibility 
for this program. That has got to be, and is, a long-term goal. 
It is a subject I have discussed with the PEPFAR coordinator 
and with others in Nairobi, and it is something that we will 
continue to focus on.
    I will say that this particular challenge is further 
complicated by the fact that under the devolution of power to 
the county system, responsibilities for health care is going to 
be moved from the central government down to the county level. 
At the same time, there has been a fair amount of planning by 
the Ministries of Health, two of them, on this issue, already, 
of devolution, and there are ongoing discussions about how to 
handle this, this problem, to ensure good delivery of--frankly, 
of PEPFAR services.
    But, PEPFAR has been a big success. There are 600,000 
Kenyans on antiretrovirals, as a consequence of the program.
    Seven million Kenyans have received treatment or 
counseling, and--well, received counseling or some sort of 
assessment under the program. And so, I think it is a--it's a 
very important program for the Kenyans, it's a very successful 
program, but it is something that requires continued attention 
and, ultimately, transition.
    Senator Isakson. Well, as I mentioned to you earlier, I 
hope you'll take a moment to go up to the Nyumbani Orphanage, 
in Nairobi, where a wonderful lady named Sister Mary, is making 
life wonderful for some kids who were born to AIDS-infected 
moms, but, because of PEPFAR, they were born without the virus, 
and they're living a healthy, happy life, and she does a 
great--it's a good example of an American NGO that's delivered 
quality service.
    Ms. McCarthy, my worst subject, in college and in high 
school, was foreign language. I almost died on French. 
[Laughter.]
    I just didn't have the connection.
    You speak six languages, I noticed, if you include English 
as a--which I know you speak well, because you did it. What do 
they speak in Lithuania? Lithuanian?
    Ms. McCarthy. Sir, they speak Lithuanian. I have had five 
lessons. The two people who are going to get me to, hopefully, 
the level I have in others are with me today, and watching.
    Senator Isakson. Well, when you gain a seventh language, 
you'll be seven times smarter than I ever was in foreign 
language. [Laughter.]
    Senator Isakson. Congratulations on your nomination. And 
best of luck to both of you.
    That's all I have.
    Senator Coons. Thank you. Thank you, Senator Isakson.
    And thank you, to Lori and Nancy, to Natalia and Diana, to 
Linda and Paul, and everyone else who has joined us here today 
who are friends, family, and supporters.
    To Ms. McCarthy, to Ambassador Godec, you go to take on a 
great challenge and a great opportunity to represent this 
Nation in countries that are long allies of ours, but where 
they are in the midst of vital transitions. So, know that 
you've got our enthusiasm and--I speak for myself--support as 
you move forward.
    There may be other members of other committee who were not 
able to join us today--I'll keep the record open for a week, in 
the event that they choose to submit questions for the record.
    But, I'm grateful for the opportunity to have been joined 
by Senator Lugar and Senator Isakson in today's hearing.
    And we are, thereby, adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Hon. Robert F. Godec to Questions Submitted
                        by Senator John F. Kerry

    Question. Kenya is approaching Presidential elections in March 2013 
and there are significant concerns about the potential for civil 
unrest. Electoral violence represents a unique subset of mass 
atrocities in that major milestones are actually posted on the calendar 
months in advance.

  <bullet> What are the most important steps that the Kenyan 
        Government, Kenyan civil society, and the international 
        community can take to avert electoral violence?
  <bullet> What do you see as the role of the United States in 
        supporting free, fair, and peaceful elections?
  <bullet> What are the potential flashpoints that most worry you?

    Answer. The March 2013 elections represent an important next step 
in the process of political reform in Kenya, and it is crucial that 
they be free, fair, and peaceful. Responsibility for carrying out a 
successful election rests squarely with the Kenyan Government and 
people. The Kenyan Government must ensure that technical and security 
preparations for the most complex election in Kenya's history are in 
place, and the Kenyan people and politicians must be committed to 
peaceful participation in the political and electoral process. Kenyan 
civil society is playing an important role in supporting civic 
education, election observation, and a variety of local and national 
efforts to create effective early warning and early response mechanisms 
to prevent or mitigate tension or violence.
    In support of Kenya's efforts, the international donor community 
has pledged approximately $100 million to assist with the elections and 
electoral reform. Of this amount, the U.S. Government has contributed 
approximately $30 million for elections preparation and civic voter 
education programs, including assistance to the Independent Electoral 
and Boundaries Commission to enable the Kenyan Government, civil 
society, and the Kenyan people to engage peacefully and constructively 
in the election process. We are supporting local community efforts to 
put into place mechanisms and lines of communication to prevent and 
mitigate violence in several potential hotspots. We have also 
intensified our diplomatic and communications efforts to highlight the 
importance of the election to Kenya's future stability and prosperity.
    Independent election observation is a key element in ensuring free, 
fair, and peaceful elections. We are supporting the Kenyan Election 
Observation Group, a coalition of Kenyan nongovernmental organizations, 
which plans to field 9,500 observers for the actual election, including 
to conduct a parallel vote tabulation, and approximately 450 observers 
to monitor developments for a longer period of time before and after 
the election. In coordination with international donors, the U.S. 
Embassy will monitor party primaries and the election environment over 
several months, and provide Embassy staff to serve as observers.
    Major challenges and potential flashpoints include: the potential 
for technical problems in conducting the elections; tension at local 
levels from contests for power under the newly decentralized 
government; political hate speech; a court decision on the eligibility 
of individuals indicted by the International Criminal Court to run for 
the Presidency; and continuing security threats from both within Kenya 
and abroad. We constantly monitor progress and adjust our programs, as 
needed.

    Question. Section 620M of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. Embassies are heavily 
involved in ensuring compliance with this requirement. In August 2012, 
an Office of the Inspector General (OIG) report identified two specific 
weaknesses in Embassy Nairobi's Leahy vetting process: the political 
section only checked names against the 2008 Kenya National Commission 
on Human Rights and not more updated sources, and there was no 
reporting mechanism to verify that individuals who are vetted and 
cleared are the same persons who receive training.

  <bullet> If confirmed, what steps will you take to ensure that the 
        Embassy effectively implements section 620M and rectifies the 
        weaknesses cited by the August 2012 OIG report?
  <bullet> In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?
  <bullet> What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?

    Answer. Embassy Nairobi already has taken steps to address the 
issues regarding Leahy vetting that the Inspector General's Report 
raised. In consultation with the State Department's Bureau of 
Democracy, Human Rights, and Labor and the Bureau of African Affairs, 
the Embassy has developed new standard operating procedures (SOP) for 
Leahy vetting that address the OIG recommendations. The new SOP has 
been in full operation since mid-October.
    The Embassy, through its extensive network of government and 
nongovernment contacts, continually monitors and evaluates allegations 
of human rights violations on the part of Kenyan security forces. The 
Embassy's political section maintains a dynamic database of credible 
gross human rights violations. Sources for this database include the 
Kenya National Human Rights Commission report on Post-Election 
Violence, the State Department's Annual Reports on Human Rights, 
credible reports from nongovernmental organizations, and names provided 
by other Embassy agencies. As part of the new SOP, the political 
section updates the database on a continuous basis, when credible 
allegations of human rights violations come to light. Other agencies 
and sections provide updates to the political section's vetting 
database on a quarterly basis.
    In cases in which there is credible evidence that a potential 
beneficiary of U.S. training or equipment has committed a gross 
violation of human rights, we exclude that individual or unit from 
participating in or benefiting from U.S. training and equipment. If 
confirmed, I will ensure that the mission remains vigilant in this 
effort. The State Department maintains database records of individuals 
and units who have undergone vetting. This centralized database enables 
us to identify individuals or units that have been excluded, should 
they be proposed in the future as candidates for training or receipt of 
equipment.
    Consistent with the new SOP and section 620M of the Foreign 
Assistance Act of 1961, no training or assistance funded by the U.S. 
Government can commence until vetting is completed. Agencies that carry 
out training of Kenyan security forces are responsible for verifying 
the identities of the trainees and ensuring that only those individuals 
who have been vetted receive training.

    Question. The August 2012 OIG report also raised concerns that the 
Embassy is not fully informed of U.S. Africa Command's Combined Joint 
Task Force for the Horn of Africa (CJTF-HOA) civil affairs activities 
in Kenya and is not positioned to make decisions on how to focus civil 
affairs projects.

  <bullet> What can the Embassy do to better coordinate and integrate 
        U.S. efforts in Kenya? Specifically, how can we measure the 
        impact of projects such as those undertaken by CJTF-HOA?

    Answer. Coordination of all activities in a large mission that 
includes many U.S. Government agencies is a challenge, but one that 
Embassy Nairobi has been working to address for some time. Embassy 
Nairobi has a ``3D'' (Diplomacy, Development, and Defense) coordination 
process in place to ensure that CJTF-HOA civil affairs activities are 
fully integrated into the mission's broader diplomatic and development 
objectives. The 3D committee, chaired by the Deputy Chief of Mission, 
meets at least monthly to review proposed and ongoing civil affairs 
projects. Members of the committee include the Department of Defense 
(CJTF-HOA and the Kenya-U.S. Liaison Office), USAID, the Department of 
State political, economic, and public affairs sections, and the Centers 
for Disease Control. The 3D committee submits recommendations on 
proposed civil affairs projects to the Ambassador for his approval. If 
confirmed, I will work to further strengthen interagency coordination 
to ensure that we pursue an integrated, whole-of-government approach.
    In support of the 3D process, USAID and CJTF-HOA have also taken a 
number of steps to coordinate and integrate civil affairs projects with 
U.S. foreign assistance programs. Upon arrival in country, new civil 
affairs teams receive a comprehensive orientation and a briefing from 
the interagency country team, to understand fully U.S. diplomacy, 
development, and defense objectives in Kenya. Civil affairs teams are 
provided contact information for USAID project teams active in their 
area of operations, to facilitate civil affairs team networking with 
local communities and officials and to shape project development. In 
reviewing civil affairs teams' project proposals, the Embassy 3D 
committee places high priority on projects that are linked directly to 
USAID longer term projects. For example, the 3D committee tries to 
ensure that a civil affairs team school renovation project will be at a 
school participating in USAID's longer term education assistance 
program. USAID and CJTF-HOA conduct regular partnership and planning 
meetings in Nairobi and Djibouti to ensure full information-sharing and 
to explore opportunities for joint programming, both in Kenya and the 
region. For example, CJTF-HOA-organized medical capacity-building 
missions in Kenya now include a full array of USAID health partners, 
which has both increased community participation and enhanced the 
missions' impact.
    To assess the effectiveness of its civil affairs projects, CJTF-HOA 
conducts regular visits to sites of previous activities to determine 
whether the projects are still being used as proposed. Advisory teams 
perform assessments of CJTF-HOA activities in the communities. These 
teams coordinate with the political section and USAID, whose staff 
members accompany the teams on such missions, when possible. CJTF-HOA 
has an assessments branch to assess the effects of civil affairs and 
other efforts in Kenya and the region, which works closely with these 
advisory teams.
                                 ______
                                 

        Responses of Hon. Robert F. Godec to Questions Submitted
                      by Senator Richard G. Lugar

                  POLICING AND POLICE PROFESSIONALISM

    Repeated reports indicate that the Kenyan police have a history of 
excessive force and abuse of authority to include political and 
criminal acts.

    Question. What can the Embassy do to support the newly independent 
prosecution service (Office of the Director of Public Prosecutions or 
ODPP) and the Independent Police Oversight Authority (IPOA) in their 
efforts to increase accountability for the use and abuse of police 
power?

    Answer. The United States Government supports both the Office of 
the Director of Public Prosecutions or (ODPP) and the Independent 
Police Oversight Authority (IPOA) through a variety of programs and 
partnerships. Under the new constitution, the Kenyan ODPP has become an 
independent agency. The U.S. Embassy supports efforts of the ODPP to 
improve its ability to investigate, prosecute, and try complex cases, 
including money laundering, terrorism, and terrorism financing 
offenses. For example, we have provided ODPP new hires ``induction'' 
training that included an intensive trial advocacy workshop for lawyers 
with little or no trial experience, emphasizing case preparation, 
courtroom skills, and ethics. In December, we are cosponsoring a 
colloquium that will bring together Kenya's 84 prosecutors, 26 new 
hires, and selected guests. Topics covered will include elections 
preparedness, using technology to promote effective prosecutions and 
international security, interagency collaboration and cooperation, the 
role of the police and prosecutor, and new legislation.
    As the ODPP works to implement its 5-year strategy, we are 
assisting it with efforts to strengthen engagement with civil society, 
track and handle complaints, develop key documents, such as 
prosecutorial guidelines and manuals, and formulate an information and 
communications technology strategy and implementation plan. We are also 
partnering with U.S. judges and nongovernmental organizations to 
provide training for prosecutors on key aspects of Kenya's National 
Prosecution Policy, case management, and advocacy skills.
    The IPOA is a newly established entity that will provide 
independent civilian oversight of the police. The United States 
Government is already helping IPOA to establish operational capability; 
create public awareness of IPOA; establish real-time police abuse 
tracking through a digital platform; and conduct a study to understand 
the nature and degree of police abuse in Nairobi. We support police 
reform and accountability through a contribution to the U.N. Office of 
Drugs and Crime and through a 5-year, $3.5 million dollar program to 
support internal and external accountability mechanisms for the police 
in accordance with the new constitution. If confirmed, I will work 
through our country team to help build IPOA's organizational structure 
and investigative staff, support development and implementation of 
complaint-taking mechanisms within both IPOA and the Police Internal 
Affairs Unit (IAU), and assist with coordination between IPOA and the 
IAU. The project will help develop public awareness campaigns that 
inform the public about filing complaints against the police and will 
develop an effective referral mechanism between police oversight bodies 
and the judiciary.

    Question. The Kenyan Executive appears to be dragging its feet on 
forming the constitutionally mandated National Police Service 
Commission. The Executive has not followed the nominating process, 
which is meant to give the police more independence from the President 
and his Cabinet. It is vitally important that the police are 
independent of the Executive in light of upcoming elections. What can 
the United States do or what is it doing to push the Kenyan Executive 
to facilitate the establishment of the National Police Service 
Commission?

    Answer. While there were delays and political wrangling surrounding 
the formation of the National Police Service Commission (NPSC), the 
commissioners were formally appointed in early October. They began 
their work immediately, interviewing candidates for police leadership 
positions. The NPSC has already forwarded to the President and Prime 
Minister for their consideration a list of recommended candidates for 
the Inspector General and the two Deputy Inspector General positions.
    We are providing technical assistance to the NPSC to help it refine 
its mandate and organizational structure and to define its relationship 
with the National Police Service (NPS). We emphasized at a recent 
meeting with police leadership and members of the Internal Security 
Ministry that, while we are willing to support the NPSC, the Government 
of Kenya must do so as well, and must provide funding and access so 
that the NPSC can do its job.
    If confirmed, I will continue the mission's engagement with the 
NSPC and will press for further action on election security and 
continued support for ongoing police reforms. I will explore options 
for providing additional support, as appropriate.

    ARBITRARY ARREST AND FALSE IMPRISONMENT IN PARALLEL TO CRIMINAL 
                                IMPUNITY

    One of Kenya's most serious human rights problems is the detention 
of hundreds of innocent men in remand centers with no legitimate 
evidence to support the crimes police have charged them with. They may 
spend years in jail before they come before a judge, at which point 
they are released. In the meantime, actual crimes go unsolved by 
police. Police misconduct and judicial incapacity or unwillingness is 
at the heart of Kenya's increasing lawlessness which poses a threat not 
only to the human rights of Kenyans but also to U.S. antiterrorism and 
security interests.

    Question. What can the United States do to work with the 
prosecution service (ODPP) and IPOA to review records of existing 
detainees and release those for whom there is no credible evidence?

    Answer. Unjustified detention of Kenyans is a symptom of the need 
for broad criminal justice reform and strengthening of the rule of law, 
which we are supporting through U.S. programs and diplomacy. Provided 
reforms move forward, over time they will lead to increased police 
accountability and a reduction in illegal detention. If confirmed, I 
will continue to press the Kenya Government to implement meaningful 
reform of the criminal justice sector to help ensure that the rights of 
Kenyan citizens enshrined in the constitution are protected.
    On the specific issue of reviewing records of existing detainees, 
the United States has provided a grant to the International Justice 
Mission, a nongovernmental organization that is helping the Office of 
the Director for Public Prosecutions (ODPP) increase capacity to screen 
cases, so that cases of individuals held without evidence supporting 
detention are disposed of quickly. The U.S. Government also provides 
extensive training for the ODPP.

    Question. Recognizing the link between public confidence in its law 
enforcement institutions and the stability of the government, what can 
the United States do to help the Kenya Government make law enforcement 
more accountable for its exercise of power?

    Answer. There is a broad recognition in Kenya of the need for 
police reform. Decades of poor management and abuses have undermined 
the credibility of the institution with the Kenyan people. Police were 
both ineffective in preventing and complicit in carrying out the 2007-
2008 post-election violence. Consequently, the reform agenda of the 
2008 National Accord that both President Kibaki and Prime Minister 
Odinga endorsed explicitly included police reform.
    After a slow start, Kenya is implementing the framework and 
institutions necessary for police reform. Parliament has passed key 
legislation to underpin police reform and the Kenyan Government has put 
in place the National Police Service Commission that will oversee the 
reform process. A Police Service Internal Affairs Unit will investigate 
allegations of police misconduct and corruption by other police 
officers and misconduct against civilians. The government has also 
formed an Independent Police Oversight Authority Commission (IPOA), a 
civilian-led oversight body. IPOA's mandate includes investigating all 
deaths and serious injuries caused by police or as a result of police 
action; receiving and investigating complaints from members of the 
public as well as from police officers; investigating police misconduct 
on its own initiative; and making recommendations for disciplinary 
action or prosecution and recommendations to prevent future misconduct.
    In September, we signed a letter of agreement with the Government 
of Kenya, in which we anticipate providing $3.5 million over 5 years to 
support Kenya's internal and external accountability mechanisms for the 
police in accordance with the new constitution. We are also providing 
support to the Internal Affairs Unit through a contribution to the U.N. 
Office on Drugs and Crime.
    In addition to this direct support for new accountability 
mechanisms for the police services, several U.S. agencies and offices 
at Embassy Nairobi, including the State Department (Bureau of 
Diplomatic Security), the FBI, Department of Homeland Security, and 
Department of Justice, provide training to improve the capacity and 
professionalism of the police services. Such capacity-building is 
essential to improve effectiveness and to prevent abuses from occurring 
in the first place. U.S. training for Kenyan police officers covers a 
broad range of skills from basic crime scene investigation, to human 
rights awareness, to specialized skills, such as managing a bomb scene 
and conducting maritime operations. Our training, while important, 
reaches only a small percentage of working level police officers. 
Achieving fundamental reform and accountability in the police services 
will require structural changes such as those underway, committed 
leadership and the political will to carry out reform, and continued 
monitoring and support from Kenyan civil society and the international 
community.

                    PARLIAMENT AS ENRICHMENT SCHEME

    Since quadrupling their salaries in 2003 and providing for luxury 
vehicles and residences for themselves, the Members of Parliament have 
repeatedly increased their salaries to rival or exceed most other 
parliamentarians around the world. In a troubling repeat of past 
efforts to enrich sitting Members of Parliament, the National 
Assembly's recent ploy to increase Members' salaries yet again, were 
met with public fury and was withdrawn. Given that Kenya remains a poor 
country with significant internal political and social tension, it is 
incumbent upon the donor community to guard its resources from fueling 
such excess and irresponsibility.

    Question. How does the United States monitor and modify its 
assistance, and how does it condition such assistance on blatant misuse 
of government resources?

    Answer. The oversight of U.S. assistance is a top priority of the 
U.S. Mission in Kenya. As Charge and, if confirmed, as Ambassador I 
want to ensure that U.S. taxpayer funds are used only for their 
intended purposes and in accord with U.S. foreign policy goals in 
Kenya.
    The U.S. Government does not provide direct budget support to the 
Kenyan Parliament; rather we provide assistance through implementing 
partners. For example, our Parliamentary Strengthening Program is 
implemented through the State University of New York (SUNY). We take 
very seriously our role as a steward of U.S. foreign assistance 
funding, particularly in a challenging implementation environment such 
as Kenya, where corruption is pervasive.
    We apply a variety of measures to ensure that our funding is fully 
protected and that we fulfill our fiduciary and oversight 
responsibilities, in line with U.S. Government rules and regulations 
and the expectation of implementation results. These measures include:

  <bullet> Conducting pre-award financial and management assessments to 
        determine an implementing partner's internal control structure 
        and overall ability to effectively manage U.S. Government 
        funds;
  <bullet> Throughout the life of the activity, performing regular 
        field monitoring visits to review the progress of programs and 
        compliance with U.S. Government rules and regulations;
  <bullet> Requiring periodic audits of implementing partners and 
        sharing the audit 
        results with the Regional Inspector General/Pretoria for audits 
        and the Regional Inspector General General/Cairo for 
        investigations;
  <bullet> Carrying out comprehensive risk assessments of Kenya's 
        overall public financial management system and specific 
        government entities to determine opportunities and constraints 
        to moving toward a government-to-government assistance 
        framework;
  <bullet> Structuring the implementation of programs and the flow of 
        funds from the U.S. Government to the Kenyan Government in a 
        manner that minimizes and mitigates fiduciary risk; and
  <bullet> Requiring performance plans with indicators and benchmarks 
        that must be achieved by the implementing partner before we can 
        disburse funds, thereby holding the partner accountable.

    In cases where there have been indications of fraud or lack of 
performance, the U.S. Government has taken actions to recover funding, 
modify procurement instruments, or, as appropriate, terminate 
activities. If confirmed, I will ensure that we continue to exercise 
strong oversight of the use of U.S. taxpayer resources.

    Question. What parliamentary programs provide any assistance to 
National 
Assembly or its Members' offices?

    Answer. The U.S. Government supports Kenya's Parliament through a 
10-year, $9.8 million program scheduled to end in March 2014. The 
program is designed to strengthen Parliament's capacity to perform its 
legislative and oversight role effectively, build the capacity and 
skills of parliamentary committees, and support engagement with civil 
society and public participation in the legislative process.
    The program has produced a number of important results. For 
example, U.S. assistance and training facilitated new House Rules that 
transformed the way Parliament does business by enhancing the 
independence of the legislature, improving Parliament's oversight role, 
and providing greater access for civil society organizations and 
private citizens to their parliamentarians. The program supported 
internships for 100 young professionals, who gained valuable experience 
and provided much-needed assistance to parliamentary committees. The 
U.S. Government supplied television and radio broadcast equipment to 
the Kenyan Parliament in 2009 to support public broadcasting of all 
parliamentary proceedings, and built a media center inside the 
Parliament building so that press conferences could be held in a 
dedicated space. Live audio and television broadcasting of 
parliamentary proceedings is now commonplace and widely followed by the 
Kenyan public.

    Question. What can the United States do to ensure the donor 
community is not fueling such legislative activity and is actively 
countering the tendency to destabilize the environment through such 
budgetary manipulation?

    Answer. Donor coordination is strong in Kenya. The United States 
engages formally and informally with international development partners 
and multilateral institutions to ensure that the international 
community speaks with one voice on key issues and that donor programs 
are fully coordinated.
    The donor community discussed the recent attempt to embed salary 
increases for Members of Parliament within the Finance bill. In light 
of President Kibaki's strong public statement rejecting the proposed 
pay raise, the donor community agreed that public statements on our 
part or confrontation were not warranted. The group agreed that 
bilateral diplomatic engagement with key Kenyan leaders was the best 
strategy to register our concerns about parliamentary salaries and to 
emphasize the need for continued transparency in the budgeting process 
in Kenya. In my role as Charge d'Affaires, I raised with senior 
Government officials and Members of Parliament our very serious 
concerns about the proposed, new pay increase. If confirmed, I will 
continue to stress to Kenyan officials the importance of transparent 
budgeting processes and the need to manage the country's limited 
resources in a responsible and effective manner that benefits all 
Kenyans.

    Question. What organizations does the United States work with to 
empower civil society to build its capacity to hold their government 
accountable?

    Answer. Kenya's new constitution envisions robust and active 
engagement of civil society in public discourse, and facilitating such 
engagement is an essential component of the U.S. Government's 
activities in Kenya. Through direct and indirect assistance to U.S. and 
Kenyan nongovernmental organizations, we work with and support the 
activities of hundreds of civil society organizations in Kenya. Our 
work, which is facilitated primarily through USAID, helps strengthen 
Kenyan civil society's ability to advocate for democratic reforms, 
provide input on key legislation, and hold the government accountable. 
Among the many organizations the United States works with and supports 
are the following:

  <bullet> Well Told Story, Inuka Trust, and the International Rescue 
        Committee, which carry out civic and voter education;
  <bullet> Internews, which is strengthening the capacity of Kenyan 
        media to understand key issues and report objectively;
  <bullet> The Elections Observation Group (ELOG), a consortium of 
        Kenyan nongovernmental organizations that will field more than 
        9,000 elections observers in March 2013;
  <bullet> Mercy Corps, which is helping to strengthen District Peace 
        Committees throughout the Rift Valley; and,
  <bullet> Transparency International, which is promoting 
        accountability and transparency through active citizen 
        engagement.

    Through USAID's Office of Transition Initiatives, we have made more 
than 100 small grants to support the work of individuals and civil 
society at the national and grassroots level to hold the Government of 
Kenya accountable. An important example of this work was the effort to 
return to the public in Kisumu an illegally seized private park. USAID 
support to the Nyanza Youth Coalition engaged thousands of Kisumu 
residents, especially youth, to conduct a non-violent campaign to 
reverse the illegal acquisition. The title for the land has since been 
returned to the city and the park is available for public use. The 
successful campaign sent the government a clear signal that corruption 
and impunity would not be tolerated.

                          TRADE AND INVESTMENT

    Kenya is at the juncture of a critical region as it relates to its 
neighbors and the rest of the continent as well as its ability to 
leverage investment for broader economic growth. U.S. private 
investment interest is significant.

    Question. What role does Kenya play in the massive regional 
infrastructure planning and execution associated with International 
Financial Institution and Multi-Lateral Development Banks?

    Answer. Kenya is the economic and transportation hub of East 
Africa. Its Vision 2030 development plan foresees major infrastructure 
development within Kenya and, through improved road and rail linkages 
to neighboring countries, in support of regional integration and 
economic growth. International Financial Institutions play a key role 
supporting Kenyan and regional infrastructure development plans through 
projects such as the World Bank-funded National Urban Transport 
Improvement Project for Kenya and the African Development Bank-funded 
Power Transmission Improvement Project.

    Question. What if any specific U.S. assistance for Kenya or the 
region is intended to develop the national/regional infrastructure, 
including transport/logistics, energy, etc.

    Answer. Infrastructure development is critical to Kenyan and 
regional economic development. The International Financial Institutions 
such as the World Bank and the African Development Bank, in which the 
United States is a major shareholder, undertake significant 
infrastructure development investment in Kenya. The United States is 
encouraging U.S. private sector investment in infrastructure, including 
through trade missions and dialogue with Kenya and East African 
governments on putting into place the regulations and business climate 
necessary to attract private sector investment in infrastructure. As 
detailed below, the Overseas Private Investment Corporation (OPIC) 
recently made a $310 million financing facility available to support 
geothermal energy development in Kenya. Further, the United States is 
diligent in efforts to ensure that these infrastructure projects are 
environmentally and financially sustainable. In the transport and 
logistics sector, we are supporting efforts in Kenya and the region to 
make procedures at border crossings more efficient and transparent in 
order to facilitate trade and reduce transactions costs.
    In the energy sector, the United States is supporting Kenya's 
efforts to broaden sources of generation, specifically renewables, 
attract private investment, and to extend the grid to the 85 percent of 
the population without electricity. One of our programs has provided 
capacity-building assistance, including advisory assistance for its 
negotiations over the commercial arrangements, to the government-owned 
Kenya Electricity Transmission Company Limited (KETRACO) as it builds a 
new transmission line to move power from the 300-megawatts (MW) Lake 
Turkana Wind Power Project (LTWP) in northwestern Kenya to the 
population centers. Program assistance will facilitate the LTWP in 
generating up to 25 percent of Kenya's electricity needs from renewable 
energy and potentially displace 650,000 tons per year of CO2 
generation.
    Renewable energy, especially geothermal, offers attractive 
investment opportunities for U.S. companies. OPIC recently provided 
$310 million in financing to Nevada-based Ormat Technologies for a two-
phase 52 MW expansion of its existing geothermal powerplant in Kenya. 
Of Kenya's roughly 200 MW of geothermal capacity, 48 MW is produced by 
OrPower4, a subsidiary of Ormat Technologies.
    In the coming days, we expect to sign a Memorandum of Cooperation 
with the Kenya Geothermal Development Company to provide capacity-
building support. In addition, through USAID Development Credit 
Authority (DCS) funding we are promoting lending for small-scale clean 
and renewable energy opportunities.

    Question. What are the goals in terms of Kenya's development and in 
terms of regional development? Please include a timeline and a list of 
associated reports.

    Answer. In recognition of Kenya's critical role in the Horn of 
Africa and in line with the President's new U.S. Strategy Toward Sub-
Saharan Africa, our engagement with Kenya focuses on advancing key 
political and governance reforms through implementation of the new 
constitution and by fighting corruption and impunity, boosting health, 
education, economic growth and food security, and assisting youth 
empowerment. We support Kenyan efforts to strengthen its democracy, 
establish conditions for long-term stability, improve economic and 
social opportunities for all Kenyans, and increase the country's 
capacity to provide basic services for its people.
    U.S. Government foreign assistance goals are fully aligned with the 
Government of Kenya's long-term development goal of transforming the 
country into a middle-income nation by 2030, as foreseen in Kenya's 
Vision 2030 strategy.
    Regional integration is a key issue in Kenya and throughout the 
East Africa Community (EAC). As President Obama's Strategy Toward Sub-
Saharan Africa directs, we are working through various government 
agencies, including USAID, to advance the U.S.-EAC Trade and Investment 
Partnership to promote regional economic growth and integration and 
rising incomes by removing barriers to trade, improving transit 
facilitation, linking producers to markets, encouraging free 
competition, and promoting improved agricultural policies, standards 
and practices. Since 2009, USAID has had a bilateral assistance 
agreement with the EAC Secretariat. To date, the U.S. Government has 
provided almost $10 million directly to the Secretariat to address 
health, trade and investment, agriculture, environment, and climate 
change. The agreement has been extended to 2017, with a new ceiling of 
$18 million that the United States will provide over the next 5 years 
to support regional economic integration.
    On November 30, 2012, as part of the U.S.-EAC Trade and Investment 
Partnership, Acting Secretary of Commerce Dr. Rebecca Blank will launch 
a new EAC-U.S. Commercial Dialogue in Nairobi. The Commercial Dialogue 
will create important new paths for U.S. and EAC governments to jointly 
engage private sector leaders in conversation about both the 
opportunities and challenges that they experience as they do business.

Links to associated reports and timelines: Kenya's Vision 2030:
  http://www.vision2030.go.ke/cms/vds/Popular_Version.pdf.
Foreign Operations Congressional Budget Justification:
  http://www.state.gov/documents/organization/185014.pdf.

                           EMBASSY MANAGEMENT

    It is well understood that the Nairobi mission is the largest in 
Africa in terms of its range of U.S. agencies and offices represented. 
As a regional hub and key partner in peace and security, Kenya provides 
an unrivaled environment for a significant footprint in the region. 
However, there are limits to the efficacy and efficiency of such an 
outsize commitment in such a developing country.
    Question. What are the primary inhibitors to mission size and 
growth as experienced by the mission over the last several years?

    Answer. A lack of office space is the primary constraint to adding 
U.S. and local staff personnel to augment our capacity to carry out our 
mission in Kenya. The Chancery offices have been reconfigured to 
accommodate mission growth over the past few years, but we have reached 
the limit on what we can do to use space efficiently; the space in the 
Chancery is completely filled and there is minimal potential to 
increase space in the USAID Annex.
    As non-State Department agencies have grown in the Embassy, the 
State International Cooperative Shared Services (ICASS) positions that 
are necessary to support them administratively have not increased 
proportionately. This limits the amount of support services that can be 
provided to the Embassy personnel and creates morale issues for them 
and their dependents. Agencies are reluctant to fund additional ICASS 
positions in the current budgetary environment, and the Embassy lacks 
office space for them.
    In addition to physical space and other resource limitations, 
Nairobi remains a critical threat Post for crime and terrorism. The 
mission takes into account the ongoing threat of crime and terrorism as 
it makes decisions about increasing staffing.

    Question. What can be done to mitigate the challenges? Would 
increased operational funding, administrative funding, technical 
assistance, personnel, expertise, physical construction, resolve the 
issues or are there fundamental structural impediments in Kenya?

    Answer. Additional office space is essential to any further 
expansion of Mission Nairobi. A planning effort has been initiated to 
ensure we are making the best possible use of existing space, identify 
future requirements, and develop options for growth, should a decision 
to do so be made. New office space at the mission will almost certainly 
require additional facility funding. With additional space, Mission 
Kenya could grow as necessary to support U.S. Government priorities in 
Kenya and East Africa. Once space issues are resolved, growth in staff 
would require increased operational funding, administrative funding, 
personnel, and training. While there are always going to be challenges 
working in a developing country, with adequate resources these 
challenges are not insurmountable.

    Question. Has or does the mission expect to see deteriorating 
effect due to its size, and if so, would it be in the area of security 
or bilateral cooperation, etc?

    Answer. Our Embassy in Nairobi is currently our largest in Africa. 
Its size is a clear indicator of Kenya's importance to the United 
States and the broad scope of bilateral and regional responsibilities 
assumed by mission personnel. Despite facilities' challenges, we engage 
effectively with our Kenyan and regional counterparts in a secure 
environment.
    Managing an embassy the size of Embassy Nairobi is a significant 
challenge, but it can be done effectively. We must constantly balance a 
range of goals, including ensuring security for our staff while 
maintaining our outreach in Kenya. Mission personnel currently do an 
excellent job of reviewing and anticipating security needs--and making 
adjustments as needed--and are committed to working together to support 
our core U.S. Government objectives.
    If confirmed, I will exercise inclusive leadership and keep open 
lines of communication to all Embassy elements to ensure we maintain 
high standards of security and work seamlessly together to support U.S. 
foreign policy objectives. If confirmed, I will also be committed to 
ensuring that U.S. Government resources are used wisely. I will 
regularly review staffing levels and operating procedures to ensure we 
operate as efficiently and cost-effectively as possible, and will 
request the level of resources necessary to provide appropriate 
administrative support and secure working and living space for all 
Embassy personnel.

    Question. How has State incorporated the experience of the Chief of 
Mission into a ready and useful resource for existing and prospective 
Chiefs of Mission and deputies?

    Answer. New Chiefs of Mission (COM) and deputies have extensive 
consultations and training in Washington (including a 2-week course for 
COMs run by the Foreign Service Institute) before going to post. This 
allows them to talk to experts familiar with all the internal 
challenges a post faces, including personnel, facilities, and country 
infrastructure, as well as experts who can provide a thorough review of 
the substantive issues the new COM and/or deputy will face at post. The 
briefings
cover both current issues as well as lessons learned from previous 
COMs. This allows each COM to develop his or her own game plan and 
discuss issues with their peers before arriving at post. In many cases 
the Deputy Chief of Mission (DCM) who will work with the new Ambassador 
is already at post and he or she will ensure the new COM has a smooth 
transition upon assuming his or her ambassadorial duties.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
